<html>
<title> - JOHNNY CHUNG: HIS UNUSUAL ACCESS TO THE WHITE HOUSE, HIS POLITICAL DONATIONS, AND RELATED MATTERS</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



  JOHNNY CHUNG: HIS UNUSUAL ACCESS TO THE WHITE HOUSE, HIS POLITICAL 
                     DONATIONS, AND RELATED MATTERS

=======================================================================

                                HEARINGS

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM
                             AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                        NOVEMBER 13 AND 14, 1997

                               __________

                           Serial No. 105-69

                               __________

Printed for the use of the Committee on Government Reform and Oversight


45-667              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN SCHIFF, New Mexico            EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
JOE SCARBOROUGH, Florida             DENNIS J. KUCINICH, Ohio
JOHN B. SHADEGG, Arizona             ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           DANNY K. DAVIS, Illinois
MARSHALL ``MARK'' SANFORD, South     JOHN F. TIERNEY, Massachusetts
    Carolina                         JIM TURNER, Texas
JOHN E. SUNUNU, New Hampshire        THOMAS H. ALLEN, Maine
PETE SESSIONS, Texas                 HAROLD E. FORD, Jr., Tennessee
MICHAEL PAPPAS, New Jersey                       ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
ROB PORTMAN, Ohio \1\
DAN MILLER, Florida \2\
                      Kevin Binger, Staff Director
                   Richard D. Bennett, Chief Counsel
         William Moschella, Deputy Counsel and Parliamentarian
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director

----------
\1\ Left the committee on November 13, 1997.
\2\ Joined the committee on November 13, 1997.


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    November 13, 1997............................................     1
    November 14, 1997............................................   877
Statement of:
    Darby, Brooke, former executive assistant to Nancy Soderberg 
      at the National Security Council; and Robert Suettinger, 
      former director of Asian Affairs for the National Security 
      Council, accompanied by Lt. Colonel John Sparks, deputy 
      legal adviser, National Security Council...................   878
    Hernreich, Nancy, Deputy Assistant to the President for 
      Appointments and Scheduling, accompanied by Bob Cearly; 
      Kelly Crawford, former staff assistant to Ms. Hernrich, 
      accompanied by David Wilson; Carol Khare, former assistant 
      to the chairman, Democratic National Committee, accompanied 
      by Evan Werbel.............................................   705
    Williams, Margaret A., accompanied by Ed Dennis, Esq.........    11
Letters, statements, etc., submitted for the record by:
    Barr, Hon. Bob, a Representative in Congress from the State 
      of Georgia, exhibit 195....................................   751
    Bennett, Richard, chief counsel, Committee on Government 
      Reform and Oversight:
        Exhibit 232..............................................    18
        Exhibit 227..............................................    21
        Exhibit 171..............................................    31
        Exhibit 172..............................................    39
        Exhibit 255..............................................    43
        Exhibit 174..............................................    49
        Exhibit 259..............................................    53
        Exhibit 201..............................................    55
        Exhibit 196..............................................   715
        Exhibit 198..............................................   717
        Exhibit 215..............................................   721
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana:
        Exhibit C-82.............................................    83
        Exhibit 191..............................................   748
    Crawford, Kelly, former staff assistant to Ms. Hernrich, 
      deposition of..............................................   760
    Cox, Hon. Christopher, a Representative in Congress from the 
      State of California:
        Exhibit 187..............................................    85
        Exhibit 153..............................................    91
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................     2
    Dennis, Ed, Esq., letter dated March 6, 1997.................   116
    Fattah, Hon. Chaka, a Representative in Congress from the 
      State of Pennsylvania:
        Newspaper articles.......................................   911
        Wall Street Journal article..............................   102
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California:
        Exhibit 240..............................................   741
        Exhibits 204, 205, 206, 207, 208, and 215................   929
    Khare, Carol, former assistant to the chairman, Democratic 
      National Committee, deposition of..........................   812
    Kucinich, Hon. Dennis, a Representative in Congress from the 
      State of Ohio, memo dated April 25, 1997...................   119
    Lantos, Hon. Tom, a Representative in Congress from the State 
      of California:
        Letter dated April 6, 1994...............................    75
        Photographs..............................................    67
    Morris, Richard, deposition of...............................  1048
    Ratliffe, Gina D., deposition of.............................   547
    Rohrbaugh, Robert, senior investigative counsel, Committee on 
      Government Reform and Oversight:
        Exhibit 196..............................................   881
        Exhibit 198..............................................   884
        Exhibit C-79.............................................   886
        Exhibit 250..............................................   889
        Exhibit 175..............................................   894
        Exhibit 251..............................................   897
        Exhibit 252..............................................   899
    Ryan, Evan, deposition of....................................   420
    Sildon, Eric, deposition of..................................  1141
    Swiller, Ari, deposition of..................................   948
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California:
        Final rule, political activities of Federal employees....   135
        Photographs..............................................    63
    Williams, Margaret A.:
        Deposition of............................................   155
        Prepared statement of....................................    14

 
  JOHNNY CHUNG: HIS UNUSUAL ACCESS TO THE WHITE HOUSE, HIS POLITICAL 
                     DONATIONS, AND RELATED MATTERS

                              ----------                              


                      THURSDAY, NOVEMBER 13, 1997

                          House of Representatives,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:15 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Morella, Cox, Ros-
Lehtinen, McHugh, Horn, Mica, Davis of Virginia, McIntosh, 
Souder, Shadegg, Sununu, Pappas, Snowbarger, Barr, Portman, 
Waxman, Lantos, Kanjorski, Sanders, Maloney, Barrett, Norton, 
Fattah, Cummings, Kucinich, Davis of Illinois, Tierney, Allen, 
and Ford.
    Staff present: Kevin Binger, staff director; Richard 
Bennett, chief counsel; Dudly Hodgson, chief investigator; 
Barbara Comstock, chief investigative counsel; Judith McCoy, 
chief clerk; William Moschella, deputy counsel and 
parliamentarian; Teresa Austin, assistant clerk/calendar clerk; 
Will Dwyer, director of communications; Ashley Williams, deputy 
director of communications; Dave Bossie, oversight coordinator; 
Robert Rohrbaugh, James C. Wilson, and Uttam Dhillon, senior 
investigative counsels; Charli Coon, Kristi Remington, Bill 
Hanka, and Jennifer Safavian, investigative counsels; Phil 
Larsen, investigative consultant; Jim Schumann, investigator; 
Robin Butler, office manager; Carolyn Pritts, David Jones, and 
John Mastranadi, investigative staff assistants; Phil Schiliro, 
minority staff director; Phil Barnett, minority chief counsel; 
Kenneth Ballen, minority chief investigative counsel; Agnieszka 
Fryszman, Kristin Amerling, Christopher Lu, Andrew McLaughlin, 
Michael Raphael, Michael Yang, and Michael Yeager, minority 
counsels; Harry Gossett, minority professional staff member; 
Ellen Rayner, minority chief clerk; Jean Gosa and Andrew Su, 
minority staff assistants; and Sheridan Pauker, minority 
research assistant.
    Mr. Burton. Good morning, a quorum being present, the 
Committee on Government Reform and Oversight will come to 
order.
    Before Mr. Waxman and I begin our opening statements, we 
will dispose of some procedural matters. First of all, I ask 
unanimous consent that all Members' statements be included in 
the record.
    And without objection, so ordered.
    [The prepared statement of Hon. Danny K. Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T5667.001
    
    [GRAPHIC] [TIFF OMITTED] T5667.002
    
    Mr. Burton. I ask unanimous consent that all exhibits, 
articles, and extraneous or tabular material referred to during 
this hearing be included in the record.
    Without objection, so ordered.
    I ask unanimous consent that the depositions of Maggie 
Williams, Evan Ryan, and Gina Ratliffe be made a part of the 
record.
    Without objection, so ordered.
    I ask unanimous consent that Members be able to use the 
depositions of Carol Khare and Kelly Crawford in open session.
    Without objection----
    Mr. Waxman. Reserving the right to object, and I will not 
object, but I do want to indicate that it is our desire that 
those three depositions be made public.
    We are withholding a unanimous consent request while our 
lawyers look at those depositions to see if there is any reason 
that they ought not to be made public. I just want to point 
that out. We will hopefully come back to this issue later. I 
withdraw my reservation to the unanimous consent request.
    Mr. Burton. Without objection, so ordered.
    In concurrence with the minority, I ask unanimous consent 
that the Members be able to use the depositions of Ari Swiller, 
Dick Morris and Eric Sildon in open session.
    Without objection, so ordered.
    I ask unanimous consent that the depositions of Carol Khare 
and Kelly Crawford be made a part of the record once they have 
had the opportunity to review their deposition pursuant to 
committee rule No. 20.
    Without objection, so ordered.
    Questioning in the matter under consideration shall proceed 
under clause 2(j)(2) of House rule 11, and committee rule 14, 
in which the chairman and ranking minority member allocate time 
to committee counsel as they deem appropriate for extended 
questioning, not to exceed 60 minutes per panel, equally 
divided between the majority and minority.
    Today, we are going to begin 2 days of hearings regarding 
Johnny Chung, his political donations, and his unusual access 
to the President of the United States.
    Today's hearing will focus on his controversial $50,000 
contribution to the Democratic National Committee in March 
1995, the role of the First Lady's office, his success in 
gaining access to the President for Chinese associates, and his 
involvement in the Harry Wu affair.
    Mr. Chung has been subpoenaed to appear before this 
committee. As everyone knows, he has invoked his fifth 
amendment right against self-incrimination. We are continuing 
to have discussions with his attorney, who has asked that Mr. 
Chung testify in executive session. At this point, it is our 
plan to conduct a deposition with Mr. Chung tomorrow morning 
before making a final determination on that matter.
    These are our first hearings on Johnny Chung. They will not 
be our last. We will not try to answer all of the questions 
that have been raised about him in just 2 days. This is an area 
that we will return to in the coming months.
    Johnny Chung contributed $366,000 to the Democratic 
National Committee. All of that money has been returned because 
of suspicions about its legality.
    While all the answers are not in yet, these suspicions 
appear to be well-founded. In addition to his donations to the 
DNC, this committee has obtained clear-cut evidence that 
employees of Johnny Chung arranged conduit contributions to the 
Clinton/Gore campaign. Committee staff has interviewed three 
individuals in California, who contributed $1,000 each to the 
Clinton/Gore campaign and were reimbursed in cash by an 
employee of Johnny Chung.
    This hearing is not, however, just about Johnny Chung. This 
hearing is about a White House that attracted him like a 
magnet. This is a story about a President who was starved for 
cash and did not mind going all out to get it.
    Johnny Chung wanted to use the White House, and this is a 
White House that was willing to be used.
    In a Los Angeles Times article this summer, Johnny Chung 
said, quote, ``I see the White House is like a subway, you have 
to put in coins to open the gates.''
    Where did he get this impression? It is not hard to figure 
out. This is the same White House where hundreds and hundreds 
of major donors, complete strangers, were invited to sleep over 
in the Lincoln bedroom at the President's directive. This was 
the same White House where over 100 fund-raising coffees were 
held by the President. This was the same White House where 
convicted stock swindlers and drug traffickers found their way 
into intimate gatherings with the President. This was the same 
White House where John Huang and Charlie Trie were roaming the 
hallways with controversial figures like James Riady of 
Indonesia and Ng Lap Seng of Macau.
    Time after time, we are seeing that the President and his 
people were more than happy to be used, as long as the money 
kept flowing in.
    Johnny Chung was described by one National Security Council 
aide as a, quote, ``hustler.'' More and more this description 
appears to fit. To Johnny Chung, the White House and the 
President were promotional tools for his business ventures.
    His promotional booklet for his fax business features no 
less than 12 photos of the President and the First Lady. There 
are another dozen photos of Mr. Chung in various rooms at the 
White House. He was aggressively using this booklet to recruit 
new investors for his company. One California investor was so 
impressed with Mr. Chung and his connections with the President 
that he and his family invested over $900,000 in Johnny Chung's 
company. Within months, he realized he had made a mistake and 
sued to get his money back.
    Johnny Chung was also working very hard to develop business 
ties in China. When the Los Angeles Times asked him about his 
efforts to get Chinese officials in to see the President of the 
United States, he said, ``I am trying to build a new business 
in China, so I am happy to do my best to help.''
    In March 1995, Johnny Chung wanted to get six well-placed 
Chinese nationals into the White House to see the President. He 
went to see Richard Sullivan at the DNC. He offered to make a 
substantial contribution if he could get them in and arrange 
this meeting.
    Mr. Sullivan would not set up the meeting. In his Senate 
deposition, Mr. Sullivan said, ``Johnny Chung had made me 
nervous. Him showing up with these five people from China . . . 
I had a sense that he might be taking money from them and then 
giving it to us, you know. That was my concern.''
    Mr. Chung was not deterred. He went to the First Lady's 
office at the White House. Mr. Chung has said in news 
interviews that the First Lady's Chief of Staff was willing to 
help him, but that she solicited a large contribution from him 
to help pay off the DNC's debts to the White House. Mr. Chung 
said that he readily agreed to donate $50,000. This charge is 
denied by Mrs. Clinton's Chief of Staff, Margaret Williams. We 
will hear testimony from her today.
    Mr. Chung has also stated that he was told that the First 
Lady was aware of his contribution. I will ask the staff at 
this point to play that portion of his interview that Mr. Tom 
Brokaw had with him.
    Would you put that on right now, please? I hope the sound 
system is working.
    [Video tape presentation was shown.]
    Mr. Burton. One by one, Mr. Chung's requests were quickly 
agreed to. It apparently took a flurry of phone calls between 
the White House and the DNC before the final and most important 
request was filled: admission to the President's Saturday 
morning radio address. After interviewing and deposing several 
people over the last 2 weeks, we still do not know who gave the 
final approval for this request. We will ask several of our 
witnesses today who gave the final approval. We need to know 
that. However, it appears that this may remain an even greater 
mystery than who hired Craig Livingstone.
    There are three important questions that we would like to 
try to answer on this issue: First, did the White House staff 
solicit campaign contributions in exchange for official favors? 
Second, why wasn't anyone asked to screen foreign nationals 
being brought into the President, as was done in previous 
administrations? Third, was Mr. Chung's donation itself legal?
    We have 2 days to try to resolve these three questions. We 
will see how far we get.
    I think that it is interesting to note that Richard 
Sullivan, the finance director of the Democrat National 
Committee, would not set up a meeting with the President, 
because he was concerned that Mr. Chung's contributions may 
have come from a foreign source. I will repeat his words once 
again: ``I had a sense that he might be taking money from them, 
(his Chinese associates), and giving it to us.''
    However, when Mr. Chung's $50,000 check came in, it was 
readily accepted, no questions asked. In fact, Mr. Chung 
contributed a total of $190,000 after that date.
    Were Mr. Sullivan's concerns justified? The facts aren't 
all in yet. Mr. Chung's finances are difficult to unravel. 
However, here is what we do know about the $50,000 donation.
    On March 6, Johnny Chung received a $150,000 wire transfer. 
The money came from the Haomen Tangshan Beer Co. in Beijing. 
Mr. Chung escorted the chairman of this company to see 
President Clinton in December 1994. At the time, there was less 
than $20,000 in Mr. Chung's account.
    On March 9, the day of his meeting with Mrs. Clinton, Mr. 
Chung wrote a check to the DNC for $50,000.
    What do these transactions mean? We honestly don't know. 
Was this a conduit contribution? Was this $150,000 legitimate 
income earned by Mr. Chung's business? We don't have the 
answers yet. We hope to ask Mr. Chung these questions tomorrow.
    If nothing else about the way the White House dealt with 
Johnny Chung generates any outrage, the case of Harry Wu 
should. On June 19, 1995, human rights activist Harry Wu was 
arrested in China. He was trying to expose slave labor 
conditions there. This set off a lengthy and very delicate area 
of negotiations to win his release.
    When Johnny Chung met the President in a receiving line at 
a fund-raiser, he informed the President that he was going to 
go to China and try to get Harry Wu released. According to 
Johnny Chung's account, the President urged him to go on.
    Mr. Chung sent a fax to both the White House and the DNC 
stating that he needed a letter of credentials so that the 
Chinese Government would know that he was there on the 
President's behalf. He told the DNC that he was going to meet 
with the President of China.
    This should have set off alarm bells. He should have 
immediately received a call from the White House. He should 
have been told that this was an extremely sensitive situation 
and that it had to be handled by professional diplomats. 
Instead, he apparently got no response from the White House.
    What he did get was a letter of credentials and 
encouragement from the head of the Democrat National Committee, 
Mr. Fowler. The chairman of the DNC was perfectly prepared to 
allow one of his major contributors to go blundering into a 
very delicate situation with God knows what consequences.
    At the same time Mr. Fowler's letter was being prepared, 
another DNC official, Bobby Watson, was calling the White House 
to warn them that Mr. Chung was on his way to China, and that 
he intended to represent to the Chinese Government that he was 
speaking for the President of the United States. In other 
words, they knew that they shouldn't have been doing what they 
were doing, but they did it anyway, and then they tried to 
contain the damage.
    By the time the National Security Council found out about 
this, Mr. Chung was already on his way to China. It was too 
late.
    Far East expert Robert Suettinger stated in a memo to 
Anthony Lake: ``All we can do is hope the Chinese recognize 
Chung's credentials are thin, and that his message should be 
treated with caution. No one in the administration has any idea 
of what he plans to say on the subject of Harry Wu.
    ``In the Harry Wu case, however, he could conceivably do 
damage, depending on what he says and how much credibility he 
carries with Beijing.''
    Mr. Suettinger's comments pretty much say it all. He will 
be testifying tomorrow.
    Was the Clinton White House that desperate to humor Johnny 
Chung and keep the money flowing? A man's life and freedom were 
hanging in the balance. Would no one call Johnny Chung and stop 
him from forging ahead into this explosive situation?
    We have two panels of witnesses over the next 2 days. We 
have serious issues to deal with. We have a lot of ground to 
cover. As I said earlier, we are not going to try to answer all 
of the questions about Johnny Chung and the White House over 
the next 2 days. However, I hope that we will make a dent.
    I look forward to hearing the testimony of Ms. Williams and 
other witnesses today, and I now recognize Mr. Waxman for this 
opening statement.
    Mr. Waxman. Thank you, Mr. Chairman.
    This is not a hearing about economic espionage or foreign 
agents or conspiracies to infiltrate our political system or 
any of the more sensational charges that we heard about earlier 
this year. This is a hearing about campaign contributions and 
access, and that is an important topic, especially if we have 
any genuine interest in reforming our campaign finance system.
    I think Robert Suettinger will testify tomorrow, providing 
the best description of Johnny Chung in a 1995 memo. That memo 
appeared in the New York Times on February 15th, warned that 
Mr. Chung should be treated with a pinch of suspicion. Mr. 
Suettinger wrote, ``My impression is is that he's a hustler and 
appears to be involved in setting up some kind of consulting 
operation.''
    I think that is right. Nothing in the materials that the 
committee has received indicates anything else. Johnny Chung 
was acting in his self-interest to make money. And in doing so, 
he did what thousands of other people do in Washington every 
year. He set out to gain access.
    Now, one of the reasons the public ridicules politicians is 
that in these instances we invariably have selective outrage. 
When Republicans buy or sell access, Democrats howl. When 
Democrats buy or sell access, we have Republican outrage.
    We specialize in self-righteousness and ignore the 
overwhelming reality, and that reality is that money buys 
access. To pretend otherwise is ridiculous.
    I have a page from the Senate Republican Campaign 
committee's 1996 manual. It provides advice on fund-raising to 
Republican candidates, and has a section entitled: ``Why do 
people give money?'' It lists three reasons. One, they know you 
and like you; two, they believe in similar issues, (usually 
small donors); three, to gain access to power.
    So there is no misunderstanding, I am not suggesting that 
only Republicans think this way. There is probably nearly 
identical advice given to the Democrats in our campaign finance 
manuals. Johnny Chung and thousands others fall into category 
No. 3. They are in the business of politics and money brings 
enhanced access.
    I am amazed that anyone would be surprised by this. If Jane 
Smith, just a regular constituent, called any member of this 
committee and asked for a meeting, the answer would probably be 
no. That is a reality of politics. We have too many requests 
and we can't meet with everyone. But if Jane Smith and her 
husband had given $2,000 each and then called our staffs, the 
chances are pretty good that there would be a meeting. And that 
is a cold reality of politics today.
    It may, and I hope it does, bother us. We should find it 
repugnant and we should come clean to the American people and 
admit what they already know is true. In the scheme of things, 
Johnny Chung was not a big player by Washington standards. He 
is dwarfed by the money and access that tobacco companies and 
others like Archer Daniels Midland or Amway enjoy. Nonetheless, 
the record shows Mr. Chung gave hundreds of thousands of 
dollars and then visited the White House over 50 times. He ate 
in the Mess, attended a radio address, sat in the movie 
theater, attended parties, and schmoozed. The only thing it 
seems he didn't do is ask for any policy favors.
    It could be that the White House extends these privileges 
to every American that asks. I am skeptical and find it 
impossible to believe that Mr. Chung would have had the same 
opportunities had he not given campaign contributions.
    Another reality of politics is that this didn't start with 
Johnny Chung. I have an article from May 1, 1992, by Lars-Erik 
Nelson, and that should be of great interest to this committee. 
It was given to me by my Uncle Ben, who was looking through 
some of his papers, and I want to read parts of this article. 
The headline says:

    President Bush and his campaign team recognize dollars, 
ignore donors. Who is that distinguished gentleman sitting at 
the head table with Michael Kojima? Why, yes, it's President 
Bush. And there's Barbara, too. Aren't they lucky to be rubbing 
shoulders with Michael Kojima at this gala President's dinner?
    A better question, of course, is who is Michael Kojima to 
be seated with the President? And the answer to that is, nobody 
has a clue. Kojima simply donated $400,000 to a Republican 
fund-raiser and was made an honored guest.
    He is described as a Los Angeles businessman, but his 
office address is a front, rented space in a law firm where he 
never shows up. His voting address is also a fake; it's his 
wife's business address.
    He shows up in no newspaper clippings. The California 
secretary of state has no listing for his business. California 
politicians, both Democrat and Republican, have never heard of 
him.
    The organizers of the President's dinner, which raised $9 
million for Republican congressional candidates, admit they are 
mystified about Kojima. This is the first time he has appeared 
as a heavy-hitting contributor, and, as GOP spokesman Rich 
Galen explained, you don't cross-examine a guy who writes 
checks with so many zeros after the dollar sign.
    Lots of things stink in your Nation's capital, but this 
President's dinner absolutely reeks.
    One of the cochairmen, James Elliot, is a convicted felon, 
in connection with an S&L racket, who was lobbying for a 
Presidential pardon. He figured selling tickets to the 
President's dinner might help his cause. Surely, it would. If 
he could sell $92,000 worth of tickets, he gets to be 
photographed with the President.
    There is worse, however. According to a suit filed in 
Illinois, Elliot leaned on employees of his company, Cherry 
Payment Systems, to buy $1,500-per-plate tickets to the 
President's dinner if they knew what was good for them. William 
Neiss, an employee who refused, said he was fired as a result.
    President Bush, of course, is horrified that anyone would 
lean on people to support the Republican Party. Bush has been 
in politics for 28 years, but he is like unto a newborn babe 
when it comes to the subject of campaign contributions.
    Also, he has nothing, in principle, against selling access 
to himself. Spokesman Marlin Fitzwater explained: ``It's buying 
access in the system, yes,'' he said. ``That's what the 
political parties and the political operation is all about.''
    Now, you and I were not born yesterday. Certainly it is a 
long-established practice that the extremely wealthy can buy 
their way into the system, buy invitations to state dinners in 
the White House, buy photo opportunities with the President, 
buy a lunch with Vice President Quayle, ($20,000), or even buy 
Ambassadorships, ($100,000).
    Generally, however, the politicians who peddle this access 
know who is buying it. In the case of Kojima, they have no 
idea. They don't know who he is or what he does or where his 
money comes from. He called himself an international business 
consultant, but what could that mean? The Bank of Credit and 
Commerce International was an international business. Manuel 
Noriega was in international business.
    The Secret Service checked only to make sure he posed no 
physical threat to the President. As for embarrassing Bush, the 
Secret Service couldn't care less. ``We don't veto his guest 
list,'' a spokesman said. Oddly, the Republicans don't care who 
Kojima is, either. They just look at the check, cash it, and 
ask him where he wants to sit.
    After 2 days of searching all available records for Michael 
Kojima, all I can tell you about him is this: Whoever he is, 
whatever he does, and whatever he wants out of life, he has 
more access to President Bush than you ever will.

    Well, there it is. Before we had a Clinton administration, 
or any of us had ever heard of Johnny Chung, we had money, 
access, international consultants, coercion to contribute, and 
a willingness to accept money with no questions asked. As Yogi 
Berra once said, it is deja vu all over again.
    Was it wrong that Michael Kojima could work the system so 
that he could sit by President Bush's side? Absolutely. Should 
we be disgusted? Absolutely. Was it wrong that Johnny Chung 
could work the system so that he could be at President 
Clinton's side? Absolutely. Should we be disgusted? Absolutely.
    Mr. Chairman, I know that on many occasions you have said 
that it is not the system that is broken. I think you are dead 
wrong. The system is a farce. Johnny Chung is an equal 
opportunity opportunist. And I want, if we could, to show a 
couple of photos of him.
    We know about him with President Clinton. But he was also 
able to get photographs and access to the Speaker of the House, 
Newt Gingrich. The majority leader, Senator Bob Dole.
    Mr. Chairman, I know you oppose reforms that fundamentally 
change how we finance campaigns and I think you are wrong 
again. The only legitimate purpose our hearings can serve is to 
change the system. If we had public financing, I believe we 
would have a whole lot less of Michael Kojimas and Johnny 
Chungs to worry about.
    One last point. Our first witness today is Maggie Williams 
and she is here voluntarily. She has already been deposed in 
the Senate for 8 hours, and in the House for over 10 hours.
    She now lives in Paris and made a special trip to be here 
today. She worked for the Clinton administration for 4 years. 
No one has produced any evidence that she ever acted illegally 
or unethically, notwithstanding that she has already incurred 
over a quarter of a million dollars in legal fees. I think in 
most cases people don't go into public service for the money. 
But this is ridiculous.
    Ms. Williams, having reviewed your depositions, I think the 
Senate made the right choice by not calling you as a witness. I 
am not sure why you are here, but I want to thank you for 
coming here today and tell you that I look forward to your 
testimony.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Burton. Thank you, Mr. Waxman.
    Ms. Williams, would you rise so that you can be sworn, 
please?
    [Witness sworn.]
    Mr. Burton. Be seated.
    Ms. Williams, on behalf of this committee, we welcome you 
here today. You are recognized for 5 minutes, if you wish to 
make an opening statement. If it is longer than that, we will 
include your entire statement in the record.

 STATEMENT OF MARGARET A. WILLIAMS, ACCOMPANIED BY ED DENNIS, 
                              ESQ.

    Ms. Williams. Thank you. Good morning, Mr. Chairman, Mr. 
Waxman, members of the committee. You have asked me to come 
here today to address you concerning Johnny Chung.
    I will tell you what I know of this matter. There are many 
things that I do not know and will be unable to assist you 
with, but those things that I know about, I am more than happy 
to answer your questions this morning.
    I do not remember the exact circumstances of my first 
introduction to Johnny Chung. I know I met him early in the 
first term of the Clinton administration. I do remember the 
story he told me at our first meeting. He told me that Mrs. 
Clinton's encouragement was important to the success of his 
business. He credited her with his professional achievements 
and told me she remained a significant inspiration in his life.
    His enthusiasm for Mrs. Clinton, I will tell you, bordered 
on the worshipful. Mr. Chung would not and seemingly could not 
stop saying how much he admired her. He was highly emotional 
about his support for her, and I did not doubt his sincerity. 
This initial interaction with Mr. Chung became the context for 
my association with him. At some point, I also learned that he 
was a contributor to the Democratic National Committee.
    As has been reported in the media and recorded in the 
visitor entry records, Johnny Chung came to the buildings in 
the White House complex a number of times. Many of those 
entries were arranged by my assistant, Evan Ryan. Long before 
Mr. Chung requested that he be cleared through my office for 
entry into the White House complex, he routinely would be in 
the Old Executive Office Building and stop by my office which 
housed the First Lady's staff. Our staff office, unlike most of 
the offices in the Old Executive Office Building, kept the 
reception door open. The open door, a rotating picture gallery 
featuring the First Lady busy with her many activities, stacks 
of reprinted speeches available for the taking, and a huge 
cardboard cutout of the First Lady, a favorite site for visitor 
photos, encouraged unscheduled drop-bys from interns, visitors 
with other business in the Old Executive Office Building, 
family members, and friends. The reception area was a welcoming 
place and we made it that way on purpose.
    Mr. Chung visited the First Lady's office in the Old 
Executive Office Building more often than most. Like other 
visitors to our reception area, he typically would spend time 
viewing the pictures, using the phone reserved for guests, 
chatting with anyone and everyone working or passing through 
the front of our office. His many visits and then his constant 
requests later to be cleared into the complex did provoke 
complaints from both my volunteers and my staff. They found his 
visits to be a nuisance. They found his personal manner 
irritating. Indeed, there were times when I walked through 
other offices to avoid running into Mr. Chung when I was 
especially busy.
    Nevertheless, the standard of treatment I demanded for 
Johnny Chung was the same standard of treatment I demanded for 
all of our visitors and supporters who came into the Old 
Executive Office Building. I continued to require that the 
First Lady's staff, whether they wanted to or not, extend every 
courtesy to him. And I instructed my staff to be tolerant of 
both his visits as well as his requests.
    Now, to be honest, any special treatment given to Mr. Chung 
represented my efforts to compensate to some degree for the 
snickers that sometimes occurred during his inartful and 
sometimes confounding use of the English language. He could be 
embarrassingly aggressive. He was like a bull in a China shop 
is, but he was never unkind. He was never rude. He was 
different, it was clear. It was clear to me; it was clear to my 
staff that he was different. He was different socially and 
culturally, and it showed. Sometimes painfully so. And as an 
African American, I can tell you, I know what it means to be 
different in politics in America, and be on the outside of 
things and struggle mightily for insider status and 
recognition. And so I, perhaps, had an especially high 
tolerance for Mr. Chung.
    A prime example of his aggressive and I believe sometimes 
simply misguided behavior was his persistent requests to give 
money directly to Mrs. Clinton. He wanted to demonstrate his 
financial support for her. On more than one occasion I told Mr. 
Chung this was not possible, although his offer was much 
appreciated.
    In response to his requests, I told him he could support 
Mrs. Clinton by supporting the DNC. So when he asked me how can 
I give, how can I show support, I told him support the DNC or 
perhaps give to the Clinton/Gore campaign. Write Mrs. Clinton a 
note and tell her how much you appreciate the work she is doing 
for our country. Help the President and Mrs. Clinton's legal 
defense fund. These were my standard responses to anyone asking 
me how they could help or show their support for the Clintons.
    I do not remember if I ever responded to Mr. Chung's 
requests to give money to Mrs. Clinton by directing him to the 
President and First Lady's legal defense fund, although it is 
likely that I did. I do know that when Lynn Cutler, one of the 
founders of the Back-to-Business Committee, asked if I knew 
Clinton supporters who would be spokespersons or contributors 
to the group, Mr. Chung's name was one of the four or five 
people I recommended that she talk to.
    One day Mr. Chung came to the Old Executive Office 
Building. I believe that either in the reception area of my 
office in the Old Executive Office Building or in the hallway 
leading into the reception area, Mr. Chung pressed me to take a 
check for the DNC. He was both excited and insistent, saying 
words to the effect, ``I give to the DNC through you; I give 
through the First Lady's office.''
    Now, I did not encourage Mr. Chung to believe that 
presenting me or someone in my office with a campaign 
contribution or a DNC contribution would result in any credit 
with me or my office, nor did I encourage him to believe that 
our office was a conduit for campaign contributions of any 
kind.
    And now, in retrospect, after having had depositions of 
nearly 15 hours about this matter, after coming here and 
leaving my new husband in Paris, France, in retrospect, I could 
have been equally insistent, I suppose, that I could have been 
rude and refused to take the check from him. But it made no 
sense to me at that time to do anything than take the check, 
quiet him, shorten our encounter, remain gracious, and get on 
with what I had to do.
    I believe I put the check in my outbox leaving an assistant 
or volunteer to direct it to its appropriate destination, as I 
had done with other checks that my office had received through 
the mail.
    Entry records to the White House complex suggest that Mr. 
Chung had a picture taken with Mrs. Clinton on the same day he 
gave me that check to pass along to the DNC. I did arrange for 
Mr. Chung to use my personal account at the White House 
lunchroom. Possibly more than one time--my personal account, 
the account that I pay for with my own money.
    Both arrangements were the type I had made for others, 
including Members of Congress, members and friends of the 
administration, staff, visitors, and family, on numerous 
occasions. I needed no special motivation to do for Mr. Chung 
what I had done for others.
    [The prepared statement of Ms. Williams follows:]

    [GRAPHIC] [TIFF OMITTED] T5667.003
    
    [GRAPHIC] [TIFF OMITTED] T5667.004
    
    Mr. Burton. Thank you, Ms. Williams. I will now start our 
questioning with Mr. Bennett.
    Mr. Waxman. Mr. Chairman, yes, before you do, I want to 
apologize that I have to go to another committee where they are 
holding a hearing on tobacco. I will return in time to ask some 
questions of you, Ms. Williams.
    Mr. Bennett. Good morning, Ms. Williams.
    Ms. Williams. I'm sorry, I didn't hear your name.
    Mr. Bennett. My name is Dick Bennett. I have been the chief 
counsel for the last 2 months. I don't believe--you did not 
testify before the U.S. Senate.
    Ms. Williams. No, I didn't.
    Mr. Bennett. We felt it was important to have you testify 
here publicly. I thank you for coming and----
    Mr. Burton. Excuse me; could you pull the mic closer to you 
to be sure to hear you.
    Ms. Williams. Certainly.
    Mr. Bennett. For the record, I note that you are 
represented by an old friend of mine, Mr. Ed Dennis from 
Philadelphia. Mr. Dennis, it is nice to see you.
    Ms. Williams, if at any time you need to refer to Mr. 
Dennis, indicate that and I will give you the time. Also, Mr. 
Lanny Breuer from the White House is back. Mr. Breuer, nice to 
see you, and we will not call you forward to testify.
    Mr. Breuer. I appreciate that.
    Ms. Williams. I have one more thing. Could you explain the 
lights?
    Mr. Bennett. The lights. The light is green while I am 
speaking, then it comes to yellow as I begin to--I think it is 
3 minutes left and it will turn yellow. When it hits red, I am 
to stop.
    Ms. Williams. OK.
    Mr. Bennett. And if you see it go red and I am still 
talking, tell me to shut up. You can tell me that if you want.
    Ms. Williams, you served as Chief of Staff to Mrs. Clinton 
from the very first days of the Clinton administration until 
May of this year; is that correct?
    Ms. Williams. Yes, sir, that is correct.
    Mr. Bennett. Were you always the Chief of Staff for Mrs. 
Clinton?
    Ms. Williams. I always felt I was the Chief of Staff.
    Mr. Bennett. And that was your title the entire time you 
were at the White House?
    Ms. Williams. My entire title was Assistant to the 
President and Chief of Staff to Mrs. Clinton.
    Mr. Bennett. I think you indicated in your opening 
statement that Mr. Chung's enthusiasm for Mrs. Clinton bordered 
on the worshipful. I believe that was your word.
    Ms. Williams. Yes, sir, that was my word.
    Mr. Bennett. In fact, Mrs. Clinton had showed some kindness 
to Mr. Chung previously; had she not? I will put on the screen, 
if I can, exhibit 232, a letter of April 26, 1993, and the 
exhibits are
there for you, Ms. Williams, or you can look on the TV screen 
in front of you. It might assist you.
    The letter of April 26, 1993, is a letter to Mr. Chung from 
Mrs. Clinton, and as you can see, that is not just a form 
letter; it is a sincere letter noting personal things in Mr. 
Chung's life, correct?
    [Exhibit 232 follows:]

    [GRAPHIC] [TIFF OMITTED] T5667.005
    
    Ms. Williams. I do not know if it's not a form letter.
    Mr. Bennett. It certainly directs attention to personal 
items in his life; does it not? To your knowledge, she was 
supportive to Mr. Chung and kind to him; wasn't she?
    Ms. Williams. Yes, she was.
    Mr. Bennett. And, indeed, in terms of your opening 
statement where you noted that he visited the office----
    Mr. Lantos. Do you have copies of that letter?
    Mr. Bennett. I believe you do as an exhibit, Congressman 
Waxman. It is exhibit 232 in the exhibit book before you. 
Exhibit 232 in the exhibit book right before you, sir. Letter 
of April 26, 1993.
    Mr. Lantos. May I make an inquiry of counsel?
    Mr. Bennett. You certainly may, sir, yes.
    Mr. Lantos. You are referring to this as a letter 
indicating a personal relationship?
    Mr. Bennett. No, sir, I'm just indicating the kindness that 
Mrs. Clinton showed to Mr. Chung. I am not indicating a deep 
personal relationship between Mrs. Clinton and Mr. Chung, no, 
sir.
    Mr. Lantos. Let me read this letter, to be sure we read the 
same letter:

    Dear Mr. Chung: Thank you for your letter and my apologies 
for not getting back to you sooner.
    It appears from the correspondence you have had with 
federal and state officials, and with the private sector, that 
you are already on the right track. Nevertheless, I wish you 
good look with your innovative systems. Sincerely yours, 
Hillary Rodham Clinton.

    This is about as nonpersonal a letter as I have ever seen.
    Mr. Burton. The counsel has the time.
    Mr. Lantos. I am not trying to impose on his time. But if 
he misrepresents a letter, that needs to be pointed out, Mr. 
Chairman.
    Mr. Burton. Mr. Lantos, you will have time and you can 
point it out when you have the time. Mr. Bennett.
    Mr. Lantos. I think it is relevant to point it out when it 
is raised.
    Mr. Bennett. Ms. Williams, with all due respect to 
Congressman Lantos, you understand my question. I am not asking 
you with respect to that letter that Mr. Chung was a close 
personal friend of Mrs. Clinton. With respect to her reference, 
you're on the right track, I wish you good luck with your 
innovative system, trying to cast that in as neutral a form as 
possible, clearly she was wishing him good luck in some 
venture; isn't that correct from the way you interpret this 
letter?
    Ms. Williams. Yes, she says I wish you good luck.
    Mr. Bennett. And you don't have any particular knowledge of 
how well she knew Mr. Chung in April 1993?
    Ms. Williams. No.
    Mr. Bennett. Do you know whether she knew him in April 
1993?
    Ms. Williams. In April 1993?
    Mr. Bennett. Yes.
    Ms. Williams. I do not know dates. I can't tell you if she 
knew him in April 1993.
    Mr. Bennett. When was the first time--I believe you 
previously indicated to us, and correct me if I am wrong, Ms. 
Williams, that you believe you may have first met Mr. Johnny 
Chung during the campaign of 1992.
    Ms. Williams. No, I first met him early in the Clinton 
administration. So that would have been early 1993.
    Mr. Bennett. And April 1993 being early when you first met 
him, do you know whether or not Mrs. Clinton knew him at that 
time?
    Ms. Williams. The reason why I'm hesitant to respond 
exactly is because I do not know, one, whether or not this is a 
form letter or if I had talked to her in April 1993 about 
knowing Johnny Chung. And, in fact, I actually don't remember 
seeing this letter until sometime in 1997, I believe.
    Mr. Bennett. Well, you indicated that Johnny Chung visited 
the office more than most. In fact, the WAVES records, if we 
can put up exhibit 227, and the chart, page 8 of that exhibit, 
reflects 22 visits to the First Lady's office in just an 11-
month period from March 1995 until February 1996. I think it's 
on the TV screen in front of you, Ms. Williams. Clearly, Mr. 
Chung visited the First Lady's office far more than that. He 
was a constant visitor essentially; wasn't he?
    [Exhibit 227 follows:]

    [GRAPHIC] [TIFF OMITTED] T5667.006
    
    [GRAPHIC] [TIFF OMITTED] T5667.007
    
    [GRAPHIC] [TIFF OMITTED] T5667.008
    
    [GRAPHIC] [TIFF OMITTED] T5667.009
    
    [GRAPHIC] [TIFF OMITTED] T5667.010
    
    [GRAPHIC] [TIFF OMITTED] T5667.011
    
    [GRAPHIC] [TIFF OMITTED] T5667.012
    
    [GRAPHIC] [TIFF OMITTED] T5667.013
    
    [GRAPHIC] [TIFF OMITTED] T5667.014
    
    Ms. Williams. Yes. Yes, as I said in my statement.
    Mr. Bennett. And do you recall a woman named Gina Ratliffe 
who worked in the First Lady's office with you?
    Ms. Williams. Yes, she was an intern.
    Mr. Bennett. Do you recall introducing Mr. Chung to Ms. 
Ratliffe, and I believe she says at pages 34 and 35 of her 
deposition, and the depositions are in front of you, I don't 
think you really need to stop, I will just represent a 
statement she made and I want to know if you concur with that. 
She indicated that you took Mr. Chung to see her and said 
something to the effect, this guy is coming in, he is a big DNC 
donor, his name is Johnny Chung. Do you recall anything to that 
effect?
    Ms. Williams. No, I can't recall why I would introduce 
Johnny Chung to an intern or I wasn't in the habit of making 
introductions for Johnny Chung.
    Mr. Bennett. So you have no recollection of that event?
    Ms. Williams. No, I do not.
    Mr. Bennett. Directing your attention with respect to 
contributions by Mr. Chung, do you have any knowledge of 
contributions by Mr. Chung which would have been made to the 
Democratic National Committee, President Clinton's legal 
defense fund, or his election campaign prior to November 1994?
    Ms. Williams. Prior to November 1994?
    Mr. Bennett. Of 1994.
    Ms. Williams. I wouldn't know that.
    Mr. Bennett. He was, in fact, to your knowledge, a trustee 
of the Democratic National Committee.
    Ms. Williams. I believe that he was a trustee.
    Mr. Bennett. Do you have any personal knowledge of any 
solicitation of Mr. Chung either by the President or the First 
Lady at any time?
    Ms. Williams. No, I do not.
    Mr. Bennett. Do you have any knowledge--prior to February 
1995, do you have any knowledge of any requests made by Mr. 
Chung upon either the President or the First Lady or the 
Democratic National Committee?
    Ms. Williams. Prior to February----
    Mr. Bennett. Prior to February 1995.
    Ms. Williams. No, do I have any knowledge? No.
    Mr. Bennett. Directing your attention to February 1995, you 
did become aware at that time, did you not, that there were 
certain requests that Mr. Chung was making? And to assist you I 
would ask that we put up exhibit 171. And, again, these are in 
the exhibit books for the Members on the table. Exhibit 171 was 
a list Mr. Chung gave to Richard Sullivan of the Democratic 
National Committee indicating that a delegation from China will 
be coming in March and seeking assistance in arranging certain 
benefits.
    Have you seen this document before, Ms. Williams?
    [Exhibit 171 follows:]

    [GRAPHIC] [TIFF OMITTED] T5667.015
    
    [GRAPHIC] [TIFF OMITTED] T5667.016
    
    [GRAPHIC] [TIFF OMITTED] T5667.017
    
    [GRAPHIC] [TIFF OMITTED] T5667.018
    
    [GRAPHIC] [TIFF OMITTED] T5667.019
    
    [GRAPHIC] [TIFF OMITTED] T5667.020
    
    [GRAPHIC] [TIFF OMITTED] T5667.021
    
    Ms. Williams. Only at the time of my depositions.
    Mr. Bennett. In fact, with respect to this request of the 
Democratic National Committee on February 27th, it was followed 
the next day by a request of the White House, and I'd ask to be 
put up exhibit 172. And this was a request to the Visitors 
Office of the White House.
    Can you see that, Ms. Williams?
    [Exhibit 172 follows:]

    [GRAPHIC] [TIFF OMITTED] T5667.022
    
    Ms. Williams. Yes.
    Mr. Bennett. Wherein Mr. Chung references the same trip by 
important and powerful business leaders of China, have you 
previously seen that document?
    Ms. Williams. Only at the time of my deposition.
    Mr. Bennett. Did you have knowledge of essentially what we 
would define as I guess a wish list of Mr. Chung reflected by 
exhibit 171 in terms of certain things he was hoping--certain 
benefits he might receive? Did you have knowledge of his 
request in that regard?
    Ms. Williams. Only knowledge in terms of having seen both 
these letters at my deposition that there existed a wish list.
    Mr. Bennett. At the time, did you have any knowledge in 
February or March 1995, that he wanted to meet the President 
and meet the Vice President and have lunch at the White House 
Mess?
    Ms. Williams. In February, I had no knowledge of what he 
wanted.
    Mr. Bennett. Ultimately by March, then, you did obtain some 
knowledge of some of these requests by Mr. Chung, then; didn't 
you?
    Ms. Williams. Well, not obtain some knowledge. I mean, 
although I have never been certain of the dates or the time, 
but at some point in time, Mr. Chung made a direct request to 
my office for a picture with Mrs. Clinton. I don't know if it 
was the first time or the second time, but I know he'd had many 
pictures with Mrs. Clinton prior to that, and also he made a 
request to use my White House Mess account. So that's when I 
had knowledge of his requests.
    Mr. Bennett. And I'm not asking you to specify a particular 
date, but at some point in time you knew there were certain 
courtesies he wanted to have extended to him, correct?
    Ms. Williams. Well, I believe that in my mind when you talk 
about certain courtesies, he made requests like hundreds of 
other people make requests to have a picture taken with Mrs. 
Clinton. As I said in my deposition, there came a time when he 
made that request to my office and we handled it pretty much in 
the same way that we would handle any other picture request 
coming from anyone, quite frankly.
    Mr. Bennett. Well, actually picking up on the comments made 
by Congressman Waxman--it might set a precedent for majority 
counsel quoting from the minority side--Congressman Waxman made 
an important point I think that clearly there are many, many 
people across the country who would want to come to the White 
House and have their picture taken with the First Lady, and 
clearly Mr. Chung with his access that he had procured in one 
form or another, unlike many, many other people across the 
country, Mr. Chung, in fact, was able to get his picture taken 
with the First Lady; isn't that correct?
    Ms. Williams. That's correct. But if I may take just a 
moment, counsel, to explain a little bit about the White House, 
the First Lady's office's particular process for handling 
picture requests. I think that might shed some light on why we 
did not treat Mr. Chung's request as a particular request.
    Mr. Bennett. If I might, I don't really want to go into 
this point. It's not that I am wanting to cut you off but I 
have a limited amount of time. I am not suggesting any 
impropriety on your part.
    Ms. Williams. But I actually believe that it will shed some 
clarity and I think it is important. I am really hopeful that 
the chairman will give you more time.
    Mr. Bennett. That's fine, go ahead, Ms. Williams, we want 
to hear what you have to say. Go ahead on that one.
    Ms. Williams. Very early on we discovered that the number 
of requests that came for pictures with Mrs. Clinton were huge. 
And these were not just requests from donors, although there 
would be requests from donors, but there would be requests from 
interns, from people who would be visiting the White House on 
that day, and I mean really visiting the White House on that 
day, groups of people who were coming into the White House, and 
we decided that we needed a way to be able to accommodate 
quickly a huge number of pictures and be able to turn around on 
a dime. And so we developed a system within our office by which 
if Mrs. Clinton had an occasion to be leaving the White House 
as she did, to be going somewhere, walking out the door, we 
were sure of two things: she would have a photographer with her 
and she would also have her makeup on. These would be two 
clearly essential things to have in order to have any kind of a 
picture.
    And so because we wanted to accommodate huge numbers of 
pictures, what we could simply do in the morning was to check 
her schedule, see if she was on her way anywhere, and anyone 
who would ask for a picture that day or the previous day could 
get a picture by seeing her on her way out. She would not have 
to spend a long period of time with them, she would take the 
picture, and that way we could accommodate huge numbers of 
people. And so that was the process by which Johnny Chung came 
to get this particular picture.
    Mr. Bennett. And Johnny Chung was clearly at her office 
with such frequency that it wasn't difficult to find a time to 
allow her to see him, I gather.
    Ms. Williams. Quite frankly, it had nothing to do with the 
frequency of Johnny Chung being in her office. If you had 
called me and I knew you and you called me Monday morning and 
you say, listen, Maggie, my mom and dad are in town. What they 
really want is a picture with Mrs. Clinton today. Is that 
possible? I would say, 1 second, Mr. Counselor, let me check 
her schedule today. I see that she's on her way to give a 
speech at the AFL-CIO. I think it's possible. And I would have 
someone clear in your mom and dad and have the picture taken.
    Mr. Bennett. Well, I think under the present circumstances 
I'm not sure I could have my picture taken with Mrs. Clinton, 
but I will certainly ask Mr. Breuer if the occasion arises.
    Directing your attention to March 1995, there were, in 
fact, a series of unpaid bills for collection issued in 
connection with some political activity which had been held at 
the White House; isn't that correct?
    Ms. Williams. Well----
    Mr. Bennett. To assist you, if we could put up exhibit 255, 
and looking at exhibit 255, this is a memorandum which I 
believe you received, Ms. Williams, in March 1995 from the 
Usher's Office in connection with many unpaid bills for 
collection. Included among those bills were receptions in 
connection with the Democratic National Committee.
    And clearly as to those political bills they could not be 
paid out of the normal White House budget so they were bills 
that needed to be paid and needed to be paid by the Democratic 
National Committee; isn't that correct?
    [Exhibit 255 follows:]

    [GRAPHIC] [TIFF OMITTED] T5667.024
    
    [GRAPHIC] [TIFF OMITTED] T5667.025
    
    [GRAPHIC] [TIFF OMITTED] T5667.026
    
    [GRAPHIC] [TIFF OMITTED] T5667.027
    
    Ms. Williams. Yes, sir----
    Mr. Bennett. I think at the bottom of that document----
    Ms. Williams. I'm not quite finished. I'm sorry; I wasn't 
quite finished with my response.
    Mr. Bennett. Go ahead.
    Ms. Williams. I said yes, but one of the things that I 
wanted to make sure was noted was that in addition to the DNC 
bills on here that are unpaid, that there are other 
organizations on this same memo whose bills are not paid, for 
instance, the U.S. Olympic Committee. Here there's a mother's 
day health care event with a different sponsor. I will agree 
that the majority of the bills listed here have to do with the 
DNC.
    You'll also notice that there are a number of bills--a 
number of items or entries on this list where no bill has been 
submitted at all to the DNC. And so what we have is not just a 
list of DNC bills unpaid, but a list of bills that were unpaid 
from a number of different organizations, including the DNC.
    Mr. Bennett. And so we are clear, in fairness to you, Ms. 
Williams, I'm not suggesting that all the items on that 
exhibit--those two pages are bills that cannot be paid out of 
the White House budget, but clearly there are some that could 
not be paid and had to be paid by the Democratic National 
Committee, that was my point.
    Ms. Williams. Actually, there is a big confusion on that 
point because----
    Mr. Bennett. If I could at least reference the document--I 
am not trying to cut you off, but I am looking at the time on 
this and I'm looking at the bottom of the document before you 
on the screen which indicates particularly there is certainly 
over $135,000, which is to be paid by the DNC. Do you see that 
entry there?
    Ms. Williams. I do, but once again, I'm going to have to 
interrupt you because I want there to be some clarity about 
what this document actually represents.
    Mr. Bennett. Absolutely. Go right ahead.
    Ms. Williams. These bills are not bills that would have 
been paid out of any White House budget whatsoever. I believe 
what you said in your earlier statement that, of course, these 
bills would not be paid out of the White House budget. No. No 
bill listed here would have been paid.
    The point I was simply trying to make is that this is not a 
document that says the DNC has unpaid bills. It does say that, 
but in addition what it says is that the U.S. Olympic Committee 
has unpaid bills. It says that another organization has unpaid 
bills. That there are people who come and use the White House, 
the Kennedy Center, all kinds--in fact, there are very few 
events that are actually paid for by the official White House 
budget. In fact, most of them are paid for by the DNC or a 
sponsoring organization. Only the congressional Christmas party 
is paid for out of the official White House budget, in fact. So 
I just wanted to be clear that this represents a number of 
organizations who owed money.
    Mr. Bennett. I understand.
    Ms. Williams. OK.
    Mr. Bennett. With respect to this indebtedness, you were 
here and saw the tape of the interview with Mr. Chung by Tom 
Brokaw played by the chairman; did you not? You saw the tape we 
played today of the Tom Brokaw interview?
    Ms. Williams. Yes.
    Mr. Bennett. Had you seen that interview before?
    Ms. Williams. No, I had not.
    Mr. Bennett. With respect to the contention of Mr. Chung 
that essentially someone urged him to make a $50,000 
contribution to deal with this kind of debt, did you, Ms. 
Williams, ever specifically solicit $50,000 of Mr. Chung to 
assist in the repayment of some of this money to the Democratic 
National Committee to pay some of these debts?
    Ms. Williams. No, I did not. As I said in response to Mr. 
Chung asking how can I help Mrs. Clinton, or I would like to 
give money directly to Mrs. Clinton, I did say, support the 
DNC, support these other organizations, so I had said that to 
him, yes.
    Mr. Bennett. Do you have any knowledge--I believe Evan Ryan 
was your assistant?
    Ms. Williams. That's correct.
    Mr. Bennett. And for the record, Mr. Chairman, Mrs. Ryan is 
presently out of the country and traveling with the First Lady 
and was unable to be here today and perhaps can appear at a 
later date.
    Do you have any knowledge of Ms. Evan Ryan ever mentioning 
to Mr. Chung that he could make a $50,000 contribution in order 
to cover some of this debt?
    Ms. Williams. No, I have no knowledge of that.
    Mr. Bennett. And then showing you exhibit 174, that, in 
fact, is the $50,000 check to the DNC. Did you, in fact, look 
at that check when you received it in your office, Ms. 
Williams?
    [Exhibit 174 follows:]

    [GRAPHIC] [TIFF OMITTED] T5667.030
    
    Ms. Williams. No, my----
    Mr. Bennett. Do you know how much the check was for?
    Ms. Williams. No, I did not.
    Mr. Bennett. And exactly how was the check handed to you?
    Ms. Williams. As I--let me just refer to my statement.
    Mr. Bennett. Certainly.
    Ms. Williams. As I--again, Mr. Chung came to the Old 
Executive Office Building. I'm not certain where, but either in 
the reception area of my office or it could have been in the 
hallway in front of my office he handed the check to me. I was 
either coming or going some place is what I recall.
    Mr. Bennett. Ms. Williams, I'm going to play you a tape, if 
I can, Mr. Chairman, of the testimony of Richard Sullivan 
before the Senate. Do you know Richard Sullivan?
    Ms. Williams. I've met Richard Sullivan. I don't know him 
well.
    Mr. Bennett. He's an official with the Democratic National 
Committee. Did you have a chance to hear his Senate testimony?
    Ms. Williams. No.
    Mr. Bennett. Ms. Williams, I will just play a brief portion 
of this, Mr. Chairman.
    [Video tape presentation was shown.]
    Mr. Bennett. Did Mr. Sullivan ever indicate such concerns 
to you?
    Ms. Williams. No, he did not.
    Mr. Bennett. Let me ask you this: How would Johnny Chung in 
the statement he made to Tom Brokaw, in the discussion about 
holiday bills, bills that were owed, helping out paying bills, 
how would Johnny Chung know that there was money owed, that 
there were debts that someone needed help paying bills unless 
someone from your staff told him?
    Ms. Williams. Well, I believe you'd have the opportunity to 
ask him that tomorrow.
    Mr. Bennett. And hopefully he will answer, but I'm asking 
you. Do you have any explanation as to how he would know of 
these debts and these problems and trying to pay bills?
    Ms. Williams. No.
    Mr. Bennett. And how he would come up with the figure of 
$50,000 and have any knowledge of this? Do you personally have 
any knowledge of how he would know?
    Ms. Williams. No, I do not. No.
    Mr. Bennett. And you yourself didn't speak with him about 
these bills?
    Ms. Williams. No, I cannot recall a time that I did.
    Mr. Bennett. And you don't have any personal knowledge 
yourself of any member of your staff speaking with him; is that 
correct?
    Ms. Williams. I have no personal knowledge of that.
    Mr. Bennett. That is to say you don't deny that he may or 
may not, you just don't have any personal knowledge of that?
    Ms. Williams. I have no personal knowledge of that. I don't 
quite----
    Mr. Bennett. Looking at exhibit 171 just very quickly 
again, if we can.
    [Note.--Exhibit 171 may be found on pp. 31 to 37.]
    Ms. Williams. I'm sorry.
    Mr. Bennett. Go ahead.
    Ms. Williams. I think I maybe missed something in that 
question.
    Mr. Bennett. What I'm trying to clarify is, I understand 
that you have testified that you did not speak with Mr. Chung 
about these debts, that you did not solicit $50,000 from him. 
My question to you was how he would know----
    Ms. Williams. Right.
    Mr. Bennett [continuing]. Of these debts, and my question 
was as to members of your staff, you have testified that you 
have no personal knowledge one way or the other whether or not 
they solicited him. You just don't know essentially.
    Ms. Williams. Right. I thought that's what I said. I didn't 
understand the question.
    Mr. Bennett. With respect to exhibit 171, the wish list, 
ultimately, many of the items on this wish list were satisfied; 
weren't they? In fact, I think essentially all of them, other 
than meeting with the Vice President, were ultimately 
satisfied; weren't they? He did get to meet with President 
Clinton? He did have lunch in the White House Mess, going down 
that list, to your knowledge; isn't that correct?
    Ms. Williams. Oh, yes, I know he had lunch in the White 
House Mess.
    Mr. Bennett. Let me go into again in terms of certain 
matters in terms of followup and cover a couple of points 
within the time allowed here.
    Mrs. Ryan is presently out of the country, as I said, Ms. 
Williams, but her deposition transcript is before you, and 
referencing pages 110 to 112, if you will take a minute to look 
at that.
    Ms. Williams. OK.
    Mr. Bennett. And it is also available for Members of the 
minority. Mrs. Ryan has testified that when she told you that 
Mr. Chung was in the office, and he had some businessmen from 
China and wanted these various perks, she has testified that 
she also told you that he was going to be donating money to the 
DNC, and Mrs. Ryan describes your response as follows, and it's 
page 110 of her deposition: ``Her response was we could see, 
you know, we'd see if we could set those things up for him and 
that was helpful to know about his donation because then maybe 
that would enable the DNC to pay off some of their debts.''
    Do you see that testimony of Mrs. Ryan in her deposition, 
Ms. Williams?
    Ms. Williams. Yes, I do.
    Mr. Bennett. Do you ever recall saying that to Evan Ryan, 
specific reference to paying off the debts and seeking money 
from Mr. Chung?
    Ms. Williams. No, I did not. Mrs. Ryan knew, as did other 
people in my office, that the DNC along with other 
organizations had outstanding debts. That wasn't a secret. But 
I don't recall discussing it with Ms. Ryan in relationship to 
Mr. Chung specifically.
    Mr. Bennett. Mr. Chairman, I know that the red light has 
lit but I believe that the witness indicated at one point in 
time that I gave her some more time and she asked if you would 
give me some time.
    Mr. Burton. Yes, Mr. Lantos--there were interruptions, so 
we will allow a little more time.
    Mr. Bennett. Thank you. If I could have 5 more minutes, Mr. 
Chairman.
    One other thing, Ms. Williams, I meant to ask you, the 
interview with Tom Brokaw, Mr. Chung stated that he was told by 
Mrs. Ryan that Mrs. Clinton knew of this $50,000 donation. 
That's what he says on the tape. Do you know whether Mrs. 
Clinton knew of this donation?
    Ms. Williams. I didn't tell her. I don't know why she would 
know.
    Mr. Bennett. To your knowledge--you have no knowledge one 
way or another. You did not speak with Mrs. Clinton about the 
donation?
    Ms. Williams. No, I did not.
    Mr. Bennett. With respect to followup by Mr. Chung 
ultimately, exhibit 259, if I can, exhibit 259 before you is, I 
think, Mr. Chung contacting you concerning procuring these 
photographs, do you see that, Ms. Williams?
    [Exhibit 259 follows:]

    [GRAPHIC] [TIFF OMITTED] T5667.031
    
    Ms. Williams. I can't see it but I'm familiar with the----
    Mr. Bennett. Mr. Dennis is putting it before you with the 
exhibit book as well as the TV screen. Ultimately, these 
photographs were sent to Mr. Chung, and just quickly, exhibit 
201 is not your direct response to that, but it's the response 
of Ms. Carol Khare of the Democratic National Committee, who is 
going to testify before this committee later this afternoon, 
indicating that photographs were, in fact, forwarded. 
Ultimately, Mr. Chung got his pictures with the First Lady to 
your knowledge, correct?
    [Exhibit 201 follows:]

    [GRAPHIC] [TIFF OMITTED] T5667.032
    
    Ms. Williams. Yes, the pictures with the First Lady, I 
didn't send them directly, but I'm sure that our office process 
worked and he got pictures with the First Lady.
    Mr. Bennett. But ultimately there were questions and 
problems with respect to the matter of Mr. Chung's photograph 
with the President and the individuals he'd taken into the Oval 
Office; weren't there?
    Ms. Williams. There seems to have been, yes.
    Mr. Bennett. What involvement did you have with respect to 
those problems as to the picture of Mr. Chung with the 
President and his six guests to the Oval Office?
    Ms. Williams. I saw his letter at my--one of my 
depositions. So I don't remember seeing this letter but I may 
have been called by Johnny Chung or Evan Ryan may have told me 
there were problems with Mr. Chung receiving his pictures from 
the President and was there anything that I could do to help 
get his pictures.
    Mr. Bennett. Do you know Ms. Nancy Hernreich?
    Ms. Williams. Yes, I do.
    Mr. Bennett. And who is she?
    Ms. Williams. She is the President's Assistant.
    Mr. Bennett. And she, in fact, will testify this afternoon, 
and also Ms. Kelly Crawford--who is Ms. Crawford? Do you know 
Kelly Crawford?
    Ms. Williams. Hillary Crawford?
    Mr. Bennett. Kelly Crawford.
    Ms. Williams. Yes.
    Mr. Bennett. And she at one time worked at the White House?
    Ms. Williams. Yes, she did.
    Mr. Bennett. Did you have any discussions with either of 
them about the comments they had with the President concerning 
his concern about the photographs?
    Ms. Williams. No, not that I recall.
    Mr. Bennett. With respect to Ms. Gina Ratliffe, she at one 
point in time ultimately worked for Mr. Chung; didn't she?
    Ms. Williams. That's correct.
    Mr. Bennett. And at the same time she was working for Mr. 
Chung she was still volunteering at the White House?
    Ms. Williams. No, I don't believe so.
    Mr. Bennett. At any point in time did Ms. Ratliffe work 
both for Mr. Chung and at the White House, to your knowledge?
    Ms. Williams. No, not to my knowledge, no.
    Mr. Bennett. Did you arrange for her to get a position with 
Mr. Chung?
    Ms. Williams. No.
    Mr. Bennett. Ultimately she was employed by him?
    Ms. Williams. Yes, I understand she had taken a job with 
him.
    Mr. Bennett. Was that after she was employed by the First 
Lady?
    Ms. Williams. Well, I don't believe she was ever employed 
by the First Lady. She was an intern and then a volunteer.
    Mr. Bennett. And did she go from being an intern and a 
volunteer, to your knowledge, to an employee of Mr. Chung?
    Ms. Williams. Go from being an intern?
    Mr. Bennett. Chronologically in terms of what she was 
doing.
    Ms. Williams. Oh, I do not know if there was a period in 
between when she left our office and went to work for Mr. Chung 
or if there was no period in between, I just don't know.
    Mr. Bennett. But your testimony is that she was never 
volunteering at the White House at the same time she was 
working and being paid by Mr. Chung?
    Ms. Williams. Not to my knowledge, no.
    Mr. Bennett. Ms. Williams--and I will wind up with this, 
Mr. Chairman--do you have any personal knowledge either 
directly speaking with the President or in speaking with other 
members of the staff at the White House, of President Clinton's 
concerns when he learned of the release of the photographs of 
him with Mr. Chung and the delegation from China?
    Ms. Williams. I have no personal knowledge.
    Mr. Bennett. Did you hear of those concerns at the White 
House?
    Ms. Williams. I knew that there was some concern about the 
pictures, but I don't know where that concern emanated from, 
whether it was from the President or someone else.
    Mr. Bennett. Mr. Chairman, it is probably appropriate for 
me to stop and I will conclude my examination. Thank you very 
much.
    Just one followup question. Ms. Williams, did Mrs. Clinton 
have knowledge--did Mrs. Clinton have knowledge of Ms. Ryan 
ultimately going to work for Mr. Chung?
    Ms. Williams. Ms. Ryan? I think you mean Ms. Ratliffe.
    Mr. Bennett. Excuse me, I misspoke. Did you ever speak with 
Mrs. Clinton about Gina Ratliffe going from being an intern on 
her staff to going to work with Mr. Chung?
    Ms. Williams. No, there would be no reason. She was an 
intern, a volunteer.
    Mr. Bennett. Do you have any knowledge whether or not Mrs. 
Clinton knew that Ms. Ratliffe went from the staff of the First 
Lady to go to work for Mr. Chung?
    Ms. Williams. No, I have no knowledge if she did.
    Mr. Bennett. I have no further questions, Mr. Chairman, and 
thank you, Mr. Chairman, for allowing me to exceed my time. 
Thank you, Ms. Williams.
    Mr. Burton. The gentleman's time has expired. Would the 
minority like to have us go vote and come back?
    Mr. Waxman. Mr. Chairman, yes, I think it would be 
appropriate for us to vote and come back, but I do want to 
point out that the issue on the House floor, as soon as the 
vote is completed, will be a matter that affects this 
committee: the Republican leadership has requested a rules 
change to allow this committee to have eight subcommittees, 
which is quite unheard of and in our view a real waste of 
taxpayers' money. So if the chairman would permit, we ought to 
give some of us time to make a statement on the floor before we 
reconvene.
    Mr. Burton. That would be fine with me. The problem is I 
don't want to impose on Ms. Williams' time unduly. Could we 
have some of the Members come back and go ahead?
    Mr. Waxman. I think it wouldn't last more than 5 or 10 
minutes for some of us to make our statements.
    Mr. Burton. Why don't we do this. Ms. Williams, would you 
like to get a sandwich or something while we are down there 
debating another issue?
    Ms. Williams. No, but I will be OK.
    Mr. Burton. Why don't we plan to return as quickly as 
possible. The committee will stand in recess until the fall of 
the gavel.
    [Recess.]
    Mr. Burton. The committee will come to order.
    Did you have a chance to get something to eat, Ms. 
Williams, or can I call you Maggie?
    Ms. Williams. You can call me Maggie.
    Mr. Burton. You haven't had lunch?
    Ms. Williams. I am waiting until after this to have dinner.
    Mr. Burton. You might be very hungry.
    Ms. Williams. I'm sure.
    Mr. Burton. Mr. Waxman, you are recognized for 30 minutes.
    Mr. Waxman. Ms. Williams, I want to thank you for being 
here. I think it has been an extraordinary measure of 
cooperation for you to come. And as you can tell from my 
opening remarks, I think Johnny Chung's experience is a classic 
example of why we need campaign finance reform. He gave a lot 
of money to the DNC, about $400,000, and he got a lot of access 
to the White House, over 50 visits. His story paints a pretty 
depressing picture, in my view. It is hard to see how any 
member of the public could pay attention to the Johnny Chung 
story and not be discouraged about the health of our political 
system. To put it simply, his story presents the appearance 
that campaign contributions could result in remarkable access 
to the White House.
    Now, I understand you may have a different interpretation 
than I do, and I want to ask you about this. Johnny Chung 
visited the White House 50 times. He was allowed to bring his 
business associates into the White House on more than one 
occasion. He went to several White House Christmas parties. He 
had numerous photos taken with the President and the First 
Lady. He attended a radio address. He got to eat at the White 
House Mess on several occasions. He even got appointed to the 
U.S. delegation to a Commerce Department trade forum.
    Ms. Williams, how do you explain how someone like Johnny 
Chung got this extraordinary access?
    Ms. Williams. Congressman, as I said at the beginning of 
this hearing, I would talk to you about what it is that I know. 
I certainly know how he got a picture with Mrs. Clinton, which 
I talked to you about. I certainly know how he got to go into 
the White House lunchroom, that he ate on my account. I am 
clear about that. I did not know about the trade commission. I 
did not know about several other instances.
    Mr. Waxman. But about those issues that you do know about.
    Ms. Williams. Right.
    Mr. Waxman. How is it that this fellow got such good 
treatment?
    Ms. Williams. Well, I'm going to say two things to you. I 
am not naive in terms of treatment of donors, but I will say 
another thing to you which I don't think gives the American 
people a lot of hope, because one of the things that makes me 
exceedingly sad is that people watch these hearings, and they 
think that as between the U.S. Congress and the White House 
there is not one good soul among us.
    And one of the things that I want to say is that there were 
a lot of people working at the White House, not only to ensure 
that people like Johnny Chung, who was a donor and a supporter 
of the Clintons, was able to come in, but that millions of 
Americans were able to come in.
    And I happen to be in an office in a situation working for 
a woman who's graciousness, I think, is probably typified by 
the fact that when she was called a horrible name on national 
television by the mother of the Speaker of the House, what she 
decided to do was to invite her to tea. Now that sounds a 
little crazy, a little offbeat, but that was a model of 
graciousness that we had in the White House. And what I am 
telling you today, although I do know that certain people in 
the White House, outside of the White House, pay special 
attention to people who give the money, there are also people 
in the White House who pay special attention to people just 
because they are people. And if we could give more access to 
the public to the White House, we would do it.
    There are security concerns, for one. But quite frankly, in 
the time that I have been at the White House, nearly a million 
and a half people go through the doors of the White House. In 
addition to the regular tour, there is also a special tour for 
people who need something more. Even the Congress has a right 
to have constituents that they choose who might be donors, who 
might just be friends and families, to have a special tour of 
the White House. So we have tried very hard to give access to a 
lot of people.
    Mr. Waxman. I guess the only point I am making and I don't 
dispute what you are saying because I know the First Lady is a 
very gracious person and this White House has tried to be as 
open as possible. But it's hard for me to believe that ordinary 
people would get the kind of treatment that a Johnny Chung got. 
We have a campaign finance system where good people in public 
office try to think about how much an individual may contribute 
or how much they have already contributed when they think about 
giving scarce resources--like their time and access--to those 
contributors.
    I'd like to focus for a moment on Mr. Chung's visits. Was 
there a typical visit? What did Mr. Chung do on a typical 
visit, if there was one?
    Ms. Williams. Well, I wasn't always present when he would 
make a typical visit to the White House. And I really don't 
know--according to the records, I'm told that he came to the 
First Lady's office, was cleared in by the First Lady's office, 
which is to say he was outside of the doors and we made 
arrangements for him to come in about 20 or 21 times. Somewhere 
around that number.
    And that the other times that he was cleared into the White 
House, he was cleared in by another office, none of which at 
the time I knew about, but I did know from the people who 
worked at our reception office that he would drop by our 
office. And typically what he would do would be to use the 
phone, tell people his story of meeting with Mrs. Clinton, and 
what it has done for his life, and he would mostly sit and chat 
and wait to see if I would come out of the office so he could 
talk to me or talk to anyone else. That was his typical visit.
    Mr. Waxman. Did he meet with Mrs. Clinton often?
    Ms. Williams. Meet with Mrs. Clinton? No, actually I think 
he only saw her in receiving lines at these large events. As I 
said, the one picture that I know that I arranged for was a 
picture. He never in any of his visits asked for a meeting with 
Mrs. Clinton, a substantive meeting with Mrs. Clinton. He never 
talked to me about policy. He never talked to me about his 
business concerns, so I did not have a sense that what he was 
doing in our office was business. And, in fact, there were only 
two occasions that I can remember him ever being with other 
people when I saw him.
    One, he had a group of people and he introduced them to me. 
They did not speak English, and they all bowed to me, and I 
bowed back to them. And so that particular group of people 
stands out in my mind.
    On another occasion, I believe that he brought two or three 
people who worked for him. Other than that, I have no knowledge 
of who else he brought into the White House.
    Mr. Waxman. To your knowledge, did he ever comment, 
advocating any official business, advocating a position, policy 
position or asking for any official business with the White 
House?
    Ms. Williams. Never--not to my knowledge, no.
    Mr. Waxman. Now, in March 1995, Mr. Chung met with you and 
in the First Lady's office and gave you a $50,000 check for the 
DNC. The key question here is whether you solicited this 
contribution. Did you?
    Ms. Williams. No, I did not, as I said in my testimony, on 
many occasions he had asked to give money to Mrs. Clinton 
personally. He wanted to help her personally, he would say. I 
want to give to her personally, and I said you should give to 
the DNC or give to the campaign or any of the other entities 
that were available.
    Mr. Waxman. Did you or anyone in your office ever solicit 
any contribution from him, ask him to give a dollar amount?
    Ms. Williams. No, not to my knowledge, not at all.
    Mr. Waxman. What happened when Mr. Chung tried to give you 
this check?
    Ms. Williams. Well, it was only, as I recall, the whole 
incident--incident, a few minutes, if not a few seconds. I 
remember him being much more excited than normal and that, in 
fact, he had in his hand something and kept saying, ``You take; 
you take.'' And I was saying, Johnny, you can't give, once 
again as I recall, you can't give anything to Mrs. Clinton 
because he said, ``You take, you take, it's DNC. I give to the 
DNC through you. I give.'' And he was--once again, not unkind 
and not rude, but certainly in my face a little bit.
    Mr. Waxman. So he insisted on giving it. Was it an envelope 
or a check?
    Ms. Williams. I really don't recall. I mean----
    Mr. Waxman. Did you know how much money the check was for?
    Ms. Williams. No, I didn't even--I mean, the thing that is 
most memorable about that event for me is not even the check 
itself, it's kind of his behavior at that time.
    Mr. Waxman. After he gave you the check what did you do 
with it?
    Ms. Williams. I believe I threw it in my outbox.
    Mr. Waxman. And then what happened?
    Ms. Williams. Well, other checks come through the mail to 
the First Lady's office. And generally, if I get them, I put 
them in my outbox where a volunteer or my assistant will direct 
them to the appropriate entity.
    Mr. Waxman. So it was then put in your outbox to mail to 
the DNC.
    Ms. Williams. Yeah, to send it wherever it belongs.
    Mr. Waxman. Mr. Bennett has already mentioned a February 
27, 1995, letter that Mr. Chung wrote to Richard Sullivan of 
the DNC. The document is Bates Stamped DNC 3233326. I think you 
have that letter.
    Mr. Dennis. What is the exhibit number, Congressman Waxman?
    Mr. Waxman. Exhibit 171.
    Ms. Williams. The letter to Richard Sullivan?
    Mr. Waxman. Yes, this letter describes Mr. Chung's plans 
for bringing a Chinese delegation to Washington. Did Mr. Chung 
also write to you about this visit?
    Ms. Williams. No, he did not.
    Mr. Waxman. Did you have any knowledge about his agenda, 
which included meetings with the President, tours of the White 
House, before he met with him in March?
    Ms. Williams. No.
    Mr. Waxman. I want to turn to another issue that has 
received a lot of attention. Mr. Chung and his delegation 
attended one of the President's radio addresses during the 
March visit. Are the invitations for these broadcasts 
coordinated by one person in the President's office?
    Ms. Williams. I really couldn't tell you if they were 
coordinated by one person.
    Mr. Waxman. OK. Did you assist Mr. Chung in any way in 
obtaining an invitation to that March 11, 1995, radio address 
and did you instruct anyone on your staff to do so?
    Ms. Williams. No, it's not my recollection I helped him 
with the picture and----
    Mr. Waxman. The picture is afterwards?
    Ms. Williams. No, I helped him with a picture for Mrs. 
Clinton, and----
    Mr. Waxman. But not on the radio?
    Ms. Williams. No not on the radio.
    Mr. Waxman. In this context, did you mention to anyone in 
the President's office or the DNC that Mr. Chung had made a 
contribution to the DNC?
    Ms. Williams. No, I did not.
    Mr. Waxman. Did you do anything, no matter how 
insignificant, to help with this matter?
    Ms. Williams. No, not that I recall, nothing.
    Mr. Waxman. Let me ask you a more general question. Did you 
ever help anyone else obtain an invitation to the President's 
radio address?
    Ms. Williams. One, person, yes.
    Mr. Waxman. And who was that?
    Ms. Williams. A person by the name of Ceandra Scott who was 
an assistant to the chairman of the DNC. Her parents--I don't 
remember if it was her parents or her grandparents were in town 
and she really wanted them to go to the radio address.
    Mr. Waxman. I want to make sure I understand your testimony 
on two key points. First, you never solicited a contribution 
from Mr. Chung, and two, you had no role in assisting with his 
attendance at the President's radio address; is that correct?
    Ms. Williams. That's correct.
    Mr. Waxman. Mr. Chairman, what confuses me about today's 
hearing is that Ms. Williams had to travel all the way from 
Europe to be here today. She was already deposed by us for over 
10 hours; by the Senate for 8 hours. By the end of the day 
today it will be a long full day, and on the key points she has 
testified repeatedly under oath that she didn't solicit Mr. 
Chung's contribution.
    If she didn't solicit the contribution, there is no 
illegality. Then the question becomes, I suppose, whether Mr. 
Chung's access creates an appearance of impropriety. That is a 
much larger issue that really goes to the heart of our campaign 
finance system, and it seems to me that if we were going to 
focus on that, we should be at least willing to look at some of 
the big fish.
    Ms. Williams, are you familiar with a man by the name of 
Duane Andreas of the Archer Daniels Midland Co.?
    Ms. Williams. I've certainly heard his name.
    Mr. Waxman. I ask because I find it odd that we are holding 
a hearing on money and access without any mention of Mr. 
Andreas and his company. Here is an individual whose generosity 
to both parties, Republicans and Democrats, is legendary. As 
you may know, he was a supporter of President Clinton, but he 
was also a contributor to Senator Dole.
    In fact, I have a series of photos starting with Mr. 
Andreas and President Truman. Then we have Mr. Andreas with 
President Kennedy and we also have Mr. Andreas with President 
Reagan and that photo is now being shown.
    Mr. Andreas and his company gave over $450,000 to Senator 
Dole; $70,000 to Speaker Gingrich and his PAC and $100,000 to 
the DNC at one fund-raiser alone. He's given to almost every 
major Presidential candidate since Richard Nixon. At the same 
time, his company has received billions of dollars in Federal 
subsidies through the Ethanol Subsidy Program, and tens of 
millions of dollars in government contracts.
    Now, in the case of Mr. Chung, it doesn't seem that he was 
interested in any Federal subsidies or policies; is that right 
as far as you know, Ms. Williams?
    [The photographs referred to follow:]

    [GRAPHIC] [TIFF OMITTED] T5667.033
    
    [GRAPHIC] [TIFF OMITTED] T5667.034
    
    Ms. Williams. To my knowledge, he never discussed it with 
me.
    Mr. Waxman. And as far as we know he was never awarded a 
Government contract; is that right?
    Ms. Williams. To my knowledge.
    Mr. Waxman. Mr. Chairman, since we are going to spend our 
time looking at access and contributions, I believe ADM 
deserves at least as much attention as we are giving to Johnny 
Chung. And there are a lot of others, too. And if we are going 
to get into this issue, let's get into this issue, because it 
goes to the very heart of our campaign finance system: the 
access that people get to Democrats and Republicans, 
Presidential candidates and congressional candidates; the kinds 
of quid pro quos that they get, if not in the precise term of a 
bribe, nevertheless one that the American people look at as 
corrupting. I think that's what our campaign finance system 
does. It corrupts. It makes people think about the money. And 
then think about what they can do to those who can give the 
money.
    We still have time left, and I want to yield at this time 
10 minutes to my colleague from California, Mr. Lantos.
    Mr. Lantos. I thank the gentleman for yielding. I want to 
welcome Ms. Williams. You have been a very distinguished public 
servant. You have a record in the private sector of devoting 
your life to children's issues and I want to welcome you to our 
committee.
    I want to apologize to you for having been dragged back 
here from Paris and I want to ask you if you have any idea what 
your legal costs have been thus far? Give us just a ballpark 
figure.
    Ms. Williams. Not including today, $350,000.
    Mr. Lantos. Well, I suspect that's a pretty awesome amount 
to most of us in this room, and this all in this game which I 
have labeled ``Trivial Pursuit,'' so today we are engaged in, I 
don't know what chapter of this drama.
    I want to spend a few minutes on Mr. Chung as a political 
hustler of a very bipartisan character. A great deal of 
attention was paid early on to a picture he had with the First 
Lady. I would like to draw attention to various other pictures 
that feature Mr. Chung.
    Let's first look at the one with Mr. Chung and the Speaker 
of the House, Newt Gingrich. They seem to be engaged in a 
rather serious and substantive dialog. I cannot tell the topic 
by just looking at the picture, but I don't think they are 
sharing jokes or engaging in trivial discussions. Both of them 
look very serious.
    Now, when we move over to Mr. Chung and the former 
Republican Presidential candidate--well, we are now looking at 
Mr. Chung and Mr. Gingrich. If we could take now Mr. Chung and 
Senator Dole. Mr. Chung and Senator Dole have a more sort of 
cordial appearance. They may have been discussing athletic 
events or perhaps the meal that they may or may not have 
shared.
    In any event there is a degree of physical proximity 
between the two of them which indicates a modicum of intimacy.
    Now, if we may move on to a lady who recently was in the 
news again because she, again, won the gubernatorial contest in 
New Jersey, Governor Christine Whitman. She seems delighted to 
be meeting Johnny Chung, and Johnny Chung is equally pleased in 
meeting her.
    She, of course, is not the only distinguished Republican 
Governor that Johnny Chung seems to be cordial with. If we look 
at the State of Virginia, we find Governor George Allen 
literally beaming at the chance of spending a few leisurely, 
relaxed and I suspect warm moments with Mr. Chung.
    Mr. Chung, it seems, was not partial to the East Coast, so 
let me take you to the heart of the country with Governor Jim 
Edgar of Illinois who is smiling and pleased. In this case it's 
Mr. Chung who seems to be overly elated at the opportunity of 
getting together.
    And since I think, in all fairness, the Pacific Coast 
should not be discriminated against. Let me take you to the 
State I have the privilege of representing, the State of 
California, where former Republican Presidential candidate and 
our current Governor, Pete Wilson, is serious, but very 
positive in his exchange with Mr. Chung.
    These pictures, of course, could be concocted, this series 
of pictures, ad nauseam and ad infinitum because if you are a 
resourceful and aggressive political hustler, as obviously this 
gentleman is, then sooner or later you get a picture with 
somebody.
    [The photographs referred to follow:]

    [GRAPHIC] [TIFF OMITTED] T5667.035
    
    [GRAPHIC] [TIFF OMITTED] T5667.036
    
    [GRAPHIC] [TIFF OMITTED] T5667.037
    
    [GRAPHIC] [TIFF OMITTED] T5667.038
    
    [GRAPHIC] [TIFF OMITTED] T5667.039
    
    [GRAPHIC] [TIFF OMITTED] T5667.040
    
    [GRAPHIC] [TIFF OMITTED] T5667.041
    
    Mr. Lantos. I would like to read a letter which in terms of 
warmth and intimacy dramatically exceeds the letter Mrs. 
Clinton wrote Mr. Chung. This was written by the Governor of 
the State of California, Pete Wilson, and this is what it says:
    ``Dear Mr. Chung: It is my understanding that you have been 
nominated as Entrepreneur of the Year,'' a title surely 
deserved. ``Congratulations! It is a well-deserved recognition.
    ``My Communications and Press officers inform me that you 
and your team have performed in an outstanding manner. Your 
good work, in turn, has enabled my office to serve the people 
of California effectively and efficiently.''
    Now, I don't quite understand this, so let me read it 
again, because I have difficulty seeing how Mr. Chung's 
entrepreneurial excellence had an impact on the gubernatorial 
office in California, but there may be things here I don't know 
about. So let me read Governor Pete Wilson's sentence again. 
He's talking to Mr. Chung and says: ``Your good work in turn 
has enabled my office to serve the people of California 
effectively and efficiently, especially during California's 
recent disasters.''
    [The letter referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5667.042
    
    Mr. Lantos. If you read this carefully, it seems that all 
this tremendous Statewide effort in California during the 
various tragedies that befell the State a few years ago, and 
were handled so effectively, may have been the result of the 
entrepreneurial brilliance of Johnny Chung. To conclude Pete 
Wilson's letter, ``Again, you have my appreciation for a job 
well done!''
    Now, I suspect that what we are dealing with, as the 
distinguished ranking member pointed out, is the seamy side and 
the occasionally hilarious side of the political fund-raising 
system that we on this side of the aisle are anxious and eager 
to reform and correct. But since we need to look at more than 
episodic evidence, let me indicate, still sticking to the 
question of photo opportunities, the kinds of photo 
opportunities that the Republican National Committee has 
offered its generous contributors.
    Photo opportunities: The 1997 Republican National Committee 
annual gala offered those who raised $250,000 a photo 
opportunity with Senate Majority Leader Trent Lott and Speaker 
of the House Newt Gingrich on May 13, 1997. In 1995, the 
Republican Senate/House dinner invitation offered those who 
donated or raised $100,000, a quote, ``a photo opportunity with 
Senate Majority Leader Bob Dole, House Majority Leader Dick 
Armey and Speaker of the House Newt Gingrich.'' A 1992 
President's dinner, this involved President Bush, promised 
those who raised $92,000, you get the cute connection. It's 
1992, oh, you have to give $92,000, $92,000 you get a photo 
opportunity with President Bush.
    Season ticket holders, now if you thought that season 
ticket holders is a sports expression, it isn't. Season ticket 
holders are people in the Republican National Committee's 
lexicon. They are contributors who gave $250,000 a year. They 
were invited to attend private receptions with Presidential 
candidates, private meetings with congressional committee 
chairmen, lunch with Newt Gingrich and Bob Dole, breakfast with 
the Republican Presidential nominee at the Republican National 
Convention. Season ticket holders also are promised a GOP staff 
person on call to answer questions and provide assistance.
    If you are not a season ticket holder, but a lower level 
contributor, $175,000 over a 4-year period, you're invited to 
attend a retreat with Presidential candidates, participate in 
international business missions, and national and regional 
meetings with key Republican leaders.
    Now, if you are just an Eagle, an Eagle is a person who 
gives $15,000 a year, you are invited to attend a White House 
dinner, meeting in Washington with party leaders and an 
international business mission and so on.
    Now, I find Johnny Chung's activities nauseating and 
revolting and very likely illegal. And I hope that the full 
weight of the law will be brought to bear on any activities on 
his part or on anybody else's part where we are dealing with 
violations of law.
    But the fact that in the process of his hustling, during 
the course of which he got hold of the Speaker of the House of 
Representatives in an intimate setting, the Republican 
Presidential candidate, former Senator Dole, a man for whom I 
have very high regard, in a close setting, these fine 
Republican Governors covering the national landscape from 
California to New Jersey, from Virginia to Illinois, do not 
make it so unique that in his reckless and mindless pursuit of 
political leaders, he also was interested in meeting with some 
people in the White House.
    I find the performance unattractive, unacceptable, 
nauseating, but totally bipartisan. And the hypocritical 
attempt on the part of some on the other side to portray Mr. 
Johnny Chung as perpetrating these photo outrages with 
Democrats only, the facts simply will not bear out. I yield 
back the time to the ranking member.
    Mr. Waxman. Thank you for yielding back to me, Mr. 
Kanjorski. Do you want to ask questions of Ms. Williams?
    Mr. Kanjorski. Thank you very much, Mr. Chairman.
    Mr. Waxman. Mr. Kanjorski, it looks like I'm not yielding 
you any time. Why don't we wait until the next round. We yield 
back the balance of our time.
    Let me ask a question. You said that Mr. Chung would tell 
you how his meeting with Mrs. Clinton had changed his life. Did 
he ever tell you about his meetings with these Republican 
Governors and whether that changed his life as well?
    Ms. Williams. No, he did not.
    Mr. Waxman. I yield back the balance of my time.
    Mr. Burton. The gentleman yields back. Mrs. Morella.
    Mrs. Morella. Thank you, Mr. Chairman. Ms. Williams, you 
didn't see this as any part of your job description, did you? I 
just wanted to indicate my appreciation for your being here and 
your willingness to answer questions. I've always valued 
working with you in small ways in the past.
    Ms. Williams. Thank you.
    Mrs. Morella. There are a couple of questions I have 
because they mystify me and perhaps you can shed some light on 
this. I have been looking at the papers I have here before me, 
and there is one here that is exhibit 255--155? 155, maybe we 
could put it on the screen. At any rate, it is a memorandum to 
you, Ms. Williams, from Gary Walters, and it's bills for 
collection. In that memorandum which you received from Gary 
Walters, at the bottom it indicates, remaining to be paid by 
the DNC for fiscal year 1994, $135,345.25.
    [Note.--Exhibit 255 can be found on pp. 43 to 46.]
    Mrs. Morella. Now, in the Tom Brokaw tape, Mr. Chung 
specifically said that he was solicited by Evan Ryan to make a 
contribution to cover that particular debt. Do you know 
anything about that?
    Ms. Williams. No, I do not.
    Mrs. Morella. The thing that puzzles me is that how do you 
fathom that he knew about this debt for holiday events if 
somebody didn't tell him? And who do you think might have told 
him? Where do you think the information might have come from?
    Ms. Williams. Congresswoman, as I have been asked that 
question earlier, and my first reaction would be not to 
speculate where Mr. Chung had heard that. I will say to you 
that this document, or the fact that the DNC, along with other 
organizations, had not paid debts to the White House for events 
held there was really not a state secret. People at the DNC 
knew this, people in my office knew this. I could simply say to 
you that this was not a well kept or hidden state of issues. 
But I do not know from whom, if in fact he got the information, 
whom he got it from.
    Mrs. Morella. You can understand why it would be puzzling 
because it says specific in terms of the breakdown with regard 
to the events that had been held. So somebody got the word out. 
You don't know who did? And you say it may have been very well-
known.
    Ms. Williams. I think that it was--I think that it was 
generally known, because at the DNC and also at the White 
House, that there were bills that organizations had not paid, 
including the DNC, yes.
    Mrs. Morella. Incidentally, that is exhibit 255; right.
    I had another question in looking over some of the 
photographs and the letters and this has to do with the fact 
that evidently Mr. Chung must have been using these photographs 
and letters for his own business benefits. One witness that was 
interviewed by the committee said that Mr. Chung convinced him 
to invest over $900,000 in his company, AISI, and he said he 
was finally forced to sue Mr. Chung when he discovered that 
AISI was not capable of even providing the services that Mr. 
Chung said that it could.
    And I just wondered, were you aware that Mr. Chung was 
utilizing these letters, photographs, for his personal 
aggrandizement for his business, it was fraud?
    Ms. Williams. No, I had no idea.
    Mrs. Morella. It seems as though at some point there was a 
cease and desist that was sent from the White House, and so 
evidently somebody caught on to the fact that this was 
inappropriately used. Are you aware of that?
    Ms. Williams. No, I'm not--no, I'm not specifically aware 
of that.
    Mrs. Morella. I have another kind of question, and that has 
to do with the young intern, Gina Ratliffe.
    Ms. Williams. Uh-huh.
    Mrs. Morella. And trying to follow the line of her 
involvement as an intern in the First Lady's office. In her 
deposition, Ms. Ratliffe said that she started to work as a 
volunteer in the First Lady's office after she returned from 
her trip to China with Johnny Chung. And I just wondered, did 
you know that when she was volunteering in the First Lady's 
office that she was employed by Mr. Chung?
    Ms. Williams. No, I have to tell you, I really didn't focus 
very much on the comings and goings of the interns and the 
volunteers.
    Mrs. Morella. If you had known, what kind of advice would 
you have given her?
    Ms. Williams. With respect to?
    Mrs. Morella. Whether she should sever her internship or 
sever her work with Mr. Chung. I mean----
    Ms. Williams. I guess, Congresswoman, I'm not quite clear. 
She was working----
    Mrs. Morella. She was employed by Mr. Chung while she was 
working at the White House as an intern. I just wondered, had 
you known that this was going on, would you have said to her, I 
really don't think you should be here or you shouldn't be 
working for Mr. Chung? I mean, I probably would have said 
something to a young woman who was an intern had I found out?
    Ms. Williams. Well, it's very hard for me to speculate or 
give advice in retrospect. I prefer not to do that because 
there are quite a few things that I have recently learned with 
respect to Mr. Chung through news media accounts and since we 
haven't heard from him, I'm reticent to simply receive those as 
given until we do. We have--so, I mean, I don't know what 
specific advice I would give to her about not volunteering in 
the First Lady's office because she was working with Mr. Chung. 
I just don't quite know what advice that would be.
    Mrs. Morella. OK.
    Mr. Burton. The gentlewoman's time has expired.
    Mrs. Morella. Yes, I thank you, Mr. Chairman. I thank you, 
Ms. Williams. These are just riddles within enigmas that were 
cryptic. Thank you.
    Mr. Burton. Mr. Kanjorski.
    Mr. Kanjorski. Thank you very much, Mr. Chairman. Ms. 
Williams, what was the policy of the Clinton administration in 
regard to increasing access to the White House?
    Ms. Williams. Well, I certainly know that both the 
President and the First Lady were always looking for 
opportunities to increase the number of people who got to come 
to the White House. In fact it was--it is during the term of 
Mrs. Clinton's time as First Lady that she started talking 
about the White House as the people's house and asked that 
several things be worked on and done, including having special 
days like the veterans of foreign affairs days where veterans 
could come into the White House, special day for scouts and 
girl guides. The idea was to get as many people into the White 
House as possible.
    Mr. Kanjorski. Isn't it true that you had a policy there to 
encourage average Americans to come down and volunteer: opening 
up Christmas cards to the President, answering letters to the 
President and the First Lady?
    Ms. Williams. Oh, the White House could not survive without 
the help of its volunteers and we certainly encouraged people 
to do that. Young people and quite a few older people.
    Mr. Kanjorski. I remember particularly being down in the 
Executive Office Building myself when two busloads of senior 
citizens from Carbon County, PA, were just tickled pink to have 
an opportunity to be invited into the White House to volunteer 
their time to open up Christmas cards and letters to the 
President. And that wasn't particular to Carbon County, PA, was 
it?
    Ms. Williams. No, in fact a number of things we have done. 
We have tried to, at Christmas to go out and get people from 
the States to come in and participate at Christmas, whether it 
be their choirs or in-house decorating. Yes, there has been a 
real special effort made that, you know, I'm extremely proud of 
in trying to get people into the White House to see it, because 
it's incredible to be there.
    Mr. Kanjorski. Ms. Williams, I go home to my district every 
weekend and I talk to constituents. When they describe their 
opportunity to visit the White House, they light up and just 
the essence of being close to the President and the First Lady, 
even if they never see them. And isn't it true, 95 percent of 
the people that pass through the White House or come there 
never really get an opportunity to see the President, but just 
the association that the President is there and their 
particular President is there gives them great enthusiasm?
    Ms. Williams. Oh, certainly. And I would say that while 
you're probably right that 95 percent of them never see the 
President or First Lady, Mrs. Clinton has made it a habit from 
time to time to actually walk through the visitors' lines and 
to see people who would not ordinarily have a chance to see 
her. So, yes, access has been important to us.
    Mr. Kanjorski. And although a million and a half people a 
year do come to the White House, even if you calculated that 
over the 5 years of this Presidency, that's about 7.5 million. 
That would leave about 262.5 million people in the United 
States that in the last 5 years didn't get an opportunity to go 
to the White House, isn't that right?
    Ms. Williams. That is true, but soon the White House will 
be available on CD-ROM.
    Mr. Kanjorski. But what I wanted to point out when we say 
the White House, it is really the White House compound we are 
talking about.
    Ms. Williams. Oh, yes.
    Mr. Kanjorski. And most people don't realize that what they 
see as the White House is a very small portion of the 
President's office and residence of the White House. But 
alongside and off on the West side of the White House is the 
Old Executive Office Building that sort of looks like a French 
architecture--well, I've never been too fond of it myself. It 
lacks air conditioning, seems to be inefficient and was 
probably planned by some frustrated architect. But anyway, that 
is where most of the operations of the White House occur, in 
that Old Executive Office Building; isn't that correct?
    Ms. Williams. Yes, in fact that's where the First Lady's 
staff is situated in the Old Executive Office Building.
    Mr. Kanjorski. That's where your office was. Isn't it true 
that the First Lady was also occupying a working office in or 
near the West Wing?
    Ms. Williams. That's true. In the West Wing in fact.
    Mr. Kanjorski. So if I dropped by your office, if I were 
informed at all, I would have to know that the likelihood is 
that the First Lady would be there on very, very few occasions, 
but that was a working office.
    Ms. Williams. That's correct.
    Mr. Kanjorski. So Johnny Chung taking this opportunity to 
come by your office would have to be either naive or he wasn't 
coming there with the anticipation of seeing the First Lady 
because she is hardly ever there; is that correct?
    Ms. Williams. Rarely is she there, and he never asked to 
see her.
    Mr. Kanjorski. The only other thing I would to straighten 
out, I have heard a lot of postulation on the other side here 
about dastardly campaign contributions. Now I'm going to be a 
bit of a confessor, I don't think there is a member on this 
committee, in the House of Representatives, or in the U.S. 
Senate who hasn't been discombobulated or embarrassed when a 
supporter, friend, or associate of theirs either walks into 
their official office or sees them at a function and wants to 
press their hand and hand them an envelope, and usually with a 
political contribution involved. And so often in my career, 
because of the FEC regulations, the contribution is in cash and 
you have to end up going to your lawyer, sending letters and 
trying to straighten out the whole problem, but it is always 
the case that you mentioned in your testimony. How do you treat 
these people? Do you turn on them and suggest that they are 
being criminal? Do you ratchet the envelope back in their hands 
and say don't ever come here again? But it is really a sort of 
sensitivity that you address this and you try and handle it in 
a modulated way, not to offend them, and in the other way 
comport with the regulations and the laws regarding campaign 
contributions.
    Is that what you describe in your testimony today when you 
were faced with this suddenness and the rush of Mr. Chung 
wanting to personally pass that envelope to you and knowing 
full well that it would take an awful lot of time to explain to 
him the convoluted rules and regulations of campaign financing 
and conduits and everything else, but instead you just took it, 
passed it on unopened, unseen and really had little 
significance, but it did embarrass you; is that correct?
    Ms. Williams. Slightly, Congressman. Embarrassed myself and 
embarrassed for him.
    Mr. Burton. The gentleman's time has expired.
    I'd like to, before I yield to my colleague, Mr. Cox, I'd 
like to take a couple of minutes. I have not yet had 5 minutes, 
so I think it's important to maybe explain a little bit of why 
we are here.
    Mr. Lantos pointed out a number of public officials who 
have appeared with Mr. Chung. And we agree that that took 
place. But one of the major functions and focuses of our 
investigation is the illegal foreign contributions that came 
into the United States.
    Mr. Lantos. The light is not on.
    Mr. Burton. Would you turn the light on for me, please, 
thank you.
    One of the main focuses of the investigation is to find out 
if illegal foreign contributions were coming into the United 
States through conduits into the American political process, 
whether it's Republican or Democrat. Now, we know that on March 
6, 1995--and Ms. Williams, according to her testimony, has no 
knowledge of this, so we are not making any kind of allegation 
about that. But there was $150,000 that came from the Bank of 
China in Beijing, China, on March 6th, to Johnny Chung at the 
CalFed Bank. $150,000 came from the Bank of China in Beijing on 
March 6th. Now, we know that 3 days later on March 9th, he gave 
a check to Ms. Williams for $50,000.
    Now, at the time he got the $150,000 from the Bank of China 
in Beijing, he had a negative bank account. He didn't have any 
money. So it's logical to assume that the $150,000 he got from 
the Bank of Beijing--Bank of China in Beijing, China was money 
that he gave to Ms. Williams which ultimately found its way to 
the DNC. That doesn't mean that Ms. Williams did anything 
wrong. But the fact is she was a recipient, probably, of 
illegal foreign contributions.
    Now, the reason I bring that up, and then there were 
$70,000 that was subsequently deposited to the Johnny Chung 
general bank account on March 4th. But the fact of the matter 
is there is a very strong possibility, and you can see the 
chart on the monitor, that foreign money was laundered and was 
given to the DNC.
    [Exhibit C-82 follows:]

    [GRAPHIC] [TIFF OMITTED] T5667.043
    
    Mr. Burton. That's what we are all about. We are trying to 
find out about illegal foreign contributions that found its way 
into the Democrat National Committee and, if it occurred, into 
the Republican National Committee. That's what this is all 
about.
    These pictures of the people that Johnny Chung met, he may 
have met me for all I know. These pictures don't really mean a 
lot, other than they show that he was a person who had the 
ability to have access to a number of people. But what we are 
really all about here, at least what I would like us to be 
about, is the laundering of foreign money into the election 
process in this country, and whether or not Mr. Chung or 
anybody else tried to get some concessions in the area of 
foreign policy or business concessions or anything else in 
exchange for that money and whether or not foreign governments 
or foreign entities were getting the benefits of these 
contributions in the form of concessions to a country or to a 
foreign business. That's what we are all about, and that's why 
I wanted to take my time to respond.
    With that, I apologize, I will yield the remainder of my 
time he would like, to Mr. Cox, and then he can have his own 
time in the next go-round.
    Mr. Cox. I thank the chairman. I will just use the balance 
of the chairman's time and take my own time later to pursue the 
chairman's line of questioning.
    The thank you note that was sent from the DNC to Johnny 
Chung on July 24, 1995, that came from Don Fowler said to 
Johnny Chung, I enjoyed meeting with your friend, who is the 
wife of the Chief of Staff of the Chinese People's Liberation 
Army. The people that came into the White House with Johnny 
Chung were all, for the most part, communist Chinese officials. 
The China Petrochemical Corp., COSCO, CITIC, the firm headed by 
the arms dealer Wang Jun, who himself was at a White House 
coffee. CITIC, of course is directly controlled by the State 
Council, the People's Republic of China. Did you talk to the 
National Security Council about this group's visit into the 
White House at any time before the visit took place?
    Ms. Williams. No, I actually--if Mr. Chung--once Mr. 
Chung--once it was agreed that Mr. Chung, could, one, have a 
photo with Mrs. Clinton or go to the Mess, it was simply a 
matter of clearing in whoever he was bringing with him. I was--
--
    Mr. Cox. Was this your decision?
    Ms. Williams. Pardon?
    Mr. Cox. Was this your decision?
    Ms. Williams. No, it was pretty much----
    Mr. Cox. Who made the decision to let the people come in?
    Ms. Williams. The White House security people. What 
typically happens is if Mr. Chung was going to come and take a 
picture--and I'm not even sure at that point in time that I 
knew that Mr. Chung was bringing in a group of people to have a 
picture taken with Mrs. Clinton. I was OKing a picture----
    Mr. Cox. But I have a document here, exhibit 187, which is 
a name list of the delegation which was in your possession 
prior to the radio address.
    [Exhibit 187 follows:]

    [GRAPHIC] [TIFF OMITTED] T5667.044
    
    Ms. Williams. It was in my possession----
    Mr. Cox. Had you ever seen exhibit 187 prior to the radio 
visit? Because this is a document that was prepared by the 
White House and it lists the names and titles of the PRC people 
who were coming in.
    Ms. Williams. No, this was not, never in my possession.
    Mr. Cox. When did you first see this document?
    Ms. Williams. During the deposition.
    Mr. Cox. Can you tell from this document who prepared it?
    Ms. Williams. No.
    Mr. Cox. I wonder if I could inquire of counsel, do we know 
who prepared this document, exhibit 187, which says Name List 
of Delegation? It is my understanding this is a White House 
document.
    Mr. Bennett. Congressman, I believe the testimony this 
afternoon will indicate the document was initially prepared by 
Mr. Chung, and there is handwriting of witnesses who will be 
called this afternoon who made notations on this document, 
White House personnel.
    Mr. Cox. Is it committee staff's understanding that this 
document was circulated inside the White House prior to the----
    Mr. Bennett. It is our understanding that that is the 
handwriting of Ms. Nancy Hernreich of the White House.
    Mr. Burton. Mr. Cox, my time has expired.
    Mr. Cox. I appreciate the gentleman, I will return to this 
later. Thank you.
    Mr. Burton. Mr. Barrett.
    Mr. Barrett. Thank you, Mr. Chairman. I am curious, first 
of all, as to whether we will be holding hearings, as I sit 
here next to the Republican wall of shame, into how he got 
access to these individuals. Do you plan on holding any 
hearings on that?
    Mr. Burton. If there's any indication that illegal foreign 
money came into the RNC, of course we'll look into that.
    Mr. Barrett. Have you attempted at all to discern that?
    Mr. Burton. Well, there has to be some indication that 
there was wrongdoing before we start an investigation. If you 
have some evidence, I most certainly will do that. We have 
evidence in this case. We have $50,000 that we are sure, or 
almost certain, came from the Bank of China in Beijing.
    Mr. Barrett. Reclaiming my time, Mr. Chairman.
    Mr. Burton. I will give you more time.
    Mr. Barrett. Mr. Chairman, it is my time. If you want to 
take my time away from me, but it is my time.
    Mr. Burton. We will investigate.
    Mr. Barrett. It is wonderful to put the innuendo on the 
table that the fact is that the money came from the Bank of 
China, but that doesn't mean that it is necessarily Chinese 
Government money. But that is what these hearings are. They are 
innuendo after innuendo, and it is a travesty that we are 
looking at this, but we are not spending a second on the Triad 
Management Group. We're not going to look on that and there are 
allegations on that, Mr. Chairman. There are real allegations 
on that, and this committee would not for a second dare spend 
any time examining allegations against Republicans. And that's 
why this is such a total travesty. There is no attempt here for 
fairness. There is no attempt here to balance these hearings. 
This is nothing more than going after the President of the 
United States. That is clearly what this is, and I think that 
everybody should recognize that.
    Ms. Williams, I thank you for being here. I'm sorry that 
you had to come back. You obviously have spent a lot of time 
and a lot of money to defend yourself. I frankly don't think 
that this committee cares about that at all. I think they would 
be more than happy to have you go into bankruptcy because you 
committed a mortal sin, Ms. Williams. You worked in a 
Democratic White House. That was your sin, and if this is going 
to ruin your life, it's going to ruin your life. And that's the 
way this committee works and we should all be well aware of 
that.
    I'd like to ask you a couple of questions if I could, 
please, about your role with Mr. Chung. Before the March 1995 
events, Mr. Chung had told you on other visits that he wanted 
to give to the First Lady, hadn't he?
    Ms. Williams. Yes, that's correct.
    Mr. Barrett. And what did you tell him?
    Ms. Williams. I told him that he could not give personally 
to Mrs. Clinton. He could do not that.
    Mr. Barrett. And you always told him that, didn't you?
    Ms. Williams. Yes, I told him that would be inappropriate, 
that we could not do that.
    Mr. Barrett. And you told him that if he wanted to 
contribute money, he could give to entities such as the DNC and 
the campaign; is that correct?
    Ms. Williams. That's correct.
    Mr. Barrett. Did you ever suggest to him that if he gave 
money to the DNC, he would help pay off DNC debts to the First 
Lady relating to White House Christmas parties?
    Ms. Williams. No, I did not.
    Mr. Barrett. Did you ever say to Ms. Ryan that if Mr. Chung 
asks her how he could help the First Lady, Ms. Ryan should 
suggest helping the DNC pay off its debts concerning the 
Christmas parties?
    Ms. Williams. No, I have no recollection of that.
    Mr. Barrett. You simply passed the check on to DNC when you 
received it?
    Ms. Williams. Right. That's correct.
    Mr. Barrett. And that was your normal practice? That had 
happened in other incidences?
    Ms. Williams. With checks, yes.
    Mr. Barrett. Was the incident in which Chung handed you a 
check the first time anyone had handed you a political 
contribution check in the White House?
    Ms. Williams. Yes, it is.
    Mr. Barrett. Since this incident, no one came to the office 
of First Lady to give you a political contribution check?
    Ms. Williams. No.
    Mr. Barrett. Let me ask you this, then. This fellow, again, 
from these pictures right here, I would put in the category of 
a political groupie. Would you say that is an accurate 
description of him?
    Ms. Williams. I don't like to call names.
    Mr. Barrett. I'm not saying that that is a derogatory name. 
He obviously likes to be around politicians.
    Ms. Williams. Well, he likes to be around politicians.
    Mr. Barrett. Maybe that is the negative. I don't 
necessarily mean groupie as a negative word. Was he involved in 
high level policy discussions?
    Ms. Williams. Not to my knowledge.
    Mr. Barrett. He was just someone who liked to be around the 
First Lady.
    Ms. Williams. He liked to be around the office, yes.
    Mr. Barrett. Just like he apparently liked to be around 
Governor George Allen, a Republican from Virginia; he liked to 
be around Governor Christine Whitman, a Republican from New 
Jersey; he liked to be around majority leader, Senator Bob 
Dole, a Republican from Kansas; he liked to be around Speaker 
Newt Gingrich, a Republican from Georgia; he liked to be around 
Governor Jim Edgar, a Republican of Illinois; Governor Pete 
Wilson, a Republican of California, and apparently the entire 
Governor's office is something he liked to be around. So he is 
a man who liked to be around power. Would you say that is 
pretty accurate?
    Ms. Williams. I would say that would be correct.
    Mr. Barrett. And how did you treat him differently from 
other people?
    Ms. Williams. No differently. I tried to accommodate his 
requests. If I could do something for him, I would. If I could 
do something for you, I would.
    Mr. Barrett. And so you treated him and his political 
contribution just like any other one; is that correct?
    Ms. Williams. Just like anybody else, not necessarily even 
a contributor, but, yeah, I thought I treated him fairly, and I 
treated him well, and I was gracious to him, and I went out of 
my way to accommodate his requests, and I felt that that was a 
job that we were supposed to be doing in our office for 
everybody.
    Mr. Barrett. OK, thank you. Again, I thank you for your 
comments. And I think that Mr. Waxman did a wonderful job in 
his opening statement, because the problem here is, yes, there 
was too much access to the Democratic White House. There is too 
much access to Democratic Members of Congress and there is too 
much access to Republican Members of Congress. People who have 
money in this society have more influence on Government than 
people who don't have money. That's what the problem is, and 
that's why this hearing is a sham because it doesn't really 
care about that. All it cares about is trying to make the 
President look as bad as it possibly can, and I yield back the 
balance of my time.
    Mr. Burton. The gentleman's time has expired. The gentleman 
from California, Mr. Cox.
    Mr. Cox. I thank the chairman.
    Mr. Burton. Would you yield to me for 30 seconds?
    Mr. Cox. Pleased to yield to the chairman.
    Mr. Burton. Let me just correct one thing that my colleague 
has just said. First of all, we are investigating allegations 
of illegal foreign contributions coming in to the Republican 
party and the National Policy Forum. We've had two people in 
California, detailees and others, talking about Mr. Ted Sioeng, 
who gave money to the National Policy Forum as well as the 
Democrat National Committee. We have subpoenaed and are 
receiving information on the Young brothers, who had a shell 
corporation in Miami that gave money to the Republican National 
Committee. We are looking at both sides.
    I understand the reason to try to make it look like we are 
being totally biased. The fact of the matter is we are not. We 
are looking at foreign contributions, illegal foreign 
contributions that may have bought influence in this country in 
the political process. That's what it's all about.
    Mr. Barrett. Would the gentleman yield?
    Mr. Burton. I do not have the time.
    Mr. Barrett. What about the Triad Management? Are we 
looking at that, Mr. Chairman?
    Mr. Burton. If the gentleman would yield another 10 
seconds, I am going to send a subpoena to Triad. Does that 
satisfy you?
    Mr. Barrett. I think that that's a positive statement.
    Mr. Burton. Thank you very much. Mr. Cox.
    Mr. Cox. Reclaiming my time, thank you, Mr. Chairman.
    Ms. Williams, do you understand the concern, and I think it 
is a legitimate one, on both sides of the aisle about illegal 
foreign payments?
    Ms. Williams. Do I understand the concern?
    Mr. Cox. About illegal foreign payments?
    Ms. Williams. Yes, I understand the concern.
    Mr. Cox. And even if you were not aware of it at the time, 
do you think it's appropriate for this committee to be 
investigating the apparent connection between a March 6th wire 
transfer to Johnny Chung for $150,000 from the PRC to the 
$50,000 check that you received in the White House----
    Ms. Williams. I really don't think it is in my----
    Mr. Cox [continuing]. A few days later?
    Ms. Williams. I don't think it's really in my purview to 
say whether or not I think it's the right thing to do.
    Mr. Cox. Well, I ask this because, as the Chief of Staff to 
the First Lady of the United States, you have a great deal of 
experience and judgment. And if questions are being raised 
about the propriety of the investigation, I just want to know 
whether or not you can see a prima facie reason for us to 
investigate when there's a $150,000 wire transfer using the 
bank of China in Beijing that goes into Johnny Chung's account, 
and 3 days later, he hands you a $50,000 check inside the White 
House. Is that something, even though you didn't know at the 
time, is that something----
    Ms. Williams. Mr. Cox, I did not know that at the time. And 
with all due respect, and I want you to know this, with all due 
respect, if you were interested in my opinion about this, you 
would have asked me before I was here.
    Mr. Cox. Well, I'm asking you now.
    Ms. Williams. Well, I do not want to make comments now. I 
am a fact witness here, and I don't necessarily have to give my 
opinion.
    Mr. Cox. Fair enough. With the ranking member, you covered 
the ground of whether or not you solicited this contribution. 
And it's your opinion as well as your fact testimony that you 
did not solicit; is that correct?
    Ms. Williams. Well, that is not an opinion. It is fact 
testimony.
    Mr. Cox. To the extent it's a legal opinion as well as a 
fact question, but it's your testimony that you did not solicit 
for legal purposes; is that right.
    Ms. Williams. That's my testimony.
    Mr. Cox. You did precisely what? You accepted an envelope, 
but did not open it?
    Ms. Williams. I don't recall if there was an envelope. I 
recall that I accepted something that I believed to be a check.
    Mr. Cox. Why did you believe it to be a check?
    Ms. Williams. Because he said, here I give to you, I give 
to you. It looked like a check.
    Mr. Cox. Did you contact the White House Counsel's Office 
about that check?
    Ms. Williams. No, I did not.
    Mr. Cox. Were you aware of the guidance from the White 
House Counsel's Office that it's inappropriate for you to 
accept that check?
    Ms. Williams. The guidance I believe I had from the White 
House Counsel was that you could take a check. That did not 
necessarily constitute acceptance, and since other checks had 
come through the mail, as long as you passed it on to the 
appropriate entity.
    Mr. Cox. Well, to refresh your recollection, the Counsel to 
the President sent a memo around to all the heads of White 
House offices that states that Federal law prohibits the 
receipt of campaign contributions in Federal buildings. It says 
that Federal employees----
    Mr. Dennis. Is there a document? Excuse me, Congressman. Is 
there a document number?
    Mr. Cox. Document--excuse me, exhibit No. 153. And while 
you're looking for that, I will just read from 18 United 
States----
    Mr. Dennis. I have it here.
    Mr. Cox [continuing]. Code, Section 607, which says that it 
is unlawful for any person to receive, receive, not solicit, 
but receive any contribution in any room or building occupied 
in the discharge of official duties. Any person who violates 
this section shall be fined under this title or imprisoned not 
more than 3 years or both.
    Has your lawyer told you about this criminal code provision 
prior to your appearing here today?
    [Exhibit 153 follows:]

    [GRAPHIC] [TIFF OMITTED] T5667.045
    
    [GRAPHIC] [TIFF OMITTED] T5667.046
    
    [GRAPHIC] [TIFF OMITTED] T5667.047
    
    [GRAPHIC] [TIFF OMITTED] T5667.048
    
    [GRAPHIC] [TIFF OMITTED] T5667.049
    
    [GRAPHIC] [TIFF OMITTED] T5667.050
    
    [GRAPHIC] [TIFF OMITTED] T5667.051
    
    [GRAPHIC] [TIFF OMITTED] T5667.052
    
    [GRAPHIC] [TIFF OMITTED] T5667.053
    
    Ms. Williams. If I understand it, my lawyer wrote a letter 
about it.
    Mr. Dennis. Mr. Cox, if I might address that particular 
issue----
    Mr. Cox. I'm just----
    Mr. Dennis [continuing]. Since you asked what her lawyer 
had to say.
    Mr. Cox. I'm curious whether the witness at this time is 
aware of this criminal statute.
    Mr. Dennis. I'm aware of it. She's aware of it.
    Mr. Cox. I thank counsel. The advice memorandum from the 
White House Counsel's Office.
    Mr. Lantos. Regular order, Mr. Chairman.
    Mr. Burton. Mr. Cox, you may conclude this question, and 
then we'll go on to the next Member.
    Mr. Cox. Now that we've identified the exhibit, is that 
something that you recognize that was received in your office?
    Ms. Williams. I'm sorry. Yes. I believe it was.
    Mr. Cox. I thank the witness, and I yield back.
    Mr. Burton. The gentleman's time has expired. Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman. And I, for one, am 
pleased to hear the chairman's announcement that he has issued 
a number of subpoenas and looking into various matters that 
have been raised. So as one who, at times, raised questions in 
that regard, I want to commend you in your announcement. And I 
hope that, as we go forward, we can continue to find 
opportunities in which we will be able to agree.
    Let me mention a couple things for the record quickly. One 
is that it is the law that you can't receive these 
contributions. What that means in the U.S. Congress is, if you 
receive a check here, you have 7 days to transfer it out to 
your political office. And that is the rule both here in the 
House and in the Senate and the rule in the White House as by--
pursuant to advice of counsel which we have, if one would read 
the complete document, is that you must move the check along. 
And that's what you did. You received a check. And you sent it 
on to the DNC?
    Ms. Williams. That's correct.
    Mr. Fattah. So there should be no confusion that here, 
under the rules of the U.S. Congress, these are Federal 
buildings under which work takes place. It is a perfectly legal 
practice that people receive checks. And they have, under the 
rules of the Congress, 7 days, an entire week, to move those 
checks on to their various campaign committees and in the 
Senate. And the White House has a rule to do it, and they, in 
fact, do it much more expeditiously than our rules call for.
    Mr. Cox. Would the gentleman yield, because that's not the 
law at all.
    Mr. Fattah. Excuse me. I would be glad to yield at my 
completion. I want to talk about this issue of access because 
this is a fascinating subject to me. We're talking here as co-
equal branches of the Government, the executive and the 
legislature. We're talking about someone who is writing checks 
having access to come and visit. We have more than 1,000 people 
here in the Capitol every day who have written checks to tens 
and dozens of Members of Congress who access various offices 
every day as paid lobbyists. They're here to talk to Members of 
Congress about matters of importance to them.
    Now, we have this gentleman, Mr. Chung, and I take issue 
with people who have used his name in derogatory terms on both 
sides of the committee, because I'm not sure at all that that's 
appropriate. I think that we know something about the culture 
of Asian Americans who in their conduct of business place a 
great deal of reliance on pictures and relationships and 
business cards and things that here in America one might see a 
little bit different. But it's part of their custom. And as we 
can see, he was quite aggressive. And as a businessman in his 
initial enterprises, was also quite successful.
    So until at such time that there's something clearly on the 
record that this American has violated the law, I'm not sure 
that we as a committee should be speaking of him in derogatory 
terms. But, nonetheless, if our concern is that someone is 
writing checks and showing up more than 50 times in the White 
House over a span of 3, 4, or 5 years, we have people who write 
checks and show up here every day, every single day.
    And so we even have, and I want to enter into the record a 
story from the Wall Street Journal, ``Gingrich Backer Had 
Unusual Access As a Volunteer in the Speaker's Office,'' a 
Donald Jones. He was a CEO helping to deal with a very 
important piece of legislation that he had some interest in.
    I also have another account from the Washington Post, which 
showed that the majority party here invited a group of 
lobbyists representing the largest polluters in our country 
into the room to draft the laws that would, in fact, govern who 
would be liable for the pollution and the deterioration of 
property that they had caused.
    So this issue of access, to the degree that this committee 
is interested in it, is something that I think we could have a 
broad scope on. And I--this other thing that was mentioned in 
the chairman's opening remarks and has been referred to again 
is Don Fowler's letter to Johnny Chung so that he could either 
visit China or use it in some way.
    Haley Barbour not only wrote a letter, but Haley Barbour 
went to China with the principal of the Young Brothers in order 
to help facilitate. In fact, his quote in the story that I also 
would like to put in the record, Mr. Chairman, Mr. Young said, 
well, Mr. Barbour----
    Mr. Burton. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5667.054
    
    [GRAPHIC] [TIFF OMITTED] T5667.055
    
    [GRAPHIC] [TIFF OMITTED] T5667.056
    
    [GRAPHIC] [TIFF OMITTED] T5667.057
    
    [GRAPHIC] [TIFF OMITTED] T5667.058
    
    [GRAPHIC] [TIFF OMITTED] T5667.059
    
    [GRAPHIC] [TIFF OMITTED] T5667.060
    
    [GRAPHIC] [TIFF OMITTED] T5667.061
    
    [GRAPHIC] [TIFF OMITTED] T5667.062
    
    [GRAPHIC] [TIFF OMITTED] T5667.063
    
    Mr. Fattah [continuing]. Traveling with him, it helped put 
powder on his face. That was the suggestion that it made him 
look like someone who knew important people in the United 
States and therefore could help facilitate business 
transactions here.
    So this is not a letter that was written. This was a party 
chairman, someone who, on a weekly basis, met with the majority 
leaders and Speaker here and Senator Lott and the majority 
leader in the Senate as to the conduct of legislative business.
    This party chairman got up and went to China in order to 
facilitate this gentleman's business transactions. This is the 
same gentleman who they borrowed the $2 million from and then 
decided not to repay it in order to finance the Republican 
contest in the 1996 elections.
    I just want to ask you, Ms. Williams, since you've said 
that you have done nothing wrong, and no one here has accused 
you of doing anything wrong, and you've been brought here from 
Paris, this committee is investigating Mr. Chung's access to 
the White House. You were not at any time involved in any 
discussions with him about official actions or policies in the 
White House?
    Ms. Williams. No. Not at any time.
    Mr. Fattah. And you don't have any knowledge of him ever 
seeking policy changes in terms of the White House in any 
regard.
    Ms. Williams. No, not to my knowledge.
    Mr. Fattah. So if the committee was investigating 
contributions for improper influences on policy, you would have 
some difficulty helping us in that regard.
    Ms. Williams. Yes.
    Mr. Fattah. I want to thank you for your appearance here 
today.
    Ms. Williams. OK.
    Mr. Burton. The gentleman's time is expired. Ms. Ros-
Lehtinen. Excuse me, Mr. Horn.
    Mr. Horn. I'll pass.
    Mr. Burton. You'll pass right now. Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman. In the time period that 
we've been talking about here, Ms. Williams, that is March and 
April 1995, what was your official title?
    Ms. Williams. Assistant to the President, Chief of Staff to 
the First Lady.
    Mr. Barr. OK. How were you paid?
    Ms. Williams. How was I paid?
    Mr. Barr. Yes, ma'am.
    Ms. Williams. By the U.S. Government.
    Mr. Barr. OK. You received a Government paycheck?
    Ms. Williams. Yes, sir.
    Mr. Barr. Drawn on funds from the Treasury Department?
    Ms. Williams. Yes.
    Mr. Barr. OK. One of the locations that we've been talking 
about here was your office. Where, again, was your office 
located again during this time period that we're talking about 
here?
    Ms. Williams. The office that I worked out of was in the 
Old Executive Office Building. I also had an office in the 
White House building.
    Mr. Barr. OK. And in both of those were locations that were 
used for the discharge of official duties; is that correct?
    Ms. Williams. Yes. That is correct.
    Mr. Barr. OK. Thank you. If we can have exhibit 174 
replaced on the screen, please, I would appreciate it.
    We have talked about this. But I just wanted to redirect 
your attention to it. This is a check dated March 9, 1995, from 
Mr. Chung to DNC for $50,000. And you've testified that you 
knew that this was a check. I think your words were it looked 
like a check. And it does give every appearance of that; is 
that correct?
    [Note.--Exhibit 174 may be found on p. 49.]
    Ms. Williams. Yes.
    Mr. Barr. OK. Is it a political check?
    Ms. Williams. It's a check made out to the DNC.
    Mr. Barr. What is the DNC?
    Ms. Williams. The Democratic National Committee.
    Mr. Barr. Is that a political organization?
    Ms. Williams. Yes, it is.
    Mr. Barr. OK. In your written statement, on page 2, and I 
don't recall whether or not you read this in its entirety, but 
on page 2 of your written statement, dated today, the second 
paragraph, I'm going to quote this here, and if you would, just 
read along just to make sure that I do quote it properly: ``So 
when he asked how he could give and show his support, I told 
him he could support the DNC or give to the Clinton/Gore 
campaign.''
    Have I read that accurately?
    Ms. Williams. Yes.
    Mr. Barr. And that is your testimony?
    Ms. Williams. Yes.
    Mr. Barr. OK. Now, if we could have exhibit 153 replaced, 
please. This is the memo that I think Mr. Cox drew your 
attention to just a short while ago, dated April 1995. I would 
like to quote, just to make sure that we're accurately stating 
what the Counsel to the President stated. In the first 
paragraph on page 1, it states that this is a review, in other 
words, not annunciation of new policies or new-found statutes; 
this is a review.
    We then look also at page 2. It says that there are a 
number of criminal statutes which prohibit the use of Federal 
programs, property, or employment for political purposes. And 
these are punishable by imprisonment and substantial fine.
    On page 3, at item 3, up toward the top of the page there, 
it says that Federal employees, including White House 
employees, may not knowingly receive a political contribution 
from any person.
    Then down toward the--let's go over to page 4. And in 
paragraph (A)(2), campaign fund-raising activities of any kind 
are prohibited in or from government buildings. In addition, 
Federal employees are prohibited from soliciting or accepting 
campaign contributions.
    Down at the bottom of page 4, paragraph C, Federal law 
prohibits the receipt of campaign contributions in Federal 
buildings.
    And here it comes to something that I think there's been a 
little confusion about. And I think it's deliberate. There is a 
reference to mail. The check that we're talking about here from 
Mr. Chung was not mailed, was it?
    Ms. Williams. No, it was not.
    Mr. Barr. I didn't think so. It was received in person by 
you. Now, if we could, then, turn our attention--and I know 
your counsel is a man very learned in the criminal law, having 
been a U.S. attorney--to Title 18 of the United States Code, 
which is the criminal code, section 607.
    I would respectfully suggest that you speak with him, 
because in your testimony today, you have laid out each and 
every element of section 607(A), which is a Federal criminal 
statute, which says it shall be unlawful for any person, and 
any person is defined in section 603 to include yourself, 
pursuant to your sworn testimony, to solicit or receive any 
contribution--you have received a contribution, this check--
within the meaning of section 301(A) to the Federal Election 
Campaign Act in 1971 in any room or building occupied in the 
discharge of official duties. And we have established that the 
office in which you operate in and which you received this 
check fits that category.
    I would suggest that you have a very serious discussion 
with your attorney because I think you have violated section 
607(A) of the U.S. Criminal Code.
    Mr. Dennis. Mr. Barr, may I speak to that issue or Mr. 
Chairman, if I might?
    Mr. Burton. Yes. You'll be allowed to answer.
    Mr. Dennis. My client is not being a lawyer. I would like 
to make a part of the record a letter that I sent to Joseph 
diGenova, dated March 6, 1997, in response to an----
    Mr. Barr. Mr. Chairman, if I could?
    Mr. Fattah. Can we let the counsel speak, please?
    Mr. Barr. Hold on just a moment.
    Mr. Fattah. Mr. Chairman.
    Mr. Barrett. Regular order, Mr. Chairman.
    Mr. Barr. Mr. Chairman, I have a parliamentary inquiry.
    Mr. Burton. State your parliamentary inquiry.
    Mr. Barr. When we refer to documents, and folks on the 
other side are very quick to jump on us if the document is not 
on the screen and if the document is not in the hands of the 
witness, to make sure that they have copies of documents----
    Mr. Barrett. Regular order, Mr. Chairman. If he can state 
it in the form of an inquiry rather than a soliloquy.
    Mr. Burton. I will listen to the inquiry and then make a 
decision. Just 1 second.
    Mr. Barr. Thank you, Mr. Chairman. In this case, it is not 
the witness, but her counsel that is seeking to read into the 
record and discuss the document that we don't even have, and I 
would, therefore, object to that.
    Mr. Burton. Well, I would appreciate that. But I think the 
Chair will allow a little latitude here to hear what the 
counsel has to say.
    Mr. Barr. If I might just pose one further question, Mr. 
Chairman, and that is could counsel extend us the same courtesy 
that we extend to him and furnish those copies of the document 
to which he's referring?
    Mr. Burton. Does the counsel have copies of this document?
    Mr. Dennis. I have no additional copies. I can have copies 
made. But I can certainly refer to this and read from it and 
provide copies of the letter after my statement. I would be 
happy to do that.
    Mr. Burton. OK. Well, we'll allow you to go ahead, and we 
would like to have copies for Mr. Barr and other Members.
    Mr. Dennis. Thank you----
    Mr. Burton. Proceed.
    Mr. Dennis [continuing]. Mr. Chairman. This is not a very 
long letter, but let me read it into the record. It says: 
``Dear Joe''--Mr. diGenova by the way was former U.S. attorney 
of the District of Columbia.
    ``Your off-the-cuff opinion on the Hatch Act given to the 
national media is 101 years out of date. You are quoted as 
taking issue with my client's handling of a political 
contribution to the Democratic National Committee calling it,'' 
quote, ``totally improper,'' end quote, ``because in your 
words,'' quote, ``it is illegal to receive Federal campaign 
funds on the property of the White House or the Executive 
Office Building,'' end quote. ``New York Times, March 6th, 
1997.
    ``In 1896, President Grover Cleveland's administration 
issued an opinion on the meaning of the word `receive' under 
the predecessor to the modern statutes limiting political 
activities by the Federal employees and the interpretation that 
has been followed consistently through reenactments and 
codifications of these statutes over the past 100 years. 
Attorney General Judson Harman wrote in 1896 in a published 
opinion at 21 Opinions of Attorney General 298,'' quote, ``The 
place where he, bracket, the Federal employee, end bracket, 
received the contribution is immaterial'' because, quote, 
``possession which simply constitutes the taker a mere 
custodian without right on his own behalf or of that of others 
does not violate the act.
    ``The vitality of Harman's opinion has not diminished over 
the years. The word `receive' and the phrase `receive a 
political contribution' in 5 U.S.C. Section 7323(a)(2) and the 
phrase `receive any contribution' in 18 U.S.C. Section 607(a) 
is defined today by Federal regulations as follows: `Receive 
means to come into possession of something from a person 
officially on behalf of a candidate, a campaign, a political 
party, or a partisan political group.' 5 CFR section 734.101, 
1996. To further drive the point home, the Office of Personnel 
Management, the agency that promulgates these regulations, has 
recently addressed this very issue in both its comments to 
interim regulations on the subject in 1994 and its adoption of 
final regulations a mere 8 months ago stating,'' quote, 
``Ministerial activities which precede or follow the official 
acceptance and receipt, such as handling, disbursing, or 
accounting for contributions are not covered under the 
definition of `accept' and `receive.' As Attorney General 
Harman stated over a century ago, where an employee's relation 
to the transaction is `purely mechanical,' '' and that's in 
quotes, ``the employee has not acted improperly or illegally 
regardless of whether he or she is in a Federal building.''
    There are several additional paragraphs. That's my opinion 
with regard--and analysis with regard to this particular issue. 
And I just wanted the committee to be aware that there is 
substantial authority for the fact that these circumstances 
would not give rise to a criminal violation or a civil 
violation of any statute or regulation on the part of my 
client.
    [The letter referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5667.064
    
    [GRAPHIC] [TIFF OMITTED] T5667.065
    
    Mr. Burton. The gentleman's statement and the 
correspondence you alluded to you will be made a part of the 
record.
    Mr. Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    First I would like to submit something for the record. This 
is a memo for all Members' offices and the employees of the 
House of Representatives, dated April 25, 1997, and the subject 
is Rules Governing Solicitation by Members, Officers and 
Employees in General.
    [The memo referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5667.066
    
    [GRAPHIC] [TIFF OMITTED] T5667.067
    
    [GRAPHIC] [TIFF OMITTED] T5667.068
    
    [GRAPHIC] [TIFF OMITTED] T5667.069
    
    [GRAPHIC] [TIFF OMITTED] T5667.070
    
    [GRAPHIC] [TIFF OMITTED] T5667.071
    
    [GRAPHIC] [TIFF OMITTED] T5667.072
    
    [GRAPHIC] [TIFF OMITTED] T5667.073
    
    [GRAPHIC] [TIFF OMITTED] T5667.074
    
    [GRAPHIC] [TIFF OMITTED] T5667.075
    
    [GRAPHIC] [TIFF OMITTED] T5667.076
    
    Mr. Kucinich. In this--and I cite from this for the purpose 
of bringing some clarity to this moment. Under the topic of 
receiving political contributions, and I quote: ``However, if 
someone unexpectedly offers a contribution during a visit to a 
House office, or someone unexpectedly mails or delivers a 
contribution to the office, the contribution can be accepted, 
provided that it is forwarded to the political committee within 
7 days of receipt. The criminal statute, 18 U.S.C. 607 includes 
a provision which specifically permits acceptance and 
forwarding of a contribution received in a Congressional 
office, provided that the contribution was not solicited in any 
manner which directs a contributor to mail or deliver a 
contribution in a Federal office.'' Then it goes on to talk 
about the implications of the frank.
    I would like to submit this into the record. I would also 
like to submit a copy of 18 U.S.C. 607, which spells out the 
circumstances under which someone in effect can be a custodian, 
but passing it along, they're not lawfully--they're not 
unlawfully receiving it. And also, an addendum which is the 
Hatch Act which, in effect, would qualify the conditions under 
which someone would have temporary custodianship of a 
contribution.
    Mr. Cox. Would the gentleman yield? Is the gentleman aware 
that that's not the law that applies to the White House?
    Mr. Kucinich. I am aware furthermore that in exhibit 153-4, 
the White House in receipt of campaign contributions in the 
White House, spells out a policy of passing along such 
contributions. I'm going to continue if I may.
    I furthermore want to point out and caution members of the 
committee about implying that Ms. Williams broke any laws in 
regard to this, since it's very clear that there are policy 
statements and ethics statements which suggest that there is 
one standard that has already been applied to the legislative 
branch and a policy through an exhibit that implies that there 
is an equivalent in the administrative branch.
    Furthermore, on another issue, the chairman of this 
committee said on record that the check from Mr. Chung came 
from the Chinese Government and was therefore illegal. But I 
would submit respectfully that the Chair is not correct.
    On March 6, 1995, Mr. Chung received a $150,000 wire 
transfer into his account which had only about $9,000 in it. On 
March 19, 1995, he wrote a $50,000 DNC check that he handed to 
Maggie Williams.
    There is nothing illegal with this transaction as the money 
he received by wire was his own earned money. In fact, the wire 
transfer record itself states that it was a payment for goods 
from the Haomen Group. The Haomen Group is a Chinese beer and 
soda company. And Mr. Chung escorted an executive to that 
company through the White House in December 1994, and was 
reportedly trying to market the company's beer in the United 
States.
    The wire transfer came from the Chase Manhattan Bank in New 
York City. Now the Senate released the underlying documents 
about the wire transfer to the press which then reported the 
facts. For instance, the July 18 articles in both the L.A. 
Times and in Newsday fully report the facts about the March 6 
wire transfer. Quoting from the L.A. Times, ``a partial review 
of Chung's personal financial records shows that contrary to 
GOP assertions, Chung had in excess of $300,000 in various bank 
accounts at the time, indicating that he could have covered his 
$50,000 contributions without Chinese funds.''
    So there are two points here. One of which is that is--
there is no suggestion that Ms. Williams violated the law by 
taking in and then passing along, according to proper 
procedures, that check that Mr. Chung gave her. Second, there 
is no evidence that Mr. Chung, in fact, could not have covered 
that contribution with his own money.
    Now, we do have evidence of the ubiquitousness of Mr. 
Chung. That we have evidence of. What we have here is more or 
less the return of Forrest Gump, this time as an ethic 
businessman. He is everywhere. He is with Republicans. He's 
with Democrats. He's at the Statehouse. He's at the White 
House. But nothing says that he should be going to the big 
house.
    Mr. Burton. Does the gentleman yield back the balance of 
his time?
    Mr. Kucinich. I yield my time back to Mr. Fattah, if he 
wishes to continue that point.
    Mr. Fattah. No, I just want in addition to, in response to 
Congressman Cox's, I think, very appropriate question, that 
that does only relate to the House's rules. But there's a 
Senate rule that I would also like to put in the record which 
is quite similar and is also one that governs the White House.
    In addition, the Office of Personnel Management, in its 
regulations which governs all Federal employees, says 
essentially the same thing; and that is, that administrative 
activities which precede or follow the acceptance and receipt, 
such as handling, disbursing, accounting for contributions, are 
not covered under the definition of accept and receive.
    So I think that what we need to be clear about is that 
clearly, based on all of the accepted norms, the fact that she 
received a check and sent it over to the DNC is not something 
that is dissimilar to what happens throughout the Federal 
Government and is generally accepted as a normal part of doing 
business here. And for people to try to make that into a crime 
is in of itself quite offensive, and it should be to the 
majority even on this committee.
    Mr. Kucinich. Reclaiming my time. Thank you, Mr. Fattah. 
You helped to elucidate that further.
    Mr. Burton. The gentleman's time has expired. Mr. Horn.
    Mr. Horn. I will be glad to yield the chairman such time as 
he needs.
    Mr. Burton. Let me just take a second here. One of the 
things that we're trying to find out is, were illegal foreign 
contributions made to either party. In this particular case, 
we're talking about the Democrat National Committee. What do 
these transactions mean?
    Now, we could sit here and argue about whether or not Mr. 
Chung had funds in one bank account or another and on and on 
and on. But we honestly don't know. We don't know if this was a 
conduit contribution. Was that $150,000 legitimate income that 
was earned by Mr. Chung's business? We don't have the answers 
yet. We hope to get those answers from Mr. Chung tomorrow. 
We're going to be talking to him about that, taking a 
deposition in the morning before the hearing. But the fact of 
the matter is the appearance, the appearance is one that needs 
to be investigated very thoroughly. And that's what we're 
trying to do.
    Mr. Horn.
    Mr. Horn. I thank the gentleman for yielding.
    Mr. Cox. Would the gentleman from California yield? Would 
the gentleman yield?
    Mr. Horn. I will.
    Mr. Cox. I thank the gentleman.
    Mr. Chairman, it's also important for us to focus on the 
fact that while surely we would empathize with anyone who 
unwittingly received a campaign check and tried to do the right 
thing with it, what we've got here is, first, consistent long-
standing advice of the White House Counsel's Office, the same 
memoranda that we used to circulate when I worked in the White 
House Counsel's Office, that makes it clear to all the White 
House office employees and certainly who run those offices such 
as the Chief of Staff of the First Lady that you cannot accept 
contributions.
    We have a Chief of Staff who then did not consult with the 
White House Counsel's Office; neither did she consult with the 
National Security Council concerning people that I take it were 
complete strangers.
    I'll ask you on the record, Ms. Williams, were the people--
we're not so much concerned frankly about Johnny Chung as we 
are about what's going on behind him. And therefore, these 
pictures that we're looking at of Johnny Chung with various 
people or with the President of the United States are not so 
troublesome as the fact that he didn't even go to the main 
event which he apparently purchased for his People's Republic 
of China visitors; but rather we had representatives of the 
China Petrochemical Corp., COSCO, CITIC, and so on, none of 
whom I would classify as a political groupie, and none of whom 
I would say is beyond engaging in policy discussions, walking 
right in and having meetings for the First Lady, the President 
of the United States and so on.
    But let me ask you, because we left on this before, whether 
or not the people who you arranged to meet with President 
Clinton on that Saturday on March 11 to watch him give his 
radio address and so on, was any of those people known to you 
prior to the request by Mr. Chung that they would be permitted 
these meetings?
    Ms. Williams. I did not arrange for Mr. Chung to go to the 
radio address or any of his associates to go to the radio 
address or meet with the President.
    Mr. Cox. Did you meet with these people yourself?
    Ms. Williams. I didn't meet with them. I was introduced to 
them, as I said before, and I----
    Mr. Cox. You were introduced to them.
    Ms. Williams. They didn't speak any English. I----
    Mr. Cox. Were any of these people known to you before?
    Ms. Williams. No.
    Mr. Cox. So they were complete strangers.
    Ms. Williams. Yes, they were.
    Mr. Cox. And I think part of the concern here is that 
exactly contemporaneously with the exchange of significant 
funds, $50,000, complete strangers are given extraordinary 
favors by the White House. That is a different issue. And that 
is--it is that sort of total picture that makes us focus on why 
this money is--changes hands inside the White House. But these 
people to you were total strangers.
    On April 7th, the National Security Council opined that Mr. 
Chung should be treated with suspicion and that he was a 
hustler. Do you know how many times he was admitted to the 
White House after that advice was given on April 7?
    Ms. Williams. I do not know that. But you--that advice was 
not given to me.
    Mr. Cox. So you never heard from the National Security 
Council about Mr. Chung at all?
    Ms. Williams. No, I didn't. In fact, the only contact I 
ever had with the National Security Council with respect to Mr. 
Chung that I recall was having spoken to someone a long time 
after the radio address, when Mr. Chung was trying to get his 
pictures, and he wrote me a note. So I was not aware of the 
National Security Council--I don't know if it was a memo or 
whatever on April 7 or whatever the date was. Sorry.
    Mr. Cox. Let me ask a question about these complete 
strangers, because it's been suggested that Johnny Chung is a 
sort of wealthy Mr. Magoo who is just kind of aimlessly bumping 
into people and showing up places. Would you characterize the 
vice president of the China International Trust and Investment 
Corp., as a political groupie who was uninterested in 
discussing any policy?
    Ms. Williams. I don't know him.
    Mr. Cox. But do you think that someone who occupies that 
position is likely to be a naive waif?
    Ms. Williams. I don't know him to say.
    Mr. Cox. Or the vice president of China Petrochemical, does 
that sound like the kind of person who is just interested in 
being a political groupie?
    Ms. Williams. Well, I don't know him. And, boy, you know, 
Washington is full of surprises. People you least expect to be 
one way are another way, so I'm hesitant to say----
    Mr. Cox. Just amazing.
    Ms. Williams [continuing]. Just based on the title.
    Mr. Cox. It's quite a surprise.
    Mr. Burton. The gentleman's time has expired. Mr. Waxman.
    Mr. Waxman. Ms. Williams, I think we're sinking to new lows 
on this committee. I'm just astounded at the last questions 
that you had from Mr. Cox when he said that there was an 
advisory from the National Security Council. There was not an 
advisory from the National Security Council. It was a memo by 
someone at the National Security Council when questioned 
whether he should give Mr. Chung and his guests photos. He said 
extraordinary reward that was given to Mr. Chung. Well that was 
the extraordinary reward, whether he should give his photos. 
They were a little nervous about this guy. He was a hustler. 
And that's what Mr. Suettinger, I think is his name, said in 
his memo. It wasn't an advisory. It wasn't an all purpose 
alert.
    Second, I think we reached an all time low when people 
start talking about the law. You would think that lawyers would 
have some sense that they should be honest about it. The law is 
very clear. If someone unexpectedly offers a contribution or 
unexpectedly mails or delivers a contribution, the contribution 
can be accepted provided it's forwarded to the political 
committee within 7 days of receipt. That's the law.
    What is going on here, and I suspect you already have 
figured it out, is Republicans have no indication that you 
solicited any contribution. They have no basis for saying that 
you violated any law, that you have committed any illegality. 
What you're in the process of being is, quote, ``slimed.'' 
That's what's happening here today. And it really is a new low.
    The chairman says we're talking about foreign 
contributions. Well, no one has been able to say that it was a 
foreign contribution involved here. Maybe there was, but all we 
know is that Mr. Chung wrote a check and then received a wire 
transfer from a foreign bank. A foreign bank doesn't mean it's 
a foreign contribution. And if it's a foreign payment through a 
foreign bank, a payment for some business activity of his, that 
doesn't make it a foreign contribution.
    You know, the thing is this, this is supposed to be an 
investigative committee. Before an accusation is made, those 
who are doing an investigation should find out the facts. What 
we have in this committee is a pattern of allegations before 
they know the facts. That's what happened when the chairman 
alluded to his claim that the tapes of the White House coffees 
were altered. He still has no way--no basis for making that 
statement. You don't reach a conclusion before you get the 
facts unless you're doing it for political purposes. And of 
course I think that's what's really going on.
    If we have information about a foreign contribution, let's 
get the information out there before the allegation is made. 
That's the responsible way for investigators to handle things.
    Just for the record, and people should know this, because 
there are people who watch this hearing on C-SPAN, this 
committee has issued 600 subpoenas and requests for 
information, all directed at Democrats. And they've had 10 
requests for information and subpoenas where it might pertain 
to possible Republican wrongdoing.
    The chairman says he's going to do his level best to know 
what the facts are, no matter where they may lead, on either 
side of the aisle. Well, I'm pleased to hear he said he's going 
to subpoena Triad. I haven't seen a subpoena to be issued by 
our committee at all.
    And I want to make the point for the record that an excerpt 
from the 1994 interim regulations that say ministerial 
activities regarding contributions like the one you had are 
perfectly legal. I'm going to put that in the record. These are 
the regulations for the Office of Personnel Management. And Mr. 
Cox, who used to work in the White House, said don't you know 
the rule is different in the White House. Well, I have now the 
information it's not different in the White House.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5667.077
    
    [GRAPHIC] [TIFF OMITTED] T5667.078
    
    [GRAPHIC] [TIFF OMITTED] T5667.079
    
    [GRAPHIC] [TIFF OMITTED] T5667.080
    
    [GRAPHIC] [TIFF OMITTED] T5667.081
    
    Mr. Cox. Would the gentleman yield, because the statute is 
different as well as the advice memorandum.
    Mr. Waxman. I do not yield. I'm submitting for the record 
the statement of the Office of Personnel Management dealing 
with interim regulations that is pertaining to the White House 
itself.
    It seems to me that what we have repeatedly is a statement 
we're going to go into foreign contributions. And yet, 2 weeks 
ago, the subpoenas went out from this committee to the 
Teamsters. That has nothing to do with foreign contributions.
    What we're trying on this committee on behalf of the 
Republicans is to try to see if they can stir up some kind of 
claim of illegality out of thin air. And to me, I think that is 
the wrong thing for us to be doing. It's a waste of taxpayers' 
money. It is partisan. It is just not credible as a serious 
investigation. And we've already spent $3 million on this 
committee, just to fund this investigation for which we have 
nothing new, nothing new. Even your testimony is not fresh for 
this committee because you've already given depositions in the 
Senate, given depositions here. All of this has been reviewed 
over and over again. Nothing new has come out of this hearing.
    And I think this whole investigation is a very sad chapter 
in the House of Representatives, in the history of what ought 
to be our clear responsibility for oversight. This is a 
ridiculous process.
    And by the way, OPM and the Ethics Committee on this issue 
agree on the interpretation of the law. Only Mr. Cox and Mr. 
Barr disagree. And I would be pleased to yield to the gentleman 
from California if he wants to make any further comments. But 
he might want to wait to see what the document that I have and 
am putting into the record says so he'll know for sure what the 
rules are that pertain to the White House. I ask unanimous 
consent it be made part of the record.
    Mr. Cox. I would be happy to accept the gentleman's 
invitation of time.
    Mr. Burton. The time has expired, but if----
    Mr. Waxman. Well, then, I don't have time to yield, and 
therefore I don't yield.
    Mr. Burton. OK. Mr. Mica, you're recognized.
    Mr. Mica. I thank you, Mr. Chairman. I might just comment 
on a couple of things. First of all, the pictures that we have 
over here with the Republican Governors, I heard one of my 
colleagues say that they made it into the Statehouse and the 
White House. Well, that's not a matter of fact, because these 
pictures were all taken on the same day at the Republican 
Governors Association. In fact, just look, he's wearing the 
same tie in all the photos.
    These meetings did not involve arranging 55 visits to the 
White House. These photos did not involve $50,000 checks being 
passed to a Government employee in any instance that I know of. 
These photos did not involve the records of money coming from 
foreign sources to make those contributions. These instances 
did not, in fact, bring foreign nationals to arrange meetings 
while the President of the United States made a national radio 
address. And these photos didn't offer the access that we've 
seen demonstrated here today by this hearing.
    These photos did not arrange for giving of $40,000, 
December 14, 1994 to the DNC again through questionable 
sources; $50,000, March 9, 1995 to the DNC again from 
questionable foreign sources; $125,000, April 8, 1995 again to 
the DNC, and a grand total of $366,000, a few more dollars than 
he could have covered in his account as alleged by the other 
side.
    Ms. Williams, do you know Ms. Cara--I think it's Ceandra 
Scott at the DNC?
    Ms. Williams. Yes, I do.
    Mr. Mica. Now you testified a few minutes ago that you had 
nothing to do with getting Mr. Chung and his Chinese delegation 
into the Presidential radio address on March 11, 1995; is that 
correct?
    Ms. Williams. That's correct.
    Mr. Mica. Ms. Scott in fact has told the committee that she 
may have spoken to you specifically and made that request of 
you. Do you think she's wrong?
    Ms. Williams. I can only recall one time when I spoke with 
Ms. Scott regarding a radio address, and that was a radio 
address for either her parents or her grandparents.
    Mr. Mica. But you did not arrange or make any arrangements 
personally? And have you knowledge of your staff making 
arrangements to get Mr. Chung and these guests into this event?
    Ms. Williams. No, not to my knowledge.
    Mr. Mica. You said in your testimony, that Mr. Chung had 
asked you about giving money to the President or the First 
Lady. Was that from the very beginning of your meetings with 
him?
    Ms. Williams. Well, as I said before, I never had any real 
meetings with him.
    Mr. Mica. Well, your conversations with him. You have in 
your testimony that Mr.--he said, so when he asked how he could 
give and show his support, I told him he could.
    Ms. Williams. Yeah. He constantly asked me.
    Mr. Mica. He asked you. You didn't say, would you like to 
give?
    Ms. Williams. No.
    Mr. Mica. OK. And then you said you could support, in your 
quote, the DNC; give to Clinton/Gore campaign. And you've also 
said you were somewhat aware of the law, that you said you 
couldn't take that money. That was sometime earlier before you 
took the $50,000 on, when was it, March--when did you take the 
$50,000 check? March 9?
    Ms. Williams. That's the date people tell me. I'm not aware 
of the date.
    Mr. Mica. But he remembers giving a check.
    Ms. Williams. I remember getting a check.
    Mr. Mica. And you had suggested to him--these are your 
words and your testimony to this committee--support the DNC. 
And he brings you a check for $50,000. It doesn't raise a 
question, or him giving you a check?
    Ms. Williams. I'm sorry. It doesn't raise a question? I'm 
sorry. I don't understand the question.
    Mr. Mica. Well, you gave him an array of contribution 
possibilities, ``Give to the Clinton/Gore campaign.'' This is 
from your testimony in your quotes. ``Support the DNC'' in 
quotes; ``Give to Clinton/Gore campaign,'' in quotes. ``Help 
the President and Mrs. Clinton's legal defense fund,'' in 
quotes. You said those were your standard responses to people 
who were offering to help; is that correct?
    Ms. Williams. That's correct.
    Mr. Mica. And that's what you told him.
    Ms. Williams. When he asked me, yes.
    Mr. Mica. Did you ever receive any other checks or 
contributions? Were there any personally handed to you----
    Ms. Williams. No.
    Mr. Mica [continuing]. For any of these organizations I've 
cited or groups?
    Ms. Williams. No.
    Mr. Mica. This is the only one?
    Ms. Williams. This is the only one.
    Mr. Mica. And the same day that you received this, Mr. 
Chung was also invited to the White House Mess or allowed--it's 
not easy to get in the White House Mess.
    Ms. Williams. No, it's----
    Mr. Mica. Who made the arrangements to get him into the 
White House Mess?
    Ms. Williams. Well, first of all, it really isn't so 
difficult to get into the White House Mess.
    Mr. Mica. If the First Lady's chief assistant gets you in.
    Ms. Williams. No, because the White House Mess is 
essentially personal accounts, which is to say, if I get an 
apple from the White House Mess, it's charged to me.
    Mr. Mica. Did you get Johnny Chung in before he gave you 
the check or after he gave you the check?
    Ms. Williams. I believe that I had gotten him in one--
Johnny Chung?
    Mr. Mica. Well, the group that went to the White House 
Mess; was it the officials, the Chinese officials, the 
delegation?
    Ms. Williams. Well----
    Mr. Mica. And Mr. Chung, and all of the above.
    Ms. Williams. First of all, I don't actually know who went 
to the Mess with Mr. Chung that day. But I certainly did ask 
Ms. Ryan or someone in my office to make a reservation under my 
name for Mr. Chung.
    Mr. Mica. After he gave you the check or before?
    You don't recall?
    Ms. Williams. I don't recall. But I do recall him having 
used my Mess account before on another occasion before the 
check, I believe.
    Mr. Burton. The gentleman's time has expired.
    Mr. Mica. Thank you, Mr. Chairman.
    Mr. Burton. Mr. Davis.
    Mr. Davis of Virginia. Ms. Williams, thank you for coming. 
I don't have any questions, but I'm going to yield time to my 
friend from California, Mr. Horn.
    Mr. Horn. I thank the gentleman. Mr. Waxman had some 
comments to make, and I want to ask this question while you're 
here, because one of the witnesses will come after you're 
finished.
    Mrs. Hernreich, as I recall from her deposition, said--was 
told by President Clinton after the Chinese delegation visited 
him in the Oval Office, ``You shouldn't have done that,'' 
unquote. Or also, ``We shouldn't have done that,'' unquote, 
referring to those pictures that were taken of the President 
and the members of the Chinese delegation.
    Did Mrs. Hernreich talk to you after that picture was taken 
and the President was slightly upset about it all as a national 
security matter? Did she ever call you and say who brought them 
through here?
    Ms. Williams. No. I don't recall a conversation with Nancy 
Hernreich about that.
    Mr. Horn. Let me move to another situation, the Back to 
Business situation. What was the basic purpose of that Back to 
Business Committee?
    Ms. Williams. As I understood, the Back to Business 
Committee were a group of people who were primarily 
spokespersons who operated outside of the White House to answer 
the charges made about the President and the First Lady.
    Mr. Horn. What sort of charges are we talking about?
    Ms. Williams. Oh, too numerous to--I mean, there are all 
kinds of things that were being said about them.
    Mr. Horn. Well, did it have to do with things when he was 
Governor or when he was President?
    Ms. Williams. Oh, I can't remember. Just generally any bad 
thing that could be said.
    Mr. Horn. This was an all-purpose committee, in other 
words?
    Ms. Williams. As I understood it.
    Mr. Horn. Handling anything that was going to the outfield.
    Ms. Williams. As I understood it, yes, sir.
    Mr. Horn. Did it concern charges arising from Whitewater?
    Ms. Williams. Yes.
    Mr. Horn. Was that the primary thrust of the committee?
    Ms. Williams. I don't believe so.
    Mr. Horn. What was its primary thrust?
    Ms. Williams. Like I said, I thought the main thing was to 
have other spokespeople to respond. The primary was to have 
spokespeople.
    Mr. Horn. Who founded that committee?
    Ms. Williams. Lynn Cutler was one of the cofounders.
    Mr. Horn. Was the other cofounder Anne Lewis?
    Ms. Williams. Anne Lewis could have been a cofounder. I 
don't know if she was brought in later or she was a cofounder.
    Mr. Horn. And what is Mrs. Lewis's position in the White 
House now?
    Ms. Williams. She is Director of Communications.
    Mr. Horn. What is Mrs. Cutler's position in the White 
House?
    Ms. Williams. I'm really not sure. OK, I'm sorry. She's in 
Intergovernmental Affairs.
    Mr. Horn. Is she Deputy White House Director of 
Intergovernmental Affairs? Does that ring a bell?
    Ms. Williams. That could be so. I don't know if that 
happened after I left or--but she works at the White House, 
yes.
    Mr. Horn. Were discussions ever held with the First Lady 
about the information or advertisements that the Back to the 
Business Committee was promulgating?
    Ms. Williams. I'm certain that there was a point that I 
told Mrs. Clinton that there were people who were speaking out 
on her behalf.
    Mr. Horn. Well, did you get some of these advertisements or 
leaflets or brochures or different forms of communication and 
ever take them in to the First Lady?
    Ms. Williams. No.
    Mr. Horn. So you weren't involved in approval or 
disapproval?
    Ms. Williams. Oh, of their materials?
    Mr. Horn. Yes.
    Ms. Williams. No, not at all.
    Mr. Horn. Did the White House or the First Lady's office or 
you or anyone else you know in the White House ever provide the 
committee with a list of potential donors?
    Ms. Williams. With a list of potential donors?
    Mr. Horn. Potential donors. Even one donor. One and up.
    Ms. Williams. I don't know about anyone else at the White 
House or if there was any specific list. But as I said in my 
statement today, I was asked by Lynn Cutler for people to go on 
the television and people who might contribute to the group. 
And I gave her some names, three or four names.
    Mr. Horn. At your suggestion, Ms. Cutler contacted Chung 
for a contribution the day after the December 8, 1995 White 
House Christmas party, and Ms. Cutler introduced herself as a 
friend of the First Lady who was referred to him by you, 
according to an August 9, 1997 Los Angeles Times article; is 
that correct?
    Ms. Williams. Well, I did give her his name. I wasn't there 
at the Christmas party when she talked to him, but I did give 
him her name.
    Mr. Horn. Did Mrs. Cutler know Chung at that point when you 
gave the name? Had she met him during some of the tours?
    Ms. Williams. I don't know. I don't know.
    Mr. Horn. Did you suggest that Mrs. Cutler contact other 
potential contributors? And how many were they?
    Ms. Williams. As I said before, I gave her three or four or 
five or six names. I remember a Mr. Chung as a contributor, but 
I primarily gave her names of people I thought could go on 
television. And given my communications background, I thought 
that's what she thought I would be able to give her. In 
addition, I gave her Mr. Chung and I don't know who else.
    Mr. Horn. Well, Mr. Chung let's say is one of the four. Who 
were the other three?
    Ms. Williams. I do remember that I gave her the name of 
Kiki Moore as someone who could go on television. I don't 
remember the other three, but those two names I should 
remember.
    Mr. Horn. Is that a celebrity that I ought to know and 
don't know?
    Ms. Williams. No, no, not a celebrity at all. Just a young 
woman who is very good at speaking on television.
    Mr. Horn. And did she do that?
    Ms. Williams. Speak on television?
    Mr. Horn. Yes.
    Ms. Williams. Yes, I believe she did once or twice, yeah.
    Mr. Horn. So we assume Mrs. Cutler contacted her and got 
her involved.
    Ms. Williams. I don't know who contacted her, but that was 
the name I did give to her.
    Mr. Horn. Why did you suggest Mr. Chung and these other 
individuals to Mrs. Cutler to contribute to Back to Business? 
Was there any particular reason?
    Ms. Williams. Only that I was trying to think of people who 
had asked to be helpful to Mrs. Clinton. And he had on numerous 
occasions. And so his name was a name that I gave to her.
    Mr. Horn. Did Johnny Chung ever contact you inquiring about 
Lynn Cutler?
    Mr. Waxman. Point of order, Mr. Chairman.
    Ms. Williams. I'm sorry. Can you repeat the question?
    Mr. Horn. Did Johnny Chung ever contact you inquiring about 
Lynn Cutler?
    Mr. Burton. The gentleman's time has expired.
    Ms. Williams. No, I don't recall that he did.
    Mr. Burton. The gentleman's time has expired.
    Mr. Portman.
    Mr. Portman. Mr. Chairman, I'm happy to yield some time to 
you or, in your discretion, to Mr. Horn.
    Mr. Burton. If the gentleman will yield to me, I'll take a 
minute or so.
    Mr. Portman. Can I make a brief statement first and then 
I'll be happy to yield? I don't have any questions.
    Mr. Burton. Fine.
    Mr. Portman. I would like to make a quick statement. I've 
listened carefully today. We started off with my friend from 
California, Mr. Waxman, saying the only useful purpose here is 
to develop new campaign finance laws. I think that's 
inaccurate. I think the oversight is very important. I think 
that's what the committee is supposed to do. I think it's a 
useful public hearing of specific ethical issues, in this case 
surrounding Johnny Chung. And among the concerns I've heard 
today are inappropriate White House access, improper use of 
that access, potential use as a conduit for foreign money, even 
potential and national security issues related to the People's 
Republic of China.
    And I think, at the very least, this has been a very useful 
public hearing, because it helps to establish what the ethics 
rule should be and puts this administration and future 
administrations on notice; and that is, that the ethics rules 
need to be followed, that they do exist, the current rules in 
those gray areas, and they always exist to seek to adhere to 
higher ethical standards particularly in the Nation's White 
House.
    Mr. Waxman. Will the gentleman yield to me?
    Mr. Portman. I think this is an important service to the 
country and I commend the chairman and I will not yield time.
    Mr. Waxman. If the gentleman would yield to me for one 
comment, I don't disagree with what you are saying but I hope 
we will learn also to change the campaign finance rules that 
encourage this payment of money for access, which we see 
permeating throughout both the White House and Federal 
campaigns, but Congress as well.
    Mr. Portman. Reclaiming my time, that is an issue that 
there is not a consensus on in this committee, much less this 
Congress and this country, and I think in the meantime this is 
a very important exercise, and I will now yield my time to the 
chairman.
    Mr. Burton. Thank you, Mr. Portman.
    First of all, Ms. Williams, to clear up one thing, you were 
here, I guess, of your own volition to be at the First Lady's 
50th birthday party; is that correct?
    Ms. Williams. No.
    Mr. Burton. Oh, you were not?
    Ms. Williams. I did go to it, but that was not the reason I 
came.
    Mr. Burton. Did you go back to Paris after that?
    Ms. Williams. I was on my way to Paris--back to Paris when 
my lawyer called me and told me that----
    Mr. Burton. You didn't leave the country? You stayed.
    Ms. Williams. I stayed because it was a week from----
    Mr. Burton. I appreciate that.
    According to the information we have, you said you did not 
solicit money from Johnny Chung, and you did not discuss with 
him the money to the DNC owed the White House, and you do not 
know how he was aware of that.
    Now, on page 110 of Evan Ryan's deposition, which was 
released today, here is what she said, talking about Ms. 
Williams' response:
    ``Her response was we would see, you know, we'd see if we 
could set those things up for him and that it was helpful to 
know about his donation because then maybe that would enable 
the DNC to pay off some of their debts.''
    And then on page 112 she says, ``Oh, I don't know, it was 
more--I don't remember exactly what she said but it was 
something along the lines of that's helpful to know that they 
are getting this donation. Maybe it will help with some of the 
debts that they owe the White House. That's the general gist of 
what I got from her.''
    That seems inconsistent with what you have told us here 
today, and I just wondered if you can explain that 
inconsistency?
    Ms. Williams. Well, as I said, I have no specific 
recollection of this discussion with Ms. Ryan. But as I said in 
earlier questioning, it was not a secret for Ms. Ryan or people 
at the DNC that the DNC owed the White House money.
    Mr. Burton. But the point is that this was discussed prior 
to your getting the check from Johnny Chung?
    Ms. Williams. Well, that is her recollection. That is not 
my recollection.
    Mr. Burton. I see, OK. I will yield back to Mr. Portman and 
he can yield.
    Mr. Fattah. Mr. Chairman, a quick question. When you read 
the deposition, it seemed to me that Ms. Ryan was speaking 
after the fact of the contribution, not prior to the fact of 
the contribution. So maybe it wasn't clear.
    Mr. Burton. No, I'll be glad to give you a copy so you can 
take a look at that. I yield back to Mr. Portman.
    Mr. Portman. I am glad to yield to the gentleman from 
Florida.
    Mr. Mica. Mr. Portman, thank you for yielding and, Mr. 
Chairman, I just want to make a general comment too about what 
has been said on the other side about the cost of these 
hearings. That it costs too much, that it's cost $3 million. 
When, in fact, the cost of operation of this committee, 
including the investigative function, is far less than the 
other side spent for similar activities in the time that they 
controlled this committee.
    I submit, Mr. Chairman, that the cost to close down this 
hearing, this investigative process for future generations 
would be much more than we want to pay, because in fact this 
process is what separates our Government from dozens of other 
governments, scores of other governments around the world where 
they don't examine their executive branch, their executive 
agency, so this is very important.
    We appreciate the witness' cooperation, and we are not 
trying to condemn this witness; we are trying to find out the 
facts from this witness, and we hope to also find out from Mr. 
Chung where this money came from, how he could gain such access 
to the White House and to the President and First Lady in this 
manner, and then take corrective steps so this doesn't happen 
again, if, in fact, this does lead to foreign contributions. So 
I thank the chairman and yield back my time.
    Mr. Burton. The gentleman's time has expired.
    Let me give everybody some information here quickly. It is 
the intent of the Chair after the last questioner, which will 
be Mr. McIntosh, to break for about 15 minutes so everybody can 
get just a quick bite of something, come back and get to the 
second panel.
    I have been informed by the Cloakroom, that we will 
probably have a vote in an hour or hour and a half. If we take 
10 minutes, we will still have an hour and a quarter before we 
have to break for another vote. Mr. McIntosh.
    Mr. McIntosh. Thank you, Mr. Chairman. I would like to 
yield my 5 minutes to Mr. Barr.
    Mr. Barr. I appreciate the gentleman for yielding.
    Ms. Williams, I was somewhat intrigued by your attorney's 
reference to the letter that he wrote setting forth his opinion 
on some of the matters that we've touched on here today with 
regard to that provision of the U.S. criminal code that relates 
very explicitly to receipt of campaign donations and the place 
of solicitation and by whom.
    I might very respectfully suggest that you discuss with him 
some further documents. One would be an opinion by the Office 
of Legal Counsel at the U.S. Treasury Department in 1979, a 
Democrat administration, 3 U.S. opinion O.L.C. 31, in which 
there is some discussion, not directly on point with regard to 
the use of the word ``receive'' in the statute. It deals 
primarily with the location. But there is language in there 
that indicates very clearly that the issue of ``receive'' is 
not black letter law the way Mr. Dennis may wish it to be. And 
certainly he is your advocate and I understand his position and 
he argues it very eloquently, as always.
    Mr. Dennis. Could you give me that citation again?
    Mr. Barr. 3 U.S. opinion O.L.C. 31, and there are a number 
of footnotes that relate to the issues that we are speaking 
about here.
    Mr. Dennis. 1979?
    Mr. Barr. Right. I would also, Ms. Williams, direct your 
attention to 18 U.S.C., section 607. There has been some 
discussion and I think an effort on the part of the folks on 
the other side of the aisle to deliberately misconstrue this.
    Section 607 has two parts to it, (a) and (b); (a) is the 
operative part that we have been talking about here that states 
very, very clearly that any person defined as we have seen in 
603, any person who is paid by funds drawn on the U.S. Treasury 
cannot solicit or receive contributions for Federal elections 
in any room or building occupied in the discharge of official 
duties, so on its face I think very, very clearly it applies to 
your situation.
    Section or subsection (b) of the statute, which has been 
referred to by folks on the other side, has nothing whatsoever 
to do directly with your situation. It deals very explicitly 
with Representatives or Senators. It very clearly does not 
refer and does not cover members of the executive branch. And 
that is the provision that allows for persons in Senate or 
Representative offices to receive unsolicited checks or moneys, 
and then transfer those within 7 days, so if anyone in your 
situation were relying on that as a defense, I think they would 
be sorely disappointed. I think if anybody in your situation 
were relying on the defense that it would be rude to abide by 
the statute, they could be sorely disappointed as well.
    My point is that we have a law here. We also have an 
opinion and a review of Federal laws, including criminal laws, 
by Mr. Mikva, the Counsel to the President, not quite 
contemporaneously but within a month or so of what we are 
talking about here. That does not go into the detail that your 
counsel did in giving us his opinion. And I think that is very 
revealing.
    The memorandum of April 27, 1995, that I referred to 
earlier and that has been put forward as exhibit 153, states 
very clearly that no person in your situation can receive 
campaign moneys. It does not have any convoluted definition of 
what exactly ``receive'' means. As a matter of fact, it says it 
means a commonsense definition, which means somebody hands you 
something and you take it. It does also, as the Federal 
statute, have an explicit and an express exception for things 
received by mail.
    The fact that both this opinion and the statute that I 
referred to have express exemptions for certain activities 
leaves one very clearly under rules of statutory construction 
with the conclusion that other activity that does not fall 
within those exemptions is, in fact, covered. And I would, 
therefore, repeat that under your testimony under oath today, I 
believe that a case very clearly has been set forward of a 
violation of 18 U.S.C. 607(a).
    Now, what this Department of Justice wishes to do with that 
is certainly not anything over which we have concern. That has 
been obvious for quite some time. But for folks on the other 
side to say there is no evidence of this, and the statute does 
not apply, I think is laughable. The statute is very clear. The 
opinion of the White House by Abner Mikva is very clear. One 
could certainly argue about the fine points of it, but I think 
you have a serious problem here.
    Mr. Cox. Mr. Barr, would you yield for just a moment?
    Mr. Barr. Happy to yield to the gentleman from California.
    Mr. Cox. There is something else in the White House 
Counsel's memo that concerns me. In addition to stating clearly 
that White House employees may not ever accept a political 
contribution from any person----
    Mr. Barr. If the gentleman would yield back just for a 
moment, I have one point that I do want to make before my time 
expires and that is that I do intend to write a letter to the 
Attorney General requesting prosecution because I think very 
clearly there is a violation of the law. Mr. Dennis obviously 
does not agree, but I think that is a clear----
    Mr. Cox. Will the gentleman yield? If I could just finish 
the point, that the memo says that one should please consult 
our office, the Counsel's Office, before undertaking any action 
implicating an exception to this general prohibition, and I 
would wonder why Ms. Williams did not contact the Counsel's 
Office if it is, as you say, extraordinary to receive a $50,000 
check.
    Mr. Burton. The gentleman's time has expired. The 
gentlewoman can answer.
    Mr. Dennis. If I might, Mr. Chairman, again my client is 
not a lawyer. I would point out that the regulations that I 
cited which define official acceptance and receipt under the 
statute in question, the interim regulation were published in 
1994, which is some 15 years after this O.L.C. U.S. opinion, 
whatever it might say, and that the final regulations were 
adopted in 1996 and the citations set forth in my letter some 2 
years later.
    Mr. Burton. The gentleman's time has expired. Does that 
conclude your comments?
    Mr. Dennis. Just one other thing. The Counsel's Office, 
White House Counsel's Office, also agrees with that 
interpretation, the interpretation that I have stated here. And 
it is in writing in various documents.
    If I might, Mr. Barr, before you write a letter to the 
Department of Justice, I hope you will accept something in 
writing from me addressing specifically the points that you 
have made in your last statement, and Mr. Cox as well. I'll 
address that to you as well.
    Mr. Burton. Did that conclude the last part of the 
question?
    Mr. Cox. Mr. Chairman, I have a pending question to the 
witness. The counsel is certainly entitled to speak and I am 
pleased that he did so.
    Mr. Waxman. Mr. Chairman, regular order. I think Mr. Barr 
had the time. His time has expired.
    Mr. Barr. And I did yield for that final point and he was 
in the middle of asking it.
    Mr. Burton. Go ahead. You may answer it.
    Ms. Williams. I am sorry; what is the question?
    Mr. Cox. The question is, why you did not, even though the 
advice of the White House Counsel was before implicating any 
exception to the prohibition on accepting a contribution, you 
should contact the Counsel's Office, why, if it's so unusual 
for you to receive a $50,000 check or a check at all because 
you have testified that this was the only time it happened, why 
you did not contact the White House Counsel's Office?
    Mr. Burton. Let her answer.
    Ms. Williams. I didn't think of it. I was in a situation, 
just human, I guess. Didn't have the memo in front of me when 
it happened. I just acted.
    Mr. Burton. Mr. Sanders.
    Mr. Sanders. Thank you, Mr. Chairman. I would like to yield 
to Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Sanders.
    Let me--last week we had a witness here, a Deputy Counsel 
to the White House and she was accused of obstructing justice 
and now you have been accused of violating the criminal code. 
There are a lot of allegations flying around but, nonetheless, 
just so we can settle to the facts one more time. The DNC has 
returned every dollar that was received from Johnny Chung, even 
though there is no evidence at this moment that any of those 
dollars were illegal in any respect. And all of his 
contributions, with the exception of the check that was handed 
to you, were sent through some other mechanism. And so if one 
is chasing foreign contributions they would not just be 
focusing in on this one incident.
    Congressman Cox asked you when you arranged for these 
strangers to meet with the President on that Saturday, did you 
and so on--you never testified that you arranged such a 
meeting, right? You didn't arrange for them to go into the 
press conference at all, radio address.
    Ms. Williams. Right.
    Mr. Fattah. So that was never your testimony. And as far as 
you were concerned, and your counsel is concerned, contrary to 
all of this, these wild allegations, you don't believe that by 
accepting this check and passing it on that you violated any 
criminal statute or any civil statute and it was not your 
intent to; was it?
    Ms. Williams. No, of course it was not my intent to.
    Mr. Fattah. I know you are probably amazed at the hypocrisy 
of the Members here on the Hill. We had the chairman of the 
Republican Conference handing out checks on the floor of the 
House from the tobacco industry in which Members on the other 
side of the aisle thought that this was just fine and dandy and 
now here they are--if they have a political problem with the 
President, I'm sure the President can handle it. You did 
nothing other than receive this check and send it to the DNC. 
If you were working here as the chief of staff to a Member of 
Congress, you would have had 7 days to do that and not violated 
any law. Don't you think that the rules reasonably assume that 
there may be circumstances in which citizens, and Mr. Chung is 
a citizen of the United States, may make a contribution and so 
that it not be an unlawful situation that you can just pass 
that check along? Don't you think that that law makes a lot of 
common sense?
    Ms. Williams. Well, I've refused to give my opinion. On any 
of this.
    Mr. Fattah. Fine. You need not share your opinion. I just 
want to make it clear that you did not solicit the contribution 
from Mr. Chung, that you did not do anything other than forward 
in an administrative way through someone else in the office the 
check over to the DNC.
    Ms. Williams. That's correct.
    Mr. Fattah. Is that correct?
    Ms. Williams. That is correct.
    Mr. Fattah. And at this point in time you have appeared 
voluntarily before the committee?
    Ms. Williams. Yes.
    Mr. Fattah. And that notwithstanding the abuse, at least 
what I think has been abusive allegations of criminal conduct, 
which is obviously an attempt to smear your good name, you have 
served this country faithfully for many years in a high public 
office, and I want to thank you for your service, and I want to 
wish you well.
    Ms. Williams. Thank you.
    Mr. Sanders. I take back my time and yield it to Mr. 
Barrett.
    Mr. Barrett. Thank you, Mr. Sanders.
    What I would like to do is take a minute or two. Evan Ryan, 
who is Ms. Williams' aide, is not here today, but she was--her 
deposition was taken by minority counsel. And what I'd like to 
do is read key excerpts from her testimony into the record. I 
think that they are relevant here for several moments. This is 
from her deposition:

    Question: Second sentence, ``He showed her the business 
cards of his Chinese companions and asked if arrangements could 
be made for them to eat lunch in the White House Mess.''

    Mr. Burton. Excuse me. What page are you on so we may 
follow you?
    Mr. Barrett. I don't have the page number here.
    Mr. Burton. There should be a page reference on the top.
    Mr. Barrett. I have it retyped.
    Mr. Burton. OK. We will try to figure it out.
    Mr. Barrett. Quote,

    He showed her the business cards of his Chinese companions 
and asked if arrangements could be made for them to eat in the 
White House Mess and meet Hillary Clinton. Quote, to the best 
of your recollection are all the elements of that response 
correct? Answer: No.
    Which ones are incorrect? Answer: He never showed me 
business cards on that day and he also asked about the radio 
address and a tour of the White House.
    Question: Quote, Chung also asked if there was anything he 
could do to help the White House? Quote, is that sentence 
correct? No.
    Question: And how is it incorrect? Answer: That day he 
stated he was making a contribution to the DNC, quote.

    Then we move down. New section.

    Question: Then she said, quote, Maybe you can help us, 
unquote. Is that sentence correct? Answer: No.
    How is that incorrect? I didn't say anything about helping 
us. I mentioned that we were going to check and see if we could 
set up any of the things he was hoping to set up.
    Question: The next paragraph reads, quote, the aide told 
Chung that the First Lady had some debts with the DNC from 
expenses associated with White House Christmas parties, quote. 
Is that sentence correct? Answer: No.
    And question: How is it incorrect? Answer: I never 
discussed expenses and that Christmas with Mr. Chung.
    Question: The next sentence reads, quote, Chung believes 
that Ryan mentioned a figure of $80,000, quote; is that 
sentence correct? Answer: No.
    How is that incorrect? Answer: I never mentioned a figure 
of $80,000. I never mentioned any.
    Question: Skip the next paragraph because it is a 
parenthetical not bearing on facts.

    Paragraph following that reads, quote,

    Ryan told him Chung said that she was relaying the question 
on behalf of Williams who hoped Chung could help the First Lady 
defray these costs, quote. Is that sentence correct? Answer: 
No.
    Question: And how is it incorrect? Answer: I was not 
relaying anything on behalf of Maggie Williams regarding 
defraying costs of the First Lady.

    And we go down.

    Question: We have already covered that. I apologize for 
bringing it up again.
    The next sentence reads, quote, and Lewis said Ryan is sure 
that she had no discussion of financial contributions with 
Johnny Chung, quote; is that sentence correct? Yes, and no 
discussions he made that statement to me, but there were never 
any discussions.

    I just wanted to make sure that--these are questions from 
minority counsel and I wanted to make sure those were in the 
record.
    Thank you, Mr. Chairman.
    Mr. Burton. The gentleman's time has expired. The last 
person to question will be Mr. Shadegg. Even if somebody else 
comes in.
    Mr. Waxman. You can't do that. I hope nobody else comes in 
but you can't do that.
    Mr. Burton. I will assume that Mr. Shadegg will be the last 
person to question and we will then break for 10 minutes.
    Mr. Shadegg. Ms. Williams, following on this deposition, 
because I don't know what pages of the deposition they were 
reading from, but I have the same deposition, a deposition of 
Mrs. Evan Ryan who is not here today. She is out of the country 
and not available. Although I think at some point in time she 
will be before this committee and I am trying to get some 
clarification.
    We, for example, know that Mr. Chung was seeking some 
things from the White House. And everybody has agreed on that. 
We also know that at one point in time Mr. Chung tendered a 
$50,000 check and you accepted that $50,000 check. But I have 
some questions that go to this deposition that Mrs. Evan Ryan 
gave. For example, in that deposition Mrs. Evan Ryan says point 
blank----
    Mr. Dennis. What page?
    Mr. Shadegg. I do have a page. Page 109, line 16.
    Mr. Dennis. 109, line 16, OK. I'm sorry for being slow.
    Mr. Shadegg. What did you tell Mrs. Williams? I told her 
that Johnny Chung was here and that he had some businessmen 
from China and that he was hoping to get a tour, the radio 
address, the Mess, and the photo with Mrs. Clinton. And he was 
also going to donate money to the DNC while he was here.
    Do you see that question and that answer? Now, what I want 
to do is clarify for the record, do you recall her telling you 
that Johnny Chung was there, and that he had businessmen from 
China with him?
    Ms. Williams. On what day is this? The same----
    Mr. Shadegg. I presume it's March 9th, because the radio 
address was on March 11th and we know that Mr. Chung did, in 
fact, attend the radio address with the Chinese colleagues. 
Even if we can't pin down a date, did you have a conversation 
with Mrs. Evan Ryan, whom I think you knew well, in which she 
indicated that Mr. Chung was there and that he was anxious to 
get a tour, a radio address, a visit to the Mess and a photo 
with Mrs. Clinton and in which Mrs. Evan Ryan said to you he 
was also donating some money to the DNC while he was here?
    Ms. Williams. I don't recall this conversation exactly. I 
know that she said that Johnny Chung was here, and told me 
about the photo and wanting the photo and wanting to eat at the 
Mess. That's what I recall.
    Mr. Shadegg. It is very important for us to figure out who 
is right and who is wrong. We are trying to get to the bottom 
of this and we have two conflicting stories.
    Ms. Williams. I am not saying necessarily that they are 
conflicting stories. I am saying----
    Mr. Shadegg. I am trying to find out the degree to which 
they conflict.
    Ms. Williams. She may have a more specific recollection of 
some of these issues simply because her job was to deal with 
these requests. With all due respect, as Chief of Staff to the 
First Lady, these were among some of my concerns but 
necessarily not my primary concerns. So, you know, I absolutely 
remember----
    Mr. Shadegg. Can we just walk through the other things that 
she said so that you will have an opportunity to say whether 
they are true or not true or you recall them or whether you 
just have no recollection?
    Ms. Williams. Fine.
    Mr. Shadegg. She then gets asked again the question: You 
told her what he wanted and you told her at that time he was 
going to donate money to the DNC? And Mrs. Williams reaffirms 
that. You still have no recollection.
    Ms. Williams. I'm sorry, I don't----
    Mr. Shadegg. I'm sorry, Ms. Ryan reaffirmed that.
    Ms. Williams. Could you give me what is the question?
    Mr. Shadegg. There is a reaffirmation by Mrs. Ryan that she 
told you two things. One, he wants a tour, a radio address, the 
Mess, and the photo with Mrs. Clinton, and he's making a 
donation to the DNC. She's now said that very clearly at two 
different points, as you can see. Now we are looking at lines 
22 to 24 which your counsel has showed you. Do you have a 
recollection of that?
    Ms. Williams. I have a recollection definitely of the Mess 
and of the photo and that Mr. Chung was there.
    Mr. Shadegg. No recollection of being told about the fact 
that he was making a donation to DNC?
    Ms. Williams. No, I don't.
    Mr. Shadegg. Let's go to page 110, lines 6 through 9. Here 
she gets very specific and she talks about what you said back 
to her. She said that you had said to her we could see if we 
could get those things for him, and that you said it was 
helpful to know about this donation because then that maybe the 
DNC would be able to pay off some of their debts.
    Ms. Williams. No, I don't have a recollection of this, and 
Mr. Chung had, prior to I guess March 9, already been a 
contributor to the DNC and had been making donations to the 
DNC. So, I guess I think news about a donation from Mr. Chung 
would not strike me as extraordinary or unusual.
    Mr. Shadegg. So you are saying that you didn't say it was 
helpful to know about the donation?
    Ms. Williams. No, I don't recall saying that.
    Mr. Shadegg. We then go on. You were aware of the debt, 
though; is that right? The debts by the DNC to the White House 
were significant?
    Ms. Williams. Oh, I was aware. Lots of people were aware.
    Mr. Shadegg. Going on to page 112, lines 12 through 16.
    Ms. Williams. Uh-huh.
    Mr. Shadegg. Mrs. Evan Ryan again says that you had said it 
was helpful to know and that getting this donation, maybe it 
will help with some of the debts in the White House. So she 
again says that your response----
    Ms. Williams. Well, I think you should read--first she 
says, oh, I don't know.
    Mr. Shadegg. Right. But it was something along the lines of 
that's helpful to know that they're getting this donation, 
maybe it will help with some of the debts. So, again, she 
quotes you as being aware that he's going to give a donation to 
the DNC.
    Ms. Williams. Well--OK, I just want to make sure that there 
are two things, because what you have read has been the lines 
that are in between. What you haven't read or the first thing 
is ``When Ms. Williams had mentioned that she seemed pleased to 
you''--this is the question ``that Mr. Chung mentioned he was 
going to donate to the DNC, do you have any idea how she knew 
that perhaps that donation would go to pay off some debts?'' 
``Oh, I don't know,'' it says.
    Mr. Shadegg. And then?
    Ms. Williams. Then it was more, I don't remember exactly 
what she said.
    Mr. Shadegg. And then that's where I began reading.
    Ms. Williams. ``It was something along the lines of that's 
helpful to know, that they're getting this donation, maybe it 
will help with some of the debts that they owe the White House. 
That's the general gist of what I got from her. I don't know.''
    Mr. Shadegg. Once again, she is saying that she made you 
aware that he was going to make a donation to the DNC and that 
you said--she's now said it twice and she's used the exact same 
phrase twice--that your response was, that's helpful to know.
    Ms. Williams. Could you explain to me then what the meaning 
of her saying ``I don't know'' at the end of that?
    Mr. Shadegg. Sure. That was a response to the question put 
to you; how did you, Mrs. Williams, know about the debt to the 
DNC. That's a different issue.
    Ms. Williams. There are two ``I don't knows.'' There's a 
top one and a bottom one.
    Mr. Shadegg. That's right. But there are still--your bottom 
line testimony is even though she says at two different 
points----
    Ms. Williams. I have no recollection.
    Mr. Shadegg [continuing]. That you responded saying it was 
helpful, that you have no recollection of that.
    Ms. Williams. No, I do not.
    Mr. Burton. The gentleman's time has expired. I want to 
thank you, Ms. Williams, for your patience and your legal 
counsel and everybody else who is with you here, Lanny. I know 
it has been a difficult time for you. I hope you have a safe 
trip back to Paris with your new husband and that everything 
goes well with you, and once again thank you very much for your 
help. We appreciate it. We stand in recess for 10 minutes.
    [Recess.]
    [The depositions of Margaret Williams, Evan Ryan, and Gina 
D. Ratliffe follow:]

                           Executive Session

      Committee on Government Reform and Oversight,
                             U.S. House of Representatives,
                                                    Washington, DC.
                    DEPOSITION OF: MARGARET WILLIAMS
                                 Wednesday, August 27, 1997

    The deposition in the above matter was held in Room 2247, Rayburn 
House Office Building, commencing at 10:06 a.m.
Appearances:
    Staff Present for the Government Reform and Oversight Committee: 
Barbara Comstock, Chief Investigative Counsel; Jennifer M. Safavian, 
Investigative Counsel; Sophia Nelson, Counsel; Kevin Binger, Staff 
Director; David N. Bossie, Oversight Coordinator; Kenneth Ballen, 
Minority Chief Investigative Counsel; Kristin Amerling, Minority 
Counsel; and Andrew McLaughlin, Minority Counsel.
For Ms. Williams:
    EDWARD S.G. DENNIS, JR., ESQ.
    Morgan, Lewis & Bockius, LLP
    1800 M. Street, N.W.
    Washington, D.C. 20036-5869

    Ms. Comstock. We can get on the record here.
    Good morning, Ms. Williams. I would like to begin by thanking you 
on behalf of the members of the Committee on Government Reform and 
Oversight for appearing here today.
    This proceeding is known as a deposition. The person transcribing 
this proceeding is a House reporter and notary public. I now request we 
have you sworn in. We have a notary public here to swear you in.

THEREUPON, MARGARET WILLIAMS, a witness, was called for examination by 
   Counsel, and after having been first duly sworn, was examined and 
                         testified as follows:

    Ms. Comstock. I would like to note for the record those who are 
present at the beginning of this deposition.
    My name is Barbara Comstock. I am the designated Majority counsel 
for the committee. I am accompanied today by Jennifer Safavian, who is 
also Majority counsel. Minority counsel today is Ken Ballen, who is 
accompanied by Kristin Amerling. The deponent is represented by Mr. 
Dennis. The deponent this morning is Margaret Williams.
    Although this proceeding is being held in a somewhat informal 
atmosphere, because you have been placed under oath, your testimony 
here today has the same force and effect as if you were testifying 
before the committee or in a courtroom.
    I would like to note for the record, also, the committee's Staff 
Director, Kevin Binger, who just entered the room, so you know.
    As we go along, just so you know, various members of Minority and 
Majority staff often come in, so, if you would like, we will identify 
them; but nobody else besides staff are allowed to come into the room.
    Mr. Ballen. Or Members of Congress.
    Ms. Comstock. Or Members, yes. It is recess, but I know we have a 
few.
    If I ask you about conversations you have had in the past and you 
are unable to recall the exact words using the conversation, I would 
ask you please state that you are unable to recall exact words but 
still, to the extent you can recall, give the gist or substance of any 
such conversation to the best of your recollection. If you recall only 
part of a conversation or only part of an event, please provide us with 
the best recollection of those events or parts of conversations that 
you do recall.
    If I ask you whether you have any information about a particular 
subject and you have overheard other persons conversing with each other 
regarding it or have seen correspondence or documentation regarding it, 
please tell me that you do have such information and indicate the 
source, either a conversation or documentation or otherwise, and how 
you derived such knowledge. In other words, it is not just personal 
knowledge that you learned firsthand but other information you may 
know. Please indicate how you know that so that we can indicate for the 
record and you can make clear that you got something thirdhand or 
secondhand or you really don't know if it is true but this is what you 
heard.
    Before we begin the questioning, I want to give you some background 
about the investigation and your appearance here. Pursuant to its 
authority under House Rules 10 and 11 of the House of Representatives, 
the committee is engaged in a review of possible political fund-raising 
improprieties and possible violations of law within the committee's 
jurisdiction.
    Pages two through four of House Report 105-139 summarizes the 
investigation as of June 19, 1997, and encompasses any new matters 
which arise directly or indirectly in the course of the investigation. 
Also, Pages four through eleven of the report explain the background of 
the investigations. All questions related either directly or indirectly 
to these issues or questions which have a tendency to make the 
existence of any pertinent fact more or less probable than it would be 
without the evidence are proper.
    The committee has been granted specific authorization to conduct 
this deposition, pursuant to House Resolution 167, which passed the 
full House on June 20, 1997. Committee Rule 20, of which you received a 
copy, outlines the ground rules for the deposition.
    Majority and Minority counsels will ask you questions regarding the 
subject matter of the investigation. Minority counsel will ask 
questions after Majority counsel has finished. After the Minority 
counsel has completed questioning you, a new round of questioning may 
begin. Members of Congress who wish to ask questions will be afforded 
an immediate opportunity to ask their questions. When they are 
finished, committee counsels will resume questioning.
    I would also like to note for the record that we also have another 
Majority attorney present. Sophia Nelson is with us also this morning.
    Pursuant to the committee's rules, you are allowed to have an 
attorney present to advise you of your rights. Any objection raised 
during the course of the deposition shall be stated for the record. If 
the witness is instructed not to answer a question or otherwise refuses 
to answer a question, Majority and Minority counsel will confer to 
determine whether the objection is proper. If Majority and Minority 
counsels agree that a question is proper, the witness will be asked to 
answer the question. If an objection is not withdrawn, the chairman or 
member designated by the chairman may decide whether the objection is 
proper.
    This deposition is considered as taken in executive session of the 
committee, which means that it may not be made public without the 
consent of the committee. Pursuant to clause 2(k)(7) of House Rule XI, 
you are asked to abide by the rules of the House and not discuss with 
anyone other than your attorney this deposition and the issues and 
questions raised during this proceeding.
    Finally, no later than 5 days after your testimony is transcribed 
and you have been notified that your transcript is available, you may 
submit suggested changes to the chairman.
    I would just like to add for the record that we have been working 
with Minority counsel on this and if you need additional days--I 
understand your counsel is out of town. I think you may be out of town, 
too; is that correct?
    The Witness. That is correct.
    Ms. Comstock. We can make arrangements, mailing it to you, and have 
waived that with the consent of the Minority in situations where you 
have physical proximity and distances, that you need to accommodate 
that.
    The Witness. Can I ask a question? With respect to making the 
deposition public, now the deposition is made public by the committee 
when the committee chooses to do so?
    Ms. Comstock. It has to be by vote of the committee.
    The Witness. By vote of the whole committee?
    Ms. Comstock. Yes.
    The Witness. That would only be after I reviewed my deposition?
    Ms. Comstock. Exactly. And just so you know, the depositions, when 
they become available and we get the transcript before it has been 
corrected, the Minority does get a copy of the uncorrected version, as 
do we, but then nothing would ever been be an official copy until you 
have the opportunity to review and make the changes. I will go into 
that a little bit on the changes but, just so you know, there are 
copies that are circulated to the Majority and Minority staff.
    The Witness. That are uncorrected but still not made public prior 
to?
    Ms. Comstock. Exactly. And it is the committee's responsibility--
Majority and Minority responsibility to make those corrections and make 
sure they are accurate for the record.
    The transcript will be available for your review at the committee 
office or, as we discussed, we can mail it to you. And when we do mail 
it, we ask you sign a form that it hasn't been copied or shared with 
anyone because, since it is an executive session, it is not made public 
and none of our copies physically go outside of our offices. Even our 
members have to come in to see copies of the actual deposition.
    The Witness. Okay.
    Ms. Comstock. Substantive changes, modifications, clarifications or 
amendments to the deposition transcript submitted by you must be 
accompanied by a letter requesting the changes and a statement for your 
reasons for each proposed change. A letter requesting any substantive 
changes, modifications, clarifications or amendments must be signed by 
you. Any substantive changes, modifications, clarifications or 
amendments shall be included as an appendix to the transcript, 
conditioned upon your signing the transcript. I believe we also make 
typographical changes within the body of it and technical changes like 
that.
    Do you understand everything we have gone over so far?
    The Witness. Yes, I do.
    Ms. Comstock. Do you have any questions?
    The Witness. No.
    Mr. Dennis. I just want to put on the record that Jim Wilson and I 
had a conversation when I believe the issue of trying to set a date for 
the deposition was decided upon and, at that time, I asked him about 
the scope of the deposition. He advised me that it focused primarily on 
this Chung matter, and I asked him if there were other areas that might 
be inquired, and he said that he would let me know a little closer to 
the deposition.
    I have not heard back from him, so we are operating on the 
assumption that it is going to be confined to the political fund-
raising and primarily this Chung issue and some related areas. But in 
terms of being prepared to get outside of that, you know, if we get 
into an area that my client hasn't had a chance to really consider, I 
will let you know, but that is one thing I have some concerns about.
    Ms. Comstock. I am sorry if there has been any misunderstanding on 
that, and I think that will encompass--we are going to go through the 
general fund-raising issues and matters of how, you know, in the First 
Lady's office, any involvement in any of those matters.
    Mr. Dennis. No problem with that.
    Ms. Comstock. And then, obviously, the issues of Mr. Chung. There 
is some matters relating to Mr. Hubbell that I think we will briefly, 
you know, some of these areas----
    Mr. Dennis. We can go through that.
    Ms. Comstock. The main characters--John Huang, Charlie Trie, the 
Riadys--the general people I think you are familiar with in the 
newspapers. I think most of the things should fall within that area.
    Mr. Dennis. None of those areas would present any problems.
    Mr. Ballen. And I have a statement I want to put on the record as 
well.
    First of all, it was mentioned--and this is the first time I have 
heard it--that hearsay is appropriate. In other words, if you learn 
things second- or thirdhand, to let us know that. I think in the 
Minority we would take a very dim view if we are going to start getting 
hearsay for the depositions.
    Technically, it is not excluded here because we don't operate under 
Federal rules of evidence, but it has been excluded from both civil and 
criminal trials. And our Anglo-American jurisprudence for some 300 
years and for very good reasons--because it is not reliable, no one can 
confront the accuser and other reasons; and I think it would be 
inappropriate if we started in this forum to rely on that.
    So that is one thing for the record; and certainly today, if there 
is anything you do not know firsthand, you should identify it as such.
    Ms. Comstock. I think my statement was to make clear that 
oftentimes people have heard something from somebody else, that 
somebody told me that there was a contribution made, I do not know that 
firsthand. What we are asking for is--we aren't just asking, 
necessarily--that you clarify for the record so that it is clear when 
someone is making a statement where the information comes from. That is 
the statement we have been reading at the beginning of the deposition.
    Mr. Ballen. Our view--and we will have to work this out between 
ourselves, but today you can identify. But our view is that kind of 
evidence is not appropriate.
    Ms. Comstock. I don't think we have a disagreement. I think we just 
want to have the witness make clear her knowledge of that information.
    Mr. Ballen. That would be fine.
    The other thing I wanted to point out is under House Rule XI, 
2(k)(a), objections as to relevancy and pertinency are ultimately 
matters for the committee to decide. In other words, if the Chair makes 
a ruling on an objection to relevancy or pertinency, that is appealable 
to the committee; and it is the province of the committee to ultimately 
rule under the House Rules as to those kinds of objections.
    Thank you very much.
    Ms. Comstock. This morning I will be asking you questions 
concerning the subject matter of this investigation. If you don't 
understand a question, please say so and I will repeat or rephrase so 
you understand the question.
    The reporter will be taking down everything you say and will make a 
written record of the deposition. It is important you give verbal, 
audible answers because the reporter cannot record what a nod of the 
head or other gesture may mean.
    If you can't hear me, please say so and I will repeat the question 
or have the reporter read back the question to you.
    I would ask that you wait until I finish each question before 
answering and I will wait until you finish your answer before I ask the 
next question so that we don't end up going over each other in the 
record.
    Your testimony is being taken under oath this morning as if we were 
in court, and it will be assumed you understood the question and the 
answer was intended to be responsive to it.
    Are there any questions you have about those matters?
    The Witness. No.
    Ms. Comstock. Are you here voluntarily this morning or as a result 
of the subpoena?
    Mr. Dennis. Well, voluntarily.
    I'm sorry. You are here voluntarily.
    The Witness. I am here voluntarily.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Okay. If we can get started. Just give your full name for 
the record.
    Answer. Margaret Williams.
    Question. And I am going to skip over what we have gone through 
before on previous depositions. I am going to skip over the usual sort 
of background, if that is okay?
    Answer. I appreciate it.
    Question. Okay. Could you just update us, though, on when you left 
the White House?
    Answer. May 3rd, 1997.
    Question. And where are you currently working?
    Answer. In my home, packing boxes.
    Question. Have you been asked by the White House counsel or anybody 
else at the White House to collect documents for any of the subpoenas 
or document requests from this committee?
    Answer. Yes, I was asked by my counsel to--in response to a letter 
he received from the committee to check personal materials to see if 
they were things that were responsive.
    Question. All right. And are you aware of document reviews being 
done in your offices at the White House?
    Answer. I assume so. Generally, White House counsel does that.
    Question. And who was in charge in particular in gathering 
documents from the First Lady's office?
    Answer. I am sorry. I do not.
    Question. Do you know, in general, that there has been a person 
designated in the First Lady's office to assist the White House 
Counsel's Office in gathering documents?
    Answer. Depending upon the request--depending upon the request and 
the area, it would differ. White House counsel in the past goes through 
phone records, goes through--I mean, they physically do it.
    Question. Could you describe how you have kept your records--how 
you kept your records while you were at the White House?
    Answer. How I kept them?
    Question. What kind of files--if you had correspondence files, 
phone logs, the type of different things that you maintained routinely.
    Answer. Routinely, exactly that--correspondence, phone messages, 
schedules, news clips, subject files, foreign trip files--I can't 
remember--speech files. I mean, the whole compliment of files that 
might be in an office.
    Question. And who maintained those files generally in your office?
    Answer. Evan Ryan, generally; interns at other times, volunteers. 
It has varied.
    Question. Did you routinely keep correspondence that were sent to 
you then? You said alphabetic files or chronological files?
    Answer. Depending on what it was. I was not a very good file 
keeper. Depending on what--on the area, it might be chron or it might 
be alphabetic. On a foreign trip file, for instance, I probably did 
that by chron and, inside that, alphabetically. On correspondence 
files, chron or alphabetically, although we had a different file for 
health care correspondence, for instance. So it just--I mean, kind of 
whatever the particular issue was, whatever was easiest to get to is 
how we kept them.
    Question. Do you know, on the foreign trip files, was that when the 
First Lady went on a foreign trip?
    Answer. Well, actually, it was when I did a pre-advance for the 
foreign trip. Most of the official records for her trip would be kept 
in the scheduling office. I tried hard never to actually duplicate any 
file. If I thought somebody else had them someplace, I usually did not 
keep them.
    But in the foreign trip file, for instance, it would be the pre-
advance. It would be all of the things that we looked at. It would be 
my recommendations of what she should do, perhaps the Secret Service 
recommendations, that kind of thing. More preparatory.
    Question. Would that include people who wanted to go on those trips 
or be involved in those trips, correspondence you may have gotten about 
requests to be involved?
    Answer. Generally, on her trips on the plane, there was only press 
that was carried with her on trips. There wouldn't be--I am sure there 
were people who wanted to go; but, as a general rule, I didn't get 
correspondence about who wanted to go. That might fall under more, you 
know, substantively who wanted to go. I didn't generally get those 
kinds of requests.
    Question. While you were at the White House, beginning last fall 
when revelations about John Huang and some of these fund-raising issues 
first came to light, did anyone from the counsel's office come to your 
office or send any kind of memos asking you to collect documents 
pertaining to any particular individuals?
    Answer. I am sure they did.
    Question. Do you recall any memos that were sent around by the 
counsel's office?
    Mr. Ballen. Can we have a time frame on this?
    Ms. Comstock. Starting last fall.
    Mr. Ballen. Before the subpoenas were issued by the committee?
    Ms. Comstock. Actually, this committee initially made requests 
under the previous chairman in October of 1996--in November of 1996. I 
believe the counsel's office did. I mean, we received--and I won't play 
hide the ball with you here. We did receive information that they were 
starting to request documents back there, and some memos went out.
                      examination by ms. comstock:
    Question. What I am trying to get a sense of is your familiarity 
with that and what actions may have been taken, particularly in the 
First Lady's office, in response to those.
    Answer. Although I can't tell you specifically what memos were sent 
and at what time, I do remember a series of, it seems to me, a series 
of memos that were sent asking for information about John Huang, about 
the Riadys and two or three other names that I wasn't necessarily 
familiar with.
    Generally, when that happens in our office, we would send a copy of 
that to everybody. But, generally, counsel's office is fairly good at 
making certain that the entire place was papered. And then there would 
be a deadline; and then there would be someone who would follow up from 
the counsel's office to say, have you looked here? Have you looked 
here? What have you got? Please send it to us.
    That was the routine. Although I can't remember a specific date, 
that was our routine based on past requests that we had had.
    Question. And do you know, in fact, if your office did begin 
providing documents, when they did begin providing documents?
    Answer. I would say that, in general, that we in my office were 
very responsive. So if there were documents that were requested, they 
were turned over to the White House Counsel's Office.
    Question. Okay. Now if you had documents, for example, with--that 
were from '93 or '94 that may have been responsive, would those have 
already been cataloged and filed away in another room or office?
    Answer. No, probably not. Probably not.
    Question. They probably still would have been maintained?
    Answer. They probably would have been maintained within the office 
at that point. Although, I mean, '93, '94--I mean, it would depend. I 
mean, it would depend on what was there, if we still had them.
    Question. And so while you have been there, you have not--I mean, 
prior to your leaving in May, you didn't box up any particular areas of 
things you were working in and move them out?
    Answer. Yes, I did box some. What I did was to leave the--in the 
office, because most of them I thought might be continuous files and 
people would want to work off of them.
    Question. I'm sorry, are you talking about when you left----
    Answer. Right.
    Question. I am talking about before you left, while you were there, 
if--you started January 20, 1993?
    Answer. Right.
    Question. Then you left in May of this year?
    Answer. Right.
    Question. Prior to leaving, had you had occasion to box up any of 
your correspondence or--if it had been anyplace before you left?
    Answer. Right.
    Question. Besides your office?
    Answer. I didn't myself box up. I know that after the health care 
project that we did box health care files and I guess move them to 
wherever the files go in the White House, I assume record management. I 
am not intimately familiar with that. I would probably say, you can box 
up the health care files or, you know----
    Question. Okay. I would like to discuss with you while you were at 
the White House any DNC employees that you had working with you in the 
First Lady's office in particular, if you recall that and how that came 
about?
    Answer. I don't recall that I did have any DNC employees working in 
the First Lady's office.
    Question. On health care matters or anything like that?
    Answer. No, the DNC actually had a health care campaign that was 
based at the DNC, that was based at the DNC, so they had their own 
project and their own staffing. And, obviously, around substantive 
issues, we would confer with them, but I really don't know of DNC staff 
working on health care at the White House.
    Question. Any DNC interns, anything like that that you recall.
    Mr. Ballen. Working in the First Lady's office?
    The Witness. Oh, working in the First Lady's office. I can't 
recall.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Or working on health care matters in general, maybe not 
physically located in the First Lady's office.
    Mr. Ballen. Your question is not whether there are any DNC 
employees working on health care matters but whether they are working 
at the White House or the First Lady's office.
    Ms. Comstock. I am really asking if she is familiar with DNC 
employees working at the White House. You know, why don't I go ahead--
--
    The Witness. I do know there were DNC employees who worked at the 
White House. I do not know of any who worked on health care or 
specifically in my office. I can't--I mean, I can't recall.
    Ms. Comstock. Let me show the witness CGRO-11946, which is a 
document we received from Mr. Ickes; and it is pertaining to DNC 
personnel related to White House support.

                      EXAMINATION BY MS. COMSTOCK:

    Question. I am directing your attention to the first area. Sara 
Grote worked in the First Lady's office?
    Answer. Actually, she worked in advance and scheduling, but she was 
detailed to work on First Lady issues.
    Question. All right. And do you recall how that came about?
    Answer. No, I really don't, because it was done--she actually 
worked for advance and scheduling.
    Question. Do you recall if you were involved in any discussions 
about having DNC employees work at the White House?
    Answer. No, I was not.
    Question. Directing your attention to the section that says health 
care media campaign staff, it has about six names there. Did you work 
with any of those folks on health care matters?
    Answer. Dwight Holton, I recognize; and Barbara Woolley I 
recognize. Jon-Christopher Bua, I recognize, but I believe that he 
worked at the DNC.
    Question. That is B-U-A, Jon-Christopher Bua?
    Answer. The only other person here that I recognize as working at 
the White House is Barbara Woolley, and I believe she worked for public 
liaison. I was not aware until after media reports that she actually 
was--she actually worked for the DNC.
    Question. Okay. And your testimony is that you don't recall any 
discussions about having DNC employees work at the White House or any 
matters related to that?
    Answer. No. I do recall press reports about this.
    Question. Referring to press reports this year?
    Answer. Yes. I don't know if it was this year, but--I don't know if 
it was this year or last year. I can't really speak to that. But with 
the exception of Barbara Woolley, who I thought worked for public 
liaison, I thought these people--some I don't recognize, but others I 
thought worked at the DNC.
    Ms. Comstock. Okay. We will make that Deposition Exhibit 1.
    [Williams Deposition Exhibit No. MW-1 was marked for 
identification.]

    [Note.--All exhibits referred to can be found at end of 
deposition.]

    Ms. Comstock. And this is EOP 59044. It is a document received from 
the White House, which I believe is a message pad kept at your office; 
and there is a phone message here attached from May 22nd. It doesn't 
indicate the year on here, but it is very difficult to read on the 
first page, but I believe it may be '95. But I think we can all agree 
it is hard to read, so it could be '93, '94 or '95.
    Answer. Where does '95----
    Question. I'm sorry. On the front page there. That is the message 
pad it was from.
    We could try to further clarify. I don't want to make any 
representations on the record, but here it is. When we tried to 
highlight that and figure that out, '95 is our best bet.
    But I think it's a message to Maggie from Adam in Leon Panetta's 
office. It is regarding a meeting from the Chief of Staff Office, re: 
DNC Employees Working at the White House.
    Now as we have discussed, it is difficult to read the year, but I 
am wondering if you recall anything in '95, in general, any issues 
around May of '95 regarding White House employees----
    Answer. No.
    Question [continuing]. Working at the White House you may have 
discussed with Mr. Panetta?
    Answer. No, I don't.
    Question. Okay.
    Answer. No.
    Ms. Comstock. Okay. I will make that Deposition Exhibit No. 2.
    [Williams Deposition Exhibit No. MW-2 was marked for 
identification.]
    Mr. Ballen. Would you like the additional staff identified for the 
record?
    Ms. Comstock. We have Mr. McLaughlin here this morning and Mr. 
Bossie.
    Mr. Dennis. Who is who?
    Ms. Comstock. Mr. McLaughlin is Minority staff; Mr. Bossie is 
Majority.
    I will show the witness two different documents here: CRGO 1670, a 
memo to Martha Phipps that I received from Mr. Ickes; and this is a 
second memorandum of May 5, 1994, to Ann Cahill from Martha Phipps, EOP 
36287 through 88.
    Both of these memos begin by saying, in order to reach our very 
aggressive goal of $40 million this year, it would be very helpful if 
we could coordinate the following activities between the White House 
and the Democratic National Committee. I am reading from the May 5, 
1994, memo. The earlier--well, actually, there isn't a date on the 
initial one. We have other copies of this. It does have a fax date on 
it of March of '94.
    Mr. Ballen. Mr. Dennis, would you like a copy as well?
    Mr. Dennis. That would be helpful. Thank you.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Actually, the first paragraph, on the earlier memo, says 
to Martha Phipps--just discusses coordinating the following activities. 
The second memo discusses coordinating the following activities between 
the White House and the Democratic National Committee.
    I will just ask if you are familiar with either of these documents?
    Answer. No, I am not.
    Question. Do you know who Ann Cahill is?
    Answer. She worked in the political division of the White House.
    Question. And that would be--with whom did she work then? Who would 
be her direct supervisor?
    Answer. Oh, Harold Ickes.
    Question. She was in the Deputy Chief of Staff office?
    Answer. No, in the political division, it would be one of the 
divisions that Harold as Deputy Chief of Staff was the liaison to.
    Question. So she was in the political division, and the political 
division was an area Mr. Ickes was in charge of?
    Answer. Yes, that is correct.
    Question. And do you know who Martha Phipps is?
    Answer. Martha Phipps worked at the DNC.
    Question. All right. And did you have occasion to interact with 
Miss Phipps?
    Answer. Yes.
    Question. And could you describe what those interactions generally 
were?
    Answer. A broad range of issues, usually having to do with Mrs. 
Clinton's schedule for the DNC.
    Question. Is that all?
    Answer. Well, there would be different kinds of events. A lot of 
times they would involve her traveling or standing in as a speaker 
somewhere. I mean, it could be any kind of event; but, generally, it 
was Martha trying to get her to do the event or trying to get on her 
schedule.
    Question. And Miss Phipps worked for David Wilhelm in the Chief of 
Staff office at the DNC, is that correct?
    Answer. I know she worked for David Wilhelm. I wasn't quite sure 
how they were organized.
    Question. Do you recall at or around sometime in the spring or 
summer of 1994 any discussions about utilizing--coordinating activities 
between the White House and DNC to raise $40 million or to raise any 
amount of money?
    Answer. I could not tell you of any specific conversations, but I 
would say that there definitely was. Especially around the areas of 
scheduling, that it was important that, from my vantage point, that 
Mrs. Clinton be available to do fund-raising events for the DNC and 
that it was very important to coordinate her schedule so she could do 
that.
    Question. Okay. The memo here particularly discusses utilizing 
things at the White House such as Air Force One trips, White House 
private dinner, spots at White House events, the White House mess, 
Kennedy Center tickets, photo opportunities in the fund-raising effort. 
Do you recall generally discussing utilizing any of these sort of perks 
at the White House in connection with fund-raising?
    Answer. Quite frankly, not necessarily in connection with fund-
raising.
    Our office, which had a great deal to do with being the welcoming 
office or welcoming at the White House--because of Mrs. Clinton's role 
as national hostess, we were always concerned that we have a broad 
range of people at any of the dinners, any of the events, and that 
would also include contributors.
    Question. But, again, returning to this memo which is discussing--
maybe if you want to take a chance to review it. The second memo has 19 
items and contact people to apparently coordinate between the White 
House and the DNC. The initial memo only had 10 items. Maybe if we 
could focus on the second memo with the 19 items.
    Mr. Ballen. I want to note for the record, you say initial memo. 
There is no date on the memo.
    Ms. Comstock. We have received other copies that do have a March of 
'94 date. This copy does not. That is correct.
    The Witness. Yes, she is looking at this one.

                      EXAMINATION BY MS. COMSTOCK:

    Question. And directing your attention on this second memo, EOP 
36287 through 88, number 16, it says, one lunch with the First Lady per 
month, contact Maggie Williams.
    Answer. That would be a scheduling issue, and I would hope that 
they would contact me or contact the schedule of Patti Solis.
    Question. Did you have generally any effort at the White House to 
arrange one lunch per month with donors to the DNC?
    Answer. Actually, I don't believe that we did one lunch. I don't 
think that the one lunch issue ever came up.
    I do know that what we did try and schedule was a list of DNC 
contributors as well as DNC political people, issue coffees, for Mrs. 
Clinton at the White House. So I do not know of one lunch with the 
First Lady per month.
    And I am sorry, just based on this list--now there could have 
been--I don't know if they meant individual donors, but certainly we 
tried to do a Women's Democratic Leadership Fund lunch at least once a 
month. I mean, I am sure we did. So I tried to be as helpful as 
possible with respect to the schedule at the request.
    Mr. Ballen. Have you ever seen this document before?
    The Witness. No.
    Mr. Ballen. Did you ever have any specific discussions about this 
document?
    The Witness. No.
    Ms. Comstock. Well----
    Mr. Ballen. Well, it is unclear from the record.
    The Witness. No, I did not.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Did you ever have any discussions--this memo is 
discussing in order to reach a very aggressive goal of $40 million this 
year--this year being 1994--talking about coordinating particular 
activities that are listed here, 19 of them, with contact people. Did 
you ever have any general discussions with anybody about how this lunch 
with the First Lady would be part of a general fund-raising effort in 
1994?
    Answer. I absolutely knew that we would be helping the DNC to raise 
money and that scheduling the First Lady for lunches, for fund raisers, 
for like activities was something that we should consider when we 
looked at her agenda and her schedule, because raising money for the 
Democratic National Committee was an important thing to do.
    Question. And when--would Martha Phipps, if she had somebody to 
schedule it, would she call you?
    Answer. More than likely, she would call Patti Solis, Mrs. 
Clinton's scheduler. And, actually, we had a much better process than 
that. The first call would go to the political division as a part of 
what they would present as, you know, an agenda or what they would be 
interested in. Then it would go to Mrs. Clinton's schedule to be sorted 
through as a request, as other requests for her schedule.
    If there were a particular difficulty with respect to timing, then 
I might be called in. Martha Phipps might call me. Or if there was an 
event where there needed to be an immediate substitute, then I would be 
called to see if Mrs. Clinton could fill in, especially around issues 
of traveling, which were much more difficult, would involve much more.
    Question. So the process would be Miss Phipps would call somebody 
in the political office, someone like Mr. Sosnik or Miss Hancox----
    Answer. Someone in the political office.
    Question [continuing]. And make this request for we want somebody 
from the DNC, a donor or whoever wants them to be able to have lunch 
with the First Lady. Would they provide some kind of memo on who this 
was?
    Answer. If it got that far. I don't remember really individual 
lunches that she had with donors. For the most part, I remember that 
she did, you know, kind of major crowd events, smallest kind of thing 
being the coffees, which were 15 or 16 people.
    Question. Okay. And so 15 or 16 was the smallest type of group that 
you recall that would be organized?
    Mr. Ballen. Can we have a time frame? You are still talking about 
1994 or in general?
    The Witness. Well, I guess I am talking in general.
    Mr. Dennis. The last election?
    The Witness. I am just talking generally. Because, I mean, from, 
you know, 1993 on my office's view was that Mrs. Clinton's time would 
be divided in a number of categories.
    There would be the substantive agenda that she was interested in, 
there would be her role as the national hostess that she would be 
involved in, and there would be issues that have to do with the DNC or 
her husband's role as the leader of the party. So we always were 
interested in being aggressive about making sure that all those 
different parts of a schedule were, you know, taken care of.
    Question. Particularly here, if we can sort of return to your--not 
necessarily the '94 time period but these type of events that are 
described here in the '94 memo as, you know, having contact people to 
organize them. Why don't we go through the process you described? It 
would go initially through the political office. Then it would come 
over to the scheduling office with some type of memo or paper from the 
political division.
    Mr. Ballen. I am going to have to object. She has been testifying 
generally, and you keep referring back to the memo she says she is not 
familiar with. If you want to ask her was there a specific process that 
resulted from the memo, fine, that she is not familiar with, or if you 
want to ask the general process for scheduling the First Lady's time.
    Ms. Comstock. If the witness doesn't understand the question----
    Mr. Ballen. The record is confused. I don't understand the 
question.
    Mr. Dennis. I think that is a fair point. I mean, the memo she has 
not--as I understand the record, the memo she has not seen. But on the 
subject matter of how her office dealt with lunches or events like that 
in which contributors might be invited or have a fund-raising purpose, 
I think she described generally what that was. But she in no way ties 
that into this memo or any specific conversation she had about, you 
know, one lunch per month as reflected in the memo.
    Ms. Comstock. If we could let the witness testify to that, I would 
also like to generally discuss the process--the general process of 
separately using the memo as a reference point.

                      EXAMINATION BY MS. COMSTOCK:

    Question. And I think you made clear your knowledge or lack of--of 
the particular memo, but I would like to discuss this process that you 
described going from the political office to the scheduling office.
    Answer. Okay. Can I just step back for a moment? Because maybe I 
can provide a little bit of clarification and make it clear.
    I am familiar with the idea of a White House event called the 
Jazzfest or the Rose Garden ceremony or official--I am familiar with 
these things as part and parcel of what it is the White House does. I 
would never need a memo like this to say that when you are thinking 
about an event at the White House and invitations to that event that 
contributors should also be considered in the body of people that you 
want to have.
    When we have a White House dinner, for instance, we want to make 
sure that congressional people are invited. We want to make sure that 
contributors are invited. We want to make sure that the media people 
are invited. And then we--you know, so we want to look across every 
category.
    And I think what I was saying to you, that from my standpoint and 
given the office that I worked in, I would never need a memo like this 
that would suggest to me that contributors, as well as the other 
categories that we looked at in terms of people, should be included in 
any event that we had at the White House.
    Now with respect to your second question, which has to do with a 
process, there was a process not only for having invitations sent for 
contributors, but there was a process at the White House for having 
congressional participation in events. There was a process for making 
sure that women were invited to things. There was a process for making 
sure that we looked across the United States regionally. It would be 
nothing to suggest--to look at a list or say do we have anybody at all 
from the south coming to this.
    So by virtue of the kind of work that we were involved in in the 
First Lady's office--and I can speak to that more so than, I don't 
know, the political office--we would never need a memo like this to 
suggest that we aggressively include contributors as part of our 
category of invitations.
    And so there was a process. The process was if the DNC was 
interested in having Mrs. Clinton do something or scheduling her, they 
would go to the political office. The political office would generally 
make a recommendation to us, I assume, based on whatever factors they 
use or criteria.
    In the same way that if we were having some kind of dinner and the 
Congressional Office would come to us, they would get requests from the 
Hill. Those requests would come to the Congressional Office. The 
Congressional Office would make recommendations, based on whatever 
criteria they had, to us to say these people, it makes sense, public 
liaison. These were parallel, from my standpoint, although I do not 
know the criteria that each division was working on. But these were 
parallel kind of processes for feeding in to any of the things that we 
had to deal with, including Mrs. Clinton's schedule. So that speaks 
generally to that.
    Question. Okay. And when the scheduling request came in, say for a 
donor, do you recall any memos that described this person as a DNC 
donor, they've given X amount? Or these group of people are all donors, 
they're trustees, or whatever they are, we would like to arrange a 
lunch with the First Lady?
    Answer. Yeah, at some point. If the event was accepted, at some 
point, certainly, once, again, like for any other event that we would 
have, there would be, you know, this is a guest list for this. This 
person, you know, is an artist who works at such and such, this person 
is a contributor for the DNC, this person sits on a foreign affairs 
committee of such and such. There would be something that would say----
    Question. Some type of briefing paper that would tell the First 
Lady who she's sitting down with and going to lunch with?
    Answer. Yeah, more than likely. It would be not a briefing, but 
there would certainly be a list with a notation. If it got to the point 
that it was accepted, then you could work on a list. But otherwise, 
what you were taking essentially in the process was the recommendation 
from the office that this made sense to do. And once you kind of got to 
that threshold, then everything normally would follow--would follow.
    Question. And were you involved in making recommendations one way 
or the other on any of these?
    Answer. Sometimes I made recommendations, yes.
    Question. And like you said, Ms. Phipps would come directly to you 
if there was a scheduling issue?
    Answer. Generally, if there was some difficulty. Because, like I 
said before, in our office, very early on it was clear to me and clear 
to us that in terms of balancing Mrs. Clinton's schedule that there 
were a number of areas that she would be a participant in. And so I had 
laid a framework for the people who worked for me that these were the 
areas that must be considered when we were doing scheduling. These were 
the areas. Just like substantively, these were the areas we are 
interested in.
    We generally don't do environmental events, so you know that we 
don't have to put those down. We generally do events that have to do 
with child health. We generally do events that the DNC requests, and we 
have a special interest in doing events where women are concerned. So 
that people had a general view of the kinds of things we were feeding 
into our schedule.
    So if that process didn't work for us in any area, I would get a 
call from the ``Martha Phipps of the world,'' or the, you know, the 
other person or the other person. So I tried to be there when there was 
a difficulty or if it involved an extraordinary amount of energy. For 
instance, pick up tomorrow night and go to Kansas, then someone would 
contact me and say, we need your involvement in this.
    Question. Were you ever aware at any time of the President or the 
First Lady complaining that donors hadn't been given enough involvement 
or attention in terms of getting them to the White House for various 
events?
    Answer. Donors?
    Question. DNC donors.
    Answer. Not in particular donors. This is on the record, and not to 
be released, but they complained that we never had enough people coming 
to the White House, of just regular people coming to the White House.
    Question. Not enough overnights?
    Answer. They couldn't have enough people come, because coming to 
the White House was a huge deal for people. And they knew that. And so, 
I mean, you know, it would be, you know--we would push to get 50 more 
kids in, even though it didn't make any sense to us in terms of 
arrangements.
    Yes, they complained that we didn't get enough people in the White 
House. Which is why in terms of just visitors we almost tripled the 
amount of visitors that came through the White House. It was a big deal 
for them to have people inside the White House.
    Question. I'm showing you a document. It is a Washington Post 
article and there is not a date on it. It's EOP 52397. The body of the 
document discusses fund-raising--directing your attention to the 
circled area--yes, and I believe that's the way we received it, the 
copy you have. It says, Democratic sources said that despite the DNC's 
success in raising money in 1993, the party's several million dollars 
in debt and one Democrat described, quote, ``turmoil in the donor 
community,'' end quote, because of hard feelings among major 
contributors who have complained that they have been ignored by the 
Clinton White House.
    Mr. Dennis. What was the date of this? I'm sorry; I missed that.
    Ms. Comstock. Well, it doesn't have a date on it. I believe given 
it is talking about fund-raising in '94--I mean '93. It is sometime 
after '93, it could be '94 or '95. It is somewhat unclear on the 
article. This is a document we received from the White House.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you recall anything about in '94, '95, any discussion 
about turmoil in the donor community because people felt there hadn't 
been enough donors at the White House?
    Answer. No. Turmoil in the donor community? I--I've worked in 
politics for 20 years. I've never lived in a period where there hasn't 
been turmoil in the donor community.
    Question. Okay. Do you recognize the handwriting that's on the 
right of that document?
    Answer. Right here?
    Question. Yes.
    Answer. Looks like the President's handwriting. Although he usually 
signs things ``BC,'' so I don't know.
    Question. On the side of the article it reads, Mack, what's this 
about? Who's been ignored? Let's nail down the specifics. We sure gave 
them--and then it's just a line and then it's signed B.
    Answer. I don't----
    Mr. Dennis. Before the record, I don't know whether I misheard you, 
but as I read this, the article is not a complaint about donors coming 
to the White House. It just says, have been ignored by the Clinton 
White House.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Yes, that's why I'm wondering if you ever had any 
discussion with the First Lady or the President about donors being 
ignored.
    Answer. No.
    Mr. Ballen. Your answer was no?
    The Witness. No, not donors specifically. As I said in my earlier 
answer, they complained about not having enough people in the White 
House, period.
    Ms. Comstock. I'll make that Deposition Exhibit No. 3. And we still 
are reviewing the other two memos that we have not made exhibits.
    [Williams Deposition Exhibit No. MW-3 was marked for 
identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. I guess returning to the May 5th, 1994, memo, do you know 
Ann Stock?
    Answer. Yes.
    Question. And her job is social secretary at the White House; is 
that correct?
    Answer. Right.
    Question. She arranges various events at the White House?
    Answer. Yes.
    Question. Do you have any knowledge of her working with the DNC in 
any way to reserve various spots as is described in this memo for 
things like six seats at White House private dinners, six to eight 
spots at all White House events? Her name is under the White House 
residence visits and overnight stays, item number 7. Then guaranteed 
Kennedy Center tickets. And then the second page, 10 places per month 
at White House film showings, and then use of President's box at the 
Warner Theater and at Wolf Trap.
    Mr. Ballen. Excuse me. The question is ambiguous. Are you asking 
the witness if she's aware that Ann Stock may have done these kinds of 
activities or----
    Ms. Comstock. What I'm asking----
    Mr. Ballen. Can I finish, please?
    Ms. Comstock. I was asking the question.
    Mr. Ballen. But you are not allowing me to state my objection.
    Ms. Comstock. If the witness doesn't understand the question----
    Mr. Ballen. No, I am entitled to object. I'm sorry; under the 
rules, I'm going to object, whether you like it or not. The objection 
is----
    Ms. Comstock. You're objecting that you don't understand the 
question?
    Mr. Ballen. I'm objecting--the question is unclear and ambiguous, 
and I'm objecting to the form of the question. It is unclear and 
ambiguous. It is asking two different things and I am objecting to the 
question and I am going to state my objection.
    The objection is--is the question is the witness aware of 
particular activities as described that might have been part of Ann 
Stock's duties, or whether Ann Stock was, as this memo seems to 
suggest--in order to reach our aggressive fund-raising of over $40 
million--was specifically providing White House residence visits and 
overnight stays to contributors in order to reach this specific fund-
raising goals? There are two distinct questions. It is not clear what 
the witness is being asked. I object to the question.
    Mr. Dennis. Can we have the question reread, please?
    [The reporter read back as requested.]
    Mr. Dennis. Do you want to take it one at a time?
    Ms. Comstock. Yeah, if we want to do it one at a time.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Are you aware of her working on--first of all, generally, 
were you aware of Ms. Stock setting aside these type of items for DNC 
donors?
    Answer. I am not aware of her setting--first of all, let me just 
say that this memo from Martha Phipps to me--and I may be reading into 
it--looks like Martha Phipps' wish list. And it suggests to me she 
doesn't really have a good knowledge, based on some items here, of who 
actually is a contact for them or not.
    And I state that because while I'm well aware that White House 
private dinners and White House events are in the purview of the White 
House secretary, and possibly film showings, some of these other 
things, it is news to me that she is the contact person for them.
    Question. Okay. And what items are those?
    Answer. I didn't know that she was the contact person for White 
House residence visits and overnight stays or guaranteed Kennedy Center 
tickets at least one month in advance. I'm not quite sure how that's 
done.
    I also don't think that--I'm not sure--but I'm not sure the 
President has a box at the Warner Theater. I know he does at the 
Kennedy Center, but I'm not sure he does at the Warner Theater. And I 
do not know what our access would be at Wolf Trap. I can only remember, 
quite frankly, one event--and I'm not the source of the Wolf Trap 
tickets, but I could only imagine one event where either the President 
or the First Lady ever went to Wolf Trap.
    So with respect to all these other things, I can't speak to them 
because I never knew that they were Ann's responsibilities or I didn't 
think so. And some of them, I think, don't even exist as--as items.
    But with respect to White House events as some mentioned here, Jazz 
Fest, Rose Garden, whatever, did Ann reserve places for the DNC? To be 
accurate, I would say she did not reserve places. Did Ann make certain 
that DNC contributors were invited, as she made certain that other 
groups and categories were? I would say absolutely. She considered 
contributors important people and people who should be a part of White 
House events, yes.
    Question. And would she get this list of those people from the DNC, 
then?
    Answer. Yeah, she would get a recommended--yeah, she would get a 
list. Uh-huh.
    Question. And would that again come through the political office to 
her?
    Answer. I think when--in the best of all conditions when it was 
working, yes, I think so.
    Question. And what would be the other conditions?
    Answer. The other conditions would be what you have a lot of in the 
White House, where people who call in and say, I'm a big contributor, 
there's an event at the White House, I need to come. Or I sit on the 
committee of such and such. I need to be at the state dinner. Or I do 
work--and so you would get those kinds of calls of people that you 
might not necessarily know about and then they would go back to 
whatever division handled that group.
    So if it was a political person, it would go back to political. If 
it was congressional, it would go back to congressional. If it was a 
constituency group, it would go back to public liaison. And that's how 
it would get around.
    Question. And if Ms. Stock was getting information about particular 
donors for private dinners, would that again be memoed from somebody? I 
mean, if it was a private dinner in the residence with 8 or 10 people, 
would the President and First Lady be briefed on who these people were 
and who was coming to dinner in the private residence?
    Answer. You would have to ask her. I don't know what her----
    Question. What her practices were?
    Answer. Yeah.
    Question. But that would all be handled by Ann Stock, those 
arrangements for private dinners?
    Answer. In conjunction with----
    Question. The various offices?
    Answer [continuing]. Whatever various offices. Right.
    Question. All right. So you didn't have any involvement, then, or 
input into who was having private dinners at the White House at various 
events? That went through the various offices through Ann Stock?
    Answer. Yeah, generally, but then there would be times when I would 
be asked for suggestions or recommendations of people, depending on 
what the event was. And if I had them, I would give them.
    Question. But is it your understanding that usually when these 
people would go, that somebody would brief the President and the First 
Lady on who it was that was coming for dinner?
    Answer. Right, yeah. Generally, there would have to be a list and 
they would have to go through security.
    Question. And you had said the White House residence visits and 
overnight stays, which is number 7 here, contact Ann Stock, it was your 
understanding that Ann Stock was not the contact for that?
    Answer. Yeah, I thought it was--I thought it was--since it was 
their house--when you are talking about the White House residence 
visits, you know--a lot has been made about the Lincoln bedroom. The 
Lincoln bedroom actually is a guest bedroom in the President's 
residence. The President has two floors and so it would be like, you 
know, if you wake up in the morning and you've got your bath robe on, 
who is ever in that room is likely to see you because it's at your 
house.
    So the residence visits were recommended by, you know, all kinds of 
people. Including political people, including DNC people, and I think 
that a decision would be in some ways a family decision. I mean, does 
this work out this night? You know, it was a little bit different than 
someone coming to the Blue Room and having dinner.
    Question. Do you know the people who were involved in arranging the 
residence overnights?
    Answer. I would imagine the same residence staff that has been 
there forever, the Usher's Office.
    Question. I mean in particular, the people on the First Lady's 
staff or the President's staff who were involved in that?
    Answer. Well, we didn't really have anything to do with the 
residence visits, unless we had made--unless we had made a suggestion 
and it was family or something. We had very little to do with the 
residence visits.
    Ms. Comstock. Okay. Since we are discussing a few different 
documents here, and I'm going to also introduce another one here, I 
would like to go ahead and make the first Martha Phipps memo, the 
undated one here--but we believe it is March '94--make that deposition 
Exhibit 4. Make the May 5th, 1994, Phipps memo, deposition number 5 
that we have been discussing.
    [Williams Deposition Exhibit No. MW-4 was marked for 
identification.]
    [Williams Deposition Exhibit No. MW-5 was marked for 
identification.]
    Ms. Comstock. And we will continue. And then we have a document 
that I'm showing the witness CGRO-1569 through 1570. It's dated January 
5th, 1993, memo to Nancy Hernreich from Terry McAuliffe, national 
finance chairman. This is generally the ``Start Overnights Right Away'' 
memo that's been in the press over, you know, the past 8, 9 months or 
so.
    I believe as the record printed, the date has been indicated 
January 5th, '93, was an incorrect date on here and that people--there 
is various speculation on whether it is 1995 or 1994. So I won't 
represent what it is, but I think it was probably not '93 is I think 
the general consensus.
    But at any rate, this discusses Carolyn Huber and the First Lady 
being involved in the overnights generally. I believe at the top of the 
memo it says, Mr. President, do you want me to pursue number one with 
Billy? It may be cut off on your copy. It is a little on mine. Number 
two, which was the overnights was with HRC and Carolyn, which I believe 
is Carolyn Huber, is what has been indicated. And number three, was 
handle, run it by Harold, I think is what was on the original. We have 
a cutoff version of this document. I'm sorry.
    This is a document received from Mr. Ickes back in February of this 
year and it talked about getting people to stay, you know, who was 
going to handle overnights, referring to--the President's handwriting 
is on the second page, CGRO-1570, which says, yes, pursue all three and 
promptly and get other names at 100,000 or more, 50,000 or more. And 
then that was cc'd to Harold, Leon Panetta, and Webster--which I 
believe was Billy Webster, and then it reads, Ready to start overnights 
right away. Give me the top 10 lists right away together with the 150 
over.
    Does that refresh your recollection--actually in the first page, 
number two, as to whether the First Lady and Carolyn Huber were 
involved in overnights?
    Mr. Ballen. I am going to object that in the question you said that 
it was the President's handwriting. If you want to ask the witness 
whether she recognizes it as such, but to the extent that the question 
assumes a fact not in evidence----
    Ms. Comstock. I believe the President and the White House and 
everyone else has indicated that it is his handwriting. But if you 
would like to identify it for the record, that is fine. We could drag 
it out for the witness longer.

                      EXAMINATION BY MS. COMSTOCK:

    Question. And I apologize. Would you like to identify the 
handwriting on the second page, CGRO-1570, and if you recognize the 
handwriting on the right that I have just read and indicated was the 
President, do you recognize that as the President's handwriting?
    Answer. Okay. Which are we looking at? This?
    Question. The handwriting on the right.
    Mr. Dennis. This right here, yeah.
    The Witness. This? It could be. I really don't--I mean, I have seen 
this document in the newspaper. I can't personally identify----
    Mr. Dennis. The handwriting?
    The Witness.--the handwriting. It could be. These both look the 
same.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Has anyone at the White House--you have seen press 
reports on this document and this whole issue of the President writing 
``start overnights right away''?
    Answer. Uh-huh.
    Question. Have you had any indications from anyone at the White 
House that the document that became public and was in the newspaper was 
not the President's handwriting on that document? Has anyone ever told 
you that at the White House?
    Answer. No.
    Question. Do you have any reason to believe that ``start overnights 
right away'' wasn't the President's handwriting? Has anyone ever told 
you anything, like he got a bum rap? That's not his handwriting on the 
``start overnights right away'' document?
    Answer. To be frank, I've only read press reports. I've read what 
the press reports have said. I have never discussed this memo with 
anyone at the White House, nor have I ever seen the actual memo or a 
copy of the actual memo until now.
    Question. Okay.
    Answer. Outside of press reports.
    Ms. Comstock. And it has been--I will for the record say that it 
has been identified by the White House as the President's handwriting. 
If the Minority would like us to have the President certify in some way 
that this officially is his handwriting----
    Mr. Ballen. That's enough. We have a deposition where we are asking 
the witness questions. I thought that was the purpose of it. Not to 
engage in other--you asked the witness a question, does she know the 
document? Is she familiar with the handwriting? Did she have any 
discussions? It should be simple----
    Ms. Comstock. Well, I'm not mischaracterizing this document as 
being the President's handwriting.
    Mr. Ballen. I didn't say you were mischaracterizing. I said there 
was no evidence in the record from this witness that it is. That's all.
    Mr. Dennis. I think from my client's standpoint, I mean, I 
understand your question to be that, you know, you are representing 
that that's the President's handwriting and that would be the basis 
for, you know, the question that you really want to get to. And you 
can--you understand what I'm saying in terms of what is being 
represented?
    The Witness. Yeah.
    Mr. Dennis. Okay. You're not testifying that this is his 
handwriting, but it is being represented that it is as a part of 
another question. And I guess the question is--what is that other 
question? I've kind of forgotten, because it was buried in a question 
that was really going to another point, I believe.
    The Witness. Okay.
    Mr. Dennis. Do you want to repeat?
    Ms. Comstock. I'm sorry; we probably lost track here a little of 
what the question was. I think initially I had asked if this document 
in general refreshed your recollection as to whether the First Lady and 
Carolyn Huber were the people involved in scheduling the overnights.
    Mr. Dennis. That's the question.

                      EXAMINATION BY MS. COMSTOCK:

    Question. I think you may have already answered, but just so we can 
go back and make the record clear now.
    Answer. Yes, I know that Carolyn Huber was involved in the 
overnights. And as I said before, because these were overnights in the 
President's home, it was a family--I assume a family decision, so the 
First Lady would be involved.
    Question. Okay. And do you have any knowledge, other knowledge 
about that process?
    Answer. No.
    Question. In terms of do you know lists were brought to them and 
they said----
    Answer. No.
    Question [continuing]. Checked off on Steven Spielberg or, you 
know, Mr.----
    Answer. No.
    Question [continuing]. Rapoport or people like that?
    Answer. I'm not aware of that process.
    Question. But your general understanding is that because it was the 
family residence, that the family----
    Answer. I would assume so.
    Question [continuing]. To some degree was involved?
    Answer. I would assume so, yes.
    Ms. Comstock. I'll make this Deposition Exhibit No. 6.
    [Williams Deposition Exhibit No. MW-6 was marked for 
identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. This is a document from the White House numbered EOP 
29074, which is titled, ``Overnight guests in response to request.'' It 
is not a dated memo, but it just has a list of names and indicates name 
and dates of stay.
    Have you ever seen this document before?
    Answer. No.
    Question. Do you know--are you aware of anybody at the White House 
being asked to prepare a list of overnight guests who may have been 
donors?
    Answer. Prepare a list of overnight guests who may have been 
donors?
    Question. Uh-huh.
    Answer. No.
    Question. I would note for the record that some of the names that 
were on Deposition Exhibit 6, the ``start overnights right away'' memo, 
which had listed the top 10 supporters and had John Connelly, Carl 
Linder, Skip Hayward, Miguel Lausell, Arthur Coia, Finn Casperson, Paul 
Montrone, Larry Hawkins, Stan Shuman, and Ernie Greene, some of those 
names then in turn appear on this list. So I am not necessarily 
representing that this is a donor list, but actually I believe most of 
these names have--are identified in one way or another as donors and 
fund-raisers. But do you have any knowledge of any such list being 
prepared at the White House?
    Answer. A list of overnights for donors?
    Question. Yes.
    Answer. No.
    Ms. Comstock. I'll make that Deposition Exhibit No. 7.
    [Williams Deposition Exhibit No. MW-7 was marked for 
identification.]
    Mr. Dennis. I think that her answer to the last question obviously 
does not include what she may have read in the newspaper.
    Ms. Comstock. Sure, I understand.

                      EXAMINATION BY MS. COMSTOCK:

    Question. And I think generally, I mean, if you do have knowledge, 
you know, that is only from the newspaper, you know, you can indicate.
    This is a memo of April 21st, 1994. It's on White House stationery. 
It's to Mark Middleton from Ann Stock. It was cc'd to Maggie Williams 
and Phil Lader. It was, re: potential guests. EOP 56609 through 56617. 
And it begins, the paragraph reads, ``I think our meeting on Thursday 
was very productive. Thank you for bringing a list with you of key 
fund-raisers. It gives us an opportunity to see exactly who has been 
invited and who hasn't. I had Helen run a check on the attached list.'' 
Beside each name are four columns ``invited'' ``accepted'' 
``regretted'' and ``dinner.''
    And then the attached memo has uninvited list and has names of 
lists alphabetically for numerous pages. And then has dollar amounts 
next to them in a column all the way down.
    Answer. These are the dollar amounts of what they've--of what 
they've given?
    Question. Well, I'm--it is--this memo says, ``I had Helen run a 
check on the attached list.'' Why don't we start with, since the memo 
is cc'd to you, do you recall ever seeing this memo?
    Answer. No.
    Question. Do you recall ever having a meeting with Mark Middleton 
or Ann Stock about getting lists of key fundraisers for the purpose of 
getting them invited for White House events?
    Answer. I remember being in a meeting with Ann Stock and other 
people about lists in general and how we got them and gathered them 
from both the DNC, the DLC, the State chairs, you know, early friends, 
whatever. I remember being in a list--in a meeting that included Ann 
Stock and several other people about lists, and one of which lists was 
talked about was getting contributor lists.
    Question. Okay. And so this was a meeting at the White House?
    Answer. Yes.
    Question. Do you recall if Mark Middleton was involved in that 
meeting?
    Answer. No, I don't believe that Mark was involved in that meeting.
    Question. Besides Ann Stock, do you recall any of the other people 
involved in the meeting?
    Answer. I think we had representatives from each of the divisions. 
I think somebody was there from public liaison. I'm a little confused 
by the dates because I thought there was another deputy, but maybe it 
was Phil Lader still. I don't know who was deputy when. But I do 
remember a meeting about lists.
    Question. And could you just describe, you know, your full 
recollection of that meeting?
    Answer. It was basically trying to make sure that there was an 
organized way for people who were making recommendations for any event 
at the White House to get their list in, to get all the information 
that was needed to send them invitations. There was a huge discussion 
there about late invitations, that people came with recommendations far 
too late to politely send them an invitation for an event.
    And so it was a kind of cracking down on getting complete lists, 
recommendations, so that, you know, decisions could be made about 
invitees.
    Question. Do you have any recollection of Mark Middleton being 
involved in that process at all?
    Answer. No, I really--no, I don't.
    Question. Do you have any knowledge of Mark Middleton supplying any 
type of list of fundraisers, to have those type of lists available at 
the White House?
    Answer. No, I have no firsthand knowledge of him supplying lists.
    Question. And you said you generally discussed in the meeting how 
to get a hold, I mean how to get lists about donors?
    Answer. It was--what we generally discussed in the meeting was how 
the list process worked, which included donors but was not limited to 
donors, because many of these events had a huge mix of people. And so 
whether it was a representative from the constituency group or the 
congressional group or the media group or whatever, you know, it was 
kind of a ``Come to Jesus'' meeting on getting lists that were full, 
with addresses and phone numbers, and getting them in a timely fashion.
    Question. Okay. In this particular memo, the April 21st, 1994 memo, 
it has, as we were discussing, a list of names and how much has been 
given and then it has columns, if they were invited accepted, 
regretted, or dinner. And then there's handwriting----
    Answer. Right.
    Question [continuing]. Indicating--making some indication on 
whether people have been invited or not. Do you recognize this 
handwriting?
    Answer. No, I don't. But I have a question about this list. I'm 
still trying to figure out--maybe it's--I'm still trying to figure out 
this--I mean what this lists.
    Question. The column with the figures, the numbers?
    Answer. The column with the figures, because these are not--I mean, 
these have like $30, $25.
    Question. I think we are trying to figure it out also. My best 
understanding is that this is probably $30,000, $116,000, $145,000, 
because these people probably didn't give amounts of--Bernard Aidenoff 
probably didn't give----
    Mr. Ballen. Then how do you explain $31.30, which is on the list?
    Ms. Comstock. Well, I think we will have to obviously ask Ms. Stock 
about it because it's her list, but----
    Mr. Ballen. May I respectfully suggest----
    Ms. Comstock. It could be $31,300, I would suggest. But when Ms. 
Stock is in, she can tell us if it was a person who gave $116. The FEC 
list would probably indicate that Ann Getty probably gave more than 
$50.
    Mr. Ballen. May I respectfully suggest that we ask Ann Stock this?

                      EXAMINATION BY MS. COMSTOCK:

    Question. I am not trying to suggest to you what this is. You were 
cc'd on this. I am not making representations about it. But the memo 
that it's attached to discusses a list of key fundraisers and the 
amounts. They ran a check on the attached list and beside each name 
they had these various indications of whether they had been invited or 
not.
    Answer. I just have one more question, just about the list. Was 
this--so this list was attached to this memo?
    Question. Yes.
    Answer. Okay.
    Question. And this is how we received it from the White House.
    Answer. So this is not a separate list of something? Okay.
    Question. Do you know who Helen is who worked with Ann Stock, or if 
there's a Helen who worked with Ann Stock?
    Answer. There was a Helen Dickey who worked for Ann, I think for 
about a year.
    Question. Okay. And do you know if she would have been working for 
her at or around 1994?
    Answer. I'd have to check. I don't know.
    Question. And do you know how she would run a check on the 
attached--what facilities they had in the office on running checks on 
who had been where at the White House, invited, accepted, regretted, 
what type of system they had?
    Answer. No, no.
    Question. Do you know if Ms. Stock's office utilized the White 
House database for purposes of inviting people?
    Answer. I'm sure they utilized the database. I hope, yeah. I know 
it was some computer program they had.
    Question. So your understanding is they did have some type of 
computerized system?
    Answer. Yes.
    Question. So when they talk about running a check on things, on the 
names, that it was some type of computer, your understanding is that--
--
    Answer. Well, I don't understand how they ran a check. I mean, did 
they have a computer in their office? They did. I don't want to assume, 
because I really don't know what they did.
    Question. Okay. In the third paragraph in the meeting, I mean of 
the memo, it says, ``If you can provide me with addresses we can start 
to correct this situation immediately.'' You had discussed that there 
was an effort in the meeting you recall, whether or not it was this 
meeting.
    Answer. There was an effort to get addresses? Accurate addresses. 
Yes.
    Question. Is that correct?
    Answer. Yes.
    Question. ``Also, per our discussion, each Friday I will send you 
guest lists for the following week so that you and Phil can identify 
any key fundraisers who are in town.'' Do you know anything about Mark 
Middleton or Phil Lader identifying key fundraisers to Ann Stock or 
anyone?
    Answer. No.
    Question. Were you ever asked to identify key fundraisers to Ann 
Stock for inclusion----
    Answer. No.
    Question [continuing]. In events?
    Answer. No.
    Ms. Comstock. I will make that Deposition Exhibit Number 8.
    [Williams Deposition Exhibit No. MW-8 was marked for 
identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. This is a May 17th, 1996 memo to Leon Panetta and Evelyn 
Lieberman from Harold Ickes re: Marsha Scott VIP operation at the 
Democratic National Committee. It's EOP 36085 through 87. And the memo 
discusses a number of things, but directing your attention to the 
second--why don't I let you have an opportunity to review it first 
before I ask you any questions about it.
    [Witness reviews document.]
    The Witness. Okay.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Have you ever seen this memo before?
    Answer. Yes, I have.
    Question. And do you recall when?
    Answer. Around convention time.
    Question. Of last year?
    Answer. Yes.
    Question. Of '96?
    Answer. [Nonverbal response.]
    Question. And then the beginning of it reads, ``On 15 May, the 
President approved the following with regard to Marsha Scott and with 
regard to the VIP operation at the Democratic National Committee----
    Mr. Dennis. Convention.
    Question. ``Convention,'' I'm sorry. And then it says, ``These 
recommendations are made with the understanding that over the past 3 
years a sophisticated process, involving several key people, has 
evolved at the White House for ensuring contact and follow up with 
friends and key political and financial supporters of the President and 
the First Lady.''
    And then it goes on to say, ``For example, Maggie Williams and Ann 
Stock manage a number of functions in connection with the residence, 
invitations to Camp David, etc.''
    Could you describe, if you do indeed manage--if you did over the 
three years in a sophisticated process that Mr. Ickes is discussing, if 
you had managed a number of functions in connection with the residence 
and invitations to Camp David or other things with Ms. Stock, what he 
may be referring to there, if you know?
    Answer. I'm flattered. Sophisticated process. Essentially, first of 
all, nothing to do with invitations to Camp David. Nobody ever went to 
Camp David much, except for the Clintons. And they didn't go much.
    With respect to the number of functions in connection with the 
residence, Ann Stock reported to me in theory, and everything that 
happened at the residence by tradition, everything that happened in the 
house was considered a First Lady--a First Lady event, even though what 
Ann actually is is the event person at the White House for both sides, 
the East Wing and the West Wing. was I aware of most events in the 
residence? Yes, I needed to be aware. My management of them was 
minimal, but I take credit for all the really good events we had. But 
Ann Stock, her staff and the residence staff actually really made these 
events work and I think did a very good job of that.
    So the sophisticated process here, I think, was slightly 
embellished. What I believe, as I read this memo, as I read it, my 
interpretation of this memo was that Marsha Scott wants to work at the 
convention in Chicago and she wants to focus on VIPs. The people who 
generally would handle VIPs--and that would include from our 
standpoint, actually, family and friends, because the DNC at the 
convention took care of its VIPs. They had their own program, so we had 
very little to do with it. But we did take care of the mothers, the 
brothers, the college friends, the high school friends, the long-time 
Arkansas friends. So this was an area that we expected that we would 
handle at the convention, since we tended to handle that group 
generally when they were around.
    So I think what Harold was suggesting here was that Marsha Scott 
become a part of--of, you know, of that. It appears a few friends and 
other political--I remember when I read this, I didn't understand this, 
especially as it related to the convention, because I believe that the 
political and financial people were really having a lot of attention 
paid to them by the DNC.
    Question. Okay. And directing your attention to page--the second 
page of this memo, which is EOP 36086, the middle paragraph there says, 
``Although early on there undoubtedly were a number of friends and 
other political and financial supporters who may not have received the 
attention and follow up they should have (or at least thought they 
should have), given the close and much more effective coordination 
among the political and other departments of the White House, with 
Nancy Hernreich, the social office, etc., it appears that few friends 
and other political/financial supporters are not being,'' quote, 
``taken care of,'' end quote, ``in appropriate ways.''
    Do you know Nancy Hernreich?
    Answer. Yes.
    Question. And she is the President's secretary; is that correct?
    Answer. She the President's assistant, yes.
    Question. And do you know what her role was in sort of taking care 
of political or financial friends of the President or First Lady?
    Answer. Well, let me say that my interpretation of this 
specifically has to do with, I would add the words ``early friends and 
supporters.'' Nancy Hernreich is from Arkansas. Marsha Scott is from 
Arkansas. There were a lot of people who had supported the President 
when he was Governor, when he was Attorney General, and there was a 
concern that these friends, you know, not be forgotten when they came 
to Washington, so if they came to town, that they should be included in 
anything that was going on.
    And Nancy did have a particular interest in this because she was 
from Arkansas, and had been with the President and knew all of his 
friends from his Attorney General days through his governorship in 
Arkansas. And Marsha Scott, in addition to that, focused on those 
people.
    Ms. Comstock. Okay. I'll make that memo Deposition Exhibit Number 
9.
    [Williams Deposition Exhibit No. MW-9 was marked for 
identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Directing your attention to the third page of that 
document, in the middle of it it says, quote, ``Any friend or supporter 
of the President who feels overlooked or not attended to in the 
appropriate way will be referred by Marsha to Nancy Hernreich, Ann 
Stock or other appropriate person in the White House for follow-up.''
    Were any of these people ever referred to you from Marsha Scott or 
Nancy Hernreich or Ann Stock?
    Answer. No.
    Question. Okay. And again if we could return to the May 5th, '94, 
Phipps memo, let's go through a number of the other items on there. Do 
you have any knowledge about Air Force One and two trips including 
donors, or any efforts made to include donors on Air Force One?
    Answer. I know that contributors were--did get to fly on Air Force 
One. I don't know about Air Force Two.
    Question. And how did you learn about that?
    Answer. I don't know specifically how I learned about it. I don't 
know. I just----
    Question. Do you have any recollection of anyone ever calling up to 
put a donor on Air Force One?
    Answer. Calling me? No.
    Question. Or calling----
    Answer. No.
    Question [continuing]. Anyone in the First Lady's office?
    Answer. No, we had people who called--actually not--actually not so 
much contributors, but just people who wanted to fly with her on the 
plane. Friends, we got a lot of friends who would be interested, or 
depending on what she was doing, people who had substantive, you know, 
issues. But she has such a teeny plane that, you know----
    Question. Oh, for the First Lady's plane, you mean?
    Answer [continuing]. Yeah, couldn't accommodate anybody.
    Question. Did anybody ever call the First Lady's office to get on 
Air Force One or make an effort or pitch to get a donor on Air Force 
One?
    Answer. I don't have any specific recollection. But I can't imagine 
that someone at some point didn't.
    Mr. Ballen. There were two questions there. There was one, donor or 
anyone, or----

                      EXAMINATION BY MS. COMSTOCK:

    Question. I'm sorry; I meant donor. I was just referring to getting 
a donor onto Air Force One, and if that wasn't clear, I'm sorry.
    Answer. Like I said, I don't have a specific recollection, but we 
have all kinds of people who would call, who could be contributors, to 
say, ``What I would really like to do most is get on Air Force One.'' 
Or, ``My wife and I gave in 1992, and we would really like to get on 
Air Force One.''
    Question. And that's more of the context. If you recall anyone ever 
calling you saying ``I've given this much'' or ``I'll give this much'' 
or ``I'm a big donor'' or ``So-and-so is a big donor, can you get us on 
Air Force One?"
    Answer. People would always say, ``I'm a big donor, get me on Air 
Force One.'' I mean, it was pretty typical. I mean, it is a very 
typical thing for people to always preface what they're saying by ``I'm 
a big donor.'' It's the same way when someone calls me and says, you 
know, ``I'm a Congressman, I sit on such and such a committee, I need 
to be on that plane.'' It just happens. And, you know, I think of my 
job as listening politely.
    Question. So you have a general recollection of that, but you can't 
recall specific people who may have called?
    Answer. Yeah; right.
    Question. Number 4 on here, it says invitations to participation in 
official delegations, trips abroad, contact Alexis Herman. Do you have 
any knowledge about any efforts to include donors, and specifically 
where someone said, ``So-and-so is a donor, we'd like to get them on an 
official delegation trip abroad,'' any knowledge of that type of 
effort?
    Answer. Once again, I am not going to be helpful in the specific 
recollection, but in a general way to say that contributors, along with 
other people, were not considered for official delegation trips abroad 
would--I may not have to say that. And also people who are big 
contributors, also, in addition, sometimes have some substantive input 
that they can bring some place.
    So while, you know, there is kind of this sense that donors or 
contributors have nothing but their money, there are a lot of donors 
and contributors that we dealt with who had some expertise to bring to 
an official delegation. And that certainly would be taken into account 
or I would hope it would be a smart thing to do. So that you would get 
a group of people, supporters, people with expertise, that you're 
picking from a cross-section of people who both support the President 
and may have something to offer on an official delegation trip.
    Question. But I'm talking more about specifically if you have any 
general recollection or knowledge about efforts made to go to Alexis 
Herman or somebody in her office to get, you know, in coordination with 
the DNC where a DNC person would not really, in this general process 
which you have described, you know, a number of times today about 
reaching out and including people, but, you know, efforts where it was 
DNC people calling and saying, you know, ``We are raising money. We are 
trying to get this. Getting this guy on this trip would be helpful.'' 
You know, ``He's been a big donor; we want to get more money from 
him.''
    You know, maybe he has substance to offer, maybe he doesn't. 
Obviously it would help if he does, but do you have a general 
recollection of any instances like that where it's people from the DNC 
calling to get a donor, you know, identifying the person as a donor and 
identifying that we'd like to get them on the trip?
    Answer. I do not have a specific recollection, but you know, I 
really want the record to show that I have a general recollection of 
not only the DNC, but Members of Congress, but members of specific 
interest groups, all calling and saying would you put this person or 
that person because he's good at what he's doing, he will continue to 
be helpful to us, or any number of reasons.
    Question. Sure, I understand.
    Answer. It would just be very hard. To me, I cannot pick them out. 
Like I said, maybe it's just from being in politics for 20 years where 
you kind of--I mean, who hasn't heard this? I mean, people were getting 
in on Jimmy Carter's plane. This is not----
    Question. Do you recall any general discussion, given this memo is 
discussing coordinating activities between the White House and the DNC, 
and your getting a goal of $40 million, do you ever recall generally--
and maybe in relation to any of these things--saying, ``Hey, you know, 
it is July, we haven't gotten to our $40 million goal yet, and we need 
to do this?'' Any kind of discussion or pressure to get--we need more 
people, we need more donors in here because that will end up getting up 
more money at the DNC? Do you have a general recollection of any 
discussions like that?
    Answer. I have--I have no recollection that there was an 
extraordinary amount of pressure in any campaign season. Because of how 
wacky the campaign laws are, and how expensive it is to go on 
television, every campaign, at some point someone says we need to get 
more money.
    Question. But I'm talking about specifically----
    Answer. Everybody----
    Question [continuing]. In relation to these itemized things at the 
White House. Not we want the First Lady to come out to Ohio and speak 
to a woman's group, but we need to have more lunches with the First 
Lady at the White House so that we can get more money, or we need to 
have more seats--they need to have more private dinners where we can 
get donors in so that we can get more money. Do you have any type of 
general recollections of any type of discussions about those kind of 
matters?
    Mr. Ballen. May I interject here? Was there a specific plan to 
reward DNC donors with perks as laid out in this memo? A way to fund 
raise, to use the White House to get the perks out to fundraisers? I 
think that is what these questions are going at.
    Ms. Comstock. Mr. Ballen, when it is your opportunity question, you 
can ask your questions. But I would like to ask my questions.
    Mr. Ballen. The questions are going around the issue rather than 
dealing directly with the issue. You keep producing a memo----
    Ms. Comstock. You may ask your----
    Mr. Ballen. Can I finish my sentence? Is that possible here?
    Ms. Comstock. You aren't making objections. You are just making 
speeches. Is that what you want to continue doing?
    Mr. Ballen. I am making a record. You have been asking the witness 
about a memo that talks about a plan to coordinate these activities, to 
provide these kinds of----
    Ms. Comstock. And you are going to be free to ask the witness about 
the very same document and ask your questions.
    Mr. Ballen. But your questions are not clear. Your questions----
    Ms. Comstock. And the witness has the opportunity to tell me when 
she doesn't understand my questions.
    Mr. Ballen. Well, you--all right. I want to make clear for the 
record whether or not there was any kind--if the witness is aware of a 
specific plan to award donors----
    Ms. Comstock. And you will have that opportunity at the time of 
your questioning.
    The Witness. Okay. Proceed.

                      EXAMINATION BY MS. COMSTOCK:

    Question. My question was: Do you recall any general discussions of 
efforts to get more events at the White House of any type to raise 
money?
    Answer. Quite frankly, no more than usual, starting in 1993. We 
always had strong interest in getting more contributors there, more 
people of color there, more women there. We had a strong driving 
interest to do that, and it started in 1993. It is no secret that we, 
perhaps more than any other White House, had triple the number of 
activities, the number of nights to see Christmas decorations. We 
worked very hard at it.
    Now, I can speak only from my vantage point. Did I think of myself 
or my office in any specific plan to raise money for the DNC? Yes, I 
thought that as a support to the party, whenever we could we should try 
and invite contributors of the party to the White House. That they 
should be included, like other people, as much as possible in 
everything we did.
    Question. Do you recall having discussions with people from the DNC 
about specifically having more private events at the White House? 
Things such as private dinners, overnight stays, things such as that 
specifically, not the Christmas parties or the big things or bringing a 
lot of people in, but specifically, you know, the get more donors into 
these small little events or get them in for movies and popcorn with 
the President, those type of things. Were there ever those type of 
discussions with DNC people?
    Answer. There were those type of discussions with DNC people and 
other people. DNC, if they had not been advocating to get more of their 
contributors into everything, would really not have been doing what 
they should have done. They are advocates.
    Question. To get people into the White House?
    Answer. They are advocates in the same way that a congressional 
person calls up and says, ``I need four more places at the Jazz 
Festival.'' Democrat or Republican. They are advocates. It is their job 
to push for their constituency. Did the DNC push for their 
constituency? Yes, they did. Sometimes we responded well; sometimes we 
didn't so well, I'm sure they thought.
    Question. Do you recall who you had those discussions with?
    Answer. No, no, just general discussions. Depended on who called. I 
didn't have, you know, a person.
    Question. Was it a large group of people who would call or was it a 
particular office?
    Answer. It was sporadically. Just people would call. Because 
otherwise we did have a process in place for including them, which was 
a good thing. There was a process in place so that they could--so that 
they could advocate. There was a process so that they could advocate, 
so that--I mean from my--for me, and I can't speak for everyone else, 
so that the kind of calls I would get of this nature would be sporadic. 
Otherwise, you know, there was a process.
    Question. Do you know who else was involved in the White House in 
these discussions that you recall with DNC people?
    Answer. I mean, I couldn't say. I mean, I could only make an 
assumption, the political department. That's the most logical place.
    Question. And did you ever provide any names of people, or 
specifically donors, for any events? Not here's somebody who's--but 
generally here is a $50,000 donor, here is a $100,000----
    Mr. Ballen. Donor to who and what and when?
    Ms. Comstock. Donor to the DNC.
    Mr. Ballen. What time frame?
    Ms. Comstock. At any time.
    The Witness. Did I ever recommend a donor? I don't know a specific 
case, but I can't imagine--I'm sure I did. Someone said, ``Give me 10 
people you think who would enjoy coming to something at the White 
House,'' I could in a second come up with two media people, maybe a 
donor that I knew of, maybe somebody who worked with Hillary at a 
women's event. I'm sure that I did at one point or another.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Did you ever keep any list of donors that were to be 
utilized for----
    Answer. No.
    Question. I've gotten through five of them; here is the next five.
    Answer. No, no, nothing that----
    Question. You had generally--you had said that you thought of your 
office as being a support for the party in a way. Could you elaborate 
upon that, what your understanding was of----
    Answer. No, I thought that one of the things that must be taken 
into consideration in putting together a schedule for Mrs. Clinton was 
that she would be called upon to support the party publicly in speeches 
or meetings or whatever else. And so----
    Question. But I'm talking generally about use of the White House 
and White House events, if you could----
    Mr. Ballen. I'm going to object. The witness didn't finish her 
answer. You cut her off.
    Ms. Comstock. I thought maybe she misunderstood. I didn't have want 
to have a misunderstanding of my question.

                      EXAMINATION BY MS. COMSTOCK:

    Question. I was directing it towards how you saw the White House 
as--events at the White House as being support for the party.
    Mr. Dennis. I didn't understand it to be the question either. This 
sounds like a different question. You want her to answer that question?
    Ms. Comstock. Yes, and I'm sorry.
    Mr. Ballen. There are several questions pending.
    Mr. Dennis. There are actually a couple of questions. Let's try it 
this way. Could we do this? Can we go back to the question you just 
asked and the question before that so I can----
    Ms. Comstock. Maybe I should just strike my last question and the 
answer, so there is not any misunderstanding in the record because----
    Mr. Dennis. It is confusing to have two questions.

                      EXAMINATION BY MS. COMSTOCK:

    Question. I asked what understanding you had of how the White House 
could be utilized as a support for the party.
    Answer. As I said before, primarily, in my office, Mrs. Clinton 
would be a part of the White House, and I felt that her schedule and 
how we allotted time prevented our support of the party.
    Ms. Comstock. Off the record.
    [Discussion off the record.]
    Ms. Comstock. Back on the record.

                      EXAMINATION BY MS. COMSTOCK:

    Question. You indicated that Ann Stock reported directly to you; 
you're her direct supervisor, is that correct?
    Answer. On paper, yes.
    Question. And can you describe generally the practice of how Ms. 
Stock reported to you?
    Answer. We generally worked on--if something was really wrong, she 
would talk to me. She had a pretty good handle of, you know, how to run 
those events, and I absolutely trusted her. So, I mean, we would talk, 
I would think that we talked every day about something or the other, 
and then I would, you know, hear about--you know, I would definitely 
know about her plans and what the events were, but I felt myself more 
consultative than in charge. But if there was a problem and she needed 
some support for something she was advocating for, I would always help. 
But also on the staffing side, I was probably most helpful to her in 
that regard.
    Question. In hiring people for her office?
    Answer. Well, just in making sure she got the help she needed. A 
lot of times the kind of help she needed might be seasonal, you know; 
Christmas would be a high season, Easter would be a high season. The 
White House, I understand, as a rule doesn't have a lot of flexibility 
with that, but that is kind of what she needed. So in those areas I 
think I was much more of a support and much more focused on her work in 
those times.
    Question. Would she generally cc you on just generally what was 
going on, or send you memos to here are the events we have for this 
week, so you know what is going on; here is who is overnight at the 
White House, so in case they are wandering around, you know who is 
here?
    Answer. Right. I mean, that particular kind of information wouldn't 
come from Ann Stock, but in general there were opportunities to see 
what the whole--I mean, what the whole schedule was.
    Question. And who would that information come from then?
    Answer. On events it would, you know, come through a President's 
scheduler, or if it was an event Mrs. Clinton was involved in, through 
that scheduler. But, you know, Ann was able to work with, you know, 
each of the schedulers in whatever division was putting it on, and if 
there was a difficulty, generally I would be brought in.
    Question. And did she ever bring you in on any issues that arose in 
relation to DNC requests of the White House?
    Answer. Well, yes, in particular, which I don't think necessarily 
initiated the meeting, but, you know, she tried to be a very orderly 
person, and she felt when the DNC made recommendations, they didn't 
give complete information.
    Question. And besides that, were there other areas of DNC requests 
she talked to you about?
    Answer. That was her big kind of thing. She felt that people needed 
to have the lead time to receive an invitation from the White House, 
that the protocol was very late, and if she asked every department to 
give her a list of the recommendations in order to begin to build an 
invitation list, that the DNC tended to be very late, and she thought 
that it made the White House look bad to send very late invitations, 
and so she was very much concerned about that with them.
    Question. Okay. And were you aware of how she worked with the White 
House Ushers' Office, how, in coordinating events?
    Answer. I think like everybody else has before. I mean, you know, 
they really know the house. I mean, they know, you know, what a tent 
will cost. You know, I mean, they just know the house, and if you are 
planning any events, I mean, they know what it can take.
    Question. And in regards to the DNC, did there come a time when the 
DNC wasn't paying bills for events that had been held at the White 
House?
    Answer. Oh, well, come a time. They were habitual late payers, but 
so was the Olympic committee, and so was the, what is it, the Madison 
Group from the Library of Congress. I mean, the bills certainly weren't 
as big because the DNC had, you know, large chunks of bills because 
they were responsible, as in the Bush administration, the RNC, for 
almost anything that wasn't official, and then we had, you know, the 
Olympic committee, the Kennedy Center, the whatever theater, whatever 
group was putting on something at the White House.
    Question. Do you recall any discussions with Mr. Walters about the 
DNC not paying bills?
    Answer. About what?
    Question. About the DNC not paying bills for events?
    Answer. Yes.
    Question. Can you just describe those conversations?
    Answer. Just in general the gist would be----
    Mr. Ballen. These are conversations with Mr. Walters?
    The Witness. That is how I understood the question.
    Ms. Comstock. Yes.
    The Witness. Okay. These would be the DNC hasn't paid its bills, 
the Education Department is late with the bill, the Olympic committee 
wants to have another event here, it hasn't paid its bills. I have sent 
out three notices. Can you call them, or do you want me to send out 
more notices?

                      EXAMINATION BY MS. COMSTOCK:

    Question. All right. And then did he generally then memo you on 
these types of things?
    Answer. Sometimes he did, yes, sometimes he did. I don't know if 
there was with frequency, but I saw Gary enough through the halls that 
if he wanted to tell me, he did. I remember seeing one or two memos, 
and he may have sent me more that I didn't see, but mostly I would just 
talk to him.
    Question. You said the DNC was a habitual late payer?
    Answer. They did not pay on time.
    Question. And what was your understanding of what the time frame 
was of when they were supposed to pay, 30 days or----
    Answer. I actually had no real sense of it, just my own kind of 
internal for when I might want to see something paid. I would think, 
you know, 60, 90 days.
    Question. Do you recall how often you had--were these regular 
conversations you had with Mr. Walters about the DNC?
    Answer. Intermittent. They were intermittent because, I mean, Mr. 
Walters essentially did what he normally would do. As I understand it, 
he would send out his own kind of dunning notices and make his calls 
and follow up, and then if he, you know, hadn't heard from him, he 
would, you know, want to know what was going on.
    Question. Is it your understanding he would first directly call 
whoever it was who was paying the bill?
    Answer. I don't know if he called them, but I know he would contact 
them and that he would send the bill, maybe send a letter, I mean, I 
don't know what, and then he might even call himself, I assume.
    Question. Did he generally apprise you of when things were running 
late?
    Answer. Yes. I mean, he would say in passing--you know, I think he 
wasn't necessarily my responsibility, but I think he knew if he said 
something to me about it that I would, you know, try and get people to 
pay attention to it.
    Question. And what did you do when he told you about that?
    Answer. I might call somebody at the DNC.
    Question. Do you know who you would call?
    Answer. It would just depend on who I saw, and I might call them, I 
might see them, I might tell Harold, somebody in the political 
division, you should call somebody over there, if I saw--I can't think 
of that guy's name. He works with the DNC.
    Question. A finance person?
    Answer. Dark hair. I'm sorry, I will just make a note of it. I can 
see him, but I can't think of his name.
    Question. Is it Mr. Sullivan?
    Answer. No.
    Question. I don't know.
    Answer. I know you probably can't help me. You can't help me, but 
it was someone.
    Question. Do you know if it was who worked in the Finance Office in 
particular?
    Answer. I believe he was in the Finance Office.
    Question. Or billing services?
    Answer. I don't know how they were cut up that way.
    Question. Do you know if you ever wrote any memos or notes to DNC 
people about paying the bills?
    Answer. Who?
    Question. If you did.
    Answer. I never did write anything.
    Question. When Mr. Walters talked to you, you would talk to 
somebody orally about, get after this, somebody should look into this, 
and direct somebody else to do something about it?
    Answer. It would just depend. I mean, if I happened to talk to Gary 
and walked into Harold, I would say, Harold, the DNC has not paid its 
bill, or I would write it down, and I would say, today I will call the 
DNC, I will call the Library of Congress, and I will call this one. It 
is very haphazard.
    Question. Were you familiar with the First Lady being asked to make 
DNC fund-raising calls?
    Answer. I am, from the newspapers, from a question that she was 
asked in a news conference, and from a memo from Harold Ickes that made 
a suggestion about it, but whether or not she made the calls, I am not 
aware of that. But those are the two places I have heard about that.
    Question. Okay. And did the memo you mentioned from Harold Ickes, 
is that something you recall being contemporaneous with the request for 
the calls?
    Answer. I don't quite understand that.
    Question. Do you recall that--Harold writing a memo about something 
asking the First Lady to make calls last year or in '95?
    Answer. I would be very bad on a memo. I mean, it just--you know, 
it's just one in his continuing series of memos. I mean, it doesn't 
stand out in my head.
    Question. You got a lot of memos from Mr. Ickes?
    Answer. Yes.
    Question. Do you recall having any discussion with Mr. Ickes about 
the First Lady making DNC fund-raising calls?
    Answer. No.
    Question. Okay. At or around the fall of 1995, do you remember 
discussions about the media fund and--to get a lot of media in the fall 
of 1995? And if it helps you, that is the time of the budget battle, 
and Mr. Morris was encouraging a large media buy for the fall of 1995, 
and particularly encouraged a $10 million fund be utilized in that 
time. And sort of putting it in that context, do you recall Mr. Ickes 
asking you about having the First Lady make phone calls to assist in 
this media fund?
    Answer. No, I mean, I certainly do recall Dick Morris wanting to 
put a lot of money into media. I didn't realize it was called the media 
fund.
    Question. Okay. Were you involved in some of the discussions with 
Mr. Morris advocating the media, you know, large media buys?
    Answer. I was involved inasmuch as I attended the Wednesday night 
strategy sessions, but they were more focused on substance than--but I 
certainly know that, you know, Mr. Morris used that as a forum to say 
we needed to get more media.
    Question. What was your understanding of sort of the discussion 
back and forth about having this large fall '95 media campaign?
    Answer. Well, actually, at this particular meeting, it was not----
    Question. I'm sorry, what is this?
    Answer. The meeting that--the times that I heard Dick Morris 
advocate for more money for media was our Wednesday night strategy 
meeting. The focus of the meeting was not a discussion of the media 
budget, it was the--the focus of this was to talk about policy. There 
would be times that we would screen the advertising, but mostly to 
screen it in the context of whether or not we thought it worked, said 
the right things, whatever, so it was more substantive. So peripherally 
Mr. Morris would advocate for a media budget, but a discussion of it 
was not--that was not the place where they had that discussion.
    Question. Can you describe, when you said you viewed the media, 
where that occurred, what the process was?
    Answer. I mean, not much of a process. They would set up a 
television and VCR, and if there was a commercial on a certain subject, 
they would ask us--Mr. Morris would ask us to look at it and invite 
comments.
    Question. And who was involved in these meetings?
    Answer. Well, the President, the Vice President.
    Question. Mr. Ickes?
    Answer. Mr. Ickes, Mr. Panetta, Mr. McLarty, you know. Actually, 
New York Times ran a picture of the seating of that meeting where they 
had everybody there.
    Question. That was the group?
    Answer. That was it. You remember that.
    Question. I recall that.
    Answer. That is it. Mr. Sosnik.
    Question. Mr. McCurry was involved in that sometimes?
    Answer. Yes, sometimes, yes.
    Question. Okay. And were there discussions of what should be added 
to the commercials?
    Answer. Yes, critiquing them.
    Question. Was the President involved in that discussion then; the 
President, Vice President were present at these discussions?
    Answer. Oh, right, because it had to do with substance and policy, 
yes.
    Question. Did the President ever make any suggestions on changes in 
that, in the media, in the commercials?
    Answer. Oh, yes, he had his say.
    Question. In the meetings do you recall what he said about any 
particular one?
    Answer. I mean, you know, there are dozens of them.
    Mr. Ballen. Excuse me, I am going to object to the relevancy of 
advertising and the President. I object to this line. It is not 
relevant to the committee's inquiry into the campaign finance fund-
raising abuse or any possible violations. The President may have made a 
suggestion about an ad or not.
    Ms. Comstock. I am just asking the question about the President's 
role in these meetings you are describing.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you recall him discussing--was he usually a vocal 
participant in the meetings?
    Answer. The focus of the meeting was substance and policy, so a lot 
had to do with his interest in whatever policy or substantive matter 
was going to be made public, you know, so, yes, he certainly was 
interested.
    Question. Any comment on the commercials that Mr. Morris would 
show?
    Answer. He was interested, yes.
    Question. Did he make comments on change that, or try this, 
anything like that?
    Answer. I don't remember specifically, but I can't imagine that 
that wouldn't be the case in a situation where everyone could critique.
    Question. All right. And in any of these meetings, do you recall 
any general discussion about the benefit or wisdom of this large media 
campaign in or around the fall of '95?
    Answer. No, because--well, I don't recall specifically. I mean, 
there could have been. I don't recall specifically, but just that the--
and I don't remember everything that happened at these meetings, but 
what sticks out in my mind is what the core of the meeting was, which 
was substantive and policy-related issues, so----
    Question. Do you recall Mr. Ickes ever discussing his opinion on 
the wisdom of spending this kind of money on an early media buy in '95?
    Answer. You know, I don't really recall specifically, but I do know 
from newspapers now he is characterized as having been against it. That 
was not the sense that I got, nor did I ever hear that.
    Question. So at the time in the fall of '95, you had no knowledge 
of his being opposed to that plan?
    Answer. Yes, not to that plan, no.
    Question. Did you have any knowledge of anybody generally being 
opposed to why are we doing this in the fall of'95?
    Answer. My good, I can't imagine that someone wasn't, I mean, it is 
the Clinton White House. I mean, I can't imagine someone wasn't opposed 
to it. I mean, I just didn't focus on those discussions or happen to be 
involved in them, I guess.
    Question. And were you aware--in the fall of'95, were you aware of 
increased--any increase in efforts to utilize the White House for fund-
raising purposes or have events at the White House or----
    Answer. An increase in efforts?
    Question. Yes.
    Mr. Ballen. I am going to object. What does counsel mean by ``using 
the White House for fund-raising purposes''?
    Ms. Comstock. Have events at the White House.
    Mr. Ballen. Where there would be fund-raising?
    The Witness. We can't have those at the White House.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you recall the DNC making additional requests for 
events at the White House?
    Answer. Sure. I can't imagine that they didn't.
    Question. Do you have any knowledge of if there was any effort in 
connection with this media fund to have more events at the White House 
in the fall of '95?
    Answer. Well, since, as I said before, I wasn't aware--I mean, I 
didn't focus on there being a media fund that we were all supposed to 
be raising money for. I just don't have that idea in my head of a media 
fund. The question is did the DNC--was the DNC interested in having 
events at the White House? Yes.
    Question. Okay. Let me return a little bit to the bills. After the 
DNC had an event, do you know the process by which the bills would be 
submitted for that event?
    Answer. No.
    Ms. Comstock. I am showing the witness a memo from the DNC, 
actually DNC finance call sheets, DNC by State number, 3234, 6944. The 
next page is 34 through--I'm sorry, these are somewhat out of order. 
Actually, I don't know--do you have 44 on the top of your copy? Why 
don't we correct it. I think it starts 323, 6934, and then it goes 
through 45. That one that was on the top page should be the second to 
the last page. And these are call sheets for Hillary Rodham Clinton. 
The documents indicate they were prepared by Marvin Rosen.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you have any knowledge about DNC call sheets prepared 
by the First Lady?
    Answer. I have never seen this, no.
    Question. Do you have any knowledge of Mr. Rosen talking to the 
First Lady about making DNC fund-raising calls?
    Answer. No, I don't have any knowledge.
    Question. Okay. Then directing your attention to reason for the 
call, it says us to--on the first page, 3236934, says, ``Ask to 
contribute an additional $50,000 for the DNC media fund,'' and actually 
a number of these, as you go through, I think most of them are asking 
for money for the DNC media fund. There isn't a year date on this.
    Answer. It says December 4. Well, on one of them.
    Question. I believe the time frame is 1995. I think they have been 
written about in the press.
    Well, we don't have the year on here, but it is talking about 
contributions made in '94 and '93, and presumably no one was asking her 
to make fund-raising calls in December of '96, unless you have 
knowledge about anybody asking, but I am assuming that. So given the 
dates on here and what seems to be logical appears they may have been, 
they probably were, December of '95.
    Is it your testimony then you have no knowledge of any efforts for 
the First Lady to raise money for the DNC media fund?
    Answer. Not--first of all, not through call sheets or calling. I 
have never seen these. As I said before, the idea of the DNC media fund 
is something that just doesn't strike me as what I am familiar with. 
Was Mrs. Clinton asked to help raise money for the DNC? Absolutely. 
And, you know, I am assuming here this DNC media fund is a part of the 
DNC. Yes, as I said before, they did,.
    Question. All right. Do you have any knowledge about the First Lady 
ever making fund-raising calls for the DNC?
    Answer. No.
    Question. So you have never seen her make a fund-raising call or 
talked to her about a fund-raising call?
    Answer. I haven't, and I have never seen this packet.
    Question. And then maybe just review any of the names in here that 
were directed to call. See if you have any knowledge of the First Lady 
contacting any of these people on here for--you know, if you had 
contact with them in connection with the First Lady or the White House?
    Answer. Well, I had contact with them in connection with the First 
Lady, but not in connection to the--to fund-raising. Sue Bailey was at 
the Department of Defense at some point, then she went to work for 
Clinton/Gore. I don't----
    Question. Because this document indicates that Dr. Bailey resigned 
her position at DOD in June to work with the Re-elect Committee on 
women's fund-raising. Is that your knowledge of Ms. Bailey?
    Answer. That is right.
    Question. Was she involved in any events at the White House, to 
your knowledge?
    Answer. I am sure any event that had to do with women, that she was 
probably there.
    Question. Okay. And the events, sort of coffee-type events or 
lunches, is that what you are referring to?
    Answer. I was just thinking more generally. I would have to see the 
list of the coffees to know if she went to that. I don't know if she 
did or not.
    Question. Were you ever aware of any luncheons or events that Dr. 
Bailey was involved in where donors were primarily--like women's 
leadershipship funds, donor types?
    Answer. Right. Women's--I would have to look at a list to tell you 
whether or not Dr. Bailey was there. I believe there was a Women's 
Democratic Leadership Forum gathering at the White House. They 
generally were all over the country, but I believe there was, but I 
would have to see a list to find out whether she was there or not, I 
just couldn't say. I don't know these people.
    I think maybe I heard of Denise Rich.
    Question. That is on DNC 3236931.
    Mr. Ballen. Can I understand the question pending?
    Ms. Comstock. If Ms. Williams had any contact with the people who 
are identified on the finance call sheets at the White House.
    Mr. Ballen. In general or in connection with the financing.
    The Witness. I understand the question in general. I don't know if 
I am wrong.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Yes, in general.
    Answer. I don't know. It just sounds familiar. I think because she 
won a Grammy. Susie Tompkins I have met. I don't know in what context.
    Question. Do you have any knowledge of her being involved in fund-
raising or----
    Answer. It says here--I think I do recall something about her 
holding the fund-raiser for Clinton/Gore in San Francisco.
    Question. That is indicated on 3236941. That sounds familiar to 
you?
    Answer. I mean, I know about Ralph Lauren, but not in connection to 
his donation. He helped one Christmas in decorating for the White House 
Christmas.
    Question. And did a lovely job, too.
    Answer. Right, which is how I heard that.
    Those are the only people that I recognize.
    Question. Okay. Directing your attention to page 3236937, it is for 
somebody--it is Ayse Kenmore. The additional notes on that page 
indicate that?
    Answer. I'm sorry?
    Question. The additional notes indicate--it says she has been to a 
number of events at the White House. Do you know generally how the DNC 
learned about how many events people attended at the White House?
    Answer. No.
    Question. Do you have any knowledge of whether anybody at the White 
House ever used the White House database to tell DNC people about how 
many events somebody had attended at the White House?
    Answer. No.
    Ms. Comstock. Okay. I will go ahead and make that Deposition 
Exhibit No. 10.
    [Williams Deposition Exhibit No. MW-10 was marked for 
identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Did you know Marvin Rosen at all?
    Answer. Yes.
    Question. Was he at the White House often, or did you see him at 
the White House often?
    Answer. No, I saw him as he--I think I saw him at a couple of 
dinners maybe. You know, occasionally I would see him, but not a lot.
    Question. Okay. Do you recall any sense as to where he had meetings 
with the First Lady, particularly at the White House?
    Answer. Not particularly. I would have to look at his schedule.
    Question. And we have generally discussed the coffees that you 
referenced earlier?
    Answer. Yes.
    Question. What was your understanding of what the purpose of what 
the coffees was?
    Answer. The coffees were to gather supporters of the President and 
Mrs. Clinton for issue discussion.
    Question. Were you aware of any discussion at the White House about 
people talking at these coffees in reference to fund-raising?
    Answer. Not in reference to fund-raising, but that they were DNC 
lists, they were people the DNC was proposing.
    Question. And did you have an understanding that these people 
generally were donors?
    Answer. Well, from the look of some of the lists of Mrs. Clinton's 
coffees, a fair number of them were not donors actually. I don't know 
about the President's coffees, but we had, you know, from the list, 
because I don't know who actually attended ultimately, but we tended to 
have people who worked on different kinds of issues, people who maybe 
were State chairs, people, and some contributors, too. But I think that 
the coffees that she attended had a healthy mix because I remember at 
one point, I think she was asking to get people who had worked on 
health care, so it was really a kind of an issue meeting. She never 
thought she had long enough to discuss the issues at length that people 
wanted to talk about.
    Question. Did you usually attend these coffees?
    Answer. No, I didn't go to any of them.
    Question. Do you know who attended, staff, with the First Lady, who 
attended?
    Answer. From our staff, her policy person went, Melanne Verveer.
    Question. She was generally the person who attended?
    Answer. Yes.
    Question. Do you know how these were set up or who made the 
arrangement, is that Miss Solis?
    Answer. Yes.
    Question. S-O-L-I-S.
    Answer. I assume it just went through the process of if the DNC or 
Clinton/Gore had suggested it, that it probably came through our 
political office, Patti Solis agreed on a date and on participants.
    Question. And did the invitations go out from the DNC or from the 
White House?
    Answer. I can't imagine they would go out from the DNC. It would be 
seen as a White House event. An invitation to the White House goes out 
from the White House.
    Question. So do you know somebody then from the White--how are 
invitations done at the White House, if you can generally describe the 
process?
    Answer. Well, once again, if the list process works, and so they 
have agreed by schedule that, let's say, Mrs. Clinton will go to 
coffee, this event is sponsored by the DNC, and so they would submit a 
list of who would be included, and then that list would go to the White 
House social secretary and her people will usually write the 
invitation.
    Question. So if I were an invitee to one of these First Lady's 
coffees, I got an invitation from--one of those pretty ones from the 
White House?
    Answer. I would--I mean, the rule is that if you are invited to the 
White House, the invitation must come from the White House. I didn't 
hear of anybody breaking that rule, so it is my assumption that is what 
you would get.
    Question. That is sort of the social secretary prototype rules, 
that Emily Post type things?
    Answer. It is very much so and very much enforced.
    Question. So if you get something inviting you to the White House 
from the DNC, it is sort of a bogus invitation, that is the White House 
rule?
    Answer. Right.
    Question. Were you ever aware of anyone at the DNC providing back 
feedback to your office or other offices at the White House about how 
much money had been raised as a result of the coffees, people had been 
contacted before, after?
    Answer. Not to me, not to my office.
    Question. Did you ever see any spreadsheets showing how much was 
contributed, generated from any particular coffees?
    Answer. I don't recall seeing a spreadsheet.
    Question. Have you--I mean, some of the spreadsheets, Mr. Ickes' 
spreadsheets, he turned over to the committee have been in the 
newspapers somewhat. Did you ever see anything like that while you were 
at the White House?
    Answer. I mean, not that I can recall. I mean, I can't say if it 
was in an Ickes memo where I was cc'd. I may have; it just doesn't jump 
up at me.
    Question. Were you ever aware of any type of targets or numbers, 
amounts of money that would try to be raised as a result of any events 
at the White House?
    Answer. As a result of an event at the White House?
    Question. Yes.
    Answer. Not at the White House. I was more aware of if there was an 
event outside of the White House.
    Question. I am talking----
    Answer. What the target would be, yes, I would know that.
    Question. I am talking more about the events in the White House, 
and generally, I had----
    Answer. No.
    Question. I will provide that. I don't want to be talking past you 
without a document here, but we have a number of spreadsheets which 
indicate, you know, targeted amounts of $400,000 to be generated from a 
coffee and then how much was raised, which was often $400,000. Did you 
ever see anything like that in a spreadsheet?
    Answer. I don't recall seeing anything like that.
    Question. Did you ever have any discussions with anyone or hear 
anything about, you know, each of these coffees is worth a certain 
amount to us?
    Answer. Oh, no.
    Question. Anything like that?
    Answer. No.
    Question. Okay.
    Question. Do you know who Ernie Greene is?
    Answer. Oh, yes.
    Question. All right. And when did you first meet him?
    Answer. Sometime in the '80s.
    Question. And are you social friends with him or no--just know what 
type of acquaintance?
    Answer. I knew him when he worked for Jesse Jackson, on Jesse 
Jackson's campaign. That is how I first came to know him. I would think 
we would be friends.
    Question. And do you know if he was involved in fund-raising at all 
for the DNC or Clinton/Gore?
    Answer. I believe he is a trustee. I don't know. Either one or the 
other or maybe both. I don't know for sure.
    Question. Did you generally have a knowledge of individuals who are 
trustees?
    Answer. Yes, yes, kind of, yes.
    Question. And how did you learn about that?
    Answer. Well, I think that DNC has--I was trying to think about 
this the other day. DNC sponsors at the White House at least once a 
year a dinner for managing trustees of the DNC, and I think, you know, 
just in my kind of goings and comings I picked up on it. I didn't have 
a real formal way of knowing, but I think I knew generally who they 
were.
    Question. Did you ever attend any of those events?
    Answer. You mean sit down at them?
    Question. Or just attend, in any capacity, a reception?
    Answer. Yes, I mean--I thought about this since my last deposition, 
all these events were like the same event to me. I mean, not just the 
DNC event, all the events. I would usually stop by an event at the 
White House to see how it was going. I would, almost without fail, as a 
matter of protocol, be invited to every event. But they pretty much had 
a standard form, so I would walk into a DNC event, I would walk into a 
Kennedy Center event, so I was around.
    Question. Okay. Did you become aware of an individual named Charlie 
Trie from any of these trustee events?
    Answer. No.
    Question. Or Johnny Chung?
    Answer. I don't know if I met Johnny Chung at one of the events, 
but I did meet Johnny Chung at some places.
    Question. Did you ever get any lists from the DNC on trustees?
    Answer. Not that I recall a list. I am trying to think if they had 
any publications that would list their trustees or any kind of 
letterhead. There is something that makes me think I have seen a list 
of the trustees at some point.
    Mr. Ballen. Did you see them in the newspaper?
    The Witness. I just don't recall where.
    Mr. Ballen. These were public events?
    The Witness. At the White House?
    Mr. Ballen. Yes.
    The Witness. Oh, yes, they were trustee events.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Were you aware of any private dinners or private lunches 
or anything with trustees, or set up particularly for trustees?
    Answer. I just have to look at a list to see.
    Question. Were you aware of any connections that Mr. Ernie Greene 
had with Charlie Trie?
    Answer. No.
    Question. Do you have any knowledge of any business matter that he 
was working on with him?
    Answer. No.
    Question. So in your knowledge, with Ernie Greene, you never even 
knew he knew Charlie Trie?
    Answer. That is correct.
    Question. Have you ever talked to Mr. Greene about Charlie Trie to 
date?
    Answer. No.
    Question. And do you know Mark Middleton who worked at the White 
House in the chief of staff office?
    Answer. Yes.
    Question. When did you first meet him?
    Answer. I think he started with Mack McLarty in '93. I mean, I met 
him at the White House when he worked for Mack.
    Question. And what kind of interaction did you have with Mr. 
Middleton while he was employed at the White House?
    Answer. While he was the chief of staff assistant or executive 
assistant, we were very friendly. If I needed to speak with Mack 
McLarty, he would make sure that I got in to speak with him. He was, 
you know, just seemed to be an extremely competent and very friendly 
towards me.
    Ms. Comstock. Okay. I am sorry, I wanted to return, just briefly, 
to Mr. Greene, before we move on to Mr. Trie. I want to show the 
witness EOP 59099, which is a message pad from sometime between 8-17-95 
to 8-29-95. This is a message pad, either from somebody in the First 
Lady's office or in Melanne Verveer's message pad. Message to Melanne 
of 8-29, which says, Mr. Ernie Greene, at suggestion of Alexis Herman, 
was calling, and then the part of the memo says, ``Trip to China,'' and 
``Supporter from Arkansas, Charlie Trie.''

                      EXAMINATION BY MS. COMSTOCK:

    Question. I was wondering if that refreshed your recollection as to 
whether or not you ever had any discussions with Mr. Greene about 
Charlie Trie or if there is any knowledge about Melanne Verveer talking 
to Mr. Greene or Mr. Trie relating to anything related to China?
    Answer. No, but this is to Melanne.
    Question. Yes, this is not your message. I was just wondering if 
you have any recollection of talking to Melanne about Greene and 
Charlie Trie?
    Answer. No.
    Question. Do you have any knowledge about Mr. Greene trying to get 
anybody on to trips to China?
    Answer. No.
    Question. Okay.
    Answer. On trips to China?
    Question. Any kind of official delegation trips to China?
    Answer. No.
    Ms. Comstock. Make that Deposition Exhibit No. 11.
    [Williams Deposition Exhibit No. MW-11 was marked for 
identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. I am going to return to discussing Mr. Middleton. We 
previously discussed the April 21st, 1994, memo which--where Mr. 
Middleton provided the fund-raiser list. Do you have any knowledge of 
Mr. Middleton at a meeting with fund-raisers or anything while he was 
at the White House, or that being any type of role that he had?
    Answer. No, not especially. I mean, he sat out front of Mack's 
office. Everybody walked in there.
    Question. Okay.
    Answer. I don't know if that was a role of his.
    Question. Did he have a role of sort of catering to bigwigs or 
anything like that, in terms of being in the chief of staff office?
    Answer. I think he had to be nice to everybody, I think.
    Question. What was your knowledge of, or if you have any knowledge, 
about Mr. Middleton being involved in his White House duties with 
anything connected to Asia policy?
    Answer. I have no knowledge of his White House duties.
    Question. Okay. Did you have occasion while you were at the White 
House to ever meet the Riadys?
    Answer. No.
    Question. Do you have any knowledge of what Mr. Middleton's 
interaction was with the Riadys?
    Answer. No.
    Question. Do you know somebody named Joe Giroir, G-I-R-O-I-R?
    Answer. No.
    Question. From Arkansas?
    Answer. No.
    Question. A former law partner at Rose, an Asian businessman?
    Answer. No.
    Question. Does business in Asia?
    Answer. No.
    Question. Okay. After Mr. Middleton left the White House, what was 
your understanding of what he was doing when he left the White House?
    Answer. Some kind of international business.
    Question. Did you keep in touch with him?
    Answer. Yes. From time to time, yes.
    Question. And for what occasions did you keep in touch with him?
    Answer. Well, he would call my office and want to use my Mess 
account.
    Question. Can you describe what that is, what that involved?
    Answer. People at the White House have an account at the cafeteria, 
and----
    Question. Now this isn't the cafeteria that anyone can eat at, this 
is the White House Mess within the West Wing?
    Answer. Yes, it's in the basement of the White House.
    Question. And only certain people, sort of senior level staff have 
access to that, generally, have privileges?
    Answer. Actually, that was the way it had been in the past, but 
when we came we extended it to anybody who actually worked in the West 
Wing because it was easier for them to get to than going across the 
street. So people in the Old Executive Office Building tended not to 
have them. Everyone who was an assistant to the President, even if you 
worked in the Old Executive Office Building, had them, but if you 
worked in the West Wing, whoever you were, you had access to the Mess.
    Question. And I guess we can return, you said Mr. Middleton would 
call----
    Answer. And Mr. Middleton called and said to me or Evan, Evan Ryan, 
who worked for me, would say, I want to use your Mess account to go to 
the Mess.
    Question. And what was the policy on that?
    Answer. Well, at the time there was no policy that I knew of. There 
was no policy that I knew of, since, you know--I mean, you pay for--I 
mean, it's like a personal account. They send you a bill; you write 
them a check.
    Question. You got a bill at the end of the month or after the 
event?
    Answer. I think they do it--I think they do it at the end of the 
month. Maybe they do it every 2 weeks. I get it and then I write a 
check.
    Mr. Ballen. So you pay for the lunches you have there?
    The Witness. Yes, if you have an apple, a cup of coffee, you fill 
out a slip of paper and you pay for it. You get back, you know, five 
cups of coffee and you write them a check. So he would call and say, I 
want to eat at the Mess today, can I use your account, and I would say, 
sure, have Evan clear you in or you call Evan and Evan would say, Mark, 
wants to use your Mess account, do you care, and I would say, I don't 
care.
    Question. So somebody from the Mess would call?
    Answer. No.
    Question. How does that work?
    Answer. The Mess account is your own account. No one from the Mess 
calls. So if you wanted to go to the Mess, you would call me. I mean, 
if you were my friend, you would call me and say, can I use your Mess 
account.
    Question. And would you give the account number, too?
    Answer. No, you have to make the reservation. I think that really 
is probably the only policy. The reservation is in your name and only 
you are--I guess Evan or your office can make the reservation, and then 
you have the additional responsibility, your office, you know, doing 
the usual White House process, which is to submit the names of anyone 
who comes. You submit their names to WAVE so they can be brought in.
    Question. So you would--you or someone in your office would call 
down and make the reservation?
    Answer. Make a reservation and they would clear Mark in.
    Question. And then the WAVE's office would kind of physically get 
them in. They would go there and you would have provided the names to 
the WAVE's office if they can be cleared in?
    Answer. And I would get a badge or something and let them go in.
    Question. And now when they come into the West Wing, they have to 
be escorted; is that correct?
    Answer. No, if they would be cleared in for the Mess, and I don't 
know what all the badges mean at this point, but as I understand it, if 
you are cleared in just for the Old Executive Office Building, which 
sometimes happens with WAVEs, then in order to get to the White House, 
which is another level of security, then you would have to be escorted, 
but you can get cleared in, depending on how good the person is doing 
the clearance and the one accepting it, to go straight to the White 
House. And they would demand, you know, more information for that 
security job.
    Question. And so when Mr. Middleton would call to get his to come 
there, was it your understanding he was bringing people with him?
    Answer. I actually had no understanding. If Mark Middleton called 
to use my Mess account, he called to use my Mess account. If he brought 
people in, I mean, I guess I assumed he brought people in. People bring 
their mothers or friends to the Mess.
    Question. You didn't have any understanding whether it was his 
mother or business associate?
    Answer. No.
    Question. He never told you anything about why he wanted to come, 
that he was having other meetings at the White House or anything like 
that?
    Answer. No. I mean, I just thought he wanted to use my Mess account 
so I let him use my Mess account.
    Question. And did you do this often with other people, too?
    Answer. With other people, yes.
    Question. How many?
    Answer. Oh, I don't know, anyone who was at the OEOB who wanted to 
go, come in, other colleagues who had left who wanted to, I probably 
let them use my Mess account. I wasn't--I rarely myself ever got a 
chance to go to the Mess to have lunch, though. I mean, it was just not 
a----
    Question. Would these individuals pay you back for----
    Mr. Ballen. Did you finish your answer?
    The Witness. I forgot what I was going to say. I allowed other 
people to use it. I mean, it wasn't necessarily special to me, but I 
would let other people use it.

                      EXAMINATION BY MS. COMSTOCK:

    Question. I am wondering, was it running up big bills you then had 
to pay back or how does that work?
    Answer. I guess I just mostly wrote the checks. This happened a lot 
for people, especially OEOB, when you have people who work for you, 
because it is the only place that is open late at night. It is open at 
late and the cafeteria on the OB closes, and so generally, you get a 
lot of, put it on, use Maggie's Mess account, and then like 10 people 
eat off of it. So I wasn't necessarily as focused on the bills. I would 
let people use it and the bills would, you know, 100, 200, something 
like that.
    Question. And then particularly with Mr. Middleton, would he, like, 
write you checks afterwards?
    Answer. You know, I don't know if he did or not. If he did, he 
would have given it to Evan Ryan or someone else in my office. Usually 
what I got was a note that said your Mess bill is such and such, sign a 
check, get a check to me.
    Question. And then did you go out and sort of personally collect 
from everybody what they had?
    Answer. No, actually, I rarely collected from anybody. I rarely 
collected from anybody. I really didn't think about it. If Evan thought 
about it, she would. If not, I would just write the check.
    Mr. Ballen. So this wasn't a big deal to you; this was just an 
accommodation?
    The Witness. It started out, like I said, primarily as an 
accommodation, and the staff in the OEOB could use it and it was the 
only place open late so you just get to do it, you know, because you 
are the one who has it. And, you know, Mark was a former colleague and 
a friend.

                      EXAMINATION BY MS. COMSTOCK:

    Question. I mean, were you running up hundreds of dollars of tabs 
here?
    Answer. It is not like my legal bills, okay. It is small change 
compared to that. But you would find, in the White House, you would 
find a lot of people who do that for other people.
    Question. Okay. Can you generally distinguish, was it mostly people 
internally as opposed to former colleagues who were coming in?
    Answer. I have no distinguishing. I mean, it was just--it was at 
the level of minutia for me on this thing. It just didn't matter to me. 
I didn't make any distinguished--it was basically a level of 
familiarity for me. It could be internal; it could be external. They 
have since developed a rule about it, but I was not aware of any such 
rule at the time.
    Question. Okay.
    Ms. Comstock. I am just going to show the witness phone messages 
EOP 59039. Actually, these are not sequentially ordered. It is a 
grouping of phone messages, referencing Mark Middleton, calling, trying 
to get into the Mess. Some are to you, some are to others. On 59041, it 
is to Marj from Mark Middleton, says, please make lunch reservation for 
seven on Friday. It says, ``Make under Maggie's name.''

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you know who Marj is?
    Answer. Marj used to work for me.
    Question. Okay. And that is 5-17-95.
    And then there is one to Evan on 6-7, Monday, Mess, two people, and 
October there, it is very hard to read, then July, 12:00 o'clock, for 
three people, the names are there. Do you know who Larry Jaynes or Jim 
Messec is?
    Answer. No.
    Question. Then there is 1-17-96, to Evan. It says, ``Please make a 
reservation for him in the Mess for January 24, a table for four.'' So 
your testimony is that you don't--you didn't really know who he was 
bringing in, he was just using your account?
    Answer. He used my account.
    Question. Okay.
    Mr. Ballen. If anyone.
    The Witness. Pardon?
    Mr. Ballen. If anyone, if he was bringing in anyone.
    Ms. Comstock. Well, I think these messages indicate he was making 
reservations for seven, so presumably he was bringing someone with him 
on this, EOP 9451.
    Mr. Ballen. We are talking about the witness' knowledge.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Was it your understanding Mark Middleton was coming in 
alone to have lunch at the Mess?
    Answer. He could have. I never thought about it at all, one way or 
the other.
    Question. I think you previously testified he was bringing somebody 
with him, or did you----
    Mr. Ballen. Objection.
    The Witness. I hope my previous testimony was that if he brought 
his mother or whatever, he could bring whoever. I mean, I didn't think 
about it.

                      EXAMINATION BY MS. COMSTOCK:

    Question. You didn't know who he was bringing?
    Answer. Right.
    Ms. Comstock. I will make that Deposition Exhibit No. 12.
    [Williams Deposition Exhibit No. MW-12 was marked for 
identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Did you ever refuse the Mess privileges to Mark Middleton 
or say, no, my tab is up too high or I haven't been collecting on this?
    Answer. No, that wouldn't be my nature.
    Question. Are you aware of other people who he called at the White 
House to use their Mess privileges?
    Answer. No.
    Question. I believe Miss Ryan has indicated she really wasn't 
involved in the collection process on the bills. Do you know anybody 
else in your office who may have been trying to collect the bills?
    Answer. Probably nobody. If she wasn't, nobody was.
    Question. If Evan wasn't, you don't know of anybody else who may 
have been trying to follow up on these, after people to use the 
account?
    Answer. No. That would have been great. No, if Evan wasn't, then it 
wasn't happening.
    Question. I would like to show you Mark Middleton WAVE records, 
generally, not just in the Mess things, and see if you know some of the 
people he was meeting with or if you recall any of the occasions of the 
meeting. These are EOP 20376.
    Answer. Okay. Let me see.
    Question. 20376, again, these are a little out of order. There are 
other people in here so these aren't necessarily sequential, so as we 
go through them, I will note the numbers so the record is reflecting 
what page we are looking at.
    On the first page, 20376, there is a four--generally, before we go 
into these item by item, do you recall generally having meetings with 
Mr. Middleton after he left the White House in the spring, summertime 
of 1995?
    Answer. No, I might--he might have dropped by to see me. I am 
trying to think. He might have dropped by to see me. I remember 
scheduling a meeting with him. When did he leave the White House?
    Question. Approximately mid-February, '95.
    Answer. No, I would see him around. It seems to me I saw him 
around.
    Question. Okay. Then maybe this will be fairly quick to go through 
if you don't recall the meeting.
    There is a 4-21-95, bottom line on the first page there from Mark 
Middleton. It shows the requestor was Ryan and the visitee was Ryan?
    Answer. I'm sorry, go ahead.
    Question. Are you familiar with these documents or how to read 
them?
    Answer. I am just trying to read the 1310. Is that like 1:10?
    Question. Yes, military time.
    Answer. So it is probably lunch time. Okay. All right.
    Question. Then there's another one on the next page which the 
number is a little cut off, but I think it is 20377. There is--the 
fifth item down is a 5/9/95----
    Answer. Uh-huh.
    Question [continuing]. Mark Middleton WAVE where the request is 
Ryan and the visitee is Williams and 5/19 also. I was wondering in this 
April or May time frame if you recall any topics that may have been 
coming up that you may have been meeting with Mr. Middleton on?
    Answer. Topics?
    Question. On what he may have been visiting your office for?
    Answer. No, all I can think is lunch or to stick his head in to see 
me. I really don't. I'm trying to think.
    Question. Do you know if----
    Answer. 1 o'clock?
    Question. Here is a highlighter, if that helps you. I notice that 
you are underlining, and if that helps you.
    Answer. I'm just trying to----
    Mr. Dennis. What's the date on that?
    The Witness. I think it's----
    Mr. Dennis. I can't figure out from the WAVE what the dates are.
    The Witness. The dates wouldn't mean anything to me.
    Ms. Comstock. We can go off the record for a minute, and I can show 
both of you how it sort of works.
    [Discussion held off the record.]
    Ms. Comstock. We can go back on the record.
    The witness has been reviewing the WAVE records, and we have 
generally been discussing how to read them so that the witness 
understands what she is referring to.
    Mr. Ballen. And what is the pending question?
    The Witness. I thought, did any of these strike me as significant 
or did I recall?

                      EXAMINATION BY MS. COMSTOCK:

    Question. Did this refresh your recollection as to meetings with--
any meetings or times you met with Mr. Middleton or any of his 
associates?
    Answer. Well, the dates always mean nothing to me. I can't--dates--
--
    Question. I understand specific dates, but if--the general time 
frame?
    Answer. I guess a lot of these look like lunches, except for a 
couple here which I don't--it doesn't refresh my recollection, and I 
really don't know what----
    Question. There's a seating at the mess for 1:15? At 12:00 and at 
1:15?
    Answer. Yeah, I think it's 1:15 or 1:30.
    Question. Specific times?
    Answer. They're specific times, kind of. They're specific times, 
but the mess closes--I think it closes at 3:00, so, you know, you can 
be under the wire a little bit.
    These--I mean, they don't--you know, I saw Mark around. I don't 
remember, you know, what I talked to him about, other than how're you 
doing?
    Question. Do you recall if Ms. Ryan was ever meeting with Mr. 
Middleton for any purpose that you know of?
    Answer. I mean, I would think there would be no purpose.
    Question. Okay. And I wanted to direct your attention to 5/19/95, 
one on the second page here?
    Answer. 5--I'm sorry?
    Question. On the second page. The one that's hard to read the Bates 
stamp number. There's a 5/19. It says Ryan requesting and Williams is 
the visitee and says second floor, West Wing.
    Answer. Would you just mark it?
    Question. I'm sorry. I'm forgetting. Is the mess technically on the 
second floor? Is that the first----
    Mr. Dennis. Basement.
    The Witness. It's really in the basement. But when WAVEs show--
depending on where you make, sometimes, the reservation for, they'll 
say, you know,--they'll give me office number as the----

                      EXAMINATION BY MS. COMSTOCK:

    Question. Place?
    Answer [continuing]. Number that you're coming to. They won't 
necessarily say mess. They'll give like an office number.
    So like here, Mack McLarty. They're a little bit more exact here. 
They say ground floor. Mack's office is the ground floor, West Wing. 
The same above. They have West Wing. I mean, kind of depending on who, 
like I said, is doing the WAVEs thing on the end. I had an office 
second floor, West Wing, and an office 100 OEOB. So that could be--you 
know, they have to come up with a destination and they use your office 
generally.
    Let me see if that's consistent throughout.
    Mr. Dennis. You have 100 here.
    The Witness. Right. They go back and together.

                      EXAMINATION BY MS. COMSTOCK:

    Question. In reference to the 5/19/95 meeting--I apologize in 
advance. It's a document numbered EOP 56855, but this is another WAVE 
record we've got from the White House. It's for Mr. Ng Lap Seng.
    Answer. Where is that?
    Question. I'll highlight it for you. You can see it if it's 
highlighted.
    Answer. Okay.
    Question. Lap Seng is on the left-hand side there.
    Answer. Okay. Okay.
    Question. 5/19. And----
    Mr. Ballen. We would stipulate that that's what it is, if you want 
to write it out.
    Mr. Dennis. Yeah. You can see it L-A-P, S-E-N-G.
    The Witness. I can see----
    Ms. Comstock. You can see the ``N-G'' a little to the right, and 
then it's ``Williams.''
    Mr. Dennis. But then it is Khapra on the line there.
    Ms. Comstock. There is also--because these were WAVEs--a number of 
his WAVEs--that's a separate time for Khapra.
    Mr. Dennis. Below that it looks like a Larson--oh, maybe that is 
Lap. Yeah, it is both of them.
    The Witness. And these are the same dates for the one above and 
below?
    Ms. Comstock. Yes.
    The Witness. So he went--is that noon?
    Mr. Dennis. 13:15.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Yes, noon.
    Do you know Yusef Khapra at the White House? Do you recall who he 
was?
    Answer. I think he worked for Mack at some point. I'm not sure--or 
Mark at some point.
    Question. And--but this is--the 5/19, your name is the same time as 
visit time at 1:15 as Mark Middleton; and I was wondering--and this 
is--Ng Lap Seng is also known as Mr. Wu, the partner of Charlie Trie. 
Do you recall ever meeting a Mr. Wu or a Mr. Ng Lap Seng?
    Answer. No.
    Question. Do you have any knowledge of Mr. Middleton bringing this 
individual to your office?
    Answer. No.
    Question. Or to the White House?
    Answer. No, huh-uh. Not at all.
    Question. So on this date, whatever, this May 19th, '95, when Mr. 
Middleton came to the White House the same time as Mr. Ng Lap Seng both 
under your name, you have no knowledge of what he was doing there or if 
he was with Mr. Middleton?
    Answer. Right, or not with him. I don't know him. And you say his 
name is Lap Seng?
    Question. Yes.
    Answer. But he's known as----
    Question. Mr. Wu.
    Answer. I don't--I don't know.
    Question. What is it? It was two different names they usually have.
    Mr. Ballen. You don't know either one of them?
    The Witness. Either one of them.
    Ms. Comstock. I just wanted to give you all the aliases just in 
case.
    The Witness. No, I don't know him.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Did you have any knowledge of the any of the Asian 
clients that Mr. Middleton had?
    Answer. No. I didn't know what clients he had.
    Ms. Comstock. I will go ahead and make this, the Ng Lap Seng WAVE 
record, EOP 56855, make that Deposition Exhibit 13.
    [Williams Deposition Exhibit No. MW-13 was marked for 
identification.]
    Ms. Comstock. I'll make this other group of WAVEs for Mark 
Middleton Deposition Exhibit 14.
    [Williams Deposition Exhibit No. MW-14 was marked for 
identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Maybe we could just briefly go through a few of the other 
ones in there.
    Answer. Okay.
    Question. The third page has meetings on June 5th, June 20th--or 
entrances to the White House--why don't I characterize them as 
entrances to the White House on June 5th, June 20th and June 29th, 
where the requester is Ryan and the visitee is Williams. In the 
summertime of '95, again any recollection?
    Answer. I mean, I just don't know. I've got no recollection of 
what----
    Question. One of them is at 2:30 in the afternoon. One is at 11:00 
in the morning. One is at 5:00. Does that assist at all?
    Answer. For the same day?
    Mr. Ballen. Excuse me. I believe the witness has already testified 
she's going through all of these documents, and it doesn't refresh her 
recollection. Going through them individually, I don't know whether 
that will refresh--she has always testified. This has been asked and 
answered. She doesn't recall any specific meetings.

                      EXAMINATION BY MS. COMSTOCK:

    Question. We are just going through and pointing out some of the 
time frames on that, if that helps. I think we will be fairly brief 
going through these. But that doesn't assist you in any way of 
recalling what he might have been doing there?
    Answer. No.
    Question. Do you know of Mr. Middleton ever meeting with Mr. 
McLarty on bringing any of his clients to talk to Mr. McLarty?
    Answer. I don't know that.
    Question. I believe these go through--the most recent ones are--the 
last page has a 9--the second entry is a 9/25/96, so last September, 
'96--September 25th, 1996.
    Mr. Dennis. The last page.

                      EXAMINATION BY MS. COMSTOCK:

    Question. The last page of the document EOP 20392, where he comes 
into----
    Answer. Okay.
    Question [continuing]. Room 100. The requester is Ryan, and then 
the visitee is Ryan. And just to put this in context, this is a time 
when there had been--I think there had been a couple of stories, maybe 
only just one, on some Asian fund-raising problems. I think the Chung 
Am company out in California. That story had been in the L.A. Times.
    Did Mr. Middleton during the fall of '96, September-October '96 
time frame, ever contact with you at any time or talk with you any time 
about any of the Asian fund-raising issues?
    Answer. No, absolutely not. Huh-uh.
    Mr. Dennis. Same day? That's the next day, the 27th. Still--2:30 in 
the afternoon.
    The Witness. And this is what?
    Mr. Dennis. 10 o'clock in the morning.
    The Witness. Right. Uh-huh. I don't know.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Maybe we could--some of the names here, I think--do you 
know who Button is? Who that is? Whose office that person is?
    Answer. Katy Button. I don't know if it is ``I-E'' or ``Y.'' She 
works for Melanne Verveer, but I can't--I don't know if she was an 
intern then or not. I don't know.
    Question. Okay. And I wanted to direct your attention back to 
20378. There was a 6/29/95 entry where Ryan waved in Mark Middleton and 
the visitee was Williams.
    And I wanted to show you a phone message log that was--it's EOP 
59079 through 80 which was--the message was to Evan from Shawn in Mark 
Middleton's office; and the message reads, the meeting for tomorrow at 
5 p.m. is great for Maggie, Lynn Cutler and Mark Middleton. And this 
message is 6/28/95, as I said, and is referencing a meeting tomorrow, 
which presumably would be 6/29 at 5 p.m., and the record on here does 
reflect an entry time of 1700, which would be 5 p.m. on the WAVE's 
records.
    Mr. Ballen. Counsel, what page, please?
    Ms. Comstock. This is page 20378.

                      EXAMINATION BY MS. COMSTOCK:

    Question. And so I was wondering if that refreshes your 
recollection as to that particular meeting or if you ever had a meeting 
with Mark Middleton and Lynn Cutler?
    Answer. I'm trying to think if this was the same day as--'95?
    Mr. Dennis. '95.
    If we could just have a second.
    Ms. Comstock. We can go off the record for a moment.
    [Recess.]
    Ms. Comstock. We can go back on the record.

                      EXAMINATION BY MS. COMSTOCK:

    Question. When we broke we were talking about a June, '95--June 29, 
'95, entry on the WAVEs record; and then they referred to a June 28th, 
'95, phone message that was for a meeting for June 29th at 5 p.m., 
which is the time frame reflected on the record; and the meeting was to 
be with Maggie, Mark Middleton and Lynn Cutler. And the question 
pending was if you recall generally in this time frame or any time of 
meeting with Mark Middleton and Lynn Cutler?
    Answer. What I recall--and, once again, I'm not sure of the time 
frame--is that there was a meeting for Lynn and Mark which I wanted to 
put together. I believe this was--and I'd have to check--this is--it 
was a meeting about the women's delegation to Beijing.
    We had had, 2 days earlier--I think 2 or 3 days earlier--once 
again, I don't know about these dates--a meeting to explain to people 
who might support the women's delegation in Beijing, you know, 
everything about it--anybody who was in business or had an interest in 
it, foundations and everything.
    And I had wanted Mark to be a part of it because I knew that he was 
involved in international business. And I don't think that he could 
come, but I remember--and like I don't know if this is the date, but I 
remember getting Mark and Lynn Cutler together. Lynn had been one of 
the presenters at that meeting, and I wanted her to talk to him about 
the delegation.
    Question. Okay, and was Ms. Cutler going to be involved in the 
delegation going to Beijing?
    Answer. Oh, she--not involved in going. She actually was involved 
in a whole series of events around the delegation that happened in the 
United States about U.S. support for the delegation, which is why she 
was one of the big presenters at a meeting that had been held at the 
White House a few days earlier. But, like I said, that--seeing Lynn's 
name refreshes my memory about wanting to put her together with Mark 
Middleton, but I'm not sure if this is the date or the time, but I know 
at some point that I did that.
    Question. Okay, I am not recalling when the Beijing trip was.
    Answer. I don't either, but I--they were selecting a delegation, 
and that I remember because we held a big meeting with foundations and 
all kinds of people who were interested in international businesses. 
And I remember Lynn was a presenter, and I wanted Mark to go to that 
meeting. I think that would have been good for him.
    Ms. Comstock. Okay. We'll make that Deposition Exhibit No. 15.
    [Williams Deposition Exhibit No. MW-15 was marked for 
identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. I think when we were talking about Mr. Greene earlier you 
had no recollection of Mr. Greene ever talking to you about Mr. Trie?
    Answer. No.
    Question. Do you have any knowledge of anybody trying to get Mr. 
Trie involved in the Beijing delegation or trip?
    Answer. No, no.
    Question. And this is--again, this is a WAVE record for May 19th, 
'95. We had previously been referring to the Middleton documents that 
had a May 19th meeting and then the Ng Lap Seng ones that had a May 
19th visit to the White House.
    And, again, this is a May 19th, '95, WAVE for it says, Yah Trie or 
Yah Lin Trie, I guess it is, on May 19th, '95. And it's requested by 
Ryan and the visitee is Williams. And it appears from the records that 
he came in with Mr. Middleton and Mr. Ng Lap Seng for that which you 
testified you weren't aware of.
    But does that assist you a lot, all that grouping, being together, 
the three of them?
    Answer. No, no.
    Ms. Comstock. I'll just make that Deposition Exhibit No. 16.
    [Williams Deposition Exhibit No. MW-16 was marked for 
identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. And you have no knowledge of Mr. Trie meeting with Mr. 
Middleton on any occasion----
    Answer. No.
    Question [continuing]. Or having any business----
    Answer. Relationship at all.
    Question [continuing]. Relationship? Okay.
    Did there come a time last fall when the stories about Mr. 
Middleton possibly soliciting money from Taiwan, the $15 million that 
is alleged--that somebody in Taiwan alleged he was trying to raise for 
the DNC, did you ever talk with him about----
    Answer. No.
    Question [continuing]. That story or those allegations?
    Answer. Oh, no.
    Question. In any way?
    Answer. No.
    Question. Were you aware of him--did you ever learn of him, aside 
from press accounts of being in Taiwan with Mr. Trie?
    Answer. No, I did not know that.
    Question. Were you aware of the DNC raising money for health care 
media in 1994?
    Mr. Ballen. I'm going to object as to the relevancy of the 
question.
    The Witness. I--I don't know what--can you give me some more 
context?

                      EXAMINATION BY MS. COMSTOCK:

    Question. Well, if you're generally aware of efforts to raise money 
in 1994, specifically designated for health care purposes.
    Answer. For health care? The DNC had a health care project itself.
    Question. And do you have any knowledge of any particular people 
who were donating to the DNC for health care purposes?
    Answer. No, not offhand, I couldn't--donating to the DNC for health 
care purposes.
    Question. For the health care campaign?
    Answer. For theirs? No, not offhand, I can't.
    Ms. Comstock. Okay. I'm showing the witness a document that's F 
38902, which is received from the DNC and directing your attention to 
the first two entries there. It says, 5/12/94, two entries for $20,000 
health care campaign, and it is a--donations from Charlie Trie is what 
is indicated on here.
    The Witness. Where? Oh, up here.
    Ms. Comstock. The top of it says, DNC Finance Executive Summary. 
Then it says, Mr. Charlie Trie. And then it has written and then it 
says 5/12/94, amount $20,000 entry and a $60,000 entry. And both of 
them are identified as 1994 health care campaign, and the solicitor was 
Mr. Richard Mays.
    The Witness. And these are--these are contributions to the DNC?
    Ms. Comstock. Yes.
    The Witness. Oh, okay.

                      EXAMINATION BY MS. COMSTOCK:

    Question. And these are--do you know who Mr. Richard Mays is?
    Answer. Yes, uh-huh.
    Question. And how do you know him?
    Answer. He's from Arkansas. He's a long-time friend of the 
President and Mrs. Clinton.
    Question. Did you have any knowledge of Mr. Mays raising money in 
particular targeted for the health care campaign and health care bill?
    Answer. No, not particularly, no.
    Question. And it's your testimony that you had no knowledge of any 
particular donors who were donating money----
    Answer. Money to----
    Question. Say large sums, anything over 5, 10,000, to the DNC for 
the purposes of health care?
    Answer. For the purposes of their----
    Question. Of the health care campaign?
    Answer. Of their--the DNC's health care campaign?
    Question. Yes.
    Answer. Not that I can recall.
    Mr. Ballen. It has been asked and answered.
    The Witness. No.
    Ms. Comstock. Make that Deposition Exhibit No. 17.
    [Williams Deposition Exhibit No. MW-17 was marked for 
identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. This is EOP 43683. It is a February 15th, 1995, 
memorandum for Harold Ickes from Terry McAuliffe and Laura Hartigan and 
Ari Swiller regarding managing trustees dinners. We had previously 
discussed just generally managing trustee dinners at the White House. 
And I would direct your attention to--it says, the President and First 
Lady's tables; and under the First Lady's table the sixth person 
identified is Charlie Trie.
    Answer. Uh-huh.
    Question. I was wondering if that refreshes your recollection as to 
if you had any knowledge of Mr. Trie being a trustee or being involved 
in any events at the White House?
    Answer. No, I--I wouldn't know him if I saw him.
    Question. Other people indicated at the President and First Lady's 
table here, at the President's table, Mark Jimenez is identified as 
being at the table. Did you ever have occasion to deal with any matters 
related to Mark Jimenez?
    Answer. He went to--there was in Florida--he went to a fund-raiser 
that--I don't even know whose fund-raiser it was. Maybe it was a DNC 
fund-raiser, but I remember him.
    Question. And you met him?
    Answer. No, I wasn't there. I've never met him.
    Question. Do you know--so how do you know of him?
    Answer. Because he was at a fund-raiser for Mrs. Clinton in 
Florida, went on one. I don't know if it was a DNC fund-raiser or a 
candidate fund-raiser. I remember he had a huge family. And he had--a 
huge family--and he had some wives of people from somewhere with him, 
and there was a discussion about if he could bring all of them into the 
fund-raiser or something. But there was something--which is why his 
name rings a bell. There was something with the Florida fund-raiser and 
his guests.
    Question. And this--and how did you learn of this?
    Answer. Oh, I think probably through my scheduler.
    Question. And what was the discussion----
    Answer. I'm trying to remember. I don't know--I just know that his 
name rings a bell for me. Florida fund-raiser, maybe DNC. He had 
guests. I don't know if they were foreign guests. He also had a huge 
family, and there was some mix-up about who he could bring or couldn't 
bring, and I just remember it being drawn to my attention.
    Question. And there was a mix-up with he wanted to bring foreign 
people and there was an issue of whether or not he could bring foreign 
people to the fund-raiser?
    Answer. It seemed to have been foreign people to the fund-raiser or 
the number of people in his family who wanted to be at an event. But I 
just remember there was a big kind of bugaboo about it, which is why I 
always remember his name.
    Question. And who was involved with this bugaboo?
    Answer. I just remember my scheduler talking to me about it.
    Question. Were DNC people involved in that process also?
    Answer. Yes, and I don't know who, but yes. Somebody from the DNC 
also I think called me about it.
    Question. Do you----
    Answer. I mean, I don't remember the specifics of it. But, you 
know, seeing his name rings a bell.
    Question. And, generally, do you recall who at the DNC--this is 
just generally aside from this matter--who you generally would be in 
touch with, who would call?
    Answer. It varied so much, especially if you were in a State. It 
might be somebody related to a State party completely, you know, kind 
of not in the Washington DNC mix.
    But I do remember this Florida thing and his name and it being 
brought to my attention as a problem. But I don't know how we worked it 
out, you know, but I know that it was--there was an issue. There was 
something about his name that rings a bell.
    Question. Do you recall if Mack McLarty ever talked to you about 
Mr. Jimenez?
    Answer. No, I don't remember Mack ever talking to me about him. 
Huh-uh.
    Question. Generally, what was the practice on these fund-raisers on 
who could come? You said there was sort of a bugaboo about this one. 
What kind of issues would arise in terms of who could be at fund-
raisers with the First Lady? Were there other instances where issues 
arose about someone shouldn't be from or----
    Answer. No, mostly, I just--I remember this. The only issues for us 
would tend to be crowds and how many events and how long that she had 
to work them. And, for us, the issues almost inevitably were the number 
of people and whether or not the number of people at a fund-raiser 
would require that she shake hands with every person, which was usually 
a requirement. So that was something that we always talked about--size, 
number, how many, how long. These were our major issues.
    But there was something on this particular front, talking about--
I'm not sure about--I just remember it happened as an issue, and it had 
to do with Florida, and it had to do with size and how much time she 
had to be somewhere, but I don't know--remember the particulars, but 
that's what I remember.
    Question. And when there were fund-raising events--and I'm talking 
now about--you know, we've talked a lot about events that were held at 
the White House, so I'm talking now about events that were fund-raisers 
that you would go out----
    Answer. Uh-huh.
    Question [continuing]. To Florida----
    Answer. Out some place.
    Question [continuing]. Some place where official DNC fund-raising 
type of things--was the First Lady usually memoed by somebody? Like 
saying if it was going to be a small event or who the--these are the 
people who paid 10,000 each for this DNC event? Was there ever any 
memos or documents informing her about who was going to be there and 
who the people who should be recognized are?
    Answer. If there were, it would be a part of her schedule. It would 
come to the schedule, and it would be a part of the schedule.
    Question. Did that go through you at all?
    Answer. Oh, I would generally see the schedule the night before. 
I'd take a look at the schedule. But, you know, we--we had pretty 
competent help in the scheduling.
    Question. And that's scheduling that you saw on a daily basis the 
night before. Did that usually include briefings about people who would 
be at events?
    Answer. Yes, sometimes it did. If it got--if they came to us. I 
mean, you know, if it got to us on time.
    Question. And then returning to EOP 43683, the February 15th, '95, 
memo for Harold Ickes--at the President's table is also seated Pauline 
Kanchanalak. Do you recall ever seeing or knowing of Ms. Kanchanalak 
being at the White House?
    Answer. I think only from press accounts.
    Ms. Comstock. I'll make this Deposition Exhibit No. 18.
    [Williams Deposition Exhibit No. MW-18 was marked for 
identification.]
    Ms. Comstock. This is EOP 63612. It is a memo to Alexis Herman, 
Maggie Williams and Mack McLarty from Lynn Cutler, re: Request of Mark 
Jimenez, September 25, 1996.
    I'll just let you take a look at that.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you recall getting this memo?
    Answer. No.
    Question. If you recognize the handwriting on that, could you 
identify any that you recognize?
    Answer. No.
    Question. I believe the note on one of them does look to be signed 
by Mr. McLarty, the right-hand side, the script.
    Answer. No, I really--I don't recognize the handwriting.
    Question. Do you know any connection--do you recall discussing with 
Lynn Cutler anything having to do with Mark Jimenez?
    Answer. Not that I can recall.
    Question. Do you know if she was involved in any of these 
discussions that you relayed about the Florida trip or anything about 
that?
    Answer. No, huh-uh. I don't remember her being--I remember talking 
to someone in Florida about it.
    Question. And do you recall who the Florida person was?
    Answer. No, I don't think I knew the person. I don't know if it was 
a State party person or someone just involved locally. I'm not really 
clear who I was talking to.
    Question. And Alexis Herman, could you just, for the record, just 
give us her position and what she did at the White House?
    Answer. She was the director of public liaison for the White House, 
the public liaison office.
    Question. All right. And the memo we were discussing earlier today, 
May 5th, 1994, you know, had identified her as the contact person on 
official delegations abroad?
    Answer. Uh-huh.
    Question. On the May 5th, 1994, memo, item number 4 had been 
invitations to participate in official delegations' trips abroad. 
Again, this was in connection with an order to reach our very 
aggressive goal of $40 million.
    Do you know--and I think from the previous docket we were reviewing 
Mark Jimenez was at a trustee dinner. Do you know, was there ever any 
effort to assist these trustees on these official delegation trips?
    Answer. I mean, I don't know. I didn't--I would be asked from time 
to time if I had any suggestions for the delegation. I don't know if 
there was any special outreach work done for the trustees.
    Question. Do you know why this memo was directed from Lynn Cutler 
to you? Why you were included in this circulation?
    Answer. No, I just think Lynn wanted me to be aware.
    Mr. Ballen. Don't speculate. If you know, answer. Counsel's 
admonition to you at the very beginning was that we didn't want 
speculation.
    The Witness. Well, it would be speculation. I don't know.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Previously we had--the meeting that you had with Lynn 
Cutler and Mark Middleton had been about the Beijing trip?
    Answer. Uh-huh.
    Question. This one she's referring to the APEC conference in the 
Philippines. Do you know any particular reason why Ms. Cutler is sort 
of involved or if she is involved in Asian affairs or has Asian 
interests and is involved in any matters related to this?
    Answer. No, not that I know. She was involved in the Beijing 
conference, I believe, because of her relationship and work in the 
women's community. But I don't know about the APEC----
    Question. Was she involved in fund-raising in '96?
    Answer. I don't know--I don't know for sure.
    Question. Do you know of--how often would you meet with Lynn 
Cutler?
    Answer. Well, we worked on a women's committee together on women's 
issues and women's votes, which had--which was once a week or once 
every 2 weeks.
    Question. And were there other matters you worked with Ms. Cutler 
on?
    Answer. That was the primary one where I saw her. I mean, I've 
known Lynn Cutler for, I don't know, 15, 20 years. I mean, I've known 
her in Democratic politics for a very long time.
    Question. Would those meetings be at the White House?
    Answer. On women's issues? Yes.
    Question. And were those meetings that you orchestrated or centered 
in your office or did someone else--was someone else in charge of them?
    Answer. The White House had a women's office. So Betsy Myers--it 
would really involve most of the women in the White House--women from 
Cabinet affairs, from public liaison--representing each of the 
divisions.
    Question. Okay. In this memo Lynn Cutler writes that Mark Jimenez 
of Florida, who has been very helpful to us on a variety of fronts, has 
called asking if he could be on the delegation to the APEC conference 
in the Philippines taking place April 22nd to the 25th. Do you know 
what she was referring to and how Mark Jimenez had been helpful on a 
variety of fronts?
    Answer. No, I don't know with respect to this memo what she was--
no.
    Question. Or if you have any general knowledge of Mark Jimenez, the 
variety of fronts that he may have been helpful to anybody at the White 
House or at the party?
    Answer. Well, I mean, just based on the document, it's----
    Mr. Ballen. No, she's asking for your knowledge.
    The Witness. From my knowledge, no.

                      EXAMINATION BY MS. COMSTOCK:

    Question. And then it goes on to say, you will remember that Mark 
is from the Philippines and I know that this means a great deal to him. 
Do you know if Lynn Cutler had any reason to believe that you had any 
particular knowledge about Mark Jimenez when she is directing this memo 
to you?
    Answer. No.
    Question. Do you know if you did any follow-up to this memo?
    Answer. No.
    Question. Or can you recall any discussions with Alexis Herman or 
Mack McLarty about Mr. Jimenez?
    Answer. No, because I don't even remember this memo.
    Question. Okay.
    Ms. Comstock. I will make that Deposition Exhibit No. 19.
    [Williams Deposition Exhibit No. MW-19 was marked for 
identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. I wanted to return to talking about Charlie Trie a little 
bit. Was it your testimony that you were not aware of him being at the 
White House at any time?
    Answer. No.
    Question. Did there come a time when you learned about his 
donations to the President's legal defense fund?
    Answer. Yes.
    Question. And could you describe----
    Answer. His?
    Question [continuing]. When you learned of that and what you 
learned? From whom, et cetera?
    Answer. I learned from Michael Cardozo, who was one of the trustees 
of the President's legal defense fund.
    Question. And how did you learn about it from Mr. Cardozo?
    Answer. He asked for a meeting. I was included in that meeting 
where he--excuse me, I'm sorry--told us about donations that had been 
given to the President's legal defense fund by a religious sect of 
people and that the President's legal defense fund trustees were 
concerned about the donations and had decided to return them.
    Question. And did he describe what those concerns were?
    Answer. Oh, gosh. The gist of it, I believe, was that members of 
the sect had written checks--no, wait. It had something to do with 
serial numbers. The serial numbers on the checks were consecutive or 
something, and there was a question about whether or not the donations 
that these people were making were their donations. I think that's the 
gist of it.
    Question. Okay. And do you recall if this was--you were informed of 
this by phone or in a meeting?
    Answer. No, it was a meeting.
    Question. And do you recall who else was at the meeting?
    Answer. Michael Cardozo and some lawyers who I do not know, Harold 
Ickes, Evelyn Lieberman, Cheryl Mills. That's what I recall.
    Question. Is that the May 9th, '96 meeting? Do you recall generally 
when the meeting was in the spring of '96? Do you know--maybe it would 
help. Do you know if you had a number of meetings with Mr. Cardozo on 
this or did you only have one?
    Answer. I remember being invited to two, going to one, which was 
the first one, and getting to, I guess, to the second one at the end of 
the meeting, that they had broken up.
    Question. And do you recall if this was the first meeting?
    Answer. I believe this was the first meeting that I just talked 
about.
    Question. Generally, that's been identified as a meeting--I believe 
we have a number of calendars; I don't think we have your calendar--but 
it was a May 9th meeting that Mr. Cardozo has testified to and Mr. 
Ickes notes and others from that day that identify you as being there.
    Do you recall prior to this May 9th meeting if anyone--if Harold 
actually had told you about anything related to Charlie Trie or these 
contributions?
    Answer. No, that was the first I ever heard about it from Mr. 
Cardozo.
    Question. So the First Lady hadn't mentioned anything to you about 
this before?
    Answer. No.
    Question. Do you recall in that meeting if anyone breached the fact 
that Charlie Trie was a--had been raising money for the DNC?
    Answer. No, I know that his name was raised in connection, but I 
don't know if this was Charlie Trie, DNC member. I just remember his 
name.
    Question. Did anyone in this meeting--when you went to this 
meeting, you didn't know who Charlie Trie was from Adam, right?
    Answer. No, the only thing I knew about Charlie Trie was that he 
was from Arkansas.
    Question. And when you had this meeting set up, did somebody tell 
you, like why am I going to this meeting with Mr. Cardozo or tell you 
that it was related to Charlie Trie?
    Answer. No, I mean, I don't know who got the--you know, how the 
message came in or how, you know, Evan got word to schedule me. But 
just that there was a meeting, and Mr. Cardozo wanted me to be there. 
So I went.
    Question. Had you ever been involved in any discussions about the 
President's legal defense fund prior to this date?
    Answer. I think the first time that it was announced I, you know, 
for sure had the press materials. And then I believe--and I don't know 
if this is before or after May 9th, but the first time that they 
released information about--about what the amounts that were raised. 
But they were going to do a press conference. They called, you know, me 
in and the press people to say we are releasing this tomorrow, so you 
should know about it. Other than that, those are the only two times.
    Question. Did you ever discuss the Clinton's personal legal bills 
with Mr. or Mrs. Clinton?
    Answer. Their personal legal bill, no.
    Question. The legal bills that this defense fund was paying for?
    Answer. No, it was pretty much the trustees. I mean, that was 
nothing----
    Question. You had said that Mr. Cardozo wanted you to be at the 
meeting? Was that your understanding?
    Answer. Yes.
    Question. Do you know how Mr.--why Mr. Cardozo was inviting you?
    Mr. Ballen. If you know.

                      EXAMINATION BY MS. COMSTOCK:

    Question. If you know.
    Answer. No, but--well, I assume that he wanted to have someone 
there from Mrs. Clinton's office, since this also was the President and 
Mrs. Clinton's legal defense fund.
    Question. I just trying to get a sense of why--I mean, it was your 
understanding that this legal defense fund was to pay for their 
personal legal bills?
    Answer. Right.
    Question. And if you have an understanding of why you were involved 
in discussing a fund that related to the President and Mrs. Clinton's 
personal legal bills.
    Answer. I think that because, even though we can easily make the 
distinction between personal and public, it's rarely made with respect 
to the press, and I think that Mr. Cardozo felt that telling us what 
they were planning to do--I mean, it wasn't a deliberative meeting, but 
telling us what they planned to do was something we needed to know in 
case we had inquiries about it at some point.
    Okay. I believe Mr. Cardozo's indicated that he called you to set 
up the meeting. Do you recall him calling your office to set up the 
meeting?
    Answer. No, no, he didn't call my office to set up the meeting. He 
may have called my office to ask to use a conference room in room 100, 
which is where my office is, but he didn't call me to set up the 
meeting.
    Question. And do you recall where the meeting occurred?
    Answer. Room 100 conference room.
    Question. That's where the meeting was held?
    Answer. Uh-huh.
    Question. And so you don't recall talking to him on the phone about 
setting up this meeting? Somebody else set it up?
    Answer. Setting up this meeting?
    Question. Yeah.
    Answer. No.
    Question. Do you know how the other people at the meeting had been 
invited to the meeting?
    Answer. No.
    Question. You have no knowledge of who invited them or how they 
ended up in your office about the meeting?
    Answer. No.

                      EXAMINATION BY MS. COMSTOCK:

    Question. And I'm sorry, maybe this is my fault for not being clear 
on this, but you don't have a recollection of Mr. Cardozo calling to 
set up the meeting?
    Answer. No.
    Question. Do you know how you ended up having the meeting and who 
set it up, who was in charge of setting it up?
    Answer. I assume, since Mr. Cardozo was an outsider, that perhaps 
he called my office and left a message or something and said, would you 
attend a meeting, and then probably spoke to someone about where to 
have it, which wouldn't----
    Mr. Ballen. But you don't know?
    The Witness. It wouldn't necessarily have been me. I don't know.
    Mr. Ballen. You are assuming this?

                      EXAMINATION BY MS. COMSTOCK:

    Question. I am just trying to figure out the origin of the meeting?
    Answer. I don't know.
    Question. Because I think Mr. Cardozo indicated he called you, so I 
am trying to figure it out if you have a recollection of how it came 
about.
    Mr. Dennis. Are you asserting that Mr. Cardozo has testified or 
stated that he called Ms. Williams to have her arrange for the meeting; 
is that what you are saying?
    Ms. Comstock. That is my understanding.
    Mr. Ballen. For the record, if you are going to ask her, where did 
he assert this?
    Ms. Comstock. I believe it is in the records we have.

                      EXAMINATION BY MS. COMSTOCK:

    Question. But if that is your recollection. That may not be the 
case. Obviously, whatever your recollection is, we can check on his 
recollection. If I am inaccurate what his recollection of it is, I 
apologize. I am trying to figure out sort of how it came about that you 
all were in this meeting on May 9, and who sort of was the generator of 
getting this group together that was there, and who might have selected 
the people that were there, and it is your testimony that you don't 
know why Harold Ickes was there?
    Answer. Right, I don't know. I didn't put the meeting down.
    Question. So the people who were there got there by somebody else 
calling them other than you?
    Answer. Right, it wasn't me.
    Question. Now, in this May 9 meeting, did anyone indicate there had 
been an earlier meeting several weeks before with the First Lady and 
Harold Ickes about Mr. Trie?
    Answer. No, no.
    Question. And in this May 9th meeting, did Mr. Cardozo talk about 
the investigative group's investigation of Mr.--well, the donations in 
general?
    Answer. I don't know if they were at that point if they had 
investigated or they were going to, but he mentioned that there would 
be some kind of investigation.
    Question. And what did you learn more about; did there come a time 
when you learned more about this investigation and what it included?
    Answer. I think I did, but I don't know when. I don't remember what 
I learned from the investigation. As I said before, I don't know if it 
had--if, when he talked to us, he brought us a conclusion on whatever 
that meeting was, or if he was just starting an investigation. I don't 
remember, but I remember that he said something about an investigation.
    Question. Okay. Did you take any notes in this meeting?
    Answer. No.
    Question. Do you know if anyone else at the meeting was taking 
notes?
    Answer. I wasn't paying any attention.
    Question. You did not direct anyone from your staff to take notes 
in this meeting or keep any account of it?
    Answer. No.
    Question. Did you talk with Mrs. Clinton about this matter after 
the meeting?
    Answer. No.
    Question. You said you thought that Mr. Cardozo was talking to you 
about this, that someone in the First Lady's Office would know about 
this. What was your understanding then of--after you got the 
information, was there any reason not to tell Mrs. Clinton about it or 
talk about it?
    Answer. It's like most things, nothing had happened yet. The 
trustees had made a decision. Most times these things are told to us 
because there is a possibility of press inquiries. This wasn't a 
decision-making meeting, so I said--you know, just had it in my head.
    Question. Okay. Did anyone in the meeting bring up the fact that 
Charlie Trie claimed to be a friend of the President?
    Answer. I know that Charlie Trie was involved in some way with the 
donations. I don't remember exactly how, but I know his name was a part 
of a--whatever narrative it was that Mr. Cardozo was sharing with us. I 
don't remember anyone specifically saying Charlie Trie is a friend of 
the President.
    Question. Okay. But do you recall any discussion of who is Charlie 
Trie, this guy who--was there some curiosity about who is this guy who 
came in and dropped 600 grand on the legal defense fund, like do we 
know him, where did he come from?
    Mr. Ballen. I am going to object. There has been no indication that 
600,000--that Charlie Trie dropped it on anyone. You are assuming facts 
not in evidence.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Did Mr. Cardozo tell you Mr. Trie had brought in money to 
the legal defense fund?
    Answer. As I said before, in the--I guess the narrative of Mr. 
Cardozo, Charlie Trie was mentioned. How he was mentioned 
specifically--but it was next to these donations, that is what I 
remember. As I said before, the gist of my memory is that there was 
something wrong with the way these were collected, and the trustees had 
decided to give them back,. That is what I remember from that.
    Question. Did Mr. Cardozo tell you he had--that Mr. Trie had 
actually come in himself personally to deliver all these contributions?
    Answer. I don't remember that.
    Question. Okay. Mr. Cardozo has publicly testified to that, that 
Charlie Trie did come in and bring all the donations down. Does that 
refresh your recollection as to whether or not he shared that with you 
at that time?
    Answer. As I said, I don't remember. What I took away from the 
meeting was they were giving money back.
    Question. Okay.
    Answer. And that there was a procedure to be responsible for 
collecting the money. That is what I remember.
    Question. Do you recall any discussion of who is this guy, who 
brought the money in?
    Answer. No, that is pretty much what I remember.
    Question. There was no curiosity about who he was?
    Answer. Well, I guess what I am saying is there very well could 
have been, but I don't remember.
    Question. Do you recall if you had any curiosity about who this 
person was?
    Answer. Pretty much what I recall, I have told you.
    Question. Okay. These are notes that Harold Ickes made from the May 
9th meeting. They are difficult to read. It is CGRO-2595 through 2598, 
and it is a little bit cut off at the top. I am not sure how cut off 
yours is, but these are May 9, 1996, notes. The initial entry discusses 
the investigative group. It says, ``Need to check background.'' Then 
the next line says, Charlie Trie, dollars, and mentions 463,000; 
179,000.
    Does that refresh your recollection as to whether Mr. Cardozo, in 
this meeting, had discussed, you know, that Charlie Trie was 
specifically the person giving these large donations, and that they 
might need to check his background?
    Mr. Dennis. Before you answer, is there a date?
    Ms. Comstock. It is 5-9-96 is the date on these, on the copy we 
have, the copies you have have cut that off.

                      EXAMINATION BY MS. COMSTOCK:

    Question. And I guess the question pending question was does this 
refresh your recollection as to the discussion that Mr. Cardozo may 
have related that he had with Charlie Trie and the money that he 
brought in?
    Answer. As I said before, I know Charlie Trie was involved. These 
are Harold's notes--that I just don't recollect all this discussion.
    Mr. Ballen. So the record is clear, you are not sure of the date of 
the meeting?
    The Witness. Well, right, that is what I said at the very 
beginning.

                      EXAMINATION BY MS. COMSTOCK:

    Question. You said you thought you had two meetings----
    Answer. Well, I attended one meeting, and a second meeting I know I 
was invited to, but I got there after the meeting broke up.
    Question. Do you know if that meeting was--what that was about, the 
second meeting?
    Answer. No.
    Question. So the only meeting you recollect is the meeting where 
Mr. Cardozo related that there was a problem?
    Answer. Right, yes, exactly.
    Question. Okay. I am not aware of any other meetings where Mr. 
Cardozo initially relayed this, besides the May 9 one and the meeting 
with Harold Ickes and the First Lady. Do you know of any other meetings 
besides the meeting that--well, you may not even know about the meeting 
with--I assume maybe from press accounts you know about the meeting Mr. 
Cardozo had with the First Lady and Harold Ickes; is that correct?
    Answer. Right, I do know that.
    Mr. Ballen. There were several questions before you. Do you know 
from press accounts or independent knowledge?
    The Witness. Well, the First Lady had a meeting with Michael 
Cardozo that Michael Cardozo asked me to set up, said he wanted to meet 
with Mrs. Clinton. I told the scheduler to put them together, so I do 
not know if this was the same meeting that Harold Ickes attended, 
because no one told me that Harold Ickes was attending, nor did I set 
up a meeting where Harold attended. I do know Mrs. Clinton and Cardozo 
had a meeting because Mr. Cardozo asked me to put him on the First 
Lady's schedule.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you recall generally, in relation to this first 
meeting where you learned of these matters, when the meeting with the 
First Lady is?
    Answer. I could not tell you.
    Question. I mean, was it a year before?
    Answer. Oh, gosh, I just really don't--on the timing issue, I am 
literally of no help. They are all together, all these things. I don't 
know.
    Question. Are there any other meetings Mr. Cardozo asked you to set 
up with the First Lady?
    Answer. That is the only one I recall.
    Question. There was one occasion Mr. Cardozo asked you to set up a 
meeting the First Lady?
    Answer. That I recall, yes.
    Question. Did he tell you what that was about?
    Answer. No.
    Question. You generally knew it was about the legal defense fund?
    Answer. I didn't know that for a fact, but I assumed that is what 
it would be.
    Question. And you set that up; you put that on the First Lady's 
schedule and had it set up?
    Answer. Right.
    Question. Do you recall where that meeting was?
    Answer. No, I don't really remember.
    Question. Okay. And then you do recall it being before this meeting 
where you learned of it?
    Answer. I don't.
    Question. You don't. Okay.
    But your testimony is that you have only been involved in two 
meetings, and the second meeting was at the end of it, and you aren't 
really sure what the second meeting was about?
    Answer. Not even the end of it. People had dispersed.
    Question. So the only meeting you had been at----
    Answer. There was a meeting I was at where Mr. Cardozo related the 
issue and what they had planned to do.
    Question. This is a meeting with Mr. Ickes present and others, and 
I understand you may not be aware of the date. I mean, the date has 
been publicly identified by the White House by numerous records. I 
don't want to go on--I mean, I think we are talking about the May 9 
meeting. You know, we could get a lot of records in here, but I think 
what we are talking about is fairly clear that it was a May 9 meeting.
    But do you have any reason to believe there were other meetings 
with this group of people you are talking about where Mr. Cardozo 
relayed this--I guess there couldn't be another one because Mr. Cardozo 
told you--this is the only one you recall?
    Answer. That is the only one I recall.
    Question. Your account is he says he had one meeting with the same 
group, too, so it doesn't appear there can be another one?
    Mr. Dennis. Let me make a statement on this. If you have 
information that you can put together that, along with what my client 
recollects, you can establish it was May the 9th, I have no problem 
with it. My client is not saying it is not May the 9th, she just has no 
recollection. She provided a substantial amount of detail. She said it 
was number 100, and that was her conference room there, and she recalls 
who was there. So she does not have any recollection of any dates, and 
she can't really confirm that for you.
    But there is just so much--you are not going to be able to get or 
to ask her to draw inferences from other information that you are 
giving her. That would not be fair for her to confirm that, you know, 
she believes it is May the 9th now because you told her certain things, 
but I think she is fairly----
    Ms. Comstock. I understand you can't recall the date. We could have 
everybody's calendar here and look at those, and it probably still 
wouldn't help.
    Mr. Ballen. And I think the witness, we have been going on this for 
quite some time, she stated a number of times what she recalls from the 
meeting, and I don't see----
    Ms. Comstock. But I think Minority counsel raised an issue that 
this was not the meeting.
    Mr. Ballen. Excuse me, counsel, I raised no issue. I simply asked 
her a question could she remember it was May 9th or not, when you gave 
her somebody else's notes of a particular meeting and she said she 
didn't know what the date was, simple as that. You are asking the 
witness to testify about somebody else's notes.
    Ms. Comstock. I am asking her if these notes helped refresh her 
recollection.
    Mr. Ballen. She said they did not.
    Ms. Comstock. But we introduced the notes because they are the 
notes of the only known meeting that this same group of people had, and 
Ms. Williams testified this was the only meeting she was at. Mr. 
Cardozo has publicly testified this is the only meeting he had with 
this group of people informing him of these events. It didn't seem to 
be a real leap of logic this was the same meeting, but that is what we 
have been trying to go through is additional establishment that there 
weren't other meetings about this, and I think that is fairly clear, 
and I think the record will speak for itself, and other documents will, 
that this was the May 9 meeting. But I am not asking you to come up 
with a date. I think other records will reflect that.
    I would like to go ahead and make that Deposition Exhibit No. 20.
    [Williams Deposition Exhibit No. MW-20 was marked for 
identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Directing your attention to the second page of Mr. Ickes 
notes again. I am sorry, if I could have you turn to CGRO-2596. There 
is--the bottom two lines talk about 1.5 million, and it is difficult to 
read there, and then some amount in the bank. I wonder if this 
refreshes your recollection as to whether there was a discussion of how 
much money was actually in the legal defense fund at that time?
    Answer. How much money was----
    Question. In the legal defense fund, or just the amounts of money 
that generally were in the legal defense fund, if there was a 
discussion in the meeting?
    Answer. I don't know if there was a discussion in it. It seems to 
me in the narrative that Mr. Cardozo said how much was in the legal 
defense fund.
    Question. Okay. When he was telling you about these events on that 
day, the meeting you recall?
    Answer. Uh-huh.
    Question. And was he telling you that, you know, without this 
money, there wasn't a lot there; or give you a sense of, you know, kind 
of we need this, it wouldn't be bad to have this funding?
    Answer. I think his sense was--I mean, I think my interpretation of 
his presentation was very, very cut and dry, and, you know, he was 
announcing that they had decided to return the money, and just as a 
part of his report he indicated to us how much was there, and he--this 
matter seemed settled in his mind.
    Question. And do you recall if there was any discussion about if 
the money was returned, if that would be reflected in reports, the 
reporting that the defense fund had to do?
    Answer. No, I don't recall.
    Question. Do you recall if there was any discussion among the 
participants in the meeting of not wanting to return the money, or, you 
know, that we really need to return the money?
    Answer. I think the one thing I remember from the meeting 
specifically which did have an impact on me, but seemed to have no 
impact on anyone else in terms of returning the money, is that Cheryl 
Mills was saying we ought to be very careful in making certain that we 
were clear, that we thought that there was something--and I am 
paraphrasing here--that we were clear that we weren't going to be in a 
position to make a comment about Asian people giving; that we ought to 
be certain that we took some care in making certain that the kind of 
judgment we made would be the same kind of judgment we would make no 
matter who these people were. And I just was struck by that and thought 
it was a good comment to make.
    Question. And was there any discussion back and forth on that 
point?
    Answer. Not really. I think she just made her point. As I said 
before, it seemed to me that Mr. Cardozo was very clear about what he 
was going to do.
    Question. And I just wanted to correct something for the record, 
because you had testified that Mr. Cardozo called you to set up the 
April 4 meeting, and my notes indicated when I said that I thought 
Cardozo called you about the May 9 meeting, it was actually the April 4 
meeting. So I wanted to make that clear so--my notes aren't clear. I 
believe Mr. Cardozo indicated he may have called Mr. Quinn about the 
May 9 meeting.
    Does that refresh your recollection on the May 9 meeting, whether 
or not Mr. Quinn called you about it or set up anything with you on the 
May 9 meeting?
    Answer. It only refreshes my recollection inasmuch as I think Mr. 
Quinn was there.
    Question. And I apologize for the mix-up. I am looking at my notes. 
It was April 4. I was looking at it as if it were May 9th.
    Do you recall Jack Quinn being in that May 9th meeting?
    Answer. I recall him being in this meeting where Mr. Cardozo said 
there was a problem.
    Question. I will keep the date off of it.
    So the meeting you recall with Mr. Cardozo?
    Answer. Yes, I remember him being there.
    Question. Okay. And do you recall Evelyn Lieberman also being in 
that meeting?
    Answer. Yes, I believe she was there.
    Question. Do you know why she was there?
    Answer. Whoever invited her. No, I don't.
    Mr. Dennis. What was her position at that time?

                      EXAMINATION BY MS. COMSTOCK:

    Question. In May of '96, if it was May of '96?
    Answer. Deputy chief of staff, I believe, at that point.
    Question. Okay. Following this meeting, what was the next time you 
ever had any discussion with anybody about Charlie Trie money or the 
legal defense fund, these events that were relayed to you in the 
meeting with Mr. Cardozo?
    Answer. As I said before, I don't necessarily remember any follow-
up. Kind of where I left off on this meeting was with returning the 
money. The next time I heard anything about this specifically was I 
think there had been a media inquiry about it, either to Mr. Cardozo--I 
think it was Mr. Cardozo. That was the next time I heard about it.
    Question. Was that when it was about to become public that the 
contributions--is that when you recall?
    Answer. It could have been. I forget when it became public. I 
really don't recall.
    Question. If it refreshes your recollection, it was in December of 
'96 when that became public?
    Answer. That could have been about the time.
    Question. So between the time you were in this meeting, whenever it 
was, with Mr. Cardozo, the next time you recall hearing anything about 
it was when there was some media calls about it.
    Answer. Right, that is the next time I remember having any, you 
know, radar pointed in the direction of this issue.
    Ms. Comstock. Let me show the witness a document. It is identified 
as PTO 2326, from the Presidential Legal Expense Trust, dated August 
12, 1996, to Cheryl Mills, from Mr. Cardozo, and it reads:
    Dear Cheryl: You may want to circulate by hand the enclosed letter 
from David Lawrence to: Mrs. Clinton, Jack Quinn, Harold Ickes, Bruce 
Lindsey, Evelyn Lieberman, Maggie Williams. Thank you for your 
assistance, Sincerely, Michael Cardozo.
    Attached is a letter from a Mr. David Lawrence, dated July 5, 1996, 
where he indicates that--essentially that, ``Unfortunately, as you 
suspected, the funds were raised by the efforts of a concerned party 
who was unaware of some of the terms mentioned in your letter,'' not 
being the terms of what type of standards for compliance.
    Do you recognize this letter at all?
    Answer. It was shown to me. I don't recognize it as coming to me.
    Question. I'm sorry, I am unclear what you mean by that?
    Answer. In the previous deposition, someone showed it to me.
    Question. But that is the first time you had seen this letter was 
in a previous deposition?
    Answer. Right.
    Question. And you don't recall then receiving it in August of '96?
    Answer. No.
    Question. At or around--any time?
    Answer. I mean, I made the comment there that I believe by then I 
was in Chicago. I mean, if this was convention month, I mean, I am not 
sure, but there is a lot that could have been sitting on my desk, so I 
had not seen it prior to that deposition, and if it actually came to me 
anywhere in this month, I mean, it is clear that I wouldn't have seen 
it for a while.
    Question. Okay. But do you recall any time prior to your 
deposition----
    Answer. No.
    Question [continuing]. Being told about a David Lawrence, who, you 
know, wrote back and said, you're right, this money wasn't raised in 
the appropriate way, or anything to that effect?
    Answer. No, I really don't. That was just it. It was just like a 
time when this would have taken a huge back seat to anything, given the 
convention and everything. That is the only thing I can figure. I just 
don't remember.
    Question. Okay. You were working on the convention when you were 
out in Chicago in August?
    Answer. I had been out to the convention several times, plus Mrs. 
Clinton had a major speech to give.
    Question. That was at the end of August?
    Answer. Oh, you know, in planning for the convention.
    Question. This is entitled, ``The Republican Convention,'' 
actually, at the August 12 time?
    Answer. Well, still we were preparing.
    Question. But you were physically out in Chicago?
    Answer. Yes, back and forth. I mean, I wasn't living there, but 
physically. I guess I am saying all this to say, in essence, July and 
August were very busy times and especially high times in terms of the 
campaign and things that were going on, and so I do not remember seeing 
it, and I am merely trying to--probably more for me than for you--to 
try and think, you know, if I had seen it, what was I doing, so that I 
missed it.
    Question. Do you recall any conversations then you had with Cheryl 
Mills about the legal expense trust after this meeting with Mr. 
Cardozo?
    Answer. Quite frankly, I don't think I have thought about it again 
until there was a press inquiry about it.
    Question. Do you have any knowledge of anyone informing--the first 
name on here to circuit this to is Mrs. Clinton; do you have any 
knowledge if Cheryl Mills or anyone else at the White House informed 
Mrs. Clinton about this?
    Answer. I have no knowledge if they did.
    Ms. Comstock. I will make that Deposition Exhibit No. 21.
    [Williams Deposition Exhibit No. MW-21 was marked for 
identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Once the press inquiries came out about Mr. Trie, did you 
ever talk with the First Lady about Mr. Trie at all?
    Answer. No, I don't recall that I did.
    Question. Were you aware of him being at a trustee dinner in 
December of '96?
    Answer. No. If I had seen the list, maybe, but I don't recall it.
    Ms. Comstock. I am handing the witness an e-mail. It is an e-mail, 
Evan Ryan, of May 9th, to Peggy Lewis.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you know who Peggy Lewis is?
    Answer. Yes, she worked for me.
    Question. What were her responsibilities?
    Answer. She worked for me. She worked on policy issues for me. She 
would work on getting me to return my calls, worked on particularly 
issues that had to do with the White House preservation fund, just a 
range of different things.
    Question. Okay. And the text of the e-mail reads, Maggie wanted to 
add John Huang to her call list. And we have some issues here on 
whether May 9 was the day of the meeting that you had with Mr. Cardozo, 
but assuming that it was, I am wondering, do you recall, as a result of 
that meeting, whether you reached out to John Huang to talk to him 
about Charlie Trie?
    Answer. A result of which meeting?
    Question. As a result of the meeting Mr. Cardozo, if you made any 
efforts to talk with John Huang about Charlie Trie, anything like that?
    Answer. No, absolutely not.
    Question. Do you know what you were putting John Huang on your call 
list for, in May of '96?
    Answer. Well, the only thing I can think of since I only met John 
Huang once, and I don't know the date, is if he had called me and I 
wanted to return the call. I wouldn't have initiated a call with John 
Huang.
    Question. Do you recall generally how you met Mr. Huang?
    Answer. Yes, and I don't know the date, but I got a call from the 
Ambassador of Micronesia.
    Question. That would be March Fong Eu?
    Answer. Exactly. Who was in town and wanted to talk to me, and so 
she was one of our Ambassadors and she wanted to, what I assumed was a 
courtesy call, come and see me.
    When she came, she brought two gentlemen with her, and one of them 
was John Huang. I thought that he worked for her. I didn't know he even 
worked at the DNC until at the end of the meeting, he gave me his card.
    Question. And that card was from the DNC?
    Answer. Yes. And I said, Oh.
    Question. So March Fong Eu is the person who set up the meeting 
with you?
    Answer. Yes, she called and asked for the meeting and, you know, I 
gave a, you know, gave a time for her to come, and then she asked that 
two other people be cleared with her.
    Question. And do you recall who the other person was?
    Answer. No. Someone who I believe worked with March.
    Question. That is March, Fong Eu, E-U.
    When--you got this call personally from Miss March Fong Eu?
    Answer. I don't know if I did or not. I don't remember if I did or 
not.
    Question. Do you recall generally what your understanding of what 
the purpose of the meeting was?
    Answer. Just that she wanted to have a--to make a courtesy call, 
that she was a U.S. Ambassador and if any U.N. Ambassador called my 
office and wanted to stop by, I would sit down and talk to them.
    Question. Okay. Do you know at that time if she was involved in 
fund-raising at all?
    Answer. No, I thought she was the Ambassador of Micronesia.
    Question. Did you have any understanding of any role she played in 
fund-raising?
    Answer. No, I didn't. It seems to me, I think she had worked during 
the campaign, I don't know where, but I don't know if she worked in the 
campaign doing fund-raising, if that is what she had told me or not.
    Question. You mean the '92 campaign?
    Answer. '92, but that is all. I wouldn't know.
    Question. So she didn't discuss with you any fund-raising for the 
'96 campaign or for the DNC?
    Answer. No. I mean, primarily what she discussed with me was 
wanting to get out of Micronesia, that she, you know, I am totally 
paraphrasing, but she had tired of that post and wanted to do something 
else.
    Question. Were you aware--did she tell you she talked to the 
President about this?
    Answer. No, not that I recall.
    Question. Were you aware of her being in communication with the 
First Lady about any of these matters over any time while you were at 
the White House?
    Answer. No, not that I recall. Like I said, the only time I 
remember her, meeting her or knowing anything about her, is when she 
came to see me.
    Question. And you think that is what this May 9th reference--the 
only time you ever met with John Huang was in this meeting with March 
Fong Eu?
    Answer. That was the only time I have met him to even know who he 
was was in that meeting. Prior to that, I didn't know who he was.
    Question. Okay. If you could tell us how your call list works, who 
do you--what is the call list?
    Answer. There is not really a process. I mean, if I had a lot of 
pink slips hanging around my desk or if I have left them on Evan's 
desk, they are just trying to catch up and make sure that I returned 
calls.
    Question. So this call list is a--you know, she has a bunch of 
calls?
    Answer. They could be for over a month, you know. It could be like, 
you know, she has to call these, or in--and the call list doesn't even 
have to be a list, it can be that they, you know, staple this together 
with all the other calls.
    Question. And returning to the meeting then with March Fong Eu and 
John Huang, during this discussion, John Huang never raised or 
discussed the fact that he was doing DNC fund-raising?
    Answer. No. As I said, it was after the meeting when he gave me his 
card. Up until then I thought he was a staffer for the Ambassador.
    Question. All right. And do you recall then calling him, if it was 
before or after this meeting, calling him?
    Answer. For some reason I think I talked to him afterwards, but I 
think he had--I am not sure, but for some reason I recall him or a 
situation where he was thanking me for meeting with March Fong Eu, and 
I don't know if it was a call, but that is the only other contact I can 
even imagine having with him.
    Question. And did--it is your testimony that March Fong Eu did not 
tell you she wanted to do fund-raising; any discussion of fund-raising 
was that she had previously been a fund-raiser?
    Answer. There is something I remember about her having worked in 
California in '92, she said, but her--I mean, and this wasn't a very 
long conversation, as it turned out, but the thrust of it was that she 
did not want to be the Ambassador of Micronesia; she was ready to leave 
Micronesia.
    Question. And you said it wasn't a very long meeting. Do you recall 
how long it lasted?
    Answer. No. It just seemed very brief.
    Question. What did she say to make you think she really wanted to 
leave or how did she express that?
    Answer. Well, I mean, I tell you, this is where I would have some 
reservations because it was a private conversation and I never want to 
be in a position of saying someone feels in some way, you know, 
ungrateful or wasn't pleased. It was a private conversation but it was 
clear she was ready to leave Micronesia.
    Question. Are you sure she was not expressing anything about she 
could be used better in fund-raising, put me into fund-raising, 
anything like that, that I could do that for the party or for the 
campaign?
    Answer. I assume with any Ambassador who wants to leave, the 
general course is they want to do something else. I don't know what her 
something else was, but I assume whatever the next something else was 
was something she wanted us to help her with, she wasn't specific with 
me, except to say that she was ready to move on.
    Question. And do you know why she had picked you to meet with and 
discuss this with?
    Answer. I have no idea why people pick me.
    Question. You hadn't met her before?
    Answer. No, I have no idea. I have people who call me all the time. 
I have no idea why people pick me. I mean, they clearly believe that 
being the First Lady's chief of staff means maybe I will listen to them 
and I will listen to most of them but not necessarily do.
    Question. And this is to relay she wanted a different job within 
the administration?
    Answer. She did not say I want to relay; all I recall is that it 
was clear she did not want to be in Micronesia.
    Question. I am trying to understand why she was telling you that.
    Mr. Ballen. I think the witness has testified, these questions are 
asked and answered.
    The Witness. It is the same reason people write me and say, please 
get my son out of prison. I mean, they equate by title some power to do 
something, which you may not have at all. I don't understand. There is 
a great motivation out there.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Well, did she ask you to relay her sentiments to the 
President or the First Lady?
    Answer. What she said to me was essentially that she was tired of 
being in Micronesia. She did not, as I recall, specifically say to me, 
tell them, the President or the First Lady this.
    Question. Do you know a John Emerson at the White House?
    Answer. Yes.
    Question. And are you aware of--could you just tell us what he does 
or what he did at the White House?
    Answer. I think he was in intergovernmental affairs.
    Question. And did he work on issues related to California?
    Answer. Yes, I think he was from California.
    Question. Were you aware of him being in touch with March Fong Eu?
    Answer. No.
    Question. Did you ever talk with him about any conversations he had 
with March Fong Eu about wanting to leave Micronesia, if she ever 
discussed that with him?
    Answer. No.
    Question. So you never had any discussions with Mr. Emerson about 
what you talked with March Fong Eu about?
    Answer. I listened to March Fong Eu and then she left.
    Question. And that was the end of it?
    Answer. As far as--I mean, I don't remember any follow-up, you 
know. I don't know if she wrote me a thank you note or anything, I 
don't remember. That is the last thing I remember about her.
    Question. And I'm sorry, you may have testified to this previously, 
are you aware of any correspondence she sent to the First Lady about 
the kind of sentiments she expressed to you in this meeting?
    Answer. I don't recall any. I mean, I don't recall it. I mean, 
there are hundreds of letters that Mrs. Clinton gets. I don't see all 
of them. So I don't recall.
    Question. Well, a letter from an Ambassador, would that be brought 
to your attention?
    Answer. Not necessarily, depending on how it was sent.
    Question. Can you generally describe what the process is? Not just 
sort of the average, if I am the guy calling to write a letter, but if 
I am an Ambassador or some type of dignitary writing a letter to the 
White House, what is the process that goes through?
    Answer. I don't know if every dignitary has this available to them 
but I do know for people who have known them over time, there is a 
special zip code that takes that particular mail into personal 
correspondence and outside of kind of the regular mail of all the 
people, and then those letters don't come to me, they can go to Mrs. 
Clinton's assistant, Pam, they can go to personal correspondence. If 
they are a friend, they will be answered there, and some of those 
letters can make their way up to her.
    Question. Okay. So your testimony on the March Fong Eu meeting is 
that you had not met her before?
    Answer. No.
    Question. She called, the meeting was set up, you had this 
discussion, and then you never met or discussed these matters again?
    Answer. No.
    Question. No, you never met again?
    Answer. No, I never met her again, no.
    Question. Then with John Huang, this was the first time--he was 
brought along and this was the first time you met him?
    Answer. The first and only time I have met him.
    Question. Then as to the call list, you believe you may have called 
him after this meeting?
    Answer. I can only--there is only--I mean, this is total 
speculation, and I will speculate, since this is printed here. I 
remember John Huang thanking me. Now it could be because he called me 
to thank me for seeing March Fong--I forget her name.
    Question. Eu.
    Answer. Eu. And I called him back, I was returning a call. But 
otherwise I had no--I didn't know him.
    Ms. Comstock. We have got Deposition Exhibit No. 22.
    [Williams Deposition Exhibit No. MW-22 was marked for 
identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Let me stay in the general area of John Huang. When the 
issues about John Huang's fund-raising arose during October of '96, 
during the campaign in the closing weeks, did you have any discussions 
with people at the White House about John Huang?
    Answer. I don't remember any specifically, but I can't imagine I 
never had a conversation about, you know, the news, he was in the news.
    Question. Do you recall any conversations with people about, you 
know, the issues involved on how he raised money or what he was doing?
    Answer. No.
    Question. Do you recall telling anyone in the counsel's office or 
elsewhere that you had met with John Huang?
    Answer. No. I guess I had characterized him as meeting with John 
Huang. I had, up until the time he left, thought I was meeting with 
Ambassador Eu and her two assistants.
    Question. Okay. So you never talked with the First Lady or the 
President about John Huang?
    Answer. No, I never had to.
    Mr. Ballen. I'm sorry?
    The Witness. I said, no, I wouldn't have a need to.
    Question. Turning over to Charlie Trie and the meeting that you had 
with Mr. Cardozo, do you have any knowledge of Mr. Trie--have you 
learned any to date of Mr. Trie being at the White House on the same 
day that you had the meeting with Mr. Cardozo?
    Answer. No.
    Question. Do you have any reason to believe that he had been 
invited to the meeting or was there to explain to anybody anything 
about the contributions?
    Answer. No, no.
    Question. Okay. And at the time, if you recall, that the 
information about Charlie Trie and legal defense fund was becoming 
public and the process inquiry, what happened then? What was your 
involvement?
    Answer. I think the issue was that--and I don't know if it was a 
network or a newspaper, but I believe the issue was that--whether or 
not simply to answer the one inquiry that had come in, or whether or 
not to kind of call all the media people up on, you know, all the media 
people in, talk to them all at once about this particular issue. That 
was the heart of it.
    Question. And do you recall suggesting--anyone suggesting Mark 
Fabiani be called, involved in this?
    Answer. Oh, yeah, I did.
    Question. And what was your suggestion?
    Answer. Oh, you know, I said the person I think who would know 
whether or not to call one or to call all would probably be Mark 
Fabiani.
    Question. And at the time in December when this was being 
discussed, how to respond to making it public, did anyone raise the 
issue that Mr. Trie had just been at a White House dinner or had been 
at a trustee dinner?
    Answer. You know, I vaguely remember something about this, but I 
don't--I kind of more remember it literally in terms of hearsay. And I 
don't know if it was from press accounts or whatever. I don't remember 
discussing it.
    Question. Do you recall who else was involved in these discussions 
and meetings?
    Answer. Oh, about the press inquiry?
    Question. Uh-huh.
    Answer. I know that Evelyn Lieberman was.
    Question. And do you recall what her role was in discussions or 
suggestions?
    Answer. No, I think it was just on the--I'm pretty sure that I have 
the issue right, that it was responding to one press inquiry or 
responding to--or--or trying to make information available to everyone 
at once.
    I remember that Evelyn was involved in giving advice. I don't 
remember what her advice was, but she's the former communications 
director. I'm trying to think if anybody else was around. For some 
reason I just remember Evelyn.
    Question. And have you ever had any conversations with the 
President or the First Lady about Mr. Trie or anything having to do 
with Mr. Trie?
    Answer. No, I haven't. Not about Mr. Trie, huh-uh.
    Question. Do you know someone named Crawford who works at the White 
House? Is it Kelly Crawford or is it somebody----
    Answer. Oh, there's a Kelly Craighead.
    Question. No, Mr. Trie was meeting with a Crawford on May 12th, 
'94.
    Answer. Huh-uh.
    Question. Which was the date of the health care donations that we 
were previously discussing with Mr. Trie?
    Answer. Kelly Craighead. I don't know Kelly Craighead.
    Question. I don't know if it's Kelly. I was thinking of that name, 
too. It was Crawford on the names in the WAVEs, and I don't know what 
the first name is. You don't know a Crawford who was involved in health 
care matters?
    Answer. No, although there were a lot of people involved in health 
care, I don't know of one.
    Mr. Ballen. Excuse me, counsel, could we have a brief break?
    Ms. Comstock. Okay. How about if I just finish up this area on Trie 
and then we could break. Would that be okay? And then I think we would 
just be going to the Johnny Chung matters and then we will be done.
    Mr. Dennis. That will be fine.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Have you ever had any discussion with anybody at the 
White House about Mr. Trie being at the White House, you know, 
frequently and meeting with the President and the First Lady?
    Answer. I can only think that informally, after the news--I mean, I 
can't imagine that I didn't discuss ever what was in the newspaper with 
people.
    Question. Who arranges, when the First Lady gets pictures taken at 
the White House, who arranges for that?
    Answer. Usually through scheduling.
    Question. And so that would be Patti Solis?
    Answer. Patti Solis. It could be Capricia Marshall, depends on 
where the picture is being taken, who might arrange for it.
    Question. And somebody has to make a request to those people and 
they set it up?
    Answer. Well, we have--we have a couple of ways. I mean, you can 
make a request through those people and they can set it up. Which, you 
know, which happens.
    In the First Lady's office we have hit upon what I think is a great 
idea, since we get so many requests at the last minute for photos, is 
that if Mrs. Clinton is on her way out the door to go somewhere, to 
give a speech or whatever, we have a couple of things that are already 
working for us. One, she doesn't have to spend a long time. She's 
walking out the door. And, two, there's a photographer probably in 
hand; and, three, she's already made up and whatever.
    And so we have a tendency of trying to push as many planned and 
unplanned photographs into any time when we know she's walking out the 
door, so--and you have got the nice background of the Diplomatic Room. 
And so generally that can be done fairly quickly with the scheduler, or 
even calling over to--calling over to her personal assistant, Capricia 
Marshall.
    Question. Is this a daily routine, then?
    Answer. It can be----
    Question. Or you try to schedule them on particular days of the 
week?
    Answer. No, the only thing we really try--it really does go with 
her schedule. If she's walking out the door, we can do it. And I think 
that Patti makes a genuine effort, even on the planned ones where we 
might have, you know, like 20 people which we sometimes have, to push 
them on days when she's got--when it won't take, you know, more than 10 
or 15 minutes. And we might do five, six, seven, eight photos and then 
out the door.
    Question. Get groups to come in and just line up and do sort of 
cattle call and move them through?
    Answer. Yeah, whatever we want to do. A staff person is leaving, 
this is their last day, call them up, we can do a photo. So we do it 
that way. I mean, it takes a lot more if we are doing--and we have done 
schools and whatever, you know. That's another kind of photo.
    But this method works great for us, and we've also got a method on 
receiving lines. Anything that has to do with photos, we pretty much 
are the experts in getting them done and doing them quick.
    Ms. Comstock. I believe we can take a little break here.
    [Recess.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. I just have a few little miscellaneous things I want to 
go through first. Then we will go into the other areas.
    This is a phone message to you from Yusuf Khapra in Erskine 
Bowles's office for October 13, 1996, from Mark Middleton, and it 
says--he said that it's very important that you get in touch with Mark 
Middleton, who is at the following number. And then it says call Yusuf 
if you have any questions.
    This is mid-October, during the middle of the campaign, if it helps 
in placing it in time. The John Huang stories were well in circulation 
at this time, along with the Webb Hubbell issues, the Safire column and 
things like that. Do you recall ever talking to Mark Middleton in the 
middle of October, first, at all?
    Answer. I don't recall. I could have. I mean, if he called me, I 
would have talked to him.
    Question. Do you recall if you talked to him about any matters 
related to John Huang and Webster Hubbell in the time frame of October 
1996?
    Answer. No. First of all, I can't imagine talking to Mr. Middleton 
about John Huang, who I didn't know, or what could be said about Webb 
Hubbell. If I was asked to call Mark Middleton, I know I would call 
him. So, I mean, I wouldn't deny that if I was asked to call him that I 
wouldn't call, but I don't know necessarily what this is about.
    Question. It says that he said that it's very important.
    Answer. I don't know. Very important to Mark Middleton could be 
``I've got to get into the mess.'' I mean, I just really do not know. 
But I'm happy if you have anything else that might refresh my memory on 
it.
    Question. Actually, this phone number that's on here, I did make a 
call to it and it is a Dominican Republic hotel, if that helps at all.
    Answer. Get out.
    Question. Do you recall if you called him, or why you would have 
called him, if you knew what he was doing in the Dominican Republic?
    Mr. Ballen. Well, is that what it is now or what----
    Ms. Comstock. That's what it is now when I called this past 
weekend. That's what I got. I don't know. Apparently that exchange must 
be the Dominican Republic. I don't know if it was a hotel.
    Mr. Dennis. That's the Caribbean.
    The Witness. I just don't know.

                      EXAMINATION BY MS. COMSTOCK:

    Question. It doesn't ring a bell, him being in the Dominican 
Republic and him calling you with something very important from the 
Dominican Republic?
    Answer. No, it just doesn't.
    Question. Okay.
    Answer. I'll try and think about it. I just don't know.
    Question. Do you recall generally ever discussing any matters 
related to Mr. Hubbell with Mark Middleton?
    Answer. No.
    Question. Let's see, there were just a few other items. We've 
generally discussed a few Harold Ickes memos today, and I'm not going 
to go a lot into Mr. Ickes's documents, but a number of them--a lot of 
them were cc'd to you. I'll just give you--I'm not sure if this is a 
whole package or this is all together. I am sorry.
    This is a June 5, '95 memo about '96 reelect fund-raising 
projections and expenses, and you are cc'd on this memo. It's a memo to 
the President and the Vice President. It's marked ``the President has 
seen.'' Do you recognize the handwriting that's in sort of dark pen?
    Answer. This right here?
    Question. Yes.
    Answer. This looks like the President's.
    Question. And I think the other handwriting on there is just 
somebody's translation of the President's handwriting because it says 
the exact same thing, just in somebody else's handwriting that's a 
little easier to read.
    Do you recall generally, first, before going into this 
specifically, getting the Harold Ickes memos circulated to you on a 
regular basis?
    Answer. Yes, I do.
    Question. And can you describe what, you know, being on the 
circulation of those memos, what was your role in getting them or what 
did do you with them?
    Answer. If I had time, I would read them. If not, I would collect 
them hoping to read them, and then after a week or so I'd just throw 
them away.
    Question. You did not maintain them anywhere?
    Answer. I mean, there were thousands of memos from Harold. I mean, 
no one could--could both do their work and read Harold's memos.
    Mr. Ballen. When you say thousands, is that a literal number or 
just a figurative number?
    The Witness. I'm sorry; figurative. I'm sorry.
    Mr. Ballen. A lot?
    The Witness. Quite a few.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you generally recall the memos that you got from 
Harold Ickes, generally what they were about?
    Answer. It seemed like they were about everything. It could be 
about campaign, could be about convention, could be--I mean, it could 
be about any number of things.
    Question. The DNC?
    Answer. It could be about the DNC.
    Question. What understanding do you have of Harold Ickes' role vis-
a-vis the DNC?
    Answer. Main liaison. The President's political person.
    Question. Were you aware of people at the DNC having to get 
Harold's approval before they could--for basic day-to-day--him 
controlling--they have to tell him what they're doing before they spend 
money or take major actions at the DNC?
    Answer. I'm not aware of what they asked Harold day-to-day. I would 
say that he had some reasonable influence there.
    Question. Did you understand him to have a day-to-day working 
relationship with the DNC?
    Answer. Day-to-day? I don't know if he talked to them day-to-day.
    Question. In particular, say, from fall '95?
    Answer. I just don't know.
    Question. Through the election?
    Answer. Honestly, we are in two different buildings so I don't know 
what he did day-to-day. As I said before, it was clear to me he had a 
reasonable influence upon people at the DNC. But anybody who was 
involved in the President's political business, he had an influence.
    Question. And you had indicated previously that you didn't realize 
until recent press accounts that Harold was opposed to the large media 
campaign that Dick Morris had recommended. Did you ever get any of the 
memos from Harold Ickes sort of opposing Dick--did you ever get any 
memos from Harold Ickes that were opposing this campaign of--spending 
campaign that Mr. Morris was recommending?
    Answer. I could have gotten it--if it came in his regular 
circulation of memos, I could have gotten one that said that.
    Question. I'm just asking if you recall getting any such memos 
where he was discussing, you know, being opposed to Mr. Morris's 
efforts or----
    Answer. No, I guess I didn't think of Harold as being opposed to 
anything that was going on in the campaign. I think he was opposed to 
Dick Morris. I just think it was a personality thing. That's how I 
always viewed any opposition he had.
    Question. And you had an understanding of that at the time, that 
they were antagonistic with each other on everything sort of generally?
    Answer. It was in the newspaper every day during the campaign.
    Mr. Ballen. I object to this line of questioning about the friction 
between Morris and Ickes.
    Ms. Comstock. I don't think it is a line of questioning here. The 
witness brought up----
    Mr. Ballen. I object to the question. It's irrelevant and beyond 
the scope.

                      EXAMINATION BY MS. COMSTOCK:

    Question. When you got the type of memos here, this CGRO-13451 and 
its attachments, when you got this type of memo, what was--do you know 
if you ever had--provided any feedback to Mr. Ickes or discussed it 
with the First Lady or kind of took any action based on this type of 
memo, or if you recall this one in general, anything you did?
    Answer. I mostly stacked them. I figured if there was anything that 
was really of importance that Harold wanted me to focus on, he or Doug 
would call me.
    Question. Okay. And were there particular things that Harold would 
call you about to focus on?
    Answer. Scheduling. Hillary's scheduling.
    Question. And what type of scheduling was that?
    Answer. He wanted her out in the country.
    Question. Okay. And previously you had said you thought you may 
have gotten a memo from Mr. Ickes about the phone calls. And I just 
wanted to show you----
    Ms. Comstock. Why don't I make this previous, this other memo 
Deposition Exhibit Number--oh, yeah, I'm sorry, the Yusuf Khapra 
message about Mark Middleton that had the Dominican Republic phone 
number, we will make that Deposition Exhibit Number 23.
    [Williams Deposition Exhibit No. MW-23 was marked for 
identification.]
    Ms. Comstock. And then we will make this June 5th, '95 memo Exhibit 
24.
    [Williams Deposition Exhibit No. MW-24 was marked for 
identification.]
    The Witness. Is this the best copy?

                      EXAMINATION BY MS. COMSTOCK:

    Question. And moving on to a new memo, which is a November 28th, 
'95, memo to the President and Vice President from Harold Ickes and 
cc'd to Leon Panetta, Erskine Bowles, Maggie Williams, Ron Klain, David 
Strauss, Doug Sosnik, Karen Hancox, Chairman Dodd, Chairman Fowler, 
Marvin Rosen and Scott Pastrick, regarding fund-raising efforts for DNC 
media.
    And I direct your attention to the bottom of the page where it 
says, number 1, Based on our 28 November meeting, Marvin Rosen thinks 
it unrealistic to expect the raising of new money that will actually be 
deposited during calendar year 1995 in excess of $1.2 million. This 
amount can be raised, in his opinion, only under the following 
circumstances. And then it lists approximately 20 phone calls by the 
President, approximately 15 phone calls by the Vice President, and 
approximately 10 phone calls by HRC. It goes on to have some other 
items, too.
    But does this refresh your recollection in terms of any discussion 
about the phone calls or knowledge you may have had about the phone 
calls?
    Answer. No. Once again, this was raised or shown to me at a 
previous deposition. My sense is, once again, if they wanted me to do 
something with respect to Mrs. Clinton making phone calls, they would 
have called me. I mean, everything that was written down in a memo, I 
couldn't take as--if someone wanted to follow up on it, I figured I'd 
be called.
    Question. And did, in fact Mr. Ickes or Mr. Sosnik ever call to you 
ask you to----
    Answer. No.
    Question [continuing]. Discuss the phone calls with the First Lady?
    Answer. No.
    Question. And the $1.2 million here, generally, like this is the 
only way to raise the money, do you ever recall any discussion about 
the only way we can kind of get to some targeted goals is by having 
these phone calls?
    Answer. No. I mean, I don't recall discussions that said the only 
way we can get to those goals is by these phone calls.
    Question. Okay. Do you have any other--aside from what you 
testified today about the phone calls, do you have any other knowledge 
about the phone calls, aside from press accounts, phone calls made by 
the President, the Vice President or the First Lady for DNC fund-
raising?
    Answer. By press accounts only.
    Question. Okay. So for any--you weren't involved in any of the--
whether there was controlling legal authority to make phone calls or 
where phone calls should be made from or anything like that?
    Answer. Oh, no, I was not.
    Ms. Comstock. I will make that Deposition Exhibit Number 25.
    [Williams Deposition Exhibit No. MW-25 was marked for 
identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. This is a January 31st, 1996 memo to the President and 
the Vice President from Harold Ickes, again. You're cc'd on this about 
estimated DNC and other expenditures for calendar year 1996. CGRO-13667 
through 69.
    Just in general, are there any particular memos that you recall 
from Harold, I'm just providing you this as an example, but any 
particular memos that you received from Harold, that you recall sort of 
taking action on or becoming involved in issues that he had generated 
from his memos?
    Answer. Once again, if there was any particular action that Harold 
wanted me to take or Doug wanted me to take, I knew that I could expect 
that they would call me and they would lay out to me what it was that 
they were interested in. I mean, I just did. I couldn't possibly have 
followed up on everything that was written in these memos.
    Half of it I didn't understand. But, more than that, a lot of it I 
didn't think that it was--had anything to do with my purview. I mean, 
my view was that my job in the campaign was to keep Hillary Clinton out 
there and on the road. That was my first--I think that was my first job 
in relationship to the campaign.
    Question. Okay. Showing you an August 6th, 1996, memo from Harold 
Ickes to the President and the Vice President, marked the President has 
seen, 8/5/96. And it's regarding DNC budget/fund-raising meeting of 
August 1st, '96.
    Do you recall generally discussions in any meetings you were 
involved in or having discussions with Harold Ickes or others at the 
White House about the DNC budget in general? Was that something that 
you were involved in discussions about?
    Answer. I think I attended one meeting early on--I don't know when; 
it seems to me way before the campaign about the DNC budget--in the 
residence. That was the only meeting I remember; and it was mostly just 
what their budget was, as I recall. But it seemed, you know,--I do 
remember one meeting about the DNC budget.
    Question. And do you recall any discussions about having Mr. Ickes 
have more control over the budget or reviewing the budget of the DNC?
    Answer. Having more control over it? No, I don't remember any 
discussion.
    Question. Were you aware of any people at the White House who 
worked with Mr. Ickes who reviewed DNC budget numbers or contracts or 
anything like that?
    Answer. No, I was not aware of that.
    Question. Do you know a Jennifer O'Connor who worked for Mr. Ickes?
    Answer. Yes, I do.
    Question. What was your understanding of what her role was at the 
White House of her job with Mr. Ickes?
    Answer. I don't know. I just thought she worked in political. I 
don't know what she did specifically.
    Question. Do you have any knowledge of her being involved in 
reviewing any budget matters for the DNC?
    Mr. Ballen. I'm sorry, counsel, I can't hear the question.
                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you have any knowledge of Ms. O'Connor doing any 
budget matters for the DNC, working on that?
    Answer. No, no, I didn't.
    Ms. Comstock. I will mark this document Deposition Exhibit 26.
    [Williams Deposition Exhibit No. MW-26 was marked for 
identification.]
    Ms. Comstock. Can we just go off the record for just a minute?
    [Discussion held off the record.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Were you aware of Harold Ickes ever meeting with any 
labor union PAC people at the White House?
    Answer. No, I wasn't aware of his schedule--if I wasn't involved in 
it.
    Question. Were you ever involved in any meetings where Mr. Ickes 
had labor union people at the meetings discussing media buys or media--
the kind of commercials the unions were going to run or anything like 
that?
    Answer. No, no.
    Question. Okay. I just wanted to go through a few questions on Mr. 
Hubbell.
    Mr. Ballen. I'm sorry?
    Ms. Comstock. On Mr. Hubbell, Webster Hubbell.
    Mr. Dennis. Hubbell.

                      EXAMINATION BY MS. COMSTOCK:

    Question. While you were at the White House you came to know 
Webster Hubbell; is that correct?
    Answer. Yes.
    Question. When he was Associate Attorney General?
    Answer. Yes.
    Question. Did you know him prior to your joining the White House 
staff?
    Answer. I met him in the campaign. I never worked with him, but I 
met him. Well, actually, I met him right after the election.
    Question. And you knew him to be a close friend of the President 
and the First Lady?
    Answer. Yes.
    Question. Did you work on any matters with him while he was at the 
Justice Department?
    Answer. No.
    Question. So any occasion when you would be calling him or dealing 
with him at all, would that be sort of a social or sort of a 
ministerial kind of--you know, come over for an event or anything like 
that?
    Answer. No, I didn't have any substantive matter that I worked with 
Webb on. No.
    Question. Do you know if he was involved in any health care matters 
that you worked on?
    Answer. Not that I--not that I worked on. He may have been involved 
in tort reform issues around health care, but that would be the only 
thing that makes sense.
    Question. At any time prior to his announcing his resignation, 
which is March of '94, were you aware of any problems that he had with 
his law firm?
    Answer. No.
    Question. Were you aware of any sort of, in the months leading up 
to his resignation, of people from the law firm attempting to get in 
touch with the First Lady with Mr. Hubbell?
    Answer. No, huh-uh.
    Question. Have you ever discussed with the First Lady any of Mr. 
Hubbell's problems related to the Rose Law Firm?
    Answer. No, not related to the Rose Law Firm.
    Question. And in that--the meetings in relation to the billing 
problems and the mail fraud, I guess the things that he pled guilty to, 
that kind of thing?
    Answer. No.
    Question. Did the First Lady ever express anything to you about Mr. 
Hubbell had defrauded her or anything like that?
    Answer. No.
    Question. And--at any time?
    Answer. No.
    Question. No? She had made some statements on Larry King this year 
when she was on TV, you know, that he was a partner; you know, I was a 
victim, too. Did you ever hear the First Lady say anything like that to 
you at any time over the past 4 years or so?
    Answer. No, the only thing that she's ever expressed to me 
regarding Webb Hubbell is, you know, tremendous sense of sadness about 
it, about him.
    Question. About his situation?
    Answer. Yes, uh-huh.
    Question. And nothing about specifics?
    Answer. No.
    Question. Or anything about what he--did she--did the First Lady 
ever mention what he said to her? You know, he told me he didn't do 
anything like--anything like that?
    Answer. No, she would never say that to me.
    Question. Do you know a gentleman named Jim Blair?
    Answer. Yes.
    Question. And do you have occasion to see him at the White House 
frequently?
    Answer. I didn't see him frequently, but I've seen him at the White 
House at events.
    Question. And in the 1993 time frame, is it correct that Diane 
Blair stayed at the residence quite a bit?
    Answer. I don't know quite a bit, but I know that she's a friend of 
Mrs. Clinton, and she's stayed at residence. I don't know how many 
times.
    Question. Do you have any knowledge of her being camped out or 
living at the White House in '93?
    Answer. Camped out?
    Question. She had a class, I think she was teaching, something to 
that effect, where she was kind of based at White House in '93.
    Answer. Oh, I think that she was based--I think that she had a 
class, and I don't know if it was every 2 weeks or every 1 week, and 
she would fly in and fly back out. That's what I thought. But I wasn't 
at the residence, but I do remember that she was teaching a class 
somewhere.
    Question. And do you have any knowledge about Mr. or Mrs. Blair's 
involvement in any matters related to Webster Hubbell?
    Answer. No.
    Question. Did you have any knowledge about Mr. Blair calling the 
President or the First Lady to discuss any matters related to Mr. 
Hubbell?
    Answer. No.
    Question. When did you first learn about that Mr. Hubbell was going 
to resign?
    Answer. I don't know--I don't know if I learned the day he resigned 
or the day before he resigned, but it was very tight in there.
    Question. He resigned on March 14th, 1994; and there has been 
reported in the press a meeting that Sunday, March 13th, that even, the 
night before, a meeting where at the end of the meeting Mr. McLarty 
brought up the issue of, you know, I'm going to help Webb. He said 
something to that effect. It may have been an afternoon meeting. It was 
sometime on Sunday of March 13th.
    Do you have any general recollection of a meeting that was close in 
time prior to Mr. Hubbell's resignation where anything like that was 
discussed?
    Answer. I have a recollection of a morning meeting, maybe a Sunday 
morning meeting--actually, a Sunday morning meeting. I don't know the 
date of it. And this is pure--I mean, this is kind of based on having 
read news accounts, but the only meeting I can think of is a meeting 
that was held actually to discuss, I think, the resignation of Bernie 
Nussbaum, the White House.
    Question. Which had been approximately I think on March 4th, '94, 
or thereabouts, a week or so before Mr. Hubbell resigned?
    Answer. Yeah.
    Question. 10 days.
    Answer. I mean, I remember attending a meeting on a Sunday morning 
about the White House Counsel's Office.
    Question. And do you recall Mr. Ickes being at that meeting?
    Answer. No.
    Question. Or Mr. McLarty?
    I'm sorry. I'm not representing that Mr. Ickes was there. I'm just 
seeing if you--I know Mr. McLarty was at a meeting on the 13th, so if--
--
    Answer. Well, I don't actually recall Mr. Ickes being there. I'm 
trying to think. I mean, I recall--I recall Mrs. Clinton being there. I 
recall the President being there. I recall--I don't know if I recall 
Mack being there. I just think he ought to have been there. But I 
recall Mack McLarty--but there was a meeting on Sunday morning about 
Mr. Nussbaum's resignation.
    Question. And could you just tell us generally about that meeting?
    Answer. Well, I just think it was about his replacement, what 
issues, and generally about the arrangement and organization of the 
counsel's office.
    Question. And were you aware of any sort of general discussion of 
sort of how sort of damage control operations were going to be handled 
on these and matters of Mr. Hubbell?
    Answer. I guess I wouldn't have talked about it in terms of damage 
control. I would really talk about it in terms of----
    Mr. Ballen. Excuse me. The question was related to Mr. Hubbell.
    The Witness. Oh.

                      EXAMINATION BY MS. COMSTOCK:

    Question. I'm sorry. Maybe, just generally, did you discuss--was 
there any discussion--why don't I strike the last question and start 
over? was there any discussion in this Sunday morning meeting that you 
recall of generally of how we are going to approach sort of Whitewater 
matters, Mr. Nussbaum, Mr. Hubbell, or was it--I'm trying to see if 
there was a more general discussion of--sort of on March, '94, was sort 
of a problem----
    You had subpoenas coming in at that point, and Mr. Nussbaum had 
resigned, and Mr. Hubbell was about to resign, and would those matters 
all going on--the special counsel, Mr. Fiske, had been appointed in 
January. And I was wondering if there was general discussion in this 
meeting about how to approach all of these things as you go forward 
with your other duties.
    Mr. Ballen. Excuse me. I am going to object to this question on two 
grounds: One, you have asked, I think, three questions in that last 
question, so it's going to be hard for the witness to separate them 
out.
    Secondly, I'm going to object to it generally. The witness has 
testified that this meeting was about the Nussbaum resignation, not 
about the Hubbell resignation. So I'm going to object to any questions 
as to the circumstances of the Nussbaum resignation.
    If you want to ask the witness was Hubbell discussed and the 
resignation, I would have no objection to that. But insofar as it goes 
beyond to yet another matter, I would object to it.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Well, I mean, we've--you know, we are generally talking 
about the Sunday morning meeting here that you recall. We--the White 
House--we've reviewed notes from the White House that indicate--and 
others whether this is the same one or a Sunday meeting on March 13th, 
which is the day prior to Mr. Hubbell resigning--which indicate there 
were sort of a general discussion of this.
    What I'm trying to find out is if you recall at this or another 
meeting a general discussion of sort of how to handle all of those 
various matters that I just previously described.
    Answer. I don't recall a discussion about Webb Hubbell's 
resignation at this Sunday morning meeting. What I recall is it was a 
meeting about the Nussbaum resignation and how to handle the different 
areas that the Counsel's Office would have to involve itself in, and 
that really was the focus.
    Question. Was there a discussion of how to respond to subpoenas or 
how you were going to go forward with matters at that time?
    Answer. Those things could have been discussed, but my 
recollection, my recollection of the meeting, and maybe it is just 
because I bring a certain perspective, was it was much more structural 
and more about the leadership of the office itself, a structural and a 
personnel issue, which was quite frankly where I would be focused.
    Question. Was there any discussion of what Mr. Ickes's role would 
be in responding to any of these Whitewater matters or Mr. Hubbell or 
any of those, what his role would be?
    Answer. I really don't recall a focus on Mr. Ickes. I mean, I just 
don't recall that. I mean, in my mind, I just remember--this is the 
meeting on the Counsel's Office.
    Question. If it is not this March 13th meeting that we have 
reviewed notes on, or if it is not the Sunday morning that you recall, 
do you recall at any other time discussing Mr. Hubbell's resignation or 
any issues related to that prior to his resignation?
    Answer. No, I do not.
    Pardon me, let me just amend that a little bit, because I don't 
know if I learned about Webb's resignation the day of his resignation 
or the day before. It was pretty tight, so I don't know if there was 
any discussion, or if it was just announced the day before to the 
staff.
    Question. Okay.
    Answer. That is kind of what I think happened.
    Question. Okay. And this meeting the night before where Mr. McLarty 
has indicated that at the end of the meeting he said to the First Lady, 
you know, I am going to be helping Webb, do you have any recollection, 
do you have any knowledge about that?
    Answer. No.
    Question. You don't recall that exchange or that discussion?
    Answer. No.
    Mr. Dennis. Do these notes place my client at that meeting?
    Ms. Comstock. Yes, the White House notes. But I am trying to be 
fair here and make the record clear. It has been indicated--the notes 
from that March 13th meeting indicate she was there. The notes do not 
have any--they do not discuss the actual notes that are on the meeting. 
There are some separate notes, and Mr. McLarty has publicly indicated 
that at the end of the meeting, so I want to clarify that.

                      EXAMINATION BY MS. COMSTOCK:

    Question. But do you recall any discussion with Mr. McLarty about 
Mr. Hubbell?
    Answer. Me?
    Question. With you.
    Answer. No.
    Question. Okay. Were you aware of any efforts by anybody at the 
White House to assist Mr. Hubbell in obtaining employment?
    Answer. Only what I know from the newspapers.
    Question. Okay. So from the time he announced his resignation until 
the newspapers, you had heard nothing about anybody at the White House 
or any friends of the President or First Lady attempting to assist Mr. 
Hubbell in getting a job or consultant contract?
    Answer. No, I have not.
    Question. So I can assume you had no knowledge of him attempting to 
settle any of his legal problems with the Rose Law Firm?
    Answer. No, I don't know anything about that.
    Question. Do you have any knowledge of Mr. Hubbell being in touch 
with the First Lady after his resignation, what his--how often he was 
in touch with her?
    Answer. No, I do not.
    Ms. Comstock. Okay. I am showing the witness EOP 58979 through--
actually, it is a variety of things. It is a grouping here. On 58980 
there is a message to Pam. It says, Webb Hubbell, he wants to talk with 
Mrs. Clinton.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Is there a Pam in your office?
    Answer. No, she actually works in the West Wing in Mrs. Clinton's 
office, Pam Cecetti.
    Question. Okay. And that message was dated April 8, and then there 
is an April 13th message with Mrs. Clinton, and then a June 10, '94 
message with Mrs. Clinton.
    Did you have any knowledge about--does this refresh your 
recollection as to whether Mr. Hubbell was in contact with Mrs. Clinton 
during this time frame?
    Answer. No.
    Question. I'm sorry, I gave you my copy.
    Answer. I'm sorry.
    Question. That is okay. You are looking at my little scribbles, 
that is okay.
    Answer. They don't mean anything to me.
    Question. So generally did you have any sense of whether the First 
Lady continued to be in touch with Mr. Hubbell, or didn't or did you 
not know either way?
    Answer. I do not know either way.
    Question. Do you have any knowledge about Mr. Hubbell working out 
of Mr. Cardozo's office?
    Answer. No.
    Question. Do you know a Michael Berman?
    Answer. Yes.
    Question. All right. He was in touch with the First Lady's Office 
and people at the White House somewhat frequently?
    Answer. Somewhat frequently, yes.
    Question. Do you have any knowledge that Mr. Berman was assisting 
Mr. Hubbell in any way?
    Answer. No, I do not.
    Question. I assume you have no knowledge, then, of anything related 
to the Lippo Group or Mr. Hubbell receiving $100,000 from the Lippo 
Group?
    Answer. No.
    Question. Have you had any discussions with anybody at the White 
House about Mr. Hubbell working for the Lippo Group?
    Answer. No.
    Question. When any of those articles appeared, did anyone at the 
White House ever comment to you about, gee, I had heard about that, or 
that is not true, no, he didn't make that much money or make any type 
of comment in general about, first, the allegations, then sort of later 
the account of Mr. Hubbell making that kind of money?
    Answer. Not specifically. There may have been a general discussion 
as there is about the news.
    Question. Can you recall who generally who you discussed that with?
    Answer. Oh, God, I don't know. It could have been anybody.
    Question. Do you know if you ever spoke with the First Lady about 
that?
    Answer. No.
    Question. Generally people in your office you would have discussed 
that with?
    Answer. Oh, I don't know. It's so general. I mean, it is just 
like--you know, becomes kind of a current event, I mean, did you read 
the newspaper about such and such, yes, I read it.
    Question. Were you surprised to read that Mr. Hubbell got upwards 
of half a million dollars in the year after he left the Justice 
Department?
    Answer. Nothing surprises me.
    Question. Did anyone ever comment to you about they were surprised? 
I mean, can you think of anyone in particular that ever made a comment 
one way or the other about knowing about anything related to that?
    Answer. No.
    Question. Have you ever discussed any of those matters with Mr. 
Lindsey?
    Answer. No.
    Bruce Lindsey?
    Question. Bruce Lindsey.
    Answer. No.
    Question. After Mr. Hubbell had resigned from the Justice 
Department, did you have any knowledge about him taking any foreign 
trips or foreign travel?
    Answer. No, I didn't.
    Question. Were you in touch with Mr. Hubbell at any time after he 
left the Justice Department?
    Answer. Yes.
    Question. And do you recall on what occasions those were?
    Answer. I wrote him a letter when he was in--when he went to 
prison.
    Question. Just as a friend?
    Answer. Yes.
    Question. Okay. And did you--have you ever contacted him besides 
that, or did he write back?
    Answer. He wrote me back.
    Question. And I don't want to get into the real details of this, 
but can you generally discuss what you wrote?
    Answer. I think I wrote that I was thinking of him and praying for 
him, and I believe he wrote back what he was reading and--what books he 
was reading, and I am not sure, did I give that letter to you?
    Mr. Dennis. I don't remember.
    The Witness. Or Ken Starr or somebody. I no longer own my own 
letter from Webb.
    Mr. Dennis. Nothing related to this topic?
    The Witness. No, not at all.

                      EXAMINATION BY MS. COMSTOCK:

    Question. And did you have any other contact with him after that?
    Answer. No.
    Question. Was that then the last contact you had with him was him 
writing back?
    Answer. I was afraid to.
    Question. Were you aware of any legal defense funds set up from Mr. 
Hubbell?
    Answer. No, I didn't think there was a legal defense fund set up 
for him. I thought there was a scholarship fund for his children.
    Question. That is correct. I think there was some family trusts, 
separate trusts set up?
    Answer. I heard about that, yes.
    Question. Do you have any knowledge of any efforts of anyone in the 
White House to assist in raising money for those trusts?
    Answer. No, I don't, not specifically anybody.
    Question. Were you aware of Mr. Hubbell getting contracted to write 
a book while he was in jail?
    Answer. I read about it. I think I read about it in Publishers 
Weekly.
    Question. And were you ever aware of any discussions at the White 
House about what Mr. Hubbell was writing about in his book?
    Answer. No.
    Question. Any concerns ever expressed about that?
    Answer. No.
    Question. Why don't we move on to Mr. Chung. Could you tell us when 
you first met Johnny Chung?
    Answer. Very soon after the election, I met him someplace in 
Washington, either at an event or he was introduced to me by someone, 
but I remember that it was very early after the election.
    Question. Okay. Can you describe that meeting?
    Answer. He told me he was very enthusiastic--he was a very 
enthusiastic gentleman. He told me that Mrs. Clinton had--this is total 
paraphrase--that Mrs. Clinton had made him a success in his business, 
that she was his inspiration, that she had given him advice that, you 
know, had more or less changed his life.
    Question. And did he describe what that was?
    Answer. I think she wrote him a letter, and I think she--he didn't 
say this, but I got the feeling he actually talked to her in Arkansas, 
and I don't know when he had talked to her, but, you know, prior to her 
becoming First Lady of the United States.
    Question. Okay. Have you ever learned from any other source what 
that meeting involved or if that meeting occurred?
    Answer. Well, at some point I talked to Mrs. Clinton, and I related 
the story of having met Johnny Chung and what he had said, and she said 
that she--once again paraphrasing--that she had remembered meeting him, 
was not aware that she had changed his life, remembered meeting him in 
Arkansas, remembered his energy, and remembered that he said that he 
was going--you know, that he was going to work really hard and make a 
success of himself and of his family, and that she had been 
encouraging, but she had not known that she had become such a figure in 
his life.
    Question. All right. Do you recall if she said she met him in 
Arkansas?
    Answer. Yes. As I said, I am paraphrasing, but it seems to me, as I 
remember, she met him--she met him in the Governor's Mansion, I think, 
in Arkansas. That is what I think it was.
    Question. And how did Johnny Chung come to be at the Governor's 
Mansion in Arkansas?
    Answer. I have no idea.
    Question. So did the First Lady tell you he had been at the 
Governor's Mansion?
    Answer. I believe that is what she said.
    Question. And when you discussed this with the First Lady, did 
she--did she tell you, you know, anything about what he was in business 
doing or what?
    Answer. No. In fact, she was trying to remember him, but she had 
remembered that there had been this Asian American man and that the 
name sounded very familiar to her, and I kind of told her the story, 
and it seems to me she tried to remember who he was, had a vague 
remembrance of him, and that pretty much was it.
    Question. All right. Now do you recall in time, like when you--I 
know you don't recall exactly when you met Mr. Chung, but do you recall 
in relation to when you met Mr. Chung and when you had this 
conversation with the First Lady if that was fairly contemporaneous, 
like, I met a guy, you changed his life; or did that come up later 
after Johnny Chung had made visits or done whatever?
    Answer. I think it was fairly contemporaneous because, as I said, 
for some reason, I am--one thing I feel very clear about is that I met 
him early in the administration, I just kind of remember meeting him 
early. And I believe the conversation was contemporaneous because it 
was kind of an interesting, you know, kind of an interesting tale to 
tell. I mean, you have a person who says, you changed my life. You say 
something about it maybe.
    Question. Is there anything else about this first meeting you 
recall, if it was a large event or a small event?
    Answer. I really don't remember, but I just remember the story, and 
kind of, you know, short, stout man who had some difficulty speaking 
English, but he was a character.
    Question. I'm sorry, do you recall if this was or was not a fund-
raising event that you met him at?
    Answer. I really don't recall.
    Question. Someplace in Washington, D.C.?
    Answer. Yes.
    Question. This is a document we received from the DNC, 1096988 
through 89, which is a March 28, '94, Los Angeles Business Journal. And 
there is a feature article on Mr. Chung, which in the beginning 
describes him watching the election and I guess the debate between 
George Bush and Bill Clinton in '92, and that inspires him to go to 
Little Rock and I guess essentially knock on the door, where he met the 
First Lady.
    Does that at all refresh your recollection of anything he told you 
or the First Lady might have told you?
    Answer. Well, that gets to the mansion part. Yes, I--I really 
didn't remember that he was inspired to go to Arkansas because of the 
debates.
    Question. And then--but when you had this meeting with him, he did 
say he had gotten a letter from the First Lady or something that 
inspires him to, or he had a discussion with her?
    Answer. It seems like he had a discussion with her, and then I 
think there was a letter that came, or he had written to her, and then 
there was a letter that came back.
    Question. Okay. Were you aware of this letter at the time when you 
discussed, you know, Mr. Chung?
    Answer. No.
    Ms. Comstock. Why don't I make that article Deposition Exhibit No. 
27.
    [Williams Deposition Exhibit No. MW-27 was marked for 
identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Then this is April 26, 1993, a letter to Johnny Chung 
from Hillary Rodham Clinton, with the White House stamp on it, which 
reads:
    ``Thank you for your letter and my apologies for not getting back 
to you sooner.
    ``It appears from the correspondence you have had with Federal and 
State officials, and the private sector, that you are already on the 
right track. Nevertheless, I wish you good luck with your innovative 
system.''
    Did you ever see this letter or know about this letter at all?
    Answer. I have seen it in recent times. I mean, I don't remember 
seeing it in April of 1993.
    Question. Okay. You have seen it at a recent deposition?
    Answer. No, actually, before that. I don't know what the 
circumstances were, but I have seen this letter before.
    Question. Do you know if it was in conjunction with compiling 
documents or trying to review any matters related to Johnny Chung 
within the White House?
    Answer. Yes, it could have been. That may be, it could have been.
    Question. Did anyone at the White House ask you to compile 
documents about Johnny Chung in particular?
    Answer. I think at the point of some subpoena, yes.
    Question. And do you recall who asked you to get some of those 
documents together?
    Answer. No. I think it was probably written, and I don't know who I 
talked to.
    Question. Did you talk with someone in the Counsel's Office about 
the various documents?
    Answer. I don't really believe I had any documents.
    Question. Or documents from the First Lady's Office?
    Answer. They would have gone directly to correspondence people and 
people who keep her correspondence, but I do remember seeing this 
letter.
    Question. Would that be Carolyn Huber who keeps the First Lady's 
correspondence?
    Answer. It more probably would be Pam Cecetti, Pamela Cecetti.
    Ms. Comstock. I will make this Deposition Exhibit No. 28.
    [Williams Deposition Exhibit No. MW-28 was marked for 
identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Are you aware of Mr. Chung having offices in D.C. for his 
business?
    Answer. No, I don't think I was.
    Question. At any time did you learn of him having offices here in 
Washington?
    Answer. No, I don't think I knew he had offices in Washington.
    Question. And this is DNC 1786472 through 81, which is a DNC 
Presidential birthday celebration at the Sumner Wells estate, Fort 
Washington, Maryland. The cochair for the events are identified as--
Johnny Chung is there with 10 guests, and then these records do 
identify you as attending as one of the VIPs on page 1786479.
    Do you recall attending the President's '94 birthday celebration?
    Answer. This is when--I just have to figure this out. Somebody 
really good was there. The long and short of it is I didn't get to go 
because I was in a deposition that night, so I didn't go. I think Patti 
LaBelle sang at that.
    Question. Okay.
    Answer. Right, Patti LaBelle.
    Question. Good recall.
    Answer. I remember that because I really wanted to go.
    Question. I think the first WAVEs records that we have of Mr. Chung 
were in July of '94, and I will get you a set of those.
    Mr. Ballen. Can I take a minute break at this point?
    [Brief recess.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Back on the record here. We were just looking at the 
WAVEs of Johnny Chung, and actually, I misspoke. I think the first WAVE 
we have is February 2nd, '94. Do you have any recollection of--you say 
you recalled meeting Mr. Chung outside of the White House early on. Do 
you recall when you first had occasion to meet with him at the White 
House or see him at the White House?
    Answer. I don't remember the first occasion. I don't remember the 
first time I saw him at the White House.
    Question. Okay.
    Answer. Although there was a first time, but I don't remember the 
date.
    Question. Okay. Prior to the March 8th and March 9th events, which 
involved the $50,000 check in those events, do you recall having a 
meeting with him prior to that date?
    Answer. Seeing him, yes.
    Question. Do you recall him ever coming by your office?
    Answer. Yes.
    Question. Prior to that date?
    Answer. Yes.
    Question. And what would be those occasions when he would come by 
the office?
    Answer. I don't think they were any particular occasions. I think 
he was just dropping by to say hello.
    Question. And do you know why he was at the White House and 
dropping by?
    Answer. Well, I don't know why he was dropping by. I mean, I had a 
sense why he was dropping by our office; he liked to come to our office 
because it was Mrs. Clinton's office.
    Question. Were you aware of other people who he was stopping by and 
talking to?
    Answer. I really didn't pay any attention to it.
    Question. I am just going to keep the WAVEs as a reference point as 
we go through these other documents. This is an October 11, 1994, 
letter to Reta Lewis from Johnny Chung. It says Reta Lewis, special 
assistant in political affairs. Do you know Reta Lewis?
    Answer. Yes, I do.
    Question. In this letter, he talks about receiving a letter from 
the President, and says: ``Due to my busy schedule, I was unable to 
meet with you during my last trip,'' and goes on to discuss processes 
setting up a Washington, D.C., office, ``This will allow us to work 
closely together.''
    Did you ever have occasion to talk with Reta Lewis about any 
contact she had with Johnny Chung?
    Answer. I think I once saw Reta with him. I don't think that we had 
a conversation about Johnny Chung but I once saw Reta with him, and--I 
once saw Reta with him in the hall.
    Question. Just walking down the hall?
    Answer. Yes, I am sure I stopped to talk and----
    Question. This is at some point, obviously after you met Mr. Chung, 
you knew who he was, he knew who you were?
    Answer. I can't say when exactly. I mean, I think he knew who I 
was. Just from our first meeting ever. So I would--this was definitely, 
I believe, after that because I believe I met him sometime in 1993, but 
I do remember seeing him with Reta.
    Question. In the third paragraph, he says, I also want to inform 
you that I am arranging a meeting for Chairman Y.C. Wang with President 
Clinton. Chairman Wang will be arriving on the 15th of October and 
staying approximately 2 weeks. I am discussing with Mr. David Wilhem 
regarding the setup of this meeting.
    Do you recall any efforts by Mr. Chung to get a meeting for Y.C. 
Wang with the President?
    Answer. No.
    Question. Okay. Around this time, around the fall of '94, do you 
remember any discussions with anybody in Political Affairs, Reta Lewis 
or anybody else, about Mr. Chung's contacts with the White House?
    Answer. No.
    Question. Okay.
    Answer. No.
    Question. And prior to the March 8th, 9th, events, do you have any 
recollection of discussing Mr. Chung with other people at the White 
House prior to that time?
    Answer. No. I wasn't--it wasn't a focus of anything. I would see 
him around and he would definitely stop in to the office and sometimes 
I would see him there, and--but he wasn't the focus of anybody's 
conversation.
    Question. And when he would stop by the office, what did he do when 
he stopped by the office?
    Answer. Well, I actually was in my interoffice most of the time, 
but when I had seen him in the office, he would--we would change the 
pictures or put knew pictures up of Mrs. Clinton in her travels. They 
were all over the place. I mean, certainly not museum quality but there 
were loads and loads of pictures of her trips and her events and he 
would love to see the new pictures, and look at them and spend a great 
deal of time looking at them.
    He would then sit in the foyer of the office and he would talk to 
Evan or talk to anyone who was out there. One time I heard him relating 
to some interns the story of meeting Mrs. Clinton, which I think he did 
quite a bit, and then he would--I believe that sometimes he waited for 
me to come out of my office so he could say hello to me or whatever. 
But he just liked coming there.
    Question. Were you aware of him stopping by other offices, prior to 
like March 8th and 9th? Were you aware--do you know how he had gotten 
in there? I mean, did he sort of appear and you wondered how he got in 
here, who let him in?
    Answer. I never thought about it.
    Question. Were you aware of--did there come a time he was coming 
and asking your office to ask him to let him into the White House?
    Answer. Oh, clearly, yes.
    Question. And how did he go about doing that?
    Answer. Generally, he would call Evan Ryan.
    Question. And what did you tell Evan about him?
    Answer. I said whenever Mr. Chung calls and he wants to come in, we 
should let him in and we should treat him well.
    Question. And why is that?
    Answer. Because he was a human being and we had a very, I think, 
was very focused on our office being available for people to come into, 
although I don't know at what point. I also knew he was a managing 
trustee at the DNC, so--but generally, every single person who came 
through that office, whether they were a contributor or not was to be 
accommodated, to be treated well, as well as people should bend over 
backwards and they should tolerate people. As a public office, we kept 
our office open, and if people got past the threshold of, say, the WAVE 
security and were not a security threat, it was in fact a building that 
belonged to people.
    Question. Did you have a sense that Mr. Chung was coming in and 
sort of, you know, wandering around to see people, stopping in your 
office, he would get in and then kind of linger around?
    Answer. To be quite frank with you, I never thought that much about 
Johnny Chung or what he was doing or was that concerned. If a person 
was not a security threat, I really wasn't focused on kind of what he 
did once he was there.
    Ms. Comstock. I would like to make this October 11, '94, letter 
deposition Exhibit No. 29.
    [Williams Deposition Exhibit No. MW-29 was marked for 
identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. In this October 11th letter he talks about getting, I 
guess, in the second to the last paragraph there, getting a political 
report card from the DNC on economic achievement and how he is going to 
broadly utilize this.
    Did he ever have discussions about his interaction with the DNC or 
anything like that when he was in your office?
    Answer. About his interactions with the DNC, in general, no.
    Mr. Dennis. I don't want to become witness in this, but I think it 
may be important for you to know Room 100 is on the first floor of the 
Old Executive Office Building. It is the only office that the door is 
constantly open and you can walk that whole hallway around and every 
door is shut, but that door is open, so that really people can just 
walk right in, unannounced, without any particular, you know, 
reservation or appointment or anything. It is set up more like a 
Congressman's or Senator's office would be, to accept people, 
constituent service, that sort of thing. So I wanted to give you the 
feel for why someone could just come in and lounge a little bit more 
than they might in one of the other offices.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you recall if Mr. Chung ever provided a reason when he 
wanted to come over, what he said he was doing?
    Answer. Rarely. To my knowledge, no, but I generally was on the--
not on the original request, and I mean, I generally would get Evan and 
volunteer someone, either yelling into the office or buzzing me or 
saying that Johnny Chung is outside the gates and he would like to come 
and stop in the First Lady's office, and I would say, let him in, clear 
him in.
    Question. And do you recall if this was before or after the March 8 
events or before--if you can place it in time.
    Answer. I can't place it in time. I was somewhat interested when I 
talked to Ed----
    Mr. Dennis. Well, you can't describe that. Let me put on the record 
that she has of course reviewed the WAVE records and--what she is 
referring to is the fact it appears from the record we saw he was first 
WAVE'd in by her office around March 8 or March 9, and prior to that it 
seemed he was WAVE'd in by other offices, I am not sure if she was 
aware of that, other than prior to looking at the records themselves, 
but that is based on the records, not her recollection.

                      EXAMINATION BY MS. COMSTOCK:

    Question. And then, actually, you know, given, I mean, the records 
do reflect the first time he was waved in by your office is March 9th, 
'95.
    Do you have any knowledge of the people prior to that? You know, 
when he would come by to your office, did he mention a meeting with 
Brian Foucart or, you know, I came here for a Presidential event or 
something or anything like that?
    Answer. I didn't really have conversations with Johnny. I mean, 
mostly, if he got me, it was because I was walking out the door and 
going some place and I would pass him by and, of course, I would say 
hello to him. But all of these offices, with the exception, obviously, 
of those in the West Wing, these OEOB offices are in very close 
proximity to our office, the Foucart offices is right underneath us. 
Reta's office at this time was right on the same--down the corridor 
from us.
    Question. That is Reta Lewis?
    Answer. Reta Lewis.
    Question. Which is reflected on Page 3 of the documents, says 
having WAVE'd him in on August 2nd, '94, which I believe is the day of 
the birthday events, also.
    Mr. Ballen. Just so the record is clear, the witness is reading 
from the WAVE record. When you are referring to other offices, these 
are ones you are referring to as you are reading them?
    The Witness. Yes, that is correct. I'm sorry.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Maybe we can go through them and identify some of the 
offices he had been visiting up to that time. You have Mr. Foucart. Do 
you have any knowledge of Mr. Foucart talking to Mr. Chung?
    Answer. No.
    Question. Just tell us generally who Mr. Foucart was and what he 
did at that time?
    Answer. Boy, what did he do at that time. For some reason, I think 
he was in administration at that point in time. The office right below 
us is one of the administrative offices for the building.
    Question. Do you know if he ever asked anyone in the administration 
office about using his blast fax capability, if he talked to anyone at 
the White House about that?
    Answer. Oh, yes. I don't know who he talked to, but I remember 
seeing him with Reta Lewis, and her describing his work as blast 
faxing.
    Question. So your recollection of Reta Lewis having at least--you 
got the impression she discussed his blast fax with her?
    Answer. Yes.
    Question. And do you know--I guess the second page, EOP 7800, 7-22-
94 meeting----
    Answer. I am not with you on this. Wait a minute, 8663.
    Question. 8708 on top.
    Answer. Oh, wait, I have a couple. Is this it?
    Question. Yes.
    Answer. Okay.
    Question. The second page in that grouping, which is 8700. Do you 
know who Anderson is--I'm sorry. You must have a bad copy. I will give 
you this one instead. That one was missing that one page. That is what 
happened.
    Answer. Okay.
    Question. Do you know an Anderson that was in Room 1 something, 
115, or something like that?
    Answer. No.
    Question. Then it referred to Lewis. Is it Lewis here on the third 
page at 8-29-94, Room 474? Would that have been Reta Lewis? She was on 
the fourth floor at that time?
    Answer. She is in the political office. Maybe her office, but the 
main political office was on the first floor, down the hall from us, if 
that is the Lewis.
    Question. Okay. And then the third entry there, it says visitee is 
POTUS, on the South Lawn, presumably an event, and Dickey is the person 
who requested it.
    Were you aware of any requests by somebody in the social office to 
get Mr. Chung in?
    Answer. It looks like--I mean, I don't know, but based on this 
event in time, there was probably an event on the South Lawn and Robin 
Dickey cleared huge numbers of people.
    Question. Did you ever have any conversation with Robin Dickey? Did 
she tell you anything about Mr. Chung trying to get into the White 
House or White House events?
    Answer. No.
    Mr. Ballen. Can we ask the question whether the witness is aware if 
any other offices scheduled meetings?
    Ms. Comstock. I am asking her some of these people, if she might 
know who they are. As we are reviewing this, she discussed Miss Lewis. 
I am trying to identify some of the other people who Mr. Chung may have 
been visiting at the White House.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you know someone named Atta?
    Answer. No.
    Question. Then on the next page, which is 8-7, it is hard to read 
it, if that is 88 or 38, the second entry there is Quinn, requested by 
Kelly.
    Do you know of him ever meeting Jack Quinn?
    Answer. I don't know.
    Question. Okay. And then down at the bottom of the page is 9-26 
entry, the visitee is Kristoff. Kristoff is the NSC office.
    Do you recall if Mr. Chung ever, just a meeting, Sandra Kristoff?
    Answer. I don't even know Sandra Kristoff. I don't know.
    Mr. Ballen. Counsel, which entry are you referring to?
    Ms. Comstock. The second to the last on the bottom.
    Mr. Ballen. EOP 003738, that says John Huang visit.
    Ms. Comstock. I'm sorry. I am looking at the wrong one. These are 
mixed in here. I want to correct that for the record. That was not 
Johnny Chung visiting Kristoff.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Okay. The next page, John Chung, if that is the same one, 
is meeting with someone named S-H-A-K-O-W, Shakow.
    Answer. I don't know who that person is.
    Question. And the ones on the bottom.
    And then the next page is 5041, is a meeting with somebody named E-
D-E-R, who waved him in.
    Answer. I don't know who that is, either.
    Question. Next entry there on the next page is W-O-Z-N-I-A-K, 
WAVE'd him in and the visitee was Mitchell. Do you know who that is?
    Answer. Not that I know.
    Question. And then the last page of this group, which is 5040, 
somebody Don, is that, who WAVE'd him in?
    Answer. It looks like Don over here, too. I don't know who that is.
    Question. Okay. Then there is a Brown in the next entry. The next 
entry does say Jonathan Chung. I am presuming that that is a mistake 
there.
    Answer. I'm sorry, I don't----
    Question. Next is 12-20-94, POTUS event, and the residents, do you 
recall generally if Christmas time of '94, or thereabouts, if Mr. Chung 
had been at any Christmas events at the White House or ever told you 
about anything like that?
    Answer. No, but it wouldn't surprise me. Those are huge, huge 
things.
    Question. I think there is going to be a lot of similar names here. 
Don. Middleton. He has requested him in on January 1st, '95.
    Do you know who Frank Footer is, January 10, '95?
    Answer. I don't know that, no.
    Mr. Ballen. Maybe it would be better to ask the witness.
    Ms. Comstock. Yes, see if you recognize any on that page.
    The Witness. Bailey.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Brian Bailey?
    Answer. Brian Bailey.
    Question. And deputy chief of staff office?
    Answer. Yes, that is right.
    Question. Okay. Which says, and this is getting us into the March 8 
day so we might as well go into that area now.
    Could you just describe, to the best of your recollection, the 
events leading up to the receipt of Mr. Chung bringing the $50,000 
check to the White House?
    Answer. Yes. I think one of the things that Mr. Chung often asked 
me when he would make his visit would be how can I give to the First 
Lady, and how can I help her, how can I give to the First Lady, I can 
give to the First Lady. And a number of occasions I had suggested to 
him that instead he give to the DNC, that he could not give money to 
the First Lady, he could not give money to the White House, but he 
could give money to the DNC. I don't recall if I have told him that he 
could give money to the legal defense fund, but those were the--
whenever anyone asked me where they could give money, I would say, you 
need to contact the DNC, the President's legal defense fund, and I 
think at some point when the campaign started, I would say Clinton/
Gore.
    So he asked me, I do not know the dates of this, because I see them 
actually all as kind of separate, separate occasions, but at some point 
in time, I was, I believe, leaving the office and coming out into the 
vestibule, at which point Mr. Chung enthusiastically said, I give to 
the First Lady, I give to the First Lady. I said something to the 
effect of, Johnny, I have told you that you cannot give money to the 
First Lady, you can give to the DNC, and I believe I told him that 
again and he said, I am giving to the DNC, I am giving through you, I 
give through you, I give through the First Lady's office. I told him 
again that he should just give it to the DNC. He continued to be 
somewhat insistent. I wanted out. I said, you know, I will take it, I 
will give it to the DNC, and I think our encounter was, I don't even 
know if it was a minute or a minute and a half.
    Question. And that is all you recall about that?
    Answer. That is all I recall about that actual check giving.
    Question. Do you recall the events leading up to that or Mr. Chung 
wanting to get his friends into the White House, visitors visiting from 
China that he wanted to have?
    Answer. Well, let me tell you what I remember. I don't remember him 
wanting to get his friends into the White House on that particular day. 
As I said, I see these all as separate incidents, even though the paper 
now reports them as all together. I know at some point in time I was 
asked probably by Evan to arrange a photo for Mr. Chung, or if she 
could, and I said, yes, that she should, and I also remember on a 
couple of different occasions, where Mr. Chung had asked to go to the 
White House Mess, and Evan had asked me, and I had said, yes, 
accommodate him, use my Mess account.
    Question. So Mr. Chung had used your Mess account?
    Answer. Yes.
    Question. Prior to the time when you received this check from him?
    Answer. Yes, I believe so, yes.
    Question. And he had brought friends with him to visit the White 
House?
    Answer. I don't know who he brought with him, but I know that I had 
okayed him using my Mess account.
    Question. Do you know generally when?
    Answer. No.
    Question. Have you been able to review any documents from your 
mess--from mess records or any accounts or anything like that?
    Answer. Well, those that I still have, but I can't--I mean, I just 
don't know. But I do know that there was--at some point before that 
he'd used my White House mess account.
    Question. And on the mess account you got the bill either every 
other week or----
    Answer. Every month or something.
    Question. Do you know who sent that bill out?
    Answer. The White House Mess.
    Question. Does that come out of Gary Walter's office or is that 
separate?
    Answer. No, that's a whole other--different.
    Question. Somebody sets that up and sends it out?
    Answer. Yes, it is totally different.
    Question. And you have maintained those records or you have some of 
them? You don't know what you have? Or----
    Answer. No, I mean, I pretty much--I mean, once I paid them, I 
never thought about them again.
    Question. But prior to this telling Mr. Chung, presented you with a 
check, he had--your recollection is that he had used your mess account 
for whatever reason?
    Answer. Yes.
    Question. And you did not--were you aware of who he brought into 
the White House with him?
    Answer. No. I do remember--just another in the series of kind of 
events is that I do remember at one point bowing to a group of people 
who could not speak English, and I could not speak Chinese, and I 
remember them being out in a hall. I don't know the time, but they were 
with Mr. Chung, and he presented them to me and me to them, and we all 
bowed. And I do remember that because it stood out in my mind as----
    Question. Uh-huh. Okay. And, again, can you place that in time 
before or after that check or contemporaneously or if his friends were 
with him on that day?
    Answer. I really don't know. I mean, I just kind of all--I mean, I 
all saw them as separate events.
    Question. Okay. Well, leading up to the time when he----
    This is a document from DNC 3233326, February 27th, 1995, letter to 
Richard Sullivan from Johnny Chung. Have you seen this before?
    Answer. No, I have not.
    Question. Okay. In this later he's requesting that Mr. Sullivan--he 
tells him he's bringing a delegation from China and, as I have 
mentioned on the phone, their main purpose will be as follows: One, 
meet President Clinton; two, meet Vice President Gore; three, have 
lunch at the mess; four, tour the White House; five, meet Secretary Ron 
Brown.
    Were you aware of any such requests coming from anyone at the DNC 
offices leading up to the March 8th and 9th--actually, can you place in 
time--if we could go back to--you're saying you remember him, Mr. 
Chung, being there one day and wanting to give you a check.
    Answer. Uh-huh.
    Question. Do you have a general recollection of when it is? Do you 
have a date or time frame?
    Answer. Only what I've, you know, read. I really don't--I really 
don't have a sense of the time. I mean, I know there was a time that he 
gave me a check. I know that there was a point in time that I bowed to 
him and Chinese people. I know there was a point in time that--that 
someone asked me, I believe Evelyn, to get a picture. And I also--my 
recollection is that he had gone to the mess on my account at another 
time or at least one other time or two other times. But that wasn't the 
first time I'd heard about Johnny Chung wanting to use the mess.
    Question. Okay. And do you recall, leading up to him coming in and 
wanting to give the check, did he--had Ms. Ryan asked you, you know, 
anything about him being able to get access to the mess privileges or 
if he could get a picture with the First Lady or the President or 
anything like that? Or any of these items--tour the White House or 
anything like that?
    Answer. Well, I--I mean prior to him bringing that check, it seems 
to me that we would have accommodated him and probably had at the mess 
or if he'd asked for a tour of the White House or that he'd had other 
pictures. So that with the exception of probably, on this list, meeting 
the President--I don't know if he met Al Gore or if he met Secretary 
Brown. I mean, seems to me that prior to 1995, Johnny Chung had pretty 
much done all of this anyway, at least a couple of times. I mean, that 
was my--my recollection.
    Question. Okay. Did you ever see any--the names that are attached 
here to the delegation or any descriptions of these people? Did anybody 
ever provide with you any information like that?
    Answer. I don't remember seeing--I mean, I don't know if I saw 
these names in a newspaper or whatever. For some reason, I think I know 
the people who came. I mean, maybe it's because they gave me card when 
they bowed, because they did give me a card. So seems like I remember 
this Sun guy was in the delegation. He seemed really young. I mean, but 
I don't--I don't remember getting this list of these people.
    Question. Prior to getting the check from Mr. Chung, do you recall 
any conversations with Ryan about the day--about a particular day or 
the day before or close in time to when you got the money--of Evan Ryan 
telling you anything about this delegation that he wanted to bring and 
how big at the White House?
    Answer. I don't remember--like I said, I don't remember the 
delegation. And, once again, I don't see these all as events.
    I do remember that Evan would ask me about clearing in Johnny 
Chung. I have a recollection that Evan asked me about using the mess 
account, I think on more than one occasion, for Johnny Chung. And I do 
have a recollection that Evan, at one point, asked me about a picture 
with Mrs. Clinton for Johnny Chung.
    I remember all of those things. I don't see them as occurring all 
at once; and some, I think, happened prior to the time that he brought 
the check.
    Mr. Ballen. Can I ask you so it is clear, you said he brought the 
check. Did he give you an envelope? Did he give you a check? Did he say 
what was inside? Did you see what was inside?
    The Witness. I knew that when he handed it to me it was a check. I 
don't know if it was in an envelope or whatever.
    Mr. Ballen. How did you know it was a check?
    The Witness. Because he kept saying--he had something in his hand. 
He said, I give to the--I give to Mrs. Clinton. I give to Mrs. Clinton. 
And it was the first time he ever had anything in his hand. He was 
always saying, I want to give. I give to Mrs. Clinton. I give to Mrs. 
Clinton.
    And then I said--I mean, I had a realization at some point it was a 
check because I said, you cannot give to Mrs. Clinton, at which point 
he said, I'm giving to the DNC. I gives--I remember this. It was such 
an awkward construction--I give through you. I give through the First 
Lady's office.
    And, you know, and at that point I just--I mean, you know, that it 
was a check for the DNC, that he had somehow--I don't remember his 
exact words, but he had somehow made clear to me that it was a check 
for the DNC; and, at that point, I thought, okay, I'll give it to the 
DNC.
    Mr. Ballen. Did you look at it or open it?
    The Witness. It's funny. I think that I--I don't remember looking 
at it, but I had a sense that it was a $10,000 check. But I don't know 
why I had the sense, but I thought for some reason it was a $10,000 
check. I--I was surprised to learn it was $50,000, which I learned kind 
of around a news inquiry much later.

                      EXAMINATION BY MS. COMSTOCK:

    Question. But that's the first time you learned how much money was 
in it?
    Answer. Right, uh-huh.
    Question. And what did you do with the check after you received it?
    Answer. I think I just put it in my basket, in my out basket, as I 
had done with--you know, we would get checks that came in the mail that 
would be, you know, for Clinton-Gore, for something that didn't belong. 
It would come in the mail addressed to Mrs. Clinton. I would just put 
them in the basket; and I assumed that Evan or, you know, whoever, 
whoever took out my basket of things would get the check to wherever it 
needed to go.
    Question. It was a basket that was designed for things to go to the 
DNC?
    Answer. No, it was my out basket.
    Question. And it was in an envelope at that point?
    Answer. I really don't remember if it was.
    Question. That's the last--you put it in your basket, and that's 
the last you saw of it?
    Answer. I never thought about it again.
    Question. And nobody asked you, what am I supposed to do with this?
    Answer. Well, we had received other checks through the mail. Not 
just for the DNC. There would be checks that would come saying we need 
to pay off the--take this check and pay off the deficit or give this 
check to Mrs. Clinton. I want her to have it to do--I would put--if 
they got to me, and some did, I would put them, just as a matter of 
routine, in my basket. And Evan or someone would either send it, if it 
was for the DNC, send it back to correspondence if the check had to be 
returned to someone who was trying to give a check to Mrs. Clinton.
    So that--or you got checks that were made out to the Treasurer, and 
they wanted Mrs. Clinton to give it for the reduction of the deficit. 
We would send it over to the U.S. Treasurer.
    So that checks that had come before, I would just put them in the 
basket and, you know, just assume they would get to the right place.
    Question. Was this--you had said that, you know, that he said, I 
want to give to the First Lady. Was this the first time he had said 
that kind of thing?
    Answer. No, well, no, every time I saw him. Every time I had a 
chance encounter with him, he wanted to give to the First Lady.
    Question. Did you ever mention anything to him about any bills 
from--regarding Christmas parties?
    Answer. No, I don't recall that.
    Question. Do you have any knowledge of anybody in the office--in 
your office or anyone at the White House ever mentioning anything about 
DNC bills for Christmas parties?
    Answer. To him?
    Question. To Mr. Chung.
    Answer. No, not that I'm aware of.
    Question. Previously, we have been looking at Mr. Middleton's WAVEs 
records. It appeared you know, when he came into the mess that he had 
been WAVE'd in by someone from your office, that Mr. Chung was not 
WAVE'd in by anybody from your office prior to March 9th. Do you know 
how, if he had used the mess privileges prior to this time, how that 
came about? If it was done through your office or if it was coordinated 
with somebody else?
    Answer. I don't. I don't know. I mean, that's--I indicated I was 
surprised this was the first time that we had waved in him, since I'd 
seen him so often before in the White House.
    Question. You have specific recollections that you had seen him--
that you thought--that he had been in there in your office prior to 
March 8th?
    Answer. Uh-huh.
    Question. This wasn't the----
    Answer. The first time that Johnny Chung had ever been in our 
office? No, no.
    Question. And did you ever have--as you turn to the Sullivan letter 
from Mr. Chung, you never had any contact with anyone from the DNC 
about Johnny Chung?
    Answer. No.
    Question. At any time?
    Answer. No.
    Ms. Comstock. We'll make this letter Deposition Exhibit No. 30.
    [Williams Deposition Exhibit No. MW-30 was marked for 
identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. This is a February 28th, 1995, letter--I'm sorry. The 
Bates Stamp Number is JCH 15011; and the previous one, the Bates Stamp 
Number was DNC 3233326.
    This letter was to Ann McCoy; said, I would like to request your 
assistance again. I am bringing with me the delegation from China. This 
is a group of very important and powerful business leaders from China. 
They will be in D.C. from March 7th to 11th, and as usual, please 
arrange for a tour of the White House.
    Do you have any knowledge of Ann McCoy assisting Mr. Chung?
    Answer. Yes. Worked in the visitor's office, and she often gave 
tours to family or, you know, anyone who had missed the tour had to 
come in the day or whatever, so she was always giving tours.
    Mr. Dennis. Do you recall this specific----
    The Witness. This letter? No. Oh, no, I've never seen that letter 
before, but I know Ann McCoy.
    Mr. Ballen. Or that she had given Johnny Chung a tour--that was the 
question.
    The Witness. Yeah, I think I do recall Ann giving Johnny Chung a 
tour.

                      EXAMINATION BY MS. COMSTOCK:

    Question. And how do you recall that?
    Answer. For some reason I think that she had--she told me that. Or 
asked me if I knew a Mr. Chung or did I know about him. I--I'm pretty 
sure I had a conversation with her, and she had given him a tour or 
maybe more than once, even.
    Question. And what had she told you about him?
    Answer. Oh, kind of just that he was a funny sort of man, but, you 
know, loved walking around the White House, and asked me if I knew him, 
and I said, yes, that I knew him, and I thought he was a good guy.
    Question. Okay. Ann McCoy--the document we have been discussing 
earlier today, May 5th, 1994, list which had listed various perks.
    The Witness. I think this is what you----

                      EXAMINATION BY MS. COMSTOCK:

    Question. Yeah, I'm sorry. I was thinking of Ann Stock on here, 
because Ann McCoy's name is not on here. I wonder, do you know what--
that was just her--she would arrange for the visitors?
    Answer. Yeah, the visitors office.
    Question. Basic tours?
    Answer. Not just basics.
    Question. This was a different tour than the people--this is the 
tour that you--go-to-the-head-of-the-line kind of tour, see a little 
bit more?
    Answer. Yeah, there's at least seven or eight different 
formulations of tours, and the Ann McCoy kind of walk-around is one of 
them.
    Question. And now, in some of the news accounts have shown, you 
know, Mr. Chung sort of all over the White House. Do you know who was 
bringing him all over the White House in different hallways and in the 
mess and in the kitchen or wherever?
    Answer. In the kitchen?
    Question. I don't think he was in the kitchen, I think it was in 
the mess, but he was in a lot of different spots. Were those 
photographers going around on the tour with him? Do you know if he had 
his own photographer with him as he went on the tour and took those 
pictures? Can you do that?
    Answer. I'd have to see the pictures. The only picture that I've 
seen in the press is a Christmas picture. And if it's in the hallway it 
more than likely is part of a large receiving line, because that's how 
they're generally done. So if it is in a hallway or in a room in front 
of a picture or a tree or something like that, it's probably a 
receiving line.
    Question. Okay. Then this February 28th letter continues, ``I have 
asked Mr. Richard Sullivan, Mr. Eric''--small ``L'' there ``led''--I 
don't know if that's correct--``of DNC and Mr. Mark Middleton to assist 
me in arranging a meeting with President Clinton, Vice President Al 
Gore, and a lunch at the Mess in the White House.''
    Do you have a recollection of Mark Middleton assisting Johnny Chung 
at the White House?
    Answer. No. No, I didn't know he knew him.
    Question. You had no knowledge of Mr. Middleton knowing Johnny 
Chung?
    Answer. No.
    Question. Are you sure then that Mr. Middleton didn't ask you to 
ask help Mr. Chung in any way?
    Answer. Oh, no. Mr. Middleton wouldn't have to ask me to help Mr. 
Chung. I mean, I would have helped Mr. Chung on my own.
    Question. I mean, Mr. Middleton never asked you or said----
    Answer. No.
    Question [continuing]. Johnny Chung called me up?
    Answer. No.
    Question. February 28th, '95, I believe Mr. Middleton had left the 
White House at this point?
    Answer. No.
    Question. Did he ever call you up and say, hey, Johnny Chung is 
asking me to get him into the mess----
    Answer. No.
    Question [continuing]. Can he go on your account since I'm not 
there anymore?
    Answer. No, no.
    Question. Nothing like that?
    Answer. No. Huh-uh.
    Question. And do you have any knowledge of--this time frame that 
he's working on was the March 7th to March 11th time frame when Mr. 
Chung is writing to Ann McCoy asking for assistance?
    Answer. Uh-huh.
    Question. But it was the time frame when he ends up arriving at the 
White House with the $50,000 check----
    Answer. Uh-huh.
    Question [continuing]. And--and then also having lunch at the mess 
with his five friends from China.
    So do you know how he ended up asking Ms. McCoy about help with 
this to coming to your office? What happened in the interim, if you 
have any knowledge?
    Answer. No, I mean, what happened in the interim--which interim?
    Question. Well, he's asking here Ms. McCoy whether or not she can 
assist with lunch in the mess.
    Answer. Uh-huh.
    Question. And then, later in March, he is asking your office to 
help him with that.
    Answer. Oh, no, I wasn't aware that he had asked Ann McCoy.
    Question. Do you know if he was turned away or, sorry, we'll give 
you the tour, but that's the best we can do?
    Answer. No, I don't know. Huh-uh.
    Question. Now, just so I can get this clear, you say you recall 
these as separate events so you don't recall him in this time frame. Do 
you recall him in this time frame, when he gave you the check, having 
his friends there to go to lunch or for a picture or for any event 
contacted with his friends?
    Answer. See I saw them all as separate events in my head. I see 
them all, each, as separate. I didn't put them all together. I saw the 
check as a separate thing that happened. I remember meeting his 
friends, but I did not tie them together. I just remember them as 
individual events. It may or may not be that, but that's the way I 
remember them.
    Question. Do you have any recollection of Evan Ryan discussing with 
you anything about that he wanted this group to be able to come to the 
mess and get their picture with the First Lady and all, and he wanted 
to know what he could do to help the White House or anything like that?
    Answer. No, I mean--as I said before, I recall that if there was a 
time that Mr. Chung made a request, he would make it to Evan, and she 
would ask me about it. I know that she asked me about getting him in 
the mess and getting a picture with Mrs. Clinton, both of which, you 
know, I tried to accommodate. But not in relationship to his check or 
contribution. I mean, he'd been in lots of times before. He had lots of 
pictures before; and he was already a managing trustee, which meant he 
was a contributor.
    Question. And you had recalled the time before when he had come in 
and used your mess privileges before. Did he pay you back or----
    Answer. No, I don't--I don't recall him--you mean pay me back for 
the mess?
    Question. Yes.
    Answer. Like I said before, I never thought about it. I don't 
recall him paying me back, no. Like I said, unless Evan got a check 
from him, he didn't pay me back.
    Question. Do you recall ever saying anything to Evan Ryan about the 
check from Mr. Chung in any way going towards the DNC Christmas party 
debts?
    Answer. No, I don't.
    Question. Do you have any recollection of saying to anyone in your 
office anything about what Mr. Chung's money would be used for?
    Answer. No.
    Question. Did you have any idea in your mind what the money that 
he'd donated would be designated to or for?
    Answer. I would have no way of knowing. I mean, there would be no 
way of designating money at the DNC.
    Ms. Comstock. We will mark this February 28 Ann McCoy letter, 
JCH15011, Deposition Exhibit No. 31.
    [Williams Deposition Exhibit No. MW-31 was marked for 
identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Okay. Have you talked with Ms. Ryan about her 
recollection of these events?
    Answer. No, I have not.
    Question. Has anyone described to you in any way her recollection 
of these events? Has anyone else told you what her recollection of the 
events is?
    Mr. Dennis. Ms. Williams has had discussions with me, but those 
discussion----

                      EXAMINATION BY MS. COMSTOCK:

    Question. Aside from your attorneys?
    Answer. No.
    Question. Aside from you remember bowing to a group of people that 
Mr. Chung was with, was that only on one occasion that you recall him 
welcome a group of people?
    Answer. Uh-huh.
    Question. You saw them out in the hall somewhere?
    Answer. Yes, near my office.
    Question. Did you have an understanding of what they were doing 
there at that time?
    Answer. No, I just thought they were exactly as he described them, 
friends of Mr. Chung.
    Question. And did he tell you that they were friends, business 
associates from China?
    Answer. Yes, he told me they were from China. That's right.
    Question. And they couldn't speak English?
    Answer. Right.
    Question. Did you have an understanding that they were foreign 
friends?
    Answer. That was my understanding, yes.
    Question. And did you have an understanding that they were at lunch 
at the mess that day that you saw them--or had been?
    Answer. I don't know if I thought anything about what they were 
doing. I just think I--I mean, I just think I saw them in the hall, saw 
Johnny Chung, bowed and went wherever I was on my way to.
    Question. And when is the next time you recall having any 
interaction with Mr. Chung after you got the--actually, can you place 
the time where this bowing and meeting his friends, whether it was 
before or after the receiving the check?
    Answer. I just don't--I don't know.
    Question. And do you have any knowledge about them having a picture 
taken with the First Lady, that group of people that you thought 
couldn't speak English?
    Answer. I don't know. Like I said, I know that I arranged for a 
picture with Mr. Chung. I don't know who he took with him, if anyone.
    Question. Can you place in time when you arranged this picture in 
terms of just in relation to when you received money from Mr. Chung?
    Answer. No, I'm sorry.
    Question. Would you know if it is a year apart or----
    Answer. Oh, I just don't--I just don't know in time. I mean, 
there's so many--there's so many pictures I've arranged for so many, I 
just could not--I can't place it.
    Question. To your knowledge, Mr. Chung then did have somebody who--
he had his picture taken with the First Lady and then whoever else was 
with him. You just know about him having his picture taken; is that 
right?
    Answer. I was asked to arrange a picture for Johnny Chung. I 
believe that's what Evan asked me, and I said arrange it.
    Question. Was it your understanding that Evan then arranged the 
picture?
    Answer. That would generally be my understanding, that Evan would 
arrange it.
    Question. And then--did you learn then that that did occur then? 
That they went ahead and arranged----
    Answer. Probably never thought about it again.
    Question. And then did you ever have an occasion to have Mr. Chung 
call and ask for his pictures from the First Lady or anything?
    Answer. I don't believe he called and asked for his pictures from 
the First Lady. I think he probably would have called Evan for his 
pictures with the First Lady. I think the way the photographers may do 
it is that they take a card after they take the picture and mark the 
date and then send them out. I don't know quite--or send them to our 
office, one of our offices, saying, you know, attached to the card and 
we might send it out. I don't know how he got his pictures with the 
First Lady.
    Question. Do you know if there was ever any issues about don't send 
the pictures out with the First Lady and Mr. Chung's friends if there 
had ever been an issue of the pictures that she had taken with Mr. 
Chung's friends?
    Answer. No, I believe that there was, as I learned in my 
deposition, that there was an issue about sending Mr. Chung's picture 
with the President out, I think.
    Question. Okay. But in regards to the First Lady, have you ever--
was there ever any discussion about that?
    Answer. I don't believe so, no.
    Question. Is that a process that ever happens in the First Lady's 
office, don't send----
    Answer. Rarely. Rarely. I mean I can't think of an occasion. Unless 
she looks really awful in the picture, I can't think of why really we 
wouldn't send a picture to people who had had them taken.
    Question. Or if you find out after the fact that it's Jorge 
Cabrerra, that's a drug dealer, with you and somebody says don't send 
that picture out, we didn't know he was a drug dealer when he came in?
    Answer. That would be a determination that we would make, but I 
can't imagine that we would have made that determination with Mr. 
Chung, he had had so many pictures before.
    Mr. Dennis. And that's with the understanding that this all is 
hypothetical, right?
    Ms. Comstock. Right. I think Mr. Cabrerra had his picture taken 
with someone, but I have no idea. I think it was the Vice President. I 
don't know if he had a First Lady picture. I'm just generally talking 
about--putting that in a hypothetical.
    The Witness. I understand.

                      EXAMINATION BY MS. COMSTOCK:

    Question. These are the copies of pictures that we received from 
the White House with the----
    Answer. With the people who----
    Question [continuing]. The people who Mr. Chung brought to the 
White House on March 9th. And I will note for the record there aren't 
any dates on these pictures. But generally these are the ones, the 
names. And the names that are on these pictures, a number of them 
coincide with the people he had listed on his name list of delegation 
in the February 27th, '95 letter that he had sent.
    I am not good at pronouncing these names. I just notice the first 
name on the name list of delegation on DNC 3233327 is the name of the 
person in the picture that's reflected on EOP 029612. And----
    Mr. Ballen. Is there a question for the witness about this?

                      EXAMINATION BY MS. COMSTOCK:

    Question. Well, I just wanted to sort of establish that these were 
the same people, so I'm not asking you in a vacuum. I think Wang Ren-
Zhong, who is the last picture in this group, EOP 129165 is represented 
as number 4 here on his name list of delegation. The third picture, 
Huang Jichun, J-I-C-H-U-N, is also on the list as number 3 on the name 
list of delegation, and then there's a second page, EOP 029613 has a 
Yan Sanzhong, and I don't know if that--I don't see that exact spelling 
there. I don't know if that is any different spelling on one of these 
names on here. They often have different--sometimes there's different 
spellings, like when we talked about Mr. Ng Lap Seng before, he goes by 
Mr. Wu also.
    But three of the names do line up with the people that he had 
wanted to bring. And I was wondering if that refreshes your 
recollection in terms of in connection with this donation and giving to 
him, you know telling you about his friends that he wanted to bring and 
who they were, and you know, why they wanted to have their picture with 
the First Lady, if that helps you in being able to place these things 
in time at all?
    Answer. No, in my mind, the check that he gave had nothing to do 
with the picture or the mess or the tour, because we had a history of 
doing these things for him anyway.
    Question. So there were from previous events he had had pictures at 
Christmas events and things of that sort?
    Answer. He'd had tours, he'd eaten in the mess. I mean, there--and 
they seem unrelated to it.
    Ms. Comstock. I'd like to make these pictures Deposition Exhibit 
Number 32.
    [Williams Deposition Exhibit No. MW-32 was marked for 
identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Did Mr. Chung ever invite you or anyone else in the White 
House to your knowledge on any trips to China?
    Answer. Invite us to China? He was always inviting us to China.
    Question. And what did he----
    Answer. Just, come, I will show you China.
    Question. Did he ask you, if he was able to take you on trips or 
take you--take people from the White House, pay for their trips to 
China or do anything like that?
    Answer. No, huh-uh.
    Question. Was he ever giving you any gifts or providing any things 
for you to your office?
    Answer. He brought to our office three sweaters.
    Question. And who were those for?
    Answer. The President, Mrs. Clinton, Chelsea and I think he brought 
a sweater for me. But we did what we normally do, just turned it all 
over to the gift unit.
    Question. Okay. I will show the witness EOP 63825. And directing 
your attention to 63829 in this grouping.
    Answer. 63----
    Question. 829. Would these be the--these reflect--63831 and 32 
reflect donor information with a gift intended for the President from 
Johnny Chung and the First Lady from Johnny Chung, and the date is 
March 9th, 1995, the same day reportedly the check was provided?
    Answer. Uh-huh.
    Question. Do you recall him giving you the sweaters and the check 
at the same time?
    Answer. No, no.
    Question. And this indicates that these sweaters were handed to 
Margaret Williams?
    Answer. No, I remember that.
    Question. You remember the sweaters?
    Answer. I do remember the sweaters.
    Question. But you don't remember the sweaters occurring on the same 
day as the check?
    Answer. No.
    Question. Okay. And then could you just describe the process that 
you go through on the gifts? That is reflected here in this group of 
documents?
    Answer. I would hand them to Evan and she or an intern or a 
volunteer would fill out a gift form. There's a gift form that offices 
have. And then they would send it up to the--or wherever it is, the 
White House gift unit. The White House gift unit would then take them 
and send out a thank you note. And then they--I don't know quite how 
they do it, but they dispose of the gifts in some way. I don't know 
what they do with them.
    Question. Okay. And do you know what you did with your sweater?
    Answer. No, I gave--everything I had I gave to them. Even staff. 
Staff gifts----
    Question. We didn't--these are part of the documents we just 
received last night, so the only two we have or have been able to 
locate, and since we haven't--we've only had them since last night we 
got this donor information for the President and the First Lady?
    Answer. We received one for Chelsea.
    Question. And then one for you?
    Answer. Yeah, I'm pretty sure that was it. But even staff gifts go 
straight to the gift unit.
    Question. Okay.
    Question. And then the 63829 document, which has a thank you note 
to Mr. Chung, do you know whose handwriting is reflected on that?
    Answer. No, but it looks like it says gift unit draft. It's whoever 
works in the gift unit.
    Question. So they would just write the thank you letters?
    Answer. They would take care of the letter and everything, yeah.
    Question. And would those be signed by the President then?
    Answer. Well, yeah, this--this reads gift unit draft of Bill 
Clinton letter.
    Question. Okay. And so----
    Answer. Uh-huh.
    Question [continuing]. Do you know if you wrote any note to Mr. 
Chung after receiving the sweater?
    Answer. No, no, I didn't. They handle all of this.
    Mr. Ballen. When you say signed by the President, would it be 
signed by an auto pen?
    The Witness. Auto pen.
    Mr. Ballen. It's not something that the President would sign 
personally?
    The Witness. No, auto pen.

                      EXAMINATION BY MS. COMSTOCK:

    Question. EOP 063828, the page before that, is the letter that goes 
out to Mr. Chung from the President signed by the auto pen or however?
    Answer. Right.
    Question. And then there's a cc on here. Is that you got cc'd on 
these so that you knew? Is that the process?
    Answer. Right. It's just that if they were handed to me, or 
whomever, they would cc, so that you knew that the--a letter had gone 
out.
    Question. Okay. And then the page previous to that, EOP 63827, a 
March 12th, '95, there's gift of a large heart-shaped piece of jade 
with stand, which apparently was presented during the radio address. 
Did you learn about that?
    Answer. No, I wasn't there.
    Question. And do you know any of the handwriting on this sheet or 
is this from the gift office?
    Answer. This looks just like the gift register.
    Question. None of that handwriting is anybody from your office that 
you know of?
    Answer. Huh-uh.
    Question. Okay. And the first page of this EOP 63825. It says per 
Betty. Do you know, there's a Betty Currie in the President's office. 
Do you know was she the person who would ordinarily handle sort of 
these gifts if they were presented directly to the President?
    Answer. Yeah, I imagine so. I mean I don't know. She's in that 
office though. I don't know if she has assigned any work.
    Question. Do you know whose handwriting this is on this note?
    Answer. No.
    Question. It indicates Johnny Chung's friends presented this on his 
behalf when they visited with the radio address. And it says they don't 
know the friends' names?
    Answer. Right.
    Question. Did anyone ever come back to you after the radio address 
and say who were those guys with the President, we need to write a 
letter and find out who they are?
    Answer. No, no.
    Ms. Comstock. We'll make that Deposition Exhibit Number 33.
    [Williams Deposition Exhibit No. MW-33 was marked for 
identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Now, you had indicated the letter--the pictures with the 
First Lady that we reviewed, those generally would just go out when 
they came back in and you had no knowledge of in this case them being 
held up in any way or any issues that arose about them?
    Answer. The only--as I said before, the only issue I think there 
was was about the President's pictures with them at the radio address.
    Question. And your testimony is that you only learned of that in 
the press accounts this year or did you--at the time did you learn that 
there were any issues with the NSC holding up pictures with the 
President?
    Answer. Yeah, yeah, I think I knew about it at the time.
    Question. Oh, could you tell us about that?
    Answer. Just that I--just that I knew about it. I mean, I couldn't 
be helpful. I only knew that they were held up. Somebody called me from 
the NSC.
    Question. And what did they ask you about?
    Answer. I don't know if someone called me or I called somebody. 
Think Johnny Chung asked me to get--he hadn't received pictures from 
the radio address that he had attended.
    Question. Okay. What did he tell about that?
    Answer. I don't know. Just that he hadn't gotten them.
    Question. Did he tell you who--you know, who had----
    Answer. I don't remember.
    Question. Did he just complain, you know, where are my pictures?
    Answer. Yeah, pretty standard.
    Question. Were you aware of him calling the office and asking for 
the pictures?
    Answer. I don't know. For some reason I have a sense that he--I 
mean there's something about him not getting his pictures, the pictures 
from the President.
    Question. And you remember personally talking with him about that?
    Answer. I don't know if a person talked to him about it.
    Question. No, do you remember talking to him about the pictures?
    Answer. I don't know if I talked to him about it or someone told me 
about it. I mean, I could have talked to him, I don't know.
    Question. This is some phone messages from April of '95. The first 
one is April 3rd to Evan from Johnny Chung. It says re: pictures?
    Answer. Uh-huh. Excuse me.
    Question. Actually he called for Gina, who wasn't here, and then he 
asked for you. Can you tell us who Gina is?
    Answer. Yeah, she was an intern of ours.
    Question. And did she deal with Mr. Chung?
    Answer. Oh, yes, uh-huh.
    Question. And what can you tell us about Gina's interactions with 
Johnny Chung?
    Answer. Well, she was there during the periods he was popping in, 
and he also offered her a job which she took for a short time in China. 
I think China.
    Question. Is that Gina Ratliffe, is that her name?
    Answer. I don't know her last name.
    Question. And your recollection is that she took a job with him in 
China?
    Answer. I think it was in China or that she was definitely going to 
China or maybe that she started out in California.
    Question. Do you have a knowledge about her working in the office 
in D.C. here for him?
    Answer. No, I don't remember that. But I know that she worked for 
him. I don't know where he worked. I didn't know there was an office in 
D.C.
    Question. Do you recall when she worked for him?
    Answer. No.
    Question. Now in this memo, this phone message of April 3rd, 1995, 
indicates that he called for Gina. Presumably she's still there at that 
time?
    Answer. Yeah, I don't know.
    Question. Do you know generally if it was '95 or '96 when she left 
to work for him?
    Answer. I--I have no idea.
    Question. And do you know what she was going to be doing for Mr. 
Chung?
    Answer. No, I have no idea.
    Question. Did you talk with her at all about going to work for Mr. 
Chung?
    Answer. I definitely encouraged her to talk to her--I think her 
mother about it before making such a move, but she seemed very 
enthusiastic about it.
    Question. And how old was she, if you recall generally?
    Answer. I don't know.
    Question. In her 20's?
    Answer. Uh-huh.
    Question. Young gal?
    Answer. Uh-huh.
    Question. And do you know where she is today?
    Answer. No.
    Question. Do you have any idea what happened to her after she 
worked for Mr. Chung?
    Answer. I don't think she kept working for him.
    Question. Do you know what happened with that job?
    Answer. I know she left. She complained that he did not pay her.
    Question. At all?
    Answer. I don't know at all, but didn't pay her some money.
    Question. Okay. Did you think that was strange?
    Answer. I thought it was awful.
    Question. Did you ever talk with him about it?
    Answer. Oh, yeah.
    Question. And what.
    Mr. Ballen. To who about it?
    The Witness. Ever talk to Mr. Chung about it? Yes.

                      EXAMINATION BY MS. COMSTOCK:

    Question. And what were your discussions?
    Answer. It was just that if he owed her money, he should pay her 
because it was the right thing to do. And I was very unhappy. And I 
said I'm very unhappy about this, you know, something, too, like I 
thought much more of you. If you owe her money, you should pay her.
    Question. Can you recall generally when this conversation occurred?
    Answer. No.
    Question. Was it--presumably it was some time after April 3rd, '95, 
if----
    Answer. Could be. I don't know. Whenever she told me, and I don't 
know if she told me or Evan told me. But, you know, I knew and the next 
time I saw Johnny Chung, you know, I told him that this was not the way 
to operate.
    Question. And what was his response?
    Answer. I think I maybe petrified him a little bit.
    Question. Why so?
    Answer. Because I was--you know, I think that he was much more used 
to a kinder, gentler Maggie, but I was very unhappy if he had 
mistreated her, and I said that's just the wrong thing to do. That's 
not a fair thing to do, you know, I would expect so much more of you.
    Question. And what did he say?
    Answer. I'm sure it ended up with him saying he was going to pay 
her.
    Question. And do you know if he did in fact do that?
    Answer. I believe that he did, because I didn't hear any more from 
Evan about it or Gina and I would have heard something else from Evan, 
I imagine.
    Question. Do you know, did you just run into him at the White House 
somewhere, or how this occurred, this conversation, this situation?
    Answer. I think he was on one of his visits, one of his pop-in 
visits.
    Question. Now at this time, you were aware that he was a managing 
trustee, right?
    Answer. Uh-huh.
    Question. Did you find it strange that he wasn't paying his 
employees, someone who was giving large amounts to the DNC but won't 
pay his employees?
    Answer. No, that was really not the connection that I made. I mean 
at that moment, him being a managing trustee had very little to do with 
my disappointment in him.
    Question. No, but in the sense that he--a managing trustee 
generally is someone who presumably has some means and money. Would 
that be a fair assumption? Or is that how you would think of someone, 
that they are not someone who is scraping by?
    Answer. I did not have any thoughts, quite frankly, about him being 
a managing trustee or if he could pay her or not pay her. For me the 
issue was very simple. If he had had only two sticks to rub together, 
if he had promised to pay her, the fair thing to do was to pay her, 
whoever he was.
    Question. You said--I'm sorry, the word you used was--he was used 
to a kinder, gentler Maggie?
    Answer. Yeah, I think he was kind of a little bit startled, but I 
just felt it was not a good thing to treat a young person unfairly.
    Question. And so you don't know what happened after that with Gina?
    Answer. I believe I would have heard if I had not been successful 
in making my point to him.
    Question. So that as a result of your talking to him, that Gina got 
paid?
    Answer. I cannot say directly, but I can say I do not think it 
hurt.
    Question. Did you mention to anybody else that he hadn't been 
paying Gina?
    Answer. No, I didn't think that it needed to go beyond that. I'd 
spoken to him, and if the matter was resolved, which I assumed it was 
or I would hear it differently, it was over.
    Question. Do you know how much she was supposed to be paid?
    Answer. No, I didn't know any of the particulars.
    Question. Was she a paid intern or a volunteer?
    Answer. She was a volunteer.
    Question. So when she was in the First Lady's office she wasn't get 
any salary or was she getting paid by the DNC or anybody?
    Answer. Oh, no, she wouldn't--I believe she was just a straight 
volunteer.
    Question. Okay. So when she left to go work for him, she was 
leaving an unpaid job to go----
    Answer. Get a paying job.
    Question. And do you have a sense generally of how long she stayed 
there?
    Answer. I just never focused on it.
    Question. Aside from hearing that she wasn't getting paid, did you 
hear anything else about her job?
    Answer. No, I never--I mean, I really never thought any more about 
it there. We get lots of interns passing through our shop, but these 
were the two things I heard about Gina.
    Question. Prior to when Gina left, do you know how long she had 
been at the White House?
    Answer. I--I don't know.
    Question. And after she left and she was working for Mr. Chung, did 
she ever call to try to get appointments or setups or anything or use 
her mess privileges with Mr. Chung?
    Answer. I have no idea. Not that I knew.
    Question. Did you continue to--despite this somewhat being upset 
with him for not paying Gina, did you continue to allow him to get into 
the White House if he would call? Did you ever say anything to Evan 
about let's not let him in any more or----
    Answer. You know, probably not. I'm the kind of person that once a 
situation is resolved, I believe that nobody is perfect and many times 
people just need to have a situation brought to their attention so that 
they can handle it in the right way. And after that's done, everything 
is fine.
    Question. Did--when you discussed this with Mr. Chung and you 
indicated, you know, that you didn't think--you know, that you expected 
more of him and things like that, did you ever mention anything about 
the First Lady would be disappointed or that--anything about----
    Answer. No, no, I was--I was confident in my own right that I could 
say these things to him.
    Question. And you knew he thought highly of you, and----
    Answer. Well, I don't know.
    Question [continuing]. And wanted access to you?
    Answer. I don't know whether or not he thought highly of me or not. 
I don't know what he thought. But I do know that I felt confident that 
as a person who could see clearly the difference between what was wrong 
and what was right with respect to this young person, I certainly felt 
I could speak to the issue.
    Question. Okay. And then continuing on the pictures then, after the 
call, there's a call to Gina on 4/3, then there's a call to Evan on 4/1 
from Irene at AISI. Do you recall an Irene from his office ever 
calling----
    Answer. I don't remember.
    Question [continuing]. Asking about pictures? It could be a 4/4 
there, it's difficult to read. And then there's another message on 4/7. 
I'm not clear there if it's Marge or Maggie. Because some of his visits 
were to Marge Tarmey, so I don't know. This is 59029 and it is a 4/7 
phone message. It's Irene and Johnny Chung's office, AISI and it has a 
310 number. I don't know if that's California or----
    Answer. I don't know.
    Question. Do you recall calling him in his California office or 
discussing----
    Answer. I don't----
    Question [continuing]. The pictures with him?
    Answer. I don't know if I talked with him in person, if I talked to 
him on the phone, if Evan talked to me about it, but I remember that 
there was an issue about his pictures.
    Ms. Comstock. We will make that Deposition Exhibit Number 34.
    [Williams Deposition Exhibit No. MW-34 was marked for 
identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. You have previously discussed that you did hear about the 
President's--the pictures with the President from the radio address 
which had been, I guess, on April 11th. That you had heard that the NSC 
had some questions. Could you just describe in a little bit more 
detail, you know, what--how you learned what the NSC had any issues 
about--the pictures of Mr. Chung's friends?
    Answer. I don't know if I called the NSC. If I asked Evan to call 
the NSC, and said--I mean, basically, the NSC is, as a unit, not very 
talkative, but I would say that my indication from them was that they 
preferred not to send the pictures with the President to Johnny Chung.
    Question. And why was that?
    Answer. I really don't recall what the reason was, but it was clear 
that they--I don't know if they told me a reason or they said they 
preferred not to.
    Question. Do you recall who you talked to then?
    Answer. No, I mean, the NSC, their office.
    Question. Do you know if you--I guess have you seen this e-mail?
    Answer. Only in the last deposition.
    Question. Okay.
    Answer. I have never seen it before.
    Question. The way these read is the first e-mail is on the bottom 
of the page and I believe--actually, the timing looks different, 
actually, maybe the top one is the first. So I will start at the top.
    Okay. I am a little confused here because the time on the e-mail 
makes it look like the top one is earlier than the bottom one, yet the 
bottom one seems to--and the top one seems to be responding to the 
bottom one, but at any rate, why don't we start at the bottom.
    Mr. Ballen. In any case, the first time she saw these was at a 
deposition.
    Ms. Comstock. That is fine.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you know Melanie or Brooke Darby at all?
    Answer. No.
    Question. Do you know if you ever talked with her, if this is a 
person--if you talked to a man or woman in the NSC, if you recall if it 
was male or female?
    Answer. I don't know. I mean, I called the NSC. I don't really 
recall. Like I said, I just don't recall. I only recall the gist of it.
    Question. Okay. And the portion from Brooke Darby reads:
    ``An odd situation on which I need some guidance for the 
President's office asap:
    ``A couple weeks ago, late Friday night, the head of DNC asked the 
President's office to include several people in the President's 
Saturday radio address. They did so, not knowing anything about them 
except they were DNC contributors.
    It turns out they are various Chinese gurus and the POTUS wasn't 
sure we'd want photos of him with these people circulating around. 
Johnny Chung, one of the people on the list, is coming in to see Nancy 
Hernreich tomorrow and Nancy needs to know urgently whether or not she 
can give him the pictures. Could you please review the list asap and 
give me your advice on whether we want these photos floating around? 
FYI, these people are major DNC contributors and if we can give them 
the photos, the President's office would like to do so.''
    Mr. Ballen. Is there any purpose in reading this?
    Ms. Comstock. So we know what we are talking about for the record.
    Mr. Ballen. The witness indicated she never seen this before.
    Ms. Comstock. She also testified she talked to somebody in the NSC 
about it.
    Mr. Ballen. So.
    Ms. Comstock. And we can go through documents to refresh the 
recollection of a witness who has testified that she has talked to 
people about the NSC.
    Mr. Ballen. Then ask if this document refreshes her recollection.
    Ms. Comstock. You can ask your questions during your time and I 
will ask the questions I would like to during my time.
    Mr. Ballen. We have been here for 8\1/2\ hours now asking 
questions. We need to have consideration for the witness' time in terms 
of getting to the point.
    [Discussion off the record.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Back on the record. Do you recall talking to Nancy 
Hernreich in the President's office about the pictures of Johnny 
Chung's friends?
    Answer. I don't recall talking to her.
    Question. Okay. The memo here says that Johnny Chung was going to 
go in to see Nancy Hernreich. Do you recall if he told you he was going 
to go in and see Nancy Hernreich about the pictures?
    Answer. No.
    Question. What is your knowledge of how Mr. Chung got the pictures?
    Answer. I don't know.
    Question. You have no knowledge of how he ended up with them?
    Answer. No, I don't. I don't remember.
    Question. Okay.
    Answer. I don't. I mean, did he get them.
    Question. I believe those are the pictures that we had referred to 
earlier. The pictures of his friends were the ones who had been there 
in the radio address, with the First Lady?
    Answer. Well, I mean, I don't know if he got them.
    Mr. Dennis. These are pictures of Mrs. Clinton, not of the 
President.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Okay. This is a DNC, Office of the Chairman, memo to 
Johnny Chung from Carol Khare, K-H-A-R-E, regarding photo, and the 
comments on here are: ``The White House assures me that you now have 
the pictures, hurray. If you don't, give me a call. Have a good trip,'' 
and that is fax date 4-11-95 on the top.
    Answer. Can we go off record for a second?
    [Brief Recess.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Back on the record. Returning to the Suettinger and Darby 
e-mail, do you recall any--other than you talked to somebody in the 
NSC, do you recall any other exchanges within the White House about 
these NSC concerns?
    Answer. I don't.
    Question. And you had indicated that you thought the NSC didn't 
want to send him the pictures?
    Answer. That was my sense, yes.
    Question. And is your testimony that you don't know whether or not 
it was--how it was resolved?
    Answer. Right.
    Question. So you didn't know whether or not he ever got his 
pictures?
    Answer. No.
    Question. He never asked you again or?
    Answer. No, I only remember that one instance, and if the NSC said 
they preferred not to, I didn't do anything else past that----
    Question. Okay.
    Answer [continuing]. That I can recall.
    Question. Okay. These are two letters. One is to Don Fowler and one 
is to you from Mr. Chung. They are similar letters. Is that your fax 
number, [redacted]?
    Answer. Right.
    Question. Okay. And do you recall receiving this from Mr. Chung?
    Answer. Could be. This may be how I heard or got the request that 
he didn't get the pictures.
    Question. Okay. Do you know if you would have kept a document like 
this?
    Answer. A fax, no.
    Question. A letter from Mr. Chung asking about these?
    Answer. No.
    Question. Okay. In the letter, it says, ``I have an important issue 
here that needs your assistance. As you always know, I am 100 percent 
supportive of the First Lady's office, always delighted to work with 
the DNC on every occasion,'' and then he goes on to discuss the 
business delegation, trying to get the pictures and he says, ``I have 
learned from Mr. Richard Sullivan at the DNC, National Security Counsel 
is holding on to those pictures.''
    Do you know anything about how he learned--how Richard Sullivan 
learned of the pictures being held up?
    Answer. No.
    Question. Did you ever talk to Mr. Sullivan?
    Answer. No.
    Question. Do you know of anybody at the White House who talked to 
Sullivan?
    Answer. No.
    Question. Do you know who from the DNC was in touch with people at 
the White House to get pictures, when DNC people tried to get pictures?
    Answer. I think it varied from office to office. It probably 
depended on the event or----
    Question. Do you know--so you don't know if Mr. Sullivan ever 
called anyone in your office?
    Answer. No.
    Question. And in the second paragraph, he says, ``If we are going 
to get our pictures taken with the President, you know, we should be 
courteous enough to let them have the pictures.''
    Did he ever express anything like that to you about, you know, we 
are going to take our pictures and, you know, they are my friends and 
then you are not giving me my pictures?
    Mr. Dennis. This is a letter addressed to her.
    The Witness. This letter is addressed to me.

                      EXAMINATION BY MS. COMSTOCK:

    Question. That is what I am saying, do you remember discussing that 
with him?
    Answer. You mean verbally?
    Question. Yes.
    Answer. No.
    Question. Did he ever indicate that, you know, he needed to take 
the pictures with him to China, which is reflected in the next 
sentence?
    Answer. Only here.
    Question. And then he closes with saying, ``I look forward to 
seeing you this weekend at Mr. Steven Spielberg's party. Thank you 
again for everything.''
    Did you in fact see him at a Steven Spielberg party?
    Answer. No, I wasn't invited to a Steven Spielberg party.
    Question. I am assuming he means the producer, which is misspelled.
    Answer. I understand that, but, no.
    Question. And the other letter that he wrote to Mr. Fowler is, 
Donald Fowler, Chairman of the DNC, is essentially similar.
    Do you know if Mr. Fowler talked to anybody in your office about 
getting these pictures from Mr. Chung?
    Answer. No.
    Ms. Comstock. I would like to make the April 5th letter to Don 
Fowler--I'm sorry. Why don't I make the e-mail we were previously 
discussing, the Suettinger e-mail, Deposition Exhibit No. 35, and then 
the April 5th letter to Fowler, Deposition Exhibit 36, and the April 
5th letter to you from Mr. Chung, to Margaret Williams from Mr. Chung, 
make that Deposition Exhibit No. 37.
    [Williams Deposition Exhibit No. 35 was marked for identification.]
    [Williams Deposition Exhibit No. 36 was marked for identification.]
    [Williams Deposition Exhibit No. 37 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. And then we had previously shown you, I think it was 
before we went off the record, the DNC fax to Johnny Chung. This is 
Johnny Chung, JCH 1251, which it says, ``The White House assures me you 
now have the pictures.''
    Do you know of anybody in your office being in touch with Carol 
Khare at the DNC?
    Answer. No, and I don't know who she is.
    Question. You don't know who she is; you never talked to her?
    Answer. No.
    Question. Okay.
    Ms. Comstock. I will make that Deposition Exhibit No. 38.
    [Williams Deposition Exhibit No. 38 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. And this is a March 28th, 1995, memo from Betty Currie. 
It is a redacted--it appears to be a redacted memo. It is not marked as 
redacted, but portions of it appear to be missing. But number two here, 
the only part on here, talks about, Ceandra Scott called, said she was 
concerned about Johnny Chung.
    Do you know who Ceandra Scott is at the DNC?
    Answer. Yes.
    Question. Do you know who she is?
    Answer. Yes. She worked in the chairman's office at the DNC.
    Question. Okay. And does Betty Currie normally do memos for the 
President at the White House?
    Answer. I don't know.
    Question. Or does she do them for--besides--I mean, she is the 
President's secretary, is that correct, and in his personal office?
    Answer. Yes, but I don't know how they are arranged.
    Question. Okay. I am wondering, do you know, aside from the 
President, anybody that Betty Currie does work for or writes memos to?
    Answer. I don't--I really don't know----
    Question. Okay.
    Answer [continuing]. How they arrange their work.
    Question. Did you ever have any conversation with Ceandra Scott 
about Johnny Chung?
    Answer. Not that I can recall.
    Question. Do you know if anyone in your office did?
    Answer. I don't know.
    Question. Have you seen this document before?
    Answer. Prior to my deposition.
    Question. In a previous deposition or in reviewing documents prior 
to that?
    Answer. At a deposition.
    Question. And I don't mean to go into if you discussed documents 
with your attorney.
    Answer. At a deposition I saw this.
    Question. Okay.
    Answer. And----
    Question. But the memo indicates she stated that we should have 
called them prior to their coming to the radio address, and I guess 
``them'' meaning the DNC. Ms. Scott works at DNC in the chairman's 
office?
    Answer. Yes, she does work there.
    Question. Do you recall any discussions that you should have called 
the DNC before allowing these folks to go to the radio address?
    Answer. I couldn't make any sense of what she meant.
    Question. So where she is saying here, apparently, they were in 
Maggie's office when requests came, and Maggie said she didn't know but 
to contact DNC, you don't know----
    Answer. I don't know what she meant by this.
    Question. And you had no discussion with anybody that allows you to 
make any sense of this document?
    Answer. I have read it over several times. I don't quite know what 
they mean, ``when requests came'' and ``Maggie said she didn't know but 
to contact DNC.'' I mean, I don't know.
    Question. Did the radio addresses normally get set up by the DNC, 
who would go on the radio addresses?
    Answer. No, but I think that the DNC, as I said before, can 
certainly, you know, recommend people they would like to come to the 
radio address, as anyone can.
    Ms. Comstock. Okay. I will make this EPO 55492, the March 28 
current memo, Deposition Exhibit 39.
    [Williams Deposition Exhibit No. 39 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Now I have given you this March 6, '95 memo to Bobby, 
which was Bobby Watson, from Richard Sullivan, and it discusses Johnny 
Chung trying to get work from the DNC. Did you have any knowledge about 
him, his blast fax being used at the DNC?
    Answer. No.
    Question. Had you seen this document before?
    Answer. This is the first time I have ever seen it.
    Question. And in this document they discuss AISI, Mr. Chung's 
company, as used by many political clients, including Governor Chiles 
and Senator Kennedy and others. Did Mr. Chung ever tell you Senator 
Kennedy or Governor Chiles used the system?
    Answer. Not that I remember.
    Question. Okay. And so you have no knowledge about him getting this 
contract at all?
    Answer. No.
    Ms. Comstock. Make that Deposition Exhibit No. 40.
    [Williams Deposition Exhibit No. 40 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. And just returning to when Mr. Chung gave you what--what 
you recollect of him giving you a check, you did not know the amount of 
the check at that time?
    Answer. No.
    Question. You didn't open the envelope--or you don't recall if it 
was in an envelope?
    Answer. I don't recall.
    Question. But you had some recollection you thought it was $10,000?
    Answer. For some reason, I thought it was $10,000.
    Question. And do you recall him giving you any note with the check 
or anything like that?
    Answer. No.
    Question. He has indicated that the note, it said something like, 
``I do what I can to help,'' something to that effect. Do you recall 
him giving you any type of note like that?
    Answer. No.
    Question. Do you have any knowledge of how Mr. Chung would know 
anything about debts that the DNC owed for White House Christmas 
parties?
    Answer. I don't know. It would--I mean, I don't know.
    Mr. Dennis. Don't speculate.

                      EXAMINATION BY MS. COMSTOCK:

    Question. You never discussed that with him?
    Answer. With Johnny Chung?
    Question. Yes.
    Answer. No.
    Question. And this is a memo to Margaret Williams to Gary Walters 
of March 24, 1995, regarding unpaid bills for collection issued by the 
executive residence at the White House for fiscal years '94 and '95. 
Did you deal with Mr. Walters on these type of bills?
    Answer. Yes.
    Mr. Ballen. She testified to this already.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you recall receiving this memo? I'm sorry, you have my 
copy again.
    Answer. I don't recall this one specifically, but as I testified, I 
said from time to time he would talk to me or give me a memo.
    Question. This is DNC document 3078128 through 31. Do you recall on 
or around, you know, late February, early March of
    '95, discussing the bills with Mr. Walters?
    Answer. I don't recall the specific time, but as I said, you know, 
from time to time I would get a memo or I would see him and he would 
tell me about it, and I would talk to him about it and say I will call 
somebody at the DNC or, as I said before, I would tell Mr. Ickes, ``I 
think they should pay their bills'' or, you know.
    Question. And do you know what Mr. Ickes would do?
    Answer. No.
    Question. And so you would--Mr. Walters would--do you know where in 
the process he would--he is writing you a memo here. Was this after 
having had a number of discussions with you about it, or if he had 
talked to others, or where in the process of the sort of efforts to 
collect on the bills that this memo may have come, if you know?
    Answer. I mean, I don't know if he had a process or any kind of 
timing around writing a memo or talking to me about it, about the 
bills. I don't think it is anything that he had a planned time or 
process.
    Mr. Dennis. I will just make a note that on this document there are 
a number of instances in which the bill had not been submitted, no 
address, question mark, DNC. I will just bring that to your attention.

                      EXAMINATION BY MS. COMSTOCK:

    Question. But in early 1995, were you aware of the DNC--you said 
they had been habitually late in paying bills.
    Answer. Yes.
    Question. Were you aware of them not having paid Christmas bills?
    Answer. Whatever Mr. Walters had alerted me to, I knew that they 
hadn't paid.
    Ms. Comstock. I will make that Deposition Exhibit No. 41.
    [Williams Deposition Exhibit No. 41 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Then this is another document, DNC 3080883 through 6, 
which was immediate attention, a fax from the White House to Joe 
Sandler from Jodie Torkelson. Can you tell us who Jodie Torkelson is?
    Answer. I don't know what her title was, but she was ahead of 
administration at the White House.
    Mr. Dennis. I think this is your copy again.
    Ms. Comstock. Sorry. Thank you.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you know, the previous memo we reviewed had not been 
sent to Jodie Torkelson. Do you know why Jodie Torkelson by August of 
'95 had been brought in and memoed on this from Mr. Walters, if you had 
any discussion with Mr. Walters about that?
    Answer. No.
    Question. Do you know if you had any meetings with Ms. Torkelson 
and Mr. Walters about these matters?
    Answer. I don't know if we had a meeting. I was aware that Jodie, 
obviously aware that she received it, since I see her name here. But I 
would just be speculating as to why they went to Jodie.
    Question. Directing your attention to--it actually was on the 
previous document, on the third page of it, the March memo from Mr. 
Walters, and on the third page of this memo there is an indication that 
there was a partial payment of $198,714.56 made on March 15, 1995 for 
various events up to that time, apparently, that were overdue.
    Mr. Ballen. Counsel, where on the document are you?
    Ms. Comstock. 3080886, in the September 5, 1995 fax, I should say 
August 1, 1995 memo, and then it's on page 3, DNC 3078130 of the 
previous memo we were discussing from Gary Walters, March 24, 1995 
memo. There is an indication that close to--approximately $200,000 
payment for receptions and events was paid by the DNC on March 15, 
1995. Do you recall in or around mid-March----
    Mr. Dennis. I'm sorry, where does it say about the DNC? I want to 
make sure.
    Ms. Comstock. It says partial payment. This is saying partial 
payment for the events, so I don't know that they are all--you are 
correct, it doesn't say DNC, it just says partial payment. I'm sorry 
about that.
    Mr. Dennis. I don't know, because there are other things that are 
kind of mixed in.
    Ms. Comstock. There are press events in here, some of them are the 
press not paying; other people are involved in this.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you know, at or around mid-March, 1995, anything about 
the DNC making payments to the office?
    Answer. No.
    Ms. Comstock. Okay. I will make that Deposition Exhibit No. 42.
    [Williams Deposition Exhibit No. 42 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Aside from the one conversation that you have relayed 
already today with the First Lady about Johnny Chung, did you have any 
other conversations with the First Lady about Johnny Chung?
    Answer. Ever have any?
    Question. To date, if you have had any conversations about Johnny 
Chung.
    Answer. To date, yes.
    Question. And can you tell us when those--approximately when and 
what the substance of those conversations was, would be?
    Answer. It was after there was a newscast about the Johnny Chung 
check for the DNC being handed to me by Johnny Chung, and she called me 
and she said, you know, ``How are you doing?'' She was trying to find 
me. She beeped me, she said, ``How are you doing? What is going on?'' 
And I said I essentially took this check and gave it to the DNC.
    Question. Did she ask you about what happened or what this is 
about?
    Answer. Yes, and that is what I told her.
    Question. So she asked you, you know, what is this, what can you 
tell me about it?
    Answer. She said, ``What happened?"
    Question. All right. And you told her?
    Answer. I told her, because she had seen this on the news, I told 
her Johnny Chung gave me a check for the DNC and I sent it to the DNC.
    Question. And what did she say?
    Answer. She agreed with me that this seemed rather ridiculous, to 
lead the news with something like this.
    Question. Did you have any further discussion, do you recall?
    Answer. No. Then I just said to her, you know, ``Don't worry about 
it.''
    Question. And did the press people at the White House also talk 
with you about that, or did you have your attorney handle the matters?
    Answer. I had my attorney.
    Question. So the only person you talked about this with when the 
press stories came out was Mrs. Clinton?
    Answer. Yes, and--oh, at the White House, yes, and my attorney 
dealt with everyone else.
    Question. Did they ever talk with Evan Ryan about Mr. Chung when 
the news accounts came out?
    Answer. Yes, when there was a particularly tough article about her 
in Time magazine, she was very upset, and I talked to her and I told 
her that this was the price of public life in the nineties.
    Question. Did she talk to you about her account, her recollection 
of what Mr. Chung had done in connection with the check?
    Answer. No.
    Question. Do you know if she had any?
    Answer. No. If there is one thing that these experiences have 
taught us over the 4 years, it is not to talk to each other.
    Question. You had mentioned that Johnny Chung generally talked 
about, you know, you should come to China and that kind of thing. Were 
you aware of Don Fowler ever planning on making trips to China with 
Johnny Chung or going on any business trips with Mr. Chung?
    Answer. No.
    Question. He never mentioned that to you, or anything like that?
    Answer. No.
    Question. Okay. Returning to the WAVEs, Mr. Chung continues--after 
this March 8th, 9th time frame, he continues to be WAVEd into the White 
House, usually by Ms. Ryan. Do you know what he was coming in for in 
any of these other cases?
    Answer. I think no differently than before, wanting to stop by, 
wanting to walk around. I don't have any other information.
    Question. Okay. If he needed to use the mess and that kind of 
thing, that still went on and continued to go on, or did that stop at 
some point?
    Answer. It depends. At whatever point that the White House counsel 
issued a policy memorandum, I think about the use of mess accounts, so 
if he had asked me prior to that time--and I don't know what this time 
frame is and how it fits in, when the White House sent out their memo 
about use of mess accounts--that if he had come prior to that, I would 
have let him use my mess account. If he had come after that memorandum, 
then I would not have.
    Question. Okay. I think from the WAVE records we have, his last 
visit appears to be June 15th, 1996. Does that help you recall at all?
    Answer. You would have to--I don't know when that memorandum was 
issued.
    Question. Actually, he wasn't WAVE'd in by Ryan at that time, it 
was Forster who WAVE'd. Do you know Forster in the West Wing?
    Answer. No.
    Forster?
    Question. Forster.
    Answer. No. You can let me see the spelling. I don't know anyone 
offhand.
    Question. F-O-R-S-T-E-R, page EPO 5029?
    Answer. No, I don't know anybody with that name.
    Ms. Comstock. We will make this WAVE grouping Deposition Exhibit 
No. 43, and it is the WAVEs records we have been discussing throughout 
the deposition, just so it is clear for the record.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Did Evan Ryan ever complain or raise to you anything 
about Johnny Chung, like when he kept continuing to call?
    Answer. Yes.
    Question. And what did she say?
    Answer. She was irritated by it.
    Question. And what did she say that led you to thing she was 
irritated?
    Answer. Knowing Evan, she said, I am irritated by it.
    Question. And why, that it was frequent, he is a nuisance?
    Answer. Yes, she just found him annoying.
    Question. And what did you tell her?
    Answer. Pretty much a lot in life is annoying, but if he was not 
hurting anybody, and there didn't seem to be any indication of it, I 
expected her to work harder at her tolerance level, and that he should 
still be treated very well.
    Question. These are some phone records from September '95; again, a 
message to Evan Ryan on 10-20-95, says, sending flowers to you and 
Maggie.
    Do you recall receiving flowers from Mr. Chung?
    Answer. Maybe. I don't know. Could be.
    Question. What is the process--when you get flowers at the White 
House, do they have to get checked out?
    Answer. Yes, they go through a check and an X-ray machine, and 
somebody brings them up, and it is probably the only thing you can keep 
in the White House because they know that it will die.
    Question. Are flowers frequently delivered to the First Lady's 
Office?
    Mr. Ballen. I am going to object. This witness has been here almost 
10 hours, and we are talking about flowers.
    Could I finish my objection, please?
    The witness has been here, we have been here for 10 hours now, and 
we are now going to ask her about the procedure for flowers.
    The Witness. They have been delivered. I don't think it is terribly 
frequent.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you recall getting flowers from Mr. Chung?
    Answer. No.
    Question. Okay. And then on another occasion, September 29th, 1995, 
he also indicates in the message, sending a couple of baskets of 
flowers for you and Evan.
    Do you have any recollection of that?
    Answer. No.
    Question. Do you know of any particular favors or anything he was 
asking at this time that would generate sending flowers?
    Answer. No. Once again, there is nothing that Johnny Chung would 
have to do for us to have treated him well, nothing.
    Ms. Comstock. Why don't I make the 9-29 message from Johnny Chung, 
EPO 59074, Deposition Exhibit 44; and EPO 59059, which is the 10-20-95 
message, make that 45.
    [Williams Deposition Exhibit No. WM-44 was marked for 
identification.]
    [Williams Deposition Exhibit No. WM-45 was marked for 
identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. The WAVE records indicate that Johnny Chung was at the 
White House on 10-19-95. I believe it's at or around the time, if not 
the date, at or around the time of the Hazel O'Leary check of $25,000 
that was given to Hazel O'Leary.
    Do you know if anyone at the White House ever discussed with Mr. 
Chung anything regarding Hazel O'Leary?
    Answer. No. The first I have heard about that was on the news last 
week.
    Question. Okay. Did Johnny Chung ever tell you he was interested in 
meeting Secretary O'Leary about any energy matters?
    Answer. No, Johnny Chung never asked to meet with anyone. He never 
asked me about meeting with anyone.
    Question. Okay. Did he ever talk about--at least one of them was 
one of the ones of the five people who were in the radio address--but 
any people involved in the petrochemical business or the oil business?
    Answer. No.
    Question. Were you aware of him talking with George Stephanopoulos 
about his oil business or any of his businesses?
    Answer. No.
    Question. Or any efforts to get together with Mr. Stephanopoulos 
over any business matters?
    Answer. No.
    Question. Do you know if he ever talked to George Stephanopoulos 
about getting in touch with any Chinese VIPs?
    Answer. I didn't know he ever talked to George Stephanopoulos.
    Question. So you have no knowledge of him talking with George?
    Answer. None at all.
    Question. Aside from what you have read in the press, do you have 
any knowledge of the Hazel O'Leary Africare contribution? I am sort of 
shorthanding it here, you know, referring to the recent press articles. 
This is a copy of an NBC News transcript on this, which is discussing 
his allegations regarding Secretary Hazel O'Leary providing $25,000 to 
a favorite charity.
    You have no knowledge of any of the events or cannot enlighten us 
to how any of these events came about?
    Answer. No, I didn't know he even knew Secretary O'Leary.
    Ms. Comstock. I will make that Deposition Exhibit No. 46, just so 
the record is clear, kind of what we are referring to here, since we 
are moving through that fairly quickly.

                      EXAMINATION BY MS. COMSTOCK:

    Question. You indicated you thought he may have given you the 
business cards of the gentlemen who you recall bowing to?
    Answer. Uh-huh.
    Question. Do you recall if you kept those or what you did with 
them, or was that sort of going in a drawer?
    Answer. I think they were in Chinese. I just never saw myself as 
having any use for them.
    Question. Do you know if any type of--in the discussions with the 
NSC people, do you recall if there was any type of background check run 
on these guys, the five guys who went to the radio address that raised 
the red flags?
    Answer. I don't know what they do, what they would do.
    Question. Was there anything in particular you recall that made 
them leery of them, that they wouldn't want--you said you had a sense 
they didn't want the pictures out. Did you have an understanding of, 
gee, who was it that I let in there that the NSC doesn't want the 
pictures out?
    Answer. Well, the NSC----
    Mr. Dennis. Well, before you answer that question, that question 
assumes she let them into the radio address.
    The Witness. I didn't even think about that.

                      EXAMINATION BY MS. COMSTOCK:

    Question. To the extent they were in, and people are asking you now 
or you are talking about them, you know, who are these people who came 
in, and they are asking about it, did you have a sense of what their 
concerns were about these people?
    Answer. In general the NSC and any people who are concerned with 
security at the White House never explained. I mean, they just never 
explained.
    Question. No one said anything like, these are Chinese nationals 
that are connected with anything, it is just sort of we have a general 
concern, you don't have a need to know?
    Answer. I don't know the specifics, but I do know they expressed 
some kind of preference that going any further really wasn't, you know, 
worthwhile.
    Question. And the e-mail that we have previously looked at, the NSC 
e-mail, referred to them as a hustler. Do you recall them ever saying 
anything about him trying to use his access to the White House and how 
he might use these pictures?
    Answer. No.
    Question. Do you recall--are you familiar with the picture that he 
had with the beer executives that has been on the news quite a bit?
    Answer. I don't really recall.
    Question. Do you have any recollection about him bringing the beer 
executive people from China into the White House?
    Answer. No. I mean, I wouldn't know who they were.
    Question. After, given the NSC had raised concerns about the people 
who were with Mr. Chung, did that ever cause anybody in your office or 
for you to re-evaluate the continued access of Mr. Chung to the White 
House?
    Mr. Ballen. Excuse me. Was it your testimony that they raised 
concerns or that they just weren't using pictures?
    The Witness. They weren't really seeing the pictures.
    Mr. Ballen. There is a difference.

                      EXAMINATION BY MS. COMSTOCK:

    Question. You weren't aware at that time they considered him a 
hustler or might use his access to the White House, the NSC, anyone at 
the NSC?
    Answer. I wasn't, but, my God, if we kept hustlers out of the White 
House and the halls of Congress, who would there be?
    Question. I wanted to ask you just a few questions about the Back 
to Business Committee. You have previously testified that Lynn Cutler 
gave frequent meetings at the White House regarding women's issues?
    Answer. Yes.
    Question. Did you ever discuss with Ms. Cutler the Back to Business 
Committee?
    Answer. Over the phone, I remember when Lynn and I, and I guess 
some others, talked about the idea of having this kind of committee 
that would mostly do public responding to some of the issues that had 
been raised, that seemed to have very little to do with governing, and 
she told me about the idea, and, you know, I was delighted to hear 
there were people outside who were going to be doing that.
    Question. And was it your understanding Ms. Cutler was going to be 
involved in orchestrating that?
    Answer. Well, that she was going to be involved with other people. 
There were a good number of people who had already been responding on 
television who were not in the White House. Lynn Cutler had been one of 
them, and there were other people, and they decided to be more 
organized about it.
    Question. Okay.
    Mr. Ballen. I am going to object to this line of questioning on the 
Back to Business Committee as being outside the relevant scope of this 
inquiry. Is there a specific question related to specific campaign 
fund-raising improprieties or law? Perhaps I could recall the 
objection.

                      EXAMINATION BY MS. COMSTOCK:

    Question. What was Anne Lewis's role with the committee?
    Mr. Ballen. Same objection.
    The Witness. She was a spokesperson.

                      EXAMINATION BY MS. COMSTOCK:

    Question. All right. And she is currently the communications 
director at the White House; is that correct?
    Answer. That is correct.
    Question. Did you ever have discussions with her about the Back to 
Business Committee?
    Answer. About the committee?
    Question. Uh-huh.
    Answer. Not about the committee itself. I certainly knew when they 
had people they were putting on television.
    Question. And did you ever discuss the Back to Business Committee 
with the President and First Lady?
    Mr. Ballen. Same objection.
    The Witness. I don't believe I have discussed it with the 
President. I can't imagine that I didn't mention to Mrs. Clinton that 
there were outside people who were actually getting on the airwaves and 
taking on some of these charges.
    Mr. Dennis. Before we go any further, point of procedure. When an 
objection is made, is that basically preserving for the record?
    Mr. Ballen. If you want to join in the objection, in terms of the 
witness not answering, then we proceed in to the Chairman and the 
committee rules.
    Mr. Dennis. So if the witness answers the question, the objection 
becomes lost.
    Mr. Ballen. It doesn't become lost, the committee can still make a 
judgment on that, and the judgment is it is not relevant, it will be 
stricken.
    Mr. Dennis. Stricken from the dep.
    Mr. Ballen. That is correct.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Was the First Lady then aware of what the Back to 
Business Committee was going to be doing?
    Answer. Well, yes. As I said before, I know at some point I told 
her there are groups outside of the White House who are going on 
television, and for all the people who are saying mean and untrue 
things, there are people who are answering those things.
    Mr. Ballen. Excuse me, please. Let me just clarify something in 
your response to counsel's question.
    The committee won't necessarily take it up. So that the objection, 
the single fact that a Minority counsel makes an objection, I cannot 
guarantee to the witness or counsel that that will be taken up by the 
committee and stricken from the record.
    If counsel wants to make an objection now, then the questions won't 
proceed. Or if counsel wants us to take this up with the committee, 
then you can make that kind of a request.
    Mr. Dennis. Let me do that. Can I have the witness leave the room 
shortly while I discuss this matter with counsel? I want you to step 
out in the hall. We will stay on the record.
    [Witness left deposition room.]
    Mr. Dennis. This is my concern about this. One, it is getting very 
late; and we've been here quite a long time. I understand that this 
Back-to-Business issue is one that Chung has raised in some press 
accounts in which he has said that Ms. Cutler had approached him and 
mentioned Ms. Williams as the source of a referral and he might be 
interested in supporting the Back-to-Business initiative.
    Now, for that reason, it certainly has something to do with fund-
raising; but I don't see on that basis whether it has to do with any 
improprieties, just taking his statement as absolutely true. So my 
question is, what is the basis for really going over this area as one 
that would involve any kind of, you know, impropriety or fund-raising 
misconduct? And that's--you know, particularly at this hour, to get 
into this----
    Ms. Comstock. I don't think--I think we are--this is--we are going 
to be moving into all the events with--with Ms. Cutler and the 
references and that type of thing. I think, given Mr. Chung's 
connections with the White House, these are matters related directly or 
indirectly, certainly. But having the U.S. ambassador to China become 
involved in this and any connections regarding--these are factual 
matters that are connected to a number of matters we are investigating, 
Mr. Chung, obviously, being a major figure. So looking at how Mr. Chung 
was involved in any number of areas where he was giving money to 
various sources----
    And I would like to state for the record I appreciate you asking 
your client to leave the room so we are not both testifying about the 
matters in front of her, and I appreciated that courtesy of not 
infecting the records. I do want to reflect that the witness isn't 
present.
    I think we can be fairly brief, just discussing the news accounts 
and, you know, her knowledge of Ms. Cutler's--and references on that. 
And I think that's where we are going in this area.
    Mr. Dennis. Well, let me proffer to you as a way of hopefully 
cutting this somewhat short that, you know, my client can certainly 
testify concerning the fact that, you know, she knew of the Back-to-
Business efforts and what that involved in some general fashion. But I 
will not object unless this becomes too drawn out. I mean, I would hope 
that we could cooperate and get to the point where you could just ask 
her the general question and let her describe in her own words what her 
involvement was in that and what the involvement was of Johnny Chung.
    If you want to have some follow-up questions, that's fine. But her 
to be sort of the--she wasn't the organizer of Back to Business and 
your questions are eliciting a lot of ``I don't knows''--I don't know, 
I don't know. And, of course, when you question somebody about 
something they don't know about--you understand what I'm saying?
    Ms. Comstock. I think we can be fairly brief and ask her some 
follow-up on that.
    Mr. Dennis. Is this the last area?
    Ms. Comstock. Basically, it is. I want to check on a few other 
things, but we are getting close.
    Mr. Ballen. I want to note for the record----
    Mr. Dennis. I am not making an objection.
    Mr. Ballen. I didn't understand the answer to Mr. Dennis' question, 
which was the basis of my objection as well, as to how this relates to 
campaign financing.
    Ms. Comstock. I think we have moved on, and the witness is not 
objecting. If we could just move through this quickly.
    Mr. Ballen. Well, I have an objection pending.
    Mr. Dennis. I can't--I'm not----
    Mr. Ballen. I want to know how the Back to Business Committee 
relates to our investigation. There is a specific question as to 
campaign fund-raising improprieties. Can you answer the question?
    Ms. Comstock. Your objection is noted.
    Mr. Ballen. I am going to note for the record that you are refusing 
to provide an explanation----
    Ms. Comstock. I have already provided the explanation, and I think 
the public record is clear on this and that it is relevant, and we 
would like to proceed on the Back to Business Committee and the 
contributions made by Mr. Chung to that committee.
    Mr. Dennis. Okay. I'll have the witness come back in.
    [Witness returns.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Okay. Why don't you just tell us--give us kind of what 
you know about Lynn Cutler and any conversations you may have had with 
her about Johnny Chung.
    Answer. Lynn Cutler asked me if there were people that I knew of 
who would be interested in helping the Back to Business Committee. And 
not only was she looking for--she said contributors, people who could 
go on television, who could be helpful. And I said, well, these are 
people I think you might want to call. And Johnny Chung, I included his 
name as one of the people.
    Question. And did you provide her with a list of other names?
    Answer. I didn't give her a list. This was just a verbal 
conversation. I believe I gave her some other names. There were a 
couple of people I gave her that I thought would be really good on 
television that I suggested that she contact.
    Question. And who were the other people that you told her to 
contact? Just to be clear, you told her that Johnny Chung would be a 
person to contact about raising money?
    Answer. Yes. She said, I'm looking for people--if there are people 
who would be interested in helping the Back to Business Committee, 
contributors, people who would be good on television. And I said, yeah. 
I gave her Johnny Chung's name, and I gave her a couple of names of 
people for television.
    Question. Did you give her a phone number or way to contact Mr. 
Chung?
    Answer. I don't know if I did right then and there. I don't know if 
I did. I don't know if I did.
    Question. Do you have any knowledge as to how she learned how to 
contact him?
    Answer. No, I don't have any knowledge.
    Question. Mr. Chung has indicated that he was called the morning 
after he attended a White House Christmas party. Do you recall if you 
ever told Ms. Cutler that, hey, he's going to be in town, he's going to 
be at the Christmas party, you might want to talk to him then?
    Answer. No, I mean, more than likely I would have--if she asked for 
a number, called the office for a number, we would have given it to 
her.
    Question. And can you just continue as to after you gave her----
    Answer. That's----
    Question. Did you ever learn whether or not he had contributed?
    Answer. No.
    Question. Did he ever tell you that he wanted to let you know that 
he had done this to help the First Lady or the President?
    Answer. I don't know. I don't recall. I don't know. I don't know if 
he contributed. I don't know.
    Question. When--you had previously discussed when he gave you the 
$50,000 check he talked a lot about ``I want to help the First Lady''--
--
    Answer. Uh-huh.
    Question. And that he was anxious that you take the check; is that 
correct? That you----
    Answer. Yes, or the First Lady's office. He was anxious that I take 
the check. He said, ``I want to give through the First Lady's office,'' 
definitely.
    Question. Did you recall him saying that he wanted to get credit 
with you or wanted you to get credit for getting the check?
    Answer. No, I don't think he--I mean, I don't know if he said that 
to anyone. I mean, or--and I have no reason to believe he would--would 
think that. Would get any credit?
    Question. When he had given you the $50,000 check, did you get a 
sense that he wanted you to know that he gave so the First Lady would 
know?
    Answer. No, I got the feeling that he wanted me to give the check 
to the DNC.
    Question. But if he'd given it direct--I mean, he had--we don't 
have the record here today, but he had met--I don't know if you're 
aware, but he had met numerous times with DNC people on many occasions. 
He could have given checks to them.
    Answer. Which he had.
    Question. Do you know why in particular he felt giving you this 
check was something that would----
    Answer. You would have to talk to him about his motivation.
    Question. But did he ever say anything to you about, tell the First 
Lady that I gave this check or I hope you let her know I've done this 
to help her?
    Answer. No, he never--no, he never said that to me.
    Question. So you cannot recall if he ever told you anything about 
the check that he gave the Back to Business Committee?
    Answer. No, I can't.
    Question. Did Ms. Cutler ever tell you whether she was successful 
in getting money from him?
    Answer. No, I don't believe she did.
    Question. So, to date, you have had no other conversations with 
Lynn Cutler about Johnny Chung?
    Answer. No.
    Question. Okay. The White House--well, I will just give you this--
the August 9th one. This is an August 9th, 1997, L.A. Times article 
entitled, Donor Speaks Out on Clinton Group. On the second page of the 
article at the top of the page, a little ways down, fourth paragraph, 
it says, ``White House officials confirm that Cutler arranged a meeting 
for Chung with a Commerce Department official.''
    Do you have any knowledge about when--Lynn Cutler arranging 
meetings for Johnny Chung?
    Answer. No.
    Question. And do you have any knowledge about when Cutler--Lynn 
Cutler arranging any meetings with the U.S. Embassy in China or with 
Ambassador Sasser?
    Answer. No.
    Question. So was the first time you learned of that in the news 
accounts?
    Answer. Yeah, I just read them yesterday.
    Question. In this article also Lanny Davis was quoted as saying 
that there were frequent--White House involvement with Back to Business 
included frequent contact.
    Just generally--I don't want to dwell on this for a long time. Can 
you generally describe what the frequent contact was and who was having 
the frequent contact with the Back to Business Committee, if you know?
    Answer. Well, I don't know what it is that Lanny was speaking 
about. I can say that if Back to Business put out a press release or if 
they were going to be on any of the shows over the weekend, talk shows 
or anything like that, generally they would fax me a copy of the press 
release and they would fax me a list of who they had on the weekend 
shows. And for a while they were pretty active. So, with me, I knew 
what they were doing, so that would be frequent contact. I don't know 
with respect to Lanny.
    Question. Was anybody at the White House writing or working on any 
of the material that they put out?
    Answer. No.
    Question. Do you know what Mr. Ickes' involvement with the group 
was at all, if any?
    Answer. I think very little, actually.
    Question. Do you have any knowledge of Back to Business Committee 
ever hiring any private detectives or anything like that to investigate 
chairmen of committees who were investigating Whitewater or other 
matters?
    Mr. Dennis. You mean chairmen of congressional committees?
    The Witness. No.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Congressional committees. Do you know an individual by 
the name of Jack Palladino?
    Answer. I've heard his name.
    Mr. Ballen. Objection as to relevancy.

                      EXAMINATION BY MS. COMSTOCK:

    Question. He's a private detective from San Francisco who allegedly 
worked in the '92 campaign. You don't--have you ever met him?
    Answer. No.
    Question. Do you have any knowledge of Harold Ickes hiring Mr. 
Palladino at any time for any purposes while you have been at the White 
House? Have you ever heard anything like that?
    Answer. No.
    Question. The middle of the page or so here in the article it 
indicates that a source close to Cutler said that she learned of Mr. 
Chung and his potential interest in helping from a number of different 
places as a result of her involvement with the Democratic Party. Do you 
know--aside from yourself mentioning him, do you know of others who 
told Lynn Cutler of Johnny Chung?
    Answer. No.
    Mr. Dennis. I believe--was she a vice chair of the DNC?
    The Witness. Yeah. Yes, she was.

                      EXAMINATION BY MS. COMSTOCK:

    Question. And, to your knowledge, was she in frequent contact with 
the DNC----
    Answer. I don't know.
    Question [continuing]. The DNC finance officials?
    Answer. I really don't know what the contact was.
    Question. You had mentioned that you had given--did you give Lynn 
Cutler other names of people besides Johnny Chung?
    Answer. Yeah, I believe so.
    Question. Do you know how many names you gave her?
    Answer. Four, maybe three.
    Question. Do you recall who else, other names you gave her?
    Answer. I know I thought that she should contact a woman by the 
name of Kiki Moore because she was very good on television.
    Question. In terms of donations, was there anyone besides Mr. Chung 
whose name you gave her?
    Answer. That's all I can recall.
    Question. Do you recall why you came up with Mr. Chung's name of 
all the people out there that would be donating that would be 
interested in helping the President or the First Lady?
    Answer. Because it seemed to me for weeks and months Mr. Chung had 
stopped me and said: How can I help? How can I help? How can I give? So 
I thought of him.
    Question. Mr. Chung's account of the call from Mr. Cutler says that 
he received a phone call at his Washington apartment. Did you know of 
him having a Washington apartment?
    Answer. No.
    Question. And you have no knowledge of--did you have a phone number 
in D.C. to contact him at, if you know?
    Answer. I don't know. Evan would have had his number. I had no 
reason to call him. I can't remember.
    Question. Do you know if she would have maintained those records, 
had them on any type of Rolodex or file or anything?
    Answer. You'd have to ask her. I don't know.
    Question. Mr. Chung's account also has indicated that Lynn Cutler 
introduced herself as a friend of the First Lady who was referred to 
him by Williams. Do you--is Lynn Cutler a friend of the First Lady, to 
your knowledge?
    Answer. Oh, I think that's pretty subjective. If she thinks she 
is----
    Question. Does she have frequent contact with your office, aside 
from the meetings that you had occasion to be at, events with the First 
Lady or have worked with her in the past on various events?
    Answer. Lynn Cutler's been in Democratic politics for 40 years. I'm 
sure that she has known the President and Hillary through their 
governorship. She actually ran for Congress. I mean----
    Question. Do you recall if you told Lynn Cutler that she could use 
your name, you know, so that--or that she could say----
    Answer. Let me ask a question just for one second. Has Mr. Chung 
been deposed?
    Question. No.
    Answer. And so these questions are based on this news article?
    Question. Right. I have the news article, and I'm pretty much 
referring--I'm kind of in the bottom paragraph here. I'm just referring 
to his allegations.
    Answer. So we don't know if these are real allegations? These may 
be----
    Question. He's not testified to these.
    Answer. So we don't know if the reporter has put these down as what 
he says. Do we have any way of validating what has been said here?
    Question. Not until Mr. Chung comes in.
    Answer. Well, I just--with all due respect, I am here and I am here 
voluntarily and I have been here for almost 10 hours. And I'm perfectly 
willing to do this because I want this thing to work out and I want 
people to get to the truth. But I want some fairness accorded to me.
    And so when Mr. Chung says something and he is on the record, I 
will respond to it. But I really feel very uncomfortable and not very 
happy that I have to walk through the L.A. Times, to have what some 
reporter whose work cannot be validated be up against me who is sitting 
here and to be on the record with this.
    Question. Well, I would just like to, you know--we are discussing--
these are only things he has talked about here and you have indicated 
that you gave his name to Lynn Cutler.
    Answer. Which I said--I don't know past that.
    Question. You don't know if you said anything about----
    Answer. I gave--I gave her his name. I gave her his name. I did 
that.
    Question. Do you recall if you gave Lynn Cutler any dollar figures? 
Like you could ask him for this much or gave her a ballpark figure of 
what he might----
    Answer. I would never have.
    Question. You just gave her the name and that was it?
    Answer. That was it.
    Question. Did you have any understanding whether she was going to 
use your name in approaching him?
    Answer. I had no understanding of it, but if you live in 
Washington, D.C., I think you have a sense that people use people's 
names all the time. And if he wanted to try and verify that she 
actually got his name from someone, I'm sure he might even ask her and 
she would say Maggie Williams told me to call. It doesn't strike me as 
out of the realm of possibility.
    Question. Did you hear about Johnny Chung calling around about Lynn 
Cutler: Should I give her money? Should I be talking to anybody at the 
White House or the DNC about it?
    Answer. I only know what I read in the news accounts with respect 
to that.
    Ms. Comstock. Okay. Just so it's clear, we have been discussing 
about the news account. I will make that deposition number 47.
    The Witness. Thank you.
    [Williams Deposition Exhibit No. 47 was marked for identification.]
    Mr. Dennis. Are we getting pretty close here? Because it's almost 8 
o'clock; and, of course, Minority counsel has----
    Mr. Ballen. I didn't hear what you said.
    Mr. Dennis. I was asking whether or not we are getting close to the 
end here. Because you have an opportunity to ask questions, and we have 
been sitting--we have been going pretty----
    Ms. Comstock. We are getting very close.

                      EXAMINATION BY MS. COMSTOCK:

    Question. The White House database had been incorporated into the 
First Lady's office; is that correct? On somebody's computer? Do you 
have any knowledge of that?
    Answer. Which database?
    Question. The White House database which had--it's referred to as 
WHoDB, which had information on people who had come to the White House 
and when they had made visits or----
    Answer. As I understand it, there was a screen in the social office 
or two screens in the social office which used it primarily--which used 
it primarily.
    Question. And what was your understanding of how it was used?
    Answer. To know the names of people who had attended White House 
events so that other people can be invited or, you know, just to have 
them on. I mean, I don't think it was a system different than the 
previous administration's system. It might have been more--more 
modernized. But, you know, having a database that gave you information 
about people who were invited to the White House and people who came to 
the White House, accepts, regrets, phone numbers, addresses, that kind 
of thing, I thought was pretty----
    Mr. Ballen. Excuse me, I'm going to object to this line of 
questioning. It is now 8 o'clock. At 4 o'clock, this witness was told 
there were two matters left, Johnny Chung and Webster Hubbell. We are 
going into the Back to Business Committee, other matters, the White 
House database. I just don't think this is fair any longer. There is no 
sense of proportion in either the questions or the topics, and we are 
just getting into entirely another topic now which God knows how long 
it is going to last.
    Ms. Comstock. I think it is going to be a fairly brief topic.
    Mr. Ballen. Nothing has been fairly brief today. I think we can all 
agree on that.
    Mr. Dennis. Is there a need to go into this?

                      EXAMINATION BY MS. COMSTOCK:

    Question. Just--there is one document that we had discussed earlier 
today and I just wanted to--that had--this is Deposition Exhibit No. 8, 
which had listed the various guests and how many events they had been 
listed in. I was wondering if you know if any kind of information like 
this on who was invited and that kind of thing at the White House was 
ever shared with the DNC about who was invited to various events. Like 
information from the White House database was ever referred to or 
shared with anyone at the DNC to your knowledge?
    Answer. No, not to my knowledge.
    Question. Okay. Because we have just been discussing the Back-to-
Business matters and I did want to show--this is a December 8th, '95, 
phone message from Mr. Chung to Evan Ryan about wanting to get cleared 
into the White House, saying he's on his way to the DNC and he wants to 
talk to you. This was the day before, apparently, that he says he got 
the call from Lynn Cutler.
    So I just wanted to see if that refreshes your recollection at all 
in terms of whether he had been at the White House, if there was ever 
any discussions with him about Lynn Cutler might call or, you know, his 
presence at the White House at or around the time he says he was 
contacted by Mr. Cutler--I mean Ms. Cutler?
    Answer. No. Says, ``To Evan.''
    Question. Yes, the message is to Evan Ryan, not to Ms. Williams.
    Answer. Okay.
    Ms. Comstock. We have another message that's somewhere around there 
but it's unclear, so I'm not going to bother with you it.
    I'll make this 12/8/95 Deposition Exhibit No. 48.
    [Williams Deposition Exhibit No. 48 was marked for identification.]
    Ms. Comstock. Let me just take a minute here. I think I may be 
done.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Okay. Were you aware of Mr. Chung contributing to any 
other groups connected with the President or First Lady, any political 
groups?
    Answer. No.
    Question. Were you aware of him contributing to any legal defense 
funds of any White House employees or anybody else?
    Answer. No. No, no. I don't know if he contributed to the 
President's legal defense fund, but those records are public.
    Question. Those are public. I was wondering if you have any 
knowledge of any people at the White House or anything like that?
    Answer. No. Not mine.
    Question. Are you aware of any attempts by Mr. Chung to contact 
individuals in the Vice President's office?
    Answer. No.
    Question. Were you aware of Mr. Chung attempting to try and get 
some credential letters from the President for a trip to China?
    Answer. No.
    Question. Did you ever hear anything about----
    Answer. Credential letters?
    Question. I guess it's----
    Mr. Dennis. Letters of introduction?

                      EXAMINATION BY MS. COMSTOCK:

    Question. It's national security type of lingo. A letter to use 
when he's traveling to China or traveling overseas to----
    Answer. No.
    Question [continuing]. Show some bona fides of who he's connected 
to or anything like that?
    Answer. No, I don't recall that.
    Question. Did you ever learn of Johnny Chung talking about efforts 
that he was making to get Harry Wu, the human rights activist, released 
from prison in China?
    Answer. Yes, at my last deposition.
    Question. You had no knowledge of that at the time back in--I 
believe it was 1995?
    Answer. I thought--I thought I'd heard something about it, but I 
was unable to distinguish. I mean, they showed me something, and I 
thought, oh, maybe I did hear about this, but I was unable to 
distinguish when.
    Question. In other words, was it live or Memorex?
    Answer. Yes.
    Question. Do you recall anybody at the time, anybody from the NSC, 
raising what is he doing now?
    Answer. No.
    Question. There were concerns about Jimmy Carter going to Haiti, 
which is probably less concern about, but did you ever hear, what is 
Johnny Chung up to----
    Answer. No.
    Question [continuing]. Going to China and trying to say he has the 
President's----
    Answer. No, I did not.
    Question. The only knowledge you have, you aren't able to 
distinguish?
    Answer. I'm not able to distinguish.
    Question. Okay. Have you ever had anyone request any kind of 
credential letters for foreign travel from your office? Do you have any 
knowledge of what office that goes through?
    Answer. Or what they would be. I've never heard of such a thing.
    Question. When is the last time you have been in touch with Mark 
Middleton?
    Answer. I don't--I don't know. I--I don't know. Probably not since 
his name has been in the newspaper.
    Question. Were you aware of him doing any type of fund-raising 
overseas?
    Answer. No, I didn't--I didn't know what his business was.
    Question. Did you have any knowledge about him doing any fund-
raising in the '96 campaign cycle?
    Answer. No, no. No, I don't. Huh-uh.
    Question. Did you have any knowledge of him providing any lists of 
supporters to anybody at the White House or the DNC?
    Answer. Not that I know of, no.
    Question. I don't want the record to be unclear. We had a memo 
earlier today that discusses him providing lists, but I think you 
answered about your knowledge of that, so I don't want that to be 
confused.
    And can you place your last contact with Johnny Chung in time? At 
all? The past year? Or----
    Answer. Oh, God, I don't know. I don't know.
    Question. Were you aware of him trying to contact the White House 
as various fund-raising stories started coming out in the fall of '96?
    Answer. No.
    Question. There are a number of phone messages in November of '96 
that he made phone calls to Richard Sullivan at the DNC. Do you know if 
he ever tried to contact anybody at the White House about anything?
    Answer. Oh, no.
    Question. And to your knowledge has he tried to----
    Answer. Contact me? No, no.
    Question. Or contact anybody prior to news reports about him?
    Answer. No, not that I know of.
    Question. Okay. And do you know Roger Tamraz? Have you ever met him 
or know anything about him?
    Answer. No, I don't know him. But in my last deposition, it was 
brought to my attention that I was at the same party he was at once, 
but I don't remember him. I couldn't recognize him.
    Question. That being an event in the residence with 20 or so people 
or something like that?
    Answer. I forget what it was, but----
    Question. June of '96?
    Answer. I forget the date, but they said I was at the same party 
that he was at, and I agreed that I was at that party.
    Question. Okay. So you did attend that event. You don't recall 
anything about Roger Tamraz?
    Answer. No, huh-uh.
    Question. And do you have any knowledge about Roger Tamraz trying 
to make contributions to the DNC?
    Answer. No, I don't know who he is or what he's done. I don't know 
anything about him.
    Question. And do you have any knowledge about any particular fund-
raising that went on for the President's birthday party of last year, 
of August of '96?
    Answer. Particular fund-raising?
    Question. Any people who were involved as cochairs of events or any 
people that you dealt with?
    Answer. I certainly know about it. My participation in the 
President's birthday event was to make sure that--that the 
entertainment would be wholesome.
    Question. And were you able to attend that event?
    Answer. No, I did not attend that event.
    Question. So you did not run into Charlie Trie or Johnny Chung or 
any of those people at that event?
    Answer. No, I did not.
    Question. I believe that's all I have at this time.
    Answer. Thank you.
    Mr. Ballen. I'll need a moment before I begin.
    The Witness. Okay.
    [Recess.]

                       EXAMINATION BY MR. BALLEN:

    Question. Ms. Williams, I'd like to begin by thanking you. It is 
now 10 after 8:00 in the evening. This deposition began at 10 o'clock. 
We have gone pretty much straight. We have had three 10-minute breaks 
and several much shorter breaks so that people could use the 
facilities.
    Your patience has been extraordinary. Any fair-minded observer 
would see that you have made every possible human effort to answer 
questions fully and completely and to wrack your memory.
    What's not reflected in the record, because it's just going to be a 
bare bones record of a transcript, is how when you were asked in 
excruciating detail about certain issues that, frankly, were a very 
small part of your duties you would think very hard and your facial 
expressions would show that you were trying to the best of your human 
ability to find an answer. And I want the record to reflect your 
extraordinary effort today. And I don't think anyone in this room would 
disagree with that.
    And I think that's important to note for the record because records 
are cold things. They don't have human emotions or the human expression 
in them. And I think that you have made every possible effort here 
today.
    You have had a very fine record of public service, both with this 
administration and prior to that, and your patience here has been 
extraordinary.
    I also would like to note for the record that at no time was the 
Minority ever consulted with by the Majority as to how much time we 
would have to question or when we could fit that into the schedule and 
what would be appropriate. And so I'm very hesitant to ask you any 
questions to keep you one moment longer here.
    Ms. Comstock. I think--for the record, I think we have always had 
very, very brief Minority questions except on rare occasions. So I'm 
sorry for perhaps assuming that. But there usually hasn't--there has 
been very few, if any, Minority questions. But in the future we will be 
happy to consult you on time.
    Mr. Ballen. That would be a decided shift from past practice, 
because we have not been consulted as to when we may want to ask 
questions or what topics or how long we might have.
    Ms. Comstock. I think the record will reflect the interest of the 
Minority in asking questions.
    Mr. Ballen. Are you representing that we were consulted prior to 
this deposition as to what questions we might have?
    Ms. Comstock. You never asked to discuss it.
    Mr. Ballen. Was the--did the Majority consult with the Minority as 
to what questions we might have?
    Ms. Comstock. Did the Minority ask the majority to consult? Let's 
don't waste the witness' time.
    Mr. Ballen. You don't talk about wasting the witness' time when you 
sit here reading documents. You never consulted about our time. You 
began this deposition talking about Johnny Chung being the subject 
matter of the deposition. That didn't begin until 4:45, almost 7 hours 
into the deposition. This witness was dragged through extraneous 
matters in great detail before you even got to the main matter.
    The Minority was never consulted as to--and I repeat--never 
consulted at any time as to what questions it may want to have for the 
witness. And, you know, it's just----
    To say that what we've asked in the past with different witnesses 
is totally irrelevant to that fact that we were never consulted and the 
timing of this was never consulted and the scope went on and the 
witness' patience with this process--frankly, if I were the witness--I 
mean, I'm just astounded by her extraordinary patience.

                       EXAMINATION BY MR. BALLEN:

    Question. In that regard, Ms. Williams, I'd like to ask a couple of 
questions. This is not the first time you have had to testify about 
these matters, is it?
    Answer. No.
    Question. Did you testify in a deposition in the Senate?
    Answer. Yes, I did.
    Question. How long did that deposition last?
    Answer. 6:30----
    Mr. Dennis. 10:30 to 6:30. Something like that.

                       EXAMINATION BY MR. BALLEN:

    Question. 10:30 to 6:30? Any other investigative bodies?
    Answer. One night at 8 p.m. the FBI came to my door and questioned 
me about it.
    Question. Did these questions, Senate and the FBI, substantially 
overlap with the kind of questions that you received today?
    Answer. Yes.
    Question. And you spent time preparing for this deposition and the 
Senate deposition; is that a correct assumption?
    Answer. Yes.
    Question. And can you estimate how much time you spent preparing 
for depositions and collecting documents and----
    Answer. I only keep time in billing hours. I'm sorry.
    Question. But apart from the time, let me ask you this question: 
There's an element of worry and stress and concern, is there not? I 
mean, I know you are working hard to answer each question diligently, 
but there's a stress factor involved in this, isn't there?
    Answer. There's always a stress factor involved in anything where 
there is an investigative body involved. Yes.
    Question. You mentioned the billing hours. Have you incurred 
expenses in the nature of all these requests that you have received and 
testimony that you have given?
    Answer. Yes.
    Question. Can you estimate how much expenses have been involved?
    Answer. On this particular investigation, I don't know. On all of 
them, a little more than a quarter of a million dollars.
    Question. A quarter of a million dollars?
    Answer. A little more than that.
    Mr. Dennis. That's probably conservative.

                       EXAMINATION BY MR. BALLEN:

    Question. That's probably conservative? That's a substantial 
burden, is it not?
    Answer. If it is you don't have any money at all.
    Question. Not only is there a huge expense involved, but there's 
the time and the effort; is that fair to say?
    Answer. I'd say that's fair.
    Mr. Ballen. I have nothing further. Thank you.
    Mr. Dennis. Thank you.
    Ms. Comstock. I just want--let the record reflect that on a number 
of occasions, on Mr. Ickes' documents and some of the other matters, we 
did confer--sometimes off the record, sometimes on--as to whether or 
not the witness had particular knowledge on that. And we did--we 
shortened, I think, a number of Mr. Ickes' documents. Even though the 
witness had been cc'd on a lot of them, we spent a fairly brief amount 
of time on that. So there were certainly attempts on the Majority's 
side to shorten the areas that may have previously been gone over and 
the witness did not have knowledge about. So----
    Mr. Ballen. No, I completely disagree.
    Ms. Comstock.--I appreciated the witness' counsel in assisting us 
with that, because it made it helpful and able to discuss with him 
those matters so that we could shorten sometimes a number of different 
areas we discussed.
    Mr. Ballen. I am going to, for the record, completely disagree with 
that characterization. There was one moment, after 20 minutes of 
questioning on the documents the witness knew nothing about, at 
counsel's request we went off the record and counsel off the record 
said, is it really necessary to continue questioning on documents this 
witness is unfamiliar with? Because she's going to repeatedly give ``I 
don't know'' answers to them, and----
    Ms. Comstock. Is that your characterization of what we----
    Mr. Ballen. Can I finish my sentence?
    Ms. Comstock. That is not what I said. I asked the witness if there 
was knowledge on particular matters or if we could shorten things. I 
don't think characterizing or mischaracterizing what I said is 
necessary at this point. Why don't we just end the deposition?
    Mr. Ballen. No, no, I'm not finished. I was interrupted in the 
middle of a sentence. I've never had the discourtesy to interrupt the 
Majority counsel in the middle of her sentence.
    Ms. Comstock. Only to interrupt entire questions.
    Mr. Ballen. There, you just did it again. And that is not what 
occurred off the record, and the record should reflect that is not what 
occurred. What occurred is that after 20 minutes of questioning on 
Harold Ickes' documents the witness didn't know about, we went off the 
record and counsel----
    Ms. Comstock. The witness did have some testimony on those things, 
and I think the record will reflect it. And I don't think you need to 
characterize her knowledge or the lack thereof. The record will speak 
for itself.
    [Whereupon, at 8:24 p.m., the deposition was concluded.]

    [The exhibits referred to follow:]

    [GRAPHIC] [TIFF OMITTED] T5667.082
    
    [GRAPHIC] [TIFF OMITTED] T5667.083
    
    [GRAPHIC] [TIFF OMITTED] T5667.084
    
    [GRAPHIC] [TIFF OMITTED] T5667.085
    
    [GRAPHIC] [TIFF OMITTED] T5667.086
    
    [GRAPHIC] [TIFF OMITTED] T5667.087
    
    [GRAPHIC] [TIFF OMITTED] T5667.088
    
    [GRAPHIC] [TIFF OMITTED] T5667.089
    
    [GRAPHIC] [TIFF OMITTED] T5667.090
    
    [GRAPHIC] [TIFF OMITTED] T5667.091
    
    [GRAPHIC] [TIFF OMITTED] T5667.092
    
    [GRAPHIC] [TIFF OMITTED] T5667.093
    
    [GRAPHIC] [TIFF OMITTED] T5667.094
    
    [GRAPHIC] [TIFF OMITTED] T5667.095
    
    [GRAPHIC] [TIFF OMITTED] T5667.096
    
    [GRAPHIC] [TIFF OMITTED] T5667.097
    
    [GRAPHIC] [TIFF OMITTED] T5667.098
    
    [GRAPHIC] [TIFF OMITTED] T5667.099
    
    [GRAPHIC] [TIFF OMITTED] T5667.100
    
    [GRAPHIC] [TIFF OMITTED] T5667.101
    
    [GRAPHIC] [TIFF OMITTED] T5667.102
    
    [GRAPHIC] [TIFF OMITTED] T5667.103
    
    [GRAPHIC] [TIFF OMITTED] T5667.104
    
    [GRAPHIC] [TIFF OMITTED] T5667.105
    
    [GRAPHIC] [TIFF OMITTED] T5667.106
    
    [GRAPHIC] [TIFF OMITTED] T5667.107
    
    [GRAPHIC] [TIFF OMITTED] T5667.108
    
    [GRAPHIC] [TIFF OMITTED] T5667.109
    
    [GRAPHIC] [TIFF OMITTED] T5667.110
    
    [GRAPHIC] [TIFF OMITTED] T5667.111
    
    [GRAPHIC] [TIFF OMITTED] T5667.112
    
    [GRAPHIC] [TIFF OMITTED] T5667.113
    
    [GRAPHIC] [TIFF OMITTED] T5667.114
    
    [GRAPHIC] [TIFF OMITTED] T5667.115
    
    [GRAPHIC] [TIFF OMITTED] T5667.116
    
    [GRAPHIC] [TIFF OMITTED] T5667.117
    
    [GRAPHIC] [TIFF OMITTED] T5667.118
    
    [GRAPHIC] [TIFF OMITTED] T5667.119
    
    [GRAPHIC] [TIFF OMITTED] T5667.120
    
    [GRAPHIC] [TIFF OMITTED] T5667.121
    
    [GRAPHIC] [TIFF OMITTED] T5667.122
    
    [GRAPHIC] [TIFF OMITTED] T5667.123
    
    [GRAPHIC] [TIFF OMITTED] T5667.124
    
    [GRAPHIC] [TIFF OMITTED] T5667.125
    
    [GRAPHIC] [TIFF OMITTED] T5667.126
    
    [GRAPHIC] [TIFF OMITTED] T5667.127
    
    [GRAPHIC] [TIFF OMITTED] T5667.128
    
    [GRAPHIC] [TIFF OMITTED] T5667.129
    
    [GRAPHIC] [TIFF OMITTED] T5667.130
    
    [GRAPHIC] [TIFF OMITTED] T5667.131
    
    [GRAPHIC] [TIFF OMITTED] T5667.132
    
    [GRAPHIC] [TIFF OMITTED] T5667.133
    
    [GRAPHIC] [TIFF OMITTED] T5667.134
    
    [GRAPHIC] [TIFF OMITTED] T5667.135
    
    [GRAPHIC] [TIFF OMITTED] T5667.136
    
    [GRAPHIC] [TIFF OMITTED] T5667.137
    
    [GRAPHIC] [TIFF OMITTED] T5667.138
    
    [GRAPHIC] [TIFF OMITTED] T5667.139
    
    [GRAPHIC] [TIFF OMITTED] T5667.140
    
    [GRAPHIC] [TIFF OMITTED] T5667.141
    
    [GRAPHIC] [TIFF OMITTED] T5667.142
    
    [GRAPHIC] [TIFF OMITTED] T5667.143
    
    [GRAPHIC] [TIFF OMITTED] T5667.144
    
    [GRAPHIC] [TIFF OMITTED] T5667.145
    
    [GRAPHIC] [TIFF OMITTED] T5667.146
    
    [GRAPHIC] [TIFF OMITTED] T5667.147
    
    [GRAPHIC] [TIFF OMITTED] T5667.148
    
    [GRAPHIC] [TIFF OMITTED] T5667.149
    
    [GRAPHIC] [TIFF OMITTED] T5667.150
    
    [GRAPHIC] [TIFF OMITTED] T5667.151
    
    [GRAPHIC] [TIFF OMITTED] T5667.152
    
    [GRAPHIC] [TIFF OMITTED] T5667.153
    
    [GRAPHIC] [TIFF OMITTED] T5667.154
    
    [GRAPHIC] [TIFF OMITTED] T5667.155
    
    [GRAPHIC] [TIFF OMITTED] T5667.156
    
    [GRAPHIC] [TIFF OMITTED] T5667.157
    
    [GRAPHIC] [TIFF OMITTED] T5667.158
    
    [GRAPHIC] [TIFF OMITTED] T5667.159
    
    [GRAPHIC] [TIFF OMITTED] T5667.160
    
    [GRAPHIC] [TIFF OMITTED] T5667.161
    
    [GRAPHIC] [TIFF OMITTED] T5667.162
    
    [GRAPHIC] [TIFF OMITTED] T5667.163
    
    [GRAPHIC] [TIFF OMITTED] T5667.164
    
    [GRAPHIC] [TIFF OMITTED] T5667.165
    
    [GRAPHIC] [TIFF OMITTED] T5667.166
    
    [GRAPHIC] [TIFF OMITTED] T5667.167
    
    [GRAPHIC] [TIFF OMITTED] T5667.168
    
    [GRAPHIC] [TIFF OMITTED] T5667.169
    
    [GRAPHIC] [TIFF OMITTED] T5667.170
    
    [GRAPHIC] [TIFF OMITTED] T5667.171
    
    [GRAPHIC] [TIFF OMITTED] T5667.172
    
    [GRAPHIC] [TIFF OMITTED] T5667.173
    
    [GRAPHIC] [TIFF OMITTED] T5667.174
    
    [GRAPHIC] [TIFF OMITTED] T5667.175
    
    [GRAPHIC] [TIFF OMITTED] T5667.176
    
    [GRAPHIC] [TIFF OMITTED] T5667.177
    
    [GRAPHIC] [TIFF OMITTED] T5667.178
    
    [GRAPHIC] [TIFF OMITTED] T5667.179
    
    [GRAPHIC] [TIFF OMITTED] T5667.180
    
    [GRAPHIC] [TIFF OMITTED] T5667.181
    
    [GRAPHIC] [TIFF OMITTED] T5667.182
    
    [GRAPHIC] [TIFF OMITTED] T5667.183
    
    [GRAPHIC] [TIFF OMITTED] T5667.184
    
    [GRAPHIC] [TIFF OMITTED] T5667.185
    
    [GRAPHIC] [TIFF OMITTED] T5667.186
    
    [GRAPHIC] [TIFF OMITTED] T5667.187
    
    [GRAPHIC] [TIFF OMITTED] T5667.188
    
    [GRAPHIC] [TIFF OMITTED] T5667.189
    
    [GRAPHIC] [TIFF OMITTED] T5667.190
    
    [GRAPHIC] [TIFF OMITTED] T5667.191
    
    [GRAPHIC] [TIFF OMITTED] T5667.192
    
    [GRAPHIC] [TIFF OMITTED] T5667.193
    
    [GRAPHIC] [TIFF OMITTED] T5667.194
    
    [GRAPHIC] [TIFF OMITTED] T5667.195
    
    [GRAPHIC] [TIFF OMITTED] T5667.196
    
    [GRAPHIC] [TIFF OMITTED] T5667.197
    
    [GRAPHIC] [TIFF OMITTED] T5667.198
    
    [GRAPHIC] [TIFF OMITTED] T5667.199
    
    [GRAPHIC] [TIFF OMITTED] T5667.200
    
    [GRAPHIC] [TIFF OMITTED] T5667.201
    
    [GRAPHIC] [TIFF OMITTED] T5667.202
    
    [GRAPHIC] [TIFF OMITTED] T5667.203
    
    [GRAPHIC] [TIFF OMITTED] T5667.204
    
    [GRAPHIC] [TIFF OMITTED] T5667.205
    
    [GRAPHIC] [TIFF OMITTED] T5667.206
    
    [GRAPHIC] [TIFF OMITTED] T5667.207
    
    [GRAPHIC] [TIFF OMITTED] T5667.208
    
    [GRAPHIC] [TIFF OMITTED] T5667.209
    
    [GRAPHIC] [TIFF OMITTED] T5667.210
    
    [GRAPHIC] [TIFF OMITTED] T5667.211
    
    [GRAPHIC] [TIFF OMITTED] T5667.212
    
    [GRAPHIC] [TIFF OMITTED] T5667.213
    
    [GRAPHIC] [TIFF OMITTED] T5667.214
    
    [GRAPHIC] [TIFF OMITTED] T5667.215
    
    [GRAPHIC] [TIFF OMITTED] T5667.216
    
    [GRAPHIC] [TIFF OMITTED] T5667.217
    
    [GRAPHIC] [TIFF OMITTED] T5667.218
    
    [GRAPHIC] [TIFF OMITTED] T5667.219
    
    [GRAPHIC] [TIFF OMITTED] T5667.220
    
    [GRAPHIC] [TIFF OMITTED] T5667.221
    
    [GRAPHIC] [TIFF OMITTED] T5667.222
    
    [GRAPHIC] [TIFF OMITTED] T5667.223
    
    [GRAPHIC] [TIFF OMITTED] T5667.224
    
    [GRAPHIC] [TIFF OMITTED] T5667.225
    
    [GRAPHIC] [TIFF OMITTED] T5667.226
    
    [GRAPHIC] [TIFF OMITTED] T5667.227
    
    [GRAPHIC] [TIFF OMITTED] T5667.228
    
    [GRAPHIC] [TIFF OMITTED] T5667.229
    
    [GRAPHIC] [TIFF OMITTED] T5667.230
    
    [GRAPHIC] [TIFF OMITTED] T5667.231
    
    [GRAPHIC] [TIFF OMITTED] T5667.232
    
    [GRAPHIC] [TIFF OMITTED] T5667.233
    
    [GRAPHIC] [TIFF OMITTED] T5667.234
    
    [GRAPHIC] [TIFF OMITTED] T5667.235
    
    [GRAPHIC] [TIFF OMITTED] T5667.236
    
    [GRAPHIC] [TIFF OMITTED] T5667.237
    
    [GRAPHIC] [TIFF OMITTED] T5667.238
    
    [GRAPHIC] [TIFF OMITTED] T5667.239
    
    [GRAPHIC] [TIFF OMITTED] T5667.240
    
    [GRAPHIC] [TIFF OMITTED] T5667.241
    
    [GRAPHIC] [TIFF OMITTED] T5667.242
    
    [GRAPHIC] [TIFF OMITTED] T5667.243
    
    [GRAPHIC] [TIFF OMITTED] T5667.244
    
    [The deposition of Evan Ryan follows:]

                           Executive Session

      Committee on Government Reform and Oversight,
                             U.S. House of Representatives,
                                                    Washington, DC.
                        DEPOSITION OF: EVAN RYAN
                                 Wednesday, August 20, 1997

    The deposition in the above matter was held in Room 2203, Rayburn 
House Office Building, commencing at 2:45 p.m.
Appearances:
    Staff Present for the Government Reform and Oversight Committee: 
Jennifer Safavian, Investigative Counsel; Edward Eynon, Investigative 
Counsel; David Bossie, Oversight Coordinator; Barbara Comstock, Chief 
Investigative Counsel; James C. Wilson, Senior Investigative Counsel; 
Kenneth Ballen, Minority Chief Investigative Counsel; Andrew J. 
McLaughlin, Minority Counsel; Kristin Amerling, Minority Counsel.
For EVAN RYAN:
    BILL LAWLER, ESQ.
    Vinson & Elkins
    1455 Pennsylvania Avenue, N.W.
    Washington, D.C., 20004

THEREUPON, EVAN MAUREEN RYAN, a witness, was called for examination by 
   counsel, and after having been first duly sworn, was examined and 
                         testified as follows:

    Ms. Safavian. Good afternoon, Ms. Ryan. On behalf of the members of 
the Committee on Government Reform and Oversight, I appreciate and 
thank you for appearing here today.
    This proceeding is known as a deposition. The person transcribing 
this proceeding is a House reporter, and although he is not a notary 
public, you were just sworn in by a notary public and were placed under 
oath.
    I would like to note for the record those who are present at the 
beginning of this deposition. I am Jennifer Safavian, the designated 
Majority counsel for the committee. I am accompanied today by Edward 
Eynon, who is with the Majority staff. Andrew McLaughlin is the 
designated Minority counsel for the committee, and Mr. McLaughlin is 
accompanied by Ken Ballen, who is also with the Minority staff. And the 
deponent is represented by Bill Lawler.
    Although this proceeding is being held in a somewhat informal 
atmosphere, because you've been placed under oath, your testimony here 
today has the same force and effect as if you were testifying before 
the committee or in a courtroom. If I ask you about conversations you 
have had in the past and you are unable to recall the exact words used 
in the conversation, you may state that you are unable to recall those 
exact words and then you may give me the gist or the substance of any 
such conversation to the best of your recollection. If you recall only 
part of a conversation or only part of an event, please give me your 
best recollection of those events or parts of conversation that you 
recall. If I ask you whether you have any information upon a particular 
subject and you have overheard other persons conversing with each other 
regarding it or have seen correspondence or documentation regarding it, 
please tell me that you do have such information and indicate the 
source, either a conversation or documentation or otherwise from which 
you've derived such knowledge.
    Before we begin the questioning, I want to give you some background 
about the investigation and your appearance here. Pursuant to its 
authority under House Rules X and XI of the House of Representatives, 
the committee is engaged in a wide-ranging review of possible political 
fund-raising improprieties and possible violations of the law.
    Pages 2 through 4 of House Report 105-139 summarizes the 
investigation as of June 19, 1997, and encompasses any new matters 
which arise directly or indirectly in the course of the investigation. 
Also, pages 4 through 11 of the report explain the background of the 
investigation. All questions related either directly or indirectly to 
these issues, or questions which have a tendency to make the existence 
of any pertinent fact more or less probable than it would be without 
the evidence, are proper.
    The committee has been granted specific authorization to conduct 
this deposition pursuant to House Resolution 167, which passed the full 
House on June 20, 1997. Committee rule 20, of which you have received a 
copy, outlines the ground rules for the deposition.
    Majority and Minority committee counsels will ask you questions 
regarding the subject matter of the investigation. Minority counsel 
will ask questions after Majority counsel has finished. After the 
Minority counsel has completed questioning you, a new round of 
questioning may begin. Members of Congress who wish to ask questions 
will be afforded an immediate opportunity to ask questions. When they 
are finished, committee counsel will resume questioning.
    Pursuant to the committee's rules, you are allowed to have an 
attorney present to advise you of your rights. Any objection raised 
during the course of the deposition shall be stated for the record. If 
the witness is instructed not to answer a question or otherwise refuses 
to answer a question, Majority and Minority counsel will confer to 
determine whether the objection is proper. If Majority and Minority 
counsels agree that a question is proper, the witness will be asked to 
answer the question. If an objection is not withdrawn, the chairman or 
a member designated by the chairman may decide whether the objection is 
proper.
    This deposition is considered as taken in executive session of the 
committee, which means it may not be made public without the consent of 
the committee. Pursuant to clause 2(k)(7) of House rule 11. You are 
asked to abide by the rules of the House and not discuss with anyone 
other than your attorney this deposition and the issues and questions 
raised during this proceeding.
    Finally, no later than 5 days after your testimony is transcribed 
and you have been notified that your transcript is available, you may 
submit suggested changes to the chairman. The transcript will be made 
available for your review at the committee office.
    Committee staff may make any typographical and technical changes 
requested by you. Substantive changes, modifications, clarifications, 
or amendments to the deposition transcript submitted by you must be 
accompanied by a letter requesting the changes and a statement of your 
reasons for each proposed change. A letter requesting any substantive 
changes, modifications, clarifications, or amendments must be signed by 
you. Any substantive changes, modifications, clarifications, or 
amendments shall be included as an appendix to the transcript, 
conditioned upon your signing of the transcript.
    Do you understand everything we've gone over so far.
    The Witness. Yes.
    Ms. Safavian. Do you have any questions about anything we've gone 
over so far?
    The Witness. No.
    Ms. Safavian. I will be asking you questions concerning the subject 
matter of this investigation. Do you understand that?
    The Witness. Yes.
    Ms. Safavian. If you don't understand a question, please say so and 
I will repeat it or rephrase it so that you understand the question. Do 
you understand that you should tell me if you do not understand one of 
my questions?
    The Witness. Yes.
    Ms. Safavian. The reporter will be taking down everything we say 
and will make a written record of the deposition. You must give verbal, 
audible answers because the reporter cannot record a nod of the head or 
other gestures. Do you understand that you cannot answer uh-huh or uh-
uh?
    The Witness. Yes.
    Mr. Lawler. She'll even try to abide by that.
    Ms. Safavian. I will, too. How is that?
    If you cannot hear me, please say so and I will repeat the question 
or have the court reporter read the question to you. Do you understand 
that?
    The Witness. Yes.
    Ms. Safavian. Please wait until I finish each question before 
answering and I will wait until you finish your answer before I ask the 
next question. Do you understand that this will help the reporter make 
a clear record because he cannot take down what we are both saying at 
the same time?
    The Witness. Yes.
    Ms. Safavian. Your testimony is being taken under oath as if we 
were in court. If you answer a question, it will be assumed that you 
understood the question and the answer was intended to be responsive to 
it. Do you understand that?
    The Witness. Yes.
    Ms. Safavian. Are you here voluntarily or are you here as a result 
of a subpoena?
    The Witness. Voluntarily.
    Ms. Safavian. Do you have any questions about the deposition before 
we begin the substantive portion of the proceeding?
    The Witness. No.
    Mr. McLaughlin. I have two notes for the record. First, it has been 
the practice that deposition transcripts are available for your review 
by mail upon agreement of the Minority and Majority counsel.
    Mr. Lawler. That's fine.
    Mr. McLaughlin. The second thing, that pursuant to House rule 11 
2(k)(8) objections, as to pertinency and relevance, are ruled upon by 
the committee. Accordingly, objections that are ruled upon by the chair 
are appealable to the full committee.
    Mr. Lawler. Okay.
    Mr. McLaughlin. That's all I have.

                      EXAMINATION BY MS. SAFAVIAN

    Question. Ms. Ryan, can you please state your full name and spell 
it for the record?
    Answer. Evan Maureen Ryan, E-V-A-N, M-A-U-R-E-E-N, and Ryan is R-Y-
A-N.
    Question. Have you ever used or been known by any other names?
    Answer. No.
    Question. What is your date of birth and social security number?
    Answer. [Redacted].
    Mr. McLaughlin. I'm going to object to the social security number. 
That's not relevant to the investigation.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Please continue. Your social security number?
    Mr. Lawler. We don't have any objection to that.
    The Witness. [Redacted].

                      EXAMINATION BY MS. SAFAVIAN:

    Question. And what is your current address?
    Answer. [Redacted].
    Question. How long have you lived there?
    Answer. Since the end of May of '97.
    Question. Where did you live prior to that?
    Answer. [Redacted].
    Question. Have you ever lived outside the United States?
    Answer. I studied in London for a semester during college.
    Question. And when was that?
    Answer. That was the spring of '92.
    Question. And so as you just mentioned, you did attend college.
    Answer. Yes.
    Question. Where did you attend?
    Answer. Boston College.
    Question. And when did you graduate?
    Answer. May of '93.
    Question. Can you tell me what your degree was in?
    Answer. Political science.
    Question. Did you receive any other degrees or go on to any 
graduate school?
    Answer. No, I haven't.
    Question. Have you spoken with anyone other than your counsel about 
this deposition today?
    Answer. No.
    Question. Have you spoken with anyone on the committee about the 
deposition today?
    Answer. No.
    Question. Did you review any documents in preparation for this 
deposition?
    Answer. One or two.
    Mr. Lawler. As you know, Ms. Ryan was deposed by the Senate 
committee 2, 3 weeks ago.
    The Witness. Yes.
    Mr. Lawler. There were exhibits used during that deposition. We 
reviewed some of those before we came over today.
    Ms. Safavian. Some of the ones that were used in the Senate 
deposition?
    Mr. Lawler. Yes. I guess some that we were given that weren't 
actually used as exhibits as well.
    Ms. Safavian. Can you tell me a little bit more about those 
exhibits?
    Mr. Lawler. Frankly, we would assert privilege. If it's anything 
relevant. I mean, she reviewed some exhibits. If you want to ask 
whether they relate to any particular area or relate to any of your 
questions, I think that's appropriate.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Can you tell me, is there any way for you to clarify as 
to what subject or what area these documents were that you reviewed? 
Did you review these this morning, today?
    Answer. Today.
    Question. You reviewed them today?
    Answer. Yes.
    Mr. Lawler. Not even all. The only things she reviewed today was a 
package of telephone messages, sheets from message pads.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Message slips to you, I assume, or from you?
    Answer. Some were to me. Some were to other people in the office.
    Question. And that's pretty much it?
    Answer. That's it.
    Mr. Lawler. There were other things we used as exhibits in the 
Senate deposition.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. But that was all that was reviewed for this deposition?
    Answer. Yes.
    Question. Have you been asked by White House counsel or somebody 
else to collect documents with regard to the House, Senate, or the 
Department of Justice subpoenas?
    Answer. They issued memorandums from White House Counsel's Office 
that were document requests, so they were pertaining to these 
investigations.
    Question. These were memorandums that went to----
    Answer. All White House staff, yes, all White House staff.
    Question. Did everyone get the same memo?
    Answer. Yes.
    Question. And this was from the counsel for the White House?
    Answer. Yes.
    Question. Can you tell me what that memo said? I mean not verbatim.
    Answer. Yes. I don't know exactly. To look through phone records, 
calendars, files, any paper with--and then there would be a list of 
what names were relevant and what names should be searched for.
    Question. Can you tell me, when did that memorandum come out or 
when did you receive it?
    Answer. I don't know quite exactly when it came out.
    Question. Can you give me an idea? A couple of months?
    Answer. Yes, a couple of months ago. Not terribly recently.
    Question. Do you remember who drafted the memorandum, who it was 
from?
    Answer. I remember it was White House counsel. I don't remember 
which member White House counsel signed it.
    Question. Was it just from one individual?
    Answer. I don't remember. It was probably from Charles Ruff. But I 
don't remember. I remember White House counsel.
    Question. Did the memorandum, was it just asking for all these 
documents with regard to both, the House, the Senate, and the 
Department of Justice subpoenas or were there different ones issued for 
each different subpoena?
    Answer. There were separate memos for each subpoena.
    Question. So you are aware that there was a distinction between 
these subpoenas?
    Answer. Yes.
    Question. So then I assume that each memo, what you were looking 
for varied with regard to each subpoena?
    Answer. I remember in each of these memos, they would say pursuant 
to the House committee, or pursuant to the Senate committee. That's my 
only recollection of how I know that they were separate.
    Question. Besides getting this memorandum from the White House 
counsel, was there anybody else that directed you or provided you with 
any other information in which to collect these documents?
    Answer. Anyone else that asked for the documents?
    Question. Was there anybody else in your office or anybody else 
besides White House counsel who asked you to do a search for these 
documents?
    Answer. I'm not quite sure I understand the question. We each 
received these documents and then we would work with different members 
of the staff to go through for the search, to actually search the files 
or to search the calendars. So I'm sure I spoke with different people 
about the actual searches.
    Question. What I was just trying to get at is besides the White 
House counsel memorandum that you received, did anybody else in the 
office where you work supervise the collection of these documents and 
also instructed you how to collect these documents or was it just the 
memorandum from the counsel?
    Answer. I don't really--I am now in a different job than I was 6 
months ago. When I worked in the First Lady's office, in the main 
office area, I worked with the chief of staff in terms of collecting 
the documents. In the job I'm in now, I'm in the scheduling office; I 
worked with the director of scheduling in terms of finding the 
documents and where we should look.
    Question. So you have been involved with looking for documents in 
two different areas?
    Answer. Yes.
    Question. In two different jobs?
    Answer. Yes.
    Question. Do you recall if you were asked--well, I guess, tell me, 
what did they tell you to do? Did they ask you to look through file 
cabinets, all documents?
    Mr. Lawler. ``They'' meaning the memos?

                      EXAMINATION BY MS. SAFAVIAN:

    Question. I'm sorry, the memorandum, yes.
    Answer. Any paper. They just asked to--any sort of paper that was 
kept or that is around with any of the names.
    Question. Did you also look through computer records?
    Answer. Yes.
    Question. You were asked to do that, also?
    Answer. Yes.
    Question. And then can you tell me, was there a process after going 
through the documents and you found something that you thought was 
relevant to the White House counsel memorandum, what did you do, what 
was the process?
    Answer. I think I worked directly with White House counsel on that. 
I think the process was to Xerox the information and put it in a 
folder, an envelope, and give it to the White House counsel member who 
was assigned. The White House counsel usually assigned a White House 
counsel staff person who followed up with you to make sure that the 
search was going on and that you were searching documents, and so I 
would contact that person and give them the relevant information.
    Question. And who would that person have been for you?
    Answer. It varied. Usually it depended on each memo. I think they 
just assigned people----
    Question. When you say ``each memo,'' you mean the House memo, 
Senate memo?
    Answer. Yes. I think so. I don't know. I think so. I mean, I don't 
know if maybe, if the search was the same, they had one person assigned 
to the same search or not. I don't remember.
    Question. Did you generally deal with then three different people, 
one for each subpoena?
    Answer. I dealt with several staff members and White House counsel 
regarding document requests. I've been there now for about 3\1/2\ years 
so I've dealt with several staff members on several searches.
    Question. So you would collect these documents and then you would 
give these copied documents to the assistant and that person--what 
would happen next?
    Answer. I don't know what happened with the documents from that 
point on.
    Question. That was the end of what you had to do with it?
    Answer. Yes.
    Question. Did you work with anybody else in collecting the 
documents? I mean, was it like a team of people?
    Answer. I did insofar as I checked with other First Lady staff 
members to make sure they had checked their own personal files, papers, 
records, phone logs. I responded usually on behalf of the office that 
the whole office had made their search.
    Question. I see. So you were responsible pretty much for looking 
through your own documents and your own paper?
    Answer. Yes.
    Question. And not anybody else's?
    Answer. I also looked through the chief of staff's phone logs, 
calendars, et cetera, and helped with her search.
    Question. Would those be things that were normally kept in your 
possession?
    Answer. Some were in my office and some were in her office.
    Question. That was just something that you were helping out with?
    Answer. Well, I was her assistant, so it was part of my duties, so 
to speak.
    Question. So other than your own and the chief of staff's, did you 
go through anybody else's documents?
    Answer. No.
    Question. Do you recall if you were given a date as to when these 
documents were supposed to be reviewed and turned over to the White 
House counsel?
    Answer. Yes. I don't recall the specific date, but I remember that 
there were always dates on those memos.
    Question. Did they provide you with enough time to go through the 
documents?
    Answer. I think so. I think it usually varied. I don't know if 
there was usually a 7-day period or how long the period was. I just 
remember there were usually dates by which point you were supposed to 
have responded to the White House Counsel's Office.
    Question. Did you usually complete your search by that date?
    Answer. Yes.
    Question. Did most people usually complete the search by that date?
    Answer. As far as I know.
    Question. After you collected the documents and you would hand them 
over on the assistant, did you then ever sit down with the assistant 
and go through the documents?
    Answer. No.
    Question. They never asked you about any of the documents?
    Answer. Not that I remember, no.
    Question. Do you plan on speaking with White House counsel after 
this deposition today?
    Answer. No.
    Question. Moving on to something else. Ms. Ryan, can you briefly 
describe to me your employment history after college?
    Answer. In September of '93, I started working at the Corporation 
for Public Broadcasting in their Office of Correspondent 
Communications. I was there until December of '93, and then I began in 
January of '94 as a White House intern in the Office of the First Lady. 
In September of '94, I started on the staff of the First Lady's office.
    Question. That was September of '94?
    Answer. Yes.
    Question. And can you tell me, how is it that you even got the 
intern job in January of '94?
    Answer. In the fall of '93, I applied to the White House internship 
program and was accepted in late fall, and then started in January.
    Question. Did you tell me you were an intern for the First Lady's 
office?
    Answer. Yes.
    Question. And what did you do as an intern for the First Lady's 
office?
    Answer. Answered phones, drafted correspondence, distributed mail, 
filed documents, updated the filing system. General intern-type duties.
    Question. Were you assigned to any one person to assist them or 
just kind of everybody?
    Answer. I worked for the Special Assistant to the chief of staff 
and the chief of staff.
    Question. Just those two individuals?
    Answer. Mainly. But they worked out of the main First Lady's office 
area. So we received all of the general public--the main phone calls to 
the First Lady's office came through that office as well as the mail. 
We were kind of at the center point of the office.
    Question. Where were you located while you were an intern?
    Answer. In Room 100 of the Old Executive Office Building.
    Question. And they were over in the White House?
    Answer. No, they worked in Room 100 as well.
    Question. They worked in Room 100 also. Okay. Can you tell me the 
names of those two individuals?
    Answer. The special assistant to the chief of staff at the time was 
Diane Lemo. And chief of staff to the First Lady was Maggie Williams.
    Question. And then you told me you became a staff member in 
September of '94?
    Answer. Yes.
    Question. Do you remember when in September?
    Answer. Late September.
    Question. How did that happen? Were you approached about that?
    Answer. Diane Lemo, the woman who I had been working closely with 
as an intern, I had worked with her as an intern for 8 months, she got 
a new job, and I had learned a lot of the ropes through Diane and so I 
was offered her job.
    Question. Did Diane leave to--did she leave the White House or did 
she take another job in the White House?
    Answer. She started working for the Office of Management and 
Budget.
    Question. Obviously you accepted the job. Did you have to go 
through an interview process or anything?
    Answer. I don't remember--I don't really remember it. I don't know. 
I remember it was--Diane had begun looking for a new job sometime in 
the summer, so I remember it was a long period where Diane was trying--
she kind of was training me and passing a lot of stuff on to me. I 
don't remember there ever being any formal interview type of process.
    Question. Did you speak with Maggie Williams about taking that job?
    Answer. She was the one that offered me the job, yes.
    Question. And you're still with the First Lady's office today--no, 
I'm sorry, you told me you recently left. And where are you now?
    Answer. I am now the deputy director of scheduling for the First 
Lady, which is in the Office of Scheduling and Advance Staff.
    Question. And where is your office located now?
    Answer. It's in Room 185 1/2 of the Old Executive Office Building.
    Question. 185 1/2?
    Answer. Yes.
    Question. Where was your office located as the special assistant 
for the chief of staff?
    Answer. Room 100 of the Old EOB.
    Question. Where was the chief of staff's office during this time?
    Answer. Room 100 of the OEOB consists of three rooms. The main area 
where the door from the hallway is, off to the left of that room is the 
conference room, off to the right of that room is the chief of staff's 
office.
    Question. And you were?
    Answer. In the middle.
    Question. In the middle?
    Answer. Yes.
    Question. Is that where people would enter?
    Answer. Yes.
    Question. The reception area?
    Answer. Yes.
    Question. Was there anybody else in the Room 100 area?
    Answer. Volunteers and interns sat in the main reception area as 
well as me.
    Question. Can you tell me a little bit about the First Lady's 
office? Because I understand it's divided up. First, you're over at the 
Old Executive Office Building and so is the chief of staff. Who else is 
over there?
    Answer. Most of the staff is in the Old Executive Office Building. 
The Executive Assistant to the First Lady is in the West Wing, Mrs. 
Clinton's office is in the West Wing, the Social Office is in the East 
Wing, and that's about it.
    Question. Otherwise, everybody else is----
    Answer. Most everyone is in the Old Executive Office Building.
    Question. Did the chief of staff have another assistant besides 
you?
    Answer. Yes.
    Question. Who was that?
    Answer. When I started it was Evelyn Lieberman, and then it was 
Marge Tarmey, then it was Debbie Both, and then it was Peggy Lewis.
    Question. Who is it now?
    Answer. Melanne Verveer is currently the chief of staff and her 
assistant is Katie Button.
    Question. How long was Debbie Both the assistant to the chief of 
staff?
    Answer. Debbie Both, I believe was the assistant to the chief of 
staff 8 months perhaps.
    Question. Do you know when her term started?
    Answer. I seem to remember that it started in June of '95. I think. 
I think either May or June of '95. And I think she was there until 
around February, but I don't really remember.
    Question. And how about Peggy Lewis, when she would have started?
    Answer. She started then at around, February of '96, I think. And 
was there until April of '97, late March, early April.
    Question. Can you tell me as the special assistant to the chief of 
staff, what were your job duties or responsibilities?
    Answer. General assistant-type responsibilities. I kept track of 
the chief of staff's calendar, her phone messages, her phone log, her 
correspondence, oversaw the drafting of her correspondence, helped keep 
track of the filing system, served kind of as the main contact for the 
staff in terms of just general staff information. That's all I can 
really think of in terms of a specific description.
    Question. Can you distinguish for me the difference between your 
job duties and responsibilities and that of the assistant to the chief 
of staff?
    Answer. The assistant to the chief of staff, I think, had more 
project-oriented work with the chief of staff, where I think I was more 
assistant-type duties. The assistant to the chief of staff also 
served--I was a point of contact for the staff in terms of letting 
people know we're having a staff meeting or get your vacation time in 
at this point, but the assistant to the chief of staff served the 
function of dealing with the staff on more substantive issues, if 
someone was working on a project or, for instance, the director of the 
Correspondence Office usually reported to the assistant to the chief of 
staff in terms of correspondence issues for the First Lady.
    The Social Office would report to the assistant to the chief of 
staff in terms of updating the chief of staff on Social Office updates 
and stuff like that. So they served in a slightly different capacity I 
think.
    Question. Can you tell me, who was your immediate supervisor then?
    Answer. I pretty much reported directly to Maggie Williams, purely 
because of the fact that I was there through the duration and there 
were different assistants in and out.
    Question. Would the assistant have been in a supervisory role over 
you?
    Answer. Yes, I suppose. But it never really seemed like that, 
mostly because honestly I was there longer and so they usually--it was 
more of a team relationship just because of the fact I think I had been 
there and just in general information type of sense. But we generally 
worked pretty separately on different things, so I worked with Maggie 
on certain things and the assistant would work with her on other 
things.
    Question. And when did you tell me you recently left as assistant 
chief of staff?
    Answer. I started this job in late March of '97.
    Question. With your office in the Old Executive Office Building, 
were you at the White House very often?
    Answer. It would depend. If I were delivering something or picking 
something up or going to a meeting, then I would be in the White House. 
Other than that, no.
    Question. Did you ever assist--I know you mentioned organizing 
staff meetings. Did you ever assist in organizing senior staff 
meetings?
    Answer. Yes.
    Question. What did you do? How did you go about doing that?
    Answer. I would find a time that worked with everyone in terms of--
I would set up meetings. That was a typical duty of mine. Just in terms 
of finding the time when everyone could do it on a certain day and 
finding the people. I would just call other people's assistants and set 
it up through that manner.
    Question. And who would normally be included in those senior staff 
meetings?
    Answer. Senior staff meetings in the First Lady's office? The chief 
of staff, the deputy chief of staff, the social secretary, the press 
secretary, the director of scheduling. I think that's about--and the 
speech writer perhaps.
    Question. Did you plan any other senior staff meetings besides 
those in the First Lady's office?
    Answer. I took care of setting up a lot of different meetings. I 
would set up meetings--any meeting that Maggie was involved with. I 
wouldn't always set up, but I would also respond to people's calls who 
wanted to set up meetings.
    Question. Would you generally always be notified if Maggie Williams 
had a meeting with somebody else or they wanted a meeting with her?
    Answer. Generally, yes.
    Question. They would go through you?
    Answer. Yes.
    Question. Did you ever attend any of these senior staff meetings?
    Answer. No.
    Question. Did anyone ever go and just take notes?
    Answer. Generally, no. No.
    Question. Did you ever attend--besides regular staff meetings, did 
you ever attend any other meetings with Ms. Williams?
    Answer. Generally, no. She pretty much went to meetings on her own.
    Question. Did the assistant to her chief of staff go?
    Answer. They both went to the resident's meetings, which were the 
meetings that kind of kept track of the Social Office, and what was 
going on in the actual White House in terms of events, both the 
assistant to the chief of staff and Maggie would attend those meetings, 
but those are the only ones I think that the assistant attended, a 
meeting with her.
    Question. Only the resident's meetings?
    Answer. I think so.
    Question. How often did those occur?
    Answer. Those were weekly.
    Question. Do you know who generally would attend that?
    Answer. I think the President's schedulers, the First Lady's 
scheduler, the social secretary, and the chief of staff, Maggie 
Williams, and the assistant.
    Question. Do you know if Maggie Williams had a practice of taking 
notes during meetings?
    Answer. I don't know. I was--I can hardly remember ever being at a 
meeting other than staff meetings, big staff meetings, with her. So I 
don't know, and she never gave me notes, so I don't know.
    Question. She never gave you notes to type up?
    Answer. To file or type up, exactly.
    Question. Do you know if Ms. Williams, did she type her own letter 
or memoranda or was that one of your duties?
    Answer. Her correspondence was typed usually by the interns in the 
office. Memorandums, she sometimes typed them herself. Sometimes I 
would type them.
    Question. When you would type them, would she give you handwritten 
notes of what she wanted or did she dictate the memorandum to you?
    Answer. I don't really remember. I don't know. I can't remember. I 
don't remember dictation or anything like that.
    Question. So she must have maybe handwritten it out?
    Answer. Yes.
    Question. Did Ms. Williams have a call list?
    Answer. Yes.
    Question. Did she keep the list or did you keep that list?
    Answer. No. I would gather the messages generally from the outer 
main office area and the list--unless the assistant to the chief of 
staff was otherwise occupied and would switch it over to me, the list 
was generally kept on the assistant to the chief of staff's computer.
    Mr. McLaughlin. Do you want to identify your staffers who are here 
now for the record?
    Mr. Lawler. I'm curious.
    Ms. Safavian. I was going to say, Ms. Ryan, it's up to you.
    Mr. McLaughlin. No, this is just a practice. You haven't taken any 
depositions before at this point. Usually just when somebody comes into 
the room we stop and identify who it is.
    Ms. Safavian. That is fine.
    Ms. Ryan, this gentleman sitting right here is David Bossie. He's 
the chief investigator with the Majority, and next to him is Jim 
Wilson. I just gave you a card. He's the senior investigative counsel 
with the Majority. I apologize for that.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. We were talking about the call lists and you were telling 
me that the assistant to the chief of staff, it would be kept on her 
computer?
    Answer. Yes.
    Question. Was she also the one, then, that would add the names and 
update the list?
    Answer. Generally, yes.
    Question. Did you ever add names to the list?
    Answer. I kept track of the phone messages themselves in the outer 
office area so I would pass them along to her. So in that respect I 
did. Or if Maggie mentioned to me she wanted someone on the list, then 
I would let her know.
    Question. So you would let the assistant know Maggie would like so 
and so on the list and they would take care of that?
    Answer. Yes.
    Question. Was the call list mainly for business, or was it also 
personal? Can you give me an idea of what was on the call list?
    Answer. I think it was anybody that called the office for her, from 
what I can remember, any messages we received for her. So they were 
probably both business and personal.
    Question. Ms. Ryan, I'm going to hand you this document. This is 
copy of an e-mail that you sent to Peggy Lewis on May 9, 1996. Would 
this be the time when she was assistant to Maggie Williams?
    Answer. Yes.
    Question. You're telling her that Maggie wanted John Huang's name 
to be added to her call list?
    Answer. Yes.
    Question. Is this normally the procedure you would go through to 
get names added to the call list?
    Answer. Usually I would just tell her or call. I would imagine that 
she was not around at the time or it wasn't on a phone message slip.
    Question. Who do you mean by ``she''?
    Answer. I'm sorry, Peggy Lewis.
    Question. Can you tell me, do you know if there's any specific 
reason why Ms. Williams wanted to add John Huang to her call list on 
this specific date?
    Answer. I don't know why, no.
    Question. Would Ms. Williams usually tell you why she would want 
someone added to a call list?
    Answer. No.
    Question. She would just provide you with the name and number?
    Answer. Yes.
    Question. It also mentions, is Chuck Supple still on the list?
    Answer. Yes.
    Question. Do you recall who Chuck Supple is?
    Answer. No. I'm just trying to figure that out. No, I don't know.
    Question. Do you know if Ms. Williams was in contact often with 
John Huang?
    Answer. I don't know, no.
    Question. Do you recall taking messages for Ms. Williams from him?
    Answer. I don't, so I would have to guess that--you know, I think I 
would remember, so I don't know.
    Question. Do you recall setting up meetings with Ms. Williams and 
John Huang?
    Answer. I don't, no.
    Ms. Safavian. I was going to mark this as an exhibit. This will be 
ER-1.
    [Ryan Deposition Exhibit No. ER-1 was marked for identification.]

    [Note.--All exhibits referred to can be found at end of 
deposition.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Ms. Ryan, did you ever travel professionally with Maggie 
Williams?
    Answer. No.
    Question. Would anybody? Would her assistants?
    Answer. She really didn't travel much. The--most of the staff went 
to the Democratic National Convention last year, but other than that, 
Maggie didn't do a lot of traveling. If she did travel, she traveled on 
her own.
    Question. On her own, for business, she wouldn't even bring her 
assistant with her?
    Answer. No.
    Question. Did she travel often with the First Lady?
    Answer. No.
    Question. Do you know if Maggie Williams would interact at all or 
have any meetings with Harold Ickes?
    Answer. I think so, yes.
    Question. Was it often?
    Answer. I don't remember how often it was or when it was. I 
remember that they met, but I don't remember how frequent or if there 
was any regularity to it.
    Question. Would these be scheduled meetings?
    Answer. I remember scheduling meetings. I don't remember when, but 
I remember at some point they were definitely on the schedule.
    Question. Do you recall if these meetings with Mr. Ickes were just 
between Ms. Williams and Mr. Ickes or was it other people involved, 
also?
    Answer. Probably both, but I don't remember specifically.
    Question. Do you recall the purpose behind any of these meetings?
    Answer. No.
    Question. Ms. Williams is no longer the chief of staff as you 
already mentioned. When did she resign?
    Answer. The beginning of May of 1997.
    Question. Have you kept in contact with her since she's left?
    Answer. Yes.
    Question. How often do you speak with her?
    Answer. Usually once or twice a week.
    Question. Oh, really?
    Answer. Uh-huh.
    Question. And she's over in France; is that correct?
    Answer. Not yet.
    Question. Oh.
    Answer. She leaves in a week or two, I think. Very soon.
    Question. Do you get together for lunch?
    Answer. Yes. She actually is a very close friend of mine. So I 
speak with her and occasionally see her.
    Question. Ms. Ryan, can you tell me, were any DNC employees working 
at the White House from May 1995 through the 1996 election?
    Mr. Lawler. I don't want to cut you off, but just anticipating a 
following question you might want to ask her, and she can speak for 
herself, she may not discuss this investigation. They keep in contact, 
but Evan once this stuff came out was the first time she contacted us, 
we have asked Evan not to discuss the substance of any investigation or 
stories or whatever, particularly about the Johnny Chung stuff, with 
Maggie, so their contacts are personal and social rather than 
substantive.
    Ms. Safavian. I'm sorry, were you trying to say that Ms. Williams 
contacted you after the articles regarding Johnny Chung were published?
    Mr. Lawler. No, no, she contacted us. Me.
    Ms. Safavian. Ms. Williams contacted you?
    Mr. Lawler. No, no, Evan contacted me. She's my client.
    Ms. Safavian. That's why I was trying to understand that.
    Mr. Lawler. Right.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. You were speaking to him about whether or not you could 
talk with Ms. Williams?
    Answer. They just advised me not to.
    Question. And so you have not spoken to Ms. Williams?
    Answer. We have not spoken about any of this, no. Personal.
    Question. You didn't talk at all about Johnny Chung or anything 
that was written in the newspaper articles?
    Answer. She once mentioned to me that she was sorry that I was 
involved in this, she was speaking of the L.A. Times article, but 
that's all she said.
    Question. And no further conversation on that subject?
    Answer. She was inquiring as to how I was and said that she was 
sorry that my name is now out there and involved and she's sorry about 
that and I said, that's okay, and that was the end of it.
    Question. We'll talk a little bit further about Johnny Chung, but 
getting back to the DNC, do you recall if there were any DNC employees 
working in the White House during the election?
    Answer. I don't recall DNC. Just because of the news I know that at 
one point Barbara Woolley was employed by the DNC but a volunteer at 
the White House, but I'm not aware of that.
    Question. I'm sorry, who was that?
    Answer. Barbara Woolley. I just remember it from ABC News, but 
other than that, that's my only knowledge.
    Question. Ms. Ryan, I'm going to hand you another exhibit. And you 
see that is a telephone message slip. It's to Maggie, who I assume is 
Maggie Williams.
    Answer. Yes.
    Question. It's from somebody named Adam, calling from Leon 
Panetta's office on May 22. From the cover sheet, you can barely make 
it out but it looks like '95 to me. Do you agree?
    Answer. Yes.
    Question. It's talking about a meeting from 2:00 to 2:30, a half-
hour meeting on Wednesday, May 24, regarding DNC employees working at 
the White House.
    Answer. Yes.
    Question. Do you know who took this message? Do you know who those 
initials are?
    Answer. I can't quite--it looks like an ``E'' and something else. 
It generally would have been a volunteer or an intern, and it looks 
like at 6:45--it must have been one of our evening volunteers. I would 
have to go back and--I don't know. I could check volunteer logs.
    Question. Do you recall scheduling this meeting for Ms. Williams?
    Answer. Not specifically, no. It's possible, but I don't recall it.
    Question. Do you recall--did Ms. Williams ever speak with you later 
about this meeting regarding DNC employees working at the White House?
    Answer. No.
    Question. So as far as you know, you do not know of any DNC 
employees working at the White House?
    Answer. I, as I said, heard it on the news one time, but other than 
that, no, I have no knowledge myself.
    Ms. Safavian. We're going to go ahead and make this exhibit ER-2.
    [Ryan Deposition Exhibit No. ER-2 was marked for identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Can you tell me, did you have any specific contact with 
any DNC employees?
    Answer. At the DNC?
    Question. Yes.
    Answer. Yes. I don't--I remember getting phone calls from the DNC 
or returning calls or talking to people at the DNC. I didn't have a 
specific person at the DNC that I spoke with, but I'm sure I spoke with 
the DNC on occasion.
    Question. Do you recall speaking to any one individual more often 
than another?
    Answer. No. I'm responding to this because I've been asked this 
before. I don't. I didn't have a person that I knew to call at the DNC. 
I probably was returning a phone call. There was no one person that I 
would call there.
    Question. If you had to call someone at the DNC, who did you decide 
you would call or who do you speak to?
    Answer. It would probably depend on what I was calling about, and I 
think I would call the main number and asked for whichever office I 
needed.
    Question. How would you know which office you needed?
    Answer. Depending on what it was, depending on what I was calling 
about.
    Question. Were you calling on behalf of Maggie Williams or somebody 
else?
    Answer. Oh, I don't know. I'm just speculating here.
    Mr. McLaughlin. Don't speculate. The committee's not interested in 
guesses or speculation. Just stick to what's in your personal 
knowledge.
    The Witness. I have no specific memory of contacting the DNC about 
any one specific event. I can't rule out. I'm sure I talked to them, 
I'm sure I did on occasion, but it's nothing that's imprinted on any 
memory.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Could you tell me, would you have contacted the DNC 
because somebody asked you to?
    Answer. Perhaps. But as I said, I don't remember.
    Question. Was there--do you know if there was a specific liaison 
between the First Lady's office and the DNC?
    Answer. Not to my knowledge.
    Question. Do you know whether Maggie Williams participated in any 
DNC fund-raising activities during the 1996 election cycle?
    Answer. Not to my knowledge.
    Question. Do you know if Maggie Williams participated in any way 
with the 1996 Clinton/Gore Re-election Campaign?
    Answer. I don't know.
    Question. Do you recall ever scheduling any meetings for Ms. 
Williams regarding DNC fund-raising activities?
    Answer. When I set up meetings for her, they generally weren't by 
topic. They were by individuals, so I don't remember specifically, no.
    Question. So you don't have any specific recollection of scheduling 
a meeting for Ms. Williams with anybody at the DNC?
    Answer. It's possible. I don't remember specifically.
    Question. Okay. That's fine.
    Did you ever arrange any meetings between DNC donors and the First 
Lady's office?
    Answer. No. Not that I remember.
    Question. Do you know if there was somebody in the First Lady's 
office who would arrange these meetings?
    Answer. Between who?
    Question. DNC donors and the First Lady or anybody else, Maggie 
Williams, anybody in the First Lady's office?
    Answer. I would imagine any meetings that were set up between Mrs. 
Clinton and DNC donors or DNC employees would be set up by, where I am 
now, her scheduling office, which sets up all of her meetings. I don't 
remember setting up any meetings between Maggie and DNC donors myself. 
But, as I said, I typically knew them as individuals in terms of their 
names, not in terms of always who they were or what the meeting was 
about.
    Question. Right. Okay.
    Were you ever involved at all in arranging any meetings with the 
President's staff?
    Answer. No.
    Question. Was there anybody in the First Lady's office who would 
have been in contact with the President's staff to arrange meetings?
    Answer. Between whom?
    Question. Well, we could start just general. Any meetings. Have you 
had to schedule a meeting with the President or with somebody in his 
office? Is that something that you would do or would somebody else in 
the First Lady's office have a contact in the President's office?
    Answer. I would only have been involved if it involved Maggie 
meeting with the President. If in terms of the President and the First 
Lady, that would be the First Lady's scheduling office who would deal 
with a meeting that anyone else was involved in.
    Question. So her scheduling office would be the ones who would 
perhaps schedule a meeting with the President?
    Answer. If it involved her. If it involved Mrs. Clinton.
    Question. If it did not involve Mrs. Clinton at all?
    Answer. We didn't deal with it, yes.
    Question. Did you refer that person to somebody at the President's 
staff, in his office?
    Answer. If somebody was looking to meet with the President?
    Question. Yes.
    Answer. We would refer them to the President's scheduling office. 
Not to a person specifically, but a phone number.
    Question. Did you ever arrange any meetings with agency officials 
and DNC donors?
    Answer. No.
    Question. Do you know if anyone in the First Lady's office arranged 
such meetings?
    Answer. No.
    Question. Was the White House Mess ever used to entertain DNC 
supporters or donors?
    Answer. Not that I remember. I know that Johnny Chung did eat 
there. That was by his request. No, it was never used to my knowledge 
to entertain DNC donors.
    Question. Were you ever asked to make White House Mess 
reservations?
    Answer. Yes.
    Question. Did you always know who you were making them on behalf 
of?
    Answer. Generally, I made them for lunches Maggie was going--for a 
lunch she was having with someone. I don't remember everybody that she 
had lunch with, so I don't know.
    Question. Would you just make White House Mess reservations only 
when Maggie Williams was going to be having lunch there, for instance?
    Answer. I dealt with her reservations, yes. On occasion, she--we 
used her account at the White House Mess and someone ate there on her 
account without her presence.
    Question. So she would not always have to be present for someone to 
be able to eat in the White House Mess?
    Answer. Right. Yes.
    Question. But you would always schedule reservations under her 
name?
    Answer. With her permission, yes.
    Mr. Lawler. You want to explain how you need an account? I mean, 
you couldn't make a reservation.
    The Witness. Yes. I don't have a White House Mess account. People 
who work in the West Wing of the White House have Mess accounts, as do 
assistants to the President. So in order to eat at the White House 
Mess, you have to have an account or be there on somebody's account.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. So how would somebody pay? Did you have to pay if you ate 
in the White House Mess?
    Answer. It would be billed to that person's account and they would 
receive a bill monthly.
    Question. When you say ``that person's account,'' do you mean, for 
instance, Maggie Williams' account?
    Answer. For whomever's account you're eating on, yes.
    Question. What would Ms. Williams then do?
    Answer. Generally she was reimbursed by whomever it was that ate 
lunch on her account. This wasn't often, though.
    Question. So, for instance, you earlier mentioned Johnny Chung has 
eaten in the White House Mess. Do you know if that would have been on 
Ms. Williams' account?
    Answer. Yes.
    Question. So she would have gotten a bill showing that Johnny Chung 
had lunch there?
    Answer. Yes.
    Question. And showing the amount?
    Answer. Yes.
    Question. What would she then do to get reimbursed from Mr. Chung?
    Answer. I can't remember how we worked that reimbursement or how 
that happened. I don't know if that day he reimbursed her. I don't know 
if later on. I don't remember how that worked. I'm sure there was 
reimbursement, but I don't remember.
    Question. Would he have known right away how much it cost to have 
lunch there? Could Mr. Chung have known before he finished that it was 
going to cost him X dollars?
    Answer. I suppose if he asked the people at the Mess he may have 
been able to find out. If not, it would appear on her bill that month.
    Question. So she got a monthly statement?
    Answer. Yes.
    Question. Would the statement--how would she know on the statement 
who ate there and who gets the bill?
    Answer. The statement just would say lunch for five or lunch for 
four. It would have the date and the amount.
    Question. So how did they know? Did she keep track of it somehow?
    Answer. I don't remember in this case; I don't know. I feel like I 
would be guessing.
    Question. I don't want you to do that.
    Answer. I don't remember specifically in this situation how we 
handled the billing. I don't remember.
    Question. Is that something that you would have handled for her?
    Answer. Probably.
    Question. Is there anybody else who would have handled that for 
her?
    Answer. If not me, then the assistant to the chief of staff would 
have been the other person. It would have been one of us. I don't 
remember specifically. It could be just because it didn't leave an 
imprint on my memory, but I don't know.
    Question. Do you recall if--you would receive the monthly 
statement, and then would you like send out a letter?
    Answer. I don't know. Perhaps. I don't know.
    Mr. McLaughlin. Don't guess.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. I know you said it didn't happen very often. Do you 
recall who would have lunch at the White House Mess under Ms. Williams' 
account?
    Answer. The only other person that I think had lunch on the White 
House Mess account and Maggie was not present was Mark Middleton.
    Question. Was Ms. Williams usually present for all the other 
lunches?
    Answer. Yes. She didn't really eat at the Mess that often.
    Question. Would guests of hers be able to eat on her account? What 
I'm trying to get at, would she accompany the guests who would eat at 
the White House Mess more often that not or were they on their own 
without her present?
    Answer. More often than not, she was with them. But even then that 
wasn't that often.
    Question. And so you're telling me perhaps the only time when she 
wasn't present for lunch was when Mark Middleton was eating on her 
account?
    Answer. I believe I remember one time when Mark Middleton had lunch 
at the Mess and she wasn't present.
    Question. Is there any specific reason why she would or would not 
accompany somebody who was eating lunch on her account?
    Answer. It was Mark Middleton's request of her after he had left 
the White House, he wanted to have lunch there and was wondering if he 
could put it on her account.
    Question. Did he wonder if he could have lunch there without her 
present?
    Answer. I think so. I think. It wasn't in terms of do you want to 
come to lunch. It was more like, I wanted to go to the Mess; do you 
mind if I use your account.
    Question. And she didn't have a problem with that?
    Answer. And she said it was okay, yes.
    Question. Did she normally always say it was okay for somebody to 
eat on her account?
    Answer. Generally it wasn't a request that was made that often from 
what I know, and she really didn't eat at the Mess that often.
    Question. So to your knowledge you do not know if any DNC donors 
ever had lunch with Ms. Williams in the White House Mess?
    Answer. I don't know.
    Question. Do you recall ever requesting the DNC to reimburse for 
bills that were on the account?
    Answer. I don't remember that, no.
    Question. Did you ever arrange for a DNC donor to spend the night 
at the White House?
    Answer. No.
    Question. Did you ever arrange for anybody to spend the night at 
the White House?
    Answer. No.
    Question. Do you know if anybody in the First Lady's office was in 
charge of that responsibility?
    Answer. I don't know.
    Question. Did you ever arrange for DNC donors to fly aboard Air 
Force One or Air Force Two?
    Answer. No.
    Question. Did you ever arrange for anybody to fly aboard Air Force 
One or Air Force Two?
    Answer. No.
    Question. Do you know if anyone in the First Lady's office was 
charged with that responsibility?
    Answer. Not that I know of.
    Question. Did you ever arrange for DNC donors to attend White House 
private dinners?
    Answer. No.
    Question. Did you ever arrange for anyone to attend White House 
private dinners?
    Answer. No.
    Question. Do you know if there was anybody charged with that 
responsibility in the First Lady's office?
    Answer. I would imagine White House dinners were Social Office 
functions. So I'm sure the social secretary was generally in charge of 
the guest lists.
    Question. Did you ever arrange for any DNC donors to attend any 
function at the White House?
    Answer. No.
    Question. Did you ever arrange for anybody to attend a function at 
the White House?
    Answer. Functions at the White House fell under the Social Office. 
They did all the inviting of any guest, whether it be by phone or by 
formal invitation in the mail, so it wasn't part of my duties.
    Question. If someone would contact you or call you up and ask you, 
can I be invited to a function or dinner, what would you do with that 
request?
    Answer. I would call the Social Office and give them that person's 
name and number and they would then handle it from there.
    Question. Did you ever arrange for DNC donors to attend the 
President's radio address?
    Answer. No.
    Question. Did you ever arrange for anybody to attend the 
President's radio address?
    Answer. If anyone made a request to attend the radio address, which 
I really don't recall, I would call Oval Office Operations and speak to 
someone. They were in charge of the radio address.
    Question. You would speak to them and try and set up----
    Answer. Pass on the person's information.
    Question. And they would take it----
    Answer. I think generally there's a waiting list. I've just heard 
of other people who have had family members get off the waiting list. I 
don't know. I don't remember ever doing it, no.
    Question. So you would refer their name to somebody at that office?
    Answer. Yes.
    Question. Did you ever arrange for DNC donors to use the 
President's box at the Kennedy Center?
    Answer. No.
    Question. Did you ever arrange for anybody to use the President's 
box at the Kennedy Center?
    Answer. Yes.
    Question. And who would that have been; do you recall?
    Answer. Maggie Williams. Perhaps another staff member. I don't 
remember. I just remember people have come to me either asking who they 
talk to or maybe I called, but I don't know. I remember calling on 
Maggie's behalf.
    Question. Were you able to get her tickets?
    Answer. Sometimes yes, sometimes no, I think. I don't remember. No, 
not often, but I would just remember it being maybe three times or so. 
I don't remember.
    Question. Do you remember who the staff person was that you also 
tried to get tickets?
    Answer. No. I think mostly people were asking me who they contacted 
if they wanted to go into the box. I don't remember, no.
    Question. Do you remember who you would contact to get the tickets 
for Ms. Williams?
    Answer. Yes.
    Question. And who would that be?
    Answer. Debi Schiff.
    Question. And who is she?
    Answer. She sits in the main reception area in the West Wing of the 
White House on the first floor.
    Question. And who does she work for?
    Answer. I'm not quite sure who her immediate superior is. I don't 
know what her title is. I think she is the VIP receptionist, the person 
who's in that main reception area in the West Wing.
    Question. Is she the only person that you would contact about that?
    Answer. She is in charge of the Kennedy Center box, yes.
    Question. Did you ever arrange for DNC donors to attend movies at 
the White House?
    Answer. No.
    Question. Did you ever arrange for anybody to attend a movie at the 
White House?
    Answer. No.
    Question. Was there anybody in the First Lady's office who would 
arrange such evenings?
    Answer. Not that I'm aware of. Ann Stock, the social secretary, but 
once again I don't know.
    Question. You believe Ann Stock may have been the one to arrange 
that?
    Answer. I believe she was in charge of all functions like that in 
the White House, any event, movies, dinners, official events, anything 
that took place in the White House. I believe Anne Stock was the person 
who was the point of contact or in charge of the event.
    Question. Did anyone ever call and ask you to help them get a place 
at the White House movie, a spot to watch?
    Answer. No.
    Question. Did you ever arrange for DNC donors to use the White 
House tennis courts?
    Answer. No.
    Question. Did you ever arrange for anybody to use the White House 
tennis courts?
    Answer. White House staff can use the White House tennis courts. 
They can call an office. I think there are certain days or certain 
hours it's available for White House staff to use the tennis courts. So 
I've done it myself. But other than that, I haven't arranged it for 
anyone else.
    Question. Was there anybody in the First Lady's office who was in 
charge of arranging?
    Answer. The tennis courts?
    Question. Yes.
    Answer. No. No.
    Question. Did the DNC ever ask you to secure photos for DNC donors 
with the First Lady?
    Answer. No.
    Question. Did you ever secure photos with the First Lady with 
anybody?
    Answer. I do now in my job as a scheduler, but, no, then, I never 
set up photos with Mrs. Clinton, no.
    Question. Who would normally have set up those photos?
    Answer. The scheduling office. The First Lady's scheduling office.
    Question. Did you ever get requests from anybody asking if you can 
help them get a photo with the First Lady?
    Answer. I think we received letters from the general public. I'm 
sure she received different requests. The volunteers in our office 
looked forward to having a photo with her. I remember they would talk 
about it. And Mr. Chung, as we know, was looking to get a photo with 
her in March of '95. Other than that, I can't recall specifically 
people asking for photos.
    Question. Mentioning the interns and Johnny Chung, would they 
approach you about getting a photo with the First Lady?
    Answer. Yes.
    Question. And what would you do when a request like that came?
    Answer. Generally the intern sessions last through the fall, the 
spring, and the summer. Each intern session we try to set up a photo at 
the end of the session with Mrs. Clinton and the First Lady interns. I 
would contact the scheduling office and they would try to find a time 
where it fit into her schedule.
    Question. Would that be a group photo?
    Answer. Group photo. Sometimes she would shake hands with the 
interns, and they would be able to take individuals. It depended.
    Question. With regard to Johnny Chung, because you also mentioned 
him, he personally asked you to set up a photo with the First Lady?
    Answer. He asked if I thought it would be possible to get a photo 
with the First Lady, yes.
    Question. What was your response to that request?
    Answer. I would check to see if it was possible.
    Question. Was it possible?
    Answer. Yes.
    Question. How many times did he ask you to help him get photos with 
the First Lady?
    Answer. That's the only time I can think of.
    Question. It was one time?
    Answer. Yes.
    Question. And you were able----
    Answer. He attended several Democratic Party events where he had 
photos with the First Lady, so he expressed an interest this time 
because he had guests with him.
    Question. Do you recall what this time is?
    Answer. March of '95.
    Question. Was there any process you had to go through to be able to 
get this photo opportunity for him with the First Lady?
    Answer. I mentioned it to Maggie Williams, and that was the last I 
dealt with it in terms of setting it up.
    Question. So in that instance you went directly to Ms. Williams to 
take care of it instead of calling the First Lady's scheduler?
    Answer. Yes.
    Question. Any particular reason?
    Answer. Well, because on this occasion Mr. Chung had several 
requests: He wanted to have lunch at the mess, he wanted a photo with 
Mrs. Clinton, he wanted a tour of the White House, and he wanted to see 
if he could get into the radio address. So I took all those requests in 
to Ms. Williams.
    Question. I understand that you just scheduled the intern photos 
and one with Johnny Chung. Do you know----
    Mr. Lawler. Actually, she didn't schedule the one with Johnny 
Chung.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Excuse me, you arranged at least for the interns to have 
a photo?
    Answer. Yes.
    Question. And you spoke with Ms. Williams about Johnny Chung's 
photo?
    Answer. Yes.
    Question. Do you know what the process was? Does someone have to 
pay for these photos with the First Lady?
    Answer. Not to my knowledge, no.
    Question. So you don't know if Johnny Chung or his guests had to 
pay for the photo they had?
    Answer. I don't--I have no knowledge of anyone ever being charged 
for a photo, no.
    Question. I want to just show you these. They are copies of four 
pictures that are taken with the First Lady with four different 
individuals. What I'm interested in with these photos is at the bottom 
of each photo.
    Answer. Yes.
    Question. They are addressed, I assume, to the individual in the 
photo?
    Answer. Yes.
    Question. For instance, the first one, which is Bates Stamped EOP 
029612, says, ``To,'' and I will try to pronounce this correctly, 
``Zheng Hongye,'' I am not really sure. It says, ``With best wishes, 
HRC,'' Hillary Rodham Clinton?
    Answer. Yes.
    Question. Do you know the process, the procedure to get photos with 
the First Lady addressed and signed like this?
    Answer. Yes. The Office of Correspondence does the calligraphy 
portion on the bottom, and they also have an autopen machine that can 
be used, although Mrs. Clinton also signs photos as well.
    Question. She does?
    Answer. Yes.
    Question. So is there any way for you to tell whether this is an 
autopen or Mrs. Clinton's own signature?
    Answer. No. I am fooled by the autopen, so I don't know which--I 
don't know.
    Question. And who was it that you said had the autopen?
    Answer. The Office of the First Lady's Correspondence.
    Question. Would they be the only office who had the autopen with 
her signature?
    Answer. I don't know if the general Office of Correspondence may 
have an autopen for her as well. I don't know.
    Question. Was this normal? Would every photo with the First Lady be 
addressed to the individuals and then signed with her name?
    Answer. We tend to do them for a lot of the photos, if the person 
requests it.
    Question. And as far as you know, there is no charge for the photo 
or for the signature or anything like that?
    Answer. Not to my knowledge.
    Question. Do you happen to know the individuals in these photos? I 
know that's kind of hard to tell their faces, but their names are at 
the bottom. Do any of these names mean anything to you?
    Answer. No, they don't.
    Question. Do any of the faces? Do you recognize any of the faces?
    Answer. I can tell that these are Johnny Chung's business friends 
that he had with him, but I don't know the names at all, no.
    Question. Was this the March meeting that you mentioned earlier?
    Answer. Yes.
    Ms. Safavian. I'm going to go ahead and mark this as Exhibit ER-3.
    [Ryan Deposition Exhibit No. ER-3 was marked for identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Were DNC donors ever sent a birthday card from the First 
Lady?
    Answer. I don't know.
    Question. Were you in charge at all of sending out birthday cards 
from the First Lady?
    Answer. No.
    Question. Do you know if anybody was in the First Lady's office?
    Answer. Probably the correspondence office, the Office of the First 
Lady's Correspondence. I can't say for sure.
    I know that the Office of Presidential Correspondence sends 
birthday greetings from both the President and the First Lady. So I 
don't know if the First Lady's office sends just from the First Lady. I 
don't know.
    Question. Have you ever gotten a request for a birthday card or 
anniversary card or any special event like that from the First Lady? 
Has someone contacted you about that?
    Answer. We have a form. When I worked in this office, we had a form 
for events, a correspondence form, we could fill out for a birthday 
greeting, anniversary, birth of a child, graduation, congratulations-
type form that you would fill out with the person's information and 
address, and we would send it down to the correspondence office. But it 
was for something from both the President and the First Lady. It wasn't 
specifically a First Lady letter, so to speak.
    Question. And you would fill out those forms why? Was it in 
response to a request from somebody?
    Answer. We filled them out for anybody that wrote into the office 
or called into the office.
    Question. Anybody could do that?
    Answer. Uh-huh.
    Mr. Lawler. I got a birthday card from Ronald Reagan once.
    Ms. Safavian. Did you?
    Mr. Lawler. I got a postcard from Amy Carter.
    Ms. Safavian. Well, I am even more impressed.
    Mr. McLaughlin. I got one from Millie.
    Ms. Safavian. Okay, you win.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Were DNC donors or potential donors ever invited to have 
lunch with Maggie Williams?
    Answer. Not to my knowledge, no.
    Question. Do you recall ever scheduling any of these lunches for 
Ms. Williams?
    Answer. I recall scheduling lunches for her, but they would be the 
individuals, same as her meetings. I don't know who they were 
specifically or what the lunches were for, but, no, I don't know that 
she ever had a lunch with donors or potential donors, no.
    Question. When you were scheduling these lunches, did you ever have 
a list? Did you provide her with a list of the attendees?
    Answer. No. I would schedule, I would put something on her schedule 
with the people's names who she was having lunch with, but I never had 
lists of--I don't believe she ever had a lunch where she needed a list 
of people.
    Question. It was usually small lunches?
    Answer. Yes. But, actually, she really didn't have many lunches; 
very, very few.
    Question. About how many people would attend the lunch with Ms. 
Williams?
    Answer. There's no set amount of people. There would be--I mean, 
this is if she was having lunch with someone, I would schedule it. I 
don't recall there ever being--there was never a set lunch where it 
would be a group of people for a specific purpose. That I have no 
knowledge of.
    Question. And you said these lunches were not very frequent?
    Answer. She rarely had lunches with people. She was pretty much at 
her desk or working. She wasn't out having lunch with people or in the 
mess having lunch with people.
    Question. Do you recall then how many lunches you scheduled for Ms. 
Williams?
    Answer. No, I don't know. I worked for her for a long time. I don't 
know. It's tough to gauge specific numbers.
    Question. When you would schedule one of these lunches, was that 
usually Ms. Williams asking you to schedule a lunch, or somebody would 
contact you?
    Answer. Or vice versa. If someone wanted to have lunch with her, 
you know, we would ask her if she was able to have lunch with them. If 
she had someone that she wanted to have lunch with, then she would say 
maybe I should contact them.
    Mr. McLaughlin. Counsel, is this going somewhere relating to 
campaign fund-raising?

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Can you tell me were DNC donors or potential donors ever 
invited to have lunch with the First Lady?
    Answer. I don't know. That's something that the Scheduling Office 
probably would have dealt with. Nothing that was in my scope at that 
point.
    Question. So nobody ever contacted you to arrange a lunch with the 
First Lady?
    Answer. No, not that I remember. No.
    Question. Let me show you this memorandum. As you can see, it is 
dated May 5, 1994. It's addressed to Ann Cahill from Martha Phipps 
regarding White House activities.
    First of all, can you tell me do you know who Ann Cahill is?
    Answer. The name is somewhat familiar, but no, I don't know 
specifically who she is.
    Question. So you have never had any contact with Ms. Cahill?
    Answer. Not that I remember. The name is vaguely familiar, but I 
don't remember her specifically.
    Question. Do you know who Martha Phipps is?
    Answer. Martha Phipps, I remember that name as a DNC name. I don't 
know how I know that.
    Question. Did you ever have any contact with Ms. Phipps?
    Answer. Possibly, because I do recognize that name more than I do 
Ann Cahill, but I don't remember a specific instance.
    Question. Do you recall ever--first of all, ever seeing this 
memorandum? Please take a look at it and tell me if it looks familiar 
to you at all.
    Answer. No, it doesn't.
    Mr. McLaughlin. I note for the record that Evan Ryan's name does 
not appear in the memo.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Let me start with the first paragraph. ``In order to 
reach our very aggressive goal of $40 million this year, it would be 
very helpful if we could coordinate the following activities between 
the White House and the Democratic National Committee.''
    Were you aware that there was a $40 million goal for 1994 to reach?
    Answer. No, I was not.
    Question. Did anyone ever discuss any goals with you to reach for 
'94 or any year?
    Answer. No.
    Question. If you turn to the second page, number 16, it says, ``One 
lunch with the First Lady per month. Contact: Maggie Williams.''
    Were you aware of these lunches with the First Lady once a month?
    Answer. No.
    Question. Do you know if Ms. Williams in fact scheduled these 
lunches with the First Lady?
    Answer. I don't know, no. And, actually, I'm just noticing that at 
the time, I had been an intern there for three or four months in May of 
'94, so--but I don't know. No, I don't remember that at all.
    Question. So this is not something that you assisted Ms. Williams 
in arranging?
    Answer. No.
    Ms. Safavian.  Let's mark this exhibit ER-4.
    [Ryan Deposition Exhibit No. ER-4 was marked for identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Do you know whether the DNC ever asked the First Lady to 
make fund-raising phone calls?
    Answer. No, I don't know. I have seen in another deposition, 
memorandums, but I had never seen them before.
    Question. Do you know who Marvin Rosen is?
    Answer. The name is familiar as a DNC name, but no.
    Question. So you mention that you saw these call sheets during your 
Senate deposition?
    Answer. Yes.
    Question. Had you seen them before that?
    Answer. No.
    Question. Had you ever heard anybody talk about DNC call sheets for 
the First Lady prior to your deposition with the Senate?
    Answer. No, I had not.
    Question. That was your first knowledge of such call sheets?
    Answer. Yes.
    Question. Are you aware of whether or not Ms. Williams ever 
contacted the First Lady about these calls?
    Answer. I don't know.
    Question. Would you know whether the First Lady made any fund-
raising calls?
    Answer. I don't know.
    Question. Are you aware that the First Lady attended a series of 
coffees held at the White House during 1995 and 1996?
    Answer. I believe both the President and the First Lady did, I 
think. My knowledge is basically based on media accounts, though, so I 
don't have any specific recollection from my work experience, no. Once 
again, that is a scheduling issue which I was not a part of.
    Question. So you never scheduled for the First Lady any of these 
coffees?
    Answer. I was working last year still for Maggie Williams. I only 
moved over to the Scheduling Office in March of '97. So, no.
    Question. Did Ms. Williams ever ask you to assist in scheduling one 
of these coffees?
    Answer. No.
    Question. Let me back up, I guess, for a second. Were these coffees 
with the First Lady ever discussed? Did Ms. Williams ever discuss 
these?
    Answer. No.
    Question. So the only way you even know that the First Lady 
attended coffees was from news accounts?
    Answer. I think that's what my knowledge is based on. I don't 
remember ever in the office hearing about the coffees specifically, no.
    Question. And you never assisted Maggie Williams with scheduling 
coffees?
    Answer. No. I would be surprised if Maggie was involved in the 
scheduling of the coffees. I don't know.
    Question. Why do you say that?
    Answer. Well, because I think I would know if she were involved in 
setting up these coffees. But I don't remember that at all, so----
    Question. Do you ever recall Maggie Williams having to approve an 
attendee list for one of these coffees?
    Answer. I don't remember that, no.
    Mr. Lawler. Would this be a good point to take a break for a couple 
of minutes?
    Ms. Safavian. Absolutely.
    [Brief recess.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Just finishing up real quickly with the coffees we were 
talking about before the break.
    Did you ever happen to see any spreadsheets prepared by the DNC 
regarding the coffees and how much money they raised or may have 
raised, given to Maggie Williams or for the First Lady or anything like 
that?
    Answer. No.
    Question. Do you know who Truman Arnold is?
    Answer. I believe that name is associated with the DNC, but I don't 
know in what capacity.
    Question. Have you ever had any contact with him?
    Answer. No.
    Question. Do you know whether or not Mr. Arnold ever visited the 
First Lady or Maggie Williams?
    Answer. No.
    Question. Do you know who Bernard Rapoport is?
    Answer. No.
    Question. Michael Berman?
    Answer. Yes.
    Question. Who is he?
    Answer. I forget name of the firm he works with, but I have met him 
on occasion.
    Question. Where have you met him?
    Answer. In the office.
    Question. And why was he there?
    Answer. I believe he was at meetings in our office.
    Question. Who was he meeting with; do you remember?
    Answer. I believe there were big meetings because--I remember there 
being a lot of people. I don't remember specifically who was in the 
meeting.
    Question. Do you recall if Maggie Williams was in the meeting?
    Answer. I think she was.
    Question. Do you recall if the First Lady was in the meeting?
    Answer. I don't think so, no.
    Question. Was he around often? Can you give a number to the number 
of times?
    Answer. No, I'm not sure.
    Question. How about Ron Perelman?
    Answer. I know who he is, not--I just know the name.
    Question. Have you ever met him?
    Answer. No.
    Question. How about John Phillips?
    Answer. No.
    Question. Do you know who Webster Hubbell is?
    Answer. Yes.
    Question. Have you ever met Mr. Hubbell?
    Answer. No, I haven't.
    Question. Have you ever spoken with Mr. Hubbell on the telephone?
    Answer. No.
    Question. Do you know if Mr. Hubbell ever had meetings with Maggie 
Williams?
    Answer. No, not that I know of.
    Question. I can try to summarize this a little bit. Are you aware 
of any legal problems that Mr. Hubbell had with his former law firm, 
the Rose Law Firm?
    Answer. No.
    Question. Do you recall any discussions around the office about Mr. 
Hubbell and any of these problems?
    Answer. No.
    Question. Did Ms. Williams ever discuss with you Webster Hubbell or 
any of these problems?
    Answer. No.
    Question. Do you know who Amy Stewart is?
    Answer. No.
    Question. Do you know who David Kendall is?
    Answer. Yes.
    Question. Who is he?
    Answer. He is the Clintons' attorney.
    Question. He's the Clintons' personal attorney?
    Answer. I believe he's Mrs. Clinton's attorney. I don't know if he 
is the President's as well.
    Question. Does he work for the White House?
    Answer. No. Personal attorney, yes.
    Question. Have you ever met Mr. Kendall?
    Answer. Yes.
    Question. And what were the circumstances surrounding that meeting?
    Answer. I have met him--I know him, and I have met him. I don't 
remember meeting him. I don't remember at what point I met him. I'm 
sure it was in the office, but I don't remember.
    Question. Did someone introduce you to him?
    Answer. No. If he came to my office, he probably introduced 
himself.
    Question. Do you recall a meeting in March of '94 that Ms. Williams 
may have attended with David Kendall regarding Webster Hubbell?
    Mr. Lawler. Were you even in the office in March of'94?
    The Witness. I had just started as an intern then. I don't remember 
that, no.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Would you say that Ms. Williams knew Mr. Hubbell fairly 
well? Did they meet often?
    Answer. I never saw them meet. I don't know if she knew him well or 
not.
    Question. Do you know if she knew him at all?
    Answer. I don't know.
    Question. Do you know who Ernie Green is?
    Answer. I have heard the name before. I believe he might be 
involved with an African organization, but I don't remember which.
    Question. Have you ever met him?
    Answer. No.
    Question. Do you know if he's ever been in contact or had a meeting 
with Maggie Williams?
    Answer. I don't know.
    Question. And you mentioned Mark Middleton's name earlier?
    Answer. Yes.
    Question. How well do you know Mr. Middleton?
    Answer. I have met him on several occasions, and I have talked to 
him on the phone. I definitely know who he is.
    Question. What were the circumstance surrounding the first time you 
met Mr. Middleton?
    Answer. He used to work at the White House, so I probably met him 
when he was an employee still at the White House.
    Question. Do you know when Mr. Middleton left the White House?
    Answer. I don't remember.
    Question. Do you know while he was at the White House, did Maggie 
Williams and Mark Middleton have much contact with each other?
    Answer. I don't remember.
    Question. Do you know whether or not they had much contact with 
each other after he left the White House?
    Answer. I remember that he called her on a couple of occasions, and 
he may have met with her, too, on a couple of occasions, but that's all 
I remember.
    Question. Do you recall what any of those meetings or those phone 
calls were about?
    Answer. No. He would call me sometimes to leave messages for Maggie 
or to get in touch with Maggie. I don't remember specifically what it 
was about.
    Question. Did he ever tell you the purpose of his phone call?
    Answer. I have a memory of--no. Phone calls, no. I have a memory of 
one meeting being about a Presidential library, something or other, but 
I don't remember anything more than that.
    Question. Do you recall the time frame of this meeting?
    Answer. No.
    Question. Were you present during any meetings that Maggie Williams 
would have had with Mr. Middleton?
    Answer. No.
    Question. Did you ever clear or wave Mr. Middleton into the White 
House?
    Answer. Not that I remember, but I probably did.
    Question. Do you recall any of the times you may have, was it just 
Mr. Middleton, or did he have guests with him?
    Answer. I don't recall.
    Question. Ms. Ryan, I am handing you WAVE records, Worker And 
Visitor Entry records, in which you asked access for Mark Middleton. I 
want to quickly go through these.
    On the first page you will see that on April 1, 1995, you were 
listed as both the requester and the visitee?
    Answer. Yes.
    Question. Did Mark Middleton meet with you on this day?
    Answer. Not that I remember.
    Question. Can you maybe give me some background on these WAVE 
records and actually requesting somebody be waved into the White House?
    Answer. On the computer WAVE request, it automatically comes up 
with your name, the person's name whose computer you are at, so that 
would be the requester. A visitee is something that can be typed in 
right there next to the requester's name. You have to type in the time, 
the date, the room number they are going to, and the person's name, 
date of birth and now social security number.
    Question. Is this something that you would do personally when you 
were waving someone into the White House?
    Answer. Yes.
    Question. So do you actually have to go to the computer and type 
all this in?
    Answer. Yes.
    Question. Is that located where a visitor would enter the White 
House?
    Answer. This is my computer at my desk. I'm able to type this 
information in. It goes to the WAVE center, and the uniformed Secret 
Service guards who are at the gate have computers at the gate.
    Question. So they would get this information that you typed in?
    Answer. Yes. I believe it goes through--I don't understand the 
process, but I believe it goes through a Secret Service WAVE center and 
goes then to the uniformed guards at the desk.
    Question. How much time before a visitor would enter the White 
House would you need to get this information into the computer?
    Answer. Generally, I think, at least within the half-hour before.
    Question. So just a minimum of a half-hour before the person was 
waved in?
    Answer. I don't know what the specific time frame needs to be, but 
I can do it up until pretty close to when a person is coming.
    Question. So someone could call you and say, I'm coming over in 10 
minutes, and that would be no problem? You could still get the 
information in, and they could still come into the White House?
    Answer. I could either type it into the computer, or I could call 
the WAVE center and deliver the information over the phone.
    Question. So if I see your name as the requester, does that mean 
that you are the one that personally typed this information into the 
computer?
    Answer. Yes.
    Question. Is there any specific reasoning why you would put your 
name as a visitee if Mr. Middleton was not visiting with you?
    Answer. I sometimes just put my name in, probably because I knew 
him, and he called and said he was coming over. It is just habit 
sometimes. I sometimes put my name in and sometimes put Maggie's name 
in. There was really no--if I knew Mark Middleton, which I did, I 
probably just typed my name in.
    Question. So on this specific date, April 21, 1995, do you remember 
if Mr. Middleton met with you on that date?
    Answer. I don't remember why he was there.
    Question. Would Mr. Middleton ever stop by the White House to have 
a specific meeting with you?
    Answer. No.
    Question. They would always be with somebody else?
    Answer. Yes, or he may have wanted to come drop something off. At 
one point I remember he picked a photo up from us, so I don't know if 
this was when that was. I don't know.
    Question. Who would Mr. Middleton usually meet with if he asked you 
to wave him into the White House?
    Answer. I remember he met with Maggie on a couple of occasions. So 
possibly it was Maggie.
    Question. If you turn to the next page, it shows the next visit is 
on May 9, 1995, and this time you have the visitee as Williams?
    Answer. Yes.
    Question. Would that be Maggie Williams?
    Answer. Yes.
    Question. Do you recall the circumstance or the purpose of this 
visit?
    Answer. No.
    Question. Can you tell me, would you meet Mr. Middleton down at the 
entrance or the gate and actually bring him into the White House? Or 
what was the process for him to get into the White House?
    Answer. No, he would come up to our office.
    Question. So you would not actually go down to the door, the front 
door, for instance?
    Answer. No.
    Question. Did people who normally visit the White House or your 
office have to be accompanied by somebody?
    Answer. No. They can enter the White House and come up to our 
office on their own. Only press are escorted within the Old Executive 
Office Building.
    Question. Is that the same policy for the White House?
    Answer. No, in the White House you need a staff member with you.
    Question. At all times?
    Answer. Yes.
    Question. So the fact that Mark Middleton used to work at the White 
House, that didn't give him any special privileges to be able to walk 
around freely without being accompanied by somebody?
    Answer. In the White House?
    Question. In the Old Executive Office Building.
    Answer. In the Old Executive Office Building people can walk around 
unaccompanied unless you are a member of the press.
    Question. Okay. And in the White House even Mr. Middleton would 
have to be accompanied by somebody?
    Answer. Yes.
    Question. So when I see that the location and the room, and for 
that I see O and 100, that would stand for?
    Answer. Room 100 of the Old Executive Office Building.
    Question. And that's where you're located?
    Answer. Yes.
    Question. The next one, the next visit, is May 19, 1995. There it 
shows once again that you requested it, he's meeting with Maggie 
Williams, or at least Williams' name is listed?
    Answer. Yes.
    Question. And this time there's a W, a 2FL, slash, WW. What does 
that stand for?
    Answer. Second floor, West Wing.
    Question. So would that mean that is where the meeting took place?
    Answer. Yes.
    Question. Do you recall this meeting on this date?
    Answer. No.
    Question. Now, for this instance where he is actually going to the 
White House, would you go down and meet with him and then escort him to 
this meeting with Ms. Williams?
    Answer. Possibly, but not necessarily. It's also possible that when 
he entered, Debi Schiff, who is in the reception area, can call Maggie 
up in her office, and she can come and get him.
    Question. But somebody would have had to?
    Answer. Somebody, yes.
    Question. Do you know where in the West Wing meetings were held?
    Answer. For Maggie Williams?
    Question. Yes.
    Answer. She has a West Wing office as well as an office in the Old 
Executive Office Building.
    Question. So they would normally be held in her office?
    Answer. Yes.
    Question. How about meetings with her in the Old Executive Office 
Building?
    Answer. They would occur either in her office or in our conference 
room.
    Question. How about in the East Wing?
    Answer. I don't know--I have never dealt with meetings in the East 
Wing.
    Question. Let's see. Let's turn the page. The next one is May 19, 
1995. Again you are the requester and Williams is the visitee. Do you 
recall the circumstance of this visit? I'm sorry, are these--I think 
this is----
    Answer. It's the same one.
    Question. I think this is perhaps out of order. I'm sorry, that's 
right. The next page, I'm sorry, does not show Middleton, and it is 
hard to read, but it says Ng Lapseng.
    Mr. Lawler. I think we are off on the pages.
    Ms. Safavian. Bates Stamp Number 056855.
    Mr. Lawler. Okay.
    Ms. Safavian. Are we on the right one now?
    Mr. Lawler. Yeah, it's the right page.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. And this is for a May 19, 1995 visit?
    Answer. I don't think we can see that.
    Mr. Lawler. We are on the bottom?
    Ms. Safavian. The very last line.
    The Witness. Oh, right.
    Mr. Lawler. I can't make any name out at all.
    The Witness. We cannot really read it.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Do you see in the beginning where it says Ng, N-G?
    Mr. Lawler. No.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. At the end, Lapseng, L-A-P-S-E-N-G.
    Mr. Lawler. Ng is the only thing on this copy.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Ms. Ryan, can you make that out?
    Answer. I can make out Ng, yes.
    Question. First of all, do you know who Ng Lapseng is, also known 
as Mr. Wu?
    Answer. No.
    Mr. Lawler. If you say that's what's on here.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. It is my belief that is the name that is there. I agree 
with you it is hard to read.
    You do not know who this individual is?
    Answer. No.
    Question. Not knowing who this individual is, why would you have 
requested his entrance into the White House?
    Answer. At someone's request. I don't know. I mean, I have down 
here that he's visiting Maggie Williams, but I don't remember this.
    Question. This entry and the one prior that we just talked about 
for Mark Middleton show that they are meeting both with Maggie Williams 
for the same time meeting and that they arrived at the same time. And 
you can take a look at that real quick to verify that I am accurate 
with that.
    Answer. Yes.
    Question. Would that have been the same meeting with Ms. Williams?
    Answer. Yes.
    Question. Does that at all refresh your recollection as to the 
purpose behind this meeting?
    Answer. No. I would not--and, no, I don't know the purpose. There's 
one thing that I can speculate. As I recognize this meeting is at 1:15, 
which is--there are two lunch times at the Mess. One is at noon and one 
is at 1:15. And as I say, I can remember Mark Middleton having lunch at 
the Mess on occasion on Maggie Williams' account, and this may have 
been the occasion.
    Mr. McLaughlin. So the answer to that question is based on 
speculation?
    The Witness. Speculation only on the fact I have cleared them in at 
1:15, which is one of the two times for lunch at the Mess. If they met 
with Ms. Williams, I have no idea what they met about.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. So you don't actually recall, once again, actually 
bringing this individual Ng Lapseng to the meeting with Ms. Williams or 
to the White House Mess?
    Answer. No.
    Question. Do you know if Ms. Williams met often with Ng Lapseng?
    Answer. No.
    Question. The next page shows three entries. They all have you as 
requester, and they all have Williams as the person being visited. The 
dates are June 5, 20 and 29th, 1995.
    Do you recall the circumstance of any of these visits with Mr. 
Middleton?
    Answer. No, I don't.
    Question. The next one is a July 21, 1995 visit. Once again you 
requested him, and he's meeting with Williams.
    Do you recall the circumstance of this visit?
    Answer. No, I don't.
    Question. The next page shows four entries: September 12th, twice 
on the 15th, and once on the 26th.
    Do you recall the circumstance of these visits?
    Answer. No, I don't.
    Question. Do you know why he would be visiting twice on the same 
day?
    Answer. No. No.
    Question. Can you give any reason why the second time on the 15th 
was at 8 p.m.?
    Answer. I don't know.
    Question. Did Ms. Williams often have meetings late into the 
evening?
    Answer. No.
    Question. Could this have been a function at the White House or----
    Mr. Lawler. That would be speculation, and she said she doesn't 
know.
    The Witness. Yeah, I don't know.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. The next page shows a November 25th, 1995 visit.
    Do you recall the circumstances of that visit?
    Answer. No.
    Question. The one after that is November 2nd, 1995.
    Do you recall that visit?
    Answer. No.
    Question. The next one is February 14th, 1996. Once again, you are 
the requester, and it shows that he's meeting with you.
    Would he have met with you on that date?
    Answer. I don't remember that, no.
    Question. The next one is September 25th, 1996. Do you recall the 
circumstances of this visit?
    Answer. No, I don't.
    Question. And once again it shows that he's meeting with you.
    Mr. Lawler. Well, Jennifer, in all fairness, I think what it shows 
is, based on her testimony, that she would put her name in sometimes if 
he was coming to the office at which she was physically located.
    I don't think it's her testimony, nor is it accurate, that the name 
in the visitee column where she appears means necessarily a meeting in 
the sense of any formal substantive contact or agenda.
    The Witness. That is true.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. I understand that just because your name is down there 
does not mean he actually met with you. That is all I'm asking. I just 
want to know if you recall any specific instance where he actually did 
come to meet with you specifically.
    Answer. No.
    Question. Do you recall any time that Mr. Middleton would come and 
meet with Maggie Williams and then meet with anybody else?
    Answer. No.
    Question. September 25th, 1996. Do you recall the circumstance of 
that visit?
    Answer. No.
    Ms. Safavian. I will mark that for the record ER-5.
    [Ryan Deposition Exhibit No. ER-5 was marked for identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Do you know whether Mr. Middleton ever met with the First 
Lady?
    Answer. I don't know.
    Question. Would Mr. Middleton contact you often regarding being 
able to enter the Old Executive Office Building or the White House or 
for any other reason?
    Answer. I think he contacted me occasionally, not often. I would 
say no.
    Question. Can you tell me what the purpose of those calls were for?
    Answer. The only one I remember specifically is that there was a 
photo he was looking for, and we located it for him, and he came to 
pick it up at the office.
    Question. Let me pass this to you. This is going to be, again, 
several telephone messages that were taken, that were calls from Mark 
Middleton or somebody in his office. Most of them, if you will flip 
through them, you will see the messages are to you. The first one, 
however, which is EOP 059041, who is that? I can't read--I don't know 
who that is addressed to.
    Answer. That's to Marge Tarmey.
    Question. And then the other ones, I believe, are each addressed to 
you; is that correct?
    Answer. Yes.
    Question. We will just go through these quickly. The first, which 
is not to you, but it shows Middleton calling to make--he is asking for 
lunch reservations for seven be made under Maggie's name.
    Is this something then that you would have taken care of even 
though this is not addressed to you?
    Answer. Either myself or Marge Tarmey.
    Question. I'm sorry, who is Marge Tarmey?
    Answer. She was the assistant to the chief of staff at the time.
    Question. So you don't specifically recall setting up this 
reservation for Mr. Middleton?
    Answer. No.
    Question. The next one, the message is dated 6/7/95. The message 
says, Monday, Mess, two people, 12 or 1:30. Do you recall arranging 
this reservation for Mr. Middleton?
    Answer. Not specifically, no.
    Question. The next one is dated 10/4/95. He is once again asking 
for Mess reservations for four people in this instance.
    Do you recall this reservation?
    Answer. I don't recall it specifically, no.
    Question. The next one is dated 7/20/95. It says, 12 for three 
people. I'm guessing that would be a 12 noon reservation for three 
people?
    Answer. Yes.
    Question. And it looks like they are listing the names. Those 
numbers next to the names, would those be birthdates?
    Answer. Yes.
    Question. And those are necessary for what?
    Answer. To clear people into the building.
    Question. Do you recall making this reservation for Mr. Middleton?
    Answer. I don't.
    Question. And the last one is dated 1/17/96. Once again he is 
asking for reservations in the Mess for four people.
    Do you recall making this reservation for him?
    Answer. I don't, no.
    Question. Now, we spoke earlier about mess reservations and Mark 
Middleton, and you told me that on at least one occasion he called and 
asked for reservations to be made under Maggie Williams' name, and she 
did not attend.
    Answer. Right.
    Question. Do you think that for these other times when he called--
first of all, do you think for these other times he called you would 
have made these reservations?
    Answer. It's possible.
    Question. Every time he would call, what was the process you would 
go through to see if you could get him these reservations?
    Answer. I would ask Maggie, and if she said yes, then I would 
contact the Mess.
    Question. What was Maggie's usually response when you asked her or 
told her Mark Middleton was asking for reservations?
    Answer. Usually yes.
    Question. Usually it was yes?
    Answer. Yes.
    Question. Do you know if Ms. Williams would have attended each of 
these?
    Answer. No, I don't think she did.
    Question. Did you ever meet any of the guests that he brought with 
them?
    Answer. Not that I remember.
    Question. Was anyone ever concerned that Mark Middleton was using 
the White House Mess too often?
    Answer. Not that I know of.
    Question. And once again you mentioned who would pay for using the 
Mess. Middleton would have had to pay for his use of the White House 
Mess; is that correct?
    Answer. Yes.
    Question. And once again he would have received a bill you believe?
    Mr. McLaughlin. We have already been over this, counsel. This has 
been asked and answered.
    The Witness. Maggie received the bill, and then she is reimbursed.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. And this would apply to Mr. Middleton also?
    Answer. Yes.
    Question. Were you the sole person who took care of White House 
Mess reservations?
    Answer. No. I took care of Maggie's reservations.
    Question. So you would most often be in contact with Middleton 
because he would usually call to have them made under Williams' name?
    Answer. That would be why he was calling me, yes.
    Question. Debbie Both?
    Answer. Yes.
    Question. You mentioned her earlier. Would she also have taken care 
of any reservations for Middleton?
    Answer. It's possible.
    Question. Do you know who Lynn Cutler is?
    Answer. Yes.
    Question. Who is she?
    Answer. She works in the Office of Intergovernmental Affairs at the 
White House.
    Question. There's another telephone message slip that I am showing 
you. This one is dated--oh, I'm sorry, I think that's the wrong one.
    Would Maggie Williams meet with Lynn Cutler often?
    Answer. I think she knew Lynn Cutler. I don't remember how often 
they met or if they met.
    Question. Would you have any reason for Maggie Williams, Mark 
Middleton and Lynn Cutler to have a meeting together?
    Answer. I don't know.
    Question. Do you know who Yusuf Khapra is?
    Answer. Yes.
    Question. Who is he?
    Answer. I believe he used to work for Erskine Bowles when Erskine 
Bowles was deputy chief of staff.
    Question. Would he often contact your office on behalf of Mark 
Middleton?
    Answer. I don't remember. I don't know.
    Question. If you will take a look at that for me. This is another 
telephone message slip. It looks like it's addressed to you; is that 
correct?
    Answer. Yes.
    Question. And the caller was Yusuf Khapra; is that correct?
    Answer. Yes.
    Question. And the message says Mark Middleton?
    Answer. Yes.
    Question. Do you know why he would be calling on behalf of Mark 
Middleton?
    Answer. No.
    Question. Did you speak to Mr. Khapra often?
    Answer. Not really, no.
    Ms. Safavian. Why don't we go ahead and make that exhibit ER-6.
    [Ryan Deposition Exhibit No. ER-6 was marked for identification.]
    Mr. Lawler. Are you making the other one----
    Ms. Safavian. Yes. I'm sorry, why don't we make that one ER-6 and 
then this latest one ER-7.
    [Ryan Deposition Exhibit No. ER-7 was marked for identification.]
    Mr. Lawler. Counsel, just for the record, I have been looking at 
the clock. We have been going about half an hour now since the break 
asking Ms. Ryan questions that she doesn't know anything about; or if 
she knows anything about, she knows very little about. She took phone 
messages as part of her job.
    We are here voluntarily. We want to answer your questions. I am 
certain--and you told me that you want to ask her about Johnny Chung's 
March 9 visit. We talked about a time deadline. It is 20 minutes of 
5:00. We can let the deposition go until 6:00. Again, you can do 
whatever you want, but Ms. Ryan does have information about the Johnny 
Chung visit that I think would take you some time to go through; and to 
the extent that we waste time this afternoon on questions that she 
doesn't know anything about, or that I fail to see any relevance to, it 
will be difficult for us to agree to continue this deposition to talk 
about the stuff she does know about.
    So, again, do whatever you want, but I am concerned about the time.
    Ms. Safavian. I understand the time constraint, and I am doing the 
best I can to get through this. However, because I do not know what Ms. 
Ryan's knowledge is, I do have to ask. And I understand that you say 
she doesn't have knowledge about these areas, but I don't know that 
until I ask.
    Mr. Lawler. Even if she does, I am saying she does have knowledge 
about Johnny Chung, and her name has been brought up in a way 
completely false. News reports about her and Johnny Chung are false. 
The story about Johnny Chung last night, the quotes attributed to her 
are false. She wants an opportunity to put on the record that those 
things were false. They are directly relevant, it seems to me, to your 
investigation. It was certainly something she was asked about in the 
Senate investigation.
    All I'm saying is she knows about that. It is an important point to 
set the record straight on, and I suggest since we are here, you might 
want to do that, make sure we get that on the record, and then continue 
on with some of these other ancillary issues, if you will. It's just a 
timing thing.
    Ms. Safavian. I understand what you are saying, and I appreciate 
that.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Before we get to Johnny Chung, I want to ask you about 
Charlie Trie. Do you know who he is?
    Answer. I know of him through news accounts.
    Question. Only through news accounts?
    Answer. Yes.
    Question. Did you ever meet him?
    Answer. No.
    Question. Do you know if Charlie Trie ever visited with Ms. 
Williams?
    Answer. No.
    Question. Do you know if Charlie Trie ever had any business in the 
White House?
    Answer. No.
    Question. Let me show you another telephone message. Can you tell 
me who it is addressed to, because I'm not sure I can read that name?
    Answer. Melanne, M-E-L-A-N-N-E.
    Question. And who is she?
    Answer. She was the deputy chief of staff at the time.
    Question. For the First Lady?
    Answer. Yes.
    Question. As you can see, this says Charlie Trie called, that he 
had spoken with HRC, Hillary Rodham Clinton, in Little Rock about going 
to Beijing. Wants to know if he can go with her.
    Do you know what Beijing trip that this is referencing to?
    Mr. Lawler. She has testified she doesn't know anything about 
Charlie Trie other than news reports. This document is not addressed to 
her.
    Ms. Safavian. But I am asking about the Beijing trip for the First 
Lady.
    Mr. Lawler. You could have asked her that separately from the 
document than to try--well, do it however you want. It just doesn't 
seem, particularly tied to her previous answers and in general, the 
Beijing trip doesn't seem of any relevance since it's so broad.
    The Witness. I would only say Mrs. Clinton went to Beijing at 
around this time, so that must be what it refers to.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Were you at all involved in the arrangements for Mrs. 
Clinton going on this Beijing trip?
    Answer. No.
    Question. Was Ms. Williams?
    Answer. Possibly. I was not aware of her involvement.
    Question. Do you know whether Charlie Trie attended this trip with 
her?
    Answer. I don't know.
    Question. Do you know whether Johnny Chung attended this trip with 
the First Lady to Beijing?
    Answer. I don't know.
    Ms. Safavian. Let's make this Exhibit Number ER-8.
    [Ryan Deposition Exhibit No. ER-8 was marked for identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Moving on to Johnny Chung. Obviously, you know who Mr. 
Chung is?
    Answer. Yes.
    Question. Can you tell me when you first met Mr. Chung?
    Answer. I don't remember my first meeting with him.
    Question. Do you recall when it was?
    Answer. No, not specifically, I really don't.
    Question. Do you recall how you met him?
    Answer. I recall meeting him at some point in the Old Executive 
Office Building, stopping by our office, but I don't remember when it 
was.
    Question. Did somebody introduce you to him, or did he just kind of 
introduce himself to you?
    Answer. I believe he introduced himself.
    Question. After you met him, did you inquire with anybody else in 
the office as to who he was?
    Answer. At some point I remember finding out who he was. I don't 
remember how that came about or what the instance was.
    Question. And what did you find out about him?
    Answer. That he was a trustee of the DNC.
    Question. Was that all that you heard about him?
    Answer. That he was from Los Angeles and ran a fax business from 
out there.
    Question. Do you know who told you all this about him?
    Answer. I think Maggie Williams, but I don't remember specifically.
    Question. Were you aware he was a large contributor to the DNC?
    Answer. I became aware of that.
    Question. Would Johnny Chung visit the First Lady's office often?
    Answer. Yes.
    Question. Could you say how many times?
    Answer. He visited Washington, and I would say any time he was 
visiting Washington, he would stop by. I don't know what the frequency 
was or exactly how many times it was.
    Question. Did it seem to be every time he was in Washington he 
would stop by?
    Answer. That was my impression.
    Question. And what gave you that impression?
    Answer. It was just the way he was. I had the impression that if he 
were in town, he would definitely take the opportunity to stop by.
    Question. Was there any reason to him stopping by?
    Answer. It was my impression that he thought that he was friendly 
with people in our office, and it was definitely my impression that he 
thought rather highly of Mrs. Clinton and was a fan of hers, so to 
speak. So it seemed he liked to come by the office, and any sort of 
association he could have he enjoyed. That was my impression.
    Question. Who did he normally meet with when he would stop by?
    Answer. He didn't have meetings in the office. He would stop by and 
generally say hello, and I sat in that main reception area, so he 
generally would talk to me.
    Question. Would he then move on and speak with other people, or can 
you just tell me a little about some of his visits, what he would do?
    Answer. His visits consisted of him talking. That was about it. He 
would stop by and he would talk and talk, and that was about it.
    Question. What would he talk about?
    Answer. He would talk about himself, his business, his travels, any 
events he had been to recently. He, on a couple of occasions, requested 
tours of the White House.
    Question. On a couple of occasions?
    Answer. Yes.
    Question. Who would he make that request to?
    Answer. Either myself or the Visitors Office directly.
    Question. And when he made the request to you, what did you do 
about them?
    Answer. Contacted the Visitors Office.
    Question. Was that as far as you went with his request?
    Answer. It generally is not a problem to set up tours. It's a 
relatively easy thing to set up. So I would try to check with them as 
to the availability and then see what we could do.
    Question. How many times do you recall that he asked for a tour to 
the White House?
    Answer. At least twice, maybe more than that.
    Question. Did he have other people with him that he wanted to be on 
the tour?
    Answer. Yes, usually.
    Question. Large groups of people?
    Answer. No. The largest group I remember is the group he brought in 
March of '95.
    Question. When he asked you for a tour, you would just contact----
    Answer. The Visitors Office.
    Question. The Visitors Offers. And they would take care of it from 
there?
    Answer. Yes.
    Question. Did Mr. Chung usually call before he would stop by?
    Answer. Yes.
    Question. And who would he contact when he would call?
    Answer. Me usually.
    Question. And what would he say to you?
    Answer. That he was in Washington, he would love--he generally 
would say, I would love to stop by and say hello. And then when--I 
think when I resisted more, he started calling from the lobby to be 
cleared in.
    Question. From the lobby of where?
    Answer. Of the Old Executive Office Building.
    Question. And what do you mean you started resisting?
    Answer. I think it became more apparent to him that I would say we 
were busy and we didn't have the time, or I think actually maybe a 
couple of times he would call and I either wasn't there or didn't take 
the call. So I think he then figured out if he was standing in the 
lobby, he could pretty much insist on why couldn't someone clear him 
in.
    Question. And would somebody normally clear him in?
    Answer. Yes.
    Question. And how often would he just show up in the lobby and ask 
for clearance?
    Answer. That was something I think--it seemed to be a pattern he 
developed later. Initially he would call from his office or from his 
car. But I remember several occasions where he would call and say I'm 
in the lobby.
    Question. And once again, did he give you any reason for wanting to 
stop by?
    Answer. It was to visit the office and to say hello and I'm in 
town. He thought of himself as a good friend of--you know--I think he 
thought that, you know, we were excited to see him the way he was 
excited to see us. That was my impression.
    Question. Was that the case? Were you excited to see him?
    Answer. No, not necessarily, no.
    Question. Why do you say not necessarily?
    Answer. I think, you know, at first I didn't really know who he 
was. He's perfectly nice, he really is. He's fine. But he just has a 
tendency to talk a lot and to linger, and my desk being where it was 
situated, it was difficult to get work done if someone's standing and 
talking to you for an extended period of time.
    Question. How long would he normally stay and talk?
    Answer. It depended and it varied. I'd say probably the longest 
would be close to 25 to 30 minutes.
    Question. And would he spend most of that time with you just 
talking?
    Answer. Yeah. I was really the only person that he could get to, 
because I was in the reception area.
    Question. So in the beginning I guess you didn't have a problem 
with Mr. Chung?
    Answer. No.
    Question. Did he at some point become a nuisance?
    Answer. Yes, I think at some point I found it to be a nuisance, his 
visits being a nuisance.
    Question. And do you recall when you started to feel he was a 
nuisance?
    Answer. I don't remember when it was. No.
    Question. Can you just give me a general time frame? Would it have 
been 1995, 1996? Before that?
    Answer. I would say 1995 at some point, but I don't remember when.
    Question. Do you remember was it like towards the end of the year?
    Answer. I don't know.
    Question. When he would just stop by to chat, did he usually have 
somebody else with him?
    Answer. Occasionally, he did.
    Question. Do you recall who any of those people were?
    Answer. Usually, they were somebody who worked with him, an 
assistant or someone would accompany him.
    Question. Who worked for him?
    Answer. Yes.
    Question. Did Mr. Chung attend any luncheons with the First Lady?
    Answer. Not that I know of.
    Question. And once again you told me you did not prepare the list 
of attendees for the First Lady's lunch.
    Do you know if Mr. Chung was invited to a lunch, how he would have 
been invited?
    Answer. No.
    Question. You mentioned earlier that he felt that he was a friend 
of the First Lady's?
    Answer. Yes.
    Question. Do you happen to know what the First Lady thought of him?
    Answer. No, I don't know.
    Question. Did Maggie Williams ever comment to you at any time about 
Mr. Chung?
    Answer. I'm sure--I don't remember specifically. I remember I knew 
about Mr. Chung from Maggie Williams, so--I mean, I knew of him through 
her.
    Question. Did Maggie Williams and you ever talk about the fact that 
he's stopping by too often, I can't get my work done, what am I 
supposed to do? Did you ever have any of those type of conversations 
with Ms. Williams?
    Answer. Yes.
    Question. And what was her response?
    Answer. Her response was, you know, he was harmless, it seemed to 
please him, so you know, what was the harm. We might as well just put 
up with him.
    Question. So Ms. Williams never felt like you should put a stop to 
him stopping by and chatting?
    Answer. No, no.
    Question. So she didn't have any problem with him coming up as 
often as he did?
    Mr. Lawler. My problem is characterizing how Ms. Williams felt 
about him. Her testimony is what she said.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. That's fine. But Ms. Williams never said, okay, don't 
stop sending him up, you can tell him, no?
    Answer. She never said that, no.
    Question. Did the DNC ever contact you or anybody else in the First 
Lady's office regarding Johnny Chung and any special request on his 
behalf or ask you to help him out with any favors?
    Answer. Not that I know of, no.
    Question. No one at the DNC ever contacted you?
    Answer. No.
    Question. Why don't we talk about the March 8, 1995, meeting with 
Johnny Chung. Do you recall meeting with him on that date?
    Answer. Yes.
    Question. Do you recall him asking you whether he could get a five-
member delegation of executives from the China Chamber of Commerce to 
have lunch in the White House Mess?
    Answer. Yes.
    Question. Do you recall him asking for a meeting with the First 
Lady?
    Answer. Yes.
    Question. What else did he ask for?
    Answer. A tour of the White House and to have he and his guests 
admitted to the radio address that Saturday.
    Question. How did Mr. Chung ask these requests of you?
    Answer. He stopped by the office and he asked to speak with me and 
he said he had these men visiting from China, and that he would like to 
see if he could get them a tour of the White House, to the White House 
Mess, if he could get them into the President's radio address and if he 
could get a photo with Mrs. Clinton.
    Question. And what was your response to those requests?
    Answer. I said we would check and see. But he had also mentioned at 
the time that he was donating money to the DNC.
    Question. If you could, let's try and backtrack a little bit here. 
Did Mr. Chung call you on his way over that day?
    Answer. No.
    Question. How did he get to your office that day?
    Answer. He showed up.
    Question. Do you know who let him in?
    Answer. Only because I've seen WAVE records and the Senate 
deposition, I believe they show that Brian Bailey waved him in.
    Question. And who was that?
    Answer. He worked for Erskin Bowles, who was Deputy Chief of Staff 
at the time.
    Question. Let's just take a quick look at that.
    I'm handing you WAVE records from March of 1995, showing Johnny 
Chung being waved into the White House.
    It shows--did you say the name was Bailey that you mentioned 
earlier?
    Answer. Yes.
    Question. And it shows the room was 174.
    Answer. Yes.
    Question. Where is that?
    Answer. That's in the Old Executive Office Building down the hall.
    Question. Who does Bailey work for?
    Answer. At the time he worked for Erskin Bowles who was then the 
Deputy Chief of Staff.
    Question. Do you know why Johnny Chung would have met with Bailey?
    Answer. No.
    Question. Have you ever spoken to Bailey about Johnny Chung?
    Answer. No.
    Question. So Mr. Chung just appeared in the reception area of your 
office?
    Answer. Yes.
    Question. And you were not aware that he was there that day?
    Answer. No.
    Question. He then asked you to help him out with these requests for 
his business associates?
    Answer. Yes.
    Question. When did he mention to you that he was donating money?
    Answer. When he was asking me for these requests. For the tour, the 
lunch, at the same time.
    Question. I'm just trying to get an idea of the sequence of the 
conversation that you had with him. I know you can't, of course, recall 
the exact words that were used.
    Answer. I don't remember the sequence. I don't remember whether he 
mentioned it first or second in terms of the requests and the donation 
or vice versa.
    Question. What did he tell you about the fact that he was going to 
make a donation?
    Answer. He said he was in town, he was here in Washington, he often 
mentioned that, too, when he would stop by, and said while I'm here, 
I'm donating money to the DNC.
    Question. And that was what he said to you on this visit?
    Answer. Yes.
    Question. Did he tell you how much he was donating to the DNC?
    Answer. At some point I became aware of the $50,000 amount. I don't 
remember when that was. I don't know if it was at this time or if it 
was the next day when he actually came. I don't know when. But I did 
know at some point $50,000.
    Question. And you knew that from Mr. Chung himself?
    Answer. Yes.
    Question. You are aware that Mr. Chung has--there's been an account 
of this day in the Los Angeles Times as well as other newspaper 
articles. There was also an interview with Mr. Chung with Tom Brokaw 
just last night on NBC Nightly News and Dateline. Are you aware that 
Mr. Chung relates the account that he asked for these requests and he 
had asked if you could help in any way and after meeting with Maggie 
Williams, you came back and said, well, yes, the First Lady could use 
some help paying off an $80,000 Christmas party bill that she owes the 
DNC. Are you aware of that account?
    Answer. I'm aware that that is his account, yes.
    Question. Did you talk to Maggie Williams about Mr. Chung's 
request?
    Answer. Yes, I did.
    Question. When did you speak with her?
    Mr. Lawler. Can you just ask her if that account is true?
    Ms. Safavian. I will. My first question is, is she aware of it, and 
she is aware of it.
    Mr. Lawler. Yes.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. So you did meet with Ms. Williams?
    Answer. Yes.
    Question. And when was that?
    Answer. Right after I spoke with Mr. Chung, I went to speak to 
Maggie Williams.
    Question. Was Mr. Chung still there, still in the reception area 
when you spoke with Ms. Williams?
    Answer. Yes.
    Question. What did you tell Ms. Williams?
    Answer. I said that Johnny Chung was here and he had some 
businessmen from China here and he was hoping to get the tour, the 
radio address, the Mess and the photo with Mrs. Clinton, and he was 
also going to be donating money to the DNC while he was here.
    Question. You told Ms. Williams as you were telling her what he 
wanted, you told her at that time that he was going to donate money to 
the DNC?
    Answer. Yes.
    Question. Did you give her an amount?
    Answer. I don't remember giving her an amount. So I don't think I 
knew it at that point, but it's possible that I did. I don't remember.
    Question. What was Ms. Williams' response?
    Answer. Her response was we would see--you know, we'd see if we 
could set those things up for him and that it was helpful to know about 
his donation because then maybe that would enable the DNC to pay off 
some of their debts.
    Question. What do you mean by their debts?
    Answer. Some of the DNC's debts to the White House.
    Question. The DNC's debts to the White House?
    Answer. Yes.
    Question. Did the First Lady owe any--did she have any debts with 
the DNC?
    Answer. No. It was my understanding that the DNC owed the White 
House money.
    Question. Was that for a Christmas party, as Mr. Chung has 
mentioned in his account?
    Answer. I didn't know what it was for.
    Question. Did Ms. Williams ever tell you or suggest to you an 
amount of money that Mr. Chung could donate or could contribute?
    Answer. No, she never did.
    Question. Do you have any idea where Mr. Chung has come up with you 
suggesting $80,000 to help pay off a Christmas party for the First 
Lady?
    Answer. No, I don't.
    Question. Did you ever mention a bill of $80,000 to the DNC to Mr. 
Chung?
    Answer. No.
    Question. Did you ever mention any debts that the DNC owed to Mr. 
Chung?
    Answer. Not that I remember, no.
    Question. After you spoke with Ms. Williams, what did you do next?
    Answer. I went out to Mr. Chung and I told him we were going to try 
to set up what we could, set up of his requests, and he was going to 
contact me later that day.
    Question. What did he say in response to that?
    Answer. He was very pleased. He was excited at the prospect of 
being able to get at least some, a couple--some of these things done. 
And he said he hoped that Maggie got credit for his donation.
    Question. What did he mean by that?
    Answer. I don't know. I have no idea what he meant some of the 
time, but I don't know what he meant at that time, either.
    Question. When did he mention that to you, that he hopes Maggie 
gets account----
    Mr. Lawler. Credit.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. I'm sorry, credit for his donation?
    Answer. I can't remember if that's verbatim or how he said it, but 
it was something along those lines, like I hope Maggie gets this credit 
for this donation, and it was more a statement, but I remember that's 
what he was saying as he left.
    Question. When Ms. Williams had mentioned that she seemed pleased 
to you that Mr. Chung mentioned he was going to donate to the DNC, do 
you have any idea how she knew that perhaps that donation would go to 
pay off some debts?
    Answer. Oh, I don't know. It was more--I don't remember exactly 
what she said, but it was something along the lines of that's helpful 
to know, that they're getting this donation, maybe it will help with 
some of the debts that they owe the White House. That's the general 
gist of what I got from her. I don't know.
    Question. Did Mr. Chung ever tell you about these guests that he 
wanted to bring with him?
    Answer. He had told me that they were businessmen visiting from 
China.
    Question. Did he ever tell you who they were? Specifically by name?
    Answer. He may have. I don't remember that.
    Question. Did he happen to give you their business cards?
    Answer. Not on that day, no, he did not.
    Question. Did he give you their business cards on another day?
    Answer. The next day when they arrived, they, themselves, handed me 
business cards.
    Question. But Mr. Chung never gave you their business cards?
    Answer. No.
    Question. Did you inquire with him as to who are these people that 
you want to bring to meet with the First Lady?
    Answer. No, I just knew that they were businessmen visiting from 
China.
    Question. Was it something that is normally done when people want 
to bring individuals or guests to meet with the First Lady, do you 
normally have to know who these individuals are and is there usually a 
security clearance? What's the process generally to meet with the First 
Lady?
    Answer. Well, when I would clear them in, I would need their 
passport numbers, if they were from another country, and that would go 
through the WAVE system, so that would be the security check for them.
    Question. And that was all that you would have to do?
    Answer. Yes.
    Question. For instance, with these businessmen, you did eventually 
get their passport numbers?
    Answer. Yes.
    Question. Mr. Chung left on the 8th?
    Answer. Yes.
    Question. You told him you would look into his requests?
    Answer. Yes.
    Question. And that he was supposed to call you later that day?
    Answer. Yes.
    Question. Did he contact you later that day?
    Answer. Yes. I don't remember it specifically, but he must have, 
because we did set everything up. I did communicate to him. I don't 
remember my conversation with him.
    Question. Can you tell me--when did you know that this was all set 
up? Was it later that day?
    Answer. I contacted the Visitors Office about the tour. I contacted 
the Mess about the lunch, and I don't know how Maggie Williams handled 
the photo, setting up the photo with Mrs. Clinton. And the radio 
address, I don't remember how that was handled.
    Question. So by the end of that day, March 8, the day that he 
requested these favors, if we want to call them that, by the end of 
that day, each one with the exception of the radio address, because you 
said you don't know about that, the White House Mess, the tour, the 
photo with the First Lady, each one of those were scheduled, they were 
set?
    Answer. Yes.
    Question. And you had notified him by the end of that day?
    Answer. Yes. I don't remember specifically talking to him later 
that day, but as I said, it was set up so it's probable that I spoke 
with him that day.
    Question. Do you recall Mr. Chung returning on March 9, the next 
day?
    Answer. Yes.
    Question. And were you aware that he was returning on that day?
    Answer. Returning?
    Question. I'm sorry, that he was arriving on March 9?
    Answer. Yes.
    Question. This was not a surprise visit?
    Answer. No.
    Question. Tell me a little bit about that visit.
    Answer. I remember when he and his guests came to the White House, 
I escorted them over to the White House Mess for their lunch and I 
can't remember how it worked, although the WAVE records have helped me 
in the sequence, and I believe what then happened is Ann McCoy from the 
Visitors Office took them on their tour following lunch. I believe they 
then left the White House because they returned later that day and I 
only know this from these WAVE records.
    Question. And we can take a look at that right now. They do show 
that there are two entries for March 9?
    Answer. Yes.
    Question. An your name is listed for both of those. So you would 
have entered this into the computer for both times?
    Answer. Yes.
    Question. And do you know why he would have left and come back?
    Answer. I believe, this is based on how I've seen these WAVE 
records. I have a recollection of when they returned that they were 
late--I remember that they were late in coming to the White House when 
they came to have their photo with Mrs. Clinton.
    Question. How late were they?
    Answer. I just remember in my mind thinking to myself, where are 
they, because I remember the photo had been set up and so I remember 
when they arrived, I went to go meet them at the entries of the OEOB so 
we could go directly over to the White House.
    Question. So they arrived in the reception area, Mr. Chung and the 
delegation, and you then escorted them to the White House Mess?
    Answer. That's my memory, yes.
    Question. And they had lunch there. And then is it your----
    Answer. I don't have a real memory past that. I'm guessing, because 
I don't remember escorting them out of the Mess and I don't remember 
them again until they came to the OEOB Pennsylvania Avenue entrance 
later that day. I would imagine that Ann McCoy had done taking them on 
their tour directly after the Mess.
    Question. And then the next time you saw them was when they were 
entering the Old Executive Office Building again?
    Answer. Yes.
    Question. And you then escorted them to the First Lady's office for 
the photo?
    Answer. Actually, to the Map Room on the ground floor of the White 
House.
    Question. When Mr. Chung arrived on that day, it is his account of 
the story that he handed you an unsealed envelope, is that true?
    Answer. No.
    Question. Did he hand an envelope to Maggie Williams?
    Answer. Yes.
    Question. So Ms. Williams did meet with him that day?
    Answer. I believe it was after the photo. I remember that Mr. Chung 
was insistent that he wanted to hand this envelope directly to Maggie 
Williams. I remember he really wanted to see her and hand the envelope 
to her. I think it was after the photo that we went back to the office 
since they had been late arriving for the photo, and I remember telling 
Maggie that he was there and that he wanted to hand her this envelope.
    Question. This is returning after the photo shoot to the Old 
Executive Office Building, returning there?
    Answer. Yes, returning.
    Question. Did he return with the delegation or was it just Johnny 
Chung?
    Answer. With the delegation.
    Question. And that is when you contacted Ms. Williams that he was 
there and that he wanted to speak with her?
    Answer. That's my memory, yes.
    Question. And so what happened next?
    Answer. I remember relaying that to her and she looked up at me and 
she looked a little bit confused at why he wanted to do this or why he 
was doing this, but then she just, okay, fine, let's just get it over 
with or whatever.
    Question. And what did she think she wanted to do? What was she 
confused about?
    Answer. Why he was delivering a donation to the DNC through her.
    Question. So you had told her that he wanted to hand this check 
personally to her?
    Answer. Yes. I mean, I had never seen the check, I knew he had an 
envelope and he said it was his contribution and that he wanted to--he 
wanted to deliver it to her to deliver to the DNC. He was rather 
insistent. So I explained that to her and she seemed a little confused 
by that, but then she just said, okay, fine, whatever, let's just deal 
with him.
    Question. So you never actually looked at the check?
    Answer. No.
    Question. But he told you that I have a check in my hand and I want 
to give it to Maggie Williams?
    Answer. He--I don't know at some point implied--he had an envelope 
that he wanted to give to her and he referred to it as the conclusion.
    Question. So you told Ms. Williams about that and she seemed 
confused at why he wanted to do it that way, but she still went to meet 
with him?
    Answer. Yes.
    Question. What happened next?
    Answer. As I remember, she said fine, so I went and got Mr. Chung, 
he came in to her office in the Old Executive Office Building, I walked 
in with him and he handed her the envelope. I remember it being very, 
very brief and then he left.
    Question. Did he say anything to her?
    Answer. I don't remember standing near them. I think I stood by the 
door and she was over by her desk and I believe he just walked over and 
gave her the check, or the envelope, and--I don't remember hearing 
anything between the two of them. I don't know.
    Question. How long do you think this meeting lasted?
    Answer. Oh, it was like a minute, maybe 2 minutes.
    Question. And then what did Mr. Chung do?
    Answer. Then he left.
    Question. And his delegation left with him?
    Answer. Yes.
    Question. Had Mr. Chung mentioned any time prior to this that he 
had a donation he wanted to give to Maggie Williams?
    Answer. I remember at some point hearing from him that that's what 
he wanted to do. I don't remember when. I remember immediately prior 
standing with him and he was insisting that that's what he wanted to 
do. I can't remember if he had mentioned it to me before that as well 
or not.
    Question. Do you know if Mr. Chung tried or wanted to give this 
donation to the First Lady?
    Answer. I don't know that he did, no.
    Question. After Mr. Chung left, did Maggie Williams do anything 
with the check, with the envelope?
    Answer. Not that I know of, no.
    Question. Did she say anything to you about it?
    Answer. No.
    Question. Nothing further was mentioned about it?
    Answer. No.
    Mr. Lawler. Evan had to leave. Her brother was playing in a big 
east tournament in New York, so she left.
    The Witness. I left immediately after Mr. Chung left.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. And what time do you think that was?
    Answer. Somewhere in the area of 3 o'clock or so, somewhere in that 
vicinity I just remember part of the reason why I remember him being 
late is I was conscious of the fact that I had to leave and I had to 
leave by a certain time, so I remember being very conscious of the 
time, and I remember leaving almost immediately after he did.
    Question. Do you know how much time he spent with the First Lady, 
taking these photos?
    Answer. Just a couple of minutes.
    Question. Did you stay with him the whole time?
    Answer. Yes.
    Question. And it was just a couple of minutes?
    Answer. Yes.
    Question. Can you tell me what happened there?
    Answer. I remember we got to the Map Room and she showed up a few 
minutes later, walked in, and shook everyone's hand as we saw in the 
photos and then took a group photo and then she left.
    Question. Do you recall the First Lady saying to Mr. Chung as she 
entered the room, ``It's good to see you again, my old friend,'' or 
anything like that?
    Answer. She did not say anything regarding--I know he has said that 
she said ``Welcome, my good friend.'' She did not say that.
    Question. She did not say that, you know that for sure?
    Answer. Yes, I would remember that and that's not at all what she 
would say. I remember a general greeting like, hello.
    Question. She knew who he was?
    Answer. Yes.
    Question. So she immediately greeted him, went right to him?
    Answer. I think so.
    Question. Then, did he introduce her to the delegation?
    Answer. I just remember she went and shook everyone's hand.
    Question. And the photos were taken?
    Answer. Yes.
    Question. Did anything else occur?
    Answer. No.
    Question. And then the First Lady left the room?
    Answer. Yes.
    Question. And then you brought them back to the Old Executive 
Office Building?
    Answer. Yes.
    Question. And the reason you brought them back to the Old Executive 
Office Building, is that because Mr. Chung insisted on meeting with 
Maggie Williams?
    Answer. Probably, yes. There would have been no other reason.
    Question. You mentioned that the First Lady knew Mr. Chung and 
greeted him by name.
    Mr. Lawler. She said hello.
    The Witness. Yes, I don't remember if she greeted him by name. She 
recognized him.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. She recognized him.
    Do you know what relationship Mr. Chung has with the First Lady?
    Answer. I don't know. I know Mr. Chung talks about meeting Mrs. 
Clinton in Little Rock and I know he credits her for inspiring him in 
his business and inspiring him, so to speak. So I think that was the 
basis of his fondness for her. But that's only from Mr. Chung that I 
know that.
    Question. Do you know if they had met numerous times, I mean other 
times besides Little Rock and then this one photo opportunity?
    Answer. I don't know.
    Question. Did Mr. Chung ever comment to you on having just visited 
the First Lady or going to see the First Lady or any of his contacts 
with the First Lady?
    Answer. No. He mentioned attending Democratic party events, but he 
didn't mention Mrs. Clinton specifically.
    Question. Do you know whether or not the First Lady was aware of 
the contribution that Chung had later that day given to Maggie 
Williams?
    Answer. I don't know.
    Mr. Lawler. I think to set the record straight, Chung has stated in 
media accounts that Evan said she did know, that the First Lady did 
know about the account. Again, just to close the loop, I think out of 
fairness you might ask that and then ask if it's true.
    Ms. Safavian. I was about to.
    Mr. Lawler. Again, I know it's hard to keep track, before when we 
asked whether Chung--you said whether Evan was aware of Chung's version 
of whether Evan then solicited $80,000 and I asked you to ask if it was 
true and you said you were going to get to it and you haven't. Again, 
that's something that's not true. Just to keep the record straight.
    Ms. Safavian. I believe we did go through each of those accounts. 
You have given me your version of what happened and you claim that 
Chung's version is not accurate; is that correct?
    Mr. Lawler. She's testified it's not true.
    Ms. Safavian. We've gone through that.
    Mr. Lawler. But for clarity of the record, I think if there's a 
media account and his version is false, to put on the record what his 
version is categorically for her to say, she answered the question, 
obviously, but the answer is that it's not true.
    Mr. McLaughlin. Is there any reason not to ask the witness that 
question?
    Ms. Safavian. I think we've already covered that.
    Mr. Lawler. I know we did because I asked you to.
    Mr. McLaughlin. He's made a request. It's a perfectly reasonable 
small request. Why don't you just ask her on the record if Chung's 
account is true as to those matters.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Ms. Ryan, I believe I did ask you the question whether 
the account was accurate. I will give you this opportunity to say what 
you would like to about that.
    Answer. Which part are we talking about?
    Question. They're talking about the news accounts.
    Mr. Lawler. Whether it is true that you ever solicited $80,000 for 
a debt for a Christmas party from Mr. Chung.
    The Witness. I never did, no.
    And I think the other point was he says that he asked me whether 
Mrs. Clinton was aware of the donation.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Right. That's where we were.
    Answer. Right. No. He never asked me and I never responded, so I 
never responded to such a question because he never asked me that.
    Question. So his version, him asking you does the First Lady know 
about the contribution and him saying you said, oh, yes, she does.
    Answer. Is not true.
    Question. That's not accurate?
    Answer. Correct.
    Question. You mentioned earlier Mr. Chung also asked you to help 
get his guests admitted to the radio address of the President?
    Answer. Yes.
    Question. Did you do anything in response to that?
    Answer. I don't recall--I don't recall how that was handled. I 
don't recall if I called over to the Oval Office operations or if 
Maggie did. I don't remember dealing with the radio address at all.
    Question. So you're not aware of how he gained access to the radio 
address?
    Answer. No.
    Question. This is a memorandum----
    Mr. Lawler. You want to mark this as an exhibit?
    Ms. Safavian. We may go back to it.
    Mr. Lawler. And mark it then?
    Ms. Safavian. Yes, I will.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. This is the memorandum from Betty Currie dated, March 28, 
1995. Who is Betty Currie?
    Answer. She works right outside the President's Office in the Oval 
Office.
    Question. Do you know what her duties are?
    Answer. I'm under the impression she's an assistant.
    Question. The memo states, Ceandra Scott called. She was concerned 
about Johnny Chung. She stated that we should have called them prior to 
their coming to the radio address. Apparently they were in Maggie's 
office when the request came and Maggie said she didn't know, but to 
contact DNC.
    First of all, who is Ceandra Scott?
    Answer. I don't know Ceandra Scott. I've heard her name before, but 
I don't know her.
    Question. Do you know what this memo is in reference to?
    Answer. I could speculate. I've never seen the memo and I don't 
know specifically what they're talking about.
    Mr. McLaughlin. Don't speculate.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Do you know whether the DNC was contacted?
    Answer. No.
    Ms. Safavian. Why don't we mark this as an exhibit. We're on ER-9.
    [Ryan Deposition Exhibit No. ER-9 was marked for identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Are you aware that, first of all, are you aware that Mr. 
Chung and his delegation attended the Presidential radio address?
    Answer. Yes.
    Question. Are you aware that after the radio address the President 
had his picture taken with the Chinese delegation?
    Answer. Yes.
    Question. And how were you aware of that?
    Answer. Because Mr. Chung approached me to obtain those photos.
    Question. Do you recall when he did that?
    Answer. I believe it was late March, early April of '95.
    Question. Let me show you some more telephone messages. There are 
three contained in this. The first two are addressed to you from Johnny 
Chung, and the third one, if you could tell me who that's addressed to.
    Answer. Marge Tarmey.
    Question. Each one of these are talking about the pictures. The 
first one addressed to you, the date is April 3 of '95. It says, and 
the message, ``regarding pictures,'' in parentheses, ``actually he 
called for Gina who wasn't here and then he asked for you.'' Who's 
Gina?
    Answer. Gina was an intern in our office.
    Question. Was this the first time that Mr. Chung contacted you, 
around this date was the first time Mr. Chung contacted you about these 
photos?
    Answer. I don't know, because I don't remember this message 
specifically, so I don't know.
    Question. Do you recall the next message, which is to you from an 
Irene over at the AISI?
    Answer. Not this particular message. It's hard for me to recall 
exact phone messages from that time.
    Question. And yet the third one is another one from Irene in Johnny 
Chung's office. Each one of these are talking about photos, pictures. 
Would these have been about these photos with the President?
    Answer. Yes.
    Question. So Mr. Chung contacted you and what did he ask of you?
    Answer. He asked if I could find the photos for him.
    Question. And what did you say?
    Answer. I said I would check and see, that I would look into it.
    Question. And did you?
    Answer. Yes.
    Question. And what did you find out?
    Answer. I found out that they were being withheld pending NSC 
looking into the individuals in the photos, to make sure it was okay to 
release them.
    Question. Did you find out anything else?
    Answer. No.
    Question. Did you get a date as to when they were going to be 
released?
    Answer. No. They just told me that the National Security Council 
was looking into who these people were, so they were holding on to the 
photos until they knew it was okay to give it to them.
    Question. Do you know why the NSC was looking into these 
individuals?
    Answer. No.
    Ms. Safavian. Let me make this an exhibit, these message sheets. 
This will be ER-10.
    [Ryan Deposition Exhibit No. ER-10 was marked for identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Do you know if Mr. Chung contacted anybody else, for 
assistance, with getting these photos?
    Answer. I don't know.
    Question. Do you know who Don Fowler is?
    Answer. Yes.
    Question. Who is he?
    Answer. He's the former Chairman of the DNC.
    Question. Let me just show you this letter which is addressed to 
Don Fowler from Johnny Chung, dated April 5, 1995, and you can quickly 
go ahead and read that, if you will.
    Mr. McLaughlin. I would note for the record Evan Ryan's name 
doesn't appear on the document. We haven't been noting Bates numbers in 
this deposition, but I'll note that it's Number DNC 3102463.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Are you finished?
    Answer. Yes.
    Question. Can you tell me what Mr. Chung is asking of Mr. Fowler? I 
don't want to read the whole thing.
    Mr. Lawler. Right. Have you ever seen it?
    The Witness. No.
    Mr. Lawler. Then it speaks for itself, right?
    Ms. Safavian. It does.
    Mr. Lawler. Okay.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Did Mr. Chung ever mention to you that he contacted Mr. 
Fowler for his assistance in getting these photos?
    Answer. No.
    Question. Did he ever mention any other individuals' names that he 
contacted in trying to get these photos?
    Answer. No.
    Ms. Safavian. Let's mark this as an exhibit, ER-11.
    [Ryan Deposition Exhibit No. ER-11 was marked for identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. You mentioned that you were aware that the NSC was doing 
a background check on these individuals?
    Answer. Yes.
    Question. After you made that first inquiry into the photos, did 
you make any further ones?
    Answer. No, not that I remember.
    Question. Did Mr. Chung get in contact with you again about that?
    Answer. Apparently. I mean he called on more than one occasion, but 
I don't remember it specifically.
    Question. Do you recall telling Mr. Chung what the status of his 
photos were?
    Answer. Not specifically, no.
    Question. Did you later learn about what the NSC, what their 
background check into these individuals had come up with?
    Answer. No, I actually never found out what happened with those 
photos.
    Question. Do you know who Robert Suettinger is?
    Answer. I believe he works for the NSC.
    Question. Are you aware that there was an April 7, 1995, e-mail 
from him regarding these individuals in the photo with the President 
and Johnny Chung?
    Answer. I believe I've seen it in another deposition.
    Question. Had you seen it prior to the other deposition?
    Answer. No.
    Question. Were you aware that the NSC considered Chung to be a 
hustler?
    Answer. No.
    Question. Are you aware of it now that the memo----
    Mr. Lawler. She was shown the memo during the deposition over on 
the Senate side.
    Ms. Safavian. Right.
    Mr. Lawler. And she read it and it says what it says.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Yes. So you are now aware that the NSC considered him a 
hustler?
    Answer. Yes.
    Mr. Lawler. Well, she's aware that the memo says what it says, and 
whether that can be fairly said that the NSC as a body considered 
Johnny Chung anything is debatable from my recollection from the terms 
of the e-mail.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Ms. Ryan, are you familiar with a charity called 
Africare?
    Answer. No.
    Question. Are you familiar with Back to Business Committee?
    Answer. I've heard of hit.
    Question. And what have you heard about it?
    Answer. I know that they tried to, or maybe they did run 
advertisements urging people get back to the business of government, 
rather than the focus of Whitewater, et cetera.
    Question. Do you know who founded the committee?
    Answer. I believe Lynn Cutler did.
    Question. Do you know whether Maggie Williams suggested to anyone 
that they should contribute to the Back to Business Committee?
    Answer. No, not to my knowledge.
    Question. Do you know if Maggie Williams ever suggested to donors 
that that was the way to support the First Lady?
    Answer. No. Not that I know of.
    Question. Do you know if Maggie Williams ever suggested to Cutler 
individuals she might want to contact to donate to the committee?
    Answer. Not that I was aware of, no.
    Question. Would you happen to know how Lynn Cutler learned of 
Johnny Chung?
    Answer. No.
    Question. Do you know whether or not Johnny Chung donated to the 
Back to Business Committee?
    Answer. I don't know.
    Question. Did Mr. Chung ever contact you about Lynn Cutler? Did he 
ever ask you anything about her?
    Answer. Not that I remember, no.
    Question. Do you know what the White House data base or WhoDB is?
    Answer. Yes.
    Question. What is it?
    Answer. I believe it's a system set up with people's names who come 
to events at the White House.
    Question. Is that the only reason that it's set on, that you know 
of?
    Answer. That's my understanding.
    Question. Did you have access to this data base?
    Answer. Yes.
    Question. Do you recall when you got access to this?
    Answer. No, I don't recall when.
    Question. Let me show you this computer service request. Does this 
refresh your recollection as to when you may have received service?
    Answer. Yes, I suppose it would have been late, October '96.
    Question. Why did you request that the data base be installed on 
your computer?
    Answer. I didn't request it. I remember that it was assigned to 
certain people in the office and I was one of the people it was 
assigned to.
    Question. Do you know any reason why it was assigned to different 
people in the office, including yourself?
    Answer. I believe it was assigned to me because I worked for Maggie 
and as Chief of Staff she would be the person to have access to it, and 
my recollection is that they gave it to me as well because Maggie would 
be more likely to have, if she had any need for it, to go through me 
than to use it herself.
    Question. Do you know why in October you would have needed the data 
base to be installed on your computer and not prior to this date?
    Answer. I don't know. As I said, I didn't request it. I just 
remember that it was assigned to me.
    Question. Did you have a security level for using this data base?
    Answer. I don't know if it was a requirement or not. There's 
certain security clearances you have to get in order to be a staff 
member there, but I don't know if--to be logged on to WhoDB, I don't 
know if it was necessary to have a certain security level.
    Question. Did you have unlimited access to the data base?
    Answer. I didn't really use the data base terribly often. I don't 
know. I don't know.
    Question. What would you use it for?
    Answer. I used it to get people's addresses normally. People in the 
office knew I had it. All the photos with Mrs. Clinton from her travels 
and at events at the White House would come back to our office and so 
in order to send the photos out, we usually, if we couldn't find 
people's address or phone number, it was the easiest way to find them.
    Question. And you would usually do that at the request of somebody 
else?
    Answer. Yes.
    Question. Was there any one person who would normally ask you to 
conduct those searches?
    Answer. No. Generally a lot of interns in the office tried to--it 
was part of their duties to send the photos out. So if there had been 
an event at the White House and we had the person's name, we generally 
had their address and phone number in the WhoDB and that would be how I 
would be able to send the photos out to them.
    Question. Would the interns be able to access the data base?
    Answer. No.
    Question. Do you have any knowledge of the purpose for which other 
people in the office would use the data base?
    Answer. No, I don't know.
    Question. Did you have any discussions with Maggie Williams about 
the data base?
    Answer. No.
    Question. Do you know if Ms. Williams ever used the data base?
    Answer. Not that I know of. I don't think she did.
    Question. Do you know if the First Lady ever used the data base?
    Answer. Not that I know of.
    Question. Do you have any knowledge of the transfer of data from 
the data base to any other organization or group that wasn't involved 
with the White House?
    Answer. No.
    Ms. Safavian. If we can just go off the record for a few minutes, I 
may be close to finishing.
    [Off the record.]
    Ms. Safavian. Let me make this computer services request exhibit 
ER-12.
    [Ryan Deposition Exhibit No. ER-12 was marked for identification.]
    Mr. Lawler. That's fine. I would note for the record and there's no 
disagreement, although you have been asking Evan about the WhoDB 
element of this document, it is a computer request submitted by, not by 
Ryan, not by Evan Ryan but by some Van Praagh for a series of computer 
work, remove IBM hard drive, install 486 hard drive, network computer, 
install U.S. 2000 load. I don't know what that is. Finally, the fifth 
element is install WhoDB software.
    So just for the context, this looks to be a general request by 
someone other than Evan to update the computer at her desk rather than 
any specific request on her part for access to a specific data base.
    Ms. Safavian. Okay. That's fine.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Ms. Ryan, we did speak briefly just a little while ago 
about an e-mail from Robert Suettinger and you mentioned that you had 
seen this before in your Senate deposition. I now have that document 
and I would like to go ahead and put that in front of you again so we 
can discuss it.
    If you would like, please take a moment to read through that.
    Is it your prior testimony that the first time you saw this was in 
your Senate deposition?
    Answer. Yes.
    Question. As you can see, the second paragraph of the e-mail says, 
quote, ``Having recently counseled a young intern from the First Lady's 
office who had been offered a dream job by Johnny Chung, I think he 
should be treated with a pinch of suspicion.'' Do you know who the 
young intern is that is referenced in this e-mail?
    Answer. Yes.
    Question. Who is that?
    Answer. Gina Ratliffe.
    Question. Did you mention her name earlier?
    Answer. I may have. I don't know.
    Question. In case you hadn't, who is she?
    Answer. She was an intern in our office at that time.
    Question. And, first of all, how do you know that that is the young 
intern that is referenced here?
    Answer. Because I remember Johnny offering her a job. That's the 
only intern that I know of that he offered a job.
    Question. Do you know what this dream job was that he offered her?
    Answer. It was the type of job where she would be his assistant in 
Washington. She would be based in Washington.
    Question. And how did you find out that he offered her this job, 
was it through Mr. Chung?
    Answer. Through Gina Ratliffe.
    Question. Through Gina.
    Question. And what did Gina tell you about that?
    Answer. Just that she had been offered this job by Johnny Chung. 
And that it sounded great. She was going to be based out of Washington, 
and she seemed excited about it.
    Question. Did she accept the job?
    Answer. Yes.
    Question. Do you know why Mr. Chung would have offered this job to 
Gina?
    Answer. I think he----
    Mr. Lawler. Do you know?
    The Witness. I don't know.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Did he have a lot of contact with Gina?
    Answer. He would see her in the office and she's one of the people 
that would answer the phone. In that respect, yes.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Did Johnny Chung ever offer you a job?
    Answer. No.
    Question. Did he ever offer anybody else in the office a job?
    Answer. Not to my knowledge.
    Question. The e-mail continues: Quote, ``My impression is that he's 
a hustler and appears to be involved in setting up some kind of 
consulting operation that will thrive by bringing Chinese entrepreneurs 
into town for exposure to high-level U.S. officials, end quote.''
    We talked about this very briefly. When was the first time you 
learned that the NSC considered Johnny Chung a hustler?
    Answer. I believe whenever this came out in the news or when I 
saw--I don't remember when I saw this.
    Mr. McLaughlin. Your question assumes the NSC considers Johnny 
Chung to be a hustler. Why don't we just stick to the text of the e-
mail. The document speaks for itself. I don't think it indicates what 
the NSC does and does not think.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Ms. Ryan, do you know if the First Lady's Office was ever 
made aware of this e-mail?
    Answer. I don't know.
    Question. So you don't know if it was ever sent over to the First 
Lady's Office?
    Answer. I don't know.
    Question. Real quickly, you mentioned that Gina accepted the job 
with Johnny Chung?
    Answer. Yes.
    Question. Do you know for how long she worked for him?
    Answer. No. I believe it was a matter of months, but I don't know 
how long.
    Question. Did you keep in contact with her after she left and 
started working with him?
    Answer. Yes, somewhat.
    Question. Did you ever ask her how her new job was; did she ever 
tell you anything about Johnny Chung?
    Answer. She was not happy in her new job. She initially may have 
been, but eventually was not happy because she wasn't being paid as she 
had been promised.
    Question. It was less salary than she was promised?
    Answer. Or I think had not been paid for an extended period of 
time.
    Question. Did she say anything else to you?
    Answer. She was upset about that, and I think she, you know, 
therefore was going to leave the job.
    Question. Did she leave?
    Answer. Yes.
    Question. Can you put a time frame on that at all as to how long 
she was with him?
    Answer. Maybe 4 months. I can't say specifically, but that's my----
    Question. Do you know what she did for him?
    Answer. She was based in Washington. She was in charge of setting 
up reservations at restaurants for dinner--this is what she told me, I 
don't know for a fact--checking out museum exhibits that might be 
interesting to the visiting guests. It was something along those lines.
    Question. Do you know where she is now?
    Answer. She left Washington, I think, about a year ago, because I 
remember there was a going away party for her, and it was sometime late 
last summer.
    Question. Do you know how much she was promised for her salary?
    Answer. I don't know the amount, no.
    Ms. Safavian. I will make the e-mail from Robert Suettinger ER-13.
    [Ryan Deposition Exhibit No. ER-13 was marked for identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Ms. Ryan, what I would like us to do very quickly, these 
are WAVE records of Johnny Chung.
    Mr. Lawler. There are different than the ones we already looked at?
    Ms. Safavian. Well, no, I gave you '95? That is another copy. Stick 
with what I have in front of you so we do not get confused. They are 
separated by '94, '95 and '96.
    Mr. Lawler. Since we talked about that one, can we mark that as an 
exhibit?
    Ms. Safavian. Sure, I will just put this one away.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. What I want to do is go very quickly through some of 
these from the times when Johnny Chung was waved into the White House, 
and I would like to know if you happen to know who the names are on the 
WAVE records; who was requesting and who he was meeting with, and, if 
you happen to know, any of the circumstances of the meetings.
    We can start with the first page, which shows----
    Mr. McLaughlin. Which EOP page?
    Ms. Safavian. Starting with 008708.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. The date on the first one is February 2nd, 1994. It shows 
that it was requested by somebody named Botwin, B-O-T-W-I-N, and was 
visiting with someone named Foucart, F-O-U-C-A-R-T.
    Do you know who either of those individuals are?
    Answer. I don't, no.
    Question. The next EOP is 008700, which shows a date of July 22nd, 
1994, requested by and visiting with Anderson.
    Do you know who that is?
    Answer. No, I don't.
    Question. Would you happen to know anything about this meeting?
    Answer. No.
    Question. The next one is EOP 08698, and we have a couple on this 
page. We can start with the first one at the top. It's August 2nd, 1994 
is the date, and the visitor, and is requested by somebody named Lewis.
    Do you know who that is?
    Answer. I don't.
    Question. The next entry is August 4th, 1994, Anderson?
    Answer. No.
    Question. The next one is August 8, 1994. We show it's requested by 
somebody named Dickey, and the visitor is POTUS, which is the President 
of the United States.
    Do you know who Dickey is?
    Answer. Robin Dickey. Or at that time it was someone by the name of 
Helen Dickey. They both worked in the social office.
    Question. Do you have any reason to know why Johnny Chung would be 
meeting with the President on the South Lawn on that day?
    Answer. It must have been an event. They only have events on the 
South Lawn.
    Question. The next one is August 8th, 1994, requested by somebody 
named Atta, A-T-T-A.
    Do you know who that is?
    Answer. No.
    Question. Once again, we have Lewis, and you don't know who that 
is?
    Answer. No.
    Question. The next one is August 11th, '94. Once again that's 
Anderson?
    Answer. No.
    Question. And then August 12th, '94 is Anderson and Lewis, and you 
don't know who they are?
    Answer. No.
    Question. The next one is EOP 003738. The date is September 20th, 
1994.
    Once again it is requested by Lewis, and Lewis is the visitee?
    Answer. No.
    Question. September 21st, '94. This time it is requested by 
somebody named Kelly.
    Do you know who that is?
    Answer. No.
    Question. And the visitee is Quinn.
    Do you know who that is?
    Answer. I believe that's Jack Quinn.
    Question. Do you have any reason to know why Johnny Chung would be 
meeting with Mr. Quinn?
    Answer. No.
    Question. The next date is September 23rd, '94.
    Once again Lewis is the name?
    Answer. No.
    Question. The next page is EOP 008694. The date is October 5th, 
'94. Requested and visitee by somebody named Shakow, S-H-A-K-O-W.
    Do you know who that individual is?
    Answer. No.
    Question. And then again at the bottom there's a date of October 
20th, '94, and that's Anderson again.
    Mr. Lawler. And you still don't know Anderson.
    The Witness. No.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. No. The next page is EOP 005041. The date is November 
1st, 1994. Johnny Chung's appearance was requested, and he was visiting 
with somebody named Eder, E-D-E-R.
    Do you know who that is?
    Answer. No.
    Question. The last entry on that page is November 29th, 1994. The 
requester was somebody named--I'm not sure how to pronounce that--W-O-
Z-N-I-A-K.
    Do you know who that is?
    Answer. No.
    Question. And visitee being Mitchell.
    Do you know who that would be?
    Answer. No.
    Question. The last one in '94 is EOP 005040. We have a date of 
December 19th, 1994. It looks like the requester was Dunn.
    Is that what that looks like to you?
    Answer. Yes.
    Question. Do you know who that is?
    Answer. Donald Dunn.
    Question. Who is Donald Dunn?
    Answer. I believe he worked in political affairs at the time.
    Question. And the visitee is Lewis?
    Answer. I don't know.
    Question. The next one is December. Again we have December 19th, 
'94. This time the requester is Anderson, and he's visiting with 
Anderson?
    Answer. No.
    Question. We have another entry with Dunn on December 27, perhaps, 
hard to read.
    Would you have any reason to know why Dunn would be meeting with 
Johnny Chung?
    Answer. No.
    Question. The next one is December 10th of '94.
    Do you know who Brown is?
    Answer. No.
    Question. And the last one on that page is December 20th of 1994. 
The requester is Burke.
    Do you know who that is?
    Answer. No.
    Question. Do you have any reason to know why Johnny Chung would be 
meeting with the President on that day?
    Answer. I don't, but I see that it's Christmastime, so I'm guessing 
it was a Christmas event.
    Question. Let's move on to 1995. EOP 005039. Once again on January 
11th, '95, the requester and the visitee is Dunn.
    Do you have any reason to know why Dunn would be meeting with 
Johnny Chung on that date?
    Answer. No.
    Question. The next one is January 13th, '95. It appears that Johnny 
Chung is meeting with Middleton.
    Do you know why he would be meeting with Middleton?
    Answer. No.
    Question. We have a January 30th, '95, again Dunn.
    Any reason for that visit?
    Answer. I don't know.
    Question. January 10th, 1995, the requester and the visitee is 
Frankfurter.
    Do you know who that is?
    Answer. No, I don't.
    Question. Then we have January 12th, '95, the requester and the 
visitee is Middleton.
    Do you know why he would be meeting with Middleton?
    Answer. No, I don't.
    Question. The next page is EOP 008683. We have a couple entries on 
this page where your name is mentioned. We have already talked about 
the March 8 and March 9.
    Examination by looking at this and seeing the dates that you 
requested Johnny Chung be admitted, do you have any recollection as to 
why you requested him be admitted on these dates besides March 8 and 
March 9?
    Answer. No. I think I stated before that Johnny Chung would stop by 
or call to be cleared in just to visit and just to talk. I have no 
specific recollection of a date and a specific reason that he stopped 
by the office.
    Question. Speaking about that, can you tell me, could anybody just 
stop by in the lobby and ask to be waved in?
    Answer. It's possible, yes.
    Question. And there would be no problem with that?
    Answer. I knew Johnny Chung. I had been made aware of who he was. I 
had met him, so I definitely knew who he was. No one else really does 
that. If anyone else wants to try, but----
    Question. At the bottom there is a March 10, '95 date, and the 
visitor and the requester is Tarmey.
    Who is Tarmey?
    Answer. Marge Tarmey, who was the assistant to the chief of staff 
at the time.
    Question. Let's turn to page EOP 005038. The date is March 11th, 
1995. This time the requester is somebody named Crawford.
    Do you know who that is?
    Answer. I believe that's Kelly Crawford.
    Question. And who is she?
    Answer. She worked in Oval Office operations.
    Question. Do you know why Johnny Chung would be meeting with the 
President of the United States on that date?
    Answer. I believe that's the radio address.
    Question. Oh. The next page is EOP 008680. On May 19, 1995, Shulman 
has requested Johnny Chung.
    Who is Shulman?
    Answer. I don't know.
    Question. The visitee is Matsui.
    Do you know who that is?
    Answer. Doris Matsui.
    Question. Do you have any reason to know why Mr. Chung would be 
meeting with Ms. Matsui?
    Answer. No.
    Question. And there's another date there with your name.
    Do you know why he would you would have waved him in on May 4, '95?
    Answer. No.
    Question. The page is EOP 003717. Once again we have three entries, 
May 3, May 19 and May 24th, and they all have your name.
    Do you have any recollection as to these visits?
    Answer. No.
    Question. The next page is EOP 003713. We have three entries again, 
July 10th, July 11th and July 21st. Your name is on this.
    Do you recall the circumstances of these visits?
    Answer. No.
    Question. Do you know why he would have visited on the 10th and 
then the 11th?
    Answer. No.
    Question. The next page is EOP 005035.
    The requester is Widdess?
    Answer. Yes.
    Question. Do you know who that is?
    Answer. Yes.
    Question. Who is that?
    Answer. Kim Widdess.
    Question. And who is she?
    Answer. She worked in the Social Office.
    Question. Do you know why Mr. Chung would be meeting with the 
President of the United States on July 11th?
    Answer. All I know is that Kim Widdess' job was guest lists. She 
cleared everyone in for any events at the White House.
    Mr. Lawler. And again Evan doesn't know whether he meets with the 
President. Again, it is a fair question, but it is somewhat misleading 
as well because she doesn't know whether he was meeting with the 
President or in a room with 500 other people.
    Ms. Safavian. Sure.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. I'm asking for what you may know.
    Answer. Any time Kim Widdess has cleared someone in, it usually 
means it is an event with a big group of people. That's her job, and it 
says ``state floor,'' so I would assume it's an event on the state 
floor.
    Mr. Lawler. But my point is the visitee column is not, I don't 
think, fairly equivalent, as far as she knows, and her testimony has 
also been, equivalent to a meeting with, a substantive meeting, with 
the person there.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. The page is EOP 003710. We have three visits;, looks like 
two visits on September 25th and one on September 26th, and your name 
is on all those with the exception of one time on the 25th when McCoy's 
name is mentioned.
    Do you happen to recall any of these, the circumstance of any of 
these visits?
    Answer. If I cleared him in, and the visitee was Ann McCoy, that 
meant she worked in the Visitors Office, so she was probably giving a 
tour for him.
    Question. Is that all you recall about those dates?
    Answer. Yes.
    Question. Let me hand you another telephone message. It's dated 
September 27th or 29th, it's hard to read, but it is of 1995, and it is 
from Johnny Chung. It's addressed to you. The message says he is 
sending two baskets of flowers, one for Maggie, one for you.
    Answer. Yes.
    Question. Did Johnny Chung send you and Maggie Williams flowers?
    Answer. I don't recall specifically, but he must have.
    Question. Did he often send you flowers? Did he ever send you 
flowers?
    Answer. I don't remember it specifically, but I don't know. I mean, 
if he said he was, maybe he did.
    Question. Do you know why he would send you flowers?
    Answer. No.
    Ms. Safavian. I would like to make this an exhibit, ER dash 14.
    [Ryan Deposition Exhibit No. ER-14 was marked for identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Turning to the next page, EOP 005032, Johnny Chung, we 
have dates of 10/16--I'm sorry, October 16, 19, 26th and 28th of 1995. 
Besides your name, we have Philips as a requester for October 26th.
    Who is Philips?
    Answer. I don't know.
    Question. Who is Brown? That's the requester for October 28th.
    Answer. I don't know.
    Question. Do you happen to recall the circumstances surrounding the 
visits on October 16th or 19th?
    Answer. No.
    Question. Let me hand you another telephone message. This one is 
dated October 19th, 1995. I'm sorry, October 20th, the day after one of 
his visits, which was October 19th. Once again it states that he is 
sending flowers to you and Maggie.
    Do you recall him sending flowers on this date?
    Answer. No. No, I don't.
    Ms. Safavian. Let me mark that as Exhibit ER dash 15.
    [Ryan Deposition Exhibit No. ER-15 was marked for identification.]

                     EXAMINATION BY MS. SAFAVIAN:

    Question. And then the last page of '95 is EOP 003703. The date is 
December 8th, 1995. The visitee is McCoy.
    Do you know why he would be there on that day?
    Answer. As I said, Ann McCoy works in the Visitors Office, and I 
know she had given him tours before, so that would be----
    Question. Do you know if that's the date of the Christmas party at 
the White House?
    Answer. I don't know.
    Question. Okay. Then we just have two entries in '96. EOP 008663, 
February 9th, 1996. The visitee is once again you.
    Do you recall the circumstance of this meeting?
    Answer. I don't, no.
    Question. And then the last one is EOP 005029, and the date of that 
is June 15th, 1996. The requester and the visitee is listed as Forster.
    Who is Forster?
    Answer. I don't know.
    Ms. Safavian. I will mark all of these WAVE records as Exhibit ER-
16 for all 3 years.
    [Ryan Deposition Exhibit No. ER-16 was marked for identification.]
    Mr. Lawler. And the part of Exhibit 16 that covers '95 is the WAVE 
records we talked about earlier in the deposition.
    Ms. Safavian. From March 8 and March 9.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Just to summarize our discussion about Johnny Chung, 
besides what we have already discussed, do you recall any of the topics 
or discussions with Johnny Chung that you may have had?
    Answer. No.
    Question. Do you recall any discussions you may have had with 
anybody else in the First Lady's office about Johnny Chung besides the 
ones we already discussed?
    Answer. No, not that I recall. No.
    Question. Have you had any discussions with anyone else in the 
First Lady's office since Johnny Chung has given his account of the 
March 8th and March 9th, 1995 visits in the news accounts to Tom Brokaw 
last night? Have you spoken with anybody else in the First Lady's 
office since that has been made public?
    Answer. No.
    Mr. Lawler. And again, that is on advice of counsel.
    Ms. Safavian. Ms. Ryan, I believe I'm done. At this time Minority 
counsel probably has a few questions to ask you.
    Mr. McLaughlin. I will try to keep them very brief because I know 
you are anxious to get out.
    Mr. Lawler. A sentiment shared by other people in the room.
    Mr. McLaughlin. Shared by me.

                     EXAMINATION BY MR. MCLAUGHLIN:

    Question. I will show you a document. Majority counsel doesn't seem 
to be particularly interested in letting you address each of the 
allegations that Johnny Chung has made in the L.A. Times story, so I 
want to go through it now.
    Do you recognize----
    Ms. Safavian. Objection. That is an inaccurate portrayal of the 
testimony we have had here today.
    Mr. McLaughlin. Are you directing the witness not to answer?
    Ms. Safavian. I'm objecting to your portrayal of my questions.
    Mr. McLaughlin. I will actually be happy to respond to your 
questions in saying that I don't believe that you gave her a fair 
opportunity to respond to each of the allegations in this article. We 
are now going to go through some of the ones you missed.
    And I apologize in advance if I am a little repetitive. We might 
hit one or two things you already addressed. We will try to skip those.

                     EXAMINATION BY MR. MCLAUGHLIN:

    Question. Do you recognize what I have just put in front of you?
    Answer. Yes.
    Question. What does the document appear to be?
    Answer. It's an article from the Los Angeles Times, July 27th, 
1997.
    Question. And you have seen this article before?
    Answer. Yes.
    Question. I'm going to--rather than go through in it in any kind of 
detail, I'm going to skip ahead. If you can turn to the fourth page, 
the beginning sentence on that page is, ``And in the First Lady's 
office.'' The second paragraph reads, ``Here is Chung's version of 
those disputed events.'' The first sentence refers to that March day, 
which I believe is Chung's first visit that has been the subject of our 
discussions here.
    Is it your belief that that was March 8th, 1995?
    Answer. Yes.
    Question. The first sentence reads, ``Chung was greeted by Ryan, 
who was then a staff assistant.''
    To the best of your recollection, is that sentence accurate?
    Answer. Yes.
    Question. Second sentence: ``He showed her the business cards of 
his Chinese companions and asked if arrangements could be made for them 
to eat lunch in the White House Mess and meet Hillary Clinton.''
    To the best of your recollection, are all of the elements of that 
sentence correct?
    Answer. No.
    Question. Which ones are incorrect?
    Answer. He never showed me business cards on that day, and he also 
asked about the radio address and a tour of the White House.
    Question. ``Chung also asked if there was anything he could do to 
help the White House.''
    Is that sentence correct?
    Answer. No.
    Question. And how is it incorrect?
    Answer. That day he stated he was making a contribution to the DNC.
    Question. Next paragraph. ``Ryan left for about 15 to 20 minutes 
and returned, saying he had spoken with Williams''--``she had spoken 
with Williams.''
    Is that sentence correct?
    Answer. Yes.
    Question. Then she said, quote, ``Maybe you can help us,'' unquote.
    Is that sentence correct?
    Answer. No.
    Question. How is that incorrect?
    Answer. I didn't say anything about helping us. I mentioned that we 
were going to check and see if we could set up any of the things he was 
hoping to set up.
    Question. The next paragraph reads, ``The aide told Chung that,'' 
quote, ``the First Lady had some debts with the DNC,'' unquote, ``from 
expenses associated with White House Christmas parties.''
    Is that sentence correct?
    Answer. No.
    Question. And how is it incorrect?
    Answer. I never discussed expenses and that Christmas with Mr. 
Chung.
    Question. The next sentence reads, ``Chung believes that Ryan 
mentioned a figure of around $80,000.''
    Is that sentence correct?
    Answer. No.
    Question. How is that incorrect?
    Answer. I never mentioned a figure of $80,000. I never mentioned 
any money.
    Question. Skip the next paragraph because it is a parenthetical not 
bearing on facts.
    Sentence--paragraph following that reads, ``Ryan told him, Chung 
said, that she was relaying the request on behalf of Williams, who 
hoped Chung could,'' quote, ``help the First Lady,'' unquote, ``defray 
those costs.''
    Is that sentence correct?
    Answer. No.
    Question. And how is it incorrect?
    Answer. I was not relaying anything on behalf of Maggie Williams 
regarding defraying costs for the First Lady.
    Question. We will skip the next paragraph.
    Paragraph after that begins, ``After making that commitment, Chung 
said''--did you regard him--is it your belief that he made a commitment 
to you at that meeting?
    Answer. No. It was left in terms of we would be talking later that 
day about setting up the different requests he had made.
    Question. Okay. The next paragraph begins, ``The next morning.''
    Is it your belief the next morning would be March 9, 1995?
    Answer. Yes.
    Question. The sentence states, ``The next morning, Chung said, he 
went back to the White House and was escorted to Ryan's desk in the 
reception area of the First Lady's office.''
    Is that sentence correct?
    Answer. I don't remember when he came. He came around lunchtime the 
next day, and he and the group came to the office the next day.
    Question. ``He said he gave her an unsealed envelope.''
    Is that sentence correct?
    Answer. No.
    Question. And how is it incorrect?
    Answer. He didn't give me an envelope. Never gave me an envelope.
    Question. The next paragraph reads, ``According to Chung, Ryan 
lifted the flap and examined the contents.''
    Is that sentence correct?
    Answer. No.
    Question. How is it incorrect?
    Answer. I didn't lift the flap, I never had the envelope, and I 
didn't examine the contents.
    Question. The sentence reads, ``Inside was his check and a note to 
Williams, which he recalled said something like: To Maggie--I do my 
best to help. Johnny Chung,'' unquote.
    Do you have any knowledge as to whether that sentence is correct or 
not?
    Answer. No, I don't know.
    Question. The paragraph begins, ``A short time later, Chung said, 
the chief of staff joined them, and Ryan handed the envelope to her.''
    Is that sentence correct?
    Answer. No.
    Question. How is it incorrect?
    Answer. Johnny Chung handed the envelope to Maggie Williams 
directly himself.
    Question. Next sentence reads, Williams, he said, immediately led 
him to a private office and called to reserve a table for the Chinese 
delegation at the White House Mess.
    Is that sentence correct?
    Answer. No.
    Question. How is it incorrect?
    Answer. At that point, by the time he handed the envelope to Ms. 
Williams, he had already had lunch at the Mess.
    Question. The next three paragraphs we will skip because they don't 
allege facts that concern you.
    The paragraph following begins, ``Later, waiting for Hillary 
Clinton in a White House reception room, Chung said he asked if the 
First Lady had been informed of his donation, and Ryan responded,'' 
quote, ``yes, she definitely knows,'' unquote.
    Is that sentence correct?
    Answer. No, he never asked me that. I never said yes, she 
definitely knew.
    Question. Turning to the next page that begins with the phrase, 
``Shortly before 4:00 p.m.'' I would like to direct your attention to 
the fourth paragraph down that begins, ``But they agree.'' And I 
believe ``they'' in that paragraph refers to White House officials, 
which begins the prior paragraph. The second sentence of that paragraph 
reads, ``They maintain that Williams and Ryan did not solicit the 
donation and did not provide any benefits as a result of it.''
    Is that sentence correct?
    Answer. Yes.
    Question. Let me just ask you a more general question based on that 
point. Did you ever take any actions in your capacity working in the 
First Lady's office that were connected to, in response to, or designed 
to encourage political or other kinds of campaign contributions?
    Answer. No.
    Question. Let's turn to the next paragraph. It says--and I believe 
this is quoting Anne Lewis, who is the White House communications 
director--quote, ``Maggie Williams recalls that, on several occasions, 
Johnny Chung told her that he wanted to make a personal contribution to 
the Clintons,'' unquote. Lewis said, quote, ``She told him that he 
could not make a personal contribution. She eventually told him he 
could give to other entities, such as the Democratic National 
Committee,'' unquote.
    Do you have any anything in your personal knowledge as to whether 
or not those statements are true?
    Answer. Whether or not Maggie Williams told Johnny Chung that?
    Question. Exactly, the statements, the facts that are set forth in 
Ms. Lewis's account?
    Answer. I myself wasn't present. No, I don't remember it 
specifically.
    Question. The next paragraph reads, ``Lewis said Chung was told the 
First Lady's office could not arrange his attendance at the President's 
radio address.''
    Is that statement correct to the best of your knowledge?
    Answer. I don't remember much of the radio address or dealing with 
it, so I don't know what he was told.
    Question. We have already covered that. I apologize for bringing it 
up again.
    The next sentence reads, ``And, Lewis said, Ryan'' quote, ``is sure 
that she had no discussion of financial contributions with Johnny 
Chung,'' unquote.
    Is that sentence correct?
    Answer. Yes, and no discussions he made that statement to me, but 
there were never any discussions.
    Question. Let me direct your attention to the next page. This page 
begins with the phrase, ``Williams, who has served Hillary Clinton.'' I 
would like to point you to the sixth paragraph down. It begins, ``On 
Friday.'' On Friday; do you believe that that refers to March 10th, 
1995?
    Answer. Yes.
    Question. Sentence reads, ``On Friday, Chung returned to the White 
House, was admitted into the compound by the First Lady's office, and 
repeated his request to Ryan.''
    Is that sentence correct?
    Answer. No, it's not. I was not around on Friday, March 10th. I was 
in New York.
    Question. You were in New York. And you have already represented 
that you were anxious to leave the day before?
    Answer. Yes.
    Question. And is it the case you wanted to get to New York to be at 
a basketball tournament your brother was in?
    Answer. Yes.
    Question. I would like to turn briefly back to one of the exhibits 
you were just shown, Exhibit 16, and this would be the WAVE summaries 
for 1995, and the second page of that group, which is Bates stamped EOP 
008683.
    The third line up from the bottom shows a visit from Johnny Chung, 
and the requester requested by category then a visitor are both Tarmey. 
They are not Ryan. So this document is consistent with your 
recollection that you were not present there on Friday; is that 
correct?
    Answer. Yes.
    Question. So this account confirms that Johnny Chung was not 
telling the truth when he said that he met with you on Friday, March 
10th?
    Answer. Yes.
    Question. I would now like to ask you----
    Ms. Safavian. Counsel, are we going to make this an exhibit?
    Mr. McLaughlin. I don't have exhibit stamps. If I could use one of 
yours?
    Ms. Safavian. Sure. The next one is ER dash 17. So we will make 
this ER-17. Thank you.
    [Ryan Deposition Exhibit No. ER-17 was marked for identification.].
    Mr. Lawler. If that is not cooperation, I don't know what is.

                     EXAMINATION BY MR. MCLAUGHLIN:

    Question. Next, I would like to ask you some questions that Mr. 
Condit, who is a Member of the committee, has asked that we ask 
witnesses concerning the burden of the investigation.
    Have you been asked by any other official investigative body to 
testify or provide evidence on any of the fund-raising or other matters 
being investigated by this committee?
    Answer. Yes.
    Question. And before what body was that?
    Answer. The Senate.
    Question. Have you provided documents to, been interviewed by, or 
been involved in a deposition by the Senate?
    Answer. Yes.
    Question. Is it fair to say that the matters that were covered in 
today's deposition were all, or substantially all, matters that were 
also covered in the Senate deposition?
    Answer. Yes.
    Question. Would it be fair to say that had this committee reviewed 
the Senate deposition, relied on the testimony you gave there, that we 
could have avoided much of the time that was spent in today's 
deposition?
    Answer. Yes.
    Question. Have you received any requests to provide documents, be 
interviewed or be deposed in the future by any other investigative 
body?
    Answer. No.
    Question. Can you estimate how much of your time you have spent in 
responding to requests from this committee for testimony, information 
or documents?
    And maybe we can divide that into two categories. One would be if 
you can estimate how much of your time that you spent in the First 
Lady's office working in response to requests of the Executive Office 
of the President, and maybe how much of your time you spent on your own 
preparing for this deposition today. Estimates will be fine.
    Answer. In the First Lady's office dealing with this document 
request on this?
    Question. Exactly, from this committee.
    Mr. Lawler. Can you do that?
    The Witness. Not really.

                     EXAMINATION BY MR. MCLAUGHLIN:

    Question. Can you give a figure for all of them put together?
    Answer. All of?
    Question. Are we talking weeks, days?
    Answer. Are you talking about this investigation?
    Question. I'm sorry, the Senate and House investigations put 
together and any other subpoenas you have spent time responding to.
    Mr. Lawler. Can you do that?
    The Witness. Not really.

                     EXAMINATION BY MR. MCLAUGHLIN:

    Question. Okay we will move on.
    Can you estimate any time you have spent other than in your 
official capacity preparing for this deposition?
    Answer. I don't know. Bill may have a better idea.
    Mr. Lawler. A substantial number of hours.

                     EXAMINATION BY MR. MCLAUGHLIN:

    Question. Have you taken time from your job to respond to this 
committee's request?
    Answer. Yes.
    Question. Have you incurred expenses in responding to the demands 
from this committee?
    Answer. Mr. Lawler. I paid for the cab on the way over.
    Mr. McLaughlin. That's all the questions that I have.
    Mr. Lawler. Can we go off the record for one second?
    Mr. McLaughlin. Sure.
    [Discussion off the record.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Ms. Ryan, I just have maybe two final questions. Really, 
just two.
    Mr. Lawler. I'm going to count. Got to be careful about promising 
two questions. They may have subparts.
    Ms. Safavian. That's right.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Ms. Ryan, Mr. McLaughlin just went over and quoted from 
the Los Angeles Times article, and I will not requote that. But I'm 
just referencing that. Some of the quotes that were read into the 
record were actually quotes from Anne Lewis; do you recall that?
    Answer. Yes.
    Question. Who is Anne Lewis?
    Answer. She's the White House communications director.
    Question. Do you know if she was ever involved in the Back to 
Business Committee?
    Answer. I don't know. I'm not sure. She could be. I don't know.
    Mr. McLaughlin. Are you speculating?
    The Witness. Yes, I'm speculating. I'm only saying that because she 
started the White House recently.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. She started at the White House recently?
    Answer. Yes.
    Question. Do you know when?
    Answer. Around Inauguration.
    Question. Okay. And then one final question. Are you aware that 
Johnny Chung contributed $25,000 to the Back to Business Committee?
    Answer. No.
    Ms. Safavian. That's all I have. Thank you very much for your time 
today.
    [Whereupon, at 6:20 p.m., the deposition concluded.]

    [The exhibits referred to follow:]

    [GRAPHIC] [TIFF OMITTED] T5667.245
    
    [GRAPHIC] [TIFF OMITTED] T5667.246
    
    [GRAPHIC] [TIFF OMITTED] T5667.247
    
    [GRAPHIC] [TIFF OMITTED] T5667.248
    
    [GRAPHIC] [TIFF OMITTED] T5667.249
    
    [GRAPHIC] [TIFF OMITTED] T5667.250
    
    [GRAPHIC] [TIFF OMITTED] T5667.251
    
    [GRAPHIC] [TIFF OMITTED] T5667.252
    
    [GRAPHIC] [TIFF OMITTED] T5667.253
    
    [GRAPHIC] [TIFF OMITTED] T5667.254
    
    [GRAPHIC] [TIFF OMITTED] T5667.255
    
    [GRAPHIC] [TIFF OMITTED] T5667.256
    
    [GRAPHIC] [TIFF OMITTED] T5667.257
    
    [GRAPHIC] [TIFF OMITTED] T5667.258
    
    [GRAPHIC] [TIFF OMITTED] T5667.259
    
    [GRAPHIC] [TIFF OMITTED] T5667.260
    
    [GRAPHIC] [TIFF OMITTED] T5667.261
    
    [GRAPHIC] [TIFF OMITTED] T5667.262
    
    [GRAPHIC] [TIFF OMITTED] T5667.263
    
    [GRAPHIC] [TIFF OMITTED] T5667.264
    
    [GRAPHIC] [TIFF OMITTED] T5667.265
    
    [GRAPHIC] [TIFF OMITTED] T5667.266
    
    [GRAPHIC] [TIFF OMITTED] T5667.267
    
    [GRAPHIC] [TIFF OMITTED] T5667.268
    
    [GRAPHIC] [TIFF OMITTED] T5667.269
    
    [GRAPHIC] [TIFF OMITTED] T5667.270
    
    [GRAPHIC] [TIFF OMITTED] T5667.271
    
    [GRAPHIC] [TIFF OMITTED] T5667.272
    
    [GRAPHIC] [TIFF OMITTED] T5667.273
    
    [GRAPHIC] [TIFF OMITTED] T5667.274
    
    [GRAPHIC] [TIFF OMITTED] T5667.275
    
    [GRAPHIC] [TIFF OMITTED] T5667.276
    
    [GRAPHIC] [TIFF OMITTED] T5667.277
    
    [GRAPHIC] [TIFF OMITTED] T5667.278
    
    [GRAPHIC] [TIFF OMITTED] T5667.279
    
    [GRAPHIC] [TIFF OMITTED] T5667.280
    
    [GRAPHIC] [TIFF OMITTED] T5667.281
    
    [GRAPHIC] [TIFF OMITTED] T5667.282
    
    [GRAPHIC] [TIFF OMITTED] T5667.283
    
    [GRAPHIC] [TIFF OMITTED] T5667.284
    
    [GRAPHIC] [TIFF OMITTED] T5667.285
    
    [GRAPHIC] [TIFF OMITTED] T5667.286
    
    [GRAPHIC] [TIFF OMITTED] T5667.287
    
    [GRAPHIC] [TIFF OMITTED] T5667.288
    
    [GRAPHIC] [TIFF OMITTED] T5667.289
    
    [GRAPHIC] [TIFF OMITTED] T5667.290
    
    [GRAPHIC] [TIFF OMITTED] T5667.291
    
    [GRAPHIC] [TIFF OMITTED] T5667.292
    
    [GRAPHIC] [TIFF OMITTED] T5667.293
    
    [GRAPHIC] [TIFF OMITTED] T5667.294
    
    [GRAPHIC] [TIFF OMITTED] T5667.295
    
    [GRAPHIC] [TIFF OMITTED] T5667.296
    
    [GRAPHIC] [TIFF OMITTED] T5667.297
    
    [GRAPHIC] [TIFF OMITTED] T5667.298
    
    [GRAPHIC] [TIFF OMITTED] T5667.299
    
    [GRAPHIC] [TIFF OMITTED] T5667.300
    
    [GRAPHIC] [TIFF OMITTED] T5667.301
    
    [GRAPHIC] [TIFF OMITTED] T5667.302
    
    [GRAPHIC] [TIFF OMITTED] T5667.303
    
    [GRAPHIC] [TIFF OMITTED] T5667.304
    
    [GRAPHIC] [TIFF OMITTED] T5667.305
    
    [GRAPHIC] [TIFF OMITTED] T5667.306
    
    [GRAPHIC] [TIFF OMITTED] T5667.307
    
    [GRAPHIC] [TIFF OMITTED] T5667.308
    
    [GRAPHIC] [TIFF OMITTED] T5667.309
    
    [GRAPHIC] [TIFF OMITTED] T5667.310
    
    [GRAPHIC] [TIFF OMITTED] T5667.311
    
    [GRAPHIC] [TIFF OMITTED] T5667.312
    
    [GRAPHIC] [TIFF OMITTED] T5667.313
    
    [GRAPHIC] [TIFF OMITTED] T5667.314
    
    [GRAPHIC] [TIFF OMITTED] T5667.315
    
    [GRAPHIC] [TIFF OMITTED] T5667.316
    
    [GRAPHIC] [TIFF OMITTED] T5667.317
    
    [The deposition of Gina D. Ratliffe follows:]

                           Executive Session

      Committee on Government Reform and Oversight,
                             U.S. House of Representatives,
                                                    Washington, DC.
                    DEPOSITION OF: GINA D. RATLIFFE
                                  Tuesday, November 4, 1997

    The deposition in the above matter was held at the Law Office of 
David N. Zacks, Lewis Clay & Munday, P.C., 660 Woodward Avenue, Suite 
1300, First National Building, Detroit, Michigan, commencing at 12:05 
p.m.
Appearances:
    Staff Present for the Government Reform and Oversight Committee: 
Jennifer M. Safavian, Investigative Counsel; and Kristin Amerling, 
Minority Counsel.
For MS. RATLIFFE:
    DAVID N. ZACKS, ESQ.
    Lewis Clay & Munday, P.C.
    660 Woodward Avenue
    Suite 1300, First National Building
    Detroit, Michigan

    Ms. Safavian. Good morning. On behalf of members of the Committee 
on Government Reform and Oversight, I appreciate and thank you for 
appearing here today. This proceeding is known as a deposition. The 
person transcribing this proceeding is a House reporter and notary 
public. I will now request that the reporter place you under oath.

 THEREUPON, GINA D. RATLIFFE, a witness, was called for examination by 
   Counsel, and after having been first duly sworn, was examined and 
                         testified as follows:

    Ms. Safavian. I would like to note for the record those who are 
present at the beginning of the deposition. My name is Jennifer 
Safavian. I am the designated Majority counsel for the committee; Ms. 
Kristin Amerling is the Minority staff; and Ms. Ratliffe is represented 
by David Zacks.
    Although this proceeding is being held in a somewhat informal 
atmosphere, because you have been placed under oath, your testimony 
here today has the same force and effect as if you were testifying 
before the committee or in a courtroom.
    If I ask you about conversations you have had in the past and you 
are unable to recall the exact words used in the conversation, you may 
state that you are unable to recall those exact words, and then you may 
give me the gist or substance of any such conversation to the best of 
your recollection.
    If you recall only part of a conversation or only part of an event, 
please give me your best recollection of those events or parts of 
conversation that you recall.
    If I ask you whether you have any information upon a particular 
subject and you have overheard other persons conversing with each other 
regarding it or have seen correspondence or documentation regarding it, 
please tell me that you do have such information and indicate the 
source, either a conversation or documentation or otherwise, from which 
you derive such knowledge.
    Before we begin the questioning, I want to give you some background 
about the investigation and your appearance here. Pursuant to its 
authority under House Rules X and XI of the House of Representatives, 
the committee is engaged in a wide-ranging review of possible political 
fund-raising improprieties and possible violations of law.
    Pages 2 through 4 of House Report 105-139 summarize the 
investigation as of June 19, 1997, and encompass any new matters which 
arise directly or indirectly in the course of the investigation. Also 
pages 4 through 11 of the report explain the background of the 
investigation.
    All questions relating either directly or indirectly to these 
issues, or questions which have a tendency to make the existence of any 
pertinent fact more or less probable without the evidence, are proper.
    The committee has been granted specific authorization to conduct 
this deposition pursuant to House Resolution 167, which passed the full 
House on June 20, 1997. Committee rule 20, of which you have received a 
copy, outlines the ground rules for the deposition.
    Majority and Minority counsel will ask you questions regarding the 
subject matter of the investigation. Minority counsel will ask 
questions after Majority counsel has finished. After the Minority 
counsel has completed questioning you, a new round of questioning may 
begin.
    Pursuant to the committee's rules, you are allowed to have an 
attorney present to advise you of your rights. Any objection raised 
during the course of the deposition must be stated for the record. If a 
witness is instructed not to answer a question or otherwise refuses to 
answer a question, Majority and Minority counsel will confer to 
determine whether the objection is proper. If counsel agree that a 
question is proper, the witness will be asked to answer the question. 
If an objection is not withdrawn, the Chairman or a member designated 
by the Chairman may decide whether the objection is proper.
    This deposition is considered as taken in executive session of the 
committee, which means it may not be made public without the consent of 
the committee pursuant to clause 2(k)(7) of House Rule XI. You are 
asked to abide by the rules of the House and not discuss with anyone, 
other than your attorney, this deposition and the issues and questions 
raised during this proceeding.
    Finally, no later than 5 days after your testimony has been 
transcribed and you have been notified that your transcript is 
available, you may submit suggested changes to the Chairman. The 
transcript will be made available for your review at the committee 
office. Also, we can send a copy out, and we will provide a 
confidentiality agreement that you will have to sign prior to us 
sending that out. But that will not be a problem.
    Committee staff may make any typographical and technical changes 
requested by you. Substantive changes, modifications, clarifications or 
amendments to the deposition transcript submitted by you must be 
accompanied by a letter requesting the changes and a statement of your 
reasons for each proposed change. A letter requesting any substantive 
changes, modifications, clarifications or amendments must be signed by 
you. Any substantive changes, modifications, clarifications or 
amendments shall be included as an appendix to the transcript, 
conditioned upon your signing of the transcript.
    Do you understand everything we have gone over so far?
    The Witness. [Affirmative nod.]
    Ms. Safavian. Do you have any questions?
    Ms. Amerling. You need to verbalize.
    The Witness. Yes, I understand.

                      EXAMINATION BY MS. SAFAVIAN:

    Ms. Safavian. Do you have any questions?
    The Witness. Not right now.
    Ms. Safavian. I will be asking you questions concerning the subject 
matter of this deposition. Do you understand?
    The Witness. Yes.
    Ms. Safavian. If you don't understand a question, please say so, 
and I will repeat it will or rephrase it so you understand the 
question.
    Do you understand that you should tell me if you do not understand 
any of my questions?
    The Witness. I do.
    Ms. Safavian. The reporter will be taking down everything we say 
and will make a written record of the deposition. You must give verbal, 
audible answers because the reporter cannot record what a nod of the 
head or other gesture means.
    Do you understand you cannot answer with an uh-huh or unh-unh?
    The Witness. Yes.
    Ms. Safavian. If you can't hear me, please say so and I will repeat 
the question or have the court reporter read the question to you.
    Do you understand that?
    The Witness. Yes.
    Ms. Safavian. Please wait until I finish each question before 
answering, and I will wait until you finish your answer before asking 
the next question.
    Do you understand this will help the reporter make a clear record 
because he cannot take down what both of us are saying at the same 
time?
    The Witness. Yes.
    Ms. Safavian. Your testimony is being taken under oath as if we 
were in court. If you answer a question, it will be assumed you 
understood the question and the answer was intended to be responsive to 
it.
    Do you understand that?
    The Witness. Yes.
    Ms. Safavian. Are you here voluntarily, or are you here as a result 
a subpoena?
    The Witness. Voluntarily.
    Ms. Safavian. Do you have any questions about the deposition before 
we begin the substantive portion of the proceeding?
    The Witness. No.
    Ms. Safavian. Can we go off just for a second.
    [Discussion off the record.]
    Ms. Safavian. Let me just note for the record that Ms. Ratliffe has 
voluntarily provided the committee this morning with several manila 
folders full of documents, including letters and cards and other 
miscellaneous things. She did that voluntarily, and we will be using 
some of those during the deposition.
    Ms. Amerling. Just so the record is clear, those documents were 
provided in response to a request from the Majority; is that correct?
    Ms. Safavian. That is correct.
    Ms. Amerling. For documents relating to Mr. Johnny Chung?
    Ms. Safavian. That is correct.
    Ms. Amerling. Thank you.
    Mr. Zacks. Just so the record is clear, the documents produced by 
Ms. Ratliffe today constitute any and all documents in her possession 
or control that relate to either her White House internship and/or her 
dealings with Mr. Chung.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Okay. Ms. Ratliffe, could you please state your full name 
and spell it for the record?
    Answer. Gina, G-I-N-A, Devee, D-E-V-E-E, Ratliffe, R-A-T-L-I-F-F-E.
    Question. Have you ever been known by any other names or used any 
other names?
    Answer. No.
    Question. What is your date of birth and Social Security number?
    Answer. [Redacted].
    Question. And your current address?
    Answer. [Redacted].
    Question. And how long have you resided at that address?
    Answer. It has been my permanent address for 10 years, but I have 
lived in numerous places.
    Question. Do you presently live there with your family?
    Answer. Yes.
    Question. As far as your other numerous places that you have 
lived----
    Answer. I lived in Kalamazoo, Michigan, for 3 years when I went to 
school. I lived umpteen places when I was in D.C., all throughout D.C. 
I lived in Boston for 5 months. I did some campaign work, so housing 
was fairly sporadic.
    Question. Was this when you were in Boston that you did campaign 
work, or Washington?
    Answer. Yes. I went out to Seattle for a while, up in New Hampshire 
for a little bit.
    Question. Have you ever lived outside the United States?
    Answer. No.
    Question. And you mentioned that you attended college. Which 
college did you attend?
    Answer. Western Michigan University.
    Question. Did you graduate from Western?
    Answer. Yes.
    Question. What was your degree?
    Answer. It was public law, political science, BA in '95.
    Question. Did you receive any other degrees?
    Answer. No.
    Question. Have you spoken with anyone other than your counsel and 
with, perhaps, my staff in scheduling your deposition? Have you spoken 
with anybody else about this deposition?
    Answer. Yes. Two friends know that I have to give it.
    Question. And are these friends located here in Michigan?
    Answer. [Affirmative nod.]
    Mr. Zacks. You have to answer verbally.
    The Witness. Okay. Yes, they are.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. And did either one of these friends ever work or live in 
Washington, D.C.?
    Answer. No.
    Question. Was it a matter of just mentioning to them you had to 
give this deposition?
    Answer. Yes.
    Question. Did you review any documents in preparation for the 
deposition?
    Answer. What do you mean? Did I review----
    Question. Any documents?
    Answer. What I showed you and what was sent to me by your 
committee.
    Question. Okay. Have you been asked by White House counsel or 
anybody else to----
    Ms. Amerling. Excuse me, I have a question here. Do you have copies 
of the documents that you sent to Ms. Ratliffe, because we didn't 
receive a copy.
    Ms. Safavian. They are just the normal letter.
    No, I don't have copies. It is just the normal letter and rules 
that we send to every deponent. I am surprised you didn't get a copy.
    Ms. Amerling. I am not talking about that. I wanted to clarify what 
documents she had received. She mentioned she reviewed documents.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Would you like to clarify that?
    Answer. I received a letter from Dan Burton requesting my 
deposition, and my attorney received a letter also from Richard 
Bennett, and then I received the House Resolution 167 package. That is 
it.
    Ms. Amerling. Thank you.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. As I was asking you, have you been asked by White House 
counsel or anybody else to provide any documents in response to a 
subpoena?
    Answer. No.
    Question. Can you briefly describe your employment history after 
college, and if it is going to be a lot, tell me.
    Answer. No, it is not a lot.
    Question. Okay.
    Answer. My first job out of college was working for Johnny Chung, 
and that lasted very briefly, a few months. Then I worked for a group 
called Campus Green Vote, which is a student environmental action 
committee.
    Question. Where was that located?
    Answer. It was in D.C. And partially while I worked for Campus 
Green Vote, they were part of a coalition called Youth Vote '96. That 
is when I went to Boston, to Harvard.
    I also worked for a political action committee called the New 
Democrat Network, and that was all in Washington.
    And then I came home last fall and work at a counseling clinic 
currently.
    Question. Can you give me a date when you returned home?
    Answer. It was the end of September.
    Question. Of '96?
    Answer. Yes.
    Question. And you currently work----
    Answer. At a counseling clinic----
    Question. The name of it?
    Answer [continuing]. Here in Michigan.
    Question. Can you provide the name of it?
    Answer. It is called Access Christian Counseling.
    Question. What do you do there?
    Answer. I am the marketing director.
    Question. You have held that job since last fall?
    Answer. Um-hmm.
    Question. Okay. Let's just back up a little bit.
    You mentioned your first job after college was with Johnny Chung. 
When did you begin your employment with him?
    Answer. The spring of '95.
    Question. Can you be any more specific?
    Answer. I believe it was April, end of April.
    Question. Towards the end of April?
    Answer. Yes.
    Question. And how long did that go until?
    Answer. I believe I wrote a resignation letter in July. I included 
that in what I gave you.
    Question. What brought you out to Washington, D.C.?
    Answer. I started interning out there the summer of my junior year 
of college. I had an internship at the Supreme Court the fall of '94. I 
worked in the Curator's Office.
    And then I also was involved with the American University 
Washington Semester program. I was working on a research project.
    Question. For a semester?
    Answer. Yes.
    After that, I got the internship at the White House, and so I 
stayed in D.C. my senior year, but still graduated from Western.
    Question. Where did you attend school, American?
    Answer. I went to American the first semester, and then I received 
other credits for my internship and papers that I wrote for my second 
semester credits.
    Question. This would have been for 1995?
    Answer. Um-hmm.
    Question. Okay. The internship that you got with the White House, 
when did you get that?
    Answer. If started January '95.
    Question. And how did you get that? Did you apply for it?
    Answer. Um-hmm.
    Question. Can you just give me the process of that?
    Answer. There is a standard White House internship process. You 
fill out an application. I did go for--I wanted to be in the First 
Lady's office, and I went and spoke with a couple of people on her 
staff, sort of like informal interviews.
    Question. Was this after you sent in your application?
    Answer. Um-hmm. I think so. This all happened at sort of the same 
time. And then I was placed in Maggie Williams' office.
    Question. Why did you want to work in the First Lady's office?
    Answer. Because of my admiration for her and the work that she has 
done.
    Question. Okay. Did you get any school credit for this internship?
    Answer. I believe so.
    Question. Do you remember how many credits?
    Answer. Not exactly.
    Question. Did you have to write a paper or report at the end of the 
internship?
    Answer. I don't think about the internship per se. I think what I 
wrote--what I wrote was actually for the school paper, and I think it 
was more about student and political activism, but I don't remember 
exactly.
    Question. And this was something that you became aware of while you 
were at American University?
    Answer. The internship? Yes.
    Question. I am sorry?
    Answer. I knew there were White House interns before that, but I 
applied the fall of '94.
    Question. The fall of '94. And you didn't begin until January '95. 
Is that when the internships pretty much started?
    Answer. Um-hmm.
    Question. And you said there was an application process.
    Answer. Um-hmm.
    Question. And then you met with a few people in the First Lady's 
office? Did you happen to know them before you met them?
    Ms. Amerling. You need to have allies.
    The Witness. I am sorry. I knew a girl that interned in the health 
care war room. She told me about her internship, and she sort of helped 
get me the application and sort of showed me the ropes and how to apply 
and introduced me to some of the people that worked in the First Lady's 
office.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. And what was her name?
    Answer. Suzy Pollack.
    Question. She was also doing an internship when you were speaking 
with her?
    Answer. She finished hers in the fall of '94.
    Question. Who did she introduce you to at the First Lady's office?
    Answer. I think she introduced me to Evan Ryan. She was Maggie's 
assistant at the time. I just went in and she sort of showed me around 
the office, introduced me to----
    Question. Is this Ms. Ryan you are talking about?
    Answer. Yes. Suzy Pollack introduced me to Evan Ryan, I think, and 
maybe Katy Button, who was Melanne Verveer's assistant at the time. The 
people that I initially had an interview with was Elisa Muscatine in 
speech writing. These were different--I think that actually went 
through a different person, Gabriel Bushman. I don't know if these are 
names you want or not.
    Question. That is fine. I am interested in the process.
    So you met with all these people and spoke with them?
    Answer. Yes.
    Question. So was Evan Ryan the only person you mentioned with whom 
you spoke within the First Lady's office?
    Answer. I had an informal interview with Elisa Muscatine.
    Question. Did she interview all the potential internship 
applicants?
    Answer. I don't know what her procedures are.
    Question. Did you interview with anybody else?
    Answer. No, not formally. I spoke with Evan. I think she might have 
talked to me a little bit about what the responsibilities are in the 
Chief of Staff's office and what the interns do there. She was 
previously an intern and then was hired on.
    Question. Was this a paid or unpaid internship?
    Answer. Unpaid.
    Question. And how long were you an intern in the First Lady's 
office?
    Answer. I was an intern and a volunteer in the First Lady's office.
    Question. At the same time?
    Answer. No.
    Question. Okay.
    Answer. My internship, it started in January of '95, and ended 
sometime in April of '95, and I am not exactly positive on exact dates, 
but then once my internship ended, I filled out paperwork to be a White 
House volunteer. So I had a blue badge, and my badge went from intern 
to volunteer.
    Question. Was it immediate, like you turned in one badge and they 
gave you another badge?
    Answer. I imagine. I think so. I might have turned in the badge for 
the internship and then I went on the trip to China, and when I came 
back--it would have been fairly soon.
    Question. Do you recall filling out the paperwork to become a 
volunteer while you were still interning?
    Answer. I don't remember exactly when I did it. It was a fairly 
simple form. It was mostly contact information. I don't remember 
exactly when I filled that out.
    Question. So if I ask you for a time frame, as for when you were a 
volunteer, can you give me one of those?
    Answer. Yes. I was then basically a volunteer spring of '95--off 
and on, I think, until the following maybe June of '96. There were 
times when I was in between jobs and I would go back and volunteer and 
help out, or if I had extra time doing whatever job I was doing; just 
because I knew what to do there, I would go and help out.
    Question. Let's go back. Let's stay with the volunteer.
    Were you a volunteer in the First Lady's office?
    Answer. Um-hmm.
    Question. So you stayed with the First Lady's office?
    Answer. Um-hmm.
    Ms. Amerling. When you say um-hmm----
    The Witness. Yes.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Did your job duties, responsibilities, vary at all from 
an intern to a volunteer?
    Answer. No. The responsibilities varied depending on what was 
needed.
    Question. And I assume when you were a volunteer, you also did not 
get paid?
    Answer. Correct.
    Question. So when you say ``off and on,'' did you have like any set 
hours when you were a volunteer or set days you would come in, or how 
did that work?
    Answer. There wasn't a specific schedule made out. I guess it was 
basically depending on my availability.
    Question. So it could have been one day a week, or it could have 
been 5 days a week?
    Answer. Yes.
    Question. Did you have for yourself any set routine? Did you try to 
make it in so many days a week or anything like that?
    Answer. No. It wasn't regimented like that.
    Question. It was just random?
    Answer. However my scheduled worked out.
    Question. Okay. And when you are talking about your schedule, 
because you said you were a volunteer in and out with other jobs also, 
so it was pretty much whenever you had free time you would then 
volunteer in the First Lady's office?
    Answer. Yes.
    Question. So the other jobs took precedence?
    Answer. If I had a responsibility to paid employment I had, yes, I 
was there.
    Question. Okay. Going back to your internship, can you kind of 
describe for me what you did as an intern? What were your 
responsibilities?
    Answer. Um-hmm. It varied. Mostly answering phones, opening mail; 
running an errand within the White House; dropping off something, say, 
to the Press Office or Correspondence Office; greeting White House 
staff or guests as they came in, whoever they had meetings with, anyone 
within the First Lady's suite.
    I don't know. Sometimes getting lunches or beverages, that sort of 
thing. It sort of varied.
    Question. Were you the only intern at the time?
    Answer. No, no. There are always many interns.
    Question. There were several others?
    Answer. Yes.
    Question. Was it like a set number of interns?
    Answer. There were typically two--typically two interns assigned to 
Maggie's office when I was there, but it did depend on--interns were 
mostly students, so it would depend on their schedules if they were 
there 5 days a week or 3 days a week or off for breaks, that sort of 
thing.
    There were other interns assigned to other parts of the First 
Lady's office, like her Press Office, Correspondence Office, Speech 
Writing.
    Question. You were simply assigned to Maggie Williams' office?
    Answer. Yes.
    Question. So even with your hours for the internship, that was also 
pretty varied?
    Answer. From January '95 to April, I was there pretty much 5 days a 
week.
    Question. Full days?
    Answer. Yes.
    Question. Was that a requirement for getting credit in school, or 
was that just what was needed?
    Answer. That is how it worked out. Since I wasn't going back to 
school, I wasn't taking classes, and I had that time available.
    Question. You were not attending class at the same time?
    Answer. No.
    Question. Did you have an office or a desk or anything that was 
your area in the First Lady's office?
    Answer. Not one that was specifically mine, no.
    Question. Where would you normally sit or hang your hat, as the 
saying goes?
    Answer. There is a coat rack when you walk in. I would put my coat 
there, and I would go and there were two desks that were available. 
Typically there were interns, and occasionally there were volunteers as 
well. So if the volunteers were there, usually elderly women, they 
would sit at the desk and answer the phone and open the mail. They 
would sort of have the interns wherever space was available to work, 
file, whatever was needed.
    Question. So you wouldn't necessarily be sitting at a desk all day 
answering phones or correspondence?
    Answer. No.
    Question. You said this is kind of in the general reception area, 
like when you walk into the First Lady's office, it is a reception 
area. Is that generally the area you were talking about where you would 
spend most of your time?
    Answer. Yes.
    Question. Who else was in that area besides volunteers and interns?
    Answer. Evan Ryan.
    Question. That is where her desk was located?
    Answer. Yes.
    Question. Was there anyone else permanently located in that 
reception area?
    Answer. No.
    Question. And I guess if you could explain to me how close from 
where the reception area is to where Maggie Williams' office is?
    Answer. They are connected by a door.
    Question. So Maggie Williams, her office is right there?
    Answer. Yes.
    Question. Did you as an intern have a supervisor or have to report 
to anybody?
    Answer. Evan was my supervisor. That is who I checked in with, who 
basically assigned the project.
    Question. Was she the supervisor over all interns?
    Answer. Over the interns in Maggie's office.
    Question. Of course, that is what I meant. I am sorry.
    What about over the volunteers? Was there somebody who kind of 
oversaw the volunteers?
    Answer. Evan did in Maggie's office.
    Question. So would Evan Ryan then be the one that every day would 
kind of tell you what needed to be done that day, or you would go to 
her when looking for something to do?
    Answer. Um-hmm. Yes.
    Question. Besides the First Lady's office, did you ever work out of 
any other location?
    Answer. I helped out in the Press Office, I helped out in the 
Social Office. I helped out a little with whoever was working on Mrs. 
Clinton's briefing book, the Research office.
    Question. Was this just a day here and there----
    Answer. Yes.
    Question [continuing]. If someone needed to be there to help out?
    Answer. Yes.
    Question. So it wasn't anything----
    Answer. Regular, no.
    Question. Right. As an intern, did you ever help schedule any 
events, any White House dinners or lunches with the First Lady?
    Answer. Are you asking me if I scheduled those?
    Question. Were you ever involved in doing anything like that?
    Answer. I never scheduled any events, no.
    Question. Who would have scheduled those events?
    Answer. Perhaps the Social Secretary. She was pretty much in charge 
of the First Lady's social events.
    Question. Would you ever at any time assist in preparing a guest 
list or helping set up, or--I don't know--anything?
    Answer. I helped out with the Social office, yes.
    Question. Did you ever assist anybody in scheduling events for DNC 
contributors or Clinton-Gore contributors to events in the White House?
    Answer. No. No. The events that I helped out, I helped out an a 
state dinner. I don't know, I think I was making some calls for some 
women's tea thing. I can't remember exactly. But it wasn't fund-raising 
that I remember.
    Question. Did you ever help plan any movies that they had at the 
White House?
    Answer. No, I never got to go to those.
    Question. That is too bad.
    How about any of the photos with the First Lady?
    Answer. What about them?
    Question. Did you ever help plan any photo sessions with the First 
Lady?
    Answer. I never planned anything for the First Lady. I helped out 
at whatever. I did help out at event where she was at, where the White 
House photographer may have been at.
    Question. Were you involved at all with any of the--what are called 
now the ``White House coffees'' that Mrs. Clinton would have attended?
    Answer. To my knowledge, those started after I left. I didn't know 
of any of those going on when I was there.
    Question. Okay. And then you said, pretty much your job duties and 
responsibilities really didn't change once your internship was over and 
you became a volunteer?
    Answer. No.
    Question. They pretty much stayed the same?
    Answer. Um-hmm.
    Question. You mentioned earlier that you began your employment with 
Johnny Chung around the end of April, 1995.
    Answer. Um-hmm.
    Question. Is that correct, to the best of your knowledge?
    Answer. Um-hmm.
    Question. The time period you were working for Johnny Chung, from 
the end of April of '95 to July of '95, you were also a volunteer in 
the First Lady's office; is that correct?
    Answer. I have a question for you.
    Mr. Zacks. Off the record.
    [Discussion off the record.]
    Mr. Zacks. Can you read back the last question, Mr. Reporter?
    [The reporter read back, as requested.]
    The Witness. Yes.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Your answer is yes to that?
    Answer. Yes.
    Question. If we can just discuss that a little bit, because I know 
you mentioned you were a volunteer in the spring of '95.
    Answer. Yes.
    Question. And your internship ended in April of '95.
    Answer. Um-hmm.
    Question. I am just trying to make sure I have a time frame.
    Ms. Amerling. When you say um-hmm, you mean yes?
    Ms. Safavian. We have to make sure we get a verbal response.
    If you want to explain that to me?
    The Witness. Can you repeat that?

                      EXAMINATION BY MS. SAFAVIAN:

    Question. I am just trying to get an understanding as to the time 
period from when you went from an intern to a volunteer in the First 
Lady's office, and when you first started working for Johnny Chung, if 
you can kind of give me a sequential of all that happened.
    Answer. Okay. I would have started volunteering when my internship 
ended, whatever specific date in April that was; I don't remember 
exactly. My internship would have ended when I started employment for 
Johnny Chung, which was, I believe, at the end of April.
    Question. So your internship would have gone from the beginning of 
January to the end of April. It would have been from like the second 
day of January to the end of April?
    Mr. Zacks. Just so the record is clear, Counsel, I think she has 
indicated she is not sure of the exact date in April, but she believes, 
to the best of her recollection, it was towards the end of April.
    The Witness. Yes. Internships are roughly a semester. It depends on 
schools and dates. It is not, you have to be here from this date to 
this date.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. It is normally maybe a certain number of dates or hours 
or something for most internships? Anyway, you think it is pretty much 
from the beginning of January to the end of April?
    Answer. Yes.
    Question. You said you would have gone from that immediately into 
the volunteer program at the White House?
    Answer. Yes, whenever the internship ended.
    Question. So you would--while you were still an intern towards the 
ends of April, you had already filled out the paperwork necessary to 
become a volunteer; is that correct?
    Answer. I don't know if I filled out the paperwork while I was an 
intern. I could have. I think my internship was supposed to go until 
the end of April. I was hired by Johnny sometime in April, so that cut 
my plans short of completing the internship scheduled to last through 
the end of April. I believe we went to China at like the last week of 
April, so that was sort of my first project in working for him.
    It might have been when I came back from that trip that I decided I 
wanted to still volunteer in the First Lady's office and I might have 
filled out the volunteer paperwork then.
    Question. So you cut your internship short, you believe?
    Answer. I don't remember exactly what dates the internship was 
scheduled to run for.
    Mr. Zacks. Excuse me.
    [Discussion off the record.]
    Ms. Safavian. Back on the record.
    Oh, will you read the last question back, please.
    [The reporter read back, as requested.]
    The Witness. I don't know exactly what dates.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. That is fine. Just give me what you can recall or your 
best recollection.
    You mentioned that you went on a trip to China with Johnny Chung at 
the end of April.
    Answer. Yes.
    Question. I believe, going through some of the documents that you 
produced today, I did see a travel itinerary.
    Answer. Yes.
    Question. We don't have it in front of us right now, but was that 
the trip you took to China with Johnny Chung?
    Ms. Amerling. Was what the trip? Excuse me.
    Ms. Safavian. The itinerary you produced this morning.
    The Witness. That schedule was created in China, yes.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Once we get it back, it will be clearer. That might have 
a date on it then.
    Answer. Sure. I think I have plane tickets too that show. I think I 
got there a day or two before the Oklahoma bombing, because I remember 
that was on TV there. I was so surprised, but I was watching it over 
there.
    Question. Okay. We will get back to the trip to China. But you 
believe, when you returned from your trip to China, that you then 
decided you wanted to become a volunteer in the First Lady's office, 
and that is pretty much when that started?
    Mr. Zacks. Counsel, just so the record is clear, I believe what she 
previously testified to was that she is not sure whether she filled out 
the volunteer forms while still an intern, but it is possible she did 
it upon her return from China.
    The Witness. Yes.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. In either case, you believe you began to volunteer after 
your trip to China?
    Answer. Yes.
    Question. Did Johnny Chung know that you were volunteering at the 
White House while you were working for him?
    Answer. I believe so.
    Question. Did he have a problem with that?
    Answer. Not to my knowledge, no.
    Question. Let me ask it this way. Did you ask him if that was okay, 
if you volunteered at the White House?
    Answer. I don't remember asking him for permission to volunteer at 
the White House.
    Question. Did he encourage you to do that?
    Answer. No.
    Question. When you filled out the paperwork to become a volunteer, 
did you also have to include that your other employment was with Johnny 
Chung at AISI?
    Answer. I don't remember. From what I remember from that form, it 
was fairly simple. The paperwork for the internship was very lengthy 
and complex, but I don't know if I got a simpler version because they 
already had all of my other background information or what.
    Question. Did anyone else in the First Lady's office know that you 
were, while you were a volunteer, also working with Johnny Chung?
    Answer. Yes.
    Question. Who would that have been?
    Answer. Who in the First Lady's office knew?
    Question. Yes.
    Answer. Evan Ryan knew I worked for Maggie--I mean, I worked for 
Johnny. Maggie knew. I know that those two knew for sure. I don't--
anyone would have known, Melanne Verveer would have known. Liz Boyer. 
She was in research, so I don't know if she did. She did the briefing 
book.
    Question. Nicole Rabner?
    Answer. R-A-B-N-E-R.
    Question. Where did she work?
    Answer. She was Melanne's assistant.
    Question. Where was she working?
    Answer. Melanne Rivera is the Deputy Chief of Staff.
    Question. So they are both right in the First Lady's office?
    Answer. Yes.
    Question. Okay. Anybody else who may have known?
    Answer. Those are the people that may have known.
    Question. Are these the only ones you spoke to about it?
    Answer. Those are the ones I worked with most closely.
    Question. Did any of the people you just mentioned have a problem 
with you volunteering at the White House while you were also working 
for Johnny Chung?
    Answer. Not that was verbalized to me.
    Question. Did anyone suggest that that needed to be checked out 
with the National Security Council or somebody else in the White House 
who needed to approve that?
    I don't know what the process is.
    Answer. My volunteer activities were approved. I didn't receive any 
hesitation or negative feedback from anybody while I was working there, 
if that is what you mean.
    Question. Okay. Can you tell me when you first met Johnny Chung, if 
you can recall?
    Answer. I don't know the date. It was sometime when he came into 
the First Lady's reception area. I don't know what he was doing at the 
White House, but he came into the office and the whole office was 
introduced to him, or whoever was there that day.
    Question. And who introduced him?
    Answer. I think Maggie did.
    Question. And do you recall--she just what, took him around and 
introduced him to everybody or how did that go?
    Answer. She came into the reception area, I believe she was going 
into her office. On her way into her office, she said something--he 
wasn't right with her, because she came in and said something about 
this--some big DNC donor, you know, the name is Johnny Chung, say hi to 
him, or something like that. It was sort of along those lines. I don't 
know if she was getting ready to go to a meeting or what.
    Question. Was he kind of behind her, walking in the door?
    Answer. He came in behind her, because I remember she came in first 
and said that to us, and then he came in after that.
    Question. I mean, was it so much after that, that maybe he didn't 
hear her give that introduction?
    Answer. No, I don't think so, no.
    Question. So she said, you know, here is Johnny Chung, a big DNC 
donor?
    Answer. It is just kind of like, I can't--I am not supposed to----
    Question. Just generally.
    Answer. Right. She said this guy is coming in, he is a big DNC 
donor. She said, his name is Johnny Chung. Just kind of letting us know 
who was coming into the office next.
    Question. He was pretty much right behind her?
    Answer. After she said that, then he came in. I mean, it was a 
flow. It wasn't like----
    Question. It wasn't like she for warned you guys and said at 10 
o'clock today we have this person coming in?
    Answer. Not at all. It is like she was walking into her office, 
along the way, she told the people in the reception area, ``This big 
DNC donor is coming in,'' and he was right there behind her.
    Question. That was the first time you met him?
    Answer. Yes.
    Question. Had you seen him around the First Lady's office?
    Answer. Never.
    Question. I know it is hard to recall exactly when that was. Can 
you give me a general time frame?
    Answer. My guess would be the end of March, early April, sometime 
around there.
    Question. Okay. Was this also--if you know this, was this the first 
time that Evan Ryan would have met Johnny Chung?
    Answer. I have no idea.
    Question. Do you recall Ms. Williams introducing Evan Ryan to 
Johnny Chung?
    Answer. It wasn't a formal situation. I couldn't even tell you who 
else was there. I couldn't even say for sure if Evan was standing there 
at that time. My sense is there were other either interns or 
volunteers, because I wasn't the only one there.
    Maggie sort of came in, said it, and people were like shaking his 
hand and stuff. That kind of thing.
    Question. Was he alone?
    Answer. I can't remember that. I think that time he may have been, 
but I am not positive.
    Question. Okay. So you shook his hand, he introduced himself to 
you?
    Answer. Yes.
    Question. Had you heard anything about him prior to Ms. Williams 
announcing him?
    Answer. No, I had no idea who he was.
    Question. What did you think of him, your first impression?
    Answer. He was an Asian man that came into the office that 
apparently gave a lot of money to the DNC.
    Question. Did he stay very long that day?
    Answer. No.
    Question. Do you recall?
    Answer. No.
    Question. Do you recall what he did?
    Answer. No. Actually, I mean--yes, I don't know.
    Question. So that was the first time you met him. After that, were 
there people in the office who talked about him? Did you start to hear 
more about Johnny Chung?
    Answer. Yes. I mean, he was sort of, I would say, kind of an 
irritant to the people in the office.
    Question. Why would you say that?
    Answer. He didn't really do anything, but he just kept showing up. 
It is sort of like, you know, people would roll their eyes and say, oh, 
Johnny is here, or it is Johnny, or something along those lines. I 
mean, it wasn't anything, you know.
    Question. Would he just appear, or like did you guys know he was 
coming over? Would he call first?
    Answer. Well, he would have to get cleared in, so I wouldn't 
necessarily know how much advance notice other people had. I think I 
probably typically saw him--I never knew when I was an intern there 
when he was coming or not. He was just there.
    Question. So it was always a surprise to you----
    Answer. Yes.
    Question [continuing]. When you would see him?
    Answer. Yes.
    Question. Did you have the ability to wave somebody into the White 
House?
    Answer. No. Only staff members can do that.
    Question. So Johnny Chung never called you and asked you to get him 
clearance into the White House?
    Answer. No, no. I couldn't do that.
    Question. Do you know who he would normally call to do that?
    Answer. My sense is that he called a lot of people, like he made 
sure when he came in that he talked to as many people as he could. I 
mean, just from the entrance of the OEOB, getting to the First Lady's 
office, he always had to stop in every office and shake hands and 
kibitz and do his thing.
    So I think he called the First Lady's office a lot, and I don't 
know if he would call Evan specifically or Maggie specifically or other 
people. I don't know.
    Question. Okay. When somebody would call or get cleared to get into 
the OEOB, did somebody have to greet them at the door and say, bring 
them to the First Lady's office, or they just found their own way to 
the First Lady's office?
    Answer. Johnny tended to find his own way.
    If somebody was cleared in, are you asking in general?
    Question. Start with general.
    Answer. In general, if somebody is cleared in and, to my knowledge, 
if nothing shows up on their record, then they can just show their ID 
and get their appointment badge and walk in.
    I think if something shows up on their record, then they would send 
one of us down to go escort them.
    Question. What kind of things would show up that would require an 
escort?
    Answer. I never knew exactly. I think it could be something pretty 
minor, like somebody has ever been--I don't know.
    I don't know, but I remember asking one time, why did someone need 
an escort, because they have been here for meetings before and that 
sort of thing. I thought that is what I was told.
    But typically, if you are cleared in, you know the room you are 
going to, you can just go.
    Question. More specifically with Johnny Chung, did he require an 
escort or kind of found his own way to the First Lady's office?
    Answer. I believe he typically found his own way. I don't know, I 
am not saying there were never times--he may have been escorted. I 
don't know--I can't recall specifically if it was like a necessary 
thing that he needed an escort, if it was like an ego thing.
    Question. An ego thing?
    Answer. I don't know.
    Question. Like, for instance, he would prefer to have an escort?
    Answer. It is not even--I mean, if there was--to send somebody out 
of courtesy, if you had that, an intern sitting there with nothing to 
do, let's say. I don't know.
    Question. So you had been asked before to escort somebody, not 
necessarily Johnny Chung, but you had done that before when you were an 
intern?
    Answer. I would go down and pick people up at the front door, yes. 
Or packages.
    Question. Did you ever do that for Johnny Chung?
    Answer. I don't remember specifically. Yet it seems like it. It is 
honestly hazy. There were times when he would come with other people. I 
don't know if at that point he needed an escort. I can't remember.
    Question. Do you recall how soon after your first, very first 
meeting him, would you say that you then saw him again?
    Answer. That I don't know. To give you an idea, it was sort of 
like, when he was in town, you saw him a lot. Then when he was out of 
town, he was out your hair kind of thing.
    So I know that is not very specific, but that is sort of how he 
functions, too, or at least how he functioned then.
    Question. You mentioned people started to think of him as an 
irritant.
    Answer. That was my personal sense.
    Question. Of what people were feeling?
    Answer. If I am allowed to say what other people are feeling.
    Question. That is your sense of what you thought they were feeling; 
is that correct?
    Answer. Yes.
    Question. Did you feel that he was starting to become an irritant?
    Answer. Yes. He was annoying, definitely.
    Question. Why so? Just because he kept showing up?
    Answer. He kept showing up, yes. People had work to do, and he sort 
of seemed to want to sit there and talk or shake hands or be catered to 
or introduce you to someone, and everybody else was busy meeting these 
phone calls.
    Mr. Zacks. Off the record.
    [Discussion off the record.]
    Ms. Safavian. Back on the record. If at any time you want to take a 
break, just let me know.
    Mr. Zacks. Excuse me, off the record.
    [Discussion off the record.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Back on the record.
    We were just discussing everyone's feelings towards Johnny Chung 
because he kept appearing. I may have asked you how you felt about him, 
and if you want to just repeat that?
    Answer. Johnny was a hassle. He tended to demand a lot of 
attention, sort of, even without asking for it. Without asking for it 
directly anyways. I don't know, I liked what I normally did in the 
First Lady's office with whatever project we were working on, and, you 
know, like things sort of stopped when, as things would with any 
character that walks in the office.
    There were certain people that you just kind of stopped for and 
catered to; and when he was in town, he was one of them.
    Question. Was that because you were told to do that, or that is 
just what happened?
    Answer. It is more what happened. I mean, you know, we were trained 
to be very courteous to whoever called in, whoever came into the 
office, how we treated people--we represented the First Lady's office. 
So I used the manners I was trained to.
    Question. Do you happen to know how Evan Ryan felt about Johnny 
Chung?
    Answer. My guess would be similarly. Evan had a lot of work to do, 
being Maggie's assistant, and when Johnny came in, as when anyone would 
come in, she would be very courteous and stop and she would give them 
the attention that they required.
    It is not like Johnny was somebody we were, like, excited to see, 
like, great, Johnny is in town this week. It wasn't anything like that.
    Question. Did anybody ever complain to Maggie Williams or anybody 
about his constant interruptions or how everyone felt about him?
    Answer. I don't know if any direct complaints to Maggie were made 
about him. It was sort of like the buzz in the office.
    Actually, other people could come in and out. They could go back 
and do their work. It was sort of that main reception area that a few 
of us couldn't really leave quite as easily or say we had meetings to 
go to, being interns.
    Question. Did you personally ever complain to anybody about him?
    Answer. About like how frequently he showed up? No. I didn't do 
that about anybody that came into the office.
    Question. Okay. What would he normally do when he came to the First 
Lady's office?
    Answer. I don't know exactly. If he was with people, he would come 
in the reception area in the First Lady's offices, people like coming 
into it. There are huge, colorful photographs of the First Lady from 
whatever trips or event she has been at, and they love coming in and 
looking at the photos and talking about them. And there is a very large 
conference room that is also filled with these photos, and he would 
come in and show his guests around and show them photos and that sort 
of thing.
    That is what I basically saw. That was the area that I functioned 
in.
    Question. And did he normally always have guests with him?
    Answer. He did both. He would come by himself or he had guests.
    Question. Who would he--was there anyone in particular in the First 
Lady's office who he would kind of go right towards and speak with?
    Answer. Ideally, he would probably want to see Maggie, but she was 
not always available. Again, this is my guess; I mean, because if he is 
going to go to someone, he is going to want to go to the top. Maggie is 
the top person in Mrs. Clinton's office. So I think Evan would get 
stuff, being like the next one in line, always sort of stationed at her 
desk there. Him knowing that she has access to Maggie.
    Question. How did you get to know him pretty well?
    Answer. From his visits to the First Lady's office. He would talk 
about trips that he had taken or whatever, and so I sort of sat there 
and listened to him, whatever story, whatever pictures he was showing. 
He was really big on pictures.
    Question. He would bring in pictures?
    Answer. I think so. I think that is where I saw--he brought this 
one delegation in, I cannot remember if I saw--I saw pictures of his 
trip to San Francisco with some Asian delegation, and I don't know if 
he brought those into the First Lady's office.
    I remember a lot of people that he brought to San Francisco, or at 
least some, were a group he brought to D.C.
    Question. So he would tell you about his trips. He would spend a 
lot of time talking to you?
    Answer. To whoever, yes.
    Question. Okay. Did he ever tell you then what his business was, 
what he did for a living?
    Answer. Oh, yes.
    Question. What did he tell you about that?
    Answer. He was very proud of his, you know, ``super fax machine'' 
that can simultaneously fax millions of copies around the world. This 
is paraphrasing, but this is sort of the gist of what he would talk 
about. He would start name dropping of all these people that were his 
clients, Governor of California, the guy that owns Wendy's, whatever. 
He might have brought in some of the, I don't know if he brought in 
these booklets.
    Question. The AISI brochures?
    Answer. Yes. I don't think that was in it then, the pictures. He 
is, like, very proud of being this engineer from UCLA, who used to own 
seven computer stores, to build this machine, how he went close to 
bankrupt and had to like sell all these stores just to believe in his 
dream; and his wife was saying, you are crazy, you can't do this, but 
he believed in his dream and finally got this machine to work, and has 
this super fax machine.
    Question. I know you said the first time you met him, you believe 
was at the end of March, possibly April, of 1995. Do you recall Johnny 
Chung bringing a delegation of Chinese businessmen to the First Lady's 
office?
    Answer. Yes.
    Question. That was--I can give you the date--that was March 9th, 
1995.
    Answer. Oh, was it?
    Question. Does that help you at all determine when you may have 
first met him?
    Answer. I would guess--I think the first time I met him, he was by 
himself, is when he came into the office. Soon after that, I remember 
him coming in with this delegation.
    Question. So that couldn't have been the first time that you met 
him?
    Answer. Not with the delegation. Honestly, it could have been like 
a morning and afternoon thing. It could have been like a week-to-week 
thing, a next-day thing. I don't remember.
    But I do remember the first time seeing him, Maggie saying, this is 
a big DNC donor, and then I remember after that, this delegation coming 
in.
    Question. Could it have been the next day?
    Answer. It could have been.
    Question. What do you recall about this Chinese delegation--did you 
meet the delegation?
    Answer. Yes.
    Question. Who introduced them to you?
    Answer. Probably Johnny. Again, it was not any sort of formal 
event. I remember them all standing there. None of them spoke English, 
to my knowledge. Meeting them, shaking their hands. I imagine all the 
people in the office did, too. I remember them going through the 
conference room looking at the pictures.
    Question. Do you recall how long they stayed in the First Lady's 
office?
    Answer. No, but not long. Most of his visits were sort of like the 
superficial tour kind of agenda, lack of agenda. There is no agenda 
there, to my knowledge.
    Question. Did the delegation give you any of their business cards?
    Answer. I don't remember them doing that then. It seemed like a 
bunch of old men looking around. There was one young guy in it, and 
that was it.
    Question. Okay. Do you recall them giving their business cards to 
anybody at that time?
    Answer. I don't recall. I don't think so. It seemed more like once 
we got to China, people were dealing cards like it is Vegas.
    Question. Are you aware that the Chinese delegation that day, March 
9th, received a tour of the White House, had lunch in the White House 
mess, and had their photos taken with Mrs. Clinton?
    Answer. They had that that day?
    Question. Yes.
    Ms. Amerling. Counsel, have we established that it was March 9th 
she is discussing?
    Ms. Safavian. Well, I have. I mean, I can show you a record that 
shows he was there on March 9th and an L.A. Times article that 
discusses March 9th as the day.
    The Witness. I don't remember what day. Johnny certainly brought--I 
remember specifically, though, this initial delegation with 
approximately 10 people in it, 10 men in it. But I don't remember the 
date.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Let me show you a photo that is in the AISI brochure, one 
of the brochures you brought this morning. It includes a photo of the 
Chinese delegation that I am speaking about, with the First Lady. All 
their names are listed at the bottom.
    Answer. Yes.
    Question. It does not provide a date.
    Ms. Amerling. Let the record reflect another person has entered the 
room. Can we hold on the deposition?
    That person has now left the room.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Is do you recall, is this the same Chinese delegation we 
are speaking about?
    Answer. I believe so. And then--I take that back, because I know 
one guy speaks English.
    Question. Who would that be?
    Answer. I don't know any of their names. The second one from the 
left.
    Question. Okay. In the picture?
    Answer. Yes.
    Question. Hmm, it is kind of hard to tell exactly who that would 
be, because he doesn't seem to list them.
    Answer. He was, to my knowledge, the translator.
    Question. He is the translator.
    Answer. I don't know if they didn't put him in. Is that Vice 
Premier Lee, the guy to his right?
    Question. Right next to Hillary's left on her picture?
    Answer. On her right.
    Question. You said Li?
    Answer. I thought Vice Premier--anyway, he most likely is his 
translator. But I don't remember talking to any of them. It was more 
like walking into the First Lady's office, shake some hands, show some 
pictures. I didn't particularly know that they had a picture taken with 
the First Lady. That is not the reception area.
    Question. That is not the reception area?
    Answer. The First Lady's office.
    Question. The gentleman that you identified or were trying to 
identify standing next to Mrs. Clinton, let me show you a document, EOP 
029612, and tell me, it is just a black and white, if this is you 
believe the same guy you are speaking about in the color photo with 
Mrs. Clinton?
    Answer. I mean, it looks similar.
    Question. Okay. Just to identify the name on the photo, is Zheng, 
Z-H-E-N-G, and I will spell the last name, H-O-N-G-Y-E. We can mark 
this as Exhibit Number 1.
    Ms. Amerling. This being the EOP document?
    Ms. Safavian. That is correct.
    [Ratliffe Deposition Exhibit No. GR-1 was marked for 
identification.]

    [Note.--All exhibits referred to can be found at end of 
deposition.]

    Ms. Amerling. So the record is clear, can we give the photo an 
exhibit number as well?
    Ms. Safavian. We will have to get a copy made of that.
    Mr. Zacks. Okay. Do you want it now?
    Ms. Safavian. We can do it at the end.
    Ms. Amerling. We can do it at the end.
    Ms. Safavian. The group photo of Mrs. Clinton will be Exhibit 
Number GR-2.
    [Ratliffe Deposition Exhibit No. GR-2 was marked for 
identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. So, Ms. Ratliffe, these photos I am showing you right 
now, GR-1 and GR-2, this is the Chinese delegation we were previously 
speaking about, correct?
    Answer. Yes.
    Question. And did you answer before that you recall that they had a 
White House tour, lunch in the White House mess and a photo with Mrs. 
Clinton?
    Answer. I wasn't aware specifically. It doesn't surprise me, but I 
didn't know that for sure.
    Question. Okay. So that day, you as an intern didn't have to do 
anything with the delegation to get them from one place to the next or 
assist in anyway?
    Answer. No, not that I remember. I remember meeting them in the 
office, definitely, in the First Lady's reception area.
    Question. Do you recall Evan Ryan or Maggie Williams discussing 
this delegation at any time?
    Answer. No.
    Well, at any time? There was talk of Johnny and his delegation. 
Anything specific, I don't remember them saying anything specific about 
them.
    If you want to ask me something else about it?
    Question. What do you mean by, there was talk about the delegation?
    Answer. I mean, Johnny and delegation. Johnny always had some 
delegation going on. That is how he used it, anyways.
    Question. So you don't recall any specific discussions or 
conversations about this Chinese delegation, the photos you are looking 
at?
    Answer. No. No.
    Question. Okay. Do you--how many times that day did you see Johnny 
Chung and the Chinese delegation?
    Answer. All I remember specifically was in, like, the First Lady's 
reception area; it is connected to her conference room. I don't know.
    Question. How many times do you recall seeing them that day?
    Answer. One.
    Question. Just one time?
    Answer. The delegation. Johnny came back, and I don't know if it 
was later that day--what day of the week was March 9th? Was that a 
Friday, by any chance?
    Question. I believe it was a Thursday.
    Answer. Because Johnny came back at one point and he tried--he 
wanted to get them into the President's radio address. I don't know if 
it was like later that day or the next day or what. A radio address 
would have been Saturday. I remember he was like hustling to try to 
make this happen.
    Question. So you recall him coming back that same day, trying to 
get them into a radio address?
    Answer. I don't remember if it was that day or the next day. It was 
after this delegation had been brought in.
    Question. Let me just show you, these are WAVE records. Have you 
ever seen WAVE records before?
    Answer. Not like this.
    Question. What I have handed you is the year 1995, and I turned to 
March of 1995 for you. If you will notice, it shows those dates in 
the--actually, I am sorry--in the first column on the left.
    Ms. Amerling. Which page?
    Ms. Safavian. EOP 8683, and it shows that Johnny Chung entered the 
White House on 3-8-1995, he was requested in by Bailey, and he visited 
Bailey in room 174. Do you see that? That is the second line.
    Answer. Yes.
    Question. First of all, do you know who Bailey is?
    Answer. No, I was just wondering that.
    Question. And then you see the next entry is 3-9, and it shows that 
he is requested in by Ryan, and he visited Ryan in room 100.
    Answer. That is the reception area.
    Question. And if you look further, it looks like--well, according 
to these WAVE records, he entered the White House on 3-9 two times. If 
you look further down, there is another 3-9 entry, again requested and 
visited Ryan?
    Answer. Yes.
    Question. The next day right under that there is a 3-10 entry.
    Answer. Yes.
    Question. You see it is requested by and visited Tarmey. Who is 
this?
    Answer. That was Marge Tarmey. She was another one of Maggie's 
assistants. She sat in Maggie's office.
    Question. Does this help refresh your recollection at all as to 
when he may have come back, trying to schedule this radio address?
    Answer. Not particularly. Like Johnny just was there a lot. Like he 
kind of bopped in and out. It wasn't ever a set thing; it wasn't ever 
scheduled. I never really knew ahead of time. But I remember him 
wanting to get this delegation into the radio address.
    Question. Did he speak with you about that?
    Answer. Yes.
    Question. What did he ask of you?
    Answer. I don't know if he asked me specifically if I could help 
him get in. He was talking about wanting to get them into the radio 
address, and I think that was the first--I knew the President gave his 
radio address, but I didn't know people could go in and watch it.
    I think he said something about wanting pictures, because then they 
would get pictures with the President, and I didn't know that that was 
part of radio address procedures either. I think I told him that--I 
would have said, I am certainly not the person that can get you into 
that. He said, oh, forget about it; and he sat and like made some phone 
calls, I think, right there, there is like a little table and chairs, 
and I don't know exactly who he would have called to try and get him 
into the radio address.
    Question. Did he mention anything further once he got off the 
telephone?
    Answer. No.
    Question. He didn't mention, oh, never mind, I have taken care of 
it?
    Answer. Oh, I don't remember exactly. I knew--I remember knowing 
that he had succeeded with making this happen. I don't know if it was--
I don't think he found out right then, so I don't know. I don't know if 
he came in the next day or something, and if I would have said, oh, did 
things work out for you at the radio address; and he said, yes.
    But it is not like he made a phone call, got ten foreign 
businessmen cleared in, all set, ready to go for a radio address, and 
hung up the phone and said, yes, I took care of this.
    Question. That didn't happen?
    Answer. No.
    Question. Did he speak with anybody else in the First Lady's 
office, to your knowledge, about trying to get them into the radio 
address?
    Answer. I don't know about that. Not to my knowledge.
    Question. Do you know whether or not he did get into the radio 
address?
    Answer. Yes, to my knowledge, he did.
    Question. How do you know that?
    Answer. Because I think he told me that he got in. Like I said, 
afterwards he said it worked out. But I think he told me before he 
actually went to the address. That is why I was asking if March 9th was 
a Friday, because I remember he had like a short time. He was trying to 
make this happen and was kind of nervous--I don't know if that is the 
right word, but very ``anxious'' to get his delegation in to meet with 
the President.
    Question. And you said that radio addresses are held on Saturday?
    Answer. Saturday mornings.
    Question. If you turn to the next page in the WAVES that I gave 
you, 005038, it is a little harder to read, but you can make out the 
seventh entry down, it shows Johnny Chung visiting POTUS, which stands 
for President of the United States. It shows that the date is 3-11, and 
it was requested in by Crawford, and it is in the West Wing, ``WW.''
    That is 3-11, that would be a Saturday?
    Answer. Yes.
    Question. So 3-9 would be a Thursday. Does that help you then?
    Answer. With what?
    Question. With trying to figure out the time period? You were 
wondering if it was a Friday?
    Answer. Apparently it was a Thursday.
    Question. Does that help you at all with when you believe Johnny 
Chung came back and talked to you about the radio address?
    Answer. No. If he was only there on Thursday, then it must have 
been--actually, did he come in----
    Question. He was in on the 10th. If you turn to 008663----
    Answer. He was in the previous day?
    Question. Tarmey, requested by Tarmey, and visited in room 100?
    Answer. It could have been then. Did he come in after the radio 
address?
    Question. The previous page also shows that he was in 3-13, 3-14?
    Answer. So he could have told me then too. If I had to guess, it 
would have been that he told me before.
    Question. He would have told you before he actually went to the 
radio address?
    Answer. That it worked out.
    Question. And why? Any particular reason why you believe it was 
before?
    Answer. My sense that he was--I remember him, I remember the chair 
he was sitting in, and the fury, trying to make these phone calls and 
get the delegation in. Then he hung up the phone, whatever. My sense is 
if I would have seen him again--soon, before it happened--I would have 
said, oh, did things work out--sort of follow through on any project I 
would have been dealing with.
    And I thought that he told me that it did work out, and I seem to 
remember it being before, as opposed to after.
    Question. Okay. That is fine. Did he say anything further to you 
besides, it worked out, or did you ask him anything that you recall?
    Answer. Not that I recall.
    Question. That is pretty much most of the conversation that you 
remember?
    Answer. Yes.
    Question. Okay. Did he happen to mention to you how he got into the 
radio address?
    Answer. I think he did. I think he might have told me who he 
called, and I can't remember exactly. I know he worked with, or I know 
that he tried to work with Ann McCoy, who was sort of--she is the White 
House visitor's something or other, and she would show people around, 
including him.
    Question. She would give tours of the White House?
    Answer. Yes. So I don't know if it was Ann McCoy that he worked 
with on that or not, but she seemed like to be another point person he 
would try to hook up with to try to show his people around.
    Question. Do you recall if he would have mentioned that he 
contacted somebody at the DNC?
    Answer. I don't know. Johnny would always talking about all of his 
friends everywhere, and he is a big name dropper. So it is kind of a 
blur whenever he would. I don't remember.
    Question. That is fine.
    Ms. Safavian. I would like to mark for the record the WAVES 
records, years '94, '95 and 1996 as GR-3.
    [Ratliffe Deposition Exhibit No. GR-3 was marked for 
identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Did anyone else in the First Lady's office ever speak 
about the delegation getting into the radio address?
    Answer. I think afterwards I heard talk about it.
    Question. Do you recall at all what you heard?
    Answer. As far as him getting into it? I mean, it is not----
    Question. Anything, if there was anything you recall about 
discussions held in the First Lady's office about the delegation 
getting into the radio address.
    Answer. Not about getting into the radio address. The photos that 
were taken during it were, to my knowledge, immediately released.
    Again, I am not positive on all of this. I seem to remember that 
the NSC had hesitation about releasing them, and this might have been 
like more than a month later and they hadn't gotten them, and Johnny 
wanted the pictures. So I think there was like talk about--I don't know 
if Johnny was calling the First Lady's office, bugging them, I want 
these pictures, I want these pictures; and there was like talk about 
that sort of thing.
    Question. Let me show you another exhibit, this is an April 5th, 
1995, letter from Johnny Chung to Ms. Williams, the Bates Stamp is 
JCH15013. If you will just take a quick look at that.
    Answer. All right.
    Question. Do you recall ever seeing this letter before today?
    Answer. No.
    Question. Were you aware that Johnny Chung had contacted Maggie 
Williams about trying to get these photos?
    Answer. I don't know that I knew that Johnny contacted her 
specifically. I know that he was--in his flurry, his anxious flurry of 
trying to accomplish whatever he was doing, I seem to remember him 
making phone calls to lots of people--like, I want these pictures, I 
want these pictures.
    Question. Did Maggie Williams ever ask you to look into this issue 
for her?
    Answer. Me to look into the photos? No.
    Question. Okay. Let me mark this letter as GR-4.
    [Ratliffe Deposition Exhibit No. GR-4 was marked for 
identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. I am going to hand you some phone message slips, if you 
would take a look at those.
    Answer. Yes.
    Question. If you look at the first message slip, EOP 059024, it is 
addressed to Evan, dated 4-3, and on the prior page--it is hard to 
read--it gives the time period, and the year is 1995.
    Answer. Yes.
    Question. It shows that he called on 4-3 around 4:50, and in the 
message at the bottom of the message slip it says, it looks like ``Re: 
Pictures. (Actually he called for Gina, who wasn't here, and then he 
asked for you.)"
    Answer. Um-hmm.
    Question. Did you ever, did Johnny Chung ever contact you about 
these photos?
    Answer. I remember--I don't remember. I will tell you, what I do 
remember, first, was when this was still during my internship, but when 
I actually started working for him, he still hadn't gotten these 
photos. So right before--I had accepted a position for him, and we were 
going to be leaving for China, and he was going nuts to get these 
photos for the trip; and it was at that point then--no, I don't think I 
was actually in the First Lady's Office then. I don't know if I would 
have called Evan saying, Johnny wants these pictures, or can you tell 
us about that, that sort of thing.
    Question. Are you talking about, after the fact, once you started 
working for him?
    Answer. Once I started working for Johnny. I was in D.C., he was in 
L.A. I was getting ready to fly to L.A. before we left for China, and 
he wanted me to come with these pictures. And I think, I don't know if 
he had been calling DNC folks to try and get any leverage or whatever, 
but nothing seemed to be budging.
    Again, I don't know. It seemed they were holding on to them for 
whatever reasons, national security. But then I did end up picking up 
the photos from--this is not when I was an intern, because I remember 
taking a cab and running into the West Wing to pick up this package 
before I left for L.A.
    Question. Do you recall when that was?
    Answer. It would have been right before we left for China, which 
should have been towards the end of April.
    Question. Did you--if you look at--actually, let me finish with 
this document first.
    So you were still in the White House doing your internship on this 
4-3 message slip?
    Answer. To my knowledge.
    Question. It does appear he tried to contact you about these 
photos?
    Answer. Yes. Johnny would--well, I don't know--I don't know that he 
was necessarily calling me for these photos. He could have--I don't 
know when we exactly had started talking about my potential employment. 
So I don't know if he knew I could be reached there. Because there was 
a time span after he offered me the job, that I said I wanted to think 
about things.
    I don't know if he was calling to get in touch with me about that 
or what exactly. So if he was calling regarding the pictures in 
general, and it is a side note that he was calling for me too----
    Question. So you don't personally have any personal recollection 
that he called you about the photos?
    Answer. That I was some sort of contact person about the pictures, 
no.
    Question. If you look back at GR-4, the Maggie Williams letter that 
Johnny Chung wrote, it does mention in the letter, in the first 
paragraph, a couple of sentences down--I had it; in the next 
paragraph--``I am going to China next week and I do need to bring those 
pictures with me.''
    Does that----
    Answer. But this letter is April 5th--the next week--I really 
thought I was in China sometime around April 25th.
    Question. Once we get that--perhaps we have gotten it.
    Answer. That is when I went to L.A., the next day.
    Question. You are looking right now at a Tops International Travel 
itinerary, one of the documents that you brought with you today?
    Answer. Yes.
    Question. And it shows an April 12th date. It shows you leaving 
L.A. and you were going to arrive the next day in Tokyo, on April 13th, 
1995.
    Answer. That is when it would have been.
    Question. That refreshes your recollection as to when it was?
    Answer. Yes.
    Question. Is that a yes?
    Answer. My recollection was, for some reason I had the 25th in my 
head. That is definitely when I went to China.
    Question. Okay. I was going to say, there are two itineraries here. 
The second one actually has your name on it. The first one has Johnny 
Chung's name on it. The second one says Gina Ratliffe. The two of you 
traveled together to China?
    Answer. On the same flight, yes.
    Question. And it looks like you left, then, April 12th and you 
returned April 25th?
    Answer. Maybe that is why that date sticks out.
    Question. That could be. Why don't we----
    Ms. Safavian. First of all, I would like to mark the message slips 
as Number GR-5. Then I would like to mark the itinerary travel slips 
from Tops International Travel, the one for Johnny Chung as GR-6 and 
the one for Gina Ratliffe as GR-7, just so we don't get confused.
    [Ratliffe Deposition Exhibit Nos. GR-5 and GR-6 were marked for 
identification.]
    [Ratliffe Deposition Exhibit No. GR-7 was marked for 
identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Now that we have established that you left L.A. to go to 
Tokyo on April 12th, does that help you at all place when you may have 
picked up the photos?
    Answer. If I left on the 11th, I probably would have gotten them on 
the 10th.
    Ms. Amerling. I think it was the 12th, according to this itinerary.
    The Witness. That I left for L.A.?
    Ms. Amerling. Actually, my copy is folded.
    Mr. Zacks. I think it is the 12th, leave Los Angeles.
    The Witness. So I probably went to L.A. on the 11th, and I could 
have either picked them up on the way to the airport--I remember taking 
a cab there.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. To----
    Answer. The White House.
    Question. Let me show you some other documents that may help us out 
with the time frame.
    Answer. I don't know if they put that on my credit card.
    Question. If you look at the bottom one, JCO2932, the reimbursement 
check request, it shows it is dated 4-4-95, it just shows the amount of 
$398, reimbursed to Tops Travel; and then in the regarding line, it 
says Gina Ratliffe's air ticket, LAX, back and forth to Washington, 
D.C. Perhaps this is when they paid for your ticket, on April 4th, '95? 
I know you don't know. But if you look at the next document, which is 
JCO2845, that appears to be dated April 11, 1995. That has you going 
from Washington National to Chicago O'Hare and then to L.A.
    Answer. Okay.
    Ms. Safavian. And why don't I mark the reimbursement request as GR-
8 and the United Airlines passenger receipt ticket showing April 11 as 
GR-9.
    [Ratliffe Deposition Exhibit No. GR-8 was marked for 
identification.]
    [Ratliffe Deposition Exhibit No. GR-9 was marked for 
identification.]
    Ms. Safavian. GR-9 will include JCO2845 through 2846 and 3163, 
which is just another copy of that passenger receipt; and at the bottom 
it has a request, it looks like for petty cash. It shows once again the 
airline ticket and the amount.
    The Witness. Okay.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. We can establish then you left Washington on April 11?
    Answer. Yes.
    Question. And then left out of L.A. April 12th?
    Answer. Yes.
    Question. And then returned from Japan--I am sorry, from China, on 
April 25th?
    Answer. Yes.
    Question. If you look down at the next document, it is JCO2847, it 
looks like, and the one after that, 2848--and I have also included 
another copy that combines the two, 3164--you received from petty cash 
it looks like $80 reimbursement on 4-11, and it says, for visa to China 
for Gina?
    Answer. I don't know that I received that reimbursement. I remember 
him going with me to get this.
    Question. Johnny Chung?
    Answer. I think so, to get the visa. I don't know that my--the same 
for these--I mean, I don't remember handing someone $80 to get my visa.
    Question. Do you recall going to get your visa?
    Answer. Oh, definitely.
    Question. Does Document 2848 establish that you picked up your 
visa?
    Answer. I got it that same day, I think. Yes, I had to, because we 
were leaving the next day.
    Question. And you believe Johnny Chung went you to get that?
    Answer. I don't know if Art Liang went too. I don't know if 
somebody else from his office might have gone too.
    Ms. Safavian. I will mark those three documents as GR-10. That will 
be 2847, 2848, and 3164.
    [Ratliffe Deposition Exhibit No. GR-10 was marked for 
identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. The last document I handed you shows just your passenger 
tickets with a date of April 25th. It shows you going back to Detroit. 
I believe the one below that is LAX to O'Hare and----
    Answer. I probably came home after.
    Question. After your China trip you made a stopover?
    Answer. I went from Tokyo to L.A. to Detroit.
    Question. It also shows at the bottom a check made out to Robert 
Ratliffe. Who is that?
    Answer. My father.
    Question. It was made out on June 1st, 1995 for $1,709. It is at 
the bottom for reimbursed air ticket. Did you pay for--originally pay 
for your trip?
    Answer. I must have. I must have. I must have been using my 
parents' credit cards.
    Ms. Safavian. Okay. Why don't we just mark that as GR-11.
    [Ratliffe Deposition Exhibit No. GR-11 was marked for 
identification.]
    The Witness. Either that, or they gave me the money. I don't know.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Your parents?
    Answer. Something. The check was made out to him.
    Question. Did you use any of your contacts at the White House to 
get these photos for Mr. Chung?
    Answer. No. That is not--I wasn't actually the one that got the go-
ahead. I mean, I am sure I must have asked Evan, I would imagine, 
though I don't recall a specific conversation of, we are leaving for 
China, can you? Because I sort of moved over to being his assistant, I 
am sure I would have tried to handle that responsibility.
    Question. The responsibility of getting the photos?
    Answer. Of getting the photos, right.
    I think I remember being kind of irritated, this is like my first 
job out of college, my first job is to like pick up some photographs, 
and this is like the NSC is involved in it. But it wasn't like Evan was 
like, okay, Gina, since we know you, we will give them to you. It was a 
phone call from Johnny that I got that said, okay, you can pick up the 
photos from--who is it, Kelly Crawford? Is that Crawford's first name?
    Question. Is there a Kelly Crawford who works----
    Answer. In the Photo office?
    Question. She worked under Nancy Hernrich at that time in the 
President's office.
    Answer. Oh, really? I don't know. I remember going into the West 
Wing and using the little phone or Secret Service or someone, and she 
came down and she handed me this package of photos.
    Question. Kelly Crawford?
    Answer. I think. I think so. I didn't know her even from working at 
the White House--like I knew the name, but I didn't know her. I 
remember a girl came and gave me this package, but it was because 
Johnny had called me, I think at my apartment in D.C., and said, go 
pick up the photos, and you can get them from so and so and bring them.
    Question. And do you recall if it was like a day before you left 
for L.A.?
    Answer. It seemed to be right before, yes.
    Question. So it was pretty much already taken care of, you just had 
to go pick them up. You didn't have to make any phone calls to get the 
photos?
    Answer. Like I said, I might have asked Evan or like asked some 
people, you know, what is up with the photos? And I think--because, 
again, all of this is right around the time of like going from intern 
to working for him.
    So I know, when he was trying to get into the radio address, I was 
definitely an intern, so hearing all of that talk. And then I remember 
the situation of him trying to get the photos, and not being able to, 
and NSC holding on to them. I remember talking to Liz Boyer.
    Question. Boyer?
    Answer. Boyer. She was a friend of mine, but she worked on briefing 
book, and I think it was her that told me about the NSC situation. 
Again, I am not positive. But I remember talking to her about it.
    I don't remember if she is the one that told me the NSC is holding 
on to them, and something about the President was worried about--or 
wanted them checked out or something. But I remember talking to Liz 
about that.
    And then I am sure I would have tried, once I started working for 
him, if he wanted me to get these photos. It was not like I was calling 
the Photo office or I was calling Kelly Crawford or the DNC or anywhere 
else saying, what can we do to get these photos? The only one I would 
have asked would have been Evan or like, what do you--yes.
    Ms. Amerling. When you say ``would have,'' you are speculating 
about what you would have done?
    The Witness. Yes. I honestly don't remember specifically. Seeing 
some of this stuff, like I completely forgot I went home after the 
China trip. So seeing some of this is jarring some of it.
    I totally forgot about Irene, which was like Johnny's assistant in 
L.A., who was like trying to do stuff for him too.
    Yes, I don't remember placing a phone call to Evan saying, can you 
help me get these photos or what is the deal?

                      EXAMINATION BY MS. SAFAVIAN:

    Question. You don't remember?
    Answer. I don't remember a specific conversation, no. I mean--no.
    Question. Okay. Did Johnny Chung ask you, do you recall him asking 
you, you know, are there any efforts you could make to help me get 
these photos? Did he ever request you to help him?
    Answer. I would imagine so. What sticks out in my mind more is his 
anxious flurry to get these photos, and it was similar to his anxious 
flurry to get into the radio address. I don't remember a specific--with 
the radio address, I think he might have even said, can you help me, or 
just forget it, I can make a phone call, that kind of a thing.
    I don't remember if with the photos, he definitely wanted me to 
pick them up, to bring them to L.A.
    Question. He was already in L.A.?
    Answer. Yes, he was already in L.A., and I was in D.C.
    Question. You mentioned he was in a big flurry to get these photos?
    Answer. Yes.
    Question. Do you know why?
    Answer. This was very important. Who knows what ego trip Johnny was 
on, and who knows what he was trying to prove to these people over 
there? But this, from my understanding, was going to prove to whoever 
we were going to meet in China that Johnny was tight with the President 
of the United States and Johnny can get people pictures, and, you know, 
more of--much more of a superficial thing than any sort of real power 
or significance.
    Question. Did he tell you he needed these photos, it was important 
to pick these up if you came to L.A.?
    Answer. Yes. Yes. Yeah, he definitely had to have these photos 
before we left on this trip. I was kind of like, had the attitude of, I 
am more relaxed anyways, but you know, if the NSC is not going to give 
them to you, you aren't going to get them.
    I was kind of surprised he got the photos then, because it seemed 
like he had been trying to get them for so long, and it wasn't 
happening; and then all of a sudden, I got this phone call to go pick 
up the photos. So I was like, okay, it came through.
    Question. You didn't ask him how it happened to work out or 
anything?
    Answer. No.
    Question. Okay. Let's backtrack a little bit.
    Can you tell me, how did Johnny approach you or make an offer to 
you to work with him?
    Answer. It was at the White House. One of his--I think he might 
have had people with him, but they were always or typically non-
English-speaking people, so he could kind of do his thing anyways. And 
he was talking about that he was making another trip to China, and this 
China thing was a big deal because it was also before the World Women's 
Conference and before Mrs. Clinton had said that she would go.
    So Johnny said to me, you know, like I am planning another trip. I 
am starting to come back and forth from L.A. to D.C. a lot more, and I 
need an assistant in D.C., you know, when is your internship over, you 
know, are you looking for a job, that kind of thing.
    And it sounded really interesting, and we talked more about what 
the job would involve, and that is sort of how it all came about.
    Question. Do you recall what he said to you about what your job 
would involve?
    Answer. It didn't all happen in one conversation, but as the 
conversations went on, he explained that he wanted to--Johnny felt that 
he had an accomplished all of this financial success, and how he now 
wanted to give back to the world and wanted to start this like 
peacemaking--he called it ``bridge-building''--mission between China 
and the U.S., and how he wanted to be this messenger of peace.
    So what I would be helping him with would not really be an 
assistant with what he does with his fax machine stuff, but it would be 
whatever political involvement--what he, I realize now, created for 
himself--so when he would bring delegations over, he would always put 
them up in the J.W. Marriott Hotel and take them out to different 
restaurants and show them around, and he was having to be tour guide, 
plus Mr. Bigwig, too. So basically he wanted to be able to hire someone 
that would make dinner reservations and find out what is going on 
around town, and be there to kind of like show these people around and 
that sort of thing.
    The reason why he told me he wanted me to go to China was because 
he wanted me to go and learn more about the culture and how--he is 
like, you will see how well you are treated over there, this is the 
kind of respect and treatment they will expect when they come here. He 
is like, I am planning this trip, so I think it would be a really good 
thing for you to come to see what their culture is like, that when you 
show up, there are flowers and that sort of thing.
    Question. So he mentioned the China trip when he was making the 
offer to you?
    Answer. Yes.
    Question. You hadn't accepted at this time?
    Answer. No. No. No. That was sort of like the lure.
    Question. How many times did he approach you about this job? You 
said it was more than one discussion you had with him?
    Answer. Yes. My sense is, he must have been in town, and probably 
stopped by the White House. I mean, I want to say daily, but who knows 
if it was in one day and not another day or whatever.
    He would talk about China and how wonderful her people are and how 
great it is over there and you have to see it, and what great work 
could be done here with this bridge-building process and how, you know, 
he was trying to get people from here to go over there. And so I would 
say a couple of conversations about it.
    Question. Do you know what type of time frame we are talking about?
    Answer. It all--I mean--fairly quickly. I was a little off on my 
weeks, because I thought it was like the end of April. So, what? The 
delegation first came March 9th and I was on a trip to China April 11.
    Question. That is correct.
    Answer. All within a month, basically, then.
    Question. Okay. Were you surprised he approached you about a job?
    Answer. Yes. I mean, I didn't have plans for a job right after 
school, and wasn't exactly sure what I was going to do. But then this 
came along.
    Question. Do you know why he approached you in particular?
    Answer. No. He said that he liked the way I handled things in the 
First Lady's office. He thought I had a professional manner, and I was 
there more than like the--the other interns at that time were not full-
time, like they would come in a couple of days a week, so I don't 
know--in between their classes and that kind of thing.
    So I don't know if he was just more used to seeing somebody there 
as opposed to the others, if I had more to do with him because of that. 
Then the other people he would have been in contact with a lot were the 
old ladies that were there all the time, too. So it was like me or them 
in a way.
    Question. Did he offer anybody else a job that you know of in the 
First Lady's office?
    Answer. Not that I know of.
    Question. Let me show you one of the documents that you brought 
with you today. It looks like it is a March 21, 1995, letter that you 
sent to Johnny Chung.
    Answer. Yes. Oh, yes, the other part about the job that we 
discussed, because he was asking me about what I was interested in and 
what I wanted to do with the job. The research project that I had 
worked on was all on how to include young people in the political 
process, I was real into the youth vote, rock vote, MTV and all that 
stuff.
    What he told me is, I am looking for an assistant, it is not going 
to take up that much time. I basically need an assistant in Washington, 
so when I come to Washington, you would be there. In your off time, you 
can work on your youth vote stuff. Basically when I am in L.A. or 
China, or whatever, you can work on the side stuff. So this was a 
letter that I wrote to him after I had accepted the job and told him I 
was excited to go to China.
    Question. By this date, March 21st, you had already accepted the 
job offer, or is it an acceptance letter?
    Answer. ``I look forward to discussing more of the details later 
this week,'' so things must not have been finalized by then. But it 
must have been my acknowledgment of an initial conversation we had.
    Question. Let me show you another document, this is a March 26, 
1995, letter that is addressed to Maggie Williams, and it appears to be 
from Johnny Chung.
    Answer. Right.
    Question. Did have you seen this before? Obviously you have. This 
is another one you produced.
    Answer. Yes. Johnny wanted Maggie to know that I would be working 
for him, or--yes. So he wrote this letter. I think he actually like 
dictated it to me or something.
    Question. You think you typed this up?
    Answer. Yes.
    Question. Is that why you would have a copy of this?
    Answer. Yes. Otherwise, I think it would be on his letterhead. But 
whatever letter she would have gotten would have been signed from him, 
so I don't know exactly.
    Ms. Amerling. Let the record reflect that this letter is not 
signed.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Do you believe or do you know whether or not he actually 
sent this letter or the original to Maggie Williams?
    Answer. Actually, I remember handing Maggie this letter.
    Question. Would that version have been signed?
    Answer. It must have been.
    Question. Would it be on AISI letterhead or pretty much as it 
appears here, without any letterhead?
    Answer. I don't know. I don't know why he would have given me 
letterhead of his at that point though.
    Question. Where do you think you typed it for him?
    Answer. I have a laptop.
    Question. Okay. Let me----
    Answer. Wait, I didn't by then. I don't know. I didn't have my own 
laptop by then. Where was I living? Did I borrow a friend's computer? I 
did have a roommate that had a computer then; it could have been that.
    Question. Okay. In this letter to Maggie Williams, he calls in the 
third paragraph down, your responsibilities, what he would call 
``courtesy visits for the groups of people coming over to America.''
    Answer. That is what he called these, what I was talking about.
    Question. Also in the last paragraph on that page, the very last 
sentence, ``With your approval, I would like Gina to continue to work 
and support this administration only with a slight change, that she 
switch over from your payroll to mine.''
    Answer. It is Johnny's humor. I was never paid at the White House. 
It is--yes.
    Question. So at this time, I mean, he must have known, and/or 
Maggie and yourself, that you wanted to continue to work at the White 
House as a volunteer. Did you discuss that with him?
    Answer. I don't know about in detail. There was definitely--I knew 
with the job we outlined, I would be working for him--that my time 
commitments would be to him when he was in town, so when he was out of 
town, I would certainly have free time, and I know I was all excited 
about this youth vote project that I wanted to work on; and I don't 
know if it was specifically said, I am going to become a White House 
volunteer now.
    Ms. Safavian. Okay. First of all, let me make sure, so I don't 
forget, let's mark the March 21, 1995, letter that you wrote to Johnny 
Chung as number GR-12, and the letter Johnny Chung sent to Maggie 
Williams on March 26, 1995, as GR-13.
    Ms. Amerling. Just for the record, I don't think we have 
established that this document you just assigned GR-13 is the same 
document that was actually sent to Maggie Williams.
    [Ratliffe Deposition Exhibit No. GR-12 was marked for 
identification.]
    [Ratliffe Deposition Exhibit No. GR-13 was marked for 
identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Ms. Ratliffe, I believe you testified you did hand----
    Answer. I handed Maggie a letter. I don't know if it was like this 
and signed by Johnny. I don't know if it was on his letterhead. I don't 
remember why I have a copy that looks like this. I can't believe I 
would handled her something like this unsigned.
    Question. But you did hand Ms. Williams a letter?
    Answer. Yes. Because I wanted to talk to her about working for him, 
or letting her know.
    Question. I was going to say, the last paragraph of that letter 
mentions, ``Maggie, if you like, I am happy to talk to you about this. 
You can call me at,'' and he leaves a phone number, with any questions.
    What did Maggie say when you handed this letter to her and 
discussed this with her?
    Answer. Maggie was always busy. I remember it was like late at 
night. She is walking out the door with her coat on. I said Maggie, ``I 
have something I want to talk to you about,'' and I handed her this. 
And I remember she like kind of skimmed through it, and was walking out 
with Marge Tarmey at the time. She said, ``Oh, my God, she is going to 
work for Johnny.'' Don't quote that per se, but it was something along 
those lines.
    Question. That was something Maggie said?
    Answer. Like, oh, my gosh, he wants her to work for him, or 
something along those lines.
    Question. That is what Maggie said?
    Answer. Yes.
    Question. Did you sit down and talk with her, one on one, about it?
    Answer. No. She was definitely walking out the door then.
    Question. Was she ever concerned about you accepting a job with 
Johnny Chung?
    Answer. Not that--I mean, she never like sat me down and said--gave 
me warnings or anything. I remember Marge was a little more concerned, 
like when I got back from China, Marge was like, you made it back, you 
know.
    Question. Why do you think she was concerned?
    Answer. I mean, I think people were a little skeptical are him.
    Question. Was she fearful of your safety, saying she was glad you 
made it back?
    Answer. Yeah, it was--I don't remember any specific conversations. 
It is not like anyone sat me down in their office. They certainly had 
other things going on.
    Mr. Zacks. Can we take a 5-minute break?
    Ms. Safavian. Absolutely.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Back on the record.
    Before the break, we were talking about you accepting the job with 
Johnny Chung and speaking with Maggie Williams about it. Besides 
informing Ms. Williams, did you speak with anybody else about accepting 
the job with Johnny Chung?
    Answer. Yes.
    Question. Who would that have been?
    Answer. My parents, friends, professors.
    Question. Did you ever speak with the NSC, the National Security 
Council, about accepting a job with Johnny Chung?
    Answer. No. I never went to them and said, I am thinking of taking 
a job with this guy; will you check him out? I might do that now.
    No, I never really worked with the NSC. The only thing that I 
really had to do with them was with the photos, when I heard that they 
were kind of--they were sort of the holdup there.
    I don't know if anyone did check out Johnny or what. I never made a 
request myself to the NSC to check him out.
    Question. Okay. Do you know, for instance, when Johnny Chung 
brought in the Chinese delegation, do you know whether or not the First 
Lady's office had the NSC or somebody else look into the backgrounds of 
these individuals?
    Answer. Not to my knowledge. The only thing that I vaguely remember 
about that was, after they got into the radio address--and this is all 
hearsay--but I heard that the President said to somebody, or something 
like, who are these guys, or check them out or something like that; and 
then I guess the NSC was checking them out, and that is why the photos 
were being held.
    So that is what I remember about that.
    Question. You don't believe the First Lady's office did any 
background checks on these individuals before they let them in to see 
the First Lady?
    Answer. I mean, they had to have been cleared in, but I wasn't 
involved with anything like that or knew about it.
    Question. Were you ever--I am talking generally now--were you ever 
involved in helping to vet potential guests into the White House?
    Answer. Vet?
    Question. The process, that is a term of art that they use--looking 
into the background of individuals, clearing them before they enter the 
White House.
    Answer. No. That wasn't my--I mean, the absolute most would be if 
somebody called in and said, ``I am having a meeting with Maggie. I 
want to confirm I am cleared in.'' I would take down like a message or 
something, or so and so. The most I would probably be involved in would 
be a phone message.
    Question. Do you know who in the First Lady's office would do that, 
if anybody?
    Answer. Who cleared people in? Anybody on staff could clear people 
in.
    Question. You don't know of anyone in particular who would look 
into the backgrounds of anybody before they let them into the First 
Lady's office? Someone who wasn't a normal visitor?
    Answer. I mean, to my knowledge, it wasn't really a need for that.
    Question. Okay. Let me show you an e-mail that is dated April 7, 
1995, from Robert Suettinger with the NSC. Have you ever seen this e-
mail before?
    Answer. No.
    Question. Why don't you take a moment and read through that.
    Mr. Zacks. This is on April 7th?
    Ms. Safavian. Yes. If you look, there are two e-mails on this page. 
At the bottom there is one from a M. Brooke Darby, and she was sending 
it to the Asian Affairs Department. What the one on top is, is the 
response to the bottom e-mail. They are both done the same day, April 
7, 1995.
    Mr. Zacks. The bottom is a response to the top?
    Ms. Safavian. No. The top is a response to the bottom.
    Ms. Amerling. It appears that way from looking at the document.
    The Witness. I do remember this now.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. First of all, you have never seen this before; is that 
correct?
    Answer. No, I have never seen an e-mail. I am sorry, I had 
completely forgotten. I don't know who this Darby is, but Bob 
Suettinger does ring a bell.
    Question. Okay.
    Answer. I do remember going up to his office now, and I guess I 
asked him, said something about--it is really unclear. Like I remember 
him more talking about his kids, and like I think this was--and saying 
don't take it or whatever. I must have told him something about it.
    Question. Just so the record is clear, the second paragraph says 
``Having recently cancelled a young intern from the First Lady's 
office, who had been offered a dream job by Johnny Chung, I think he 
should be treated with a pinch of suspicion.''
    Answer. Yes.
    Question. So you do recall now----
    Answer. Yes, I do. I remember his office, like I remember like--you 
have to like press these little buttons to get into the NSC. And I had 
delivered whatever, interoffice envelopes, there before. But I do 
remember now talking to this guy. I don't really remember what I said. 
I remember him talking about, I think he said, I have a daughter your 
age, or something, and I wouldn't want her to take a job like this, 
something to that effect.
    I don't remember actually sitting down and outlining to him, yeah, 
Johnny Chung offered me this job; these are going to be my 
responsibilities. I had completely forgotten about that.
    Question. Do you recall why you would have gone to Robert 
Suettinger? Did someone recommend you do that? How did that happen?
    Answer. Honestly, I don't remember. My guess would be that Maggie 
must have had some involvement in this or looking out for it. I don't 
know if it was like after I showed her the letter. I don't know if she 
said, go talk to this guy. She is always very busy, but she was good 
about looking out for her staff people, not that I was on staff. But, 
yes, I don't----
    Question. You talked to him?
    Answer. Is he short, bald and kind of chubby? I can't even remember 
exactly.
    Question. I am afraid I can't tell you.
    Answer. Okay. I vaguely remember this.
    Question. So you just had a brief conversation with him?
    Answer. Yes.
    Question. Just one time?
    Answer. Yes. That is all I remember. I can't imagine more. No, I 
don't remember anything.
    Question. And he had counseled you not to accept the job?
    Answer. The most I remember, if this was the guy, him saying, I 
have a daughter your age, and I wouldn't like to see her take that job. 
That is like what sticks out.
    Question. Okay. What did you think of his advice to you?
    Answer. I don't know. Apparently I didn't listen to it.
    Actually, I was thinking about this as all this deposition stuff 
came up, that no one--I was thinking, you know, it is really funny that 
no one advised me not to take this job except for a professor of mine 
from Kalamazoo.
    He lived and worked in China for a while, and I took a course from 
him on Asian political systems, so I called him thinking that he would 
know about, you know; and Dr. Tanner, what do you think? And he is 
like, ``Don't do it.'' He was saying, ``Chinese men are slimeballs. You 
know, you could get a job working for anybody. I would like to see you 
find something else.''
    I talked to professors at Western, and they are like, go for it, 
this sounds great. White House folks were kind of--like as far as like 
Maggie or Evan or Marge or any of them, no one really seemed to say 
like, great; or, don't do it, from what I remember.
    I remember this one professor being the only one that really 
suggested not to take it. But then I see this and I vaguely remember 
this guy saying that too.
    Question. Okay. You read through this e-mail. In this e-mail, Bob 
Suettinger calls Johnny Chung a hustler. He says in the second 
paragraph ``My impression is that he is a hustler.''
    Had you heard anyone call Johnny Chung a hustler?
    Answer. No, because that would have really--that label would have 
stuck out to me as a big warning sign. Definitely, in looking at this 
job, it wasn't your standard first job out of college--you know, set, 
safe and secure situation. I mean, I had my doubts, wondering what is 
this really going to be, what is going to unfold? I realized it was, 
you know, sort of a risk, because I didn't really know what I was 
getting into.
    But decided to do it.
    Everything was sort of, at that point, gray. It wasn't like white 
or black. But hearing the word ``hustler'' makes me, I wouldn't have 
wanted to work for somebody that had that label.
    Question. So you did not know about that?
    Answer. No. I never saw this e-mail.
    Ms. Safavian. Okay. Why don't we mark this GR-14.
    [Ratliffe Deposition Exhibit No. GR-14 was marked for 
identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Do you know if Johnny Chung knew that the NSC considered 
him to be a hustler?
    Answer. I have no idea. He would have been deeply offended. No, the 
way Johnny talks, everybody is his friend, everybody loves him, this 
was then, you know. My good friend, Maggie, my good friend Don Fowler, 
that is sort of the way he talks. He never talked about you have some 
friends, you have some enemies. It was never anything like that. 
Everybody was his friend. Everybody loved Johnny.
    Question. Let me just show you real quick and see if you have any 
knowledge about this, this is the same E-mail we just looked at. 
However, this is one that was produced by Johnny Chung in response to 
our committee's subpoena. Do you know why or how Johnny Chung would 
have a copy of this e-mail?
    Mr. Zacks. Counsel, do I take it that this was faxed to Mr. Chung 
on the 21st of February '97?
    Ms. Safavian. Unfortunately, I cannot answer that. The fax 
transmission at the top of the page. I just don't know the answer to 
that.
    Mr. Zacks. The specific question, Ms. Ratliffe, is do you know how 
Mr. Chung got a copy of this e-mail?
    The Witness. No.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Did you know that he had a copy of this e-mail?
    Answer. No.
    Question. Let me just for the record mark that as GR-15.
    [Ratliffe Deposition Exhibit No. GR-15 was marked for 
identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. So your first duties or your first job that you had to do 
was you went to China with Johnny Chung.
    Answer. Yes.
    Question. We have already established you left April 11th and 
returned April 25th?
    Answer. Yes.
    Question. Who all went on this China trip?
    Answer. Johnny, Art Liang, is how you say his last name. It was the 
three of us that went over there from his LA office. And he--that is 
who went to China.
    Question. And what did you do while you were over there?
    Answer. Meetings, all the time. Mostly meetings. I did very little 
sight-seeing.
    Mr. Zacks. Thirty seconds. Nobody move. I will be right back.
    [Recess.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. You were talking about your trip to China. You went to 
meetings?
    Answer. Meetings.
    Question. No sight-seeing?
    Answer. A little.
    Question. Was there any purpose to these meetings? Were they all 
varied, different kinds of meetings? Can you give me any explanation?
    Answer. Johnny's mission was to do this peacemaking, bridge-
building thing. It was like an unofficial-official visit sort of thing. 
I don't even know what is important or what you want me to say about 
it. We met with people that they considered to be in their private 
sector, and we met with government officials. I had a translator with 
me most of the time, but didn't always translate. To me, it seemed like 
a bunch of the same thing he was doing here, just over there. Just the 
meet and greet, hi, I am so important, hi, I know so many people, hi, I 
have so much money, hi, I can help you. You-need-me sort of ego trip 
that he was on.
    Question. Was he trying to get clients for his business, his fax 
business?
    Answer. No. Like he talked about wanting to set up a Beijing 
office, but he like went with this messenger of peace mentality, that 
he was there to help build this bridge between the two countries. So he 
would meet with people there.
    I can't even remember all that he talked about. I just remember 
being so irritated because it was just a big brag session for him. 
Either how much money he had or how much everybody liked him or how 
whatever he thought he could do.
    Question. You brought in today from the documents you brought with 
you, was a folder of materials from your trip to China; is that 
correct?
    Answer. Yes.
    Question. Is this the same trip to China that we are talking about 
right now?
    Answer. The one and only.
    Question. You only took one trip to China?
    Answer. Yes.
    Question. You also had a--well, we can start with this stack here, 
a stack of brochures from different, it looks like different companies.
    Answer. Yes.
    Question. Are these representative of some the meetings that you 
had?
    Answer. Correct.
    Question. Okay. Do you recall anything in particular about any of 
these companies, the brochures you kept? Was there any reason you kept 
these?
    Answer. It was just stuff that people handed out. I honestly can't 
even tell you what was there. We went back to a couple of them more 
than once.
    Question. Do you recall which one?
    Answer. Is there something from the exhibition center in there? I 
guess not.
    This was a news agency that Johnny talked about.
    Question. This, I am not going to try this, K-I-N-H-U-A news agent, 
news bulletin?
    Answer. It was just like them showing an example of what they do.
    Question. And it looks like you went to the----
    Answer. That was actually more sight-seeing.
    Question. The Yan-Huang Art Museum?
    Answer. Yes. The artist, like he did these, I don't even know what 
this means, but this was supposed to be really special. I was supposed 
to be very honored to receive whatever name he gave me.
    Question. Okay. This other one is China Enterprise Management 
Association.
    Answer. I have no idea.
    Question. There is another brochure here called ``China 
International Exhibition Corporation.''
    Answer. That might be the--I honestly don't remember it looking 
like this. I really don't even--they are not like Americans. They don't 
like meet, have a meeting to discuss something and do anything about 
it, at least that is not what we did. It is like show up, shake hands, 
pass out name cards, tour the joint, talk, set up a time to meet for 
dinner kind of. At least that is what I got from it. It is not how can 
we work together and what can we produce or make or anything like that.
    Question. So you don't really recall anything specific about----
    Answer. The only tangible thing, Johnny was looking--there was one 
place Johnny was looking for office space to set up his Beijing office, 
and this was just one example of many. He was looking at this one 
space. It had like the Chinese military outside of it, and, you know, 
me acting in good faith, I am thinking, I don't think that would be a 
good place to set up an American business, if you want other Americans 
to know about your business here.
    Anyways, he said, yeah, that is a really good point. I am not going 
to have office space there. Then we went back the next day and he is 
sitting there telling them how interested he is in having office space 
there. And I knew he clearly wasn't, and you don't have to be that 
blunt about it. But that he was being that blatant to go out of his way 
and still saying how interested he was, when we had discussed the night 
before that he clearly wasn't.
    I said something to him about it the next day, and he got angry. 
That is the only thing I remember.
    Question. You think that is, what, the China International 
Exhibition Corporation or something else?
    Answer. I don't know.
    Question. Another brochure that you have with you is from China 
Xinxing Corporation.
    Answer. I have no idea.
    Question. And the last one is it looks like a brochure from the 
Beijing Tong BRN Tang Group Company in China.
    Answer. This is something about ancient medicine. I honestly don't 
remember. We just went to place after place after place, back-to-back. 
The only thing that sticks out to me, Johnny kept talking about the 
number two beer-making corporation, and something about an oil company. 
We probably spent more time with those dudes than any of these others.
    Question. Okay. You also brought along a set of business cards. Are 
these cards that you were given when you were on your trip to China?
    Answer. Yes.
    Question. Some of them are from just a couple, are from AISI, yours 
is in here, and Irene Wu and a couple other people. Are these just ones 
you put in the stack or you actually got these in China?
    Answer. Those cards would be a pile of cards that I obtained while 
working for Johnny. I would say most of them came from the China trip. 
There were a couple of delegations when I was working for him that came 
here, and they might have given me cards, like when we went to dinner 
or something. Irene's I probably got when I was in LA.
    Question. You mentioned just a second ago that Johnny talked a lot 
about the second beer manufacturer.
    Answer. Yes.
    Question. The name of that is Haomen Group?
    Answer. I have no idea.
    Question. Do you remember the name of it?
    Answer. It might be one of these guys.
    Ms. Amerling. Let the record reflect the witness is looking at 
Exhibit GR-2.
    The Witness. I am not positive, but there is a chance that Evans, 
and like his son, whoever it is, we had dinner with him one night. 
There was like a grandpa, a father and a granddaughter.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. This is the beer manufacturer?
    Answer. The beer thing, yes. Johnny seemed to be kind of tight with 
them.
    Question. Let me show you two--first of all, the gentleman that you 
were pointing to in GR-2 is the gentleman at the far end of the photo 
on the right with glasses and balding. It is hard to say. He doesn't 
really list names at the bottom in order, so I don't want to confuse 
him.
    Let me show you two business cards you have in your stack. They are 
both Haomen Group. Do these names help you at all with the dinner you 
had?
    Answer. No. Honestly, like they all look the same to me. I just 
remember the guy we had dinner with was like older than like these guys 
were like the norm, and he was----
    Question. These guys being Johnny Chung is one of them?
    Answer. These guys in here. Most of the guys I would say were in 
their like forties and fifties, and this guy was a little older, a 
little skinnier, and had a little less hair. So if it was him or 
another person.
    Question. You are not sure that this is identified as him?
    Answer. That is all I am trying to say.
    Question. Okay, that is fine. Did you learn anything else about the 
beer manufacturing company that you were talking to?
    Answer. Johnny was big on them. I don't know why exactly. I don't 
know why he was tight with them, how he knew them. He was constantly 
bragging about we are going to have dinner with the number two beer-
making corporation in China. I don't know if they did come to the U.S.
    Question. Do you know if Johnny Chung owned stock in the beer 
manufacturing company?
    Answer. He never mentioned to me if he did. I never heard anything 
about stock.
    Question. Let me just, for just a couple, read off some of the 
names. China International Trust and Investment Corporation? See if 
they mean anything to you?
    Ms. Amerling. Just to be clear for the record, counsel is reading 
off business cards.
    The Witness. It doesn't sound familiar and it doesn't not. I know 
that is not helpful.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Just let me know if any of them do. The name on the card 
is H-U-A-N-G, J-I-C-H-U-N.
    Answer. The exact names mean nothing. The beer-making company and 
the China petrochemical corporation, he talked about that a lot.
    Question. Do you recall in what sense?
    Answer. We had dinner, I think, or lunch, at their headquarters. I 
might have even gone shopping with his daughter, if that was the same 
place.
    Question. Okay. How about China Chamber of International Commerce?
    Answer. Yeah. You know, what, that is who this guy is, isn't it?
    Question. One of the gentleman, the photo with Mrs. Clinton, the 
Chinese delegation, one of the gentleman in the picture is from the 
China Chamber of International Commerce.
    Answer. We spent a lot of time with him. We went to his home one 
afternoon.
    Question. S-H-E-N-G?
    Answer. The names mean nothing to me.
    Question. Do you recall anything else about that?
    Answer. The Chamber of Commerce dude seemed to be, and I could be 
wrong, but he seemed to be the link between the higher-up officials. 
When we were there, we got in to meet who I thought was Vice Premier 
Lee. Actually that reminds me it wasn't him. This is, I think, the 
Chamber of Commerce guy----
    Question. You do think this is the China Chamber of Commerce guy?
    Answer. Yes.
    Question. The one standing next to Mrs. Clinton?
    Answer. And not Vice Premier Lee. The Vice Premier lives in the 
Forbidden City. I don't know. Chinese residents are not allowed to go 
in there. I don't think women usually are either, but somehow Johnny 
got us in there. One of the guys that we were kind of with, that was 
sort of with our group, he lives over there, but apparently works for 
Johnny. I don't know if he is like the Beijing office or whatever 
Johnny would call it, I don't know, and he wasn't allowed in.
    When we went in, Johnny got his picture taken with this guy. I 
absolutely didn't even care about it, didn't even want it. I got my 
picture taken with this guy. Art, who was also Johnny's like chief of 
staff or whatever you want to call him, got in, but didn't get his 
picture taken. Art was like furious about this. It was like a whole big 
prestige thing with them. And I don't even know what they sat there and 
talked about. But this translator guy was there for that.
    Question. Okay.
    Answer. And I think this Chamber of Commerce guy was like the link, 
the political link.
    Question. That is how you got in the Forbidden City?
    Answer. Yeah. I mean, Johnny was definitely involved in making all 
that happen.
    Question. Okay. Does China Everbright Group mean anything to you?
    Answer. That sounds familiar. I have no idea why. Are they a bank?
    Question. Well, there is one called Everbright Bank of China on 
another card that you have.
    Answer. It all----
    Question. That is fine. Now, you mentioned earlier there was this 
flurry to get these photos with the President. You had to have them to 
take to China, and you brought them to you. What did he do with the 
photos once he got to China?
    Answer. I assume he gave it to them.
    Question. Did you see that happen?
    Answer. I must have, because I was always with him, but honestly it 
doesn't like stand out to me as part of the trip.
    Question. Do you recall him showing anybody photos? I think, you 
know----
    Answer. Oh, we took a crate of those books.
    Question. Of the brochures?
    Answer. To hand out to everybody we met with, yes. So he definitely 
passed those things out like crazy.
    Question. Would he pass out any letters that he may have gotten 
from the President or the First Lady or anybody?
    Answer. Well, actually I just saw on the left-hand side of that 
packet the Chinese stuff, I didn't even remember that he did, but just 
in preparing these for today, I think they were in here and I was 
laughing. It was in some stack.
    Mr. Zacks. I think they are in those booklets.
    The Witness. Are they actually in the booklet?
    Mr. Zacks. I think so.
    Ms. Safavian. I am not sure what you are looking for. Are you 
talking about these?
    The Witness. Yes.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. These are letters that you had, that you brought in 
today. I was going to ask you about these.
    Answer. Johnny had--he gave me just a stack of his correspondence 
or whatever, and so but I noticed that there was some packet of 
something that he had handed out, and I think a letter from the 
President, Al Gore and Mrs. Clinton were in it.
    Question. If any of these look familiar to you, why don't you state 
that for the record and we can make those exhibits.
    Answer. Maybe it wasn't Mrs. Clinton. Maybe it was just Al Gore and 
the President one.
    Question. Why don't you take a look this stack also.
    Answer. The letters are in from, but it was in something that he--I 
really thought it was in something like that, that he handed out to 
people.
    Question. With his brochure?
    Answer. I didn't think it was in the book. This is all the DNC-
related stuff.
    Question. Do any of those letters that you have been flipping 
through, do you recognize any of those as the ones that you copied for 
him and he handed out?
    Answer. Johnny?
    Question. Yes.
    Answer. I didn't copy any letters that he handed out.
    Question. I thought you--I am sorry, I misunderstood you then.
    Answer. No. He had--my involvement in China, he had these booklets 
made up, and he had like a big crate of them that we brought to China 
with us, and----
    Ms. Amerling. ``These booklets,'' for the record, are the booklets 
with ``AISI Building the U.S. Fax Highway Today'' on the cover; is that 
correct?
    The Witness. Yes. And he would hand these out the way people hand 
out business cards. And I didn't think there were letters in these. I 
thought that I just ran across it in like a packet like that he had 
handed out.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. What letters are you recalling?
    Answer. It was some boilerplate thank you letter of the President 
thanking him for his support for some fund-raiser.
    Question. So he had a letter from the President.
    Answer. Yes.
    Question. Anybody else you can remember?
    Answer. I don't remember if it was the Al Gore one, too. They are 
like these little like, you know, three-sentence letters of thank you 
for your support kind of thing.
    Question. And he would pass those out along with these brochures?
    Answer. No, no. I just ran across--he would pass these and his 
business cards out, or like hand them out in these blue packets with 
his business cards in it. I just ran across in my collection of 
materials for you, I really thought it was something like this, that 
he--if he was like handing this out to somebody, it was just like a one 
thing, that it was in there and it looked like he was including these 
letters to prove even more so that he was tight with the President or 
something. But this is what was handed out. And I don't even know what 
version. I'll bet it wasn't this version, because this would have 
probably--I don't know.
    Ms. Amerling. When you say this, what was handed out, we are 
referring to the AISI booklet?
    The Witness. He has some different versions with different 
pictures.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. You are not sure if the picture of Mrs. Clinton and the 
delegation was included in the brochure he handed out?
    Answer. Correct.
    Question. Okay. Moving away from the China trip, although as I was 
rummaging through these documents, I did see one of the things you 
produced that says Everbright Bank and Everbright Group. Let me show 
this to you, because you mentioned earlier Everbright was a bank. Does 
this help you remember who Everbright is?
    Answer. Yes. This was a group that--I think, there was a group that 
came into town and they were with a bank, and the only involvement that 
I had with them was that I went to dinner with them one night. And 
there was probably a group of eight of us, and I sat and talked to this 
girl all night about the differences between the U.S. and China, 
culturally, women's issues. I don't know what all the men were talking 
about.
    Ms. Amerling. Counsel, can I have a copy of what she is looking at?
    Ms. Safavian. It is in that stack right there.
    Ms. Amerling. Is it this document?
    Ms. Safavian. Yes, it is.
    The Witness. I remember Johnny had been showing them around.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Do you recall the name of the person you were speaking to 
that night?
    Answer. No.
    Question. Okay. Do you recall what this business did?
    Answer. In this is the bank, there is something about--some bank 
was coming into town, everyone is interested in seeing the White House, 
some White House tour. I was really involved with like this kind of 
stuff, dinner reservations. Johnny at one pointed talked to me about 
some bank wanting to open up a New York branch. Something about 
something in New York, and he was wondering if he should get involved 
with it or not. But I honestly don't know----
    Question. Okay. That is fine.
    Answer [continuing]. A lot about it.
    Question. Okay.
    Answer. Or anything else.
    Ms. Safavian. Since we talked about it, let me mark this as Exhibit 
GR-16.
    [Ratliffe Deposition Exhibit No. GR-16 was marked for 
identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. When you returned from China, what did your--first of 
all, you were located in the Washington, D.C. office for Johnny Chung?
    Answer. Yeah.
    Question. Okay. Can you tell me a little bit about that, how many 
offices he had, where they were located?
    Answer. Physical offices, I saw would be in LA. His Washington, 
D.C. office was me, so, I mean, it is not like I got up and went to 
work at a location every day or anything like that.
    Question. Where was it then?
    Answer. That was when all of the problems started basically is when 
I got back from China. It was everything that was promised or talked 
about or was supposed to happen, or I thought had already happened 
actually didn't even exist.
    Question. And what do you mean by that?
    Answer. An office.
    Question. A D.C. office?
    Answer. Yeah. Phone, fax machine, desk.
    Question. Were you working out of your home?
    Answer. It wasn't really work. When I was in LA, he needed some 
letters typed, I remember, I think, to Don Fowler, maybe to Secretary 
Riley, and I typed some stuff there for him. But that was all out of 
the LA office. So when I got to D.C., I don't even think I dropped them 
off. I probably just mailed them. I didn't do anything for him when he 
wasn't there, when he wasn't in D.C.
    Question. Well, you said that there wasn't an office, you didn't 
get up and go to an office. If you did anything for him, would it have 
been at your home?
    Answer. I mean, he definitely called me at my house about things, 
but it really--what I learned about Johnny, his wife actually explained 
this to me during a conversation once. She said that Johnny is a 
dreamer and he gets himself into trouble when he talks about--he talks 
about things as if they actually are, rather than saying wouldn't it be 
nice if, or I have an idea, and I think this would be great.
    So rather than saying it would be great if we could have a $3 
million mansion to fly delegations over to that, you could run and, you 
know, occupy, he said ``I have a $3 million mansion that I am building. 
It just needs some renovations. That is where you will work from,'' is 
what he said.
    Question. Located where? Where was he planning on----
    Answer. I gave you the paperwork on that. He showed me a picture of 
it, a map to it.
    Question. Was this in D.C. or in LA?
    Answer. It was like in McLean, I think in Virginia. I think McLean 
anyway. It is the last page on that stack. Yes. So he would hand me 
this and say this is where the office is going to be, this is where you 
are going to function out of. He told me it was going to be ready by 
June 1st. So I got back April 25th, expecting to move into this----
    Question. Move into this home, this $3 million home?
    Answer. Yes.
    Question. Let me mark this so we can refer to it as GR-17.
    [Ratliffe Deposition Exhibit No. GR-17 was marked for 
identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Okay, go ahead.
    Answer. So basically starting at this point, I--basically in China 
I wanted to quit the job.
    Question. In China you wanted to quit the job?
    Answer. Yes. I hated working for him.
    Question. Why? What happened?
    Answer. Because he was annoying. He was just this big braggart. It 
was this, me, me, me, I can do all this, I have all this money, I, I, 
I, I. It wasn't what I wanted to participate in. I wanted to work with 
the youth vote for the '96 election. So I came back. And then one thing 
after another just started unraveling, and that is why it was so short-
lived, that within a couple of months I resigned.
    Question. So he had promised you this $3 million home.
    Answer. He gave me this paperwork, yes.
    Question. Which is GR-17, and he said he was going to purchase this 
and this is where your office was going to be?
    Answer. My understanding was it had been purchased.
    Question. Okay.
    Answer. That it would be ready June 1st.
    Question. Were you supposed to live in this also?
    Answer. Yes. Like a building manager sort of thing.
    Question. And work out of it?
    Answer. Right. Right. Because he knew I was interested in this 
youth vote stuff, he said you are going to have free time when I am not 
in D.C. You are going to be able to do your research, work on your 
youth vote things, and when I come into town with my delegations, I 
want you to have dinner reservations made and things set up. He even 
told me how he wanted me to be decorating it. He wanted it done 
Victorian style.
    Question. So you thought this was a done deal?
    Answer. This was my plan. This is what I was told.
    Question. Then you found out that wasn't the case?
    Answer. Yes.
    Question. When did you find that out?
    Answer. June 1st when my current--I was living in Dupont circle, 
and my lease was up, and so I asked him on a number of occasions, 
Johnny, I was excited, of course. I want to go see this place. He says 
oh, no, we don't have time now. Not now, not now. I didn't have a car 
in D.C., so to schlepp out to McLean wasn't something I was going to 
randomly do. I kept asking and kept asking.
    Finally, it is not going to be ready for June 1st. So then I needed 
to go find another apartment and all of that.
    Question. Let me show this to you. It looks like it is a lease for 
an apartment in D.C., if you explain that to me. I will mark that as 
GR-18.
    [Ratliffe Deposition Exhibit No. GR-18 was marked for 
identification.]
    The Witness. If we are talking about fall-outs, I think something 
happened before this. The bank account.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. I don't think I have that copy.
    Answer. It was in my correspondence about my job with him. It is a 
very simple memo that says here is the Crestar Bank account 
information.
    Mr. Zacks. I gave you the stack from here.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Let me hand this back to you, the lease, GR-18. So you 
said the troubles began earlier with a bank account?
    Answer. Yes. I think. Let me see the date on this. I think the bank 
account thing happened first. This.
    Question. Okay. This is a May 24--this is a letter you sent to 
Johnny?
    Answer. Yes. I faxed it to him, I think.
    Question. And you want to just tell us about this?
    Answer. Yes. He had told me as we were getting ready for all of 
this, it is like I want to open up a checking account which will be the 
AISI expense account in Washington and when you need to do whatever it 
is that you are doing, you can withdraw from this account.
    So I said great. He said go start, open up a checking account, 
whatever. So I used $20 of my own to go start this account, and I faxed 
him all the information. He said get me everything. So I faxed this to 
him right away. I think I did it all the day he asked me to do this.
    Again, I didn't have too many responsibilities. It was like 
waiting. And it never happened. He never deposited any money in it. So 
this never happened. And then in June 1st I am supposed to move into 
this what I showed you. And that didn't happen. So then I had to go out 
and scramble at the last minute and find an apartment, and this is the 
apartment I found.
    Question. This is the lease, GR-18.
    Answer. Yes.
    Question. Let me just say for the record that the letter that you 
typed, that you gave to him dated May 24, 1995, regarding the Crestar 
Bank account that you just talked about, we will mark as GR-19.
    [Ratliffe Deposition Exhibit No. GR-19 was marked for 
identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. And this lease, is this something that Johnny Chung paid 
for the rent on this, this apartment?
    Answer. Yes. He was angry because he didn't--I couldn't find 
anything that--it was I had literally 48 hours or something to find a 
place. I found this place, and I had to sign a year lease on it. I know 
he was angry about that. And I said, you know, listen, you put me in 
this position, so he did. He paid for--initially he paid for the first 
month's rent and the security deposit for this. Because he kept saying 
you won't need that for a year, this place is going to be ready, this 
place is going to be ready, I don't want you signing a year's lease. I 
went, oh, my God, I don't have many other options right now.
    Question. In the end, did he just pay for the security deposit and 
the first month's rent or did he pay for any more of the rent?
    Answer. He paid for, I was there June and July. I think he had paid 
for July, too. I don't think he paid for rent beyond that.
    Question. Did you move out of the apartment then?
    Answer. Eventually.
    Question. So it would be pass July that you moved out of the 
apartment?
    Answer. Yes. I moved out--I actually moved out in December.
    Question. And then you paid the rent yourself for the remaining 
months?
    Answer. Yes. I had to get a roommate.
    Mr. Zacks. Excuse me. Just to clarify, during the time he paid the 
rent, this was the AISI Washington, D.C. office in effect, correct? 
Because there was no $3 million mansion?
    Answer. There was no $3 million mansion.
    Mr. Zacks. So this was the AISI D.C. office.
    The Witness. Yes.
    Mr. Zacks. This is where you worked out of for him while you were 
still with him?
    The Witness. Right.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Let me show you a fax cover sheet in, an AISI fax cover 
sheet, also one of the documents you brought with you today. This shows 
that AISI has several offices. Can you explain that to me, please?
    Answer. Actually when I was gathering these materials, I never 
really paid attention to it before. Johnny always had so much hoopla 
going on that you just sort of had to sort, at least that is how I 
handled him, I just sorted through whatever, let him talk his talk, and 
I was looking at this, Hong Kong, Taiwan, three China offices? I never 
saw them, heard about them, know any of the people. Oh, except this one 
guy, he must--David Chen I met him in China.
    Question. David Chen is the contact person for the China office in 
Beijing?
    Answer. The Beijing office, yeah. He might also be--he might be the 
son of this second largest beer-making company in China.
    Question. He might be the son?
    Answer. He might be. I can't remember exactly.
    Question. And you know you met Mr. Chen, C-H-E-N?
    Answer. Yes. He was the one also I believe couldn't get into the 
Forbidden City or wherever we went with the Vice Premier, because he 
lives there and apparently you are not allowed to go.
    Question. You do have in your possession one of the business cards. 
There is one for David Chen on an AISI business card that says special 
assistant to Chairman, and it gives a California office address and a 
China office address in Beijing.
    Answer. Okay.
    Question. This is the same defense David Chen, this business card?
    Answer. He had a cell phone. I never saw any office. I don't know 
what his responsibilities were.
    Question. You don't know what Mr. Chen did as special assistant to 
the Chairman?
    Answer. No. He might have been involved in some of the scheduling 
for the China trip of all of these random businesses that we met with, 
but I just remember him with his phone.
    Question. Okay. So the California office that is on this fax cover 
page, that is an office?
    Answer. That is an office.
    Question. You saw that.
    Answer. That is a big office.
    Question. The Washington, D.C. office listed, 955 26th Street, 
Number 709, Northwest. Did that exist?
    Answer. That might be Johnny's apartment that he had in Washington.
    Question. That is not your apartment?
    Answer. That was not my apartment.
    Question. The contact person is Dr. Wen C. Lin, senior advisor to 
the Chairman?
    Answer. I have no idea who that is.
    Question. Never met him?
    Answer. If I did, I don't remember.
    Question. There is a Hong Kong office.
    Answer. No, they wouldn't take me to Hong Kong. I wanted to go.
    Mr. Zacks. Off the record a minute.
    [Discussion off the record.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Back on the record. I notice there are two contact people 
listed for the Hong Kong office, a Mr. George Liu?
    Answer. Oh, that sounds real familiar.
    Question. You have his business card also.
    Answer. George, I think I met George.
    Question. Not in Hong Kong.
    Answer. Not in Hong Kong, no. I did meet George, and he has a 
girlfriend named Jennie who is a dentist professor at NYU, I think. 
This is all totally just coming back.
    Question. Do you remember where you met Mr. Liu?
    Answer. He flew in--if this is the same guy, he is this chubby dude 
that had a ton of money, and I didn't know he really worked for AISI.
    Question. I am showing you an AISI business card for George Liu 
which says he is special assistant to the Chairman and gives the 
California office address and a Taiwan office address on his business 
card.
    Answer. Johnny is Taiwanese.
    Question. Actually, farther on that fax cover sheet there is a 
Taiwan office, and Mr. George Liu is the contact person for that office 
also.
    Answer. Okay.
    Question. Do you know what he did for Johnny Chung?
    Answer. George had a ton of money of his own, and I can't remember.
    Question. Was he a shareholder?
    Answer. No, but some other lady was that I met at one point. I 
don't know if I met her in China or in LA. I don't know. But George 
just seemed to have fun with life.
    Question. You said some other woman. There is also a Ms. Emily 
Chang listed as the contact for the Hong Kong office. Does that ring a 
bell?
    Answer. That name doesn't. But I remember meeting some woman that 
was probably in her forties or fifties that Johnny introduced to me as 
on his board or something like that.
    Question. You don't recall her name?
    Answer. No.
    Question. So you don't know if there is really a Hong Kong office?
    Answer. No.
    Question. Do you know if there is a Taiwan office?
    Answer. I thought----
    Ms. Amerling. Can you verbalize here?
    The Witness. No, I don't know. I thought Johnny had not been back 
to Taiwan since he was 12. I thought he left when he was 12 and never 
went back. But, I don't know. Apparently.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. There is also another contact person in the Taiwan 
office, a woman, Ms. Li-Ching Chen.
    Answer. I have no idea.
    Question. Then we mentioned earlier this Beijing office with David 
Chen. You don't know if that exists?
    Answer. No, I don't.
    Question. And another contact person is a Mr. Yei-Jun He.
    Answer. I remember people saying a Mr. He, Mr. He, but I don't have 
any more recollection other than that.
    Question. So you don't know what he did for Johnny Chung?
    Answer. No.
    Question. There is another China office, actually there are two 
more China offices. There is one in--let me spell it, Q-U-A-N-G-Z-H-O-
U. Do you know if that office exists?
    Answer. I don't know that any of these offices exist. The only 
connection I can make with one of these, if you know which one of them 
is in the north, this young dude owns a bunch of hotels there.
    Question. Is this Mr. Sun?
    Answer. I can't remember his name.
    Mr. Zacks. May I ask a point of clarification? During your China 
trip, did you visit any of these China offices listed on--this isn't an 
exhibit yet.
    Ms. Safavian. It is going to be.
    Mr. Zacks. This AISI fax cover page?
    The Witness. I don't remember visiting any AISI office.
    Mr. Zacks. Okay.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. The gentleman you were pointing to in Exhibit GR-2, the 
young gentleman all the way on the left of the picture, the fax cover 
sheet lists a Mr. Jian-Feng Sun. Mr. Sun, it appears, is one of the 
Chinese delegations in the picture, and Johnny writes under the picture 
with Mrs. Clinton, the young entrepreneur from Xinjiang. That is also 
one of the locations of one of the China offices.
    Answer. I never saw it or really heard about it. He was in Beijing 
when I was there.
    Question. Mr. Sun?
    Answer. Yes.
    Ms. Amerling. By it, you are referring to the office?
    The Witness. I never saw any AISI office other than the one in LA.
    Ms. Safavian. Let me mark this AISI fax cover sheet as GR Number 
20.
    [Ratliffe Deposition Exhibit No. GR-20 was marked for 
identification.]
    Ms. Amerling. Could we assign an exhibit number to the business 
card you were referencing as well so the record is clear, the George 
Liu?
    Ms. Safavian. Why don't we put these all on one page? I referenced 
George Liu and David Chen. We can copy those on one page and make those 
Exhibit GR-21.
    [Ratliffe Deposition Exhibit No. GR-21 was marked for 
identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Okay. So you were having problems with Johnny with your 
apartment. Did you end up doing any work for him? Did you do anything 
for him?
    Answer. I started to. I tried to. He told me that he wanted me to 
know about all the finest restaurants in D.C., and I was supposed to go 
and check them out beforehand while he was away in LA or whatever, and 
get to know the general managers there, the menus, et cetera, so I went 
to Martin's once and had dinner. It is like I started to try and 
fulfill some of my responsibilities while he was out of town, because I 
basically wasn't doing--he didn't give me anything to do. There wasn't 
anything to do. So I went to Martin's.
    Question. Did he pay?
    Answer. Eventually I was reimbursed.
    Question. Did you ever schedule any--were you ever this, what was 
your title, courtesy----
    Answer. Courtesy visits.
    Question. Did you ever prepare any dinner reservations or tours 
around D.C. or anything for any delegation that may have come to town?
    Answer. No. I went to dinner with that bank group that night, but 
he had arranged all that.
    Question. When you say that bank group, do you mean the Everbright 
Bank?
    Answer. Yes. He arranged that.
    Question. Okay. So he didn't have you arrange----
    Answer. I never set up tours, I never made dinner reservations, no.
    Question. Did you set up anything for Johnny and/or any of his 
guests at the White House?
    Answer. No. He came into town one time when I was like technically 
working for him, yet a volunteer, and I didn't even know he was coming 
into town. He called the First Lady's office and he wanted a tour, and 
Ann McCoy, I believe it was Ann McCoy, showed him around. It was 
someone other than me. I remember sitting there saying I am not even 
doing my job when he comes into town.
    Question. Did you schedule that tour for him or did he contact Ann 
McCoy directly?
    Answer. I don't know if he called the First Lady's office and if 
somebody else there called or if he called her directly. I don't know.
    Question. You had nothing to do with it?
    Answer. No. I don't remember it. I remember thinking it was weird 
that Ann was showing them around.
    Question. Did he ever have you contact anybody at the DNC on his 
behalf?
    Answer. We went to the DNC. I went to the DNC with him. I think--
again, it was one of these like meet-and-greet, handshake kind of 
things. It was no meeting really. We might have met Don Fowler. Whoever 
happens to be walking down the hall, you know, Johnny--of course, 
everybody at the DNC knows who he is and runs up to him, ``Johnny, we 
have a breakfast coming up in LA,'' and they are like handing him 
stuff. He was introducing me to these people.
    The person we talked to the most was whoever sits outside of Don 
Fowler's office.
    Question. Does Carol Caire ring a bell?
    Answer. I thought it was like a Selinda.
    Question. Sandra Scott?
    Answer. Yes. Is she an African-American woman?
    Question. I don't know.
    Answer. Like topical Johnny fashion, the real--I shouldn't say 
that, well, the real people didn't make time or have time for him, and 
he was sort of shuffled off to assistants or whatever.
    Question. Who do you mean by the real people?
    Answer. If you want to, like, relation would be Maggie and Evan, 
you know, like Maggie didn't have--I never saw him go and sit in 
Maggie's office for any sort of formal meeting. But Evan would have to 
entertain him, so-to-speak, when he would come in, so he would still 
feel important or whatever. So I remember spending more time with her 
than anyone else at the DNC, was my point to that.
    Question. Let me show you a----
    Ms. Amerling. So the record is clear, more time with whom?
    The Witness. Sandra Scott, if that was her name.
    Ms. Amerling. You are not certain it was Sandra Scott?
    The Witness. I believe it was somebody that was an assistant to Don 
Fowler.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Let me show you a June 5, 1995, letter, to you from 
Johnny Chung.
    Answer. Yes.
    Ms. Amerling. Could you point me where I could find that document?
    Ms. Safavian. This is one of the ones that she produced to us 
today. It is in one of the stacks.
    The Witness. She can have that one.
    Ms. Amerling. If you could give me one minute to look at it, I will 
give it back in a minute.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Do you remember receiving this?
    Answer. Yes.
    Question. This letter. You do recall receiving this letter?
    Answer. Yes. It was Fed Ex'd.
    Question. It was Fed Ex'd to you?
    Answer. Yes.
    Question. It shows that he enclosed a paycheck for the month of 
May, and a personal check to assist you with your move. The next 
paragraph says, ``As you are aware, there is usually a 3-month 
probation period for all new hire employees. I would like to request 
from you at this time a proposal on what you can contribute and how you 
can assist AISI in Washington, D.C. After all, that was the major 
reason for your employment with us.
    ``I am very sorry to say that your performance lately has not been 
satisfactory to our agreement. I do expect to see some kind of 
improvement and enthusiasm from you in the next 30 days for I do know 
that you have a lot more to offer. Under careful reconsideration, your 
China trip is temporarily postponed. I also want to inform you that the 
Chippewa delegation which was scheduled to arrive in D.C. at the end of 
June has canceled their trip.''
    Did you know about this 3-month probation period?
    Answer. No. Nothing was ever in writing with Johnny. I mean, we sat 
down and talked about the job itself or my responsibilities, that 
wasn't in writing. There was never any contracts. There certainly 
wasn't any 3-month probationary period talked about. Johnny talked 
about doing this work for 40 years or so. So 3 months----
    Question. For you to do this work for 40 years?
    Answer. He would--I don't know about me specifically, but he was 
talking to me. He would talk about this is a long journey and this 
messenger of peace mission that he has doesn't happen overnight, and 
this is 40 years of work ahead of us, and he would just sort of talk 
like that.
    Question. Okay.
    Answer. So I didn't----
    Question. He wanted you to determine how you could assist AISI in 
Washington?
    Answer. Yes. Actually, I don't remember that portion of it. I think 
in essence here, Johnny was irritated with me because I kept bugging 
him about everything that all of his promises, and he wasn't fulfilling 
any of them, i.e. the badge account, the house, anything. And I had to 
really put a lot of pressure on him to get the money by June 1st. I had 
to make a deposit to move in with this new lease and everything. So 
this is what came after that.
    Question. Did the two of you sit down and discuss what you could do 
for AISI?
    Answer. No.
    Question. Do you know what he meant by your performance has not 
been satisfactory to your agreement?
    Answer. Not exactly. We never discussed it specifically.
    Question. Did that come as a surprise to you?
    Answer. Yes.
    Question. Did you talk to him about it ever?
    Answer. No. The only tangible thing that I can remember is that 
there was--when I was in LA originally in April, he handed me this 
stack of correspondence and other pieces of information. I don't know 
if it was before or after this letter, but there was something that he 
said he gave me to send in an RSVP thing for, and I think it was the 
Doris Matsui Asian American something or other event going on at the 
White House. I enclosed that in the documents. He was angry--he missed 
it for some reason. I don't know if he had forgotten about it, if I 
didn't send it in. But I have the RSVP form there. So I don't know what 
happened exactly, but he was furious that he missed this meeting. I 
can't remember if it was before or after this letter.
    Question. And he blamed that on you?
    Answer. Oh, yeah. Yeah.
    Question. There was another China trip you were supposed to take?
    Answer. Yes, I had forgotten about that, too. I am sure this sounds 
really whimsical, but the way Johnny talks, it is like he talks about 
$3 million mansions and I was also going to have a car and a driver and 
a maid, and another trip to China and so it is like you don't really--
at least I didn't hold on to--another trip to China, okay, we will see 
what happens. Like I wanted to quit. So I actually had completely 
forgotten about that trip.
    Question. It never came to be?
    Answer. I think he went. I never went.
    Question. Okay. Let me mark that as Exhibit GR-22.
    [Ratliffe Deposition Exhibit No. GR-22 was marked for 
identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Just so the record is clear, mentioned in that letter was 
he was giving you a personal check to help you move, and that is JCO 
4068. Is that correct?
    Answer. Yes.
    Question. And that was for $2,000.
    Mr. Zacks. That was to the apartment referenced in that prior 
lease. Was that marked as an exhibit?
    Ms. Safavian. Yes, it was.
    Mr. Zacks. This check relates to the move for the lease represented 
in GR-18, right?
    The Witness. Yes.
    Mr. Zacks. Which served as the AISI headquarters as well as where 
you were staying for that period of time.
    The Witness. Yes.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Was this $2,000 for the security deposit and first 
month's rent?
    Answer. Yes.
    Question. Let me mark that as GR Number 23.
    [Ratliffe Deposition Exhibit No. GR-23 was marked for 
identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Let me hand you something else referenced in the letter. 
This looks like it was your paycheck.
    Answer. Yes.
    Question. It is dated June 1, 1995, and it shows it was $1,955.60.
    Answer. Sixty-four cents.
    Question. I am sorry, 64 cents. What was your agreed upon salary 
with Mr. Chung?
    Answer. $29,000 a year.
    Question. $29,000 a year.
    Answer. Yes. Plus the, you know, the house and cars and maid. But 
my personal paycheck was to be $29,000.
    Question. Okay. Did there come a time when you did not get paid 
from Mr. Chung?
    Answer. I always received my payroll paycheck to my knowledge.
    Question. You did always receive that?
    Answer. There weren't that many. Was it June----
    Question. May, June----
    Answer. And then I quit in July.
    Question. So you never had a problem getting your paycheck from Mr. 
Chung?
    Answer. No.
    Question. Okay. Let me mark that as GR-24.
    [Ratliffe Deposition Exhibit No. GR-24 was marked for 
identification.]
    The Witness. I believe he also gave me severance pay when I quit. I 
don't know if that counts as that.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. We will get to that when we talk about your quitting. Let 
me hand you another document that you produced this morning, a July 11, 
1995, letter to Johnny Chung from you. If you will take a quick look at 
that. Can you explain this letter to me briefly?
    Answer. Resignation.
    Question. This your resignation letter? It appears in the letter 
that you have set out several complaints, if I can characterize it that 
way.
    Answer. Yes.
    Question. Not having bought the $2.5 million mansion.
    Answer. Yes.
    Question. Not having opened or not having wired money into the 
Crestar Bank account.
    Answer. Yes.
    Question. There is also something about on top of your salary, you 
would be paid a $500 per month clothing allowance.
    Answer. Yes.
    Question. He did not pay you for that?
    Answer. Actually, I did end up getting reimbursed for that.
    Question. It also says----
    Mr. Zacks. After this letter?
    The Witness. Yeah, I think so. Yes. Yes. Some of it might have been 
along the way, but there was a Chung--most of it was after the letter.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Okay. There is a paragraph that says ``reflecting on the 
unfulfilled promises, the Spielberg party, the mansion, cars, driver, 
maid, rent, equipment for research project, a budget for the project, 
clothing allowance, et cetera.'' These are all promises he made to you 
that were not fulfilled?
    Answer. The Spielberg party was the fund-raising event.
    Question. Did he promise you you could go to that?
    Answer. Yes. In typical Johnny talk, nothing is ever, you know, 
here is a ticket, would you like to go. It is, you know, I am going to 
this event. I could get you in. Would you want to go? I think he flew--
I think I was actually in LA at the time of that event, but I never 
went to the event. So, yeah, it was like just one thing after the 
other.
    Question. Do you know who he brought to the event?
    Answer. His family. His wife and daughter.
    Question. Just the three of them?
    Answer. Do you know what? George might have gone to that.
    Question. George Liu, L-I-U?
    Answer. I think someone else did go. George and his girlfriend, 
Jenny. I don't know if Jenny went. All I know is I didn't go.
    Question. Okay. Had you talked to Johnny Chung about resigning 
prior to you giving him this letter?
    Answer. I don't remember our exact flow of conversation. Ever since 
I got back from China, things were not good with him. I would call him 
to say, you know, where is the mansion, where is the money, where is 
this sort of thing. We definitely had discussions. Certainly, if he 
would be in town, we would talk. I don't--I mean, I remember a couple 
of--I remember a couple of specific places we were in conversation, but 
I honestly don't even remember much of the content.
    Question. Let me just mark that letter as GR-25.
    [Ratliffe Deposition Exhibit No. GR-25 was marked for 
identification.]
    Ms. Safavian. Let me hand you another letter from you to Johnny 
dated----
    Ms. Amerling. For the record, there is no signature on the letter 
GR-25.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. I am handing you a July 17, 1995, letter that you wrote 
to Johnny. If you will just take a quick look at that.
    Answer. Okay.
    Question. Do you recall the context of this letter?
    Answer. Not much. Other than what is there.
    Question. Were the two of you thinking about trying this again? In 
the first paragraph, ``I am glad we had a chance to talk last week. I 
appreciate and value our discussion about starting the new chapter?"
    Answer. The new chapter was moving on, and I think somewhat trying 
to do it somewhat amicably. Like both starting new chapters, like I 
would do mine and he does his. But, no, it wasn't about me continuing 
with AISI.
    Question. You also wrote continuing the first paragraph, ``I am 
sorry about the way our conversation went latter,'' I suppose it should 
be later that evening, ``and after rethinking everything, I feel our 
agreement is fair and equitable.''
    Answer. Yes. He was very angry with me when I--I can't remember if 
I mailed him my resignation letter or if he was in town and I gave it 
to him and he read it. But either way, when he heard that I was 
quitting, that I wanted the money that he owed me, he was furious, and 
so I am sure that is what that was referring to, sorry about the way 
our conversation went, because he was very angry.
    Question. Did you have an argument with him?
    Answer. Yeah. It was a very difficult conversation for me to have.
    Question. Okay. Let me mark that letter as Exhibit GR-26.
    [Ratliffe Deposition Exhibit No. GR-26 was marked for 
identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Let me hand you another letter, July 18, 1995, letter 
that you also wrote to Johnny.
    Answer. Okay.
    Question. I will just read it real quick. As we discussed 
yesterday, I am faxing you our agreement in writing. I would appreciate 
your sending me today 2 months' salary and the $4,000 that you said 
would come from your personal account. Then it continues. What 
agreement in writing are you referring to there?
    Answer. I think this is it. He wanted me to send in writing what--
--
    Question. Let me show you something else produced today. Could that 
be the agreement?
    Answer. No, this came afterwards.
    Question. Let's----
    Ms. Amerling. What is that?
    Ms. Safavian. That is a July 20, 1995 letter. Let's stick with the 
July 18th letter for a moment. You were explaining there was an 
agreement?
    Answer. This is it.
    Question. This is it. Okay. That he was going to send you two 
months salary?
    Answer. It must have been in the $4,000 would be--two months salary 
and 4,000. I think that $4,000 was that would be other things that he 
needed to reimburse me for, clothing allowance. I don't know if the 
Morton stuff was in that. It must have tallied up to about that amount. 
Maybe July rent. I don't know. My guess is that it would be he owed me 
reimbursement money. I am sure that is what that is.
    Question. Did you seek legal representation in this matter?
    Answer. Unfortunately, I didn't.
    Question. You did----
    Answer. Not.
    Question. How did the two of you come to this agreement of 2 months 
severance pay and he would reimburse you the $4,000?
    Answer. That was just me.
    Question. That was just you. He agreed to that?
    Answer. Eventually, yes.
    Question. Do you feel now that, you know, that you didn't get 
everything that was owed to you from Johnny Chung?
    Answer. There is a whole chapter. I mean, Johnny was a pain. I was 
then in--I mean, if you are asking what I really wanted out of the 
agreement, like this was a negotiation. What I really would have wanted 
was the entire year's lease paid for. It was basically because of him 
that I had to enter into this leasing agreement. It was $1,000 for rent 
is not the amount of rent that I would normally pay for, if I had a 
normal job. It was a one-bedroom apartment, so I had to end up getting 
roommates and basically cleaning up a mess that he had created in my 
life. To be done with things, I was fine about this, about what the 
negotiation we came to was.
    Question. Let me mark that as GR-27.
    [Ratliffe Deposition Exhibit No. GR-27 was marked for 
identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Do you still have the July 20th letter that I handed you? 
It is right here. Let's take a look at that right now. It is a letter 
from Johnny to you dated July 20th. Also attached to it is a release 
agreement, it looks like. Can you tell me a little bit about this?
    Answer. I never signed it.
    Question. The release you mean?
    Answer. Anything. This came to me, and I looked at it, and I just 
never signed it. I was just going on with my life.
    Question. What did he want you to release him from?
    Answer. I think, I haven't read this, I thought it was basically 
something about how I am not going to ask him for any more money. 
Johnny was very sensitive about his money, and actually almost 
paranoid, in my opinion, about people trying to use him for his money. 
Imagine that. And he was very disturbed with my behavior and thinking 
that I was trying to--something about swindle money out of him or 
something along those lines, when he actually owed me like $4,000 or 
so. I haven't read this recently, but that is sort of what I remember.
    Question. The agreement says ``release, acquit and forever 
discharge Automated Intelligence Systems, Incorporated, and Johnny 
Chung.'' There is a whole paragraph on it. You didn't sign this 
agreement though?
    Answer. No.
    Question. And he didn't come back later?
    Answer. I never heard from him.
    Question. You never heard from him again once you got the checks?
    Answer. I ran into him once. That has been my only contact with 
him.
    Question. When was that?
    Answer. At the Democratic Convention in Chicago, like a year later.
    Question. How did that go?
    Answer. It was weird. But he was just walking down the hall. I said 
hello, Mr. Chung. He was fine. He showed me another picture of another 
kid he has, and it was a fairly brief conversation. He asked me what I 
was doing, and I said fund-raising, and he laughed and that was it.
    Question. Let me make this July 20th letter with the release 
attached GR-28.
    [Ratliffe Deposition Exhibit No. GR-28 was marked for 
identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Can you tell me briefly, you mentioned earlier you met 
Irene Wu out in California. What did she do for Johnny Chung?
    Answer. She seemed sort of like a secretary, assistant, right-hand 
person. I don't know what she did for him business-wise, because I 
wasn't really involved in any of that. She did like the dinner 
reservations there and worked for the travel agencies in getting all 
the plane tickets. I think she worked a lot with the schedules over 
there.
    Question. What do you mean by over there?
    Answer. In China, in setting up that sort of thing. And I believe 
Irene had come to Washington on some occasion and like was the, you 
know, his assistant to help out with the chaperoning and that I--that 
way, I think.
    Question. You mentioned earlier an Art L-I-A-N-G.
    Answer. Yes.
    Question. What did he do for Johnny Chung?
    Answer. I forget what his title was. Some sort of chief of staff. I 
think Art actually had a real job with the business part, sales of some 
sort. But Art really liked all the prestige of the political arena, so 
I think Johnny would kind of like throw these carrots at him or let him 
go on trips or whatever.
    Question. Have you heard of a Steven L-I-N?
    Answer. That doesn't sound familiar.
    Question. How about a----
    Answer. Wait. The little chief engineer that runs the fax machine, 
like, is behind this bulletproof glass like windowless room. If that is 
him, I met some little engineer.
    Ms. Amerling. You are not certain that is him?
    The Witness. I can't remember his name.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Does a N-A-C-H-I Lee or Nancy Lee mean anything to you?
    Answer. Nancy is the accountant, I think.
    Question. Where is she located at?
    Answer. In LA.
    Question. Did you meet her?
    Answer. Yes. I think I met her. She works nights, works like all 
night. She sends me my--the only reason why I had to contact her, like 
a year later was to get the information I needed for taxes.
    Question. So she was his accountant?
    Answer. To my knowledge.
    Question. How about a Steven H-U-A-N-G?
    Answer. Wait, that might--I don't remember the name of the 
engineer, if that was him or not. There might have been two of them 
actually.
    Question. Okay. How about a Michael Lynn SHIH, C-H-I-E-F?
    Answer. Shoot, they all sound familiar. I keep thinking about this 
one engineer guy. Somebody took me computer shopping and new a lot 
about computers, and we were supposed to buy a computer for the D.C. 
office, and was showing me all about different laptops and everything. 
I don't remember who it was.
    Question. Okay. Just a few other names. Ever heard of Peter C-H-A-
N-G?
    Answer. It sounds familiar, but----
    Question. How about Great Wall International Culture Company?
    Answer. No.
    Question. How about a Susan Chang?
    Answer. No.
    Question. Also known as S-H-U-C-H-E-N, Chang?
    Answer. No.
    Question. George H-A-R-A?
    Answer. I don't know which George I knew, the fat, chubby guy that 
tooled around.
    Question. How about Ernest Lee?
    Answer. That doesn't sound familiar.
    Question. Larry L-I-O-U?
    Answer. I never new any Larry.
    Question. Okay. How about a S-H-I-H, H-U-N-G, Young?
    Answer. No.
    Question. Any knowledge of and West Environmental Group?
    Answer. No.
    Question. Professor Q-G-G-E-P-I-N-G.
    Answer. No.
    Question. George Tan?
    Answer. It sounds familiar. I don't know.
    Question. And the last name, H-U-I-Y-U-A-N, the last name, Y-A-O?
    Answer. That doesn't sound familiar. But you are missing one, Tina.
    Question. Tina who?
    Answer. I don't know her name.
    Question. Was she an employee?
    Answer. Yes, to my knowledge.
    Question. Do you know what she did for him?
    Answer. The same sort of stuff as Irene, sort of PR secretary, 
whatever. Tina actually--Tina told me some stuff at the end now that I 
just remember. When I was thinking of quitting, and like at that point 
obviously I didn't know who I could trust anymore, and wasn't really 
saying much to people. But I forget where Johnny met Tina. I don't know 
if he brought her over from China or what.
    Tina had some sort of bad situation with a husband and Johnny sort 
of bailed her out from that. I don't know if he was like--I don't know. 
Johnny told me all this once about Tina. Then when I was in China, I 
had this translator that helped me out a lot, that Johnny said he was 
going to hire her as his translator. Any time he came to China, she was 
going to have a job translating for whoever needed it. She was excited. 
She traveled a long ways to come to Beijing away from her family to 
translate for me. I think Tina knew her somehow. It was like a sister 
of a friend of her's from going to school in China.
    Tina told me in the end Johnny was like scamming this girl, said 
that he didn't hire her. She didn't take some other opportunity that 
she was going to. I don't know, it was something along these lines. 
This was like just confirming all of my wanting to get out of working 
for him.
    But that was Tina.
    Question. Okay. Did I forget any other AISI employee that you can 
recall?
    Answer. [Negative nod.]
    Question. Is that a no?
    Answer. No.
    Ms. Safavian. Okay. I am almost done. If you can believe that. Let 
me just cover a few other brief things with you.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Do you know who Harry Wu is?
    Answer. Oh, the guy that was detained.
    Question. Over in China?
    Answer. Yes.
    Question. Do you know about Johnny Chung's efforts to help Harry 
Wu?
    Answer. Not specifically, but it doesn't surprise me. Johnny told 
me something about someone we had dinner with in China, and it kind of 
freaked me out. I don't know if it was--I don't know if he said we had 
dinner with one of the guys that was involved with ordering the tanks 
at Tiananmen or one of the guys that was in charge of detaining Harry 
Wu or something like that, but I didn't know Johnny was trying to--I 
don't remember him working on the Harry Wu thing.
    Question. This was when you were in China in April?
    Answer. Yes.
    Question. Let me hand you this document. It is dated 7-25-95. I 
know that you may have--I don't know if you had completely ceased 
working with Johnny at that time?
    Answer. Yes.
    Question. But this is an AISI fax cover page that he--it looks like 
Irene sent to Betty Currie in the White House. Johnny Chung was asking 
for President Clinton to write him a credential letter for his trip to 
China.
    You can just flip through the pages. It starts with EOP 005053 and 
goes through to 57. As you can see, 55 is a letter from Bill Clinton 
dated October 3, 1994, which is the one Johnny is referencing in this 
fax cover page. This is one for Taiwan. He wanted one for China. The 
last page, 57, is one from Don Fowler discussing Johnny Chung's efforts 
to build a bridge between the people of China and the United States.
    Do you have any knowledge of his efforts to get these credential 
letters?
    Answer. No, I didn't. I wasn't working with him then.
    Question. He didn't previously before you left him mention how he 
wanted to help free Harry Wu?
    Answer. He might have talked about Harry Wu, because it was in the 
news a lot. I remember him telling me that I had to like keep up on 
current events and that sort of thing. Johnny was always trying to get 
Don Fowler, the First Lady, or anyone over there, I mean, it was this 
whole bridging thing. But I don't remember specifically. I mean, Johnny 
never said to me, I want you to write a letter requesting help for 
Harry Wu, not that I remember.
    Question. Okay. Let me mark this group of documents as GR-29, 
Exhibit GR-29.
    [Ratliffe Deposition Exhibit No. GR-29 was marked for 
identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. So after you stopped working for Johnny Chung, you were 
back as a volunteer in the White House?
    Answer. Yes.
    Question. You had done that on and off while working for Johnny 
Chung?
    Answer. Yes.
    Question. Was that then your full-time--what kept you occupied 
First Lady time?
    Answer. I worked there the month of August, and then I started a 
new job in September, Campus Green Vote.
    Question. Okay. And then how much time did you put in as a 
volunteer in the White House?
    Answer. Hardly any then.
    Question. Hardly any.
    Answer. I worked at Campus Green Vote from September until I think 
it was like December 4th. Part of that time I was in Seattle working on 
an environmental referendum. Then I left for Boston December 4th. So I 
was pretty much tied up with Campus Green Vote stuff.
    Question. Okay. Did you ever see Johnny Chung in the First Lady's 
office after you quit working for him when you were a volunteer?
    Answer. Oh, you mean did he come----
    Question. Did you ever see him visiting the First Lady's office?
    Answer. He might have come back. I don't know if--I don't know if I 
was in the office then when he did. I remember it being kind of like 
touchy, either knowing he was going to come, I don't know if they had 
me run some errand or something. I can't remember exactly.
    Question. Okay. Do you recall Johnny sending Evan Ryan and Maggie 
Williams flowers?
    Answer. Yeah. Vaguely, now that you bring it up.
    Question. Let me hand you two documents. These are telephone 
message slips again.
    Answer. Uh-huh.
    Question. And I think I may have them in reverse order. If you will 
take a look at EOP 509073 and 4, the message slip is to Evan. It is 
dated either 9-27 or 29. It is hard to tell if it is a 9, a message 
from Johnny Chung. It says he is sending two baskets of flowers; one 
for Maggie, one for you.
    Answer. Um-hmm.
    Question. Then the next document I hand you is EOP 059058 through 
59. It is another message slip to Evan dated 10-20-95. He called again, 
and on the message slip says sending flowers to you and Maggie.
    Do you recall them receiving these two sets of flowers from Johnny 
Chung?
    Answer. I don't see how I would have. I think by that time I was 
working at Campus Green Vote. He must have brought them flowers 
sometime when I was working for him or something.
    Question. You are thinking of previous times?
    Answer. Certainly not the October 1, I wouldn't have known anything 
about. And I am quite sure I started Campus Green Vote by that time in 
September. So I wouldn't have been there for that. The only thing I 
heard about I thought after like I left the White House was that Johnny 
came for a visit once and for somehow or some reason had to be removed 
by, I don't know if it was Secret Service, security or something. Like 
he showed up and he called, I think he wanted to meet with Maggie and 
Evan said she was busy. She didn't have any time available, and I don't 
know if he got cleared in from someone else or something, but he just 
showed up.
    Evan was angry, because she was out doing, I don't know, something, 
and came back and Johnny was like there in the office, and they had to 
ask him to leave. Something along those lines. Like he was not welcome.
    Question. Did Evan have to call the security or the police?
    Answer. I don't know what the specifics were. She wasn't the one 
that told me. There was this old lady volunteer that I kept up. She 
would tell me stuff like that.
    Question. You weren't present that day?
    Answer. No, no.
    Question. Do you recall when that was?
    Answer. It was after I left. I think in the fall maybe.
    Question. Of '95?
    Answer. I don't know exactly when it was.
    Question. Did you ever ask Evan about that incident?
    Answer. I might have. Something very casually, like, oh, I heard 
Johnny got kicked out of the office or something. Like I don't, we 
didn't sit down and have a serious talk about it that I remember.
    Question. Did either Evan, Ryan or Maggie Williams ever mention to 
you that Johnny sent us flowers?
    Answer. I don't remember that. We didn't really talk about that 
kind of stuff.
    Question. Let me just mark those telephone message slips we were 
discussing as Exhibit GR-30.
    [Ratliffe Deposition Exhibit No. GR-30 was marked for 
identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Just briefly going back to the Chinese delegation that 
was in the White House, in the First Lady's office in March of '95, 
were you--do you have any knowledge whether or not Evan, Ryan or Maggie 
Williams solicited a contribution from Johnny Chung?
    Answer. No.
    Question. Are you aware that Johnny Chung handed Maggie Williams a 
check to the DNC in the amount of $50,000?
    Answer. I think the only reason I know about that was because I 
read about it in the papers, but I don't remember that.
    Question. You had no prior knowledge of it before the newspaper 
articles?
    Answer. No.
    Question. No one ever talked about it in the First Lady's office?
    Answer. No. I mean, there was talk about Johnny and his money and 
Johnny contributing, definitely, but it was more Johnny the fund-raiser 
kind of context.
    Ms. Safavian. I believe that is all I have at the moment. Minority 
counsel will ask you some questions. I want to make sure I didn't miss 
anything.

                      EXAMINATION BY MS. AMERLING:

    Question. I want to start by thanking you for taking the time to 
talk with us today. You testified, I believe, that Johnny Chung wasn't 
fulfilling promises he had made to you.
    Answer. Yes.
    Question. Is that correct?
    Answer. Yes.
    Question. I would like to talk about his failure to fulfill 
promises to you a little bit more.
    Answer. Okay.
    Question. Now, I believe that you testified that while he paid you 
a salary, he did not fulfill other promises relating to reimbursing 
you. Is that correct?
    Answer. He reimbursed me eventually.
    Question. But there was a time when you were concerned because he 
did not fulfill his promises to reimburse you?
    Answer. Yes. Yes.
    Question. I want to turn to the July 11, 1995, letter that we have 
marked as Exhibit GR-25.
    Answer. Okay.
    Question. I want to turn to page 2. In the fourth paragraph up from 
the bottom of the document, it begins reflecting on unfulfilled 
promises.
    Answer. Yes.
    Question. Are you following me?
    Answer. Yes.
    Question. The letter mentions clothing allowance.
    Answer. Yes.
    Question. Did Mr. Chung make representations to you that he would 
provide some sort of clothing allowance to you?
    Answer. He said that I would be given $500 a month for a clothing 
allowance.
    Question. At the time of this letter, you believed he was not 
fulfilling that representation; is that accurate?
    Answer. I believe so. To the best of my memory, he had not 
reimbursed me for probably June and July. I know I had bought some 
clothes. Now I remember, because I thought I was going on this second 
China trip, so I was preparing for that, and so I needed reimbursements 
that I hadn't received.
    Question. You hadn't received them in accordance with the schedule 
he had represented he would pay you on?
    Answer. Yes. Well, he never--again, he was never specific in that 
way. It wasn't ever--that is why we were supposed to have this checking 
account, to my knowledge, so that for these allocations that he made, I 
would then go and withdraw it from there. Does that answer it?
    Mr. Zacks. Counsel, can I have one moment.
    [Discussion off the record.]

                      EXAMINATION BY MS. AMERLING:

    Question. Back on the record. This letter also references unpaid 
rent. Mr. Chung at this point, the point of the July 11 letter, also 
had not fulfilled his promise to you regarding rent?
    Answer. Yes.
    Question. This letter also references a restaurant bill. Mr. Chung 
at this point also had not fulfilled his promises to you regarding 
that?
    Answer. Correct.
    Question. Now, I believe you also testified that when you came back 
from your China trip, you found that the D.C. office didn't exist. Is 
that correct?
    Answer. Yes.
    Question. Is it fair to say he had made representations to you 
about the terms of your employment that he did not meet?
    Answer. As of what we have just discussed?
    Question. Yes.
    Answer. Definitely.
    Question. Would you say that Mr. Chung misrepresented the truth to 
you?
    Answer. Yes.
    Question. You also, I believe, testified that Mr. Chung always had 
a lot of hoopla going on that you had to sort through. When you said 
that, were you meaning, when you said ``sort through,'' were you 
meaning you had to sort through what was the truth and what wasn't the 
truth? Is that accurate?
    Answer. Yeah. Again, at the time I was fairly trusting and wasn't 
naturally that skeptical of him. What I really meant by ``sort 
through'' was who knows what Johnny was talking about, mansions, cars, 
flowers, dinners, trips. It is like okay, what are we doing today? What 
is happening here?
    It wasn't until pretty much that I wrote this letter, when it was 
like, okay, this guy is not fulfilling anything that he says. So it was 
like I just didn't believe him anymore at all.
    Mr. Zacks. Can I ask a point of clarification?
    Ms. Amerling. Yes.
    Mr. Zacks. Would it be fair to say that you consider Mr. Chung on 
reflection and in hindsight a dishonest individual? It is a yes-or-no 
question.
    The Witness. Yes.
    Mr. Zacks. Would it be fair to say you felt he took advantage of 
you and your naivete at that point in your life?
    The Witness. Yes.
    Mr. Zacks. Would it be fair to say that by and large, nearly 
everything he promised you did not come to fruition with regard to your 
employment?
    The Witness. Absolutely.
    Mr. Zacks. Would it be fair to say that he appeared to you to be--
how can I say this--a great exaggerator of the truth?
    The Witness. Yes.
    Mr. Zacks. Or lack of the truth with individuals?
    The Witness. Yes.
    Mr. Zacks. And would it be fair to say as far as you could tell, he 
tried to use everyone round him for his own purposes?
    The Witness. Yes.
    Mr. Zacks. Okay. Thanks. I just wanted to be clear on that.

                      EXAMINATION BY MS. AMERLING:

    Question. A few more questions. You had testified that when you 
were in China, I believe you testified, correct me if I am wrong, Mr. 
Chung was looking for office space, and you had suggested that 
particular office that had Chinese military outside would not be the 
best spot and that he agreed. Is that accurate?
    Answer. Yes.
    Question. And the next day, despite the conversation you had had 
with him, you heard him telling other people or another person that he 
was interested in that very office space. Is that accurate?
    Answer. The people that owned the office space.
    Question. Do you believe he was not telling the truth to that 
person?
    Answer. Yes, that is what I confronted him with. That was very 
uncomfortable, working with somebody that operated like that.
    Question. So based on your experience with Mr. Chung, would you say 
that you would not rely on his word?
    Answer. I couldn't.
    Question. Based on your experiences with Mr. Chung, would you say 
his word is not credible?
    Answer. Yes.
    Ms. Amerling. I don't have any further questions.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Just a couple follow-ups from the documents. Let me just 
show you, this is something else that you produced today, it looks like 
a calendar. If you could tell me what that is, please?
    Answer. This was a handwritten schedule for the China trip that I 
didn't have involvement with, other than showing up at things. I don't 
even know how closely this was followed. I think this was made up sort 
of towards the beginning of the trip, and I wasn't involved with this 
schedule.
    Question. Does looking at that and some of the names that are 
listed help refresh your recollection as to some of the people that you 
met that you mentioned earlier, and you just couldn't think of their 
names?
    Answer. I remember meeting Vice Premier Lee. The China 
Petrochemical Corporation. The office space. Oh, Charlie Parish. I 
forgot about him.
    Question. Charlie Parish?
    Answer. Yes.
    Question. Who is he?
    Answer. He worked at the American Embassy, and Johnny bugged him, 
too. I saw Charlie there, and he came to D.C., and we had dinner with 
him in D.C., too.
    Question. Do you know what he bugged him about when he was over in 
China?
    Answer. Charlie tried to be nice about it, but he said Johnny 
called him and was trying to get in or whatever, and Charlie was trying 
to do other things or get rid of him, and ended up, like everyone, 
letting Johnny in and, I don't know if Johnny was working with him on 
visas or something. I don't know.
    Question. Let me just mark that--do you recognize anything else? 
Does that help you with anybody else?
    Answer. Not really.
    Question. Okay. Let me just mark that as Exhibit GR-31.
    [Ratliffe Deposition Exhibit No. GR-31 was marked for 
identification.]
    Mr. Zacks. Earlier when you had referenced a $50,000 payment by Mr. 
Chung to DNC, what was the date of that check or the date it was 
tendered?
    Ms. Safavian. I can put into the record an L.A. Times article dated 
July 27, 1997, that sets forth Johnny Chung's version of the delegation 
and the First Lady's office, and the White House tour, the mess and the 
photo with the First Lady and the $50,000 check that he handed to 
Maggie Williams.
    Mr. Zacks. Okay.
    Ms. Safavian. Would you like me to make that an exhibit?
    Mr. Zacks. Not necessarily. I am happy to just review it.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Let me just show you another thing real quick. This is 
something else you produced. It looks like pages of copies of business 
cards and a printout of names and addresses. Let me hand that to you. 
Can you explain to me what that is?
    Answer. It was something Johnny gave to me with the rest of his 
correspondence. He kept his business cards in this plastic-covered 
thing, and he just made Xeroxed copies of it. I think it was most of 
his like D.C. or political contacts, I mean that he considered his 
contacts.
    Question. Was this like for you to keep and if you needed to 
contact these people? Why do you have possession of this?
    Answer. It wasn't really discussed. I think it must have been in 
the stack he gave me of all of this correspondence from before I 
started working for him until after.
    Question. So you did not put that together for him?
    Answer. No. He has this.
    Question. That was already done?
    Answer. Yes.
    Question. Okay. Let me make that Exhibit GR-32.
    [Ratliffe Deposition Exhibit No. GR-32 was marked for 
identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Then, lastly, also in the documents you brought with you 
today, there are a couple of letters. I am just going to kind of group 
them together. There is an October 3, 1994, letter from Bill Clinton to 
Johnny Chung, an October 13, 1994, letter to Johnny Chung from Al Gore, 
a March 14, 1995, letter to the Honorable Zheng Hongye, the Chairman of 
the China Chamber of International Commerce, from Don Fowler.
    Let me hand these three letters to you. I am just interested in why 
you have possession of those three letters, since they were before the 
date of your employment with Johnny Chung?
    Answer. When I went to LA, Johnny just handed me this stack of 
papers, literally in a stack, of political correspondence that he had, 
that was either DNC-related or whatever, and I kept it in this stack of 
stuff.
    Question. Did he ever tell you what he wanted you to do with it?
    Answer. No. It was just like, here.
    Question. Did you ever do anything with it?
    Answer. No.
    Ms. Safavian. Okay. Let me just group those three letters together 
and make those Exhibit GR-33.
    [Ratliffe Deposition Exhibit No. GR-33 was marked for 
identification.]
    Ms. Safavian.
    Question. Let me show you what I just came across. You were 
mentioning earlier you thought in the brochures he was handing out in 
China there was a group of letters. I just handed you a group of 
letters that you produced this morning. Could you tell me, is that what 
you were referencing earlier?
    Answer. Yes.
    Question. And this grouping is what he would--you tell me. What did 
he do with these letters?
    Answer. I don't know about this particular packet. I wasn't 
involved with this. The packets I know about are the color-copied ones 
that--I didn't have anything to do with them actually except make sure 
I had enough to hand out to people when we were in China for that day's 
meetings. So as far as putting them together or anything like that----
    Mr. Zacks. The question was earlier you indicated that during the 
China trip you recalled a packet also being disseminated, either in 
conjunction with those or independently, that were braggadocio letters 
from Al Gore, the President, other dignitaries, to impress officials. 
The question was, do you recognize these letters as those documents you 
earlier referred to?
    The Witness. I don't remember packets in China being handed out 
that were--that letters were included with. I only in my--in the last 
48 hours in preparing these materials for today, saw this packet and 
flipped through it and realized that he included letters.
    To the best of my ability, I think, AISI and whatever else this 
says, it is a company profile sort of thing that he would have handed 
out to people, but I didn't----
    Mr. Zacks. You don't have personal knowledge that he did?
    The Witness. Correct.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. I thought you said earlier that you do recall there was 
some package like that when you were in China.
    Answer. No.
    Question. That is not the case.
    Answer. No.
    Ms. Safavian. Since we referenced that, let me mark that GR-34.
    [Ratliffe Deposition Exhibit No. GR-34 was marked for 
identification.]
    Ms. Safavian. I think I am done. That is all that I have. Do you 
have anything further?
    Ms. Amerling. I don't have any further questions.
    Ms. Safavian. Thank you very much.
    Mr. Zacks. I would only state on the record then that A, I would 
make a formal request for a copy of the transcript, if you would be so 
kind to forward it to my office, as opposed to us going to Washington 
to review it.
    Ms. Safavian. Like I mentioned earlier, we can send you a 
confidentiality letter which you both have to sign and then we can send 
out the transcript for you to review.
    Mr. Zacks. Secondly, and then just to confirm, we are going to give 
you certain brochures and cards and the like, that are originals, and 
you have agreed that you will copy those and send them back to my 
office.
    Ms. Safavian. That is correct. What I was planning on taking are 
the two AISI color brochures, a stack of business cards, and I can 
count these up real quick.
    My quick count, I believe there are 69 business cards, that I was 
also planning on taking with me. Additionally, there were some of the 
brochures that you brought back from China that we had already 
mentioned on the record that I was also going to take back with me. 
That was it.
    Mr. Zacks. Okay. Then just for a final point of clarification, 
earlier in the preamble or the instruction portion of your questioning, 
and I just want to be clear, is the area of my client not discussing 
her testimony here today, is that an informal request by Congress, or 
does that request carry the rule of law much like 6(e) does with a 
grand jury in Federal court? Is she by law prohibited and/or myself 
from discussing her testimony here today?
    Ms. Safavian. This deposition was taken in executive session, which 
means that it is not discussed publicly with anyone outside of the 
committee and/or Members of Congress.
    Mr. Zacks. Is that a matter of protocol or law? That is my 
question.
    Ms. Safavian. That is under the committee rules. With regard to you 
and your client, I was going to say I don't----
    Ms. Amerling. It is my understanding that is a request the Majority 
makes.
    Ms. Safavian. I believe it is voluntary on your point. My only 
point is we do not release this deposition unless the committee votes 
to release it. It stays under executive session.
    Ms. Amerling. ``We'' meaning the committee.
    Ms. Safavian. Is that your understanding of it? Sam.
    Ms. Amerling. That is my understanding of how your request, of what 
your request means.
    Mr. Zacks. Okay. I am clear. Thank you.
    Ms. Safavian. Okay. That is all. Thank you.
    [Whereupon, at 4:45 p.m., the deposition was concluded.]

    [The exhibits referred to follow:]

    [GRAPHIC] [TIFF OMITTED] T5667.318
    
    [GRAPHIC] [TIFF OMITTED] T5667.319
    
    [GRAPHIC] [TIFF OMITTED] T5667.320
    
    [GRAPHIC] [TIFF OMITTED] T5667.321
    
    [GRAPHIC] [TIFF OMITTED] T5667.322
    
    [GRAPHIC] [TIFF OMITTED] T5667.323
    
    [GRAPHIC] [TIFF OMITTED] T5667.324
    
    [GRAPHIC] [TIFF OMITTED] T5667.325
    
    [GRAPHIC] [TIFF OMITTED] T5667.326
    
    [GRAPHIC] [TIFF OMITTED] T5667.327
    
    [GRAPHIC] [TIFF OMITTED] T5667.328
    
    [GRAPHIC] [TIFF OMITTED] T5667.329
    
    [GRAPHIC] [TIFF OMITTED] T5667.330
    
    [GRAPHIC] [TIFF OMITTED] T5667.331
    
    [GRAPHIC] [TIFF OMITTED] T5667.332
    
    [GRAPHIC] [TIFF OMITTED] T5667.333
    
    [GRAPHIC] [TIFF OMITTED] T5667.334
    
    [GRAPHIC] [TIFF OMITTED] T5667.335
    
    [GRAPHIC] [TIFF OMITTED] T5667.336
    
    [GRAPHIC] [TIFF OMITTED] T5667.337
    
    [GRAPHIC] [TIFF OMITTED] T5667.338
    
    [GRAPHIC] [TIFF OMITTED] T5667.339
    
    [GRAPHIC] [TIFF OMITTED] T5667.340
    
    [GRAPHIC] [TIFF OMITTED] T5667.341
    
    [GRAPHIC] [TIFF OMITTED] T5667.342
    
    [GRAPHIC] [TIFF OMITTED] T5667.343
    
    [GRAPHIC] [TIFF OMITTED] T5667.344
    
    [GRAPHIC] [TIFF OMITTED] T5667.345
    
    [GRAPHIC] [TIFF OMITTED] T5667.346
    
    [GRAPHIC] [TIFF OMITTED] T5667.347
    
    [GRAPHIC] [TIFF OMITTED] T5667.348
    
    [GRAPHIC] [TIFF OMITTED] T5667.349
    
    [GRAPHIC] [TIFF OMITTED] T5667.350
    
    [GRAPHIC] [TIFF OMITTED] T5667.351
    
    [GRAPHIC] [TIFF OMITTED] T5667.352
    
    [GRAPHIC] [TIFF OMITTED] T5667.353
    
    [GRAPHIC] [TIFF OMITTED] T5667.354
    
    [GRAPHIC] [TIFF OMITTED] T5667.355
    
    [GRAPHIC] [TIFF OMITTED] T5667.356
    
    [GRAPHIC] [TIFF OMITTED] T5667.357
    
    [GRAPHIC] [TIFF OMITTED] T5667.358
    
    [GRAPHIC] [TIFF OMITTED] T5667.359
    
    [GRAPHIC] [TIFF OMITTED] T5667.360
    
    [GRAPHIC] [TIFF OMITTED] T5667.361
    
    [GRAPHIC] [TIFF OMITTED] T5667.362
    
    [GRAPHIC] [TIFF OMITTED] T5667.363
    
    [GRAPHIC] [TIFF OMITTED] T5667.364
    
    [GRAPHIC] [TIFF OMITTED] T5667.365
    
    [GRAPHIC] [TIFF OMITTED] T5667.366
    
    [GRAPHIC] [TIFF OMITTED] T5667.367
    
    [GRAPHIC] [TIFF OMITTED] T5667.368
    
    [GRAPHIC] [TIFF OMITTED] T5667.369
    
    [GRAPHIC] [TIFF OMITTED] T5667.370
    
    [GRAPHIC] [TIFF OMITTED] T5667.371
    
    [GRAPHIC] [TIFF OMITTED] T5667.372
    
    [GRAPHIC] [TIFF OMITTED] T5667.373
    
    [GRAPHIC] [TIFF OMITTED] T5667.374
    
    [GRAPHIC] [TIFF OMITTED] T5667.375
    
    [GRAPHIC] [TIFF OMITTED] T5667.376
    
    [GRAPHIC] [TIFF OMITTED] T5667.377
    
    [GRAPHIC] [TIFF OMITTED] T5667.378
    
    [GRAPHIC] [TIFF OMITTED] T5667.379
    
    [GRAPHIC] [TIFF OMITTED] T5667.380
    
    [GRAPHIC] [TIFF OMITTED] T5667.381
    
    [GRAPHIC] [TIFF OMITTED] T5667.382
    
    [GRAPHIC] [TIFF OMITTED] T5667.383
    
    [GRAPHIC] [TIFF OMITTED] T5667.384
    
    [GRAPHIC] [TIFF OMITTED] T5667.385
    
    [GRAPHIC] [TIFF OMITTED] T5667.386
    
    [GRAPHIC] [TIFF OMITTED] T5667.387
    
    [GRAPHIC] [TIFF OMITTED] T5667.388
    
    [GRAPHIC] [TIFF OMITTED] T5667.389
    
    [GRAPHIC] [TIFF OMITTED] T5667.390
    
    [GRAPHIC] [TIFF OMITTED] T5667.391
    
    [GRAPHIC] [TIFF OMITTED] T5667.392
    
    [GRAPHIC] [TIFF OMITTED] T5667.393
    
    [GRAPHIC] [TIFF OMITTED] T5667.394
    
    [GRAPHIC] [TIFF OMITTED] T5667.395
    
    [GRAPHIC] [TIFF OMITTED] T5667.396
    
    [GRAPHIC] [TIFF OMITTED] T5667.397
    
    [GRAPHIC] [TIFF OMITTED] T5667.398
    
    [GRAPHIC] [TIFF OMITTED] T5667.399
    
    [GRAPHIC] [TIFF OMITTED] T5667.400
    
    [GRAPHIC] [TIFF OMITTED] T5667.401
    
    [GRAPHIC] [TIFF OMITTED] T5667.402
    
    [GRAPHIC] [TIFF OMITTED] T5667.403
    
    [GRAPHIC] [TIFF OMITTED] T5667.404
    
    [GRAPHIC] [TIFF OMITTED] T5667.405
    
    [GRAPHIC] [TIFF OMITTED] T5667.406
    
    [GRAPHIC] [TIFF OMITTED] T5667.407
    
    [GRAPHIC] [TIFF OMITTED] T5667.408
    
    [GRAPHIC] [TIFF OMITTED] T5667.409
    
    [GRAPHIC] [TIFF OMITTED] T5667.410
    
    [GRAPHIC] [TIFF OMITTED] T5667.411
    
    [GRAPHIC] [TIFF OMITTED] T5667.412
    
    [GRAPHIC] [TIFF OMITTED] T5667.413
    
    [GRAPHIC] [TIFF OMITTED] T5667.414
    
    [GRAPHIC] [TIFF OMITTED] T5667.415
    
    [GRAPHIC] [TIFF OMITTED] T5667.416
    
    [GRAPHIC] [TIFF OMITTED] T5667.417
    
    [GRAPHIC] [TIFF OMITTED] T5667.418
    
    [GRAPHIC] [TIFF OMITTED] T5667.419
    
    [GRAPHIC] [TIFF OMITTED] T5667.420
    
    [GRAPHIC] [TIFF OMITTED] T5667.421
    
    [GRAPHIC] [TIFF OMITTED] T5667.422
    
    [GRAPHIC] [TIFF OMITTED] T5667.423
    
    [GRAPHIC] [TIFF OMITTED] T5667.424
    
    [GRAPHIC] [TIFF OMITTED] T5667.425
    
    Mr. Burton. Would the witnesses please take their seats. 
The other members of the committee are on their way back, at 
least some of them are. And we will start with Mr. Bennett 
doing his half hour of questioning. But first I would like to 
introduce our guests; Nancy Hernreich--is that correct?
    Ms. Hernreich. Hernreich.
    Mr. Burton. Deputy Assistant to the President for 
Appointments and Scheduling; Kelly Crawford, former staff 
assistant to Ms. Hernreich. And Carol----
    Ms. Khare. Khare.
    Mr. Burton. Carol Khare, former assistant to Don Fowler at 
the DNC; and Ceandra Scott----
    Ms. Scott. Ceandra.
    Mr. Burton. Ceandra, former staff member at the Democratic 
National Committee. Would you rise so I can swear you in?
    [Witnesses sworn.]
    Mr. Burton. Be seated.
    We will start off with Mr. Bennett questioning for 30 
minutes and then we will go to the minority.

    STATEMENTS OF NANCY HERNREICH, DEPUTY ASSISTANT TO THE 
 PRESIDENT FOR APPOINTMENTS AND SCHEDULING, ACCOMPANIED BY BOB 
CEARLY; KELLY CRAWFORD, FORMER STAFF ASSISTANT TO MS. HERNRICH, 
 ACCOMPANIED BY DAVID WILSON; CAROL KHARE, FORMER ASSISTANT TO 
  THE CHAIRMAN, DEMOCRATIC NATIONAL COMMITTEE, ACCOMPANIED BY 
                          EVAN WERBEL

    Mr. Bennett. Thank you, Mr. Chairman. In light of some of 
the time constraints this afternoon, and allowing appropriate 
time for Members----
    Mr. Burton. Pardon me. Do any of you have opening 
statements you would like to read into the record, or do you 
want to go ahead and start? Mr. Bennett.
    Mr. Bennett. I will try not to take the full 30 minutes.
    Just for the record, in terms of--you are represented by 
very able counsel here today. Ms. Khare you are represented by, 
I believe, Mr. Neil Eggleston; is that correct?
    Ms. Khare. Evan Werbel is with me here right now.
    Mr. Bennett. You work with Mr. Eggleston's office? Nice to 
have you, sir. And, Ms. Scott, you are represented by Mr. Judd 
Best, Judah Best; is that correct?
    Ms. Scott. That's correct.
    Mr. Bennett. And, Ms. Hernreich, you are represented by Bob 
Cearly who is in from Arkansas; is that correct?
    Ms. Hernreich. That's correct.
    Mr. Bennett. Mr. Cearly, it is nice to see you.
    And finally, Ms. Crawford, you are represented by David 
Wilson. Mr. Wilson, it is nice to see all four of you. If at 
any time there are questions that you want to refer to your 
counsel, don't hesitate to seek their advice.
    Ms. Khare, you worked in some capacity with Mr. Fowler, Don 
Fowler, the former Democratic National Committee chairman for, 
I guess, the last 20 years; is that correct?
    Ms. Khare. That's right.
    Mr. Bennett. And are you still employed with Mr. Fowler?
    Ms. Khare. Yes, I am.
    Mr. Bennett. You joined his staff at the DNC when he was 
chairman of DNC in January 1995?
    Ms. Khare. That's right.
    Mr. Bennett. And worked there with him until January of 
this year?
    Ms. Khare. Yes.
    Mr. Bennett. And, Ms. Scott, you formerly worked with the 
Democratic National Committee; is that correct?
    Ms. Scott. That's correct.
    Mr. Bennett. If you would just try to swing that mic, I 
apologize we only have three microphones for four people.
    What is your present employment, Ms. Scott?
    Ms. Scott. I am temporarily working for the Democratic 
Congressional Campaign Committee.
    Mr. Bennett. Ms. Hernreich, you currently work as the 
Deputy Assistant to President Clinton?
    Ms. Hernreich. That's correct. And let me correct my title. 
The chairman indicated that it was for appointments and 
scheduling and that was my original title, but my title now is 
Deputy Assistant to the President and Director of Oval Office 
Operations.
    Mr. Bennett. And how long have you worked in the White 
House?
    Ms. Hernreich. I have been there since January 20, 1993.
    Mr. Bennett. The entire term of the Clinton administration.
    Ms. Hernreich. Yes.
    Mr. Bennett. And, Ms. Crawford, you formerly were an 
assistant to Mrs. Hernreich; is that correct?
    Ms. Crawford. That is correct.
    Mr. Bennett. And you now work at the Department of 
Treasury?
    Ms. Crawford. That is correct.
    Mr. Bennett. Ms. Khare, in your deposition before this 
committee, you testified that your first contact with Johnny 
Chung was in March 1995.
    Ms. Khare. That's right.
    Mr. Bennett. Did you have any contact with him prior to 
that time? Had you ever heard his name before?
    Ms. Khare. Not that I recall.
    Mr. Bennett. Exactly what was the nature of your first 
contact with Mr. Johnny Chung in March 1995?
    Ms. Khare. He telephoned the chairman's office at the DNC. 
I was given the call. I don't remember that he asked for me 
specifically but I was given the call. He identified himself as 
Johnny Chung. He said, I'm a friend of the First Lady's.
    Mr. Bennett. Where was he calling from at that time?
    Ms. Khare. He was calling from the First Lady's office.
    Mr. Bennett. From Mrs. Clinton's office?
    Ms. Khare. He said the First Lady's office. Now, I did not 
take that to mean he was in her office. He was somewhere in her 
complex of offices.
    Mr. Bennett. But he did indicate he was calling from Mrs. 
Clinton's office?
    Ms. Khare. Yes, he did.
    Mr. Bennett. Exactly what was the nature of the 
conversation you had with him at that time?
    Ms. Khare. He told me he was over there, he was a friend of 
the First Lady. He said, I have some important Chinese 
businesspeople with me. We would like to go to the radio 
address on--I believe that it was going to be on Saturday, 
sometimes they do that on Friday. And he said, Maggie Williams 
said that she cannot get us into the radio address, but that 
maybe the chairman's office could do that.
    Mr. Bennett. So according to his telephone call, he 
indicated that Ms. Williams, from whom we heard earlier today, 
had suggested that you call Mr. Fowler?
    Ms. Khare. He said that she had told him that perhaps the 
chairman's office could get him in. And I don't believe that he 
asked for Mr. Fowler when he called.
    Mr. Bennett. Did you ever put him in touch with Mr. Fowler?
    Ms. Khare. No, I did not.
    Mr. Bennett. What step--did you talk to Ms. Williams at 
this time?
    Ms. Khare. No, I did not.
    Mr. Bennett. What steps did you take, Ms. Khare, with 
respect to his desire to get into President Clinton's radio 
address that Saturday? This was, I think, Thursday, March 9 or 
Friday, March 10.
    Ms. Khare. I'm sorry; I don't know which day it was prior 
to the radio address.
    Mr. Bennett. What steps did you take to get Mr. Chung and 
his friends into the radio address?
    Ms. Khare. I told him that I did not know whether the 
chairman's office could get people into the radio address or 
not. You understand, I had only been there a few weeks; this 
was the first that I knew that people could go to the radio 
address. I did not know that anybody could go to the radio 
address. And so----
    Mr. Bennett. I'm not sure that just anybody can go to the 
radio address.
    Ms. Khare. Well, I didn't know that anybody was in the room 
other than the President when they did the radio address. So I 
told him that I would find out what we could do, and I would 
call him back. And he gave me the telephone number where he 
was, and I went away to--walked out into the reception area of 
the office where several people were, all of whom had been at 
the DNC longer than I was and knew a lot more than I did about 
this kind of thing. And I asked if anybody there knew whether 
or how we could get somebody into the radio address.
    Mr. Bennett. At that point in time, did he indicate to you 
the names of the individuals he was seeking to get into the 
radio address?
    Ms. Khare. I don't recall that he did. He said that he had 
Chinese businesspeople with him. I'm sure that at some point we 
had to get the names, but I don't remember that I took those 
names down then.
    Mr. Bennett. Did Evan Ryan, who--I believe her deposition 
transcript indicated that she procured passport numbers for 
these individuals. Did you talk to Mrs. Ryan in First Lady 
Hillary Clinton's office at that time?
    Ms. Khare. Didn't talk to anyone in the First Lady's 
office. When I called Mr. Chung back to say that we had 
arranged for him to go to the radio address, I just called and 
whoever answered the telephone said Office of the First Lady, 
and I asked to speak with him. I did not ask for anyone.
    Mr. Bennett. Did you have any interaction with Evan Ryan 
with respect to the passport numbers of these six individuals?
    Ms. Khare. No, I did not. If I did, I don't recall that.
    Mr. Bennett. Exactly what did you do to arrange for Mr. 
Chung and his friends to get into the Oval Office to be part of 
the radio address?
    Ms. Khare. When I went into our outer office and asked if 
anyone knew how you made arrangements like that, Ms. Scott, as 
I recall, indicated to me that she knew someone at the White 
House she could call about that. And I asked her to do that and 
went back into my office.
    Mr. Bennett. Ms. Scott, did you in fact make the telephone 
call to the White House?
    Ms. Scott. Yes, I did.
    Mr. Bennett. Whom did you call with respect to getting 
Johnny Chung and the delegation of Chinese representatives into 
the Oval Office, into the radio address?
    Ms. Scott. I'm not sure, but I believe I called the First 
Lady's office.
    Mr. Bennett. And whom did you speak with or who do you talk 
with in the First Lady's office?
    Ms. Scott. I don't remember exactly who it was. I do think 
I asked for Maggie Williams. I'm not sure that I spoke with 
her.
    Mr. Bennett. And if you didn't speak with Maggie Williams, 
who might you have spoken with?
    Ms. Scott. It was a woman. I just don't remember who.
    Mr. Bennett. Was Ms. Williams basically your contact in the 
First Lady's office?
    Ms. Scott. She was not the only contact, no.
    Mr. Bennett. Ms. Williams was a personal friend of yours at 
the time?
    Ms. Scott. I wouldn't call her a personal friend. We met 
during the campaign. She has been helpful.
    Mr. Bennett. When was that call made--in fact that was made 
Friday afternoon, March 10th, wasn't it Ms. Scott?
    Ms. Scott. I don't recall the specific date, but it was an 
evening and Friday; correct.
    Mr. Bennett. And was there any particular reason why you 
called the First Lady's office as opposed to the Visitor's 
Office of the White House?
    Ms. Scott. For direction.
    Mr. Bennett. But in terms of arranging this, just basically 
your contact was with the staff of the First Lady's office; is 
that the main reason you called the First Lady's office?
    Ms. Scott. I'm sorry; repeat your question.
    Mr. Bennett. I'm sorry. My question basically is why would 
you not have called the Visitor's Office of the White House or 
staff of the President? What was your reason for calling the 
First Lady's office with respect to Mr. Chung's request?
    Ms. Scott. It was late that evening, Friday; I remember it 
was late, and I knew I could get good direction from the First 
Lady's office. That's it.
    Mr. Bennett. Let me ask you this. It was late Friday 
evening, March 10th, and this was for the Saturday morning 
March 11th radio address; correct?
    Ms. Scott. Yes.
    Mr. Bennett. It was somewhat of a rushed process, wasn't 
it, in terms of trying to check out who these people were and 
check out passport numbers and exactly who was being taken into 
the Oval Office of the White House?
    Ms. Scott. What was your question?
    Mr. Bennett. Wasn't this somewhat of a rushed scenario 
here? It was late Friday afternoon, March 10th, and someone was 
trying to take individuals right into the Oval Office to be 
with the President the following morning, that Saturday 
morning, March 11th. It was a rush to get this done, wasn't it?
    Ms. Scott. It didn't seem to be real rush to me.
    Mr. Bennett. Have you routinely--and I'll ask this of you, 
Ms. Khare, or Mrs. Crawford, or Ms. Hernreich, for that 
matter--have you all routinely ever had a request on a Friday 
night, late, with respect to trying to get people into the 
radio address the following Saturday morning? Ms. Scott, had 
you dealt with a situation like that before?
    Ms. Scott. The only other time that I dealt with the radio 
address was for my godparents. And I think I called--I'm not 
sure exactly when I called. I think it might have been the week 
of.
    Mr. Bennett. Let me ask you, Ms. Khare, have you had a 
similar situation when you were at the DNC, when there was 
calls on Friday night trying to get somebody into the radio 
address the following Saturday morning?
    Ms. Khare. No, I don't remember any other circumstance like 
this, although I don't remember this to be night. I remember 
this being in the daytime.
    Mr. Bennett. I'm sorry. Ms. Crawford, or Ms. Hernreich, do 
either of you recall a situation where the afternoon before, or 
let's say into the evening before the President makes his radio 
address at the White House, that there has been an effort at 
the last minute to allow people to go into the Oval Office 
itself at the time the President is making the radio address?
    Ms. Crawford, as to you, do you recall such a scenario?
    Ms. Crawford. On Friday afternoons, yes, that would not 
have been unusual.
    Mr. Bennett. Have you personally handled such efforts at 
the last minute?
    Ms. Crawford. To have people come to the radio address on 
Friday afternoon?
    Mr. Bennett. Yes.
    Ms. Crawford. Absolutely.
    Mr. Bennett. Would you normally have been the person to 
handle that?
    Ms. Crawford. Yes, I would have been a normal contact.
    Mr. Bennett. Ms. Hernreich, would you have been involved in 
that, or would that have been Ms. Crawford's function?
    Ms. Hernreich. I would have been involved peripherally. I 
think she would bring the list to me, and eventually--or come 
to me and say someone just called at the last minute. That 
would be the normal process.
    Mr. Bennett. Ms. Khare--to you, Ms. Khare--ultimately Ms. 
Scott advised you that the First Lady's office said that it 
could be arranged that this group could go into the White 
House; correct?
    Ms. Khare. She advised me that the group could go into the 
White House. I don't remember whether she said that the 
permission came from the First Lady's office. I just don't 
remember who told her.
    Mr. Bennett. And, in fact, you are the individual who 
ultimately called Mr. Chung?
    Ms. Khare. I returned the call to him. And the time period 
was not very long. He was still----
    Mr. Bennett. Still at the First Lady's office?
    Ms. Khare. Still at the First Lady's office, yes.
    Mr. Bennett. And you basically advised him that he was 
going to be permitted, with his six friends, to go into the 
Oval Office?
    Ms. Khare. I don't remember the number of friends, but yes.
    Mr. Bennett. Ms. Khare, were you ever criticized by any 
representatives of the National Security Council with respect 
to taking these steps?
    Ms. Khare. No one ever came to me from the National 
Security Council. I've never talked to anybody from the 
National Security Council. The following week or within the 
following few weeks, someone on my--on the DNC staff came to me 
and in a teasing kind of way said, the National Security 
Council is after you because you let those Chinese nationals 
have their picture made with the President. And they were--that 
was not at all serious, but they were telling me that--they did 
explain that the National Security Council was objecting to the 
photographs being given to the Chinese citizens, the 
photographs with the President.
    Mr. Bennett. In fact, Ms. Khare, I will be asking Ms. 
Hernreich and Ms. Crawford in a few minutes about the reaction 
of the President with respect to the photographs being 
released. But you don't know whether it was a jesting concern 
on the part of the National Security Council or a very deep 
concern. Clearly someone indicated to you that someone was 
upset with you at the National Security Council.
    Ms. Khare. Yes, I didn't think that the National Security 
Council was jesting. I did think that the person on my staff 
was making it a more serious thing and making it sound more 
serious than it was.
    Mr. Bennett. And I believe the individual at the DNC was 
Mr. Eric Sildon who indicated that to you?
    Ms. Khare. That is what I remember, yes.
    Mr. Bennett. Did you personally ever talk with anyone at 
the National Security Council about the concern of the NSC for 
these individuals who have been been permitted to go into the 
Oval Office with the President?
    Ms. Khare. No, I did not.
    Mr. Bennett. Ultimately, Ms. Khare, you not only arranged 
for Mr. Chung to get into the Saturday morning address, but you 
also handled the forwarding of the photograph to him in 
connection with his visit, didn't you?
    Ms. Khare. No, I did not handle the forwarding of the 
photograph.
    Mr. Bennett. Let me if I can, exhibit 201. You see that 
exhibit that is on the screen before you, Ms. Khare?
    [Note.--Exhibit 201 may be found on p. 55.]
    Ms. Khare. Yes.
    Mr. Bennett. It is a fax--covering fax sheet to Johnny 
Chung from Carol Khare.
    Ms. Khare. Yes.
    Mr. Bennett. Subject: Photo. And I believe it reads, the 
White House assures me that you now have the pictures. Hurrah, 
I guess, is what it says.
    Ms. Khare. Something like that. Yes.
    Mr. Bennett. If you don't give me a call, have a good trip. 
Is that your handwriting?
    Ms. Khare. That is my handwriting.
    Mr. Bennett. So you were involved with forwarding.
    Ms. Khare. I didn't forward the photographs. What I was 
saying to him was I understand you now have the photographs. I 
did not make the arrangements or send him the photographs.
    Mr. Bennett. But clearly you did confirm with him that the 
photograph had been sent?
    Ms. Khare. Yes, yes.
    Mr. Bennett. Now, Ms. Hernreich, I gather that you as the 
Deputy Assistant to the President and the Director of Oval 
Office Operations--do I have that correct? Is that your title.
    Ms. Hernreich. Yes.
    Mr. Bennett. You would have had some responsibility in 
terms of handling logistical arrangements with respect to this 
kind of visit by an individual and/or foreign nationals into 
the Oval Office. Wouldn't you have some involvement in that?
    Ms. Hernreich. Well, specifically what do you mean by 
logistical arrangements?
    Mr. Bennett. Did you in any way coordinate the checking of 
passport numbers or anything else with respect to the 
individuals taken in to see the President?
    Ms. Hernreich. On this occasion, to be very honest with 
you, I don't recall anything about the--how they came to get 
into the radio address. Normally, I would not be the one who 
would be checking passport numbers or even forwarding those 
to----
    Mr. Bennett. Did you interact with Mrs. Evan Ryan, who in 
fact checked the passport numbers?
    Ms. Hernreich. Again, I don't remember anything about 
anything coming up to this radio address or Mr. Chung being in 
this radio address. I do not recall ever interacting with Evan 
Ryan regarding anything on this radio address or really any 
radio address.
    Mr. Bennett. If we can just briefly play the videotape of 
the March 11, 1995, visit by Mr. Chung and his group.
    [Videotape playing.]
    Mr. Bennett. Ms. Hernreich and Ms. Crawford, were both of 
you there in the Oval Office on this occasion?
    I hear some female voices in the background. I am trying to 
clarify whether you were both in the Oval office when that 
visit was made.
    Ms. Hernreich. I don't recall if I was in the Oval Office 
right then or not.
    Mr. Bennett. Ms. Crawford, were you?
    Ms. Crawford. Yes, I was there.
    Mr. Bennett. With respect to your appearance there, Ms. 
Crawford or Ms. Hernreich, if you were or were not there, who 
was responsible for vetting--a phrase in Washington--vetting or 
clearing the names of the guest list, clearing the names of 
those individuals before they arrived in the Oval Office to 
meet with the President?
    Ms. Crawford. Are you asking me?
    Mr. Bennett. Yes.
    Ms. Crawford. I can tell you the standard practice if 
that's what you are interested in.
    Mr. Bennett. It was your responsibility, wasn't it? Aren't 
you the one that was in charge of that?
    Ms. Crawford. Of vetting?
    Mr. Bennett. Yes, of clearing the names.
    Ms. Crawford. No, my responsibility was gathering the 
requests that would come into the radio address, and I would 
anywhere from a couple of weeks before a radio address to as I 
mentioned before, a Friday before the radio address, would take 
requests from people, from friends and family of the President, 
from various people, and then put the list together, and Nancy 
and I would anywhere from 2 or 3 days prior to the radio 
address, would sit down and try to determine, you know, who 
could attend.
    Mr. Bennett. And did you take those steps with respect to 
those individuals? Those six individuals with Mr. Chung we just 
saw them on the videotape.
    Ms. Crawford. I have a vague recollection--I mean, I know 
that they attended the radio address--of how they came to--it's 
my understanding that the request came from the chairman's 
office at the DNC. And as these young women who testified, I 
believe it was on a Friday, so it would not have been the 
normal practice of sitting down a couple of days ahead of time. 
But normally----
    Mr. Bennett. I think that is my point, if I can pick up on 
that. It would not have been the normal practice. Obviously, 
this is an event that has taken on some significance in your 
life in terms of depositions and appearances. I guess that's 
the point I was trying to make earlier. This was not the normal 
event to Friday afternoon, if it was not Friday night, have an 
individual indicate he wants to bring six foreign nationals 
into the Oval Office of the White House and my question is do 
you recall in light of this late minute request what steps you 
took to try to find out who these people were?
    Ms. Crawford. I do not recall exactly--they were not 
described, I don't think, in that manner to me. I understood it 
as a request from the chairman's office for a gentleman, Mr. 
Johnny Chung, to come along with six people.
    Mr. Bennett. Did you do anything about checking of 
passports or such things with respect to individuals to come 
into the country? Did anyone talk to you about that?
    Ms. Crawford. That was not part of our responsibility. The 
Secret Service.
    Mr. Bennett. Did anyone from the Secret Service talk to you 
about how these people managed to get into the Oval Office?
    Ms. Crawford. No, I don't believe so.
    Mr. Bennett. Ms. Hernreich, I think clearly at some point 
in time a photograph of these individuals with the President 
was released. Isn't that correct?
    Ms. Hernreich. I don't know if it was released or not. My 
recollection is that it was never released. At least my 
recollection is that I was called about the photograph and I 
never released it.
    Mr. Bennett. Well, I believe at some point in time with the 
photograph having been released, didn't President Clinton--and 
I'm just referring to page 67 of your deposition, if you want 
to refer to that, Mr. Cearly. I'm not trying to trap you here 
on this, Ms. Hernreich, I am trying to clarify. You had 
previously indicated, I believe, that with respect to the 
release of the photograph of the President with Mr. Chung and 
these individuals, that President Clinton said to you, and I'm 
referring to page 67 of your deposition, that, quote, You 
shouldn't have done that, end of quote, or, quote, ``We 
shouldn't have done that.'' Do you see that in your deposition?
    Ms. Hernreich. Yes. May I say that my recollection is that 
he did not say that in regards to the photograph. I think what 
he was saying to me, as I recall it, that we should not have 
brought them in there.
    Mr. Bennett. I'm sorry. So then it was more than just the 
matter of the President talking about a photograph; he was 
specifically saying to you that these individuals should not 
have been brought into the Oval Office?
    Ms. Hernreich. That's my recollection.
    Mr. Bennett. Did President Clinton indicate to you what the 
basis of his concern was as to the matter of these people being 
brought into the Oval Office?
    Ms. Hernreich. Not that I recall.
    Mr. Bennett. Did he at any time express concern about 
National Security Council considerations? I believe at one 
point in your deposition I thought you indicated at page 64 
that the President, President Clinton, noted--page 64, 
Congressman, of Ms. Hern-reich's deposition--that the President 
expressed concern about the National Security Council having to 
be contacted.
    Ms. Hernreich. No, I don't believe so. I don't think it 
says that.
    Mr. Bennett. Could I have 1 second, please?
    Mr. Burton. Can I interrupt? I'd like to ask one question.
    Mr. Bennett. Certainly, Mr. Chairman.
    Mr. Burton. When I'm talking to my assistant and I tell her 
I don't think somebody should be in my office or should be 
talked to, she usually says, why. I mean she usually gives me 
some kind of a question. Did you not question the President and 
say, what did I do wrong or why did you object to them coming 
in here?
    Ms. Hernreich. No, I didn't. And I'm not really--I normally 
don't question him. I think what he says should go. If the 
President of the United States says we shouldn't have done 
that, then I think we should not have done that. You're the 
President.
    Mr. Burton. But you have no idea why he said we should not 
have had them in there?
    Ms. Hernreich. My recollection, Mr. Chairman, is that there 
was no followup conversation and that's my recollection.
    Mr. Burton. Thank you.
    Mr. Bennett. Did you have any further conversations with 
President Clinton concerning his concern about these 
individuals having come in? Did he ever bring it up again to 
you?
    Ms. Hernreich. Not that I recall.
    Mr. Bennett. Ms. Crawford, I believe that in your 
deposition you previously indicated that you remember the 
President expressing some concerns about Mr. Chung and his 
guests; isn't that correct?
    Ms. Crawford. Yes, I vaguely recall.
    Mr. Bennett. Did you talk with President Clinton about his 
concerns about these people having been brought into the Oval 
Office?
    Ms. Crawford. No, I did not. I don't recall any specific 
conversation, no.
    Mr. Bennett. Ms. Crawford, did you take any steps with 
respect to these concerns that were raised by the President? 
Specifically, did you contact the National Security Council 
after the fact to followup on this?
    Ms. Crawford. I have--I recall that my concern, because I 
would also deal with the photographs from the radio address, 
was making sure or seeing if it was appropriate to hand out 
these photographs. So I do have a recollection of after the 
radio address, very shortly after, contacting or giving a note 
to someone in the National Security Council. I'm not sure if it 
was----
    Mr. Bennett. Did you take the names of Mr. Chung and his 
six guests to the National Security Council so someone could do 
a little bit of a check on these people?
    Ms. Crawford. During my----
    Mr. Bennett. Not a little bit of a check; any kind of a 
check. Did you take those names to the NSC?
    Ms. Crawford. During my deposition I did see a document 
that the names were forwarded to Nancy Soderberg, and I may 
have been the person that passed that note down or walked it 
down.
    Mr. Bennett. In that regard, maybe it would help you a 
little bit if I could have exhibit 196. If we can increase 
the--bring that up a little bit. Ms. Crawford, showing you 
exhibit 196, it's on the TV screen and I believe it's in the 
exhibit book there before you.
    [Exhibit 196 follows:]
    [GRAPHIC] [TIFF OMITTED] T5667.426
    
    Ms. Crawford. Yes, I have it here.
    Mr. Bennett. Which is a memorandum from Brooke Darby of the 
National Security Council to Robert Suettinger of the National 
Security Council. Do you see that it is dated April 7, 1995?
    Ms. Crawford. Yes, I do see it.
    Mr. Bennett. That is approximately 4 weeks after the radio 
address. And you'll note the comments there, I believe it says 
Johnny Chung, one of the people on the list, is coming in to 
see Nancy Hernreich tomorrow, and Nancy needs to know urgently 
whether or not she can give them the pictures. Do you see that?
    Ms. Crawford. Yes, I do.
    Mr. Bennett. Ms. Crawford, I'll show you also exhibit 198, 
which is apparently a notation of e-mail in terms of the 
response of Mr. Suettinger back to Ms. Darby. In that exhibit 
198 there is Mr. Suettinger's comment about Mr. Chung in that 
exhibit to the effect that, quote, ``My impression is that he 
is a hustler,'' a quote that has been repeated a few times 
today by Members of both political parties.
    Ms. Crawford, is there any reason why these memos would be 
dated April 7th and not March 11th if you immediately addressed 
the question on Saturday morning with the National Security 
Council?
    [Exhibit 198 follows:]
    [GRAPHIC] [TIFF OMITTED] T5667.427
    
    Ms. Crawford. I did not write these memos or e-mails, so I 
don't know why they would be dated.
    Mr. Bennett. I guess my question is, is it your 
recollection that you dealt immediately with this that same 
Saturday, March 11th?
    Ms. Crawford. I believe that I followed up very shortly 
after the radio address. I believe I followed up on Saturday, 
but you know I'm not sure if it was Saturday or maybe Monday. 
Maybe people weren't in on Saturday. I believe I followed up 
shortly thereafter.
    Mr. Bennett. Looking at exhibit 196, if we could have that 
back on the screen, please. There is reference to--trying to 
have a visit with you. Do you recall the visit of Mr. Johnny 
Chung to see you the following day on April 8th with respect to 
the photographs taken in the Oval Office?
    Ms. Hernreich. No.
    Mr. Bennett. Do you have any recollection of any followup 
visit by Mr. Chung?
    Ms. Hernreich. No, I don't.
    Mr. Bennett. Do you have any recollection of speaking with 
Ms. Crawford with respect to her contact with the National 
Security Council, whether it was on March 11th or April 7th?
    Ms. Hernreich. No, I don't have any recollection of 
speaking with her about conversations she had with the NSC.
    Mr. Bennett. Ultimately, what was the response of the 
National Security Council? What was the position?
    Ms. Hernreich. Well, I don't recall----
    Mr. Bennett. I'm sorry; Ms. Crawford, you wanted to add 
something?
    Ms. Crawford. Yes, exhibit 187?
    Mr. Bennett. I'm sorry.
    Ms. Crawford. Exhibit 187 in my book indicates--which was 
shown to me during my deposition--the name and listed the 
delegations and a note that went to Nancy Soderberg, who is in 
the NSC.
    [Note.--Exhibit 187 may be found on p. 85.]
    Mr. Bennett. I was going to get to that in a second. We 
could go to that now if you like.
    Ms. Crawford. This is what I would believe would have been 
the contact shortly thereafter, which would have been 2 days 
thereafter.
    Mr. Bennett. Ms. Crawford, do you recall Ms. Darby calling 
you and advising you not to permit this photograph to be 
released?
    Ms. Crawford. I don't specifically recall a conversation 
with Ms. Darby.
    Mr. Bennett. I thought at page 62 of your deposition you 
indicated----
    Ms. Crawford. I'm sure that I talked with Ms. Darby, but I 
don't specifically recall what she told me to do with the 
photographs.
    Mr. Bennett. Well, Ms. Brooke Darby of the National 
Security Council is testifying before this committee tomorrow 
afternoon and according to comments she has made to members of 
the staff of this committee, she indicates that she 
specifically told you, Ms. Crawford, not to have photographs of 
Mr. Chung and his guests released. And I interpreted that 
comment made recently by her in preparation for her appearance 
here tomorrow to be consistent with your deposition testimony 
where you indicated, I thought, that you recalled her in fact 
calling you, saying don't release this photograph.
    Ms. Crawford. Can you show me in my deposition--I recall 
having a conversation with Ms. Darby about this, but I don't 
specifically recall her saying----
    Mr. Bennett. Let me address the points you were trying to 
make on the exhibit. Ms. Hernreich, directing your attention to 
exhibit 187, 187, if we can also put up--first of all, exhibit 
171-1--171-1 is the second page of a letter forwarded by Mr. 
Chung. And then now looking at exhibit 187, that is handwriting 
and notation on that second page. Do you see that Ms. 
Hernreich?
    Ms. Hernreich. 187?
    Mr. Bennett. Yes.
    Ms. Hernreich. Yes.
    Mr. Bennett. Directing your attention to exhibit 187, that 
is actually your handwriting, isn't it, Ms. Hernreich?
    Ms. Hernreich. Yes, that's correct.
    Mr. Bennett. And referring to that exhibit, correct me if I 
am wrong, but I believe--if I am not reading that correctly 
tell me--but the handwriting reads someone from DNC asked to 
let into radio address before photos are sent out; we need to 
know if we should not send them. Isn't that correct?
    Ms. Hernreich. That's what it says.
    Mr. Bennett. Ms. Khare, ultimately you did learn that the 
White House, in fact, sent the photographs, correct, as 
reflected by the fax that was sent out?
    Ms. Khare. That fax reflects that. I do not independent of 
that fax remember what the final outcome was of this.
    Mr. Bennett. But clearly the fax reflects that it was sent, 
and I guess my question to all of you is do any of you know the 
individual at the White House--this is directed to the entire 
panel of four--the individual at the White House who made the 
decision to send these photographs of President Clinton and Mr. 
Chung and his friends out to Mr. Chung, despite the warnings of 
the National Security Council? Do you know who made that 
decision?
    Ms. Hernreich. Mr. Bennett, may I speak for a moment?
    Mr. Bennett. Certainly.
    Ms. Hernreich. Do we know for certain that that photograph 
with the group was sent out? And, you know, my recollection is 
that Mr. Chung called quite a bit about these photographs and 
that they were never released. Only yesterday did I find out 
that he had, in going through some of this that he had received 
any photographs, and I'm wondering whether he received only the 
photograph of him and his brother, and that the photographs of 
the entire group were never released. I've not seen that 
photograph in any of his literature or anywhere else. It is my 
recollection that those photographs were never sent to him.
    Mr. Bennett. Ms. Hernreich, I will tell you on behalf of 
the committee, we're going to be interviewing Mr. Chung 
tomorrow under oath, and that is one of the many things we 
would like to find out. And, Mr. Chairman, if I can have 30 
more seconds, I will be finished. Just one last thing, Ms. 
Hernreich, if you would--specifically referring to exhibit 215, 
you also, Ms. Crawford, or actually, Ms. Hernreich, either one 
of you, those of you who were working at the White House, this 
is an e-mail at the White House dated November 30, 1995. Do you 
see that? Where there is a specific notation that as of 
November 22, 1995, we will not honor requests from Johnny 
Chung. And there is reference to his, quote, improperly using 
photo or business--photo of businesspeople and the President. 
Do you recall receiving this e-mail, Ms. Hernreich?
    [Exhibit 215 follows:]
    [GRAPHIC] [TIFF OMITTED] T5667.428
    
    Ms. Hernreich. No, I don't. The e-mail is not to me.
    Mr. Bennett. Do you recall receiving it, Ms. Crawford? Did 
you ever see this e-mail?
    Ms. Crawford. No, this is the first time I believe that I 
have seen this.
    Mr. Bennett. Do either of you ever recall any conversations 
concerning the policy that was established as of November 22, 
1995, at the Clinton White House in light of Mr. Chung's use of 
these photographs? Do either one of you recall that?
    Ms. Hernreich. Mr. Bennett, what I recall, and my memory is 
not great a lot of the time, but what I recall is conversations 
with the photo office that we would not send those photographs 
of the businesspeople with Mr. Chung from the beginning. That's 
my recollection of my conversations.
    Mr. Bennett. My question is in terms of this--Mr. Chairman, 
I am finished. Thank you--that e-mail clearly establishing a 
policy in November 1995, neither of you recall actually seeing 
that e-mail or being aware of its issuance at the White House?
    Ms. Hernreich. That's correct.
    Ms. Crawford. I do not recall, no.
    Mr. Bennett. Thank you, I have no further questions, Mr. 
Chairman. Thank you.
    Mr. Burton. Mr. Waxman.
    Mr. Waxman. Ms. Hernreich, I understand you essentially 
serve as President Clinton's gatekeeper. Can you explain what 
that means?
    Ms. Hernreich. Well, I am basically responsible on a daily 
basis for who he sees, what paper he sees, what phone calls he 
receives, that sort of thing. So for all of those things, I am 
his gatekeeper.
    Mr. Waxman. And you manage a staff of how many people?
    Ms. Hernreich. Yes, I have 9 or 10 people.
    Mr. Waxman. And you manage the flow of paper to the 
President, memos, letters, notes and other individual orders 
that people want to get to the President?
    Ms. Hernreich. That's correct.
    Mr. Waxman. Do you keep his schedule?
    Ms. Hernreich. What we try to do is implement the schedule 
every day. That is part of our responsibility, to make sure 
that he does what he's supposed to be doing as it relates to 
the schedule, and that he accomplishes the goals that he's 
supposed to accomplish each day.
    Mr. Waxman. And you field a lot of phone calls?
    Ms. Hernreich. Yes, we do take a lot of phone calls.
    Mr. Waxman. And you handle visitors to the Oval Office?
    Ms. Hernreich. That's correct.
    Mr. Waxman. Does that include staff who will be meeting 
with the President?
    Ms. Hernreich. That's correct.
    Mr. Waxman. Does your office handle the President's 
personal correspondence?
    Ms. Hernreich. That's correct.
    Mr. Waxman. I would like the committee to understand what a 
typical day is like for you. I understand you work 6 days a 
week. How many hours do you typically work each day?
    Ms. Hernreich. Usually the minimum is 12 hours.
    Mr. Waxman. How many pieces of paper do you review in a 
typical day?
    Ms. Hernreich. I would say at a minimum 150 pieces of 
paper.
    Mr. Waxman. Do you have to do a quick review of where to 
send the pieces of paper? Is that your job?
    Ms. Hernreich. Correct. I also review the paper that goes 
to the President. Often it will come from the staff or other 
sources. I review that. And I view correspondence, other pieces 
of paper that come to me, and then I decide where to send them.
    Mr. Waxman. How many visitors to the President does your 
office deal with on a typical day?
    Ms. Hernreich. Including the staff, oh, at least 100.
    Mr. Waxman. And you help to determine who gets in and who 
doesn't?
    Ms. Hernreich. That's correct.
    Mr. Waxman. How many phone calls does your office field in 
a typical day?
    Ms. Hernreich. Including staff, we get a lot of phone calls 
from staff, not asking to speak to the President but asking us 
what the President is doing or an opinion of what he might want 
on something, so I would say probably that same amount, 100, 
150 phone calls at least a day.
    Mr. Waxman. How many of those do you personally return, do 
you think?
    Ms. Hernreich. I speak to a lot of the staff people 
directly. I return a lot of my own phone calls. If I don't get 
them done that day, I will return them the next day or the 
first opportunity I have.
    Mr. Waxman. In a typical day you are required to review 
hundreds of pieces of paper, talk to dozens of individuals in 
person, speak to dozens of people on the phone, keep the 
President on schedule, manage a staff of 9 and handle any 
emergencies that might come up?
    Ms. Hernreich. That sounds like a typical day.
    Mr. Waxman. And you do that 6 days a week.
    Ms. Hernreich. Normally 6 days a week.
    Mr. Waxman. It sounds like you are constantly in motion.
    Ms. Hernreich. That's true.
    Mr. Waxman. Were you involved in organizing the President's 
radio addresses?
    Ms. Hernreich. Yes.
    Mr. Waxman. What was your role in regard to those events?
    Ms. Hernreich. My role is to primarily oversee the--to go 
over with my assistant the last list and determine who actually 
gets into the radio address.
    Mr. Waxman. What's the purpose of inviting guests to attend 
the radio address?
    Ms. Hernreich. The purpose is basically to--because--give 
the President an opportunity to visit with his friends and his 
friends to see him. Another reason to have people at the radio 
address is because staff people often want to bring their 
families in to meet the President and we really don't have a 
good opportunity during the week to do that. So this is a nice 
way to have an audience and then afterwards to have 
photographs. And so a chance for them, staff and cabinet 
members, to bring their families in to meet the President.
    And the third reason is actually it's good for the 
President. He enjoys having an audience. He loves people, and 
he wants to be accessible to his staff and to his friends and 
there's not that time often and so this is a good chance for 
that. And it makes him feel good. And I think it puts a nice 
tone on the radio address for him. He likes it.
    Mr. Waxman. How many radio addresses does he give each 
year?
    Ms. Hernreich. I think--well, he gives one a week. 52. We 
have audiences, I think, for about 40 a year because he 
probably does about 40 in the office.
    Mr. Waxman. Forty a year in which you have audiences?
    Ms. Hernreich. That's correct.
    Mr. Waxman. How many people are typically in an audience?
    Ms. Hernreich. Probably about an average of 60. Some days 
there are 100, some days 40.
    Mr. Waxman. So we are talking about over 10,000, maybe 
15,000 people attending a radio address since the start of the 
Clinton administration in 1993? Does that sound about right?
    Ms. Hernreich. That sounds about right.
    Mr. Waxman. Do you remember each of the 10- to 15,000 
people who attended the radio address?
    Ms. Hernreich. No, I don't.
    Mr. Waxman. How long have you been working for the 
President?
    Ms. Hernreich. I've been working for the President since 
1985, when he was Governor.
    Mr. Waxman. So around 12 years. And you've been at the 
White House for 4\1/2\ years now. In your experience, is the 
President pretty courteous to people?
    Ms. Hernreich. Pardon me?
    Mr. Waxman. Is the President a courteous individual?
    Ms. Hernreich. He is extremely courteous. He loves people. 
And he wants to do things for other people. And this is a great 
opportunity for him to do that. He has a heart of gold.
    Mr. Waxman. We saw a videotape of the President greeting 
Johnny Chung. Would you say that was unusual for the President 
when he greeted Johnny Chung?
    Ms. Hernreich. No, it's not unusual at all.
    Mr. Waxman. He's friendly.
    Ms. Hernreich. He greets most of his friends like that.
    Mr. Waxman. And does the President get his picture taken 
with lots of people?
    Ms. Hernreich. Lots of people.
    Mr. Waxman. Does the President generally smile when someone 
wants their picture taken with him?
    Ms. Hernreich. Absolutely.
    Mr. Waxman. Because of the nature of your job, do you 
generally know who the President's personal friends are?
    Ms. Hernreich. Yes, I do.
    Mr. Waxman. Was Johnny Chung a personal friend of the 
President?
    Ms. Hernreich. The President considered Johnny Chung a 
personal friend.
    Mr. Waxman. Did you have any role in helping Johnny Chung 
attend the March 11, 1995 radio address?
    Ms. Hernreich. I honestly don't remember anything leading 
up to the time that he--what took place that caused him to come 
to the radio address.
    Mr. Waxman. Did you have any conversations with Maggie 
Williams about Johnny Chung's request to attend the radio 
address?
    Ms. Hernreich. I don't recall any conversations with Maggie 
Williams about him coming to that radio address.
    Mr. Waxman. Did Evan Ryan contact you to request that 
Johnny Chung be allowed to come to that radio address?
    Ms. Hernreich. I don't recall that Evan Ryan called me at 
all on that.
    Mr. Waxman. Did you have any conversations with anyone else 
in the First Lady's office requesting that Johnny Chung be 
allowed to attend this radio address?
    Ms. Hernreich. No, I don't believe so.
    Mr. Waxman. And I think you testified you don't remember 
seeing Johnny Chung at the radio address.
    Ms. Hernreich. I don't remember it, no.
    Mr. Waxman. Let me ask you a few bottom line questions 
about Johnny Chung. Did Johnny Chung ever tell you that he 
would make a contribution if he could attend the radio address?
    Ms. Hernreich. Absolutely not.
    Mr. Waxman. Did Johnny Chung ever talk to you about 
political contributions?
    Ms. Hernreich. No.
    Mr. Waxman. Did Johnny Chung ever talk to you about policy 
matters? Did he ever tell you that he was trying to get a 
change in U.S. policy?
    Ms. Hernreich. No.
    Mr. Waxman. And did you ever solicit contributions from 
Johnny Chung?
    Ms. Hernreich. No.
    Mr. Waxman. While I'm on the subject, let me ask you some 
very general questions. While you worked at the White House, 
did you ever solicit contributions from anyone?
    Ms. Hernreich. Absolutely not.
    Mr. Waxman. And did you ever observe any White House 
staffers soliciting contributions from anyone?
    Ms. Hernreich. No.
    Mr. Waxman. Ms. Khare, Johnny Chung called you in March 
1995. Did you know who he was at that time?
    Ms. Khare. No, I didn't.
    Mr. Waxman. And he identified himself as Johnny Chung, I 
assume.
    Ms. Khare. He did.
    Mr. Waxman. And he said, what, he's a friend of the First 
Lady's?
    Ms. Khare. He said I'm a friend of the First Lady.
    Mr. Waxman. Did he say he was calling from the First Lady's 
office?
    Ms. Khare. Yes, he did.
    Mr. Waxman. And he also said that Maggie Williams couldn't 
help him get into the radio address.
    Ms. Khare. That's right.
    Mr. Waxman. You had someone in your office handle the 
request after he had called; isn't that right?
    Ms. Khare. That's right.
    Mr. Waxman. You asked Ms. Scott to see what she could do 
about it?
    Ms. Khare. I asked if anyone knew what could be done about 
it, and Ms. Scott volunteered to try.
    Mr. Waxman. You didn't handle that request yourself.
    Ms. Khare. No. I really didn't know how.
    Mr. Waxman. OK. You didn't tell Chairman Fowler about the 
request.
    Ms. Khare. Not that I recall. I don't think I did.
    Mr. Waxman. You eventually passed it off to Ms. Scott.
    Ms. Khare. Yes.
    Mr. Waxman. And Ms. Scott told you that the request had 
been approved at some point that day.
    Ms. Khare. Yes.
    Mr. Waxman. And you called Mr. Chung back at the First 
Lady's office to let him know; is that right?
    Ms. Khare. That's right.
    Mr. Waxman. You don't remember his name being mentioned in 
the office before that time?
    Ms. Khare. No, I don't. I know now from discussions and 
depositions and, that kind of thing, that he had been in the 
office a few days before, but I was not aware of that at the 
time.
    Mr. Waxman. Did you know at the time that he had made any 
campaign contributions?
    Ms. Khare. No.
    Mr. Waxman. The way you handled Johnny Chung's request was 
the same way you would have handled any friend or supporter's 
request that attend a radio address; is that right?
    Ms. Khare. I hope so, yes.
    Mr. Waxman. You didn't just do this for financial 
contributors. You did it for others, as well?
    Ms. Khare. Yes.
    Mr. Waxman. You didn't accept Johnny Chung's invitation to 
travel to China, did you?
    Ms. Khare. No, I didn't.
    Mr. Waxman. And Chairman Fowler didn't accept his offer 
either, did he?
    Ms. Khare. No.
    Mr. Waxman. OK. There was a question about whether he 
should get--let me ask Ms. Scott some questions first. Let me 
get to that.
    Ms. Scott, you said that Carol Khare asked you to find out 
if Johnny Chung and his guests could attend that March 11th 
radio address; is that right?
    Ms. Scott. That's correct.
    Mr. Waxman. OK.
    Ms. Scott. She made a general statement in the office.
    Mr. Waxman. And did you know how to handle that?
    Ms. Scott. Not specifically. I said I would make a call to 
a friend.
    Mr. Waxman. You made a call to the First Lady's office to 
see what you could do?
    Ms. Scott. I think so.
    Mr. Waxman. And the purpose of that call was to have 
someone lead you in the right direction; is that correct?
    Ms. Scott. That's correct.
    Mr. Waxman. As I recall your testimony, you didn't recall 
whether you spoke to Ms. Williams at that time, but you talked 
to somebody there.
    Ms. Scott. That's correct.
    Mr. Waxman. And do you think someone took a message, and 
someone called you back. Is that your recollection of what 
happened? Or did they arrange it right on the spot?
    Ms. Scott. They called me back.
    Mr. Waxman. OK. Is it possible that someone from another 
office in the White House, someone in the President's office 
might have called you back?
    Ms. Scott. I don't think so, but I'm not sure.
    Mr. Waxman. In addition to the radio address attended by 
Johnny Chung, you made arrangements for some family members to 
attend a radio address; isn't that right?
    Ms. Scott. That's correct.
    Mr. Waxman. And at that time, did you call the First Lady's 
office?
    Ms. Scott. Yes, I did.
    Mr. Waxman. Is it possible that your--OK. You're not 
confusing this call with the call about Johnny Chung?
    Ms. Scott. I don't think so. I'm not sure.
    Mr. Waxman. Now, Johnny Chung was at this White House radio 
address. And we saw the videotape that some photos were taken 
of him and his guests. Wouldn't it have been routine for him to 
get the photos? Who would have been in charge of the photos? 
Would that be the White House or the DNC?
    Ms. Hernreich. It would have been our office. My assistant 
normally is the person responsible for sending the photos out 
after the radio address.
    Mr. Waxman. Ms. Crawford, why was there a hang up about the 
photos?
    Ms. Crawford. I believe we wanted to make sure that we knew 
who these people were and that it was appropriate to send the 
photographs out.
    Mr. Waxman. And eventually someone from the National 
Security Council had to take a look at this; is that right? 
That was Mr. Suettinger.
    Ms. Crawford. From the e-mails, evidently, that's the 
process that happened.
    Mr. Waxman. I want to yield to Mr. Fattah for some further 
questions on this.
    Mr. Fattah. Thank you very much. Let me--Ms. Scott, I want 
you to answer the same question that Congressman Waxman asked 
of someone else. You were also invited to travel with Johnny 
Chung?
    Ms. Scott. Yes, sir.
    Mr. Fattah. And you declined a trip to China?
    Ms. Scott. Yes, I did. It seemed inappropriate.
    Mr. Fattah. OK. So Johnny Chung made a lot of invitations, 
and people declined it. Let me go back to this radio address. I 
was at one of the President's radio addresses.
    Ms. Hernreich. We do have Members of Congress to attend.
    Mr. Fattah. I appreciated the opportunity to be there.
    Ms. Hernreich. Good.
    Mr. Fattah. And we've heard that Mrs. Scott's godparents 
were also there.
    Ms. Hernreich. Yes.
    Mr. Fattah. So it was pretty regular that people could get 
invited or could get themselves invited to be at a radio 
address of the President.
    Ms. Hernreich. We had invited guests every week we do the 
radio address in town. At times, the President is out of town 
or out of the country on a Friday or Saturday, and so, in those 
cases, we would not have an audience.
    Mr. Fattah. Let me ask a question, because a lot of--this 
is an investigation into foreign campaign dollars, getting into 
the 1996 elections. And we may seem somewhat far afield 
focusing on this radio address on these six gentlemen since 
there's no evidence that the committee has that any of these 
six gentlemen donated any money in the Presidential election. 
So whether they were or weren't at a radio address, whether 
they did or didn't receive pictures is pretty far afield only. 
The only connection to it is Johnny Chung, because these 
gentlemen, from everything that this committee knows, didn't 
give a dime to President Clinton's re-election campaign or to 
the DNC or to anything. All they--they were visiting. The 
person who was escorting them, said, look I can get you in to 
get a picture with the President, and he arranged it.
    So in terms of Johnny Chung, which is really, I would 
assume, our real focus, not how somebody got into the radio 
address, since more than 10,000 people had been in radio 
addresses, is in terms of Johnny Chung. He was a friend of the 
President. He was a supporter of the President.
    Ms. Hernreich. That's correct. The President, may I just 
mention, has friends that he's had all of his life, his high 
school friends and college friends. But he considers friends 
people who are helpful to him. He's very----
    Mr. Fattah. I totally understand. Bob Dole ran for 
President in the same election. He had a friend. His name was 
Fireman. He was the chairman or Deputy chairman of his Campaign 
Finance Committee. And he went about trying to help Bob Dole, 
his friend. And he arranged to launder some money through a 
Hong Kong bank back through into the Dole campaign. He pleaded 
guilty and had to pay a $6 million fine and was put essentially 
under house arrest for a few months.
    And in the entire prosecution of the case, it was asserted 
by the U.S. attorney that Bob Dole knew nothing about how his 
friend went about raising this money, that Bob Dole was never 
implicated. There was not even an inference that Bob Dole had 
any idea. All he knew was that his friend was helping him.
    Now, there's no proof whatsoever that Mr. Chung has done 
anything wrong. But do you have any reason to believe that, if 
he had done something wrong, that the President would know 
about it?
    Ms. Hernreich. I have no reason to believe that.
    Mr. Fattah. If the President had some knowledge that a 
friend of his is doing something wrong vis-a-vis his campaign, 
wouldn't the President direct him to stop it?
    Ms. Hernreich. Yes, he would.
    Mr. Fattah. So now, unless Mr. Chung was operating as an 
agent of the President or of his campaign, even if he did 
something wrong, don't you think it's kind of strange that, 
since, in none of these other cases--let me give you another 
example. The Speaker of the House, there was a foreign arms 
dealer who gave tens of thousands of dollars to Speaker 
Gingrich's campaign, but there's no assertion by anyone that 
Newt Gingrich had any idea that this person was funneling money 
improperly in to the Speaker's political efforts.
    So it is of interest as we sit here today focused on this 
silliness of this radio address in these pictures, which has 
nothing to do whatsoever with the subject matter of this 
investigation. Johnny Chung does. And how he got his money and 
where the money came from, that's an important issue, but it 
has nothing to do with this radio address unless the chairman 
or the majority can show some connection.
    Now, supporters of the President, and some of them get cuff 
links from the President, some of them get a picture, some of 
them get a smile. But as best we know from Johnny Chung, he 
never sought any policy or preferential treatment in terms of 
policy decisions at all. And in terms of his interaction with 
the President, do you have any information to the contrary in 
terms of that?
    Ms. Hernreich. No. I have no information to the contrary.
    Mr. Waxman. Would the gentleman yield for a minute?
    Mr. Fattah. I'll be glad to yield.
    Mr. Waxman. Ms. Hernreich, we saw the videotape. The 
President met with all these people, took the picture. After 
that radio address, he said something to you about how they 
shouldn't be bringing all those people in. What did he say to 
you?
    Ms. Hernreich. Well, my recollection of what he said was we 
should not--you should not have done that. And that's all I 
recall that he said to me, and with no explanation.
    Mr. Waxman. In other words, he sort of had some sense that 
he was being used.
    Ms. Hernreich. Well, it's--I can't tell you exactly what he 
meant by it, because he just said that. But that--whether he 
was being used or that they were inappropriate people to bring 
to the radio address or inappropriate people for him to meet 
with. But, again, I did no followup questions. He didn't 
explain it. That's my recollection. And so I would only have to 
infer what he meant by it.
    Mr. Waxman. Now, after that, somebody at the National 
Security Council was asked to give some advice as to whether 
these pictures ought to be given to Johnny Chung. Do any of you 
at the table know how the NSC was asked to give some view on 
this?
    Ms. Hernreich. Well, I think they were asked to do it 
because I sent a note to Nancy Soderberg and asked her whether 
it was appropriate to send the photos out. Is that what you're 
asking?
    Mr. Waxman. Yes.
    Ms. Hernreich. Yes. I think that's why they did it.
    Mr. Waxman. So Nancy Soderberg then asked Suettinger?
    Ms. Hernreich. Well, I don't know. No, I think Nancy 
Soderberg's assistant probably just took care of it herself and 
then asked Mr. Suettinger about it. That's what it indicates on 
this e-mail.
    Mr. Waxman. Mr. Suettinger sent an e-mail. You heard some 
of the people on the other side of the aisle; they talk about 
it as if it was an all points NSC advisory bulletin concerning 
Johnny Chung. But as I--as all of you are assuredly aware now, 
and we'll hear from Bob Suettinger tomorrow, that they 
responded to this request for advice about the release of the 
photographs, and then they sent an e-mail saying this guy looks 
like a hustler.
    But he also said it didn't seem like it was going to 
endanger U.S. foreign policy--my words, not his--to give the 
man a photo with the President. I think it's critical to note 
that Bob Suettinger's e-mail accurately describes Johnny Chung 
as a hustler and doesn't even object to the release of the 
photos. He said it was OK with him to release the photos. And I 
gather the photos were eventually released; is that correct?
    Ms. Hernreich. Again, I question whether the photos with 
the groups were ever released. I really don't think they were.
    Mr. Waxman. Well, Ms. Khare, you sent some note, like, 
hooray, the photos are going to be released. What were you 
referring to?
    Ms. Khare. Yes. And until I saw this fax, I really don't 
remember the photos being released. And I see this fax, so some 
photos must have been sent to him. But I really don't remember 
whether or not--I don't know one way or the other about these 
questionable photos.
    Mr. Waxman. Johnny Chung evidently was pestering people 
about the photos. Who did he call? Did he call you, Ms. Khare?
    Ms. Khare. I don't remember whether he called me. I know 
that he called some people at the DNC. And I know that he sent 
a letter to a couple of people at the DNC. So I was aware of 
the photo hunt.
    Mr. Waxman. Thank you, Mr. Fattah. I yield back to you if 
you have more questions.
    Mr. Fattah. Thank you again. Because I think that--when 
these gentlemen came in and got their picture taken with the 
President, when they were in the radio address, nobody had any 
envelopes with them stuffed with cash or anything like that, 
right?
    Ms. Hernreich. I don't recall being in the room, so----
    Mr. Fattah. OK. Ms. Crawford, you were in the room, right?
    Ms. Crawford. Yes. I don't believe anyone--not that I saw, 
no.
    Mr. Fattah. Let me ask you this question, because there is 
a lot of attention focused on the fact that they were foreign 
nationals. Was it unusual that people who were visiting our 
country and had associations with people who knew the President 
would want, get a chance for these people to meet the 
President?
    Ms. Hernreich. No. I don't think it is unusual for anybody 
to want to bring their friends and associates in to meet the 
President.
    Mr. Fattah. When the President travels overseas, you see 
tens of thousands of people----
    Ms. Hernreich. Absolutely.
    Mr. Fattah [continuing]. Line up just to get a glimpse of 
him.
    Ms. Hernreich. Absolutely.
    Mr. Fattah. So the President of the United States is a 
pretty important person. That's why you said, when the chairman 
asked you, well, did you ask him what he meant, you said, you 
don't ask the President of the United States, you just----
    Ms. Hernreich. You just do what he says.
    Mr. Fattah. Right. So the fact that Johnny Chung, who was a 
friend of the President, who was trying to do business in a 
foreign land, wanted to bring some associates through, in and 
of itself is not something that would be beyond someone's 
understanding that it might be something that he would want to 
do.
    The President, however, sensed that it might have some 
inappropriateness and cautioned you about it. So the President, 
when given--because he was not aware of any of this, these 
other activities leading up to these people showing up at the 
radio address. But the minute he sensed something, he felt that 
perhaps it was somewhat inappropriate.
    So what we do know about the President's actions in this 
regard is that, when he sensed that something was 
inappropriate, he took some action about it, which was to 
direct you that there should be more appropriate concern taken 
as to people who Mr. Chung might want to bring into the White 
House.
    Ms. Hernreich. That's correct, Congressman.
    Mr. Fattah. So for those of us who, because there are a few 
members of our committee who want to impeach the President of 
the United States of America--it's not a widely held view in 
the Congress or among the American public, but just so people 
can have a glimpse of what he said in private to you when this 
group of people were in there and got their picture taken; it 
was someone who, as we would suspect, was attempting to do what 
was right and honorable.
    So I just think that, again, this committee's attempt to 
seek out foreign money--let me just go down the line here.
    Do any of you have anything that you would want to--that 
you know about in terms of illegal foreign contributions coming 
into the 1996 elections? Do you have any information about 
that?
    Ms. Hernreich. Absolutely not.
    Mr. Fattah. Ms. Crawford.
    Ms. Crawford. No.
    Mr. Fattah. Ms. Khare.
    Ms. Khare. No.
    Mr. Fattah. Ms. Scott.
    Ms. Scott. [Nodding in the negative.]
    Mr. Fattah. And do you have any knowledge that the 
Democratic party or President Clinton sought or solicited 
donations, illegal foreign contributions in that campaign?
    Ms. Hernreich. No.
    Ms. Crawford. No.
    Ms. Khare. No.
    Ms. Scott. No.
    Mr. Fattah. In terms of the subject matter of this hearing, 
Mr. Chung, do you know of him violating any laws in our 
country?
    Ms. Hernreich. No, I don't know of him violating any.
    Mr. Fattah. Do you know of him providing any foreign money 
that was illegal in the campaign?
    Ms. Hernreich. I don't know of anything.
    Mr. Fattah. Do you know of him violating--I mean, he didn't 
barge into the White House. He requested the opportunity. He 
was checked through. Miss Kelly--Ms. Crawford, was he checked 
through by the Secret Service for admission into the White 
House?
    Ms. Crawford. Everyone that comes onto the White House 
grounds has to go through the process.
    Mr. Fattah. So even if you said that someone could come and 
they could be in a radio address, for security purposes, the 
Secret Service runs their own check.
    Ms. Crawford. We provide the Secret Service--or whoever----
    Mr. Fattah. You give them a name and and you give them 
information pertaining to that person?
    Ms. Crawford. Yes.
    Mr. Fattah. And then they get back to you and let you 
know--they make a decision, an independent decision based on 
their responsibilities to protect the physical health of the 
President as to whether that person can come in; is that 
correct?
    Ms. Crawford. That's my understanding.
    Mr. Waxman. Mr. Fattah, before we run out of time, I do 
want to yield some time to Mrs. Maloney. And then we'll get 
further chances for questions on the 5-minute rounds.
    Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman. I would like to ask 
all of you the same question. You can answer yes or no starting 
at this end. I would just like to ask you if you have any 
reason to believe that Johnny Chung was an agent of the Chinese 
Government, yes or no?
    Ms. Scott. No.
    Ms. Khare. No.
    Ms. Crawford. No.
    Ms. Hernreich. No.
    Mrs. Maloney. I would like to ask again, all four of you, 
do you believe that he tried to seek any favors for China? Are 
you aware of any favors that he tried to seek for China?
    Ms. Scott. No.
    Ms. Khare. No.
    Ms. Crawford. No.
    Ms. Hernreich. No.
    Mrs. Maloney. To your knowledge, did Johnny Chung ever try 
to seek any policy changes? Did he ever try to advocate policy, 
to your knowledge, in front of you, in any way?
    Ms. Hernreich. No.
    Ms. Crawford. No.
    Ms. Scott. No.
    Ms. Khare. No.
    Mrs. Maloney. To your knowledge, were any policy changes 
ever enacted as a result of a Johnny Chung's visits to the 
White House or for his contributions? Are you aware of any 
policy changes that were enacted?
    Ms. Hernreich. No.
    Ms. Khare. No.
    Ms. Crawford. No.
    Ms. Scott. No.
    Mrs. Maloney. Do you think that it is unusual for Johnny 
Chung to seek to have his picture taken with the President or 
the First Lady? Is that an unusual thing?
    Ms. Hernreich. No, it's not unusual.
    Mrs. Maloney. And do you believe that Johnny Chung was 
unique in trying to obtain a photograph?
    Ms. Hernreich. No, I don't think there's anything unique 
about that.
    Mrs. Maloney. What is it like when people come to the 
office? Do they usually want their photograph taken with the 
President and First Lady?
    Ms. Hernreich. Absolutely.
    Mrs. Maloney. And do you think that it's unusual for a 
businessman or woman to display a photograph that was taken 
with him or her, with the President or First Lady? Is that 
unusual?
    Ms. Hernreich. No, it's not unusual.
    Mrs. Maloney. I would like to really ask the President's 
scheduler, Ms. Hernreich, a few questions.
    How many people typically attend the President's weekly 
radio broadcast?
    Ms. Hernreich. Anywhere between 40 and 100. Approximately 
60 for each radio address.
    Mrs. Maloney. And is everyone who attends someone who gave 
a donation to the Democratic National Committee?
    Ms. Hernreich. Well, No. 1, one certainly doesn't know 
about those people. It has no correlation to their being at the 
radio address. So I wouldn't know that one way or the other.
    Mrs. Maloney. Describe some of the people who have come to 
these radio addresses besides Johnny Chung.
    Ms. Hernreich. You would normally----
    Mrs. Maloney. Mr. Fattah said he went. Did Members of 
Congress go?
    Ms. Hernreich. Members of Congress. The President's friends 
from high school or college, when they come to Washington, will 
come to radio addresses. His friends from Arkansas. We have 
staff people and family.
    Mrs. Maloney. What about school children? Do school 
children come?
    Ms. Hernreich. School children often come. If we have a 
theme radio address, we'll have a group that--for instance, if 
we had a radio address on mammography, we would have breast 
cancer survivors there. We had radio addresses on tobacco, and 
so we would have a group of school children come who had 
started an initiative to keep other kids from ever starting 
smoking.
    We've had absolutely variety. We have----
    Mrs. Maloney. So a cross-section of America?
    Ms. Hernreich. We have Make-A-Wish children come. We have 
the president of the national Rotary Clubs come. We have all 
kinds of people come.
    Mrs. Maloney. Actually, maybe I would like to come one of 
these days.
    Ms. Hernreich. We would love to have you. I hope you will.
    Mrs. Maloney. I would really like to ask a judgment 
question of you. You mentioned earlier that you're not aware if 
any of these school children or Congress Members or friends 
from home make contributions to the President's re-election 
campaign or to the DNC or to a Congressperson.
    But in your judgment, do you think it would be right to 
deny a person the access to go and listen to a radio address if 
they had given a contribution? I was always taught that it--to 
be civic, to participate in your Government. But do you think 
it would be right to deny someone access because they have made 
a contribution?
    Ms. Hernreich. I don't think it's right to deny somebody 
because of they've made a contribution.
    Mr. Waxman. Will you yield? Have you ever heard of anybody 
being denied access because they gave $50,000 to the Democratic 
National Committee?
    Ms. Hernreich. No, I haven't. Or the reverse.
    Mrs. Maloney. I would like to ask Carol, the DNC worker, 
the former assistant, I would like to ask you, why were you 
concerned about releasing the photographs of the President with 
the Chinese businessmen that Johnny Chung brought to the radio 
address? Why were you concerned about that?
    Ms. Khare. I was not really concerned about it, because we 
didn't have the photographs. The White House did. I did hear--I 
did learn that there was some concern at the White House about 
releasing them. And I heard that the National Security Council 
had those concerns. I didn't--and that was--when I heard that 
they were concerned, that was the first I knew that there was 
anything questionable about it.
    Mrs. Maloney. And would you have arranged for Mr. Chung to 
attend the radio broadcast if you had known that he was going 
to bring other businessmen with him?
    Ms. Khare. Well, I knew that he had businessmen with him, 
because he asked when he called. He said, I'm at the First 
Lady's office, we've been in with the First Lady; I have these 
businessmen with me, and we would like to go to the radio 
broadcast.
    Mrs. Maloney. Well, to your knowledge, is there anything 
illegal or unethical about bringing businessmen to a radio 
broadcast?
    Ms. Khare. No.
    Mrs. Maloney. To your knowledge, at the same time Mr. Chung 
made donations to the DNC, do you have any reason to believe 
those donations were improper?
    Ms. Khare. No. I have no reason to think that.
    Mrs. Maloney. And was Mr. Chung an American citizen at the 
time that he made these donations?
    Ms. Khare. I believe that he was.
    Mrs. Maloney. He was an American citizen. And is there any 
reason to believe that he was not the source of the 
contributions, that he--was there any reason to believe that 
the contributions came from any place besides Mr. Chung?
    Ms. Khare. I certainly had no reason to believe that.
    Mrs. Maloney. Did you know that when Mr. Chung came to 
these--to this meeting, that he had been just named 
California's Entrepreneur of the Year for his business 
activities? Did you know that?
    Ms. Khare. No, I really--that's the first I've heard of 
that.
    Mrs. Maloney. Didn't know that. My time is up. And I look 
forward to asking some more questions the next round.
    Mr. Burton. The gentlelady's time has expired.
    Ms. Hernreich, you said, I believe, that one of you 
indicated that anyone coming--I think it was you, Ms. 
Crawford--anyone coming into the White House had to have 
security clearance, or else they couldn't get in obviously to 
protect the President against something; is that correct?
    Ms. Crawford. The Secret Service handles the security.
    Mr. Burton. That's for everybody?
    Ms. Crawford. Yes. You have to clear someone into the White 
House if you're not a White House passholder.
    Mr. Burton. So the people that Johnny Chung brought in did 
have clearance, or else they wouldn't have been involved in the 
radio broadcast that day?
    Ms. Crawford. I assume so.
    Mr. Burton. Is that right, Ms. Hernreich?
    Ms. Hernreich. I would assume so, too. You send the list 
with information to the Secret Service, and they make a 
determination about who's allowed onto the White House grounds 
to see the President.
    Mr. Burton. OK. You said you didn't remember Johnny Chung 
being there and you didn't know the people who were with him?
    Ms. Hernreich. I have no recollection of that particular 
radio address or being there in the room when he was there.
    Mr. Burton. But the President said to you afterwards, those 
people shouldn't have been here?
    Ms. Hernreich. Yes.
    Mr. Burton. That seems kind of strange to me that you don't 
remember Johnny Chung being there, and you don't remember those 
people being there--and you don't remember those people being 
there, but you remember the President saying, those people 
shouldn't have been here.
    Ms. Hernreich. Well, I don't deny that they were there. I 
certainly--you know, because everything indicates that they 
were there. I just don't have any recollection of the 
particular radio address and, you know, everything surrounding, 
being in the room. Often I don't stay in the room. Sometimes I 
do; sometimes I don't. My office is right outside of the Oval 
Office. And often I will stay out in the outer office during 
the radio address and let the staff handle the radio address.
    Mr. Burton. I know. But you said you didn't remember Johnny 
Chung being there.
    Ms. Hernreich. No, what I meant to say, Mr. Chairman, is I 
was not in the room and don't remember, you know, everything 
that went on there. I guess what I'm trying to say is, I 
certainly--from every indication, Mr. Chung was there. I just 
don't remember, I cannot visualize the events that went on that 
day or remember everything that sort of transpired----
    Mr. Burton. And you----
    Ms. Hernreich [continuing]. In the room that day.
    Mr. Burton. And you don't remember the people that were 
there either?
    Ms. Hernreich. I don't have--other than, you know, having 
seen----
    Mr. Burton. Well, the reason that troubles me is, I'm 
thinking to myself now, because we have people running in and 
out all the time as well. And sometimes I get a little upset. 
And I look at my secretary and say, why did you bring these 
people in here--for instance, when we have a bill up, and 
people are in there beating on us, we don't want to talk to 
certain people--and say, why did you bring these people in? And 
usually when I say that, I'm not angry, but she gets the 
message pretty easily and pretty quickly, and it makes a very 
vivid impression on her.
    And I can't understand you being as close to the President 
as you are and working with him as long as you have and knowing 
him as well as you do, that you wouldn't remember these people 
and remember this incident, because obviously he says, hey, 
these people shouldn't have been in there.
    Ms. Hernreich. That's what I remember, what the President 
said to me.
    Mr. Burton. But you don't----
    Ms. Hernreich. That makes a very vivid impression upon me. 
But, no, I do not remember--again, everything indicates they 
were there.
    What I'm saying is, there's no denial that they were there. 
I just cannot tell you anything that transpired in the room. I 
have no visualization of what went on that day. And my 
recollection, although it could have happened in the Oval 
Office, that the President stepped out into the outer office 
when he said that to me after the radio address. It could have 
occurred in the Oval Office. But that's my recollection.
    But what I do remember, Mr. Chairman, is that he said that 
to me. And as you said, your assistant would remember something 
like that. That's--that's the part that I remember. We have had 
15----
    Mr. Burton. All right.
    Ms. Hernreich [continuing]. Thousand people probably go 
through there on radio addresses. It's impossible to remember 
everything--everybody that has gone through there. But I do 
remember that the President said that to me.
    Mr. Burton. I understand. But the pictures weren't sent?
    Ms. Hernreich. That's my recollection, Mr. Chairman.
    Mr. Burton. Why? I mean, you don't remember the people. You 
don't remember Johnny Chung being there. You do remember the 
President admonishing you that they shouldn't have been there.
    Ms. Hernreich. Correct.
    Mr. Burton. And then the pictures weren't sent. Why? Do you 
have any idea why the pictures were not sent, why he didn't 
want them sent?
    Ms. Hernreich. I don't think that's what the President said 
to me. He did not tell me not to send the photographs. He just 
said to me, we shouldn't have done that. That's my 
recollection, that there was nothing--he didn't say anything to 
me about photographs. And my recollection is that--that we did 
not send the photographs.
    I didn't necessarily recall that that's what NSC said, 
because in the memo that we now see from Mr. Suettinger, he 
said it was OK to release the photographs, although I did not 
have that information at the time.
    But if I made the decision not to send the photos, it was 
either because the NSC said it or because I thought, let's err 
on the side of caution here. And if there's any question about 
that whatsoever, let's not send the photographs out.
    Mr. Burton. Ms. Crawford, you know who Mr. Wiriadinata was, 
the gardener that gave $400,000 to the DNC?
    Ms. Crawford. No. I--that name I can't recall.
    Mr. Burton. Were you in the room when he was there; do you 
recall?
    Ms. Crawford. I do not know.
    Mr. Burton. You said you were in the room most of the time 
when these people came in after a radio broadcast.
    Ms. Crawford. And did this gentleman attend the radio 
address; is that----
    Mr. Burton. He was just there for a picture. OK. Never 
mind.
    Could we play this tape of Richard Sullivan, please? Could 
you put that on?
    [Videotape played.]
    Mr. Burton. Ms. Scott, I know my time has expired, but I 
would like to ask you, was there any discussion about this with 
the staff and the people at the Democratic National Committee?
    Ms. Scott. On what day?
    Mr. Burton. About the concerns that he expressed there 
about Mr. Chung.
    Ms. Scott. I'm not understanding your question.
    Mr. Burton. You heard what he just said there.
    Ms. Scott. Right.
    Mr. Burton. Was there any discussion about Johnny Chung, 
about what--about this particular issue, about whether or not 
people over there were concerned about getting contributions 
from him because of--because of his background and because of 
his hustler image?
    Ms. Scott. No.
    Mr. Burton. There was no discussion whatsoever?
    Ms. Scott. No.
    Mr. Burton. So the only person was Mr. Sullivan that had 
that concern?
    Ms. Scott. I can't speak on behalf of Mr. Sullivan.
    Mr. Burton. I see.
    Who seeks time on your side?
    Mr. Waxman. I'll reserve my time----
    Mr. Fattah. I'll seek time.
    Mr. Waxman [continuing]. And pass at that point.
    Mr. Fattah. I'll seek time.
    Mr. Burton. Mr. Cummings.
    Mr. Fattah. No, Fattah.
    Mr. Burton. Oh, that's right. You were in the 30 minutes. 
Mr. Fattah.
    Mr. Fattah. Yes. Thank you, Mr. Chairman.
    Let me just walk back through this, Ms. Hernreich. You're 
in charge of a major operation that has to do with access to 
the President, him getting his work done----
    Ms. Hernreich. That's correct.
    Mr. Fattah [continuing]. On behalf of the country. And you 
have a number of employees who work for you?
    Ms. Hernreich. That's right.
    Mr. Fattah. So when the President is doing something that's 
on his schedule, more likely than not, you're thinking about 
the next thing and the next thing and the next thing that's on 
the schedule.
    Ms. Hernreich. Usually I have other work to do.
    Mr. Fattah. OK. So radio addresses are regular events that 
take place?
    Ms. Hernreich. That's correct.
    Mr. Fattah. And I hate to shatter the public image of this, 
but these are not extemporaneous comments by the President into 
a radio microphone, right?
    Ms. Hernreich. That's correct.
    Mr. Fattah. These remarks are prepared well in advance. 
There's a sense of what is going to happen. So, for you, 
there's not a lot of drama in a radio address.
    Ms. Hernreich. That's correct.
    Mr. Fattah. So the fact that you say, well, the President 
was having a radio address, and I was doing my other work, in 
the context of the world that you live in, it makes a lot of 
sense, right?
    Ms. Hernreich. Yes. I mean, again, that's as I recall it. 
You know, I could have been in the room; I just don't remember 
it. And I want to make that clear: There are times that I go 
into radio addresses, and there are times that I stay outside 
and do other work.
    Mr. Fattah. I just want to get a sense of this. You know 
the President was over on Capitol Hill the other day, and my 
staff was up looking out the windows and stuff. You see the 
President all the time, right?
    Ms. Hernreich. That's right.
    Mr. Fattah. So you're not going to be up because they say 
the President is walking by, you're not going to be jumping up 
to see the President of the United States. I mean, you're on 
the inside?
    Ms. Hernreich. Yeah, you're correct about that statement.
    Mr. Fattah. So the point that the chairman was making about 
your recollection about the radio event, there's no 
disagreement that these gentlemen came in with Johnny Chung 
into the radio address.
    Ms. Hernreich. That's correct.
    Mr. Waxman. There are pictures of it, in fact?
    Ms. Hernreich. That's correct.
    Mr. Fattah. There's videotape of it?
    Ms. Hernreich. That's correct.
    Mr. Fattah. And they were put on a list by Ms. Crawford, 
who works under you; is that correct?
    Ms. Hernreich. That's correct.
    Mr. Fattah. And that list was eventually run by you before 
the radio address took place?
    Ms. Hernreich. Well, I assume so. I am not absolutely 
certain of that, but I assume so.
    Mr. Fattah. But it would normally have been?
    Ms. Hernreich. That's correct.
    Mr. Fattah. OK. So there's no mystery surrounding this 
event whatsoever?
    Ms. Hernreich. That's right.
    Mr. Fattah. Now, there's a mystery--at least on my part, 
not on your part--as to why the committee is so focused on this 
matter. Because again there's no information whatsoever that 
these people's appearance at the radio address in any way, 
shape, or form has anything to do with foreign contributions, 
illegal contributions into the 1996 elections.
    Now, there was testimony under oath by Haley Barbour in the 
Senate that he traveled to Hong Kong--he was on a yacht there; 
he requested $2 million--that he got those dollars. He put it 
into the national policy forum which he was the chairman of 
while he was the chairman of the RNC. In fact, when the policy 
forum was created, the paperwork chart showed that as a 
subsidiary of the RNC. And they spelled out in the paperwork 
that they were creating this 501(c)(3) so that they could take 
foreign money.
    So then he set up an entity to take foreign money. He went 
to a foreign land, received a couple million dollars in foreign 
dollars. That went into the election of Republicans to the U.S. 
Congress. In fact, it was requested specifically to go into 
some 60 targeted races.
    And then the gentleman who helped facilitate this money 
asked him not for a letter like the letter that Don Fowler 
wrote for Johnny Chung; he asked him to travel to China with 
him. The chairman of the Republican National Committee got up, 
took his United States passport and went off to China.
    So if we're looking for foreign money in an election, 
there's some reason to believe that if we could stop majoring 
the minors, we might be able to actually get some people in 
front of us who could talk to us about foreign money coming 
into an election. Because there is evidence, at least on the 
record in the Senate, under oath, that these are the facts.
    And we could ask the people involved in this as to why it 
was that they sought to have foreign money influence the 
outcome of the elections--Federal elections in the--and so, Mr. 
Chairman, I would just hope as we go forward that since these 
people have given us all the information, I think, that they 
have at their disposal, that we would find some time on the 
committee's schedule when we could bring in those who have been 
involved in these activities, because I know, since we have 
been so enthusiastic in our search for illegality, that this 
committee would not want to miss the opportunity to scrutinize 
these opportunities.
    I will yield back.
    Mr. Waxman. Will the gentleman yield?
    Mr. Fattah. I will yield to Congressman Waxman.
    Mr. Waxman. And if we really want to look at the influence 
of foreign money, we ought to look at the money that's gone to 
Members of Congress. Because one of the things that we learned, 
just from reading the press reports about what was made, the 
to-do that was made about the Chinese Government maybe doing 
something, they were looking at Congress. They were trying to 
influence the Congress of the United States. And we've got a 
lot of other reports of Members of Congress that have been 
influenced with foreign money or by supporters of foreign 
policy issues.
    If we want to look at that question, let's look at it 
across the board, not just at the President, not just at the 
Democrats, but some of the Republicans as well.
    I thank you for yielding to me.
    Mr. Fattah. I yield back the balance of my time.
    Mr. Burton. The gentleman yields back the balance of his 
time.
    We intend to have hearings on the question of foreign 
money. We will do that at some point in the future.
    Mr. Horn.
    Mr. Horn. Thank you very much, Mr. Chairman. I'm going to 
be using exhibits 196, 198, and 240. And my question is 
addressed to Ms. Crawford who, I believe at the time we're 
discussing, which is April 7, 1995, you were Deputy--or you 
were former Staff Assistant to Nancy Hernreich at the White 
House; is that not correct?
    [Note.--Exhibits 196 and 198 may be found on pp. 715 and 
717.]
    [Exhibit 240 follows:]
    [GRAPHIC] [TIFF OMITTED] T5667.429
    
    Ms. Crawford. That's correct.
    Mr. Horn. What I'm curious--if you remember, looking at 
exhibit 196, did you happen to call up Melanie Darby on the NSC 
staff to give her information on the delegation from China that 
was coming?
    Ms. Crawford. I don't recall specifically calling Ms. Darby 
about this. But she would have been the appropriate person. She 
worked in the National Security Council for Nancy Soderberg who 
this list had gone to on the 13th. And she was--would have been 
sort of my counterpart. So it would not have been unusual for 
me to contact her and followup on these.
    Mr. Horn. Well, what I'm looking at here is April 7, 1995, 
10:12 a.m., Melanie Darby sends this e-mail, electronic mail, 
to Robert L. Suettinger. Now, here's what it says:

    An odd situation in which I need some guidance for the 
President's office as soon as possible.
    A couple of weeks ago, late Friday night, the head of the 
Democratic National Committee asked the President's office to 
include several people in the President's Saturday radio 
address. They did so and not knowing anything about them except 
that they were Democratic National Committee contributors.
    It turns out they are various Chinese gurus, and the 
President of the United States wasn't sure we would want photos 
of him with these people circulating around. Johnny Chung, one 
of the people on the list, is coming in to see Nancy Hernreich 
tomorrow, and Nancy needs to know urgently whether or not she 
can give him the pictures. Could you please review the list as 
soon as possible and give me your advice on whether we want 
these photos floating around. For your information, these 
people are major Democratic National Committee contributors. 
And if we can give them the photos, the President's office 
would like to do so.

    Now, the major Democratic National Committee contributors 
are the chairman, China Council for the Promotion of 
International Trade; chairman, China Commerce of International 
Commerce; the president, China Petrochemical Corp.; the vice 
president, China International Trust and Investment Corp.; the 
vice chairman and president of Shanghai A.J. Share Holding 
Corp.; then James J. Sun is the young entrepreneur in this 
Chinese city, self-made multimillionaire; and then the chief of 
the American Oceanic Affairs Division Liaison Department and so 
forth; and Johnny Chung, chairman and CEO of his own firm.
    Now, I take it most of the people on this list are aliens, 
are not U.S. citizens. And yet, they're noted here as major 
Democratic National Committee contributors. And that, he is 
taking, I assume here, or rather Ms. Melanie Darby is taking 
this as background that probably someone from the President's 
office, either you or Mrs. Nancy Hernreich are the ones. And I 
assume perhaps Mr. Sullivan gave it to you. Or whoever it is 
that gave the information from the Democratic National 
Committee. Am I wrong on these assumptions? It seems to me that 
here we have evidence that aliens are contributing to the 
Democratic National Committee, foreigners, not citizens of the 
United States.
    Ms. Crawford. I don't recall a specific conversation with 
Brooke Darby and what I may have or may not have told her.
    Mr. Horn. Well, you work for Nancy Hernreich. Did you, Ms. 
Hernreich, call Melanie Darby and give her the background and 
ask for some advice and information?
    Ms. Hernreich. I have no recollection of calling Brooke 
Darby--she's called Brooke by the way--about this. But I think 
in the other, and I can't remember what number it was, what it 
appears that I did was, shortly after the radio address, wrote 
a note on the list of the people who attended that radio 
address to Nancy Soderberg who is, who Melanie B. Darby works 
for. And that seems to have been, and that one indicates on 
there that the someone from the DNC asked us to let them into 
the radio address.
    She may have meant--decided from that note, to then phrase 
this--this e-mail in this way. I don't know. I don't recall 
ever having a conversation with her about this. And, in fact, I 
probably would not have had a conversation with her. What I did 
was send the note, and you all can read what I put on the note. 
And it doesn't say that I thought that these people were DNC 
contributors.
    Mr. Horn. Earlier, the chairman asked certain questions 
about how one is cleared into the White House.
    Ms. Hernreich. Yes.
    Mr. Horn. I gather, when you have somebody that you've 
arranged or somebody wishes you to arrange a meeting with the 
President, just if it's sitting in the radio show, having 
pictures, photos, whatever, that you make a call to the Secret 
Service, I assume, give him the list of people. And do they 
have to do more than that? Do they need, if they are American 
citizens, the Social Security number? Or what? How do you do it 
with foreign nationals?
    Ms. Hernreich. We have a new procedure that we have put 
into place now.
    Mr. Horn. Since this time?
    Ms. Hernreich. Yes, since this time.
    Mr. Horn. What was it then?
    Ms. Hernreich. I don't know what it was then. I think what 
we did then, which was probably give, if they weren't American 
citizens, give passport numbers and names. We would send those 
to the Secret Service. And then they make a determination if 
they, if the person can come into the White House.
    Mr. Horn. I would like to ask the chairman and the general 
counsel for us, chief counsel, do we have those records from 
the Secret Service as to who came in and how they were 
admitted?
    Mr. Bennett. We do not have all those records, Congressman. 
We're in the process of talking to Mr. Ruff's office about many 
records at the White House. And Mr. Ruff is seeking to be 
cooperative, but we do not have all those records, no.
    Mr. Burton. But we will check into it.
    Mr. Horn. All right. This electronic mail, as I said, was 
April 7, 1995, 10:12 a.m. to Robert L. Suettinger. Now, here's 
his reply, since it was urgent that they wanted information, 1 
hour 12 minutes later, sent at 11:24 a.m., April 7, 1995.
    And he says the following to Melanie Darby: ``The joys of 
balancing foreign policy considerations against domestic 
politics. I don't see any lasting damage to U.S. foreign policy 
from giving Johnny Chung the pictures. And to the degree it 
motivates him to continue contributing to the Democratic 
National Committee, who am I to complain? Neither do I see any 
unalloyed benefit either. But as far as the other Chinese on 
the list are concerned, they all seem to be bona fide, present 
or former, Chinese officials with the possible exception of 
James Y. Sun, `young entrepreneur and self-made millionaire' '' 
with quotes around it. ``Got some doubts there. Notwithstanding 
that, these guys will all hang the pictures on the wall and 
feel grateful for a memory.
    ``But a caution, a warning of futures deja vu. Having 
recently counseled a young intern from the First Lady's office 
who had been offered a, quote, `dream job,' unquote, by Johnny 
Chung, I think he should be treated with a pinch of suspicion. 
My impression is that he's a hustler and appears to be involved 
in setting up some kind of consulting operation who will thrive 
by bringing Chinese entrepreneurs into town for exposure to 
high level U.S. officials.
    ``My concern is that he will continue to make efforts to 
bring his friends, in quotes, into contact with the President 
of the United States and the First Lady of the United States to 
show one and all he's a big shot, thereby enhancing his 
business.
    ``I would venture a guess that not all of his business 
ventures or those of his clients would be the ones the 
President would support. I also predict that he will become a 
royal pain because he will expect to get similar treatment for 
future visits. He will be persistent. Signed Bob.'' And this 
Bob, I don't know, is not related to CIA Bob we hear about.
    Mr. Burton. The gentleman's time has expired.
    Mr. Horn. But this is Bob Suettinger otherwise known as 
Robert Suettinger.
    Mr. Burton. The gentleman's time has expired.
    Mr. Cummings.
    Mr. Cummings. Mr. Chairman, I was very pleased to hear you 
saying that we are going to be looking beyond where we've 
looked, because certainly, as Mr. Fattah and Mr. Waxman have 
said, we definitely need to look at the Congress of the United 
States of America. And we also need to look at both parties and 
I'm glad to hear that. And certainly we will hold you to that.
    I just want to cite something that I find very interesting, 
as we go down this road of leading to nowhere. By the way, the 
New York Times on January 27th has a very interesting article, 
1997. It says $250,000 buys donors best access to Congress.
    It says, for elite donors who contributed at least 
$250,000, the Republican party offered a new enticement in it's 
gilded invitations to the party's convention in San Diego last 
summer. Beyond the smorgasbord of perks like access to the 
party's private sky box and a photo session with Republican 
nominees, the party promised special benefit, staff members to 
help with the problems in Washington.
    In fund-raising circles, these $250,000 donors, and I 
emphasize $250,000 donors, became known as season ticket 
holders. At least 75 corporations and individuals gave $250,000 
or more to the Republican party last year setting a new 
standard for political giving that by far surpasses previous 
election years when top donors generally gave $100,000 to join 
the Team 100 Club.
    According to solicitation letters, invitations and 
interviews with dozens of Republican fund-raisers, the 
Republicans have focused on large corporations and individuals 
with interests pending on Capitol Hill. Quote, ``there is no 
question, if you give a lot of money, you will get a lot of 
access, said a senior executive whose corporation gave $500,000 
to the Republicans. All you have to do is send in the check.''
    The $250,000 season ticket was pitched as an entre to the 
party's inner circle and the best access to Congress. And 
that's quote. He said, adding, it is literally touted as being 
in the inner sanctum and the creme de la creme.
    Most fund-raisers and donors spoke on the condition of 
anonymity. And he went on to say, I think it is fair to say 
that everyone in our organization from the CEO down finds this 
atmosphere to be corrosive and unproductive, said an executive 
whose corporation donated more than $300,000. Quote, you play 
because your competitors play. At least from our perspective, 
we would much rather take a number at the door of a Congress 
person's office, sit down like any other citizen, and when our 
number is called, go in, state our case, and then leave. I 
thought that this is what the Constitution says how it should 
be, end of quote.
    That article and those quotes call out for us, Mr. 
Chairman, to look at this entire process. And I'm just curious, 
to these ladies that are sitting in front of you, do all of you 
have lawyers?
    Ms. Hernreich. Do all of--I'm sorry, what did you say?
    Mr. Cummings. Do all of you have lawyers representing you?
    Ms. Khare. Yes.
    Ms. Hernreich. Yes.
    Mr. Cummings. And it's interesting, Mr. Chairman, when I 
heard the figures that were paid by Maggie Williams to defend 
herself in coming from Paris, and I'm sure these ladies, had to 
find money, and take time to do this. The question then becomes 
what is our aim? Where are we going?
    As I've said many times before, I think the American people 
basically want to see their tax dollars spent in a cost-
efficient and effective manner. That's all they want. And we 
seem like we're on our road down this Alice in Wonderland 
situation where we're trying to present something. But it 
reminds me of a few years ago when I was a child when HUD had a 
commercial, and the commercial was about home buying and 
basically telling the people to be careful when they go out to 
buy a house. So they had this big wonderful front. I'll never 
forget it. I was 6 or 7 years old. Big, big front. And the 
person goes and opens the door, and there's nothing behind it.
    And so this whole episode reminds me of that. And I think 
that it's important that the American people understand where 
we're going. The Senate did their hearings. Senator Fred 
Thompson, in all due respect, came out with all of these 
allegations from the very beginning. And when the door was 
opened, even he had to admit that there was nothing behind it.
    And here we are again spending taxpayers' money, taxpayers 
that are looking at this right now trying to figure out how 
they're going to get their kids through college, trying to 
figure out how they're going to have food on the table, trying 
to figure out how they're going to pay the taxes that are going 
to come due very shortly, but at the same time, they watch 
their Government bring in these wonderful ladies with their 
lawyers sitting right behind them and watch their Congress 
people that are paid $130 some thousand a year, sit here and go 
down this Alice-in-Wonderland situation.
    They, too, are sitting wondering when the doors open and 
there is nothing behind it, nothing, they ask themselves a 
question, and they must become quite cynical as to where--what 
we are doing.
    And so I would hope, Mr. Chairman, that we would move on to 
the things that are very important; that we look at Congress. I 
think that should be very, very interesting. And perhaps, when 
we open the door, we will see something behind it, because 
maybe there is. Thank you very much.
    Mr. Burton. The gentleman yields back the balance of his 
time.
    Mr. Cummings. Yes.
    Mr. Burton. Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman. We are getting toward 
the end, ladies, and I appreciate your patience, and I think 
you know why we're here. We're here because the very top 
assistant to the First Lady, close to the President, accepted a 
check. She admits she accepted a check on Government property 
for $50,000.
    The committee doesn't know the source of that money, but we 
know that substantial foreign money was sent to the account of 
Mr. Chung. We know that on March 9th he passed that check to 
Ms. Williams, who came before you, for $50,000. We know that on 
March--that is March 9th--on March 10th that one or two of you 
were calling to get him and his Chinese delegation in to a 
meeting then with the President. On the 9th, I guess--or the 
10th he had his picture taken with the First Lady and used the 
White House Mess at the direction of the First Lady's office. 
And on the 11th he did appear with the President, and the 
President you have testified, is upset about it.
    We are a little bit concerned that we don't know where that 
money came from. We're a little bit concerned that, Ms. Scott, 
you told the committee that you think that you spoke to Ms. 
Williams about the request to get these folks in.
    Did you speak to Ms. Williams or someone in the First 
Lady's office; is that correct?
    Ms. Scott. I said that I think that I spoke to someone in 
the First Lady's office. I did not specifically say Ms. 
Williams.
    Mr. Mica. Well, again, we're trying to sort out where these 
directives came from, where this money came from, and we hope 
to get to the bottom of it by talking to Mr. Chung and see how, 
in a matter of a couple of days here, by giving $50,000 he not 
only spent time with the First Lady, but also ended up with the 
President of the United States, with four foreign nationals at 
a radio address.
    Some of it seems very coincidental. And then if we look at 
other transactions that are made here, $125,000 April 8th, and 
other contacts that were made; and we also have, if you go back 
to March 13th, I think this--are you left-handed----
    Ms. Hernreich. No.
    Mr. Mica. Who is left?
    Ms. Crawford. Well, I'm left-handed.
    Mr. Mica. You are left-handed?
    Ms. Hernreich. That is my handwriting.
    Mr. Mica. Is that your handwriting?
    Ms. Hernreich. It is my handwriting and I'm right-handed.
    Ms. Hernreich. There is a left-hand check here.
    Ms. Crawford. That may have been mine.
    Mr. Mica. Well, someone knew, and it is marked here 3/13. 
So we have the 9th the money is given, the 10th we see action 
requesting this, and on the 13th already the photos. And no one 
remembers the photos, even though we have testimony or 
deposition by Ms. Ratliffe, who says she picked them up from 
Ms. Crawford. And we have questions raised about who these 
dudes are and what they are doing.
    So it does raise some questions about a trail of foreign 
money, about national security, about access to the President, 
about receiving money on Federal property. And we are just 
trying to get to the bottom of what, in fact, has gone on here, 
and we will continue to pursue it.
    It does cost money. In some countries they don't spend the 
money. It's all swept under the table. No one knows what took 
place. But the American people have a right to know and we have 
an obligation to find that information out from our witnesses.
    I want to thank the chairman----
    Mr. Burton. Would the gentleman yield?
    Mr. Mica [continuing]. For holding the meeting and yield 
back my----
    Mr. Burton. Would the gentleman yield before he yields back 
his time?
    Mr. Mica. Yes. Yes.
    Mr. Burton. I'd like for exhibit 191 to be put up on the 
screen. Can you bring that in a little bit closer?
    Ms. Scott, you indicated a while ago that there was not a 
lot of discussion over at the Democrat National Committee about 
Johnny Chung. If you read this it says, Ceandra Scott called. 
She was concerned about Johnny Chung. She stated that we should 
have called them prior to their coming to the radio address. 
Apparently they were in Maggie's office when the request came 
and Maggie said she didn't know, but to contact the DNC.
    It seems strange to me that there was not any discussion 
over there, like you said. You said there wasn't much concern 
about Mr. Chung, and yet you called Maggie's office and said 
that that should have been cleared prior to them coming over 
there. Why were you concerned and why does this memo say that?
    [Exhibit 191 follows:]
    [GRAPHIC] [TIFF OMITTED] T5667.430
    
    Ms. Scott. The memo is addressed to Betty Currie, who is in 
the Oval Office.
    Mr. Burton. Yes.
    Ms. Scott. What happened was after the radio address, I 
made a call in to Ms. Currie, who was not there, and spoke to 
someone else, I'm not sure who that person was, and they raised 
concern about Mr. Chung being at the radio address with those 
guests.
    Mr. Burton. So there was some concern at the DNC among the 
staff about Johnny Chung.
    Ms. Scott. I didn't say the DNC, I said I called over to 
the White House.
    Mr. Burton. I know, but you were at the DNC.
    Ms. Scott. Correct.
    Mr. Burton. That's what I'm saying. There was concern about 
him over there.
    Ms. Scott. I'm unclear as to what your real question is, 
Mr. Chairman.
    Mr. Burton. You made this call.
    Ms. Scott. I didn't make the call regarding Johnny Chung. I 
just made an unspecific unrelated call to Ms. Currie. Someone 
answered the phone. It was a female. I'm not sure who she was, 
but stated that there was some concern about the guests of Mr. 
Chung at the radio address.
    Mr. Burton. If you read the note there, it says Ceandra 
Scott called. She was concerned about Johnny Chung.
    And when we asked the question a while ago, you indicated 
there was no discussion or concern about Johnny Chung over at 
the DNC.
    Mr. Best. Well, Mr. Chairman, the real question for the 
witness is does this refresh her recollection of such a 
conversation, because this is not her memorandum.
    Mr. Burton. I understand it is not her memorandum, but Ms. 
Currie indicated that this was a concern that Ms. Scott had 
when she called over there. That's why I'm asking the question. 
Does this stimulate any recollection on your part?
    Ms. Scott. Yes, it does.
    Mr. Burton. It does. So there was concern at the DNC about 
Johnny Chung?
    Ms. Scott. I can't say the DNC. I said what happened was I 
called over to Betty Currie after the radio address. She was 
not in. Someone answered the phone and said there was concern 
about Mr. Chung and his guests at the radio address.
    I then put in a second call to Betty Currie to try to get 
her once I found out, which I never made any contact with Ms. 
Currie. So that's what this is about.
    Mr. Burton. So then the word ``she'' does not refer to you; 
is that what you are saying?
    Ms. Scott. I didn't write it, so I'm unclear as to what the 
``she'' is.
    Mr. Burton. OK, thank you. Do we have any more--Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman. Could we have exhibit 
201 up? Ms. Khare, do you know the date of that? There is no 
date on it. It's a fax from you to Johnny Chung about the 
photos.
    [Note.--Exhibit 201 may be found on p. 55.]
    Ms. Khare. Apparently it was faxed on April 11, 1995, from 
the fax line at the top, but----
    Mr. Barr. That would be consistent with an earlier phone 
message, I think, that we have seen.
    Ms. Khare. I don't know about a phone message.
    Mr. Barr. Could we have exhibit 195? Now, that's dated 3/
11. A date of 4/7.
    [Exhibit 195 follows:]

    [GRAPHIC] [TIFF OMITTED] T5667.431
    
    Ms. Khare. This phone message--I didn't write this phone 
message and it's not to me. I don't know what that is.
    Mr. Barr. I wasn't saying that you did. I'm just trying to 
come up with a time line.
    Could we have exhibit 215, please? This document says, as 
of 11/22/95, per Bob McNeely, he will not honor request from 
Johnny Chung, CEO of AISI. He has been improperly using photo 
of businesspeople and the President.
    Do any of you have any knowledge of that?
    [Note.--Exhibit 215 may be found on p. 721.]
    Ms. Khare. No, I don't.
    Mr. Barr. That would seem to indicate that the photos did 
go out, though; would it not?
    Ms. Hernreich. Yeah, again, all I can say is my 
recollection of this is that he asked for photos and that we 
did not send the ones of the group with him. If he obtained 
them through some other office or some other way, I don't know.
    You know, I think what's possible, that could have 
happened, is that the photo of him and his brother could have 
been released but of the large group wasn't. I don't know for 
sure. And my memory can be incorrect on this, but my memory is 
that we did not send the photos out.
    But there are other ways for them to get the photos. 
Anybody can order photos, but that was my recollection. And it 
could have been another, not the photos of the group, it could 
have been just of him and his brother.
    Mr. Barr. On exhibit 198, down at the bottom, it talks 
again about the photos, way down at the bottom there. And the 
last sentence there, the parenthetical, the President's office 
would like to do so, talking about giving them the photos.
    Who does that refer to? Who would be representing the 
President's office in that context?
    [Note.--Exhibit 198 may be found on p. 717.]
    Ms. Crawford. I mean, I dealt with photographs in the 
President's office, but I don't recall a specific conversation 
with Brooke, or I don't know why I would have any stake in 
whether or not Mr. Chung got his photographs or not.
    Mr. Barr. Well, one would presume that Darby Brooke would 
not just make that up. I mean, that wouldn't be a fair 
presumption, would it; that she just made up----
    Ms. Crawford. I assume that she did not make that up.
    Mr. Barr. Right, I would presume that, too. But none of you 
all, in searching your memory and your vast knowledge of how 
things work at the White House can think of anywhere that would 
have come from, that the President's office would like the 
photos to come out?
    Ms. Crawford. The only thing that I can come up with is 
that Mr. Chung was persistent about wanting the photographs, 
but I don't think----
    Mr. Barr. Yes, but he doesn't speak for the President's 
office, does he; Mr. Chung?
    Ms. Crawford. No.
    Mr. Barr. I wouldn't think so. Somebody must have been 
speaking for the President's office to cause Darby Brooke to 
make a very specific reference to the President's office 
wanting the photos to go out. Would that be a fair assumption?
    Ms. Crawford. I don't know what Ms. Darby, you know, why 
she would have written this. I can't speculate.
    Mr. Barr. Well, you could. If you are not speculating, 
that's different from saying you can't speculate. I mean all 
I'm trying to do----
    Ms. Crawford. Would you like me to speculate?
    Mr. Barr. There seems to be some confusion here, and nobody 
wants to own up to anybody wanting the photos to go out. There 
seems to be a clear indication here that somebody over at the 
White House did, and I'm just curious as to who at the White 
House did want the photos to go out or whether Darby Brooke 
just sort of made that up.
    Ms. Hernreich. Congressman, I think that the chairman, or 
someone has indicated that you will have these people tomorrow 
and maybe they can answer the questions and their memories 
might be better than ours on it, and certainly accept if they 
say they got it from us.
    Mr. Barr. That would be nice.
    Ms. Hernreich. Yeah, it would be. I would like to know 
myself, really.
    Mr. Barr. Thank you.
    Mr. Burton. Does the gentleman yield back the balance of 
his time?
    Mr. Barr. Yes, sir.
    Mr. Burton. The gentleman yields back the balance of his 
time.
    Mr. Barrett, we are only going to have two more people 
question, in all probability, if the gentleman has any more 
questions this evening.
    OK. Mr. Cox.
    Mr. Cox. I thank the chairman. Ms. Hernreich.
    Ms. Hernreich. Yes.
    Mr. Cox. As the person responsible for Oval Office 
operations, you have some familiarity with what goes in and out 
of the President's office. Isn't that essentially the job?
    Ms. Hernreich. Yes.
    Mr. Cox. And that includes correspondence?
    Ms. Hernreich. Yes.
    Mr. Cox. Now, as I understand it, some of the 
correspondence that the President receives is separately 
answered because it's not of a business nature but of a 
personal nature; is that the way it works?
    Ms. Hernreich. Yes.
    Mr. Cox. And the category of whether correspondence is 
personal or not is dependent on what?
    Ms. Hernreich. Well, we have--at the beginning of the 
administration we sent out a letter to a group of friends and 
it gave them a private zip code. So, originally, all of the 
personal correspondence, where people who were writing in to 
that particular zip code--so that is how it started.
    And then, as we were able to determine, as other people 
would write, the correspondence, the general correspondence 
department would then decide, pick those letters out and say, 
well, this sounds very personal, send it over to the personal 
correspondence department. We would make a determination, yes, 
this is somebody the President knows personally and, yes, we 
should answer this. This is of a personal nature. So that is 
generally how that happens.
    Mr. Cox. And does the President see personal correspondence 
as it goes out?
    Ms. Hernreich. Not every single piece of it, but generally, 
yes.
    Mr. Cox. Because these are people that he personally wishes 
to keep up with?
    Ms. Hernreich. Yes. It's people that he will see often, and 
would--not often, but would see periodically, and it would be 
people that he would want to keep up with as well, but----
    Mr. Cox. Now, it's my understanding that in response to a 
question from the ranking member you have indicated that Johnny 
Chung, not for correspondence purposes, but just in the plain 
English sense, was a personal friend of the President's.
    Ms. Hernreich. What I said, I would correct it a little 
bit, I think the President considers a lot of people his 
friends, and he considers his supporters his friends. This is a 
man who loves people and he has literally, in my mind, millions 
of friends. And he honestly considers a very wide group of 
people his friends. So he considers Johnny Chung----
    Mr. Cox. All right. Now, the videotape that we saw of----
    Ms. Heinrich. Pardon me.
    Mr. Cox. The videotape we watched earlier of the Oval 
Office meeting with the Chinese guests that Johnny Chung 
brought in with him, the President sort of bear hugged Johnny 
Chung and was very happy to see him and greeted him by name and 
so on. And it is not in the sense that the President has 
millions of friends, but in the sense that he actually knew 
Johnny Chung that he is a personal friend; is that right?
    Ms. Heinrich. I assume so, yes. By the appearance of that 
videotape.
    Mr. Cox. Was Johnny Chung part of the group of 
correspondents who was treated as a personal correspondent?
    Ms. Hernreich. That was really initially a very small 
group. And Kelly and I put that list together in transition 
from a--and we had very little time to do it. So we used a very 
limited list to begin with. And there were people, just high 
school and college friends and that sort of thing. Because 
those were really the only ones that we had to deal with at the 
time. And we were in quite a hurry to let people know that they 
could, those people could contact the President.
    Mr. Cox. And is Johnny Chung in that group?
    Ms. Hernreich. He was not in that group of high school and 
college friends and Rhodes Scholar friends and that group that 
received that zip code. There were only a very small number who 
received the zip code.
    Again, we had a limited number of time to go through the 
list. We had limited lists at our disposal to go through, and 
we were in a hurry to get that information out, so----
    Mr. Cox. The President himself occasionally gave people 
this zip code; right?
    Ms. Hernreich. I think he did, yes.
    Mr. Cox. So it wasn't just college friends and so on that 
had the zip code?
    Ms. Hernreich. Eventually, as I--it expanded. And again we 
received and would answer letters that came from correspondents 
that people, they were able to determine that would fall into 
that category as well.
    Mr. Cox. So you had to be an even better friend than Johnny 
Chung to get a zip code; is that it?
    Ms. Hernreich. I'm not sure that, again, that I ever had a 
list. The only reason that Johnny Chung didn't fall--the only 
list I think I really had at my disposal at that time were high 
school, college, Rhodes Scholar and some Arkansans. So I didn't 
have a wide variety of lists of everybody in the United States 
who was ever his friend to send to him to say mark the people 
you want me to send the zip code to.
    Mr. Cox. It was a discrete and limited list.
    Ms. Hernreich. Yes. It was primarily people, and that was 
it. I just didn't have those lists to send to him with every 
name of every person he had ever met.
    Mr. Cox. Did James Riady get a zip code?
    Ms. Hernreich. I don't know if James Riady got the zip 
code. I doubt it, initially, because he would not have been on 
an Arkansas list and he would not have been on any of those 
categories. But I can't say for sure.
    Mr. Cox. In your deposition you said you thought he did.
    Ms. Hernreich. Yeah, I don't know. Again, I just said--now 
I would say I doubt it, for that reason. I can go back and 
check and clarify it, but I can't do it in this very--at this 
time.
    Mr. Cox. OK. It would be informative to know whether in 
that inner circle of people if we included James Riady.
    I yield back.
    Mr. Burton. Would you be willing to answer some questions 
that we would write to you and send to you?
    Ms. Hernreich. Regarding this?
    Mr. Burton. Regarding this.
    Ms. Hernreich. Yeah, I would be.
    Mr. Burton. We will send you some questions we would like 
to ask.
    Do we have further----
    Mr. Waxman. Just a quick question. If we asked you to take 
all the people the President has seen over the course of the 
year and rank them in the order how close a friend they were, 
do you think you would be able to do that for us?
    Ms. Hernreich. All of them that he sees in a year? No, I 
can't. Not like that.
    Mr. Waxman. Obviously, I'm being facetious, because I just 
can't understand how at 5:20 in the afternoon this committee 
hearing, which has done nothing but turn over the same 
information that has already been made available, we are 
already down to a level of how close a friend Johnny Chung was.
    Mr. Burton. Henry.
    Mr. Waxman. Mr. Chairman, I haven't had my 5 minutes, and I 
won't take it if you don't interrupt me.
    Mr. Burton. This is your first 5 minutes?
    Mr. Waxman. My first 5 minutes.
    Mr. Burton. Well, give him the 5 minutes.
    Mr. Fattah. Will the gentleman yield for a second?
    Mr. Waxman. Certainly.
    Mr. Fattah. I know we have the authority to ask for 
anything under the sun, but what the relevance is of asking her 
about the President's personal correspondence list, unless 
there is some evidence that someone has done something wrong, I 
think it's--you know, it just shows the stretch of this wide 
ranging investigation into nothing.
    Now, if we want to investigate whether James Riady has done 
something improper, that seems entirely appropriate. But to 
know whether or not he is on a list seems to be a stretch, and 
I would just hope that the committee would try to confine 
itself to focusing in on what was the alleged challenge of the 
committee, which was to look at illegal foreign contributions 
and improper activities relative to the 1996 list. Who is on my 
personal correspondence list or the President's seems to be 
somewhat off point.
    The last thing I want to say is that the Speaker of the 
House has said that President Clinton has a unique ability to 
make everyone feel as though they are someone that he is close 
to. It is an ability that I'm sure many politicians would hope 
that they could emulate.
    Mr. Waxman. If the gentleman would permit, the Speaker even 
said that he melted in the presence of the President because he 
is so charismatic.
    Mr. Fattah. Indeed. In fact, part of the revolution against 
Newt Gingrich was that they thought he had went over to the 
White House and been corrupted by the charisma of Bill Clinton. 
So I think that----
    Mr. Waxman. I think he could have gotten invited to a White 
House radio address or something.
    Mr. Fattah. Or something. So I think that we are far 
afield. And I think if we look at the questions that have been 
emulating from the majority side for this panel, just look at 
them, none of them have anything whatsoever to do with what we 
are supposed to be investigating.
    So I just want to yield back my time, and I don't mean that 
as a personal criticism. I just think that it shows that the 
investigation of this committee has no focus in terms of its 
charge, and that is why the Thompson committee went out of 
business. So if we are going to have some reason to be here, we 
should at least have a focus of what we are trying to 
accomplish.
    Mr. Waxman. It keeps us off the streets.
    I am going to yield to Mr. Barrett, if he wants to take 
some of this time.
    Mr. Barrett. Thank you, Mr. Waxman. And I had the 
opportunity to watch your testimony in my office. I think you 
all did a very good job. I don't think it's necessary, really, 
to carry this on further.
    But as I was sitting here I was thinking about, frankly, 
the President's ability to know people. And I recall when I was 
first elected in 1992, the same time he was, and then he came 
into the Democratic Caucus and was fielding questions. And he 
went around the room and he knew everybody's name and the 
issues that were important to them. And I thought, man, he's 
not going to know who I am, I'm not going to raise my hand. But 
he knew everybody in the room, which I thought was just 
amazing.
    And then in, it must have been 1994, I was out about 7 a.m. 
jogging one morning down the Mall, and who comes running toward 
me but the President with his little entourage of Secret 
Service agents. And he came over to me and said hi, Tom, how 
are you doing, and greeted me and asked me about a bill and how 
things were going. And we talked for about 35 or 40 seconds and 
then we both went our separate ways.
    And even at 7 a.m., there were some tourists on the Mall, 
and as I was running, they were now looking at me because the 
President of the United States had just stopped to talk to me. 
So I turned to them and said, hey, who was that guy.
    But my question, I guess for you, Ms. Hernreich, is are you 
as good as the President in remembering people and names?
    Ms. Hernreich. Not at all. I wish I was. He has a wonderful 
memory. And the thing about it is, this is a man who really 
cares about people. He loves people. And he considers many 
people his friends. And so I--you know, there's--I don't know, 
it seems to me that, honestly, and maybe I shouldn't 
editorialize here, but what difference that it makes who is on 
the personal correspondence list or who isn't, this is a man 
who loves people, considers everyone his friend, and would be 
happy to have everybody, you know, have his personal 
correspondence code and write him personal letters. He would 
love to sit and read every one of them and answer every one of 
them personally.
    Mr. Barrett. OK. Thank all four of you for your time today.
    Mr. Waxman. Mr. Chairman, I yield back the balance of my 
time.
    Mr. Burton. Gentleman yields back the balance of his time. 
In conclusion, let me just say--did you have anything else you 
wanted to say? Mr. Cox.
    Mr. Cox. Well, yes, just because my time expired on the 
questions that I began, and I won't resume, but I think it is 
rather obvious that in response to my colleague's rhetorical 
question that James Riady is, in fact, at the center of an 
investigation into illegal foreign payments to the executive 
branch of our Government, and inquiring about the level of 
involvement of James Riady in the White House, all the way to 
the extent of having a special code that he can put on his mail 
so that it bypasses the staff, bypasses the correspondence 
office and goes directly to the President, I think is very much 
to the point.
    Mr. Burton. Well, let me conclude by saying that the reason 
the investigation continues is because millions of dollars of 
illegal contributions have been found and returned, No. 1.
    No. 2, we have 66 or so people who have taken the fifth 
amendment or fled the country, and so we are having a difficult 
time getting this information. And until we get satisfactory 
answers, unfortunately very fine people like these ladies are 
going to be called up here to try to help us fit the pieces of 
the puzzle together.
    I do appreciate, and I'm sure the committee appreciates 
your patience today, because we had so much that we had to 
cover and you had to sit there and wait for many hours. So we 
do appreciate that, and we apologize for the amount of time you 
had to just sit there and cool your heels.
    The committee, unless there is further business, will stand 
in recess until 12 noon tomorrow.
    Mr. Barrett. Mr. Chairman, just as an inquiry, can you give 
us a little preview of tomorrow, what you are planning?
    Mr. Burton. Tomorrow there will be a deposition which will 
take place starting at 9 a.m. of Mr. Huang--or Mr. Chung, 
pardon me. And, hopefully, that deposition will be concluded by 
10:30 or 11 o'clock.
    What we wanted to do was to start the hearing at noon, and 
I think we can stick pretty close to that schedule.
    Mr. Barrett. And where will that deposition be? Have we 
been informed of that?
    Mr. Burton. The deposition will be held at the--what room 
will we have that in?
    Mr. Bennett. Congressman, the deposition will be held here 
in the Rayburn Building, but I've talked to Mr. Ballen, 
minority counsel, and in terms of certain considerations of the 
witness, we are not really announcing at this point in time 
exactly what room the deposition will be in. All the members of 
the committee will be advised what room we are going to be in.
    Mr. Barrett. Prior to the start of that.
    Mr. Bennett. Yes, certainly.
    Mr. Burton. We will make sure you and any other Member who 
would like to participate in the deposition will be made aware 
of where it is. We just don't want a whole gaggle of people 
waiting outside.
    Mr. Barrett. I understand. Thank you very much.
    Mr. Burton. The committee stands in recess until tomorrow.
    [Whereupon, at 5:25 p.m., the committee was adjourned.]
    [Responses to Interrogatories of Nancy Hernreich follow:]
    [GRAPHIC] [TIFF OMITTED] T5667.432
    
    [The depositions of Kelly Ann Crawford and Carol Khare 
follow:]

                           Executive Session

      Committee on Government Reform and Oversight,
                             U.S. House of Representatives,
                                                    Washington, DC.
                   DEPOSITION OF: KELLY ANN CRAWFORD
                                  Monday, November 10, 1997

    The deposition in the above matter was held in Room 2247, Rayburn 
House Office Building, commencing at 10:00 a.m.
Appearances:
    Staff Present for the Government Reform and Oversight Committee: 
Jennifer M. Safavian, Investigative Counsel; Jason Hopfer, 
Investigative Attorney; and Andrew J. McLaughlin, Minority Counsel.
For KELLY ANN CRAWFORD:
    DAVID A. WILSON, ESQ.
    Hale and Dorr
    1455 Pennsylvania Avenue, N.W.
    Washington, D.C. 20004

    Ms. Safavian. Good morning. On behalf of the members of the 
Committee on Government Reform and Oversight, I appreciate and thank 
you for appearing here today.
    This proceeding is known as a deposition. The person transcribing 
this proceeding is a House reporter and notary public. I will now 
request that the reporter place you under oath.

THEREUPON, KELLY ANN CRAWFORD, a witness, was called for examination by 
   Counsel, and after having been first duly sworn, was examined and 
                         testified as follows:

    Ms. Safavian. I would like to note for the record those who are 
present at the beginning of this deposition. My name is Jennifer 
Safavian, designated majority counsel for the Committee. I am 
accompanied today by Jason Hopfer who is with the majority staff. 
Andrew McLaughlin is the designated minority counsel for the Committee. 
The deponent is represented by David Wilson.
    Although this proceeding is being held in a somewhat informal 
atmosphere, because you have been placed under oath your testimony here 
today has the same force and effect as if you were testifying before 
the Committee or in a courtroom.
    If I ask you about conversations you have had in the past and you 
are unable to recall the exact words used in the conversation, you may 
state that you are unable to recall those exact words and then you may 
give me the gist or substance of any such conversation, to the best of 
your recollection. If you recall any part of a conversation or only 
part of an event, please give me your best recollection of those events 
or parts of conversations that you recall. If I ask you whether you 
have any information upon a particular subject, and you have overheard 
other persons conversing with each other regarding it or have seen 
correspondence or documentation regarding it, please tell me that you 
do have such information and indicate the source, either a conversation 
or documentation or otherwise, from which you derive such knowledge.
    Before we begin the questioning, I want to give you some background 
about the investigation and your appearance here.
    Pursuant to its authority under House rules X and XI of the House 
of Representatives, the Committee is engaged in a wide-ranging review 
of possible political fund-raising improprieties and possible 
violations of law under the Committee's jurisdiction.
    Pages 2 through 4 of House Report 105-139 summarizes the 
investigation as of June 19, 1997 and encompasses any new matters which 
arise directly or indirectly in the course of the investigation. Also, 
pages 4 through 11 of the report explain the background of the 
investigation. All questions related either directly or indirectly to 
these issues, or questions which have a tendency to make the existence 
of any pertinent fact more or less probable than it would be without 
the evidence, are proper.
    The Committee has been granted specific authorization to conduct 
this deposition pursuant to House Resolution 167, which passed the full 
House on June 20, 1997. Committee Rule 20, of which you have received a 
copy, outlines the ground rules for the deposition.
    Majority and minority Committee counsels will ask you questions 
regarding the subject matter of the investigation. Minority counsel 
will ask questions after majority counsel has finished. After minority 
counsel has completed questioning you, a new round of questioning may 
begin. Members of Congress who wish to ask questions will be afforded 
an immediate opportunity to ask their questions. When they are 
finished, Committee counsel will resume questioning.
    Pursuant to the Committee's rules, you are allowed to have an 
attorney present to advise you of your rights. Any objection raised 
during the course of the deposition shall be stated for the record. If 
the witness is instructed not to answer a question or otherwise refuses 
to answer a question, majority and minority counsel will confer to 
determine whether the objection is proper. If counsel agree that a 
question is proper, the witness will be asked to answer the question. 
If an objection is not withdrawn, the Chairman or a member designated 
by the Chairman may decide whether the objection is proper.
    This deposition is considered as taken in executive session of the 
Committee, which means it may not be made public without the consent of 
the Committee, pursuant to clause 2(k)(7) of House rule XI. You are 
asked to abide by the rules of House and not discuss with anyone, other 
than your attorney, this deposition and the issues and questions raised 
during this proceeding.
    Finally, no later than 5 days after your testimony is transcribed 
and you have been notified that your transcript is available, you may 
submit suggested changes to the Chairman. The transcript will be made 
available for your review at the Committee office. The Committee staff 
may make any typographical and technical changes requested by you.
    Substantive changes, modifications or amendments to the deposition 
transcript submitted by you must be accompanied by a letter requesting 
the changes and a statement of your reasons for each proposed change. A 
letter requesting any substantive changes, modifications, 
clarifications or amendments must be signed by you. Any substantive 
changes, modifications, clarifications or amendments shall be included 
as an appendix to the transcript conditioned upon your signing of the 
transcript.
    Do you understand everything that we have gone over so far?
    Mr. Wilson. I want to note for the record to the extent it is fine, 
if you understand, you can answer yes. But I do not think it is 
appropriate to construe your understanding as being necessarily an 
agreement that everything that has been stated is in fact a correct 
interpretation of the authority of the Committee or the scope of the 
investigation. But the question was, do you understand what she has 
told you?
    The Witness. I have heard what you have read. I have a general 
understanding, I guess.
    Ms. Safavian. Do you have any questions about anything that we have 
gone over?
    The Witness. I do not think so, no.
    Mr. McLaughlin. We have been making it a practice to, if it is 
convenient, to send depositions out for review subject to agreement 
that you will not show it to anybody. We have been doing that for every 
other witness. I can't imagine we wouldn't do it in your case, if it is 
more convenient.
    Mr. Wilson. That would be great.
    Ms. Safavian. That would be subject to both of you signing a 
confidentiality agreement before we would send the transcript out to 
you.
    Mr. Wilson. That is fine.
    Ms. Safavian. I will be asking you questions concerning the subject 
matter of this investigation. Do you understand?
    The Witness. Yes.
    Ms. Safavian. If you don't understand a question, please say so and 
I will repeat it or rephrase it so that you understand the question. Do 
you understand that you should tell me if you do not understand my 
questions?
    The Witness. Absolutely.
    Ms. Safavian. The reporter will be taking down everything we say 
and will make a written record of the deposition. You must give verbal, 
audible answers because the reporter cannot record what a nod of the 
head or other gesture means. Do you understand that you cannot answer 
with an ``um-hum'' or nod of the head?
    The Witness. Yes, I do.
    Ms. Safavian. If you can't hear me, please say so and I will repeat 
the question or have the court reporter read the question to you. Do 
you understand?
    The Witness. Yes, I do.
    Ms. Safavian. Please wait until I finish each question before 
answering and I will wait until you finish your answer before I ask the 
next question. Do you understand that this will help the reporter make 
a clear record because she cannot take down what both of us are saying 
at the same time?
    The Witness. Yes, I do.
    Ms. Safavian. Your testimony is being taken under oath, as if we 
were in court, and if you answer a question it will be assumed that you 
understood the question and the answer was intended to be responsive. 
Do you understand that?
    The Witness. Yes.
    Ms. Safavian. Are you here voluntarily or as a result of a 
subpoena?
    The Witness. I am here as a result of your request to have me here.
    Mr. McLaughlin. Did you volunteer to come here?
    The Witness. I guess I did.
    Mr. McLaughlin. You got something in the mail?
    The Witness. I was asked to come, and I am happy to be here to 
cooperate with you all and answer your questions.
    Ms. Safavian. Do you have any questions about the deposition before 
we begin the substantive portion of the proceeding?
    The Witness. No.
    Mr. McLaughlin. I will make my usual note as to an omission from 
the prior statement of the rules. Pursuant to House rule XI 2(k)(8), 
objections to relevance are the province of the full Committee and not 
the Chairman to resolve. Accordingly, any ruling on an objection as to 
relevance is appealable to the full Committee.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Can you please state your full name and spell it for the 
record?
    Answer. Kelly Ann Crawford, K-E-L-L-Y, A-N-N, C-R-A-W-F-O-R-D.
    Question. Have you ever used or been known by any other names?
    Answer. No.
    Question. What is your date of birth and Social Security number?
    Mr. Wilson. Objection.
    Mr. McLaughlin. Objection. That is totally irrelevant. The person 
giving testimony today is not the target of this so-called 
investigation. She is a witness. Accordingly, her Social Security 
number is utterly irrelevant.
    I think that the only implication of the question that can fairly 
be drawn is that counsel is trying to intimidate the witness by 
suggesting that somehow she may be a target of the investigation. That 
implication is unfounded. Accordingly, I object as to either piece of 
information.
    Furthermore, I would simply note in passing that these depositions 
have traditionally been made available on the Internet, and to subject 
this witness to the kinds of financial fraud that come along with the 
public release of a Social Security number, and frankly even a date of 
birth, is to my mind unfounded and frankly borders on the obnoxious.
    Mr. Wilson. I would ask that the question be withdrawn with the 
assurance from counsel that if you can, if Committee counsel can 
provide to me a reason for doing so, for providing this information, I 
would be happy to do it in a letter. But I am concerned about the 
privacy issues that may be raised by divulging this kind of 
information.
    Ms. Safavian. The witness' date of birth and Social Security number 
is something that we ask of all deponents.
    Mr. McLaughlin. That is untrue.
    Ms. Safavian. The reason being is we receive documents in response 
to our subpoenas which may have date of birth or Social Security 
number, and it allows us to make sure that Kelly Crawford who is 
sitting here today is the same Kelly Crawford whose name may appear on 
the document. We are not aware if there is another Kelly Crawford or 
another Crawford. It helps us make sure that we know what documents may 
come up which have her name, to make sure it is the Kelly Crawford who 
is sitting in front of me and not someone else.
    Mr. McLaughlin. First of all, that is absolutely untrue, as the 
record will reflect, that we have been asking this question of all 
witnesses. I would say it has been asked of substantially fewer than 
half of the witnesses that have come before the Committee. In general, 
the question has been withdrawn when counsel has offered to make the 
information available through other means.
    Second of all, I am not aware of any document that has come into 
the possession of this Committee that would implicate the date of birth 
or Social Security number of Kelly Crawford. As I have said numerous 
times, this witness is not a target. We have not received any bank 
records or phone records from her, nor would I expect that we ever 
would because, as I said, she is not a target.
    Accordingly, I think counsel should withdraw the question. If a 
plausible reason can be propounded as to why the information is 
necessary, then I am sure counsel will supply it in a prompt and 
comprehensible manner. To put it on the record just seems to me to be 
characteristically inappropriate to this Committee.
    Mr. Wilson. If there are documents that you need help deciphering 
or identifying--as you say, I do not think there is any other Kelly 
Crawford that comes within the scope of this investigation--I am happy 
to try to help you with that or even provide the information later on. 
But having represented witnesses in other proceedings conducted by this 
Committee that were similar, I do know that while depositions begin as 
being confidential, they do not always end up that way. I would just 
prefer not to have Kelly's date of birth and Social Security number out 
there for all to see.
    Ms. Safavian. I do not plan on spending much time on this. I will--
that is fine if you are instructing your client not to answer those two 
questions--I will then----
    Mr. McLaughlin. I do not think that is what he said. He said he 
will supply----
    Ms. Safavian. I will rely on your representation that if I do have 
a question down the road that I can contact you to find out the answer.
    Mr. Wilson. Absolutely. And really, I am not instructing her not to 
answer. I just requested that you withdraw the question and we will 
provide the information.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Ms. Crawford, your current address?
    Answer. [Redacted].
    Question. How long have you lived at that address?
    Answer. About less than two months.
    Question. Prior to that address?
    Mr. McLaughlin. Objection. We certainly do not need this 
information either. I think it is, again, a sort of bizarre signal and 
characteristically inappropriate to be sending to the witness, that 
somehow her past addresses might be relevant to the Committee. I 
suggest that you move forthrightly into the questions that might 
actually be relevant to the Committee investigation instead of 
dithering around in these questions.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. You may answer the question.
    Answer. [Redacted].
    Question. Have you ever lived outside the United States?
    Answer. I studied abroad for four months when I was a junior in 
college.
    Question. Where was that?
    Mr. McLaughlin. Objection as to relevance.
    The Witness. Austria, Vienna.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Where did you attend college?
    Answer. American University here in Washington.
    Question. Did you graduate from American?
    Answer. Yes.
    Question. What was your degree?
    Answer. It was a degree from the School of Public Affairs and the 
major was called CLEG: Communications Law, Economics and Government.
    Question. Did you receive any other degrees?
    Answer. No.
    Question. Have you spoken with anyone other than your counsel and 
my office about scheduling the deposition? Have you spoken with anybody 
else about this deposition?
    Answer. When I got a call from you, I talked to some people about 
finding a lawyer, but not specifically about what we had discussed or 
what I was coming here today to discuss.
    Question. Did you review any documents in preparation for your 
deposition?
    Mr. McLaughlin. Other than from counsel? Other than from her 
counsel?
    Mr. Safavian. She can answer if she reviewed documents.
    Mr. McLaughlin. I am asking you a question. The question is not 
clear to me. You don't have to snap at me.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Did you understand my question?
    Mr. McLaughlin. Let me finish. The question is, are you asking her 
whether she has reviewed any documents other than in connection with an 
attorney-client communication? Is that what you are asking?
    Ms. Safavian. No, my question was, did you review any documents in 
preparation for this deposition?
    Mr. McLaughlin. You do intend to go into the attorney-client 
confidence or you don't? One way or the other.
    Ms. Safavian. If you would just let the deponent answer the 
question, if she tells me she reviewed documents with her attorney, I 
will not delve into attorney-client privilege. You have just not 
allowed her an opportunity to answer the question.
    Mr. McLaughlin. If you asked a more carefully crafted question, you 
would avoid my objections.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Did you understand my question, Ms. Crawford?
    Answer. If you could describe to me what you mean by--I haven't 
reviewed any documents. I do not have documents my possession.
    Question. That is fine. That was the answer to my question.
    Answer. I don't know what you mean by documents but, no.
    Mr. Wilson. I would note for the record that I have shown the 
witness the correspondence from the committee that I received.
    The Witness. Yes, a letter from Chairman Burton. I guess that would 
be a document.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Have you been asked by White House Counsel or anybody 
else to collect documents in response to either the House, Senate or 
Department of Justice subpoenas?
    Answer. I do not work at the White House any longer. I do not 
recall if when I was working at the White House, whether any of this 
had started. At that time I may have looked for an answer to a subpoena 
but I don't know what it would have been.
    Mr. McLaughlin. Why don't you lay some foundation for where she 
worked and when? Maybe some of these questions can be skipped over as 
being obviously not----
    The Witness. I haven't worked at the White House for----
    Mr. Wilson. Are you talking about pursuant to subpoena relating to 
the subject of this investigation?
    Ms. Safavian. Yes.
    Mr. Wilson. Okay. So relating to fund-raising.
    Mr. McLaughlin. And the other matters which this investigation has 
sprawled into.
    The Witness. I do not believe so, no.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Thank you.
    Can you please briefly describe your employment history after 
college?
    Answer. I graduated from American University in May of 1992 and 
volunteered at the Democratic Convention in New York. Shortly after the 
convention, I started doing advance work for the Clinton campaign. I 
did press advance up until the election in November, and after the 
election I worked during the transition for the transition committee. I 
worked in the basement of the governor's mansion. And after the 
transition, I worked as a staff assistant in the Media Office of the 
President.
    I left there, I believe, in July of 1995 and worked at the Justice 
Department in the Public Affairs Office for Attorney General Reno. I 
did all of her personal press. I was there for about a year.
    I left and went to work at the Clinton-Gore campaign in the 
communications office. And then when the election of 1996 was over, I 
worked at the Presidential Inaugural Committee. And when the Inaugural 
was over I--shortly thereafter, must have been in February or March--
started working at the Treasury Department where I am currently 
employed.
    Question. February or March of this year?
    Answer. Yes.
    Question. Can you tell me, you mentioned that you were a staff 
assistant in the President's office. Do you recall when you began that 
job?
    Answer. The day after the President was sworn in as President, 
January of 1993.
    Question. Then you said you left that in July of 1995?
    Answer. Yes, I believe it was right around there, yes.
    Question. Were you approached about taking this position, or how 
was it that you ended up as a staff assistant in the President's 
office?
    Answer. As I mentioned to you before, I had worked during the 
transition in the basement of the governor's mansion. I worked with 
Nancy Hernreich, who then went on to work in the President's office at 
the White House. She asked me to come on in this capacity.
    Question. Did you have to interview with anybody other than perhaps 
Nancy Hernreich?
    Answer. I talked with Nancy Hernreich about it. I met with Carolyn 
Huber about it. I think that is probably all that I talked to about it.
    Question. Who is Carolyn Huber?
    Answer. She was--at that time she was also going to be working not 
in the President's office but in what they called the Personal 
Correspondence Office, which was the area that worked with the friends 
and family of the First Family. That was some of what I was going to be 
doing. So I met with her at the Blair House prior to----
    Question. Can you tell me as a staff assistant what were your job 
responsibilities or duties?
    Answer. I worked directly for Nancy Hernreich. I answered phones, 
opened mail. I talked with the President's friends and family that 
would call his office.
    Question. Was Nancy Hernreich your supervisor?
    Answer. Yes.
    Question. Did you report to anybody besides Ms. Hernreich?
    Answer. I reported to Ms. Hernreich.
    Question. Did you have an office?
    Answer. I shared an office.
    Question. Was it with one other person or was like it a bigger 
room?
    Answer. It was a room that there were four desks within one room.
    Question. Where was that located, if you could just describe 
briefly where it was located in relation to Ms. Hernreich's office, the 
President's office?
    Answer. It was in the West Wing. Ms. Hernreich switched the 
location of her office. She used to be on one side of the Oval Office; 
then she went to the other side of the Oval Office. I continued to stay 
two rooms down from the Roosevelt Room in the West Wing.
    Question. Did you ever work out of any other location or did you 
pretty much stay right there?
    Answer. I pretty much stayed in that----
    Question. Were you the only staff assistant, or were there others 
under Ms. Hernreich?
    Answer. I was the only staff assistant.
    Question. You explained your job duties and responsibilities as 
opening mail or speaking with the President's friends. Were you in 
charge of the radio address for the President?
    Answer. I worked on the radio address, yes.
    Question. Who organized the radio address?
    Answer. In the beginning--well, it ultimately was Nancy's 
responsibility but obviously I worked for Nancy. At one time there was 
another gentleman who also worked on organizing the radio address but, 
yes, I worked on organizing the radio address.
    Question. Who was that other person?
    Answer. Dave Levy, who worked also in the West Wing.
    Question. Was it just the two of that you would assist Ms. 
Hernreich in organizing the radio addresses?
    Answer. Yes.
    Mr. Wilson. You are talking about just sort of logistically?
    The Witness. That I wrote the speech? I mean, I should clarify that 
this is the people who came to watch the radio address. I worked with 
Ms. Hernreich on, you know, those who came in to watch the radio 
address.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. I was going to ask you to just explain what it was that 
Ms. Hernreich and yourself and Mr. Levy would do to prepare for the 
radio address, if you would like to explain that.
    Answer. Sure. The radio address was primarily an opportunity for 
the President to see friends and family who were in from out of town. 
But as the radio address went on, obviously people heard about the 
opportunity to come and listen to the President speak in the Oval 
Office and then have pictures made with the President, so we got 
requests from Members of Congress and their staff, from members of the 
media, from members of the Cabinet, from offices within the White 
House.
    So we would compile all these requests and then sit down with Ms. 
Hernreich and decide who, how many requests we could accept, and then 
who was and was not coming. And then on the day of the radio address I 
would, or the day before, maybe, clear people in; and then greet people 
when they came, and sometimes introduce them to the President as they 
came through the line.
    Question. Can you tell me, was there generally a certain number of 
people who would attend the radio address, like the maximum number?
    Answer. Week to week, it just depended. We began to, as more and 
more people came, sometimes we would take some of the furniture out. 
There was probably maybe 80 people that we could fit into the Oval 
Office, 80 to 90.
    Question. Did you normally have about 80, 90 people at each radio 
address?
    Answer. It varied from week to week.
    Question. Would you prepare a list of all the attendees for each 
radio address?
    Answer. Either I would or Mr. Levy would, but, yes, there would be 
a list of who was there.
    Question. What would be on the list? What would it include?
    Answer. Usually just names and maybe one description, like ``Kelly 
Crawford,'' you know, something to indicate where this person worked, 
or ``friend from high school'' or something like that. There might be 
something indicating who the person was or just names.
    Question. Okay. You mentioned that you would get requests from all 
over for the radio address. Did you ever try to limit it, say, only to 
friends of the President or people who work in the White House or 
Members of Congress? Did you ever try to limit it to just certain 
groups of individuals?
    Answer. I don't quite understand the question.
    Question. The people who you would let attend the radio address, I 
assume that your office would get a lot of requests to attend the radio 
address and surely you could not allow everyone to attend the radio 
address. Was there any way that your office determined who would be 
invited to attend and who might not be?
    Answer. I really was just a facilitator. I put the list together, 
but Nancy ultimately----
    Mr. Wilson. You are talking about priorities in terms of groups, 
like friends and family or Members of Congress or----

                      EXAMINATION BY MS. SAFAVIAN:

    Question. If there was any way that you distinguished or determined 
who would be invited to a radio address and who might not be invited to 
a radio address. I am using that as an example. It may not have 
happened that way. I don't know.
    Mr. McLaughlin. Why don't you ask, did you give special treatment 
to donors? Did you give special treatment to contributors?
    The Witness. Let me tell you how I--I did not make these decisions. 
I was a facilitator. I gathered requests that came in. But it was my 
understanding that the President's friends or family, people from out 
of town that he knew were the first priority. In addition, White House 
staff and their immediate families. And then after that there were 
obviously Members of Congress, if they were--if they had asked to come, 
would have been a priority. But those decisions were largely made by 
Ms. Hernreich, not myself.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Was it Ms. Hernreich who would then provide you with a 
list of names or somehow tell you who you should include on your list 
of attendees, or how did you know?
    Answer. We would go through the list, and say another determination 
would be if someone was in town just for this weekend, and/or versus 
someone who lived in Washington.
    Question. But pretty much a decision was left to Ms. Hernreich?
    Answer. It was ultimately her decision. I was her assistant in the 
President's office.
    Question. So then did the two of you sit down and you would just 
have a list of everyone who requested to be in attendance at that radio 
address, and the two of you would kind of go through each name?
    Answer. Yes. We would go through a list, and then I would have 
supporting things like a letter from Joe Schmo saying, ``This is the 
only time I have been in town and I would love to come.'' So we would 
go through those.
    Question. When would that process usually begin?
    Answer. I guess maybe two days before the actual radio address, 
maybe two or three days. On a Wednesday or Thursday, if the radio 
address was on a Saturday.
    Mr. Wilson. You mean the process of interacting with Nancy 
Hernreich to pare down the list of who requested attendance?
    Ms. Safavian. Yes.
    Mr. Wilson. As opposed to when requests might come in. Which might 
be six months in advance or something?

                      EXAMINATION BY MS. SAFAVIAN:

    Question. I meant specifically when you and Ms. Hernreich would 
kind of sit down and go over your list of possible attendees.
    Answer. It was never a set schedule. Two or three days before the 
radio address, I guess is when we would.
    Question. And then who would notify an individual that they were 
going to be permitted to attend the radio address?
    Answer. It depended, because some requests, I should also--Mr. Levy 
did some of the requests and I did some of the requests, but also maybe 
someone from the Office of Public Liaison would request that a group of 
health care advocates would come. That might go back to the person at 
the White House who had requested it and they would then extend the 
invitation, clear the people in.
    Or say in the case of friends of the President, I would then be the 
person that would call them back and extend the invitation. So it just 
depended on if someone had requested it directly to me or if someone 
else within the White House had made the request through me.
    Question. Okay. I know you mentioned that David Levy did some of 
them and you did some of them. Was there any distinction as to--was it 
just random who got in charge of one radio address over another?
    Answer. We worked together and, as I indicated before, I primarily 
took care of friends of the President, family members. But people knew 
that I worked on it and people knew that he worked on it, so it 
overlapped as to----
    Question. So, in other words, the two of would you work together on 
each radio address. It was not like you had one one week and he had the 
next?
    Answer. No, we would work together.
    Mr. Wilson. You have to let her finish talking before you talk.
    The Witness. Sorry.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Do you recall the March 11, 1995 radio address?
    Answer. I do not recall a specific date. I am sure that if it was a 
Saturday and the President was in town, there would be a radio address.
    Question. Do you know who Johnny Chung is?
    Answer. Yes.
    Question. Have you met Mr. Chung?
    Answer. Yes, I have met Mr. Chung.
    Question. On how many occasions?
    Answer. I don't know. If I had to estimate, I would say maybe a 
handful of times.
    Question. Do you recall how you first met Mr. Chung or were 
introduced to him?
    Answer. I don't know if the first time--I don't know when--the 
first time that I met him, whether it was a radio address. I don't know 
the first time that I met him, no.
    Question. When you said you maybe met with him on a couple 
occasions, a handful of occasions----
    Mr. Wilson. You are saying met with him. I think your question was 
how many times did she meet him, and I was going to suggest that that 
might be just a little ambiguous. Do you mean see him, or shake his 
hand, or have a conversation with him? I just want the record to be 
clear about the extent of her contact.
    Ms. Safavian. That was going to be my question.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. If you can just explain, you said a handful of occasions. 
Do you recall perhaps what the setting was of those handful of 
occasions where you saw Mr. Chung?
    Answer. I have a vague recollection that I saw him possibly at a 
helicopter departure. And other than that, I don't know where I saw 
him. Maybe just on the White House grounds, but I do not remember 
specifically or have any recollection of exactly when I saw him.
    Mr. McLaughlin. Did you ever have a meeting with him?
    The Witness. No, I never sat down and met with Mr. Chung.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Did you ever have any discussions with him, any 
conversations?
    Answer. Did I ever talk to Mr. Chung?
    Question. Yes.
    Answer. Yes, I talked to Mr. Chung. Sure.
    Question. Would that just be a general greeting or would it have 
ever been anything more than that?
    Answer. I do not believe that my talking with Mr. Chung would have 
been anything more than a typical greeting, as I did with you when we 
walked into the room.
    Question. Okay. The March 11, 1995 radio address, do you recall it, 
if I were to tell you that that is the radio address where Johnny Chung 
and the Chinese delegation attended the radio address?
    Answer. I have a vague recollection of the Saturday that they 
attended a radio address. I have of course seen numerous press accounts 
of this radio address. Yes, I have a vague recollection. It is hard for 
me to remember exactly what I recall versus what I have read about, 
but, yes, I do have a recollection that he attended a radio address.
    Question. What I am handing you are WAVE records for the year 1995. 
If you will turn to where--on the bottom there are Bates Stamp 
Numbers--if you will turn to EOP 005038, if you will look down----
    Answer. It is very difficult to read.
    Question. If you look about five down, five or six down, you will 
see where Johnny Chung, the visit--he is--``visited POTUS,'' President 
of the United States, and if you continue to read to the right, to the 
middle, it shows a date. It shows that it is March 11, 1995.
    Answer. Yes.
    Question. And the room is WW, which stands for?
    Answer. West Wing, I assume.
    Mr. McLaughlin. Have you seen these WAVE records before? Is this 
the first time you have seen this document?
    The Witness. Yes, this is the first time I have seen this document 
or seen a document like this.
    Mr. McLaughlin. Do you notice there is no badge number, time of 
arrival or time of departure? And I will represent to you that that is 
what the last three categories are. I know that he was there, but do 
you see that?
    The Witness. Yes, I see the dot, dot, dot, dot, dot.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Do you notice, if we continue down, there is a name who 
requested Mr. Chung's clearance. It says ``Crawford.'' Would that be 
you?
    Answer. I assume it would be me.
    Question. Do you recall going through the process, you can explain 
it to me, of waving in Mr. Johnny Chung on March 1, 1995?
    Answer. I may have waved him in, but I have no distinct 
recollection.
    Mr. McLaughlin. Would you have waved in everybody for a particular 
radio address?
    The Witness. As I said, it depended. Some people--I waved in a lot 
of people, yes--but some people, anyone in the White House could wave 
someone in. So say you had put in a request through the Office of 
Legislative Affairs, and Joe Schmo in Legislative Affairs was the 
person that requested to me, I might just say, ``Hey, would you go 
ahead and clear in your guest?'' So sometimes I cleared people in or 
sometimes I did not. It was not a----

                      EXAMINATION BY MS. SAFAVIAN:

    Question. You don't have any recollection, as we sit here right 
now, that you waved in Johnny Chung on that day?
    Answer. I cleared in many, many people. I do not specifically 
recall clearing Mr. Chung in on this date. No.
    Question. Do you recall clearing in anybody in the Chinese 
delegation?
    Answer. Again----
    Mr. Wilson. By ``the Chinese delegation,'' just because that 
characterization could mean many things, you are talking about the 
Chinese gentlemen who have been reported as accompanying Mr. Chung to 
the radio address?
    Ms. Safavian. That is correct. I can show you a letter that Johnny 
Chung sent to Richard Sullivan, dated February 27, 1995, which includes 
a list of the gentlemen that I am referring to as the Chinese 
delegation. If you turn to the second page, which is DNC 323332----
    The Witness. Yes?
    Mr. McLaughlin. Before we get confused here, let me make a 
housekeeping request. Can you mark the copy that you showed the witness 
to go in the record? I know that we do not adhere to the Rules of Civil 
Procedure here, but in ordinary deposition practice the copy that the 
witness sees is the copy that goes into the record. I would appreciate 
it if you would mark that one to go in.
    Second thing is, before I move on from this first exhibit, I want 
to note all of the EOP page numbers because there are nonconsecutive 
pages marked here. They are as follows: EOP 005039, EOP 008683, EOP 
005038, EOP 008680, EOP 003717, EOP 003713, EOP 005035, EOP 003710, EOP 
005032, and EOP 003703. Are you going to mark that document?
    Ms. Safavian. I will, certainly, if you would just give me a 
moment.
    Mr. McLaughlin. I just want to make sure that you can mark the copy 
that the witness has. I do not mean to be a stickler but I like to have 
the document numbers read in.
    Ms. Safavian. We will be marking the 1995 WAVE records of Mr. 
Johnny Chung as Exhibit Number 1, KC-1.
    We will be marking the February 27 letter to Richard Sullivan as 
Exhibit Number 2, KC-2.
    [Crawford Deposition Exhibit No. KC-1 was marked for 
identification.]

    [Note.--All exhibits referred to can be found at end of 
deposition.]

    [Crawford Deposition Exhibit No. KC-2 was marked for 
identification.]
    Mr. McLaughlin. Have you seen Exhibit 2 before?
    The Witness. No, never.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Ms. Crawford, you do not have, as you are sitting here 
today, a recollection that you did wave in Mr. Johnny Chung or the 
Chinese delegation members for this radio address?
    Answer. I may have but, no, I do not have a specific recollection.
    Question. Ms. Crawford, can you explain to us how Johnny Chung and 
this Chinese delegation were able to attend the March 11, 1995 radio 
address?
    Mr. Wilson. Do you mean explain her knowledge of how they got in, 
or how they came to find out about it, or just in----

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Your knowledge as to how they were able to attend the 
radio address.
    Answer. As I mentioned earlier, I have a vague recollection of this 
Saturday, and I believe that the request came to me from the chairman's 
office at the DNC.
    Question. Would that be Don Fowler?
    Answer. I believe he was the chairman at that time.
    Question. You said you believe that the request came from the DNC 
chairman's office?
    Answer. Yes.
    Question. Do you recall who that was that made the request to you?
    Answer. I do not specifically recall, but I know Ceandra Scott 
worked in the office at that time. I have heard press accounts that she 
may have been, but I don't specifically recall. Some staffer, I 
believe, in Chairman Fowler's office.
    Question. Do you know Ms. Scott, Ceandra Scott?
    Answer. Yes.
    Question. Do you know her well?
    Answer. No.
    Question. Did you know each other well enough that if she wanted to 
ask, request someone to attend the radio address, she would have 
contacted you?
    Answer. Yes, that would not have been unusual.
    Question. Had she ever requested you, or if you recall any other 
time, requested that you perhaps admit another individual or 
individuals into a radio address?
    Mr. Wilson. I do not think she testified that that is what Ceandra 
Scott did in this case. Maybe you could ask her how a conversation like 
that might go rather than suggesting that--well, suggesting how it did 
go.
    Ms. Safavian. I was trying to figure out if you recall Ms. Scott 
ever contacting you on another occasion. I am not saying that you 
testified that she did contact you on this occasion. Did she ever 
contact you on another occasion and ask you to get somebody into a 
radio address?
    Mr. Wilson. That is what I am objecting to, to get somebody into a 
radio address, if that suggests that that is what Ceandra Scott said at 
this particular time. I do not think it has been established what she 
did say, whether it was, ``Can you get somebody in?'' or ``Do you have 
room?'' or something else. So I know I am--maybe the best thing to do 
is just ask her how a conversation like that with Ceandra Scott would 
go, to the extent she can recall.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Do you recall any such conversations like that, Ms. 
Crawford?
    Answer. I don't specifically recall other conversations. I am not 
saying that there wasn't ever another conversation with Ms. Scott or 
another request that came to me through her, but I do not have specific 
recollection.
    Question. Did you know any other individuals who worked at the DNC 
or in the chairman's office who would have contacted you about such a 
request?
    Answer. What such request? Just general requests that would come 
through the DNC? I am not sure I understand the----
    Mr. Wilson. You mean a request to see the radio address?

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Yes. For the radio address.
    Answer. I knew other people at the DNC, sure, who I believe 
probably made requests as well. So it was not completely unusual to 
have a request from someone at the DNC.
    Question. Can you recall those individuals' names who may have 
contacted you?
    Answer. Possibly--this is, if you want me to speculate about people 
that I know at the DNC who could have called me to possibly request, I 
can do that. But I do not have a recollection, sitting here today, 
three years ago what requests came in from the DNC. If you want me to 
speculate----
    Mr. McLaughlin. As it says in the instructions, we are not 
interested in speculation.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. You mentioned that it was not--I do not want to put words 
in your mouth. Was it unusual for the DNC, somebody at the DNC, to 
contact either yourself or Nancy Hernreich or someone at your office 
and ask that a particular individual or DNC contributor be given access 
or be allowed to attend a presidential radio address?
    Mr. McLaughlin. Your question includes the word ``contributor.'' I 
do not think Ms. Crawford has stated anything about whether or not 
these people were contributors or whether she knew. Why you don't 
rephrase your question, sticking to the knowledge and the testimony 
that has been established.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Did you understand my question?
    Mr. McLaughlin. I am not asking. I am telling you I object to your 
question on the grounds that it misstates her prior testimony.
    Ms. Safavian. Your objection is noted for the record.
    Mr. McLaughlin. It is sort of a funny exchange that we have here, 
because you then ask the witness if she understands the question. I am 
making an objection. I would like you to respond to the objection.
    Ms. Safavian. Your objection is noted for the record.
    You may answer.
    The Witness. May I talk to my counsel?
    Ms. Safavian. Sure.
    [Witness confers with counsel.]
    Mr. McLaughlin. If you want your question to go ahead while it 
misstates that kind of testimony, that is your choice, counsel, but I 
think it is a uniquely ill-considered, poor choice to proceed in that 
manner.
    The Witness. It was not unique that we would get requests from the 
DNC, as we got requests from Cabinet agencies, Members of Congress, 
members of the press. But people were never stated as being 
contributors to me.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. But the request would come from the DNC. Would it be a 
request that the DNC employees or staff members----
    Answer. Sometimes, sure.
    Question. But not always?
    Answer. Not always, no.
    Question. Was there any particular procedure that yourself or Ms. 
Hernreich would then follow?
    Answer. One other thing that I should state is that within the 
White House there is also the Office of Political Affairs, so requests 
might also come through--there was not a set way that every request 
came through a specific channel. So requests could also come from the 
Office of Political Affairs, as well.
    Question. And the previous question was, was there any particular 
manner in which either yourself or Ms. Hernreich would handle such 
requests?
    Mr. Wilson. You mean requests that came from the DNC directly?

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Correct.
    Answer. They would have been handled in the same way that any other 
requests were handled which, as I stated before, we compiled the 
requests and then would sit down and talk about them. Unless possibly, 
as we would with other requests, if a Cabinet official called, we would 
let Cabinet Affairs know Secretary Riley from Education had requested 
to come in; or if a request from the DNC came, we might let Political 
Affairs know that we had this request and check with them. I am not 
saying that that was done in every single case, but it would not have 
been unusual for that to happen.
    Question. Was it your testimony that you believe Ceandra Scott was 
the one that contacted you about Johnny Chung and the Chinese 
delegation attending the radio address?
    Answer. I don't have specific recollection of who exactly in the 
chairman's office contacted me about Mr. Chung.
    Question. But you do have a specific recollection that it was 
someone in the chairman's office of the DNC?
    Answer. Yes, I believe that is where the request came from.
    Question. Do you recall when the request came to you?
    Answer. I believe that the request came late on a Friday, or sort 
of not way ahead of time, sometime close to the radio address. I have 
some recollection that it was kind of a last minute request.
    Question. The day before the radio address?
    Answer. Yes.
    Question. Do you----
    Answer. But I do not specifically recall what time or when.
    Question. Do you have any specific recollection as to what was 
asked of you?
    Answer. I was asked if--I do not have a specific recollection of 
what the conversation was. I assume I was asked did we have room in the 
radio address for Mr. Chung and his guests.
    Question. What would your response have been?
    Answer. I don't specifically recall what I did in this case but I 
can tell you generally what the practice was, that I would say, ``Let 
me check and see. Let me get a phone number and I will call you back.'' 
As I have said before, I would then check with Ms. Hernreich to see if 
we did in fact have room and if in fact this was someone that we should 
allow to attend the radio address.
    Question. Would you think--you said the request came in late, 
perhaps the day before.
    Answer. I said I believed that the request--I have some 
recollection that the request came in----
    Question. Came in late?
    Answer. Yes.
    Question. Do you have any recollection as to whether at the time 
the request came in you already had determined who was going to attend 
the radio address for that Saturday?
    Mr. Wilson. You mean whether the--whether anybody had been cleared 
in to see the radio address?

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Whether you and Ms. Hernreich had already sat down and 
discussed who was going to attend the radio address?
    Answer. I am not sure that you understand the process. It was not 
like we made a decision and--this was sort of if there was room, other 
requests would be taken. It would not be unusual that on a Friday we 
would learn that someone happened to be in town or that someone 
extended their visit and was going to stay.
    I do not specifically recall in this case what the standard 
procedure was. But I do not remember it as being with a whole--the 
whole slew of requests, which makes me, as I indicated earlier, believe 
that it came in later.
    Question. Okay. You had mentioned that when requests would come in, 
generally you would take down the person's name and say, ``I will have 
to see and get back with you.'' So in this instance you recall that you 
would have said the same thing to this individual in the chairman's 
office of the DNC?
    Answer. I don't have specific knowledge of what I said to that 
person, but that was the general practice. I can't swear that this is 
what I said on that occasion, but that would have been what I generally 
would have said.
    Question. Do you recall then speaking with Ms. Hernreich about this 
request?
    Answer. I spoke with Ms. Hernreich about hundreds of such requests. 
I do not recall having a specific conversation about this request, no.
    Question. Do you recall then contacting this individual back at the 
DNC, the chairman's office of the DNC, and letting them know that 
these--that Mr. Chung and the Chinese delegation were able to attend 
the radio address?
    Answer. No, I do not remember. I assume that it probably would have 
been me that would of called them back but I do not recall.
    Question. Do you recall when you would have made that call?
    Answer. No.
    Question. Do you know how Mr. Chung knew that himself and his 
guests were able to attend the radio address?
    Mr. Wilson. I object because particularly based on the prior 
testimony, I do not see how she can know what was in Johnny Chung's 
mind, how he might have found something out. But with that I hope 
clarification of the record, if you can answer it, go ahead.
    The Witness. I don't know.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Do you recall being--do you recall being provided with a 
list of the individual names of the Chinese delegation, as well as Mr. 
Johnny Chung, who would have attended the radio address? Do you recall 
getting a list of their names?
    Answer. I don't specifically recall getting a list of their names. 
I may have been the one that received the list through the DNC and 
cleared them in but I do not specifically recall whether I did. And if 
I had been the person that Saturday to put together the final list, 
then, yes, I would have gotten the names somehow.
    Question. The final list is usually put together that day, the 
morning of?
    Answer. The night before, usually.
    Question. And what would you need for every individual who was 
going to attend a radio address? What kind of information would you 
need?
    Answer. To attend or to clear them in?
    Question. Both.
    Answer. Well, in order to clear someone into the White House, you 
needed their name and date of birth and sometimes Social Security 
number or passport number. But as I indicated before, I did not clear 
in every single person that came to a radio address because other 
people at the White House could also clear people in and would often do 
so.
    Question. Would this list, this final list, as you call it, of 
attendees, would that have had on it their date of birth, their Social 
Security number, perhaps,?
    Answer. No. It was not standard practice that we would put that 
information.
    Mr. McLaughlin. That information was sent to the Secret Service to 
wave them in?
    The Witness. Yes, that is what that was used for.
    Mr. McLaughlin. You wouldn't give the President the Social Security 
numbers of the individuals?
    The Witness. No.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. You had mentioned earlier that usually you were present 
during the radio addresses, and you would greet the guests and 
sometimes introduce them to the President; is that correct?
    Answer. Yes.
    Question. Do you recall doing that specifically on March 11, 1959?
    Answer. No, I do not recall that specific date or specifically what 
I did.
    Question. Do you recall being present on March 11, 1995?
    Answer. I do not recall that specific date. I may have been----
    Mr. Wilson. Are you asking her if she recalls being present at the 
radio address that Johnny Chung attended?
    Ms. Safavian. Yes.
    The Witness. Yes. I don't know the date. I assume the date that you 
are saying is that address, but there was a radio address that I 
attended that Mr. Chung also attended. Yes, I have a vague 
recollection, as I stated before, of that radio address, yes.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Do you recall being introduced by Mr. Johnny Chung to 
this Chinese delegation?
    Answer. I don't specifically recall.
    Mr. McLaughlin. Just so the record is clear, when you say Chinese 
delegation----
    The Witness. Yeah.
    Mr. McLaughlin [continuing]. You mean a group of individuals 
accompanying Johnny Chung? Is that the term of art we're going to use 
for group of individuals accompanying Johnny Chung?
    Ms. Safavian. Yes. That's the way they've been referred to.
    The Witness. That's never been referred to me that way. But I 
understood Mr. Chung--and I know Mr. Chung came with some other 
gentleman to a radio address.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Let me show you--and I'm not really sure how to explain 
what this is. Perhaps you can explain it to me. It is--perhaps, it 
says: At the top, Name List of Delegation. And at the very bottom 
Johnny Chung's name is listed. And at the top, there are several other 
individuals' names on this list.
    Answer. Where is Johnny Chung? Oh, down.
    Question. At the bottom under AISI representatives.
    Answer. Uh-huh.
    Question. And at the top of the Name List of Delegation, there's 
five gentlemen's names who are listed. And then under the entourage, 
there's three, but two are crossed off, so there's only one 
individual's name that is listed.
    Answer. Yes.
    Question. Two are crossed off. And under AISI representative, we 
have Johnny Chung's name, and there is one name that is crossed out. 
Have you seen this document before?
    Answer. I just saw it a minute ago. I may have seen it. Actually, I 
must have seen it. That looks like my back-wrote check mark. So I may 
have seen this document, yes.
    Mr. Wilson. You're referring to the check mark that is under 3/13 
at the top.
    The Witness. Yes. I think that's my left-handed check mark. I--I 
may----
    Mr. Wilson. If you can identify a backwards check mark as 
definitively being yours, that's fine. But I don't want you to 
speculate because there may be other people who make backwards check 
marks as well.
    The Witness. Okay.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Ms. Crawford, you make backwards check marks on 
documents?
    Answer. I'm left-handed.
    Question. Okay.
    Answer. As I have said so many times before, this was a very long 
time ago. I don't specifically remember seeing this exact piece of 
paper. But I'm not going to say that I never have seen it.
    Question. Okay. Just so the record is clear, you say that you just 
saw it a moment ago?
    Answer. Isn't it----
    Question. And it was similar to----
    Answer. Oh, okay.
    Question [continuing]. It's not identical--the Richard Sullivan--
the letter to Richard Sullivan from Johnny Chung.
    Mr. Wilson. Which has been marked as KC-2.
    Ms. Safavian. Right. It's DNC 3233327.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. This is what you're referring to?
    Answer. That's, yeah, similar.
    Question. I was going to say, as you can see, there are differences 
between the two documents. Specifically, some of the names are crossed 
off.
    Answer. Okay.
    Question. And specifically number 2, the person listed as number 2 
on the Name List of Delegation, that person's name was crossed off and 
is replaced by another individual's name which is handwritten on 
document EOP 063488. Do you see that?
    Answer. Uh-huh. Uh-huh.
    Question. Is that a yes?
    Answer. Yes.
    Question. Can you tell me, do you recognize whose handwriting this 
is with what looks like the dates of births by each individuals and 
this replaced name of number 2?
    Answer. No, I do not recognize that handwriting.
    Question. Do you recognize the handwriting that is on the top right 
and bottom right corners of this page? It looks like it says: Cc colon, 
Nancy Soderberg, someone from DNC asked to let into radio address. 
Before photos are----
    Mr. McLaughlin. Sent.

                      EXAMINATION BY MS. SAFAVIAN:

    Question [continuing]. Sent out, we need to know if we should not 
send them. N.H.
    Do you know whose handwriting that is?
    Answer. I believe it's Nancy Hernreich's handwriting. N.H. would be 
Nancy Hernreich.
    Question. Okay. But you don't have any specific recollection of 
this document?
    Mr. Wilson. I mean, seeing the document in this form?
    Ms. Safavian. Either in this form or before it was written on.
    The Witness. No, I don't have specific knowledge of seeing this 
document before. But I'm not saying that I haven't.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Okay. Just so the record is clear, when I refer to the 
Chinese delegation and Mr. Chung, those who attended the radio address, 
we will be referring to the gentlemen who are listed on this document, 
EOP 063488. And I will mark that as exhibit KC-3.
    Answer. Okay.
    Ms. Safavian. And if I could just have your copy for a moment.
    [Crawford Deposition Exhibit No. KC-3 was marked for 
identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Do you recall on the day of that radio address, the one 
that Johnny Chung and this delegation of gentlemen attended, do you 
recall any comments by the President to you about Mr. Chung and the 
delegations' attendance?
    Mr. Wilson. Before the radio address?
    Ms. Safavian. It would be during or after most likely. Any time.
    Mr. Wilson. But--wait, wait, wait. Let's narrow it down. Before? Do 
you want any comments the President made about the delegation at any 
time? I thought the question was initially before the radio address, 
but then it evolved into any time.
    Ms. Safavian. Well, I don't--I don't believe I mentioned--I said 
before in my question.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. What I'm interested in is if you recall the President 
speaking with you on this day, which is March 11th, 1995 about Mr. 
Johnny Chung and this delegation of Chinese businessmen's attendance at 
the radio address.
    Answer. After the radio address, as was often the case, once all 
the guests had left the White House or left the oval office area, you 
know, I would be standing out there, as sometimes would Nancy or 
others. And I have--I can recall the President asking who this group of 
Chinese businessmen were. And I don't specifically recall what he 
asked. But I--I have a vague recollection that he asked who they were, 
where their request came from, why they were there.
    Question. And who was that request directed to from the President?
    Answer. I don't specifically recall. Probably Ms. Hernreich or 
myself because that was within our scope of responsibility. And, again, 
I don't specifically recall the conversation or what specifically was 
said. But I believe that the President asked, you know, where--why 
these--or who these people were, why they were there and that, while I 
don't specifically remember what I answered, I assume that I would have 
said where the request had come from, which was they came through the 
DNC. It was a request from the Chairman's office. And I believe that 
the President asked to, if I knew who they were or someone at the White 
House such as someone in maybe the National Security Office knew that 
they were there.
    And while I don't, again, specifically remember what I said, I 
assumed that I probably said I will make sure that they do. And I 
believe that he, and as this note indicates, wanted us to ensure that 
we knew who these people were before their photographs were sent out 
because they, as you know, had been at the radio address and had their 
picture made with the President. So I believe that he was concerned 
that, before we sent out the photographs, that we knew exactly who 
these people were. And at that point, I could not answer that question 
for the President.
    Question. Is it all that you recall him saying?
    Answer. Yes.
    Question. Okay. And at that point----
    Answer. I said I don't specifically recall exactly what he said. I 
think that was the gist of his concern. But I don't specifically recall 
the words that he used.
    Question. And at the time the President asked you about
    this----
    Answer. I did not indicate that it was me. I said it must have been 
Nancy Hernreich or myself, because we both--this would have fallen into 
both of our scopes of responsibility.
    Question. Okay. I thought you had testified that you couldn't 
respond to the question when he asked whether the--whether anything was 
known about these individuals.
    Answer. I believe that I did. But I'm not exactly sure.
    Question. Okay. At that point, then, the--these individuals on what 
has been marked as KC-number 3, the NSC had not been notified that 
these individuals were going to attend the radio address.
    Mr. Wilson. You mean in advance of the radio address?
    Ms. Safavian. In advance of the radio address.
    The Witness. I don't believe that they had, but I'm not sure. But I 
don't believe that I had notified them.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Is that something that you would have done?
    Mr. Wilson. Wait. Can you just ask that question a different way. 
You said you asked if it was something she did. She said she doesn't 
think she did. And then you asked if it was something she would have 
done. Can you just rephrase that or actually--the important question is 
whether Kelly understands what you mean.
    The Witness. I don't quite understand what you--what you mean. If 
you restate that or clarify.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Sure. Was it one of your responsibilities or one of your 
job responsibilities to have asked the NSC prior to individuals 
attending the radio address to look into their backgrounds or----
    Answer. No.
    Question. That would not have been something that you would have 
been responsible for doing?
    Answer. We did not look into backgrounds of people who had attended 
the radio address. No. I believe that this request--I assume this 
request would have been sent to the NSC, because obviously these were 
individuals from China from another country.
    Question. And when you--if you had other individuals from other 
countries attend radio addresses, is that something that somebody in 
your office would have notified the NSC prior to their attendance they 
radio address?
    Answer. I don't specifically recall having other individuals from 
foreign countries attend radio addresses, in which case it would have 
called upon us to tell someone--I mean the President--I should clarify 
that as the President has a couple of friends from--a friend from 
Oxford, who's from Germany, but he's a personal friend of the 
President's that we would not have told the NSC about.
    Question. Are you saying you don't ever recall foreigners being at 
radio addresses, or are you saying you don't recall checking out 
foreigners with the NSC?
    Answer. I don't recall checking out foreigners with the NSC.
    Question. Okay. And just to clarify, was there--is there somebody 
else besides yourself in the office who--whose responsibility it would 
have been to contact the NSC if someone from a foreign country was 
going to attend a radio address that you know of.
    Answer. I don't know of anyone else.
    Question. Okay. Can you tell me what happened after the President 
inquired about these individuals? Did you take any action after that?
    Answer. Again, I have--I believe that I would have responded to his 
inquiry. And I have a vague recollection that maybe I took the list of 
names to Ms. Soderberg or to Tony Lake's office to say these people 
have been in the radio address. You know, is there a problem with any 
of the names? Do you know who these people are. But I don't 
specifically recall what I did on that day.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Do you recall who you would have contacted at the NSC?
    Answer. On the morning of the radio address?
    Question. No. I am sorry. I thought we determined that you did not 
contact the NSC on the morning of the radio address.
    The Wilson. I don't think that is what she testified.
    The Witness. No.
    The Wilson. Is it possible to have the reporter read back her 
answer to that question?
    Ms. Safavian. I don't think it was a specific question.
    The Witness. The prior question that I just responded to.
    The Wilson. She was testifying about, in response to your question, 
about what Kelly did subsequently with respect to the President's 
concern, or some question like that.
    The Witness. Uh-huh. What happened that morning.
    The Wilson. I am not sure she specified it as being that morning. 
But if we could just get the question and answer read back then we will 
all be on the same page.
    [The reporter read back as requested.]
    The Witness. Morning. That's where we were.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. So you did something that morning, or you----
    Answer. I said I did not specifically recall, but I think that I 
may have responded to the President's inquiry.
    Question. The morning----
    Answer. At that time.
    Question. The morning of that radio address on March 11th, 1995?
    Answer. I believe I may have.
    Question. Okay. And do you recall who you would have contacted at 
the NSC?
    Answer. I just.
    Mr. McLaughlin. That's a weird question because you are asking it 
in the would have form. Why don't you reconsider the way to get a--a 
proper way to get the information you are looking for, counsel?

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Do you recall who you contacted at the NSC?
    Answer. I just stated that I may have contacted Ms. Soderberg, Mr. 
Lake or someone in their office but, no, I do not specifically recall 
that morning.
    Question. I have just handed you what--a document that is Bates 
Stamp EOP005438, that is an e-mail from Melanie B. Darby to Rosanne 
Hill, Stanley Roth and Robert Suettinger.
    The date of that is April 7th, 1995. Am I reading that correctly?
    Answer. Yes.
    Question. Why don't you go ahead and read that e-mail.
    Mr. McLaughlin. Have you seen this document before?
    The Witness. No.
    Okay. I have read it.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Okay. Do you know who Melanie B. Darby is?
    Answer. I assume it's Brook Darby, who works at the NSC, but 
Melanie I have never heard Melanie B. Darby.
    Question. Okay. Do you know a Brook Darby at the NSC?
    Answer. Yes.
    Question. Is she somebody that you contacted regarding the 
President's concern of Johnny Chung and these individuals from China?
    Answer. I may have, yes.
    Question. Would anybody else in your office have contacted the NSC 
besides yourself?
    The Wilson. You are asking her to speculate?
    Mr. McLaughlin. It's a weird question, counsel. Would have? After 
she states that she may have contacted somebody you are asking if there 
is anybody else who would have contacted. I don't think you have laid 
any kind of a proper predicate or foundation to start going into 
questions like that.
    Furthermore, you are the one who said the committee is not 
interested in speculation so I would think you would want to ask a more 
carefully constructed question.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Can you answer the question?
    Answer. People at the White House on a daily basis talked to 
every--I mean, it's a very broad, broad question.
    Question. If you look at the third full paragraph down, it states, 
``It turns out they are various Chinese gurus and the POTUS wasn't sure 
we'd want photos of him with these people circulating around. Johnny 
Chung, one of the people on the list, is coming in to see Nancy 
Hernreich tomorrow and Nancy needs to know urgently whether or not she 
can give him the pictures. Could you please review the list ASAP and 
give me your advice on whether we want these photos floating around? 
(FYI-these people are major DNC contributors and if we can give them 
the photos, the President's office would like to do so).''
    Did I read that correctly?
    Answer. Yes.
    Question. You had stated that you believe that you did something, 
you contacted the NSC or did something about the President's request 
that morning of the radio address.
    Answer. I believe so.
    Question. Okay. That was March 11th, 1995.
    Answer. Uh-huh.
    Question. Do you have any knowledge as to why this e-mail 
requesting that information is dated April 7th, 1995?
    Mr. Wilson. You are asking her why----
    The Witness. It is dated that----
    The Wilson [continuing]. Brook Darby dated it April 7th or why 
there isn't a date earlier? I am having a hard time. You are asking her 
to speculate as to why----
    The Witness. It is dated----
    The Wilson [continuing]. There isn't an earlier date on this?

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Do you recall contacting Brook Darby on April 7th, 1995, 
about this?
    Answer. I am not saying that I never contacted Brook Darby about 
this, but I do not recall calling her on April 7th, 1995.
    Question. Do you recall it being earlier than April 7th, 1995?
    Answer. No.
    Mr. McLaughlin. You keep saying it as if there was testimony that 
it happened. She may have, I think was her testimony.
    The Witness. It would not have been unusual for me to call Brook 
Darby or--if this was a situation to follow up with her. I do not know 
when this occurred. I mean, you are asking me to recall something that 
was several years ago and to recall dates.
    I just--I wish I could do that for you. I wish that I could 
remember everything for you.
    Mr. McLaughlin. Was Brook Darby a contact person at the NSC?
    The Witness. Yes. She--it is my understanding that she worked for 
Nancy Soderberg who was like----
    Mr. McLaughlin. Can we pause? There is somebody else in the room 
here. Can we go off the record?
    [Recess.]
    Ms. Safavian. Could you read back the last question?
    [The reporter read back as requested.]
    The Witness. Can I clarify my answer?

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Sure.
    Answer. I mean, this is not my e-mail. I did not send this e-mail 
so I don't know why the date would or wouldn't have been earlier or 
later. Let's start again.
    Question. Do you have any recollection of contacting Brook Darby 
either on April 7th, 1995, or a day or two before
    April 7th, 1995?
    The Wilson. Why don't you ask her just if she has a recollection of 
talking to Brook Darby on this subject, because you are going to get 
hung up if you ask her about specific dates. Would that work for you?
    Ms. Safavian. That's fine. I thought we had covered that earlier.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Do you have any recollection of speaking with Ms. Darby 
about these individuals?
    Answer. I don't recall a specific conversation, but it would not 
have been unusual for me to talk to Ms. Darby, and if I was trying to 
figure out what to do with these photographs as the e-mail indicates 
Nancy was trying to figure out what to do with these photographs, so it 
would not have been unusual for me to have contacted Ms. Darby to check 
up on them and see where--what we should do with them.
    Question. Okay. And you testified that you have never seen this 
document before?
    Answer. No, I have never seen it.
    Ms. Safavian. Before I forget, let me mark that as Exhibit KC-4.
    [Crawford Deposition Exhibit No. KC-4 was marked for 
identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Let me hand you now another e-mail. This time it is from 
Robert Suettinger. It is also dated April 7th, 1995. And if you would 
just go ahead and take a moment to take a look at that.
    Answer. Okay.
    Ms. Safavian. Just so the record is clear, this document we are 
looking at is EOP 005439, which I will mark as Exhibit KC-5.
    [Crawford Deposition Exhibit No. KC-5 was marked for 
identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Ms. Crawford, have you ever seen this document before?
    Answer. I don't believe I have ever seen this, no.
    Question. Do you recall or have any recollection of Ms. Darby 
contacting you in response to the White House's request to look into 
the background of these individuals?
    Answer. I am sorry. Will you repeat the question again?
    Question. Sure. Do you recall Ms. Darby contacting you, in response 
to your office or the White House request for the NSC to look into the 
backgrounds of these individuals?
    Answer. I vaguely recall her--yes, her contacting me and telling me 
some of what is in here, but I don't think I have seen this document.
    Question. Okay. Do you recall when she would have contacted you?
    Answer. No.
    Question. Okay. Was it by correspondence or by telephone? Do you 
recall how she contacted you?
    Answer. I don't remember.
    Question. And can you tell me what she said?
    Answer. I don't recall specifically, although--although, I mean, 
again, in this situation I have heard press accounts of an e-mail 
saying that, you know, Johnny Chung was--some of this language that was 
in here. So I am not sure if it is from my knowledge of talking with 
Brook or from my, you know, hearing other accounts of what this e-mail 
said. But some of it sounds familiar.
    Question. Do you recall--first of all, do you know--we will just go 
forward a little bit. Do you know whether the White House released the 
photos of Johnny Chung and the Chinese delegation with the President?
    Answer. I don't know for sure whether they were released or not, 
no. I don't remember sending them out, but I am not saying that they 
were or weren't sent out.
    Question. Okay. Do you recall whether or not you would have waited 
to hear from the NSC to make the decision whether to send these out, is 
that something that your office would have done?
    Answer. I would have waited probably.
    Question. Okay.
    Answer. That would have been my normal practice, if I had made an 
inquiry about this, then I would have followed up, as this indicates.
    Question. Okay. I know you say you don't recall exactly what Ms. 
Darby said to you. You just have a recollection about some of these 
items in this e-mail. Do you recall whether her advice to you was to 
release the photos or not to release the photos?
    Answer. I don't recall. But I assume that----
    Mr. Wilson. I caution you not to assume.
    The Witness. Okay.
    Mr. Wilson. If you want to talk about your normal practices, that's 
fine.
    The Witness. I don't recall.
    Mr. Wilson. I don't want anyone to suggest that something you are 
assuming or speculating about is something that actually happened.
    Mr. McLaughlin. I am sorry. Could we go off the record?
    [Off the record.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Back on the record. Do you recall having a conversation 
with Ms. Hernreich about whether to release these photos to Johnny 
Chung?
    Answer. I am not saying that I did or didn't have a conversation, 
but I don't recall a specific conversation, but I am not saying whether 
one did or didn't occur. I just don't recall.
    Question. Okay. Let me show you a memorandum dated March 28th, 
1995, from Betty Currie. If you will just take a look at that real 
quick.
    Answer. I don't quite understand it.
    Question. First of all, have you seen this document before, this 
memo?
    Answer. No.
    Question. Do you know who Betty Currie is?
    Answer. Yes.
    Question. Who is she?
    Answer. She is the President's secretary.
    Question. Okay. Do you know who this John is that it seems to be 
addressed to?
    Answer. Huh-uh.
    Question. Does John Frieburg mean anything?
    Answer. Jonathan Frieburg?
    Question. Jonathan Frieburg, does that mean anything to you?
    Answer. Yes.
    Question. Who was that?
    Answer. He was an intern in our office.
    Question. Was there anything in particular that he did which he 
would get a memo from Betty Currie about?
    Answer. I don't understand. I am sorry. I don't quite understand 
your question.
    Question. You said he was an intern in the President's office?
    Answer. In the President's office. He worked for me.
    Question. I am sorry? He worked for who?
    Answer. He worked with me.
    Question. He worked with you?
    Answer. Uh-huh.
    Question. Was he also involved in assisting to prepare for the 
radio addresses of the President?
    Answer. I mean, as much as he sat next to me and may have accepted 
a phone call or two or worked with the pictures afterwards, but he did 
not have a primary role.
    Question. Okay.
    Answer. But I--I mean, do you--do we know that that is who this was 
to?
    Question. It doesn't state so--it doesn't say on the memo.
    Answer. I mean, pardon, but it could have been the number one--I 
mean--no one called it----
    Mr. Wilson. It could be anything.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. This is a redacted copy and we can only do the best with 
what we have got.
    Answer. I won't speculate.
    Question. That's fine. Looking at the paragraph, the only 
paragraph, that is still on the memo, it states, Ceandra Scott called. 
She was concerned about Johnny Chung. She stated that we should have 
called them prior to their coming to the radio address. Apparently they 
were in Maggie's office when the request came, and Maggie said she 
didn't know but to contact DNC.
    Answer. But I don't understand the second sentence. Apparently they 
were? Who is ``they''?
    Question. Well, I was going to ask you, do you know?
    Answer. Do I understand this? No.
    Question. Do you know what this is in reference to?
    Answer. No.
    Mr. McLaughlin. Just so we are clear, this reference is to you; it 
is not from you; you have never seen it?
    The Witness. I have never seen it and I would not comment on it 
because it doesn't make any sense. I mean, I am sorry.
    I don't understand it. I shouldn't say it doesn't make sense. I 
don't understand it.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Looking at this does not--you are unable to shed any 
light?
    Answer. Speculate, I am unable to even speculate----
    Question. Okay.
    Answer [continuing]. What this is.
    Ms. Safavian. Since we did discuss it, let me mark that as KC-6.
    [Crawford Deposition Exhibit No. KC-6 was marked for 
identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Ms. Crawford, do you recall receiving any phone calls 
from individuals in the First Lady's office or somebody at the DNC 
asking about whether or not the White House was going to release these 
photos of Johnny Chung and the Chinese delegation?
    Mr. Wilson. Are you talking about phone calls from the First Lady's 
office?
    Ms. Safavian. From the First Lady's office or the DNC.
    Mr. McLaughlin. That's a compound question. Why don't you ask her 
one at a time?
    Mr. Wilson. If you can answer.
    The Witness. I don't have specific--I mean, I dealt with maybe 50 
to 100 radio addresses and there were 50 to 100 people in every radio 
address and there were pictures from all of them. I don't have a 
specific recollection. It would not be unusual that people would call 
and say, hey, can I pick up so and so's pictures; can I get this? It 
would not be unusual. I am not telling you that it never happened but I 
don't have a specific recollection of a specific call asking for these 
specific pictures.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Let me show you a letter from Johnny Chung to Maggie 
Williams dated April 5, 1995; if you could just go ahead and take a 
quick look at that.
    Answer. Uh-huh.
    Question. Do you recall Maggie Williams ever contacting you or 
anybody else in your office about the status of these photographs?
    Answer. Again, I just--I think I just answered the question. I do 
not have a specific recollection of a contact about these specific 
photos, but I cannot sit here today, three years later, and tell you 
that a conversation did or did not occur. I dealt with hundreds of 
photographs and hundreds of requests to get these photographs.
    Mr. McLaughlin. So after viewing this letter, which is neither to 
you nor from you nor mentions you, your answer is still the same as it 
was before?
    The Witness. Yes.
    Mr. McLaughlin. This document does not refresh your recollection?
    The Witness. No.
    Ms. Safavian. Let me mark that as KC No. 7.
    [Crawford Deposition Exhibit No. KC-7 was marked for 
identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Ms. Crawford, I am now handing you a fax cover sheet from 
Johnny Chung to Carol Khare. The subject is Photo. In the comments it 
says, quote: The White House assures me that you now have the pictures. 
Hurray. If you don't, give me a call. Have a good trip.
    Does this refresh your recollection at all that the White House 
released these photographs to Johnny Chung?
    Answer. No, it does not refresh my recollection. I don't know who 
Carol Khare is.
    Ms. Safavian. Okay. Let me mark that as Exhibit KC No. 8.
    [Crawford Deposition Exhibit No. KC-8 was marked for 
identification.]
    Mr. McLaughlin. Of course the document speaks for itself but it 
says that you may have the pictures. It also says, if you don't. So I 
don't think that this document provides any indication one way or the 
other. It is a uniquely unhelpful refreshing device.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Ms. Crawford, do you recall when in July you left the 
President's office? I know you said it was July of 1995.
    Answer. I don't. I can get the date for you but I don't 
specifically recall what--when it was. I think it was July.
    Question. Okay. Let me--because we don't know the exact date, let 
me see if you have any knowledge about this next exhibit, which is--
includes several pages. The first page is an AISI fax cover page from 
Betty Currie for Irene from Johnny Chung.
    If you will just go ahead and take a look at the 5 pages that are 
attached to this.
    Ms. Crawford, do you recall ever seeing this document before?
    Answer. No.
    Question. Do you have any knowledge of Johnny Chung making a 
request to Betty Currie of the President providing him with a 
credential letter?
    Answer. I have no knowledge.
    Question. Would you have ever written any correspondence on behalf 
of the President in your duties as staff assistant?
    Answer. No, I did not write correspondence from the President in my 
duties.
    Question. Who normally would do that, do you know?
    Mr. Wilson. Who?
    Mr. McLaughlin. Who normally would what?
    Mr. Wilson. Who normally wrote any correspondence?
    Ms. Safavian. Yes, it is very general.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Who normally would write correspondence?
    Answer. The correspondence department or the personal 
correspondence department would normally write correspondence for the 
President
    Ms. Safavian. Okay. Let me just mark that as Exhibit KC No. 9.
    [Crawford Deposition Exhibit No. KC-9 was marked for 
identification.]
    Ms. Safavian. If you will just give me a minute, we may be about 
done.
    The Witness. Good.
    [Discussion off the record.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Back on the record. Ms. Crawford, you had testified 
earlier that the President expressed concern about whether to release 
these photos to these individuals who were from China. Do----
    Answer. Can I just clarify? He expressed concern, did we know who 
these people were. I believe part of the concern may have also been 
that he had had his picture made with them, but I don't think he 
specifically told me what his exact concern was.
    Question. Okay. Do you have any recollection of the President ever 
expressing concern or questioning any other individual's attendance at 
a radio address?
    Answer. I don't specifically recall other instances but, like I 
said, the radio address was a time for his friends and family and staff 
members and their family members. So I don't believe that there was 
another instance that I can specifically recall, that there were people 
in the radio address that he did not know and that I did not know 
exactly who they were, or Nancy did not know exactly who they were.
    Ms. Safavian. Okay. That's all I have, I believe. Minority counsel 
may have a few questions to ask you.
    Mr. McLaughlin. Yes, I do want to go over something.

                     EXAMINATION BY MR. MCLAUGHLIN:

    Question. I am sorry that the prior questioning has been so 
confused but I just want to walk through it.
    Answer. I would just say it is very confusing.
    Question. It has been very confusing. I am sorry about that. I just 
want to walk through this sort of sequence of events following the 
radio address and what you do and don't recall about them just so it is 
clear for the record.
    Let me--without turning to any of the documents, can you just state 
your understanding of what, just--whatever way you think is 
appropriate, of what happened following the radio address that Johnny 
Chung attended and what steps you may or may not have taken?
    Answer. Sure. As I mentioned, I recollect that the President seemed 
concerned that--as I have said, this radio address was a very informal 
gathering and that there were--it was an unusual group on this Saturday 
in that these businessmen from China were attending the radio address, 
and so the President, I believe, voiced his concern to me and/or Nancy, 
saying, who are these people? Do we know where they--you know, who 
requested their attendance?
    And since I didn't have a really good answer, although I believe I 
said that the request came from the DNC, I believe he asked me and/or 
Nancy to check with Tony Lake or the National Security Council.
    And I don't specifically recall what I did that morning, but I am 
basing what I am telling you on what I--normal practice if the 
President asked me to check something out, I assume I would have done 
it in a timely fashion.
    Question. So was it a normal practice for you to contact Brook 
Darby if you had to have an interaction with the NSC? Would she 
normally be the person you would contact?
    Answer. Yes. As we actually--when I got up to use the restroom, we 
were talking about this. But she is--it is my understanding that she 
was the assistant to the staff director, I think is what Nancy titled--
Nancy Soderberg's title was. So she was sort of my counterpart at the 
NSC.
    Question. And then would it be normal practice for the person that 
you contacted at the NSC to also be the person to contact you back and 
relay whatever information had to be relayed back from the NSC?
    Answer. I am sorry. Can you state that again?
    Question. It was a confusing question. I am falling into that trap.
    If you contacted Brook Darby with a question, would it be normal 
practice for Brook Darby to contact you back with whatever information 
had to be passed back?
    Answer. Yes. Yes.
    Question. Okay. Can I direct your attention to the exhibit that's 
been marked KC-4?
    Answer. Uh-huh.
    Question. If I recall your earlier testimony, you may have 
contacted somebody at the NSC the day of the radio address or shortly 
thereafter?
    Answer. Uh-huh.
    Question. Okay. Turning to Exhibit 4, the second sentence of the 
third full paragraph states, Johnny Chung, one of the people on the 
list, is coming to see Nancy Hernreich tomorrow and Nancy needs to know 
urgently whether or not she can give him the pictures.
    Is it possible that you might have made a second call to Brook 
Darby or somebody else on the NSC staff in light of the fact that 
Johnny Chung was coming in in person, or according to this document was 
coming in in person?
    Answer. Absolutely. That's very likely.
    Question. It is entirely possible you made one contact?
    Answer. Yes.
    Question. You made a second contact later?
    Answer. Yes.
    Question. You don't recall specifically?
    Answer. No.
    Question. But it is possible?
    Answer. It is very possible.
    Mr. Wilson. You need to let him finish the question before you 
answer.
    The Witness. I am sorry.
    Mr. McLaughlin. That's all I have. I want to thank you on behalf of 
the Minority members of the committee. We want to thank you for the 
time to speak with us.
    The Witness. Absolutely.
    Ms. Safavian. That's all we have. Thank you.
    The Witness. Great. Thank you.
    [Whereupon, at 11:55 a.m., the deposition was concluded.]
    [The exhibits referred to follow:]

    [GRAPHIC] [TIFF OMITTED] T5667.433
    
    [GRAPHIC] [TIFF OMITTED] T5667.434
    
    [GRAPHIC] [TIFF OMITTED] T5667.435
    
    [GRAPHIC] [TIFF OMITTED] T5667.436
    
    [GRAPHIC] [TIFF OMITTED] T5667.437
    
    [GRAPHIC] [TIFF OMITTED] T5667.438
    
    [GRAPHIC] [TIFF OMITTED] T5667.439
    
    [GRAPHIC] [TIFF OMITTED] T5667.440
    
    [GRAPHIC] [TIFF OMITTED] T5667.441
    
    [GRAPHIC] [TIFF OMITTED] T5667.442
    
    [GRAPHIC] [TIFF OMITTED] T5667.443
    
    [GRAPHIC] [TIFF OMITTED] T5667.444
    
    [GRAPHIC] [TIFF OMITTED] T5667.445
    
    [GRAPHIC] [TIFF OMITTED] T5667.446
    
    [GRAPHIC] [TIFF OMITTED] T5667.447
    
    [GRAPHIC] [TIFF OMITTED] T5667.448
    
    [GRAPHIC] [TIFF OMITTED] T5667.449
    
    [GRAPHIC] [TIFF OMITTED] T5667.450
    
    [GRAPHIC] [TIFF OMITTED] T5667.451
    
    [GRAPHIC] [TIFF OMITTED] T5667.452
    
    [GRAPHIC] [TIFF OMITTED] T5667.453
    
    [GRAPHIC] [TIFF OMITTED] T5667.454
    
    [GRAPHIC] [TIFF OMITTED] T5667.455
    
    [GRAPHIC] [TIFF OMITTED] T5667.456
    
    [GRAPHIC] [TIFF OMITTED] T5667.457
    
    [GRAPHIC] [TIFF OMITTED] T5667.458
    
    [GRAPHIC] [TIFF OMITTED] T5667.459
    
    [GRAPHIC] [TIFF OMITTED] T5667.460
    
    [The deposition of Carol Khare follows:]

                           Executive Session

      Committee on Government Reform and Oversight,
                             U.S. House of Representatives,
                                                    Washington, DC.
                       DEPOSITION OF: CAROL KHARE
                                  Monday, November 10, 1997

    The deposition in the above matter was held in Room 2247, Rayburn 
House Office Building, commencing at 1:15 p.m.
Appearances:
    Staff Present for the Government Reform and Oversight Committee: 
Jennifer Safavian, Investigative Counsel; Robert A. Rohrbaugh, Senior 
Investigative Counsel; Jason Hopfer, Majority Staff; Christopher Lu, 
Minority Counsel; and Michael J. Yeager, Minority Counsel.
For MS. KHARE:
    W. NEIL EGGLESTON, ESQ.
    EVAN J. WERBEL, ESQ.
    HOWREY & SIMON
    1299 Pennsylvania Ave., N.W.
    Washington, D.C. 20004-2402

    Ms. Safavian. Good morning. On behalf of the members of the 
Committee on Government Reform and Oversight, I appreciate and thank 
you for appearing here today. This proceeding is known as a deposition. 
The person transcribing this proceeding is a House reporter and notary 
public. I will now request the reporter place you under oath.

   THEREUPON, CAROL KHARE, a witness, was called for examination by 
   Counsel, and after having been first duly sworn, was examined and 
                         testified as follows:

    Ms. Safavian. I would like to note for the record those present at 
the beginning of this deposition. My name is Jennifer Safavian, and I 
am the designated Majority counsel for the committee. I am accompanied 
today by Jason Hopfer, who is with the Majority staff and also with Bob 
Rohrbaugh, who is only going to be with us for a short time, I believe. 
Michael Yeager is the designated Minority counsel and he is accompanied 
by Christopher Lu.
    Ms. Safavian. Ms., is it Khare.
    The Witness. Khare.
    Ms. Safavian. Ms. Khare is accompanied by Neil Eggleston and Evan 
Werbel.
    Although this proceeding is being held in a somewhat informal 
atmosphere, because you have been placed under oath, your testimony 
here today has the same force and effect as if you were testifying 
before the committee or in a courtroom.
    Mr. Eggleston. I must say, this is one of the most formal 
depositions I have ever attended, in a hearing room. Those of us in 
private practice think this is impressive.
    Ms. Safavian. No comment on my part.
    Mr. Eggleston. I'm sorry to interrupt you.
    Ms. Safavian. You are interrupting my script.
    If I ask you about conversations you have had in the past and you 
are unable to recall the exact words used in the conversation, you may 
state that you are unable to recall those exact words and give me the 
gist or substance of any such conversation, to the best of your 
recollection.
    If you recall only part of a conversation or only part of an event, 
please give me your best recollection of those events or parts of 
conversations that you recall. If I ask you whether you have any 
information upon a particular subject, and you have overheard other 
persons conversing with each other regarding it or have seen 
correspondence or documentation regarding it, please tell me that you 
do have such information and indicate the source, either a conversation 
or documentation or otherwise from which you derived such knowledge. 
Before we begin the questioning, I want to give you some background 
about the investigation and your appearance here. Pursuant to its 
authority under House Rules 10 and 11 of the House of Representatives, 
the committee is engaged in a wide-ranging review of possible political 
fund-raising improprieties and possible violations of law.
    Pages 2 through 4 of House Report 105-139 summarizes the 
investigation as of June 19, 1997, and encompasses any new matters 
which arise directly or indirectly in the course of the investigation. 
Also, pages 4 through 11 of the report explain the background of the 
investigation. All questions related either directly or indirectly to 
these issues, or questions which have a tendency to make the existence 
of any pertinent fact more or less probable than it would be without 
the evidence are proper.
    The committee has been granted specific authorization to conduct 
this deposition, pursuant to House Resolution 167, which passed the 
full House on June 20, 1997. Committee rule 20, of which you have 
received a copy, outlines the ground rules for the deposition. Majority 
and Minority counsel will ask you questions regarding the subject 
matter of the investigation. Minority counsel will ask questions after 
Majority counsel has finished.
    After the Minority counsel has completed questioning you, a new 
round of questioning may begin. Members of Congress who wish to ask 
questions will be afforded an immediate opportunity to ask their 
questions. When they are finished, committee counsel will resume 
questioning.
    Pursuant to the committees rules, you are allowed to have an 
attorney present to advise you of your rights. Any objection raised 
during the course of the deposition shall be stated for the record. If 
the witness is instructed not to answer a question or otherwise refuses 
to answer a question, Majority and Minority counsel will confer to 
determine whether the objection is proper. If counsel agree a question 
is proper, the witness will be asked to answer the question. If an 
objection is not withdrawn, the Chairman or a Member designated by the 
Chairman may decide whether the objection is proper.
    This deposition is considered as taken in executive session of the 
committee, which means that it may not be made public without the 
consent of the committee pursuant to clause 2(k)7 of House Rule 11. You 
are asked to abide by the Rules of the House and not discuss with 
anyone, other than your attorney, this deposition, and the issues and 
questions raised during this proceeding.
    Finally, no later than 5 days after your testimony is transcribed 
and you have been notified that your transcript is available, you may 
submit suggested changes to the Chairman. The transcript will be 
available for your review at the committee office. Committee staff may 
make any typographical and technical changes requested by you. 
Substantive changes, modifications, clarifications or amendments to the 
deposition transcript, submitted by you, must be accompanied by a 
letter requesting the changes, and a statement of your reasons for each 
proposed change.
    Answer. letter requesting any substantive changes, modifications, 
clarifications or amendments must be signed by you. Any substantive 
changes, modifications, clarifications or amendments shall be included 
as an appendix to the transcript conditioned upon your signing of the 
transcript. Do you understand everything we have gone over so far.
    The Witness. Yes.
    Ms. Safavian. Do you have any questions about anything we have gone 
over?
    The Witness. No.
    Ms. Safavian. I will be asking you questions concerning the subject 
matter of this investigation. Do you understand that?
    The Witness. Yes.
    Ms. Safavian. If you don't understand a question, please say so and 
I will repeat it or rephrase it so that you understand the question. Do 
you understand that you should tell me if you don't understand one of 
my questions?
    The Witness. Yes.
    Ms. Safavian. The reporter will be taking down everything we say 
and will make a written record of the deposition. You must give verbal, 
audible answers because the reporter cannot record what a nod of the 
head or other gesture means. Do you understand you must give verbal 
answers?
    The Witness. Yes.
    Ms. Safavian. And not an uh-huh or huh-huh.
    The Witness. Yes.
    Ms. Safavian. If you can't hear me, please say so and I will repeat 
the question or have the court reporter read the question back to you. 
Do you understand that?
    The Witness. Yes.
    Ms. Safavian. Please wait until I finish each question before 
answering and I will wait until you finish your answer before I ask the 
next question. Do you understand this will help the reporter, as she 
cannot take down what both of us are saying at the same time?
    The Witness. Yes.
    Ms. Safavian. Your testimony is being taken under oath as if we 
were in court and if you answer a question, it will be assumed that you 
understood the question and the answer was intended to be responsive to 
it. Do you understand that?
    The Witness. Yes.
    Ms. Safavian. Are you here voluntarily or are you here as a result 
of a subpoena?
    The Witness. I am here voluntarily.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Will you please state your full name and spell it for the 
record?
    Answer. My name is Carol Fick Khare, K-H-A-R-E.
    Question. Have you ever used or been known by any other names?
    Answer. No.
    Question. Can you tell me what your date of birth and Social 
Security number are?
    Mr. Yeager. I object to the request for the Social Security number. 
I am not quite sure why you need her Social Security number, 
particularly in light of the fact that these depositions may be made 
public, and in the past, if the past is any indication of future 
practice, they may be posted on the Internet and Ms. Khare might have 
legitimate privacy concerns about that.
    Mr. Eggleston. Well, I mean, I think that is a valid objection. I 
don't have any objection to giving it to you, but it is true all these 
get posted on the Internet and to have her personal data available to 
the committee for some reason, I am happy to give it to you separately, 
but I prefer not anybody who looks at the Internet have identifying 
characteristics, particularly as you are seeing more and more stories 
about people impersonating people using their Social Security number. I 
don't want to refuse to answer and withhold information from you, but 
I'm not sure why you need it in the deposition, so that any Internet 
viewer can see it, as opposed to me giving it to you.
    Ms. Safavian. Well, first of all, let me correct something the 
Minority counsel has said. It is not customary we release all the 
depositions on the Internet. Like I said, this deposition is taken in 
executive session and it is not made public until the committee votes 
to make it public.
    Secondly, we ask for the date of birth and Social Security number 
only for identification purposes, for documents we may receive in 
response to a subpoena. If it has, perhaps your name on it and we are 
not exactly sure it is you, if there happens to be another Carol Khare 
out there or the entire name is not there and the Social Security 
number is, it just helps us identify if this document, in fact, relates 
to you and we don't want you to get mixed up with anybody else.
    Mr. Yeager. If we can go off the record, maybe we can get this 
information for you. You would have the information, you could use it 
for your own internal purposes and you wouldn't have the issue of 
public release. It is certainly possible the deposition transcript 
could be released.
    Mr. Eggleston. In fact, as to her, it's likely, because she has 
been notified she is going to be a hearing witness and my understanding 
is the committee, as a routine matter, releases the depositions of 
hearing witnesses, so I think, in fact, her deposition is going to be 
on the Internet by Saturday.
    Mr. Yeager. I don't see why you can't get it off the record.
    Ms. Safavian. I don't have a problem with that. Is this something 
you would be willing to do off the record?
    Mr. Eggleston. Sure.
    Ms. Safavian. Okay. If we could go off the record.
    [Off the record.]
    Ms. Safavian. Back on the record.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Can you please tell us what your current address is?
    Answer. Is that all right?
    Mr. Eggleston. Yes, that is different.
    The Witness. [Redacted].

                      EXAMINATION BY MS. SAFAVIAN:

    Question. And I know there was a time you were residing in 
Washington, D.C.?
    Answer. Yes.
    Question. Do you happen to recall where that was?
    Answer. [Redacted].
    Question. And for what time period were you living in Washington, 
D.C.?
    Answer. From February of 1995, until the end of January, 1997.
    Question. You said January of '97?
    Answer. Yes.
    Question. Have you ever lived outside the United States?
    Answer. No.
    Question. Can you tell me what college you attended and when you 
graduated?
    Answer. I graduated from Columbia College in Columbia, South 
Carolina, in 1965.
    Question. And what degree did you receive?
    Answer. A B.A. in English.
    Question. Did you receive any other degrees after that?
    Answer. No.
    Question. Have you spoken with anyone other than your counsel about 
this deposition today?
    Answer. The fact that I was given the deposition or what I was 
going to say.
    Question. Well----
    Answer. I mean, other people know I am giving this deposition 
today.
    Question. You have mentioned to other people you were going to be 
giving a deposition today?
    Answer. Yes.
    Question. Would those be family and friends?
    Answer. Yes.
    Question. Okay. Did you discuss with anyone, other than your 
counsel, the substance of what this deposition was going to cover 
today?
    Answer. No.
    Question. Did you review any documents in preparation for your 
deposition?
    Answer. Yes.
    Question. Can you generally tell me what it was that you reviewed?
    Mr. Eggleston. Well, I don't think you have reviewed anything 
except with me.
    The Witness. Right.
    Mr. Eggleston. And I am not going to let her answer questions about 
things she reviewed with me, so you can ask her whether she has 
reviewed things independent of me, and I am happy to have her answer, 
although I think the answer is, no, but I am not going to let her go 
into the method by which we prepared for testimony.
    Ms. Safavian. Well I don't want to tread anywhere near attorney-
client privilege.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Did you review any documents outside the presence of your 
counsel?
    Answer. No.
    Question. Okay. Have you given another deposition, besides the one 
that you are here for today?
    Answer. No.
    Question. Have you been asked by the DNC to help collect documents 
in response to either the House subpoena or the Senate subpoena or the 
Department of Justice subpoenas?
    Answer. Yes.
    Question. When were you asked to do that?
    Answer. While I was still at the DNC, and since then, I mean, all 
my documents stayed there pretty much.
    Question. You did not take any documents with you when you left?
    Answer. Only personal things.
    Question. Do you recall when you were asked to collect these 
documents?
    Answer. During the time before I left there, whenever subpoenas 
were issued, and I don't remember, but I think from maybe November 
until January of '96 and '97.
    Question. And who asked you to sort of collect these documents?
    Answer. Joe Sandler at the DNC council.
    Question. And were you just collecting documents that would have 
been in your possession?
    Answer. Yes.
    Question. Did you happen to collect any documents that would have 
been in Don Fowler's possession?
    Answer. No, I was not the person who did that.
    Question. Can you just tell me how it was you came to work at the 
DNC?
    Answer. I worked in South Carolina for Don Fowler, and so when he 
came to the DNC to be Chair, he asked me to come with him.
    Question. And how long have you known Don Fowler?
    Answer. Since the early seventies.
    Question. And how did the two of you meet?
    Answer. He was Chair of the South Carolina Democratic Party and I 
was working in the headquarters as a volunteer.
    Question. So you weren't really working for him, per se?
    Answer. Not when I first met him. I began working for him in 1977.
    Question. And what were you doing for him in 1977?
    Answer. He has an advertising, public relations, community 
relations firm and I have done a variety of things in that office, 
public relations work for the most part.
    Question. And if you can just kind of map that out for me, from 
1977, how long--I don't expect you to get into a lot of detail here, 
but have you been with Don Fowler from 1977?
    Answer. Yes, until now.
    Question. Until now?
    Answer. Yes.
    Question. Are you currently still with him?
    Answer. Yes.
    Question. You are?
    Answer. Yes.
    Question. How many different jobs would you say in that time period 
did you hold for Mr. Fowler?
    Answer. Well, it is a very small firm, 8 or 10 people, and so I 
have always been in the same job. I have never been told you are now--
your title is now this, this. Nobody has titles where we are, so I have 
done a variety of things, but it was always just me.
    Question. So you have worked in this firm with him from 1977 
until----
    Answer. Until we came to Washington, and then when we went back to 
South Carolina and back working at that firm.
    Question. And the name of that firm?
    Answer. It is Fowler Communications.
    Question. And that is located in South Carolina?
    Answer. Columbia, South Carolina.
    Question. Thank you. What was your initial, I guess, reaction, when 
Mr. Fowler asked you to join him at the DNC?
    Answer. Oh, I was glad to do it.
    Question. Did he tell you what it was he wanted you to help him 
with?
    Answer. Yes.
    Question. What did he tell you?
    Answer. He said he wanted me to run the Chairman's office and to do 
some of his personal political kinds of things, represent him in some 
areas where he couldn't be present.
    Question. And when did the two of you move out here and begin 
working at the DNC?
    Answer. Late January of 1995, and then I actually went back to 
South Carolina for a couple weeks in early February and then came back 
here again. I just had to go back and finish up things there.
    Question. And then you were, from, say, February?
    Answer. From February on.
    Question. Until----
    Answer. Until the end of January of '97.
    Question. You have been out here the entire time working at the 
DNC?
    Answer. Yes.
    Question. When did Don Fowler leave the DNC?
    Answer. I don't remember the exact date, but it was January 20 
something of 1997.
    Question. And that was about the time----
    Answer. That was when I left.
    Question. Okay. And can you tell me, he asked you to pretty much 
run the Chairman's office?
    Answer. Yes.
    Question. How would you describe your job responsibilities or 
duties?
    Answer. Well, I hired and fired the staff that was within the 
Chairman's office, which is ten or so people. I gave them assignments, 
I made certain that telephones were answered and calls returned, and 
requests filled and letters answered or written. I represented the 
Chairman with other staff, outside the Chairman's office, in staff 
meetings or just to meet with other members and ask them to do things, 
or find out what they were doing, and on some occasions, I have met 
with other people outside of the office, a Member of Congress or 
somebody like that, and just whatever details came up in the Chairman's 
office, I took care of.
    Question. Would those other meetings that you just mentioned that 
you would have outside the office, would those be meetings that you 
would attend because Chairman Fowler was unable to attend those?
    Answer. Right, just something he was busy and he wanted somebody in 
the meeting, so I would go.
    Question. And were you there pretty much just to take notes for him 
or was it a more active role?
    Answer. Well, it would depend on the meeting, sometimes it would be 
just take notes. Other times it would be because we were planning some 
event or something that was going to go on and so I would give the DNC 
Chairman's point of view.
    Question. You said these were meetings a lot with Members of 
Congress?
    Answer. Well, no, not a lot with Members of Congress, but once or 
twice with Members of Congress. I met several times at the DNC with 
Members of Congress who came there. Frequently, I met with people just 
because he couldn't do it that day, he was busy, but didn't want to 
neglect these people so I would meet with them.
    Question. You mentioned that you pretty much took care of the 
Chairman's office, the hiring and firing of about ten individuals?
    Answer. Yes.
    Question. Were you the supervisor, then, over those individuals?
    Answer. Yes.
    Question. And at that time, can you recall who those individuals 
were?
    Answer. Well, it was not a steady group from beginning to end. 
There were some people there when we arrived who gradually were 
reassigned to other places or they left for other jobs and other people 
came in. They were--I guess every Chairman's office is different from 
every other and we had certain things we wanted done that maybe had not 
been done before, so we had to bring in the appropriate kinds of people 
to do those things.
    Question. What types of things would those about ten individuals 
do? What were their job responsibilities?
    Answer. Scheduling the Chairman's--whatever his schedule was, 
handling telephones, correspondence. We had somebody who would do 
briefings for him. Several people who just really just were sort of 
utility people, if we needed somebody to put together a meeting or 
somebody to write a letter, these people could do it, staff assistant I 
guess was their title.
    Question. Okay.
    Answer. And I guess that is all the specific roles people had. 
There was a driver, but the driver also did things like memos.
    Question. A driver?
    Answer. Yes.
    Question. And he would also do memos?
    Answer. Yes, he would do clerical kinds of things when he wasn't 
out driving the car.
    Question. Did you have any supervisory role over any other 
individuals in the office?
    Answer. No.
    Mr. Yeager. By office, what do you mean.
    The Witness. You mean outside the Chairman's office.
    Ms. Safavian. Yes.
    The Witness. No.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Okay. Did you ever prepare any letters or memos on behalf 
of the Chairman?
    Answer. Yes.
    Question. Was there any distinction as to what letters or memos you 
would prepare, versus the other staff assistants you just mentioned?
    Answer. Not any specific line that was drawn. I would assign people 
to answer letters or write memos or whatever, and some things I 
assigned to myself, depending sometimes on the subject matter, 
sometimes on who the recipient would be.
    Question. Do you recall, were there any specific subject matters 
that were solely your responsibility, versus somebody else's?
    Answer. No, there are just some things I knew more about than 
somebody else might. It is not that I don't want somebody else handling 
this area. It was I can do this better than somebody else, so I would 
do it myself.
    Question. Would you pretty much review other correspondence that 
were prepared by other staff assistants?
    Answer. Yes.
    Question. Did you prepare Chairman Fowler's schedule?
    Answer. No, I did not prepare a schedule.
    Question. You had a copy of his schedule, obviously?
    Answer. Yes.
    Question. So you were aware of his daily comings and goings.
    Answer. Yes.
    Question. Did you ever travel with Chairman Fowler?
    Answer. Almost never. During the campaign, during the fall of '96, 
because his travel was much more--what he did on his trips was much 
more intense, there were a lot more activities during the day. We did 
have staff traveling with him, and we sort of rotated people on to the 
traveling crew, about three people would travel with him, and I did two 
or three trips with him. It was all really just to give the others a 
break.
    Question. Did you attend many meetings with Chairman Fowler?
    Answer. A fair number. Not every meeting, by any means.
    Question. What types of meetings would those be?
    Answer. Meetings with the DNC staff, I almost always attended. If 
there was a meeting whose subject I was particularly interested in, I 
might sit in on it. If there was a meeting that I might get an 
assignment out of, then I would sit in there. But I didn't sit in on 
every meeting and sometimes I would ask another staff person to go in 
there because I don't have time to be in the meeting, go in and take 
notes.
    Question. When you generally attended the meetings, did you take 
notes at these meetings?
    Answer. Frequently. Not intensive notes, not to cover a summary of 
the meeting, but of what assignment I might have coming out of the 
meeting or might have need to give to somebody else or something that I 
might think that Mr. Fowler would want to be reminded of after the 
meeting. But, no, I didn't make a summary of the meeting or anything.
    Question. With the notes you took, would you generally keep those 
notes?
    Answer. No. My normal--I don't like paper and so my normal thing is 
to write down something that has to be done and when it is done, I 
throw away the paper or the legal pad and that is the end of it.
    Question. So you never retain those notes?
    Answer. Not that kind of thing, no.
    Question. Was there anybody assigned to attend these meetings and 
actually take notes of what happened at the meetings?
    Answer. Not as a routine thing. I suppose that if there were a kind 
of meeting where some summary needed to be made, we would put somebody 
in there, but that was not the usual thing.
    Question. Was there any one person you would normally assign to do 
that if and when you did?
    Answer. No.
    Question. Would the person who took those notes, would they retain 
those notes or what would happen to the notes, if you know?
    Answer. I am trying to remember a circumstance when we actually did 
that, and mostly I think it would have been a planning meeting kind of 
thing, and so if we were planning an event or another meeting or a trip 
or something, then whoever had responsibility for that would probably 
have taken the notes and would then have gone away to put the event or 
the trip together and I don't know what would have happened with the 
notes.
    Question. Okay. Did you ever attend any meetings with Chairman 
Fowler that were held at the White House?
    Answer. Once or twice.
    Question. Do you happen to recall what the subject matter of those 
meetings were?
    Answer. I think that one meeting that I attended was a planning 
meeting for an event that was coming up, that the President was going 
to attend, and so several people from the DNC staff went to that. And 
if I attended two with him, it would have been both--both probably 
would have been planning for events, I can't remember any other kind of 
subject that we would have covered.
    Question. Did you ever attend any of the Wednesday meetings that 
were held at the White House?
    Answer. No.
    Question. Do you know which meetings I am talking about?
    Answer. I do, but I didn't go to those.
    Question. And those were the meetings that were discussing the 
budget?
    Answer. Right.
    Question. Okay. Did anyone ever go to those meetings with Chairman 
Fowler?
    Answer. Yes, the chief financial officer went with him.
    Question. And who would that have been?
    Answer. His name is Brad Marshall. The Chief of Staff usually went. 
Bobby Watson first and then B.J. Thornberry, and frequently, Joe 
Sandler, the counsel, would go, and usually one or two people from 
finance, Richard Sullivan and maybe Marvin Rosen, if he was in town.
    Question. Okay. Did you only report to Chairman Fowler?
    Answer. Yes.
    Question. Did you do anything for Chairman Dodd?
    Answer. If he did asked me to, I would, but I can't think of many 
things I ever did for him. But once or twice, he needed something and I 
did it, but he had his own staff over there.
    Question. So pretty much, you reported to Chairman Fowler?
    Answer. Right, right.
    Question. Ms. Khare, can you tell me, when was the first time that 
you met Johnny Chung?
    Answer. I don't remember the first time I met Johnny Chung. I do 
remember the first time I talked with Johnny Chung because it was on 
the telephone.
    Question. Okay.
    Answer. And I am sure that soon after that I met him, but I don't 
remember when.
    Question. So you believe the first contact you had with Mr. Chung 
was over the telephone?
    Answer. Yes.
    Question. And can you tell me a little bit about that?
    Answer. It was in early March of 1995, he telephoned the Chairman's 
office. I don't think that he asked for me by name, I don't think he 
would have known my name, but I got on the telephone with him, somebody 
gave me the call. He identified himself as Johnny Chung, a friend of 
the First Lady. He said I am in the First Lady's Office, I have met 
with the First Lady, and I have some important Chinese businesspeople 
with me. We would like for them to go--I would like for them to go to 
the President's radio address. I asked Maggie Williams about that and 
she said she couldn't----
    Mr. Eggleston. I'm sorry to interrupt, but she is still describing, 
the ``I'' in that sentence is Johnny Chung talking.
    The Witness. Yes, he said that he would like to go to the 
President's radio address with these people, and that Maggie Williams 
had told him she could not get him into the radio address, but that 
possibly somebody in the Chairman's office could, and so he was calling 
to ask if somebody in the Chairman's office could get him in.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Do you happen to recall when in March this was?
    Answer. No, but it was within a few days of the radio address. I 
don't know if it was the day before or--I'm not even sure whether that 
week--sometimes they tape the radio address on Friday and sometimes it 
is on Saturday morning live, and I don't know whether that was a week 
that they had it on Friday or Saturday, and I don't know whether it was 
one day before or 3 days before when he called me.
    Question. Just so I understand something that you said, did you say 
he said he was calling--he, meaning Johnny Chung, was calling from 
Maggie Williams' office?
    Answer. He said I am calling from the First Lady's Office, and I 
guess you would say, if you were in Maggie Williams' office, you still 
might say you were in the First Lady's Office.
    Question. Okay. And he told you that he wanted help getting into 
the radio address?
    Answer. Uh-huh.
    Question. I'm sorry, was that a, yes?
    Answer. Yes.
    Question. And that Maggie Williams could not help him?
    Answer. Yes.
    Question. Did he tell you that Maggie Williams suggested that he 
contact the DNC?
    Answer. Yes, he did, he did.
    Question. Okay. And this was your first contact with Mr. Chung?
    Answer. s, it was.
    Question. At that time he called, did you know anything about him?
    Answer. I did not know anything about him.
    Question. Never heard his name mentioned before?
    Answer. I don't think I had heard his name mentioned before. He was 
not somebody who was familiar to me at all.
    Question. Let me show you--let me start with this memo. It is a 
March 1st, 1995, memo to a Kathleen, whose name is crossed off, and it 
is written out Katherine?
    Answer. That would be Katherine York.
    Question. Katherine York?
    Answer. Who was the scheduler.
    Question. Okay. Why don't you----
    Mr. Eggleston. Is this Carol 1 or are you going to make this an 
exhibit?
    Ms. Safavian. I will eventually, yes.
    Mr. Eggleston. I just like to keep track.
    Ms. Safavian. Sure, no problem.
    If you would just go ahead and take a look at this document. Just 
go ahead and read through it.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Ms. Khare, have you ever seen this memo before?
    Answer. I don't remember ever seeing this before.
    Question. Okay. And I know you just reviewed it, so as you know, 
this memo is asking, it is from Richard Sullivan and Ari Swiller, and 
it appears they are asking for a scheduling request for Chairman Fowler 
from March 8, and it is to meet with Johnny Chung.
    Answer. Yes.
    Question. Do you recall this meeting taking place?
    Answer. I don't. I have since then seen a schedule or something 
that had the name on it, but I didn't specifically remember that.
    Question. It says the preferred time at the top is Wednesday 
afternoon, March 9?
    Answer. Yes.
    Question. Then there is an ``8th'' underneath it, and at the bottom 
there is a ``Thursday, 9:45 to 10 a.m.'' Do you happen to recall when 
you were looking at the schedule when this meeting took place?
    Answer. No, I don't.
    Mr. Yeager. Do you know if the meeting took place.
    The Witness. Only because I have seen a schedule recently that had 
this meeting on it. I don't have any information. I was not in this 
meeting. I don't remember anything about it.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. You don't recall meeting, perhaps, Johnny Chung, and this 
delegation of Chinese businessmen at a meeting they would have had with 
Chairman Fowler?
    Answer. No, I don't.
    Mr. Eggleston. In March of '95.
    Ms. Safavian. Yes, in March of '95.
    The Witness. No, I don't.
    Ms. Safavian. For the record, I am going to go ahead and mark this 
as Exhibit CK-1.
    [Khare Deposition Exhibit No. CK-1 was marked for identification.]

    [Note.--All exhibits referred to can be found at end of 
deposition.]

    Mr. Yeager. Let me just make an observation for the record. Ms. 
Khare hasn't really given any testimony of substance with respect to 
this document, so I just want the record to be clear that its inclusion 
in the record doesn't suggest that she has given substantive testimony.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Would requests for Chairman Fowler's schedule ever go 
through you first?
    Answer. Normally, not through me first. Sometimes people would call 
me or come by and say can I get on the Chairman's schedule. I always 
then went to the scheduler to find out, because Katherine York, the 
scheduler, was so good at what she did, that I didn't have to interfere 
in the schedule very much.
    Sometimes I was the appeal, if somebody was turned down, but she 
handled the schedule. Scheduling was a mystery to me when I went to the 
DNC, and of course this was very soon after that. But Katherine did it 
so well that I didn't have to deal with it very much, unless, if 
somebody came to me and asked, I would help them facilitate that or if 
somebody appealed it to me, but as a usual thing, I didn't bother with 
the schedule.
    Ms. Safavian. Okay. Let me show you a February 27, 1995, letter 
from Johnny Chung to Richard Sullivan, and if you will just take a 
quick look at that.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Ms. Khare, have you ever seen this letter before?
    Answer. No, not that I remember.
    Question. Okay. Did Richard Sullivan ever speak to you about this 
request from Johnny Chung to meet with the President, the Vice 
President, tour the White House, and have a meeting with Chairman 
Fowler?
    Answer. No.
    Question. Did Richard Sullivan ever speak with you at all about 
Johnny Chung?
    Answer. Not in this time period. I am sure that we--I know that we 
had conversations about Johnny Chung at times while I was at the DNC, 
but not in this time period, he didn't mention it to me.
    Question. When you were looking at this document, it lists--it 
gives the names, it provides the names of the delegation and provides a 
resume of the individuals, the Chinese delegation?
    Answer. Yes.
    Question. Do any of these names look familiar to you or do you 
recall ever having met any of these individuals?
    Answer. No, I don't.
    Question. It does not help refresh your recollection?
    Answer. No.
    Ms. Safavian. I am going to go ahead and mark that as CK-2.
    [Khare Deposition Exhibit No. CK-2 was marked for identification.]
    Mr. Yeager. Again, Ms. Khare said she has never seen the document. 
I am a bit curious as to why you are including it in the record.
    Ms. Safavian. Because we were discussing it, just so the record is 
clear.
    The Witness. I have heard of Irene Wu. I think she was Johnny 
Chung's secretary. I think she is somebody I later talked to on the 
phone. At this time I wouldn't have known who she was if somebody asked 
me, but that is a familiar name, so I think she must have worked in his 
office.
    Ms. Safavian. Okay. Let me mark this as Exhibit CK-2.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. You mentioned you and Richard Sullivan did have 
conversations or discussions about Johnny Chung, not with regard to 
this letter we just discussed, but you mentioned other discussions the 
two of you had?
    Answer. I don't know that I would call it discussions, but if 
Johnny Chung wanted something from me, I might ask Richard about it. If 
Richard knew that Johnny Chung was going to be there, he might mention 
it to me. You know, it was not that we sat around and talked about 
Johnny Chung.
    Question. If Richard Sullivan were to mention that Johnny Chung was 
going to be around, was that to see if he could maybe meet with 
Chairman Fowler or something like that?
    Answer. No, it would probably be so I could go in the office and 
close the door.
    Question. What do you mean by that?
    Answer. Because later, after I knew Johnny Chung, he had a lot of 
requests and usually wanted something, and I usually was busy and 
didn't want to deal with it, and so if Richard said he was coming to 
the DNC, I probably would be unavailable.
    Question. Okay. If Chairman Fowler is having meetings with 
individuals who come in to meet with them, and I don't mean White House 
people or anybody on the DNC staff, but, for instance, if Johnny Chung 
and this Chinese delegation of businessmen were to come visit Chairman 
Fowler, is that something that usually a photographer would be present 
during the meeting and take pictures of?
    Answer. No, unless they brought a camera. We didn't have a 
photographer who did that.
    Question. There wasn't one on staff at the DNC?
    Answer. No.
    Question. When Johnny Chung came to you asking for help from the 
DNC to get into the radio address, what did you do after you spoke with 
him? What was your initial response to his request?
    Answer. My initial response was pretty much the same, that I would 
make to anybody who came up with a request, I don't know, but I will 
see and I will call you back, and he gave me a number, and I didn't 
know about the radio broadcast at that time. This was the first I knew 
that people went to the radio broadcast. But there was a lot that I 
didn't know then because I really had not been there very long, so I 
went out into the outer office where the staff assistants were and 
asked if anybody there knew whether we could get people into the radio 
address. And one of the staff assistants said, well, I know somebody at 
the White House who handles that, I will call and see.
    I explained here is this man and these Chinese businessmen. He is a 
friend of the First Lady, and she said I will call over there and see. 
And in a short time she came back in the office and said I called the 
person I know and they can go to the radio broadcast, and that was 
that, so I then called Mr. Chung and told him that they would be able 
to go.
    Question. Okay. Let's just back up a little bit. You mentioned that 
you didn't know anything about attending radio addresses, so you went 
out into a general room where the other staff assistants were?
    Answer. Yes, there were five or six people having desks in the 
area, all of whom had more Washington experience than I did.
    Question. So you just phrased the question to everybody?
    Answer. Does anybody know if we can get somebody into the radio 
address.
    Question. And you said one staff assistant mentioned she knew 
somebody at the radio address, who was that?
    Answer. Ceandra Scott.
    Question. And what did she do at the DNC?
    Answer. She worked in the Chairman's office. She was there when we 
got there. She did some telephone call kinds of things, answered the 
telephone in there. She handled--at that time she handled sort of the 
traffic going in and out of the Chairman's office, who went in to see 
him, the daily schedule, what do they call that, the day of schedule is 
what she called it, and if there were schedule changes during the day, 
which there always were, she would call and say he is going to be late 
for his lunch or we need these two people to come up 15 minutes later. 
She dealt with that all day every day.
    Question. So she said--what did she say exactly?
    Answer. She said I know somebody at the White House who works in 
that area or who handles that kind of thing or something, and she said 
I will call my friend or I will call the person I know. I don't know 
the name of the person she called.
    Question. She didn't mention it to you?
    Answer. She probably did at this time, but it was not a name I knew 
anything about, and so she went ahead and made the call.
    Question. Do you recall if it was a man or a woman that she 
mentioned?
    Answer. I don't know.
    Question. Do you recall what office in the White House?
    Answer. No.
    Question. And you don't recall specifically what day that Johnny 
Chung contacted you about this?
    Answer. No, I don't.
    Question. If I tell you that Johnny Chung and the Chinese 
delegation attended the radio address on March 11, 1995, and that that 
was a Saturday, does that help you at all determine what day of the 
week Johnny Chung contacted you?
    Answer. I assume it was 1 or 2 or 3 days before that when he 
called, but I don't know which day of the week he would have called, I 
mean, I didn't make notes about it at the time or write it on my 
calendar or anything.
    Question. So as soon as you hung up the phone with him, you 
immediately went and asked anybody if they knew anything about this?
    Answer. Yes.
    Question. And then do you know when Ms. Scott made her phone call?
    Answer. Immediately.
    Question. It was immediately?
    Answer. Yes.
    Mr. Eggleston. Can I stop you a second. I want to be clear. You say 
you assumed it was 1 or 2 or 3 days. I take it it could have been 4 or 
5 or 6.
    The Witness. I guess it could have been, but my sense is it was 
very close to time, but I don't want to be pinned down on a day because 
I really don't know.
    Mr. Eggleston. I just want to make sure you weren't pinned down to 
1 or 2 or 3 days, even that you are not sure about.
    The Witness. Although, actually, now I know they schedule all that 
stuff kind of last minute, so it couldn't have been a month ahead of 
time.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. And how do you know that they schedule all this at the 
last minute?
    Answer. Because since that time I have had occasions to call over 
there for somebody else to go to the radio address, more than one time, 
and subsequent to this experience, I learned a little bit more about 
how things work.
    Question. You have subsequently called at the last minute; is that 
right?
    Answer. Yes.
    Question. Is that how you know?
    Answer. Well, I have subsequently called and they said we won't 
know until shortly beforehand which day he is doing it and whether 
there is room for anybody to come.
    Question. And so you were telling me before that Ms. Scott 
immediately called?
    Answer. Yes.
    Question. The person she knew at the White House?
    Answer. Yes.
    Question. Were you present when she had that conversation?
    Answer. No, I went back into my office.
    Question. And do you recall when she came back and told you what 
she had learned?
    Answer. It was fairly soon after that, that she came and said they 
can go.
    Question. When you say fairly soon, do you mean the same day.
    Answer. Yes.
    Question. Do you mean, you know, within a half-an-hour time span?
    Answer. Well, I wouldn't want to be pinned down to that, but he was 
waiting for our return phone call, and so I know it was not too long.
    Question. Okay. Now, you mentioned that you took down a phone 
number where you could contact Johnny Chung?
    Answer. Yes.
    Question. Do you recall him telling you where he could be reached?
    Answer. When I called him back, it was at the First Lady's Office.
    Question. It was at the First Lady's Office?
    Answer. Yes.
    Question. And how do you know that?
    Answer. Because they answered the phone, Office of the First Lady.
    Question. Okay. That would do it. After Ms. Scott told you that 
they were able to get into the radio address, did she tell you anything 
further or was it just a simple ``they are able to go''?
    Answer. I don't recall what else was a part of that, but I know, 
because I have dealt with radio addresses after that, that at some 
point, the names and passport numbers or Social Security numbers or 
whatever had to be collected and given to the White House because you 
can't get in if they don't have that, but whether she said to me--I am 
sure she told me how that would be handled, but I just don't remember 
what it was, whether I was to get that information and get it to the 
White House or whether they were--Johnny Chung was supposed to call it 
in to somebody, I just don't remember.
    Question. She told you that?
    Answer. That it was taken care of.
    Question. And then when did you contact Johnny Chung?
    Answer. I called him back right then and told him, and I am sure I 
gave him some instructions about how to go, what gate to go through or 
who to talk to about passport numbers. Whatever it was, I am sure I 
must have told him, but I do not remember that.
    Question. Why do you say you are sure?
    Answer. Because he had to be instructed. Everybody that you take to 
the White House or send to the White House has to be told certain 
information so they can get in.
    Question. Do you recall asking or receiving from Johnny Chung a 
list of the Chinese delegation and their names?
    Answer. No, I don't remember that.
    Question. So do you remember forwarding anything to the White 
House?
    Answer. I do not remember that, whether I did that or not.
    Question. Do you recall asking Ms. Scott to follow up and get that 
information?
    Answer. No.
    Question. Did you ask Ms. Scott to do anything else after she had 
made that phone call?
    Answer. Unless I got her to take care of that information, which I 
do not remember. I do not remember anymore conversation with her about 
it.
    Question. So you contacted Johnny Chung in the First Lady's office 
and told him----
    Answer. That he could go to the radio address.
    Question. Did he ask anything else of you?
    Answer. No.
    Question. You don't recall if you told him anything else?
    Answer. No. No.
    Question. Did you tell Chairman Fowler about this conversation that 
you had with Johnny Chung about the radio address?
    Answer. I doubt it. I do not remember that I told him that.
    Question. Did you subsequently ask anybody at the DNC, who is this 
Johnny Chung?
    Answer. I must have. Later. There was some things came up the next 
week about the photos that were taken at the radio address, or I might 
have forgotten about the whole thing. They did take photos of Johnny 
and his guests and the President. And some--there was a person on DNC 
staff who dealt with photos, with people who had gotten their picture 
taken with the President. That was not his whole job but he was the 
person that you would talk to if you wanted to get a photo. He came to 
me and said, the National Security Council is really mad at you, which 
was frightening, because these Chinese nationals got their picture 
taken with the President. Now they want the pictures and the National 
Security Council does not think that is a good idea. And so then that 
sort of made me know more about Johnny Chung, be more aware of Johnny 
Chung. And after that there was some back and forth about whether he 
could have the pictures, would he get the pictures, that kind of thing, 
but I do not remember whether in the end he got them or not.
    Question. Let me ask you some questions about what you just stated. 
You said that there was an individual at the DNC who handled 
photographs.
    Answer. Yes. That was not his entire job but that was one of the 
things that he did.
    Question. Who was that individual?
    Answer. His name is Eric Sildon.
    Question. Mr. Sildon, then, he is the one that approached you about 
Johnny Chung?
    Answer. Yes.
    Question. Do you recall when this was?
    Answer. No. A few days or a week or two after the radio address. I 
do not remember just when.
    Question. Do you know how Mr. Sildon became aware of this whole 
situation?
    Answer. I think that Johnny Chung had called the DNC saying, I want 
the photos. Then when someone at the DNC tried to get the photos, they 
were told we do not want him to have them.
    Question. Did Johnny Chung ever contact you and ask you for 
assistance in getting these photos?
    Answer. I don't think he did. I don't remember that he did.
    Question. Do you know if he contacted Eric Sildon and that that is 
how he got involved?
    Answer. I don't know whether he contacted Eric Sildon or whether he 
contacted somebody in DNC Finance, which would have been the routine 
thing for him to do as a donor. He would have had a contact person in 
DNC Finance. He may have contacted that person who then went to Eric 
Sildon and said, get me these photos.
    Question. Did Richard Sullivan ever mention to you that Johnny 
Chung had contacted him about these photos?
    Answer. I do not think so.
    Question. You just do not----
    Answer. I don't remember that he did.
    Question. You just do not recall any individual's name with the DNC 
that Johnny Chung may have contacted?
    Answer. No, I do not.
    Question. Do you know how Mr. Sildon knew that the NSC was holding 
on to these photographs?
    Answer. I think he called over there, as he routinely would, to get 
the photographs and was told, no, you can't have them.
    Question. Do you know who he would have contacted?
    Answer. No.
    Question. Did the DNC have a contact person at the White House?
    Answer. There is a White House Photo Office and I guess it was 
somebody in there. That is who, if I ever needed a photo that I knew 
had been taken at the White House or with White House, by White House 
photographers, I would say, can you get me this photo, and Eric or 
whoever I asked would say, I will call the White House Photo Office.
    Question. So you never yourself called the White House Photo 
Office?
    Answer. No.
    Question. So Mr. Sildon mentioned to you that the NSC was upset 
with you?
    Answer. Yes. And I think part of that he was trying to scare me 
that NSC is after you, I mean it was, that was sort of the way he put 
it. But then he explained to me that this had happened and that they 
did not want him to have the photos.
    Question. Did he know or explain to you why the NSC----
    Answer. He said these are Chinese nationals and they didn't think 
it was a good idea for the President to have had his picture taken with 
them.
    Question. Did you or anybody else at the DNC ever inquire of Mr. 
Johnny Chung who these individuals were that he wanted to get into the 
radio address?
    Answer. He told me on the telephone when he made the request, these 
are important Chinese businessmen. I did not give Ceandra anymore 
information than that when she called over to the White House. If she 
was asked for more information than that, she didn't come back to me 
for it.
    Question. And you never inquired to Mr. Chung for any further 
information?
    Answer. No.
    Question. Did the NSC ever contact you?
    Answer. No.
    Question. Did anyone in the White House ever contact you about this 
request?
    Answer. I do not think so. I do not remember.
    Question. Did anyone in the White House contact you about these 
individuals?
    Answer. No.
    Question. Let me show you a memorandum, dated March 28, 1995, that 
is from Betty Currie. If you will just take a look at that. Have you 
ever seen this document before?
    Answer. No.
    Question. Do you happen to know who this, the John who is 
referenced at the top would be?
    Answer. No.
    Question. Did you know a Jonathan Frieberg at the White House?
    Answer. No.
    Question. Never spoken to a Jonathan Frieberg?
    Answer. No.
    Question. Taking a look at really the only substance to this 
memorandum, it says, ``Ceandra Scott called. She was concerned about 
Johnny Chung. She stated that we should have called them prior to their 
coming to the radio address. Apparently they were in Maggie's office 
when request came and Maggie said she didn't know, but to contact 
DNC.''
    Do you know what this is referring to?
    Answer. I have no idea what that means.
    Question. Did you ask Ms. Scott to call Betty Currie?
    Answer. I don't know who Betty Currie is.
    Question. Okay. She worked in the White House, works in the White 
House right now.
    Answer. I don't know.
    Question. I am just wondering if you had asked Ms. Scott to contact 
anyone at the White House at the end of March about Johnny Chung?
    Answer. No. Not to my memory I didn't.
    Question. Do you know if there is, if there is any reason why Ms. 
Scott would have called the White House on her own?
    Answer. No, I don't.
    Question. As far as you know, after Ms. Scott made the phone call 
for you at the White House, she was not involved in this any further?
    Answer. As far as I know, as far as I can remember, she was not.
    Question. It appears what this is saying is that Ceandra Scott had 
stated that the White House should have called them prior to Mr. Chung 
and the delegation coming to the radio address. Do you know what that 
might be about?
    Answer. No.
    Ms. Safavian. Let me mark this for the record as Exhibit CK-3.
    [Khare Deposition Exhibit No. CK-3 was marked for identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. You mentioned that Eric Sildon spoke with you and it 
could have been a couple days or a week after the radio address about 
the NSC holding on to these photos.
    Mr. Eggleston. I think she said it may have been as far as 2 weeks.
    The Witness. I do not remember.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. You didn't know how long after the radio address, 
sometime after the radio address?
    Answer. Right.
    Question. But do you believe it was in March?
    Answer. I believe it was, but I do not--I wouldn't swear to that.
    Question. Okay. Let me show you an April 5, 1995, letter to Don 
Fowler from Johnny Chung. If you would go ahead and take a look at 
that.
    Have you seen this document before?
    Answer. I do not recall this document.
    Question. If you will notice----
    Answer. I see it has a cc to me.
    Question. Do you have any reason to believe that you would not have 
gotten a copy of this document?
    Answer. No.
    Question. This is dated April 5, 1995. Do you believe that Eric 
Sildon, that you knew about the problem with the photos from Eric 
Sildon prior to----
    Answer. Prior to this? Probably, but because I do not remember--it 
sounds to me like this came after he had already tried to get the 
photos. Probably Eric had already come to me and told me that little 
tale. I don't know that for sure.
    Question. Okay. Did Don Fowler discuss anything in this letter with 
you after he received it?
    Answer. I do not remember that he did.
    Mr. Yeager. Did Don Fowler know about this? Strike that. Did you 
tell Don Fowler about----
    The Witness. The whole episode? I do not remember telling him that. 
I can't think that I would have. I just do not remember that 
conversation with him until just recently.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Since this is addressed to Don Fowler, would he have read 
this letter?
    Answer. He would have had it in his office.
    Question. If you will notice, the last sentence of the first 
paragraph, it reads: ``I have learned from Mr. Richard Sullivan of DNC 
that the National Security Council is holding on to those pictures.''
    Answer. Yes.
    Question. Did Richard Sullivan ever tell you or mention to you that 
the NSC was holding on to those photos?
    Answer. I don't remember talking with Richard about it. I remember 
talking with Eric about it. I don't remember talking with Richard about 
it.
    Question. And do you remember speaking with Don Fowler about it?
    Answer. No.
    Question. Do you know if Don Fowler made any phone calls or any 
attempts to assist Mr. Chung in getting these photographs?
    Answer. I don't know that he did.
    Question. Did he ever ask you to make any phone calls or assist in 
any way?
    Answer. No.
    Question. And forgive me if I asked this already, do you recall Mr. 
Chung contacting you and asking for your assistance in getting these 
photographs?
    Answer. No, I do not recall his doing that.
    Question. Do you know why he would have cc'd this letter to you?
    Answer. Well, because I was probably--I was the one who had set up 
the, their attendance at the radio broadcast in the first place. I was 
a name that he knew there in the chairman's office.
    Mr. Eggleston. Obviously, she doesn't know why he did it. She can 
only surmise.
    Ms. Safavian. Let me mark this as Exhibit CK-4.
    [Khare Deposition Exhibit No. CK-4 was marked for identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Let me now show you an e-mail from Robert Suettinger of 
the NSC, dated April 7, 1995. If you will just take a quick look at 
that.
    Mr. Eggleston. Do these read from the bottom up?
    Ms. Safavian. What this is is, the top half of it is what appears 
to be a response to the bottom, which was the original e-mail.
    Mr. Eggleston. If we are going to read them the way they were 
transmitted, we would read the bottom one first and then----
    Ms. Safavian. When you respond to an e-mail, it cuts off usually 
part of the message and keeps half of it. So the bottom is not a 
complete version of that e-mail.
    Mr. Yeager. Actually, the times and dates at the top of each 
message suggests that----
    Mr. Eggleston. The reverse is true. I am sorry.
    Mr. Yeager. That the top preceded the bottom.
    Ms. Safavian. Let me clarify that by handing you another e-mail. 
This is the original, the original request that came out from Darby. It 
is addressed to Roseanne Hill, Stanley Roth, and Robert Suettinger. The 
time is 10:12 a.m. on April 7, 1995.
    Mr. Eggleston. So we think the order is what is going to be marked 
Khare 6 is first; top of Khare 5, second; and bottom of Khare 5, third?
    Ms. Safavian. Let us not get too confused here. Why don't I go 
ahead and mark them as exhibits so that we can refer to them as exhibit 
numbers. Why don't I mark as Exhibit CK-5 the first e-mail which is 
this one from Darby to Roseanne Hill, Stanley Roth and Robert 
Suettinger, EOP 004538, and Exhibit CK-6 will be the e-mail from 
Suettinger, which is EOP 005439.
    [Khare Deposition Exhibit No. CK-5 was marked for identification.]
    [Khare Deposition Exhibit No. CK-6 was marked for identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Have you had a chance to look at both of those?
    Answer. Yes.
    Mr. Eggleston. Could we just hold up one second because I was so 
busy getting organized?
    Ms. Safavian. Sure.
    Mr. Yeager. The other thing I would like to point out for the 
record, looking at CK-5, the message from Brooke Darby, is to Asian 
Affairs, Asia-Asian Affairs, and what I think you have characterized as 
a response is from Robert Suettinger. It is not at all clear from this 
that Suettinger is responding to this e-mail here.
    Ms. Safavian. Well, I think if you look at Exhibit CK-5, at the top 
it says, to Hill, Roseanne M.; Roth, Stanley O.; Suettinger, Robert L.
    If you look at Exhibit CK-6, it shows that the sender is Robert 
Suettinger. It is to Melanie B. Darby. The subject on both of these is 
photos. Unclassified in parenthetical. And the bottom message from 
Brooke Darby is attached or is at the bottom of Suettinger's response.
    Mr. Eggleston. Let me say, we are not going to, just ask us the 
questions. We cannot adopt a supposition that they are responses or not 
responses.
    Ms. Safavian. I am not asking you to.
    Mr. Eggleston. You can go ahead and ask your questions without us 
buying into who said what, when, and whether it was a response or 
whatever.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. You have had a chance to look at these?
    Answer. Yes.
    Question. Have you ever seen these documents before?
    Answer. No.
    Question. Looking at Exhibit CK-6.
    Answer. Yes.
    Question. Were you ever told by Eric Sildon or another individual 
as to the concerns of the NSC in releasing these photos?
    Answer. Just that Eric Sildon said to me, they are concerned 
because these were Chinese nationals and they should have the--I mean, 
he did not say these are bad guys or anything, just said these are 
Chinese nationals and they should not have the President of--the photo 
with the President released. That was the concern.
    Question. Did Mr. Sildon ever mention to you how it was that the 
NSC got involved in this?
    Answer. No, he didn't.
    Question. Did you ever speak to anybody at the White House about 
the NSC holding on to these photographs?
    Answer. I don't remember doing that.
    Question. Did you become aware at that time that the NSC considered 
Johnny Chung to be a hustler, as you can see in the second paragraph?
    Answer. No. Nobody said that to me.
    Mr. Eggleston. I might say that we don't know that any of these 
involved the NSC. If you have that from some independent source, but do 
I know that these are NSC--you don't know that these are NSC e-mails; 
do you?
    The Witness. No.
    Mr. Eggleston. I am sure you have it from some external source. I 
just want it clear from Ms. Khare's point of view, she doesn't know 
that these are NSC people. You can ask her any question you want, but I 
do not think she recognizes these names.
    The Witness. No, I don't recognize these names, period.
    Mr. Eggleston. I don't think it has NSC on here.
    Ms. Safavian. No, it does not.
    Mr. Eggleston. I just want you to know she has no knowledge even 
from reading the e-mail that the NSC said that he was a hustler. She 
doesn't know that.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. That was what I wanted to find out, if anyone had, in 
fact, told you what the NSC had determined about Johnny Chung and this 
Chinese delegation of businessmen?
    Answer. No.
    Question. You never learned----
    Answer. I don't remember being told that at all.
    Question. And you, I think you had just mentioned you don't know 
these individuals who are listed?
    Answer. No.
    Question. On these e-mails?
    Answer. No.
    Question. And had never spoken with them?
    Answer. No.
    Question. After this, did the White House or anybody ever contact 
the DNC and tell the DNC, we are a little concerned about, the NSC is 
concerned about Johnny Chung and we just wanted to let you know that? 
Did you ever receive any phone call like that?
    Answer. No.
    Ms. Safavian. I believe that these exhibits are already marked.
    Mr. Eggleston. We have been going about an hour and 10 minutes. If 
we would break in 5 or so minutes.
    Ms. Safavian. Whenever you would like to.
    Mr. Eggleston. Whenever is convenient. Just a convenient stopping 
point.
    Ms. Safavian. Let me go through one other document with you real 
quick.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Ms. Khare, let me show you a fax cover sheet that is from 
you to Johnny Chung. If you look at the top, the facsimile looks like 
the date is April 11, 1995.
    Answer. Yes.
    Question. Let me just ask you, first of all, do you recall 
preparing this document?
    Answer. No, but it is my writing so obviously I did.
    Question. In the comments section it says: ``The White House 
assures me that you now have the pictures. Hooray. If you don't, give 
me a call. Have a good trip.''
    Do you recall learning that the White House had, in fact, given 
Johnny Chung the photographs?
    Answer. No, I really don't. Obviously, I did learn it, but I do not 
remember that.
    Question. You don't recall who you would have contacted at the 
White House to find that out?
    Answer. No, and I may not have contacted anybody at the White 
House. I mean somebody actually on my staff could have told me, on the 
DNC staff could have told me.
    Question. Do you recall any particular reason why you would have 
sent this to Johnny Chung?
    Answer. No. Other than--no, I mean, since I didn't remember sending 
it, I don't remember any reason.
    Question. You don't recall him calling you and----
    Answer. I don't remember him calling me about it. This just was not 
the highest priority in my life at that time. So things could have 
happened that--a lot of things happened that I am sure I do not 
remember.
    Ms. Safavian. Let me mark this as CK-7.
    [Khare Deposition Exhibit No. CK-7 was marked for identification.]
    Ms. Safavian. Why don't we go ahead at this time and take that 
break.
    [Brief Recess.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Ms. Khare, just one last question on CK-7. You mentioned 
``have a good trip.'' Do you recall where Mr. Chung was going?
    Answer. No. Although there was a letter here where he said he was 
going to China and wanted the pictures to go with him. So obviously I 
knew that he was going on that trip.
    Question. Would that have been the letter he addressed to Mr. 
Fowler?
    Answer. I just remembered when you showed me things, seeing that in 
here.
    Mr. Eggleston. CK-4, I think.

                      EXAMINATION BY MS. SAFAVIAN

    Question. Yes, CK-4, it states, ``I am going to China next week.''
    Answer. Yes.
    Question. ``I do need to bring those pictures with me.''
    Answer. Yes. So I don't know if he had told me that or I had seen 
it in a letter, whatever.
    Question. Okay. You had mentioned the first time that you had any 
contact with Mr. Chung was when he called you about this radio address.
    Answer. Yes.
    Question. Do you recall from that time period to CK-7, the date 
being April 11, 1995, ever actually meeting Mr. Chung in person?
    Answer. I don't remember when I ever met him the first time in 
person.
    Question. You don't recall the first time you actually met him?
    Answer. No.
    Question. Do you recall what the circumstances were?
    Answer. No, I don't.
    Question. Do you recall if somebody introduced you to him?
    Answer. I don't remember.
    Question. If I could just show you a May 8, 1995, letter to Don 
Fowler from Johnny Chung. If you will just go ahead and take a moment 
to look at that.
    Mr. Werbel. Is the number cut off at the bottom?
    Ms. Safavian. I am afraid it is. I apologize for that.
    Mr. Eggleston. You don't have a better version?
    Ms. Safavian. Not with me.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Have you finished reading that?
    Answer. Yes.
    Question. Can you tell me, have you ever seen this letter before?
    Answer. I do not remember this letter but probably I did.
    Question. Once again, it is cc'd to you at the bottom?
    Answer. Yes.
    Question. Do you have any reason to believe that you would not have 
gotten a copy of this?
    Answer. No.
    Question. In the first paragraph it says: ``It was wonderful to see 
you again. I appreciate you and Carol making the time available for us 
to talk about the latest update from my recent trip to China.''
    Answer. Yes.
    Question. Does this help you place in time when you may have met 
with, met Mr. Chung?
    Answer. I don't even remember this meeting, although I remember 
that we had a conversation with him that probably was this meeting 
about going to China. He wanted some DNC people to go to China. And 
whether prior to that meeting I had met him, I don't know. I don't 
know. I mean, obviously, I was in a meeting with him on that subject, 
but whether that was the first meeting I had with him or not, I don't 
know.
    Question. At least we can establish that----
    Answer. By that point I had met him.
    Question. Okay. And as you can see in the second paragraph, it 
appears that Mr. Chung presented Don Fowler with an official invitation 
from the Chinese government?
    Answer. I vaguely remember that. I do not remember what it looked 
like or anything like that. I remember that he was very anxious for us 
to go to China.
    Question. And when you say ``us,'' who----
    Answer. Well, he wanted Chairman Fowler and some DNC staff members, 
and he always, when he would talk about it, would say to me, now, 
Carol, you will have to come. You will have to come.
    Question. Did Don Fowler or any DNC staff members ever take a trip 
to China with Johnny Chung?
    Answer. No.
    Ms. Safavian. Let me mark that as CK-8.
    [Khare Deposition Exhibit No. CK-8 was marked for identification.]

                      EXAMINATION BY MS. SAFAVIAN

    Question. Ms. Khare, do you know who Harry Wu is?
    Answer. Yes.
    Question. And what do you know about him?
    Answer. I know what he was a prisoner in China, a political 
prisoner in China although he was from the United States. There was in 
the summer of 1995, I guess, there was an effort being made 
diplomatically to get him out.
    Question. Were you involved at all in this effort to free him?
    Answer. No.
    Question. How do you know anything about this?
    Answer. Well, it was in the news, but Johnny Chung wanted to be 
involved in the effort to free him or thought that he could be of help 
and was going to China and was very anxious to be helpful to the 
President and to the United States in getting him out. And he talked 
about it.
    Question. Did he talk to you about that?
    Answer. Yes.
    Question. How often?
    Answer. Well, more than one time. I mean, I saw him. He came to the 
DNC maybe a couple times in that time period and he called me a couple 
of times about it, that he really needed to help with this and he, I am 
not sure why, except that I would take his phone calls, why he called 
me about it.
    Question. Would he call you directly or was he trying to get 
Chairman Fowler?
    Answer. He was calling me directly. Maybe he wanted to go and talk 
to the President about it and that kind of thing, but he was just very 
interested in the whole subject, and I was somebody in semi official 
Washington that he could talk to about it, so he did.
    Question. Did he ever ask you for any assistance or for help in any 
way with this matter?
    Answer. No. I do not think he did. Unless me asked me if I could 
get him in to see the President or something, which I don't know that 
he did.
    Question. He was just calling you?
    Answer. He just was--yes. And would I let the White House know that 
he was working on this, that kind of thing.
    Question. What would you say to him after a conversation like that 
took place?
    Answer. I would say, sure, if I talk to anybody, I will let them 
know that you are working on this. We all know you are trying to help. 
Thanks a lot. That kind of thing.
    Question. Would you----
    Answer. I was not unkind to him, but I really did not think that he 
was going to be able to get Harry Wu out of China.
    Question. Did you ever pass on his comments that he was trying to 
help Harry Wu to anyone at the White House?
    Answer. I don't think so.
    Question. Did you ever speak to Chairman Fowler about this?
    Answer. I probably did. But not in a sense that you really need to 
go to call the President and tell him this. More, Johnny Chung says he 
is going to get Harry Wu out, that kind of thing.
    Mr. Yeager. I take it you were being facetious?
    The Witness. I guess that I was. I truly did not take his effort 
very seriously.

                      EXAMINATION BY MS. SAFAVIAN

    Question. Let me show you a July 24, 1995, letter from Don Fowler 
to Johnny Chung. If you will just take a look at that. Have you seen 
this letter before?
    Answer. I do not recall this letter.
    Question. Would this have been something that you would have 
prepared for Don Fowler or would this have been something that a staff 
assistant would have done, if you can say?
    Answer. I don't know. I think probably a staff assistant did it. 
But I could possibly have done it. This was the kind of thing that 
whoever happened to be standing there might do. It may even have been 
dictated. I mean, it could be that Chairman Fowler did it himself. I 
just do not recognize this particular one.
    Question. If you look in the second paragraph, starting with the 
second sentence, ``I enjoyed meeting your friend who is the wife of the 
Chief of Staff of the Chinese Army.''
    Do you recall this meeting that Don Fowler had with the wife of the 
Chief of Staff of the Chinese Army?
    Answer. I do not remember that specific meeting, although he 
brought a number of people up there to meet the chairman so I am sure 
that was one in a bunch.
    Question. You don't specifically recall this meeting, though?
    Answer. No.
    Question. Would Johnny Chung call ahead of time and try and get 
appointments with the chairman or would he just maybe show up?
    Answer. Sometimes he called ahead of time. More likely he would 
just show up.
    Question. And he would show up with guests with him?
    Answer. Yes.
    Question. Would Chairman Fowler always find time to meet with him?
    Answer. He wasn't even always there. In fact, sometimes I met with 
some people just because somebody had to go down and meet with these 
people and be polite to them because they were guests. But, no, he 
obviously couldn't always meet--and sometimes when people dropped by 
like that, which was not unusual for people just to drop by to see him, 
he would just walk out into the hall or down in the reception area and 
say, I am sorry, I am busy, but I am so glad you came by, good-bye. 
This could even have been like that.
    Question. Okay. If we continue in that second paragraph, quote: 
``We all look to you for guidance and help over the coming months. 
Please let me know about your efforts to gain the release of Harry 
Wu.''
    Answer. I think that is good manners.
    Question. So Don Fowler obviously knew about Mr. Chung's efforts or 
desire to free Harry Wu?
    Answer. Yes.
    Ms. Safavian. Let me mark this as Exhibit CK-9.
    [Khare Deposition Exhibit No. CK-9 was marked for identification.]

                      EXAMINATION BY MS. SAFAVIAN

    Question. I am going to be handing you two documents. They are both 
a July 25, 1995, letter to Johnny Chung from Don Fowler. You can take a 
look at both of them.
    Answer. Looks like the same words on both of them.
    Question. I was going to ask you, do you agree that it appears to 
be the same letter with the exception of at the bottom of DNC 3233816 
there are some Chinese characters.
    Answer. Yes.
    Question. That does not appear on DNC 3102488.
    Answer. Yes.
    Mr. Yeager. Do you know if they are Chinese characters?
    The Witness. No, as a matter of fact, I don't know if those are 
Chinese characters.
    Mr. Eggleston. I was going to ask you to read the Chinese to us.
    The Witness. You were not going to tell them that is a talent of 
mine.
    Mr. Eggleston. She is kidding.
    The Witness. I was kidding, and I don't know that this is Chinese, 
although with Johnny Chung it probably would not be Japanese.
    Ms. Safavian. Just so we do not get confused, why don't I go ahead 
and mark these two as exhibits. I will mark DNC 3102488 as Exhibit CK-
10, and I will mark Exhibit DNC 3233816 as Exhibit CK-11.
    [Khare Deposition Exhibit No. CK-10 was marked for identification.]
    [Khare Deposition Exhibit No. CK-11 was marked for identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. First of all, looking at Exhibit 10, do you recall this 
letter, preparing this letter or sending this letter out?
    Answer. No, I do not.
    Question. Let me just read it for the record. Starting with the 
second sentence of the first full paragraph: ``You are to be commended 
for your efforts to build a bridge between the people of China and the 
United States. I want to express my appreciation to you for being a 
friend and a great supporter of the DNC.
    ``Good luck on your trip to China and please keep me informed. 
Thank you.''
    Did Johnny Chung ask Mr. Fowler to prepare a letter like this?
    Answer. I do not think so. We sent letters to almost anybody who 
came to the office. I mean, that is something that Don Fowler routinely 
does, if he sees somebody, meets them on the street, he sends them a 
letter. So this was a very routine kind of thing to send out.
    Question. I am sorry, even using language that I just read, 
``efforts to build a bridge between the people of China and the United 
States,'' did that have anything to do with his trip to China to help 
free Harry Wu?
    Answer. I don't know, but he talked, in conversations with him he 
would talk about wanting to build bridges between our two countries. 
That kind of thing. So that is his language. That would be the kind of 
thing you would put in a polite note to somebody who had come by. Some 
of the conversation in that would have been in his conversation.
    Question. So you do not recall Johnny Chung asking for a letter 
like this to be drafted?
    Answer. No.
    Question. Okay. If you look at Exhibit 11----
    Mr. Eggleston. CK-8 has got Chung writing about the important 
bridge making process.
    The Witness. Yes. That is just----

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Were you finished with what you were saying?
    Answer. Yes.
    Question. If you look at Exhibit 11, first of all, would the DNC 
have sent a letter to Johnny Chung including these, what I believe to 
be Chinese characters, on the bottom of the letter?
    Answer. No. I do not think we had anybody who could, was capable of 
doing that at the DNC.
    Question. If you look at the top of the document, it looks like it 
was faxed on 7/25/95. It says, DNC Chairmen Dodd and Fowler with an 
arrow pointing to AISI, which was Johnny Chung's company.
    Answer. Right.
    Question. Do you know how it is, then, that the DNC had possession 
of this letter in this format with the Chinese characters at the 
bottom?
    Answer. No, I do not. I have no idea. Obviously, I guess this came 
from the DNC. But I don't know how that would have gotten on there.
    Question. And how the DNC would have gotten the letter back?
    Answer. No. I don't know. I mean, this looks like something that 
went out of our office. This does not. I assume this got put on it 
somewhere else and it came back.
    Question. But you don't know why it came back?
    Answer. No, I have no idea.
    Question. Were you aware through conversations you had with Johnny 
Chung that he was asking or wanting from the White House a credential 
letter for his trip to China?
    Answer. I do not remember that. I am not sure what a credential 
letter is. But I do not remember that particular thing.
    Question. Let me show you a set of documents that starts with a fax 
cover page from AISI to Betty Currie from Irene for Johnny Chung dated 
July 25, 1995. If you will just take a quick look at these five pages. 
Have you finished looking at that?
    Answer. Yes.
    Question. Have you seen any of these documents before?
    Answer. Other than the, than this one, I do not think that I have.
    Question. You are referencing the last document, which is EOP 
005057?
    Answer. Yes.
    Question. Which is the letter to Johnny Chung from Don Fowler that 
we were just discussing?
    Answer. Yes.
    Question. Actually, if you will take a look, looking at that last 
page of the document, looking back at Exhibit CK-11, if you will 
notice, and maybe you can help me out with this, they are the same 
letters with the exception, once again, that CK-11, there is the 
Chinese characters at the bottom. On the EOP 005057 version that does 
not exist. But at the top of both of those documents we have the same 
facsimile message at the top. The typesetting seems to be different 
between the two documents. I am just wondering, first of all----
    Answer. It does. I agree with you.
    Question. Do you have any knowledge as to why that may be or any 
explanation for that?
    Answer. No.
    Mr. Yeager. It could be reduced.
    The Witness. I think this one is just reduced because the 
letterhead is reduced, too.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Okay. First of all, as you can see from this document, 
and I will mark it as CK-12 so we can refer to that as CK-12, this is 
the set of documents which is EOP 005053 through 5057.
    [Khare Deposition Exhibit No. CK-12 was marked for identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Do you have any reason to know why Johnny Chung would 
have sent a copy of Don Fowler's letter to him to the White House?
    Answer. No.
    Question. And he did not mention to you at all his desire to get 
the White House to send him a credential letter?
    Answer. If he did, I don't remember.
    Question. Did you ever make any phone calls on his behalf to the 
White House to get such a letter for him?
    Answer. I don't think so.
    Question. Did you ever at any time request from the White House for 
them to write any letter for Johnny Chung not limited to a credential 
letter?
    Answer. I do not remember doing that.
    Question. Making any request like that on behalf of him?
    Answer. No.
    Question. Did there come a time when Johnny Chung contacted you 
while he was over in China about Harry Wu?
    Answer. Yes.
    Question. Can you tell me about that?
    Answer. He called me from, he said from Beijing. He said, I guess 
you know that Harry Wu is out. I helped get Harry Wu out. And I said, 
that is wonderful, that is wonderful that you got him out.
    And he--the First Lady was going to Beijing for something, and he 
wanted to see her when she came there. And he wanted me to help him. He 
had tried calling the White House, I think, but he wanted me to help 
him get into whatever event she was going. He wanted to welcome her to 
China. He wanted to be there when she arrived. He wanted me to help do 
that.
    Question. He wanted you to help him with that?
    Answer. Yes, he wanted me to contact somebody at the White House 
and get permission for him or clearance, whatever, for him to be able 
to greet the First Lady when she got to China and be in that group.
    Question. Did you assist him in any way in that request?
    Answer. No.
    Question. You didn't make any phone calls?
    Answer. I probably led him to believe that I would but everybody at 
the White House at that time was in Montana or something, and I had 
tried to get some people at the White House earlier in the week and had 
not been able to get them. They would not return my calls. So I sort of 
rationalized that I made that call for him but I couldn't really reach 
anybody.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Okay. Do you recall when it was that he made this phone 
call to you from Beijing?
    Answer. No. I don't remember when it was. It was shortly after 
Harry Wu's release.
    Question. And do you know why he called you?
    Answer. Because he thought that I could help him get in to see the 
First Lady.
    Question. Oh, that was the purpose of his phone call?
    Answer. That was the point of it, yes.
    Question. Okay. And he pretty much just told you that he had--that 
Harry Wu had been released----
    Answer. Uh-huh.
    Question. I am sorry. Did you say that he----
    Answer. He said, ``I helped get Harry Wu out.'' And I said, ``Well, 
that was wonderful.'' I didn't argue with him about it.
    Question. Was that pretty much the substance of the conversation?
    Answer. That was sort of the gist of it. He is a little difficult 
to talk to because he has right much of an accent and to me it is 
harder to talk to somebody on the telephone when they have a hard to 
understand accent. And when they are calling from Beijing, it is even 
harder and it was not a good connection. I think he maybe even called 
me a second time to see if I had been able to arrange anything for him 
to see the First Lady, and I hadn't been able to.
    Question. Did you relay to anybody else that Johnny Chung had 
called you from Beijing and he told you that he had helped free Harry 
Wu?
    Answer. I am sure I did. I am sure I told people that.
    Question. Do you recall who you would have told?
    Answer. No.
    Question. Did he ask you to relay to anybody that he had done this?
    Answer. No. No. Unless it was a part of his getting into the First 
Lady; maybe said, tell her I got Harry Wu out and now I need to meet 
with her, or something like that, but I didn't--no official notices to 
the State Department or anything.
    Question. Did Mr. Chung, when he was telling you about his efforts 
and his assistance in freeing Harry Wu, did he happen to mention to you 
at all what he did?
    Answer. No. No.
    Question. He didn't go into any detail with you?
    Answer. No. I don't think so. I mean, he had said, prior to going 
over there, that he thought he could help because he knew a lot of 
people over there, knew the right people to talk to. He didn't tell me 
how he actually achieved it.
    Question. Did he happen to mention to you the names of any Chinese 
officials that he may have met with about that?
    Answer. If he did, I don't remember.
    Question. Okay. Let me just show you another letter. This one is 
dated January 30th, 1996. Actually, it is a group of letters and it 
is--the Bates Stamp is DNC 3263845 through 3263848. If you will just 
take a quick look at these for me.
    Have you finished looking at them?
    Answer. Yes.
    Question. Actually, I would like to begin with what is the second 
document, because as far as timing goes the second document is a 
January 22nd, 1996, letter. This is addressed to Don Fowler from Irene 
Wu, who you said you had spoken to?
    Answer. Yes. I think she was a secretary or something to Johnny 
Chung.
    Question. Okay. By reading the letter, it looks like she is asking 
for Don Fowler's assistance in arranging a meeting between Vice 
President Gore and Professor Qu Geping?
    Answer. I don't know.
    Question. Okay. Do you recall making any efforts to try and arrange 
this meeting?
    Answer. No.
    Question. Okay. If you notice at the bottom of that document, there 
is some handwriting.
    Answer. Mine.
    Question. That's your handwriting?
    Answer. Uh-huh.
    Question. I believe it says, ``Don, I am inclined to ignore this. 
Johnny promised $100,000 in November and another $100,000 in December. 
None came. C.''
    Did I read that correctly?
    Answer. Uh-huh.
    Question. What did you mean by this?
    Answer. I think by this point, Johnny was really pestering us a 
lot. He wanted something all the time. And he always talked about what 
a big donor he was, but he did sort of quit giving money, and DNC 
Finance people kept--were complaining about it. I mean, I had been in 
meetings with them, that kind of thing. They would say, Johnny Chung, 
he keeps promising us money and he always wants something; he always 
wants a letter, that kind of thing, and he hasn't given any money. And 
so I think that's probably the reason for this.
    I mean, I don't remember specifically that he promised $100,000 
this time and $100,000 another time, but I do remember that DNC Finance 
was complaining because he was always talking and always wanting 
something but he wasn't really giving any money.
    Question. So you believe that this note that you have down here, 
you got that information from these finance meetings?
    Answer. Yes. I think I probably just was aware of that. I don't 
think I went down there and said, should we do something for Johnny? I 
think I just was aware that he had probably had a lot of attention and 
we didn't have to put forth a lot of effort for him because he had 
gotten a lot of attention.
    Question. Oh, okay. You had mentioned, you know, that he was always 
calling asking for things, wanting a letter.
    Answer. Uh-huh.
    Question. I believe that was something that you mentioned. When you 
said ``wanting a letter,'' what did you mean by that?
    Answer. Well, he would want a letter to somebody welcoming them to 
Washington or he would want, you know, a letter to go to China with. 
You know, he liked paper and so he would ask you to write him a letter; 
I would like a letter from the chairman to this person saying welcome 
to the United States or something like that.
    So, you know--he was always wanting an appointment and always 
wanting to come up and see the chairman and bring people up there.
    Question. Before when he made these requests, was that something 
that the DNC and Chairman Fowler would usually try to take care of for 
him?
    Answer. A request that somebody makes that doesn't--isn't real 
involved or real difficult, if it is a letter and there is nothing--no 
reason not to write that letter, usually we would take care of it for 
most anybody who asked.
    But he asked so many--so much more often than anybody else that it 
was--you know, we became less inclined to jump.
    Question. Did you discuss this at all with Chairman Fowler?
    Answer. This particular thing?
    Question. Yes, about your comments and that.
    Answer. I don't remember. I don't remember.
    Question. At the top of the letter, there is another handwritten 
note. It says--is that Rolf?
    Answer. Rolf.
    Question. R-O-L-F?
    Answer. Uh-huh.
    Question. Write a polite letter saying we are referring letter to 
Veep's office?
    Answer. Yes.
    Question. Dash, no commitment. D.
    Who is that?
    Answer. Don. That's Don Fowler.
    Question. Don Fowler's handwriting?
    Answer. Uh-huh.
    Question. You don't recall have a conversation with him about 
whether you were going to help Johnny?
    Answer. No. He probably saw my note, saw this letter and that was 
the disposition of it.
    Question. This didn't come back to you, then?
    Answer. No, I don't think so.
    Question. It went to Rolf?
    Answer. Yes.
    Question. Who was Rolf?
    Answer. He was a staff assistant in that office. He may have--in 
fact, I think he may have been the driver at this time and would do 
letters when he was in the office, and I think this is--this is a 
letter that he drafted. I can tell from his initials on it.
    Question. What was Rolf's last name?
    Answer. Olson.
    Question. Olson. Okay. So you are talking about the first page of 
this, which is DNC 3263845?
    Answer. Uh-huh.
    Question. Do you know what, if anything, came of this request of 
Johnny Chung's?
    Answer. No, I don't.
    Ms. Safavian. Let me go ahead and mark this as Exhibit CK-13.
    Mr. Eggleston. These are all pages?
    Ms. Safavian. Yes.
    Mr. Eggleston. All four pages, I guess?
    Mr. Eggleston. Yes, 3263845 through 3263848.
    [Khare Deposition Exhibit No. CK-13 was marked for identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Moving on to another subject, can you tell me, when did 
you first meet John Huang?
    Answer. I don't know. He had been at the DNC a little while, I 
think, when I finally met him, when--or when I first met him.
    Question. He had been there prior to you----
    Answer. He was there on the staff. I mean, I had sort of seen him 
around for awhile before I knew--actually knew who he was.
    Question. So when you arrived at the DNC----
    Answer. He was not there.
    Question. He was not there?
    Answer. No, no.
    Question. Okay.
    Answer. He came to work at the DNC in late '95 or early '96, and I 
had already been there awhile but I just happened not to meet him.
    Question. Did you know that--did you know the circumstances 
surrounding his hiring at the DNC?
    Answer. No.
    Question. You were not involved in that at all?
    Answer. No.
    Question. Okay. Do you know whether or not John Huang ever set up 
any fund-raising events involving the President?
    Answer. I know that he did.
    Question. You know that he did?
    Answer. Yes.
    Question. Was this a usual occurrence for him? Was this one of his 
responsibilities?
    Answer. Yes. Almost anybody in Finance would have had that 
responsibility, to set up events.
    Question. Involving the President?
    Answer. Yeah, or some involvement in it.
    Question. Do you know if there ever came a point in time when he 
ceased preparing fund-raising events for the President?
    Answer. No, I don't know that.
    Mr. Eggleston. I think she said, or some involvement.
    The Witness. Yes. I don't know whether he would have been the--in 
charge of an event or not, but everybody in Finance worked on events. 
So whether he was in charge of particular events, I know that I--I know 
now that he was but at the time, when all of this was going on, if you 
had said to me he does--he sets up events, I wouldn't have been 
surprised. But I don't know if somebody--if I actually knew 
specifically what his job was. He was a fund-raiser and that's what 
they did.
    Question. Did you have much contact with John Huang?
    Answer. Not a lot. I talked to him a few times and he would just 
stick his head in my office and say hello if he happened to be passing 
by. But I never knew him real well, and I didn't work directly with 
him.
    Question. Were you ever in any of the staff meetings with Don 
Fowler where John Huang would have come up and it would have been 
discussed whether or not he should continue helping with fund-raising 
events or anything like that?
    Answer. No.
    Question. Would you have had any knowledge whether John Huang 
traveled outside the United States for fund-raising?
    Answer. No, I don't--I don't have any knowledge that he did. I 
don't think I would routinely have been told something like that.
    Question. That is not something that you would have been involved 
with?
    Answer. No.
    Question. Okay. Do you recall there came--do you recall when there 
came a point in time when John Huang--when he left the DNC?
    Answer. Yes, I remember that.
    Question. Okay. Do you recall the circumstances surrounding his 
leaving the DNC?
    Answer. Well, he left after the election, and a lot of--a lot of 
fund-raisers left at that time. I mean, obviously he was in the thick 
of controversy himself right then, but that was a time when a lot of 
staff people left the DNC because the election was over. And I didn't 
have any conversation with him about it or with anybody about it.
    Question. Did you ever have any conversations with him regarding 
reports in the press that he had accepted foreign contributions?
    Answer. With him? No.
    Question. Did you have any conversations like that with Don Fowler?
    Answer. There were meetings over there about that sort of thing, 
that I was in. So I wouldn't term them conversations but, you know, as 
people were becoming aware of that situation, you know, we had some 
senior staff meetings about it.
    Question. Was this before or after John Huang left the DNC?
    Answer. Probably both.
    Question. When it was before he left the DNC, would Mr. Huang have 
been involved in those meetings?
    Answer. No.
    Question. Would he have been present?
    Answer. No.
    Question. Do you know who Roger Tamraz is?
    Answer. Yes.
    Question. And can you just tell me who he is?
    Answer. Well, most of what I know about Roger Tamraz I have learned 
recently from media reports and that kind of thing. While I was at the 
DNC, I knew Roger Tamraz as--I didn't know him. I have never met him, 
but I knew his name because he was a donor.
    Question. But you have never met him?
    Answer. No.
    Question. Did you ever have a conversation with him on the 
telephone?
    Answer. No, not--not to my memory.
    Question. Do you know if Tamraz--Mr. Tamraz ever met with Don 
Fowler?
    Answer. I think that he did. I don't remember whether he met with 
him at the DNC or not.
    Question. Do you know how often he met--the two of them may have 
met?
    Answer. Not very--a few times, I guess.
    Question. Do you know the purpose behind any of those meetings?
    Answer. No.
    Question. Did Don Fowler ever mention to you that Roger Tamraz was 
discussing an oil pipeline deal that he had?
    Answer. No.
    Question. Do you know whether or not Chairman Fowler ever offered 
his assistance to Roger Tamraz in meeting with Federal officials?
    Answer. No, huh-uh.
    Question. Do you recall a July 11th, 1995, meeting Chairman Fowler 
had with Roger Tamraz?
    Answer. No.
    Question. Let me show you this memorandum, which is to Don Fowler. 
It is from Alejandra Castillo dated July 12th, 1995 and it says 
regarding a meeting with Roger Tamraz. If you would just go ahead and 
look this over before we discuss it.
    Ms. Khare, have you finished looking at it?
    Answer. Yes.
    Question. First of all, do you recall ever receiving this 
memorandum or seeing it before?
    Answer. Yes.
    Question. Would this have been something that you would have gotten 
while you were at the DNC or did you see it some other time?
    Answer. Yes. And I have seen it recently, but, yes, I would have 
gotten it at the DNC.
    Question. Okay. Can you tell me, first of all, who is Alejandra 
Castillo?
    Answer. She was a young woman--is a young woman who at that time 
was preparing briefings for Don Fowler.
    Question. Briefings? What do you mean by that?
    Answer. Well, when he had a meeting with somebody, she would give 
him some notes on that person. If he were going on a trip, she would 
give him briefings about all the meetings on the trip, who was going to 
be in the meeting, what the politics of the--are and the place where he 
was going, that sort of thing. And she would research that--those 
things and talk to various other people and make him some notes so he 
would not go into situations cold; he would know what to expect.
    Question. Okay. And the very last page of this, it shows that it 
was cc'd to both you and Ari Swiller?
    Answer. Uh-huh.
    Question. Who is Ari Swiller?
    Answer. He was--he is someone who was a fund-raiser at the DNC. He 
was on DNC Finance staff.
    Question. Okay. Do you know if there was any particular reason why 
Ms. Castillo would have prepared a memorandum on Roger Tamraz? I mean, 
did--was she asked to do one for this?
    Answer. I don't know whether she was asked to do it or not.
    Question. Do you know where she would have gotten this information 
from to prepare this memorandum?
    Answer. No, I don't know. She may have told me at the time where 
she got it, but I don't know--I don't remember now if she did.
    Question. Okay. And did you--was there a meeting held with Don 
Fowler, Ms. Castillo, yourself and Ari Swiller about this or----
    Answer. No.
    Question [continuing]. Was this memorandum just passed out?
    Answer. No. I think it was just passed out.
    Question. Do you recall having a conversation with Don Fowler about 
this memorandum?
    Answer. No, I don't.
    Question. Did you ever discuss this memorandum with Ms. Castillo or 
Mr. Swiller?
    Answer. I am sure I discussed it with her. I am not sure whether I 
discussed it with him, with Ari Swiller.
    Question. The first sentence, or the first few words of the first 
sentence, says, ``Pursuant to your meeting with Roger Tamraz, Capitol 
Oil Incorporated, held on Tuesday July 11th,'' do you happen to recall 
this meeting that Roger Tamraz had with the Chairman on July 11th?
    Answer. No, I don't.
    Question. Okay. Would Ms. Castillo have been present at this 
meeting with Mr. Fowler and Mr. Tamraz?
    Answer. That would be very unusual if she had been in there.
    Question. Would Mr. Swiller have been present in this?
    Answer. Yes.
    Question. Do you know that for sure?
    Answer. No, I don't, but that--usually if a donor was in there a 
person from DNC Finance would be in there.
    Question. So the first paragraph, second sentence, states, quote, 
``As a potential managing trustee member, Mr. Tamraz' business dealing 
may potentially, if not definite, political and ethical implications on 
the DNC fund-raising operations.''
    Did Roger Tamraz discuss, do you know, with Chairman Fowler 
becoming a managing trustee?
    Answer. I don't know whether he did or not.
    Question. Did you have any discussions with anyone about Mr. Tamraz 
becoming a managing trustee?
    Answer. No.
    Question. Do you know whether Mr. Tamraz ever became a managing 
trustee?
    Answer. No, I don't know.
    Question. Continuing on in the first paragraph, it says, ``I have 
had several conversations with Carol Khare and Ari Swiller regarding 
Mr. Tamraz' background.''
    Does that refresh your recollection?
    Answer. I don't remember several conversations. I remember here is 
this memo; we talked about it. But--I remember maybe one conversation 
that is mentioned farther back in here prior to her doing this memo, 
but I don't remember anything else.
    Question. Did you know anything about Mr. Tamraz' background before 
reading this memo prepared by Ms. Castillo?
    Answer. Only what is mentioned back here about a Commerce 
Department friend of mine. That was all I knew about Roger Tamraz.
    Question. Why don't we take a look at that. That's back on the last 
page, which is DNC 3116353. The first paragraph states, ``Based upon 
the above-stated events, it is clear that Mr. Tamraz has several 
problems pending before the international business community. Among the 
more recent events concerning Mr. Tamraz is his bar from participating 
in a Commerce Department trade board. Open parenthesis, unofficial 
Carol Khare received warning from a DOC friend, closed parenthesis,'' 
end of the quote.
    Did I read that correctly?
    Answer. Yes.
    Question. Okay. Who was the DOC friend that you received a warning 
from?
    Answer. The young man who I knew before I came to Washington who 
worked at the Department of Commerce and who had worked at the DNC, 
then at the Department of Commerce and then came back to the DNC. His 
name is John Ost.
    Question. I am sorry. Ost?
    Answer. Ost, O-S-T.--had, I believe, seen Roger Tamraz' name on the 
Chairman's schedule, which the schedule was on the e-mail. So the staff 
knew where he was, who he was meeting with, that kind of thing.
    Question. Do you mean he as in Mr. Ost?
    Answer. He, Mr. Ost, had seen it on DNC e-mail, I think had seen 
the schedule, that Roger Tamraz was meeting with Don Fowler; and said 
to me, do you know who Roger Tamraz is? He was supposed to go on a 
trade mission with the Commerce Department and then at the last minute 
somebody found out something bad about him and he was taken off the 
trip.
    Obviously, I relayed this to Alejandra before she did this memo. I 
don't remember that conversation, but obviously I did. And so that's 
what--that was my whole exposure to Roger Tamraz was that from John 
Ost. And he didn't know why Tamraz had been taken off the trip.
    Question. I am sorry. Maybe I was confused. Were you saying that 
Mr. Ost was working at the DNC when----
    Answer. He worked at the DNC. Then, after the '92 election, he went 
and worked at the Department of Commerce. Then, at some point, he came 
back and worked at the DNC. I don't know whether he was back in July or 
whether--I saw him occasionally, and he may have just been up there. He 
came--he had a lot of friends in the office and he would come up there 
sometimes, and so whether my conversation with him about Roger Tamraz 
happened while he was an employee of the DNC or an employee of the 
Department of Commerce, I don't know.
    Question. Oh, okay. Because you had mentioned that he had seen the 
schedule of Don Fowler's.
    Answer. Yes. He could--there were copies of it lying around so he 
might have just seen it or he might have been back on staff at that 
point. I just don't know.
    Question. You didn't contact him, in fact, about Roger Tamraz?
    Answer. No. He brought it up.
    Question. Did he tell you anything else besides the fact that he 
was not allowed to go on this trip?
    Answer. I think he told me that he didn't know why. That's my 
recollection, but I am not sure.
    Question. Do you recall if you told this information to anybody 
else besides Ms. Castillo?
    Answer. I don't remember doing that.
    Question. Did you speak with Chairman Fowler about this?
    Answer. If I did, I don't remember doing that.
    Question. If you look at the first sentence of the next paragraph, 
under conclusion----
    Mr. Eggleston. We are on the last page still?
    Ms. Safavian. Yes.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Quote, ``In a conversation held with Ari Swiller 
yesterday, Mr. Tamraz expressed his desire to contribute $300,000 to 
the DNC.''
    Do you know whether Mr. Tamraz ever contributed this $300,000?
    Answer. No. I believe he contributed to the DNC, but how much I 
don't know.
    Question. You never had a conversation with Mr. Swiller about this 
donation?
    Answer. If I did, I don't remember it.
    Question. The very last paragraph, ``Our association with Mr. 
Tamraz should be well defined, a difficult task given his complex 
business connections and political associations. His business 
background has proved to be full of significant financial and ethical 
troubles. Pay attention to these warning signals,'' exclamation point.
    Did you have any discussions with Chairman Fowler concerning this 
warning from Ms. Castillo?
    Answer. I don't remember that I did. I had a conversation with 
somebody who sort of reassured me that most of this was not--there was 
nothing to most of this and that Roger Tamraz was a fine person and 
could--it would be all right for him to donate to the DNC, but I do not 
believe that it was with Chairman Fowler.
    Question. Do you recall who you had this conversation with?
    Answer. No. I just remember not being concerned anymore about this 
memo.
    Question. Did you think that Ms. Castillo was overreacting to what 
she had learned?
    Answer. I think so. I think--that was how I felt about it.
    Question. Did you inquire of other people--I mean, is that how this 
person responded to you and said, there is no need for you to worry 
about Mr. Tamraz?
    Answer. Yes, I think that's what happened. But whether it was Ari 
Swiller or Richard Sullivan or somebody else, I just don't know.
    Mr. Yeager. Was Ms. Castillo a pretty junior member of the 
Chairman's office?
    The Witness. Very junior.
    Mr. Yeager. Did she have any expertise in the Middle East or any of 
the things she expressed an opinion about in this memorandum?
    The Witness. No.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Are you aware of any meetings or conversations Chairman 
Fowler may have had with the National Security Council or the CIA 
regarding Roger Tamraz?
    Answer. No, I am not.
    Question. Do you know whether or not, after this memo----
    Mr. Eggleston. Could I interject something? I take it, it is all as 
of that time. Since that time, obviously Chairman Fowler has testified.
    The Witness. I have heard testimony, that kind of thing.
    Ms. Safavian. Of course. I am asking for your knowledge.
    Mr. Eggleston. Okay.
    Ms. Safavian. Around the time when you received this message.
    The Witness. Yes.
    Mr. Eggleston. I assumed that. I wanted to make sure the record is 
clear you are not asking as of today.
    Ms. Safavian. No, that's fine.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Please let me know if your memory is from a news article 
or something like that?
    Answer. Right.
    Question. Do you know if after this memorandum came to you, if 
Chairman Fowler had any further meetings with Roger Tamraz?
    Answer. I don't know.
    Ms. Safavian. Let me mark this as Exhibit CK-14.
    [Khare Deposition Exhibit No. CK-14 was marked for identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Ms. Khare, did you have any--was there any specific 
liaison between your office and somebody at the White House?
    Answer. No, not any specific--if I needed something at the White 
House, I would usually call somebody in White House Political Affairs, 
because those were people that I knew and dealt with. We didn't have 
any official, if you want something from the White House you have to 
talk to this person--this person has to talk to this person. It was 
nothing defined.
    Question. There wasn't any one person that you would contact more 
often?
    Answer. No.
    Question. Let me show you a November 20th, 1995, memorandum to 
Harold Ickes from Don Fowler, Marvin Rosen, Scott Pastrick and Richard 
Sullivan regarding additional DNC fund-raising requests. If you will 
just go ahead and take a look at that.
    Ms. Khare, have you finished reading that?
    Answer. Yes, I have.
    Question. First of all, have you ever seen this memo before?
    Answer. I think I have seen it recently but I haven't--I don't 
think that I saw it at the time.
    Question. You don't recall being the one who would have prepared 
this memorandum for Mr. Fowler?
    Answer. No, no. I am sure that I was not.
    Question. Okay. In the fall of 1995, did you ever discuss with 
Chairman Fowler the need for the DNC to raise an additional $4 million?
    Answer. Everybody discussed that. Everybody at the DNC was aware of 
the fund-raising efforts and what we were spending money on, that kind 
of thing. It was a huge push at that time.
    Question. Is this from the staff meetings that would be held or was 
this just common knowledge of everybody?
    Answer. Both.
    Question. Okay. The top of the memo states that 18 to 20 calls will 
have to be made by POTUS, which is the President of the United States.
    Answer. Uh-huh.
    Question. Do you know who the President was to call to raise these 
funds?
    Answer. No, I don't. I don't.
    Question. There is also 10 calls by the VPOTUS, Vice President. Do 
you know who he would have been calling to raise these funds?
    Answer. No, I don't.
    Question. Were you involved at all in preparing any call sheets for 
either the President or the Vice President for fund-raising phone 
calls?
    Answer. No.
    Question. Do you know who would have been involved in preparing a 
list?
    Answer. Someone in DNC Finance.
    Question. Under that, it states that there will be a White House 
holiday dinner which will be an accountability event. Do you know what 
an ``accountability event'' means?
    Answer. No, I don't--I don't know what that term means. I just 
noticed it when I was reading this, and I know I have seen this before, 
but I don't--I don't know.
    Mr. Yeager. I don't want to put this as an objection but I just 
want to note that it is not entirely clear that this is a plan.
    Would you, Ms. Khare, characterize this as a proposal?
    The Witness. Yes, I guess, because you don't send things over to 
the White House and tell them what they are going to do.
    Mr. Yeager. Thanks.
    The Witness. You suggest.
    Ms. Safavian. I am going to go ahead and mark this as Exhibit CK-
15.
    [Khare Deposition Exhibit No. CK-15 was marked for identification.]

                      EXAMINATION BY MS. SAFAVIAN:

    Question. When you arrived at the DNC, were you aware of the DNC 
system for screening contributions or contributors?
    Answer. That was something that was done by DNC Finance, and so I 
really was not particularly involved with that.
    Question. Did you ever have any knowledge of that process?
    Answer. I guess in conversations people might say something, you 
know, do you know anything about this person? Or we couldn't take money 
from this person for this reason. But I don't remember ever having a 
specific--being given a specific briefing on what that process was.
    Question. And it was not anything that you were ever involved with?
    Answer. It was not in my area at all.
    Question. Was it any area--was anyone that you were supervising, 
any of the staff assistants, ever involved in having to do that?
    Answer. No. No.
    Question. Are you aware that the President attended a series of 
coffees held at the White House during 1995 and 1996?
    Answer. Yes.
    Question. Were the coffees with the President part of the DNC's 
major donor program?
    Answer. I don't know if--that you would call them that because 
people were invited to those coffees who were not donors, and so--and 
people were not required to be donors in order to go to those coffees. 
So I don't guess you would call it a part of that.
    Question. Were you involved at all in planning or preparing a list 
of attendees for any of these coffees?
    Answer. No.
    Question. Do you know who would be?
    Answer. DNC Finance.
    Question. Did those lists ever make their way to Chairman Fowler 
for his approval?
    Answer. They usually--well, always before the event, at some point 
before the event, he would have a list of the people who were going to 
be there.
    Question. Would that be a list of the DNC staff employees or----
    Answer. Both, both. The guests, the--everybody who was going to be 
there, just because he likes to know who is going to be in the room 
before he walks in there.
    But I don't think that he participated in--so much in making out 
the lists, although he may have suggested names. I don't know. He 
didn't do it through me.
    Question. Okay. In any of the meetings, I mean, the staff meetings 
that were held, were these coffees ever brought up?
    Mr. Yeager. What meetings are you referring to again?
    Ms. Safavian. I am sorry. The witness----

                      EXAMINATION BY MS. SAFAVIAN:

    Question. You testified earlier that there were staff meetings at 
the DNC that you attended?
    Answer. I guess they were. I guess they were mentioned but it was 
not a thing that we worked on in those meetings or debated in those 
meetings or anything.
    Question. Okay. Do you happen to know what the purpose of these 
coffees were?
    Answer. I don't know that I can define that purpose. I don't know 
that I was involved enough to define that purpose.
    Question. Let me just show you and see if you have seen this 
before. This is a--I guess a memorandum or a scheduling memorandum. The 
document is Bates Stamped EOP 024249. If you will just take a quick 
look at that.
    Answer. Uh-huh.
    Question. Have you ever seen this document or something like this 
before?
    Answer. No. I mean, I have seen things like this just because when 
there is an event you get something like this, or the chairman would 
get something like this, letting him know what--what the sequence of 
activities would be, that sort of thing. So I have seen something like 
this but I haven't seen this specific one, I don't think.
    Question. Let me just state, I just noticed at the bottom of this 
document that there seems to be some sticker. It is typed BJT-6. I 
don't believe that that was part of the original document. That must 
have somehow gotten on it and it was copied. So don't let that distract 
you.
    This is discussing a Presidential coffee. The date is May 7th, 
1996. And the location is the White House. I am just interested in the 
purpose. It says, quote, ``The purpose of this coffee is to raise funds 
for the Democratic National Committee,'' closed quote.
    Would this be a way that the--would this be some way that the DNC 
would describe the purpose of these coffees?
    Answer. I don't think so. I never heard them described that way. In 
fact, it was made pretty clear at the DNC that there was no admission 
charged to these coffees, that people were not asked for money in order 
to attend these coffees. So that is an unusual phrasing to me.
    Question. Do you know who would have prepared this document? Is 
this something that the DNC would have prepared or the White House?
    Answer. I don't know. I don't know who did this.
    Question. Okay. You mentioned that it was made clear at the DNC 
that the coffees were not to raise funds?
    Answer. Uh-huh.
    Question. Is that correct?
    Answer. They were--there was no cost of admission to the coffees.
    Question. Okay. Who made that clear at the DNC?
    Answer. Both the heads of finance and Chairman Fowler. I mean, 
the--I just--that was something you heard more than one time, that----
    Mr. Yeager. Counsel, I think she has testified, and I don't want to 
interfere too much with your questioning, but I think she has testified 
that she wasn't involved extensively in the coffees.
    The Witness. No, I really was not. I mean, I was not.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. That's fine. Just because you had made that comment, I 
wanted to know who--you mentioned the finance Chairs. Who would they 
have been?
    Answer. Richard Sullivan or Marvin Rosen and people like that.
    Ms. Safavian. Okay. Let me, just because we discussed this, let me 
mark this as Exhibit CK-16.
    [Khare Deposition Exhibit No. CK-16 was marked for identification.]
    Mr. Yeager. Could I ask that this--the reference in the lower left-
hand corner be stricken. That appears to be taken from another 
deposition.
    Ms. Safavian. Yes, absolutely. I would get a cleaner version, but 
since this was the version showed to you, I will make this an exhibit.
    Mr. Yeager. That's just to protect the identity of someone else who 
apparently testified at the deposition.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Would you have seen any spreadsheets that would list the 
coffees and show projected funds that would have been received in 
response to the coffees or any in-hand amounts that the coffees 
generated?
    Answer. I probably wouldn't have--something like that may have been 
around our office, but it was not something that I would have paid a 
lot of attention to it and studied and looked at. So I may have seen 
the document and not looked at it.
    Mr. Eggleston. You don't actually remember such a document?
    The Witness. No.
    Mr. Eggleston. Just to make it clear.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Would that have been something that you would have had to 
look at?
    Answer. No, no.
    Question. Would it have been something that you would have 
discussed with Chairman Fowler?
    Answer. No.
    Question. Would that have been something you would have prepared 
for a meeting?
    Answer. Oh, no, I would not have been the one to prepare something 
like that.
    Mr. Eggleston. Again, just so it is clear, she did not acknowledge 
that such a document even existed, I think.
    The Witness. I guess--yeah, I don't recall any such document.
    Mr. Eggleston. Okay.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Who would normally, from the DNC, if there was a normal 
grouping of individuals, staff employees, would attend these coffees 
with Chairman Fowler?
    Answer. I think Richard Sullivan went--I know that he went to some. 
I don't know if he went to all. Marvin Rosen, who was Finance Chair, 
went to some. I don't know if he went to all. And I can't think of 
anyone else who would have gone. There may have been some particular 
situation where another person went, but those are the ones that I know 
went to some of the coffees.
    Now, that--but the idea was that they were small and not many staff 
people would have gone.
    Question. Do you know if Chairman Fowler would follow up with any 
of the individuals who would have attended these coffees?
    Answer. He probably sent everybody a letter. That would be the 
normal thing. Any meeting he was in, he would have sent--followed up 
with a letter.
    Question. Is that something that you would have been involved in 
helping to prepare?
    Answer. It would--no, I don't think so. Probably would have 
approved the letter, some basic letter.
    Question. It would have been a standard letter?
    Answer. Yes.
    Mr. Yeager. Would there have been a solicitation in that letter for 
funds?
    The Witness. I doubt it. I doubt it. I just don't remember.

                      EXAMINATION BY MS. SAFAVIAN:

    Question. Do you know if Chairman Fowler would follow up with any 
phone calls to these individuals who attended the coffees, after the 
coffees?
    Answer. I can't say a specific one when he did, but I imagine so. I 
imagine that he did.
    Question. And why do you say that?
    Answer. Just because he always ends up having to deal with people 
after he has met with them, because he is just that kind of a person. 
But we did not have a routine in that he would go in and sit down and 
follow up--make follow-up calls, but I can't say that he didn't do it 
because he probably did call some of them.
    Question. And you said he would always get the list of the 
attendees before he went?
    Answer. Yes. Yes.
    Ms. Safavian. I think I might be done, if you will just give me a 
moment.
    Ms. Khare, that's all that I have. Minority counsel may have a few 
questions, and I will direct it to him for the moment.
    Mr. Yeager. If I could take a few minutes, counsel.
    Mr. Lu. Just off the record for a couple of minutes.
    [Recess.]

                       EXAMINATION BY MR. YEAGER:

    Question. Let's go back on.
    Thank you, Ms. Khare, on behalf of all of the Democratic members of 
the committee for coming in today and taking time to give testimony. We 
appreciate your coming in voluntarily.
    I have one question. I just want to take up where you had testified 
before, take you back to March of 1995, when Johnny Chung first called 
you from Maggie Williams' office, or the First Lady's office--it is not 
clear exactly--you testified that you didn't know who he was at that 
time.
    Answer. Right.
    Question. Isn't that right?
    Answer. Uh-huh.
    Question. You weren't aware that he had given contributions to the 
DNC----
    Answer. No.
    Question [continuing]. At that time?
    Answer. I don't think that I was.
    Mr. Yeager. That's it. No further questions.
    Ms. Safavian. We are all done. Thank you very much for coming in.
    [Whereupon, at 3:55 p.m., the deposition was concluded.]

    [The exhibits referred to follow:]

    [GRAPHIC] [TIFF OMITTED] T5667.461
    
    [GRAPHIC] [TIFF OMITTED] T5667.462
    
    [GRAPHIC] [TIFF OMITTED] T5667.463
    
    [GRAPHIC] [TIFF OMITTED] T5667.464
    
    [GRAPHIC] [TIFF OMITTED] T5667.465
    
    [GRAPHIC] [TIFF OMITTED] T5667.466
    
    [GRAPHIC] [TIFF OMITTED] T5667.467
    
    [GRAPHIC] [TIFF OMITTED] T5667.468
    
    [GRAPHIC] [TIFF OMITTED] T5667.469
    
    [GRAPHIC] [TIFF OMITTED] T5667.470
    
    [GRAPHIC] [TIFF OMITTED] T5667.471
    
    [GRAPHIC] [TIFF OMITTED] T5667.472
    
    [GRAPHIC] [TIFF OMITTED] T5667.473
    
    [GRAPHIC] [TIFF OMITTED] T5667.474
    
    [GRAPHIC] [TIFF OMITTED] T5667.475
    
    [GRAPHIC] [TIFF OMITTED] T5667.476
    
    [GRAPHIC] [TIFF OMITTED] T5667.477
    
    [GRAPHIC] [TIFF OMITTED] T5667.478
    
    [GRAPHIC] [TIFF OMITTED] T5667.479
    
    [GRAPHIC] [TIFF OMITTED] T5667.480
    
    [GRAPHIC] [TIFF OMITTED] T5667.481
    
    [GRAPHIC] [TIFF OMITTED] T5667.482
    
    [GRAPHIC] [TIFF OMITTED] T5667.483
    
    [GRAPHIC] [TIFF OMITTED] T5667.484
    
    [GRAPHIC] [TIFF OMITTED] T5667.485
    
    [GRAPHIC] [TIFF OMITTED] T5667.486
    
    [GRAPHIC] [TIFF OMITTED] T5667.487
    
    [GRAPHIC] [TIFF OMITTED] T5667.488
    
    [GRAPHIC] [TIFF OMITTED] T5667.489
    
    [GRAPHIC] [TIFF OMITTED] T5667.490
    
    [GRAPHIC] [TIFF OMITTED] T5667.491
    


  JOHNNY CHUNG: HIS UNUSUAL ACCESS TO THE WHITE HOUSE, HIS POLITICAL 
                     DONATIONS AND RELATED MATTERS

                              ----------                              


                       FRIDAY, NOVEMBER 14, 1997

                          House of Representatives,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 12:25 p.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, McHugh, Horn, Souder, 
Pappas, Barr, Waxman, Lantos, Kanjorski, Maloney, Norton, 
Fattah, Cummings, Kucinich, and Turner.
    Staff present: Kevin Binger, staff director; Richard 
Bennett, chief counsel; Dudly Hodson, chief investigator; 
Barbara Comstock, chief investigative counsel; Judith McCoy, 
chief clerk; William Moschella, deputy counsel and 
parliamentarian; Teresa Austin, assistant clerk/calendar clerk; 
Will Dwyer, director of communications; Ashley Williams, deputy 
director of communications; Dave Bossie, oversight coordinator; 
Robert Rohrbaugh, James C. Wilson, and Uttam Dhillon, senior 
investigative counsels; Charli Coon, Jennifer Safavian, Kristi 
Remington, and Bill Hanka, investigative counsels; Phil Larsen, 
investigative consultant; Jim Schumann, investigator; Robin 
Butler, office manager; Carolyn Pritts, David Jones, and John 
Mastranadi, investigative staff assistants; Phil Schiliro, 
minority staff director; Phil Barnett, minority chief counsel; 
Kenneth Ballen, minority chief investigative counsel; Agnieszka 
Fryszman, Kristin Amerling, Christopher Lu, Andrew McLaughlin, 
Michael Raphael, Michael Yang, and Michael Yeager, minority 
counsels; Harry Gossett, minority professional staff member; 
Ellen Rayner, minority chief clerk; Jean Gosa and Andrew Su, 
minority staff assistants; and Sheridan Pauker, minority 
research assistant.
    Mr. Burton. The committee will come to order. A quorum 
being present, we are now in session. Today's session is a 
continuation of yesterday's hearing regarding Johnny Chung and 
his unusual access to the White House.
    Before I welcome our guests this morning, I would like to 
say that the questions which will be asked today will not in 
any way be taken from the interview we had with Mr. Chung this 
morning. We have agreed, Mr. Waxman, myself, our staffs and our 
colleagues, to keep the contents of that interview confidential 
and we will abide by that agreement.
    We will be meeting with Mr. Chung later today to go into it 
further, but at this time, with our witnesses today, we will 
refrain from raising any issues that were raised in that 
confidential interview.
    I would like to welcome Brooke Darby, former Executive 
Assistant to Nancy Soderberg at the National Security Council, 
and Robert Suettinger, former Director of Asian Affairs for the 
National Security Council.
    We really appreciate your being here, and would you both 
stand to be sworn, please?
    [Witnesses sworn.]
    Mr. Burton. On behalf of the committee, we welcome you here 
today. You will each be recognized, if you so desire, to give 
an opening statement of 5 minutes. If you have a statement that 
is longer than that, we will be happy to insert that into the 
record.
    So with that, which one of you would like to go first?
    Ms. Darby. I have no statement to offer, sir.
    Mr. Suettinger. Nor do I, Mr. Chairman.
    Mr. Burton. You do not have a statement?
    Mr. Suettinger. I do not have a statement.
    Mr. Burton. OK. I guess we will start with our 
investigative counsel, Mr. Rohrbaugh. I will recognize you--
incidentally, you have counsel with you?
    Mr. Suettinger. Yes, we do.
    Mr. Burton. Would you like to introduce your counsel?
    Mr. Suettinger. This is Mr. John Sparks from the National 
Security Council.
    Mr. Burton. Mr. Sparks, you are welcome to assist your 
clients in any way that you see fit.
    Lt. Col. Sparks. Thank you, Mr. Chairman.
    Mr. Burton. You are welcome as well.

STATEMENTS OF BROOKE DARBY, FORMER EXECUTIVE ASSISTANT TO NANCY 
    SODERBERG AT THE NATIONAL SECURITY COUNCIL; AND ROBERT 
 SUETTINGER, FORMER DIRECTOR OF ASIAN AFFAIRS FOR THE NATIONAL 
   SECURITY COUNCIL, ACCOMPANIED BY LT. COLONEL JOHN SPARKS, 
        DEPUTY LEGAL ADVISER, NATIONAL SECURITY COUNCIL

    Mr. Burton. Mr. Rohrbaugh.
    Mr. Rohrbaugh. Good morning, Ms. Darby, Mr. Suettinger, Mr. 
Sparks, we met out in the hall briefly. I introduced myself out 
there. My name is Bob Rohrbaugh, and I am just going to ask 
some questions of you today. Hopefully, we will try to be brief 
so the Members can go back home.
    I am going to start with you briefly, Ms. Darby. Could you 
briefly tell me your educational background and your work 
experience?
    Ms. Darby. Yes, I graduated in 1992 from Mount Holyoke 
College.
    Mr. Burton. Ms. Darby, would you pull the microphone closer 
to you so we can hear you clearly? Thank you.
    Ms. Darby. Sure. I graduated in 1992 from Mount Holyoke 
College. I am currently pursuing a law degree in the evening 
division at Georgetown Law School.
    My first job after graduating was working for the campaign 
in Little Rock, AR, the Clinton/Gore campaign, where I worked 
as a foreign policy assistant in the foreign policy office. I 
later joined the transition team, where I continued to work for 
Nancy Soderberg, who was director of the transition in Little 
Rock for foreign policy issues.
    Thereafter, I joined the National Security Council staff 
working as Nancy Soderberg's special assistant and then later 
as her executive assistant.
    Mr. Rohrbaugh. Do you still work at the NSC?
    Ms. Darby. No, I don't. I currently work at the State 
Department in the Bureau of International Narcotics and Law 
Enforcement Affairs.
    Mr. Rohrbaugh. When you were employed at the NSC to whom 
did you report?
    Ms. Darby. Nancy Soderberg.
    Mr. Rohrbaugh. Who at the NSC would interact with the White 
House?
    Ms. Darby. Well, both of us interacted with the White 
House, and both of us had a number of people who we had worked 
with on the campaign who later got jobs in the White House, and 
they would frequently call us if they had any issues with 
foreign policy implications.
    Mr. Rohrbaugh. And you are familiar with an e-mail dated 
April 7th, which we are going to display at the present time?
    Ms. Darby. Very familiar, sir.
    Mr. Rohrbaugh. Very familiar with that. You have been 
deposed before; you are very familiar with that e-mail.
    First of all, can you tell me what prompted your sending 
that e-mail of April 7th that appears in front of you?
    Ms. Darby. Yes, I was approached one evening by Kelly 
Crawford from the President's staff. She said--she basically 
conveyed the information that's in this e-mail, which is that 
there had been a radio address, approximately a couple weeks 
before. The Friday night before the radio address--the radio 
addresses are at 9 a.m. on Saturday mornings--the Friday night 
before the President's office had gotten a request from the DNC 
that the people on this list in the e-mail be invited to the 
radio address and they were invited.
    And as a routine part of the radio address, the guests get 
their pictures taken with the President afterwards. It usually 
takes a couple weeks for those photos to be developed. Those 
photos had been developed and Johnny Chung was coming in to see 
Nancy Hernreich the following day to pick up the photos. And 
she conveyed to me that the President had some concerns about 
us perhaps not wanting the photos of him with the individuals 
circulating, and asked for our guidance on whether we should--
whether the President's office should give Johnny Chung the 
photos when he came to Nancy Hernreich's office the following 
day.
    Mr. Rohrbaugh. And who asked for your guidance on that?
    Ms. Darby. Kelly Crawford.
    Mr. Rohrbaugh. In the past--before I get to that, prior to 
these individuals having actually come into the White House, 
had the NSC been asked to vet or check out these individuals?
    Ms. Darby. With respect to the radio address?
    Mr. Rohrbaugh. Yes, ma'am.
    Ms. Darby. Not that I'm aware of. She indicated to me that 
they had not--because of the lateness of the request, coming in 
on a Friday night before the radio address on Saturday morning, 
that contrary to their normal procedures they hadn't had an 
opportunity to check the names with us first.
    Mr. Rohrbaugh. OK. So it was the normal procedure that, 
especially when foreign nationals would come into the White 
House, the NSC would be asked to check or vet these people?
    Ms. Darby. Not necessarily. If anyone had a concern about 
any of the individuals involved, then they would contact us. 
But it was not routine practice for us to vet the names of 
people coming to a radio address, for example.
    Mr. Rohrbaugh. How often would this vetting be asked of the 
NSC by the White House?
    Ms. Darby. I don't think I probably handled all of the 
vetting, but in terms of my own participation in the vetting 
process, I would--it is hard to quantify it, but I would guess 
probably four to eight times a month. If I had to guess. But 
that really is just an estimate.
    Mr. Rohrbaugh. So it would not be unusual for the White 
House to actually ask the NSC to vet the people before they 
came in?
    Ms. Darby. That's right.
    Mr. Rohrbaugh. Now, on exhibit No. 196, that is in front of 
you, your e-mail.
    [Exhibit 196 follows:]

    [GRAPHIC] [TIFF OMITTED] T5667.492
    
    Ms. Darby. Yes.
    Mr. Rohrbaugh. It starts off by saying ``An odd situation'' 
developed. Do you see that phrase?
    Ms. Darby. Yes, I do.
    Mr. Rohrbaugh. What was the odd situation that developed?
    Ms. Darby. The odd situation was that the President's 
office had some concern about these individuals and they hadn't 
come to us in advance to ask for our guidance before these 
individuals were invited into the White House.
    And usually, if they had a concern about someone, they 
would make every effort to contact us first so we would have an 
opportunity to comment before the individuals were invited.
    Mr. Rohrbaugh. And if I can, in the second paragraph, it 
says they, which I believe refers to the President's office, 
``Did so, not knowing anything about them except that they were 
DNC contributors.''
    Did you know anything else about these individuals other 
than they were DNC contributors?
    Ms. Darby. I didn't know anything about them, sir. I tried 
to convey the information that Kelly Crawford had offered to 
me. I presume she used the term DNC contributors, because I 
would have had no independent basis for knowing whether they 
were or were not.
    But I don't recall in detail what her words were to me 
other than what's written in this e-mail, which may or may not 
have reflected her exact words.
    Mr. Rohrbaugh. And if I can show you a larger version of 
the same exhibit, at the bottom paragraph it says, ``for your 
information these people are major DNC contributors,'' and it 
goes on, which basically indicates that the President would 
like to give the photographs out, if possible.
    From whom did you get the information that these 
individuals, the people that you listed, the Chinese 
delegation, were major DNC contributors?
    Ms. Darby. Again, I can only presume that that information 
was conveyed to me by Kelly Crawford because, again, I would 
have had no independent basis for knowing whether these people 
were contributors or not. Again, I'm not sure those were the 
exact words she used, but that was the impression that I got 
from her.
    Mr. Rohrbaugh. You sent this e-mail, I believe, to Mr. 
Suettinger, among others?
    Ms. Darby. Yes, I did. I sent it to the entire Asia Office, 
because it was something that required a prompt response, and I 
wanted to make sure that if Bob wasn't around, that someone in 
the office got it.
    Mr. Rohrbaugh. And I believe you sent it on April 7th at 
approximately 10:12 in the morning; is that right?
    Ms. Darby. That's what this e-mail would indicate, yes.
    Mr. Rohrbaugh. Did Mr. Suettinger respond to you?
    Ms. Darby. Yes, he did.
    Mr. Rohrbaugh. And how soon after you sent your e-mail did 
he respond to you?
    Ms. Darby. This e-mail indicates that he responded at 
11:24, which would have been, I guess, about an hour and a half 
later.
    Mr. Rohrbaugh. And you are referring to exhibit No. 198 
that shows Mr. Suettinger's response to you; is that correct?
    [Exhibit 198 follows:]

    [GRAPHIC] [TIFF OMITTED] T5667.493
    
    Ms. Darby. 197.
    Mr. Rohrbaugh. OK, 197-198 are the same.
    Ms. Darby. Both. Yes. Yes.
    Mr. Rohrbaugh. Now, I will get into with Mr. Suettinger 
exactly what he responded, but based upon what Mr. Suettinger 
responded to you, what did you do?
    Ms. Darby. I got back in touch with Kelly Crawford and I 
conveyed to her the nature of Bob's response. I believe I 
quoted pieces of the response back to her.
    She's not--the White House and the NSC are on separate e-
mail systems because our system is classified. So there was no 
way for me to directly send a copy of this on to her 
electronically. But I believe I conveyed the substance of it to 
her and gave her an opportunity to pick up a copy of the text 
of the e-mail if she wanted it. And I don't recall whether she 
picked it up from me or not.
    Mr. Rohrbaugh. In front of you is the larger version, 
exhibit C-79, of Mr. Suettinger's response, and it indicates 
that he, referring to Johnny Chung, is a hustler. That's Mr. 
Suettinger's quotation, I believe, that has now become rather 
famous.
    Did you relay that information on to Kelly Crawford?
    [Exhibit C-79 follows:]

    [GRAPHIC] [TIFF OMITTED] T5667.494
    
    Ms. Darby. I believe I did so. That would have been a major 
piece of information that she would have needed. So I believe 
I--I don't have a specific recollection of passing that on, but 
I'm quite sure that I would have.
    Mr. Rohrbaugh. Did you make a recommendation to Ms. 
Crawford as to whether or not these photographs should be 
released?
    Ms. Darby. I believe I gave her a personal recommendation 
that we probably would not recommend that they release them.
    Mr. Rohrbaugh. OK. Now, in Mr. Suettinger's e-mail, he 
generally indicated that he didn't think there would be a major 
problem. But you took it upon yourself to recommend that the 
photographs not be released?
    Ms. Darby. It was not a strong recommendation on my part. 
Ultimately, there was nothing in Bob's e-mail that conveyed to 
me that Johnny Chung or any of the individuals involved 
represented a national security risk or that they were 
criminals of any kind. But given that, my impression from his 
e-mail was that he would perhaps attempt to exploit his 
contacts with the President through these photos, that it might 
be better to err on the side of caution and not give them to 
him.
    But it didn't pose a serious security risk, and that is 
what she came to us to give a recommendation on.
    Mr. Rohrbaugh. Prior to your making that recommendation, 
did you contact or talk with your supervisor, Ms. Soderberg?
    Ms. Darby. Not that I can recall.
    Mr. Rohrbaugh. So it was basically your personal 
recommendation that you passed on that the photographs not be 
released?
    Ms. Darby. Yes.
    Mr. Rohrbaugh. Mr. Suettinger, let me just address a few 
questions to you. Can you briefly tell me what your background 
is and where you're presently employed?
    Mr. Suettinger. You want my educational background?
    Mr. Rohrbaugh. Yes, please.
    Mr. Suettinger. I graduated from Lawrence University in 
Wisconsin in 1968. After a stint in the military, I attended 
graduate school at Columbia University, where I received a 
master's degree.
    In 1975, I joined the Central Intelligence Agency as an 
analyst, principally on Chinese matters, and had several 
different jobs within the agency and at the State Department. 
In 1994, Mr. Stanley Roth asked if I would assist him at the 
National Security Council, which I did, beginning in 1994, and 
continuing until late September 1997.
    I am currently employed at the National Intelligence 
Council, which is located in Langley.
    Mr. Rohrbaugh. So for the period of roughly 1994 through 
1997 you were at the NSC?
    Mr. Suettinger. That's correct.
    Mr. Rohrbaugh. At the White House. And can you tell me when 
the first time was that you heard of Johnny Chung?
    Mr. Suettinger. I can't give you a specific date, because 
my first contact with Mr. Chung, I believe, was via a telephone 
call that he made to the National Security Council requesting a 
meeting with Mr. Roth.
    Again, I cannot remember either the specific context of 
that telephone call or whether it was repeated, but I know that 
his name was familiar to me when it came up later on.
    Mr. Rohrbaugh. Have you ever met Mr. Chung?
    Mr. Suettinger. I have not.
    Mr. Rohrbaugh. And approximately how many times have you 
spoken to Mr. Chung, then?
    Mr. Suettinger. I would guess at most two, perhaps three. 
He was somewhat persistent, as I recollect, in trying to get a 
meeting with Mr. Roth, he and a couple of other people, and I 
fended off those requests.
    Mr. Rohrbaugh. Let me refer your attention to exhibit No. 
250, which is in your book, and it is an e-mail dated February 
2, 1995, from Calvin Mitchell. Did you get a copy of that e-
mail?
    [Exhibit 250 follows:]

    [GRAPHIC] [TIFF OMITTED] T5667.495
    
    Mr. Suettinger. Yes, I do.
    Mr. Rohrbaugh. In that particular e-mail it indicates that 
there would be, the chairman of the Chamber of International 
Commerce might be coming to see the President. Did you know 
who--first of all, had you ever heard of that organization, the 
Chamber of International Commerce?
    Mr. Suettinger. I had not.
    Mr. Rohrbaugh. Did you know the individual who was listed 
in that particular e-mail?
    Mr. Suettinger. His name is vaguely familiar to me.
    Mr. Rohrbaugh. And that was through your employment?
    Mr. Suettinger. That's correct.
    Mr. Rohrbaugh. At that time, which is February 2, 1995, did 
you undertake any type of investigation or vetting of this 
particular individual who is listed on this e-mail?
    Mr. Suettinger. I did not.
    Mr. Rohrbaugh. And I won't pronounce the name. I will leave 
that to you.
    Mr. Suettinger. Zheng Hongye.
    Mr. Rohrbaugh. And why was it that you did not do any 
investigation or vetting of Mr. Chung at that time?
    Mr. Suettinger. First of all, at that time, this was just a 
heads-up, rather than a request that this individual would be 
vetted. I didn't--and, quite frankly, I had not even remembered 
the existence of this e-mail until it was brought to my 
attention earlier this week as an FYI. I just basically 
disregarded it.
    Mr. Rohrbaugh. Are there resources at the NSC which would 
permit the NSC to actually vet individuals?
    Mr. Suettinger. There are some at the NSC and some 
available via other means, phone calls and so forth.
    Mr. Rohrbaugh. OK. And without getting into any classified 
information, those resources were readily available to you at 
the NSC?
    Mr. Suettinger. That's correct.
    Mr. Rohrbaugh. OK. When did you first become aware that Mr. 
Chung intended to bring a Chinese delegation into the White 
House?
    Mr. Suettinger. I was not aware of that until Ms. Darby 
wrote me the e-mail.
    Mr. Rohrbaugh. So the first time you heard about that at 
all is when Ms. Darby sent you that e-mail?
    Mr. Suettinger. That's correct.
    Mr. Rohrbaugh. And, again, just for the record, let me show 
you exhibit No. 196, and that's the e-mail that you received 
from Ms. Darby?
    [Note.--Exhibit 196 may be found on p. 715.]
    Mr. Suettinger. Yes, it is.
    Mr. Rohrbaugh. To your knowledge, had anyone at the NSC or 
the White House or anybody else vetted these individuals prior 
to their coming into the White House?
    Mr. Suettinger. I'm not aware of that having been done.
    Mr. Rohrbaugh. And as you know, maybe you don't, the Secret 
Service does a criminal background check before individuals 
come into the White House. Is that right?
    Mr. Suettinger. I don't know whether they do them for 
people from foreign countries. Certainly I know they do that 
for domestic visitors.
    Mr. Rohrbaugh. And, to your knowledge, that's the extent of 
the background that the Secret Service does on individuals 
coming into the White House?
    Mr. Suettinger. I really am not qualified to comment on 
that, sir.
    Mr. Rohrbaugh. I understand it--well, is one of the 
purposes of vetting a person, to use that Washington term, 
actually to protect the President and the President's 
reputation?
    Mr. Suettinger. My understanding of the process is that it 
is to make sure that people who have criminal records or who 
are intelligence personnel or who are otherwise considered for 
whatever reason unsavory characters are not put in the 
proximity of the President.
    Mr. Rohrbaugh. Let me refer you to your e-mail, which is 
exhibit 198. Is that your response to Ms. Darby's e-mail?
    Mr. Suettinger. Yes, it is.
    Mr. Rohrbaugh. In your response, you indicate that all the 
Chinese on the list, with one possible exception, appear to be 
bona fide present or former Chinese officials. How did you come 
to that conclusion?
    Mr. Suettinger. I came to that conclusion, one, by 
recognizing some of the names in the list; or by looking them 
up in a directory, an unclassified directory of Chinese 
officials that I had available to me; or, three, by determining 
that the organizations that they worked for were organizations 
that I recognized, I had heard the names of before, and seemed 
to be bona fide organizations in China.
    Mr. Rohrbaugh. And I believe there was one exception in 
your e-mail; is that right?
    Mr. Suettinger. That's correct.
    Mr. Rohrbaugh. And who was that?
    Mr. Suettinger. That was Mr. James Sun, who was described 
as a self-made millionaire from Xinjiang province. I had no 
record of him nor any way of checking on him.
    Mr. Rohrbaugh. Was that the reason why you had some 
suspicions or some concerns about Mr. Sun?
    Mr. Suettinger. Well, the other reason was that there are 
relatively few self-made millionaires in the People's Republic 
of China. So that term would be--was somewhat jarring and kind 
of grabbed my attention.
    Mr. Rohrbaugh. Let me show you a portion of a videotape.
    [Video tape presentation was shown.]
    Mr. Rohrbaugh. The last individual on that tape, I hope 
that you heard, Mr. Chung introduced him as being his brother. 
Had you ever heard that Mr. Sun was Mr. Chung's brother?
    Mr. Suettinger. No, I had not.
    Mr. Rohrbaugh. Do you have any information one way or the 
other as to whether, in fact, Mr. Chung and Mr. Sun are 
brothers?
    Mr. Suettinger. I have no information to that effect. 
Chinese often refer to close friends as brothers.
    Mr. Rohrbaugh. Had you ever seen this videotape prior to 
coming in today?
    Mr. Suettinger. I had not.
    Mr. Rohrbaugh. One of the individuals in the Chinese 
delegation was described as the vice president of CITIC; is 
that right?
    Mr. Suettinger. That's correct.
    Mr. Rohrbaugh. And who was that individual?
    Mr. Suettinger. That is Mr. Huang Jichun. Or Jichun Huang, 
as it's written here.
    Mr. Rohrbaugh. Is CITIC an entity that is at least 
partially controlled by the State Council of the PRC?
    Mr. Suettinger. I believe that's correct.
    Mr. Rohrbaugh. And do you know approximately what 
percentage is owned supposedly by the State Council of the PRC?
    Mr. Suettinger. I do not.
    Mr. Rohrbaugh. And what is the State Council of the PRC?
    Mr. Suettinger. The State Council is the official governing 
organ of the People's Republic of China. It is headed by the 
Premier and is in charge of all the Government ministries and 
many other organizations within the People's Republic.
    Mr. Rohrbaugh. Now, if I can, let me jump ahead to another 
incident that occurred in 1996 involving Wang Jun, do you 
remember that incident?
    Mr. Suettinger. I do.
    Mr. Rohrbaugh. OK. Mr. Wang Jun, who was the purported arms 
dealer, was also involved in CITIC; is that right?
    Mr. Suettinger. I believe he's the chairman of CITIC.
    Mr. Rohrbaugh. Back in 1995, after you got the list of 
names from Ms. Darby, did the fact that the vice president of 
CITIC was seeing the President, did that cause you any concern?
    Mr. Suettinger. It did not.
    Mr. Rohrbaugh. Let me go back to your e-mail, exhibit No. 
198. In your e-mail you indicate, but a word of caution, a 
warning of future deja vu, and you indicate that Mr. Chung 
should be treated with, quote, a pinch of suspicion, unquote.
    What did you mean by that?
    Mr. Suettinger. As I spelled out subsequently in the e-
mail, I was concerned that Mr. Chung might have been making use 
of his political connections to further his own business 
interests. And I was concerned that those business interests 
were not known to many people and that they might not be of the 
sort that the President would want to be associated.
    Mr. Rohrbaugh. Did you ever find out or learn of the 
various entities that Mr. Chung was involved in?
    Mr. Suettinger. I did not.
    Mr. Rohrbaugh. And I believe in that same paragraph you 
also used that infamous term, hustler; is that right?
    Mr. Suettinger. That's correct, sir.
    Mr. Rohrbaugh. And was that for the same reason?
    Mr. Suettinger. Basically, yes.
    Mr. Rohrbaugh. Now, I just asked you about whether you were 
aware of some of the entities that Mr. Chung was involved with. 
Were you aware that just prior to Mr. Chung giving the DNC a 
$50,000 contribution, he had received through the bank of 
China-Beijing $150,000?
    Mr. Suettinger. I was not aware of that.
    Mr. Rohrbaugh. Let me, if I can, just show you quickly, 
exhibit No. 175. Exhibit No. 175 is a wire transfer from the 
Bank of Beijing, and at the bottom indicates payment of goods 
Haomen Group, Shan Tang. Do you see that?
    [Exhibit 175 follows:]

    [GRAPHIC] [TIFF OMITTED] T5667.496
    
    Mr. Suettinger. I only see--yes, I see that. Is it Tang 
Shan?
    Mr. Rohrbaugh. Tang Shan, I'm sorry.
    Mr. Suettinger. S-H-A-N? I don't have that on my screen.
    Mr. Rohrbaugh. OK. Are you familiar with what the Haomen 
Group is?
    Mr. Suettinger. No, I'm not.
    Mr. Rohrbaugh. Are you familiar with the fact that in 
December 1994, Mr. Chung had brought to the White House, I 
believe it was the president of the Haomen Group?
    Mr. Suettinger. I was not aware of that at the time. I'm 
aware of it now. I did not associate the term Haomen with those 
individuals.
    Mr. Rohrbaugh. Do you presently or at the time in April, 
when you wrote your memo, did you know whether Mr. Chung had 
actually, and I hate to use the term, sold the Haomen Group any 
goods?
    Mr. Suettinger. I was not aware of it.
    Mr. Rohrbaugh. Let me ask you a couple more questions 
about, if I can go back to exhibit No. 198. Your e-mail 
continues by stating, the joys of balancing foreign policy 
considerations against domestic politics. Did you often have to 
do that at the National Security Council?
    Mr. Suettinger. No.
    Mr. Rohrbaugh. What did you mean by that term?
    Mr. Suettinger. The situation was that these individuals 
had come in without my being aware of it. We were being asked 
as a matter of domestic policy and, in particular, DNC policy, 
to make a judgment call as to whether or not photographs should 
be given. That was not a task that I relished.
    Mr. Rohrbaugh. Why not?
    Mr. Suettinger. I simply considered it to be outside the 
scope of my own responsibilities.
    Mr. Rohrbaugh. How much weight did the DNC carry when it 
came to deciding who would meet with the President?
    Mr. Suettinger. I can't answer that question.
    Mr. Rohrbaugh. After your warning of April 8th, do you know 
how often Mr. Chung would then go into the White House?
    Mr. Suettinger. I did not know that at the time. I have 
obviously learned it subsequently from newspaper accounts.
    Mr. Rohrbaugh. So you are aware that it would be 
approximately 20 additional times he entered the White House 
even after your November 8, 1995, warning?
    Mr. Suettinger. I'd have to take your word for that.
    Mr. Rohrbaugh. Were you also aware that in July 1995, or 
did you become aware in July 1995 that Mr. Chung was attempting 
to negotiate the release of Harry Wu?
    Mr. Suettinger. I did become aware of that.
    Mr. Rohrbaugh. And how did you become aware of that?
    Mr. Suettinger. I received, in fact in two separate copies, 
some correspondence from the Chief of Staff 's Office, I 
believe, I'd have to refer to the documents in particular, 
indicating that Mr. Chung had sought some credentials from the 
DNC to undertake this kind of mission.
    Mr. Rohrbaugh. Let me show you exhibit No. 251. It's a 
memorandum from Janice Enright at the Office of the Chief of 
Staff of the President, to Anthony Lake. Did you ever see that 
document before?
    [Exhibit 251 follows:]

    [GRAPHIC] [TIFF OMITTED] T5667.497
    
    Mr. Suettinger. Yes, I have.
    Mr. Rohrbaugh. And when did you see it?
    Mr. Suettinger. It would have been around the time, 
probably very shortly before my response. Somewhere between 
July 21st and 24th.
    Mr. Rohrbaugh. And you made a response to this memo, then; 
is that right?
    Mr. Suettinger. This memo was sent on to me through the 
system, as we call it in the National Security Council, and I 
responded to it, and I'm sorry, I had my date wrong, July 31st.
    Mr. Rohrbaugh. Let me show you exhibit No. 252. Can you 
tell me what that is?
    [Exhibit 252 follows:]

    [GRAPHIC] [TIFF OMITTED] T5667.498
    
    Mr. Suettinger. That is a memo that I wrote to Mr. Lake in 
response to the memorandum from Ms. Enright that was sent on to 
me.
    Mr. Rohrbaugh. What was your reaction about Mr. Chung 
attempting to negotiate the release of Harry Wu?
    Mr. Suettinger. I was quite upset.
    Mr. Rohrbaugh. Why?
    Mr. Suettinger. We had been engaged in a very quiet 
persistent and complex set of signals and negotiations with the 
Chinese Government trying to ensure that Mr. Wu was released as 
soon as possible, and it struck me that Mr. Chung might be 
capable of interfering in that process.
    I had no idea of what message he thought he was delivering 
to the Chinese Government, and thought it could only confuse 
the matter; and I was worried that this process might be upset 
by the intrusion of somebody who had no knowledge and no 
responsibilities for what happened.
    Mr. Rohrbaugh. Were you concerned that Mr. Chung was not a 
professional diplomat?
    Mr. Suettinger. It wasn't so much that he was a 
professional diplomat as that he seemed to believe that he had 
some sort of a mission, and it was a mission that I didn't 
believe that he had; and that I was concerned it would 
complicate what we were trying to do in our own appropriate 
channels.
    Mr. Rohrbaugh. Your memorandum is actually written, I 
believe at the very bottom it says, Mr. Chung had already left 
for Beijing at the time you had written your memorandum. Is 
that right?
    Mr. Suettinger. That's correct.
    Mr. Rohrbaugh. If that's the case, why did you feel the 
need to write that memorandum?
    Mr. Suettinger. One, it was sent to me for action and, 
generally speaking, when we were given an assignment for action 
we tried to respond, to answer the mail, if you will; and I 
also thought that I wanted to convey to Mr. Lake my concerns 
about this sort of thing because I certainly didn't want a 
repetition of it.
    Mr. Rohrbaugh. At the bottom you indicate that you had the 
concurrence of Alan Kreczko; is that right?
    Mr. Suettinger. That's correct.
    Mr. Rohrbaugh. Who is Mr. Kreczko?
    Mr. Suettinger. Mr. Kreczko was the Senior Director, Legal 
Assistant, to the National Security Council.
    Mr. Rohrbaugh. Why did you feel that you had to have the 
concurrence of Mr. Kreczko?
    Mr. Suettinger. It involved an American citizen. Two 
American citizens.
    Mr. Rohrbaugh. Did you ever find out who Mr. Chung met 
while he was in Beijing or what he did?
    Mr. Suettinger. I only read one newspaper account, and I 
don't know whether it was credible or not.
    Mr. Rohrbaugh. Mr. Chairman, I have no other questions. 
Thank you.
    Mr. Burton. I would like to use some of your time on the 
Republican side, if I might.
    I want to make sure I understand this. This Mr. Zheng 
Hongye.
    Mr. Suettinger. Zheng Hongye.
    Mr. Rohrbaugh. He was chairman of the China Council for the 
Promotion of International Trade, the CCPIT, an organization 
set up by the Chinese Communist Party to coordinate lucrative 
deals and funnel profits back into the party's leadership. Are 
you aware of who he was?
    Mr. Suettinger. Your definition of that organization, sir, 
is not one that I had heard before. My understanding of the 
CCPIT is that it was an organization that was set up to promote 
international trade. It sponsored business delegations coming 
to the PRC and also Chinese delegations going overseas.
    Mr. Rohrbaugh. It was a part of the Communist Government.
    Mr. Suettinger. That's correct.
    Mr. Burton. I think that says it. He was an adviser to the 
PRC State-owned China Ocean Shipping, COSCO, which wanted to 
lease the Long Beach Naval Shipyard.
    Mr. Suettinger. I was not aware of that, sir.
    Mr. Burton. He was vice chairman of the Chinese People's 
Political Consultant Conference of the PRC's Communist Party 
for the Subcommittee for Taiwan, Hong Kong, Macao Compatriots 
and Overseas Chinese. Were you aware of that?
    Mr. Suettinger. No, I was not.
    Mr. Burton. You were not aware of that either.
    Mr. Jichun Huang, he was director and vice president of 
China International Trust and Investment Corp., CITIC. You knew 
that?
    Mr. Suettinger. Yes, sir.
    Mr. Burton. And CITIC is the largest state-run business in 
the PRC with diversified holdings in banking, energy production 
and the United States real estate market, and the president is 
the alleged arms smuggler, as was mentioned before, Mr. Wang 
Jun. You are familiar with that?
    Mr. Suettinger. I'm familiar with the fact Mr. Jun is the 
chairman of CITIC.
    Mr. Burton. And Mr. Renzhong Wang served as superintendent 
of the China Aviation Industry Ministry, part of the Chinese 
Communist Government, in Harbin. You are familiar with that?
    Mr. Suettinger. Renzhong Wang is a rather common name, and 
there are a number of them who have been in different offices. 
I will take your word for it.
    Mr. Burton. That is what our information shows.
    Mr. Suettinger. I will take your word for it.
    Mr. Burton. And of course Jianiong Yu oversees the 
activities of the COSCO shipping company, the Chinese shipping 
company.
    The reason I bring all this up is these people have been 
alleged to have been part of a beer operation over there, but 
they had far-reaching responsibilities in China and ties to the 
Chinese party. They are coming in to meet the President. They 
meet with the President and he greets them warmly. And then 
after pictures are taken, he doesn't want the pictures to be 
given to them, and you didn't think the pictures should be 
given to them, I guess, as well.
    Mr. Suettinger. My e-mail suggests that I didn't think 
there would be any lasting damage from providing the 
photographs to these individuals.
    Mr. Burton. I have no further questions.
    Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman.
    Today's hearing is a continuation of a hearing we held 
yesterday, and both days are looking at a man by the name of 
Johnny Chung, who seemed to have an extraordinary amount of 
access to the White House and gave large amounts of money to 
the Democratic party.
    Mr. Suettinger and Ms. Darby, you are here--oftentimes 
witnesses are invited to come and testify because we think 
maybe they did something wrong, but you are here to give us 
your professional judgment from the National Security Council 
about some matters that took place involving Mr. Chung.
    And, Mr. Suettinger, you said in a memo that I think 
counsel has already referred to, that when you gave your 
impression of Mr. Chung you said, my impression is that he's a 
hustler and appears to be involved in setting up some kind of 
consulting operation.
    Well, I think you are exactly right. Nothing we have 
learned or in the materials the committee has received 
indicates anything else. I don't believe this is a hearing 
about economic espionage or foreign agents or conspiracies to 
infiltrate our political system, or any of these more 
sensational charges that have been bandied about.
    What it appears to me is that we have a man who was out to 
try to make a buck; he was a hustler. And the fact of the 
matter is, there are a lot of hustlers around, especially in 
this city. There is nothing illegal in being a hustler, even if 
we might not approve of it.
    Now, the two of you are here to testify on one very narrow 
issue in particular, and that is the fact that Mr. Chung took a 
bunch of people in to listen to the President give a radio 
address to the country. And from the testimony yesterday, after 
that radio address, the President, after meeting these people, 
said that he felt something was inappropriate. And Ms. 
Hernreich told somebody, I guess Miss Darby, to find out 
whether they should release these photos to this man.
    Mr. Suettinger, you were asked your opinion about that, and 
I gather you agreed that the photos could go to Mr. Chung and 
his colleagues; is that correct?
    Mr. Suettinger. That's correct.
    Mr. Waxman. Now, Mr. Suettinger, you are here because you 
are one of the leading experts on China. You made this your 
career. You speak Mandarin, you speak Cantonese; you are, I 
think fair to say, you serve as one of the NSC's top experts on 
east Asia. Is that an accurate statement?
    Mr. Suettinger. It is not for me to say, sir.
    Mr. Waxman. Don't be immodest.
    In April 1995, you were asked by Brooke Darby to give your 
professional opinion as to whether the White House should 
release these photos to Johnny Chung. And you concluded in 
April 1995, quote, ``I don't see any lasting damage to U.S. 
foreign policy from giving Johnny Chung these pictures.'' Is 
that right?
    Mr. Suettinger. That's correct.
    Mr. Waxman. In the second paragraph of your April 7, 1995 
e-mail you did state some reservations about Mr. Chung, and you 
were concerned he was trying to use his White House contacts to 
enhance his business; is that correct?
    Mr. Suettinger. That's correct.
    Mr. Waxman. But your reservations had nothing to do with 
Mr. Chung trying to influence U.S. foreign policy; is that 
right?
    Mr. Suettinger. That's correct.
    Mr. Waxman. Was your e-mail intended to be a general 
directive to all White House staff to avoid contacts with 
Johnny Chung?
    Mr. Suettinger. I'm not sure I'd go that far, sir. I just 
wanted to raise some concerns that had been brought to my 
attention that I thought others should know about what Mr. 
Chung might be up to.
    Mr. Waxman. It was a simple response to a request for 
advice about the release of these photos?
    Mr. Suettinger. That's correct.
    Mr. Waxman. Now, was Brooke Darby's request for advice 
about the release of photos a matter of high importance to you 
as a member of the National Security Council?
    Mr. Suettinger. No, it was not.
    Mr. Waxman. Every day the NSC has to deal with the most 
sensitive and pressing national security matters facing this 
country. Isn't that a fair statement?
    Mr. Suettinger. I believe that's fair, sir.
    Mr. Waxman. So the release of photos is one of the least 
important questions you had to grapple with.
    Mr. Suettinger. It was not one that I thought was of 
burning national interest.
    Mr. Waxman. Based on your expertise, were the businessmen 
who accompanied Johnny Chung senior members of the Chinese 
Government?
    Mr. Suettinger. They were senior members--yes, they were 
either senior members or former senior members. It's hard to 
draw a sharp distinction between what are essentially 
government-owned corporations and the Government itself. They 
have no governing authority, but they certainly have plenty of 
State backing.
    Mr. Waxman. Can you give us your views as to the relative 
importance of these businessmen within China?
    Mr. Suettinger. Relative importance in terms of what, sir?
    Mr. Waxman. How important figures were they? We just had a 
visit from the President of China. He is obviously the most 
important.
    Mr. Suettinger. Way below that.
    Mr. Waxman. Pardon?
    Mr. Suettinger. Far below that.
    Mr. Waxman. Far below that. In July 1995, you drafted a 
memo concerning a request for Presidential credentials letter 
for Johnny Chung. He was interested in a letter from the 
President because he wanted to go to China to see if he could 
free jailed dissident Harry Wu; isn't that right?
    Mr. Suettinger. That's correct.
    Mr. Waxman. In your July 31, 1995 memo to Anthony Lake you 
referred to Mr. Chung and said, ``No one in the administration 
has any idea of what he plans to say on the subject of Harry 
Wu, and I doubt the President did more than shake his hand in a 
receiving line.'' Did that statement correctly reflect your 
views in July 1995?
    Mr. Suettinger. That is correct.
    Mr. Waxman. In other words, you had no reason to believe 
that the President ever encouraged Mr. Chung to go to China. In 
fact, you had no reason to believe the President was aware of 
anything about Mr. Chung.
    Mr. Suettinger. I was--I had no reason to believe that at 
the time, no.
    Mr. Waxman. Subsequent to July 1995, have you learned of 
anything that causes you to believe that the President 
encouraged Mr. Chung to go to China?
    Mr. Suettinger. As I said, the only information that I have 
received about Mr. Chung's travel to China has been what has 
been published in the newspapers, and I have no way of 
assessing its credibility.
    Mr. Waxman. You know Mr. Chung had a letter from DNC 
Chairman Don Fowler. Was this letter the kind of credentials 
letter that is provided to diplomats?
    Mr. Suettinger. No.
    Mr. Waxman. In fact, traditional diplomatic credentialed 
letters are provided by governments rather than political 
parties.
    Mr. Suettinger. That is correct.
    Mr. Waxman. And you yourself wrote to Mr. Lake and said 
that ``Chung's credentials,'' meaning Chairman Fowler's letter, 
are ``thin.'' What did you mean by that?
    Mr. Suettinger. I thought that they would not be 
interpreted by the Chinese Government as representing the views 
of the President or the Government of the United States.
    Mr. Waxman. Some Republicans have suggested that Johnny 
Chung, who is an American citizen, should somehow have been 
restrained by the administration from traveling to China on his 
own to pursue his own private efforts concerning Harry Wu. In 
your experience, does it sometimes happen that American 
citizens undertake their own private diplomatic efforts?
    Mr. Suettinger. I would say there are probably examples of 
that; yes, sir.
    Mr. Waxman. Well, you call them free-lancers.
    Mr. Suettinger. Yes.
    Mr. Waxman. There are a lot of free-lancers around who 
promote their view of what diplomacy ought to be, aren't there?
    Mr. Suettinger. Yes, there are.
    Mr. Waxman. In fact, in your interview, you called these 
kinds of individuals free-lancers because you're generally 
skeptical about the efforts of these free-lancers. They are not 
operating consistent with what U.S. Government policy might be.
    Mr. Suettinger. That's correct.
    Mr. Waxman. Now, free-lancers are not something unique to 
this one case. You have encountered free-lancers from the 
American business community. In fact, didn't Ross Perot once 
organize a rescue mission to free some of his employees from 
captivity in the Middle East? Wasn't that an example of free-
lancing?
    Mr. Suettinger. I would not want to characterize that, sir.
    Mr. Waxman. OK. When people in the academic community go 
off on their own, are they free-lancers as well?
    Mr. Suettinger. I think we need to draw a distinction 
between going out--I mean, everybody who travels to China is 
not a free-lancer. What I'm concerned about is when they're 
dealing with or trying to deal with an issue of particular 
national importance, such as the release of Mr. Wu. In those 
cases, I consider interference or efforts to be influential in 
that process to be free-lancing.
    Mr. Waxman. It is the same as Amnesty International or 
Human Rights Watch or a Member of Congress acting on his own 
but not in sync with the American Government, going and doing 
what might be called free-lancing.
    Mr. Suettinger. The difference between Mr. Chung's case and 
those is that Mr. Chung was going out representing himself as 
being on a mission that was connected to the White House, at 
least via the DNC, and I thought that was of considerable 
concern.
    Mr. Waxman. I concede that point, and I think it is a valid 
one.
    I am going to yield to Mr. Lantos to pursue further 
questions.
    Mr. Lantos. Thank you very much for yielding.
    Well, today's episode of Trivial Pursuit deals with 
pathological preoccupation with photo opportunities. Now, I 
find these particular photo opportunities paling into 
insignificance when compared to the photo opportunities that 
the President of China just had during the course of his visit 
to the United States. As a matter of fact, prior to his visit, 
I publicly pointed out that having himself photographed at 
Williamsburg or at the Liberty Bell or at the White House or at 
Wall Street will do nothing to diminish our outrage at Human 
Rights violations in China.
    And, of course, in terms of who has himself photographed 
with the top man in China, certainly there was a state dinner 
at the White House where everybody tried to get himself 
photographed with him. He visited here in the Congress, where 
the Speaker took him around. He had breakfast with several of 
us. And of course when he went to New York, the cream of the 
crop of the American business and financial community busted 
its gut to get into that dinner and to get themselves 
photographed with the top man in China. So, quite frankly, I 
sort of fail to get excited over the fact that a group of 
third-rate Chinese officials stood by while the President was 
reading a prepared 5-minute radio talk.
    I do want to spend a minute on the Harry Wu case, because 
while I find the rest of this ludicrous, ludicrous beyond 
words, I mean it doesn't rise to the level of anything worthy 
of any serious discussion, Mr. Chung is a cheap and, 
unfortunately for him by this stage, an unsuccessful hustler, 
and he was collecting photographs all over the political 
landscape, from Presidential Candidate Dole to distinguished 
Republican Governors, Speaker Gingrich, the First Lady and 
whatnot, and putting them together in a brochure. And that is 
what he was selling. He was selling the illusion.
    If I were to characterize him, I would call him an illusion 
merchant. He was selling an illusion that since Senator Dole 
happened to have his picture taken with him, somehow he had 
influence with Senator Dole or Newt Gingrich or the First Lady, 
which was about as absurd a suggestion as anything that could 
be made.
    But the Harry Wu thing annoys me, and I tell you why it 
annoys me. Harry Wu is one of the heroes of our age. He has 
given many, many years of his life because of his commitment to 
democracy and freedom. In his attempt to demonstrate the slave 
labor system in China, he spent many years of his life in the 
most miserable Chinese prison conditions. And the very best 
people in this Congress, on both sides of the aisle, in both 
the House and the Senate, and many people in the private sector 
have busted their guts for years to get Harry Wu out. And the 
notion that Johnny Chung, this quintessentially cheap self-
promoter, played the slightest role in the liberation of Harry 
Wu is a notion that I find repugnant and obnoxious. This is the 
notion of the rooster who claims that the sun rises because he 
crows. This does not even rise to the level of absurdity. It is 
beyond absurdity.
    But, since we need to go on with today's episode of Trivial 
Pursuit, I would like to place into the record, Mr. Chairman, 
the article of October 30 from the Washington Post entitled 
``Business Mixes With Pleasure at the White House Dinner, 
China's Jiang Gets a Taste of Corporate America,'' which 
describes in detail how diners of our major multinational 
corporations were anxious to have their pictures taken with the 
President of China, who I think is a more significant figure 
than the small entourage that got into the radio studio.
    I thank the gentleman for yielding.
    Mr. Burton. Without objection.
    Mr. Waxman. I yield to Mrs. Maloney, the next senior 
member, for questioning.
    Mrs. Maloney. Thank you for yielding to me.
    I would like to ask Mr. Suettinger, earlier we were talking 
about the gentlemen that were with Mr. Chung, and many of them 
were associated, you said, with the Chinese Government, but it 
is a Communist country, and the Communist country owns all if 
not or most of the businesses there. And are most of the people 
in business in China associated with the Chinese Government? Is 
that a fair statement, would you say?
    Mr. Suettinger. I don't think so.
    Mrs. Maloney. So there are a lot of private businesses?
    Mr. Suettinger. There is a growing amount of private 
enterprise in China; that is correct.
    Mrs. Maloney. I would like to ask both of you the same 
question, first Ms. Darby and then Mr. Suettinger.
    Do you have any reason to believe that Johnny Chung was an 
agent of the Chinese Government, Ms. Darby?
    Ms. Darby. No, I do not.
    Mrs. Maloney. Mr. Suettinger.
    Mr. Suettinger. I do not.
    Mrs. Maloney. Do you believe that he tried to seek any 
favors for China, Ms. Darby?
    Ms. Darby. I really have no basis for knowing. I have no 
idea.
    Mr. Suettinger. Not having been present at any of Mr. 
Chung's meetings, I can't answer the question.
    Mrs. Maloney. Do you believe that it was unusual for Johnny 
Chung to seek to have his picture taken with the President, the 
First Lady or other members of the administration? And do you 
believe that Johnny Chung was unique in seeking to obtain those 
photographs?
    Ms. Darby. From what I understand in press accounts 
recently, it doesn't sound like this was an unusual situation.
    Mr. Suettinger. Again, I have no basis on which to make a 
judgment on that.
    Mrs. Maloney. Do you think it is unusual for a businessman 
to display a photograph of himself with the President, the 
First Lady or Members of Congress or leaders in the 
administration?
    Ms. Darby. No, I do not think it's unusual.
    Mr. Suettinger. I would think not.
    Mrs. Maloney. Is there anything illegal or unethical in 
seeking to obtain such a picture or to display it?
    Ms. Darby. I don't believe so.
    Mr. Suettinger. Not to my knowledge.
    Mrs. Maloney. Do you believe that the White House typically 
asked for guidance with respect to people granted access to the 
President?
    Ms. Darby. They sought access on some--they sought our 
opinion on some occasions, whenever they had a concern.
    Mr. Suettinger. I would have to defer to Ms. Darby on that.
    Mrs. Maloney. Do you think that it was common for people to 
gain access to the President without being screened by the 
National Security Council?
    Ms. Darby. That I really wouldn't know. I'm sure there are 
many people who are not screened by the National Security 
Council, but in terms of foreign nationals or others, I really 
wouldn't know.
    Mr. Suettinger. Nor do I.
    Mrs. Maloney. And what do you think the White House should 
do to make the vetting process more effective? Do you have any 
ideas in that direction?
    Ms. Darby. I understand that Sandy Berger, the current 
National Security Adviser, has instituted some new vetting 
policies. I'm not sure what those are. I believe it's to make 
more routine inquiries into people who are coming in to see the 
President, who have a foreign connection of some kind.
    Mrs. Maloney. Could you forward those recommendations to 
the committee so we could look at them or get them for us?
    Ms. Darby. I believe they are recommendations that have 
already been made by Sandy Berger, so.
    Mrs. Maloney. So they have already been made. I would just 
like to see them, that's all. I guess we can get them from him.
    Ms. Darby. Yes. I don't work for the National Security 
Council any longer.
    Mr. Suettinger. Nor do I.
    Mrs. Maloney. Do you have any ideas of how we should 
improve their vetting process or do you think it needs to be 
improved? I am talking to Mr. Suettinger.
    Mr. Suettinger. Oh, I'm sorry. I would have no 
recommendations on that score.
    Mrs. Maloney. You have no recommendations.
    I would like to ask Ms. Darby, when you worked at the 
National Security Council, could you describe your duties and 
exactly what you did there?
    Ms. Darby. Sure. I handled Nancy Soderberg's schedule, at 
least part of the time; would make sure that she had briefing 
papers for her meetings. I generally did not prepare those. 
Those were prepared by the professional staff members with the 
policy expertise. I was not a policy adviser of any kind. I 
would prioritize paperwork for her. I would help screen 
requests from the staff who wanted her advice on something and 
prioritize things for her.
    I was also occasionally a liaison between other parts of 
the White House with Nancy Soderberg and members of the 
National Security Council staff, based primarily on the 
connections I had made on my days on the campaign and on the 
transition.
    Mrs. Maloney. Did you serve as a contact person for White 
House staff who needed to direct requests for guidance to the 
National Security Council?
    Ms. Darby. Sometimes. It was not an official responsibility 
that I would say I had. But, more informally, I think that I 
often became a conduit for those kinds of requests.
    Mrs. Maloney. And when you received those requests, how did 
you handle them?
    Ms. Darby. I would staff them out to the relevant policy 
office. In the National Security Council there are both 
regional offices that handle, obviously, regions, and 
functional offices that handle things like defense issues, 
nonproliferation issues. And on the basis of the request that I 
received, I would make a determination about which office 
needed to handle that request and I would farm the request out 
to that relevant office.
    Mrs. Maloney. How often did the President's office ask for 
guidance from the National Security Council with respect to a 
visitor or a letter?
    Ms. Darby. I really don't recall any specific--it is hard 
to put a number on it. If I had to guess, I would say maybe 
four to eight times a month.
    Mrs. Maloney. Did you usually receive a request for 
guidance before the event?
    Ms. Darby. Yes. We generally did. I mean that was the 
purpose of us providing guidance. Providing guidance after the 
fact isn't exceedingly helpful, so.
    Mrs. Maloney. And under what circumstance would a request 
for guidance typically be made?
    Ms. Darby. It's hard to say. I mean, for someone with a 
foreign tie, who wanted to come in and see the President, and 
it came through another office in the White House and they just 
wanted to check with us to make sure that there was nothing 
about the person's background that would lead us to have any 
concerns about the President meeting with somebody, or other 
senior people within the White House.
    Mrs. Maloney. Mr. Suettinger saw no lasting damage to U.S. 
foreign policy from giving Johnny Chung the photos. Why did you 
consider that a negative recommendation?
    Ms. Darby. I think his using the term hustler; the fact 
that this person was probably going to exploit the photographs 
for his own personal business interests. Again, it was really 
my own personal recommendation to Kelly Crawford that if I were 
in her situation, I wouldn't want this person continually 
harassing me for photographs of himself with the President.
    So better to err on the side of caution from my own 
personal benefit, if I were Kelly Crawford.
    Mrs. Maloney. In your own experience, was a request for 
guidance about the release of a Presidential photograph one of 
the most important matters confronting the National Security 
Council in April 1995?
    Ms. Darby. No, it certainly was not, and I didn't 
independently recall this incident at all until I saw the text 
of my e-mail published in the New York Times.
    Mrs. Maloney. Well, getting back to your e-mail, you wrote 
in your e-mail message that these people, referring to Johnny 
Chung and his group, were major DNC contributors; is that 
correct?
    Ms. Darby. That's what I wrote, yes.
    Mrs. Maloney. How did you know that? Did you have actual 
knowledge that this fact was correct?
    Ms. Darby. No, I did not. I have no idea who contributes to 
the DNC. And I believe the only way I would have known this was 
if Kelly Crawford conveyed it to me. If not in those specific 
terms in more general terms that I took to mean that they were 
DNC contributors.
    Mrs. Maloney. Because of--so, in other words, she conveyed 
that information?
    Ms. Darby. I presume so. I don't have an independent 
recollection, but the fact it is in the e-mail and I would have 
no other way of knowing they were contributors or not.
    Mr. Waxman. Mrs. Maloney, I wonder if I could yield to Mr. 
Fattah in the time that we have allotted on this 5-minute 
round.
    But in doing so, I just want to make a comment so that no 
one misunderstands. There are a lot of people who use photos 
for their own promotional activities. Lobbyists do it all the 
time. The reason people go to political fund-raisers is often 
just so they can get a picture of the President, Senator Dole, 
Newt Gingrich, and then they hustle it to see how far they can 
go with it just to promote themselves.
    Mr. Fattah.
    Mr. Fattah. Thank you very much. Let me welcome you both 
here today. It is interesting, as times change, I guess Ms. 
Darby, you, unfortunately, have been consorting with known 
Democratic sympathizers. The Congress at another point in its 
history was interested in those who were sympathetic to the 
causes of another political party.
    And I want to focus in on this, the Communist Government of 
China, because it is of interest to me, given the context of 
our relationship since President Nixon opened up our 
relationships with this country, there have been a succession 
of Presidents who have moved, continued to move in that 
direction. And of interest is this discussion about this 
supposed arms dealer, Wang Jun.
    Mr. Suettinger. Wang Jun.
    Mr. Fattah. Of this CITIC.
    Mr. Suettinger. CITIC.
    Mr. Fattah. I want to enter into the record, Mr. Chairman, 
a number of newspaper articles which I am going to refer to; 
one from the Chicago Tribune, another from the Portland 
Oregonian, and they outline, first of all, that George Bush had 
dinner with this gentleman who we are now wanting to raise a 
lot of concerns about him having a picture taken with President 
Clinton.
    In fact, he says that Henry Kissinger is a good friend of 
his. There are a number of important political figures in our 
country who are on the advisory council for this corporation, 
like former Secretary of State George Shultz, former Secretary 
of State Alexander Hague. There are a number of other people 
who have close ties to the Republican party, like a gentleman 
by the name of Mr. Greenberg, who is the head of AIG, who is a 
well-known and very substantial contributor to the Republican 
party, who is also on the board.
    And I want to enter these into the record, because first 
and foremost there was never a meeting--let me ask for 
permission they be entered into the record.
    Mr. Burton. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5667.499
    
    [GRAPHIC] [TIFF OMITTED] T5667.500
    
    [GRAPHIC] [TIFF OMITTED] T5667.501
    
    [GRAPHIC] [TIFF OMITTED] T5667.502
    
    [GRAPHIC] [TIFF OMITTED] T5667.503
    
    [GRAPHIC] [TIFF OMITTED] T5667.504
    
    [GRAPHIC] [TIFF OMITTED] T5667.505
    
    [GRAPHIC] [TIFF OMITTED] T5667.506
    
    [GRAPHIC] [TIFF OMITTED] T5667.507
    
    [GRAPHIC] [TIFF OMITTED] T5667.508
    
    [GRAPHIC] [TIFF OMITTED] T5667.509
    
    Mr. Fattah. Thank you. First and foremost, contrary to all 
of these statements that the President had a meeting with these 
people, there is nothing anywhere in the record to suggest that 
there was a meeting. They were in the audience when there was a 
radio address. They got a picture taken and they left.
    The President then said to his closest aide that he had 
some concerns about the appropriateness of their visit, which, 
therefore, got the two of you involved in an after-the-fact 
request as to whether or not the picture should be released.
    But I do want to note, since there seems to be such an 
interest in our interrelationships between the People's 
Republic and particularly these group of businesspeople, that 
if the committee is interested, maybe there are some other 
people who we could call in and ask, because they seem to have 
a lot of knowledge about how this corporation functions and 
particularly this gentleman.
    This is not something we dug up anywhere. These are 
articles that appeared and are available. I know the committee 
has a large staff, so I am sure that the majority has knowledge 
of these contacts, even as it attempts to infer some 
inappropriate behavior on behalf of the President, when 
everything suggests to the contrary, as based on this record, 
that this gentleman did nothing more than get his picture 
taken. But he is someone who has had extensive contacts and 
business relationships with major leaders in the majority's 
party.
    So I think that we would want to have a chance--he also 
had, at this dinner, the former National Security Adviser; 
Brent Scowcroft was also present, as reported in this Chicago 
Tribune article that was dated March 23, 1997.
    The other article from the Portland newspaper is dated 
March 16. I want to ask you, because you are, to the best of my 
knowledge, the first person that has appeared before us who 
really has any knowledge about China to answer some questions 
about this Nation's relationship, even though we continue to 
talk about the government as if it is a government that we have 
no ongoing relationship with.
    Isn't it true that for the last few decades we have had the 
policy--the foreign policy of our Nation has been to reach out 
and to be involved in constructive engagement with the People's 
Republic of China?
    Mr. Suettinger. That is correct.
    Mr. Fattah. And isn't it true that we allow free travel 
between citizens of our country, particularly American 
businessmen who, by the thousands, go to China, seeking and, in 
many cases, winning business over there?
    Mr. Suettinger. That also is correct.
    Mr. Fattah. Because when the President of China came here 
and he came to my district. He signed a contract with Boeing 
for a few billion dollars. I didn't notice anybody in the 
majority party jumping up and down about this relationship with 
the Communist Government of China. They were clapping and being 
pleased that there was going to be this business deal with the 
Boeing Corp.
    So the inference that is being drawn here, that any 
association, anything having to do with the People's Republic 
of China having to do with the Clinton White House is somehow 
inappropriate, isn't that contrary to everything that has been 
done since President Nixon went to China and President Ford 
continued that relationship and President Carter, President 
Reagan and President Bush? Didn't we continue to encourage, at 
almost every level, interactions with the People's Republic of 
China, their Government, their citizens and their various 
institutions?
    Mr. Suettinger. The policy of engagement with China has 
been consistent over the last several administrations, sir.
    Mr. Fattah. Can you help me then understand, even as the 
Congress voted to continue most-favored-nation status, and it 
is clear that these persons who were here and who got their 
picture taken with the President--and as you have indicated, 
you don't have any reason to believe that the person who 
arranged this, Johnny Chung, was an agent of the Government in 
any way, is it the practice of the People's Republic of China, 
based on all of your studies and knowledge, that they would 
attempt to, as part of their activities, interfere in the 
internal political workings of the United States?
    Mr. Suettinger. I don't really think I am in any way able 
to answer that question in the way that you would like it to be 
answered.
    Mr. Fattah. Just answer it truthfully. That is fine with 
me.
    Mr. Suettinger. I am trying to be truthful, sir. It calls 
for a judgment that involves information that is classified. It 
calls for a judgment that requires study way beyond what I can 
do.
    Mr. Waxman. If the gentleman will yield, there were press 
reports that there might have been Chinese intelligence people 
or Government officials of some sort trying to look at how to 
influence Congress. There was never any report, that I saw in 
the press, that said they were trying to do something to 
influence the Presidential elections.
    Mr. Fattah. That is correct. But we won't press in 
relationship to any classified information. Let's just deal 
with what is obvious.
    Johnny Chung has been accused of essentially trying to use 
his relationship with important, powerful political figures to 
make money. Do you think that there may be a few other thousand 
people who come into this city who have relationships with 
political figures who, from time to time, are then known to try 
to make a buck?
    Mr. Suettinger. I have to defer to others' judgment on 
that, sir.
    Mr. Fattah. I want to thank you for your testimony. I thank 
the ranking member for yielding.
    Mr. Burton. The gentleman's time has expired.
    Mr. Barr.
    Mr. Barr. During the time period that we are talking about 
here, that is, during 1995, what security clearances did each 
of you possess?
    Ms. Darby. I had a Top Secret SCI clearance.
    Mr. Barr. That means Top Secret Codeword?
    Ms. Darby. Yes.
    Mr. Barr. Mr. Suettinger.
    Mr. Suettinger. I have full clearances, sir.
    Mr. Barr. Top Secret Codeword?
    Mr. Suettinger. Yes.
    Mr. Barr. And that entitles you to see a fairly wide range 
of classified materials maintained by our Government?
    Mr. Suettinger. That is correct.
    Ms. Darby. Yes.
    Mr. Barr. Mr. Suettinger, would you please enumerate for me 
the number of countries in the world whose national security 
concerns and whose economic, political, diplomatic and military 
interests coincide 100 percent with those of the United States 
at all times?
    Mr. Suettinger. Zero.
    Mr. Barr. Could you please enumerate for me the number of 
countries in the world that would have absolutely no interest 
whatsoever at any time in making policies of this country more 
favorable toward theirs?
    Mr. Suettinger. I am not sure I understand your use of the 
term making them ``more favorable.''
    Mr. Barr. You can interpret it any way you like. What I am 
trying--my point is, and I would presume you--and tell me if 
you don't. My point is, and I presume you would agree with me, 
that at some point in time every country with which we deal, or 
virtually every other country in the world, at some point in 
time has policy matters and interests that may differ from ours 
and for which they would like to see our policies change and 
become more favorable to what they would like to see and to 
coincide with their interests. Would that be fair to say?
    Mr. Suettinger. Yes, sir.
    Mr. Barr. It is essentially the nature of politics, Hans 
Morgenthau wrote about it two generations ago, and it is the 
nature of national sovereignty.
    In exhibit 198, if we could have that up again, please, you 
posed the question, ``Who am I to complain?'' I think you are a 
very appropriate person to complain, to be very honest with 
you. You have a very substantial background and understanding 
of foreign relations. You have access to very important 
classified information of our Government that bears on the 
highest levels of international security. You have people, such 
as Ms. Brooke, who turn to you for guidance; and I think you 
have a very clear responsibility to the President, whoever that 
President is. And I know from your background also that your 
interest in national security and in providing the unvarnished 
information and advice to the administration, the President, is 
not motivated by political concerns for one party or another; 
is that correct?
    Mr. Suettinger. That is correct.
    Mr. Barr. Therefore, I think that the answer to your 
question posed in that e-mail, ``Who am I to complain?'', I 
think you are a very appropriate person to have complained.
    It isn't so much that the other side indicates that all 
sorts of people want to have their picture taken with the 
President. We all know that. I apologize for your having to sit 
there and hear them endlessly go on and on about that. We also 
know that there are all sorts of people who try and get access 
to the President, and a number of those succeed. That is not 
the point here either.
    My concern right at the moment does not really have 
anything to do with Mr. Johnny Chung either. It has to do with 
what seems to be a complete lack of process and lack of 
safeguards in protecting the President. And I may disagree with 
this President rather strenuously in a lot of areas, but I do 
think, as the leader of this country, he needs to be protected. 
He needs to have people like you complaining when it is 
appropriate.
    We have people who had gotten in to see the President, 
apparently without any background check whatsoever. Apparently. 
From Ms. Brooke's testimony earlier, we may provide a 
slightly--we may provide a higher level of protection for 
people improperly getting in to the President for our citizens 
and foreign citizens, which strikes me as very, very odd.
    My point is, you say that who are you to concern, and then 
you go on to say, they seem to be bona fide Chinese officials. 
How were you able to reach that conclusion? It is my 
understanding that no checks were made on these people.
    Mr. Suettinger. Well, let me say two things.
    One, I had at my--in my office a handbook, unclassified 
handbook of Chinese officials. I found some but not all of the 
individuals on this list, as I explained before, in that book 
and was able to verify that either through that resource or 
from my own memory of the Chinese Government and its 
organizations that the individuals, or the organizations that 
they represented, were in fact bona fide organizations, 
noncriminal, not intelligence-related so far as I could 
determine. That is the basis of my judgment.
    If I may just say that my question in there which you 
referred to, the ``Who am I to complain?'' was entirely meant 
in sarcasm.
    Mr. Barr. Well, but then you didn't complain really. I 
mean, I just think that the process that seems to have been in 
place at that time really ill served the President where people 
could get in to see him; and again, it is not a matter of 
everybody likes to get in to see the President and then may be 
doing something with those pictures.
    These were officials of a Communist Government whose 
national policy interests frequently don't coincide with ours, 
and yet there seems to have been virtually no effort made.
    This isn't necessarily your fault, Mr. Suettinger. I am 
talking about the process that seems to have been in place at 
that time, very similar to what Mr. Aldrich wrote about in 
Unlimited Access, that I think raises some very serious 
concerns. That is the reason that we are looking into this.
    It is not trivial. I think it goes to the heart of national 
security concerns of our country.
    Mr. Burton. Mr. Cummings.
    Mr. Cummings. I, too, want to thank you all for being here 
today.
    Mr. Suettinger, I just want to ask you, you said a little 
bit earlier something that was very interesting. You said that 
when you looked at these folks who took the pictures with the 
President, you said--in answer to another question as to how 
high-ranking they may have been with regard to the Government 
of China, you said they were far below that. Those were your 
words. In other words, far below the President.
    Can you elaborate on that a little bit, please?
    Mr. Suettinger. The power structure----
    Mr. Cummings. Do you recall?
    Mr. Suettinger. Yes, I do recall my answer.
    The power structure in China is one that places the party 
obviously at the peak of the government structure. Also there 
is a separate but related structure of government, i.e., 
administrative offices, that take place. Since the beginning of 
what is called the reform period of China, which is about 1980, 
there has been an effort to split off and to sort of, the 
proper term is not privatize, but at least separate the 
operations of organizations such as business organizations or 
even, in some cases, ministries from the direct control of the 
party, because it was found that that was not a particularly 
efficient way to do business. So some of these organizations 
that were formally established--CITIC grew out of that kind of 
a process, to allow enough leeway for these individuals and 
organizations to make decisions that made sense in a business 
context and separate them from a political context.
    These individuals were--I would say the equivalent of 
people perhaps at the deputy assistant secretary level would be 
comparable here, or perhaps even, in some cases, below that. 
They were not--they are not individuals who have significant 
political power or influence within the Chinese Government. 
They are people who are responsible for attracting business to 
China and for making sure that China receives investment from 
outside the country.
    Mr. Cummings. I think Mr. Fattah was mentioning a little 
bit earlier about when the President of China came here and how 
a lot of people were--elected officials, and many of them in 
this Congress--very happy to see him because he was bringing 
business opportunities to the United States. And I think Mr. 
Fattah mentioned Boeing in his district.
    I wonder, is this something very unusual, in other words, 
for foreign governments to want to try to do business with the 
United States of America and its companies here? I am just 
curious.
    Mr. Suettinger. My sense is, it is not unusual at all.
    Mr. Cummings. So I take it, when you went through the book, 
that you said you had some kind of document, a book in your 
office that basically gave you certain information about who 
some of these people may have been. Did you--looking at that 
book, did you get the impression that some of these folks were 
business people?
    Mr. Suettinger. Yes, in the particular context of China's 
business operation.
    Mr. Cummings. And so it didn't strike you as odd that maybe 
these people, while going through Mr. Chung, this fellow who 
you called ``The Hustler,'' were perhaps looking for some 
possible business opportunities; is that correct?
    Mr. Suettinger. That is correct.
    Mr. Cummings. And now, was that a concern of yours, the 
fact that maybe they may have been looking for some business 
opportunities?
    Mr. Suettinger. Not particularly a concern except insofar 
as it was involving the President.
    Mr. Cummings. Let me ask you this. You used the word 
``hustler,'' and it is a really interesting word. And I take it 
that you felt that this was someone who was trying to, I think, 
make himself out to be--talking about Mr. Chung now--a lot more 
than what he was; is that right?
    Mr. Suettinger. I used the term in the pool hall sense, 
sir.
    Mr. Cummings. I don't know what you mean by that.
    Mr. Suettinger. Somebody who may be doing something 
different than what he appears to be doing at the outset and 
may have a private agenda that is not immediately evident.
    Mr. Cummings. So when you saw this, you wanted to make sure 
that your opinion was stated; is that correct?
    Mr. Suettinger. That is correct.
    Mr. Cummings. And do you know whether anybody listened to 
your opinion or acted on your opinion?
    Mr. Suettinger. Ms. Darby suggested that she had.
    Mr. Cummings. Ms. Darby, your job was basically to kind of 
do some screening; is that correct? Is that part of your job?
    Ms. Darby. Screening in terms of paperwork, yes.
    Mr. Cummings. And so when you were dealing with this issue, 
was there anything to cause you to feel that perhaps these were 
some fellows that were just looking for some business 
opportunities?
    Ms. Darby. The impression I got from Bob's response to my 
e-mail was that these were people who--or Johnny Chung, in 
particular, might try to use the photograph to put up on his 
wall to show that he had access to the White House and is 
friends with the President. But that is something that a lot of 
people do, and so only in that context.
    Mr. Cummings. So you didn't--so what you just said, that 
thought process that you just told us about, you didn't find 
that to be anything unusual, in other words, that people would 
want to try to use a picture of the President to make 
themselves look good and perhaps have certain influence in 
certain circles that they might not normally have; is that 
correct?
    Ms. Darby. That is correct, sir.
    Mr. Cummings. Thank you very much.
    Mr. Burton. The gentleman's time has expired.
    Mr. Horn.
    Mr. Horn. Thank you very much, Mr. Chairman. I am going to 
pursue some questions that concern Harry Wu.
    As I recall, Mr. Suettinger--and we have gone over this 
memo of April 7, 1995 quite a bit--you had some suspicions 
about Mr. Chung. I assume that you might recall that Irene Wu, 
who is a staff member of Mr. Chung's firm, wrote a letter to 
Betty Currie, who is the secretary to the President, saying, 
``Please have President Clinton write me,'' this is write 
Johnny Chung, ``a credential letter for my trip to China. I 
have enclosed a letter dated October 3, 1994, which I cannot 
use for this trip because it is for Taiwan. Thank you very much 
for your help.''
    Do you recall that you were consulted at all when the Wu 
situation of Harry Wu came up in relation to Mr. Chung?
    Mr. Suettinger. I was not.
    Mr. Horn. You don't recall anything on that?
    Did you ever see the fax I just mentioned, which is exhibit 
204? And 205 is a letter. That could have well come with the 
one from Irene that would give Mr. Chung a glowing letter when 
he goes to China.
    And if you look at 206, we have on stationery, Bill 
Clinton, October 3, 1994, to Mr. Chung, signed Bill, ``Please 
let me extend my appreciation to you for your participation in 
my birthday celebration with your family on August 2nd. Your 
outstanding support and dedication to this administration is 
benefiting Americans across the Nation. I also want to express 
to you how essential your role has been in helping to bridge 
our countries' diverse communities. Your efforts to open lines 
of communication between our administration and the Taiwanese-
American community are very much appreciated. Again, thank you 
for your support, for a job well done.''
    Then we get to 207 in the exhibit list, which is Johnny 
Chung to Betty Currie, secretary to the President, reference 
letter from the Democratic National Committee, thank you.
    Now, here is the Democratic National Committee one: Dear--
Mr. Johnny Chung, Chairman, CEO, Automated Intelligence 
Systems, so forth. ``Dear Johnny, thank you for stopping by my 
office. I really enjoyed meeting your guests. You are to be 
commended for your efforts to build a bridge between the people 
of China and the United States. I want to express my 
appreciation to you for being a friend and great supporter of 
the Democratic National Committee. Good luck on your trip to 
China. Keep me informed.''
    Then we get to the White House memorandum of Janice 
Enright, Office of Chief of Staff, Mr. Panetta, to Anthony 
Lake, the National Security Advisor. That is exhibit No. 251, 
dated July 24, 1995.
    I received a telephone call this morning, says Janice 
Enright, from Bobby Watson, Chief of Staff, Democratic National 
Committee, concerning the release of Harry Wu. Apparently 
Johnny Chung, a DNC trustee, is traveling with a group of 
people to China, meeting with the President of China this week. 
His mission is to negotiate the release of Harry Wu.
    Now, was the National Security Council and you, as an agent 
expert there and a China expert, were they ever consulted that 
Johnny Chung was interested in a mission to China to help Harry 
Wu?
    [Exhibits 204, 205, 206, 207, 208, and 215 follow:]

    [GRAPHIC] [TIFF OMITTED] T5667.510
    
    [GRAPHIC] [TIFF OMITTED] T5667.511
    
    [GRAPHIC] [TIFF OMITTED] T5667.512
    
    [GRAPHIC] [TIFF OMITTED] T5667.513
    
    [GRAPHIC] [TIFF OMITTED] T5667.514
    
    [GRAPHIC] [TIFF OMITTED] T5667.515
    
    Mr. Suettinger. The ``they'' being? I am sorry.
    Mr. Horn. Was the NSC staff----
    Mr. Suettinger. No, it was not.
    Mr. Horn. You don't recall this then.
    Now, what it says here is, Mr. Watson wanted to alert us 
that Mr. Chung plans to represent to the President of China 
that he is sanctioned by President Clinton in his efforts to 
get Mr. Wu released. He bases this representation on the fact 
that he recently saw the President during his trip to 
California, mentioned it to him, I believe, in a photo line, 
what he was doing in this regard. Apparently the President was 
supportive. To that extent, it is unclear, but nevertheless it 
is being construed as a validation that he will be the 
representative that way to the President of China.
    Then we have a July 31, 1995, memorandum from you to 
Anthony Lake. That is exhibit 252. And you say, re the 
Democratic National Committee trustee, Johnny Chung, and the 
Harry Wu case, this memorandum also covers a response to 
package 5908 request for Presidential credentials letter for 
Johnny Chung. Memo from Leon Panetta's office--and then you 
give a tab A there on Chung--and his intent to try to get Harry 
Wu released is very troubling, in part because I was not able 
to contact the Democratic National Committee in time to get 
them to discourage Chung from involving himself in this 
diplomatically difficult, high-stakes issue.
    Does that ring any memories----
    Mr. Suettinger. Of course.
    Mr. Horn [continuing]. With you at all?
    How did you feel about that? Were you happy? Were you 
displeased, et cetera?
    Mr. Suettinger. I was quite concerned.
    Mr. Horn. And what were your reasons for concern?
    Mr. Suettinger. My reasons were, as I indicated before, 
that I was concerned that an effort that had been ongoing since 
Mr. Wu's arrest, to get him released in the quickest and most 
appropriate way, might have been compromised or might have 
confused the Chinese Government by the intervention of Mr. 
Chung. And I thought that the DNC credentials letter was even 
more than I would have liked him to have in terms of his own 
travel to China.
    Mr. Horn. Well, when they had that letter that just has 
``Bill Clinton'' at the top of the stationery, was that ever 
discussed by the staff of the NSC, that is October 3, 1994, and 
that's just really, thanks; I assume that came out of the 
Democratic National Committee, but I am not positive.
    Mr. Suettinger. I don't know the origin of the document, 
sir.
    Mr. Horn. Really a political letter. Anyhow, you say here 
in this July 31st memo, I believe Chung means well, something 
of a self-appointed Ambassador of goodwill.
    Now, what did Mr. Lake do about that?
    Mr. Burton. The gentleman's time has expired. We will let 
him answer the question.
    Mr. Suettinger. Mr. Lake called me later on in the evening 
after he received that package, that memorandum from the--and 
asked if it was my view that we should try to contact either 
Mr. Chung or the United States Embassy in Beijing to try and 
forestall or prevent Mr. Chung from engaging in any efforts on 
that supposed mission.
    I replied that I didn't know where he was, I didn't know 
when he was going to arrive. I indicated that I doubted that he 
would see the President of China, and that it would be very 
difficult and might even further complicate efforts if we made 
strong efforts to try and prevent him from seeing anybody. So I 
thought there was probably little we could do.
    Mr. Horn. I thank you. We might pursue some more of this 
later, Mr. Chairman.
    Mr. Burton. Mr. Kanjorski.
    Mr. Kanjorski. Thank you very much, Mr. Chairman.
    I just listened, Mr. Suettinger, to your comments. And it 
strikes me that you seem to be a man who believes in doing 
everything through the normal order of things. There is a book 
of procedure and you follow the process; is that correct?
    Mr. Suettinger. I try to be.
    Mr. Kanjorski. Have you dealt in political life as a 
nonprofessional? What did you do before you were at the NSC?
    Mr. Suettinger. Before I went to the NSC, I worked at the 
National Intelligence Council, and prior to that, the Central 
Intelligence Agency.
    Mr. Kanjorski. But you haven't really been in politics, 
have you?
    Mr. Suettinger. No, sir.
    Mr. Kanjorski. Would you be surprised to know that Members 
of Congress occasionally will arrange visits, private visits 
with heads of state from around the world through their own 
communications without having any contact through the State 
Department or the embassy in the area or anybody but private-
sector individuals?
    Mr. Suettinger. I am aware that that has happened.
    Mr. Kanjorski. Why would you assume that an American of 
Taiwanese ancestry, doing business and having quite a 
promotion--I am impressed with Mr. Chung's promotion--may not 
just convince some high-ranking officials and political 
operatives in China that if this would affect business in some 
way, this is something that should be handled?
    Why would you conclude that that would not be strong or a 
possibility?
    Mr. Suettinger. I am not sure I understand the thrust of 
your question, sir.
    Mr. Kanjorski. Well, I know that some members of the 
committee are shocked and think that it is impossible, what Mr. 
Chung may have done or could have done to have an impact. But I 
have seen that type of impact occur between private individuals 
and political individuals of other countries in dealing with 
very touchy questions. I could give you a perfect example 
myself.
    Mr. Suettinger. Are you speaking of the Harry Wu case?
    Mr. Kanjorski. Yes, I am talking of the Harry Wu case.
    It wouldn't seem unreasonable to me that if a well-
connected, active American-Chinese businessman sat down with 
someone in the hierarchy of the Chinese Government or the 
business community and said you are really making it very 
difficult for us to try and develop business relationships here 
because you have this political prisoner and the people in the 
bureaucracy don't seem to be paying attention or sensitive to 
the problem; and I am telling you as a businessman that this 
is--we don't know what your political problems are, but as a 
businessman, you are causing us a disconnect here.
    Wouldn't that be a reasonable thing to happen?
    Mr. Suettinger. Certainly there are circumstances in which 
that might be true.
    My concern in this particular case was, one, that Mr. Chung 
seemed to have indicated that he was going to represent himself 
as somebody on a mission from the President, which was 
certainly not the case. It was also the case that Mr. Chung did 
not know what the administration had been doing to try to gain 
Mr. Wu's release, and his idea of what was appropriate might 
not be at all consistent with ours.
    Mr. Kanjorski. What if in fact he wasn't trying to really 
represent himself as an emissary from the President, but merely 
that he knew the President, or was a friend of President, 
quote, ``friend of the President''? Would you still try to stop 
him, or do you think he would have no impact?
    Let me give you an example. I referred to it earlier. Right 
after the Polish situation I was on a CODEL, an official 
congressional trip to Eastern Europe. The Members of that CODEL 
wanted to have an opportunity to meet with the political 
leadership, the head of Solidarity, Lech Walesa. At that time 
he was an unofficial, unelected individual in Poland and 
attempting to consolidate political influence. And regardless 
of how they tried, they couldn't get an audience with him.
    I happened to know a friend. There was a businessman who 
has since become an American citizen, and he knew Lech Walesa, 
or anyway he purported to know him to me. And so since I was 
going to be over there, I said, I would like to try and have a 
meeting with him. This is the same individual who said, look, 
if you ever go to Rome, I would like to take you to meet the 
Pope. I didn't go to Rome and I didn't think I would get in to 
see the Pope that easily.
    But I happened to call this fellow just by chance, and I 
said, look, I am going to be in Europe and let's break away 
from this trip for a day. I would like to fly up to Gdansk and 
have a meeting.
    He called me back in 25 minutes and he said, you arrive at 
the airport, the car will pick you up, they will take you to 
Solidarity headquarters, and the leader will be at your 
disposal for any number of hours. You can select a group of 
four people, which I did, another Member of Congress and 
myself. We flew into Gdansk and we spent a very enlightened 4 
hours with Lech Walesa.
    The Ambassador to Poland couldn't get us there. The State 
Department, Secretary of State, couldn't get us there, and no 
one in the Congress of the United States could get us there.
    Now, that is a personal experience I have had. I told the 
story about the Pope--since that time, many of my friends have 
taken up this friend and, by golly, they do go and spend time 
with the Pope.
    So people in private life do sometimes have connections or 
appearances of being able to still the waters. There is a 
sequence here that you can say is coincidental, could be a 
seizure of opportunity, someone trying to get in on a good 
thing, taking advantage, because we are dealing with someone 
here that, quote, is ``a promoter,'' but there is also an 
outside possibility that the Chinese Government and Chinese 
business community would take more stock in something a 
Chinese-American businessman would be telling them than all 
officialdom, who they are dealing with on a regular basis and 
may not be impressed with.
    Haven't you had those experiences down there?
    Mr. Suettinger. I readily concede the point that unofficial 
and informal communications can sometimes have a very 
beneficial effect on the development of relations. In this 
particular instance, I was not persuaded that Mr. Chung was 
operating on the same wavelength as the rest of us, that he 
fully understood the complexity and nuance of American policy 
or that, indeed, he had been given such a mission by the 
President. And so I thought it was appropriate for me to raise 
a warning flag for Mr. Lake, and that is what I did.
    Mr. Burton. The time of the gentleman has expired.
    Mr. Kanjorski. Thank you, Mr. Chairman.
    Mr. Burton. Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman.
    I just wanted to followup on a couple of comments you made 
earlier. In response to some of the questions, you said that 
you did not know that Johnny Chung was an agent of the 
Communist Government, true? Both of you, I believe, said that.
    Mr. Suettinger. I have no basis on which to make such a 
judgment.
    Mr. McHugh. Ms. Darby, you said that as well. Do you have 
any basis on which to say he is not an agent?
    Mr. Suettinger. Similarly, no.
    Ms. Darby. Nothing.
    Mr. McHugh. Mr. Suettinger, you defined a ``hustler,'' I 
think, very appropriately, someone who has an agenda that may 
not be readily apparent. Did I hear you correctly?
    Mr. Suettinger. Yes, sir.
    Mr. McHugh. Did you have an opportunity or cause to 
speculate as to what Mr. Chung's hidden agenda might be?
    Mr. Suettinger. I did not have any specific indications of 
his agenda other than, as I outlined it in the e-mail, which 
was based on an earlier conversation.
    Mr. McHugh. In that e-mail, you made the comment that you 
felt that the President might not wish to be associated with 
some of these business undertakings; do you recall that 
statement?
    Mr. Suettinger. Yes, I do.
    Mr. McHugh. What speculation were you assessing there? How 
did you come to that judgment and what kinds of business 
undertakings were you concerned might not be appropriate for 
the President to be associated with?
    Mr. Suettinger. It was really a generic kind of comment on 
my part. As I indicated earlier in the e-mail, I was concerned 
that Mr. Chung would do this repeatedly and would bring a 
series, a sequence of individuals in to see the President. And 
I certainly had no confidence that we would be able to verify 
that all of them were bona fide officials or engaged in 
legitimate business operations.
    I was just concerned with protecting the President from 
future problems that might exist because of the association 
with Mr. Chung.
    Mr. McHugh. So you were concerned where the situation might 
lead rather than where you could definitively say it was at 
that moment?
    Mr. Suettinger. That is correct.
    Mr. McHugh. OK. Earlier you talked about the recent 
separation in mainland China, the PRC, between the structure of 
the political party and the business side of the society, 
trying to provide the business undertakings with a certain 
freedom from the political apparatus; is that correct?
    Mr. Suettinger. Yes.
    Mr. McHugh. Is my understanding correct, however, that 
ultimately it all does come back to the party, that indeed any 
indigenous Chinese business undertaking not only is concerned 
but ultimately responsible to the political structure?
    Mr. Suettinger. I think, as a general statement, yes, that 
is correct.
    Mr. McHugh. Thank you.
    Ms. Darby, how long were you at NSC?
    Ms. Darby. From February 1993 until August 1995.
    Mr. McHugh. During your time there, how many opportunities 
did you have to do a vet such as this, where you were asked to 
look over a particular--appropriate individuals and make a 
recommendation as to whether or not the President should be 
associated in this instance with the pictures?
    Ms. Darby. This situation, I don't recall ever having a 
similar counterpart during my tenure at the NSC. Again, this 
was an after-the-fact request for guidance and the standard 
practice was that we were consulted prior to any events like 
this taking place. As I said earlier, my contacts with the 
President's office where senior White House staff would have 
been maybe four to eight times a month maybe. It is really hard 
to say. It varied a lot.
    Mr. McHugh. Were your recommendations generally accepted?
    Ms. Darby. I wouldn't say in particular that they were my 
recommendations. I was not a policy specialist at the NSC. I 
relied on the guidance of the policy staff of the NSC, and if 
something required a real policy decision, I would refer it to 
Nancy Soderberg or another senior person on the staff.
    Mr. McHugh. You made a recommendation in this case?
    Ms. Darby. It was more of a personal recommendation rather 
than--there were no real foreign policy concerns that I could 
see. Johnny Chung did not appear, from Bob Suettinger's e-mail, 
to pose a national security risk, so it really wasn't so much a 
question of whether, for foreign policy reasons, they should 
not be delivered.
    Mr. McHugh. Was this the first time you had to make a 
personal recommendation during your time there?
    Ms. Darby. I really don't recall.
    Mr. McHugh. Do you have any observations about this case 
where your personal recommendation was not apparently observed?
    Ms. Darby. About this case?
    Mr. McHugh. Yes.
    Ms. Darby. I do not know what the disposition of the photos 
was, so I really couldn't comment.
    Mr. McHugh. I see.
    I have a very brief amount of time left. Mr. Suettinger, 
let me return to you very briefly. There seems to be a lot of 
concern about the situation where people you described as free-
lancers go out and undertake certain missions unto themselves. 
I think we would all agree that that does happen very 
frequently, whether they are officials of Government or whether 
they are private business people. But I believe I am hearing 
you say, at least from your perspective, this one was of 
particular concern and somewhat unusual in that it was a 
national political party providing a letter of introduction or 
at least some form of credential.
    Did I hear you correctly, listing that as an unusual 
concern on your part?
    Mr. Suettinger. I was concerned that there was a credential 
in the form of a letter from the DNC.
    Mr. McHugh. I see my time has expired. Thank you, Mr. 
Chairman.
    Mr. Burton. Mr. Fattah.
    Mr. Fattah. Mr. Chairman, I think we have exhausted our 5 
minutes on the first round. You still have a Member who has not 
yet used their first round.
    Mr. Burton. You also have 5 minutes, even though you spoke 
during the 30 minute round.
    Mr. Fattah. Thank you, Mr. Chairman, if you insist.
    Let me proceed forward on this. I do want to say that, 
notwithstanding our legitimate interactions, I think that--
there is one issue that I think that we could share in and that 
is that this committee, even though it has spent a few million 
dollars in the beginning of its investigation, we have a number 
of intelligence agencies and law enforcement agencies that have 
multibillion dollar budgets. And if there is information that 
the FBI or the CIA or the National Security Agency or anyone 
has that could be useful to the purposes that the chairman has 
outlined in terms of trying to filter out whether or not there 
was foreign--illegal foreign activities vis-a-vis our election, 
that information should be brought forward.
    Plus it might help us that if, with all of their ability, 
they haven't found anything, then maybe we could put this to 
rest sooner rather than later. So either way, it may be of some 
use.
    I do want to get to the point that was raised, and that is 
that under questioning from the gentleman from Georgia, he got 
you to admit that at all times there are foreign governments 
who from time to time might have or may want us to have a 
different viewpoint about a certain matter; and they have very 
legitimate and appropriate ways in which they can communicate 
their viewpoints to our Government.
    I guess the question really is, under this investigation, 
we are trying to determine, since there have been allegations 
made that the Chinese Government wanted to influence Members of 
Congress, they were concerned about these votes on the most-
favored-nation, or whatever the case may be, or their 
relationships generally with the Congress that they wanted to 
have an impact.
    In terms of this matter with the photos and with Johnny 
Chung, is there any information that somehow this had something 
to do with the People's Republic of China, either legally or 
illegally or inappropriately trying to influence the Congress 
of the United States?
    Mr. Suettinger. With all due respect, Congressman, your 
question takes me somewhat beyond the scope of what I have been 
asked to testify about.
    The simple answer to your last question is, I have no way 
of knowing.
    Mr. Fattah. OK. Well, I have no way of knowing either, 
because we are really hung up on the fact that these gentlemen 
got into this radio address and that they got in through Johnny 
Chung's entre, through the DNC, and that they got a picture 
taken.
    And then there is a lot of question what happened to the 
picture--whether they got the picture, whether they didn't--and 
we have been going back over this for at least 2 days now. We 
are not even clear whether or not the pictures were ever 
released to the gentlemen involved. But it doesn't seem to me 
to have anything to do with the central question of our 
investigation.
    So I realize that you may be at a loss, but I am also at a 
loss. It may be useful, I guess, to just run through it one 
more time.
    You had nothing to do, Ms. Darby, with approving these 
gentlemen to go into the radio address?
    Ms. Darby. No, I did not.
    Mr. Fattah. You were not present at the radio address?
    Ms. Darby. No, I was not.
    Mr. Fattah. Your only responsibility in this matter was 
that you were asked by Ms. Crawford whether or not since the 
President had raised a concern whether or not these photos 
should actually be released, and you said, look, we have a lot 
of other important things to do around here. Why don't you err 
on the side of caution and not release the photos? And you sent 
a memo that said, look, you don't see any lasting harm in the 
photos being released and neither one of you have any idea what 
the actual disposition of the photos is at this time; is that 
correct?
    Mr. Suettinger. That is correct.
    Ms. Darby. That's correct.
    Mr. Fattah. I want to thank you for your presence here 
today. I want to thank the chairman for yielding me our due 5 
minutes. We will not even use it all. We yield it back.
    Mr. Burton. Thank you, Mr. Fattah.
    Mr. Souder.
    Mr. Souder. Yesterday in the testimony we heard from Nancy 
Hernreich that apparently at least one of the photos was 
released. Does that bother you, Ms. Darby?
    Ms. Darby. I was not aware that there was more than one 
photo. It doesn't bother me. As I say, I don't think there were 
foreign policy implications that Bob made me aware of in this 
e-mail about the photos being released.
    Mr. Souder. Is it typical that when you would express 
caution and suggest that it might not be wise to release them 
that the White House would release them anyway?
    Ms. Darby. I really have no idea. I didn't usually, I 
didn't get followup information on whether they took my advice 
or not, but again generally it was not my advice as an NSC 
foreign policy specialist.
    Mr. Souder. Well, it was certainly Mr. Suettinger's e-mail, 
as well, expressing concerns. Do you know very many other times 
that you may have expressed concerns regarding certain photos 
at the White House?
    Ms. Darby. I don't recall any other specific incident, sir.
    Mr. Souder. So this may be in-fact the only case where you 
expressed concern to the White House about a photo and they 
didn't listen?
    Ms. Darby. I am not sure that they didn't listen.
    Mr. Souder. If indeed the testimony yesterday was accurate 
that at least one photo has been released, then they didn't 
follow your caution at least. Would that not be a fair 
statement?
    Ms. Darby. Again, it was my personal caution. It was not 
based on any foreign policy implications I saw in turning the 
photograph over.
    Mr. Souder. I wanted to ask you one other question as well. 
Clearly, there was a kind of a flurry of activity here around 
April 7 because Mr. Chung was coming in. Had they requested 
this earlier, an opinion from your office? Was it sitting on a 
desk among other requests, or why was this almost a month 
later?
    Ms. Darby. I am not aware of any other request relating to 
this other than the one that we have been discussing and is 
reflected in this e-mail. But I think the sense of urgency was 
probably because the photographs take several weeks to be 
developed and they probably had just been developed and Johnny 
Chung was coming in the following day to pick them up.
    Mr. Souder. So you are saying it isn't correct that the 
White House contacted you right after the photo to do a 
background check about releasing it? There was certainly the 
implication under testimony here that there was an immediate 
contact to your office rather than a delay of almost a month.
    Ms. Darby. There wasn't a contact that I am aware of, no.
    Mr. Souder. Thank you.
    Mr. Suettinger, I think your e-mail was, which is exhibit 
198, was very informative. In other words, you said you didn't 
have any direct evidence, but you expressed future concerns, 
which I would hope that any White House would take seriously, 
coming from the National Security Council.
    One of the statements that you made to Mr. McHugh is that 
while you didn't have any evidence that these people were 
agents, you didn't have any evidence that necessarily they 
weren't. I heard you say earlier, too, that you felt they were 
relatively low level or less powerful. Wouldn't it be true that 
if somebody wanted to try to start to influence a system that 
in fact if they would have sent more powerful people or people 
who had more of a history that, in fact, you would have caught 
them, and wouldn't that argue not that they are but that this 
is one way you could do it? In other words, it would have 
flagged your system, had they been higher up. Why would that 
argument not be a concern as well?
    Mr. Suettinger. I am really not in a position to speculate 
about whether there was a conspiracy afoot in this case to 
utilize a photo opportunity toward broader purposes. My 
understanding is, I answered the e-mail, was that there was no 
national security concern with regard to the individuals 
involved and that remains my view.
    Mr. Souder. My point, however, is that had they had a 
record or been more influential, you might have said 
definitely, no, to the photos?
    Mr. Suettinger. I was not in a position--I see, I am sorry. 
I misunderstood you. It is very difficult for me to speculate 
on what might have taken place had circumstances been 
different. I responded to the circumstances as I understood 
them at the time.
    Mr. Souder. Isn't that what your e-mail does? It is 
speculation. You say that there could be other individuals, 
there may be times, would be ones the President would support. 
You were concerned about how this could not only go long-term 
with Johnny Chung, but how this process could be misused.
    Mr. Suettinger. My concern was really in making sure that 
the President was protected more from kind of perhaps shady 
business deals than from an effort to influence his opinion in 
any way, shape or form.
    Mr. Souder. Don't you think that when they contacted your 
office they were concerned about national security things, not 
just whether or not they were----
    Mr. Suettinger. You mean when Mr. Chung contacted my 
office?
    Mr. Souder. When the White House asked about using these 
pictures, do you think they were asking you whether or not 
you--they wanted your advice on how business deals were going, 
or do you think they were asking your advice on national 
security matters?
    Mr. Suettinger. I really can't speculate on what prompted 
them to raise the concern or in what context. I responded to 
the question again, as I indicated earlier, from a national 
security perspective. But in my comments vis-a-vis Mr. Chung, I 
was really thinking more of repeat performances that might have 
a different cast of characters.
    Mr. Souder. Do you get questions about businessmen on a 
routine basis on most of the requests that come to you related 
to national security?
    Mr. Suettinger. There have not been that many. You are 
referring to requests for vetting?
    Mr. Souder. Yes.
    Mr. Suettinger. Most of them involve individuals who are 
not known to be Government officials. In other words, they 
would be more businessmen and private individuals, academics 
and so forth.
    Mr. Souder. But you are vetting for national security, not 
for hustling?
    Mr. Suettinger. That is correct.
    Mr. Souder. Because, and it is not--it is hard to be in the 
position of not wanting to question an individual's integrity, 
yet based on what we saw this morning that, in fact, we do have 
agents of influence trying to influence things and that some of 
that information was withheld. We need to be as aggressive as 
possible in asking some of these questions and laying this out 
as this hearing goes through.
    I yield back.
    Mr. Burton. The time of the gentleman has expired. Mr. 
Waxman is the next.
    Mr. Fattah. If the gentleman will yield, I just wanted to 
correct the record. I think the gentleman mistakenly misspoke 
in that the testimony yesterday from Mrs. Hernreich was not 
that the photos had been released. In fact, her testimony 
several times yesterday was that she was not at all, it was not 
at all her belief that the photos were ever released. She did 
not even acknowledge that they had been released. I just wanted 
to correct the record as to whether or not these photos were 
ever released and we are going to continue to search for the 
truth in this regard.
    Mr. Souder. My understanding was one photo. If I said 
photos, it was a mistake. One photo.
    Mr. Waxman. Reclaiming my time, just also for the record, 
the only thing that we had in the newspaper today was that the 
FBI didn't give some information to this committee, and I think 
it is a big leap from that to say that we learned about spying 
because we didn't learn about that. We may, but no one knows 
that at this point. So we don't know whether the photos were 
ever released. We do know Mr. Suettinger was asked whether they 
should be released and he said he didn't think any lasting 
damage would be done to U.S. foreign policy if they were 
released to Johnny Chung. I want to yield the balance of my 
time to Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Waxman.
    First of all, let me take a moment. This hearing, I think, 
will be winding down very shortly, but I want to thank you both 
for your service to the United States of America. I know that 
this is not the most pleasant situation for you. But I think 
you symbolize the very best that America has to offer. I do 
mean that. It was just, someone just said a few minutes ago, 
Mr. Suettinger, that you were a person, I think it was Mr. 
Kanjorski who said that you were a person that went by the 
books. And I think the same thing can be said of you, Ms. 
Darby. I just want to thank you on behalf of all of us. I am 
sorry that you have to go through this, but this is, I guess, a 
part of the process.
    Mr. Suettinger, I want to also say to you that I really 
admire you for your ability to kind of figure out who is a 
hustler and who is not. It is interesting that Mr. Chung is an 
equal opportunity hustler. Because he has a book, I don't know 
if you have seen this document. But it is automated, it is 
called Automated Intelligence Systems, Inc. I think this was 
his corporation. Have you seen this? It is a brochure.
    Mr. Suettinger. I have not, sir.
    Mr. Cummings. I think your worst fears about what a hustler 
does is epitomized in this document because he not only has 
pictures of him, it is full of pictures, by the way, and he not 
only has pictures of him and the President, but he has a 
picture of him and our illustrious Speaker of the House, Newt 
Gingrich. He has a picture of him and the Governor of 
California, Pete Wilson. He has a picture here of he and the 
majority leader, former majority leader and former Presidential 
Republican Candidate Bob Dole. So he really made sure that he 
did exactly--and I admire you for figuring this out, that this 
guy was a hustler, equal opportunity. It is very interesting.
    I also want to note something else. I was wondering, 
exhibit 215, are you familiar with this? This is a document 
which is apparently from, it is dated November 22, 1995. It is 
apparently to a Lori Weiner from a Kathleen Hennessey. I take 
it that this is from the photography shop in the White House. 
Are you familiar with that document?
    Mr. Suettinger. I have not seen this document before, sir.
    Mr. Cummings. Let me just read it. It says, ``as of 11/22/
95, per Bob McNeely,'' do you know who that is?
    Mr. Suettinger. I do not.
    Mr. Cummings. ``We will not honor requests from Johnny 
Chung. He has been CEO of this corporation. He has been 
improperly using the photo of the business people and the 
President. Bob suggests telling him the photos were ordered and 
sent out and cannot be reordered. He has been asking through 
the west wing office, but he might find our office at some 
point. Thanks, Kathleen.''
    So again, I go back to your fears and your concerns. It 
appears that the photo office in the White House, again, later 
on, found a way to kind of block this hustler that you talked 
about. Yesterday it was brought up, I don't know whether you 
reviewed the testimony yesterday on C-SPAN, but it is also 
interesting to go back to this whole question of the equal 
opportunity hustler.
    In a letter dated April 6, 1994, but from all people, the 
Governor of the State of California, Pete Wilson. I just want 
to reiterate it so that the record will be clear that he not 
only was trying to pimp the President, but he was trying to 
also do the same thing with Mr. Wilson, Governor Wilson. I just 
want this, again, to be reiterated.
    It is addressed to Mr. Chung. It says,

    Dear Mr. Chung: It is my understanding that you have been 
nominated as entrepreneur of the year. Congratulations. It is a 
well-deserved recognition. My communications and press offices 
inform me that you and your team have performed in an 
outstanding manner. Your good work in turn has enabled my 
office to serve the people of California effectively and 
efficiently, especially during California's recent disasters. 
Again, you have my appreciation for a job well done.

    And that is signed by the Governor of the great State of 
California, Pete Wilson. So again, I know that it may sound 
like there was a little bit of sarcasm, but I do admire both of 
you for what you have done. I thank you for being the good 
employees that you have been for the United States of America 
and, again, on behalf of all of us, I thank you for your 
testimony today. I yield back to the ranking member.
    Mr. Waxman. I yield back the balance of my time.
    Mr. Burton. The gentleman yields back the balance of his 
time. I have the last 5 minutes and I will yield my time to Mr. 
Barr.
    Mr. Barr. Thank you, Mr. Chairman. There is a major 
difference, just for the record, between what was just stated 
with regard to the Governor, former Governor, whatever, of 
California. He was not the recipient of $3 or $400,000 in Mr. 
Chung's largess. That makes a big difference.
    Going back to SINOPEC, this is not a small corporation, is 
it, Mr. Suettinger? Is it not the fourth largest petrochemical 
company in the world?
    Mr. Suettinger. If that is information that you have 
derived from other sources, I have no means--I mean it is a 
large--it is a large state entity.
    Mr. Barr. Commercial entity, dealing in the billions of 
dollars? Dealing in the billions of dollars?
    Mr. Suettinger. I would assume so. The oil business does 
make lots of money.
    Mr. Barr. You can assume that since particularly in October 
1997 SINOPEC announced an agreement with Exxon and ARAMCO for a 
joint feasibility study for a refinery and petrochemical 
complex in east China's coastal Province of Fukien, which will 
involve a total investment of $3 billion. So somewhere along 
the line SINOPEC has done real well.
    SINOPEC was, as you all may or may not know, the 
corporation that wanted the meeting with Energy Secretary 
O'Leary at which time Mr. Chung was directed to contribute 
$25,000 so that that meeting could take place, that $25,000 was 
given to Africare, Ms. O'Leary's favorite charity, at her 
direction, picked up by an employee of the Energy Department.
    So there is a lot more at stake here than just a two bit 
hustler and a few photographs. There are billions of dollars at 
stake here and the national security interests of at least two 
of the major powers of the world, the United States and China, 
and also Saudi Arabia. That was also part of what SINOPEC was 
after.
    So it still leads me to scratch my head and figure out why 
no red lights went off. I know that the e-mails we have been 
talking about here postdate by a month the meeting at the White 
House, but we now know that there was an awful lot that took 
place subsequent to that such as the payment at the direction 
of Ms. O'Leary, a number of other efforts by SINOPEC and by Mr. 
Chung involving perhaps Ron Brown and others, according to 
letters that are in exhibits here. And I would ask Mr. 
Suettinger, if you had before you all of the information that 
we now have and if you had this information not on April 7, 
1995, but on March 7, 1995, would the attitude have been the 
same in responding to Ms. Darby's e-mail.
    Mr. Suettinger. With all due respect, Congressman, you are 
asking me again to speculate on what I would do in different 
circumstances. It is very difficult for me to do that, 
certainly, given the way the information has been, the way that 
you have characterized the information.
    Mr. Barr. You can characterize it anyway you would like. 
All I am saying is, is there anything that you have become 
aware of or just based on your review of who these gentlemen 
were, do you still believe them to be essentially two bit 
players that have no real interest beyond just getting a 
picture with the President that would cause you to have given a 
different recommendation if you had had that information before 
you on March 7? Yes, I am asking you to speculate.
    Mr. Suettinger. Again, my remarks at the time were based 
upon my understanding of what constitutes a photo opportunity: 
a handshake, a friendly word and then head for the door. So it 
is not my belief that there was anything politically 
significant likely to transpire during the period of a photo 
opportunity. So even had I been asked in advance, I don't think 
I would have changed my view.
    Mr. Barr. Then I take back some of the nice things I said 
earlier. I think that your work and your statements indicate 
that there is not an effort to really serve the national 
interest of this country well. You understand even in your e-
mail that there was a political effort here by contributors to 
seek access to the President. We know now that some of those 
contributors were, wanted things involving billions of dollars 
from this country that would benefit the Communist Chinese 
Government at a minimum in a major economic way, and you are 
still saying that that would not cause you to recommend that 
they not have access to the President. I must admit, I am just 
flabbergasted. I yield back.
    Mr. Suettinger. I would certainly----
    Mr. Fattah. Mr. Chairman, would you yield some of your 
available time?
    Mr. Burton. Mr. Horn needs some time. I will yield to Mr. 
Horn. If I have any left of course, I will yield to you.
    Mr. Horn. Thank you, Mr. Chairman. Just one question 
because I am curious as to the relationship with Mr. Chung that 
crossed your desk before the April 7th memorandum in which you 
say, having recently counseled a young intern from the First 
Lady's office who had been offered a dream job by Johnny Chung, 
I think he should be treated with a pinch of suspicion.
    Now, we read into the record earlier the memorandum you 
wrote to the President's National Security Advisor, Anthony 
Lake, on July 31, 1995. I am curious what came before April 7 
that you remember, what came after July 31, 1995, that involved 
Mr. Chung that you remember? Is this all that you were involved 
in? Obviously, you counseled this intern before April 7. That 
helped lead you to a conclusion about Mr. Chung. What happened, 
anything else before April 7? Anything else after July 31st? 
Anything in between?
    Mr. Suettinger. As I indicated, I had some phone calls from 
Mr. Chung that caused me to be concerned about his own agenda. 
Again, I can't--I did not put them on the record at the time 
and they are not available either to my recollection or to any 
other record.
    The meeting with the intern from the First Lady's office is 
likewise not on record. She called me in the morning, said that 
somebody had suggested she come to talk to me, and I did so. 
She described a position that she was being offered by Mr. 
Chung that caused me some concern, that appeared she was going 
to be hired as someone whose principal responsibilities would 
be to provide some sort of escort for some of these individuals 
coming into town, and that her service, at that point, former 
service, with the First Lady's office would also be used as an 
entre to get some of these individuals to see people in the 
First Lady's office.
    I found that to be something that aroused my suspicion. She 
was about my daughter's age and so I counseled her that the 
jobs that seem to be too good to be true usually are not true, 
and that she ought to find out as much information as she could 
about what was being offered and what was going to be expected 
of her before she accepted any kind of a dream job. As I say, 
that sort of colored my perception of what Mr. Chung was up to, 
to a significant degree. And after July 31st, according to your 
question, I have had no contact with anything to do with Mr. 
Chung, other than what I have been able to read in the 
newspapers.
    Mr. Horn. Thank you very much.
    Mr. Burton. All time has expired. I want to thank both of 
you for being with us today. We appreciate your candor, and 
hopefully we won't have to bother you again, but if we do, we 
will try to make sure we accommodate your schedules.
    Per our agreement with the minority, I ask unanimous 
consent that the depositions of Ari Swiller, Dick Morris, and 
Eric Sildon be made public. Without objection, so ordered.
    The continuation of the meeting with Johnny Chung will be 
in the lounge of the committee, so those who want to attend and 
participate in that discussion will go there immediately upon 
adjournment. This committee stands adjourned.
    [Whereupon, at 2:29 p.m., the committee was adjourned.]
    [The depositions of Ari Swiller, Dick Morris, and Eric 
Sildon follow:]

                           Executive Session

      Committee on Government Reform and Oversight,
                             U.S. House of Representatives,
                                                    Washington, DC.
                   DEPOSITION OF: JACOB ARIEH SWILLER
                                    Friday, August 22, 1997

    The deposition in the above matter was held in Room 2203, Rayburn 
House Office Building, commencing at 10:00 a.m..
Appearances:
    Staff Present for the Government Reform and Oversight Committee: 
James C. Wilson, Senior Investigative Counsel; Miki White, 
Investigative Counsel; Christopher Lu, Minority Counsel; and Michael J. 
Yeager, Minority Counsel.
For MR. SWILLER:
    STUART F. PIERSON, ESQ.
    Levine Pierson Sullivan & Koch, L.L.P.
    1155 Connecticut Avenue, N.W., Suite 700
    Washington, D.C. 20036

    Mr. Wilson. Good morning. On behalf of the members of the Committee 
on Government Reform and Oversight, I appreciate and thank you for 
appearing here today.
    This proceeding is known as a deposition. The person transcribing 
this proceeding is a House reporter and notary public. I will now 
request that the reporter place you under oath.

 THEREUPON, JACOB ARIEH SWILLER, a witness, was called for examination 
 by Counsel, and after having been first duly sworn, was examined and 
                         testified as follows:

    Mr. Wilson. I would like to note for the record those who are 
present at the beginning of this deposition. My name is James Wilson. 
I'm the designated Majority counsel for the committee. I'm accompanied 
today by Mickey White, who is also with the Majority staff. Mr.----
    Mr. Lu. Lu.
    Mr. Wilson. Christopher Lu and Michael Yeager are with the Minority 
staff. And Mr. Ari Swiller is accompanied by Mr. Stewart Pierson.
    Although this proceeding is being held in a somewhat informal 
atmosphere, because you have been placed under oath, your testimony 
here today has the same force and effect as if you were testifying 
before the committee or in a courtroom. If I ask you about 
conversations you have had in the past and you're unable to recall the 
exact words used in the conversation, you may state that you are unable 
to recall those exact words and then you may give me the gist or 
substance of any such conversation to the best of your recollection.
    If you recall only part of a conversation or only part of an event, 
please give me your best recollection of that conversation or that 
event or the parts of the event or conversation that you do recall.
    If I ask you whether you have any information about a particular 
subject and if you have overheard other persons conversing with each 
other regarding that subject or have seen correspondence or 
documentation regarding that subject, please tell me that you do have 
such information and indicate the source, either a conversation, 
documentation or otherwise from which you derive such knowledge.
    Before we begin questioning, I would like to give you some 
background about the investigation and your appearance here. Pursuant 
to its authority under House rules 10 and 11 of the House of 
Representatives, the committee is engaged in a wide-ranging review of 
possible political fund-raising improprieties and possible violations 
of law.
    Pages 2 through 4 of House Report 105-139, summarizes the 
investigation as of June 19, 1997, and encompasses any new matters 
which arise directly or indirectly in the course of the investigation. 
Also, pages 4 through 11 of the report explain the background of the 
investigation.
    All questions related either directly or indirectly to those issues 
or questions which have the tendency to make the existence of any 
pertinent fact more or less probable than it would be without such 
evidence are proper.
    The committee has been granted specific authorization to conduct 
this deposition pursuant to House Resolution 167, which passed the full 
House on June 20, 1997. Committee Rule 20 outlines the ground rules of 
this deposition.
    Majority and Minority counsel will ask you questions regarding the 
subject matter of the investigation. Minority counsel will ask 
questions after Majority counsel has finished. After the Minority 
counsel has completed questioning, a new round of questions may begin. 
Members of Congress that wish to ask questions will be afforded an 
immediate opportunity to ask their questions. When they are finished, 
committee counsel will resume questioning.
    Pursuant to the committee's rules, you are allowed to have an 
opportunity present to advise you of your rights. Any objection raised 
during the course of the deposition shall be stated for the record. If 
the witness is instructed not to answer a question or otherwise refuses 
to answer a question, Majority and Minority counsel will confer to 
determine whether the objection is proper. If Majority and Minority 
counsel agree that the question is proper, the witness will be asked to 
answer the question. If an objection is not withdrawn, the Chairman or 
a Member designated by the Chairman will decide whether the objection 
is proper.
    This deposition is considered as taken in executive session of the 
committee, which means that it may not be made public without the 
consent of the committee. Pursuant to clause 2(k)(7) of House Rule 11, 
you are asked to abide by the rules of the House and not discuss with 
anyone other than your attorney or attorneys this deposition and the 
issues and questions raised during this proceeding.
    Finally, no later than 5 days after your testimony is transcribed 
and you have been notified that your transcript is available, you may 
submit suggested changes to the Chairman. The transcript will be 
available for your review at the committee office. Committee staff may 
make any typographical or technical changes requested by you. 
Substantive changes, modifications, clarifications or amendments to the 
deposition transcript submitted by you must be accompanied by a letter 
requesting the changes and a statement of your reasons for each 
proposed change.
    A letter requesting any substantive changes must be signed by you. 
Any substantive changes made shall be included as an appendix to the 
transcript, conditioned upon your signing of the transcript. It's my 
understanding that you've come from a long distance, and at the 
conclusion of these proceedings we'll make arrangements for you to 
review your deposition transcript in a way that's convenient for both 
yourself and your attorney.
    Do you understand everything that we've gone over so far?
    The Witness. I do.
    Mr. Wilson. Do you have any questions about anything I've discussed 
so far?
    The Witness. No.
    Mr. Wilson. I've got a few preliminary questions to ask of the 
witness. Does anybody else have any statement or comment at this time?
    Mr. Lu. Not at this time.
    Mr. Pierson. I do. First of all, your preliminary instructions to 
the witness about what you would like him to say if he should answer a 
particular way are general questions that typically you find at the 
beginning of written interrogatories and are easy for a respondent to 
attend to since they'll be right there before him in writing.
    I would expect that if Mr. Swiller gives you an answer that he 
either doesn't recall or doesn't know or is not sure, that you will be 
appropriately following up with questions about what he does know or 
what he may remember so that he will not have to remember specifically 
every item of your preliminary instructions.
    With respect to the transcript, I appreciate your indication that 
you'll make it available to him since he's in California currently. He 
lives there now and has a residence there. He is also getting married 
at the end of this month and will also not be accessible for a while 
afterward, as you expect. We appreciate you making appropriate 
accommodations for reading the transcript.
    Finally, I refer to my letter, July 3, 1997, to the committee in 
which I responded to dates of Mr. Swiller's deposition. Among other 
things, I have advised the Chairman that he should be advised Mr. 
Swiller testified extensively recently in depositions taken by the 
Senate committee inquiring into this.
    We would be pleased to give you permission to read the transcript 
of that deposition and thereby to avoid the inevitable repetition that 
would result as you pursue the same lines of inquiry. I take it, 
counsel, that you have not undertaken to read the transcript of Mr. 
Swiller's deposition in the Senate.
    Mr. Wilson. We have not been given a copy of Mr. Swiller's 
deposition transcript from the Senate. And I appreciate your initial 
offer. And we would certainly have taken up your suggestions. But we 
have not been permitted to see or review a copy of that deposition.
    Mr. Pierson. Can you tell me whether the Senate committee has been 
advised whether we would be given permission to do so?
    Mr. Wilson. I honestly don't know specifically in your case. But 
there have been a number of witnesses who have made similar offers, and 
we have advised the Senate in each instance that there have been no 
objections and my understanding is that there's a matter of Senate 
protocol and the particular rules under which they are functioning and 
that specific investigation in which Mr. Swiller gave his deposition. 
At this point, we do not have access to most of the depositions taken. 
Some have been released. And those have involved individuals who have 
testified publicly. Unfortunately, Mr. Swiller's is not one of them.
    Mr. Pierson. Finally, I understand that under the rules, this 
deposition is being taken in executive session. I appreciate that. And 
I appreciate the instructions. Of course, Mr. Swiller is entirely at 
liberty to talk to anybody about what he has said here today at any 
time. Moreover, if any report of his testimony should be leaked from 
the committee or from its staff, we will consider that executive 
session instruction to be devoid.
    Mr. Lu. If I may, I would just like to second Mr. Pierson's 
concerns about Mr. Swiller's deposition in light of the Senate 
deposition. The Democratic staff has always believed that these 
depositions should be put off until after the release of their Senate 
depositions. Obviously, we have not had our way. So I would simply just 
second that. We appreciate you coming in. We realize this has been a 
burden for you, especially since a lot of the testimony you'll be 
giving today will be duplicative testimony to the Senate.
    Mr. Pierson. That's all I have.

                       EXAMINATION BY MR. WILSON:

    Question. Mr. Swiller, I'll be asking you questions concerning the 
subject matter of this investigation. Do you understand?
    Answer. Yes.
    Question. If you don't understand a question, please say so, and 
I'll repeat it or rephrase it so that you are able to understand the 
question. Do you understand that you should tell me if you do not 
understand my question?
    Answer. Yes.
    Question. The reporter will be taking down everything we say and 
will make a written record of the deposition. You are asked to give 
verbal, audible answers because the reporter cannot record a gesture or 
nonspecific answer. Do you understand that you should not answer uh-huh 
or provide a gesture to answer one of my questions?
    Answer. Yes.
    Question. If you can't hear me, please say so and I'll repeat the 
question or have the court reporter read the question to you. Do you 
understand that?
    Answer. Yes.
    Question. Please wait until I finish each question before answering 
it, and I will wait until you finish your answer before I ask the next 
question. Do you understand that this will help the reporter to make a 
clear record because she cannot record what we are both stating at the 
same time?
    Answer. Yes.
    Question. Your testimony is being taken under oath as if we were in 
court, and if you answer a question, it will be assumed that you 
understood the question and the answer was intended to be responsive to 
it. Do you understand that?
    Answer. Yes.
    Question. Are you here voluntarily or are you here as a result of a 
subpoena?
    Answer. Voluntarily.
    Question. Do you have any questions about this deposition before we 
begin the substantive portion of the proceeding?
    Answer. No.
    Question. Please state your name and spell it for the record?
    Answer. It's Jacob Arieh, A-R-I-E-H, Swiller, S-W-I-L-L-E-R.
    Question. Have you in the past used any other name or gone by any 
other name?
    Answer. Ari Swiller is what I generally go by. It's A-R-I, same 
last name.
    Question. What is your date of birth?
    Answer. [Redacted].
    Question. What is your current address?
    Answer. [Redacted].
    Question. What was your last address in Washington, D.C.?
    Answer. [Redacted].
    Question. Have--have you lived for a period of more than 6 months 
out of the United States?
    Answer. I have not.
    Question. Did you attend college?
    Answer. I did.
    Question. Where did you attend college?
    Answer. [Redacted].
    Question. And when did you graduate?
    Answer. [Redacted].
    Question. Have you received any other degrees?
    Answer. I have not.
    Question. Please briefly describe your employment history after 
college?
    Answer. My first--after college, I traveled for a few months and 
moved to Washington in early 1992. I was an intern for the office of 
Matt McHugh, a Member of Congress from the State of New York. At the 
same time I began to volunteer at the Clinton for President Campaign.
    In approximately April or May of 1992, I became a full-time staffer 
in the Clinton for President Campaign in the Finance Department. We 
transferred to the Democratic National Committee following the 1992 
convention in New York. After the November election, I worked for the 
Presidential inaugural committee. Following the inaugural, I stayed on 
the staff of the inaugural until approximately April again.
    In April of 1993, I started work for Steny Hoyer, a Member of 
Congress from Maryland. At the time, he was chair of the Democratic 
caucus and I served on his caucus staff. I worked there until December 
of 1993, at which time I joined the Democratic National Committee. I 
worked there until March of 1997 at which time I joined the Rouse 
Grocery Company as Vice President of External Affairs. That's my 
current position.
    Question. Have you spoken with anyone other than your counsel about 
this deposition?
    Answer. No.
    Question. Have you reviewed any documents in preparation for this 
deposition?
    Mr. Pierson. I will tell you that yesterday he had an interview 
with the FBI at which time he was asked to examine documents which you 
may be interested in.

                       EXAMINATION BY MR. WILSON:

    Question. Do you have any documents that are--DNC documents 
currently in your possession?
    Answer. I do not.
    Question. Did you leave all of your work-related materials in 
your--with your former place of employment?
    Answer. I did.
    Question. What documents did you review with the FBI?
    Mr. Pierson. He may not remember. I can perhaps help him. There was 
a memorandum in July 1995 by a Landroca Steel to Donald Fowler. There 
was a memorandum he wrote to a counsel at the DNC concerning Pauline 
Kanchanalak following 1996 election. Was there anything else?
    The Witness. Staff list.
    Mr. Pierson. Oh, yes, they showed him a staff list of the DNC and 
asked him to indicate which ones were fund-raisers and which were not.

                       EXAMINATION BY MR. WILSON:

    Question. How did you come to work at the DNC?
    Answer. At which time period?
    Question. In your final--your final stint at the DNC as a paid 
employee?
    Answer. I had worked with a few of the staff members of the DNC 
during the '92 campaign. When I went to work with Mr. Hoyer, I stayed 
in touch with them. Around December of 1993, a little bit earlier, a 
friend of mine, Laura Hartigan, became finance director and at that 
time asked me to rejoin with her at the staff of the DNC. I accepted 
her offer in the beginning of December of 1993.
    Question. Did you interview with anybody for that position?
    Answer. I interviewed with Laura Hartigan and David Wilhelm who at 
that time was Chairman of the Democratic National Committee.
    Question. And referring, and I'll try and be specific, but I'm 
referring to your final employment at the DNC, what was your title?
    Answer. For most of the time, I was director of the Trustee 
Program. Or director of large donor efforts.
    Question. Did you have any other titles?
    Answer. No.
    Question. Who did you report to?
    Answer. When I first started at the DNC, I reported to Laura 
Hartigan. Following the spring of 1995, there was a transition, and the 
new finance director was Richard Sullivan, who I reported to until I 
left.
    Question. Could you provide a general description of your office? 
And by that I mean were there other individuals who worked with you in 
your capacity as----
    Answer. There were two people under my direction. When I first 
started, they were Jennifer Scully and Jay Webber. The following time, 
Mr. Webber left, and a gentleman named Mack Gobush, G-O-B-U-S-H, joined 
the staff. Following some time, there was another transition in the 
spring of '95, an Anne Braziel and Nancy Burk joined the staff with me.
    Question. In a spatial sense, where were they located in relation 
to where you worked? Were you all in the same office?
    Answer. I'll refer to the last part of my year and a half.
    Question. Okay.
    Answer. Ms. Braziel and I shared an office. And Ms. Burk was 
stationed at a cubicle within approximately 12 feet of our office.
    Question. Did you type your own letters and memoranda?
    Answer. For the most part, I did. However, at times, I was assisted 
by both Ms. Braziel and Ms. Burk in some of the memoranda and letters 
that were sent under my name.
    Question. Did you fax your own fax transmissions to other people?
    Answer. Same, the previous answer. I did most of it. But they also 
assisted.
    Question. Did you have someone who would take messages for you from 
the telephone?
    Answer. I did not. We had a voice mail system.
    Question. Did you use an e-mail system at the DNC?
    Answer. It was available. I was not a frequent user of it.
    Question. Did you have any--and, again, I'll just refer to the 
period during which you were the--the director of the Trustee Program. 
Did you have any official contact with White House employees?
    Answer. What do you mean by official?
    Question. Business-related contacts, where you would discuss 
matters with them or they would discuss matters with you?
    Answer. Yes, I did.
    Question. Was there a specific liaison in the White House to deal 
with you in your office?
    Answer. There was not.
    Question. Were there--was there any one person or were there any 
select number of people that you would deal with regularly?
    Answer. I dealt for some time with Brian Bailey, with a woman named 
Tracy LeBreque, with a gentleman named Donald Dunn. Those were my 
primary contacts.
    Question. Do you recall any dealings with other employees at the 
White House?
    Answer. I mean,--I mean, for instance----
    Mr. Pierson. Are you asking about any contact or regular contact?
    Mr. Wilson. Regular contacts.
    The Witness. I mean I was friendly with a number of people through 
my work on the campaign. As far as business-related matters, the 
majority of my contacts are with the people I stated already.

                       EXAMINATION BY MR. WILSON:

    Question. Did you ever attend regularly scheduled events at the 
White House?
    Answer. Events meaning meetings or----
    Question. Well, I'm trying to eliminate a random event that might 
be a Christmas party or a single type event, but a weekly scheduled 
event or a monthly type scheduled event, something that would occur on 
a regular basis?
    Answer. For a time, Mr. Bailey arranged for meetings that included 
and arranged political staff representatives, congressional liaison 
staff representatives. The point of the meeting was to gather lists of 
names for upcoming social events that may take place at the White 
House.
    Question. How frequently did such meetings occur?
    Answer. They were scheduled, I believe, to take place every other 
week. Invariably, my meetings were canceled pretty often, and they did 
not run--I believe this program did not run more than 6 months.
    Question. Did you have a pass to allow you access to the White 
House?
    Answer. Never did.
    Question. How did you gain access to the White House?
    Answer. I was usually cleared through Mr. Bailey's office.
    Question. And how would that process work?
    Answer. After I was notified of a meeting, someone from his office 
would call and request my date of birth and Social Security number. 
They would tell me the time to enter and which gate of the White House 
to enter. I would present ID when I'd enter and be directed to the room 
where the meeting would take place.
    Question. Please provide an overview of the Trustee Program at the 
DNC.
    Answer. Trustee Program was a group of the highest donors to the 
Democratic Party or highest fund-raisers. The--there were two levels 
within the Trustee Program. There were trustees who contributed $50,000 
or raised over 100,000. And managing trustees who contributed 100,000 
and raised over 250,000. The program consisted of, by the time the '96 
election, approximately 800 people from across the country.
    Question. Did individuals who were members of the Trustee Program 
receive regular materials from the DNC? By that, I mean mailings and 
the sort?
    Answer. We had a tally or sometimes every other day fax service 
with talking points regarding pertinent political issues. When we knew 
of--ahead of time of scheduled events such as the national galla in 
Washington, they received the date of that event as far ahead of time 
as we could provide it so that they knew of an invitation to that 
event.
    Question. The daily faxes that you just referenced, who was 
responsible for sending the fax transmissions?
    Answer. I believe they were written in the Research Department. And 
I don't know the process by which they were then faxed. But it was on a 
massive scale to not just trustees, but all financial supporters as 
well as political supporters and constituents.
    Question. Who was the individual or who were the individuals who 
composed the fax transmissions?
    Answer. I would be speculating. I'm not sure who in the Research 
Department.
    Question. Did you ever have occasion to discuss entries in the fax 
transmissions with people who would be authors of the fax 
transmissions?
    Answer. I did not.
    Question. Do you know who did?
    Answer. I don't.
    Question. Did you receive regular copies of the fax transmissions?
    Answer. They were supposed to be provided regularly. I don't think 
I saw--I probably saw half of the transmissions that were sent.
    Question. Do you recall whether you retained any of the faxes that 
went out to the trustees for your records?
    Answer. No. I did not.
    Question. No, you don't recall?
    Answer. I did not retain them.
    Question. While you were at the DNC in your position as Director of 
the Trustee Program, did you have any responsibility for any other 
programs or initiatives at the DNC?
    Answer. The one other program I was involved with was an effort to 
raise money from the Jewish constituency. It had varying titles. One we 
used most frequently was Jewish Leadership Forum. It was not a 
scheduled or defined job description. It just was a general--part of a 
general effort to raise money within the Jewish community?
    Question. Did you regularly receive requests from members of the 
Trustee Program to obtain assistance with various types of things that 
they would like to do with the White House? And I realize that's about 
as unspecific as you can possibly make a question. So I'm just trying 
to gather whether there was a type of system that you used when people 
would call you up and ask you to do something for them, if they did ask 
you to do something for them. And that could be a tour of the White 
House or something like that or--just starting with that, if people 
called you up and asked you for a tour or perhaps an opportunity to get 
a photograph. Did you have a regular procedure that you would follow to 
respond to that request?
    Mr. Pierson. Are you talking about trustees calling.
    Mr. Wilson. Yes.
    The Witness. Well, let's take them--as far as tours, we tried to 
accommodate. Nancy Burk, Ms. Burk was the woman in my office who 
handled, who contacted the White House, receiving an allotment of some 
of the tickets which the White House provided the DNC to our trustees 
to have ticketed tours of the White House. Ms.--If--when you say 
photograph, you mean just a still photo of the President?

                       EXAMINATION BY MR. WILSON:

    Question. Yes.
    Answer. If it's just a still picture, again, I would probably ask 
Ms. Burk to retrieve one from the file and address a letter, an 
envelope to the requester.
    Question. Did you--did you have a system to handle requests? And by 
that, I mean, did you use forms to track a request that would come in, 
a form would go out to a particular individual, or would it be fair to 
say that you responded to requests of you on an ad hoc basis?
    Answer. Ad hoc basis.
    Question. Did you have a system in place to determine whether it 
was appropriate to help an individual with a request that might be made 
of you?
    Mr. Lu. I'm not sure I understand the word, ``appropriate.'' But if 
you do, please answer it.
    Mr. Pierson. I also have an objection. Is the ``you'' directed to 
him or is it directed to the entire DNC?
    Mr. Wilson. To Mr. Swiller.
    Mr. Pierson. Did he personally have a system?
    Mr. Wilson. Personally. Just was there a fail-safe mechanism system 
that you had in place to screen and determine whether it was 
appropriate to assist somebody with a request that they might make of 
you.
    Mr. Pierson. He's asking about you personally.
    The Witness. No.

                       EXAMINATION BY MR. WILSON:

    Question. Was there a DNC system that you would follow to determine 
whether it was appropriate to assist anybody with the request?
    Answer. No.
    Question. Were there ever occasions in which an individual might 
call you and ask--asking for you to help with something, and you were 
uncomfortable with providing assistance to them?
    Answer. Yes.
    Question. If you could, please describe those situations.
    Mr. Pierson. Try and give some examples.
    The Witness. Frequently,--not frequently. That's overstating it. A 
few times, people would request to speak directly with the President, 
the Vice President, even members--most senior staff members at the 
White House, and ask for my assistance in providing those meetings. I 
always felt those requests were inappropriate and do not recall ever 
acting on one of them.

                       EXAMINATION BY MR. WILSON:

    Question. Do you have any examples or do you recall any situations 
where an individual made a request of you and you were concerned about 
following up on that request because of something you knew about that 
person?
    Answer. I don't know if I understand the second part of your 
question. You mean something I knew in their past?
    Question. Yes, pre-existing knowledge of something that they had 
done or place that they had been or position that they had held which 
made you uncomfortable with continuing to assist them or assisting them 
in the first place.
    Answer. I generally acted that if I felt uncomfortable with a 
request, I didn't do it, regardless of whether it was something in 
their background or if their request was, I felt, inappropriate, I 
didn't act on that.
    Question. Trying to move away from situations where people were 
asking you things that you found to simply not be possible or request 
that you felt was just not something that could be realized, do you 
recall any situations where an individual made a request of you and you 
thought that you or the DNC did not want to be involved with helping 
that individual?
    Mr. Lu. Because of their past?
    Mr. Wilson. Because of anything.
    Mr. Lu. Because of anything.
    Mr. Wilson. Anything that you knew or have knowledge of.
    The Witness. Could you restate the question? I'm sorry.
    Mr. Wilson. I'll ask the reporter to read it, if I may.
    [The reporter read back as requested.]
    The Witness. Could you possibly restate that?
    Mr. Wilson. Well, I'm not trying to be hard here. If you thought 
simply this is a person I don't think we should be involved with, and 
either you decided not to help or you discussed with somebody else 
whether that person should be assisted.
    The Witness. I don't recall anyone that I flatly denied assistance.

                       EXAMINATION BY MR. WILSON:

    Question. Did you ever talk to any colleague at the DNC about an 
individual and about whether it was appropriate to provide assistance 
to them?
    Answer. I don't recall any specific conversations.
    Question. Did you ever personally do any background checks on 
individuals who you came in contact with in your position as the 
director of the Trustee Program?
    Answer. I do not personally, no.
    Question. Did you ever request that anybody at the DNC to provide 
background information on the people that you came into contact with at 
the DNC?
    Answer. Yes.
    Question. Who would you make such requests of?
    Answer. I tended to work with the Research Department at the DNC, 
different individuals who had access to Nexis-Lexis within their 
department.
    Question. Do you recall the names of individuals you worked with?
    Answer. I don't. Oh, that I worked with?
    Question. At the DNC. On this matter of getting background 
information?
    Answer. A name that I recall is Tom Janenda was the Deputy Research 
Director.
    Question. Do you recall any other individuals that you might have 
made background requests for background information?
    Answer. He was my primary contact. That I recall.
    Question. Did you ever have anybody in your immediate office, the 
individuals you described previously as working with you, did you ever 
ask them to do any background checks on individuals?
    Answer. I did not.
    Question. Did you keep files of biographical information on 
individuals who were members of the Trustee Program?
    Answer. I did.
    Question. And--and what form did you keep that information in?
    Answer. It was in a file cabinet, each donor member of the Trustee 
Program had a file with their name. And as many cases as we had a bio, 
a bio accompanied the file.
    Question. So is it fair to say that if there were approximately 800 
individuals who participated in the Trustee Program, that there were 
approximately 800 files on the individuals?
    Answer. Approximately, yeah. But not all of them had bios. We may 
have had an empty file.
    Question. What types of information would you keep in the file?
    Answer. Bio information. If they had been sent a photograph or some 
other letter inviting them to an event, we may keep a copy on file. And 
in some cases, not in all, we--if they were trustees because of a 
donation, we kept a copy of the check and the check-tracking form in 
the file.
    Question. Do you recall any other types of information that was 
kept in the files?
    Answer. That was primarily it.
    Question. How would you obtain the biographical information?
    Answer. We would request it directly from the office or from--from 
the office of the individual for the--from the individual, him or 
herself.
    Question. Did you have a standard form that you would send to them 
to fill out?
    Answer. I believe Ms. Braziel designed a form that also requested 
that they provide us with their date of birth, Social Security number, 
as well as their address, home address, business address, telephone 
numbers, spouse's name, et cetera.
    Question. How did you keep track of the individuals who were 
participants in the Trustee Program?
    Answer. We had a computer data base system?
    Question. What--did this data base produce an aggregate list of 
trustees that was--that you had access to?
    Answer. It could, uh-huh. Yes.
    Question. Did you keep such lists?
    Answer. I did.
    Question. Were these lists updated on a regular basis or were they 
just lists that if you had a need for them, you would request a new 
list to be generated?
    Answer. Generally, I received a list when I requested it. There was 
not a scheduled updating.
    Question. Were there any lists generated by the data base you 
described or in any other way that described the aggregate amount of 
contributions that come, that had come from the Trustee Program?
    Answer. I'm not sure if I understand.
    Question. Just whether at any particular time during the year, 
could you get a printout or a list that said--that told you this year, 
X amount of dollars have been raised through the Trustee Program?
    Answer. No, I did not.
    Question. Did you ever create such a list yourself based on numbers 
of participating trustees?
    Answer. I may have tried to create lists broken down by 
contribution and then the sum of their contribution. But contributions 
were not made directly to the program in many cases. They were made in 
conjunction with an event, a fund-raising event anywhere in the 
country. But if someone had raised the necessary funds to become a 
member or contributed the necessary funds, they became a member, 
whether or not it was a direct to joining the program.
    Question. Is it fair to say, then, that if somebody that made a 
contribution, that it was of the requisite amount, $50,000, for 
example, for the Trustee Program to attend a dinner, a fund-raiser, 
that they would then become a member of the Trustee Program?
    Answer. Uh-huh. That's correct.
    Question. And how did--how did you keep track of those types of 
transactions? How did you know whether people would become eligible to 
be a member of the Trustee Program or not?
    Answer. I mean, it varied case to case. Some individuals sent their 
contributions directly to me or a list of what contributions they had 
raised. And I had direct contact. In cases where events were held 
around the country, individual fund-raisers were responsible for that 
event. Following the event would provide me a list of new members or 
people who had renewed their membership through the event which they 
had just coordinated. Those are the primary ones.
    Question. Did you circulate among other offices at the DNC the list 
of trustees?
    Answer. On occasion, the chairman's office would request a list. 
Other than that, the lists were in the Finance Department. No one else 
requested them.
    Question. Did you ever send a trustee list to the White House?
    Answer. No.
    Question. There's a term of art that I've seen on documents, and 
it's the fund-raiser account. Do you know what that refers to?
    Answer. I don't.
    Question. You mentioned earlier that there was a computer system 
that kept track of the managing trustee lists. Was that the AS-400 
system?
    Answer. The AS-400 system was a system at the DNC. Within the 
Trustee Department, we had a separate data base that was more flexible 
to our needs of generating labels and quick lists that we used. It was 
a Paradox-based data system.
    Question. Did you receive regular information from the AS-400 
system?
    Answer. I used it to reference--it was a good reference for when 
contributions were put in, because all contributions were posted in the 
AS-400. So I had access to it from the main frame at my desk. So 
frequently, I would access information off it.
    Question. Were printouts of contributions generated by the AS-400 
system the source of information that you used to determine who had 
contributed money and who would be eligible to be in the Trustee 
Program?
    Answer. At times, yes. It was a source of information for that, 
yes.
    Question. If you could, just describe what would happen if you had 
dealt directly with somebody and discussed making a contribution, and 
they hadn't made a contribution, sent you a contribution----
    Answer. And they hadn't----
    Question. And they had sent you a contribution. What would you do 
to ensure that that was entered into the AS-400 system?
    Answer. I actually had no direct connection to the entries into the 
AS-400. My only assurance was I'd give approximately a week's time from 
when I had received the check--from the time from when I submitted the 
check, and checking the AS-400 was my only safety net in making sure. 
And I don't recall situations where checks did not appear after a week 
or maybe in some cases 2 weeks, but----
    Question. When a check, and this is assuming first of all, did you 
receive checks directly from donors?
    Answer. I did.
    Question. When you did receive such a check, what was the 
mechanical process of handling that check? What would you do with that?
    Answer. We--I would attach a donor information sheet check tracking 
form and add with it their name, company, phone number, which event the 
contribution related to, or was it part of their membership to the 
Trustee Program as indicated on the sheet. Then photocopied batch 
checks if I had more than one, and submit them to--I don't know the 
title, but the person within our--the Finance Department who maintained 
the list of what checks had come in.
    Question. Who was that person?
    Answer. The last person serving that was a woman named Theresa 
Stirk.
    Question. And do you recall who was in a similar position before 
that?
    Answer. During my time there were two other people that held it. 
First, it was a gentleman, Jeff King. And Susan Ochs, O-C-H-S.
    Question. Did you ever receive lists of individuals generated in or 
by the White House?
    Mr. Pierson. Any kind of lists? Just a list that came from the 
White House.
    Mr. Wilson. [Indicating in the affirmative.]
    The Witness. Yes.

                       EXAMINATION BY MR. WILSON:

    Question. What types of lists did you receive?
    Answer. On occasion, they would submit to us a list of individuals 
who might be attending an upcoming White House event.
    Question. And why would you receive such information?
    Mr. Pierson. If you know.
    The Witness. In some occasions, we provided some names to be 
included in events they submitted since they were responsible for 
invitations and receiving regrets. They would provide a list 
identifying who was coming.

                       EXAMINATION BY MR. WILSON:

    Question. Do you recall receiving any other types of lists from the 
White House?
    Answer. I do not.
    Question. Did you ever receive any lists of individuals who were 
suggested individuals to approach to ask for donations----
    Mr. Pierson. From the White House.
    Mr. Wilson. From the White House.
    The Witness. No, I did not.

                       EXAMINATION BY MR. WILSON:

    Question. Do you know what the system at the DNC is now for 
screening campaign contributors, people who have contributed----
    Answer. Today, I do not.
    Question. Okay. Prior to November of 1996, did--do you know at the 
time what the system was for screening contributions?
    Mr. Pierson. Are you talking appropriateness or legality?
    Mr. Wilson. Well either, actually.
    Mr. Pierson. Well, you probably ought to take them one by one.
    Mr. Wilson. Well, we will then.

                       EXAMINATION BY MR. WILSON:

    Question. Appropriateness screening for appropriateness?
    Answer. Extended to our own discretion to decide on whether we're 
comfortable with a person's contribution. When I say our, I mean the 
individual fund-raiser dealing with that contribution.
    Question. And staying on the issue of appropriateness in terms of 
screening contributions, do you recall examples or situations where it 
was determined--where you had discussions with people about the 
appropriateness of a--of a contribution?
    Answer. I may have at times conferred with the--Mr. Sullivan or 
Marvin Rosen, the finance chair. But it was very infrequent.
    Question. And do you remember the subjects of those inquiries?
    Answer. Sometimes, there--if individuals were making a contribution 
that we needed--I'm trying to think. We needed more information on the 
individual or the corporation giving the contribution to make sure that 
it was a U.S. subsidiary.
    Mr. Wilson. Excuse me, this is a reinforcement reporter.
    The Witness. Oh.

                       EXAMINATION BY MR. WILSON:

    Question. Do you recall any individual contributors that were 
discussed during these meetings with Mr. Sullivan?
    Mr. Pierson. Are you talking about natural persons or just specific 
instances.
    Mr. Wilson. Natural persons, yes.
    The Witness. I don't recall specific conversations about 
individuals or any individuals.

                       EXAMINATION BY MR. WILSON:

    Question. Turning to legality, what was the system for screening 
contributions for legality of contribution?
    Answer. I'm not sure what it was. I'm not an attorney. I don't know 
what the process was.
    Question. Did you ever have any training during which legality of 
contributions was discussed?
    Answer. I did.
    Question. And with whom? Who conducted this training?
    Answer. The general counsel and the deputy counsel, Joseph Sandler 
and Neal Rieff.
    Question. Do you recall any instances where a Lexis-Nexis search 
was done to determine background information to assess either the 
legality or appropriateness of the contribution?
    Mr. Lu. By anyone--I'm sorry.
    Mr. Pierson. Let's break it down. Ask about Lexis-Nexis.
    Mr. Wilson. Stay with one.
    Mr. Pierson. Search before you ask other purpose. Because you'll 
get a complicated or nonresponsive answer.
    Mr. Wilson. Okay.

                       EXAMINATION BY MR. WILSON:

    Question. I know you did mention before that there had been Lexis-
Nexis searches. Did you ever request any Lexis-Nexis searches to be 
performed to supplement information that would be transmitted on the 
check-tracking forms that you filled out?
    Answer. Not that I recall.
    Question. Did you request Lexis-Nexis searches for any other 
purposes?
    Answer. I remember a few occasions requesting the context being a 
person was going to be attending an event at the White House. And 
required more biographical information on the individual.
    Question. Do you remember the individuals that you requested 
searches about?
    Answer. I don't.
    Question. Do you know whether at any time the DNC stopped 
performing Lexis-Nexis searches to determine the legality of campaign 
contributions?
    Answer. I don't recall starting points. I don't recall an ending 
point. I don't recall there being a program of it.
    Question. But do you know whether at any time such searches were 
stopped?
    Answer. I do not.
    Question. I provide the witness with a document that was a single 
page of handwritten notes, and it is marked DNC 3049787.
    Just requiring you to read the whole thing, do you recognize the 
handwriting on this document?
    Answer. I do not.
    Mr. Pierson. Are we going to mark this for the records?
    Mr. Wilson. No, actually we will not. What I can do is two things, 
actually. I will defer to what is convenient for you. Documents that I 
show the witness that become immediately apparent have no relevance to 
his testimony, I can simply move on from, or else I can include them in 
the record if it is a convenience to you when you go back and review 
the record.
    Mr. Pierson. I don't think the record will be complete unless you 
do include it, because you have testimony about it. If the record says, 
there is a question, do you recognize the handwriting, there won't be 
any indication of what handwriting he was looking at, unless you 
include it. So you should.
    Mr. Wilson. I am perfectly willing to do that. I will mark this 
document Exhibit AS-1 for inclusion in the record.
    [Swiller Deposition Exhibit No. AS-1 was marked for 
identification.]

    [Note.--All exhibits referred to can be found at end of 
deposition.]

    Mr. Wilson. Just by way of background, we actually keep the 
documents. We don't let you take them.
    Mr. Pierson. The Senate lets us have them.
    Mr. Wilson. Sorry. We are less accommodating on that front.
    Mr. Pierson. So am I.

                       EXAMINATION BY MR. WILSON:

    Question. Are you familiar with FEC reporting requirements that 
apply to the DNC?
    Answer. I am familiar with general requirements, yes.
    Question. What reporting requirements applied to you in what you 
were doing as director of the Trustee Program?
    Answer. I don't recall direct requirements. What I recall is that 
information such as occupation, employer of an individual, their 
address, the phone number and fax number, were required information for 
all contributions made, or if it was a corporation, the corporation's 
address, and that that was required for every individual that would 
then be submitted by the DNC to the FEC. So my requirement in relation 
to the FEC, as I recall it, was providing complete information on 
contributions.
    Question. Apart from filling out check tracking forms, as you have 
described it previously, did you have to do anything else to ensure 
compliance with FEC provisions?
    Mr. Pierson. You are asking him----
    Mr. Wilson. That you know of, that had been communicated to him.
    Mr. Pierson. As his responsibility? Witness will correct.
    The Witness. Not that I recall, no.

                       EXAMINATION BY MR. WILSON:

    Question. Did you have to produce any reports that you knew were 
going to be used for the purposes of FEC filing?
    Answer. Other than the tracking form, nothing else was required 
that I recall.
    Question. Are you aware that the accounting firm of Ernst & Young 
prepared materials that discussed contributions by individuals during 
the 1996 election cycle?
    Answer. My only--and this is very second and thirdhand knowledge of 
Ernst & Young's connection with the DNC, is that they, after there were 
concerns about some donations, they reviewed those as an accounting 
firm following the '96 election. That is the only knowledge I have of 
any work they did with the Democratic National Committee.
    Question. Did you ever meet with any Ernst & Young personnel while 
you were an employee at the DNC?
    Answer. I had a contact there who was a contributor, but not in the 
context of your earlier stated question.
    Question. Not in the context of the report or the materials 
prepared by Ernst & Young?
    Answer. Correct.
    Question. Were you ever contacted by any Ernst & Young employee in 
regard to the work that they were doing vis-a-vis the '96 campaign 
contributions?
    Answer. Never.
    Question. Were you ever--did you ever discuss with any of your 
colleagues the work that Ernst & Young was doing?
    Answer. Yes.
    Question. Were you ever asked to provide anything for the Ernst & 
Young report?
    Answer. Never.
    Question. Can you just generally recount the discussions you had 
with colleagues about the Ernst & Young process?
    Answer. We, the colleagues I tended to discuss it with were within 
the finance department that I worked with. My discussion, the context, 
we were discouraged at how they were proceeding with their report. We 
felt that it was detrimental to the DNC, it was offending donors who 
were contacted, and I believe at the time some of our Asian American 
donors felt that they were being harassed by some of the Ernst & Young 
employees who were proceeding with that, and it was, you know, to our 
dismay.
    Question. Was this your belief?
    Answer. Being I had no direct contact, I had no notion, but, you 
know, after hearing that there were donors who were upset, then became 
my belief, sure. Yes.
    Question. Do you know if individuals communicated that to Ernst & 
Young personnel?
    Mr. Lu. You mean donors themselves, or do you mean people at the 
DNC?
    Mr. Wilson. People at the DNC.
    Mr. Pierson. Time out. What is the ``that'' we are talking about? 
The last thing we testified to is his feeling.
    Mr. Wilson. That is quite right.

                       EXAMINATION BY MR. WILSON:

    Question. Do you know if DNC personnel communicated to Ernst & 
Young personnel that there was a sense of dissatisfaction with the way 
the process was proceeding?
    Answer. I have no knowledge of that.
    Question. Did you ever participate in any discussions during which 
it was discussed the threshold of contribution that Ernst & Young 
reviewed during their review process?
    Mr. Lu. First of all, do you mean a monetary threshold?
    Mr. Wilson. Dollar amount.
    The Witness. I was not in formal discussions. I think informally, 
again, all the information we received was secondhand on their 
inquiries, and I believe we thought it was somewhere either over 5,000 
or over 10,000. But I don't ever remember having direct knowledge of 
what the threshold was. But there was discussion of how they were 
proceeding.

                       EXAMINATION BY MR. WILSON:

    Question. Do you know who set the level of monetary contribution 
that would be examined?
    Answer. I don't.
    Question. Aside from what you might have learned subsequently in 
media accounts, at the time did you know that--at the time, I am 
speaking of any time you were employed at the DNC, sort of in your 
knowledge of what people were telling you among your colleagues, did 
you know that checks were recommended to be returned?
    Answer. Yes.
    Question. Do you know whether the DNC returned all checks that 
Ernst & Young had recommended be returned?
    Answer. I am not privy to that. No, I don't know that information.
    Question. Did you have any discussions with your colleagues about 
whether Ernst & Young was distinguishing between illegal contributions 
and contributions that were deemed inappropriate?
    Answer. I don't recall that discussion, no.
    Question. What was Scott Pastrick's position at the DNC?
    Answer. He had an unpaid volunteer position of treasurer of the 
Democratic National Committee, which I believe began in the spring of 
'95.
    Question. Do you know whether he signed FEC reports?
    Answer. I have no knowledge of that.
    Question. Were you aware of any discussions that----
    Answer. May I go back to that?
    Question. Certainly.
    Answer. Scott at one point in a conversation with me made light of 
the fact that he was supposed to sign FEC reports, but I think there 
were reports that were passed on that he did not sign.
    Question. Did he tell you why that was?
    Answer. I don't remember that, the context of why it was.
    Question. Did you have any conversations with other colleagues 
about whether Mr. Pastrick was signing or not signing FEC reports?
    Answer. No.
    Mr. Pierson. Off the record.
    [Discussion off the record.]

                       EXAMINATION BY MR. WILSON:

    Question. Back on the record.
    Have you ever met Mark Middleton?
    Answer. I have.
    Question. When did you first meet Mr. Middleton?
    Answer. I first met Mr. Middleton in the course of the 1992 
Presidential campaign. We both served on the fund-raising staff for the 
Clinton for President. My position was in the mid-Atlantic region. Mark 
was the director of fund-raising in the State of Arkansas. We probably 
first met either at a national event we did for fund-raisers here in 
Washington or June or at the convention in July.
    Question. Do you know whether Mr. Middleton was affiliated with the 
DNC in 1996?
    Answer. I believe he was not.
    Question. Did Mr. Middleton, do you know whether he was asked to 
serve on the 1996 finance board of directors?
    Answer. I believe he may have been.
    Question. Do you know whether he actually did serve on the finance 
board of directors?
    Answer. I don't believe so.
    Question. Did you have any discussions with him about whether he 
would or would not serve on the '96 finance board of directors?
    Answer. Not that I recall.
    Question. Do you recall whether Mr. Middleton did any fund-raising 
for the DNC in the 1996 election cycle?
    Answer. I recall that he was--when Truman Arnold served as finance 
chair, he and Mark, he and Mr. Middleton had a close association from 
Arkansas. Mr. Arnold asked Mr. Middleton to assist in some fund-raising 
efforts when Mr. Arnold was chairman. But I don't recall--what was the 
last part of the question?
    Question. I think that is pretty responsive right there. Did Mr. 
Middleton assist in organizing any fund-raising events in the '96 
election cycle?
    Answer. Not that I know of.
    Question. After Mr. Middleton left the White House, he formed a 
business called CommerceCorp. Did you ever visit Mr. Middleton in his 
business place?
    Answer. I did not.
    Question. Did Mr. Middleton ever contact you to request assistance 
on behalf of clients or associates of his?
    Answer. No.
    Question. Did anybody else from Mr. Middleton's office ever contact 
you to request assistance?
    Answer. No.
    Question. When Mr. Middleton worked at the White House, did Yusuf 
Khapra ever contact you to arrange for assistance on behalf of any 
matter brought to your attention?
    Answer. Not that I recall.
    Question. Do you know Yusuf Khapra?
    Answer. Not well, but I know him, yes.
    Question. When did you first meet him?
    Answer. Sometime during my service at the DNC, I believe in 1994, 
during that year.
    Question. Did he ever contact you for any reason?
    Answer. My recollection is that he worked with Brian Bailey in 
setting up the meetings regarding--that I described earlier, and that 
was the context of our contact, was to invite me to the meetings and 
make me aware of them.
    Question. Did you ever receive any contacts in 1995 to provide 
assistance to the Widjaja family?
    Answer. The what?
    Question. The Widjaja family. Did anybody ever contact you and 
mention the Widjaja family that you know of?
    Answer. Not that I recall.
    Question. I provide the witness with a document, a memorandum to 
Richard Sullivan and Mr. Swiller from Anne Braziel, marked DNC 1809003. 
Take just a moment to look through those.
    This memorandum is undated, and it is the only copy that has been 
provided to us. Do you recall ever having received this memorandum?
    Answer. It does not look familiar.
    Question. Are you able to tell me the year, date of the memo?
    Answer. I am not.
    Question. The first sentence of the memorandum is that Mark 
Middleton spent some time with me and pledged to help in raising money.
    Assuming that that is Anne Braziel he spent some time with, do you 
recall having any conversations with Anne Braziel about Middleton 
pledging to help raise money?
    Answer. It sounds familiar.
    Question. Do you recall whether he ever did provide any assistance 
in giving you names of potential donors to the DNC?
    Answer. Not that I had direct contact on. But Mark, having 
previously assisted in fund-raising, we were, you know, requesting of 
him to help--I requested him to help from time to time on some 
additional efforts. Like when I described earlier, Mr. Arnold brought 
him in to assist.
    Question. Do you recall having conversations with any DNC 
colleagues about Mr. Middleton providing names for telephone 
solicitations?
    Answer. I don't remember those conversations, no.
    Mr. Wilson. I will mark this document Exhibit AS-2 for the record.
    [Swiller Deposition Exhibit No. AS-2 was marked for 
identification.]

                       EXAMINATION BY MR. WILSON:

    Question. Did you ever have any conversations that involved the 
Sinar Mas delegation or Sinar Mas entity?
    Answer. No.
    Question. Do you know what Sinar Mas is?
    Answer. No.
    Question. Do you know whether Mark Middleton ever raised funds for 
the DNC or any political party outside of the United States?
    Answer. This will help, maybe. I don't recall Mark ever raising 
money in the last 2 years I worked with him, meaning from when Mr. 
Arnold brought him. So globally I have no knowledge of him ever raising 
money.
    Question. That does help. I can't take away quite as many as the 
last time, but that does help.
    When did you first meet Charlie Trie?
    Answer. Sometime after I rejoined the DNC in 1993. Sometime in 
1994. I don't recall the first meeting.
    Question. Do you remember who introduced you?
    Answer. I don't. I very well may have introduced myself, being that 
I was the director of the trustee program. Mr. Trie was a member of the 
program, and I had not met him yet. I may have introduced myself or 
been introduced by someone. I don't remember the context.
    Question. Do you remember when you first solicited a contribution 
from Mr. Trie?
    Answer. I don't recall ever soliciting contributions from Mr. Trie.
    Question. I show the witness a document which is marked Bates 
Number DNC 3078818, and the title is ``DNC Finance Executive Summary.''
    Mr. Pierson. For the record, Counsel, it shows an apparent date in 
the upper left-hand corner of 12-3-96.

                       EXAMINATION BY MR. WILSON:

    Question. If you could, explain what the terms ``solicitor'' and 
``fund-raiser'' mean in this, in the context of this document?
    Answer. One of the areas we filled out in our AS400 sheet for 
assistance in tracking was a solicitor. If someone made the request of 
a donor to make a contribution that was in the context of trustee, 
membership could be allocated by money raised. So this was an area that 
tracked that.
    Fund-raiser was the contact or the individual person who received 
the check, filled out the form, and submitted it.
    Question. Is it fair to say that if you received--if somebody 
transmitted a check to you and you filled out the tracking form, that 
you would generally be listed as the fund-raiser for that event?
    Answer. For that event?
    Question. The event being the filling out of the tracking form for 
the particular receipt of that check.
    Answer. If I filled out a form, I put my name as the fund-raiser.
    Question. Do you recall any conversations with Mr. Mays on the 
contributions given by Mr. Trie in 1994?
    Answer. I don't.
    Question. Do you know Richard Mays?
    Answer. I do.
    Question. When did you first meet Mr. Mays?
    Answer. I believe I met him during the 1992 campaign cycle.
    Question. The entry on this document indicates that--actually it 
doesn't indicate anything. It states, health care campaign.
    Could you provide a little bit of explanation of what the health 
care campaign entry on this document means?
    Mr. Pierson. Counsel, for the record, it says 1994 health care 
campaign.
    Mr. Wilson. Correct.
    The Witness. We had different efforts constantly going for raising 
money. It could be a gala event that was upcoming, it would be, as this 
indicates, the health care campaign effort. If it was a topical effort 
at the time and the contribution wasn't made in direct correlation to 
an event, they would attribute it to the issue that we were raising 
money for at that time.

                       EXAMINATION BY MR. WILSON:

    Question. Who would make the decision to allocate it to one area or 
another area?
    Answer. It tended to be made either by the fund-raiser or the 
finance director.
    Question. Do you recall in this example why the money contributed 
by Mr. Trie was allocated to the health care campaign in 1994?
    Answer. I don't recall.
    Question. Do you recall whether all funds that you received that 
were not designated to go to a particular source were allocated to the 
health care campaign in 1994?
    Mr. Pierson. Could you repeat the question again? I am sorry, I 
think there was a double part. Could you ask it again, please?

                       EXAMINATION BY MR. WILSON:

    Question. Sure. Was all money that was not allocated to a certain--
was not designated by the contributor to go to a certain account 
allocated to the health care campaign in 1994?
    Answer. I don't know. I don't know that it was or was not.
    Question. Do you recall the dates that contributions were accepted 
for the 1994 health care campaign account? Maybe instead of just being 
quite so obtuse, if you could just explain what the 1994 health care 
campaign was. Was that literally a separate account into which money 
would go?
    Answer. I don't believe it was a separate account. I believe it was 
separate internal accounting, but I believe all the contributions were 
to the Democratic National Committee campaign--I mean Democratic 
National Committee bank accounts. I don't think there were separate 
accounts. I think internally, just for our accounting, we had separate 
designations.
    Question. Is it fair to say the money wasn't segregated into one 
particular place? The check would be deposited into a general account?
    Answer. That would be my understanding of it.
    Question. Do you recall whether there ever were any separate 
designated accounts into which checks were deposited? And I am asking 
for at any time during your working at the DNC.
    Answer. My knowledge of accounts were there was a DNC Federal 
account, DNC non-Federal account, corporate account, there may have 
been a PAC non-Federal account. But those are the different accounts I 
recall.
    Question. Do you recall any specific issue accounts, for example, 
health care campaign or media fund purchases or anything?
    Mr. Pierson. You are talking about bank accounts or internal 
accounts?
    Mr. Wilson. I am talking about bank accounts.
    The Witness. As I stated earlier, my knowledge of accounts is what 
I laid out. This designation is not referring to a separate bank 
account, I don't think. My knowledge of seeing this is it was a 
separate internal account within the finance department for internal 
tracking. That would be my understanding of reading it today.

                       EXAMINATION BY MR. WILSON:

    Question. On this format, the end of the lines, indicating 
contributions to the health care campaign, there are what appear to be 
codes. One is F-01 and the other is N-03. Do you know what those mean?
    Answer. I don't know for certain, but my understanding would be 
that these were probably personal, as it says in the top right corner, 
individual contributions. So there is a $20,000 limit that an 
individual can give to a party in a year. So that was probably, then 
the ``F'' would mean the Federal account, and then the remaining money 
would be designated, I assume, non-Federal and would be put into a non-
Federal account. That would be my read of it.
    Question. Do you know what the numerals mean after the letters?
    Answer. No.
    Question. Do you know whether there was a system for providing 
codes of this sort with a meaning?
    Answer. I know that you needed to designate Federal from non-
Federal money. Other than that, I am not familiar with how accounting 
is done.
    Question. Is this a number that you would have entered on the check 
tracking form?
    Answer. No. It may have been required to enter in certain cases if 
it was a Federal or non-Federal contribution, but I never made these 
designations.
    Mr. Wilson. I will mark this document Exhibit AS-3 for the record.
    [Swiller Deposition Exhibit No. AS-3 was marked for 
identification.]

                       EXAMINATION BY MR. WILSON:

    Question. What was the health care campaign?
    Answer. As you may recall, the President had an initiative to 
reform health care. Internally, we thought that we may be able to, for 
lack of a better word, like spice up our fund-raising if we talked 
about a certain initiative that was going on that the committee was 
supporting. So the campaign fund then became sort of a reaction to 
that.
    Mr. Wilson. If we could go off the record for just a moment.
    [Brief Recess.]

                       EXAMINATION BY MR. WILSON:

    Question. Back on the record.
    I will show the witness a document which is marked DNC 3078820. The 
heading is DNC Finance Executive Summary, date 12-3-96.
    Have you ever met Mr. Trie's wife, Mrs. Wang Mei Trie?
    Answer. Not that I recall.
    Question. Again, you are listed on this document as the fund-raiser 
for a contribution of $20,000 from Mrs. Trie. Did you have any contacts 
with her about this contribution?
    Answer. Not that I recall.
    Question. Do you know who the solicitor of this contribution was?
    Answer. It is not listed here, and I don't recall the contribution 
or the transaction of it.
    Mr. Wilson. I will mark this document Exhibit AS-4.
    [Swiller Deposition Exhibit No. AS-4 was marked for 
identification.]

                       EXAMINATION BY MR. WILSON:

    Question. Did you attend the June 22nd, 1994, Presidential gala, 
DNC gala?
    Answer. Yes, I did.
    Question. Did you contact Mr. Trie regarding a $100,000 
contribution that he gave to the DNC in May of 1994?
    Answer. I don't recall that contact, no.
    Question. Do you recall discussing Mr. Trie's attendance at the 
1994 gala?
    Answer. No, I don't. Discussing----
    Question. With Mr. Trie.
    Answer. No, I don't.
    Question. Do you recall having discussions with any of your 
colleagues about Mr. Trie's attendance at the gala in 1994?
    Answer. I don't.
    Question. Were you ever asked to provide a recommendation for Mr. 
Trie for an apartment that he was attempting to be the renter of at the 
Watergate?
    Answer. I did not. I don't recall that. It doesn't sound familiar.
    Question. Did you know that David Mercer and Susan Levine had been 
asked to provide a recommendation for Mr. Trie?
    Answer. Not that I recall.
    Question. Did you ever attend any events at Mr. Trie's apartment in 
the Watergate?
    Answer. Never.
    Question. Did you ever speak with Martha Shoffner regarding Mr. 
Trie's move to Washington?
    Answer. I am not familiar with that individual.
    Question. Have you ever met Martha Shoffner?
    Answer. Not that I recall.
    Question. Do you recall having any contacts with Mr. Trie in 
relation to the August 1994 Presidential birthday fund-raiser?
    Answer. No, I do not.
    Question. I would like to provide a document for the witness. It is 
marked DNC 1275756. It is a memorandum to Martha Shoffner from David 
Mercer. It does not have the witness' name on it. I would ask you to 
just take a moment to look through the content of this memo.
    The memo discusses a meeting between Mr. Mercer and Mr. Trie in 
1994. Did you attend this meeting?
    Answer. Not that I recall, no.
    Question. Did you ever attend any meetings with Mr. Trie in the 
accompaniment of Mr. Mercer?
    Answer. Not that I recall.
    Question. The memo refers to a number of events or subjects, and I 
just want to very quickly ask you a few questions about some of the 
referenced issues.
    In the first paragraph, there is a reference to a meeting before 
Mr. Trie left for Beijing. Did you ever discuss with Mr. Trie any 
travels that he took?
    Answer. Not that I recall.
    Question. Were you aware in 1994 that Mr. Trie was planning to 
travel to Beijing?
    Answer. Not that I recall, no.
    Question. And the fourth paragraph of this memorandum discusses a 
request for a letter inviting Mr. Trie to serve on the finance board. 
Were you ever a participant in any discussions about Mr. Trie becoming 
a member of the finance board at the DNC?
    Answer. I was in discussions on the finance board as it relates to 
Mr. Trie. Individually, I don't have a specific recollection of 
specific conversations regarding it.
    Question. Who was in charge of determining who would be on the 
finance board of directors?
    Answer. It was a collective effort of DNC staff.
    Question. And who were the staff?
    Answer. It would be Ms. Hardigan, Richard Sullivan, David Mercer, 
Erica Payne, Peter O'Keefe. Any of the fund-raising staff, up to 20 
individuals.
    Question. Were you involved in that process?
    Answer. Yes, I was.
    Question. Were there any prerequisites for becoming a member of the 
finance board of directors?
    Answer. There weren't prerequisites, but we were going to ask 
members to see if they could raise above the limit--not limit, above 
the threshold for the trustee program; we were going to ask them to 
raise I believe it was $350,000 in a year.
    Question. Do you know whether Mr. Trie made a request to be put on 
the finance board of directors?
    Answer. I don't recall that. It was not made to me, but there was a 
request made.
    Question. The fifth paragraph of this memorandum discusses a 
mission to China, and it refers to a Commerce Department mission to 
China which was to commence on August 27th, 1994.
    Did you have any discussions with Mr. Trie about his participating 
in this Commerce Department mission to China?
    Answer. Not that I recall, no.
    Question. Did you know at the time that there was going to be a 
Commerce Department mission to China?
    Answer. I know there has been one. I don't recall when I became 
aware of it.
    Question. Do you recall any conversations or discussions about this 
particular Commerce Department mission to China?
    Answer. No, I don't.
    Question. Do you recall whether you made any telephone 
conversations on behalf of Mr. Trie about this trade mission to China?
    Answer. Not that I----
    Mr. Pierson. Made or had?
    Mr. Wilson. Made.
    Mr. Pierson. Telephone calls on behalf of Mr. Trie?
    Mr. Wilson. Yes.
    The Witness. Not that I recall, no.

                       EXAMINATION BY MR. WILSON:

    Question. Were you involved in any conversations by telephone or in 
person during which Mr. Trie's interest in any type of trade mission or 
foreign trip with American governmental employees was discussed?
    Answer. Not that I recall.
    Question. Did you ever discuss Mr. Trie's financial contributions 
with anybody at the White House?
    Answer. Not that I recall, no.
    Mr. Wilson. Just to back up for a moment, I will mark the document 
we are discussing, Exhibit AS-5, for inclusion in the record.
    [Swiller Deposition Exhibit No. AS-5 was marked for 
identification.]

                       EXAMINATION BY MR. WILSON:

    Question. Have you ever met an individual named Ng Lap Seng, also 
known as Mr. Wu?
    Answer. No, not that I recall.
    Question. Have you ever had any telephone conversations with Mr. Ng 
Lap Seng?
    Answer. No, I have not.
    Question. Do you recall whether Mr. Trie was ever invited to become 
a member of the finance board of directors?
    Answer. I believe he was. My recollection is he was.
    Question. Do you know an individual named Ernest Green?
    Answer. I do.
    Question. When did you meet him first?
    Answer. I believe I met him upon my return to the DNC, subsequent 
to that, sometime in 1994.
    Question. Do you know Jude Kearney?
    Answer. I am sorry?
    Question. Do you know Jude Kearney, K-E-A-R-N-E-Y?
    Answer. I know him, yes.
    Question. Have you met Mr. Kearney in person?
    Answer. Yes, I have.
    Question. And where have you met him?
    Answer. In the '92 cycle, as I stated earlier, I was a fund-raiser 
in the mid-Atlantic region. At that time Mr. Kearney was based in D.C., 
and I believe I met him in events and he assisted in some fund-raising 
efforts.
    Question. Did Mr. Kearney, after you first met him in, I believe 
you said 1992, did he obtain a job with the government in Washington?
    Answer. That is my recollection, that he did.
    Question. Do you know where he was working after 1992?
    Answer. I believe it was either the Commerce Department or at the 
Treasury Department.
    Question. Did you attend a breakfast with Mr. Green, Mr. Kearney, 
Mr. Trie, and Mr. Ng Lap Seng in October of 1994 at the Hay-Adams 
Hotel?
    Answer. Not that I recall, no.
    Question. Do you know Allen Weinstein?
    Answer. The name is not familiar.
    Mr. Lu. Was that Allen or Ellen?
    Mr. Wilson. Allen.

                       EXAMINATION BY MR. WILSON:

    Question. Do you know Nancy Jacobson?
    Answer. Yes, I do.
    Question. Who is Ms. Jacobson?
    Answer. She was my supervisor in 1992 when I worked on the Clinton 
campaign. She was again the finance director of the Inaugural Committee 
when I served as the deputy finance committee. We stayed friendly while 
I lived in Washington, but I have not spoken to her since approximately 
6 months or longer.

                       EXAMINATION BY MR. WILSON:

    Question. Do you know where she works?
    Answer. My last knowledge of her employment was that she was 
employed individually, working for herself on a contract basis.
    Question. Does she have a connection with an organization called 
Center for Democracy?
    Answer. Not that I'm aware of. Not that I know of.
    Question. Do you know of an organization called Center for 
Democracy?
    Answer. It's a familiar name, yes.
    Question. Do you know what it does?
    Answer. I do not.
    Question. Have you ever discussed the activities of Center for 
Democracy with Mr. Trie?
    Answer. Not that I recall.
    Mr. Pierson. Have you ever discussed contributions that Mr. Trie 
might or--might have made or might have been considering making to the 
Center for Democracy?
    Answer. Not that I recall.
    Question. Did you participate in setting up a meeting between Mr. 
Trie, Winston Bank and Chairman Fowler in 1995?
    Answer. Not that I recall.
    Question. Did you ever participate in any discussions with Mr. Trie 
about setting up a chapter of an organization called Democrats Abroad 
in Taiwan?
    Answer. Not that I recall.
    Question. Do you know of an organization called Democrats Abroad, 
based in Taiwan?
    Answer. I know of an organization called Democrats Abroad, but not 
one based in Taiwan, no.
    Question. What is Democrats Abroad?
    Answer. Just that. It's registered Democrats who are abroad for 
work in countries throughout the world.
    Question. Is it an organization that's independent of the DNC?
    Answer. That's my understanding, yes.
    Question. Did you assist with organizing a fund-raiser in November 
of 1995 at the Car Barn in Washington, D.C.?
    Answer. What was it?
    Mr. Pierson. November of 1995. November 8, 1995.
    The Witness. Not that I recall.

                       EXAMINATION BY MR. WILSON:

    Question. Did you ever have any discussions with Mr. Trie about an 
individual named Wang Jun, W A-N-G, J-U-N, attending a Presidential 
coffee?
    Answer. Not that I recall, no.
    Question. Have you ever had--have you ever met a Wang Jun?
    Answer. I have not.
    Question. Have you had any conversations with him?
    Answer. I have not.
    Question. Do you know who he is?
    Answer. I don't.
    Question. How many times do you recall being contacted by Mr. Trie 
or one of his representatives in 1995 and 1996?
    Answer. I don't recall one contact.
    Question. You don't recall any contacts at all?
    Answer. That's correct, I don't recall any.
    Question. Have you ever met an individual named Antonio Pan?
    Answer. Not that I recall, no, the name is not familiar.
    Question. Do you know whether Mr. Trie was ever invited to use the 
President's box at the Kennedy Center?
    Answer. Not that I know.
    Question. Just generally speaking, was Mr. Trie considered a member 
of the Trustee Program?
    Answer. Yes. The time I was there, he was.
    Question. And covering the entire time you were employed by the 
DNC, do you recollect, and this is personally, any interaction with Mr. 
Trie at all?
    Answer. I saw Mr. Trie at some of our events. I think that was the 
limit of our interaction. He may have stopped by the DNC--he did stop 
by the DNC a few times where I would say hello, chat with him for a few 
minutes. But I was primarily not a major contact of his at the DNC, so 
I didn't have many conversations with him.
    Question. Who did Mr. Trie contact at the DNC?
    Answer. My recollection is that the majority of his contacts were, 
I believe, with Mr. Mercer.
    Question. Do you know whether he had contacts with Mr. John Huang?
    Answer. Whether who did?
    Question. Mr. Trie.
    Answer. I have no knowledge if he had contacts or not.
    Question. Do you know of any situations in which Mr. Trie contacted 
any members of your staff?
    Answer. Meaning Ms. Braziel, Ms. Burke?
    Question. Correct.
    Answer. Not that I recall, no.
    Mr. Wilson. I'm providing the witness with a document which is 
marked F 0015575. It's dated, or at least there is a number at the top, 
7-21. It says, ``Notes for Ari.''

                       EXAMINATION BY MR. WILSON:

    Question. And if you would, there's an arrow pointing to an entry 
about halfway down the page?
    Answer. Uh-huh.
    Question. It's an arrow that was on the document as produced to us, 
and it says, ``Charlie Trie has 4 SP and 2 WH,'' dash, dash, ``is this 
right? I''--question mark. ``I thought it was 4 total,'' question mark.
    Do you know what this means?
    Answer. My understanding what this document looks like is--it was 
regarding the events at the convention. Anne Braziel, myself, Nancy 
Burke worked in coordinating some of the hotel accommodations for 
trustees at the convention. Two of the hotels that we worked with were 
Sutton Place and the Whitehall Hotel in Chicago. So my read of this 
would be that, as it says, Charlie Trie has four Sutton Place rooms and 
two Whitehall rooms. Is that right? I thought he only had four rooms. 
That was her--this looks like a document that would have been put 
together by Ms. Braziel. She was sort of coordinating the hotel efforts 
hand on.
    Question. Do you recall providing any assistance for Mr. Trie at 
the convention?
    Answer. Not as an individual; provided assistance to trustees 
collectively. I don't recall specific assistance to Mr. Trie.
    Question. Do you know whether he made any requests of you--of you?
    Answer. Not that I have knowledge of that I recall, no.
    Question. Did he make any requests of any of the people that you 
were working with at the convention?
    Answer. Well, it looked, from this document, it looks like he made 
hotel requests, which we probably assisted him with. Other requests are 
not familiar to me.
    Mr. Wilson. This document is marked Exhibit AS-6.
    [Swiller Deposition Exhibit No. AS-6 was marked for 
identification.]

                       EXAMINATION BY MR. WILSON:

    Question. Did Mr. Trie ever discuss his desire for appointment to a 
commission or board, a Federal commission or board, with you?
    Answer. I don't recall any discussion about this.
    Question. Do you know of any conversations in which Mr. Trie's name 
was brought up in conjunction to possible appointment in a commission 
or a board?
    Answer. Not that I recall, no.
    Question. Did you know that Mr. Trie was interested in being 
appointed to a Federal commission or board?
    Answer. I think I've learned that information subsequent to the 
campaign in some of the news accounts of it, but not that I recall.
    Question. Did you ever have any discussions about Mr. Trie with the 
White House Office of Presidential Personnel?
    Answer. Not that I recall, no.
    Question. Do you know whether either yourself or any individuals in 
your office were contacted by the White House Office of Presidential 
Personnel about Mr. Trie?
    Answer. I don't recall any contacts, no.
    Question. Do you know of anybody else at the DNC who was contacted 
about Mr. Trie by the White House Office of Presidential Personnel?
    Answer. Not that I recall or have any knowledge of, no.
    Question. Do you know of Mr. Trie ever making a contribution to the 
DNC before 1994? And I'm just asking you, when--I mean, the question 
really should be, do you recall when Mr. Trie first made a contribution 
to the DNC?
    Answer. My recollection is that Mr. Trie was a member of the 
Trustee Program and returned to the DNC. Whether that was through 
contributions or funds raised, I don't recall.
    Question. Have you ever met an individual named Tony Shsu, S-H-S-U?
    Answer. Not that I recall, no.
    Question. Have you ever heard of an organization called the Chy 
Corporation, C-H-Y Corporation?
    Answer. No.
    Question. Do you know Pauline Kanchanalak?
    Answer. Yes, I do.
    Question. When did you first meet Ms. Kanchanalak?
    Answer. I believe I met her in the '92 campaign, somewhere when I 
was serving as a fund-raiser in the Mid-Atlantic region.
    Question. Do you recall where you met her?
    Answer. I don't recall the circumstances of meeting her. I know 
that she was involved with some of the events in some of the fund-
raising we did in the D.C. metro area.
    Question. Do you recall whether she was a contributor, a financial 
contributor, in 1992?
    Answer. That would be my, in retrospect, reflection now, my 
understanding why I would have met her, because she was a contributor.
    Question. Did Ms. Kanchanalak or her sister-in-law Mrs. Kronenberg 
or any of her employees ever contact you or anyone in your office while 
you were an employee at the DNC?
    Answer. The second time or any time?
    Question. Actually, let's--we'll break that down. The first time 
you were at the DNC, and I'll ask you----
    Answer. I believe I had some contacts with her during the time. I 
don't recall the context of them. But she was an individual who we may 
have asked her to participate. I can't remember the contacts because I 
didn't do that year, but I don't know.
    Question. And turning to the second stint, your second stint at the 
DNC, do you recall whether she or her sister-in-law or any of her 
employees contacted you?
    Answer. I did have some contact with Pauline and with Ms. 
Kronenberg.
    Question. And do you remember the context of any of those contacts?
    Answer. I remember few. One was a request by Ms. Kanchanalak to 
attend a luncheon that the White House was hosting with the Queen of 
Thailand. She wanted to be--she requested me to assist her in being 
included in that event. I recall discussing with her an upcoming White 
House event which she was going to receive an invitation to. And I had 
a--my final contact with her was subsequent to the '96 election. She--
we had a discussion about her contributions to the DNC at which time 
she inferred that they were not her contributions, but her mother-in-
law's contributions.
    Question. Do you recall whether you ever arranged for Ms. 
Kanchanalak to meet with administration officials?
    Answer. Not that I recall, no.
    Question. Was it ever brought to your attention that Ms. 
Kanchanalak had an interest in the Bureau of Labor Statistics and 
becoming somehow involved with the Bureau of Labor Statistics?
    Answer. I don't recall that at all.
    Question. Did you ever organize lunches for any DNC contributors at 
the White House Mess?
    Answer. I was aware that some lunches were attended by donors, but 
I'm trying to recall when I participated in setting them up, and I 
don't.
    Question. Do you have any recollection of--of Ms. Kanchanalak or 
Ms. Kronenberg attending a White House Mess luncheon?
    Answer. Not that I recall, no.
    Mr. Wilson. I provide the witness with a document which is marked F 
0040590. It's a memorandum to Mr. Swiller from Georgie Kronenberg, 
dated May 11, 1995.
    Mr. Pierson. My I make a suggestion that we mark the exhibit when 
you first identify the document. That way we will have a number we can 
refer to.
    Mr. Wilson. Certainly. I'll mark this exhibit as AS-7.
    Mr. Pierson. Thank you.
    [Swiller Deposition Exhibit No. AS-7 was marked for 
identification.]

                       EXAMINATION BY MR. WILSON:

    Question. The part that I'm particularly interested in is the 
postscript at the very end of the memoranda which states, ``On a 
different matter, please let me know the amount to reimburse you for 
the luncheon at the White House Mess which Susan Lavine has kindly 
organized for us.''
    Mr. Pierson. Have we established whether or not he's seen this 
before?
    Mr. Wilson. I was just about to ask.

                       EXAMINATION BY MR. WILSON:

    Question. Are you familiar with this document, that exhibit?
    Answer. It's not familiar to me. But----
    Question. Do you recognize there's a handwritten notation on the--
towards the top of the first page that says, ``File,'' and that's 
underlined?
    Answer. Yes.
    Question. Is that your handwriting?
    Answer. It looks like it is, yes.
    Question. Do you have any recollection of any discussions about Ms. 
Kronenberg providing reimbursement for a White House Mess lunch?
    Answer. It--it's not familiar, no.
    Question. Do you know how--how you would have resolved the request 
that is made in the postscript? Do you recall passing this along to 
somebody else's attention?
    Answer. No, I don't.
    Question. Did you ever have any involvement with people's 
reimbursements for White House mess lunches that you remember?
    Answer. No, I don't.
    Mr. Wilson. I have a document which is marked Exhibit AS-8, which 
is provided to the witness. It's a memorandum to the file. It's been 
premarked F 0018925. It's from Mr. Swiller, and it's regarding a 
conversation with Ms. Kanchanalak.
    [Swiller Deposition Exhibit No. AS-8 was marked for 
identification.]
    Mr. Pierson. Can I see the last document, please, just for a 
moment?
    Thank you. Sorry.
    Mr. Wilson. Sure.

                       EXAMINATION BY MR. WILSON:

    Question. The memo refers to a telephone conversation that you had 
with Ms. Kanchanalak on November 14, 1996. Do you know--assuming that 
the--the information contained is correct, did you, in fact, call Ms. 
Kanchanalak?
    Answer. My recollection is she called me.
    Question. And do you know why she called you?
    Answer. Yeah. The context of this memo, she had received some calls 
about contributions that were being indicated that she had made to the 
Party. She indicated to a reporter that they were, indeed, not her 
contributions, but that of her mother-in-law. I guess that became an 
issue because in our FEC reports or in our internal reporting, it was 
reflected that the contributions were under Pauline's name and not 
Praitun's name, which I believe is the name of her mother-in-law. So 
this was then a conflict which was brought to the attention of our 
press department, brought to the attention of our counsel, and my 
conversation clearly states, you know, the context of it--this document 
states the context of the conversation.
    Question. Do you know whether Ms. Kanchanalak called anybody else 
at the DNC before you to impart the information contained in this memo?
    Answer. Not that I have knowledge of, no.
    Question. Okay. Do you know whether she had any subsequent 
conversations with other DNC employees about the issues discussed in 
this memorandum?
    Answer. Not that I know of, no.
    Question. Do you know why she called you?
    Answer. I believe she had tried to call a few people at the DNC, 
and some others may not have been available. And I doubt if I was 
available. And the fact that I had been one of the many contacts of the 
DNC, she called me as well.
    Question. Prior to your telephone conversation on November 14th 
with Ms. Kanchanalak, were you under the impression that contributions 
that she had conveyed to you were made by her?
    Answer. That was very clearly my understanding, yes, that the 
contributions she made were her contributions.
    Question. Had she ever told you that the contributions were made by 
her?
    Answer. I don't recall that as a topic of discussion in specific, 
no.
    Question. Did Ms. Kanchanalak, during the discussion on November 
14, make any reference to Ms. Kronenberg's contributions and the source 
of Ms. Kronenberg's contributions?
    Answer. Not that I recall, no.
    Question. Do you know whether the memo that we're reviewing now 
embodies all of the things that Ms. Kanchanalak and you discussed, or 
were there other matters that you discussed during the telephone 
conversation?
    Answer. No, I believe this covers--the memorandum pretty well 
covers the conversation, yes.
    Question. Did you ever, subsequent to your telephone conversation 
with Ms. Kanchanalak on November 14, '96, did you review her past 
contributions to the DNC?
    Answer. Yes.
    Question. Did you prepare a memorandum or any written work product 
that came from that review?
    Answer. I don't recall written work product, no.
    Question. Did you discuss this conversation with anybody else at 
the DNC?
    Answer. Yes.
    Question. And who did you talk with at the DNC about your November 
14 conversation?
    Mr. Pierson. Counsel, the DNC is not represented here. You may be 
inquiring into frivolous conversations, and the privilege may be 
waived, but we're in a position where, if this--if you're asking about 
conversations with counsel for the DNC, I'm going to have to instruct 
the witness that he's going to have to decline to describe the content 
in order to reserve the privilege. It's not ours, but it's also not 
ours to waive.
    Mr. Wilson. I understand.
    Mr. Pierson. So any conversations you had with any lawyer for the 
DNC about this subject, you can describe who you talked to and that 
this was the subject, but beyond that, we'll assert the privilege.
    Okay. Can you answer the question?
    The Witness. I had a conversation with the counsel.

                       EXAMINATION BY MR. WILSON:

    Question. And the counsel is?
    Answer. Joseph Sandler.
    Question. Did you have any conversations with anybody else at the 
DNC about your conversation with Ms. Kanchanalak?
    Answer. As I recall, I had conversation with Mr. Sullivan and Ms. 
Supina, S-U-P-I-N-A.
    Question. In your conversations with Mr. Sullivan and Ms. Supina, 
did they indicate to you whether they were under the expression that 
Ms. Kanchanalak was making the contributions personally?
    Answer. Yes, they were under the same impression I was, that her 
contributions were made personally.
    Question. Now, subsequent to the conversation, you indicated that 
you did check into Ms. Kanchanalak's previous contribution history. Did 
you accumulate any materials at this time?
    Answer. I recall reviewing some of the past check tracking forms 
that were attached to contributions she had made, yes.
    Question. Did you create a file and put the information into a--
into an individual file?
    Answer. I don't recall the creation of a file. I recall reviewing 
the documents.
    Question. The document we're reviewing now is--has a title which is 
``Memorandum to the File.'' Do you recall where it--where you put this 
document after you had drafted it?
    Answer. I--my recollection is that I submitted it to our legal 
counsel.
    Question. Did you keep a copy of this document for your own files?
    Answer. I believe I may have, yes, as I said earlier, and it would 
have been in the files under ``trustee donor,'' so I probably put it in 
the Kanchanalak file.
    Question. Did you provide a copy of this document to anybody else 
at the DNC, apart from Mr. Sandler?
    Answer. I may have--as I recall, I reviewed the document with Mr. 
Sullivan, but I don't recall providing him an individual copy.
    Question. Did you transmit this document to anybody outside of the 
DNC, give it to anybody outside of the DNC?
    Mr. Pierson. Other than counsel?
    The Witness. No.

                       EXAMINATION BY MR. WILSON:

    Question. When you looked back over Ms. Kanchanalak's previous 
contribution history, did you come across any indication of the 
material that she communicated to you during your conversation on 
November 14th, any indication that she had communicated to anybody that 
she would not be making the contributions in her own name?
    Answer. No, I did not.
    Question. When--when Ms. Kanchanalak mentioned to you that she had 
made an arrangement with Mr. Riser during----
    Mr. Pierson. Raiser.
    Mr. Wilson. Raiser. Thank you.

                       EXAMINATION BY MR. WILSON:

    Question [continuing]. During the 1992 campaign, did she tell you 
whether this was communicated to anybody else at the time?
    Answer. My recollection is that she indicated it was just a 
discussion between the two of them, and that was the limit of the 
communication.
    Question. And do you know what position Mr. Raiser had in 1992?
    Answer. Mr. Raiser was one of the two finance cochair's for the 
Clinton for President campaign. He was based in Washington, D.C.
    Question. Now, you've indicated that you had discussions with Mr. 
Sandler about your telephone conversation from November 14th. What did 
you tell Mr. Sandler?
    Mr. Pierson. We have to assert the privilege. And it's--it's only 
because we're preserving it for the DNC. It's not our privilege to 
waive.
    Mr. Wilson. So it's fair to assume that anything related to the 
context of Mr. Sandler will be covered by--you will assert privilege 
over it at this time?
    Mr. Pierson. Yes, on this topic.
    Mr. Wilson. Sure.
    Mr. Pierson. And I should tell you that there are circumstances on 
the Senate side in which the DNC has waived the attorney/client 
privilege, but since I don't know what those are, and I don't know what 
the attitude towards the House side is----
    Mr. Wilson. Right.
    Mr. Pierson.--I just have to preserve the privilege.
    Mr. Wilson. Certainly.

                       EXAMINATION BY MR. WILSON:

    Question. Have you had any subsequent conversations or 
conversations subsequent to November 14 of 1996 with Ms. Kanchanalak?
    Answer. No, I have not.
    Question. Do you know where she called from? The memo says 
Thailand, but do you know where in Thailand she called from?
    Answer. No I don't.
    Question. Did she indicate to you whether she intended to return to 
the United States at any time?
    Answer. I don't recall that being part of the discussion.
    Question. Did she discuss with you why she was in Thailand?
    Answer. I don't recall that either.
    Question. After the November 14 conversation, did you communicate 
the contents of the telephone conversation to Ernst & Young, the 
accounting firm conducting the background review of campaign 
contributions?
    Answer. As I stated earlier, I don't recall having any contact 
whatsoever with any member of Ernst & Young.
    Question. Do you know whether anybody else at the DNC communicated 
the contents of your telephone conversation with Ms. Kanchanalak to 
Ernst & Young?
    Answer. Not that I have knowledge of.
    Question. Did you discuss with Mr. Sullivan or Ms. Supina whether 
anybody should communicate the contents of your telephone conversation 
with Ms. Kanchanalak to Ernst & Young?
    Answer. That was never part of a discussion as I recall.
    Mr. Pierson. Can I have just 2 minutes to talk to Minority counsel 
just outside in the hallway? It will take 2 minutes.
    Mr. Wilson. Yes, if we can go off the record.
    [Discussion off the record.]
    [Brief recess.]
    Mr. Wilson. Back on the record, please.

                       EXAMINATION BY MR. WILSON:

    Question. Do you know John Huang?
    Answer. Yes.
    Question. When did you first meet Mr. Huang?
    Answer. I believe I first met Mr. Huang during the 1992/93 
Inaugural Committee, my service there.
    Question. When did you first hear about Mr. Huang?
    Answer. Probably prior to that, part of my responsibility is we're 
coordinating lists of the top fund-raisers and contributors for--across 
the country, for the finance department of the Inaugural Committee. I 
believe that's when I probably first ran across the name.
    Question. Did you ever have any contacts with Mr. Huang while he 
was employed by LippoBank in California?
    Answer. Not that I recall, no. Let me restate. I believe that my 
contacts with him during the Inaugural, my understanding is that he may 
still at that time have been an employee of the bank.
    Question. Were--were those social contacts, or did you have any 
fund-raising contacts with him?
    Answer. He assisted in a contribution that I believe came from the 
LippoBank or from him for part of the events going on during the 
Inaugural Committee, so--as far as fund-raising, that was the context 
of it.
    Question. Did you speak with anybody regarding Mr. Huang's 
appointment to the--his position at the Commerce Department?
    Answer. Not that I recall, no.
    Question. Did you have any contacts with Mr. Huang while he was at 
the Commerce Department?
    Answer. I don't recall the specific conversations, but I believe I 
did have a contact with him.
    Question. Did he contact you this period?
    Answer. I believe I made the initial outreach to Mr. Huang in the 
context of my returning to the DNC in '93, '94.
    Question. And if you could describe in more detail the reason for 
your contacting him?
    Answer. Mr.--My--there are two contacts. My recollection is that 
Mr. Huang had been a fund-raiser for the '92 campaign effort. I called 
him, I believe, to secure from him any names that I may then reach out 
to in the context of my position at the DNC, and also his wife was a 
contributor to the party at that time, but lived in California. So I 
may have made contacts to him in reference to his wife's participation 
with the party.
    Question. Did you--have you ever communicated directly with Mr. 
Huang's wife?
    Answer. I have met her. I've talked to her.
    Question. Where have you met her?
    Answer. I met her at functions in Washington, galas.
    Question. Did you ever seek Mr. Huang's assistance in setting up 
meetings while he was at the Department of Commerce?
    Answer. Not that I recall.
    Question. Did you ever contact Mr. Huang about arranging for 
individuals' participation in trade missions while he was at the 
Department of Commerce?
    Answer. Not that I recall.
    Question. How did Mr. Huang come to be hired as a fund-raiser at 
the DNC?
    Answer. I only know what I've learned in the last few months. I 
don't--didn't know the context then. So if you want me to reflect upon 
what I----
    Question. If you would. What do you know now about Mr. Huang's 
coming to be hired as a fund-raiser at the DNC?
    Mr. Lu. And you want his recollection even if it's from news 
accounts?
    Mr. Wilson. Well, I would like to know what he knows now, yeah.
    Mr. Lu. Okay.
    The Witness. As I said, my recollection is what I've heard in the 
news, that Mr. Huang was brought to the attention of Mr. Sullivan by I 
believe it was Mr. Ickes or someone else that he was someone interested 
in assisting in fund-raising.

                       EXAMINATION BY MR. WILSON:

    Question. Were you aware of--of Mr. Huang meeting with individuals 
at the DNC just prior to his being hired at the DNC as a fund-raiser?
    Answer. No. I--not that I recall.
    Question. Did you ever see him over at the DNC prior to his being 
offered the position as a fund-raiser of the DNC?
    Answer. Not that I recall, no.
    Question. Did Mr. Huang ever visit you at the DNC?
    Answer. Prior----
    Question. Prior to his becoming a member of the fund-raising staff?
    Answer. Not that I recall, no.
    Question. Did you ever visit Mr. Huang at the Department of 
Commerce?
    Answer. No I did not.
    Question. Did Mr. Huang ever speak with you about his becoming a 
member of the fund-raising staff at the DNC prior to his becoming a 
member of the fund-raising staff?
    Answer. Not that I recall.
    Question. When Mr. Huang was hired by the DNC, did you ever have 
discussions with him about fund-raising staff training?
    Answer. He and I individually?
    Question. Yes.
    Answer. Not that I recall, no.
    Question. Did you ever have any discussions with Mr. Huang about 
the law as it applies to fund-raising in political campaigns?
    Answer. Not that I recall.
    Question. Do you know whether he was given instructions on the law 
as it pertains to fund-raising and political campaigns?
    Answer. I don't recall his specific tutoring of those laws. We, on 
a--maybe once a year, as a finance staff got together and briefed in a 
group. But I don't know of John receiving any specific individual 
instruction on the law.
    Question. Do you recall ever--do you recall ever attending any 
seminars or instructional meetings about the law and campaign financing 
with Mr. Huang?
    Answer. I don't recall if Mr. Huang was at any of them. My 
recollection would be that he would be, because the whole staff was 
invited to them. But Mr. Huang traveled a bit, so I don't know if he 
was at the ones which I attended.
    Question. Did Mr. Huang ever seek your advice or counsel on any 
campaign contributions that he was soliciting?
    Answer. No, he did not.
    Question. Did he--did he ever discuss with you--did he ever discuss 
with you your fund-raising activities?
    Answer. Not that I recall, no. He--but--I was being the director of 
the Trustee Program, he may have had individuals who he solicited 
contributions that made them trustees, then he would then provide 
myself with those names. That would sort of be the context.
    Question. Aside from the transmission of the name and the check and 
basic information about the contributor, did you have any discussions 
with Mr. Huang about any individuals who were being solicited for 
campaign contributions?
    Answer. No, not that I recall.
    Question. Do you remember whether he ever sat down with you and had 
a conversation about what he was doing as a fund-raiser at the DNC?
    Answer. I don't recall it.
    Question. Do you recall whether you called him and asked him things 
about--how his job was going or what he was doing as fund-raiser for 
the DNC?
    Answer. I don't recall that type of conversation.
    Question. Is it--is it fair to characterize, then, your 
recollection is not having any contacts with Mr. Huang at all on any 
substantive issues while he was employed at the DNC?
    Answer. We had social contacts, but substantive, that's correct.
    Question. Do you know anything about Mr. Huang's compensation at 
the DNC?
    Answer. Only what I've read subsequent to the campaign in the news.
    Question. Prior to November of 1996, did you know anything about 
Mr. Huang's compensation?
    Answer. I remember knowing that he was a compensated employee and 
wasn't in the position as a volunteer, but I didn't know the sum that 
he was being compensated.
    Question. Did you know--did you know whether there was an agreement 
to supplement his compensation, depending on how much--how many 
contributions he raised?
    Answer. I had no knowledge of that. If I had, I would have asked 
for it for myself.
    Question. Were you ever involved with Mr. Huang in setting up fund-
raising events?
    Answer. The only context I can think of was when we worked--when 
the finance staff as a team worked on the large gala. He and I directly 
on one specific event, no, there was never an occasion with just the 
one of us.
    Question. And that was the 1996 gala that you're referring to?
    Answer. Yes.
    Question. Were you aware of any controversy within the DNC 
regarding Mr. Huang's being involved in setting up events that included 
the President?
    Answer. Not prior to November of '96.
    Question. Did any of your DNC colleagues have discussions with you 
about Mr. Huang's job performance while he was a fund-raiser at the 
DNC?
    Answer. Not that I recall, no.
    Question. Did you ever have any communications with White House 
employees during which you discussed Mr. Huang's performance as a DNC 
fund-raiser?
    Answer. No, I don't recall any.
    Question. Did you have any conversations with any employees of 
other executive branch agencies during which you discussed Mr. Huang's 
fund-raising responsibilities?
    Answer. No, not that I recall.
    Question. Did Mr. Huang ever request you to provide him with lists 
of contacts in order for him to approach people to solicit donations?
    Answer. I believe it--we may have discussed a list of California 
contributors, but I don't recall him requesting contacts from me to 
provide them.
    Question. Did you ever provide him with any information?
    Answer. I believe we had a discussion on who were active trustee 
participants from California, since he had participated in that region.
    Question. Did you send him anything written following this 
discussion?
    Answer. I may have provided him a copy of the State lists for 
California of trustees.
    Question. Did Mr. Huang specifically request information about 
California?
    Answer. I can recall that being a--a discussion in the context that 
he had been active in California fund-raising prior.
    Question. Did you ever send Mr. Huang a list of all of the trustees 
or managing trustees at any time when he was a fund-raiser at the DNC?
    Answer. No, not that I recall.
    Question. Do you know whether he ever requested such a list?
    Answer. I have no recollection of such request.
    Question. Did--are you aware of any contacts between Mr. Huang and 
any of the individuals that you have named as being part of your office 
staff?
    Answer. No, I'm not aware of contacts.
    Question. Did Mr. Huang ever share any information with you? Did he 
ever provide you with a list of individuals or names?
    Answer. I don't recall ever getting names from him.
    Question. Do you recall ever receiving any information from Mr. 
Huang?
    Answer. As I mentioned earlier, in the context of being a trustee 
director and providing people that made the requisite contribution, 
that was the context, I believe, the information he provided me.
    Question. Did he ever provide anything other than a check and a 
check tracking form, if indeed he provided you that? I mean, did you 
receive checks and check tracking forms from Mr. Huang?
    Answer. No. I never received checks from Mr. Huang. I don't 
remember the format he used to provide the names and addresses. They 
may have been photocopies of check tracking forms, or he may have typed 
out a list, but I don't recall.
    Question. Now, why would Mr. Huang have occasion to provide any 
information to you?
    Answer. All fund-raisers provided the trustee department with 
information of, you know, as I stated earlier, people who had raised 
the requisite amount of money or contributed, so that they were 
correctly listed, properly listed on our trustee list. So in that 
context, he would have had provided that information.
    Question. Did he send you the check tracking forms of all of the 
people that he solicited contributions from?
    Answer. No, he did not.
    Question. Did he--did he send you check tracking forms from a 
number of individuals from whom he solicited contributions?
    Answer. As I stated earlier, I don't recall how he provided the 
information for the trustee lists, whether it was photocopies of 
tracking forms or if it was a typed list. People provided that 
information to my department both ways. Some just gave us an additional 
photocopy, others would do a more thorough-type list, and I don't 
remember how John, Mr. Huang provided that information.
    Question. Do you recall whether he ever provided for you additional 
biographical information on any individuals?
    Answer. I don't recall that.
    Question. Did you ever participate in any discussions with DNC 
colleagues about whether Mr. Huang was providing information sufficient 
to provide the FEC with the required information on campaign donors?
    Answer. I don't recall such discussion. I don't recall.
    Question. Do you know whether Mr. Huang traveled out of the United 
States while he was employed as a fund-raiser at the DNC?
    Answer. I have since read about that since the November election, 
but prior to that I did not know that.
    Question. Do you recall any discussion about Mr. Huang traveling 
prior to--and this--this I'm asking for your recollection. Prior to 
November 1996, do you recall any discussions relating to Mr. Huang and 
his travel schedule?
    Answer. No, I don't recall any.
    Question. Do you know who would have approved Mr. Huang's travel 
requests?
    Mr. Pierson. Any travel requests?
    Mr. Wilson. Correct.
    The Witness. No, I--in the context of how I would do it, it would 
be the finance chairman or the finance director. I don't know if it was 
the same for John, but I--I don't know how he had his travel approved.

                       EXAMINATION BY MR. WILSON:

    Question. And does your answer indicate that that's the process 
that you would follow----
    Answer. Un-huh.
    Question [continuing]. When you were seeking----
    Answer. Correct.
    Question [continuing]. Travel approval?
    Answer. Correct. The process I assume most finance staff proceeded 
with.
    Question. What did you have to do to obtain approval for travel?
    Answer. Generally, you didn't have to obtain it, you were told that 
you were going somewhere, so you needed to just fill out a form that 
was then submitted to the person who had purchased the tickets with 
your times and dates of departure.
    Question. Do you know whether Mr. Huang ever solicited 
contributions--strike that question, please. was there a system at the 
DNC to keep track of how much individual fund-raisers raised?
    Answer. I don't know if there was a system set up for that, but you 
could run that, my understanding, through the AS400. And as we looked 
at documents earlier, where it said ``fund-raiser,'' you could, I 
believe, sort by that field and get a list run of who was involved in 
raising what funds.
    Question. Do you recall ever seeing a list of the aggregate 
contributions raised by Mr. Huang?
    Answer. No, I don't recall ever seeing that.
    Question. Did you ever print up for yourself a list of the 
aggregate contributions for which you were named as the fund-raiser?
    Answer. I would have to request that, because I wasn't familiar 
with running the lists on the AS400 system.
    Question. Did you ever request that for yourself? And I'm speaking 
about for yourself as the fund-raiser, not Mr. Huang at all. But did 
you ever request that you run a list of all of the contributions that 
you were listed as the fund-raiser of?
    Answer. I never requested it. I recall seeing one, but it was not 
at my request.
    Question. Where did you see the one that you recall seeing?
    Answer. I believe Ms. Stirk may have had a copy of it.
    Question. Do you know if she--why she would have had a copy of it 
such a list?
    Answer. I don't recall. No.
    Question. Do you know whether spreadsheets indicating aggregate 
contributions produced by individual fund-raisers were printed up for 
everybody?
    Answer. I have no knowledge of that.
    Question. The printout that you just mentioned with aggregate 
contributions wherein you were listed as the fund-raiser, did that 
include all of the years for your employment as a fund-raiser at the 
DNC?
    Answer. I believe it was--as I recall, it was in--sometime in '95, 
so it included the year and a half prior to it.
    Question. Did anybody at the DNC ever tell you that Mr. Huang might 
be accepting contributions from non-U.S. citizens?
    Answer. No. I don't recall ever having such a discussion.
    Question. Did anybody from outside the DNC ever tell you that Mr. 
Huang might be accepting contributions from non-U.S. citizens?
    Answer. Not that I recall, no.
    Question. Do you recall any discussions during which it was 
suggested that Mr. Huang might be accepting contributions from non-U.S. 
citizens?
    Answer. No. I don't recall it.
    Question. Do you recall when you last had personal contact with Mr. 
Huang?
    Answer. I believe it was sometime during the summer of '96.
    Question. Did you ever visit him in his offices when he was a DNC 
fund-raiser?
    Answer. As I recall, he did not have an office. It was sort of in a 
cubicle area. And I may have visited him and seen other people or--but 
I don't recall him having a physical office space.
    Question. Where was the cubicle located?
    Answer. My recollection is it's in the basement level of the DNC.
    Question. And where was your office?
    Answer. On the third floor.
    Question. And the cubicle that Mr. Huang used, what office was it 
attached to? Or who was--who had the other cubicles around that 
cubicle?
    Answer. The--what we call like the road staff, the road fund-
raisers, people who travel in and out from events around the country. 
There was an area where they had a desk for a little while while they 
were in town .
    Question. Were you aware if Mr. Huang had an office at another 
location in Washington?
    Answer. I was not aware of that.
    Question. Do you know if anybody at the DNC has been in contact 
with Mr. Huang subsequent to November of 1996?
    Answer. I don't know of any contacts.
    Question. Have you had any contacts with Mr. Huang since November 
of 1996?
    Answer. I have not.
    Question. Did you ever have any discussions with Mr. Huang as to 
why he left the Department of Commerce?
    Answer. I don't recall such a discussion.
    Question. Did you ever express any concern to either Mr. Huang or 
DNC colleagues about a fund-raiser at the Sheraton Carlton Hotel in 
Washington, D.C., that Mr. Huang was an organizer of?
    Answer. I don't recall the event.
    Question. Did you know of the event at the time?
    Answer. It does not sound familiar.
    Question. Were you aware of Mr. Huang's participation in organizing 
a fund-raiser at the Shilla temple in California? Were you aware prior 
to 19--to November of 1996 about this particular fund-raising event?
    Answer. I was not.
    Mr. Wilson. I've provided the witness with a document which has 
been marked exhibit AS-9. It was premarked with a Bates number that was 
cut off in the copying process, not cut off by us, but cut off by the 
people that copied it before it was transmitted to us. Its Bates Number 
begins DNC 312837, and then the other numbers are obscure. It's titled 
``DNC Finance Executive Summary,'' and there's a handwritten notation 
on the bottom.
    [Swiller Deposition Exhibit No. AS-9 was marked for 
identification.]

                       EXAMINATION BY MR. WILSON:

    Question. Do you recognize the handwriting on this?
    Answer. I do.
    Question. You do.
    Answer. Uh-huh.
    Question. And whose handwriting is that?
    Answer. To me it looks like the handwriting of mat Gobush Matt 
Gobush.
    Question. And who is Mr. Gobush?
    Answer. He had served at some--for some time as the staff assistant 
for the trustee program.
    Question. What is the TRULIST?
    Answer. It would it would be trustee list. My recollection would be 
an abbreviation for trustee list.
    Question. And do you know why this notation has been written on 
this document?
    Answer. No, I don't recall.
    Question. Was--was Mr. Huang a member of the Trustee Program prior 
to his going to the Department of Commerce?
    Answer. My recollection was that he was on the trustee list when I 
returned to the DNC in November of--in December of '93.
    Question. And do you recall whether his name was taken off the 
trustee list?
    Answer. I recall that he may have--in looking at this, he may have 
lapsed as a trustee, because he did not maintain the level of 
contribution or fund-raising necessary to be a trustee. So, you know, 
it would lead me to think that this was then--he was then deleted from 
the trustee list, because he was no longer an active participant at the 
requisite level.
    Question. Do you know if anybody contacted him to attempt to obtain 
from him requisite contributions to get him back on the trustee roster?
    Answer. Not that I recall.
    Question. When--when Mr. Huang was an employee of the DNC, were you 
aware of whether he had any relationship with Charlie Trie?
    Answer. I did not know if they had or did not have a relationship.
    Question. Do you know whether they ever had worked together on a 
fund-raising issues?
    Answer. Not that I'm--not that I have specific knowledge of, no.
    Question. Did Mr. Trie in any of his conversations with you ever 
mention Mr. Huang to you?
    Answer. Not that I recall, no.
    Question. Did Mr. Huang in any conversations with you mention Mr. 
Trie?
    Answer. No, not that I recall.
    Question. I would like to go off the record if we could.
    [Discussion off the record.]
    [Lunch recess, 1:00 p.m.]

                       EXAMINATION BY MR. WILSON:

    Question. If we could go back on the record, please.
    Have you ever met Johnny Chung?
    Answer. I have.
    Question. And where have you met Mr. Chung?
    Answer. I met him at a few events we did while I was at the DNC, 
and I also met him when he came to the DNC. I visited with him there. I 
also paid a visit to his office in California.
    Question. When did you visit his office in California?
    Answer. It was while I was working on an event in California in 
spring, I think either late March-April of 1995.
    Question. And why did you visit his office?
    Answer. I was responsible for a fund-raiser that we were working on 
in California, in Los Angeles, so I was contacting all of the trustees 
who had been supportive in the past, trying to get their support for 
that event, or to identify other individuals who may also want to be 
supportive.
    So in that context, I contacted all the trustees on the list, and 
Johnny was one of many who I visited with.
    Question. What was the fund-raiser that you were working on?
    Answer. We did a high dollar couples events at the home of Steven 
Spielberg that the President attended. The contributions were made to 
the DNC for those who attended.
    Question. And when you visited Mr. Chung, what did you discuss at 
his office?
    Answer. I remember discussing a few things. I remember he had an 
office that had pictures of Mr. Chung and every elected official I 
think since Lincoln on the walls, Republican and Democrat, and I mean 
we discussed the fund-raiser. I remember he was bringing additional 
couples and I told him that that would require additional contributions 
for the event.
    Question. Do you recall how much Mr. Chung contributed to that 
event?
    Answer. My recollection is he made one individual check 
contribution of $125,000.
    Question. And how many individuals did he take as guests to that 
fund-raiser?
    Answer. I believe total there were three couples, he and his wife 
included.
    Question. When you visited him at his office, was it a few days 
before the fund-raiser you are speaking of, or was it well in advance 
of the fund-raiser you are speaking of?
    Answer. I was only in California about two weeks prior to the 
event, and it was in that time frame, so in the two weeks prior.
    Question. Did Mr. Chung ever visit you in your office at the DNC?
    Answer. Yes, he did.
    Question. And approximately how many occasions did Mr. Chung visit 
you in your office?
    Answer. We had--no visits were necessarily scheduled for me. He 
would come to the DNC on occasion by himself or with a few individuals 
and would stop by. So I would say maybe three or four times that he 
stopped by my office to say hello while he was visiting the DNC.
    Question. On these occasions, did he ever bring other individuals 
with him?
    Answer. On a couple I recall he did.
    Question. Who did he bring with him on the visits he made to your 
office?
    Answer. I remember him--I don't remember the individuals, but I 
remember him identifying them as being partners of his or business 
associates.
    Question. And did he discuss what their businesses were?
    Answer. Not that I recall, no.
    Question. Do you have any general recollection of what the 
individuals that came with him to your office did for a living?
    Answer. I don't.
    Question. Approximately how many contributions--actually, if you 
could, just describe the various contributions that you solicited from 
Mr. Chung?
    Answer. I don't recall other contributions that I solicited 
directly from him. That was the major contribution that I was involved 
with. There are other people who worked with Mr. Chung. I am trying to 
think--I don't remember dates and other contributions, that is one that 
sticks out, the one I described earlier.
    Question. Who else at the DNC worked with Mr. Chung?
    Answer. Mr. Sullivan, Mr. Fowler, Mr. Fowler's executive assistant, 
Carol Khare. Those were the primary contacts.
    Question. Do you know whether Mr. Chung ever contacted members of 
the staff in your office?
    Answer. No, I believe he dealt with me in my department.
    Question. Did you keep a trustee file for Mr. Chung?
    Answer. I am sure it was included with the other members of the 
trustees, yes.
    Question. Do you recall the contents of this file?
    Answer. I assume like other files, it would have, as I discussed 
earlier, copies of checks, tracking forms, a bio. If we sent letters or 
correspondence to him, we may have kept a record of those.
    Question. Do you recall whether you kept any photographs of Mr. 
Chung with other dignitaries?
    Answer. I don't recall keeping any photographs at all of any 
individuals, so I don't think I would have any.
    Question. Did you, prior to November of 1996, have any misgivings 
about Mr. Chung as a contributor?
    Answer. No, I did not.
    Question. Had you ever asked anybody to perform any background 
research on Mr. Chung?
    Answer. Not that I recall, no.
    Question. Did you ever receive any background research about Mr. 
Chung?
    Answer. I don't recall that.
    Question. From other offices?
    Answer. No, I don't recall ever receiving any.
    Question. How frequently would you communicate with Mr. Chung?
    Answer. It was sporadic. I tended to communicate with him closer to 
an event that may be in California that he would be interested in 
participating in, and at that time I could contact him maybe two or 
three times in the weeks prior. Other than that, it was infrequent. 
Once every other month would be a high number, I think.
    Question. I have a document which I will mark Exhibit AS-10.
    [Swiller Deposition Exhibit No. AS-10 was marked for 
identification.]

                       EXAMINATION BY MR. WILSON:

    Question. I will provide that for the witness. It is a memorandum 
to Richard Sullivan from David Mercer, and it is a list that had been 
requested purportedly by Mr. Sullivan for a Vice Presidential luncheon 
on 9-21, which is presumably 1994. The document is dated September 14, 
1994.
    It mentions that this is a pool of some of the best raisers and 
writers to draw from.
    Do you recall ever having seen this document?
    Answer. I do not.
    Question. Was there a list kept of the more significant 
contributors or the best campaign solicitors from outside of the DNC 
staff that you were aware of in the DNC?
    Answer. Not to my knowledge, no.
    Question. Did colleagues of yours at the DNC have any discussions 
with you about Mr. Chung and mention to you that he was one of the 
better or best fund-raisers from amongst contributors to the DNC?
    Answer. We discussed that he made large contributions. I don't 
recall him being much of a fund-raiser.
    Question. Are you aware of Mr. Chung ever soliciting contributions 
from anybody else?
    Answer. Not that I can recall, no.
    Question. Is it fair to say then that your interactions with him 
led you to believe that he was contributing money merely himself and 
not soliciting funds from anybody else?
    Answer. Correct.
    Question. Did you ever have any concerns that funds contributed by 
Mr. Chung might not be his own funds?
    Answer. No, I did not.
    Question. Did you ever have any conversations where anybody else at 
the DNC expressed concerns that funds contributed by Mr. Chung might 
not be his own funds?
    Answer. No, not that I can recall.
    Question. Did you ever have any conversations with anybody outside 
of the DNC about Mr. Chung's fund-raising contributions?
    Answer. Not that I can recall, no.
    Question. Do you have any recollections of whether anybody at the 
White House ever contacted you to ask you any questions about Mr. 
Chung?
    Answer. No, not that I can recall.
    Question. Do you know whether anybody from any of the Executive 
Branch agencies contacted you and asked questions about Mr. Chung?
    Answer. I don't recall that.
    Question. Do you recall any instances where Mr. Chung asked you to 
do anything for him?
    Answer. No, I don't recall specific instances. I recall--Johnny--
Mr. Chung was always concerned with receiving photographs of events, so 
he was always calling after events to get--to expedite sort of getting 
him photographs of himself with the dignitary at the event. But those 
were the events that come to mind.
    Question. Did you ever help to arrange for Mr. Chung to meet with 
any administration employees?
    Answer. No, not that I recall.
    Question. Did you ever receive any requests from Mr. Chung about 
government trade missions?
    Answer. No, I did not.
    Question. Did Mr. Chung ever mention John Huang to you?
    Answer. I don't recall that in any conversation, no.
    Question. Do you recall whether you ever made any requests of any 
White House employees on behalf of Mr. Chung?
    Answer. No, not that I recall.
    Question. Were you aware in 1995 that Mr. Chung and a number of 
Chinese businessmen attended a Presidential radio address?
    Answer. I have subsequently found out about it, but at the time I 
didn't. I don't have a recollection of knowing about it.
    Question. Do you recollect any conversations wherein somebody else 
might have mentioned Mr. Chung's attendance at a radio address with the 
President?
    Answer. No, I don't.
    Question. In the subsequent knowledge that you have gained about 
this particular event, did you know--do you know any of the individuals 
that Mr. Chung attended the radio address with?
    Answer. No, I don't.
    Question. Had you ever met any of those individuals?
    Answer. I may have, but none of the names are familiar to me.
    Question. Were you aware of any requests being made by anybody at 
the DNC of the National Security Council about Mr. Chung?
    Answer. No, I was not.
    Question. Did anybody ever mention to you prior to November of 1996 
that Mr. Robert Suettinger had once described Mr. Chung as a hustler?
    Answer. No.
    Question. Were you ever aware that--did anybody ever suggest to you 
that Mr. Chung had ever been approached by either White House or DNC 
employees in conjunction with contributions to retire debts from the 
White House Christmas party?
    Answer. That is not something I am familiar with, no.
    Question. I am providing the witness with a document marked Exhibit 
AS-11.
    [Swiller Deposition Exhibit No. AS-11 was marked for 
identification.]

                       EXAMINATION BY MR. WILSON:

    Question. This is addressed to Mr. Johnny Chung. It is dated August 
21, 1995, and the signature blocks are those of Richard Sullivan and 
Mr. Swiller, and the text of the letter is one sentence: ``Thought you 
would be interested in the enclosed.'' Do you have any recollection of 
signing this letter?
    Answer. I don't.
    Question. Do you have any recollection of this letter at all?
    Answer. No.
    Question. This takes me away from Mr. Chung for a moment, but did 
you keep copies of signed letters in your files?
    Answer. On occasion. As I referred to earlier, and this may be a 
case of it, we would send letters accompanying photographs from events 
that were DNC-sponsored events in which donors would attend the event 
with the President. This may be such a case where enclosed items were 
photographs.
    Question. Did you personally keep a correspondence file of all the 
correspondence that you sent out to individuals?
    Answer. I didn't, because the scale was so high, and, you know, it 
was letters like these which really were one sentence, two sentence 
letters. It would have been, I think, a wasteful exercise.
    Question. What types of signed correspondence would you keep?
    Answer. I would once in awhile keep similar correspondence like 
these or letters of invitation to an event. I would sometimes keep 
those on file because people would sometimes say they never received 
them and I could refer back to the reference point.
    Mr. Lu. Before we move away from this document, I think all of us 
concede the document is unsigned. I just want the record to be clear 
that is an unsigned letter and there has been no testimony it was even 
sent out.

                       EXAMINATION BY MR. WILSON:

    Question. Were you aware or have you ever been aware that Mr. Chung 
spoke with Richard Sullivan about going on a trade mission to China 
with Commerce Secretary Ron Brown?
    Answer. That is not something that is familiar to me, no.
    Question. I am providing the witness with a document marked Exhibit 
AS-12, which is a March 1, 1995 dated document to Kathleen from Richard 
Sullivan/Ari Swiller.
    [Swiller Deposition Exhibit No. AS-12 was marked for 
identification.]

                       EXAMINATION BY MR. WILSON:

    Question. Do you recall ever having seen this document before?
    Answer. I don't recall it.
    Question. The memo refers to a planned meeting between--or a 
meeting requested by Mr. Chung. Do you know whether this meeting ever 
took place?
    Answer. I can't say for certain.
    Question. Did you typically prepare briefing materials for Chairman 
Fowler or any other DNC employees involving meetings with individuals 
who were trustee members?
    Answer. Yes.
    Question. Do you recall ever participating in any meetings with Mr. 
Chung and Chairman Fowler?
    Answer. I can--there is one that comes to mind, yes.
    Question. Do you remember when that meeting was?
    Answer. I believe it was sometime in 1995. I don't remember the 
exact date.
    Question. And what was discussed at that meeting?
    Answer. The reason why it comes to mind, I remember Mr. Chung 
informing Mr. Fowler that he was going to make a personal effort to try 
to win the freedom of a gentleman named Harry Wu, I believe--Henry Wu 
or Harry Wu. At the time he had become imprisoned and it was a 
highlighted case by the Chinese government.
    Question. And do you recall what Mr. Fowler said in this meeting?
    Answer. I don't recall what he said to Mr. Chung. I recall 
afterwards we were sort of in disbelief at Mr. Chung's idea that he 
could play a role. But I am sure, you know, Mr. Fowler was pleasant in 
his conversation with him.
    Question. Do you have a recollection of the sense of what was 
communicated to Mr. Chung?
    Answer. I am sure Mr. Fowler thanked him for his support of the DNC 
and wished him luck in his endeavors, but I don't recall any offer of 
support from the DNC, because we never got involved in those sorts of 
affairs.
    Question. Do you know whether Mr. Fowler told Mr. Chung that the 
DNC would not be supportive of Mr. Chung's endeavors?
    Answer. I think it was understood. I don't remember him directly 
saying that.
    Question. Do you know if Mr. Chung met with Richard Sullivan and 
Chairman Fowler at any time in 1995 at the White House mess?
    Answer. I don't have recollection of such a meeting, no.
    Question. You had mentioned earlier that Mr. Chung had made--I 
should ask you this, because I don't recall exactly what you said. But 
did Mr. Chung ever contact you specifically about obtaining photographs 
that had been taken with himself and other individuals?
    Answer. Yes, he did.
    Question. Did he ever contact you in regard to photographs that 
were taken of himself and business associates at the Presidential radio 
address?
    Answer. No, he did not, that I recall.
    Question. Do you recall which photographs he did contact you about?
    Answer. The photographs I recall being requested were ones in 
connection to the event where I solicited the contribution from Mr. 
Chung at the home of Mr. Spielberg.
    Question. Do you recall any other requests from Mr. Chung about 
photographs?
    Answer. No, that is the one that comes to mind.
    Question. Did Chairman Fowler or Richard Sullivan ever request that 
you find photographs involving Mr. Chung?
    Answer. Not that I can recall, no.
    Question. Did you ever provide photographs for Mr. Fowler or 
Chairman Dodd or Mr. Sullivan for their review prior to their being 
sent out to individuals?
    Answer. Not as far as Mr. Fowler or Mr. Dodd. On occasion if I 
couldn't identify certain people in a group of photos I was given, I 
would ask Mr. Sullivan for his input on who they might be. But I don't 
recall ever being requested to provide them with photos, no.
    Question. I will ask the same question for after photographs have 
been sent out. Did anybody after the fact ask you to find a photograph 
or track down a photograph that had been sent out previously to an 
individual for purpose of reviewing the photograph?
    Answer. ``Anyone'' meaning?
    Question. I apologize, ``anyone'' meaning Chairmen Dodd, Fowler, or 
Mr. Sullivan?
    Answer. Mr. Sullivan may have. I don't recall requests like that 
ever coming from Mr. Fowler or Mr. Dodd.
    Question. Do you know an individual whose name is Sheng Huaren, S-
H-E-N-G H-U-A-R-E-N?
    Answer. The name is not familiar to me, no.
    Question. Are you familiar with the China Everbright Group?
    Answer. I am not.
    Question. Do you recall whether you have ever heard that name 
before?
    Answer. I don't recall hearing it before, no.
    Question. Do you recall ever having heard the name of a Mr. Qiu 
Qing, which is spelled Q-I-U Q-I-N-G?
    Answer. No, I don't recall that name.
    Question. Have you ever met Roger Tamraz?
    Answer. Yes, I have.
    Question. Where have you met Mr. Tamraz?
    Answer. I met Mr. Tamraz for the first time at the Democratic 
National Committee.
    Question. Was this the convention or a meeting?
    Answer. At the committee. At the headquarters.
    Question. Okay. And what was the occasion of meeting Mr. Tamraz?
    Answer. I had, as my department often did, sent solicitations to 
businesses across the country informing individuals and corporations 
about the program and encouraging them to support it. In response to 
that, I received a call from a partner of Mr. Tamraz who indicated to 
me that he or his partner were interested in participating at the 
trustee or possibly the managing trustee level and wanted to come to 
Washington to discuss that.
    Since the level is high, they had offered to come to Washington, I 
asked to set up a meeting with Mr. Fowler at the DNC. The person who 
came representing the company was Mr. Tamraz, and that is the first 
time I met or spoke to him, was when he came to the DNC.
    Question. The initial contact from Mr. Tamraz or his associate, 
what was the form of that contact?
    Answer. They phoned me.
    Question. And do you recall when Mr. Tamraz came and met with you?
    Answer. It was in July of 1995.
    Question. How long was the meeting after the telephone call took 
place?
    Mr. Pierson. Are you talking about the meeting in Chairman Fowler's 
office?

                       EXAMINATION BY MR. WILSON:

    Question. No, let me clarify this, because I don't want to muddy 
this issue. Is it correct to say that you met with Mr. Tamraz, just the 
two of you the first time?
    Answer. That is not correct.
    Question. Okay. Just if you could, just explain. Mr. Tamraz came in 
and met with yourself and other individuals. Who were the other 
individuals?
    Answer. His initial meeting was with myself and Chairman Fowler, 
and after that meeting, there was immediately following a follow-up 
meet with myself and Mr. Tamraz which Mr. Pastrick attended part of.
    Question. And the first meeting, where did that occur?
    Answer. In Mr. Fowler's office at the Democratic National 
Committee.
    Question. And where did the second meeting occur?
    Answer. It occurred in an office adjacent to mine that was used--
that was set aside for the finance chairman.
    Question. Did you ever prepare any memoranda about the initial 
meeting with Mr. Tamraz?
    Answer. I don't recall in this case the memoranda I proposed for 
this meeting, but it was customary that I did provide a little bit of 
information.
    Question. I will provide the witness with a document which was 
marked Exhibit AS-13. If you could take a minute just to look at this.
    [Swiller Deposition Exhibit No. AS-13 was marked for 
identification.]
    Mr. Pierson. For the record, counsel, this is several documents. 
The first one is DNC 3116350. The last one is DNC 3116355. They appear 
to be sequential.
    Mr. Wilson. Just to clarify, it appears the last two pages of the 
document may be out of sequence, 55 followed by 54. I just want to 
check that you have the same.
    Mr. Pierson. Mine are in sequence.
    Mr. Wilson. Okay.
    [Discussion off the record.]

                       EXAMINATION BY MR. WILSON:

    Question. The first page of that which I provided you has just the 
handwritten notation ``Roger Tamraz'' on it. Do you recognize this 
writing?
    Answer. I do not.
    Question. Turning your attention to the document marked DNC 
3116354, which is a memo from Mr. Sullivan, Mr. Swiller, to Roger 
Tamraz, it discusses contributions and the date is March 28th, 1996. Do 
you recall preparing this memorandum?
    Answer. I recall being asked for the information on this 
memorandum, correct.
    Mr. Pierson. That wasn't what he asked you. He asked you whether 
you prepared it.
    The Witness. I don't believe I prepared this memorandum.

                       EXAMINATION BY MR. WILSON:

    Question. Did you supply the information that is in this 
memorandum?
    Answer. Yes.
    Question. Who asked you for that information?
    Answer. My recollection is that Mr. Sullivan did.
    Question. Did you keep records of contributions that Mr. Tamraz 
made to organizations other than the DNC?
    Answer. Yes, I did.
    Question. And for what purpose did you keep such records?
    Answer. To keep a sum of contributions Mr. Tamraz made to 
Democratic affiliated campaigns.
    Question. Who provided you with this information?
    Answer. In the case of a lot of these contributions, Mr. Tamraz 
forwarded them to the DNC office.
    Question. What did Mr. Tamraz forward to the DNC office?
    Answer. The contributions.
    Question. And by that do you mean he actually forwarded a check 
directly to the DNC office?
    Answer. Correct.
    Question. And in situations like that, what would the DNC do with 
those things?
    Answer. They tended to be sent to the entity that they were 
directed to with an accompanying letter.
    Question. Were records of those contributions kept by the DNC?
    Answer. I believe in some cases they were, yes.
    Question. And how were the records kept?
    Answer. My recollection is that there was a list comprised by a 
woman named Theresa Stark of contributions sent to DNC that were for 
entities that weren't the DNC.
    Question. Do you know whether this information was entered in the 
AS 400 computer database?
    Answer. I don't know for certain, no.
    Question. Did Mr. Tamraz ever discuss with you campaign 
contributions?
    Answer. Yes, he did.
    Question. Did you have discussions about campaign contributions to 
entities other than the DNC?
    Answer. Yes, I did.
    Question. Did you provide any recommendations as to whom he should 
make campaign contributions?
    Answer. Yes, I did.
    Question. Why did you--the campaign contributions, just referring 
to the ones on the memorandum we are examining, the March 28, 1996 
memorandum, why did you suggest that Mr. Tamraz contribute to the 
entities listed on this memo?
    Answer. I don't recall the exact conversation on the ones that sit 
on this memo.
    Question. Had you ever received instructions from any other DNC 
employees as to where campaign contributions might be made?
    Answer. From Mr. Tamraz?
    Question. From anybody, other than the DNC.
    Answer. Yes, I did.
    Question. Who would give those instructions?
    Answer. The ones I recall were either Mr. Fowler or Mr. Sullivan.
    Question. Did you ever receive any memoranda that outlined these 
types of instructions?
    Answer. Not that I can recall, no.
    Question. Is your recollection that the communications you had were 
solely verbal?
    Answer. Yes, that is correct.
    Question. Did you discuss these particular contributions with Mr. 
Tamraz?
    Answer. The ones listed on the memorandum?
    Question. Yes.
    Answer. I don't recall a specific discussion of these.
    Question. Did you forward this memorandum to Mr. Tamraz?
    Answer. I did not forward it to him.
    Question. Do you know whether Mr. Sullivan is responsible for 
forwarding this to Mr. Tamraz?
    Answer. My only recollection is he requested some of the 
information. I don't know if it was then forwarded.
    Question. Do you know why it was suggested that he provide a 
contribution to the Virginia Democratic Party?
    Answer. I recall there being a request that he provide it to the 
Virginia Legislative Campaign Committee in connection with the '95 
election cycle, but I don't recall that specific to the Democratic 
Party contribution.
    Question. And was that information communicated to you or the 
suggestion that Mr. Tamraz--if you could just state again, who was it 
that suggested to you that Mr. Tamraz might make a contribution to the 
Virginia Democratic Party?
    Answer. My recollection is that direction came from Mr. Fowler.
    Question. Do you recall whether you had a meeting with Mr. Fowler 
to discuss where campaign contributions should be directed?
    Answer. I don't recall a formal meeting. I recall sort of a meeting 
in passing.
    Question. Do you know if Ms. Khare, Carol Khare, was in contact 
with Mr. Tamraz at any time in 1996?
    Answer. I don't know for certain, no.
    Question. Did you ever discuss Mr. Tamraz with anybody at the DNC 
except for Mr. Sullivan and Mr. Fowler?
    Answer. I discussed with Mr. Pastrick and Marvin Rosen.
    Question. The meeting that you earlier described between Mr. 
Fowler, Mr. Tamraz and yourself, do you recall the date of that 
meeting?
    Answer. I don't recall an exact date. I believe it was in July of 
1996.
    Question. Do you recall how long the meeting lasted?
    Answer. I believe it was a half-hour to 45 minutes.
    Question. And what was discussed at that meeting?
    Answer. I remember that Mr. Tamraz stated that he was very 
interested in being supportive of the President and of the party, that 
he was encouraged by the President's policies. He went on to describe 
how he wanted to be financially supportive.
    Mr. Fowler thanked him for that. Mr. Tamraz went on to discuss and 
provided a copy of a Newsweek article, I believe he had the magazine 
with him, which talked about a pipeline construction that his company 
was undertaking in Russia, and I remember him describing that the 
project hadn't physically started, but that the steps to get it were 
well on their way, and that he had many corporate clients who were 
supporting his effort. He was just informing us of sort of who he was 
and what his business was.
    Question. Do you know how many times Mr. Fowler met with Mr. 
Tamraz?
    Answer. I don't.
    Question. If you could just--the document I provided you earlier, 
which was provided because I believe it came from a file of some sort, 
you have indicated that you don't recognize the handwriting on the 
first page of it, but the second page, the third page and the fourth 
page have what appear to be a memorandum to Mr. Fowler from Alejandra 
Castillo. If you could take just a moment to review that memorandum.
    Mr. Pierson. For the record, these are pages DNC 3116351 through 
6353.

                       EXAMINATION BY MR. WILSON:

    Question. Did you receive a copy of this memorandum?
    Mr. Pierson. At any time before----

                       EXAMINATION BY MR. WILSON:

    Question. At--well, I must be clear on this. Did you receive a copy 
of this memorandum at any time in 1995?
    Answer. I don't recall specifically receiving it.
    Question. Do you recall receiving a copy of this memorandum at any 
time before November of 1996?
    Answer. I don't recall a specific time of receiving it.
    Question. But do you recall whether you did receive this 
memorandum?
    Mr. Pierson. Before the election?
    Mr. Wilson. Before the election.
    The Witness. I don't recall a certain time of receiving it, no--or 
receiving it.

                       EXAMINATION BY MR. WILSON:

    Question. The third page of this memorandum, in the second 
paragraph, in the conclusions section, states that, in a conversation 
held with Ari Swiller yesterday, Mr. Tamraz has expressed his desire to 
contribute $300,000 to the DNC. Did you speak with Ms. Castillo about 
your meeting with Mr. Tamraz?
    Answer. I recall having discussions with Ms. Castillo about Mr. 
Tamraz. I don't recall the specific discussions.
    Question. Do you recall what she asked you?
    Answer. I think she was inquiring whether I knew some of the 
information that has been provided in this document, and I believe it 
may have been the context of my discussion with Mr. Tamraz.
    Question. The first paragraph of this conclusion section on the 
third page of the memorandum indicates that it is clear that Mr. Tamraz 
has several problems pending before the international business 
community. Did Ms. Castillo discuss with you any of the specifics of 
what she knew about Mr. Tamraz?
    Answer. I remember either seeing in news articles or hearing from 
her some of the items that are brought up in this document that refer 
to business problems or problems pending in the international business 
community.
    Question. In the first paragraph of the memorandum, in what is the 
second sentence, it states, as a potential managing trustee member, Mr. 
Tamraz' business dealing may have potential, if not definite--if not 
definite political and ethical implications on the DNC fund-raising 
operations.
    Did you have any discussions with anybody at the DNC prior to 
November of 1996 about the implications Mr. Tamraz' business dealings 
might have for the DNC?
    Answer. I believe I did, yes.
    Question. And who did you talk to?
    Answer. I believe I talked to Ms. Castillo and possibly--my 
recollection would be Mr. Sullivan or Mr. Pastrick.
    Question. And what was discussed when you spoke with Ms. Castillo?
    Answer. As I stated earlier, some of the concerns that she 
highlights in this memo I think are part of that discussion.
    Question. Now, had she communicated these concerns to you for the 
first time? You had not heard of these concerns before she spoke to 
you; is that correct?
    Answer. As I recollected--in reflecting, that's correct. I may have 
seen articles. I don't know the timing--if I saw the articles, we had 
the discussion, she brought them up with the articles. I don't remember 
the sequence, but--I didn't have a long-standing prior knowledge, no.
    Mr. Pierson. May I have a moment, please?
    [Witness conferring with counsel.]
    Mr. Pierson. If you would like to add to your answer please.
    The Witness. Yes. Mr. Tamraz, during our discussion, mentioned--I'm 
sorry, during my meeting with Mr. Fowler and Mr. Tamraz, he mentioned 
sort of in passing that he had a controversial background, which is 
something that I think came up in discussions following with Ms. 
Castillo--in the following conversations that I may have had with other 
DNC folks, that we mentioned that as well.

                       EXAMINATION BY MR. WILSON:

    Question. Prior to your meeting with--the first meeting with Mr. 
Tamraz, a meeting that Mr. Fowler attended, did you yourself do or did 
you request anybody else to do any background research on Mr. Tamraz?
    Answer. Not that I recall, no.
    Question. Did you communicate to anybody the nature of the 
controversial background that you just mentioned Mr. Tamraz brought to 
everybody's attention?
    Answer. I don't remember him--sorry. Restate the question.
    Question. My understanding from what you just said was that Mr. 
Tamraz himself brought up controversial background in your meeting with 
yourself and Mr. Fowler. Once you learned of that during that meeting, 
did you bring that to anybody else's attention?
    Answer. I don't recall specifically doing that. I may have brought 
it to the attention of Ms. Castillo as she was preparing this memo. In 
follow-up, I may have also mentioned it to Mr. Pastrick following our 
meeting with Mr. Tamraz, that he had mentioned something about this.
    Question. Did Ms. Castillo tell you or mention to you that she was 
preparing a memorandum about Mr. Tamraz?
    Answer. I don't remember her telling me before preparing it or 
providing it and saying, I have a memorandum. I don't remember there 
being a sequence where she first informed me and then provided it.
    Question. Did you provide her with any information prior to the 
drafting of this memorandum?
    Answer. In my conversation, I may have referenced the article in 
NewsWeek which Mr. Tamraz had referenced in his discussion with Mr. 
Fowler and I, and I may have had some discussion with her about the 
context of our conversation with Mr. Fowler.
    Question. Had you seen the NewsWeek article?
    Answer. Not prior to my meeting with Mr. Tamraz.
    Question. After you met with Mr. Tamraz, did you see that NewsWeek 
article that you just discussed?
    Answer. He had it in the meeting.
    Question. Did he provide a copy of the article to you?
    Answer. I believe he left a copy, yes.
    Question. Do you recall whether he left any other material or 
information?
    Answer. Not that I remember, no.
    Question. Did you have any discussions with Ms. Khare about Mr. 
Tamraz' background?
    Answer. I don't recall any discussions with Ms. Khare, no.
    Question. Do you know whether Ms. Khare made any inquiry's about 
Mr. Tamraz' background of anybody else other than yourself?
    Answer. Not that I'm aware of, no.
    Question. Do you know--do you have any knowledge of whether this 
memorandum was circulated to anybody other than the addressee of the 
memorandum, other than to Mr. Fowler?
    Answer. Not that I recall, no.
    Question. Do you know if Mr. Tamraz had subsequent discussions with 
either yourself or Chairman Fowler about his oil pipeline proposal?
    Answer. I don't know of his discussions with others. I do not 
recall any discussion with me about the pipeline following that initial 
conversation.
    Question. Do you know if Chairman Fowler ever offered any 
assistance to Mr. Tamraz in meetings with the Federal officials? And I 
ask that in terms of did you know that before November of 1996?
    Answer. No, I did not.
    Question. Did Chairman Fowler tell Mr. Tamraz or discuss with Mr. 
Tamraz contributions to the DNC at the meeting you attended with the--
the first meeting you attended with Chairman Fowler and Mr. Tamraz?
    Answer. Did Mr. Fowler discuss it?
    I think Mr. Fowler thanked him for Mr. Tamraz' willingness to be 
supportive. I recall that during--the figures and how contributions 
were made were not discussed at that time.
    Question. Is it correct to say that, at that point, Mr. Tamraz had 
not made a contribution to the----
    Answer. That's correct.
    Question [continuing]. To the DNC?
    Did you have--ever have any discussions with anybody at the DNC 
prior to November 1996 of whether the--anybody in the Clinton 
administration was being supportive of Mr. Tamraz' oil pipeline 
project?
    Answer. I don't--no, I do not.
    Question. Did you ever talk to anybody in the administration--and 
by that I mean any executive branch or agency officials, nonDNC 
employees--about the Tamraz oil pipeline proposal?
    Answer. Not that I recall.
    Question. Did you ever get any requests from anybody else outside 
of the DNC prior to November of 1996 about the Tamraz oil pipeline 
project?
    Answer. Not that I recall.
    Question. Did you ever have any discussions about Mr. Tamraz being 
banned from a commerce trade board?
    Answer. I'm not familiar with that. No.
    Question. Do you know if Ms. Khare had any discussions with 
Department of Commerce Employees about Mr. Tamraz?
    Answer. Not that I'm familiar with.
    Question. Just referring back to the meeting between yourself and 
Mr. Fowler and Mr. Tamraz, what did Mr. Tamraz indicate that he was 
willing to contribute?
    Answer. During my meeting with he and Mr. Fowler, there was--no 
indication was made.
    Question. Was there any discussion at that meeting of contributions 
to entities other than the DNC?
    Answer. There was not.
    Question. Do you know why Mr. Fowler later communicated that some 
of Mr. Tamraz' contributions would be--it would be appropriate to have 
them routed to other entities than the DNC?
    Answer. My understanding in the case of the Virginia legislative 
campaign committee - or council--it was designated there because their 
election was--they had a '95, an off-year election. So there was a 
certain urgency to support their campaign effort.
    Question. And what about the Louisiana contribution? Was there a 
reason for that?
    Answer. I don't recall.
    Question. Do you know if anybody other than Ms. Castillo in the 
format of the memorandum that we've just been discussing brought any 
concerns about Mr. Tamraz to Mr. Fowler's attention?
    Answer. Not that I'm aware of, no.
    Question. Did anybody communicate concerns about Mr. Tamraz to you 
directly?
    Answer. Other than in conversations with Ms. Castillo I'm not 
aware--I don't recall anyone else communicating concerns.
    Question. Once--once Mr. Tamraz did make his contributions, is 
there any one person that was designated the primary contact between 
the DNC and Mr. Tamraz?
    Answer. Initially, I was his contact. But subsequent to my first 
few contacts with him, I think he began to work more exclusively with 
Marvin Rosen.
    Question. And in light of the concerns that Ms. Castillo outlined 
in her memorandum to Chairman Fowler, did you think it was appropriate 
for the DNC to accept contributions from Mr. Tamraz?
    Mr. Pierson. Can I just interpose an objection?
    Mr. Wilson. Sure.
    Mr. Pierson. We've got a temporal disconnect. He was--he can tell 
you that he saw the Castillo memorandum. So he can't tell you that, in 
light of what's in the memorandum, he thought anything. But I know he 
has some substantive testimony to give to you on the subject, so I 
don't want to interrupt your line of questioning here.
    Mr. Wilson. Right.
    Mr. Pierson. I just think the two don't connect.
    Mr. Wilson. I understand.

                       EXAMINATION BY MR. WILSON:

    Question. Given your communications with Ms. Castillo about Mr. 
Tamraz, did you have any concerns about Mr. Tamraz contributing to the 
DNC?
    Answer. I recall having some reservations, yes.
    Question. Did you communicate those to anybody?
    Answer. I believe I communicated them to Ms. Castillo. I may have 
communicated them to Mr. Sullivan.
    Question. And did you tell anybody else about your concerns?
    Answer. Maybe Mr. Pastrick. But I'm not even sure there. But those 
would be the people, I think.
    Question. Did you ever speak with Sheila Heslin or anybody else at 
the National Security Council about Mr. Tamraz?
    Answer. I'm not familiar with her. I don't recall any conversations 
that I had with people at the National Security Council, no.
    Question. Prior to 19--November of 1996, do you recall anybody 
contacting you about Mr. Tamraz?
    Answer. Anyone?
    Question. And--I'm puposefully being very broad. Anybody from----
    Mr. Pierson. Outside the DNC?
    Mr. Wilson. Yeah. Outside the Democratic National Committee.
    The Witness. Outside--I don't recall, outside of the people we've 
discussed, anyone making inquiries of me of Mr. Tamraz.

                       EXAMINATION BY MR. WILSON:

    Question. Apart from the--the communications that we've just 
discussed with Ms. Castillo, did you ever hear anything about Mr. 
Tamraz seeking political leverage to advance his oil pipeline proposal?
    Mr. Pierson. Up to the election?
    Mr. Wilson. Prior to November, 1996.
    The Witness. No, I don't recall asking for a leverage.

                       EXAMINATION BY MR. WILSON:

    Question. Were you in contact with Mr. Tamraz after the--after the 
meeting with Chairman Fowler and Mr. Tamraz and yourself?
    Answer. Yeah, immediately following the--that meeting, Mr. Tamraz--
as I stated earlier, Mr. Tamraz, Mr. Pastrick and myself had a separate 
meeting where we discussed contributions more directly.
    Question. Do you know if Mr. Tamraz attended DNC events at any time 
after your initial contact with him?
    Answer. Yes, I believe he did.
    Question. Do you know what events he did attend?
    Answer. I can't recall the specific events, but I do recall seeing 
him at events. I don't know which ones exactly.
    Question. What type of events do you recall seeing him at?
    Answer. Fund raisers. Fund-raising galas with dinners.
    Question. Do you know--did you know, prior to November, 1996, 
whether Mr. Tamraz met with nonDNC officials or government employees 
after the time that you first met him and before November of 1996?
    Answer. No, I was not aware of it.
    Question. Did you ever have any discussions with Chairman Fowler 
about Mr. Tamraz visiting the White House?
    Answer. I don't recall specific discussion regarding that, no.
    Question. Just very generally, do you have any recollection of--of 
Mr. Fowler discussing Mr. Tamraz and attempts to meet with people in 
the White House?
    Answer. No, I don't have any recollection of that.
    Question. Were you aware at any time before November, 1996, that 
the White House did have objections to Mr. Tamraz attending events in 
the White House?
    Answer. No, I was not aware of that.
    Question. Do you have any knowledge of meetings involving Mr. 
Tamraz and Mr. Sullivan and Marvin Rosen in October of 1995?
    Answer. I'm not aware of those specific--that specific time or 
meeting.
    Question. Do you have any knowledge, just in a general sense, of 
Tamraz meeting with Richard Sullivan and Marvin Rosen?
    Answer. As I stated earlier, I was initially his contact at the 
DNC. But, soon after, his primary contact became Mr. Rosen; and I know 
that they he met or spoke on the phone on occasion. I don't know the 
specific times or--or who else was in attendance, but I know that his 
primary contact became Mr. Rosen.
    Question. Are you aware of any telephone calls made by Mr. Fowler 
to employees of the National Security Council?
    Answer. Not prior to recent revelations of it, no.
    Question. Did--did Chairman Fowler ever ask for information about 
Mr. Tamraz--ask you for information about Mr. Tamraz after that initial 
meeting that you attended with Mr. Tamraz and Mr. Fowler?
    Answer. I don't recall any requests, no.
    Question. Did Chairman Fowler ever communicate any concerns to you 
about Mr. Tamraz at any time after the initial meeting that you--that 
the three of you had?
    Answer. Not that I can recall, no.
    Question. Do you recall any discussions with Mr. Fowler about Mr. 
Tamraz or that involved Mr. Tamraz after your initial discussion or 
after your initial meeting?
    Answer. As I stated earlier, Mr. Fowler at some point had indicated 
to me that a--that I make a request of Mr. Tamraz to designate some of 
his contributions to Virginia legislative campaign. That's a 
conversation that sticks to mind. Other conversations, I don't recall.
    Question. Do you recall whether there were any conversations?
    Answer. I don't.
    Are you finished with this?
    Question. I think we are. Let me just have a quick review of it.
    Do you--do you recall whether you kept a file for Mr. Tamraz among 
your trustee files?
    Answer. I don't--I--I'm sure I did. I don't recall specifically, 
but he was a trustee, and we had files on all of them. Yes.
    Question. Do you know Eric Hotung?
    Answer. I know who he is.
    Question. Have you ever met him?
    Answer. No, I've not.
    Mr. Pierson. Counsel, when you come to a convenient stopping place, 
can we have several minutes, please?
    Mr. Wilson. Let's go off the record.
    [Recess.]
    Mr. Wilson. If we can go back on the record, please.

                       EXAMINATION BY MR. WILSON:

    Question. Just one follow-up question on the materials we were 
discussing about Mr. Tamraz and Exhibit 13. If I could provide again 
the memorandum from Ms. Castillo to Chairman Fowler, the cc is to 
yourself and to Carol Khare. Why would Ms. Khare have received this 
memorandum?
    Mr. Pierson. If you know.
    Mr. Wilson. To the extent you know.
    The Witness. To the extent I know, she was Mr. Fowler's executive 
assistant and sort of like an alter ego. She received some of the 
information Mr. Fowler received.

                       EXAMINATION BY MR. WILSON:

    Question. Do you know whether in Mr. Tamraz' case she did any 
follow-up investigation about Mr. Tamraz for Chairman Fowler?
    Answer. Ms. Khare?
    Question. Yes.
    Answer. Not to my knowledge.
    Question. Did you ever speak with Mr. Hotung?
    Answer. No, I had never done that.
    Question. Had you ever received any contacts from Pat O'Connor 
about Mr. Hotung?
    Answer. No I have not.
    Question. Do you know Pat O'Connor?
    Answer. I do.
    Question. And do you know what he does for a living?
    Answer. My understanding is he is an attorney and a lobbyist.
    Question. And how do you know Mr. O'Connor?
    Answer. He's been a long-time Democratic fund-raiser and supporter. 
I've met him through DNC events and his support of the DNC and fund-
raising efforts.
    Question. Has Mr. O'Connor ever had any official discussions with 
you outside of the social context because he--had you ever worked with 
Mr. O'Connor in an official capacity?
    Answer. I don't believe I have, no.
    Question. Do you recall whether you helped to arrange any meetings 
for Mr. Hotung?
    Answer. No, I don't recall that.
    Question. Have you had any interaction at all with Mr. Hotung?
    Answer. I have not.
    Question. Do you know either James or Mochtar Riady?
    Answer. I know who they are.
    Question. Have you ever met either James Riady or Mochtar Riady?
    Answer. I have not.
    Question. Have you ever spoken with either of them?
    Answer. I have not.
    Question. Have you ever been asked to arrange introductions for 
them to administration officials?
    Answer. I have not.
    Question. Do you recall ever having assisted them in any way?
    Answer. No, I do not recall that.
    Question. Do you know either Arief or Soraya Wiriadinata?
    Answer. I do not know them. They at some point became trustees, but 
I've never met with them or spoken with them.
    Question. Did you solicit contributions from them?
    Answer. Never.
    Question. Do you know who did?
    Answer. My recollection is that John Huang did.
    Question. Do you recall whether you've ever had requests to do 
anything for Mr. or Mrs. Wiriadinata?
    Answer. I don't recall that at all.
    Question. Do you know Yogesh Gandhi?
    Answer. Only what I've read. I've never met him, and I've never 
been involved with him.
    Question. Have you ever been asked to assist him in any way?
    Answer. No, I've not.
    Mr. Wilson. I've given the witness a document that's marked Exhibit 
AS-14. It is a letter to President Clinton from an individual named 
Richard Agins. It does not have Mr. Swiller's name on it anywhere. If 
you could take just a moment to review this.
    [Swiller Deposition Exhibit No. AS-14 was marked for 
identification.]
    Mr. Pierson. For the record, it is dated August 14, 1996; and it 
bears number EOP 05587. There may be another number, but that's all 
that appears.

                       EXAMINATION BY MR. WILSON:

    Question. This is a letter from an attorney in New York to 
President Clinton, and it discusses a purported arrangement between 
Chairman Fowler and an organization wherein Chairman Fowler was 
purportedly promised two videotaped addresses in exchange for a 
campaign contribution. Do you have any familiarity with the Hermes 
Enterprises, Limited, organization?
    Answer. I do not.
    Question. Have you ever heard or seen the name Richard Agins, A-G-
I-N-S?
    Answer. I have not.
    Question. Do you have any familiarity with a dispute involving a 
Greek-American group and either the President or the DNC?
    Answer. No.
    Question. Do you know an individual named Ramesh Kapur?
    Answer. Yes I do.
    Question. Have you met Mr. Kapur?
    Answer. Yes, I have.
    Question. Where did you meet Mr. Kapur?
    Answer. I don't know the first time, but he was a trustee who I saw 
often at events. He visited the DNC a few times where I would see him. 
He also attended events around the country where I saw him.
    Mr. Wilson. I have provided the witness with a document which is 
marked Exhibit AS-15. It's a fax cover sheet dated 7/18/95, marked with 
the Bates Number DNC 3235705.
    [Swiller Deposition Exhibit No. AS-15 was marked for 
identification.]
    Mr. Wilson. It--the fax transmission----
    Mr. Pierson. 5707.
    Mr. Wilson. Oh, pardon. Correct. Pardon.
    Mr. Wilson. The fax transmission indicates that there are five 
pages included with this sheet, and it's my understanding that all we 
have received is a single page of a fax transmission cover. If you 
could take just a moment to look at that.

                       EXAMINATION BY MR. WILSON:

    Question. The fax cover sheet indicates that there are two topics 
of discussion with Mr. Roger Johnson. Do you recall discussing with Mr. 
Kapur the contents of this fax cover sheet?
    Answer. No, I do not.
    Question. Do you recall--do you know whether you ever approached 
Roger Johnson about arranging a meeting between himself and Mr. Kapur?
    Answer. I do not recall that at all.
    Question. Did Mr. Kapur discuss with you getting more Indian-
Americans into high-level positions at the GSA?
    Answer. Not that I recall, no.
    Question. The second topic mentioned in this fax cover sheet is 
about preventing Indian-American businesses from being pigeonholed into 
smaller contracts when they are capable of handling larger contracts. 
Did Mr. Kapur have any discussions with you about this subject?
    Answer. No. Not that I recall, no.
    Question. Do you recall receiving this fax transmission?
    Answer. I don't recall.
    Question. Do you have any recollection of receiving a resume? This 
fax cover sheet indicates that a copy of a resume is attached to the 
fax. Do you recall receiving a resume from Mr. Kapur?
    Answer. I don't.
    Question. Did----
    Mr. Pierson. Excuse me just a minute.

                       EXAMINATION BY MR. WILSON:

    Question. Did you have any discussions with Mr. Kapur about 
meetings that he had with administration officials?
    Answer. No, I don't recall it.
    Question. Do you recall ever assisting Mr. Kapur in setting up a 
meeting with any Clinton administration employee?
    Answer. No, I don't recall it.
    Question. Do you recall receiving any requests from Mr. Kapur for 
assistance on any matter?
    Answer. Mr. Kapur would request special preferential seating at 
events we would do around the country. He would request--he was another 
person who requested photos and multiple copies of photos. That was 
probably the extent of the requests that I dealt with.
    Question. Do you recall whether you helped him with those requests?
    Answer. If those sort of requests--I probably would have helped, 
maybe not with the seat--giving him preferential seating, but I 
probably would have heard him out.
    Question. Do you recognize the handwriting on the document in front 
of you?
    Answer. I believe I do, yes.
    Question. And there is a note at the middle, in the middle on the 
right-hand side of the document; and I believe it says Ramesh requested 
trustee as well. Do you recognize that handwriting?
    Answer. No. I--if they're the same handwriting, this one is more 
familiar to me.
    Question. And do you know whose handwriting is on the bottom right-
hand section of the fax cover sheet?
    Answer. It looks to me like the handwriting of Anne Braziel.
    Question. Do you know whether Ms. Braziel ever scheduled meetings 
with administer--between Mr. Kapur and any Clinton administration 
officials?
    Answer. Not that I can recall, no.
    Question. Do you know an individual named Mansoor Ijaz? That's I-J-
A-Z?
    Answer. Yes, sir, I know him.
    Mr. Pierson. Ijaz.
    Mr. Wilson. I was going to help with the pronunciation of his name 
because I'm always sensitive to that.

                       EXAMINATION BY MR. WILSON:

    Question. Have you met with Mr. Ijaz?
    Answer. Yes, sir, I have.
    Question. Where did you first meet Mr. Ijaz?
    Answer. I believe I first met him with at a joint DNC-DCCC--D 
triple C--event in Washington.
    Question. And have you met with him on subsequent occasions?
    Answer. Yes, I have.
    Question. Where have you met him?
    Answer. I met with him in my office at the DNC. I met with him on 
occasion when I was working in New York in his office in New York, and 
he hosted a fund-raiser at his home with the Vice President. So I met 
with him at his home prior to the event.
    Question. Do you know if Mr. Ijaz ever met with Nancy Soderberg?
    Answer. Yes, he did. I believe he did.
    Question. Did you know that prior to November of 1996?
    Answer. Yes, I did.
    Question. Did you assist Mr. Ijaz in meeting with Ms. Soderberg?
    Answer. Yes, I did.
    Question. Did he request that you provide assistance in setting up 
a meeting?
    Answer. Yes, he did.
    Question. Why did he ask you to set up the meeting with Ms. 
Soderberg?
    Answer. Mr. Ijaz believed that he had some concerns that--about 
nuclear technology development in Pakistan that he thought should be 
brought to someone's attention. He was working international affairs 
there.
    Question. What is Mr. Ijaz's business?
    Answer. My understanding is that he directs a large fund. He's a 
fund manager. He raises large sums of capital and invests it.
    Question. Do you know if Mr. Ijaz has any business and trusts in 
Pakistan?
    Answer. Not that I'm aware of, no.
    Question. Did Mr. Ijaz ever discuss South Africa with you?
    Answer. I know that he had business trips there. That was the 
extent of the discussion.
    Question. Do you know if he ever traveled to South Africa with a 
Commerce Department delegation?
    Answer. I don't recall that.
    Question. Did Mr. Ijaz ever request your assistance in obtaining a 
space on any Commerce Department travel events?
    Answer. No, he did not.
    Question. Do you know whether Mr. Ijaz ever attended--well, do you 
know whether he attended a Washington lunch with the Vice President and 
South African Vice President Mbeki?
    Answer. I believe he did attend that event, yes.
    Question. Did he discuss this event with you?
    Answer. I believe so, yes.
    Question. Did he ask for your assistance in obtaining an invitation 
to this lunch?
    Answer. Yes, he did.
    Question. Did you help him with this request?
    Answer. I believe I did, yes.
    Question. Who did you contact on his behalf, if anybody?
    Answer. I believe I contacted staff. I don't remember the person--
well, staff in the Vice President's office.
    Question. Do you know whether you were--provided any indication of 
Mr. Ijaz's request to any of your DNC colleagues?
    Answer. I may have mentioned it to Mr. Sullivan.
    Question. Did Mr. Ijaz speak with you about the Vice-Presidential 
lunch after the event?
    Answer. I believe he did speak with me, yes.
    Question. And what did he tell you?
    Answer. He was encouraged, thought it was a historic moment and was 
happy that he had the opportunity to be there.
    Question. Do you know if Mr. Ijaz ever met with Chief of Staff Leon 
Panetta?
    Answer. Not that I'm aware of.
    Question. Do you know an individual named George Chu, C-H-U?
    Answer. I know he was a trustee. I know--I do not know him.
    Question. Have you ever spoken with him?
    Answer. I have not.
    Question. Do you--do you know who, in the DNC, was responsible for 
contacting Mr. Chu initially?
    Answer. My recollection--Mr. Chu, I think, lives in south San 
Francisco; and his contact was our fund-raiser for that area, a 
gentleman named Mark Thomann.
    Question. Have you had any correspondence with Mr. Chu?
    Answer. Correspondence similar that I would have with general 
correspondence to all trustees.
    Question. Did Mr. Chu ever make a request of you or your office?
    Answer. Not that I'm aware of, no. Not that I recall.
    Question. Do you know an individual named George Gruggiero?
    Answer. You can see that--I believe you may be referring to a 
gentleman named Joseph Ruggiero. If it's an individual at the IMPAC 
Group.
    Question. It's an individual at the IMPAC, yes.
    Answer. My contact there was a man named Joseph Ruggiero.
    Question. When did you believe you first met him?
    Answer. I believe I first met Mr. Ruggiero during the '93 
inaugural.
    Question. And did you have subsequent contacts with Mr. Ruggiero?
    Answer. Yes, I did.
    Mr. Wilson. I would like to provide the witness with a document. 
It's marked Exhibit AS-16 and indicates very clearly that it's Joe 
Ruggiero and certainly not George. The date of the document is April 3, 
1996. It's Bates Number DNC 3063532.
    Mr. Pierson. Through 34.
    Mr. Wilson. And subsequent pages, correct, through 34.
    [Swiller Deposition Exhibit No. AS-16 was marked for 
identification.]
    Mr. Wilson. The first of the three pages that I've provided to 
you--actually, I'll give you longer to look at it.
    The Witness. Okay.

                       EXAMINATION BY MR. WILSON:

    Question. The first of the three pages I've given to you indicates 
that when you met with Mr. Ruggiero the previous year, which would have 
been 1995, Mr. Ruggiero had complained about his treatment from the DNC 
during the previous 2 years. Do you have--do you know what this refers 
to?
    Answer. As I recall, Mr. Ruggiero was very insistent that the--that 
his participation with the RNC, he received much greater access to 
President Bush and to administration officials, to Senators, to Members 
of Congress than he did with his contributions with the DNC.
    I remember him indicating that he was a member for what was called 
Team 100, which I believe was a top-level RNC contributor group, and 
that through his support of it had opportunities to have photos in the 
Oval Office with the President, was often included in small meetings 
with the administration officials, and that he felt that his support of 
the DNC, he did not receive the same response or access; and it was 
very discouraging for him.
    Question. Did you discuss Mr. Ruggiero's complaints with Chairman 
Fowler?
    Answer. I believe I had conversations that sort of indicated things 
similar to these lines in the document.
    Question. The third page, the three documents I--the three pages I 
provided to you is what appears to be a letter dated March 8, 1996, 
from Chairman Fowler to Ambassador Shearer in Finland?
    Answer. Uh-huh.
    Question. Were you aware at the time that Chairman Fowler wrote to 
Ambassador Shearer?
    Answer. I was aware that a request was made for Mr. Fowler to write 
such a letter. I was not aware that a letter was sent or that it was 
ever completed.
    Question. Do you--do you have any knowledge of that which is 
referred to in this letter, which is a libel case involving the 
company, Integrated Control Systems, Incorporated?
    Answer. I recall there being a concern that his company was falsely 
being accused in Finland. But I don't recall the greater details of it.
    Question. So it's your recollection that this involved a legal 
lawsuit in Finland?
    Answer. That's my recollection, yeah.
    Question. Do you recall whether you had any subsequent 
conversations with Mr. Ruggiero or the other individual referred to in 
this letter, Mr. Erwin, or any other members of IMPAC Group about the 
libel case in Finland?
    Answer. No, I don't recall that.
    Question. Did you make any contacts to Ambassador Shearer in 
Finland?
    Answer. No, I did not.
    Question. Do you know whether anybody else in the DNC made contact 
with Ambassador Shearer?
    Answer. No. I don't recall that.
    Question. One--just a question, a general question, about this 
particular letter. It is unsigned. Was it--was it a practice of--to the 
extent you have any knowledge at all, was it a practice of the DNC to 
retain unsigned correspondence in people's personal files?
    Answer. It wasn't a practice.
    Question. It wasn't a practice.
    Mr. Pierson. Counsel, I do not want the assumption to remain in the 
record that this came from a file. It could well have come off a 
database.
    Mr. Wilson. It could, and I was actually going to follow up and ask 
that. It's entirely possible that this is printed off of a computer 
database.

                       EXAMINATION BY MR. WILSON:

    Question. And I'm just trying to get any elucidation on whether--in 
your case, I asked you earlier whether you kept signed correspondence; 
and you provided the answer for that. Do you know whether database 
files were purged in your computer system on a regular basis or whether 
they were retained just as a default mechanism in the computer system?
    Mr. Lu. Are you asking him whether he purged them or whether the 
system----
    Mr. Wilson. No, no. Whether they were purged as a default mechanism 
of the computer system. Not whether Mr. Swiller had any part in doing 
any purging of any memorandum.
    Mr. Pierson. Do you understand that the question is asking whether 
it was done as part of a default mechanism? Not whether somebody came 
in and sat down and did it but whether the system had a purging 
mechanism within it?
    The Witness. Not that I'm aware of.

                       EXAMINATION BY MR. WILSON:

    Question. Do you have any knowledge of a meeting between 
Ambassador--between Chairman Fowler, John Huang and Ambassador March 
Fong Eu in April of 1996?
    Answer. No, I don't.
    Question. Did you ever receive any requests from Ambassador March 
Fong Eu?
    Answer. No, I did not.
    Question. Did you have any contacts with Ambassador March Fong Eu?
    Answer. I met her in 1992 during the campaign; but, following, I 
don't think I ever saw or spoke to her again following the '93 
Inaugural.
    Question. Did you ever have any contacts with an individual named 
David Lai, L-A-I?
    Answer. No.
    Question. Do you know Joe Giroir?
    Answer. I know who he is.
    Mr. Pierson. Have you met him?
    The Witness. I believe I have met him.

                       EXAMINATION BY MR. WILSON:

    Question. Did Mr. Giroir ever contact you at the DNC?
    Answer. Never.
    Question. Have you ever met either Nora or Gene Lum?
    Answer. I have not.
    Question. Have you ever had any contacts with Nora or Gene Lum?
    Answer. I have not.
    Question. Are you----
    Answer. Let me correct--may I?
    Question. Certainly.
    Answer. I may have--I knew their names because they had at some 
point before my return to the DNC--being trustees of the party, as I 
did with a lot of people who had stopped contributing, I frequently 
sent them requests to renew their contributions to the DNC. So I may--
at some point, they would have been included in that correspondence. 
But I had no conversations with them, no follow-up conversations, and 
never spoke with them directly.
    Question. Do you know an individual named Al Wong, W-O-N-G?
    Answer. I do not.
    Question. Do you know an individual named Ray McClendon? That's M-
C, capital C, L-E-N-D-O-N?
    Answer. The name is familiar. I believe he's a member of a firm 
that was supportive of our efforts, but I don't know him.
    Question. Do you recall any specific contacts between yourself and 
Mr. McClendon?
    Answer. No, I do not.
    Question. Do you know James Staffors, who is with the company, 
American Home Products?
    Answer. I don't know him. I know that they were trustee-level 
contributors. I don't recall ever meeting him or ever having any 
conversations with him.
    Question. Do you recall any requests that came from either Mr. 
Staffors or any other employee of American Home Products of you or your 
office?
    Answer. No, I do not.
    Question. Have you ever met James Belcher?
    Answer. I have never met him.
    Question. Mr. Belcher is with a number of companies. One is called 
Peat Rubber Company. Another is called N. R. Latex. Do you know of any 
contacts between Mr. Belcher and either yourself or your office?
    Answer. He became a trustee level contributor while I was at the 
DNC, so I assumed he received the similar correspondence that other 
trustees received after he became a trustee.
    Question. Did either Mr. Belcher or any other member of his--any of 
his firms contact you with any manner of requests in either 1995 or 
1996?
    Answer. No.
    Let me correct that. A gentleman named Chris Martin, I was 
introduced to by an attorney of his, and he requested of me information 
about the trustee program, which I discussed with him, with Mr. Martin.
    Question. Did Mr. Martin contact you?
    Answer. A trustee in Connecticut introduced us. She introduced me 
to Mr. Martin under the pretense that he was interested or had a client 
that was interested in becoming a DNC supporter.
    Question. Where were you introduced to Mr. Martin?
    Answer. At the home of Sandra Murphey and Bill Bryant in 
Connecticut.
    Question. What was the circumstance of this meeting?
    Answer. They were hosting a fund-raiser for Senator Kennedy. They 
invited me to come so that--I had known Mrs. Murphey for a few years 
and her husband. She was--they were active contributors as well as 
fund-raisers. They invited me there because they thought that Mr. 
Martin had a client who would be interested in participating as a 
trustee and being that I was their trustee liaison, they thought it 
would be proper to make that introduction.
    Question. Did Mr. Belcher or one of his companies ultimately become 
a trustee participant?
    Answer. Yes.
    Question. Did you receive any communications about any of Mr. 
Belcher's enterprises subsequent to Mr. Belcher becoming a trustee 
participant?
    Answer. Not that I recall specifically, no.
    Question. Did you receive any requests regarding Mr. Belcher from 
any Congressional staff?
    Answer. Can you restate the question?
    Question. Did you have any contacts regarding Mr. Belcher or Mr. 
Belcher's enterprises with Congressional staff?
    Answer. Following the election, I was contacted by members of 
Senator Dodd's staff, because there had been some concerns raised that 
Senator Dodd was involved in soliciting contributions from Mr. Belcher, 
and they were asking me sort of what I knew about Mr. Belcher and the 
history. That was the only Congressional contacts I think I had 
regarding that.
    Question. What did you tell them?
    Answer. As I recall, I had this first introduction with Mr. Martin, 
followed up with a phone call, maybe more than one phone call, which 
were not returned. And subsequently, not through any contacts of mine, 
Mr. Belcher became a trustee, and I never spoke to Mr. Martin or Mr. 
Belcher again.
    Question. Did you make any telephone calls or write any letters or 
make any communications whatsoever on any matter that pertained to any 
of Mr. Belcher's enterprises?
    Answer. No, not that I recall.
    Question. Do you know who solicited the contributions from Mr. 
Belcher?
    Answer. My recollection is that Mr. Huang did.
    Question. And do you know anything about Mr. Huang's solicitation 
of this contribution?
    Answer. No.
    Question. Do you know whether Mr. Huang traveled to Connecticut to 
speak with Mr. Belcher?
    Answer. I did not know it at the time, but as I just stated, I had 
some conversations about sort of how Mr. Belcher became involved. In 
that I found out Mr. Huang made that travel to Connecticut to meet with 
Mr. Belcher.
    Question. Did you have discussions with Mr. Huang about the 
solicitation of a contribution from Mr. Belcher?
    Answer. The only conversation I can recall is subsequent to an 
initial contribution from Mr. Belcher, I remember just acknowledging to 
Mr. Huang that I had met and associated with Mr. Belcher and Mr. 
Martin, and that that was the extent of my contact, serving knowledge 
that I guess I was encouraged that he finally made a contribution.
    Question. Did anybody--you mentioned one Congressional contact. 
Prior to your leaving the DNC in March of 1997, had anybody else 
contacted you about Mr. Belcher or Mr. Belcher's companies?
    Answer. No, not that I recall. No.
    Question. Have you heard of the Ellicott Machine Corporation?
    Answer. That is not familiar to me, no.
    Question. Or the principal of the Ellicott Machine Corporation, the 
CEO is a person named Peter Bowe, B-O-W-E. Do you know Mr. Bowe?
    Answer. No, I don't.
    Question. Do you know Mark Nichols?
    Answer. Yes, I do.
    Question. And when have you met Mr. Nichols?
    Answer. I have.
    Question. Where did you first meet Mr. Nichols?
    Answer. At a DNC gala, I believe.
    Question. Do you remember when that was?
    Answer. I don't.
    Question. Have you ever met with Mr. Nichols at the DNC?
    Answer. No, I have not.
    Question. Have you ever met with Mr. Nichols outside of social 
circumstances such as the DNC gala or fund-raising event?
    Answer. I have not.
    Question. Do you recall ever having helped Mr. Nichols set up 
meetings with any Clinton Administration employees?
    Answer. No, I do not.
    Question. Have you had any contacts with Mr. Nichols outside of the 
social meeting you described at the very beginning of this line of 
questions?
    Answer. I happened to have run into him at a DSCC event recently 
while I was in California, where it was a social visit. But I barely--I 
don't recall it.
    Question. Did you have any discussion with him at that time?
    Answer. Yes, I did.
    Question. And what did you discuss?
    Answer. He--actually I recall now he requested of me if I could 
assist him in getting a photo of himself from an event with the 
President that took place in Los Angeles that I had actually worked on, 
which would be another event where I saw him, a fund-raiser in the fall 
of '96, and he had remembered that--he remembered that he hadn't 
received a photo, that I was at the event, and he asked if I could 
assist in getting him a photo.
    Question. Did you attend any meetings with Mr. Nichols and Chairman 
Fowler?
    Answer. Not that I recall, no.
    Question. Are you aware of meetings between Mr. Nichols and Mr. 
Fowler?
    Answer. I can recall that he, Mr. Nichols, came to the DNC, but who 
he met with, I don't recall if it was Mr. Fowler or not.
    Question. Earlier I asked you if you knew Mr. Patrick O'Connor, and 
you indicated that you did. Did Mr. O'Connor ever have any 
conversations with you about tribal, Indian tribal gaming concerns in 
Wisconsin and Minnesota?
    Answer. He did not.
    Question. Did you ever have any discussions with Mr. O'Connor about 
any Indian tribal concerns?
    Answer. No.
    Question. Did Mr. O'Connor ever ask for your assistance on any 
matter?
    Answer. No, he did not.
    Question. Prior to November of 1996, were you aware of any 
litigation involving a Chippewa Indian tribe in Wisconsin and 
Minnesota?
    Answer. I was not.
    Question. Were you aware, and again prior to November of 1996, that 
Chairman Fowler had been threatened with a subpoena and a lawsuit 
involving Indian tribal issues in Wisconsin and Minnesota?
    Answer. No, I was not aware of that.
    Question. Was there anybody at the DNC who was the principal 
contact between the DNC and Native American campaign contributors?
    Answer. No, not that I recall.
    Question. Do you remember any DNC fund-raisers being in contact 
with Native American fund-raisers, or Native American contributors?
    Answer. I had some contact with some, and I don't--I think other 
staff fund-raisers in the field did, yes.
    Question. Did any Native American tribal representatives become 
trustees or managing trustees?
    Answer. Yes.
    Question. Do you recall who they were?
    Answer. Well, I think Mr. Nichols or his tribe contributed. Skip 
Hayward, who represented the Mashantucket Pequot tribe. The Sioux, the 
Saint Sioux tribe in Minnesota. I don't recall at this time other 
tribes, but there may have been a few others that contributed at the 
trustee level.
    Question. Did you ever receive any requests from any of the 
individuals that you have just mentioned?
    Mr. Pierson. Of any kind?

                       EXAMINATION BY MR. WILSON:

    Question. Of any kind.
    Answer. Yes. Mr. Hayward had a representative, or his tribe had a 
representative named Chris McNeil in Washington, who I remember 
requested a meeting with chairman--through me with Chairman Wilhelm, 
and I can remember I attended, and with Chairman Fowler.
    Question. Do you remember what the meeting was about?
    Answer. The first meeting with Wilhelm?
    Question. Yes.
    Answer. I remember they described the success of their casino, how 
they had--I remember what sticks out in my mind is that they referenced 
a number of like $140 million they had written to the State of 
Connecticut because they are a tribe. I remember their concern that 
they felt that they did not have a contact in the White House who was 
well versed on Indian, Native American, Indian concerns and issues.
    Question. And referring to the second meeting that you mentioned, 
what was discussed at that meeting?
    Answer. I remember there being some follow-up to the original 
meeting, feeling that they had been supporters, but that these concerns 
that they laid out earlier had still not been addressed, that there 
were not people who understood their concerns.
    Question. Did you ever have any contacts with Tom Collier, either 
when he was Secretary Abbott's chief of staff or when he was in private 
practice in a law firm in Washington?
    Answer. The name is familiar, but I don't recall contacts with him.
    Question. Have you ever had any contacts with a woman named 
Gretchen Lerach, L-E-R-A-C-H?
    Answer. She was an employee at the DNC part of the time that I was 
at the DNC, yes.
    Question. Who did Ms. Lerach work for?
    Answer. My recollection is that she served as an assistant to the 
chief of staff, B.J. Thornberry, when she was employed at the DNC.
    Question. Do you know whether she was still employed at the DNC 
when you left in March of 1997?
    Answer. No, I believe she left previous to my departure.
    Question. Did you have any knowledge prior to November of 1996 that 
Indian tribes were considering forming a PAC to advance tribal issues?
    Answer. No, not that I recall.
    Question. Do you know an individual named Richard B-E-R-T-S-C-H, 
Bertsch?
    Answer. Yes, I do.
    Question. Who is Mr. Bertsch?
    Answer. He was someone who was involved in politics and some fund-
raising in Los Angeles.
    Question. Have you met him personally?
    Answer. Yes, I have.
    Question. When did you first meet Mr. Bertsch?
    Answer. I believe I recall him screaming at me at a fund-raising 
gala at the Washington Hilton, and I think that gala was in the spring 
of '94. That was my first introduction.
    Question. And what facilitated the manner of introduction?
    Answer. I believe he didn't like his seating and felt I was 
responsible or I was the closest staff person to him at the time.
    Question. Did you ever--have you ever solicited contributions from 
Mr. Bertsch?
    Answer. No, not that I recall. No.
    Question. Have you ever either yourself or have any of your staff 
conducted background research on Mr. Bertsch?
    Answer. No, not that I can recall.
    Question. Did Mr. Bertsch ever request that you provide assistance 
in setting up a meeting between himself and any member of the Clinton 
Administration?
    Answer. No, not that I can recall.
    Question. Do you know Richard Park?
    Answer. Yes, I do.
    Question. When did you first meet Mr. Park?
    Answer. I believe he was accompanying Mr. Bertsch at that first 
fund-raiser that I described earlier.
    Question. Have you ever solicited contributions from Mr. Park?
    Answer. Yes, I have.
    Question. Have you ever conducted any background research or any of 
your staff members conducted background research on Mr. Park?
    Answer. No, not that I can recall.
    Question. Has Mr. Park ever contacted you to request your 
assistance?
    Answer. When I was at the DNC?
    Question. When you were at the DNC, right.
    Answer. No, not that I can recall.
    Question. Do you recall ever helping to arrange meetings for Mr. 
Park with any Clinton Administration officials?
    Answer. No, I don't.
    Question. Are you aware that the President attended a series of 
coffees held at the White House during 1995 and 1996?
    Answer. Yes, I am.
    Question. Do you know whether the coffees were a part of the DNC's 
major donor program?
    Answer. No, they were not.
    Question. They were not. Did you ever send out any correspondence 
or information to any of the managing trustees or trustees about 
presidential coffees?
    Answer. We had--regarding coffees? No, not that I recall.
    Question. Did you ever have any contacts with any of the trustees 
or managing trustees about presidential coffees?
    Answer. Yes.
    Question. And what were the circumstances of those contacts?
    Answer. As I stated earlier, the President attended a number of 
coffees. From time to time, I had the opportunity to include long-
standing supporters or people that I thought would be potential 
supporters in those coffees. So I would invite them to attend a certain 
coffee.
    Question. And mechanically speaking, how would you go about 
inviting the individual?
    Answer. Over the phone, through a phone conversation.
    Question. Would you follow up that telephone conversation with a 
letter?
    Answer. We would sometimes follow up with a fax explaining where to 
enter the White House and also requesting them to fax back social and 
date of birth information for them to be waved into the White House.
    Question. Did you discuss your intention to contact people about 
coffees in advance of your contacting them with anybody else at the 
DNC?
    Answer. Yes.
    Question. Who would you discuss those people with?
    Answer. Frequently with Mr. Rosen, Mr. Sullivan, Ms. Braziel. Those 
are probably the majority of the contacts.
    Question. Did you ever provide anybody else in the DNC with a list 
of suggested attendees for coffees?
    Answer. Others than I mentioned?
    Question. Well, actually, no, I am including those people. Did you 
provide them with a list----
    Answer. Of prospective invitees?
    Question. Exactly.
    Answer. Yes. I would provide on occasion a list to Mr. Rosen or Mr. 
Sullivan about some people that I would want to include.
    Question. And this would be in the form of a written memorandum?
    Answer. Yes.
    Question. Did you keep copies of such memoranda in your files?
    Answer. No, I don't think I kept printed copies. As I talked about 
earlier, they were saved automatically on the computer.
    Question. Do you recall whether your suggestions were generally 
accepted?
    Answer. I think generally they were, yes.
    Question. Did you attend any of the White House coffees?
    Answer. Yes, I did.
    Question. Do you recall the occasions that you attended coffees?
    Answer. I believe I attended one coffee that was attended by the 
President and Vice President in August of 1995.
    Mr. Pierson. You are talking about White House coffees now, right?
    Mr. Wilson. Yes.

                       EXAMINATION BY MR. WILSON:

    Question. And do you recall any of the other attendees at that 
coffee?
    Answer. Mr. Fowler was there. Truman Arnold, who at the time was 
the finance chairman, was there. I remember Gail Zappa was in 
attendance, Carol Penskey, Bill Doctor. I believe Rich Keating. Those 
are the names I remember. There would be I think about a dozen people 
all together.
    Question. When you compiled lists of suggestions for coffee 
attendees, did you have any criteria that you went by to assist you in 
putting a name on the prospective list?
    Answer. I tended to put people on who had been long-standing 
supporters. I viewed it as quite an awesome event to go to, so I would 
allow people who had been with the DNC and trustees for a long period 
of time. Those were the names I tended--my personal criteria for 
putting them on the list.
    Question. Did you ever suggest to any individuals that were 
ultimately invited, and that you had suggested, that they should make a 
campaign contribution in association with attending the coffee?
    Answer. No, I did not.
    Question. Do you know whether the individuals that you suggested as 
attendees of the coffees ever received formal invitations from either 
the DNC or the White House to attend the coffee?
    Answer. My recollection is they did not receive formal invitations.
    Question. I provide for the witness a document marked Exhibit AS-
17, which is marked EOP 035478, dated September 28, 1995, and it 
appears to be a list from a computer database that is not addressed to 
anybody in particular.
    Answer. I don't think it is a list.
    Question. I mean it provides fields, entry of data, for an 
addressee. It is not an actual letter that went out to anyone.
    [Swiller Deposition Exhibit No. AS-17 was marked for 
identification.]

                       EXAMINATION BY MR. WILSON:

    Question. I show you this to ask you if you have seen letters like 
this that have gone out to coffee invitees?
    Answer. Not like this, no. As I stated earlier, the letters we 
would send were in the form of a memorandum indicating where they 
should enter. I don't recall sending a formal letter like this.
    Question. Was there anybody at the DNC that was responsible for 
issuing the invitations or collecting information from the individual 
invitees?
    Answer. At the DNC?
    Question. Yes.
    Answer. It tended to be myself and Ann Braziel.
    Question. Did you have any--do you have any knowledge that any 
individuals at the DNC were linking attendance at a coffee with a 
contribution of any sort?
    Answer. No, I don't.
    Question. I provide the witness with an exhibit marked AS-18.
    [Swiller Deposition Exhibit No. AS-18 was marked for 
identification.]

                       EXAMINATION BY MR. WILSON:

    Question. This is premarked with a Bates Number DNC 3098456. If you 
would take just a moment to look at that. This appears to be a call 
sheet. It is not specifically addressed to an individual. It is 
prepared by Ann Braziel.
    Do you recall call sheets of this nature being prepared?
    Answer. Yes, I do.
    Question. Did you discuss with Mr. Braziel--with Ms. Braziel call 
sheets of this nature?
    Answer. Yes, I did.
    Question. And did you discuss with her language that is set out at 
the bottom, the reasons for call. Here it indicates that an individual 
is interested in participating in convention but is not sure about 
membership. Ask them to begin renewal of his trustee membership at 25 K 
and attend the coffee with the President on, and three dates are 
listed.
    Were you aware of any situations where when calls were made, 
attendance at coffee was linked with renewal of trustee membership?
    Answer. I don't have knowledge of that.
    Question. Did you ever discuss with Chairman Fowler the 
relationship between membership or being included in the trustee 
program and attending coffees?
    Answer. He knew that in my role I included trustees in those 
coffees, so the participation of trustees was sort of a natural thing 
for us to discuss, because they were the donors I worked with.
    Question. You mentioned before that you tended to include long-
standing trustees as possible invitees to coffees. How would you 
determine what would qualify as a long-standing trustee contributor to 
be included in your list of invitations?
    Answer. Their length of time for when they contributed. If they had 
been a contributor for two years, a year. People that got involved more 
close to the date of a coffee, I would move them sort of towards a 
later date. People who had been continual contributors, renewing every 
year, were my first priority.
    Question. And did you have a cutoff in your own mind as to years of 
participation for inclusion in the list of potential attendees that you 
submitted?
    Answer. No.
    Question. Did you ever receive information, financial information, 
that projected income for coffees that the President attended?
    Answer. No, I did not.
    Question. Did you ever receive any spreadsheets or financial data 
that listed coffees?
    Answer. Not that I recall, no.
    Question. Do you have any recollection of receiving any types of 
financial data or spreadsheets, apart from that which we have already 
discussed, which were the lists of trustees that could be generated at 
your request?
    Answer. No.
    Question. No.
    Answer. Not that I recall, no.
    Question. Did you ever have any discussions with your colleagues 
about financial projections for coffees or indications of money 
received from coffees? And I refer exclusively to before November of 
1996.
    Answer. No, not that I recall.
    Question. Are you aware of whether the Vice President hosted 
coffees for DNC supporters?
    Answer. Yes, he did.
    Question. Did you ever submit any lists of suggested attendees for 
those coffees?
    Answer. I did.
    Question. And what criteria did you use to determine who you would 
put on the list?
    Answer. Similar criteria. I tended to defer to, in the case of 
coffees with the Vice President, contributions that were not made by 
the individual, but if there was like a Washington representative of a 
company that had been a long-standing contributor, that is where I 
tended to include them on the list.
    Question. Have you ever heard of the term of art ``servicing'' used 
in conjunction with either presidential or vice presidential coffees? 
And, if so, do you know what it means?
    Answer. I have heard the term ``servicing.''
    Mr. Pierson. Have you heard it applied though to coffees?
    The Witness. Yes.

                       EXAMINATION BY MR. WILSON:

    Question. And do you have an understanding of what the term 
``servicing'' means?
    Mr. Pierson. As applied to coffees?

                       EXAMINATION BY MR. WILSON:

    Question. As applied to coffees.
    Answer. It would mean an opportunity to include donors at an event 
where the President would be attending and it would not be a fund-
raiser.
    Question. Have you ever seen any lists of coffees where the term 
``servicing'' is applied to one of the presidential or vice 
presidential coffees?
    Answer. I don't recall such a list.
    Question. Do you recall ever having discussions with any of your 
colleagues as to whether either a presidential or vice-presidential 
coffee would be designated as a servicing event?
    Answer. No.
    Question. There was a coffee on May 13, 1996, that included a 
number of prominent bankers. Did you submit any suggestions or names 
for that particular coffee?
    Answer. I did not.
    Mr. Pierson. Counsel, it is now about 4 o'clock. I would like to 
ask on the record counsel for the Minority whether they will have any 
examination based on how the testimony is going so far?
    Mr. Lu. I think we will, yes.
    Mr. Pierson. Can you give me an estimate of how long?
    Mr. Lu. At this point, 15 to 20 minutes maybe, possibly a little 
bit more, a little bit less.
    Mr. Pierson. Okay. I haven't talked to Mr. Swiller about how he is 
feeling, but I am getting weary. I am just writing notes. What I would 
like to do is take about a 2 or 3-minute break and go until 5 o'clock, 
and whatever line of questioning you have at that time we would be 
happy to let you finish, and let the Minority do some questioning. 
Unless it opens some area that is legitimate for you to pursue, I would 
like to end.
    Mr. Wilson. I am in agreement to continue on after a short break. I 
hope I can wrap up within the next hour. I can't make any 
representations to that.
    Mr. Pierson. Fair enough.
    [Brief recess.]

                       EXAMINATION BY MR. WILSON:

    Question. Back on the record, please.
    Did you ever have any interaction with Harold Ickes?
    Answer. No, I did not.
    Question. Did you ever place any calls or make any contacts with 
Mr. Ickes' office?
    Answer. Yes, I did.
    Question. And what were the circumstances?
    Answer. I believe I spoke with an assistant to him, John Sutton. I 
think it was regarding a tour request that he was going to do for some 
contributors, supporters.
    Question. That Mr. Sutton was going to----
    Answer. Yes.
    Question [continuing]. Organize for contributors? Did you ever----
    Mr. Pierson. You have to speak audibly.

                       EXAMINATION BY MR. WILSON:

    Question. Did you ever have any contacts with Janice Enright?
    Answer. Socially, but not that I recall in her office, work.
    Question. Did you make any requests of her?
    Answer. No, not that I recall.
    Question. Do you recall whether she made any requests of you?
    Answer. No, I do not recall any.
    Question. Did you ever prepare call sheets for the President, Vice 
President, First Lady or Vice President's wife?
    Answer. I believe I prepared call sheets for the President and Vice 
President, yes.
    Question. And----
    Answer. I did.
    Question. And how did you determine who would be put on call 
sheets?
    Answer. In discussions with Mr. Sullivan and Mr. Rosen.
    Question. Did you keep track of the results of what happened after 
call sheets were sent out?
    Answer. Yes, I did.
    Question. How did you do that?
    Answer. We had a binder in the office that had copies of call 
sheets, and at the front of it was a spreadsheet that indicated if a 
call was made and what the response was.
    Question. And was the binder divided into sections depending on 
President and Vice President, First Lady, or who the person to make the 
call was?
    Answer. Since there were only calls to my knowledge made by the 
Vice President, it was all calls referring to him.
    Question. And who generated the spreadsheet that you refer to as 
being at the front of the binder?
    Answer. Ms. Braziel.
    Question. When you provided call sheets through the Vice President, 
did you provide any additional instructions or materials in addition to 
the one-page call sheet?
    Answer. Not that I recall, no.
    Question. I provide for Mr. Swiller a document marked Exhibit AS-
19, which is marked as a DNC call sheet for Vice President Gore.
    [Swiller Deposition Exhibit No. AS-19 was marked for 
identification.]

                       EXAMINATION BY MR. WILSON:

    Question. It has been premarked with the Bates number EOP 049239. 
It is dated December 1, 1995.
    Do you recognize the handwriting at the bottom of the page?
    Answer. It looks like it could be the handwriting of Anne Braziel.
    Question. And if you could, please tell me how the call sheets were 
treated once they were sent out? Did you request the calls be made by a 
certain time?
    Answer. No, I did not.
    Question. How would information as to whether the calls had been 
made or not made be transmitted back to your office?
    Answer. It generally tended that a gentleman named Peter Knight 
would assist in that. He would provide information if calls were made 
or not.
    Question. Did you ever discuss with Peter Knight the call sheets 
and fund-raising efforts made pursuant to the call sheets?
    Answer. Yes, I did.
    Question. What did you discuss?
    Answer. In regards to the call sheets?
    Question. Yes.
    Answer. He would inform me if a call was made, if the Vice 
President connected with the individual who the outreach was made to, 
what the result of that call was, if it was favorable or not favorable.
    Question. And do you recall whether he contacted you exclusively, 
or did he sometimes contact Ms. Braziel?
    Answer. I think he sometimes contacted Mr. Sullivan, but I think he 
generally contacted myself and talked to me.
    Question. This particular call sheet lists as a reason for the call 
to ask an individual to contribute an additional $50,000 to the DNC 
Media Fund.
    What was the Media Fund?
    Answer. It was a similar internal campaign line of funds we were 
trying to raise. I don't think there was a separate account for it, and 
I think it was just internally attracting that we were doing.
    Question. Did you receive copies of separate accounting for funds 
that had been raised in the Media Fund?
    Answer. Not that I recall, no.
    Question. Did you ever suggest to any individuals that they make 
contributions to not-for-profit organizations?
    Answer. If individuals were interested in organizations that were 
not-for-profit, there were times when I would offer them names of such 
organizations.
    Question. Did you keep a list of names of organizations that were 
not for profits that you suggested people to contribute to?
    Answer. I did not.
    Question. Did you have a memoranda that you could provide for 
people with names and addresses?
    Answer. Not that I recall, no.
    Question. When you made suggestions to individuals about a 
particular not for profit to which they might contribute, did you 
verbally tell them what the organization was and other information 
about the organization?
    Answer. That is correct.
    Question. Did you ever keep any records of whether people you 
discussed not-for-profit contributions with actually did contribute to 
the not-for-profit group?
    Answer. I don't recall a separate recording for that, no.
    Question. Do you recall whether there was an accounting of any sort 
within the DNC that kept track of contributions made to not-for-profit 
organizations?
    Answer. Not that I am aware of.
    Question. Did you ever see any spreadsheets that listed not-for-
profit contributions?
    Answer. No, I did not.
    Question. Did you keep any information in the trustee files about 
whether individuals made contributions to not-for-profit organizations?
    Answer. I may have, but I don't recall any specific.
    Question. You suggested earlier you would provide the names of 
organizations to which contributions could be made. What are the names 
of those organizations?
    Answer. The ones I recall are the William Randolph Black Coalition 
for Black Voter Participation, the A. William Randolph Coalition for 
Black Voter Participation, and I think there was another organization 
called Vote '96.
    Question. Did you ever suggest individuals make contributions to an 
organization called Defeat 209?
    Answer. No, not that I recall.
    Question. Did you ever suggest individuals make contributions to an 
organization called Participation 2000?
    Answer. No, not that I recall.
    Question. Why did you ask individuals or corporations to give gifts 
to not-for-profit organizations?
    Answer. I never asked them to.
    Question. Is it fair to characterize what you said earlier that you 
merely responded to their questions of who might I contribute to for a 
not-for-profit contribution?
    Answer. That is correct.
    Question. Have you ever met an individual named Warren Meddoff?
    Answer. No, I have not.
    Question. Have you been contacted about a possible contribution 
from Mr. Meddoff prior to November 1996?
    Answer. By whom?
    Question. By anybody. Prior to November of 1996?
    Answer. Mr. Fowler contacted me about it.
    Question. And what did he ask you or tell you?
    Answer. He asked if I had heard the name Meddoff, or I believe 
there was another individual working with him who had indicated that 
they may make a large contribution to the DNC. Mr. Fowler was concerned 
because of the size of the contribution and the timing of the 
contribution and the fact that Mr. Meddoff was not known to myself and 
other individual fund-raisers at the DNC. He had some suspicions about 
their motives, their sincerity, and whether they were for real or not.
    Question. What did you tell Mr. Fowler?
    Answer. I told him that I did not know Mr. Meddoff. I don't recall 
the company he represented himself aligned with, but I didn't know that 
either. As I said earlier, there was another gentleman involved, and I 
did not know that gentleman either.
    Question. Did Mr. Fowler ask you to do any research on Mr. Meddoff 
or Mr. Meddoff's associate?
    Answer. Yes. They sort of I guess indicated that they were in the 
financial field, so he asked that I call, if I could request of donors 
who were also in the finance field if they knew of these individuals.
    Question. And did you make calls to----
    Answer. I recall two calls that I made, yes.
    Question. Who did you call?
    Answer. A gentleman named Steven Rattner, and a gentleman named 
Elliott Wolk.
    Question. The spelling of the second gentleman's name is?
    Answer. W-O-L-K.
    Question. And what did they tell you about Mr. Meddoff?
    Answer. Neither of them had heard of him or the company which they 
represented.
    Question. Did you communicate this to Mr. Fowler?
    Answer. I did.
    Question. And did he ask you to do anything else?
    Answer. He did not.
    Question. Did you have any--did you receive any requests from 
anybody outside of the DNC about information pertaining to Mr. Meddoff 
prior to November of 1996?
    Answer. No, I--no.
    Question. Do you know whether the DNC ever provided a list of 
Chinese American trustees to anyone at the Taiwan Economic and Cultural 
Representative Office in the United States?
    Answer. Not to my knowledge.
    Question. Do you know an individual named Andrew Hsi, spelled H-S-
I?
    Answer. I do not.
    Question. Have you ever had any contacts with Andrew Hsi?
    Answer. No, I have not.
    Question. Do you know an individual named Steve Boyd?
    Answer. Yes.
    Question. Has Mr. Boyd ever asked you to provide a list of trustees 
to him?
    Answer. Not that I recall, no.
    Question. Do you know whether Mr. Boyd asked you to provide a list 
of trustees to anyone else?
    Answer. Not that I have any recollection of.
    Question. I provide the witness with a document which has been 
marked Exhibit AS-20.
    [Swiller Deposition Exhibit No. AS-20 was marked for 
identification.]

                       EXAMINATION BY MR. WILSON:

    Question. It has been Bates marked DNC 1761511. It is a memorandum 
to Ari Swiller from Matt, dated April 21, subject, loose ends. If you 
can take just a moment to review this document.
    Answer. Okay.
    Question. Do you know who the individual was, ``Matt,'' at the top 
of the memo is?
    Answer. Yeah. It's Matt Gobush.
    Question. Do you recall ever having seen this memo?
    Answer. Yes, I do.
    Question. Referring to the last bullet mark paragraph of the 
memorandum, it states that ``Steve Boyd has requested a list of 
Chinese-American Trustees for Andrew Hsi of the Secretariat of Taiwan 
per the request of Jim Brady, DNC Vice Chair.''
    Do you recall having any conversations about Mr. Boyd requesting a 
list of Chinese-American trustees?
    Answer. I don't.
    Question. Do you remember having seen this at the time that the 
memorandum was given to you?
    Answer. I----
    Question. This statement.
    Answer. This statement. I don't have a recollection of it, but I 
remember seeing a memorandum.
    Question. Did you ask Mr. Gobush for further information about 
this, the request about a list of Chinese-American trustees for the 
Secretariat of Taiwan?
    Answer. Not that I recall.
    Question. Did Mr. Gobush provide any additional information to that 
which is in this memorandum?
    Answer. Not that I can recall.
    Question. Do you recall having any conversations with anybody or 
contacts with anybody about providing lists of trustees for somebody in 
the Secretariat of Taiwan?
    Answer. No, I do not recall any.
    Question. Do you know whether Mr. Gobush sent over such a list to 
the Secretariat of Taiwan?
    Answer. Not to my knowledge.
    Question. Do you recall whether at the time that this struck you as 
being an unusual request?
    Answer. It strikes me now as one. I don't recall my reaction to it 
at that time.
    Question. Have you ever provided a list of trustees to any 
organization outside of the DNC?
    Answer. Not to my knowledge. I was very protective of the list.
    Mr. Wilson. I've given the witness a memorandum which has been 
marked AS-21. It's premarked DNC 1781772. It's a memorandum dated April 
24, 1995, to Steve Boyd from Mr. Swiller and Nancy Burke. It's re: 
Chinese-American trustees. This memorandum lists three--actually five 
individuals: Mr. Johnny Chung, Mr. Charlie Trie, Mrs. Wang Mei Trie, 
Dr. C.J. Wang and Dr. Mildred Wang.
    [Swiller Deposition Exhibit No. AS-21 was marked for 
identification.]

                       EXAMINATION BY MR. WILSON:

    Question. Do you recall ever having seen this memorandum?
    Answer. No, I don't recall seeing it.
    Question. Who is Nancy Burke?
    Answer. She was my assistant on the trustee program after Mr. 
Gobush left. She worked at my direction.
    Question. Did Ms. Burke and Mr. Gobush overlap in their terms of 
employment?
    Answer. Maybe by a week as a transition period.
    Question. Do you recall whether Ms. Burke ever discussed with you 
sending names of Chinese-American trustees to Mr. Boyd?
    Answer. I don't recall the conversation, no.
    Question. Referring back to the previous document, the date is not 
specific. It says April 21st, and a year is not included in the first 
document. The second document is dated April 24 of 1995. I believe 
April 21st is a Friday and April 24 is a Monday. Is there--.
    The Witness. Excuse me one second.
    [Witness and counsel confer.]
    The Witness. Sorry.
    Mr. Pierson. Perhaps, counsel, it might be more useful if you're 
trying to fix the year to ask the witness if he recalls when Mr. Gobush 
was employed at the DNC.

                       EXAMINATION BY MR. WILSON:

    Question. When was Mr. Gobush employed at the DNC?
    Answer. He was employed at the DNC through--through the end of 
April, I believe, in 1995.
    Mr. Pierson. And he began at what time?
    The Witness. He began in--about a year prior.

                       EXAMINATION BY MR. WILSON:

    Question. Do you have a recollection of the month that he began his 
employment?
    Answer. I don't.
    Question. Okay. Who is Steve Boyd?
    Answer. I believe he worked in the Office of the Secretary of the 
DNC.
    Question. And what is the Office of the Secretary in the DNC 
responsible for doing?
    Answer. I don't know. They are responsible for making sure that the 
Secretary of the DNC is well seated at all DNC events. Other than that, 
I think they maintain the bylaws of the party, but I'm not sure what 
their day-to-day responsibilities are.
    Question. Did you receive other requests from Mr. Boyd--well I 
shouldn't say other requests. Did you receive any requests that you 
recollect from Mr. Boyd during your employment at the DNC?
    Answer. Not that I recall.
    Question. Do you know Anne Lewis?
    Answer. I know who she is.
    Question. Have you ever met her?
    Answer. I believe I have, yes.
    Question. Do you know Lynn Cutler?
    Answer. Yes, I do.
    Question. And do you know her personally?
    Answer. Yes I do.
    Question. Do you know of any donations--did you ever recommend 
donations be made to the Back to Business group.
    Answer. No I did not.
    Question. Were you ever part of any--of discussions wherein it was 
suggested the DNC donors made contributions to the Back to Business 
organization?
    Answer. Yes, I believe I was--yes.
    Question. And if you could, please describe those discussions.
    Answer. I believe Ms. Cutler at some point made a request for some 
names that may be outreached to for that organization.
    Question. Did Ms. Cutler make the request directly of you?
    Answer. As I recall, yes.
    Question. And how did you respond?
    Answer. I did not respond.
    Question. Did you send her any names?
    Answer. Not that I recall.
    Question. Did you suggest any names that she might contact?
    Answer. Not that I recall.
    Question. Do you recall in a general sense what you told her?
    Answer. I think it--when she asked, I said I would look into it. 
But I remember feeling that it would be counterproductive to my efforts 
to raise money, so I--I don't recall her ever following up, so I didn't 
do any proactive follow up.
    Question. When you left the DNC in March of 1997, or at any time 
previous to your leaving the DNC, did you sign a memorandum about the 
retention or nondestruction of documents?
    Answer. Yes, I believe so.
    Question. Do you know when you might have signed such a document?
    Answer. Prior to leaving the DNC.
    Question. Do you remember when--when the document was circulated 
for you to be signed?
    Answer. Around the new year, December, January; maybe earlier.
    Question. And do you recall signing this document?
    Answer. I believe I did, yes.
    Question. When you--in 1995, were you aware of a suggestion by 
campaign consultant Dick Morris about a large-scale media purchase for 
the end of 1995?
    Answer. At that time, no.
    Question. And I'm speaking specifically about that time.
    Answer. No, I'm not.
    Question. Did you become aware of such a suggestion at any time 
before November of 1996?
    Answer. I became aware that the DNC was making large purchases of 
TV time. I don't know at what point that I became aware it was at his 
suggestion. I knew we were doing it, and when I became aware of that 
Mr. Morris was involved in that discussion, I can't recollect exactly 
when that was.
    Question. Did you contact any of the trustee donors to provide 
additional contributions for media purchases at the end of 1995?
    Answer. As I recall, no, there was no direct contributions made to 
direct media purchases. There was general fund-raising that was always 
at an increase because we always needed more money. As we started to, 
as I recall, buy more media time, our expenditures grew, so we were 
required to raise more money. I don't know that that--I can't recall 
directing anyone that their funds would go to media purchase, because I 
don't believe that that was ever the case.
    Question. Do you know whether anybody at the DNC was involved in 
keeping track of funds or monies to be directed towards media purchases 
at the end of 1995?
    Answer. Not that I have knowledge of, no.
    Question. Do you recall whether there were any specific accounting 
systems set up to keep track of funds that might be expended in media 
buys at the end of 1995?
    Answer. No.
    Question. Did you have any involvement with funds being wired to 
State parties to implement media buys at the end of 1995?
    Answer. I don't recall that.
    Question. Did you have any direct contact with any State party 
officials in terms of providing contributions to the State parties from 
the DNC?
    Answer. No. I don't recall speaking to State party officials.
    Question. Were you involved in any discussions of sending DNC 
monies to State parties?
    Answer. No, not that I recall.
    Mr. Pierson. May I hear the last question and answer, please?
    [The reporter read back as requested.]
    Mr. Pierson. Excuse me just a moment.
    [Witness and counsel confer.]
    Mr. Pierson. Are you asking for his discussion with anybody inside 
the DNC, any contributors, anybody in the world?
    Mr. Wilson. Any----
    Mr. Pierson. Because he's already testified about the Tamraz 
situation.
    Mr. Wilson. Correct. Any of the DNC colleagues.
    [Witness and counsel confer.]
    Mr. Pierson. Start your question again, because I think he's 
thinking about something different than you're asking. So ask again if 
you would, please.

                       EXAMINATION BY MR. WILSON:

    Question. Were you involved in any meetings or discussions with DNC 
colleagues about--about forwarding DNC monies to State parties?
    Mr. Pierson. What you're talking about is money that has gone into 
DNC accounts and thereafter would go to State parties?
    Mr. Wilson. Correct.
    The Witness. No.
    Mr. Pierson. Okay.

                       EXAMINATION BY MR. WILSON:

    Question. Unfortunately, this is depressing for me to go back and 
look at the pile that I went passed earlier, but a couple of quick 
questions on a few more issues.
    Mr. Pierson. Far more depressing to us.
    Mr. Wilson. I'm hoping to come within the last 4 or 5 minutes of my 
questioning.
    Mr. Pierson. Good.
    Mr. Wilson. Maybe a little longer.
    Mr. Pierson. Good.

                       EXAMINATION BY MR. WILSON:

    Question. Did you ever draft, suggest a list of DNC contributors to 
stay as overnight guests in the White House?
    Mr. Pierson. Do you mean did he ever propose names for overnight 
stays in the White House?

                       EXAMINATION BY MR. WILSON:

    Question. Well, the first question is did you ever send the list or 
draft lists of suggested overnight guests at the White House?
    Answer. I don't recall drafting it, no.
    Question. Did you ever make suggestions of individuals to be 
overnight guests at the White House?
    Answer. On occasion, yes.
    Question. Do you recall specifically who you suggested as an 
overnight guest?
    Answer. No. My recollection would be that there had been long-
standing fund-raisers and trustees who have been significantly 
supportive throughout the years.
    Question. And to whom would you communicate your suggestions?
    Answer. I think initially I communicated suggestions to Ms. 
Hartigan and Mr. McAuliffe; subsequent to the transition, to Mr. 
Sullivan and Mr. Rosen.
    Question. Did you ever communicate directly with the White House 
with suggestions of potential overnight guests?
    Answer. No, not that I recall.
    Question. Did you ever receive telephone calls or contact from the 
White House about suggested overnight guests?
    Answer. No.
    Question. Did you ever travel on Air Force One or Air Force Two?
    Answer. No.
    Question. Did you ever suggest individuals to travel on Air Force 
One or Air Force Two?
    Answer. Yes, I did.
    Question. And what criteria would you use to make such a 
suggestion?
    Answer. Same criteria as I stated earlier: People who had been 
long-standing supporters or longtime fund-raisers of the party.
    Question. And who would you communicate your suggestions to?
    Answer. As I stated earlier, at first I--I would to Mr. McAuliffe 
and Ms. Hartigan; following the transition, to Mr. Sullivan and Mr. 
Rosen.
    Question. Did you ever discuss requests for positions on boards or 
commissions with DNC donors?
    Answer. Yes, I did.
    Question. And who did--who did you discuss board or commission 
positions with?
    Answer. I can't recall all the donors. I remember Ms. Betsy Cohen 
made a request about an inquiry. I think Elaine Shuster.
    Question. Do you remember any other names?
    Answer. I believe there may have been others that I spoke with 
about it but not coming to mind.
    Mr. Wilson. I've given the witness a document which is marked 
Exhibit AS-22. It's been Bates marked DNC 3052822, memorandum to Mr. 
Swiller and Richard Sullivan from Eric Sildon and Jay Dunn, dated 
January 24, 1994.
    [Swiller Deposition Exhibit No. AS-22 was marked for 
identification.]

                       EXAMINATION BY MR. WILSON:

    Question. Do you recall ever receiving requests from the Commerce 
Department for potential board members?
    Answer. No, I don't.
    Question. Do you recall having seen this memorandum?
    Answer. I do not recall it.
    Question. Do you remember whether you ever submitted names of 
individuals as recommendees for the President's Export Council?
    Answer. I don't recall it.
    Question. Do you remember any--anybody following up on this 
request--any request for names to be submitted for the President's 
Export Council?
    Answer. I don't recall it.
    Question. Did you ever suggest that DNC donors attend White House 
movies?
    Answer. No.
    Question. Are you familiar with the term of art ``White House 
database''?
    Answer. Yes.
    Question. Did you ever have access to any materials produced by the 
White House database?
    Answer. Yes.
    Question. And what materials did you have access to?
    Answer. I remember--I didn't have physical access, but requesting 
of someone who had access to see whether certain people had been 
invited to certain events at the White House.
    Question. And did you make a request to obtain this information?
    Answer. Yes I did.
    Question. And who did you make the request of?
    Answer. A gentleman named Donald Dunn.
    Question. And who is Mr. Dunn?
    Answer. At that time he worked in the Office of Political Affairs 
at the White House.
    Question. And did you make requests on more than one occasion of 
Mr. Dunn to provide this information?
    Answer. Yes.
    Question. What was the format of the information that he provided?
    Answer. There was no format. He would--it was voice conversation.
    Question. Is it fair to say that you provided him with a name, and 
he provided you an answer as to----
    Answer. Correct.
    Question [continuing]. Whether the person had or had not been 
invited?
    Answer. Correct.
    Question. Did you ever provide information to be included in the 
White House database?
    Answer. Not that I recall.
    Question. Did Mr. Dunn ever make requests of either yourself or 
staff in your office to provide any information?
    Answer. Not that I recall.
    Question. Do you recall speaking with Mr. Dunn on more than the one 
occasion that you just discussed?
    Answer. I spoke to Mr. Dunn probably half a dozen times.
    Question. And was it always for the same reason?
    Answer. Some--no, at certain times I made a request of Mr. Dunn to 
provide a White House tour for family or individual donors.
    Question. Did you ever receive any lists of names or information 
that was generated by the White House database?
    Answer. I don't know if it was generated by the database, but I 
received a list of names from the Office of the Social Secretary.
    Question. And what were these lists of names for?
    Answer. On occasion they would request of us lists of possible 
invitees to events that the White House would be hosting. They would 
send back a response list.
    Question. Do you know whether the DNC had an autopen for the 
President's signature?
    Answer. My recollection is that we did not have one.
    Question. Regarding materials that had the President's signature, 
and I'll ask you specifically about photographs that were signed by the 
President, when you were attempting to obtain photographs for people, 
who would you make your requests of?
    Answer. For the photographs?
    Question. Yeah.
    Answer. Sometimes Mr. Dunn. There was a woman at the DNC that I 
worked with, a woman named Brooke Stroud, who would assist in obtaining 
photographs from the White House.
    Question. Just a--I think my last question on this go-around, you 
mentioned at the very beginning when we were discussing Ernst & Young 
and the materials Ernst & Young prepared that you knew of an Ernst & 
Young individual who was a trustee. Who was that individual?
    Answer. His name was Jeffrey Hershberg.
    Question. And when did you meet him, or have you ever met him?
    Answer. I have met him. I believe I didn't meet him until I 
returned to the DNC. He was already a trustee at that time. So 
subsequent to my return, beginning of 19--end of 1993, beginning of 
1994.
    Question. What was his job at Ernst & Young?
    Answer. He was vice president--vice chairman was his title. I 
believe he directed the Washington office, lobbying office, for the 
company.
    Question. Do you know if he is still an Ernst & Young employee?
    Answer. When I left here 5 months ago, he was. I have not had 
contact with him in 5 months since I left, so today I do not know.
    Question. How did you obtain your current job in California?
    Answer. I knew an individual who was working with the same company 
who had the position basically as I have it now. And he was leaving the 
position to assume a different role and approached me about filling the 
position.
    Question. And who was this individual?
    [Witness confers with counsel.]
    Mr. Lu. Counsel, I don't know how much you're going to----
    Mr. Pierson. Just let him answer this question.
    The Witness. The gentleman's name is Darius Anderson.
    Mr. Wilson. Thank you very much. That concludes my round of 
questioning.
    Mr. Lu. Can we take just a quick 5-minute break while I confer with 
counsel?
    Mr. Wilson. Can we go off the record for a second?
    [Discussion off the record.]
    [Brief recess.]
    Mr. Lu. Let's go back on the record.
    Mr. Wilson, I--you're done with your questioning?
    Mr. Wilson. Yes, I am.
    Mr. Lu. Okay.

                         EXAMINATION BY MR. LU:

    Question. Mr. Swiller, on behalf of the Democratic Members of the 
committee, I want to thank you for coming in today. I realize this must 
have been a great burden on you coming from the west coast, but we 
appreciate your time.
    Just a couple clarifying questions I want to ask you. Can you tell 
me again how many trustees or managing trustees there were at the DNC 
during the time you worked there?
    Answer. It grew during the time I was there. By the time I was 
finished, or by the time in the '96 election, it was approximately 
around 800.
    Question. About 800.
    Mr. Wilson has asked you about a number of them today and a couple 
of more newsworthy ones. At the time that you worked at the DNC prior 
to November of 1996, had there been any news accounts about Johnny 
Chung, Pauline Kanchanalak, Charlie Trie?
    Answer. Not that I recall, no.
    Question. So at that time, you, prior to November 1996, you had no 
particular reason to pay special attention to correspondence that you 
received from them or requests that you received from them any more 
than from any other trustee?
    Answer. That's correct.
    Question. I would like to ask you to clarify the terms ``trustee'' 
and ``managing trustee.'' When I think about a university having a 
board of trustees or a company having a board of directors, I have a 
sense that these people play a role in the day-to-day operations of a 
university, a corporation, what have you, and especially when I think 
about the terms ``managing trustee'' or ``managing director.'' My 
understanding, however, is that with regard to the DNC, the use of the 
term ``trustee'' and ``managing trustee'' is more of an honorary term. 
Is that consistent with your understanding?
    Answer. No. My understanding is they are--the names were consistent 
with the level of contribution or level of funds raised for the party.
    Question. Well, no, I think what my question was really getting at 
is whether those people had a role in the day-to-day operation of the 
DNC?
    Answer. Absolutely not.
    Question. With regard to Pauline Kanchanalak, I gather that she was 
a trustee at the time that you joined--you rejoined the DNC in December 
of 1993?
    Answer. That's my recollection, correct.
    Question. So from there on out, when you received checks from her 
that were P. Kanchanalak, you had no reason to believe that they were 
anything other than checks from Pauline Kanchanalak?
    Answer. That's correct.
    Question. I believe you also testified that you attempted to 
contact Mr. John Huang when he worked at the Department of Commerce; 
isn't that correct?
    Answer. That's correct.
    Question. Did you actually getting ahold of Mr. Huang that one time 
you tried to call him?
    Answer. I never did.
    Question. With regard to Johnny Chung, I believe you said when you 
visited him at his office in California in spring of 1995, you chuckled 
because you saw a whole wall full of photos that he had taken. You 
mentioned that there were some of Republican leaders. Did he tell you 
or did you ask him how he obtained those photos?
    Answer. No, I don't recall that conversation.
    Question. Did you have any understanding as to whether he had given 
money to the Republican Party or attended Republican fund-raising 
events?
    Answer. Judging from the pictures, they were very similar to DNC-
type staged pictures, so I assumed that--it was just an assumption on 
my own, but not a discussion--that they were--you know, that he 
received pictures like that at fund-raising events.
    Question. When we spoke about Mr. Ruggiero, Mr. Joseph Ruggiero, 
you explained that had he complained that he had received much better 
treatment by the RNC in getting access to the Bush White House. And 
you--I believe you had mentioned some of the perks that he had received 
as a result of giving money to the RNC.
    Other than your conversation, that conversation with Mr. Ruggiero 
or that understanding as a result of Mr. Ruggiero, do you have any 
understanding of the types of perks that the Republican National 
Committee offered to its large donors?
    Answer. My understanding was that they included many more of their 
financial supporters at events at the White House, at small delegation 
meetings, meetings with Members of Congress much more frequently as a 
system of their fund-raising apparatus.
    I also recall, when we were discussing the possibility of putting 
together a brochure for our trustees, we referenced the RNC Team 100 
brochure, which, as I recall, had a picture of what they called a trade 
mission. It was a picture at the wall of China of approximately 50 
people standing at the wall and indicated that, you know, their--
through the RNC's efforts, these donors met with the highest-level 
officials in other countries.
    Question. And did you gather from that photo that that RNC trade 
mission included officials of whether it be the Reagan administration 
or the Bush administration?
    Answer. I couldn't draw that conclusion, no.
    Question. Were you aware of any perks that the RNC offered to its 
large donors that the DNC did not offer to its large donors?
    Answer. I don't recall ever having the opportunity to bring 
individual donors to the Oval Office to provide photos there. It was 
always joked about, and I don't know the truth of this, that the 
Republicans were much better at giving large contracts to their 
supporters than we, and we couldn't figure out how to do that, which I 
just took it as that and never looked into it or did anything to follow 
up if that was true.
    Question. With regard to these--I think you said these meetings 
that--your ability to bring people to the Oval Office to meet with the 
President, I believe you had earlier testified that some contributors 
had asked you for--to set up meetings with the President and the Vice 
President, and you had declined those requests because you thought that 
was inappropriate?
    Answer. That's correct.
    Question. Okay. With regards to government boards and commissions, 
the fact that you or someone at the DNC submitted a name for a 
government board did not necessarily mean that the White House would 
accept that name; isn't that correct?
    Answer. More often than not there was no response to my request, or 
the name was not accepted.
    Question. In fact, when there's--typically when there's an opening 
on a government board or commission, many people both inside and 
outside the administration submit names for boards and commissions; 
isn't that correct?
    Answer. That's my understanding correct.
    Question. Mr. Swiller, the last set of questions I have for you are 
requested by Congressman Condit. He's asked us to ask these of all the 
witnesses that are testifying before us.
    I believe you've told us that you've provided deposition testimony 
to the Senate; isn't that correct?
    Answer. That's correct.
    Question. And I'm curious, when you first learned that this 
committee wanted to take this deposition, did you wonder why you needed 
to be deposed again after you had already been deposed by the Senate?
    Answer. Yes, I did.
    Question. Can you estimate for me just very roughly what percentage 
of the questions you were asked today were also asked by the Senate?
    Answer. 80 percent.
    Question. 80 percent. And I also understand you've been interviewed 
by the FBI?
    Answer. That's correct.
    Question. And I gather a lot of the questions that the FBI asked 
were the same ones that have been asked today?
    Answer. That's correct.
    Question. Have you been notified of any other testimony that you're 
scheduled to give in the future?
    Answer. Not yet.
    Question. And I believe that when--I believe that you were at the 
DNC when some of the first congressional document requests were served 
upon the DNC; is that correct?
    Answer. That's correct.
    Question. Do you recall how much time you spent searching for 
documents at the DNC responsive to those requests?
    Answer. Probably each request required half a day of work.
    Question. Can you estimate a total of----
    Answer. Four hours. I think there were three requests.
    Question. Four hours for each request?
    Answer. Right.
    Question. Okay. And since you have left the DNC, have you spent any 
time searching for documents responsive to document requests?
    Answer. I no longer have any documents.
    Question. Other than the time that you've spent in this deposition, 
how much other time--well, actually let me stop that question.
    In connection with this entire investigation, can you give me an 
estimate of how much time you have spent? And that would include the 
Senate testimony, the FBI testimony, your testimony here, all the 
preparation time, all the travel time, conversations. We'll leave it at 
that.
    Answer. Probably 2 weeks of time.
    Question. And I assume this is the time that you have not been able 
to spend at your job?
    Answer. That's correct.
    Question. Other than your time, this 2 weeks that you've said, have 
you--I've assumed you've incurred other expenses to come here, travel 
expenses, hotel expenses, things like that?
    Answer. Most of the travel expenses have been incurred by the 
committees that have requested my presence, and the majority of the 
burden of my expenses has been placed on the DNC.
    Question. And obviously there's the time off from work I gather?
    Answer. Oh, yeah. I mean, that's probably the greatest expense, my 
lost time.
    Question. And if it is available, will you seek reimbursement from 
this committee for your time?
    Answer. Yes.
    Mr. Wilson. I have nothing further. Thank you again for coming 
today.
    The Witness. Sure.
    Mr. Pierson. Sorry for coaching.
    Mr. Wilson. Thank you very much, Mr. Swiller.
    Mr. Pierson. Thank you, gentlemen.
    [Whereupon, at 5:12 p.m., the deposition concluded.]

    [The exhibits referred to follow:]

    [GRAPHIC] [TIFF OMITTED] T5667.516
    
    [GRAPHIC] [TIFF OMITTED] T5667.517
    
    [GRAPHIC] [TIFF OMITTED] T5667.518
    
    [GRAPHIC] [TIFF OMITTED] T5667.519
    
    [GRAPHIC] [TIFF OMITTED] T5667.520
    
    [GRAPHIC] [TIFF OMITTED] T5667.521
    
    [GRAPHIC] [TIFF OMITTED] T5667.522
    
    [GRAPHIC] [TIFF OMITTED] T5667.523
    
    [GRAPHIC] [TIFF OMITTED] T5667.524
    
    [GRAPHIC] [TIFF OMITTED] T5667.525
    
    [GRAPHIC] [TIFF OMITTED] T5667.526
    
    [GRAPHIC] [TIFF OMITTED] T5667.527
    
    [GRAPHIC] [TIFF OMITTED] T5667.528
    
    [GRAPHIC] [TIFF OMITTED] T5667.529
    
    [GRAPHIC] [TIFF OMITTED] T5667.530
    
    [GRAPHIC] [TIFF OMITTED] T5667.531
    
    [GRAPHIC] [TIFF OMITTED] T5667.532
    
    [GRAPHIC] [TIFF OMITTED] T5667.533
    
    [GRAPHIC] [TIFF OMITTED] T5667.534
    
    [GRAPHIC] [TIFF OMITTED] T5667.535
    
    [GRAPHIC] [TIFF OMITTED] T5667.536
    
    [GRAPHIC] [TIFF OMITTED] T5667.537
    
    [GRAPHIC] [TIFF OMITTED] T5667.538
    
    [GRAPHIC] [TIFF OMITTED] T5667.539
    
    [GRAPHIC] [TIFF OMITTED] T5667.540
    
    [GRAPHIC] [TIFF OMITTED] T5667.541
    
    [GRAPHIC] [TIFF OMITTED] T5667.542
    
    [GRAPHIC] [TIFF OMITTED] T5667.543
    
    [GRAPHIC] [TIFF OMITTED] T5667.544
    
    [GRAPHIC] [TIFF OMITTED] T5667.545
    
    [GRAPHIC] [TIFF OMITTED] T5667.546
    
    [GRAPHIC] [TIFF OMITTED] T5667.547
    
    [GRAPHIC] [TIFF OMITTED] T5667.548
    
    [GRAPHIC] [TIFF OMITTED] T5667.549
    
    [GRAPHIC] [TIFF OMITTED] T5667.550
    
    [The deposition of Dick Morris follows:]

                           Executive Session

      Committee on Government Reform and Oversight,
                             U.S. House of Representatives,
                                                    Washington, DC.
                    DEPOSITION OF: RICHARD S. MORRIS
                                  Thursday, August 21, 1997

    The deposition in the above matter was held in Room 2247, Rayburn 
House Office Building, commencing at 9:15 a.m.
Appearances:
    Staff Present for the Government Reform and Oversight Committee: 
Barbara Comstock, Chief Investigative Counsel; Kristi Remington, 
Investigative Counsel; Michelle E. White, Investigative Attorney; Greg 
Zoeller, Majority counsel; Elliot Berke, Majority staff; Kenneth 
Ballen, Minority Chief Investigative Counsel; Andrew J. McLaughlin, 
Minority Counsel; Phil Schiliro, Minority staff director; David Sadkin, 
Minority counsel; and Kristin Amerling, Minority counsel.
    Also present: Representative Cummings.
For MR. MORRIS:
    DAVID LENEFSKY, ESQ.
    Attorney & Counselor at Law
    18 East 48th Street
    New York, N.Y. 10017

    Ms. Comstock. On the record. Good morning, Mr. Morris. I would like 
to begin by thanking you on behalf of the members of the Committee on 
Government Reform and Oversight for appearing here today. I am going 
through an opening statement here we read to all our witnesses.
    This proceeding is known as a deposition. The person transcribing 
this proceeding is a House reporter and notary public. I will now 
request that the reporter place you under oath.

THEREUPON, RICHARD S. MORRIS, a witness, was called for examination by 
   Counsel, and after having been first duly sworn, was examined and 
                         testified as follows:

    Ms. Comstock. I would like to note for the record those who are 
present at the beginning of the deposition. My name is Barbara 
Comstock. I am the chief investigative counsel on the committee. I am 
accompanied today by Kristi Remington as Majority counsel and Michelle 
White, who is also Majority counsel.
    Ken Ballen is the designated Minority counsel for the committee 
this morning, and he is accompanied by Andy McLaughlin.
    Mr. McLaughlin. Andrew, actually.
    Ms. Comstock. With the Minority staff.
    The deponent is represented by Mr. Lenefsky.
    Although this proceeding is being held in a somewhat informal 
atmosphere, your testimony here today has the same force and effect as 
if you were testifying before the committee or in a courtroom.
    If I ask you about conversations you have had in the past and you 
are unable to recall the exact words used in the conversation, you may 
state that you are unable to recall those exact words and then you may 
give me the gist or substance of any such conversation to the best of 
your recollection.
    If you recall only part of a conversation or only part of an event, 
please give me your best recollection of those events or parts of 
conversations that you do recall.
    If I ask you whether you have any information upon a particular 
subject----
    Mr. Lenefsky. Can you identify the gentleman who just walked in?
    Ms. Comstock. It is another Majority member of the committee.
    The Witness. What is your name?
    Mr. Berke. Elliot Berke.
    The Witness. Member or counsel?
    Ms. Comstock. Staff member of the committee, on the Majority staff.
    If I ask you if you have any information upon a particular subject 
and you have overheard other persons conversing with each other 
regarding it or seen correspondence or documentation regarding it, 
please tell me that you do have such information and indicate the 
source, either a conversation or documentation or otherwise, from which 
you have derived such knowledge.
    Before we begin the questioning, I would like to give you some 
background about the investigation and your appearance here.
    We have another staff member.
    Mr. Ballen. David Sadkin.
    Ms. Comstock. He is with the Minority staff.
    Pursuant to its authority under House Rules X and XI of the House 
of Representatives, the committee is engaged in a wide-ranging review 
of possible political fund-raising improprieties and possible 
violations of law within the committee's jurisdiction.
    Pages 2 through 4 of House Report 105-139 summarizes the 
investigation as of June 19, 1997, and encompasses any new matters 
which arise directly or indirectly in the course of the investigation. 
Also, pages 4 through 11 of the report explain the background of the 
investigation.
    All questions related either directly or indirectly to these 
issues, or questions which have a tendency to make the existence of any 
pertinent fact more or less probable than it would be without the 
evidence, are proper.
    The committee has been granted specific authorization to conduct 
this deposition pursuant to House Resolution 167, which passed the full 
House on June 20, 1997. Committee rule 20, of which you have received a 
copy, outlines the ground rules for the deposition.
    Majority and Minority committee counsel will ask you questions 
regarding the subject matter of the investigation. Minority counsel 
will ask questions after Majority counsel has finished. After the 
Minority counsel has completed questioning you, a new round of 
questioning may begin.
    Members of Congress who wish to ask questions will be afforded an 
immediate opportunity to ask their questions at any time when they may 
be present. When they are finished, committee counsel will resume 
questioning.
    Pursuant to the committee's rules, you are allowed to have an 
attorney present to advise you of your rights. Any objection raised by 
your attorney during the course of the deposition shall be stated for 
the record.
    If the witness is instructed by his attorney not to answer a 
question or otherwise refuses to answer a question, Majority and 
Minority counsel will confer to determine whether the objection is 
proper. If Majority and Minority counsel agree that a question is 
proper, the witness will be asked to answer the question.
    If an objection is not withdrawn by the witness' attorney, the 
chairman or member designated by the chairman may decide whether the 
objection is proper.
    This deposition is considered as taken in executive session of the 
committee, which means it may not be made public without the consent of 
the committee, pursuant to clause 2(k)(7) of House Rule 11. You are 
asked to abide by the rules of the House and not discuss with anyone, 
other than your attorney, this deposition and the issues and questions 
raised during this proceeding.
    Finally, no later than 5 days after----
    Mr. Lenefsky. Excuse me.
    The Witness. Just one second.
    [Discussion off the record.]
    Mr. Lenefsky. Please continue.
    Ms. Comstock. Finally, no later than 5 days after your testimony is 
transcribed and you have been notified that your transcript is 
available, you may submit suggested changes to the chairman.
    I would just like to let you know, with agreement of counsel, we 
have been waiving that 5 days, if you need additional time. Also, we 
can make arrangements to mail the transcript to you so you can have an 
easier time reviewing it.
    We do ask, however, that you sign a form, that Majority and 
Minority counsel have agreed upon, that asks both you and the client to 
sign a form saying you haven't shared the deposition with anybody when 
we let it out of the committee offices.
    The transcript will be available for your review at the committee 
office.
    Also, committee staff may make any typographical and technical 
changes requested by you. Substantive changes, modifications, 
clarifications, or amendments to the deposition transcript submitted by 
you must be accompanied by a letter requesting the changes and a 
statement of your reasons for each proposed change.
    A letter requesting any substantive changes, modifications, 
clarifications, or amendments must be signed by you. Any substantive 
changes, modifications, clarifications, or amendments shall be included 
as an appendix to the transcript, conditioned upon your signing the 
transcript.
    Do you have any questions about anything we have gone over so far?
    The Witness. No.
    Ms. Comstock. I just want to go through a few ground rules. I just 
want to indicate for the record that the House committee may regard 
this as an informal setting, but it seems pretty formal to me.
    Mr. Ballen. I just want to add to the remarks, so that you and your 
counsel are aware, that under House Rule 11(2)(K)(8), any objections as 
to relevancy or pertinency are a matter for the committee to decide and 
rule on.
    Mr. Lenefsky. I understand, reading the rules, it would first go to 
the chairman.
    Mr. Ballen. First goes to the chairman and then is appealed to the 
committee. Some issues are for the chairman. But objections as to 
relevancy or pertinency do go to the committee ultimately.
    Ms. Comstock. I will be asking you questions concerning the subject 
matter of this investigation. I would ask, if you don't understand a 
question, you please say so, and I will repeat it or rephrase it so you 
do understand the question.
    The reporter will be taking down everything we say and will make a 
written record of the deposition. You must give verbal, audible answers 
because the reporter cannot record what a nod of the head or other 
gesture may mean.
    Do you understand that you must give audible answers?
    The Witness. Yes.
    Ms. Comstock. If you can't hear me, please say so, and I will 
repeat the question or have the court reporter read the question to 
you.
    I would ask that you wait until I finish each question before 
answering. I will wait until you finish your answer before I ask the 
next question. Do you understand that this will help the reporter make 
a clear record because he cannot take down what we are both saying at 
the same time?
    The Witness. Yes.
    Ms. Comstock. Okay.
    Mr. Ballen. Kristin Amerling with the Minority staff.
    Ms. Comstock. We have another Minority staff member arrive.
    Your testimony is being taken under oath today as if we were in 
court, and do you understand that your answers will be assumed to be 
responsive to the questions?
    The Witness. Yes.
    Ms. Comstock. Are you here voluntarily or as a result of a 
subpoena?
    The Witness. Voluntarily.
    Ms. Comstock. Do you have any questions about the deposition before 
we begin?
    Mr. Lenefsky. No.
                      examination by ms. comstock
    Question. Could you please state your full name and address for the 
record?
    Answer. Richard S. Morris, M-O-R-R-I-S.
    Question. And do you have any other addresses?
    Answer. Yes.
    Question. Could you provide those for the record?
    Answer. [Redacted.]
    Question. Can you provide your phone numbers for each of those 
addresses, please?
    Answer. [Redacted.]
    Question. Has that been the same from approximately 1994 to the 
present?
    Answer. Yes.
    Question. Okay.
    Answer. [Redacted.]
    Mr. Ballen. Excuse me, Counsel. I want to add something for the 
record here. I assume that before--if these depositions are ever voted 
on to be publicly released by the committee--last time they were placed 
on the Internet--that Mr. Morris, in the interests of privacy, his home 
numbers be removed from any such public release.
    Mr. Lenefsky. Thank you for that information. I didn't realize 
there is a possibility this would be on the Internet or, in fact, 
released to the public.
    Mr. Ballen. There certainly is. If the committee votes to do that, 
these depositions could be publicly released.
    The Witness. Particularly if it is in the section on cybersex, I 
would like it deleted.
    Ms. Comstock. I would say for the record, last year that was by 
agreement of the Majority and Minority Counsel that all of the 
depositions be made public, and no questions had been raised at that 
time. But we will be happy to entertain any concerns in that matter.
    The Witness. I would request the phone numbers be deleted. Yes, go 
ahead.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Could you provide for us any cellular phone or other 
phones you may have had between 1994 to the present?
    Answer. Oh, I had one during the campaign, but I don't recall the 
phone number and I don't have it any more.
    Question. Do you know who paid for that cellular phone?
    Answer. Yes; Clinton/Gore.
    Question. Was that one number that you had throughout the----
    Answer. Yes.
    Question. Do you know approximately when you got that phone number?
    Answer. Early '95.
    Question. And do you know how long you kept it?
    Answer. Until August 26th, '96.
    Question. Those phone bills were all paid for by Clinton/Gore?
    Answer. Yes.
    Question. And to your knowledge, did Clinton/Gore maintain all of 
those?
    Answer. Yes. I also have a car telephone, and the phone number in 
the car is [redacted], and I have had that continuously since '94.
    Question. All right. Have you discussed this deposition this 
morning with anyone other than your attorney?
    Answer. No.
    Question. Have you----
    Answer. With my wife, but no one else--no, no, I am sorry; yes, I 
did. I was interviewed by the Washington--somehow, the Washington Times 
and the New York Post and USA Today all learned of the deposition and 
they all called me for comment, and I did interview them about this 
deposition.
    Question. About this deposition or yesterday's deposition?
    Answer. They actually called knowing about today's, not 
yesterday's, and I told them about yesterday's.
    But this was before yesterday. Is that clear?
    Mr. Ballen. For the record, yesterday being the Senate?
    The Witness. Yes. In other words, they had information about the 
House deposition, not about the Senate.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Okay. Could you please describe your employment history 
from college forward?
    Answer. After college, I worked as a research analyst at the New 
York City Citizens Budget Commission, a civic watchdog group. After 
that, I was employed by--I was basically self-employed, and my company 
was called Public Affairs Research Organization.
    In 1977, I joined another firm that I owned called Dresner, D-R-E-
S-N-E-R, Morris, Tortorello, T-O-R-T-O-R-E-L-L-O. I worked for them 
through the end of 1982.
    From 1983 on, I have been self-employed either through my own name 
or Dick Morris Consulting or Message Advisers. And in 1995, in July of 
1995, I became an employee of the Clinton/Gore campaign and remained in 
their employ until August 1996, and I have been either self-employed or 
unemployed, as you wish, since then.
    Question. When was the first time you met President Clinton?
    Answer. In November--roughly November 1977.
    Question. And were you working for him on a campaign at that time?
    Answer. I was asking to be hired by a campaign at that time, and 
shortly thereafter I was.
    Question. And could you describe in your history working with Mr. 
Clinton from that time forward?
    Answer. He engaged me about December of 1977 to advise him on his 
gubernatorial race in 1978 in Arkansas. I did so. He dismissed me 
sometime in 1979; I don't recall exactly what month. Then he hired----
    Question. The circumstances, you just stopped working?
    Answer. No; he fired me.
    Question. And is there any reason?
    Answer. He didn't--he felt that he wanted to hire someone else who 
had more of a national reputation, and he disagreed with one of the 
recommendations I gave him, which is that he should not raise taxes, 
and he felt that it was unduly intrusive of me to make recommendations 
of that sort.
    He rehired me the day after Election Day in 1980, after his defeat, 
and I was in his employ as a consultant more or less continuously 
between then and January 1991.
    I say more or less because there were times during that period when 
I was paid a monthly retainer, and there were times when I was not, I 
was just paid on a poll-by-poll basis.
    I stopped work for him professionally in January of 1991. I had no 
professional involvement with him between January of 1991 and November 
1994--I am sorry, October 1994, and--although I did chat with him and 
advise him over the phone just as a friend.
    Then I worked for him part-time between November '94 and June '95 
and full-time from July '95 until August '96.
    Since August '96, I have no professional relationship with him. As 
before, we continue to talk, to chat.
    Question. Okay. You said throughout the eighties, essentially, you 
were either on a monthly retainer or paid on a poll-by-poll basis.
    Answer. Correct.
    Question. Were you paid by Mr. Clinton's campaign operation?
    Answer. I don't recall. Generally speaking, yes, and I was never 
paid by the State of Arkansas, never paid by tax money. I cannot recall 
the names of the different campaign committees that paid me though, but 
it was always by some committee that he controlled, whether it was a 
campaign committee or committee for education in Arkansas or something 
like that.
    Question. Okay. Do you know if you were ever paid by any 
independent sources or independent expenditure-type money?
    Answer. I can't be completely certain, but I have no recollection 
of ever having been paid by any such entity. I don't believe that I 
was. But I did receive probably 1,000 checks from him over the course 
of the eighties, and it is conceivable that one of them might have been 
something like that, but I have no recollection of it.
    Question. When you said you thought you may have been paid by an 
education committee, was that something separate from a campaign 
committee?
    Answer. Yes. I don't recall how he paid me, but in 1983 I worked 
with him on ads, very similar to the ones we ran in '95, which were 
issue advocacy ads in connection with his desire to increase the sales 
tax in Arkansas and test teachers. And there was a committee that was 
separate from the campaign that raised money for that effort. And he 
might have paid me through that, or I might have been paid through his 
campaign; I don't recall.
    Question. Do you have any knowledge of who contributed to those 
committees?
    Answer. No.
    Question. In any of the work you did for Governor Clinton, did you 
ever work with an individual named David Watkins?
    Answer. Yes.
    Question. On what occasions did you work with Mr. Watkins?
    Answer. Constantly, throughout the whole period. He was the person 
who produced the advertisements for Clinton, and in virtually--in any 
of the campaigns, except for the 1978 campaign, which is to say in the 
'82, '84, '86, and '90 campaigns, he would be in virtually all of the 
meetings that we had in the 2 or 3 months before Election Day, and he 
and I would work together to produce the ads for Clinton.
    Question. And were you aware of him working in the '92 campaign?
    Answer. Yes. I had one occasion to be aware. He called me--he had 
occasion to call me at one point in roughly February of 1993--1992.
    Question. And----
    Answer. It was right before the New Hampshire primary, and he was 
seeking advice and basically asked me if I would receive a call from 
Governor Clinton, and I said I would. And the next--I was in France, so 
I remember it. The next day, the Governor called and we talked for 
about 40 minutes or an hour or so on this campaign, and I gave him 
political advice at that time.
    But other than that, I had no contact with Watkins during the '92 
campaign.
    Question. All right. Have you been in touch with Mr. Watkins 
recently at all?
    Answer. No. I called him after--a couple of months after he had to 
resign. I forget when that was, I think it was in '94.
    Question. May of '94, he left the White House.
    Answer. So I called him at one point toward the end of '94 just to 
tell him I still liked him and cheer him on, and I had--I think I may 
have called him back a few weeks later in the same vein. But since 
that, I have had no contact with him.
    Question. Did you ever talk with him about any investigations at 
the White House?
    Answer. No, except to tell him that I thought that the President 
acted precipitously in discharging him.
    Question. Regarding the helicopter incident?
    Answer. Yes.
    Question. Did you have any knowledge of that incident----
    Answer. Just what I read in the paper.
    Mr. Ballen. I object to that line of questioning. I didn't know 
this committee's charge was to reopen that, the Watkins matter.
    You can proceed, Counsel.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Other than this call that you said in 1992, did you have 
any other role in the 1992 campaign?
    Answer. Yes. I spoke with the President five or six times during 
the '92 campaign, and with the now First Lady probably a dozen times, 
just on the basis where I was just offering advice and counsel. It was 
not a paid relationship or a formal one.
    I didn't meet with either of them during 1992, but I did have those 
occasions to speak to them, to give them political advice.
    Question. All right. And in 1992 or any time you worked during the 
1980s on Clinton campaigns, did you ever have an opportunity to meet 
with someone named John Huang?
    Answer. No.
    Question. You have never met Mr. Huang?
    Answer. No.
    Question. Do you have any knowledge about Mr. Huang's fund-raising?
    Answer. Just what I read in the paper.
    Question. Did you ever have any occasion to meet any member of the 
Riady family?
    Answer. No.
    Question. Do you have any knowledge about any fund-raising by the 
Riadys?
    Answer. No. The only person vaguely in that ilk who I have ever met 
was, I may have met Mr. Trie, because I ate at his restaurant and I may 
have seen him then, but I didn't know it was him until--I still don't 
know if I have ever seen him. He is a smiling guy that greeted you as 
you walked in. I didn't know if it was him.
    When you are in----
    Question. He also has restaurants in Beijing.
    Answer. When you are in Arkansas, you eat Chinese food.
    Question. Do you have any knowledge of any particular people or 
groups of people who are involved in fund-raising throughout the 
eighties, any core group of people in Arkansas that you knew of?
    Answer. Well, I knew that Betsy Wright was heavily involved in the 
fund-raising. I knew that Maurice Stans was involved--is that the Nixon 
person? No, Maurice somebody or other.
    Question. Maurice Stans was a Nixon fund-raiser.
    Answer. It was an old codger named Maurice something or other, who 
hung around, who was supposed to have access to money. I just vaguely 
knew that the two of them were doing something in raising money.
    I knew that Clinton required constant badgering to make fund-
raising phone calls, and I would just periodically tell him, you know, 
I hope you are raising money. A couple of times I would be recommending 
media expenditures, and he would be saying, I don't have the money for 
those, and then I would say something like, you better go out and 
borrow the money for those, because we got to put those ads on, because 
we will lose if we don't.
    But other than demand for money on the expenditure end, I had no 
knowledge at any time of where any of the money came from in terms of 
donors, fund-raisers, parties, or anything like that.
    Question. And when you made recommendations such as you just 
relayed about that the President better, or at that time the Governor, 
needed to spend the money or borrow it, that this was essential, did 
the President usually--did Mr. Clinton usually take your advice?
    Answer. The Governor did, almost all the time.
    Question. He had trust in your judgment on those types of matters?
    Answer. Yes. See, unlike you, I am used to calling him Governor.
    Question. Get the names and time sequences correct.
    Okay, could we move a little, going to when you first started to 
work for Mr. Clinton as President Clinton.
    Answer. Yes.
    Question. Can you describe how that came about?
    Answer. During--shortly after the '92 election, I met with the 
President-elect and the First Lady-elect in Arkansas, and we had a 
meeting of an hour or two hours, and the President-elect asked me if I 
would occasionally call him with ideas and advice and meet with him 
from time to time and keep a more regular contact with the First Lady 
to provide a channel of advice for him.
    During 1993 and 1994, through October--through the last week of 
September 1994 would be the end of this period--I had occasion to meet 
with the President probably 8 to 10 times, meet with the First Lady 
three or four times, speak to the President by phone three or four 
times, and speak to the First Lady by telephone 30 to 50 times. None of 
that was paid, and in all of the conversations I was just offering 
advice on matters that had occurred to me and things that I had thought 
of. Virtually all of the contacts were initiated by me.
    So I think that describes our relationship during that period. 
Shall I pause?
    Question. Did you have a particular phone line that you called them 
on?
    Answer. No.
    Question. You just called the main switchboard and would--who did 
you usually contact to try to get through?
    Answer. To speak to the First Lady, I would call Pam Sipareti, I 
think, or something like that, who works for the First Lady. [Redacted] 
was the number I would use. And when I was calling the President, I 
would call, the switchboard, and get connected through that way.
    Question. You would usually go through Ms. Hernreich or his main 
office?
    Answer. Usually Ms. Hernreich or Ms. Currie.
    Question. Okay. Why don't you continue on?
    Answer. Okay. In the last few days of September or the first few 
days of October of 1994, the President called me and asked me to do a 
survey for him, the first professional engagement I had had with him 
since January of 1991. And I did the survey concerned the positioning 
that he and the Democratic Party should assume in the '94 bi-year 
elections.
    I did the survey. I briefed he and the First Lady on the results 
and was paid for the survey.
    Question. And who paid you for that?
    Answer. I am afraid I recall neither end of that transaction. I 
don't recall who paid me, and I don't recall who they paid. I don't 
recall whether the check was--I only charged him the actual cost of the 
interviews, and I may have told them to send the check to the 
interviewing house I used to do the survey, which was called Action 
Research in Melbourne, Florida, which is the interviewing house I 
usually use.
    Or I may have asked him to send the check to me, and I may have 
then paid the interviewing house. I don't recall which one it was. And 
I don't recall which entity paid for the survey, whether it was DNC or 
Clinton campaign or anything of that sort. I have no recollection of 
that.
    I think that, but I am not sure, the check was probably paid 
directly to the interviewing house rather than to me, since I do recall 
that I decided not to make a profit on it, because I felt that by 
holding the price down, I would encourage him to seek my services more 
frequently in the future.
    Question. At that time, was there any concern about paying you 
directly, going to the DNC or Clinton/Gore and putting you on the 
payroll?
    Answer. Yes, I think probably one of my motivations, if I did have 
them pay the interviewing house--in fact, as I recall, I think I did, 
now that you mention that.
    I was concerned that I didn't want to be publicly identified as 
working for Clinton at that point, so I may have had them pay the 
interviewing house directly. To make sure that it was honest, I then 
didn't take any money for it, so it was not like a subterfuge. I was 
just doing my polls for free, and he was paying me, the vendor, 
directly.
    Question. And you briefed the President and the First Lady on this 
poll?
    Answer. As I said, yes.
    Mr. Lenefsky. Can you identify that person?
    Mr. Ballen. Phil Schiliro with the Minority staff.
    Mr. Lenefsky. Now the Majority is the minority.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Now I am the minority.
    Okay. Can you continue what the professional relationship was here?
    Answer. After the election, I met with the President and the First 
Lady during November and early December to explore working together on 
his 1996 campaign.
    My next professional involvement with him--that is, next paid 
involvement--came in early December of '94 when he asked me to conduct 
a survey in connection with the middle class tax cut speech that he 
gave to the Nation in the middle of December, to advise him on the 
content of that speech. I did, and I was paid for that.
    And I am unsure whether I did the polling through the Melbourne, 
Florida, interviewing house or through Penn & Schoen, the polling 
company I subsequently used. I know that the third poll I did for him, 
which was in January, was through Penn & Schoen, but I am unsure of who 
was the vendor on the second poll. And I believe that the way I was 
paid for that poll, again, was that the interviewer was paid directly 
for that survey.
    No, as a matter of fact, as I think about it, no, something 
reminded me which I had forgotten yesterday; it was Penn & Schoen for 
that poll. So that I went to Penn & Schoen, the interviewing firm, 
polling firm, and asked them to conduct the survey, and I would write 
the questionnaire, they would field it; they received the money from 
Clinton; I don't know what entity paid him; and they then paid me as a 
consultant to them on this polling project.
    Question. And Penn & Schoen is based in----
    Answer. New York.
    Question. New York.
    Answer. Two N's.
    Question. Did you advise Mrs. Clinton at all on her health care 
reform policies?
    Answer. Yes. A lot of our phone conversations in '93 and '94 
related to that.
    Question. And were you aware of any particular media efforts or 
fund-raising efforts directed towards media for health care?
    Answer. Paid media.
    Mr. Ballen. Excuse me, Mr. Morris. I am going to object to this 
line of questioning on relevancy and pertinency. There is nothing in 
the committee's resolution authorizing the taking of depositions or in 
the report that remotely touches upon health care policy and any advice 
Mr. Morris might have given with regard to that in 1994.
    We are very far afield here. We have had about 40 minutes of 
questioning, and Mr. Morris has already said he didn't know Mr. Huang, 
Mr. Trie, or the Riadys, which are the subject matter of this 
investigation. I haven't objected until now because I allowed counsel, 
except for the Watkins matter, some latitude to get into background.
    At this point, discussing health care campaigning and any advice 
Mr. Morris gave on that, we will object as to relevancy and pertinency 
to this deposition.
    Ms. Comstock. We were talking about health care fund-raising being 
done as well as Mr. Morris' knowledge of any efforts to raise money for 
health care media campaign.
    The Witness. Shall I answer the question?
    Mr. Lenefsky. Yes.
    The Witness. I am not aware of any efforts to raise money for the 
health care media campaign. I did have occasion to speak to Mandy 
Grunwald, who was producing the health care ads. I wrote one or two 
commercials that I sent to her which she then did not use.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Were you paid at all for those?
    Answer. No.
    Question. Do you know--do you have any knowledge about Charlie Trie 
providing money for the health care funding, health care media 
campaign?
    Answer. No. As I testified before, I know absolutely nothing about 
Charlie Trie except he makes good lo mein at his restaurant.
    Question. In the summer of--can you recall when you worked with 
Mandy Grunwald on this media effort?
    Answer. Sometime--I am not sure, but I think it was probably 
sometime in early '94.
    Question. Why don't we pick up from the December '94 middle class 
tax cut speech and the assistance you provided there.
    It is another court reporter. They just keep going out.
    Answer. Okay. I then--in early December, the President asked me to 
become involved as a consultant in his re-election campaign, and we 
agreed that the relationship between us would be a private one, which 
is to say secret one, because neither of us were really prepared for it 
to be public at that point.
    I wasn't prepared for it to be public at that point because most of 
my clients were Republicans, and I knew that if I crossed the divide to 
go to work for the President, that that would end my ability to work in 
the Republican Party, and I wanted to be sure that it would be possible 
for me to give him meaningful advice and that I wouldn't just be chewed 
up and spit up, as previous advisers had been.
    He, from his point of view, I think, didn't know if I could handle 
play at this level, because I had only worked with him in one State, 
and I think he wanted to take his time before he formally committed to 
me, both because any involvement with the President usually is blown up 
by the media, and if he brought me in and then cut off the 
relationship, it would appear like vacillation on his part, and 
bringing me in would cause him no end of grief with the liberal 
Democrats on his staff because of my previous Republican affiliations 
and my moderate political views.
    I think he was unwilling to incur that political harm until it was 
clear that I was important to him in the campaign and would work out. 
So by mutual agreement, we did not publicly reveal the relationship.
    We agreed that I would be paid on a poll-by-poll basis, and that 
the polling would be conducted by Penn & Schoen, and that I would be 
paid as a contractor to Penn & Schoen. That was both how I often was 
paid and it was a convenience so that my name would be disclosed at the 
time that the Federal filings took place, but not before.
    To my knowledge, Penn & Schoen, when they filed, indicated that 
they had paid me in their filing, or at least we submitted that 
information to the campaign to be filed.
    But had the campaign issued checks directly to me, I think the 
President and I were both concerned that somebody would leak that that 
was taking place.
    Question. And you had discussions with the President about this?
    Answer. Yes.
    Question. What concerns did he express?
    Answer. He said that he wanted--he said that he was concerned that 
he did not want his staff to know at that point that I was working for 
him, and that he wanted the relationship to be secret between us, and 
that was the nature of what he said. And then I said, I suggest that 
this is the way that you pay me so that it is not--so that we don't 
release the story simply by the act of somebody writing a check.
    I did a survey for him in January of 1995, under this arrangement, 
with the survey conducted by Penn & Schoen, and then throughout the 
rest of '95 until the end of June, I conducted with Penn & Schoen 
probably five or six surveys for him, and Penn & Schoen received the 
payments for those.
    Question. Was that on a flat fee basis then?
    Answer. No. It was a cost per poll, and some polls were more 
expensive than others because some were longer than others.
    Question. Who worked out the cost arrangements on those polls?
    Answer. I worked out the charges with the President, and pursuant 
to that, Shoen then would bill the President for the amount we had 
negotiated together.
    Question. So you personally discussed the payment levels with the 
President?
    Answer. Yes.
    Question. And agreed upon them solely with the President?
    Answer. Yes.
    Question. And then you relayed that back to Penn & Schoen, who 
would then bill the Clinton/Gore campaign or the DNC?
    Answer. They sent the bills, as I understand it--this is second 
hand--to Nancy Hernreich, and I do not know what happened to them then. 
I don't know who paid them, when they were paid, or how they were paid. 
I just gathered that they were paid.
    Mr. Lenefsky. Excuse me for a minute.
    [Brief recess.]
    The Witness. My counsel reminds me that this arrangement continued 
until the end of March 1995. At the end of March, the President 
revealed to Harold Ickes that I was working for him and at that point 
all billings were handled directly to Harold and Penn & Schoen would 
send their bills to Harold.

                      EXAMINATION BY MS. COMSTOCK:

    Question. At the White House?
    Answer. I don't know where they sent it.
    Question. Do you have copies of any of these bills yourself?
    Answer. No.
    Question. All of the billings then would have been maintained by 
Penn & Schoen?
    Answer. Yes.
    Question. And then Penn & Schoen would send them to initially Nancy 
Hernreich and then following that, directly to Harold Ickes?
    Answer. Yes.
    Question. Okay. And then you would be paid directly by Penn & 
Schoen after they had been paid by whoever paid them?
    Answer. Yes.
    Question. And your testimony is that you do not know who paid Penn 
& Schoen, whether it was DNC or Clinton/Gore?
    Answer. That is correct.
    Question. So all of the checks that you would have been getting for 
these surveys were all checks that came from Penn & Schoen?
    Answer. Correct.
    Question. And then during the time, through March of 1995 when the 
bills were being sent through Nancy Hernreich, did you ever discuss any 
aspects of the bills with anybody at the White House?
    Answer. No.
    Question. Or why certain matters, how the billing was done?
    Answer. No. I did have to speak to the President once or twice, 
because they hadn't been paid, and Penn & Schoen advised me that they 
had not been paid, and I mentioned it on one or two occasions to the 
President, and then shortly after, Doug Schoen told me that they had 
received payment, and then he paid me.
    Question. Do you know what type of lag time you are talking about 
in terms of payment?
    Answer. I can't be certain, but I think it was in the range of 
somewhere between 60 and 120 days.
    Mr. Lenefsky. Excuse me.
    [Counsel and witness conferring.]
    The Witness. Yeah, right. I'm not sure how long--it was in 
yesterday's deposition. I saw a document from Penn & Schoen to Ickes 
complaining that they hadn't been paid in a long time, and actually it 
did--it was more than 120 days, but I don't really know how long, 
because it wasn't, it wasn't my bill or wasn't my company.

                      EXAMINATION BY MS. COMSTOCK:

    Question. All right. Now, was their payment, though, contingent 
upon Penn & Schoen getting paid or did Penn & Schoen pay you 
immediately?
    Answer. I think that what worked out was because the cash flow was 
limited that they advanced monies to me from the--once they got one or 
two checks, they advanced monies to me for the polling, for the future 
polling, because they were in a sense postponing taking their profit 
and paying me first. So it wasn't directly contingent, one wasn't 
directly contingent on the other.
    Question. Okay. And when these bills were late, you mentioned that 
you went to the President about those bills?
    Answer. Yes.
    Mr. Ballen. Excuse me, Mr. Morris. I am going to object to this 
line of questioning.
    Counsel, I have let it go forward here for a little while because I 
thought it was exploring the nature of the background of Mr. Morris' 
relationship to the President. But I thought--and the resolution, if 
you can point to me in the resolution or the report where we are 
investigating campaign expenditure, polling expenditures, the billing 
of polls, whether those polls were late or paid in a timely fashion, 
what conversations Mr. Morris may or may not have had with the 
President, if these somehow constitute an impropriety or a violation of 
the law or fund-raising impropriety, a campaign impropriety or a 
violation of the law, let me know, because then I would be happy to 
withdraw my objection as to relevancy. But I don't--I fail to see how 
this is relevant or pertinent to the scope of our investigation.
    Mr. Lenefsky. May I take a 2-minute break to consult with my 
client?
    Ms. Comstock. Sure. We can go off the record.
    [Discussion off the record.]
    Ms. Comstock. This is another Majority counsel, Greg Zoeller, Z-O-
E-L-L-E-R.
    The Witness. So Minority counsel had just objected.
    Mr. Lenefsky. What was your last question?
    [The reporter read back as requested.]
    Ms. Comstock. Your counsel is the relevant counsel here in terms of 
answering questions.
    Mr. Lenefsky. I instructed him to answer the last question.

                      EXAMINATION BY MS. COMSTOCK:

    Question. And in these discussions, what was your understanding of 
what the President did following your discussions?
    Answer. I don't know. The bill--I don't know what he did, but I 
know that the payment flow improved.
    Question. And what was your understanding of fund-raising 
activities at the White House at that time?
    Answer. None.
    Question. And would you get the payments within a week or so, or do 
you have any sense of the time?
    Answer. No. There was still a lag, but since I didn't receive the 
payments, I didn't monitor it closely. If they were unduly late, Schoen 
would complain to me and I would mention it to the President, and if 
they continued to be late, he continued to mention it to me, and when 
he stopped mentioning it to me, I stopped asking him about it.
    Question. Did you ever write any memos or----
    Answer. I never did.
    Question. Did Mr. Penn?
    Answer. I saw yesterday in the deposition in the Senate some memos 
that Penn & Schoen had sent to Ickes in connection with the delayed 
payments, but that was the first I knew--it was the first I saw of 
those memos.
    Question. This would have been after the March '95 time when the 
bills were sent to Mr. Ickes as opposed to sent through Ms. Hernreich?
    Answer. Yes.
    Question. Okay. And could you tell us when the bills started going 
through Mr. Ickes, did any problems arise in that context?
    Answer. Well, I became convinced over a period of time that Ickes 
was deliberately slowing the payment process of the bills in the hopes 
that we would become discouraged, die of cash flow starvation and go 
away, and I voiced those suspicions to the President, and that was part 
of the process of payment being speeded.
    I do recall one time, sometime in the first half of '95, where I 
was particularly vociferous in my criticism of Ickes to the President, 
and accused him of manipulating the cash flow so that we couldn't 
afford to continue to work for the President. Because we were--Penn & 
Schoen were incurring huge interviewing costs that had to be paid when 
the survey was done, and if the payment wasn't received for 6 or 8 
months, and we were doing a survey virtually every month, they would 
owe hundreds of thousands of dollars that they would have paid out to 
the phone company and to their interviewers that they had not been 
reimbursed, and at some point that nut would become so large that they 
would have to stop doing polling. So I advised the President that that 
was a possibility, and then as I recall, a number of checks came 
through to Penn & Schoen shortly after that conversation.
    Question. All right. Did you ever have conversations with Mr. Ickes 
about these matters?
    Answer. No.
    Question. You went directly to the President?
    Answer. Not that I can recall. I could have, but I tended to avoid 
conversations with Mr. Ickes.
    Question. And so you would go directly to the President about these 
matters?
    Answer. Yes.
    Question. And what was the President's response?
    Answer. There was one time when he said that's just outrageous that 
you are not being paid for this work, you should be paid for this work; 
I will take care of it. Other times he would just say, I will take care 
of it, in a more muted tone, but once he expressed some anger that we 
had not been paid.
    Question. Okay. Now, initially you had said you had agreed upon the 
payment rates with the President?
    Answer. Yes.
    Question. Did that continue throughout your time at the White 
House?
    Answer. No. After--well, why don't I just do a financial narrative 
through the end of the time and then you can backtrack.
    Question. Okay.
    Answer. After March, after mid-March, the billings were sent to 
Ickes, no longer to Hernreich, but it was still on a poll-by-poll 
basis, and the costs of the poll were still agreed between the 
President and myself. Then, at some point, and I don't recall when, but 
it would have been around mid-1995, Harold secured--Harold was vested 
by the President with the authority to approve polling--to approve 
polling, and his approval was required before any poll could proceed.
    Question. Is this any poll for the Clinton/Gore campaign?
    Answer. Any poll that we undertook, that Penn & Schoen or I 
undertook at the President's request, and I was not aware then, nor am 
I aware now, of in the early days of who was the vendor on that poll, 
who was paying for the poll.
    Question. So you aren't aware in the '95 time frame whether it was 
Clinton/Gore or DNC who was actually paying?
    Answer. I'm not aware through about June of '95, before June of '95 
who paid for it, roughly.
    Question. Okay.
    Answer. Then, at that point, the price negotiations as to what 
would be charged for each poll were handled between Schoen and Ickes, 
or Penn and Ickes, and I was no longer involved in that.
    Let me just continue the polling piece of it.
    At the end of June 1995, I stopped being paid as a subcontractor to 
Penn & Schoen and established a direct financial relationship with the 
Clinton/Gore campaign, which I will explain in a minute. But let me 
continue the polling piece straight through.
    After May or June of 1995, a procedure was developed by Ickes where 
each poll that was conducted under this arrangement with the President 
would be allocated retroactively to one--either to the DNC or to 
Clinton/Gore, and each questionnaire was scrutinized, I gathered by 
Lynn Utrecht and her staff question-by-question, and a percentage of 
that survey questionnaire was assigned to DNC and a percentage was 
assigned to Clinton/Gore.
    Then I gather, although I didn't actually receive the checks, that 
proportionate payment would be rendered by each of those committees. 
The reason I know this is that a bottleneck developed and Utrecht was 
very slow in making that assessment, and that caused cash flow problems 
for Penn & Schoen that I again had to go to the President over and, 
again, he had to speak to Ickes, and again, the bottleneck eased for a 
short time.
    Question. So each question was allocated as a DNC or a Clinton/Gore 
question?
    Answer. That's my understanding.
    Question. And then payments would be split?
    Answer. That is my understanding. Now again, I was not directly 
involved in it. This is secondhand.
    Mr. Ballen. Mr. Morris, Lynn Utrecht was a counsel?
    The Witness. Counsel for the Clinton/Gore campaign.
    My understanding is that each polling questionnaire had a separate 
ratio of the two committees.
    My financial relationship changed in--starting July 1st, 1995. I 
became a consultant to--I became a consultant to the Clinton/Gore 
campaign and was paid $15,000 a month by that campaign, and that 
arrangement lasted until I resigned at--until I was fired at the end of 
August. That was one source of compensation for me.
    The second source of compensation was that when advertisements were 
placed in connection with this process, whether by Clinton/Gore or by 
the DNC, a commission arrangement was negotiated for each flight of 
television, for each purchase of television, and those commissions were 
then retained at first informally and then formally, by a collection of 
the campaign consultants who I had brought in to work on the 
advertising.
    When I say informally, we at some point early on we would just 
split the commission and then after a while we set up an entity called 
the November 5th Group that had a contractual division among the 
various consultants participating of each of the media commissions. The 
source of the money for those commissions, of course, related directly 
to who was paying for the advertising flight, so that if the Democratic 
National Committee were paying for it, the commissions would come from 
them, and if Clinton/Gore were paying for it, the commissions would 
come from them.

                      EXAMINATION BY MS. COMSTOCK:

    Question. It was the same rate for each?
    Answer. Yes. And that arrangement continued straight through the 
end of my tenure, so that I was compensated in those two forms through 
the commissions and as a direct consultant for the Clinton/Gore 
campaign.
    Question. There was a commission for each flight of media and that 
was split among the consultants?
    Answer. That is correct.
    Question. And how did you determine how the split?
    Answer. We negotiated a split.
    Question. Was that done by you among the consultants or was that 
done by the White House?
    Answer. Me among the consultants. We at one point, Erskine Bowles 
asked us what the splits were and I told him. But they were determined 
among the consultants.
    Question. And the actual commission itself was negotiated with the 
White House?
    Answer. Yes, between--our negotiators for that--I felt that it was 
unwise for me to negotiate this directly with Ickes so I appointed Mark 
Penn and Bill Knapp, K-N-A-P-P, as the negotiators for us, and they met 
with Ickes and Bowles and then Ickes and Sosnik after Bowles left, and 
negotiated the commissions on a flight-by-flight basis. That was very 
frequently an acrimonious negotiation, and on several occasions the--
and there was a great deal of friction in connection with those 
discussions.
    Question. And where did that friction come from?
    Answer. Ickes trying to hold the figure down and we trying to move 
the figure up.
    Question. And can you just describe generally some of that 
friction, you know, what occurred, the outcome of it?
    Mr. Ballen. I am going to object again. This is very entertaining; 
we have been going on for half an hour on this. But I fail to see--I am 
happy to withdraw my objection if Majority counsel is simply willing to 
state how this relates to campaign fund-raising, fund-raising 
improprieties, I emphasize the word ``fund-raising'' and possible 
violations of law. There is absolutely no plausible basis to articulate 
that there is any possible violation of law here. If there is, we would 
certainly be interested in hearing it because we are interested in 
that. But there is no issue as to coordination or anything that 
suggests it is a possible violation of law.
    Mr. Lenefsky. Mr. Morris is free to answer.
    The Witness. I was never present in these negotiations, so it is 
secondhand, but at one point Ickes got so furious that he slammed the 
door of his office as deputy chief of staff and broke the door frame 
and contractors had to come in the next day and repair it, and there 
was one occasion when Ickes refused to allow the time buy to proceed 
unless we agreed to a lower commission rate, and we refused to agree to 
a lower commission rate, and the President was confronted with the 
decision that he would go off the air unless he resolved the dispute. 
And he did resolve the dispute by ordering Ickes to accede to our 
requests and the advertising continued uninterrupted.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you recall when that time frame was?
    Answer. Sometime around May or June of 1996. But those kinds of 
disputes were relatively frequent and I believe that they were a 
deliberate attempt by Ickes to sew discord between myself and the 
President and to try to disrupt my relationship with him.
    Question. Now, back in the May-June, the summer of '95 time period, 
did there come a time where you advocated some large media buys at that 
time?
    Answer. Yes. When I--the President had always known during his--
from the days of his relationship with me in Arkansas, that I believed 
the campaign should be mainly waged over television and that anything 
else you spend money on is more or less a waste of money, and that I 
believed in heavy media expenditures, heavy paid media advertising.
    When he hired me back in November and December, I told him that we 
would have to--I said we should make this the first fully televised 
Presidency in American history. Literally from wall to wall, we should 
just be constantly on television using paid media as a new form of 
Presidential communication, very much like Woodrow Wilson invented when 
he delivered the State of the Union message in person as opposed to 
sending it in writing. I recall citing the ratcheting up of 
Presidential communications over the course of the 20th century.
    But in November and December, January and February, we were so 
focused on the State of the Union speech, the response to the 
Republican contract proposals, and the development of our rhetorical 
theme in opposing those or in accommodating them and opposing them, 
that there really wasn't a lot of time for us to focus on the issue of 
paid media.
    In early March of 1996, I began a much more insistent request for 
us to begin advertising, and I proposed----
    Question. March of '96?
    Answer. '95, excuse me. I proposed in early March of '95 that we--
that the Clinton/Gore campaign purchase $2.5 million of ads to stress 
the President's anticrime record, and I recommended that those ads run 
during April. April became May, May became June, and I finally got 
permission to run the ads starting in the last few days of June, and 
they ran throughout the month of July, paid for by the Clinton/Gore 
campaign.
    Question. At this time were you aware that the Clinton/Gore 
campaign had resources to pay for this media?
    Answer. I was not advised that they didn't have resources, but I 
was unaware until--I was unaware of the precise financial condition of 
the Clinton/Gore campaign until a meeting I had with Terry McAuliffe at 
some point during the middle of 1995, at which point he briefed me on 
the financial status of the Clinton/Gore campaign. And his briefing was 
a very optimistic one, that they were going to reach their maximum 
probably by the end of the year, and after that, there would be a 
little bit of--the end of '95, and that there would be a little bit of 
additional fund-raising, but that would trickle in through direct mail 
and he wouldn't have to bother with it.
    In March, April, May, June and July, I waged a vigorous campaign, 
not just to get on the air, but to urge the President to reject Federal 
matching funds. I felt that--and during the course of that period I 
said that the Federal matching funds which would permit only about $30 
million to be spent in nonfund-raising costs in the preconvention 
period was an unduly low restriction and would not afford us the 
capacity to advertise that we need it.
    I said that since we likely did not have a primary, I felt the 
public would be perfectly happy for us to say we don't have a primary, 
so we are not going to take Federal funds to fight a primary.
    Particularly when budget cuts were reigning down on the country, if 
the President said, I would like that $11 million to go to the Head 
Start program instead, that that would be a very good position for him 
to take. I battled incessantly to get us not to accept Federal funding.
    Question. And that would be so that you could have a larger media?
    Answer. Yes.
    Question. And you spoke with the President about this?
    Answer. Frequently.
    Question. So did you mainly speak with the President about it, or 
were others involved in those conversations?
    Answer. These conversations all tended to take place at weekly 
strategy meetings that we held.
    Question. And who was involved in those?
    Answer. Okay. At the--in November of 1994, the President, the First 
Lady, and me. In December 1994, the same. In January of 1994, the First 
Lady----
    Mr. Lenefsky. January of '95.
    The Witness. '95, excuse me. The First Lady stopped attending and 
she never attended again, and they would be just between the President 
and myself.
    Starting in the middle of February of '95, Doug Schoen was added to 
the group and it was the President, Schoen, and myself. In about the 
early part of March, and I could be wrong on these dates, but roughly 
early March, Leon Panetta was added to the group, and at the end of 
March, the Vice President, Erskine Bowles, Harold Ickes, and the Vice 
President's chief of staff at the time, Jack Quinn, was added to the 
group. Quinn continued to attend meetings until he left as chief of 
staff for the V.P., at which point I believe David Strauss replaced him 
for a few weeks, and after that, Ron Klain served in that position.
    Question. So once Mr. Quinn moved over to be White House counsel, 
he no longer attended these strategy meetings?
    Answer. That is correct.
    Question. Okay.
    Answer. The meetings gradually expanded. I think the next expansion 
was in September when Doug Sosnik and George Stephanopoulos started to 
attend, and then the meetings expanded month-by-month, and I can't 
really keep track of the actual expansion. If you hand me my book, I 
will tell you the full list of people who attended these meetings.
    Mr. Lenefsky. It is there on Page 26.
    The Witness. It is written in there. It would be easier than trying 
to remember it.
    Ms. Comstock. I had it marked.
    The Witness. I can find it faster than you. I wrote it.
    Okay. Eventually included in these strategy meetings were the 
President, the Vice President, Leon Panetta, Harold Ickes, Evelyn 
Lieberman, George Stephanopoulos, Don Baer, Doug Sosnik, Ron Klain, 
Sandy Berger, Senator Chris Dodd, John Hilley, Maggie Williams, Mike 
McCurry, Henry Cisneros, Mickey Kantor, Mack McLarty, Peter Knight, 
Anne Lewis, Ron Brown, and myself, Doug Schoen, Mark Penn, Bob Squier, 
and Bill Knapp.
    Mr. Lenefsky. Just for the record, it is on Page 26.
    The Witness. And these----
    Ms. Comstock. Page 26 of Mr. Morris' book, which is entitled 
``Behind the Oval Office,'' is what we have been referring to here.
    The Witness. So these discussions increasingly took place in these 
strategy meetings or in telephone conversations with the President.
    Shall I continue with the narrative on that?
    Ms. Comstock. Yes.
    The Witness. In early July of 1995, even as the Clinton/Gore 
campaign ads were running on crime, Erskine Bowles called me and told 
me that I was going to loose my battle to get us not to take Federal 
funds and that the President had decided that he wanted to take Federal 
funds, or actually Bowles predicted that would be the President's 
decision, and he said, I think you should come up with a plan B.
    At that point, I revisited an issue that I had vaguely heard about 
prior to that time where I had vaguely heard that there was some 
advertising capability at the DNC, that there was some type of ads that 
could be run by the Democratic National Committee, but I hadn't focused 
on it until then, because I was determined to not take Federal funds 
and do it all through the Clinton/Gore campaign.
    At that point, in the middle of July, I spoke to a number of people 
to learn what the laws were regarding DNC advertising. Since I'm not an 
attorney, and I'm not an election lawyer certainly, I had no previous 
knowledge of that. This was my first Presidential campaign, so I--and I 
never worked for the party, per se, for either party committee much, so 
I didn't really know it, so I needed to learn it.
    I can't recall exactly who said what to me when, but among the 
people who I consulted to learn about it were Lynn Utrecht, the 
campaign counsel, Joe Sandler, the Democratic National Committee 
counsel, and Bob Squier, who was doing our media creation, and Bill 
Knapp, his partner, and they had a longer institutional memory of this 
because they worked for the party for many years. Doug Sosnik and 
Erskine Bowles as well were sources of information for me on this.
    At that point, I learned that there was such a thing called ``issue 
advocacy advertising'' which could be done by the Democratic National 
Committee, and I was informed that that advertising had to be related 
to an issue that was currently hotly in play in Congress, that it had 
to articulate a party-wide position, not just a position of one 
candidate, that it had to draw a contrast between the position of the 
other party or the other point of view, and that it could not be 
expressly designed to facilitate the re-election of the President or 
the defeat of a particular Republican.
    Well, when I heard that, I was overjoyed, because this is precisely 
the description of the advertisements I used to run all the time in 
Arkansas. In 1982, when the Governor was elected, after he had been 
defeated, he was confronted with the necessity of raising the sales tax 
on education and he came to me and said, the first thing I am going to 
have to do when I take office is raise taxes again. I am going to get 
killed for that. I said, well, what I think you really need to do is 
explain to the people of the State why you are doing it and what they 
are going to gain by it. He said, well, the press isn't covering me 
much on this; they don't get my message out. I said, I think you should 
buy advertising time explaining this, and the Governor followed my 
advice and did, and that became something that really he and I more or 
less invented. I don't think anybody had ever done it before in the 
country, that a sitting Governor would actually use ads to push his 
legislative program way away from the re-election, having nothing to do 
with a re-election campaign. That came a constant political strategy 
that he and I used in the '80s.
    Then when I found that there was a law permitting precisely this 
type of advertising, I said great, and I went to the President and I 
said, you know, maybe we don't have to spend all this money out of 
Clinton/Gore, because all I want to do in these ads is win the budget 
fight. I am not particularly concerned at this point about re-election. 
The issue now is winning the budget fight. I told him that if he didn't 
win the budget fight, I would urge him not to run for a second term, 
that the only important thing was to win this fight.
    I reminded him that he was heavily outgunned during the health care 
fight and ran relatively little in the way of ads, and that the ads 
that were run were often done by independent groups like the AFL, and 
the message was I felt botched by them, and it wasn't the President's 
message, it was their message, and it wasn't a message that--and I 
said, if you let me put our message on and you let me formulate the 
message, we can win.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Meaning the President's message?
    Answer. Yes, we can win the budget fight. Parenthetically, I ought 
to note at this point that I had just concluded a very vigorous effort 
to get the President to endorse a balanced budget within a certain 
number of years, and most of the White House staff opposed that, and in 
June of '95 he overruled their objections and delivered this speech.
    So my concern was that if we didn't do advertising on the budget, 
that the AFL-CIO would, and I was about--I was equally afraid of the 
AFL's ads as I was of potential Republican ads, because the AFL would 
say, fight these cuts, and we would go into a class warfare kind of 
thing and we would never talk about tax cuts as being good things or 
balancing the budget as being something good. I said, we have to get 
out the message that we are for tax cuts and we are for balancing the 
budget, but we are opposed to certain of the specific cuts the 
Republicans are trying to make, particularly in education, environment, 
Medicare, and Medicaid.
    Question. At this time, did you have any doubt that the President 
was going to be running for re-election?
    Answer. Oh, yes. Absolutely.
    Question. In 1995, that he was considering not running for re-
election?
    Answer. I don't know if he was considering it, but I was sure 
considering advising him not to if we didn't win the budget fight.
    Question. Did you ever have any discussions with the President that 
you thought that he was considering not running in 1996?
    Answer. No, but I did tell him flat out that if we didn't win the 
budget fight that he might as well save himself the time and trouble, 
and I made clear to him that unless the Democrats and he, particularly 
he, won the budget fight going on in Congress, that there was no point 
in even looking at a re-election campaign.
    So I at that point insisted and pushed hard for advertising by the 
DNC on the issue of the budget fight, and we retargeted----
    Question. Are we talking about approximately September of '95?
    Answer. July, August, and September.
    Question. All right.
    Answer. And we retargeted the advertising that we had done in the 
Clinton/Gore phase at States where moderate Republican Senators, 
moderate Republican Congressmen, and Republican freshmen and 
conservative Democrat boll weevils or yellow dogs or whatever they call 
them, blue dogs, lived, and targeted the media in those States 
deliberately to try to hold the conservative Democrats so that we could 
block a veto override, and to bombard the moderate Republicans so that 
we could break their discipline.
    Question. Did these also happen to be target swing States?
    Answer. Some were and some were not, many were not. For example, we 
advertised in Rhode Island, which is a Democratic State. We advertised 
in Vermont, which is too small a State to fuss with as a target. We 
advertised in New Mexico, which was at that point not a target State. 
We advertised in South Dakota, which we had no prayer of carrying. We 
advertised in Texas, which we never felt we could carry. So that about 
half of the media was aimed--was targeted based on Congress.
    The other half was targeted on what we could do to most influence 
national public opinion, because the polling that reflected national 
public opinion would, I felt, be the barometer of who wins or loses 
this fight. We knew that in the States where swing voters lived, we 
would have a much better capacity to be able to influence the national 
polls, because it is a hard sell in North Dakota to sell a Democratic 
alternative; it is an unnecessary sell in Rhode Island, but you have a 
pretty good shot of selling that kind of idea in a State like Missouri, 
which is a swing State.
    But the whole point of the--and at one point I submitted a memo to 
the President where I said these ads are reaching 97 swing Republicans, 
18 swing Republican Senators, Congressmen and Senators.
    At first, Ickes strongly opposed this--Ickes always strongly 
opposed this advertising campaign and the strategy meetings 
increasingly assumed the aspect of debates between Ickes and me over 
this. Panetta and Stephanopoulos gradually came around to the view that 
we should be doing the advertising, because they felt that it was the 
only way to win the budget fight, and I told them that I felt it was 
crucial that the President veto the Republican budget, and that the 
veto not be overridden, and that he be willing to accept a government 
shutdown and survive a government shutdown. The only way you are going 
to get the President to stand firm with this kind of courage is if 
there are ads running in the country and he knows that he is carrying 
the majority of the people with him. Otherwise, he will be perceived 
wrongly. He will sense it, and he will crack, and we will lose.
    And after I explained that to Panetta, I think at one point I said 
decisively to Leon, when Clinton is on the air, he has got a lot of 
guts, and that was a quote, I think, and as a result of that lobbying I 
think of Panetta, he and Stephanopoulos sort of switched and advocated 
the ads running, and that was really the key switch and with that there 
was a consensus for which Ickes absented himself for this advertising 
to proceed.
    But during this entire process, it was an issue advocacy effort in 
just the same way as if we had advertised for health care reform in 
1994, or for the stimulus package in 1993. Did it help the President 
get reelected? Yeah, anything a President does helps the President get 
reelected. Was it expressly designed for the President to get reelected 
and the substantive battle merely invented as a ruse? Absolutely not. 
Because the entire concept of Clinton's re-election had to hinge on a 
victory in this fight. We couldn't even reach the issue of re-election 
given the President's popularity numbers until we won this fight.
    Question. And during the issue--well, we can come back to that. At 
this time when you said Mr. Stephanopoulos and Panetta changed and came 
around to your view, was there a discussion of a $10 million media 
budget for the fall of '95?
    Answer. Yes.
    Question. And just so--I know the Minority has expressed some 
concerns to date on--this morning on going into this, and I would like 
to spend some time talking about this $10 million budget. I think 
that's a lot of what we have been leading up to here in discussing, is 
your advocacy of that and the President's acceptance of that and others 
at the White House accepting that and clearly that led to some, you 
know, fund-raising efforts. And we have particular interest in that 
time frame. We would just like to go into that at some length here now, 
if you could.
    Do you recall in early September having some meetings on this $10 
million budget?
    Answer. Yes.
    Question. Of '95?
    Answer. In early September of '95, Erskine Bowles came to me and 
said, you can't go on piece by piecemeal advising that we spend this 
amount of money and that amount of money.
    By way of background, we had spent $2.5 million from Clinton/Gore 
in July and had spent $800,000 from DNC during the Senate--during the 
congressional recess in August. I pushed for that money because I 
wanted to hit Republican Congressmen and Senators when they went home 
to their districts.
    Question. These were on Medicare ads?
    Answer. Yeah. And I wanted people to be hollering at them about 
Medicare cuts so that when they got back to Washington, they would be 
less likely to be disciplined.
    My whole hope was to break the cohesion of the Republican Majority 
that they could not pass a budget, that we would have to veto, and then 
if that failed, which it did, my next hope was to have a strong enough 
base of public support so that the President could veto the budget and 
could block its being overridden, and could win the public relations 
war over that, and we did succeed in that.
    Question. The $800,000 Medicare ad campaign you said was paid for 
by the DNC?
    Answer. That's right. Because they were clearly issue advocacy ads 
and they were entirely aimed at influencing the Senators and 
Congressmen during the recess.
    Question. Was the President involved at all in working on that ad 
campaign?
    Answer. Yes.
    Question. Could you describe that----
    Mr. Ballen. Excuse me, Counsel. I am going to object. I think Mr. 
Morris has already made clear, and I am going to make clear, that there 
is absolutely no violation of law in regard to these kinds of 
activities. I am going to cite the opinions, because I want to know, 
and I think the Minority is entitled to know, how this violates the law 
and how this relates to our inquiry about campaign fund-raising 
improprieties.
    Relevant FEC decisions, Advisory Opinions 1985-14 and 1995-25, make 
it absolutely clear that coordination with political parties and their 
candidates concerning contents of placement of advertising is entirely 
legal as long as the advertisements in question do not cross the line 
of express advocacy. Even when coordinated, party-funded ads do not 
constitute contributions towards expenditures on behalf of the 
candidate unless the ad expressly advocates the election or defeat of a 
clearly identified candidate for Federal office. This understanding of 
the law has been reiterated by the FEC and the Department of Justice in 
the March 1996 Supreme Court brief.
    Ms. Comstock. Obviously, Mr. Ballen, these are fact-based questions 
and the witness is someone who has information on facts and you are 
making conclusions before we have the facts. I am trying to find out 
the facts on this matter.
    Mr. Ballen. That is absolutely incorrect. You are asking him a line 
of questions that go into areas that are not comprehended by the 
resolution or by any--or the report that was under consideration here. 
And if you could articulate how this relates to what we are 
investigating, I would be happy to withdraw my relevancy objection.
    But I don't see how, and my consultation with the Minority members 
of this committee, this line of questioning--I know maybe perhaps the 
committee or certain people would like to relive the last election and 
uncover why the President won and the Republican candidate lost, but I 
did not understand that to be the purpose of our inquiry. Our inquiry 
was looking into campaign fund-raising improprieties or possible 
violations of law, period, not the strategy. Mr. Morris is a brilliant 
strategist I have no doubt, but that is not the purpose of what this 
investigation is supposed to be about.
    Ms. Comstock. Well, that includes FEC, possible FEC violations and, 
as you said, we have to know what the facts were so that we can know 
what we are talking about here.
    Mr. Ballen. The point is here you haven't articulated what the 
possible FEC violation could be.
    Ms. Comstock. If we could move on.
    Mr. Ballen. I mean, I would like to hear what possible violation. 
If you can articulate that, then I will stop objecting. I mean, if 
there is a nexus, if you have some good faith reason to believe that 
there were possible FEC violations committed by this witness or the 
campaign, lay them out and then the Minority would be happy to join in 
investigating any possible FEC violations, but these questions don't go 
to possible FEC violations.
    Ms. Comstock. Mr. Ballen, I think you are familiar with civil 
deposition practice. We are looking at anything that relates directly 
or indirectly. This witness has a lot of information as to how the ad 
campaigns which were driving fund-raising which he himself has 
discussed as driving fund-raising were conducted and how, the 
interaction between the various campaigns, and that is what we are 
discussing here, and I would like to move forward on that.
    Mr. Ballen. I understand that you are discussing that by eliciting 
the fact that he has already testified about the $10 million budget, 
and then you can move on from that. What the strategy of the ads were, 
the content of the Medicare ads have nothing to do with any possible 
violation of law.
    Ms. Comstock. We are talking about who created the ads.
    Mr. Ballen. What does that have to do with it?

                      EXAMINATION BY MS. COMSTOCK:

    Question. If you could tell us what the President's role was in the 
Medicare ad that you were speaking of in August of 1995.
    Mr. Lenefsky. Answer the question.
    The Witness. The President's level of investment in the Medicare 
ad, and in all of the DNC advertising, and in all of the Clinton/Gore 
advertising, except for the first flight of Clinton/Gore which ran in 
July, could be described as follows: He received drafts of the text of 
the ads, and he edited them, he changed them, he adjusted the wording, 
and he received a description, a story board description, which is a 
rough description, of what the visuals would be.
    Subsequently, in preparing later DNC ads, the story board was 
replaced with something called an animatic, which is a very cheap, 
inexpensive simulation of what the ad will look like, usually involving 
borrowed or stolen footage that you couldn't put on the air, but that 
you could have for private use, in other words, someone else's footage 
that we would just dub in. So based on the animatic or the story board 
and the text, the President then approved the advertisement.
    At that point, the advertisement would then go through a vetting 
process. First, it would be vetted--and I'm speaking of this ad and all 
subsequent DNC ads. First, it would be vetted for factual accuracy 
through George Stephanopoulos, Rahm Emanuel and/or Gene Sperling.
    Secondly, it would be vetted for its legality by Lynn Utrecht and 
Joe Sandler. After a few weeks of this, Joe--I made a decision to ask 
Joe Sandler to actually attend the meetings at which we designed these 
ads, and we would have these creative meetings where the consultants 
would meet to design the advertisement and Sandler was literally in the 
room when that was taking place. Every moment when we looked at an ad, 
someone came up with an idea, we would flesh out the idea, and then I 
would go to Sandler and I would say, is this okay for DNC? And he would 
say, no, this goes over the line to express advocacy of a candidacy; 
you got to take the picture out, you got to shorten the thing. You have 
Clinton on for 7 seconds; he can only be on for 2 seconds. You have 
Dole on, but you don't have Gingrich on, so it is anti-Dole as opposed 
to anti-Republican leaders in Congress.
    Question. You actually have seconds and times that he had this all 
worked down to?
    Answer. Precisely. And these all flowed from a series of meetings 
that took place in the office of Lynn Utrecht at which present were 
Utrecht, Sandler, Ickes, Sosnik, me, Tom Freedman, Mark Penn, Bill 
Knapp. And at those meetings, and there may be some other people, 
sometimes Jane Sherburne came.
    Question. Jane Sherburne, special counsel at the White House at 
that time?
    Answer. Yeah. I think she was there at one or two of them. 
Actually, no, Jane wasn't. There was somebody else.
    Question. Cheryl Mills?
    Answer. Cheryl Mills was there at one or two of them.
    Anyway, at those meetings, Utrecht and Sandler would lay down the 
law in terms of every specific part of that ad. They would tell whether 
we can use the President's picture, whether we can have the President 
speaking, how many seconds you can have the President on, whether we 
could use Dole, whether we could use Gingrich, and they would work on 
the guidelines and copy, and then those guidelines would then be 
enforced on an intimate involvement in the creative process by Sandler 
being there at every step.
    So the President, after he signed off on the rough text and the 
animatic or the story board, this would then be resubmitted to Sandler 
who had been present during the story boarding and the animatics and 
the scripting and----
    Question. Okay. And when the President--would you give him the 
copy? Would you physically give it to him and then he would make the 
changes on that?
    Answer. Yes.
    Question. And then who would you give that copy to?
    Answer. I would then--these were typically done at the strategy 
meetings, and the President, the Vice President, Senator Dodd, and 
Ickes and Stephanopoulos and Panetta all assumed active roles in 
dealing with, in discussing the text of the ads.
    I would then have--these meetings were generally at night, the 
strategy meetings. Then I would have a creative meeting----
    Question. Were these Wednesday night or Thursday night meetings?
    Answer. They had been called that in the press, but they were often 
on Monday evenings or Tuesday evenings as well.
    Question. When you physically gave the documents to the President, 
would you take them back from him yourself, the changes that he made?
    Answer. Yes.
    Question. And where did you physically take those to?
    Answer. Oh, you mean his handwriting? No. I would just be sitting 
with the ad copy and as people agreed on changes I would be making the 
changes, yeah. And they would be rough--they wouldn't be the actual 
changes, they would be the concept, because I wasn't about to time it 
to be sure it came in at 30 seconds while the President was sitting 
there.
    But we got the point that, you know, this is too heavily anti-Dole, 
or I don't want you to use that old picture of Dole, it looks like we 
are using the age issue against him, or you used this word and I want 
this kind of sense. It wasn't a text by text thing, it was a--it was 
conceptual, and when it was textual, he would usually include so much 
language that you couldn't fit it in a 30 second spot. So I would copy 
all of that down, and then the next morning we would have a creative 
meeting with the political consultants. Attending those meetings were 
Bob Squier, Bill Knapp, Mark Penn, Doug Schoen, Tom Freedman, Joe 
Sandler, one or two members of Squier's staff, and usually one or two 
other members of my staff. And later in the process we were joined by 
the opposition research experts at the DNC.
    At these meetings, we would then take the input that had been given 
by the participants in the strategy meeting and accepted by the 
President and we would then redraft the ad so that it came in at 30 
seconds and it took account of their concerns. We would then also note 
changes in the visuals that needed to be made. Then, we would call by 
phone usually Stephanopoulos, Sperling or Emanuel and get their 
specific factual changes, if there were any factual issues. Then we 
would take that entire product and run it by Sandler again, and he 
would then say, well, this and this change you have made are over the 
line, you have got to pull it back, and so on.
    At that point we would then come up with a text and a visual 
concept. I would then leave, and the actual media creators would then 
take that and fashion it into an ad, and they consisted of Bill Knapp, 
Hank Sheinkopf, who was at the creative meeting as well, and Marius 
Penczner, who was at the creative meeting. The three of them would 
actually go into the editing room and design and produce the ad. 
Usually Knapp would call me and would say, this ad is too long, you got 
to take some words out, or this doesn't work with the visual, you got 
to change the copy, and again the copy would be changed. Or he would 
say, we don't have a particularly good visual of this, we need 
something of that, and we would change the visual.
    Then, that advertisement, when it finished with that process, would 
then be put on the air without prior approval from anybody except me, 
and the ad would run and we would show the ad to the strategy group, 
which included the President, at the subsequent session of the group, 
usually after the ad was actually running.
    So the President was heavily involved at a given point in the 
process, but in almost every case, the ad that ultimately ran was 
significantly different, both in visual content and in text, from the 
ad he had seen and approved several weeks--several days before. It was 
only one----
    Question. That ad that he had approved, was it his understanding 
that these were DNC ads?
    Answer. Yes. Clinton/Gore ads followed the exact same approval 
process.
    Question. And during this time frame when you were doing the issue 
advocacy ads, were you also doing polling of the President's numbers?
    Answer. Yes. But perhaps I could just summarize the content portion 
of it. My point about the content is that the inputs on the content 
were very pluralistic. There were probably 30 people or 40 people that 
had some role of input to the process.
    Question. I understand.
    Answer. And while the President had a significant role in that, it 
was as the first among equals, and he was not the final arbiter went 
on, because he never saw what finally went on because his schedule 
didn't permit it.
    Question. Did you maintain copies of documents of these various ads 
as you prepared them?
    Answer. No. I am not now in possession of any such documents. Bill 
Knapp was the one who kept those documents, because he was sort of the 
operating officer in charge of the ad campaign, and a number of other 
documents of that sort were documents that I had at my campaign office, 
but when I was fired, the campaign office was sealed and I have had no 
access to my papers since then. But you probably have a bunch of 
scripts lying around that office.
    Question. What do you mean your office was sealed?
    Answer. There was a padlock put on it and I was not permitted 
access to it.
    Question. So your Clinton/Gore office was sealed by Clinton/Gore 
officials?
    Answer. Yes.
    Question. And could you describe what happened with that?
    Answer. I don't know. I was never there; I was just told that I 
could have no access to it and I have never tried.
    Question. And that happened immediately--in the August 26th time 
frame when you were leaving Chicago?
    Answer. Correct.
    Question. And you came back and you never were able to get into 
your Washington, D.C., office?
    Answer. Well, I came back to Connecticut and New York, I didn't go 
back to Washington, but I was told it was sealed and I never tried to--
I was told--I never physically went there to, you know, to challenge 
the padlock, but I was told it was locked and sealed.
    Question. And who told you that?
    Answer. Peter Knight.
    Question. And what did he say to you?
    Answer. Your office has been sealed, and we have had to seize the 
documents, and you can't have access to them.
    Question. Do you know who seized the documents?
    Answer. No.
    Question. Do you know where those documents are now?
    Answer. No.
    Question. Have you heard anything about what was done with those 
documents?
    Answer. No.
    Question. Okay.
    Answer. So----
    Question. At the time when you--we haven't really directly 
addressed that, but you had said both, when you resigned and when you 
were fired in August of '96. How would you--how do you characterize it?
    Answer. I was fired.
    Question. And who fired you?
    Answer. The President.
    Question. And what did he tell you in terms of firing you?
    Answer. He sent Erskine Bowles to say that he was requesting my 
resignation.
    Question. And at that point you resigned?
    Answer. Yes.
    Question. Did anybody else talk to you about the President's wish 
for you to resign?
    Answer. Subsequently Jack Quinn came in to talk to me as well about 
it.
    Question. And at that time Mr. Quinn was the counsel to the 
President?
    Answer. Yes.
    Question. And what did he tell you?
    Answer. At the first conversation, Erskine and I were alone and he 
said, the President wants me to request your--wants to request your 
resignation. Then I objected to that and asked them to revisit the 
issue with the President and several hours later, Bowles and Quinn came 
back and said, we have revisited the issue with the President and the 
President wants to offer you the alternative of either resigning or 
taking a leave of absence during which you will seek counseling and 
therapy and after that, after a suitable interval, you might be able to 
rejoin the campaign, and in the interim between those two meetings I 
had made a judgment that I needed to resign. So when they came back and 
offered that, I said, that's fine, I will just resign.
    Question. Did you speak with the President prior to resigning?
    Answer. No.
    Question. Could you just tell us briefly, when you left the 
campaign at that time, what documents you can recall being in your 
office at that time?
    Answer. A relatively complete or perhaps fully complete set of the 
agendas that I prepared for the President's review, which would be 
strategic documents that we used at the weekly strategy meetings.
    Question. And where was your office located?
    Answer. In the Clinton/Gore campaign office on 20th and M, and----
    Question. Did you have an office at the White House at all?
    Answer. No. So the agendas were there. Probably I would think all--
my staff kind of decided what they were keeping and what they weren't 
keeping, so I am not fully familiar with it.
    [Discussion off the record.]
    The Witness. I am fairly certain that all of the memos from Sandler 
and Utrecht as to what the ground rules were for DNC advertising were 
there. Most likely all copies of the surveys were there. Most likely 
all memos that I had sent to the President, giving him advice on 
different topics, were there.
    I would send the President four or five notes every day, short 
little notes, just as things arose during the course of the day, and 
probably most of them were there. And assorted other things, analyses 
of the nightly TV news, analyses of the content of local newspaper, 
issues memoranda on different substantive issues we were working on, a 
variety of things like that; nothing linked to fund-raising at all, 
because I never had any involvement with that.
    Question. Did these memos to Mr. Sandler you said involved--would 
be in your documents?
    Answer. Yes. The memos from Sandler and Utrecht outlining--or from 
Bill Knapp summarizing the conversation with Sandler and Utrecht for 
their approval, the memos for their approval.
    But documents that laid down the ground rules for DNC advertising, 
we had several meetings on that, seven or eight, because as the time 
frame unfolded, the ground rules changed, because the circumstances 
changed. The Republicans had a nominee, or there were primary fights 
going on, and the ground rules to which we were subject evolved over 
that period. These documents traced that.
    Question. Is that the full extent of the documents you believe were 
maintained in your offices?
    Answer. I am sure----
    Question. To the extent you can recall.
    Answer. I am sure there is probably a lot of other stuff hanging 
around there, but that is the main stuff.
    Question. Did you maintain copies of documents, notes the President 
had written to you, things like that, in your office?
    Answer. The President rarely did that. In fact, he really--oh, yes, 
a lot of the things that might be there might be articles that the 
President sent over to me with his writing on it saying, you know, 
please note this, and generally those were on issues or ideas. But, 
yes, there would be some of those.
    Question. Did you have a separate phone number for the Clinton/Gore 
office?
    Answer. Yes, but it was--yes, there were phone numbers where one 
could call directly and reach my office, yes.
    Question. And what was that phone number?
    Answer. I don't recall.
    Question. Did you have somebody who maintained your files for you 
at the Clinton/Gore office, or did you do that yourself?
    Answer. No. Two people who did, Tom Freedman, my chief of staff, 
and--I am blocking out his name.
    There was a guy who was on my paid staff, and I can't remember his 
name, who kind of was in charge of the office. I am sorry; I will 
remember his name.
    Mr. Lenefsky. We will provide that.

                      EXAMINATION BY MS. COMSTOCK:

    Question. When you had mentioned your staff, can you provide the 
names of the other staff who were the individuals who generally were 
working with you?
    Answer. Actually, if I can have my book?
    Question. Yes.
    Answer. Thank you. Just a minute.
    The name of the gentleman I was groping for, who kind of ran the 
office, is Brian Lee, L-E-E, and my other staff members were Mary 
Smith, Matt Levine, and Mark Schwartz.
    Question. You had said you did not have an office at the White 
House. Did you have occasion, though, to spend a fair amount of time at 
the White House in 1995 and 1996?
    Answer. Yes.
    Question. And where would you be physically based when you were at 
the White House?
    Answer. Well, I never had a hard pass, so I was only----
    Question. At any time?
    Answer. At any time. So I would always have an appointment with 
somebody, and I would enter pursuant to an appointment.
    Question. Who would that be? Why don't we start with initially when 
you started, sort of the secret phase when people didn't know you were 
there, who you would go to.
    Answer. Nancy Hernreich, and thereafter it would depend on who I 
was seeing. Leon Panetta in June of 1995 had a meeting with the 
President and Bowles--with the President, myself, and the Vice 
President, and asked that I spend as little time in the White House as 
possible, and that I not roam the halls of the White House catching 
people at random, but I only go in to see specific people.
    At that point, I opened an office at the Clinton/Gore campaign, and 
I spent most of my time either there or in my hotel. I only entered the 
White House or the OEOB for specific meetings with specific people, and 
it was not my practice to linger there.
    Question. And during this time, I guess starting from November '94 
time frame forward, were you staying at the Jefferson Hotel generally 
when you were in town?
    Answer. Yes.
    Question. Who were paying for those bills?
    Answer. The Clinton/Gore campaign had a per diem maximum of, I 
believe, $185 a night, and my hotel bill was 200-something dollars a 
night, and they paid up to $185, and I paid the rest of it out of 
pocket, as well as any other expenses in connection with that out of 
pocket.
    Question. Do you know where the bills that the hotel had--where 
they were sent to?
    Answer. Yes. They are in the possession of my--I think they are in 
the possession of my assistant, and if you want me to furnish them to 
you, I would be happy to.
    Question. That would be Tom Freedman?
    Answer. No; my personal assistant, Maureen Maxwell.
    Question. Okay. And how did you take those bills and then get 
reimbursed for them? What was that process?
    Answer. Maureen would send those bills, as well as air receipts and 
other expenses, to Joan Pollitt at the Clinton/Gore campaign, and she 
would then reimburse the portion of it that the campaign deemed 
reimbursable.
    Question. Those bills were sent to Joan Pollitt, as opposed to the 
consulting bills that went through Harold Ickes?
    Answer. That is correct.
    Question. Okay. So from the start, like in November, December, '94, 
those bills went to----
    Answer. No. This arrangement started in July of 1995. Prior to July 
of '95, I received no reimbursement for expenses.
    Question. So when you were staying down here, that was out-of-
pocket expenses for you?
    Answer. Yes.
    Question. Starting in June of '95----
    Answer. July.
    Question. You sent the bills to Clinton/Gore?
    Answer. Correct.
    Question. And at any time did you learn of anyone reviewing your 
hotel bills?
    Mr. Lenefsky. Can we go off the record now?
    [Discussion off the record.]
    The Witness. What was your question?

                      EXAMINATION BY MS. COMSTOCK:

    Question. Were you aware of people reviewing your hotel bills?
    Answer. Yes. I became aware of that. Yes, I was aware of that.
    Question. How did you become aware of that?
    Answer. Ickes--well, first Ickes would send me memos objecting to 
things in my hotel bill, and at first the campaign was paying my full 
hotel bill, and then Ickes said, we will only pay it up to $185, and 
then I said I would like to pay the rest of it out of pocket, and he 
said that was okay.
    And then I became aware that Ickes was reviewing them because of 
his feedback on them. And then I had occasion to read in the Washington 
Post an account which indicated that I had charged mini bar expenses 
and pornographic movie rentals to the campaign.
    In fact, I never received reimbursement for anything above the 
$185, so uses of the mini bar, which were generally Diet Pepsis, were 
not reimbursed in any case by the campaign, nor were movie rentals of 
any description reimbursed.
    I showed the hotel bill to the Washington Post, and it became clear 
there were no movie rentals on the hotel bill.
    Question. Do you know who at the White House was working on that 
for Harold, who reviewed bills in general, whether it was the hotel 
bills?
    Answer. No.
    Question. Or the other bills sent over to Harold Ickes?
    Answer. No.
    Question. Do you know someone named Jennifer O'Connor who worked 
for Mr. Ickes?
    Answer. Yes.
    Question. Do you have an understanding of what her role was working 
for Mr. Ickes?
    Answer. My only interface with Jennifer was when Harold was asked 
by the President to review a proposal for a public statement that I 
would make, an issue proposal that I would make.
    Part of my job was to recommend issue positions to the President, 
to speeches or proposals he made, and when Ickes was charged with 
reviewing those proposals, as he was with some of them, he would 
delegate that task to Jennifer O'Connor. That was my sole involvement 
with her.
    Question. And did you have any understanding of her being involved 
in reviewing bills at all?
    Answer. I have no idea.
    Question. I am going to return a little to the--I think we diverged 
a little bit when we were talking about the issue advocacy ads and 
whether or not there was polling done of the President's numbers.
    Answer. Yes.
    Question. As these ads started appearing.
    Answer. We polled constantly. Every week we polled.
    We polled weekly, and at the beginning that would be spelled W-E-A-
K as well as W-E-E-K.
    And in that polling, we had about 30 different measurements that we 
included every week to measure what was going on. Those included the 
President's favorability, the President's job rating; we would ask, 
whose plan to balance the Federal budget do you approve of more, the 
President's or those of the Republicans in Congress? Who do you trust 
more to balance the budget, the President or the--President Clinton or 
the Republicans in Congress? Who do you trust--who do you think will do 
the better job of holding down taxes, the President or the Republicans 
in Congress? Who do you think would do the best job of balancing the 
budget in a way that preserves our values?
    Question. Were these the ads that were then broken down between 
DNC----
    Answer. These were the polling questions.
    Question. And then they would be allocated?
    Answer. That is right.
    Question. Part of this, though, was determining the President's 
general favorability numbers?
    Answer. Well, what I am saying to you is, there were about 30 
different questions that we routinely and repetitiously asked each 
week, and we tracked and monitored fluctuations in those numbers and 
briefed the President at the strategy meetings on those changes. One of 
them was the President's favorability. One of them was his job 
approval.
    But I was giving you the list of questions that we tracked. So they 
were the ones on the budget; they were the ones on the tax cut.
    Then we would read people summaries of the President's and the 
Republicans' budget positions and say, who do you agree with more? We 
would say, who do you blame more for the shutting down of the 
Government, the President or the Republicans in Congress? Who do you 
feel is doing the best job of protecting Medicare? Who is doing the 
best job of protecting Medicaid? Who is making the best job of 
promoting education?
    We would have a whole series of questions, largely issue questions, 
which were designed to track how the advertisements were affecting the 
perception of the President's issue position vis-a-vis the Republicans.
    We did not in most of these polls ask head-to-head questions at 
that point in that period, if only because they were too dire for us to 
contemplate, and also, we didn't know the name of the Republican 
opponent yet.
    But the President's favorability or job rating were components that 
we reviewed to assess the progress of the weekly campaign. But they 
were only 2 of about 30 questions, and the other 28 virtually all 
related to the issue differences between the two.
    Question. And then were these polls used to develop the issue 
advocacy ads?
    Answer. Yes.
    Question. Getting into the President's review of these ads, did you 
sometimes meet with the President, just by yourself with the President 
on these, or was it usually with a group of people who were reviewing 
the ads?
    Answer. I very rarely, if ever, met alone with the President about 
the ads. They were either--I either met with him in the strategy group, 
or in '96, as the need for changing ads became more immediate, Nancy 
Hernreich would arrange a 10-minute gathering in the Oval Office or 
adjacent to it, where as many of the strategy meeting participants as 
could be summoned would come into the room and actually look at 
animatics and scripts and make a judgment there on the media. But 
generally these were done at the strategy meetings.
    Question. And your experience with Governor Clinton, you had worked 
on writing ads with the President?
    Answer. Yes.
    Question. Is that correct? And you recall the number of anecdotes 
in your book about when the President's polling--I think it was in the 
1990 campaign--when the President's poll numbers had fallen quickly, 
you had woken him up at 2:00 in the morning and wrote an ad together?
    Answer. Yes.
    Question. And during the '95-96 time frame, did you also write some 
ads like that with the President?
    Answer. Well, I have tried to lay out for you--I have tried to 
answer that question previously. I walked you through the process, and 
that is the process we followed.
    Mr. Ballen. Excuse me--all right.

                      EXAMINATION BY MS. COMSTOCK:

    Question. What was Mr. Ickes' role in this process of approving the 
ads?
    Answer. He attended the strategy meetings and occasionally had 
comments on the text or the visuals in the ads, and he also had to 
receive final texts of the ads and a video of the ad before the ad ran.
    Question. And he would have his input?
    Answer. He would have made his input at the strategy meeting. I 
can't recall any instance in which he had any changes when he received 
the final copy.
    Question. If we could return now to the September '95 time frame 
when you were working on advocating the $10 million budget, you spoke 
of the initial meeting with Mr. Panetta and Mr. Bowles and Mr. 
Stephanopoulos where they came around to your thinking on this.
    What was your understanding of the President's position at that 
time?
    Answer. Generally he was in favor of the advertising, but he was 
concerned about whether we could afford it, and his mind was open at 
that point on the question of how much we should do and when we should 
do it, and he was following the debate among his advisers.
    Question. And did that debate include that the DNC financial 
situation was not great in the fall of '95?
    Answer. Not in front of me, it didn't. The President at the 
strategy meeting in September said, as I recall--at one point, Ickes 
spoke of the financial difficulties the DNC was facing, and the 
President said, ``Hold it. I don't want to have that discussion here. 
We are going to have a separate meeting where we are going to focus on 
that.''
    And then there was, I have since heard, a separate meeting, to 
which I did not attend--I have read this in the paper--at which that 
was reviewed and discussed.
    If you will pardon the President, the President, he recognized a 
Chinese wall between me and the fund-raising.
    Mr. Ballen. So you did not have any involvement in the fund-
raising? Just to make that clear on the record.
    The Witness. I had absolutely no involvement in the fund-raising at 
all, nor knowledge about it.
    [Discussion off the record.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Okay, we can just move along. I just have a New York 
Times article in April of this year which discusses some of the matters 
that you have been relating, some of the meetings that you have been 
discussing. What can you tell me about what you know about the 
subsequent meeting on how the DNC was going to come up with the money 
to pay for the $10 million budget once that had been approved?
    Answer. I know nothing about what went on in that meeting. I did 
hear at one of the strategy meetings that the DNC had acquired a line 
of credit of $7 million and that it was planning to use that line of 
credit to help finance the advertising.
    I do know that at one point in late 1995, Ickes was opposing my 
request for advertising money and said, ``This will mean the DNC could 
be 7 to 9 million dollars in debt at the end of the year.'' And I 
answered, ``I would rather the DNC be in debt than the Republicans win 
the budget fight and the DNC be dead.''
    But those two were the only insights I had into the DNC's financial 
condition during that period.
    Question. Okay. Did you have any knowledge about a meeting that Mr. 
Ickes and Don Fowler and the President and the Vice President had on 
this budget shortly after it had been approved in early September?
    Answer. No.
    Question. On September 13th, 1995, the President, it has now been 
reported--and the committee received a number of documents relating to 
it--there was a meeting with the President, James Riady, John Huang, 
Bruce Lindsey, and Joe Giroir, and in this meeting one of the topics 
discussed was John Huang raising money for the DNC.
    Mr. Ballen. Hold it. I object. Is that your testimony? How do you 
know?
    Ms. Comstock. It has been reported that is what was discussed in 
those meetings. Unfortunately, some of the principals are no longer in 
the country, are not available, and I believe the President has said 
after a number of disagreements among staff that this topic was 
discussed, fund-raising and Mr. Huang going to the DNC, as well as 
there has been a fair amount of testimony in the Senate on that last 
month.
    At any rate, at any time in or around September of 1995, did you 
learn that there had been some kind of fund-raising solution that had 
been found for the DNC?
    Answer. No.
    Question. Or any people that were going to be involved in raising 
money?
    Answer. Absolutely none.
    Question. Were you aware of Bruce Lindsey meeting with anybody 
regarding fund-raising efforts?
    Answer. No. I am not trying to give a specific denial to a specific 
question. I never knew anything at all about how the money was being 
raised by the DNC. I never knew the names of the donors, the modalities 
that we used in raising the money, the projections of how much they 
expected to raise, or any of that information.
    Question. So you had no knowledge of Mr. Ickes meeting with Mr. 
Huang at any time?
    Answer. I had no knowledge of that or any other fund-raising 
discussion.
    Question. You said you did learn about the DNC obtaining a loan 
regarding----
    Answer. I heard at the strategy meeting--I have answered that 
question.
    Mr. Lenefsky. It was a line of credit, I think.


                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you know who told you about that in the strategy 
meeting?
    Answer. It was in the strategy meeting.
    Question. Do you know who raised that?
    Answer. Ickes, I think, but I am not sure.
    Question. Did Ickes ever raise any concern about that line of 
credit?
    Answer. Yes, as I think I was just testifying, he said he would end 
up in debt at the end of the year, and that was the reason not to do 
the advertising. As I said, I said I would rather the DNC be in debt 
than the DNC be dead.
    Question. It was your understanding the line of credit had been 
extended and Mr. Ickes was trying to cut back on how often the line of 
credit was utilized?
    Answer. I have no idea.
    Question. Do you know a woman named Janice Enright?
    Answer. Yes.
    Question. And do you know who she is?
    Answer. Yes.
    Question. Could you tell us your understanding----
    Answer. She was Harold's chief assistant, Harold Ickes' chief 
assistant. Her office was located inside his office, their desks were 
joining, and she was virtually constantly with Harold, and I would deal 
with her frequently to get messages to Harold.
    Question. And what was your understanding of what her role was?
    Answer. His executive secretary.
    Question. And to your knowledge, did most--if you have any 
knowledge--of the documents that went into Harold's office, did she 
deal with them generally?
    Answer. I don't know.
    Question. When you were at the White House, did you have any 
particular phones or faxes that you were supposed to use, if you indeed 
did use any at the White House?
    Answer. No. I always charged calls to my credit card, my campaign 
credit card, when I made them from the White House.
    Question. Did you ever have occasion to use faxes when you were at 
the White House?
    Answer. I might have. Yes, I probably did.
    Question. Do you know if you were directed to any particular faxes 
which you were supposed to use at the White House?
    Answer. No.
    Question. When you first began working with the President in late 
'94 and '95, you have written that when you were working on this State 
of the Union address, you were faxed things back and forth and there 
was a lot of faxes that went to the White House from you to the 
President. Did you have a particular fax line that you were directed 
to?
    Answer. That I was supposed to send to?
    Question. Yes.
    Answer. Yes.
    Question. Do you remember what the number was?
    Answer. [Redacted]. But I would ask, in your final report, you not 
make that number public, because it still is the fax number of the 
President's office.
    Question. I understand. Is that in his private office or in the 
residence?
    Answer. It is in the Oval Office.
    Question. And do you know if there was a fax machine in the 
residence that the President utilized?
    Answer. Yes, there was, in the Usher's Office. I would frequently 
fax things to the Usher's Office as well.
    Question. Do you know what that fax number is?
    Answer. I don't have it memorized. I knew it and used it, but I 
don't know what it is.
    Question. Can you recall how frequently you sent documents by fax 
to either of those numbers or other numbers?
    Answer. Three or four times a day.
    Question. In that late '94/early '95 time period?
    Answer. Constantly, from late '94 through August of '96.
    Question. And do you have any knowledge as to how those documents 
were maintained or who maintained them at the White House?
    Answer. No.
    Question. Would the President send you back faxes?
    Answer. Yes, but not in that way. The documents I received from the 
President were usually memos--they were usually documents that he had--
almost always they were like a magazine article or something that he 
had read, and stamped ``the President has seen,'' and he would write my 
name next to it that I should be sent a copy of that.
    The President almost never sent me any documents. It just wasn't 
his style, to actually put something in writing and send it to me. It 
was kind of a one-way street. I was sending him documents, papers, 
constantly.
    Question. Did you maintain any of the documents that were sent to 
you from the White House?
    Answer. A great many of them, but they are all in my office.
    Question. So you maintained none of your documents, in the entire 
time you were working for the President, at your home?
    Answer. No.
    Question. Or in any other personal office?
    Answer. No, except I do have an incomplete set of the agendas for 
the Oval Office, for the Wednesday night meetings.
    Question. Those were the only documents you maintained personally?
    Answer. That is right. Occasionally--a few other random documents. 
I think I have a copy of the draft--the initial drafts and edits of 
each of the State--two State of the Unions I worked on, and I have some 
personal notes that he sent me just of a personal nature, birthday 
present and stuff like that, but nothing systematic; I kept all of that 
at my office.
    Question. And you said your assistant that you mentioned earlier, 
Maureen was it?
    Answer. Maureen Maxwell, yes.
    Question. Is she based in Connecticut?
    Answer. No; she lives in Pennsylvania.
    Question. So the bills that you would send for her to handle were 
sent to Pennsylvania?
    Answer. Yes.
    Question. Do you have any knowledge of what Ms. Enright's role was 
in terms of Mr. Ickes' interactions with the DNC, if she had a role?
    Answer. None. I have no idea.
    Question. You have no idea, not that she had no role?
    Answer. I have no knowledge.
    Question. What is your understanding of what Doug Sosnik's role was 
in relation to the DNC and the work you were doing?
    Answer. He was the political director at the White House, and he 
functioned as Ickes' number two in command. By that, I don't mean his 
chief of staff, or that would have been Enright, but his number two 
professional person.
    And my understanding was that he frequently transmitted 
instructions from Harold Ickes to--certainly to me and to the other 
consultants, and I have no knowledge that he transmitted them to the 
DNC, but it would have been reasonable to assume that he did.
    Question. And what was your understanding of Mr. Ickes' control 
over the DNC?
    Answer. That it was total; that he was the moment-by-moment, day-
to-day manager of every aspect of the President's campaign, whether 
that campaign related to activities of the Clinton/Gore campaign or to 
the extent that it related to DNC activities.
    I know that in my personal bailiwick we needed Harold's approval 
for every poll, every focus group, every mall test of ads, every 
production of ads, every animatic that we produced, every media buy; 
any expenditure of any amount of money other than petty cash, we needed 
Ickes' approval.
    We would go about that by submitting the information to Sosnik, and 
Sosnik would then get back to us--Sosnik would either approve it on 
Ickes' behalf, which he was permitted to do by Ickes, or earlier, 
before he got that authority, he would go back to Ickes and would get 
back to us with Ickes' approval.
    Question. And did you have an understanding of the President's 
knowledge of Mr. Ickes' role?
    Answer. I believed that the President--I believed that Ickes was 
given this authority by the President.
    Question. The President had an understanding that Mr. Ickes did 
have the type of control that you have described?
    Answer. Yes. In general, I was under that impression. I know that 
specifically the President directed that Ickes was to approve all 
polling questionnaires and all polling expenditures in advance.
    I know that because I opposed giving Ickes that authority and 
objected to the President over it, and the President overruled me and 
ordered me to deal with Ickes on the polling issues.
    Question. I am showing the witness EOP 34213, which is an April 17, 
1996, memo to Chairman Fowler, cc'd to Chairman Dodd, B.J. Thornberry, 
Marvin Rosen, Brad Marshall, Doug Sosnik, Karen Hancox, from Harold 
Ickes dated--the memo is dated April 17th, 1996, regarding an April 
15th, 1996 meeting.
    This document discusses a meeting that apparently occurred between 
Mr. Ickes and Mr. Fowler and Doug Sosnik, in which it was agreed that 
all matters dealing with the allocation of expenditures and monies 
involving the DNC are subject to the prior approval of the White House.
    Do you know if this is the time frame when this discussion 
occurred, April 1996?
    Answer. I have no knowledge of this document nor of this procedure, 
and it is my impression that the requirements that were imposed upon my 
consulting group predate this significantly.
    Ms. Comstock. I guess I can make that Deposition Exhibit Number 1.
    Mr. Lenefsky. Are you marking this?
    Ms. Comstock. Actually, we have to keep the documents. I think 
there is a different process in the Senate.
    Mr. Lenefsky. There sure is.
    Ms. Comstock. Document protocol does not allow us to disseminate 
the document.
    Mr. Lenefsky. That is a new one on me.
    Ms. Comstock. You can keep it to look at for now.
    [Morris Deposition Exhibit No. 1 was marked for identification.].

    [Note.--All exhibits referred to can be found at end of 
deposition.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Are you familiar with the documents Mr. Ickes has turned 
over to this committee at all and the Senate committee?
    Answer. No.
    Question. Other than seeing them, did you have any knowledge of 
them before news accounts?
    Answer. I don't know what documents were turned over, so I can't 
answer the question. There may be documents that he turned over that I 
know of, but I don't know that I know of them.
    Question. Maybe an easier way would be, while you were dealing with 
Mr. Ickes, did you have occasion to receive memos on a regular basis 
from Mr. Ickes?
    Answer. Yes.
    Question. What type of memos did you receive from Mr. Ickes?
    Answer. Memos which would clarify campaign procedures, approvals, 
memos which would lay out policies for reimbursement, memos which would 
be instructions to campaign staff people, things of that sort.
    Question. Okay. Do you have any knowledge if Mr. Ickes maintained 
these types of documents?
    Answer. I have no knowledge.
    Question. Do you know, have you heard from any source, whether or 
not these are some of the documents Mr. Ickes took with him when he 
left the White House?
    Answer. I have no knowledge.
    Question. Do you have any knowledge about Mr. Ickes taking his 
documents from the White House?
    Answer. No.
    Question. On a July 18th, 1997, article in the Washington Post----
    Mr. Lenefsky. '97?

                      EXAMINATION BY MS. COMSTOCK:

    Question. '97, I am sorry--last month, you were quoted as saying, 
``If Harold really unloaded, there would be a whole lot more going on 
now than there is. If Harold ever broke with Bill Clinton, you would 
know it, believe me.'' Can you tell us what you meant by that 
statement?
    Answer. That it is my impression that Harold has had a long and 
close relationship with the President and has been privy to all of the 
President's political operations over a long period of time, and that 
if Harold--what I meant in that is that if Harold Ickes were to reveal 
everything that he knows, my impression is that the time period covered 
and the substance covered would go far beyond the scope of the document 
release he was alleged to have made pursuant to the committee's 
request.
    Question. And what type of matters are you referring to?
    Answer. Matters that would relate to the 1992 campaign, that would 
relate to the Democratic convention and the President's strategy there 
in 1992, things that would relate to the President's fund-raising 
operations.
    I believe that someone who is in Ickes' position would have access 
to far more material than was released pursuant--was released in 
connection with the document release that Ickes made after--he was 
alleged to have made after he left the White House.
    I do not, however, know of any specific piece of information that 
Ickes might possess which could be injurious to the President.
    Mr. Lenefsky. Can you tell me which page you are on?
    Ms. Comstock. It is----
    The Witness. Could I ask for literally a 2-minute recess? I just 
need to return a page. I will be back.
    [Brief recess.]
    Ms. Comstock. Okay, we can go back on the record. Congressman 
Cummings has joined us. I will turn the questioning over to him.
    Mr. Cummings. Thank you very much.
    Good afternoon--good morning, rather.
    Mr. Morris, I just wanted to stop by here to ask you a few 
questions.
    The Witness. Sure.
    Mr. Cummings. While I am a lawyer with 20 years of criminal 
practice, I am not here in that capacity today but as a member of the 
Government Reform and Oversight Committee. I am just interested in this 
case.
    It is my understanding, over the last 2 and a half hours of 
questioning there have been no real questions about campaign fund-
raising. While Mr. Morris has stated he has no knowledge of John Huang, 
Charlie Trie, the Riadys, or any other matter related to possible 
campaign fund-raising, it is my understanding Mr. Morris has testified 
about political strategy, advertising and polling, all matters of which 
neither this committee or the full House authorized an investigation.
    Mr. Morris, I would like to ask you some questions about fund-
raising that you may actually have some knowledge about.
    It is my understanding you worked for the Bush campaign--is that 
correct?--back in 1988?
    The Witness. Yes.
    Mr. Cummings. Did you work for George Bush's Presidential 
campaign--is that right?--in 1988?
    The Witness. Yes. But I am----
    Mr. Cummings. Let me say this. If I ask you anything and you are 
not clear, I am sure your counsel advised you, you can ask me to 
rephrase it.
    The Witness. Yes, I know. I worked to help Bush get elected, but I 
cannot recall whether I was paid by the Bush campaign or by the 
Republican National Committee.
    Mr. Cummings. Okay. Do you recall what your responsibilities were?
    The Witness. Yes.
    Mr. Cummings. What were they?
    The Witness. I was--I advised Lee Atwater, the campaign manager, 
and Roger Ailes, the media creator, on the content and timing and 
issues of the negative campaign against Dukakis.
    Mr. Cummings. And so you provided advice as far as negative 
campaigning is concerned; is that what you said?
    The Witness. Yes. I had worked for Weld, who had defeated Dukakis 
for Governor of Massachusetts, so I was sort of the house expert on how 
to beat Dukakis.
    Mr. Cummings. Were you involved in any way or did you have any 
knowledge of the type of fund-raising conducted in that campaign?
    The Witness. No.
    Mr. Cummings. Do you remember what Robert Mosbacher's role was in 
the campaign?
    The Witness. No.
    Mr. Cummings. What kind of access did you have to the Vice 
President, Bush, during that campaign?
    The Witness. None. I have never met him.
    Mr. Cummings. You never met him?
    The Witness. Nor spoken to him.
    Mr. Cummings. Are you familiar with Team 100, the group of $100,000 
contributors to the RNC?
    The Witness. No.
    Mr. Cummings. Do you know whether any large contributors were made 
specific promises by the Bush administration? That is, people that 
contributed to the Bush campaign?
    The Witness. No.
    Mr. Cummings. Would you know whether any were promised 
ambassadorships? That is, large contributors?
    The Witness. No. I know as little about the Bush campaign fund-
raising as about the Clinton campaign fund-raising.
    Mr. Cummings. All right. Let me just go to something else. I just 
want to go--I had an opportunity to read some documents from 
``Crossfire'' back on March 3rd, 1997. I just want to ask you, do you 
remember that?
    The Witness. I am sorry?
    Mr. Cummings. You appeared on ``Crossfire;'' is that right?
    The Witness. Yes.
    Mr. Cummings. And there is a quote, and I would like you to tell me 
whether it is accurate or not. This is a quote that is attributed to 
you, and I just wanted to know whether you made this. It says, ``I have 
sat in the room with six different currently serving Republican Members 
of United States Senate in their Senate offices, and they pick up the 
telephone, and they ask somebody for a campaign contribution.'' Do you 
remember saying that?
    The Witness. Yes.
    Mr. Cummings. And can you identify who those Congresspeople were 
that you were talking about?
    Mr. Lenefsky. Wait a minute. Congressman, with all due respect, I 
don't understand the relevance of this line of questioning. Correct me 
if I am wrong. I thought the committee's jurisdiction was fund-raising 
improprieties or illegalities with regard to the 1996 Presidential 
election. If I am wrong, please correct me.
    Mr. Cummings. Well, as I sat in the committee, we said we would 
take this anywhere it went. And that is my understanding; it is not 
limited.
    Ms. Comstock. I think the witness may be confused, because 
previously Minority had objected to this line of questioning.
    Mr. Ballen. No, I did not. I objected to the question. Absolutely 
untrue. I objected to a question that didn't relate to fund-raising. 
Mr. Cummings' questions relate to fund-raising.
    We have asked as well--it is well established there have been 
questions about 1992 and beyond.
    So we also had questions about the 1980s and 1970s, what was done 
for President Clinton.
    Mr. Lenefsky. I would like to consult with Mr. Morris for just a 
moment, please.
    [Discussion off the record.]
    Mr. Lenefsky. Can we have the question read back?
    [The reporter read back as requested.]
    The Witness. Yes.
    Mr. Cummings. And who were they?
    The Witness. Well, after I had made the statement, the statement 
was a spur-of-the-moment statement in which I was in the heat of 
argument with Haley Barbour, and Mr. Barbour had professed shock and 
indignation about the Vice President's making calls from his office. 
And I said, ``It is the routine practice of Members of Congress to make 
phone calls from their offices for fund-raising, and you know that.'' 
And I am under the impression that that is the routine practice.
    I blurted out a figure without necessarily concocting it in my 
mind. Subsequently, I had an opportunity to reflect on it and figure 
out who I actually have seen physically picking up the telephone, 
talking into the phone, and asking people to do fund-raisers or to 
contribute money in their Senate office, and I come up with three 
names: Senator Phil Gramm of Texas; Senator Paula Hawkins of Florida; 
and at the time, Congressman Buddy Roemer of Louisiana.
    Mr. Cummings. Now, let me make sure I am clear on what you just 
said, that although you mentioned, you said--talked about six, actually 
there were only three that you could remember?
    The Witness. Yes, that I could actually say I sat in their office 
and watched them make fund-raising phone calls.
    Mr. Cummings. Now, let's go back to these three people for a 
second. As to Senator Phil Gramm, can you remember when it was that you 
observed the fund-raising calls? First of all, do you remember whether 
it was more than one? I am specifically talking about Senator Gramm.
    The Witness. Yes. I cannot fix a date. I had occasion to meet 
frequently with Senator Gramm during the Kay Bailey Hutchison campaign 
when she was first elected to fill an open seat, and I was employed by 
the Republican Senate Campaign Committee as a consultant to them in 
working for the Republican candidate in that race.
    As you recall, there were three Republican candidates and three 
Democrats, and the top two, one from each party ran it off.
    But the Republicans did not have a specific candidate, so I was 
kind of in charge of the negative campaign against Kruger, who was the 
most likely Democratic opponent. And I had run a campaign that had 
defeated Kruger before, so, again, it was useful for me to do that.
    In the course of that period, whatever date that campaign was--I 
even forget the year, but you can check it, when she was first 
elected--I was in Gramm's office a lot, like five or six or seven--five 
or six times, maybe seven or eight times. And it was my specific 
recollection that we would be meeting, and then somebody, his 
secretary, would buzz in and say Mr. X is on the telephone, and then I 
would see him lean back in his chair and say, ``Hi, Charlie, how are 
you doing,'' and basically ask him either to set up a fund-raiser or to 
give money.
    I do not recall with any specificity whether he was asking to 
arrange a fund-raiser or solicit a contribution, ask someone to 
contribute to a Republican Senate candidate, since he was head of the 
Senate campaign committee, or to contribute to his own campaign. But I 
was constantly--the meetings were constantly interrupted by fund-
raising phone calls by the Senator.
    Now, when Channel 7--ABC, rather--called me after this 
``Crossfire'' and said now, can you recall whether--exactly the nature 
of the conversation? the gentleman--the reporter told me it would be 
illegal if he actually asked someone for funds; but if he asked someone 
to set up a fund-raiser party, that might not be illegal; and if he 
asked him to give money to another person, another campaign, that might 
not be illegal. And I can't recall which of those activities the 
Senator engaged in.
    Mr. Cummings. Now, when you said you were in his office, was this 
here in Washington?
    The Witness. Yes, in his Senate office in the--I believe it is in 
the Russell Senate Office Building.
    Mr. Cummings. With regard to Senator Gramm, when you saw this take 
place, did you comment on it at all?
    The Witness. No.
    Mr. Cummings. Within the office?
    The Witness. No. It is my understanding that this is----
    Mr. Lenefsky. The answer is no.
    The Witness. The answer is no.
    Mr. Cummings. So can you tell us about the circumstances, what you 
observed with regard to Buddy Roemer.
    The Witness. He was a candidate for Governor of Louisiana in 1983. 
At that time he was a Democrat, he has become a Republican 
subsequently, and I was a consultant on his campaign.
    And, once again, I recall strategy meetings with him being 
interrupted by callbacks from contributors where he would take the call 
and he would discuss a campaign contribution or a party or some fund-
raising issue in the middle of the meeting that I was having with him.
    I recall these because the interruptions were annoying to me and I 
just wanted to have my meeting and not have to sit there and listen to 
phone calls.
    Mr. Cummings. And where did those calls take place?
    The Witness. From his congressional office in one of the House 
office buildings.
    Mr. Cummings. And Paula Hawkins?
    The Witness. I worked for Senator Hawkins on her initial election 
campaign in 1980 and her re-election in 1986, and during the period of 
'85 and 1986 I met with her almost weekly in her Senate office, and I 
recall her making calls in connection with fund-raising from that 
office.
    Mr. Cummings. I want to go back to Phil Gramm for a second. You 
said that you heard the callbacks. Did you hear--did you observe any 
calls being made with regard to fund-raising, if you can recall?
    The Witness. No. I don't think that he actually interrupted a 
meeting with me to say, please wait while I call this person. I think 
what would happen is that his secretary would buzz him and say, Mr. 
Jones is returning--is on the line, and then he would speak to Mr. 
Jones, and I inferred that it was a callback of a call he had 
originally placed. It might not have been.
    Mr. Cummings. Now, would that be the same for Paula Hawkins?
    The Witness. Yes.
    Mr. Cummings. So you don't recall--you don't remember hearing or 
seeing her actually make a call out.
    The Witness. That is correct.
    Mr. Cummings. Now, are you aware of any other instances where 
Congressmen have engaged in fund-raising phone calls in their 
congressional offices?
    The Witness. I have never directly witnessed that, but it is my 
impression that it is the routine practice engaged in by, as I have 
said, the vast majority of the House and of the Senate.
    Mr. Cummings. Back on March 3rd, 1997--let me go back to what you 
just said. Is there--I mean, when you say it's your--you said it's your 
impression----
    The Witness. [Affirmative nod.]
    Mr. Cummings. Strike that. On March 3rd, 1997, the edition of 
``Crossfire,'' you said, ``Every single Republican Senator spends about 
80 percent of his time, including Senator Nickles, raising money, from 
those high-back chairs in the United States Senate office.'' What did 
you mean by that?
    The Witness. Well, some of it might have been hyperbole. I don't 
know if United States Senators spend 80 percent of the time while they 
were in their office making fund-raising phone calls. It is my 
impression that when candidates are up for re-election, Congressmen or 
Senators, they end up spending, if they are in contested races, sharply 
contested races--they end up spending a huge proportion of their time 
dealing with fund-raising, and they--and my impression is that a vast 
amount of that is from the Senate office.
    As I'm saying that, I recall that--I recall learning from somebody 
that Senator Cranston was legendary for sitting in his office and 
making millions of phone calls--thousands of phone calls to donors. I 
remember at one point someone telling me, I don't remember who, that 
Cranston would literally treat his office like a fund--his fund-raising 
headquarters.
    So I was expressing on the program that when Senator Nickles, in 
particular, expressed shock that the Vice President was doing it, was 
making calls from his office, I think on the program I said it was akin 
to the scene in the movie ``Casablanca'' where Humphrey Bogart, with a 
French cop, bursts in and says he was shocked to hear that gambling is 
going on, and the hotel clerk interrupts him and says, ``Here are your 
winnings from last night, sir.''
    Mr. Lenefsky. Claude Renee?
    The Witness. Yeah, that's it.
    Mr. Cummings. I think back on that program you also said that six 
Members of the Senate, including half of the Republican leadership--do 
you remember that?
    The Witness. Yes. What I had in mind when I said that was, Phil 
Gramm was part of the leadership and I did not--it was hyperbolic.
    I have been asked in the past whether that included Trent Lott, 
because I have been Senator Lott's consultant and I have said on the 
record and would affirm now that I have never seen Trent Lott make a 
fund-raising call from his office. I suspect that that's largely 
because he has never had to.
    Mr. Cummings. You worked for Congressman Dickey also?
    The Witness. What?
    Mr. Cummings. Congressman Dickey.
    The Witness. Yes, Jay Dickey.
    Mr. Cummings. And when was that?
    The Witness. In 19--in his 1994 re-election campaign.
    Mr. Cummings. And what were your responsibilities there?
    The Witness. I did his polling and oversaw his advertising.
    Mr. Cummings. Do you remember whether Congressman Dickey made any 
fund-raising calls from his office that you would know of?
    The Witness. I remember that he did not.
    Mr. Cummings. Okay.
    The Witness. I only met with him two or three times in his office 
in Washington, and most of the rest of our meetings were in Arkansas, 
and I know that those meetings in Washington were not interrupted by 
fund-raising calls.
    Mr. Cummings. Did you do any kind--type of fund-raising for him?
    The Witness. No.
    Mr. Cummings. You worked for Senator Helms, too?
    The Witness. Yes.
    Mr. Cummings. And when was that?
    The Witness. In his re-election campaign of 1990.
    Mr. Cummings. And what were your responsibilities with Senator 
Helms?
    The Witness. I conducted some of his polling and advised him on his 
advertising.
    Mr. Cummings. Now, do you recall him making fund-raising calls from 
his office or receiving callbacks?
    The Witness. No. I only met with Senator Helms once, which was in 
his Senate office. It was a meeting of about an hour, and that was the 
only time I have ever seen Senator Helms. He did make no fund-raising 
phone calls. My contacts were with his campaign staff in North 
Carolina.
    Mr. Cummings. So you had nothing to do with any campaign fund-
raising for him; is that correct?
    The Witness. That's correct.
    Mr. Cummings. Are you aware of whether anyone affiliated with the 
1990 Helms campaign provided information to the Christian Coalition 
about needs, plans, or projects on the campaign?
    The Witness. No.
    Mr. Cummings. So you have no knowledge of that whatsoever?
    The Witness. That's correct.
    Mr. Cummings. Give me one second, please.
    You worked for Senator Wilson; is that right?
    The Witness. Yes, but I worked for him only in his campaign to be 
elected to the Senate. I never worked for him after his election to the 
Senate. When I worked for him, he was mayor of San Diego.
    Mr. Cummings. And what did you do for him?
    The Witness. I worked on his polling and on his advertising.
    Mr. Cummings. So as far as fund-raising is concerned, nothing?
    The Witness. No connection at all to his fund-raising.
    To spare you, I would be happy to list my Republican clients, but I 
have never worked on anybody's fund-raising in either party. It is not 
what I do, and I know nothing about it.
    Mr. Cummings. So you don't even get involved in that at all?
    The Witness. That's right. There are occasions, and there have been 
candidates, none of the ones you mentioned, where I am invited to speak 
at a fund-raiser to urge a candidate's donors to give money. I did 
that, for example, for Warren Rudman when he was running for the Senate 
for the first time. But I never know who is in the audience, I never 
view the invitations, and I never receive the checks or raise the 
money, I just give a speech as to why I think he can win.
    Mr. Cummings. You generally paid close attention to television 
advertisements, ads by the Republican Party and its candidates for 
President in 1995 and 1996, didn't you?
    The Witness. Yes. Rather close attention.
    Mr. Cummings. And why was that?
    The Witness. Well, I was running the President's advertising, so I 
needed to know what the other side was doing.
    Mr. Cummings. So you personally reviewed many of the Republican 
television spots in 1995 and 1996?
    The Witness. Yes.
    Mr. Cummings. And when you would review them, what were you 
reviewing them for?
    The Witness. To find out what they were saying about President 
Clinton so that I could respond to them in the President's 
advertisements.
    Mr. Cummings. Do you recall seeing ``Dole for President'' spots 
during the Republican Presidential primary?
    The Witness. Yes.
    Mr. Cummings. One of Dole's ads was a biographical spot produced by 
Don Supple. Do you remember that?
    The Witness. Yes.
    Mr. Cummings. And does--I mean, can you tell us about it, as best 
you can?
    The Witness. Yes. I believe what you're referring to was a 60-
second advertisement that was run by the Republican National Committee 
under the same rubric of issue advocacy advertising that the Democrats 
did for President Clinton.
    It was notable in my recollection because it systematically 
violated every single one of the ground rules that Lynn Utrecht and Joe 
Sandler, the counsel for the campaign and for the Democratic Committee, 
had laid down for us and that we had to abide by.
    It was a spot that had absolutely no issue content at all. It was a 
warm and fuzzy biographic spot talking about where Senator Dole grew up 
and his background and his war record and a lot of things like that, 
and it had no reference that I can recall to issues at all.
    I remember being outraged by it, and I called Utrecht and Sandler, 
and I said, why are we being barred--I wanted to run an ad for Clinton 
that talked about--that he was born poor, that he worked his way up, 
that he went to school on scholarships, and flesh out some of his 
background so that we could present that.
    I was told by Utrecht and Sandler that if we did that, it would 
have to be out of Clinton/Gore because it was not issue advocacy, and I 
accepted that. But then when Dole did the exact same thing, I said, why 
are you unilaterally disarming us?
    I would like to state, in answer to your question, a little more 
broadly, that whereas the Clinton--the Democratic National Committee 
ran about $30 million of advertising that were issue advocacy ads, the 
Republican National Committee ran between 20 and 25 million dollars of 
advertising for Dole, which were issue ads, and whereas the Clinton/
Gore DNC issue ads--that is, the DNC issue ads that I supervised--were 
run largely during the budget fight, the Republican ads were run--80 
percent of them were run after June 1st, 1996, when it was clearly re-
election ads. During much of it the Congress wasn't even in session, so 
there wasn't even an issue advocacy possible.
    So I do want to point out that all of the accusations that have 
been made about the Democrat issue advocacy advertising being thinly-
veiled re-election commercials, which I believe not to be true in our 
case, were overwhelmingly and abundantly true in the case of the 
Republicans.
    Mr. Cummings. So you really are concerned about that, huh?
    The Witness. What?
    Mr. Cummings. You sound like you got very upset about that.
    The Witness. I got very concerned when, in the last 3 months before 
the Democratic convention, we were being outspent by 3-to-1 on issue 
advocacy ads by the Republican Party.
    I also was interested to note in the Washington Post today that the 
Democratic Party spent 122--raised $122 million in soft money and only 
$14 million of that went to the advertising campaign. We spent $45 
million in pre-convention ads, 15 from Clinton/Gore, 30 from DNC, and 
of the 30 from DNC, $16 million was hard and $14 million was soft. So 
the parent to the advertising campaign was only responsible for about 
11 percent of the total expenditures of soft money by the DNC.
    Mr. Cummings. Now, you said you did run a biographical ad on Bill 
Clinton; is that right?
    The Witness. No, we never did. I wanted to, but we couldn't unless 
it was Clinton/Gore money, and we elected not to do so.
    Mr. Cummings. And the 1995-1996 DNC issue advertisements, I take it 
that they focused on legislative issues; is that right?
    The Witness. Yeah, they were overwhelmingly focused on the budget 
fight, and they exclusively related to the contrast between President 
Clinton's plan and the Republican plan to balance the budget, and they 
would summarize the salient elements of each and advocate the 
President's plan as opposed to the other plan.
    For example, I remember that we could never use the name 
``President Clinton,'' we had to say, President Clinton, apostrophe s, 
plan--``President Clinton's plan''--because it had to be related to the 
substance of the issue rather than the personalities involved.
    Mr. Cummings. Now, you just laid out--the answer you just gave, you 
said it had to be, and what are you basing that on? What were the 
ground rules, and where did those ground rules come from?
    The Witness. Lynn Utrecht, the campaign counsel, and Joe Sandler, 
the DNC counsel, had presided over a series of meetings at Lynn 
Utrecht's office, the sole purpose of which was to discuss what was 
permissible in DNC issue advocacy advertising and what was not. They 
laid down rules that were subsequently incorporated into memoranda that 
was circulated that provided the ground rules as to what we could or 
couldn't include.
    Further, Mr. Sandler was present at each of the creative meetings 
where we worked on developing these ads and constantly was editing and 
fine-tuning the most minute details of the advertisements, text and 
visuals, as well as its placement, in order to observe those ground 
rules.
    For example, I was--we were instructed that Democratic National 
Committee issue advocacy ads could not run within the 28 days prior to 
a primary contest in a given State, and that if we chose to advertise 
within 28 days of the primary, even though Clinton was unopposed in the 
primary, we would have to use Clinton/Gore money.
    So, for example, we would refute--we couldn't advertise in the 
Philadelphia media market during the New Jersey primary, the 
Pennsylvania primary, and the Delaware primary. Even though the 
Delaware was just a minute little portion of the Philadelphia media 
market, we couldn't be on in the entire media market for the 28 days 
before the Delaware primary, because of Joe Sandler and Lynn Utrecht's 
rules.
    The Republicans, on the other hand, ran their issue advocacy 
advertisements on cable throughout this entire process and in 
Washington, D.C., throughout the whole country, regardless of when the 
primaries were taking place, and in the D.C. media market, even though 
it was run on occasions that were proximate to the Maryland, D.C., and 
Virginia primary dates.
    Mr. Cummings. Help me with something. I'm just curious. What--you 
keep referring to Joe Sandler, and I think he was the general counsel 
for the DNC. Is that right?
    The Witness. Yes.
    Mr. Cummings. When you began your work with President Clinton, were 
there discussions with regard to what your relationship would be with 
regard to Joe Sandler as far as advice? I mean, were there guidelines 
set out from the very beginning? because it sounds like Joe Sandler was 
very much involved in what was going on here, and I was just wondering, 
how did that relationship start with regard to you?
    The Witness. When the advertising--when the decision was made by 
the President to engage in issue advocacy advertising through the 
Democratic National Committee, Sandler and Utrecht were appointed as 
a--by the President and Ickes to be a group--to be the arbiters of that 
campaign and to set the rules, the legal rules.
    And then I suggested that rather than make that an ex-post-facto 
review of the script or of the spot--not ex post facto, but a last-
minute review before it went on the air, which would inevitably cause 
major revisions and delays, that we actually take the unprecedented 
step, from my political career, of actually having the DNC lawyer, 
Sandler, sit in meetings so that he was present at every instant while 
the ads were being developed and, rather than just give this commentary 
at the end, would comment literally as we had the visual on a freeze 
frame, and he would say, you are leaving that on for 4 seconds, you can 
only put it on for 2 seconds, or that ad says President Clinton, it's 
got to say President Clinton's plan, or that picture is Bob Dole's 
picture and Bob Dole has retired from the Senate and you can no longer 
use Bob Dole's picture in your ads, because he is not a Senator 
anymore, and therefore you cannot be engaging in legislative advocacy 
by using his picture.
    Those are all specific examples of the kind of ruling that Sandler 
insisted upon while we were actually creating these advertisements.
    Mr. Cummings. So the kind of meeting that you just spoke about, 
would that be considered a creative meeting? Is that what they are 
called?
    The Witness. Yes.
    Mr. Cummings. And you said--I think you used the word 
``unprecedented'' for you.
    The Witness. Yes. I had never had a lawyer in the room when I'm 
writing ads. It was a unique experience.
    Mr. Cummings. And why did you have a lawyer in the room here? I 
mean, why were you----
    The Witness. Because we were instructed by the President to follow 
the specific advice of the attorney in the DNC advertising so that we 
did not engage in any advertising that was over the lines drawn by the 
Federal Elections Commission.
    Mr. Cummings. So I take it that Sandler and----
    The Witness. Utrecht.
    Mr. Cummings. Newtrecht.
    The Witness. Utrecht--U.
    Mr. Cummings. Were engaged in all of these creative meetings.
    The Witness. No. Only Sandler was, but Utrecht, in addition to 
Sandler, cleared all scripts and all visuals before the advertisements 
were permitted to run.
    Mr. Cummings. And I take it that you, a few questions ago--answers 
ago, you talked about the detail of looking at each advertisement as it 
was developed. Was that the process that was--was that the pretty much 
consistent process, for Mr. Sandler to look at every single aspect of 
the ad?
    The Witness. Yes. It was not pretty much consistent, it was 
completely consistent. Not a single DNC ad was ever run where Sandler 
was not intimately involved from the very beginning in the formulation 
of the ad, except for the first ad that was run in August, which was 
before there had been that kind of input. But Sandler and Utrecht 
approved that ad before it went on.
    Mr. Cummings. Now, did there ever come a time when you disregarded 
Mr. Sandler's advice?
    The Witness. No.
    Mr. Cummings. Why not?
    The Witness. Because I wasn't allowed to. My instructions were that 
I had to obey every ruling of Sandler and Utrecht, and I did, down to 
the last detail.
    Mr. Cummings. I just want to go back to just one thing for a 
second. We talked about the Republican ad, the one that you were kind 
of concerned about.
    The Witness. The Dole ad, yes.
    Mr. Cummings. Do you believe, based upon--I mean, apparently you 
had some concerns, and I take it that you don't believe that they met 
the letter of the law.
    The Witness. I can't comment on that, Congressman, because I'm not 
an attorney. They certainly went far over the line that was drawn for 
us by the counsel to the Democratic National Committee. I don't know if 
his opinion was accurate, but if he were their counsel, he wouldn't 
have let them do any of the things that they did.
    Mr. Cummings. When you--let me talk about Joe Sandler a bit, just 
ask you a few questions.
    You gave us examples of things where Sandler said, look, you have 
got to stay within a certain situation, and I think you referred to the 
State races and the media markets and whatever.
    The Witness. Yes.
    Mr. Cummings. Were there other examples of what--of when Mr. 
Sandler said, look, you got to stay in this box?
    The Witness. Yes.
    Mr. Cummings. Can you give us some examples of those instances?
    The Witness. Before he would let us do an advertisement on a 
subject for issue advocacy, we had to establish that the subject was a 
current subject of political controversy in the U.S. Congress, not 
simply that a bill had been introduced but that it was actually before 
the Congress in an active and aggressive way.
    So, for example, after the welfare reform legislation was passed 
and signed by the President, we could not run ads on issue advocacy 
relating to welfare reform, because it was no longer a question before 
the Congress; it had been passed. Even though the President continued 
to want changes in that legislation modifying the cuts, we were not 
permitted to address that in the advertising. We were only permitted to 
address topics that were front stage before the Congress.
    Another example was that we were required in our attack, whenever 
we presented Dole's picture, to present Gingrich's as well, and 
whenever we mentioned the name ``Dole,'' we had to also mention the 
name ``Gingrich,'' to emphasize that we were mentioning the name 
``Dole'' not in the context of his Presidential candidacy but in the 
context of his position as majority leader in the Senate.
    As another example, Sandler and Utrecht, when it looked as if Lamar 
Alexander might be the Republican candidate, they told me at that point 
that we could not mention Lamar Alexander's name in our issue advocacy 
ads because he was not a Member of Congress and had not been a Member 
of Congress and was not--didn't have--and even though he had positions 
on the issues before Congress, he was not a participant, and therefore 
we could not mention his name.
    At one point, I was terribly concerned that if he were the nominee, 
he would be able to use issue advocacy ads to attack Clinton because we 
were President but we could not use issue ads to attack him because he 
wasn't in Congress.
    Those are all examples. I could literally give you 50 more.
    Mr. Cummings. Well, what about as to the Dole ad--and I know you're 
not a lawyer, but based upon your knowledge of what you--the ground 
rules that you were working under, can you give us examples of the 
things that concerned you there?
    The Witness. First, that they--well, all I can tell you is examples 
of what they did that Sandler wasn't letting us do.
    Mr. Cummings. I understand.
    Mr. Ballen. You mean the RNC, sir?
    The Witness. The RNC. First, the RNC advertised in States 
immediately prior to their primaries; we did not; the DNC did not.
    Secondly, the RNC permitted biographic ads to be run that had no 
issue advocacy by the RNC; the DNC was not permitted to do that.
    Thirdly, the RNC ran an advertisement that showed Bill Clinton 
saying, ``We can balance the budget in 7 years,'' and then there were 
films clips of him giving different time deadlines: We can balance it 
in 10 years, 7 to 10 years, 8 years. And there were film clips of 
Clinton contradicting himself on when the budget would be balanced. It 
did not indicate the Republican position on the issue; it did not 
discuss the President's position on the issue; it was a negative ad out 
of the blue.
    We would never have been permitted to run that ad. We would have 
had to state what our position was and what the conflict was.
    So there were, long after--long after the welfare bill had been 
passed, the Republicans were running ads attacking Clinton on welfare 
reform with DNC--with RNC funds paying for it, and we were not 
permitted to reply to it effectively because we could not address that 
with a DNC ad, we had to use Clinton/Gore ads to deal with welfare 
reform, because it was no longer in play before the Congress.
    I would go to Sandler and I would say, ``They are running an ad 
attacking us on welfare reform with an RNC label. Why can't we reply to 
that ad with a DNC label?'' And he would say, ``You can't.''
    I actually had occasion to--at some point, to speak to the 
President and say we were being unilaterally disarmed by Utrecht and 
Sandler and being required to be held to a standard that the 
Republicans were nowhere near approaching. I said, ``Mr. President, we 
are being outgunned 3-to-1 here in quantity and we are fighting with 
one hand tied behind our back because of the''--``our inability to do 
what they are doing, what the Republicans are doing.'' He said to me, 
``I don't care. Follow their instructions.''
    Mr. Cummings. I'm just curious, did you ever go to Sandler and 
Utrecht and say look, guys, basically what you just said? Did you ever 
say, look, you got--I mean, our hands are tied behind our backs?
    The Witness. Constantly. I recall one meeting with Utrecht where we 
had one of these legal meetings where we literally screamed at each 
other. I shouted at her. I said, ``You are deliberately trying to 
sabotage this advertising campaign because you are a pawn in a tool of 
Harold Ickes''--Ickes was there--``and you are using this legal fiction 
that you are developing as a tool of emasculating our advertising 
campaign because Ickes opposes it and you are following his orders.''
    And she screamed back at me that that was outrageous accusations, 
Ickes was furious, and everybody's tempers cooled after a little while, 
but it was tremendous friction of my resentment against what I 
considered to be their unreasonable imposition of rules that the other 
side wasn't following.
    I was perfectly willing to follow their rules, but only if the 
other side did, and when the other side broke them, I didn't see any 
reason that we should be subject to them. But we were, and we continued 
to be, and I didn't like it one bit, but I had to follow it.
    Mr. Cummings. I take it that you had--you just used a term that I 
hadn't heard before in your testimony. You used the term ``legal 
meeting.''
    The Witness. Yes.
    Mr. Cummings. Is that what you said? So I take it you had the 
creative meetings, which was creating the ads, and then there were 
legal meetings.
    The Witness. Yes.
    Mr. Cummings. What are legal meetings?
    The Witness. I testified on that earlier.
    Mr. Cummings. Oh, I'm sorry.
    The Witness. It's okay. The legal meetings included Ickes; Sandler; 
Utrecht; Cheryl Mills; sometimes Jack Quinn; sometimes Ron Klain; 
myself; Tom Freedman, my chief of staff; Mark Penn, our pollster; and 
Bill Knapp, our media creator; and also the gentleman who was our time 
buyer-,--I forgot--Jamie Sperling I think was his name, our time buyer 
who worked for Squier, and we had six or seven of those over the course 
of the campaign.
    Every time the campaign entered a new phase, the primaries were 
here, or Dole was the nominee, or the budget, you know, different 
phases as the campaign progressed, when the circumstances changed, we 
would have a meeting to outline the ground rules of the new situation.
    Mr. Cummings. Going back for a moment, I guess you felt kind of 
pressured with the President over this whole issue of counsel 
restricting you and----
    The Witness. Yes.
    Mr. Cummings. That really bothered you, huh?
    The Witness. Yes.
    Mr. Cummings. And the President's--it was basically almost, from 
what you said, when you told the President, look, our hands are tied 
behind our backs, I take it that there was very little discussion, 
except you got to follow the law?
    The Witness. Yes.
    Mr. Cummings. So did you get the impression from your discussions 
with the President when you complained that he had full confidence in 
these two counsel?
    The Witness. Yes.
    Mr. Cummings. I don't have anything more. Thank you very much.
    The Witness. Thank you very much. Good to meet you, Congressman.
    Mr. Cummings. My pleasure.
    The Witness. Hey, off the record.
    [Discussion off the record.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Were you familiar with many of the various campaign 
accounts that were being used to pay for ads by the RNC?
    Answer. No.
    Question. Were there any written legal opinions regarding the rules 
of issue advocacy ads that you discussed?
    Answer. Yes.
    Question. And would those be some of the documents that I think we 
previously discussed would be at your office?
    Answer. Yes. There are other places they would be. Lynn Utrecht 
would have them, Joe Sandler would have them, and most likely Bill 
Knapp of Squier, Knapp, Ochs would have them.
    Question. Were there discussions over the use of coordinated 
accounts?
    Answer. No. There were--with one exception, which I will get to in 
a minute, we were--I was never involved, nor were--to my knowledge, 
were any member of our media team, ever involved with the formulation 
of any coordinated expenditure--any independent expenditure.
    That's what you mean, right? Not coordinated, but independent 
expenditure by the AFL, or any other--Sierra Club or any other group.
    Am I responding to your question? You said ``coordinated.'' It just 
dawned on me.
    Question. The coordinated accounts.
    Answer. I don't understand the question.
    Question. Talking about the coordinated accounts run by the States 
and the soft money that----
    Answer. Oh, yes, I did know about that. There was--we were informed 
at some point in September or October, I believe, of '95, I believe by 
Ickes, that when a State party ran an ad, under its disclaimer as 
opposed to the Democratic National Committee, the ratios of hard and 
soft money were less--were less onerous, and I was informed at that 
time that we had no problem having enough soft money, but the hard 
money which was Federal money was a problem, and that if the ad were 
run by the State party, you had to have less hard money in it.
    Therefore, we were requested to prepare separate ads for each State 
party. The media people would then prepare an ad sponsored by each 
State party. There would be a separate disclaimer line for each State 
party, and the ads would be identical except for a different 
disclaimer, and therefore the buy was technically 30 or 20 separate 
buys, one for each State. I was aware of that.
    Question. These were generally the same ads?
    Answer. They were always the same ads.
    Ms. Comstock. Okay. I'm showing the witness DNC document 310398 
through 701. I may have given somebody my copy, I'm sorry. Can I check 
these again? I'm sorry.
    [Brief pause for document examination.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. The front page of this is a handwritten note, apparently 
Don Fowler of October 12th, '95, and it's attached to an information 
sheet in the memo to Bill, Bill somebody. It says, ``Thank you for 
returning my call today. Attached is an info sheet about our efforts to 
raise money to fund 10 million of paid TV ads over an 8-week period 
during October and November. This effort is at the specific direction 
of the President.''
    Was that your understanding of this media buy in October of '95? 
Was it at the specific direction of the President?
    Answer. Yes.
    Question. And it continues, ``We would like for you to give some 
more, if you can, but more important, get some others to help. We 
really need another $250,000. Thanks, best wishes, Don.''
    Then it is attached to a memo that is to Chairman Don Fowler from 
Squier, Knapp, Ochs Communications, and that memo is dated October 5th, 
1995.
    Were these the kind of State buys that you're referring to that you 
were discussing just a moment ago?
    Answer. Yes.
    Mr. Ballen. Could you ask the witness if he has ever seen this 
document before?
    The Witness. Are you asking me? No, I have never seen this document 
before.
    Ms. Comstock. I am asking if this is the type of media buy that you 
were talking about.
    The Witness. Yes.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Okay. And the States outlined here the States for an 
early October media buy, October 3rd through October 12th, '95; is that 
correct?
    Answer. Yes.
    Question. I think earlier when we discussed some of the States, you 
had mentioned Vermont and Rhode Island as being among the States that 
were selected. Directing your attention to DNC 3103700, at the bottom, 
it talks about--under New York, it has ``Burlington-Plattsburgh 
market.'' Was that the Vermont reference----
    Answer. Oh, Burlington. Yes, of course, Burlington, Vermont. Right, 
that is correct.
    Question. To your knowledge, does that market also expand into New 
York State?
    Answer. Yeah, but very limited. They really should have listed 
Vermont; it gets virtually all of Vermont.
    Question. And then on Rhode Island, does that market, the 
Providence market, extend at all into the Connecticut area?
    Answer. A small amount. This document illustrates the point that I 
was trying to make, that these buys were primarily targeted at 
Republican and conservative Democratic Senators or Congressmen.
    The Arkansas buy was not targeted at individual Senators, but there 
was a Republican Congressman from Little Rock who we were targeting.
    In California, I don't recall the Congress people from these 
markets, but I think that's how we arrived at these markets.
    In Colorado, we were targeting Nighthorse Campbell to hold him as a 
conservative Democrat, and we had high hopes of breaking off Hank 
Brown.
    Again, I'm afraid I don't recall the names of the Congressmen, but 
I do know the Senate strategy.
    Question. Was Colorado also a swing State in '96 that you were 
focusing on for the President?
    Answer. It is, but it is not the reason--well, yes, it is, and that 
is part of the reason it is included here, not because it was a swing 
State we were focusing on for the President, but because when we are 
trying to move national poll numbers, the best place to move them is in 
swing States.
    When you have a State that is determinantly Republican or 
determinantly Democrat, you are going to have less movement on national 
polling numbers on the budget packages if you go into those States than 
if you go into swing States. But most of this buy was particularly 
animated by a desire to move Congressmen.
    We were in Iowa because the Republican primary was in Iowa, and we 
felt that if we could make Iowa hate the Medicare cuts, Dole would find 
it difficult to push those cuts, because he had to win the Iowa 
primary.
    In Illinois, these markets correspond to Congress people who we 
were attempting to target. If we were attempting to do Illinois, we 
would push Chicago as a swing State, but we were trying to hit 
Congressmen.
    Kentucky, we were trying to hold Ford and we were trying to get at 
McConnell.
    Louisiana, we wanted to make sure that Bennett Johnson was not 
tempted to vote for an override and that Breaux was not tempted.
    In Maine, which, goodness knows, is not an important State in a 
Presidential contest, we were going after Olympia Snowe, and I forget 
who the other Republican Senator was from Maine at that point.
    Question. Senator Cohen?
    Answer. Senator Cohen, of course, the two liberal Republicans we 
had a pretty good shot at.
    Michigan, that was much more to hold the Democrats.
    Minnesota, we were targeting both for congressional reasons and for 
Senate reasons.
    Missouri, I know we had an extensive discussion about the chances 
of moving Ashcroft to support the budget--the President's budget.
    In New York, these are tiny New York markets, and the goal was to 
make it hard for D'Amato, whose political base is upstate New York, to 
support the budget and to move over people like McHugh and Houghton and 
other moderate Republicans.
    In Ohio, we were attempting both to make sure that we could hold 
Glenn's support on this issue and to give us a realistic shot at 
DeWine.
    In Oregon, that was exclusively dominated by our efforts to get 
Packwood and Hatfield to support the President from the Republican 
position.
    In Pennsylvania, these individual local markets were largely 
dictated by congressional considerations and the fact that we had a 
very good shot, we thought, of making this vote one that Specter would 
have difficulty casting.
    Rhode Island is completely a Democratic State, it is never in play 
in a Presidential race, and we did this exclusively to influence 
Chafee.
    In Tennessee, we were trying hard to influence Thompson and to 
affect some of the congressional people.
    Washington, I don't recall the targeting thinking there. And 
Wisconsin, again, I don't recall it specifically.
    But the point is that these buys, these little picayune markets, 
each place which were aware of the advocacy issue ads ran in 1995 were 
largely dictated by my strategic view that I would frequently 
articulate at strategy meetings, and I remember I did so rather 
colorfully. I said, our goal is to split the Republican majority into 
small hunter-gatherer groups that we can pick off one at a time. And 
that phrase sort of stuck with them. And I was predicting the 
dismemberment of the Republican majority into hunter-gatherer groups 
with some optimism in September and October. Unfortunately, I 
underestimated the proclivity of the Republican Party for suicide.
    Ms. Comstock. Okay, I will make this document Deposition Exhibit 
Number 2.
    [Morris Deposition Exhibit No. 2 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Could you describe what you know about how financially 
these media buys were paid for by the States and how that money was 
sent back to Squier, Knapp or Penn & Schoen?
    Answer. I only know it secondhand. Bill Knapp was in charge of 
that, and he would receive money from the State parties, and that would 
fund the time buy.
    The only reason I know that is that, after we had run this for a 
while, there were a number of State parties that were slower than 
others in paying, and I--he acquainted me--Knapp acquainted me with 
that, and I mentioned it to Sosnik, and he followed it up, and that was 
the last I had heard of it.
    I don't know the mechanical process by which the money was given.
    Question. I want to show you CGR 010924, a document the committee 
received from Mr. Ickes dated June 26th, 1996, a memo to Chairman Dodd, 
Chairman Fowler, B.J. Thornberry, and Brad Marshall, cc to Doug Sosnik, 
Karen Hancox, and Jennifer O'Connor, from Harold Ickes, and it is 
regarding bills for Squier, Knapp and Penn & Schoen.
    Have you seen this document before?
    Answer. No.
    Question. Do you recognize any of the handwriting on the document?
    Answer. No.
    Question. You're not familiar with Mr. Ickes' handwriting 
generally?
    Answer. No.
    Question. Okay. This document reads, ``Until further notice, I 
request that you hold payments on all bills of any kind, other than for 
time buys owed to Squier, Knapp and to Penn & Schoen until they have 
clarified a number of questions and provided adequate documentation 
regarding bills they have submitted.''
    Do you recall any discussions about that?
    Answer. Yes.
    Question. Could you describe those?
    Answer. Yeah. This was during a period of fairly acrimonious 
negotiations and discussions between the consultant group and Ickes 
over the issue of the media commissions that we would be permitted to 
retain as compensation, and I suspected at the time that Ickes was 
deliberately using the facade that this document speaks of, that there 
was inadequate documentation as a method of slowing or stopping 
payments for polling and production costs to these two companies, Penn 
& Schoen and Squier, Knapp, Ochs, as a way of pressuring them to come 
to a quick agreement on his terms over the commissions that they would 
be permitted to retain.
    I harbored these dark suspicions during this period and yesterday 
was shown a document which was a memorandum from Ickes to the President 
in which--at the Senate deposition, I was shown this document in which 
Ickes specifically said, ``I am holding up further payments to Squier, 
Knapp, Ochs and Penn & Schoen for their polling and their production as 
a method of bringing pressure on them to get them to agree to a 
contract on our terms.''
    And that was very enlightening for me to see, because it was 
precisely what I thought was happening then, and it turns out that I 
was correct in that supposition.
    Question. Can you generally tell us what the difference is between 
what you were asking for in terms of money and what Mr. Ickes was 
trying to bring it down to, generally, if you can give us ball park 
figures?
    Answer. I don't recall, because they involved a minutia of 
discussions, but ultimately I think the average commission that the 
consultant group received on the entire flight of Clinton/Gore and DNC 
pre-convention media ended up being about 7 percent, and I think Ickes 
wanted it to be more like 5 or 6 percent.
    Question. Initially, had you all asked for something like 15 
percent?
    Answer. In the first buy, which was the crime ads, the Clinton/Gore 
ads, we were paid 15 percent because we had been working for a 
considerable period of time without any compensation on the media for 
Squier, Knapp in particular. Then in the--then for a long time starting 
in August, it was pegged at 10 percent.
    Question. August of '95?
    Answer. Yes. And then I believe it was at 10 percent for the next 
12 or 13 million dollars of media, and then after that, it dropped to 6 
or 7 percent, and then it dropped further. The average was a little 
over 7 percent, as I understand, over the entire process.
    Question. And was part of what Mr. Ickes was trying to do because 
of pressures from DNC fund-raising, to your knowledge?
    Answer. I have no idea. I don't know. I felt that it was not a 
good-faith effort on his part. I felt that we were talking about a $45 
million time buy that was ultimately spent, $30 million of it from DNC, 
and a 1 percent difference on half of the buy would amount to $1 
million.
    I didn't think that that was his motivation at all. I felt that his 
motivation was to try to raise a thorny issue to interrupt the smooth 
flow of my relationship with the President and to use the disagreements 
over money as a method of antagonizing the President, of making the 
President antagonistic toward me and toward the consultant group. He 
didn't succeed in that, but I felt that was why he was doing it.
    Question. So you think the amount of difference was somewhere in 
the ball park of $1 million that he may have been----
    Answer. Yes. Probably even less, because as time went on, the 
amount of money--for example, this memo was June 26th. We knew that we 
would stop any advertising other than--we knew that in the general 
election we would have a completely different commission arrangement. 
So this pressure would have been designed for a 2-month period, and in 
that 2-month period we probably sent about $6 million. So a 1 point 
difference over $6,000,000 is a $60,000 difference.
    When I suspected that he was playing hard ball over $60,000, it was 
not because he genuinely wanted to save the $60,000, it was because he 
wanted to find an issue where he could try to impair my relationship 
with the President.
    Question. Were you aware at this time, at or around late June, 
early July of 1996, Don Fowler putting a lot of pressure on both the 
fund-raisers at the DNC to raise a lot more money?
    Answer. No.
    Question. Do you have any--have you learned at all about any 
particular pressure that was put on John Huang to raise money in July 
of '96?
    Answer. No.
    Ms. Comstock. I would like to make this document Deposition Exhibit 
Number 3.
    [Morris Deposition Exhibit No. 3 was marked for identification.]
    The Witness. By the way, it is 12:53. Maybe at 1 o'clock we could 
break for----
    Ms. Comstock. I know you do want to get out at 4:00, so if we could 
go until about 1:30, and then we can see where we are at.
    The Witness. 1:00, if you would.
    Ms. Comstock. Okay.
    The Witness. I have a phone call that I scheduled at 1 o'clock.
    Ms. Comstock. Okay.

                      EXAMINATION BY MS. COMSTOCK:

    Question. I'm just showing you for reference purposes, because I'm 
talking about a document and these are Mr. Sandler's handwritten notes, 
I have no reason to believe you have seen these or you don't know 
anything about them, so we can say that at the outset.
    But in here, this is DNC 3096675 through 81. It's talking about FEC 
reports and State committees and how the money is spent at the State 
level. We were just talking a little bit about how the States were 
doing media buys and then the bills were being--they would send the 
payments back to Penn & Schoen.
    I was wondering if you ever recall hearing any discussion about 
that the FEC doesn't usually audit State committees in any way?
    Answer. No, nothing.
    Question. Directing your attention to the--I mean, there are some 
handwritten notes here.
    Answer. Yes, I read that. As you can tell, I have been reading 
through the document, and I see nothing here that I'm familiar with.
    Question. So in terms of any of your discussions with Mr. Sandler, 
these--I will let you look through the document here initially and 
maybe just ask you if you generally recall some of the topics that are 
referenced here, if any conversations you had with Mr. Sandler, if 
these topics may have come up.
    Answer. No.
    Question. So I will just allow you to--I think one of the issues 
is, the FEC doesn't audit State committees.
    Another issue----
    Mr. Ballen. I want to state for the record, since the witness 
doesn't know anything about this document, hasn't seen it, I don't want 
any inferences drawn as to the meaning of the document or what Mr. 
Sandler intended or----
    Ms. Comstock. I think that is clear from the record. I am just 
using this as a point of reference to see if any of these topics may 
refresh his recollection as to any topics that Mr. Sandler may have 
raised with you.
    The Witness. No, in answer to FEC audit, and nothing that I can see 
in the document.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you recall any--in regards to the State parties, do 
you recall there ever being any effort to have some type of State party 
coordinating body that would filter out everything and that there would 
be some counsel that would work with the State parties at any time?
    Answer. No.
    Question. Okay. Were you aware of Mr. Ickes having meetings with 
Mr. Sandler separately to discuss these State party issues and how they 
would get the money out to the State parties and back to Penn & Schoen 
and Squier, Knapp?
    Answer. Squier, Knapp, but no.
    Ms. Comstock. Okay. I will go ahead and make that Deposition 
Exhibit Number 4.
    [Morris Deposition Exhibit No. 4 was marked for identification.]
    Ms. Comstock. I guess we are at a breaking point.
    The Witness. Okay. So 1:30?
    Ms. Comstock. Do you want to do 1:30?
    The Witness. Good. Okay.
    [Whereupon, at 1:00 p.m., the deposition was recessed, to reconvene 
at 1:30 p.m.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. We can get back on the record. I am going to pick up on 
something we were on before the break, before Mr. Cummings came in. We 
had been discussing a Washington Post article that had appeared, July 
18, 1997, about Harold Ickes, and we had been discussing the comment 
you made about if Harold really unloaded, there would be a whole lot 
more going on now.
    I think you pretty much completed going through that, but I was 
wondering if you had any particular knowledge about any information Mr. 
Ickes had about any investigation into the President or the First Lady?
    Answer. None.
    Mr. Ballen. It has been asked and answered.

                      EXAMINATION BY MS. COMSTOCK:

    Question. In the past you had been reported by, I believe it is 
Republican operatives or whatever, saying you thought the President 
might be indicted. Did you ever say that to anyone in public?
    Answer. The allegation was I said that to Governor Weld. That is 
the allegation that appeared in print.
    Governor Weld and I have both denied it on the record. Governor 
Weld's denial appeared in the Boston Herald a few days later. I do not 
recall making such a statement to anybody.
    I think I did during the course of my work with Republicans in '93 
and '91 and '93 and '94 indicate that I thought that Clinton would be 
perpetually grilled for scandal-type investigations because I knew all 
of the controversies that surrounded him and I was aware of those 
before the world at large was just simply because I was with him in 
Arkansas and I knew what was publicly reported then.
    But this was never derived from any inside knowledge or inside 
information about any of these scandals. It was just that I read the 
press on Clinton a lot before anyone else did, because I was working 
for him for 20 years.
    Question. Do you know anything--do you know a group called the Back 
to Business Committee?
    Answer. I don't think so.
    Question. And Louis and Lynn Cutler were affiliated with?
    Answer. I have heard about that, yes.
    Question. Do you know if Penn & Schoen or Squier Knapp ever did any 
work for the Back to Business Committee?
    Answer. No, I don't. I would be surprised if they did because they 
never told me they did, but I don't.
    Question. Did you ever do any work for the Back to Business 
Committee?
    Answer. No.
    Question. Do you have any knowledge about any of the polling that 
you did being shared with the Back to Business Committee at any time?
    Answer. No. Could you clarify for me the time frame of when they 
operated?
    Question. I believe it was somewhere around 1994 to--I am not quite 
sure when they disbanded.
    Answer. Well, my polling really was only there in '95.
    Question. They definitely were in existence in '95.
    Answer. Were?
    Question. Yes.
    Answer. Yes, I have no knowledge of it being shared with them. The 
reason I say that is, and Lewis had access to all of our polling data 
after September or October of '95 when she joined the White House 
staff.
    Question. She would have had access to the polling, but you have no 
knowledge of anything related to Back to Business?
    Answer. No.
    Question. Aside from the fact that Ms. Lewis is associated with 
Back to Business?
    Answer. Yes.
    Mr. Ballen. For the record, it is clear the witness stated she had 
access to the polling after she joined the White House in September or 
October.
    The Witness. Yes, but not before.

                      EXAMINATION BY MS. COMSTOCK:

    Question. And did you conduct polls regarding Whitewater or 
Filegate or other matters that arose, investigations----
    Answer. Yes.
    Question [continuing]. During your polling? And do you recall who 
paid for those polls?
    Mr. Ballen. I am going to object. We are now into discussing the 
actual kinds of questions that were on the polls?
    Ms. Comstock. I am asking about who paid for the polling.
    Mr. Ballen. He already testified as to his knowledge of the payment 
of the polling.
    The Witness. I can short-circuit the debate by saying as I 
mentioned each question was allocated to one or the other, and I have 
no knowledge of how those particular questions were allocated.

                      EXAMINATION BY MS. COMSTOCK:

    Question. So you don't, for example, if a Filegate question, Craig 
Livingstone would be a DNC question or a President Clinton--Clinton/
Gore question?
    Answer. That is correct.
    Question. I believe you have made statements, public and reported, 
regarding Harold Ickes and his temper. I believe you said he exercised 
a reign of terror at the White House. Is that an accurate portrayal?
    Answer. It is accurate that I said it and it is an accurate 
portrayal.
    Question. Could you just briefly describe why, the kind of things 
that led you to say something like that?
    Answer. When I got to the Clinton operation in 1994 and early '95, 
and I began to interact with the staff, with the White House staff, 
everybody on the staff was terrified of venturing forth with any ideas 
that would be moderate or centrist in nature, because they were certain 
that they would be fired, in particular Don Baer, who was the first 
White House staffer that I dealt with concerned about it.
    I remember being shocked about it, because the way I met Baer was 
that the President called Baer and had him up to the White House with 
me, and he said, I would like you two to meet each other, and he turned 
to Don and said, I would like you to work as closely as you possibly 
can to Dick and listen to what he says and work very closely with him. 
And I said great, and we left and went to Squier's office to work 
together on our first speech. And he said, ``you mustn't tell any one 
that I am doing this.'' I said, what could you mean? He said, nobody 
should know that I am working with you. I said, the President just told 
you to work with me. And he said, no, no, if Ickes finds out, I am dead 
meat, I am out of here. No way--I said, you are following the 
President's directive, Don. And he said, yes, but tell that to Ickes.
    That was repeated, that kind of thing was repeated a dozen times, 
that people were--that people were terrified of advancing any political 
idea, other than left wing Democratic Party liberal approved thinking. 
There was, as I said, a reign of terror going on, and many White House 
staffers who were closet moderates greeted my emergence with some power 
in the White House with a great sigh of relief, because they could 
finally come out of the closet and share their real opinions with 
people.
    In fact, many of the moderates had resigned by the time I got 
there, Galston among them, in despair at their ability to have any 
influence in moderating the left wing drift of the White House.
    Question. Were you ever concerned that given--and did Harold use 
his temper, I think you described previously the situation where the 
door had to be fixed and that kind of situation. Were you ever 
concerned that his behavior and the way he treated staff might cause 
people to do things that they--in response to him that maybe they 
shouldn't or would get the President in trouble because they were 
trying to respond to Harold, that they wouldn't be using judgment?
    Mr. Ballen. I am going to object to this entire line of 
questioning. We are now in an investigation that is supposed to be 
about campaign fund-raising. We are getting into Mr. Morris' insights, 
which are quite interesting, into an area that has absolutely nothing 
to do with the subject matter of this investigation, Mr. Ickes' temper, 
his temperament, how he conducted himself, whether a door was rattled 
or not.
    Ms. Comstock. I am asking about the climate created by the central 
person which this person has testified is in charge of the budget of 
the DNC, and I would like to discuss the climate he was creating.
    Mr. Ballen. That is not what he testified to. He didn't say he was 
in charge of the budget. There is no relationship of these kinds of 
questions to the subject matter of this investigation.
    Mr. Lenefsky. You can answer.
    The Witness. I was rather hoping someone would be mad enough at him 
to shoot him, but other than that I didn't have any serious concern he 
would turn people off the President, no.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Were you concerned that actions taken by anybody would 
not be consistent with the law or doing things the right way, because 
if Harold told you to jump, you were going to jump, regardless. Did you 
ever have any concerns like that?
    Answer. It makes sense now, but I sure didn't think of it then.
    Question. You hail from New York as well as Mr. Ickes does. Are you 
familiar with his--do you have any personal knowledge about any legal 
problems in his background?
    Mr. Ballen. Objection.
    The Witness. No.
    Mr. Ballen. Objection. Relevancy. Mr. Ickes' personal legal 
problems are not a subject matter of this investigation.
    The Witness. Off the record.
    [Discussion off the record.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Have you talked recently with the President about Harold 
Ickes and these documents that were turned over to Congress?
    Answer. I don't understand the question.
    Question. Have you talked with the President about Harold Ickes' 
documents that were turned over to the Congress?
    Answer. No.
    Question. Have you talked with the President about Harold Ickes 
since January 20th of this year?
    Mr. Ballen. Objection, relevancy.
    Mr. Lenefsky. I have no problems with that.
    The Witness. No.

                      EXAMINATION BY MS. COMSTOCK:

    Question. How often do you currently speak with the President?
    Mr. Lenefsky. How often----

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you currently talk to the President?
    Mr. Lenefsky. You can answer, if you recall.
    The Witness. I would rather not answer it.
    Mr. Ballen. I object as to the relevancy.
    The Witness. I would rather not answer that question.
    Mr. Lenefsky. You don't have to explain.
    Ms. Comstock. Are you instructing your client not to answer?
    Mr. Lenefsky. Yes.
    The Witness. If you want to ask me about specific topics that I may 
or may not have spoken to the President about, feel free to do that, 
and I will answer, but I don't want to answer an open-ended question of 
how often we speak or an open-ended question about what we talk about.

                      EXAMINATION BY MS. COMSTOCK:

    Question. I understand that.
    The second one, I am not going to be going into it, the whole array 
of what you may talk about. I would like to just get a general idea how 
often----
    Answer. I would rather not answer that question.
    Mr. Lenefsky. I object.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Have you talked with the President about anything 
relating to the general matters that are under investigation by this or 
the Senate committee?
    Mr. Lenefsky. By this committee?
    Ms. Comstock. This, the Justice Department, the Senate. The general 
fund-raising matters, the matters re the John Huang, John Trie, Harold 
Ickes' documents.
    The Witness. Yes, I have.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Can you describe what those conversations were and when 
they occurred?
    Mr. Lenefsky. Do you want to talk outside?
    The Witness. Yes.
    [Discussion off the record, 1:50 p.m. to 1:53 p.m.]
    Mr. Ballen. Before you answer or not answer, let me just raise 
something. White House, for your consideration, White House counsel has 
requested to be at depositions of White House employees or people who 
have worked for the White House in order to be able to assert any 
claims of executive privilege----
    Ms. Comstock. I don't believe Mr. Morris testified he ever worked 
at the White House.
    Mr. McLaughlin. The opinion of the D.C. Circuit judge extends the 
privilege to lawyers----
    Ms. Comstock. To campaign consultants?
    Mr. McLaughlin [continuing]. To people working for the President 
giving advice.
    Mr. Lenefsky. I have reviewed Mr. Morris' response to the question. 
I have no objections whatsoever to Mr. Morris responding. I don't think 
the President would have any objections. I don't think the Senate 
Majority would have any objections. I don't think they are 
objectionable anyhow.
    The Witness. So I choose to respond. I have had--I cannot recall 
when, but these conversations took place subsequent to the 1996 
election. In one conversation I advised the President that I felt the 
way to defeat the partisan attempt of the Republican investigating 
committees is to outflank the Republicans by stronger advocacy of 
campaign finance reform.
    I remember telling the President that the Republicans don't really 
want campaign finance reform, they just want to narrow the focus to 
scandal, and if possible only the Democratic scandals, and that the 
public doesn't particularly care about the scandal, they care about 
finance reform. And by playing what I called jujitsu, which is 
harnessing the enemy's strength against him, he can take the impetus of 
your investigations and turn it against the Republican Party by taking 
advantage of the elevation of the germaneness of the issue of campaign 
funding reform and becoming a better advocate of it than the 
Republicans are. I went through that. That is essentially what I said 
to him.
    The second----

                      EXAMINATION BY MS. COMSTOCK:

    Question. Somewhat like what appeared on the front page of the 
Washington Post this morning?
    Mr. Lenefsky. That is the article I told you about.
    The Witness. I didn't see it. I had nothing to do with that story.
    And then the second time that we discussed it----

                      EXAMINATION BY MS. COMSTOCK:

    Question. What was the President's response?
    Answer. He just listened. Generally when I speak to the President 
and give him advice, sometimes he will question it or he will comment 
about it, but most of the time he will just listen and he will just say 
okay, what else.
    And then the second thing was that at least one and perhaps two or 
three junctures since the election I have told the President that it is 
my opinion that he should continue to oppose the appointment of a 
special prosecutor; that sooner or later the Justice Department will 
actually begin to produce indictments, and once they do, everybody will 
accept their investigation as being intensive, intrusive, and 
legitimate.
    I also said that I felt that in opposing the campaign--the 
appointment of a special prosecutor, he should stress Senator Helms' 
involvement in that process through the judge, whatever his name is, 
and that in focusing on--the way I urged him to frame the issue was, 
who do you want to name the prosecutor, Janet Reno or Jesse Helms, and 
we would come out ahead in that comparison. And I said I felt that the 
special prosecutor's position had so diminished in public prestige that 
he should not feel under compulsion to urge that appointment.
    He then replied to me that he felt that he agreed with me, that he 
felt that there was ``nothing there,'' and that the investigation--that 
sooner or later people would get that the investigation was a very 
aggressive one.
    I then cracked a joke to him where I said, Mr. President, there 
were times during the first term when I had the impression you would 
have welcomed a special prosecutor assuming some of the jurisdiction 
that Ms. Reno assumed. You would have probably gotten a better break 
from them.
    And he didn't laugh.
    Question. I believe you had been quoted as making some comments 
about why Janet Reno didn't appoint a special prosecutor and about 
meetings she had with the President.
    Mr. Lenefsky. Do you remember any quote?
    The Witness. Yes. I was quoted in the National Review on it.
    Yes, I can't recall what I said or didn't say at that juncture, but 
let me answer your question. I believe that subsequent to Election Day, 
the President had a meeting with Janet Reno, which was unusual because 
they had been on very icy terms during the last 2 years of his first 
term, and to my knowledge there was a time when they were really 
basically not speaking to each other. I mean, they just didn't talk. It 
was done through intermediaries.
    They had a meeting and it was my impression that--actually the 
President told me that the air--that that had cleared the air and he 
felt much better about Reno, and that he felt that she--that he wanted 
her to stay. I said that I felt that their relationship had improved 
since Election Day.
    I specifically at the same time said I did not feel--that I had no 
information and I would doubt very much that any specific issue about a 
special prosecutor was discussed between the two of them. I don't think 
the President would discuss that, and I don't think Reno would permit 
him to discuss that. But I do think the relationship warmed 
considerably, and I was surprised at that.
    I think that what happened was during the period when Reno was 
being considered, was looking at reappointment, I think that she--I 
think that she began to reflect on the President's merits and he began 
to reflect on her merits, and I think there was a more of a bond 
developed.
    That is what I said and what I know.

                      EXAMINATION BY MS. COMSTOCK:

    Question. You said they previously had spoken through 
intermediaries. Did you have any knowledge as to who those 
intermediaries were?
    Answer. Yes, only insofar as we are talking about crime issues, 
public policy issues. And in that interface, it was usually through 
Rahm Emanuel----
    Question. But in terms of these investigations, you don't know of 
any intermediaries speaking with the President on Ms. Reno's behalf?
    Answer. No. Correct. You have to understand that I kept as far 
away, not just from fund-raising, but from the whole issue of 
Whitewater and scandals, as I possibly could in the White House. I used 
to tell people my job is to man the pump and engines, not to repair the 
hole in the bottom of the boat.
    Question. Earlier you appeared on Fox News where you had discussed 
polling. You said your polling shows that this fund-raising scandal 
doesn't make any difference about how people feel about the President.
    Are you conducting polling for the President or for the DNC on any 
of these matters?
    Answer. No.
    Question. What type of polling was that that you were referring to?
    Answer. Since I left the White House, I have made it a practice on 
six or seven occasions to do polling at my own expense on my own to get 
data which I then use in my public comments on radio, TV, and in print. 
Shortly after the, in fact, the day after the Woodward story broke in 
the Post about first suggesting that there was an organized effort by 
the Chinese government to influence American politics and to funnel 
money to politicians, including the President, I polled that and I 
asked people if it made a difference to them, if it made them more or 
less likely to support Clinton and all of my usual way of examining 
that. And I found that the majority said it made no difference and that 
the people that said it made them less likely to vote for or support 
Clinton, were people that were against him before they were asked that 
question.
    So on that basis, I was on the McLaughlin TV program that weekend, 
and I quoted that information, and indeed gave it out over the air. I 
sent a copy of that information to the President, and I have sent 
copies of all my polls to the President, but he has neither authorized 
the polling nor reviewed the questions nor asked me to poll nor paid 
for it. I just pay for it out of my own pocket.
    Question. And have you discussed these with the President at all?
    Mr. Ballen. I object. I think this is really very far afield, what 
his discussions now are with the President about polling, about----
    Ms. Comstock. The issues that are raised in terms of fund-raising 
matters.
    The Witness. I think I may have called his attention to that 
particular piece of data verbally.

                      EXAMINATION BY MS. COMSTOCK:

    Question. I think in this same Fox News Sunday show, March 2nd, 
1997, you were discussing Vice President Gore's phone calls. I believe 
you indicated that you did know that the Vice President was making 
phone calls.
    Do you recall when you became aware that the Vice President was 
making phone calls for the DNC?
    Answer. Well----
    Question. For fund-raising?
    Answer. In the show I indicated that I knew that the Vice President 
was making phone calls, but that I did not know from where he was 
making the calls, because the issue at that time was not that he was 
making the calls, but that he was making them from his office. I said I 
don't know where he made them from.
    The way I came into knowledge about it was that at some point, and 
I can't be very precise about the time, I was talking to either Bob 
Squier or Ron Klain or Jack Quinn, I can't recall who I was talking to, 
but those would be the people who would have been one of that cast of 
characters, and one of them mentioned to me that the Vice President was 
working very hard at raising money, making all of these phone calls, 
and he felt the President really wasn't working as hard as he needed to 
work and wasn't making phone calls. And he indicated the Vice President 
had a certain amount of resentment, that he was doing his job and the 
President was not aggressively working on raising money, on making 
phone calls. And I replied that the President never--that as Governor, 
Bill Clinton hated making fund-raising calls, and it was pulling teeth 
to get him to do it, and that was a casual conversation and that is 
what I related on Fox News.
    Question. I am showing the witness DNC 3234267, a document, a memo 
of November 20, 1995, to Harold Ickes from Don Fowler, Marvin Rosen, 
Scott Pastrick, and Richard Sullivan, regarding additional DNC fund-
raising requests. It references 18 to 20 phone calls by the President 
were needed and 10 calls by the Vice President. This was a proposal 
apparently submitted by Mr. Fowler, et al.
    Answer. I have read the document.
    Question. Had you seen this document?
    Answer. No.
    Question. Were you aware of efforts, from the conversation you had 
with Mr. Klain, was it, did you----
    Mr. Ballen. He said he wasn't sure who it was with.
    The Witness. It was one of three or four people.

                      EXAMINATION BY MS. COMSTOCK:

    Question. From this conversation, was it your understanding that 
the President had been asked and had agreed to do some fund-raising 
calls? Or hadn't? But hadn't been living up to that agreement?
    Answer. I don't know whether he had agreed to make them and had not 
made them, or if he simply had not made them. The purport of the 
comment that was made by Klain or whoever was that he was not making 
the calls, whether it was things he agreed to do or not, I don't know. 
This is the first I have heard of this--first I have seen of this memo 
or the first I have known of any of the substance it contains.
    Question. You were not aware of any calls or anything like that 
that were ever provided to the President?
    Answer. That is correct.
    Question. In your book you discuss conversations you had with the 
President about how much fund-raising he had to do and how unpleasant 
this was for him. Aside from those conversations that you recounted in 
your book, did the President ever discuss with you in general what he 
was doing to raise money?
    Answer. Yes. He was constantly complaining about the amount of his 
time that had to be spent on fund-raising and the physical strain that 
it took on him, but I always had the impression that those complaints 
related to his physical appearance at fund-raisers. It was a grueling 
task. The fund-raisers, I went to six or seven fund-raisers, always as 
a donor paying my own way, and I used to use it as an opportunity to 
introduce family members of mine to the President and kind of, you 
know, make up for some of the absences that I was going through. And I 
would always make a point of going after the paying customers, the ones 
who were really major donors who had shaken his hand.
    What would happen, there would be an event, he would come in, and 
then the guy would stand there for 3 or 4 hours, standing, posing for 
pictures and shaking hands with each person as they walked through.
    And I would--at one event--I live in Stanford, Connecticut--I 
decided I would stand just as long as he was standing so I could have 
some appreciation of what he was going through. And I wanted to lean 
against the wall. I wanted to sit down. I was going crazy. And when I 
came up to him, I said, your feet must be killing you. And he said, I 
hate it. I just hate it. I have to stand here.
    And a lot of times he would complain. He would say, I haven't slept 
in 3 days; every time I turn around they want me to be at a fund-
raiser. At one point I quote in the book he said, you want me to issue 
these executive orders, I cannot think, I cannot act, I can't do 
anything; every minute of my time is spent at these fund-raisers.
    But I didn't have the impression, do not have the impression, he 
was complaining about phone calls. He was complaining about the number 
of fund-raising events and the physical wear it took on him.
    Ms. Comstock. I am going to go ahead and make this document 
Deposition Exhibit Number 5.
    [Morris Deposition Exhibit No. 5 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Were you aware of events at the White House, the White 
House coffees that have been generally referred to now?
    Answer. Not at the time. Only subsequently in reading about them.
    Question. You have no knowledge other than the public accounting 
that has come out in the past few months?
    Answer. That is right. The only connection I had with those kinds 
of private raisers, the seven or eight fund-raisers I attended were all 
large ticket public events, $1,000 a head events with hundreds and 
thousands of people in the room. In fact, one of the reasons I went, in 
addition to the opportunity to introduce members of my family to him, 
was that I would, after I became well-known, I would walk up and down 
the receiving line and just thank everybody for their help and shake 
hands and stuff.
    The only times that I was ever involved in small--that I have any 
knowledge at all of these small fund-raisers, was two or three 
occasions I would stop by a fund-raiser he was having at a hotel and 
just pass a note in to him through the Secret Service, because he 
wouldn't get home until late at night and I didn't want to have him 
call me at 1 o'clock in the morning so I passed him the note that 
evening so I wouldn't have to bother him.
    Question. Were these fund-raisers at the Jefferson Hotel?
    Answer. One or two at the Jefferson, one or two at the Hay-Adams. I 
was never in the room. I passed it through the Secret Service.
    Question. Do you have any idea who these small fund-raisers were 
with?
    Answer. No.
    Question. Did you ever attend the President's birthday party fund-
raising events?
    Answer. Yes, I attended his 50th birthday party fund-raiser.
    Question. Would that have been last year, in '96?
    Answer. Yes.
    Question. Were you aware of Johnny Chung being a sponsor of that 
event?
    Answer. No.
    Question. Have you ever met Johnny Chung?
    Answer. No.
    Question. Do you know anything about Johnny Chung's fund-raising?
    Answer. No.
    Question. Or frequent visits to the White House?
    Answer. Nothing.
    Question. Did you have much contact with the First Lady's office 
when you were----
    Answer. Yes.
    Question [continuing]. Working for the Clinton/Gore campaign?
    Answer. Yes.
    Question. And what kind of contact was that?
    Answer. I met with the First Lady subsequent to June of 1995. I met 
with the First Lady about every 2 or 3 weeks to give her political 
briefings. Maggie Williams was occasionally there, Melanne Verveer was 
more often there, and usually Mark Penn was there with me. Since she 
didn't attend the strategy meetings, I would summarize what we were 
thinking and what we were planning for the campaign.
    I also would give her personal recommendations as to things that I 
thought she should do, issues I thought she should talk out about, and 
advice on public policy positions that she should take. I worked 
extensively with her staff to work on getting her speeches down and her 
rhetoric down on public policy.
    I never participated in any advice sessions concerning her handling 
of any of the scandal issues, her testimony or anything like that.
    Question. Did you ever hear from anyone, were you aware of her 
participation in fund-raising events at the White House, lunches or 
coffees or anything like that?
    Answer. No.
    Question. Did you ever hear from any of her staff about whether it 
was Johnny Chung, or if he didn't have a name identified with it, 
somebody who was making--coming by frequently----
    Answer. No.
    Question [continuing]. And making a nuisance of himself in any way?
    Answer. No. The only indication I had that she was doing fund-
raising actually was the passage I quote in the book, the President 
after he said he couldn't think and spend time, he said, Hillary can't, 
Al can't, none of us can. And I was surprised when he said it, because 
it hadn't occurred to me she was spending a lot of time on fund-
raising.
    Question. I wanted to show the witness another document dated 
December 20, 1995, DNC 3234272, a memo to Harold Ickes and Karen Hancox 
from Marvin Rosen and Richard Sullivan regarding DNC finance update. 
Again, this goes through some of the money that needs to be raised by 
the end of the year, apparently.
    I guess directing your attention to Terry McAuliffe and it 
discusses received from labor on Thursday re Terry McAuliffe.
    Were you aware of Terry McAuliffe doing any fund-raising from the 
labor groups for the $10 million media fund you were trying to get 
raised in the fall of 1995?
    Answer. Not particularly from labor. I was of the opinion that 
McAuliffe was the President's best fund-raiser, and I thought it was 
silly that he was spending his time raising money for Clinton/Gore when 
we wouldn't be spending Clinton/Gore money until later in the process; 
that in 1995 the major need was for money at the DNC in order to pay 
for the media and the other expenses that were being incurred then.
    I remember mentioning to the President that it would be good--I 
thought it was silly for McAuliffe to be concentrating his energies on 
Clinton/Gore when he should be concentrating them on the DNC. And I had 
that conversation with the President sometime around October. That is 
the only knowledge I have had of McAuliffe being involved and not with 
the DNC.
    Question. And what did the President say?
    Answer. He didn't comment. He just heard it.
    Question. Directing your attention to the Vice President calls, it 
indicates received to date at this time were $195,000 from the calls 
and commitments from the Vice President; calls that had not yet been 
collected at that time were approximately $65,000.
    Do you recall ever hearing about a figure that the Vice President 
raised in terms of money?
    Answer. No.
    Mr. Ballen. I want to point out for the record the witness 
testified numerous times he wasn't involved with fund-raising and 
didn't know about fund-raising. In the interest of his schedule and 
everyone's schedule----
    Ms. Comstock. I will make this Deposition Exhibit Number 6.
    [Morris Deposition Exhibit No. 6 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Were you aware of the Lincoln bedroom being used as a 
fund-raising opportunity----
    Answer. Not until I read about it.
    Question. You have made comments regarding that.
    I show the witness a February 27th, 1997, NBC news report by Jim 
Miklaszewski, M-I-K-L-A-S-Z-E-W-S-K-I. Directing your attention to the 
second page, you are quoted as saying, ``I am surprised he didn't 
auction off places in his own bedroom. He would probably sleep on the 
floor if someone would give him a million.''
    Answer. That was a joke.
    Question. Did you ever talk to the President about those comments 
or anything about them?
    Answer. No.
    Question. Did you ever spend the night at the Lincoln bedroom?
    Answer. No.
    Question. Or any of the bedrooms in the residence?
    Answer. No. I was having problems enough in my nights at the 
Jefferson.
    Question. You have no knowledge--do you have any knowledge of 
donors or people, large dollar donors who being at the White House, 
regardless of whether you knew they were any kind of entrance fee or 
payment?
    Answer. None, none, none.
    Ms. Comstock. I will make that Deposition Exhibit Number 7.
    [Morris Deposition Exhibit No. 7 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Can you describe George Stephanopoulos' role in the work 
you did while you were working with the Clinton/Gore campaign and the 
DNC?
    Answer. There were essentially four operations with which I was 
involved that were relatively discrete operations that were part of the 
message, getting the President's message across, which was my mandate.
    One was paid media, which Bill Knapp was the sort of COO of, chief 
operating officer. The other was the President's speeches, which Don 
Baer was in charge of. The third was rapid response, which 
Stephanopoulos was in charge of. And then the fourth, which was outside 
of any jurisdiction of mine and I never was involved in, was Whitewater 
response, which Ickes and a variety of other people were in charge of.
    So Stephanopoulos was essentially the person who was in charge of 
rapid response. The President had given him that task. And what that 
meant was that when the Republicans did anything, he would orchestrate 
the rebuttal, the reply, the answer, to feeding their attacks on a day-
by-day basis.
    In addition to that, Stephanopoulos was in charge of coordinating 
the activities of the government so that they went toward the 
substantive agenda the President had in mind. So he was the one that 
would sort of send the President's line out and make sure that 
everybody was echoing it, that everybody was on the same page. And when 
somebody was off the page or said something that the President would 
not have wanted them to say, they would get a call from George and he 
would urge them to take a different approach in public.
    Question. Do you know----
    Answer. He also was the fact checker on our ads and he also worked 
very closely on all aspects of the positioning that the President took 
on substantive issues.
    Question. Do you know anything about his roles that would have him 
in contact with somebody like John Chung for any reason?
    Answer. I have no idea.
    Question. Do you know anything he was working on matters related to 
China?
    Answer. No.
    Question. Did there come a time when Mr. Stephanopoulos told you 
about the discovery of life on Mars?
    Answer. Yes.
    Question. You are recounted that incident in your book?
    Answer. Yes.
    Question. Did he ever mention anything to you about this being 
classified information or that it couldn't be shared with anybody?
    Answer. No. He told me that he wanted it to be kept secret so that 
it would not be released to the public until the start of the 
Republican Convention, and his thought had been that the story would 
break on Monday of the Republican Convention and would drown out 
coverage of the convention. But he cast that in a political context, 
not in a national security context.
    Question. So he never told you that any of that information was 
classified?
    Answer. No. He also was aware that I had no security clearance nor 
had I sought it, even the lowest level, and I would doubt--and I 
doubted that he would ever share with me classified information, 
because it would be illegal, so I inferred that this was not 
classified.
    Question. After this became public that he had discussed this with 
you, did anyone ever raise this issue with you from the White House?
    Mr. Lenefsky. What is the relevance of this?
    Ms. Comstock. National security issues.
    Mr. Lenefsky. Is that within the purview?
    Ms. Comstock. It actually is. National security.
    Mr. Ballen. I join in counsel's objection.
    The Witness. The generic answer is I never had access to national 
security information that I knew was national security. The President 
never shared classified information with me, and I never, as I sit here 
now, I do not know that I ever was in possession of national security 
information.

                      EXAMINATION BY MS. COMSTOCK:

    Question. But it was clear to everybody at the White House that you 
had not had a clearance, you had not ever gone through anything.
    Answer. Correct.
    Question. There was no reason for anyone to think you had a 
clearance?
    Answer. That is correct.
    Mr. Ballen. I may want to note on the record that life on Mars has 
nothing to do with national security.
    The Witness. It depends on what it is.
    Mr. Ballen. One cell life.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you recall raising issues about Mr. Penn's work for 
foreign--on foreign elections?
    Answer. Yes.
    Question. Can you describe what issues you raised and why you had 
concerns about that?
    Answer. It arose in two contexts. One was that I was requested to 
make a public disclosure of my income sources and my assets and 
clients, and that request, to my knowledge, was also addressed to the 
other consultants who worked with me. I had an extensive discussion 
with Mr. Penn about his compliance with that directive, and he 
indicated to me that he was working for a candidate in Turkey and that 
the terms of his arrangement were such that the relationship had to be 
secret while the election was going on and that the election was being 
held in the third week of December of 1995, and that therefore he would 
rather that he not make his disclosure until after that date, where he 
would disclose the Turkish relationship, but it was subsequent to the 
Turkish election and therefore would not be embarrassing to his 
candidate in Turkey. I told him I thought that was okay.
    Secondly----
    Question. Who was that candidate?
    Answer. The woman in Turkey. I forgot her name.
    Then secondly, in September or October of '95, he took a walk-in 
closet in Doug Sosnik's office, which was a political office, and 
converted it into an office space for him, and he told me that he had 
brought in the campaign computer and the campaign-dedicated phone line 
and had had it installed in that walk-in closet and made it a little 
office for himself.
    I was concerned about his having an office in the White House for a 
variety of reasons. I felt it was a bad idea. I told the President that 
I thought it was a bad idea because he had conflicts of interest in 
terms of his commercial clientele and his foreign clients, and I 
particularly cited his work for ATT and his work in the Turkish 
elections.
    Since the political office was right next to the communications 
office and those issues were being reviewed in the communications 
office, I thought that it was inappropriate for him to have an office 
in the White House.
    The reason I raised it with the President was I knew Penn would not 
like my telling him he had to close his office, and I wanted to be 
certain I had the support of the President in doing that. The President 
told me that he supported me. I asked Penn to remove himself from the 
office and he did.
    Question. Did Mr. Penn have a White House pass at that time?
    Answer. Not to my knowledge.
    Ms. Comstock. If I could take a brief 5 minutes here and see if we 
are close to wrapping up.
    [Brief Recess.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. You know Susan Thomases, is that correct?
    Answer. Yes.
    Question. And how long have you known Ms. Thomases?
    Answer. Since the early '80s.
    Question. And do you have any knowledge about any work that Susan 
Thomases did for the Lippo Group or the Riadys?
    Answer. No.
    Question. And do you know Webster Hubbell?
    Answer. Yes.
    Question. How long have you known Mr. Hubbell?
    Answer. I just met him once, and have never spoken with him, other 
than at a White House reception a few weeks after he resigned.
    Question. Did you ever talk to anybody at the White House about Mr. 
Hubbell's legal problems?
    Answer. No.
    Question. Did you ever----
    Answer. Yes, I did. I met with the President sometime in--this is 
before I worked there regularly, but I met with the President at some 
point before Hubbell resigned, I met with the President and the First 
Lady, and I urged them to fire Hubbell, Kennedy, Altman----
    Mr. Ballen. Excuse me?
    The Witness. Altman. This was after Nussbaum had left. I urged him 
to fire Kennedy, Altman, and Hubbell, and I said rather than doing this 
piece by piece, get rid of them all so that you don't--so that you can 
stay ahead of the investigation. Don't do what Nixon did and wait until 
they come to your door with each individual one, because you will 
suffer 20 times more.
    He rather heatedly replied that he wasn't going to ruin people's 
reputations by getting rid of them when they had done nothing wrong, 
and this was a witch hunt, and why did I think that he was prepared to 
injure people and wound them and destroy their reputations to save his 
skin from some bad publicity, when there was nothing there and they had 
done nothing wrong.
    Question. Did you have any other discussions about Mr. Hubbell at 
any later date after he had pled guilty?
    Answer. No.
    Question. Were you aware of anyone at the White House assisting Mr. 
Hubbell with finding work after he left the Justice Department?
    Answer. No.
    Question. Regarding the----
    Answer. When I say ``no'' to any of these, it means other than what 
I have read in the paper.
    Question. I understand that, and I hope that is clear for the 
record. I am after your personal knowledge, or if you have other 
knowledge, to tell us it is only from newspaper accounts.
    Regarding the issue of whether or not Webb Hubbell was paid sort of 
what was generically referred to as hush money, you made the statement 
in reference to the President saying he is too much into denial on one 
hand and too much of an ingrate on the other.
    What did you mean by that?
    Answer. That the President, that I doubted seriously that the 
President was involved in any payment of hush money to Hubbell; that it 
is not his style. On the one hand, he never believes that he has done 
anything wrong, and he is constantly of the opinion that he has always 
acted properly. Because that is always his opinion and everybody 
doesn't always act properly, I have to believe there is a certain 
amount of denial involved.
    Secondly, I have always felt that he is a bit of an ingrate, that 
when people work hard for him and help him and they finish their 
usefulness to them, he basically does not feel personally obligated, he 
feels that they are helping the country and they are doing their civic 
duty, and other than a sort of polite thank you, there is no great 
sense of personal obligation.
    So I summarized it pithily in that statement. I felt that hush 
money requires a certain guilty conscience that the President never 
has.
    Question. Are you aware--there have been reports, and the committee 
has received documentation indicating that Mr. Hubbell was receiving 
quite a large amount of money in 1994 from various sources. Did you 
have any knowledge of this in 1994 or '95?
    Answer. No, none.
    Question. Do you know of any other--you spoke of the President 
often didn't treat people well after they had left. Do you know of any 
other people who kind of got this kind of treatment, from all the 
President's friends getting jobs and things like that?
    Answer. Yes--oh, that was given good treatment or bad treatment?
    Question. Good treatment.
    Answer. No.
    Question. In terms of being hired----
    Mr. Ballen. Excuse me, I am going to object to that question. You 
are assuming a fact not in evidence. Mr. Hubbell got good treatment by 
the President? We don't know that and the witness doesn't know that.
    The Witness. In any case, I don't know.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Have any of the President's friends, when you left in 
August, did they come and offer you consulting contracts?
    Answer. No.
    Question. Or offer to give you----
    Answer. No.
    Question [continuing]. Jobs?
    Answer. No. I might just indicate I know several examples of people 
who were very intimately involved with all of the President's affairs 
who, when they left their employ, couldn't get the right time of day 
from him. And quite the opposite of hush money, I felt that there was a 
tremendous amount of ingratitude in the way he dealt with them.
    Betsy Wright, David Watkins, David Gergen, are all good examples of 
that. And I was, frankly, shocked at the callousness with which the 
President treated Betsy Wright and David Watkins after I personally 
witnessed 15 years of the most loyal kind of help of him by them.
    Betsy Wright probably knew everything that the President did during 
the period he was Governor. If there was anything he was trying to hide 
or use hush money to hide, she would be a pretty good candidate for 
recipient of hush money.
    Not only wasn't she getting hush money, she couldn't talk to him. 
He was never returning her calls, he wouldn't see her, she wasn't 
invited to the White House social events.
    Question. Do you think Mr. Hubbell was being treated like Betsy 
Wright or David Watkins?
    Answer. I never knew Hubbell. I know Betsy Wright and David Watkins 
were considered good friends.
    Question. Have you ever talked to the President about how he 
treated David Watkins or Betsy Wright?
    Answer. Betsy Wright, frequently. I would always say she treated 
you incredibly, and you will not give her the right time of day. He 
would say, I will call her, and he never would. It caused Betsy a great 
deal of personal agony.
    Question. In your book, revisiting a little bit the ad campaign, 
you wrote on page 144 that ``the President became the day-to-day 
operational director of our TV ad campaign. He worked over every 
script, watched each ad, ordered changes in every visual presentation, 
and decided which ads would run and where.''
    Do you recall discussing with the President the particular markets 
where ads would run?
    Answer. Yes. I outlined earlier the process of his control over 
content in the media and the fact that he had tremendous input, but 
ultimately never saw the final ads before they ran, even though they 
changed significantly.
    In terms of the time-buy, he was always shown the time-buy, he 
reviewed it, and he would occasionally ask for specific changes, some 
of which I thought made no sense, but he wanted to do them and we went 
and did them.
    But as I said, while his inputs on this matter as well as the 
content of the ads was significant, he was really the first among 
equals in terms of the approval process.
    In terms of the actual formulation of the advertisement, he had a 
much smaller role than any of the consultants did, and in terms of the 
allocation of where the money was spent, he had a much smaller role 
than Mark Penn or Doug Sosnik, who really were more effectively in 
charge of that.
    Question. I am showing the witness a document from the DNC, 309623 
through 38, which is Squier Knapp DNC media buys. As you review that 
document, you mentioned the President reviewed these often. Are these 
backward checks on these, are those checks that you recognize as the 
President's check mark?
    Answer. It is clearly by a lefty. The President's check marks 
usually have a sharp downward check and then a check like that. These 
seem to be just like that. The President's check marks are usually 
down, ``boom.'' I don't think translates well. They are usually down 
and diagonally up to the upper left. So I would not conclude from this 
that these are necessarily his check marks.
    Question. Do you know somebody else reviewing the media buys who is 
a lefty that made the kind of checks?
    Mr. Ballen. I object.
    The Witness. I don't know if anyone else is left-handed, no.

                      EXAMINATION BY MS. COMSTOCK:

    Question. These are not your checks?
    Answer. No. But I have testified that it was routine for the 
President to review the time-buys.
    Ms. Comstock. I would like to make that Deposition Exhibit Number 
8.
    [Morris Deposition Exhibit No. 8 was marked for identification.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you have any knowledge of how the President's legal 
defense fund was being handled? Did you ever have any discussions with 
anybody about that?
    Answer. None whatsoever.
    Question. I believe there have been news reports that some of the 
phone records from your hotel showed you calling Bob Bennett.
    Mr. Lenefsky. What was the name?
    Ms. Comstock. Bob Bennett, the President's attorney.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Did you ever talk with him about legal defense fund or 
any matters related to the President's defense?
    Answer. Not the legal defense fund. I did speak to him about the 
Paula Jones case.
    Mr. Ballen. I object to any questions in that regard on relevancy 
grounds.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Did you talk with him about--is that the only matter you 
talked with Mr. Bennett about?
    Answer. I think it would be better if you asked me what I did talk 
with Mr. Bennett about. Again, not an open-ended question.
    Question. If you can just tell us----
    Answer. I did not speak to Mr. Bennett about anything related to 
fund-raising, the fund-raising investigation, fund expenditures.
    Question. Actually I am more interested in the President's legal 
defense fund.
    Answer. No.
    Question. And what did you speak with Mr. Bennett about, then?
    Mr. Lenefsky. I am going to object.
    The Witness. I did not.

                      EXAMINATION BY MS. COMSTOCK:

    Question. You did not. Aside from the Paula Jones matter, were 
there other matters you discussed with Mr. Bennett?
    Answer. Yes.
    Mr. Lenefsky. Mr. Morris said he would answer questions perhaps if 
you identify a subject matter of discussion between he and Mr. Bennett.
    Mr. Ballen. Excuse me----

                      EXAMINATION BY MS. COMSTOCK:

    Question. Aside from the Paula Jones matter and any allegations 
regarding the President and First Lady, did you ever talk with Mr. 
Bennett about that?
    Mr. Ballen. Excuse me. The witness was in the middle of the 
sentence when counsel asked a question.
    Mr. Lenefsky. Let me go outside.
    Mr. Ballen. Let me finish for the record. He began to state that he 
did not discuss with Mr. Bennett any of the fund-raising, of campaign 
fund-raising or fund expenditures. I believe he was in the middle of 
completing the thought of the subject matters of these investigations.
    The Witness. I would rather answer--I would rather if you asked me 
did you talk to Mr. Bennett about this particular Filegate or 
Whitewater or any of the specific things, I would be prepared to give 
you yes or no answers to that. But I would rather not answer the open-
ended question of what did I talk to Mr. Bennett about.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Okay. Because Mr. Bennett is the President's attorney, I 
on the Paula Jones matter, I am not asking you about the Paula Jones 
thing, so I will just make that clear. But did you have frequent 
contact with Mr. Bennett?
    Answer. I met with him on two or three occasions, and I spoke with 
him on eight or nine occasions.
    Question. Did you speak with him on matters related to Whitewater?
    Mr. Ballen. Objection. Relevancy.
    Mr. Lenefsky. I would like to discuss something with my client 
outside.
    Ms. Comstock. Just for the record, the committee scope does include 
investigations of the President and First Lady.
    [Brief Recess.]
    The Witness. What was your last question? I believe your last 
question was did I ever speak to Mr. Bennett about Whitewater.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Yes.
    Answer. The answer to that question is yes.
    Question. Okay. Can you just generally tell us what you were 
talking with----
    Mr. Ballen. Before he answers, I am going to object to relevancy. I 
do not believe Whitewater is a subject matter of this investigation in 
any way, shape, or form, and I am going to renew my objection as to 
relevance.
    Mr. Lenefsky. Just a minute.
    [Discussion off the record.]
    Mr. Lenefsky. Mr. Morris will answer the question.
    The Witness. The question was what--the content of the 
conversation. I asked Ben if he thought that the President or Hillary 
were in any trouble over Whitewater that I need to take account of in 
my political consulting work, and he analyzed the situation for me and 
was largely positive and reassuring on the subject and said that he did 
not feel that they were in any kind of serious trouble.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Did you speak with David Kendall about this, also?
    Answer. No, I have never spoken with David Kendall. I don't think I 
have ever spoken with David Kendall. I don't recall.
    Question. Was this a number of occasions then you spoke with Mr. 
Bennett about those matters? You indicated there were a number of 
conversations.
    Answer. Yes. I would routinely be in touch with him whenever there 
was a major new development to get his take as to whether there was 
something I needed to worry about politically, and he was always, and 
so far it has turned out accurate, reassuring on this subject and 
positive or optimistic about whether the President or First Lady were 
in any serious difficulty.
    Question. Was that something you incorporated into your polling, 
was that just information?
    Answer. Well, if he told me he felt there was a serious chance of 
something legally adverse happening to the First Lady or to the 
President before the 1996 election, it would have been important for me 
to develop contingency plans as to what to do. His assurance that was 
unlikely satisfied me and I did not spend much time developing 
contingency plans.
    Question. Do you recall generally when these calls occurred?
    Mr. Ballen. Excuse me. I object to this line of questioning, asking 
the witness about political strategies.
    The Witness. Think I have answered. They occurred while I worked 
form Clinton, '95 and '96, but I don't know the dates. I mean--yes.
    Mr. Lenefsky. There is no question before you.

                      EXAMINATION BY MS. COMSTOCK:

    Question. Do you know a gentleman named Jack Palladino?
    Answer. No. I think he is some way involved with the DNC, but I 
don't know who or what.
    Question. Do you know of any private investigators that were ever 
hired to investigate any Members of Congress or anybody who was 
investigating the President or First Lady?
    Answer. Do I know of any private investigators that were ever hired 
to do what?
    Question. Who were ever hired by anyone affiliated with the Clinton 
campaign or the DNC or any private friend of the President or First 
Lady to investigate any Members of Congress who were conducting 
investigations?
    Answer. Of any Member of Congress?
    Question. Of the President and First Lady.
    Answer. Yes. In other words, investigate the investigators?
    Question. Exactly.
    Answer. No.
    Question. There was testimony last month about the IGI group, Terry 
Lenzner's group, investigating Senator Nichols. Did you have any 
knowledge of anything like that going on in the '92 or '96 campaigns?
    Answer. No. I believe I knew that Terry Lenzner was hired to do 
investigative work and was serving under Ickes' direction, but I had no 
idea what he was investigating.
    Question. Do you know about Mr. Ickes hiring Mr. Lenzner?
    Answer. I heard that he had done so. I don't know where I heard it, 
but I knew that he had, and I don't know anything further about it.
    Question. Do you know who you heard that from?
    Answer. No. I think I may just have read it in the newspaper 
earlier, while I was working there. But while I was there I knew the 
name Terry Lenzner and I knew that he worked for Ickes. I don't know 
how I knew it. I did know.
    Question. Do you know anything----
    Mr. Ballen. This is not firsthand knowledge?
    The Witness. No. I have no idea what he is doing. I have never 
spoken to him or anything like that.
    [Discussion off the record.]

                      EXAMINATION BY MS. COMSTOCK:

    Question. Was your understanding that Mr. Lenzner was hired in 
connection with the DNC work that Mr. Ickes was overseeing?
    Answer. I don't know.
    Ms. Comstock. I believe that is all I have for now. Thank you.
    The Witness. Thank you. Thanks very much.

                       EXAMINATION BY MR. BALLEN:

    Question. Mr. Morris, just a few questions. I want to, first of 
all, take this opportunity to thank you. Your testimony has been very 
forthcoming. We appreciate your coming and taking your time from your 
busy schedule. On behalf of the Minority members, we thank you for 
that.
    You mentioned to Representative Cummings that you offered to list 
to him the Republican campaigns that you have worked on for years. I 
would like to take you up on that offer, if you could go through 
chronologically the significant Republican campaigns.
    Answer. My memory of winners is better than losers.
    Ms. Comstock. Your memory is far better than most.
    The Witness. Why don't I go through winners, or people that are 
serving in office.

                       EXAMINATION BY MR. BALLEN:

    Question. That would be good.
    Answer. In 1980, I worked for Paula Hawkins, Senator from Florida, 
in her election as Senator from Florida. I worked for Senator Warren 
Rudman from New Hampshire, Senator Paula Hawkins from Florida, and 
Senator Mark Andrews from North Dakota.
    In 1982, I worked for Senator Pete Wilson from California. In 
1980----
    Question. That is all right, the dates.
    Answer. '86, I worked for Governor Arch Moore of West Virginia. In 
1988, I worked for Senator Trent Lott of Mississippi, and I worked for 
President Bush. In 1990, I worked for Governor William Weld of 
Massachusetts, Senator Jesse Helms of North Carolina, Senator Dan Coats 
of Indiana, and Senator Kay Bailey Hutchinson of Texas, and Senator 
Hank Brown of Colorado.
    In 1994, I worked for--I worked for no successful Republican--no, I 
am sorry, 1992, no successful ones. In 1994, I worked for Governor Tom 
Ridge of Pennsylvania, Governor Don Sundquist of Tennessee, Senator 
Trent Lott, and Governor William Weld.
    Question. Any Members of Congress? You mentioned Senators and 
Governors. Any Members of Congress? I believe you testified Congressman 
Jay Dickey.
    Answer. Jay Dickey.
    Question. Any other Members of Congress?
    Answer. Congressman John Mica of Florida, who is a member of this 
committee.
    Mr. Lenefsky. Did you work for Ed?
    The Witness. He is asking about Republicans.
    Ms. Comstock. Are you only asking Republicans?
    Mr. Ballen. That was my question.
    Ms. Comstock. Did you work for Mr. Schumer at some point, Chuck 
Schumer?
    The Witness. Yes, I did, but he is only asking about Republicans. 
Congressman from Louisiana, Baton Rouge, Republican Congressman from 
Baton Rouge.
    Ms. Comstock. Tauzin?
    The Witness. No, a next-door neighbor.
    Ms. Comstock. Baker?
    The Witness. Richard Baker of Louisiana. That's it.

                       EXAMINATION BY MR. BALLEN:

    Question. We have----
    Answer. I am sorry, there are other Members no longer in the House. 
I worked for John Ashbrook of Ohio and maybe some other Republican 
House Members that are no longer serving, but I don't--that would take 
a whole other time for me to think about.
    Question. I don't want to take any more time. I will note for the 
record we started this deposition at 9 o'clock. We are now at 3 
o'clock. Most of the time you have been here you have discussed in 
detail the content of, over the objections of the Democratic side, you 
discussed the consent of ads that you reviewed with the President, 
political strategy, the markets, where those ads were run, the time-
buys, polling, advice, considerations of political strategy, the 
formulation of advertisements, where the money was spent on 
advertisements, and I would assume, and correct me if I am wrong, Mr. 
Morris, that with all the names that you just mentioned, Senator Lott, 
Senator Coats, you also testified you consulted with Senator Gramm, 
Congressman Mica, et cetera, you had similar discussions with those 
candidates on their campaigns; is that correct?
    Answer. That is correct. I never worked for Senator Gramm on his 
own campaigns. I worked for Senator Gramm in connection with the 
Republican Senate Campaign Committee.
    Question. But you would have had similar conversations with Senator 
Gramm concerning the work on the Senate campaign committee on how ads 
were constructed, on coordination between the committee and other 
groups, and other candidates, et cetera. You would have had discussions 
with all of these candidates. Would that be a fair statement, sir?
    Answer. Well, it is, except for when you get to the issue of 
coordination. I never engaged in any campaign discussions about 
coordination between expenditures of the campaign and independent 
expenditures, because I know that that's illegal.
    Question. And that's the same case with the President's past 
campaign in 1996; is that correct?
    Answer. Well, there was one occasion where there was an activity 
that smacked of coordination in which I was engaged that I rejected. 
There was a meeting in the Roosevelt Room----
    Question. Why don't you describe that?
    Answer. There was a meeting in the Roosevelt Room of the White 
House, and I do not recall the date, it was late '95 or early '96, that 
Mr. Ickes convened, at which he invited five or six people from the 
labor movement, from the labor community. I don't recall the names of 
the people, because I didn't know them, but there was somebody from 
AFSCME, there was somebody there from one of the teachers' unions. 
There was somebody there from COPE, C-O-P-E, the AFL, and I believe 
there was somebody there from the media firm of Victor Fingerhut, F-I-
N-G-E-R-H-U-T, who does the advertising for the AFL, and I attended, 
Mark Penn attended, and I believe Bill Knapp attended.
    Ms. Comstock. Was the LIUNA union involved?
    The Witness. What's LIUNA?
    Ms. Comstock. International----
    The Witness. Labors International? I don't think so.
    And from the White House there was Ickes and Sosnik, and 
Stephanopoulos may have been in that meeting, I'm not sure.
    The purpose of the meeting was for the labor people to show us the 
ads that they had run and were planning to run, and I criticized their 
ads, because they failed to mention the balanced budget or tax cuts, 
and I felt they relied too much on rhetoric against tax breaks for the 
rich, which is something I was constantly opposed to our talking about.
    They then invited me to coordinate my time-buying plan, our time-
buying plans with them on a basis where, for example, they suggested we 
want to advertise in Vermont to go after Jeffords, and you don't care 
about winning Vermont particularly, so why don't we take Vermont, but 
you take, you know, Missouri, where it is a swing State. And I rejected 
it because--first of all, I rejected it partially because I felt it was 
not lawful, and, secondly, because I felt that their media was not only 
not helpful to the Clinton campaign, but destructive.
    I am of the opinion that at this moment the Democrats would control 
the House of Representatives if the AFL-CIO never ran an ad. I believe 
their advertisements had more to do with the Democrats losing Congress 
in '96 than any Republican ad. And I felt that the stark left-right 
comparisons that they were attempting to make were totally against the 
strategy I had in mind, and in fact, I decided that when I learned that 
they were advertising, I'd make a point that we would advertise to 
repair the damage. But that was the only--and that meeting ended on a 
rather unhappy note, because I did express my views fairly frankly, and 
there was, in fact, no coordination, but that's the only time when I 
have ever been in a meeting in connection with coordination.

                       EXAMINATION BY MR. BALLEN:

    Question. And at that meeting, you rejected that firmly?
    Answer. Yes.
    Question. What happened as a result of your rejection?
    Answer. I don't know, but I know that I was never involved, nor 
were any of the consultants that worked with me to my knowledge ever 
involved in any coordination with any independent expenditure, 
including the AFL.
    Question. So you were comfortable with the fact that you were never 
involved or anyone you were in contact with was involved with any 
coordination with the AFL or any other group like that?
    Answer. That's right. That's correct.
    Question. And no one asked you to coordinate at any time subsequent 
to that meeting?
    Answer. That's correct.
    Question. So back----
    Answer. And it should be noted that the request for coordination 
did not come from Mr. Ickes, it came from someone from the labor 
community.
    Question. And you rejected it?
    Answer. Yes.
    Ms. Comstock. What was Mr. Ickes' response.
    The Witness. I don't believe he had one. The minute they mentioned 
it, I jumped all over it, because I hated the ads.

                       EXAMINATION BY MR. BALLEN:

    Question. And that was the end of it as far as you knew?
    Answer. Yes.
    Question. But back to, let me just review and then I think you 
already answered the question, but the kinds of issues that you 
discussed at great length today about assistance and advise that you 
gave the President in the 1996 campaign, you could also discuss with 
all the other people that you represented in varying degrees over the 
years; isn't that correct?
    Answer. That's correct.
    Question. There is nothing particularly--I mean, there may be 
unique features to the President's campaign, but there is nothing 
particularly unique about the kinds of issues or strategy or ad 
concerns or other things that you discussed; is that correct?
    So if you were asked--let me finish this. If you were asked at a 
future date to describe what ads were run for Senator Lott or what ads 
might have been run for Senator Coats or what discussions you may or 
may not have had with Senator Coats or Senator Lott, you could answer 
those questions?
    Answer. Yes, I could. The only unique feature of the Clinton 
campaign was that I never previously worked on an issue advocacy 
advertising campaign for a national committee.
    Question. All right. And you have already testified in length as to 
that?
    Answer. Yes.
    Mr. Ballen. Thank you very much.
    Ms. Comstock. I just have a few follow-up questions.

                      EXAMINATION BY MS. COMSTOCK:

    Question. In any of those other campaigns that you were talking 
about, were you aware of millions of dollars being returned after you 
had worked on the campaign?
    Mr. Ballen. I am going to object because he has testified he wasn't 
involved in fund-raising.
    Ms. Comstock. I am just saying if he is aware or any knowledge, or 
learned from it.
    Mr. Ballen. From reading the newspapers?
    Ms. Comstock. Exactly. If he was aware of millions of dollars of 
campaign contributions----
    Mr. Ballen. Well, you can ask him about anything in the newspapers, 
if he has personal knowledge.
    The Witness. I have no knowledge of millions of dollars being 
returned.

                      EXAMINATION BY MS. COMSTOCK:

    Question. On the meeting that you talked about with Harold Ickes, 
the labor meeting, was it your understanding that Harold Ickes set up 
that meeting?
    Answer. Yes.
    Question. And do you recall who asked you to come to the meeting?
    Answer. No. I mean, someone on Ickes' staff told someone on my 
staff that I had to come. It was not Harold who personally invited me, 
but I don't know who from their staff spoke to who on my staff. I just 
was told by someone on my staff that Ickes wanted me at this meeting.
    Question. Who usually invited you? I mean, who from Ickes' staff 
contacted your staff when he invited you to meetings?
    Answer. He very rarely did, but when he did, it was usually Janice 
Enright.
    Question. And she would contact one of your assistants?
    Answer. Yes.
    Question. And you had previously testified that usually you tried 
to avoid each other, essentially?
    Answer. Yes. We communicated with each other chiefly through leaks.
    Question. Are you aware of Mr. Ickes working with any voter 
participation groups?
    Answer. Not specifically, but I--that would have fallen within his 
mandate.
    Question. Do you have any knowledge of him--do you know anyone 
named Gary Barron?
    Answer. No.
    Question. Did you have any knowledge, prior to the news reports, 
about the situation with Warren Meddoff receiving the fax from Mr. 
Ickes asking for contributions to a number of groups, including Vote 
Now and an antiproposition 209 group? Did you have any knowledge about 
those events prior to the news reports?
    Answer. No.
    Question. Okay. Have you learned of anything about--since the news 
reports or through any source about Mr. Ickes coordinating with any of 
these voter participation groups?
    Answer. No.
    Question. Do you know how he would have gotten their bank account 
numbers or have any of that type of information?
    Answer. No.
    Question. In your book, you described the President is very hands-
on and very involved in his re-election campaign. Is that a fair 
characterization of his participation?
    Answer. Yes.
    Question. And is very detail oriented and attentive to a lot of the 
things that you were working on?
    Answer. Yes.
    Question. And very interested in what you were working on?
    Answer. Yes.
    Question. And wanted to know on a day-to-day basis what it was that 
you were working on, or week-to-week?
    Answer. Yes.
    Question. Was that your understanding of how he dealt with Mr. 
Ickes, also?
    Mr. Lenefsky. If you know.
    The Witness. I was not really privy to his discussions with Ickes, 
so I really can't comment on--I can't comment on that.

                      EXAMINATION BY MS. COMSTOCK:

    Question. From your discussions with the President, did you have a 
sense of how often the President spoke with Harold Ickes?
    Answer. Whenever I was--yes, I had the sense, both from personal 
observation and from times that I would call Ickes' office and learn 
that he wasn't there, that he saw the President at least every day and 
usually very frequently throughout the day.
    Question. Did he often travel with the President during the 
campaign?
    Answer. Yes.
    Question. And did you have one of your assistants traveling with 
the President also during the campaign?
    Answer. On political trips only paid for by the Clinton/Gore 
campaign. I was not permitted to have anyone travel on official trips, 
and where the trip was funded by the DNC, I was also generally not 
permitted to have someone there.
    Question. Was that Tom Freedman who usually went on those trips?
    Answer. Tom Freedman most often. Sometimes Mark Penn.
    Question. Did either Tom Freedman or Mark Penn ever tell you about 
donors flying on Air Force One or anything to that effect?
    Answer. No. I never flew on Air Force One.
    Question. All right.
    Again, you were describing that the President was very involved in 
the details. I was wondering, do you have any reason to believe that 
the President has any memory problems or any problem with recalling 
events?
    Mr. Ballen. I am going to object to that kind of a question.
    Mr. Lenefsky. I will object, also.

                      EXAMINATION BY MS. COMSTOCK:

    Question. From your experience of knowing the President for over 20 
years, does he have a good memory?
    Answer. Yes.
    Ms. Comstock. I believe that's all I have today. Thank you for your 
time.
    [Whereupon, at 3:15 p.m., the deposition was concluded.]

    [The exhbits referred to follow:]

    [GRAPHIC] [TIFF OMITTED] T5667.551
    
    [GRAPHIC] [TIFF OMITTED] T5667.552
    
    [GRAPHIC] [TIFF OMITTED] T5667.553
    
    [GRAPHIC] [TIFF OMITTED] T5667.554
    
    [GRAPHIC] [TIFF OMITTED] T5667.555
    
    [GRAPHIC] [TIFF OMITTED] T5667.556
    
    [GRAPHIC] [TIFF OMITTED] T5667.557
    
    [GRAPHIC] [TIFF OMITTED] T5667.558
    
    [GRAPHIC] [TIFF OMITTED] T5667.559
    
    [GRAPHIC] [TIFF OMITTED] T5667.560
    
    [GRAPHIC] [TIFF OMITTED] T5667.561
    
    [GRAPHIC] [TIFF OMITTED] T5667.562
    
    [GRAPHIC] [TIFF OMITTED] T5667.563
    
    [GRAPHIC] [TIFF OMITTED] T5667.564
    
    [GRAPHIC] [TIFF OMITTED] T5667.565
    
    [GRAPHIC] [TIFF OMITTED] T5667.566
    
    [GRAPHIC] [TIFF OMITTED] T5667.567
    
    [GRAPHIC] [TIFF OMITTED] T5667.568
    
    [GRAPHIC] [TIFF OMITTED] T5667.569
    
    [GRAPHIC] [TIFF OMITTED] T5667.570
    
    [GRAPHIC] [TIFF OMITTED] T5667.571
    
    [GRAPHIC] [TIFF OMITTED] T5667.572
    
    [GRAPHIC] [TIFF OMITTED] T5667.573
    
    [GRAPHIC] [TIFF OMITTED] T5667.574
    
    [GRAPHIC] [TIFF OMITTED] T5667.575
    
    [GRAPHIC] [TIFF OMITTED] T5667.576
    
    [GRAPHIC] [TIFF OMITTED] T5667.577
    
    [GRAPHIC] [TIFF OMITTED] T5667.578
    
    [GRAPHIC] [TIFF OMITTED] T5667.579
    
    [GRAPHIC] [TIFF OMITTED] T5667.580
    
    [GRAPHIC] [TIFF OMITTED] T5667.581
    
    [GRAPHIC] [TIFF OMITTED] T5667.582
    
    [GRAPHIC] [TIFF OMITTED] T5667.583
    
    [The deposition of Eric Sildon follows:]

                           Executive Session

      Committee on Government Reform and Oversight,
                             U.S. House of Representatives,
                                                    Washington, DC.
                       DEPOSITION OF: ERIC SILDON
                                     Tuesday, July 29, 1997

    The deposition in the above matter was held in Room 2203, Rayburn 
House Office Building, commencing at 10:00 a.m..
Appearances:
    Staff Present for the Government Reform and Oversight Committee: 
James C. Wilson, Senior Investigative Counsel; Miki White, 
Investigative Counsel; Maria Wusinich Intern; Kenneth Ballen, Minority 
Chief Investigative Counsel; and Christopher Lu, Minority Counsel.
For MR. SILDON:
    JUDAH BEST, ESQ.
    DeBevoise & Plimpton
    Attorneys at Law
    555 13th Street, N.W., Suite 110 E
    Washington, D.C. 20004

    Mr. Wilson. Good morning. On behalf of the Committee on Government 
Reform and Oversight, I appreciate and thank you very much for coming 
here today.
    This proceeding is known as a deposition. The person transcribing 
this proceeding is a House reporter and notary public. I will now 
request that the reporter place you under oath.

  THEREUPON, ERIC SILDON, a witness, was called for examination, and 
   after having been first duly sworn, was examined and testified as 
                                follows:

    Mr. Wilson. I would like to note for the record that those who are 
present at the beginning of this deposition are James Wilson, the 
designated Majority Counsel for the committee. I am accompanied by Miki 
White and Maria Wusinich, who are both with the Majority staff.
    Christopher Lu is the designated Minority counsel for the 
committee, and the deponent is represented by Mr. Judah Best.
    Although this proceeding is being held in a somewhat informal 
atmosphere, because you have been placed under oath, your testimony 
here today has the same force and effect as if you were testifying 
before the committee or in a courtroom.
    If I ask you about conversations you have had in the past and you 
are unable to recall the exact words in the conversation, you may state 
that you are unable to recall those exact words, and then you may give 
me the gist or substance of any such conversation to the best of your 
recollection.
    If you recall only a part of the conversation or only part of an 
event, please give me your best recollection of those events or parts 
of conversations that you recall.
    If I ask you whether you have any information upon a particular 
subject and you have overheard other persons conversing with each other 
regarding it or have seen correspondence or documentation regarding it, 
please tell me that you do have such information and indicate the 
source, either a conversation or documentation or otherwise, from which 
you derived such knowledge.
    Before I begin the questioning, I want to give you some background 
about the investigation and your appearance here.
    Pursuant to its authority under House Rules 10 and 11 of the House 
of Representatives, the committee is engaged in a wide-ranging review 
of possible political fund-raising improprieties and possible 
violations of law. Pages 2 through 4 of House Report 105-139, a copy of 
which you have received, summarizes the investigation as of June 19, 
1997, and encompasses any new matters which arise directly or 
indirectly in the course of the investigation.
    Also, pages 4 through 11 of the report explain the background of 
the investigation. All questions related either directly or indirectly 
to these issues or questions which have the tendency to make the 
existence of a pertinent fact more or less probable than it would be 
without the evidence, are proper.
    The committee has been granted specific authorization to conduct 
this deposition pursuant to House Resolution 167, which passed the full 
House on June 20, 1997. Committee Rule 20, of which you have received a 
copy, outlines the ground rules for the deposition.
    Majority and Minority counsel will ask you questions regarding the 
subject of this investigation. Minority counsel will ask questions 
after Majority counsel has finished.
    After the Minority counsel has completed questioning you, a new 
round of questioning may begin. Members of Congress who wish to ask 
questions will be afforded an immediate opportunity to ask their 
questions. When they are finished, committee counsel will resume 
questioning.
    Pursuant to the committee's rules, you are allowed to have an 
attorney present to advise you of your rights. Any objection raised 
during the course of the deposition shall be stated for the record. If 
the witness is instructed not to answer a question or otherwise refuses 
to answer a question, Majority and Minority counsel will confer to 
determine whether the objection is proper.
    If Majority and Minority counsels agree that a question is proper, 
the witness will be asked to answer the question. If an objection is 
not withdrawn, the Chairman or a Member designated by the Chairman may 
decide whether the objection is proper.
    The deposition will be held open subject to rescheduling for the 
purpose of resolving any disputed issue.
    This deposition is considered as taken in executive session of the 
committee, which means it may not be made public without the consent of 
the committee, pursuant to clause 2(k)(7) of House Rule XI.
    You are asked to abide by the Rules of the House and not discuss 
with anyone, other than your attorney, this deposition and the issues 
and questions raised during this proceeding.
    Finally, no later than 5 days after your testimony is transcribed 
and you have been notified that your transcript is available, you may 
submit suggested changes to the Chairman. The transcript will be 
available for your review at the committee offices. Committee staff may 
make any typographical and technical changes requested by you.
    Substantive changes, modifications, clarifications or amendments to 
the deposition transcript submitted by you must be accompanied by a 
letter requesting the changes and a statement of your reasons for each 
proposed change.
    A letter requesting any substantive changes, modifications, 
clarifications or amendments must be signed by you. Any substantive 
changes, modifications, clarifications or amendments shall be included 
as an appendix to the transcript, conditioned upon your signing of the 
transcript.
    Do you understand everything we have gone over so far?
    The Witness. I do.
    The Wilson. Do you have any questions about anything we have gone 
over so far?
    The Witness. No.
    Mr. Wilson. I am prepared to begin asking some preliminary 
questions. Do you have any initial comments?
    Mr. Lu. No, not at this time.
    Mr. Wilson. I will be asking you questions concerning the subject 
matter of this investigation. Do you understand?
    The Witness. Yes.
    Mr. Wilson. If you don't understand a question, please say so and I 
will repeat it or rephrase it so that you do understand the question. 
Do you understand that you should tell me if you do not understand the 
question?
    The Witness. I do understand.
    Mr. Wilson. The reporter will be taking down everything we say and 
will make a written record of the deposition. Please give verbal, 
audible answers in that the reporter cannot record what a nod of the 
head or a gesture means.
    Do you understand that you should give audible answers?
    The Witness. Yes.
    Mr. Wilson. If you can't hear me, please say so and I will repeat 
the question or have the court reporter read the question to you. Do 
you understand?
    The Witness. Yes.
    Mr. Wilson. Please wait until I finish each question before 
answering, and I will wait until you finish your answer before I begin 
the next question.
    Do you understand that this will help the reporter make a clear 
record because she cannot take down what we are both saying at the same 
time?
    The Witness. Absolutely.
    Mr. Wilson. Your testimony is being taken under oath, as if we were 
in court, and that if you answer a question, it will be assumed that 
you understood the question and the answer was intended to be 
responsive to it.
    Do you understand that?
    The Witness. Yes.
    Mr. Wilson. Are you here voluntarily or are you here as a result of 
a subpoena?
    Mr. Best. He is here voluntarily.
    Mr. Wilson. Do you have any questions about the deposition before 
we begin the substantive portion of the proceeding?
    The Witness. Not based on what you have said so far.
    Mr. Wilson. Okay.

                       EXAMINATION BY MR. WILSON:

    Question.  Please state your full name and spell it for the record?
    Answer. My name is Eric, E-R-I-C, Kasle, K-A-S-L-E, Sildon, S-I-L-
D-O-N.
    Question.  Have you used or gone by any other names?
    Answer. No.
    Question.  Have you been known to others by any other names?
    Answer. No.
    Question.  What is your date of birth and Social Security number?
    Mr. Lu. Counsel, let me interrupt you a second. I am not sure why 
you need Mr. Sildon's Social Security number or frankly, for that 
matter, any witness' Social Security number.
    The Wilson. Verification for information we might receive.
    Mr. Lu. Could you make some kind of proffer as to what type of 
information that would be? I would understand if Mr. Sildon was a 
target of this investigation, but he is not. And as you know, once you 
have obtained somebody's Social Security number you can, you know, run 
all kinds of credit reports and, you know, other invasive types of 
searches on him.
    The Wilson. I am actually not sure whether I can run any credit 
reports or invasive searches with a Social Security number, but to the 
extent that it is an identification of materials and business, I ask 
for it. It is a common thing in depositions and I never heard you 
object to it before.
    Mr. Lu. Is this--do you intend to ask for this for all witnesses?
    The Wilson. I may and I may not. But I would ask, counsel, Mr. 
Best, are you instructing your client?
    Mr. Best. No, I am just speaking to him.
    The Wilson. I apologize for that. Are you instructing him not to 
answer my question about his Social Security number?
    Mr. Best. I am interested to hear this colloquy. Do you intend to 
check his credit references?
    The Wilson. I do not. I do not intend to check credit references.
    Mr. Best. Do you intend to use his Social Security number in some 
fashion?
    The Wilson. I don't know.
    Mr. Best. What would you do if you did?
    The Wilson. To the extent that it might be an internal 
identification device, it might be relevant.
    Mr. Lu. I am not sure I understand. I mean, is there any sense that 
there is another Eric Sildon out there that you might need to verify 
that this is the actual one who might appear on a document?
    The Wilson. Not at this point, no.
    Mr. Lu. Well, I am not sure I have heard a sufficient reason, but I 
am going to object to the question. I am going to leave it up to Mr. 
Sildon as to whether he wants to answer it or not, that part of the 
question.
    The Witness. Well, I----
    Mr. Best. One second.
    [Witness conferring with counsel.]
    Mr. Best. Mr. Sildon has expressed a concern with regard to the 
answers regarding the potential use of his Social Security information, 
and at this point would prefer not to divulge that information.
    The Wilson. Are you instructing your client not to answer the 
question?
    Mr. Best. I never instruct a client. I just recommend to him and it 
is the client that makes a determination based on that. I recommend 
that he not answer the question.
    The Wilson. I am prepared to go on in that I am satisfied to have 
the deposition left open pending resolution of this matter, if I decide 
to continue, which I may or may not.
    The Witness. That's fine.

                       EXAMINATION BY MR. WILSON:

    Question.  What is your current address?
    Answer. I live at [redacted].
    Question.  How long have you lived at that address?
    Answer. [Redacted].
    Question.  Have you lived outside of the United States?
    Answer. No.
    Question.  Did you attend college?
    Answer. Yes.
    Question.  Where did you attend college and what degree did you 
receive, if any?
    Answer. I graduated from [redacted] with a Bachelor of Science in 
business administration.
    Question.  When did you graduate?
    Answer. [Redacted].
    Question.  Do you have any post graduate degrees?
    Answer. No.
    Question.  Please briefly describe your employment history after 
college.
    Answer. I came to Washington, D.C. in the fall of 1985 and worked 
as a paid intern for Congressman Alan Wheat, then- Congressman Alan 
Wheat, while I was looking for a more permanent position. I was hired 
in late December, 1985 and began work on January 2nd, 1986, for then 
Congressman Dan Glickman. I worked for Congressman Glickman until March 
of 1992. I left Congressman Glickman's office to be a legislative 
representative for the National Federation of Independent Business. I 
was with NFIB until the fall of 1992, when I went to work for the 
Presidential Inaugural Committee to work on the 52nd Presidential 
Inaugural.
    Mr. Best. That would not have been the fall of 1992, would it?
    The Witness. That is correct. It was in November of 1992. After the 
inauguration, I was offered and accepted employment at the Democratic 
National Committee, where I worked until September of 1995. I left the 
DNC in 1995 and went to work for the Democratic Governors Association. 
I worked at the DGA until the 53rd Presidential Inaugural when I was 
asked to come back and help produce an event. I was at--after the 
Inaugural Committee, I have worked a succession of political and event-
resulting jobs, basically working for myself as a consultant with a 
series of clients that I have represented.

                       EXAMINATION BY MR. WILSON:

    Question.  Could you please provide an approximate month date for 
your tenure at the DGA?
    Answer. Sure. September 1995 is when I was hired. I actually may 
have begun work in early October there, but right around the first of 
October, end of September, and I was at the DGA until early December 
1996.
    Question.  Did you review any documents in preparation for this 
deposition?
    Answer. Just a few documents.
    Question.  Where did you review these documents?
    Answer. At the office of my counsel.
    Question.  Do you keep work-related files in your personal 
residence?
    Answer. No.
    Question.  Do you have any papers from your time at the DNC at your 
personal residence?
    Answer. No. And I have made a search to confirm that, and I do not 
have any documents.
    Question.  Who approached you formally about taking your position 
at the DNC?
    Answer. A woman named Nancy Jacobson contacted me.
    Question.  And who is Nancy Jacobson?
    Answer. At the time, Nancy was--Nancy had been placed as the 
National Finance Director for the DNC and I knew Nancy from my days 
working on Capitol Hill. She had been a fund-raiser for one of the 
Members of Congress, and I had worked for a reelection of his.
    Question.  And did you receive any recommendations to work at the 
DNC?
    Answer. I am not sure I understand your question.
    Question.  Did any--apart from speaking with Ms. Jacobson, did 
anybody recommend you for the job or a job at the DNC?
    Answer. Sure, Nancy--I am sure Nancy called my references.
    Mr. Best. Do you know that for a fact?
    The Witness. I do not know that for a fact.

                       EXAMINATION BY MR. WILSON:

    Question.  Do you know if anybody submitted a written 
recommendation on your behalf?
    Answer. I do not know if anybody had submitted a written 
recommendation.
    Question.  Did you interview with anybody prior to being offered 
the job at the DNC?
    Answer. Other than Nancy?
    Question.  Well, in addition to.
    Answer. Nancy Jacobson asked me to come in and talk to her about 
the position and talk to her about my experiences, and also talk to her 
Deputy Finance Director, a woman named Hannah Spillman, I believe, and 
just my conversations with them.
    Question.  Do you recall interviewing with anybody else?
    Answer. I don't recall if I interviewed with anybody else.
    Question.  What were your job responsibilities at the DNC?
    Answer. Would you like all my responsibilities?
    Question.  Yes.
    Answer. From day one on?
    Question.  If you could provide a general overview.
    Mr. Best. He had different positions.
    The Wilson. I understand that.

                       EXAMINATION BY MR. WILSON:

    Question.  If you could break down your different positions and 
overview of your responsibilities?
    Answer. I worked on the fund-raising staff from 199--from early 
1993, early February 1993, until, I would say, early 1994. I then left 
the finance staff and went to work in the office of the chairman where 
I worked until I left the DNC in 1995.
    Question.  What were your--what were your job titles?
    Answer. In the Finance Division, my job title was Regional Finance 
Director. When I moved to the chairman's office, my title was Director 
of National Membership Services.
    Question.  Did you replace anybody in the position of Director of 
National Membership Services?
    Answer. No. It was a new--newly created office.
    Question.  Who did you report to in your first job as Regional 
Finance Director?
    Answer. I reported to Nancy.
    Question.  And who did she report to?
    Answer. I am sorry. Who did Nancy report to?
    Question.  Correct.
    Answer. I don't know the hierarchy structure of who she directly 
reported to.
    Question.  I think you stated before that--I am just wanting to 
clarify for myself. She was the National Finance Director at the time?
    Answer. Correct.
    Question.  And in your position as Director of the National 
Membership Services, to whom did you report?
    Answer. I reported initially to Martha Phipps who was, I believe 
she was Deputy Chief of Staff, but more specifically she was, and I am 
not certain what her exact title was, but she essentially ran the 
office of the chairman's office.
    Question.  You said initially you reported to her. After Martha 
Phipps, did you report to somebody else?
    Answer. I did. Martha left the DNC at some point in late 1994, I 
believe, or perhaps early 1995--I am not certain of the date--but when 
she left, she left around the same time that a new chairman came to the 
DNC and he brought with her a staff woman named Carole Khare, I think 
it is K-H-A-R-E.
    Question.  In your position as Regional Finance Director, and I 
will--once we finish this, I will try not to jump back and forth so 
much----
    Answer. Okay.
    Question [continuing]. Did you have any subordinate employees?
    Answer. I did. Well, as--I should actually restate that. I didn't 
have subordinates who necessarily reported directly to me on a full-
time basis. However, when I would go out and work on an event, there 
would always be a lead on the event and a few other staff people, and I 
was always an event lead--I shouldn't say ``always.'' When I was an 
event lead, there were other staff people working on the event who 
would report to me about that event as a--in developing kind of a 
hierarchy tree of who reported to who, there was no one underneath me 
per se whose responsibility was to report to me on a full-time basis.
    Question.  When you were working with colleagues in your position 
as Regional Planning Director, who were you working with? What were the 
names of the people that you were working with?
    Answer. Well, first of all, generally it was a rather small staff 
so we all would be working with each other. But on specific events, I 
worked with Sam Newman and Jay Dunn and Peter O'Keefe, and I believe on 
one event I worked with Erica Payne.
    Question.  Do you recall any other individuals that you worked with 
at that time, and I am asking for your immediate office?
    Answer. I want to make sure that I understand what you are asking. 
Are you talking about for these specific events or are you talking 
about my day-to-day responsibilities as part of the Finance Committee?
    Question.  In your daily responsibilities on the Finance Committee.
    Answer. Without trying to be too vague, I worked with everyone on 
the staff. It is a small staff. Just as, for example, you may be 
working with lots of people on the committee staff, you come in contact 
with them or you have a conversation with them. I mean, you know, we 
were a staff of, I don't know, approximately 15, 20, 25 people, in a 
space no larger than this room. So we would see each other every 
morning or have, you know, a staff meeting a couple times a week. 
Somebody would call in and you would happen to answer the phone and 
somebody would be on the other line.
    Question.  In your position as Director of the National Membership 
Services, who else worked in the office of National Membership 
Services?
    Answer. For a period of time, Jay Dunn, who I had previously 
mentioned was the Deputy Director of the program, and after--after a 
period of time, Jay left the program--you have to understand, the 
program left the Finance Division and Jay was really more interested in 
doing finance than staying necessarily with this program. And so he 
went back over to the Finance Division and a new deputy was assigned to 
me, and her name was Brook Stroud.
    Additionally, another woman came on board at the DNC and she was 
assigned to the program as well. Her name was Susan Lavine.
    Was National Membership Services originally a part of the Finance 
Division?
    Answer. Yes. National Membership Services initially was--the answer 
is, yes.
    Question.  Could you explain the chronology or how--where National 
Membership Services was located in the DNC flowchart when you arrived 
at the DNC, and then until the time you departed from the DNC?
    Answer. National Membership Services did not exist when I arrived 
at the DNC. The program was created initially in the Finance Department 
because that's where I worked, and it was created in early 1996, 
because I was still fund-raising around the country in 1995. It was 
created in early 1996 and within a matter----
    Question.  If I could?
    Answer. I am sorry. In 1993 I was fund-raising around the country. 
In early 1994, as I best recall, the program was created in the Finance 
Division, primarily in response to the fact that I was tired of being 
out on the road and I worked for Nancy in the Finance Division and she 
wanted me to stay on board and I had expressed an interest in doing 
more constituent types of work, but almost immediately, within I would 
say 8 to 12 weeks, approximately 8 to 12 weeks, it was moved from 
Finance to a broader location within the DNC so that it truly could 
provide services to all the members of the DNC, not just people on the 
Finance staff or contributors of the DNC.
    So sometime in early 1994, maybe the spring of 1994, it was moved 
out of Finance and into the Chairman's office.
    Question.  When this move, presuming there were discussions about 
this move, who took part in discussions to move the NMS from Finance 
Division?
    Answer. Initially, I had those discussions with Nancy. Again, I 
had--she was my superior. I had an interest in not traveling as much as 
I had been traveling as a regional finance person; spoke with her. She 
said, well, I would like to keep you on board. You know, I think you 
are an asset to the organization.
    After speaking with her, because obviously we were at some point in 
time, when we were interested in--when I was interested in moving it 
out of the finance division, then we talked to the Chairman's office 
and probably the Chairman himself and certainly Martha Phipps about the 
idea of bringing the program to a broader position at the DNC.
    Question.  Who did you speak with in the Chairman's office?
    Answer. Martha Phipps, as I recall, was the initial contact. I 
really don't recall if I talked to Chairman Wilhelm about it or not or 
if Martha did. But I know a discussion was had within the Chairman's 
office about, this is a new area; where is the most appropriate place 
for it. And a decision was made that their office would be the best 
place.
    Question.  Where physically was NMS located compared to the 
Chairman's office in the DNC?
    Answer. Down the hall--the Chairman's office, his personal office, 
was at one corner of the building and there was a hallway leading to it 
and you passed a series of secretarial kinds of cubicles and at almost 
a semicircle around his office in the corner were a variety of other 
offices of people who reported to the Chairman, and I was in one of 
those offices.
    I was essentially four offices away from the Chairman's office.
    Question.  In your position at the NMS, did you type your own 
letters and memoranda?
    Answer. Occasionally.
    Question.  If----
    Answer. I did not have a secretary per se, but I--you know, there 
were--I had obviously staff, as I have mentioned previously, who worked 
for me and occasionally they would type a memo putting their name and 
my name on the memo, or my name on the memo, to someone.
    Question.  Did anyone, other than Jay Dunn, Brook Stroud or Susan 
Lavine prepare written typed materials for you?
    Answer. Not that I am aware of. You mean with my name on it, in 
other words?
    Question.  Correct.
    Answer. From me or authored by me?
    Question.  Correct.
    Answer. Not that I am aware of.
    Question.  Did you fax your own material?
    Answer. Again, often I would fax my own material. Again, I did not 
have a secretary working for me, and I tried not to have those other 
people treated as assistants to me. So I did my own faxing, typed my 
own memos, but occasionally somebody would be going to the fax machine, 
and I would say can you do me a favor, fax this. Or they would do a 
memo in my name, show it to me or verbally say, this is what we--you 
know, this is what he said. I am going to send this fax to whoever. I 
would say, that's fine.
    Question.  Did you use e-mail in your position as Director of the 
NMS?
    Answer. Internal e-mail within the DNC, I did. I actually did not 
send e-mail outside of the DNC.
    Question.  In your position in the fund-raising aspect, as Regional 
Finance Director, did you have contact with White House employees?
    Mr. Lu. You mean in his professional capacity as opposed to a 
personal capacity outside the office or something like that?
    Mr. Wilson. In his position as Regional Director.
    The Witness. Yes. As I recall, I had occasional conversations, 
frankly not too many because issues--you know, I am in a location, be 
it Miami or Philadelphia or Minneapolis doing what I am doing. The 
answer is, yes, to your question.
    Question.  Who did you speak with on the White House staff?
    Answer. Oh, I would talk to people in the Vice President's office 
because he was a principal coming to a fund-raising event and we needed 
to coordinate schedules, arrival time, the hotel logistics, movements, 
things like that. So I don't recall specifically who on his staff 4 or 
5 years ago I spoke to about that, but I would talk to that person.
    I mean, candidly, I don't recall the specific people 5 years ago 
that I talked to. I just know that there was need to have contact with 
the White House dealing with logistical aspects of the events that we 
were preparing. At the time, early at the DNC, when we had a fairly 
small staff, we didn't have an events staff as they then started to put 
into place a year or two later.
    So it was up to the fund-raisers to deal with some of the 
logistics. It also was up to the people in Washington. So very often I 
talked to Nancy Jacobson or her deputy, Hannah, or people who were back 
here in D.C. to say here are a variety of issues that we need to get 
answered in advance of the Vice President's arrival for an event.
    Can you get us answers to these? Again, I don't specifically recall 
who I talked to, which conversations I may have had with the White 
House versus which ones I had at the DNC, but they were all primarily 
logistics-related conversations, as I recall.
    Question.  In your professional capacity as Director of the NMS, 
did you have contact with White House employees?
    Answer. I did.
    Question.  And with whom would you--who would you contact at the 
White House?
    Answer. Well, that's a fairly broad question. I can--I would be 
happy to tell you offices that I had contact with. I can try to recall 
specific individuals within these offices.
    Question.  Actually, to short-circuit, I will ask you questions 
about specific individuals later.
    Answer. Okay.
    Question.  But if you could give me a broad sense of the offices 
that you would interact with.
    Answer. I probably interacted most often with the Office of 
Political Affairs, because they were the ones that were deemed to be 
the appropriate source of some of the issues that we were discussing. I 
also dealt with the White House Photo Office, the Office of 
Correspondence, the Office of Public Liaison. You know, again, in my 
professional capacity, that certainly is a good indication of the 
majority of the places that I contacted.
    I had, of course, over the years developed friendships with people 
who happened to work in the White House and, you know, may have 
occasionally called them because I knew they were a pal and, you know, 
they could help get an answer for me to something or explain something 
that was going on that I was, you know, hearing about on television. I 
would say primarily those four offices are most directly--also the 
Office of Scheduling and Advance.
    Question.  Were you the primary person in your office to either 
contact or be contacted by the White House?
    Answer. While I was the primary person, again, as I mentioned 
previously, I like to empower people and allow people to grow in their 
jobs. I wasn't looking to have a bunch of assistants with me. So 
everyone on our staff had a relationship with people at the White 
House. So not only did I call political affairs, but I know Brook also 
would call political affairs, and I know Susan would call political 
affairs and, frankly, they may have called--they had their own contacts 
as well.
    Question.  Did your colleagues have areas of particular 
responsibility or expertise that would have them interacting more or 
less constantly with anybody at the White House?
    Answer. Well, the--of all of us, the only person who had specific 
responsibilities was Susan Lavine because she was responsible for 
conducting tours of the White House on behalf of supporters, political 
supporters or what have you.
    That was primarily her sole responsibility. She may have had other 
areas where she assisted, but if a tour request came in, it went to 
Susan. If any other kind of request came in, Brook and I would figure 
out who had what on their plate, who might be too busy to handle a 
specific request. We would just kind of assign that out accordingly.
    Question.  Did you ever attend meetings at the White House?
    Answer. Yes.
    Question.  Did you attend regular--aside from meeting about a 
particular individual, did you attend regularly scheduled meetings?
    Answer. Yes.
    Question.  And what were those meetings?
    Answer. Initially, I was able to attend a daily scheduling meeting 
that occurred in the morning that was run by the President's Scheduling 
and Advance Office. But this was not a meeting where decisions were 
made as much as a meeting where the President's schedule, frankly which 
was a public schedule, was disseminated just a few extra days in 
advance. So on a Monday they might discuss that whole week's schedule 
and that meeting was attended by lots of offices within the White 
House.
    I think there were even other outside people who were not permanent 
White House staff that were able to attend this meeting to understand 
where the President might be traveling to or the kinds of big public 
events that he would be doing. In fact, there would be lots of 
discussion where the President will have private time from this and 
they would not discuss what was going on in the private times.
    So this was discussions about we are going to have a big event on 
the south lawn and a thousand people are coming for this event and then 
tomorrow the President is traveling to this location and that location. 
And I attended that--I was allowed to attend it on a regular basis. I 
did not actually travel over to the White House every day to attend the 
meeting, but a couple of times a week I would attend that meeting.
    Then there was a series of meetings in--I don't remember--I don't 
recall if it began in 1994 or early 1995, but at some point there was a 
series of regularly scheduled meetings dealing with upcoming events at 
the White House. It was a chance, again, for all the different 
departments within the White House, as well as some outside 
organizations, to come and hear about--a little less about the minutia 
of the scheduling, a little bit more about there is an event 2 weeks 
from Wednesday and there is a dinner 3 weeks from Friday, for a broad 
discussion about upcoming public events, not private scheduled events.
    Question.  Just asking a quick question about the previous 
category, you discussed the scheduling events. Were those daily 
meetings?
    Answer. As I understand, those meetings were held daily. There may 
have been days when they were cancelled, but it was known that at a 
certain time every day in a certain room, there was a meeting hosted by 
the scheduling--Office of Scheduling and Advance, primarily the 
scheduling staff, to discuss the President's upcoming immediate 
schedule in the upcoming--immediate meaning the next week.
    Question.  Who--for the immediate, who chaired the meetings?
    Answer. They were run by the scheduling staff. The Director of 
Scheduling was never in those meetings. They were run by various 
members so on a particular Monday it might have been run by one person. 
I recall Stephanie Streett, for example, would run a meeting and then 
on another day a different person might have run the meeting. Just I 
think--I don't know how their office decided who would run the meeting.
    Question.  And the second category of meetings you were describing, 
the meetings about impending events at the White House, were they 
regularly held meetings? For example, weekly or monthly?
    Answer. They would be held weekly or every couple of weeks. It was 
usually decided at the previous meeting, okay, we will next meet at. So 
in that sense, there was a scheduled time for a future meeting. It 
wasn't necessarily every Tuesday or Thursday at 3:00 or every other 
Monday. It was just agreed upon when the next time a meeting needed to 
be held.
    Question.  Were there any other recurring types of meetings that 
you attended at the White House?
    Answer. No--well, in 1994, I attended meetings in the Office of 
Correspondence, just on one special project, and that was the White 
House Christmas card project. And we did meet weekly for a period of 
maybe 3 to 4 months.
    Question.  Did you have a pass to gain access to the White House?
    Answer. I did not have a hard pass which had my picture on it, 
which allowed me into the White House.
    Question.  Did you have any type of pass?
    Answer. I did have a security clearance to allow me to present my 
driver's license to a Secret Service desk once you enter the White 
House, which would then be run through the system where I had--where I 
was on what was called an access list and they would then present me 
with essentially a temporary pass that I wore while I was in the White 
House and returned when I left the White House.
    Question.  Did you ever receive any type of background check for 
that pass?
    Answer. Yes.
    Question.  And who conducted the background check?
    Answer. As I understand, the FBI conducts that background check. I 
was interviewed by an FBI agent to get my information. I know that 
people such as former employers or people at my university were 
contacted by the FBI. I don't know if other law enforcement 
organizations were involved in that background check.
    Question.  Do you know of any other DNC employees that had--I 
shouldn't say any other because you told me you didn't have a hard 
pass, but do you know of any DNC employees that had a hard pass to get 
into the White House?
    Mr. Lu. You mean all employees at the DNC?
    Mr. Wilson. Correct.
    The Witness. I know that Susan Lavine, while she was working with 
me for a period of time, had a hard pass with her photo on it. She had 
previously worked at the White House. Candidly, I wasn't sure what the 
arrangement was, but she had it and seemed to be able to use it. I 
don't know anyone else who had a hard pass with their photo on it.

                       EXAMINATION BY MR. WILSON:

    Question.  Did Susan Lavine have a hard pass for the entire time 
you worked at the DNC?
    Answer. I don't recall. She certainly had a hard pass when she 
began at the DNC and she certainly had a hard pass at least 6 months 
into her job at the DNC, but it had to be reviewed at--I don't know if 
the White House renews their passes on some regular basis, and I am not 
certain if her hard pass was reviewed. It is not something you wear 
around the DNC. You don't keep your White House hard pass hanging 
around your neck. So I don't know at what point--she may have, she may 
not. I just don't know.
    Question.  And did you ever discuss with Susan Lavine, Lavine, 
where she had the hard pass?
    Answer. I generally recall having conversations with Susan, since 
she was conducting tours, and helping with tour aspects, you know, this 
hard pass and how great it must be to have a hard pass and be able to 
have the ability to give these tours. You know, you have to understand 
what we were trying to do in the national membership service was be 
responsive to requests, just as when I worked on Capitol Hill. 
Constituents would call and they would want a tour of the--or they 
would want a tour of the Capitol and it was nice to be able to provide 
that tour. Susan had that ability at the White House.
    So in that sense, I recall--generally recall discussing with her 
how she got the pass, and she had explained that she had worked for 
Mack McLarty, who was at one point the Chief of Staff to the President. 
She had worked in his office and had the hard pass and when she came 
over to the DNC, I did not know her prior to her arriving. I did not 
hire Susan. She came with a hard pass and I assumed she was supposed to 
have it.
    Question.  Did any of your DNC colleagues ever ask you about why 
she had such a pass?
    Answer. I don't recall if they asked me why she had such a pass.
    Question.  It is my understanding that a significant part of your 
job was handling requests made by financial contributors or donors to 
the DNC. Is that correct?
    Answer. I would not characterize it that way. I would say that a 
significant part of my job was to handle requests provided to me from 
all departments within the DNC, be it political affairs, the Office of 
State Chairs, the Communications Department, the Finance Department.
    Question.  When a request was made of you that involved an 
individual, for example, for a tour or for some type of event, did you 
have sort of a standard operating procedure for how to handle that 
request?
    Answer. Well, for tours we had a standard procedure. I would pass 
the request along to Susan and she would--you know, we had a specific 
number of tour tickets each week. Just as when I worked on Capitol 
Hill, as all Members of Congress get a small allotment of tickets they 
can provide to constituents, the DNC also got a small allotment of 
tickets that we could provide to our constituents. So if a tour request 
came in, in that sense, yes, there was some kind of a regular 
logistical practice of taking requests and moving it. For all other 
kinds of requests, it really was an issue of what is the request, how 
do we best handle the request, and there was not a specific practice.
    Question.  Did you ever do any background check or analysis of any 
individuals that were mentioned in requests?
    Answer. I did not, but part of that--part of the reason for that 
was because it really wasn't my responsibility, and I do not say that 
somehow to sound like I did not want to take responsibility. If someone 
came to me with a request, I trusted that they vetted it. If they 
thought it was so important that this person got some of our limited 
tickets to take a White House tour or attend an event that was 
occurring at the White House, they must feel that that person is 
important enough to them that they know that person well enough that 
they have done the background information they need to do that they are 
confident that they can submit it to me for me to provide that name to 
the White House or try to resolve the request.
    Mr. Lu. Mr. Sildon, when you just said someone, were you referring 
to another office in the DNC, when another office provided you with a 
name?
    The Witness. Correct. When another office, such as the Office of 
Political Affairs, had a specific request, I trusted that they did 
whatever background check needed to be done, that they vetted whatever 
information needed to be vetted and they provided it to me.
    My role in our office, in membership service, was really to be the 
office that tried to do the physical work to get things accomplished. 
We didn't--I didn't meet with contributors in long meetings and then go 
and try to arrange things for them. I did not meet with people who 
might be a State chair or a strong political supporter out in the 
country. The request came--I basically dealt with DNC staff. So they 
would come to me with requests, ``they'' meaning various DNC staff 
members. I would try to resolve that request for them, figuring they 
had done whatever appropriate background needed to be checked to 
determine that it was appropriate to submit the request to me.
    Mr. Wilson. Mr. Lu, to the extent that I ask egregiously unclear 
questions, I have never objected to people clarifying them, but you 
will have an opportunity to ask questions later and would it be 
appropriate to leave your questions for your round?
    Mr. Lu. Well, I like to think that was a clarifying question that 
actually helped the answer. Obviously, I will keep my questions to a 
minimum, but I think I am perfectly entitled to clarify the record. I 
think in this instance, actually, it actually helped.

                       EXAMINATION BY MR. WILSON:

    Question.  Do you recall whether there were any instances where you 
did express concern over a particular request made of you and called 
somebody back to ask questions of them about an individual involved in 
a request?
    Mr. Best. You are asking him about where he had a concern about an 
individual or about the particular kind of request?
    Mr. Wilson. About the individual.
    The Witness. Could you repeat the question?

                       EXAMINATION BY MR. WILSON:

    Question.  Were there any instances where a request was made of you 
for something and it involved an individual and you were--had concerns 
or wanted some clarifying information about the individual? I am not 
asking about what their Social Security was or for a White House tour 
or something, but any type of substantive concern about the individual, 
whether you, yourself, wanted to pass that individual along down the 
food chain.
    Answer. Not that I recall on specific requests.
    Again, many of these people I did not even know who they were. 
Their names were provided to me by a department within the DNC and as I 
previously stated, I trusted that that department did whatever vetting 
they needed to do so that they were comfortable to provide the name to 
me.
    As I said, I knew very few of these people and, therefore, would 
not have had any concerns about any of these people. They were just 
another name to me.
    Question.  Was there a system within your office to keep track of 
requests made of National Membership Services?
    Answer. Initially, we had--we, being Jay Dunn and I, when Jay was 
the deputy, we set up kind of a spreadsheet where we tried to list 
individuals' names and what we might have been able to help them 
accomplish, just to--I did not want to get the same person on a White 
House tour eight different times for all of their friends.
    At some point, you say, look, on November 22nd and sometime in 
December and sometime in January we have gotten you tours. I am just 
not going to help you this month. That was the only time that we 
actually had some kind of tracking system like that.
    Examination by the time the program moved over to the chairman's 
office, as I indicated, which was only a few months after the start of 
the program, the process of tracking really was that we simply tried to 
keep files with contributors' names on it, just so we didn't throw out 
the paper and we knew who we had previously helped on certain projects.
    Mr. Best. You indicated, in answer to Mr. Wilson's question, that 
you kept files on contributors. Did you only keep files on 
contributors?
    The Witness. Actually, no. We kept files on any individual that we 
tried to help with a request. Really, any request that came to me, 
regardless of what department it came from, I would simply start 
another file in the drawer so we had a reference of maybe a letter that 
they had sent or a thank you note or, you know, background information.

                       EXAMINATION BY MR. WILSON:

    Question.  Was there a standard method of making requests of your 
office? Did people use a form or did you require people to submit 
something to you?
    Answer. I required DNC staff--``required'' is a strong word. I 
asked DNC staff to try to fill out a form that we had created that 
basically provided the supporter's name and address and a phone number 
and a fax number, in case we ever needed to deal directly with them. 
And there were occasions when I did deal directly with these people 
either to get follow-up information or to, you know, get a piece of 
information back to them.
    And so I asked staff to try to provide me with all the kind of 
logistical background.
    Question.  Did you provide these forms to the other offices of the 
DNC?
    Answer. We created a general form and kept it in the office. If you 
want a White House tour, there is a tour form to fill out, the date you 
would like the tour and all available dates and is there a local phone 
number. I believe we had a form for general requests, you know, nature 
of the request, background, information that we would need to know, 
again, you know, pertinent logistic kinds of information; name and 
address information.
    Question.  Were these hard copy forms, forms on paper that you 
would actually distribute to the offices?
    Answer. Uh-huh.
    Mr. Best. You have to answer, yes, to that. You went ``uh-huh.'' 
You two have begun a discussion rather than a question and answer.
    The Witness. I am sorry. Okay. Yes, there were forms on paper. 
Initially, late in my tenure with the program, I tried to create a form 
on the internal e-mail so that anybody could log into the database and 
get the form and type it at their desk and not have to come down to my 
office and fill out a form.
    It was not used very widely among DNC staff.

                       EXAMINATION BY MR. WILSON:

    Question.  Were the hard copy paper forms used fairly widely?
    Answer. We asked them to. There were people who just--they were too 
busy to fill out the paper. But, yes, we asked them to fill--I would 
say a majority of the time, a request came with some kind of paper 
documentation.
    Question.  And if there was no paper request, how would they make 
the request?
    Answer. They might stop by my office. They might--again, I shared 
an office with Susan and Brook, so they might poke their head in the 
office and talk to one of my colleagues, who might verbally pass it on 
to me or they might stop in the office and deal directly with Susan, 
because people at the DNC knew that she was conducting the tours and 
handling the kind of hospitality aspect.
    Mr. Wilson. I am showing the witness a document, which is--it is a 
copy of a check with information about a contributor underneath.

                       EXAMINATION BY MR. WILSON:

    Question.  And there is a notation on the side that says, ``in,'' 
and I think it is ``AS-400.'' And I am wondering, what is--what does 
the AS-400 refer to on this form?
    Answer. First of all, I want to be clear, this is not my document 
or my form. Since we just had a discussion about forms, I want to make 
sure that--this is not a form that I have ever seen before.
    But to answer your question, AS-400 was the internal DNC database. 
That was the name of the complete database, but not everyone at the DNC 
had access to every aspect of the DNC database. You had to have a 
password and so, for example, people in--in Political Affairs, I don't 
believe, could just get on to AS-400 and get access on a contributor's 
background information.
    Mr. Best. Let me also state that this document that you have shown 
the witness bears dates on it in 1996, a period well after his 
termination, his conclusion of his service at the DNC.

                       EXAMINATION BY MR. WILSON:

    Question.  Did your office have access to the AS-400 system?
    Answer. Generally, our office had access to the AS-400 system. I 
never--first of all, I didn't have a password. Once I left the Finance 
Division in early 1994, I did not have a password and I actually did 
not use the AS-400 system for probably the last year and a half of my 
employment at the DNC.
    We had access to AS-400 and my staff may have used it because, 
again, that was the complete database. If you just needed to get a name 
and address for, you know, a political supporter from back in the 
Midwest from 5 years ago, that's where you would find their name and 
address. And as I understand the AS-400 was also used by, for example, 
the direct marketing people, who were receiving thousands of 
correspondence from around the country.
    Question.  Was a password required to access it?
    Answer. You had to have a password to get on to AS-400. As I 
understand, that password only gave you access to certain accounts. As 
I recall, that's how it worked. So certain staffs had access to certain 
information. Other staffs to other information.
    Question.  Did you regularly--and when I say regularly, I am not 
asking if you called somebody up and said, could you give me some 
information on so and so--but did you regularly receive material that 
was produced by the AS-400 system?
    Answer. I never received information that was produced by the AS-
400 system, other than perhaps trying to track down a name or address. 
But I never ever received any kind of printed information from AS-400. 
There were not regular reports, at least that I saw. There aren't 
regular reports.
    Question.  Are you referring now to your time as Director at NMS?
    Answer. Correct.
    Question.  Did you receive AS-400 material when you were in your 
position as Regional Finance Director?
    Answer. Yes.
    Mr. Best. When you say AS-400 material, you mean computerized data 
derived from the AS-400?
    Mr. Wilson. Correct.
    The Witness. The AS-400, like any spreadsheet--like any data 
system, can provide information in any manner you want it provided. So, 
for example, when I was on my way to Miami, Florida, to run a fund-
raiser, I would want to get the list of names of past DNC supporters 
who lived in Florida or lived in the region.
    So in that sense, I could go into AS-400 and call up everyone in 
the State of Florida who had supported the DNC since year X, whatever X 
is, and I could get a printout of those names or names and addresses or 
just phone numbers, just like any kind of data search.
    But, again, that was while I was part of the Finance Committee, 
doing fund-raising in specific cities.
    When I stopped--when my role as a fund-raiser ended, and I became 
Director of National Membership Services, I did not have an account at 
AS-400, with AS-400, because I didn't need it. It wasn't part of my 
role to get any kind of background. It was up to the staff to give me 
name and address and I didn't need any other background information.
    Mr. Lu. Counsel, could I interpret, whenever we reach a good 
stopping point, can we take a break?
    Mr. Wilson. Absolutely.
    The Witness. At some point, I would like to take a break, if you 
think there is a natural break point, I would appreciate that.
    Mr. Wilson. If we can go off the record now, that would be 
acceptable.
    [Recess.]
    Mr. Wilson. Are we ready to go back on the record?
    Mr. Lu. Absolutely.

                       EXAMINATION BY MR. WILSON:

    Question.  In your--when you were Director of NMS, did you receive 
contribution records of individual donors?
    Answer. No.
    Question.  Generally, were there limited spaces available for tours 
or other types of visits to administration buildings that you would 
arrange for people to go on?
    Mr. Best. I am not sure I understand.
    Mr. Lu. I am not sure I understand that. Do you mean the public 
tours? And I am also not sure what you mean by administration building.

                       EXAMINATION BY MR. WILSON:

    Question.  Administration building, buildings such as the Holocaust 
Museum or the White House or Old Executive Office Building, if people 
requested to have a tour of those types of things, was there generally 
limited availability for those types of tours?
    Answer. There were a specific limited number of tickets that we 
were allowed to have for tours to the White House, the same ``VIP,'' in 
quotes, tours at the same times that Members of Congress, Republicans 
and Democratics, also had access to; 8:15, 8:30, 8:45 in the morning. 
There were a limited number of tour tickets for that. There were not--
we did not have any kind of regular allotment of tour tickets for any 
other site in the city.
    Question.  Who set the number for the tickets that you were 
provided access to?
    Answer. Someone in----
    Mr. Best. You are talking about the tours now?
    Mr. Wilson. Correct.
    The Witness. Are you talking about tours for the White House?

                       EXAMINATION BY MR. WILSON:

    Question.  Yes.
    Answer. Somebody in the White House visitors' office.
    Question.  How would you prioritize among multiple applicants? Do 
you have more requests for a particular tour than you had tickets 
available?
    Answer. Yes.
    Question.  How would you determine between the requests?
    Answer. Very often it was first-come, first-served, just as it used 
to be when I worked on Capitol Hill. Occasionally, we would maybe have 
a few remaining tickets left, you know, two or four of our allotment 
left and we would have on the same day a request for 10 different 
tickets and then we would try to figure out who should get those 
tickets. But there was no particular way that we qualified who got 
those tickets.
    Maybe somebody had tried a month before and didn't get them so we 
would provide them to that particular person the next time around. Or 
somebody who was traveling all the way from California and they were 
only going to be here for one day and that was the only day they could 
go and we happened to have two tickets for that day. So primarily it 
was first-come, first-served, though.
    Question.  Was the size of a financial contribution ever used to 
help make the determination?
    Answer. Well, again I did not have access to the financial records 
and I think there were times when we knew that based on, you know, 
someone saying, look, I really would like to help this person get a 
tour, you know, they are--you know, they are strong supporters of the 
party, but I never knew specific dollar amounts, who gave what. Very 
often I wouldn't find that information out until I read it in the paper 
when the Post would do their quarterly list of contributors.
    Question.  When people used the request form that you provided to 
the various offices for making requests for tours, or whatever else the 
request forms were used for, was there a system for people to indicate 
how much they wanted you to be able to respond affirmatively?
    Answer. Well, I provided a space for--I don't recall specifically 
what I called it, but, you know, additional information or background 
or something--whatever they wrote, they wrote. But I did not have a 
specific language that asked for a contribution level and, again, I 
want to remind you I was taking care of--or trying to help all 
departments within the DNC. So contributions were not the sole focus on 
what I was looking at.
    I also would like to maybe state the obvious, which is while 
finance may have thought that their group of constituents was the most 
important, so did political and so did the Communications Department. 
Political didn't care how much money someone gave. They were more 
interested in the person who went out and put door hangers on 10,000 
houses. To them that was important. So it did not matter to me how much 
money someone gave. I was just trying to be responsive to all the 
different staff people at the DNC who were trying to be responsive to 
all of their constituent bases around the country within their 
divisions.
    Question.  Did you ever receive instructions or any type of 
indication from the White House that somebody should be given priority 
to receive a particular type of--to be helped by your office?
    Answer. Absolutely not.
    Question.  Did you ever have access to any computer databases of 
names of individuals generated by the DNC?
    Answer. Well, as we talked about before, the AS-400 system was the 
database collection and repository for the whole DNC.
    Question.  I am asking you--you have indicated you didn't have a 
password. Was there any other type of database or repository that you 
used that gave you names of individuals?
    Answer. Not that I recall.
    Question.  What do the terms ``trustee''--and these are terms of 
art ``trustee'' and ``managing trustee'' mean?
    Answer. Those were donor councils at the DNC.
    Question.  Specifically, do you recall what trustee category--what 
was required to be in the trustee category?
    Answer. I don't recall because their requirements changed over the 
course of the years and, again, that wasn't relevant to my 
responsibilities.
    Question.  Do you recall what was required to be part of the 
managing trustee category?
    Answer. Again, as I just stated, A, I was not a member of the 
Finance Division beyond 1993, and B, the amounts that were requested of 
members--or requested of supporters to become members of these donor 
councils was changing.
    Question.  Did you ever arrange for meetings between individuals 
who were referred to your office and White House staff?
    Answer. I generally recall trying to make a connection between two 
people. I don't specifically recall who in the White House I might have 
asked to meet with someone, but, again, that would have only been 
because a DNC staffer would have come to me and said, I really need 
person X or can you help me get person X to meet with staff person X.
    Mr. Lu. Counsel, I am not sure if your question is looking at the--
are we now focused strictly on the national membership's time as 
opposed to a specific fund-raiser?
    Mr. Wilson. I am actually wanting to focus at this point on the 
National Membership Services.
    Mr. Best. His answer seems to be with regard to meetings with 
regard to DNC staff personnel and White House personnel. You used the 
word ``individuals'' and I am not sure what you meant by that.
    Mr. Wilson. Right. And I will re-ask the question for clarity's 
sake.
    Question.  Did you ever receive names of non-DNC employees for 
suggested meetings with White House staff?
    Answer. I don't specifically recall that occurring. It certainly 
may have, and if someone knew that perhaps I knew someone at the White 
House, a staff person might have got in touch with me on behalf of one 
of their constituents, again, be it the political division or the 
communications division.
    Question.  Do you recall whether the request forms that you 
circulated to the offices were ever used to make a request of your 
office that you facilitate or set up a meeting between a non-DNC 
employee and somebody in the White House?
    Answer. It's possible. I don't specifically recall, but it 
certainly is possible.
    Question.  Do you recall whether there was anyone at the DNC who 
was in charge of facilitating meetings between non-DNC employees and 
administration officials?
    Mr. Best. Now we are going from meetings at the White House?
    Mr. Wilson. I am asking again about the NMS staff.
    Mr. Best. You have now enlarged it from White House staff to 
administration officials?
    Mr. Wilson. Correct. Correct.
    The Witness. There were times when I was responsible for that. 
There also were a lot of people at the DNC who had relationships around 
town. They had worked with these people during campaigns or they knew 
them socially and also formed a professional relationship where they 
would just call them directly. So there were certainly times when I 
would make phone calls out into the administration. And as I previously 
indicated, it is certainly possible that I made phone calls to staff 
people at the White House on behalf of the DNC constituents who, as I 
indicated, could be from political or any other department, the 
chairman's office.
    But that doesn't mean that I exclusively, I, meaning I or my staff, 
exclusively were the ones who made such contacts because there were all 
kinds of people out there who had their own relationships.

                       EXAMINATION BY MR. WILSON:

    Question.  Well, avoiding personal contacts where somebody might 
call a friend and attempt to get something done, was your office the 
office that people would turn to if they wanted to suggest that a non-
DNC employee meet with a White House or an administration employee?
    Answer. Even making the void which you just made, there is nothing 
which prohibited some, you know--not that--not that a staff person is a 
lone ranger, but nothing to prohibit some staff person from picking up 
the phone and calling an office around the administration. So while 
sometimes staff would come to me and help me to ask with an initial 
phone call, for all I know they were making their own phone calls and 
calling out to the administration themselves, or the White House to a 
staff person themselves.
    Question.  Understood. I am just trying to get a sense of whether 
that was one of the purposes or functions of the request forms that you 
circulated to other offices, was to be used for that type of purpose, 
if somebody wanted to use it for any purpose.
    Answer. I believe this will help answer the question. That request 
form was a catchall request form. If you have either seen it or will 
see it, it is a very vague, general form that asks for people's names 
and addresses and phone numbers and nature of the request. And so it 
could be for anything, and we got requests for anything: Can you 
recommend a good golf course? I am coming to Washington. Somebody would 
write it on paper and give it to me and I would have to respond to it.
    You know, or my kids are coming to town, what are fun things to do 
with kids for 3 days in Washington? Or it certainly is possible that 
the form could be used for anything, including interest in having a 
meeting or getting a tour or the kinds of things that we were talking 
about.
    Question.  Did you ever have discussions with DNC colleagues while 
you were director of the NMS about using White House, for want of a 
better term, perks as a means of raising financial contributions?
    Mr. Lu. I am not sure I understand the term ``White House perks.'' 
I mean, if the witness understands that term.
    Mr. Best. I have less problem with that aspect of your question 
than the portion that deals with raising money. I am not sure if you 
are saying that you--the use of this, that it should be linked to the 
availability of a tour of the White House.
    Mr. Wilson. Or just using the carrot of a visit to the White House 
or a night in the Lincoln bedroom or a visit to a particular event as a 
means of stimulating people to contribute money.
    Mr. Best. And the question is: Have you ever had conversations of 
that nature?
    The Witness. Well, I don't recall having such conversations. Again, 
I was not concerned about the fund-raising aspects exclusively. I was 
trying to be helpful to all of our constituents and figure out ways 
that we could be responsive to all of our constituents. So I don't 
recall having conversations.

                       EXAMINATION BY MR. WILSON:

    Question.  Understood that you weren't concerned about fund-raising 
exclusively, but to the extent that you were concerned about fund-
raising, did you have discussions with how--and again this is in the 
time that you were director of NMS--White House benefits, benefits 
being access to the White House or any other type of--you know, that 
somebody might not have public access to but might like to have access 
to, how they might be used to stimulate people to contribute money?
    Mr. Best. I am sure that the witness has testified that he had a 
concern about fund-raising, which was one of the predicates of your 
question that you just formed. I believe his testimony has to do with 
providing service to the finance department, as well as the other 
departments and offices at the DNC.
    But to the extent that you can answer his question, you may do so. 
Perhaps the best thing is to maybe reformulate it.
    Mr. Wilson. Just to clarify, Mr. Sildon indicated that he wasn't 
exclusively concerned about something, and I interpret that to mean 
that, therefore, there was some concern, given that it wasn't 
exclusive, there was some small concern.
    The Witness. Perhaps I choose--this was a matter of semantics. I 
probably should have said specifically concerned about fund-raising as 
opposed to exclusively. Again, I trusted that the people who worked at 
the DNC in the finance division were doing their job to raise whatever 
money they needed to raise. My responsibility was not necessarily one 
of making sure that they were meeting their financial targets.
    Mine was a responsibility of being responsive to that department, 
as well as the chairman's office, and political, and the Office of 
State Chairs, and anyone else at the DNC that might seek some kind of 
assistance for them to all better do their jobs.
    And so maybe exclusively was the wrong word. I guess I should say I 
wasn't specifically aware of the financial implications and how it 
might help a division, because that wasn't my specific charge as 
Director of National Membership Services.

                       EXAMINATION BY MR. WILSON:

    Question.  Did you ever make any suggestions to any of your--of DNC 
colleagues, either in NMS or in other divisions, as to how you might 
use to better advantage for fund-raising purposes access to the White 
House or other similar and for want of a better word I will use perks?
    Mr. Lu. I am sorry. Could you read that question back.
    [The reporter read back as requested.]
    The Witness. Again, it was not my responsibility to be--I was 
trying to be responsive.
    Mr. Best. No. He asked you if you had conversations. You are 
explaining why you didn't have conversations but you never say whether 
or not you had such conversations.
    The Witness. Thank you. And, no, I have not--I don't recall having 
such conversations.

                       EXAMINATION BY MR. WILSON:

    Question.  Do you know if the White House mess was ever used to 
entertain supporters, DNC supporters?
    Answer. I don't know. I didn't have mess privileges.
    Question.  Did you ever facilitate individuals--any individual's 
use of the White House mess?
    Answer. Not that I recall.
    Question.  Do you know if anybody in your office helped people to 
go over and eat at the White House mess?
    Answer. Again, I don't recall.
    Question.  Did you ever send any names of people to be considered 
as White House overnight guests, send to the White House such names?
    Answer. No.
    Question.  Did you ever receive requests--a request from anybody at 
the DNC about having somebody spend the night at the White House?
    Answer. I am sorry. Can you repeat the question?
    Question.  Did you ever receive a request from anybody at the DNC 
about helping somebody to go and spend the night at the White House?
    Answer. Again, I don't recall that.
    Question.  Do you recall whether you ever received a request from a 
non-DNC person to help them to spend the night at the White House?
    Answer. No.
    Question.  Do you know how somebody who is interested in spending 
the night at the White House might go about getting an invitation to 
spend the night at the White House?
    Answer. I don't.
    Question.  Did anyone ever discuss with you whether the President 
was interested in having people stay at the White House?
    Answer. No. I don't believe I ever had such a conversation.
    Question.  Do you know if places were reserved on either Air Force 
One or Air Force Two for DNC supporters?
    Answer. I am not aware of spots being reserved.
    Question.  Did you ever have any discussions with DNC colleagues as 
to whether it was a good idea to have Air Force One or Air Force Two 
places reserved for DNC supporters?
    Answer. Actually, I should tell you that in 1993 I was told 
specifically by--well, I remember this information being discussed. I 
don't recall who I talked to about it, but we were told--I was told 
that DNC supporters were not going to be able to be on Air Force One, 
and I never thought twice about it again.
    It was someone at the White House, I believe maybe in political 
affairs. The discussion came up while I was fund-raising for an event 
in Miami, one of the first events. The President was going to fly down. 
There were discussions about, well, the Republicans used to have people 
fly up to Washington and get on Air Force One with the President and 
travel with him to event sites, and there were all these people in 
Florida who knew that that occurred, and they wanted to go to 
Washington to get on Air Force One or actually in this case to get on 
the Vice President's plane and fly down with the Vice President so they 
could get off the plane with the Vice President and walk down the steps 
with the Vice President in their hometown.
    And I was specifically told, though I don't recall by whom at the 
White House, I was specifically told by the Office of Political Affairs 
that will not happen. And don't ask. And I never asked again, ever.
    Question.  And to the best of your recollection, was this--did this 
take place when you were regional finance director?
    Answer. Did what take place?
    Question.  The conversation or communication that you have just 
alluded to.
    Answer. Yes, that was while I was in the finance division trying to 
deal with logistics of a particular event.
    Question.  Do you know if places were reserved at White House 
private dinners for financial contributors to the DNC?
    Answer. I know that the----
    Mr. Best. He is asking about financial contributors. Listen to the 
question.
    The Witness. I appreciate that.
    Mr. Best. Okay.
    The Witness. There were no spots ever reserved for DNC people, 
period. There would be times when the White House might say, we are 
having a dinner and if there are people that you think are important to 
attend the dinner, you might provide us with a few names. But there was 
no guarantee that the names that we sent over would get into the 
dinner.
    There were no specific slots assigned; gee, we have got X number of 
slots which you can fill. And certainly, those people, if we did send 
over names, weren't necessarily finance contributors. The White House 
would say, if you want to send over a few names, you can send over a 
few names. They might all be from the chairman's office or they might 
all be political supporters. And there is no guarantee that any of them 
got in. And, in fact, frankly a lot of times our names weren't put into 
events.

                       EXAMINATION BY MR. WILSON:

    Question.  Are you aware of this from your time as director of the 
NMS?
    Answer. Correct.
    Question.  And did you sometimes receive phone calls like the one 
you have just described or communications like the ones you have just 
described?
    Answer. We had previously discussed meetings that occurred about 
events at the White House. During those meetings, they would indicate, 
there is a dinner in 3 weeks and there is a large event on the South 
Lawn in 6 weeks and if you want to submit some names, we will consider 
them among the many names that we are considering for an event.
    So while I was--those conversations occurred while I was director 
of the program, attending those meetings.
    Question.  While you were director at NMS, did you ever receive a 
request from the White House to provide names of certain categories of 
financial contributors for one of these types of events?
    Answer. I am sorry. I need you to repeat the specific question 
again.
    Question.  I will ask the reporter to help me out.
    The Witness. No.
    Mr. Best. What do you mean by specific categories?

                       EXAMINATION BY MR. WILSON:

    Question.  Did you ever get a phone call where somebody might have 
said something like, we are having a dinner, can you send over some 
names of managing trustees?
    Answer. No.
    Question.  And going from that, that is a specific question going 
to a very general question. Do you recall any instance where the White 
House mentioned that there would be an event of any sort and they were 
interested in having names that would be delineated by amount of 
contribution or amount of support to the DNC?
    Mr. Lu. I am going to object to that question. I think Mr. Sildon 
has already testified repeatedly that the services were not distributed 
based on financial contributions. In fact, he never even had access to 
that information. So if he wants to answer the question, he can.
    Mr. Wilson. That wasn't my question. That wasn't even implicit in 
my question.
    Mr. Lu. You are asking him whether the White House called asking 
for names of people based on contributions.
    Mr. Wilson. Correct.
    Mr. Lu. What I am saying is that Mr. Sildon has already testified 
he never had access to financial information about the supporters.
    Mr. Wilson. That wouldn't prevent the question being asked of him.
    Mr. Lu. I will object to the question.
    Mr. Wilson. That wouldn't prevent the question being asked of him 
at all.
    Mr. Lu. I think we have gone through this.
    The Witness. I will----
    Mr. Best. Let them finish.
    Are you finished?
    Mr. Wilson. Yes.
    The Witness. My answer is no.

                       EXAMINATION BY MR. WILSON:

    Question.  Did you ever discuss requests made on behalf of 
individuals for the individual being put on a board or a commission?
    Answer. Well, I generally recall discussions about boards and 
commissions, but I don't remember if that was just hearing 
conversations or somebody specifically asked me. But I didn't handle 
boards and commissions.
    Question.  Do you know who at the DNC might have been more directly 
involved in handling requests of that nature?
    Answer. I don't.
    Question.  Did the DNC ever use the President's box at the Kennedy 
Center?
    Answer. Yes.
    Question.  Just by way of background, because I literally don't 
know this, how often did the President or does the President have 
access to events at the Kennedy Center?
    Answer. I don't know, because I don't work for the President--I 
didn't work for the President.
    Question.  Have you ever had conversations with people who do work 
with the President where they have indicated to you that the President 
has access to the Kennedy Center?
    Answer. I don't recall those conversations.
    Question.  You mentioned the DNC did use the President's box at the 
Kennedy Center. For what purpose?
    Answer. To allow supporters to watch events that were occurring at 
the Kennedy Center.
    Question.  How frequently did that occur?
    Answer. How frequently did what occur?
    Question.  DNC supporters using the President's box?
    Answer. Maybe a couple of times a month. You know, there were--
there were three halls at the Kennedy Center so I would say a couple of 
times a month total amongst all three halls, matinee and evening and 
weekend performances.
    Question.  That actually goes to my earlier question. Again, I 
don't know what the background is, but is it your understanding that 
the President has space reserved for all performances in all venues 
within the Kennedy Center?
    Answer. Well, your previous question was, how often does the 
President have access to these. And I answered, I don't know how often 
President Bill Clinton had access to his box. If you are asking about 
the President's box, I mean, it is his box. They don't rent that out to 
other people. They don't sell that to the public. That's a privately 
reserved box, just as any corporation, I assume, can lease a box at the 
Kennedy Center.
    So he, therefore--I don't know about him and that's why I answered 
your previous question as I did. If you are asking about other things, 
if you want to restate the question, I would be happy to try and answer 
it.
    Question.  That gives me all the background I need.
    Who, within the White House, was in charge of access to the 
President's box?
    Answer. A woman named Debi Schiff was the person to whom I believe 
the Kennedy Center sent the tickets.
    Question.  Did she ever contact you offering you use of tickets----
    Answer. Yes.
    Question [continuing]. For events?
    Answer. Yes.
    Question.  Did you ever contact her asking for tickets for specific 
events or specific nights?
    Answer. Yes.
    Question.  How often would you do that?
    Answer. Well, I certainly probably contacted her a few more times 
than she was able to help out. There appeared to be many people, 
including White House staff and administration staff, who also put in 
requests to get--sit in these seats, and so I don't recall specifically 
how many times I contacted her. It wasn't a significant number, but it 
was an occasional number. Someone was in from out of town.
    Question.  Did you send out formal invitations to the people for 
whom you were helping to get tickets to the Kennedy Center?
    Mr. Best. What is a formal invitation as compared to just a regular 
invitation?
    Mr. Wilson. Actually, I will rephrase that.

                       EXAMINATION BY MR. WILSON:

    Question.  Did you send out invitations of any sort to people, 
written, in advance invitations?
    Answer. Not that I recall. And very often we did not get these 
tickets until the very last moment. You know, a phone call at 4:00 for 
a 7:00 performance. And oftentimes we were called to say if a staff 
person wanted to go, is there someone over there who would like to go? 
We have two tickets for tonight that aren't going to be used.
    Question.  Do you recall whether there was a special arrangement 
between the White House and the DNC for access to Presidential tickets 
on any particular night of the week?
    Answer. We are still referring to the Kennedy Center?
    Question.  Yes.
    Answer. Again, not that I recall. I mean, I don't think the Kennedy 
Center had a regular schedule so that we could have automatically had, 
you know, every Saturday matinee, for example, because they might not 
have a Saturday matinee.
    Mr. Wilson. I would just like to provide Mr. Sildon with a 
document. It is a memorandum to Eric Sildon from Jay Dunn dated 
September 2, 1993.

                       EXAMINATION BY MR. WILSON:

    Question.  It is my understanding that this is--was a memo that you 
had received when you were regional finance director in the finance 
department. Am I correct on that time frame?
    Answer. That--the time frame would look right, that's correct.
    Question.  And the bit I direct your attention to is the first 
sentence on the second bullet point, which reads, we have the box every 
Thursday evening for performances at the Kennedy Center.
    Is this an accurate statement?
    Mr. Best. Is what accurate? Did he get the memo or was Dunn correct 
when he made that statement?
    Mr. Wilson. Correct.

                       EXAMINATION BY MR. WILSON:

    Question.  Was Dunn correct when he made this statement?
    Answer. I have no reason to think that Jay would have written that 
to me if that wasn't the case, but it doesn't refresh my memory.
    Question.  Do you recall receiving this memorandum?
    Answer. I don't recall receiving it, but I am--no, I don't recall 
receiving this memo.
    Question.  Do you recall any conversations that you participated in 
wherein it was discussed having regular access to a box on a particular 
night of the week at the Kennedy Center?
    Mr. Best. We are now referring to the period in 1993, when he was 
regional----
    Mr. Wilson. To any time at all during employment at the DNC.
    The Witness. About a specific evening?

                       EXAMINATION BY MR. WILSON:

    Question.  Right.
    Answer. Again, I don't recall such conversations.
    Question.  Did you ever receive any requests from Mark Middleton 
expressing an interest in having financial contributors to the DNC use 
the President's Kennedy Center box?
    Mr. Lu. Again, we are talking about this time in September of 1993 
or at the time that he was in National Membership Services?
    Mr. Wilson. If you could read the question, I believe I asked ``did 
you ever.'' So my question is, did you ever.
    If I could ask the reporter to read the question back.
    Mr. Best. We will assume that's what you asked in terms of 
responding.
    The Witness. I don't recall having such conversations with Mark.

                       EXAMINATION BY MR. WILSON:

    Question.  Do you recall any conversations where Mr. Middleton 
requested that you help him obtain Kennedy Center Presidential box 
tickets?
    Answer. Well, I don't recall such conversations and I--not to 
belabor this point, but Mark worked at the White House in the chief of 
staff's office. I don't know why Mark would call me to get tickets that 
were at the White House. First of all, we didn't get tickets very 
often, as I have previously stated; just a couple of times a month. So 
I don't see any logic to why he would have contacted me to get 
something that, frankly, his place of work controlled.
    Question.  Do you know who invited DNC supporters to Presidential 
radio addresses?
    Answer. No.
    Question.  Did your office ever invite individuals to attend 
Presidential radio addresses?
    Answer. Well, I need to clarify for just a minute. We never invited 
anyone. If somebody came to us and said--if a DNC staff person came to 
me and said, there is somebody I would like to try to get into a radio 
address, I just as a matter of form had a memo to a staff person at the 
White House that I just would change the person's name and send it over 
with their date of birth and social security asking the White House to 
consider inviting them. It didn't mean that the White House necessarily 
did it. I couldn't issue the invitation because I didn't have a regular 
slot to put people into a radio address.
    Question.  Do you recall who your form memorandum would be 
addressed to?
    Answer. Well, there were a couple of different people, I believe, 
who were working that department. David Levy was the person who most 
often, I believe, I sent the memos to. But David wasn't there the 
entire time. I don't think he was in that role initially, and there may 
be others as well. But I do recall David Levy.
    Question.  Do you know what people were instructed to do if they 
were to attend a radio address? I am asking for mechanics here, where 
they would go, who they would report to, what they would have to do to 
actually listen in to the address?
    Answer. I am not sure how this is relevant to my job at the DNC.
    Question.  No, I am just asking you whether you do know, to the 
extent you might have forwarded requests along to help facilitate 
somebody attending a radio address. Do you know what they had to do 
when they actually attended?
    Answer. I generally know what they had to do.
    Question.  And in a general sense, what was required of them?
    Answer. They would go to a previously designated gate, White House 
gate, as determined by White House staff, where they would present 
identification. I am guessing there was some kind of list but I don't 
know that for certain.
    They would then be directed towards the--towards the West Wing 
lobby, I assume, and then somebody from the West Wing lobby would take 
them from there to wherever they needed to go, wherever the radio 
address was occurring.
    Question.  Do you know where the radio addresses were broadcast 
from?
    Answer. I understand the location of the radio address has changed 
based on a variety of circumstances.
    Question.  Do you know whether the President held any regular 
lunches for CEOs or for businesses?
    Answer. I very vaguely recall hearing about--well, perhaps I more 
generally recall hearing about--that there was some kind of gathering 
for CEO lunches. Frankly, that rings a bell.
    Question.  Do you know if DNC supporters were invited to any of 
these lunches?
    Answer. Well, again I just--I kind of generally remember that these 
lunches were occurring, but I don't think I have enough recollection 
about the lunch to be able to specifically answer a question like that.
    Mr. Best. Was it something that you did in your position in 
Membership Services?
    The Witness. I really don't recall. It wasn't something that I did 
regularly. Like if you asked me, did we handle White House tours, I 
could tell you yes because we did it every week. I don't recall any 
kind of regular lunch or that I was responsible for placing people in 
any kind of lunch like that. But I will say that it does sound familiar 
that such a lunch may have occurred, but I don't know if it was on a 
regular basis or who attended. But I do recall that there--generally 
recall.

                       EXAMINATION BY MR. WILSON:

    Question.  Do you know if any spaces at these types of lunches were 
set aside for DNC supporters?
    Answer. I don't. I don't know that.
    Question.  Did you ever----
    Mr. Best. You used the term ``supporter'' and you have used it 
before, and I take it you mean a fund--in a fund-raising capacity. 
Because the term ``supporter'' is a more generic term in the political 
business. I understand to include as a supporter someone who goes out 
and does political outreach is a supporter. So that I am a little--I am 
a little concerned that what you mean by the term ``supporter'' when 
you use it.
    Mr. Wilson. Well, what I do mean is that a financial contributor 
would be a subset of the term ``supporter'' and the term ``supporter'' 
is a very wide universe of people who could be volunteer workers or 
columnists who write articles favorably. It could encompass many 
different things. If there was indication, I would probably attempt to 
go and be a little more definite. I ask these across the board. If I am 
asking these questions and there is just a straight no, then that 
enables me to move on.
    The Witness. Great.
    Mr. Wilson. And I will attempt not to belabor points that are just 
completely unknown to you.
    Mr. Best. That's helpful. Thank you.

                       EXAMINATION BY MR. WILSON:

    Question.  Do you know, did you ever help to arrange for meetings 
with the Vice President? Having just come down from this supporter 
dialogue, any type of individual that would be referred to you as 
somebody, I would like you to help this individual to get a meeting 
with the Vice President, who is a supporter?
    Mr. Lu. I think he has already testified in his capacity as a fund-
raiser that he arranged events for the Vice President. I assume you are 
talking about in his second role at the DNC.
    Mr. Wilson. Well, my understanding is that if somebody arranged 
events for the Vice President that doesn't necessarily mean that he is 
helping an individual get a meeting with the Vice President.
    Mr. Lu. Well, I don't know if we have established it or not, but 
what Mr. Sildon testified to----
    Mr. Wilson. So I asked a very different question.
    The Witness. Why don't you tell me if--are you asking in my role--I 
am sorry. But we just keep jumping back and forth between my fund-
raising responsibilities in 1993 and my service and constituent 
responsibilities in '94 and '95.

                       EXAMINATION BY MR. WILSON:

    Question.  It makes it difficult.
    Answer. Yes, it does make it difficult.
    Question.  I will ask one and then I will ask the other.
    Answer. Okay.
    Question.  In your role as regional finance director, did you ever 
set up meetings between an individual and the Vice President or help to 
set up meetings?
    Answer. One-on-one meetings?
    Question.  Yes.
    Answer. Not that I recall.
    Question.  Did you ever set up small group meetings between 
individuals and the Vice President?
    Answer. In advance of a fund-raising event, there might be a small 
gathering of 20 people in a room to greet the Vice President when he 
arrives at a hotel to shake his hand.
    Question.  In your capacity as director of the NMS, did you ever 
attempt to facilitate one-on-one meetings with the Vice President?
    Answer. Again, not that I recall.
    Question.  Did the DNC ever issue invitations to people to attend 
movies at the White House?
    Answer. No.
    Question.  Did you ever help to facilitate people going to attend a 
movie at the White House?
    Answer. Candidly, I may have, but I don't recall.
    Question.  Do you know if you ever received schedules of movies in 
advance?
    Answer. No.
    Question.  You don't know or you didn't receive any schedules?
    Answer. I don't believe that I received a schedule of movies 
indicating that on this night they are showing this movie and on this 
night they are showing that movie.
    Question.  Do you recall whether you ever helped--and this is 
exclusively at the time period when you were director of NMS--to 
facilitate a lunch between somebody and Mack McLarty?
    Answer. Not that I recall.
    Question.  Did you ever receive any requests for individuals to 
have lunch with Ira Magaziner?
    The Witness. Can we take a break for just a minute?
    Mr. Best. Sure. We can take a break any time.
    Mr. Wilson. That's all right.
    The Witness. Excuse me just one second.
    Mr. Wilson. Surely.
    [Discussion off the record.]
    Mr. Wilson. If we could go back on the record. If you will, please, 
read back the last question that I asked.
    [The reporter read back as requested.]
    The Witness. I don't recall that, but I need to state, you know, 
this was 3 and 4 years ago and I just don't recall every request that 
came to me or every memo I may or may not have written. If you have 
information that you would like to provide to me or show to me, if 
there is something I ought to see, I would be happy to look at it and 
try to respond. But as far as generally what do I recall from a job 
that occurred in some cases more than 3 years ago, I don't recall that.

                       EXAMINATION BY MR. WILSON:

    Question.  Did you ever have requests brought to your attention for 
people to use the President's box at the Warner Theater or Wolf Trap?
    Answer. No, not that I recall.
    Question.  Did you ever work to--did you ever help people to have 
their photo- graphs taken with the President?
    Answer. Yes.
    Question.  How did that process work?
    Answer. Well, I am not sure it was a process. That was a pretty 
general question. You know, if somebody is attending an event that's at 
the White House and they want to get their picture taken with the 
President, I might contact someone at the White House and give them 
that head's up.
    But, again, it was simply to pass along information to someone over 
there to make them aware of it.
    Mr. Best. Let me ask this: A photo opportunity with the President 
was not a-- was not an isolated event; was it? It was always in 
conjunction with attendance at another function at the White House?
    The Witness. As far as I know, that's correct.

                       EXAMINATION BY MR. WILSON:

    Question.  Which anticipates my next question. Were there 
situations where you would get a request for an isolated event for 
somebody to go up and have their pic- ture taken with the President, 
outside of an event, outside of some prescheduled event?
    Answer. You mean that someone, a staff person at the DNC would 
contact me and say, we have heard from so and so and they would like to 
go over to the White House and get their picture taken with the 
President?
    Question.  Correct.
    Answer. It is possible. I don't think that there was any kind of 
specific formula for that. I don't--I certainly on a regular basis was 
not sending requests over to the White House that a certain person 
wanted to come over and have a one-on-one and while they were there 
have their photo taken.
    Question.  Do you remember any specific instances where somebody 
did go over and have their picture taken outside of going to an 
official event?
    Answer. I don't recall any situation like that.
    Question.  Did you have any requests while you were director of NMS 
to get photo- graphs signed by the President?
    Answer. Yes.
    Question.  And how would you generally get that done?
    Answer. All photos I would send over to the Office of Political 
Affairs and let them handle it however they did, whether it was an auto 
pen or a real picture of the President. That was something that they 
handled.
    Question.  And by that, do you mean the Office of Political Affairs 
in the White House?
    Answer. I am sorry, in the White House, correct.
    Question.  Do you recall whether DNC supporters were ever sent 
birthday cards from the President?
    Answer. Yes.
    Question.  Do you know how people were selected to receive a 
birthday card from the President?
    Answer. Are you talking about people meaning DNC supporters?
    Question.  Yes.
    Answer. I would simply send a request over to the White House and, 
you know, somebody said to me that for something innocuous like a, you 
know, a form--it is not an actual letter from the President. Usually it 
was a card or maybe it was some kind of form letter that they just 
ginned out, you know, send a request over to political affairs and say 
this person is turning 65 or 80 or 50 or their child is turning 16, can 
the President send a birthday letter?
    Question.  Was this always done on a case-by-case basis?
    Answer. Well, again, it wasn't up to--as I previously stated, I 
wasn't the person vetting the request. If somebody thought it was 
important enough that they came to me, you know, I would send it over. 
It is up to the White House whether or not they want to fulfill the 
request. And it was up to some person previous to me as to whether it 
was worthwhile enough to submit to me to submit to the White House. I 
was simply being a conduit between departments that had requests and 
the appropriate place at the White House that would consider whether 
they wanted to resolve the request.
    Question.  Did you ever receive requests for a card to go to more 
than one individ- ual at any one time? And by that I mean, did anybody 
ever give you a list of people and say, could you please arrange for 
these people to get birthday cards from the President?
    Answer. Well, we only--I mean, it is possible. Is there more--I 
tended to make a request for a birthday card around the time of 
somebody's birthday. Are you asking did I send over a list of 10,000 
people and say, here are the birthdays, fire at will? I don't recall 
doing that.
    Mr. Wilson. I would like to show the witness a memorandum, which it 
is dated November 29, 1993, and it is to a number of people who are not 
designated by last names from somebody named Tara.
    The Witness. I see it.
    Mr. Wilson. There is a handwritten note on the bottom of this memo 
that reads, ``Eric, Pls. see me about the birthday project Ceandra 
started,'' and ``Thx,'' I believe, ``Martha.''

                       EXAMINATION BY MR. WILSON:

    Question.  First does the ``Eric'' referred to in this note refer 
to you?
    Answer. I don't know. I would assume so.
    Question.  Do you recall seeing this particular memorandum?
    Answer. I actually do not recall seeing this.
    Question.  Do you know what the birthday project was?
    Answer. I do not.
    Question.  There is what I believe is a name here in this note. I 
think it would be pronounced Ceandra, C-E-A-N-D-R-A.
    Answer. Correct.
    Question.  Who is that individual?
    Answer. Well, I only know one Ceandra, so I am assuming it is 
Ceandra Scott, who did work in the chairman's office at the DNC and 
reported to Martha Phipps. And at the top of the memo it indicates 
Martha Phipps, so I am assuming.
    Question.  Do you recall any discussions about something that was 
termed ``the birthday project''?
    Answer. I do not.
    Question.  Do you recall whether you ever sent a list of DNC 
trustees to the White House?
    Answer. If I sent a list of DNC trustees to the White House?
    Question.  Yes.
    Answer. The complete trustee list?
    Question.  Well, any list. You know, I am not asking for knowledge 
of a specific list, but do you recall whether you ever sent over a list 
of trustees, be it inclusive or partial, to the White House?
    Mr. Best. You mean in response to this memorandum----
    Mr. Wilson. No.
    Mr. Best.--of 11-29.

                       EXAMINATION BY MR. WILSON:

    Question.  No. In general, do you recall ever submitting a list of 
trustees, DNC trustees, to the White House for any reason?
    Answer. I don't recall that but--I don't recall that.
    Question.  Do you recall whether there was any discussion among 
your colleagues in the general time period that this memorandum is 
dated, and the memorandum is not dated--I will make that clear for the 
record--it is dated November 29, with no year. There is a fax 
transmission at the top which indicates that it was faxed from somebody 
to somebody on November 29, 1993. So, again, I assume this is the time 
that you were regional finance director at the DNC.
    Do you recall whether there were any conversations that either you 
participated in or you overheard that involved having a list of 
trustees sent to the White House?
    Answer. No. And I also would like to add, I can recall that around 
that time I was in Philadelphia because I was responsible for a fund-
raising event with the President in Philadelphia that occurred, I 
believe, the first week in December 1993, and I was in Philadelphia for 
about 3 weeks. I mean, I remember coming from Philadelphia to 
Washington to come home for Thanksgiving and then driving back to 
Philadelphia. So on 11-29 I would not have even been in Washington.
    Question.  When you were regional finance director, do you recall 
whether the White House ever provided the DNC with a list of birthdays?
    Answer. I don't recall that.
    Question.  Speaking of either when you were regional finance 
director or director of the NMS, did you ever see any list of names 
that were provided to you or to the DNC by the White House?
    Mr. Lu. What types of names?
    Mr. Best. Yes.
    Mr. Wilson. Names of individuals, people.
    Mr. Best. For what purpose?
    The Witness. From the White House back to me?

                       EXAMINATION BY MR. WILSON:

    Question.  Correct.
    Answer. That's such a vague--it's such a broad question. I mean----
    Mr. Best. Can you elucidate in any way?
    Mr. Wilson. I am trying to be very vague, actually. Thus far, I 
think my understanding is that there have not been lists of any sort 
passed back and forth between the DNC and the White House that you are 
aware of.
    Now, I should clarify that. I could take that out of your--the 
realms of when you were in the fund-raising capacity because I have no 
interest in knowing whether there were names sent back and forth when 
you were a fund-raiser at the DNC.
    But from the time that you were director of National Membership 
Services, do you recall whether you would get a database or a spread 
sheet of names from the White House for any purpose? And, you know, to 
not be so mysterious, my understanding is that a lot of what you were 
involved in doing was facilitating requests, helping people get things 
done, and pretty much ad hoc situations where a few people would do one 
thing or maybe more than a few people, but I am trying to determine 
whether there was a reason for the White House to send you any list of 
names of individuals.
    The Witness. Not that I recall.

                       EXAMINATION BY MR. WILSON:

    Question.  Are you familiar with the White House database?
    Answer. I am only familiar with it in the sense that I have read 
about it in the newspaper.
    Question.  Is your knowledge of the White House database, then, 
confined exclusively to media reports about its existence?
    Answer. That's correct.
    Question.  Do you know if anybody in your office ever had access to 
the White House database? And your office being the National Membership 
Services office.
    Answer. I need you to define what the White House database was.
    Question.  Well, I mean I am asking you that question, in terms of 
are you familiar with something that was called the ``White House 
database''?
    Answer. As I previously stated, the only information I know about, 
a broad database referred to a term of art, the White House database, 
is what I have read in the newspaper.
    Question.  Did either you or any of your employees or colleagues in 
the NMS have access to any White House computer database?
    Answer. Yes.
    Question.  And what was that?
    Answer. In the social secretary's office, there was a--as I 
understood it, it was their own internal list of people that had 
attended social secretary events such as a jazz festival for a thousand 
people on the South Lawn or fireworks on the 4th of July or a private 
dinner. And there would be occasion to almost exclusively call over to 
the White House and say, in response to a White House request from a 
different area, without getting into too many tangents, somebody at the 
White House would say there is an upcoming event and if you would like 
to submit a few names, you may do so.
    Again, as I previously stated, no guarantee that those people were 
getting in. Those weren't names submitted for specific slots; it is 
just we are doing an event, if you would like to submit some names we 
will consider them in the big list of names.
    So in trying to figure out who to submit, I think there was an 
interest not to keep putting in the same people. It wasn't fair for 
someone to go three times if someone else hadn't gotten to go to the 
South Lawn.
    In that regard, we might call over and say, here are 10 names but 
we only get to submit 3, can you help us figure out who has been, 
because we might think that a person, a DNC supporter, had never been 
to the White House and later we find out they have been four times 
because we didn't invite them, the White House, of course, invites 
them. So we wanted to try to preclude the same people being invited 
over and over again.
    So I might occasionally call over to say, I have a chance to submit 
a few names as a request in response to--in response to a request from 
a different department. Can you help me find out if any of these people 
have been there at all? And they might respond back accordingly.
    Question.  And who did you call for help of that nature?
    Answer. Oh, just staff in the social secretary's office.
    Question.  Did they ever send you lists of names so that you could 
check yourself as to whether people had attended or not?
    Answer. No. And as a matter of fact, they were pretty clear about 
the fact that that was not the kind of information that they could ever 
provide to us.
    Question.  When you were making requests of that nature, checking 
to avoid duplication of people who would attend events, did you ever 
have discussions with people in the social secretary's office or did 
they ever ask you to send over names of individuals that they could 
enter into their whatever type of database they were using to help 
avoid duplication?
    Answer. In the social secretary's office?
    Question.  Yes.
    Answer. No.
    Question.  Do you know if any other DNC officials or colleagues of 
yours ever would get lists of names from the White House to help 
facilitate attendance at White House events?
    Answer. I wouldn't know.
    Question.  Do you know if there was any political information, such 
as whether a DNC--whether a person was a DNC trustee, whether that type 
of information was contained in the information that the White House 
kept on computer?
    Mr. Lu. Are you referring to the social secretary's computer that 
he has testified about or any other database?
    Mr. Wilson. Any other.
    Mr. Best. Do you know?
    The Witness. I don't know.
    Mr. Best. Okay.

                       EXAMINATION BY MR. WILSON:

    Question.  Did you ever work with Truman Arnold on providing names 
of individuals to the White House for events that the White House was 
hosting?
    Answer. I never directly worked with Truman Arnold.
    Question.  Did he ever work with anybody in the National Membership 
Services?
    Answer. He may have but I am not aware of any.
    Mr. Wilson. I will provide the witness with a letter from Al Gore 
to B.J. Thornberry. If you would take just a moment to read through 
this letter, please.
    The Witness. Uh-huh.
    Mr. Best. You understand that this letter was written after this 
witness left the Democratic National Committee?
    Mr. Wilson. Yes.
    The Witness. Okay. I see the document.

                       EXAMINATION BY MR. WILSON:

    Question.  Bearing in mind that this letter did go to the DNC after 
you had left, do you know of any discussions during your tenure as 
director of NMS about a database kept by the Vice President?
    Answer. No.
    Question.  Were you aware that such a database existed?
    Answer. I was not aware of it until you presented this piece of 
paper to me.
    Mr. Best. This is almost a year after this witness has left the 
Democratic National Committee.

                       EXAMINATION BY MR. WILSON:

    Question.  In arranging activities for DNC members, did you have 
any contact with Ann Stock?
    Answer. Yes.
    Question.  Do you recall what her position was?
    Answer. She is--was, as I understand it still is, White House 
social secretary.
    Question.  Why did you interact with Ms. Stock?
    Answer. Because she, as White House social secretary, was 
responsible for the planning of practically all the events at the White 
House.
    Question.  Was her authority more or less over all of White House 
events or did she have an area of concentration or expertise?
    Answer. Well, I am sorry, it would be difficult. You would have to 
talk to Ann Stock about what her responsibilities are. I just know her 
as the White House social secretary.
    Question.  Did you have any contacts with Ricki Seidman----
    Answer. No.
    Question [continuing]. When you were at NMS?
    Answer. No. I am familiar with her name. I did not have any direct 
contact with Ricki.
    Question.  Do you know if any of your colleagues in NMS contacted 
or worked with her at any time during your time at NMS?
    Answer. What was her role? I don't know.
    Question.  Okay. Do you know--do you know who Mike Lufanio is?
    Answer. Yes.
    Question.  And who is he?
    Answer. There was a period of time, I believe, that Mike Lufanio 
was either--he was a senior official in the Office of White House 
Advance.
    Question.  And did you have any reason to contact him when you were 
at NMS?
    Answer. Well, I don't recall. I mean, I--I knew Mike outside of my 
role as director and so I may have had contact with him, but I don't 
specifically recall if there was a reason why professionally I may have 
contacted him.
    Question.  Do you know whether or not he had any role in arranging 
for people to fly on Air Force One or Air Force Two?
    Answer. I don't know. I certainly didn't have any kinds of 
conversations with him like that.
    Question.  At the time you were director of NMS, did you have any 
conversations with Alexis Herman?
    Answer. Not--not directly.
    Question.  Did you have any--did you relay requests to her 
indirectly?
    Answer. No. But she was in charge of the Office of Public Liaison, 
which is, as I previously stated, was an office I did have contact 
with. So, you know, my requests would be sent to the Office of Public 
Liaison for which he was--whatever her title was, director, but I did 
not have direct conversations--she didn't call me; I didn't call her. I 
didn't bump into her in the hallway and stop and, you know, have a 
conversation with her about anything.
    Question.  What does the Office of Public Liaison at the White 
House do?
    Answer. I don't--you would have to ask them specifically. 
Generally, they handle outreach to the various constituent groups.
    Question.  Did you have any contacts, at the time you were director 
of NMS, with Patsy - Thomasson?
    Answer. I was introduced to Patsy. I specifically recall it was 
just at a meeting and she was there, and I was introduced to her. And I 
never had any kind of direct----
    Mr. Best. The extent of your contact with her was this 
introduction?
    The Witness. It was.

                       EXAMINATION BY MR. WILSON:

    Question.  Do you recall whether any of your colleagues at NMS had 
any contacts with Patsy - Thomasson?
    Answer. I don't recall. Certainly it is possible but I don't recall 
that.
    Question.  Earlier you mentioned the name David Levy. I believe I 
recall that you mentioned it in connection with radio addresses.
    Answer. Correct.
    Question.  Did you contact him on any other matters while you were 
director of NMS?
    Answer. Well, I would like to restate something I said earlier, 
which is I don't recall that. He was in the Office of Communications. 
It is possible that I perhaps contacted him on something else that fell 
into the purview of the Office of Communications just because he was a 
contact that I knew would take my call. We had a friendly relationship. 
So it is possible I may have contacted him on something else. I don't 
specifically----
    Question.  I may have misspoke. I didn't mean to put words into 
your mouth and I may not recall correctly. So I wasn't trying to 
characterize what you said about David Levy. I just remember you 
brought the name up before.
    Answer. Sure.
    Question.  What was his position?
    Answer. Well, I don't know his specific title but he did work in 
the--and I am not even certain of the exact title of the office but it 
was basically the communications office. And, you know, we had common 
interests so we would strike up conversations every once in awhile 
about things totally unrelated to work. So it is possible that I may 
have contacted him on something else, but I don't recall specifically 
any reason to contact him professionally for anything other than to 
submit those radio address requests.
    Question.  At the time you were director of NMS, did you have any 
conversations with Jack Quinn?
    Answer. Yes.
    Question.  And what did you discuss with Mr. Quinn?
    Answer. In that sense, I definitely don't specifically recall.
    Question.  And do you recall why you contacted Mr. Quinn?
    Answer. Well, he had a variety of responsibilities during his 
tenure at the White House, including responsibility, I believe, as 
chief of staff for the Vice President and, again, you know, in 19--oh, 
you asked as director of Membership Services.
    Question.  Just director of Membership Services?
    Answer. It is hard for me to separate the time lines. You know, I 
have--you know, I have--I don't recall. It is possible.
    Mr. Best. That's fine.

                       EXAMINATION BY MR. WILSON:

    Question.  Do you know who Marge Tarmey is?
    Answer. No.
    Question.  At the time that you were director of NMS, did you have 
any conversations with Maggie Williams?
    Answer. Yes.
    Question.  And do you recall the subject matter of any of these 
conversations?
    Answer. I do.
    Question.  Could you please recount any of the conversations you do 
recall, of the conversations you do recall?
    Answer. The only conversation that I do recall, not that I 
specifically recall the content of the conversation, but I remember 
Maggie attending a meeting, one of the final meetings, of the White 
House Christmas Card Project, as I refer to it, and I think something 
may have come up in that conversation.
    Question.  Do you recall what you discussed?
    Answer. I really don't. I mean, again, it--it couldn't have been 
very substantive and it was at least 3 or 4 years ago.
    Question.  To the best of your recollection when you were director 
of NMS, was that the one conversation you had with Ms. Williams?
    Answer. That was actually the only time I believe that she and I 
attended any kind of meeting or--yes, that's correct.
    Question.  Do you know Jodie Torkelson?
    Answer. I know the name.
    Question.  Do you recall having specific conversations with Ms. 
Torkelson?
    Answer. I don't recall having any conversations with her.
    Question.  As director of NMS, did you have conversations with 
Nancy Hernreich?
    Answer. Yes.
    Question.  And what did you discuss with Nancy Hernreich?
    Answer. I probably discussed a variety of things. She was in the 
President's personal office.
    I remember there was one DNC supporter in particular who had golfed 
with the President once, and during the course of their outing this 
particular supporter said to the President, I really would love to have 
you come to my club once and play golf, and the President said, I would 
love to do that, and I recall specifically this supporter contacting me 
and said the President said it, he said it himself, could you please 
call over and see if he would like to come and play golf with me at my 
club. And I remember having that conversation with her.
    I am certain I reached out to her on other times, you know, to say 
that I had sent a photo over to the political affairs office but it 
really would be great if the President could personally sign it, and I 
know they would be getting in touch with her, those kinds of things; 
real small things to try to be responsive to people's requests.
    Question.  Aside from the sort of back and forth of responding to a 
particular request, do you recall whether she ever contacted you to ask 
anything--to ask you to do anything?
    Answer. Well, she may have had. I wouldn't preclude that. But I 
don't have a specific recollection.
    Question.  Do you know Doug Sosnik?
    Answer. Yes.
    Question.  Did you, at the time you were director of NMS, have 
conversations with Doug Sosnik?
    Answer. Well, I am sure I did. Again, I don't--I don't recall what 
we may have talked about. You know, these are people who may be at 
meetings that I am at. You know, I just----
    Mr. Best. You don't have to explain.
    The Witness. Okay. Thank you.
    Mr. Best. Just answer his question.
    The Witness. Thank you.

                       EXAMINATION BY MR. WILSON:

    Question.  Do you recall any specific requests Mr. Sosnik might 
have made of you during the time that you were director of NMS?
    Answer. I don't specifically recall requests that he may or may not 
have made.
    Question.  Do you recall whether Karen Hancox ever called you and 
asked you to do something?
    Answer. I can't imagine that she would have called me to ask me to 
do something for her.
    Question.  Do you have any recollection of specific requests that 
you made of her?
    Answer. Well, Karen was--I need to clarify this. Karen was a name 
who I was told I should send memos to if I was sending a memo to the 
Office of Political Affairs. So Karen and Doug Sosnik as well would 
often be names on my ``to'' line on a memo. It doesn't necessarily mean 
I was really requesting anything of Karen or Doug. I was just told 
formally, if you are sending a request to the Office of Political 
Affairs, send it to Karen or Doug. It would go to a staff person. 
Whether it ever made it up the food chain to those folks, if they ever 
saw my memos, I don't know.
    Question.  What type of memoranda would you send over to the White 
House Office of Political Affairs?
    Answer. These are all the kinds of things we have discussed, 
somebody would like to get a birthday card for their 80-year-old 
mother. Somebody would like, you know, to--whatever, attend--I know, go 
to the President's box at the Kennedy Center. All of those kinds of 
requests I would submit to the Office of Political Affairs for them to 
decide how to appropriately disseminate and handle the requests or not 
handle the requests in the White House. Once it got sent to Political 
Affairs, they did whatever they did and they would provide the answer.
    So I would send these memos of all different kinds of nature to 
Karen or Doug. I just want to be clear about that in case you have a 
series of memos with my name on it to Karen or Doug that, you know, I 
probably talked to Karen Hancox half a dozen times in my whole life. 
But I have probably sent several memos to her. I just want to clarify 
that.
    Question.  Where else would you send written memoranda in the White 
House, if anywhere?
    Answer. Memos could have gone to Debi Schiff who, as we talked 
about, was in charge of Kennedy Center tickets. It could have gone to 
the photo office where sometimes the photos that we were seeking could 
be found and purchased by the DNC, just as any outside person could 
call the White House and say, I was at an event. Can I have a photo? 
Sure, $8.80. That was my responsibility to go to the photo office and 
perhaps look for a photo for someone, and perhaps send a memo along 
with it. Maybe someone in the Office of Political Affairs, public 
liaison, you know, we have talked about Ann Stock and the social 
office, because I submit names for events. Mostly there was a lot of 
hierarchy just as anywhere in the work world, there is a lot of--I 
might have to put names on memos because I was told you need to make 
sure this person gets copied and this person gets copied, but it is not 
like I was dropping off that memo to all of their services. I would 
send one memo over to one contact at the White House. However they 
disseminated it, it was up to them.
    Mr. Wilson. If we could go off the record for a moment.
    Mr. Best. Yes.
    [Off the record.]
    [Whereupon, at 12:50 p.m., the deposition recessed to reconvene at 
1:45 p.m. this same day.]

                       EXAMINATION BY MR. WILSON:

    Question.  Do you know whether regular meetings were held at the 
White House to discuss invitation lists?
    Answer. I need you to be more specific regarding invitations.
    Question.  To discuss any type of list of names that would be 
invited--to people who would be invited to attend events at the White 
House.
    Answer. Yes.
    Question.  And did you attend such meetings?
    Answer. Occasionally.
    Question.  Where were such meetings held?
    Answer. They were either held in a room in the Old Executive Office 
Building or they were held in the Roosevelt Room in the West Wing.
    Question.  What types of events were discussed?
    Answer. Upcoming dinners, events on the South Lawn, events like 
that.
    Question.  Were there ever spaces allocated for different types of 
attendees at such dinners?
    Answer. There were spaces allocated for the number of names we 
could submit to attend such events, but I don't know if the White House 
allocated a certain number of spaces.
    Question.  Were there different numbers allocated for different--
for official events as opposed to private events?
    Answer. No, the difference in any kind of allocation number would 
be, you know, the location of the event. A South Lawn event obviously 
could accommodate more people than a--than a dinner in an interior room 
could accommodate.
    Question.  Were bill-signing ceremonies discussed during these 
meetings?
    Answer. Not that I recall.
    Question.  Do you know whether the DNC used the Indian Treaty Room 
for any purpose?
    Answer. I believe that they did.
    Question.  And do you know for what purpose?
    Answer. I don't, but the Indian Treaty Room was used by all kinds 
of groups for, you know, receptions, and I'm sure the DNC--I recall the 
DNC, you know, hearing about the fact that the DNC was going to do 
events there, but I don't know specifically what the events were.
    Question.  Do you know whether the DNC had an auto pen for the 
President's signature?
    Answer. At the DNC?
    Question.  Yes.
    Answer. Not that I'm aware of. I would say no.
    Mr. Best. Do you know? Do you know whether they had the pen?
    The Witness. I can't say with certainty, but I don't believe that 
there was such an auto pen.

                       EXAMINATION BY MR. WILSON:

    Question.  Did you or your colleagues at NMS ever draft letters to 
be signed by an auto pen with the President's signature?
    Answer. No.
    Question.  Did the National Membership Services' office ever handle 
letter requests to go out to individuals, series of letters that would 
be sent to a group, a number of people at one time?
    Answer. I'm not sure I understand the question.
    Question.  Did your office ever have letters go out over the 
President's signature?
    Answer. No.
    Question.  Did your office ever generate any letter that was signed 
either by the President or the auto pen using the President's 
signature?
    Answer. Not that I'm aware of.
    Question.  Did your office ever draft notes that ultimately would 
be sent out over the President's name?
    Answer. Not that I recall.
    Question.  I ask this because my understanding is, there are many 
pieces of correspondence and they aren't necessarily drafted always by 
the same person who signs them; and I'm just trying to get a sense of 
whether there was anything that went out of your office that 
ultimately--a form letter of any sort that would be signed by the 
President.
    Answer. I--not that I'm aware of. Again, I appreciate that, but not 
that I'm aware of.
    Question.  Are you aware of your office procuring gifts of any sort 
for DNC supporters?
    Answer. Yes.
    Question.  What types of gifts would your office get for 
supporters?
    Answer. Well, actually, we initially, in '94 in the initial stages 
of the program, helped try to obtain items that the DNC was paying for 
that the White House was giving out as gifts, a business card holder, 
presidential cuff links. Events like--or gifts like that.
    And there was a feeling that if the DNC was paying for these items, 
maybe we could try to get some items too. But I didn't actually--so 
perhaps a modification of the previous question, I didn't actually 
procure these items. I didn't actually purchase the items, but 
initially, when the DNC kind of got into this business of having to pay 
for these items, some of those items ended up in my shop.
    Question.  And----
    Answer. That actually stopped, though, pretty quickly. Somebody 
else--it wound up being that the Chief of Staff had responsibility, or 
the Chief of Staff's office at the DNC had responsibility for 
procuring, obtaining, holding those items.
    Question.  And when did the change occur?
    Answer. Well, I don't specifically recall, but sometime in '94.
    Question.  How would you determine who received one of these types 
of gifts?
    Answer. Well, again, that was--that was part of the reason why we 
wound up not having responsibility for that for very long because it--
it really wasn't something appropriate for us to decide who should or 
should not have gifts, because we didn't really have relationships with 
any of these people.
    You know, the reason I initially got involved in it was because 
they saw me as someone who would try to help, you know, resolve the 
situation. And I--somehow it just ended up on my desk.
    It was just basically assigned to me, you will get the gifts. Okay, 
fine, I'll get the gifts. Not purchase, but when they arrive, we are 
going to give you some of the gifts.
    So when they arrived, they were put in my office and, well, I 
didn't know what to do with them. And meanwhile everybody else wanted 
to have their hands on the cuff links and the other gifts, so they were 
pretty quickly taken from our shop, not because we had done anything 
wrong, just there was no real reason for us to have them.
    Question.  When you did have control of the gifts, did people ever 
make requests of you on the forms that you sent around to the various 
offices, the request forms that the offices had to give something to 
somebody or send something to somebody?
    Answer. No, not that I recall. I mean, they may have, but it 
wouldn't have been my responsibility to provide it, again, to the 
supporter out there. So somebody came down and said, gee, I'd like to 
have one of those pens with Bill Clinton's signature on the pen. It 
was--that's why they had been given to me and stuck in my drawer. It's 
not like it was a candy jar where people could come take them, but 
there were very limited numbers and they were there. And I wasn't the 
person reordering them, and I wasn't restocking them. It really was not 
something that was around for very long.
    Question.  Do you recall at the time you were Director of NMS 
whether you actually did directly give one of these types of gifts to 
somebody who wasn't a DNC employee?
    Answer. Yes. I don't specifically recall, but--who, but, yeah, you 
know, there was a drawer full of these, and I'm sure, you know, they 
were----
    Question.  Do you recall how you got the gift to the recipient?
    Answer. I don't.
    Question.  Did you ever help arrange for DNC supporters to watch 
sporting events in the White House residence?
    Answer. No.
    Mr. Best. I take it you're referring to televised sporting events. 
Or actual boxing matches at the White House?
    Mr. Wilson. I was being very general, not aware of any boxing 
matches at the White House. I would have been interested in the 
response if there was such an event.
    The Witness. I do want to be clear that there are sports teams that 
come to the White House.
    That's not what you're talking about? You're talking about watching 
an event that's on TV at the White House?
    Mr. Wilson. Yes.
    The Witness. No.

                       EXAMINATION BY MR. WILSON:

    Question.  You had mentioned earlier that you attended on occasion 
the daily scheduling meetings for the President. Did any other DNC 
employees go with you to attend these meetings?
    Answer. Yes, initially Jay Dunn went with me and then later, after 
Jay had left the program, and Brooke was--Brooke Stroud, who I 
previously mentioned, became the Deputy, she would attend those 
meetings.
    Question.  After attending such meetings, did you serve as a 
liaison to other offices within the DNC to communicate information to 
them about the President's schedule?
    Answer. Yes.
    Question.  How did that work?
    Answer. Well, sometimes verbally I would say--you know, pass on 
information I had learned. Sometimes maybe I'd send a memo to 
department heads and say, this is what we've--you know, this is what 
we've learned in the meeting, whatever the appropriate information was.
    Question.  Did you have a usual practice?
    Answer. Well, I know that I tried to forward schedules on to people 
as schedules were made available for us, all internal, not to be 
distributed outside the DNC. But sometimes it would just be verbal or 
there actually wouldn't be a printed schedule.
    Question.  Was there a distinction between the official and private 
schedules for the President when you attended the meetings that you 
attended?
    Answer. Well, the only schedules that I saw were the ones that they 
were willing to also let the Office of Public Liaison and the DNC and 
other offices know. So I never--I don't know the term of art, ``private 
schedule,'' I don't know how that is necessarily defined. But I would 
not be given information about, you know, certain private meetings that 
the President might be having. During certain blocks there would just 
be something like private time or down time in some of the schedules, 
as I recall.
    Question.  Were you ever the DNC liaison for official overseas 
delegation trips by senior administration officials?
    Answer. Just, it's been so long, it's just--I don't remember a 
specific trip where I may have been.
    Question.  Do you recall whether people contacted you and told you 
that there was a trip, an upcoming trip about to occur, and asked for 
any input as to whether you had any suggestions for people to go on the 
trip?
    Answer. Yes.
    Question.  And on what occasions; do you recall?
    Answer. Well, I do recall specifically there was a gentleman named 
Howard Glicken who wanted to go on a trip to South America, and he 
was--you know, he had contacted the DNC several times and was trying to 
also deal with the White House. And I think he was looking for every 
possible open door that he could find to help try to move his name 
along.
    Question.  Did he contact you directly?
    Answer. Howard did, because I knew Howard from my previous role at 
DNC. Others generally were supposed to contact a relevant department 
within the DNC, because again I didn't know many of these people, these 
names, so they wouldn't have known me to call me; but had they called 
me, I wouldn't have known who they were.
    And again, I wasn't the final decision-maker on that. I might 
forward information along, I've been contacted by someone, he's 
interested.
    Question.  Do you recall other people that you were contacted by in 
relationship to trips?
    Answer. Well, he's the only one I specifically recall.
    Question.  Do you recall whether you were ever contacted by Ernest 
Green in relation to a trip?
    Answer. Not that I recall.
    Question.  Do you recall whether anybody mentioned to you Mr. 
Green's interest in being part of an official delegation on an overseas 
trip?
    Answer. Again, I don't recall that right now.
    Question.  Do you know if any DNC employees went on official 
delegation trips abroad?
    Answer. What do you determine an official delegation trip?
    Question.  Well, any----
    Answer. Paid for by the administration?
    Question.  Paid-for-by-the-administration trip?
    Answer. Not that I'm aware of.
    Question.  Do you know of any DNC employees accompanying officials 
who were going overseas to perform some type of government function, 
attend an event, attend a funeral, attend a meeting or a conference or 
that sort of thing?
    Mr. Lu. When you say ``DNC official,'' would you include Chairman 
Dodd as a DNC official?
    Mr. Wilson. Yes.
    Mr. Lu. Okay.
    The Witness. Well, I still don't--the answer is no, even including 
the Chairman. He kept his own schedule; I wasn't aware of it, and at 
this point, I don't remember the trips that the Chairman may have taken 
a few years ago.
                       EXAMINATION BY MR. WILSON:

    Question.  Have you ever met Mark Middleton?
    Answer. Yes.
    Question.  When did you first meet Mr. Middleton?
    Answer. I vaguely remember in 1993, perhaps maybe '94. Sometime in 
the first year that I was at the DNC, a year or two, so I would say 
probably 1993--probably.
    Question.  Did you ever work with him on any project?
    Answer. I may have. I may have, but I don't specifically--I can't 
recollect a specific project that I might have been working with him 
on.
    Mr. Best. I'm not quite sure I understand what a ``project'' is as 
you have used the term. Trying to get someone a seat on a tour might be 
a project as you have defined it.
    Mr. Wilson. I was going to follow up and ask whether----

                       EXAMINATION BY MR. WILSON:

    Question.  And my understanding is, Mr. Middleton was a White House 
employee at the time you were the Regional Finance Director?
    Answer. Right.
    Question.  And so did Mr. Middleton ever make requests for you to 
do anything on his behalf?
    Answer. Really not that I recall.
    Question.  Do you know whether Mr. Middleton was affiliated with 
the DNC in 1996?
    Answer. I didn't work at the DNC in 1996, so I don't know.
    Question.  Do you know whether Mr. Middleton assisted in organizing 
any fund-raising events for the DNC?
    Answer. I'm not aware of him doing that.
    Question.  Are you aware of whether Mr. Middleton hosted any fund-
raising events on behalf of the DNC?
    Answer. I'm not aware of Mark Middleton hosting any events.
    Question.  Do you recall whether Mr. Middleton ever contacted you 
to arrange tours of the White House?
    Answer. No, he did not contact me to arrange tours. And as I stated 
before, when we went kind of down this line of questioning regarding 
the President's box at Kennedy Center, he had worked in the Chief of 
Staff's office at the White House. So if you are asking about the 
period while he wasn't at the White House, he wouldn't come to me--
because he worked at White House--looking for a White House tour. He 
wouldn't have called the DNC. And he never came to me after he left the 
White House, and I'm assuming because he knew dozens and dozens of 
people at the White House, including his former boss, Mack McLarty, 
whom he could have called.
    Question.  Do you know whether he contacted any of your colleagues 
at NMS after he left the White House to help arrange for tours or, 
well, to help arrange for White House tours?
    Answer. I don't know if he contacted any of my colleagues. I do 
know he did not contact me.
    Question.  Do you know who Holli Weymouth is?
    Answer. No.
    Question.  Do you know if Yusuf Khapra ever contacted you to 
arrange tours of the White House?
    Answer. No.
    Question.  You know that he did not contact you to arrange tours?
    Answer. Yeah, Yusuf didn't contact me to arrange tours. He only--my 
knowledge of Yusuf was in his role when he worked for the Chief of 
Staff.
    So, again, just as I previously answered with Mr. Middleton, I 
don't know why someone from the White House would contact someone from 
the DNC to get a tour of the White House. And those people were all 
capable of giving--you know, they all had hard passes, and they could 
conduct a tour themselves. So I don't know why they would call me, with 
limited White House tickets and no White House access, to give a tour.
    Question.  Did Mr. Khapra ever contact you for any other reason?
    Answer. He was a staff person in the Chief of Staff's office who I 
occasionally had conversations with. But I don't remember if he called 
me or I called him and I certainly don't recall any kind of specific 
conversation with him.
    Question.  Why did you have conversations with Mr. Khapra?
    Answer. I know this is going to sound crazy, but I don't know why I 
had conversations with him. He was a White House staff person that I 
had come in contact with, so--but I don't recall the specifics of our 
conversations that occurred more than a couple of years ago.
    Question.  Do you recall anyone making a request of either you or 
your office to make arrangements for a White House tour for the Widjaja 
family in 1995?
    Answer. When in 1995?
    Question.  Late, late in the year.
    Mr. Best. He left in September.
    The Witness. Well, I left the DNC in September of 1995.

                       EXAMINATION BY MR. WILSON:

    Question.  Again, I will ask you--I'm not certain of the time 
myself--do you recall anybody making a request of your office to 
arrange for a tour of the White House for the Widjaja family?
    Answer. No. And again tours, even though they were officially under 
my jurisdiction, I just--whenever a tour request came in, I would 
provide it to my staff person who was responsible for all aspects of 
tours. I didn't feel like I needed to check with her to find out who 
she was providing White House tickets to.
    Question.  Are you aware any of member of the Widjaja family 
contacting any DNC employee?
    Answer. I'm not. And I also have to tell you, I've never heard the 
name before until you mentioned it about two questions ago.
    Question.  That helps, and I'll move on.
    Answer. Sure.
    Question.  Do you know Charlie Trie?
    Answer. I've never met him. I am aware of Charlie Trie, but I 
became aware of Charlie Trie just in name only.
    Question.  Have you ever spoken with Mr. Trie?
    Answer. No.
    Question.  Are you aware of any of your colleagues at the NMS being 
in contact with Mr. Trie?
    Answer. I am not aware of any of my colleagues--in the National 
Membership Services program dealing directly with him. Again, it is 
possible, as we talked about earlier, but I--I--you know, my staff had 
their own conversations that I wasn't fully briefed on, but I'm 
certainly not aware of it.
    Question.  Are you aware of any White House tours that were 
arranged for Mr. Trie or on behalf of Mr. Trie?
    Answer. No.
    Question.  Are you aware of any occasions in which it was arranged 
for Mr. Trie to have lunch at the White House mess?
    Answer. No.
    Question.  Are you aware of any occasion on which Mr. Trie used the 
President's box at the Kennedy Center?
    Answer. No.
    Mr. Wilson. I'm showing the witness a memorandum to Debi Schiff and 
Donald Dunn for Mr. Sildon.
    The Witness. Okay.

                       EXAMINATION BY MR. WILSON:

    Question.  Does this--do you remember drafting this memorandum?
    Answer. Well, I don't remember it, but that's certainly a form that 
I used, and I'm--I will tell you, I'm confident I wrote that, but I 
would like to comment on it if I can.
    The White House asked me, whenever someone used the President's 
box, to report back to them the name. In other words, the White House 
might call and say, we have two tickets for tomorrow night's 
performance; would you like them? And I would then go to different 
departments at the DNC, maybe the Chairman's office or Political or 
Finance, and say, listen, we've got two tickets, and if somebody can 
use them, let me know. And then somebody might come back to my office 
or call me on the inside line and say, okay, we can use them.
    Let's take, for example, Political would say, yep, we can use the 
two tickets; and I'd say, great, and I'd get the two tickets and I'd 
provide them to the person in Political Affairs, DNC Political Affairs. 
And when I handed them the tickets, I would say, here are the tickets, 
here is the information on the show, but you need to provide back to me 
the name of the person who's using the tickets; and they would say, 
fine, and then after the fact, or on the day of the fact or whatever, 
they would say, okay, this is the name of the person we've given the 
tickets to.
    So, I do see this, I did write this memo, I'm confident I did 
because it's that, but I didn't do anything other than provide two 
tickets to a staff person at the DNC, who did their job and reported 
back to me the name of the person who used the tickets.
    Mr. Best. When, in September of 1995, did you leave the DNC?
    The Witness. And I left right around that date. I actually was 
hired sometime in mid- to late-September, and I don't recall the exact 
date; but I think it was around the 20th of September that I was hired 
by the Democratic Governors Association, and I actually started working 
there the next week.
    Mr. Best. So the record is clear, the memorandum which is EOP 
051237 is dated September 15th, 1995.

                       EXAMINATION BY MR. WILSON:

    Question.  When you received indication that there were tickets for 
an event, did you have a usual method of letting other people in the 
DNC know that you had those tickets?
    Answer. Yeah, I'd send out a memo or an e-mail. I might e-mail 
department heads and say, I've been contacted by the White House, and I 
have two tickets for--using this example, two tickets for tomorrow 
night's performance of something, of the National Symphony Orchestra; 
if you would like the tickets, if you can use the tickets, please 
contact me.
    Question.  And how did you decide who would end up getting the 
tickets?
    Answer. Well, it was always first come, first served. If somebody 
raced down and said, we definitely have somebody who wants them, I'd 
say, that's great, here are the tickets; or I'll get the tickets sent 
over, and I'll get them to you.
    Question.  Did Susan Lavine ever discuss with you being on the 
permanent admit list to Charlie Trie's Watergate apartment?
    Answer. No.
    Question.  Were you aware during the time that you were Director of 
NMS that she was on the permanent admit list to Mr. Trie's Watergate 
apartment?
    Answer. No, I was not while I was Director. And, in fact, I will 
tell you, I did not know that until you just told me that. Nor did I 
even know Charlie Trie had a corporate apartment at--where did you say, 
the Watergate Hotel?
    Question.  Watergate.
    Answer. I was not aware of that until just this moment.
    Question.  Do you know Pauline Kanchanalak?
    Answer. I have met her before.
    Question.  Where did you meet her?
    Answer. I met her at--I don't recall the exact--the specific 
function, but I know I met her while I was fund-raising for the DNC.
    Question.  Did you ever have any conversations with her when you 
were the Director of the National Membership Services?
    Answer. I may have. I--I don't recall specifically whether I did or 
not.
    Question.  Did you ever arrange introductions for Ms. Kanchanalak 
to meet administration officials?
    Answer. Again, not that I recall specifically. I don't believe that 
I made a phone call on her behalf. I really didn't know--I mean, I met 
her, but I didn't really know her.
    Question.  Do you have any general recollections of requests made 
by Ms. Kanchanalak to meet with administration officials?
    Answer. Can I have a moment?
    Question.  Sure.
    [Witness confers with counsel.]
    The Witness. I don't recall.

                       EXAMINATION BY MR. WILSON:

    Question.  Did Ms. Kanchanalak ever ask you to assist her in any 
way?
    Answer. No, the only time I spoke to her, again, was just at some 
event prior to my days before National Membership Services.
    Mr. Wilson. Providing the witness with a document. It appears to be 
a memorandum to Mr. Sildon from Luren Supina. If you would take a 
moment and review the document.
    The Witness. Okay. I see this document.

                       EXAMINATION BY MR. WILSON:

    Question.  Do you recall Ms. Kanchanalak's name coming up in 
relationship to the Bureau of Labor Statistics?
    Answer. I see it here. It does not refresh my recollection.
    I also will indicate that despite the fact that Luren Supina says 
in her memorandum that Pauline Kanchanalak mentioned that she's working 
with me, if you'll notice, the handwritten notes down below indicate 
that I was not speaking with Pauline; I was speaking with someone on 
her staff who never sent a request over in writing and, therefore, I 
never provided it.
    On September 9th, I indicated if she wanted me to try to do 
anything, she would need to send it over in writing; and on the 15th, I 
called to say we discussed this a week ago and I don't have any written 
information. The assistant indicated that he wasn't going to put the 
request on paper, and I indicated that I'm not proceeding ahead with 
it. And I do see it here, but I don't recall it.
    Question.  Do you know whose handwriting this is?
    Mr. Best. Where?
    The Witness. Where?
    Mr. Wilson. On the document.
    The Witness. The handwriting below the line and, for sure, the 
handwriting where it says ``9/8'' is mine.

                       EXAMINATION BY MR. WILSON:

    Question.  Do you know, I'll work from the top of the document 
down. There's a telephone number written right next to Ms. 
Kanchanalak's name on the ``re:'' line. Do you know whose handwriting 
that is?
    Answer. I know this may sound interesting, but it may be my 
handwriting, but I'm really not certain. It looks like it has the 
potential it could be mine, but it looks like either I was writing 
quick or somebody else wrote that. That doesn't really look like my 
handwriting.
    But from ``9/8'' down, I would say that's probably my handwriting 
and certain--``9/9'' and ``9/15,'' that is certainly my handwriting. 
But again, even though I see it here, it doesn't refresh my memory.
    Question.  Do you recall whether you made any contacts with other 
DNC employees about this general subject matter?
    Answer. You mean this specific request?
    Question.  The mention in the memo, yes.
    Answer. I mean, I may have discussed it with Luren Supina who sent 
the memorandum to me.
    Mr. Best. Do you have a recollection of that?
    The Witness. But I don't recall that.

                       EXAMINATION BY MR. WILSON:

    Question.  What was Ms. Supina's position at the time the memo was 
drafted?
    Answer. Luren was the director of a program that was called 
something to the effect of the Women's Leadership Forum; they changed 
names during the course of that period of time that I was Director of 
National Membership Services, but she was essentially--that's a donor 
council within the DNC, and she was--she had gotten it up and running 
and was its Director, or whatever the title may be, but she ran the 
council.
    Question.  Do you know why she would have directed this memo to 
your attention?
    Answer. Again, because as Director of National Membership Services, 
I think she was hoping that I could--I don't know why she----
    Mr. Best. Do you know?
    The Witness. No, I don't know why she sent me the memo.

                       EXAMINATION BY MR. WILSON:

    Question.  Do you recall having any conversations with any 
employees of the Bureau of Labor Statistics in 1994?
    Answer. No.
    Question.  Were you aware at the time that Ms. Kanchanalak 
expressed an interest in being invited to a lunch at which the Queen of 
Thailand was also in attendance?
    Answer. I have a vague recollection of that.
    Question.  Did Ms. Kanchanalak contact you directly about this 
event?
    Answer. I don't believe she did.
    Question.  Do you recall whether she contacted anybody else in your 
office about the Queen of Thailand lunch?
    Answer. I really don't recall. I just don't recall.
    Question.  Do you know whether you ever helped to arrange for Ms. 
Kanchanalak to meet with any administration officials at the time you 
were Director of Membership Services?
    Answer. I don't recall.
    Question.  Do you recall whether you helped Ms. Kanchanalak to meet 
with any administration officials at the time that you were Regional 
Finance Director?
    Answer. No, I would not have done that.
    Question.  Were you aware at the time that you were Director of NMS 
that Ms. Kanchanalak was a financial contributor to the DNC?
    Answer. Yes, I knew that she was a contributor.
    Question.  Did you know whether or not she was--she herself was 
making contributions to the DNC?
    Answer. I did not know the source of the contribution.
    Question.  Was it your understanding at the time that she was 
making--she was, herself, making contributions to the DNC?
    Answer. Well, it's not something that I ever would have thought 
about. You know, some people are members of our Donor Council because 
they raise a lot of money and they never write a check themselves. So I 
don't look at people and figure out, who is a raiser and who is a 
writer; they're a member of the Donor Council. I had no reason to 
assume that either she did write checks or she didn't write checks, or 
that she raised--it just wasn't a factor, and particularly when I was a 
Director of National Membership Services, I didn't care about the 
money. I just wasn't focused on that.
    Question.  Do you know John Huang?
    Answer. I have met John Huang. But I met John Huang after I left 
the DNC.
    Question.  When did you meet Mr. Huang?
    Answer. When I was working for the Democratic Governors Association 
in 1996.
    Question.  Did you at any time speak to Mr. Huang when you were the 
Director of NMS?
    Answer. I did not.
    Question.  Are you aware of any arrangements made by any of your 
colleagues at NMS on behalf of Mr. Huang?
    Answer. I--I'm not aware of it, no.
    Question.  Do you know whether any of your colleagues at NMS spoke 
directly with Mr. Huang?
    Answer. I can't--I can't speculate on what my colleagues at NMS 
did, whether or not they talked to him.
    Question.  But you have no recollection or knowledge of whether 
they did or did not?
    Answer. That's correct.
    Mr. Best. You understand that Mr. Huang did not become an employee 
of the DNC until after the witness left the DNC, and so you may be 
asking him about conversations, if any, that took place after his 
employment at the DNC?
    Mr. Wilson. Right. I do understand that.

                       EXAMINATION BY MR. WILSON:

    Question.  Are you aware of either your colleagues or anybody at 
the DNC making any arrangements on behalf of Mr. Huang to visit the 
White House or meet with anybody at the White House?
    Answer. No, I'm not aware.
    Question.  Are you aware of any requests made either to yourself or 
colleagues at the NMS on behalf of the Riady family?
    Answer. No.
    Question.  Specifically are you aware of any requests made on 
behalf of James Riady?
    Answer. No.
    Question.  Are you aware of any requests to either visit the White 
House or meet with any government official on behalf of Mr. Mochtar 
Riady?
    Answer. No.
    Question.  Do you have any knowledge of whether anyone suggested 
that the Riady family be invited or any members of the Riady family be 
invited to the White House?
    Answer. Can you read the question again?
    [The reporter read back as requested.]
    The Witness. No.

                       EXAMINATION BY MR. WILSON:

    Question.  Do you know what the TRULIST was, spelled T-R-U-L-I-S-T?
    Answer. No.
    Mr. Wilson. I'm providing the witness with a document that is 
titled at the top DNC Finance Executive Summary dated 7/26/94. And the 
record can reflect, this does not indicate that Mr. Sildon's name 
appears at all on this document.
    There is a handwritten notation at the bottom deleted from TRULIST, 
7/26/94.

                       EXAMINATION BY MR. WILSON:

    Question.  Does this provide any additional assistance to your 
being able to recall what the TRULIST is?
    Answer. It doesn't. I don't recognize that at all. And again, I was 
not a member of the Finance staff in July of '94, so it could be 
something that was--that they were aware of. I'm not. I don't know what 
that is.
    Question.  Do you know why Mr. Huang was invited to attend the 
state ceremony for the arrival of Boris Yeltsin in 1994?
    Answer. No, I really don't.
    Mr. Wilson. I'm providing the witness with a document that's a 
memorandum to State Arrival Coordinating Committee from Mr. Sildon, and 
it lists Mr. Huang as an individual who did not pick up tickets for the 
state arrival ceremony for Boris Yeltsin.
    Mr. Best. So the record's entirely clear, Mr. Huang's name is one 
among something like 50 names on a list on this document, which is F 
0013666.

                       EXAMINATION BY MR. WILSON:

    Question.  Do you recall receiving a list of potential invitees to 
the state arrival ceremony for Boris Yeltsin?
    Answer. Well, I need to explain how this works, and I think this is 
important to do.
    The White House would invite literally somewhere between 6- and 
10,000 people to the South Lawn to watch an arrival ceremony, including 
members of the public, but you actually had to have a ticket to get 
onto the grounds.
    As the Director of Membership Service, I was the one responsible 
for sending a memo to all departments at the DNC saying, we have X 
number of tickets, which usually was 300 or more, to be among the 6-, 
8-, 10,000 people on the South Lawn to attend an arrival ceremony. It's 
not like you're up close; you're just on the lawn.
    And I would offer to all department heads the opportunity to 
provide me with some certain amount of names, and usually it was 
divided evenly; Political could have 50 names and Finance could have 50 
names and the Chairman's office; and everybody could have whatever the 
appropriate number was, and all they had to do was simply give me a 
name, date of birth and Social Security number. And I provide that to 
the White House, and they do their own background check with the Secret 
Service to make sure that the person could get on the lawn which they 
would fill out with the person's name. So I get a list back for Robert 
Clay, Joan Coplan, Elizabeth Dozoretz and Paul Equale--I would get a 
list with 300 names on it, and then people could come over to the DNC 
and collect their ticket.
    I simply have sent this memo to the State Arrival Coordinating 
Committee. All those names in the upper right are people who are heads 
of departments at the DNC so you can see it went to literally like 10 
or 12 different departments at the DNC saying--I don't even know who 
gave me these names; I am going to tell you, all the names didn't get 
their tickets, so if you happen to recognize their names, you can do 
whatever you need to do, but we have a ticket downstairs in the lobby, 
approved by the Secret Service that they are not a security risk, that 
they can be one of 6-, 8-, 10,000 people on the South Lawn. That's what 
this memo is.
    So I see here that John Huang's name's on there, but as my counsel 
pointed out, he is one of 50 names. Don Fowler, before he was Chairman 
of the committee, is one of the people whose name's on here. I didn't 
even know Don Fowler in 1994. He was some gentleman from South 
Carolina, and I didn't pick up his ticket. I didn't know how to get in 
touch with Don Fowler.
    I appreciate that John Huang's name's on this memo, but that is 
because I'm going through a list and seeing it on a list and going 
through the memo.
    Mr. Best. Half of humanity is on this list.

                       EXAMINATION BY MR. WILSON:

    Question.  What was the State Arrival Coordinating Committee?
    Answer. That's just a name made up for the people in the DNC for 
who is going to be the liaison from Communications and from Political 
Affairs, and then the state chairs, and----
    Question.  You mentioned earlier that you might have as many as 300 
tickets to allocate. Would you send over a list to the White House of 
all of the DNC invitees?
    Answer. Yes, because the White House had to run--as I previously 
stated, the White House had to run that list through Secret Service, 
checking out their date--I had to provide to the White House their 
name, date of birth and Social Security of the people that we wanted to 
have fill those slots; and this was really one of the only times where 
the White House would say you get this many slots and that many people 
can go.
    We previously talked about dinners. It's not that I had a slot for 
a dinner; they'd just say, provide a name and we'll see whether they 
fit in. But for arrival ceremonies, when Boy Scouts would come and out-
of-town guests would come, they said, look, we are going to print 6,000 
tickets and you can have 300 of them.
    Question.  Did the White House ever reject any of the suggestions 
that you sent over to them?
    Answer. Not that I'm aware of.
    Mr. Best. Is there a difference between rejecting and not giving a 
ticket to?

                       EXAMINATION BY MR. WILSON:

    Question.  Yes, I'm specifically asking, did you ever get an 
indication, call, memorandum back saying, you have indicated that you 
want so-and-so invited, and we do not want that person invited?
    Answer. Not that I recall.
    Question.  Did you generally prepare a memorandum indicating who 
had not picked up tickets for large events that had multiple tickets to 
be given out to people?
    Answer. Well, I actually think that I stopped doing the memorandum 
because, as you can see, a fourth of the list doesn't pick up their 
tickets, you know. And so after a while, people didn't really care.
    They wanted to offer someone--people in the DNC didn't care if 
someone did or didn't pick up their ticket. If they offered a ticket to 
Joe Smith, as far as the person in the Office of Political Affairs of 
the DNC's concerned, that's good enough. They've offered Joe the 
ticket. If Joe doesn't pick it up, Joe doesn't pick it up, but he had a 
chance to go.
    So I stopped writing these memos because nobody cared about the 
information. It wound up being a waste of my time.
    Mr. Wilson. I'll mark this document as Exhibit ES-1 and submit that 
for inclusion in the record.
    [Sildon Deposition Exhibit No. ES-1 was marked for identification.]

    [Note.--All exhibits referred to can be found at end of 
deposition.]

                       EXAMINATION BY MR. WILSON:

    Question.  Do you know Mr. Johnny Chung?
    Answer. I do.
    Question.  Where did you first meet Mr. Chung?
    Answer. He was introduced to me at some point by someone on the 
finance staff. I met him after I became director of National Membership 
Services.
    Question.  Did you meet him on more than one occasion?
    Answer. After I initially met him, I did see him on other 
occasions.
    Question.  Approximately how many times would you have met him?
    Answer. He would just show up at the DNC, so I would say probably 
half a dozen times, give or take one or two. But, you know, 
approximately half a dozen times.
    Question.  Did Mr. Chung ever telephone you?
    Answer. Yes.
    Question.  Approximately how many times did he call you?
    Answer. I couldn't recall with certainty, but approximately the 
same number of times.
    Question.  And why did he call you?
    Answer. Well, I--I--he had a variety of requests.
    Question.  If you could, be a little bit more specific on the types 
of requests and the specific requests that he made of you.
    Answer. Well, let me say I don't recall why he called me every 
time. I do recall at least one specific time and, candidly, I--I recall 
it and it has been further reinforced by all the news articles that 
have been about a particular time.
    He--he went to a White House radio address that I was not 
responsible for submitting his name for. I did not even know he went to 
the address until he called me to say, last week I got to go to the 
radio address, and I really would like to get--and my picture was taken 
with the President, and I had a few friends there, and their pictures 
were taken with the President; can you help me get the pictures?
    This was--this was not highly unusual that someone who goes to a 
radio address gets their picture taken with the President, little kids, 
basically if you're in the room, the President if he has time will 
shake everyone's hand and you get your picture taken or maybe you 
brought your own camera. Usually a picture is taken.
    So I called over to the White House in response to a phone call I 
got from Mr. Chung asking for his photos.
    Question.  Do you recall when that was?
    Answer. The only reason I recall it is because I've read in the 
newspapers approximately the date, and that was March of 1995.
     Mr. Wilson. Providing the witness with a document, it is a--this 
is a letter to Mr. Sildon from Johnny Chung dated February 27, 1995.

                       EXAMINATION BY MR. WILSON:

    Question.  Do you recall receiving this letter?
    Answer. I actually do recall receiving this. Can I tell you why I 
recall it?
    Question.  Absolutely.
    Answer. Because it was one of the most preposterous letters I had 
ever received in my life. Somebody just calls me and says, I want to 
meet with the President and the Vice President. You know, I had never 
seen anybody who thought that all they had to do was send a letter and 
then they could meet with the President. I have never arranged a 
meeting with the President, so I also thought it was, I mean, with all 
due respect, a little laughable, that somebody would send me a letter 
thinking I could just pick up the phone and arrange a meeting with the 
President on his behalf, regardless of the merit of whether or not such 
a meeting should occur.
    Question.  What did you do after you received this letter?
    Answer. Well, I believe I did not move very hard--very--I was not 
very active to pursue these requests. It is possible that--first of 
all, I know that I talked to Martha Phipps, who was my supervisor, and 
showed it to her. I may have talked to others about it. And I believe 
that I probably tried to get him a tour of the White House, and it is--
anything else beyond that point I don't particularly recall.
    Question.  Do you recall whether you replied in writing to him?
    Answer. I would be very surprised if I replied in writing, because 
I seldom had time to do my job as it was, let alone take time to sit 
down and write letters to people who contact me. Plus, again, just I 
can't imagine I would have considered it a very serious request.
    Question.  Did you discuss this request with anybody else at the 
DNC?
    Answer. Besides Martha Phipps, who I previously mentioned?
    Question.  Yes.
    Answer. I may have. I don't recall.
    Question.  Do you recall receiving other faxes or letters from Mr. 
Chung?
    Answer. If you have something to show me, I would be happy to 
respond to it. I don't particularly recall whether or not he sent 
another fax as a follow-up to this or any other kind of request.
    Question.  You discussed earlier the Presidential radio address and 
photographs that were taken at the address. Did you know in advance of 
the radio address who Mr. Chung's guests were?
    Answer. No. Are you talking about these business leaders from 
China, as he describes in this letter?
    Question.  Actually, I have moved from this. I am not referring to 
this document at all at this point.
    Answer. Okay.
    Mr. Best. There is a problem with your question because he does not 
know of the radio address until after the event when Mr. Chung calls 
him and seeks the photographs. Implicit in your question is that he had 
some knowledge prior to the radio address, and he has already testified 
the first thing that he knows about it is subsequent to the event when 
Mr. Chung calls him.
    Mr. Wilson. Actually, just to clarify that for myself.

                       EXAMINATION BY MR. WILSON:

    Question.  Short of going back, was the first time you knew of the 
photographs and the radio address after the actual event?
    Answer. Yes.
    Question.  Were you made aware, when you did learn about the event, 
of who the guests of Mr. Chung were?
    Answer. No. And I actually even today don't know who they are, 
other than having read in newspaper articles within the last few 
months.
    Now--you know, I did not know who these people were; basically 
still don't. I couldn't tell you today what any of those people do and 
if they are from China; I couldn't tell you what they do right now even 
having read the newspaper articles. I don't know who these people are.
    Question.  Did Mr. Chung request directly of you to get help to get 
the photographs from the White House?
    Answer. Yes.
    Question.  And how did he do that?
    Answer. He called me. He either called me or stopped by my office. 
That, I don't specifically recall. But I do know that he issued the 
request.
    Question.  And what did he tell you at that time?
    Answer. It was just--he made it sound very innocuous. He had been 
to a radio address and pictures were taken, could I help him obtain the 
picture. It sounded at the time innocuous to me because that's--as I 
indicated before, that's standard practice, if you go to a--not 
standard but pretty common practice, if you go to a--if you go to a 
radio address, you can get your picture taken.
    Question.  And what did you do?
    Answer. I called over to the White House to see if we could help 
him get his pictures.
    Question.  And what were you told?
    Answer. After somebody said that they would check on it, they 
called me back and they said that those pictures wouldn't be made 
available.
    Question.  Did they give you a reason why they wouldn't be made 
available?
    Answer. They did. They--I actually do recall this because it's the 
first and only time it has been told to me. They said, the pictures 
aren't available because the President doesn't want them released and 
the National Security Council is--does not believe they should be 
released to him. They are concerned about his guests.
    Question.  And who told you this?
    Answer. I don't recall. It was someone in the President's personal 
office.
    The reason I don't recall is there were two different staff people 
I would often call for these kinds of requests, something that happened 
like a radio address with the President. I just don't remember which 
staff person it was.
    Question.  And when they told you this, what did you do next?
    Answer. I immediately told Johnny that I was not going to be able 
to get his pictures, that the National Security Council was 
uncomfortable with him having those pictures.
    Question.  What did he say?
    Answer. I don't recall what he said, but it didn't matter to me 
because I disengaged at that point. I figured if the NSC--I wasn't 
asking questions. It wasn't my situation. I didn't put him in the radio 
address. I was doing my job trying to resolve a constituent request. 
The request was to have photos. The National Security Council said he 
shouldn't have these photos. That was good enough for me. I provided 
the answer. I considered that as a closed issue and I disengaged.
    Question.  Did Mr. Chung make any further requests of you about 
these photographs?
    Answer. He did not. And I assumed he did not get his photos.
    Question.  Were you aware at any time before the--were you aware at 
any time in 1995, at the time you were director of National Membership 
Services, that Mr. Chung had been described as a quote, hustler, 
unquote?
    Answer. No.
    Mr. Best. He is asking--okay. You have answered it.
    Mr. Wilson. I will provide the witness with a document which has 
been premarked E0P 005439, which it is indicated that the sender was a 
Mr. Robert L. Suettinger.
    Mr. Lu. For the record, this document, so the record is clear, this 
document was produced by the White House.

                       EXAMINATION BY MR. WILSON:

    Question.  Have you ever seen this document?
    Answer. No.
    Question.  Do you know if Mr. Chung was ever solicited regarding 
debts from White House Christmas parties?
    Answer. I don't know.
    Question.  Do you know, and this is returning to the subject we 
were discussing a moment ago, the radio address photographs, do you 
know whether anybody else at the DNC made any requests to the White 
House for Mr. Chung to get his photographs?
    Answer. I am sorry, can you repeat that question? I was reading 
this document. I apologize.
    Question.  Sure. Do you know of anybody else at the DNC who made 
requests for Mr. Chung to get the photographs that were taken at the 
radio address?
    Answer. Just because I want to be able to answer your question, I 
apologize for doing this. I need you to read it back one more time.
    [The reporter read back as requested.]
    The Witness. I do not.
    Thank you. I am sorry. I just wanted to make sure I understood the 
question.
    I do not.

                       EXAMINATION BY MR. WILSON:

    Question.  Did you have any conversations with anybody else at the 
DNC about Mr. Chung's desire to get the radio address photographs?
    Answer. I did. I know I talked to Richard Sullivan, and I believe 
at the time he was deputy finance director, eventually became finance 
director, but I don't think at that time he was. And I also talked to--
I believe I talked to Carol Khare, who was the chief of staff in the 
chairman's office. She ran the chairman's office. Again, that's to whom 
I reported to as my supervisor, just to bring them both up to date, 
particularly Richard, because he was the first person who had kind of 
been the connection for Johnny Chung to the DNC. In other words, when 
you make an initial contribution, you are a member of a donor council 
which was the head at one point of the Business Leadership Forum. Mr. 
Chung was a member of that donor council. So I always assumed Richard 
to be a staff contact.
    Question.  What did Mr. Sullivan tell you when you explained the 
situation?
    Answer. I really don't recall. I mean, I--you know, I provided the 
information. Johnny Chung called me. I made a phone call. I got an 
answer that I felt was good enough for me. I passed that information 
along. I just wanted to make the two of them aware of the situation. I 
wasn't looking for any kind of response back from them. If they gave me 
one, I don't recall.
    Question.  Why did you call Ms. Khare?
    Answer. Because she was my supervisor.
    Question.  Do you know Roger Tamraz?
    Answer. No.
    Question.  Have you ever spoken with Mr. Tamraz?
    Answer. No.
    Question.  Apart from subsequent media accounts, did you at the 
time that you were the director of NMS, did you know of anybody else at 
the DNC attempting to arrange introductions for Mr. Tamraz to meet 
administration officials?
    Answer. No.
    Question.  Had you ever heard the name ``Roger Tamraz'' when you 
were at NMS?
    Answer. Not that I recall.
    Question.  Had you ever heard the name ``Eric Hotung'' when you 
were at NMS?
    Answer. No.
    Question.  Had you ever heard the name ``James Riady'' when you 
were director of NMS?
    Answer. Well, I don't recall. Because I have heard his name so 
often recently in the news, I don't recall if I had heard it before, 
but I don't believe so.
    Question.  Do you know whether Mr. James Riady made any requests of 
you or your colleagues at NMS?
    Mr. Best. You have already asked him earlier if he had ever spoken 
with Mr. Riady. Now you are coming back around to the same----
    Mr. Wilson. With his colleagues, correct.
    The Witness. Prior to this conversation today, prior to this 
deposition, I was not aware of that. Based on information you told me 
earlier in this deposition, I would say now obviously I am aware of 
that, but prior to today, during my time at the National Membership 
Services, as director of the program, I was not aware of him having any 
kind of direct contact with my colleagues on my staff.
    Mr. Best. Riady, are you talking about? Was that your question?
    Mr. Wilson. It was my question, and there might be clarification in 
order there.
    Mr. Best. I don't believe you have made any assertion of a prior 
contact.
    Mr. Wilson. I don't believe I have, either.
    The Witness. I apologize.
    Mr. Wilson. I don't believe I have, either.
    The Witness. I apologize. In just recalling what we spoke about 
earlier today----
    Mr. Wilson. Mr. Trie.
    The Witness. It was Charlie Trie and I was thinking James Riady. I 
don't have any reason to know that James Riady had any conversation 
with any people on my staff. I apologize about that confusion.

                       EXAMINATION BY MR. WILSON:

    Question.  Is your answer the same for Mochtar Riady?
    Answer. Yes.
    Question.  Do you know, either or both, Arief or Soraya 
Wiriadinata?
    Answer. Again, I have no recollection of that name.
    Question.  Do you recall hearing the name ``Wiriadinata'' when you 
were director of NMS?
    Answer. No.
    Mr. Best. Since the first contributions were made by the 
Wiriadinatas after this gentleman left the DNC, it is most unlikely 
that he would have heard of them.
    Mr. Wilson. Well, that's something I don't know and presumably 
that's something that you don't know. I think it has to be determined.

                       EXAMINATION BY MR. WILSON:

    Question.  Have you ever heard anybody discuss whether Arief 
Wiriadinata attended a movie at the White House?
    Answer. No.
    Question.  Do you know Yogesh Ghandi?
    Answer. I have heard the name in recent news reports. I had not 
heard the name prior to reading them in Washington Post news stories 
during the course of this spring and summer, 1997.
    Mr. Lu. Again, I would just make the same point that Mr. Best made, 
which is, that Mr. Ghandi's contributions to the DNC came after Mr. 
Sildon left the DNC.
    Mr. Wilson. Could I just ask for a clarification?
    Mr. Lu. Yes.
    Mr. Wilson. I am just wondering how that has any bearing on my 
question as to whether he has ever heard the name before.
    Mr. Lu. It is just not clear to me why he would have heard the name 
if Mr. Ghandi's involvement with the DNC came after he left.
    Mr. Wilson. He might have met him.
    Mr. Ballen. He might have met anyone in the world. Are you going to 
ask him everybody in the phone book?
    Mr. Wilson. That's why I am asking the question.
    Mr. Ballen. This deposition--I am going to say something. This 
deposition has gone on twice the length of time than a much more 
prominent person. There has to be some reasonableness to the questions 
that have to relate to knowledge the witness reasonably could have. You 
could ask the witness does he know about Mount Vesuvius if you want, 
but you have to conduct a deposition that is fair to the witness and we 
are going on and on and on with no end in sight. That's the purpose. 
That's the clarification.
    Mr. Best. Let me say this for the record: We want to give you every 
opportunity to ask reasonable questions, but I certainly know, and I 
would have thought that you would know, that in the first instance the 
Wiriadinatas first make their first contributions to the Democratic 
National Committee in November of 1995, and after this witness has left 
the Democratic National Committee and Yogesh K. Ghandi makes his 
contribution in May of 1996, almost a year before this--after this 
witness has left the Democratic National Committee. That clearly still 
leaves open the question whether or not he knew these people prior to 
the time that they made the contribution, so that there is a basis for 
you to ask the question. But the likelihood that he would know them is 
so improbable under all of these circumstances that given the length of 
this deposition I object, so that the record is clear, to the questions 
as they are going on. You are just trolling for information at this 
point.
    Mr. Wilson. Well, at the extent of drawing this out even further, 
when individuals make contributions in excess of $300,000 as their 
first contribution, it is not out of the realms of possibility that 
somebody has met them, heard of them, come across them, seen them, 
sometime within the past 1-year period. I mean, that's just my common 
sense, which obviously from your perspective is not very common. But it 
is a simple one-line question that could have been answered no and we 
could have continued on to the next phrase. That's all I am interested 
in.
    Mr. Best. That's always the response when you point out the 
improbability of the question, that you are wasting more time with the 
objection. But you have got to make the objection so as to perhaps 
bring this back to a sense of reality. But go ahead. Go ahead with your 
questions.

                       EXAMINATION BY MR. WILSON:

    Question.  Are you aware that the President attended a series of 
coffees held at the White House during 1995 and 1996?
    Answer. Only because I have read about them in the newspaper.
    Question.  Did you know of the coffees at the time that you were 
director of NMS?
    Mr. Best. When you say ``coffees'' now, you must understand that 
there were a whole raft of coffees at the White House, some sponsored 
by the Democratic National Committee, according to the facts as I know 
them, some by the Clinton/Gore campaign and by other organizations as 
well. So when you say ``coffees,'' are you only referring to those 
sponsored by the Democratic National Committee or generally coffees 
with a whole group of other sponsors as well?
    Mr. Wilson. I was being inclusive.
    The Witness. That occurred in 1996?

                       EXAMINATION BY MR. WILSON:

    Question.  1995 and 1996.
    Answer. I was not aware of those coffees occurring while I was in 
my role as director of National Membership Services.
    Question.  Did you have any knowledge at the time you were director 
of NMS that the DNC was paying for the costs of coffees held at the 
White House during 1995?
    Mr. Best. You mean reimbursing for costs?
    Mr. Wilson. Correct.
    The Witness. Well, I wasn't aware of that. Again, I wasn't on the 
fund-raising staff and wasn't--I had nothing to do with the coffees so 
I wouldn't know about any of the other aspects.

                       EXAMINATION BY MR. WILSON:

    Question.  Did you on any occasion, when you were director of NMS, 
see any memoranda or spreadsheets that alluded to any financial returns 
from coffees that were held at the White House?
    Answer. No.
    Mr. Best. See what a good no does for you.

                       EXAMINATION BY MR. WILSON:

    Question.  Did you ever have any interaction with Harold Ickes?
    Answer. No.
    Question.  Have you met Mr. Ickes?
    Answer. I have met him.
    Question.  When have you--when did you first meet Mr. Ickes?
    Answer. Again, I don't recall specifically when I met him, but--and 
it could have been in either role. You know, you meet someone and then 
you know you have met them. I can't tell you now, 4 years later, tell 
you while I was fund-raising or while I was director of Membership 
Services, but I had some occasion to meet him.
    Question.  Did Mr. Ickes ever call you when you were the director 
of NMS?
    Answer. No.
    Question.  Did you ever call Mr. Ickes when you were director of 
NMS?
    Answer. No.
    Question.  Do you ever recall Mr. Ickes contacting one of your NMS 
colleagues directly?
    Answer. No.
    Question.  Do you ever recall one of your NMS colleagues contacting 
Mr. Ickes directly?
    Answer. No.
    Question.  Did you ever discuss--did you ever have any discussions 
with colleagues at the DNC about contributions or donations to tax-
exempt organizations?
    Mr. Lu. While he was a fund-raiser or while he was with NMS?
    Mr. Wilson. Ever.
    Mr. Lu. Ever? Okay.
    The Witness. I am sorry. Would you repeat the question?
    Mr. Wilson. Could you repeat the question, please.
    [The reporter read back as requested.]
    The Witness. No.

                       EXAMINATION BY MR. WILSON:

    Question.  Did the NMS office collect or have any information about 
tax-exempt voter registration organizations?
    Answer. No.
    Question.  Do you know what the arts project was?
    Answer. I don't, based on that title. I mean, if you have a 
document that might refresh my memory, I would be happy to look at it. 
I mean, is that an official title or is that just a term of art?
    Question.  There is no mystery. I don't know, either. So I am 
asking you.
    Answer. Okay.
    Question.  It appears to be a term of art, and if you don't know, 
you don't know.
    Mr. Lu. Counsel, if we are at a breaking point now----
    Mr. Wilson. Actually, you will be very happy to know that I have 
two questions and I am happy to take a break.
    Mr. Best. No, I am perfectly happy.
    Mr. Wilson. I will soldier on.
    Mr. Best. March.
    Mr. Lu. Please.
    The Witness. I am not aware of a project officially called the arts 
project.

                       EXAMINATION BY MR. WILSON:

    Question.  Do you have any knowledge of whether anyone at the DNC, 
at the time you were regional finance director or the time you were 
director of NMS, provided a list of Chinese American trustees to anyone 
at the Taiwan Economic and Cultural Representative Office in the U.S.?
    Answer. I am sorry. Can you repeat the question?
    [The reporter read back as requested.]
    The Witness. I do not.

                       EXAMINATION BY MR. WILSON:

    Question.  Have you ever heard the name ``Andrew Shi,'' S-H-I?
    Answer. No.
    Mr. Wilson. That concludes my round of questioning.
    If you would like to take a break before yours, I would be happy 
to.
    Mr. Lu. No. I would just as soon we wrap up.
    The Witness. Good.

                         EXAMINATION BY MR. LU:

    Question.  Mr. Sildon, thank you for coming today. On behalf of the 
Democratic members of the committee, I would like to thank you. I know 
this has been an imposition on you and your time, and I will try to 
keep my questions reasonably brief.
    Answer. Thank you.
    Question.  And we will wrap this up.
    Answer. Thank you.
    Question.  As I understand your testimony, one of your goals in 
setting up NMS was to separate these services from the finance 
department; isn't that correct?
    Answer. That is correct.
    Question.  In fact, I believe you have testified that you did not 
want these services to be--or decisions about how these services were 
to be provided to be based on the amount of money that a supporter had 
contributed; isn't that correct?
    Answer. That is correct.
    Question.  And, in fact, when the supporter called your office 
asking for assistance or asking for a tour to be arranged, you didn't 
check first to see how much money that supporter had given.
    Answer. Correct.
    Question.  In fact, I believe you testified that you did not even 
have access to that type of financial information.
    Answer. That's also correct.
    Question.  And I believe, if my understanding is correct, that's 
why throughout this deposition you have been using the term 
``supporter'' or ``constituent'' as opposed to ``contributor'' when you 
talk about the type of services that your office provides.
    Answer. That's correct.
    Question.  Isn't it true that the arrangements your office made for 
supporters were similar to the types of services that a Congressman or 
Senator's office would make for his or her constituents?
    Answer. I had worked on the Hill for 7 years. I understood about 
constituent service. You don't--you don't ask someone when they call a 
Member of Congress' office if they made a contribution to a recent 
campaign or election. I just--if people need help, I want to try to 
provide it.
    If someone contacted me, that's correct, I tried to simply take the 
request and fulfill it regardless or irregardless of other factors, 
such as contributions.
    Question.  And would I be correct in guessing that the Republican 
National Committee probably provides the same types of services that 
the DNC or Congressman or Senator's office also provides for its 
supporters?
    Answer. That's not only correct but a lot of the impetus for 
starting a program like this was because they had done that as well, 
and they had paved the way and we understood that those kinds of 
opportunities existed and had been done so in the past.
    Question.  And when you say that they paved the way, can you 
elaborate for me on what types of services you are aware of that the 
RNC provided for its supporters?
    Answer. I had seen a brochure of a group called Team 100 and the 
Eagles, which talked about all of these opportunities people would 
have, you know, with the President and, you know, be it tours or going 
to events. I was simply interested in moving this away from the finance 
division of the DNC and being responsive to people just as previous--
previous--previously had been done by the RNC.
    Question.  Just so the record is clear, when you were talking about 
Team 100 and the Eagles have access to the President, you meant 
President Bush or President Reagan?
    Answer. Correct. Correct. And I had seen that in brochures that the 
RNC had put out.
    Question.  Can you recall any other types of, for lack of a better 
word, perks that were available that the RNC provided to its supporters 
that you read about in those brochures?
    Answer. Well, I really don't recall others that they offered that 
we didn't offer or vice versa. They were very different 
administrations, you know, with different staff and a different 
President. It just--it was trying to respond to the fact that we now 
were looking for ways to be responsive to our constituents, just as the 
RNC had always been, just as when I worked on Capitol Hill when a 
constituent contacted a Member's office and they wanted information or 
to be pointed in the right direction.
    You know, this program, everybody keeps talking about this program, 
and I won't belabor this point, but everybody keeps talking about this 
program that we were putting people in radio addresses and doing these 
other things. We were doing things like helping an out-of-towner 
figuring out what is a good Italian restaurant to go to in Washington 
or what is something interesting so their kids won't be bored all 
weekend long when they come to town or what is appropriate for a 5-
year-old to do versus a teenager to do.
    Our program did so much more than just radio addresses and putting 
people in South Lawn events, as we discussed this morning. Our program 
was to try to be responsive to anyone. We were the catchall when 
somebody called the DNC; nobody knew who to turn to, let's have them be 
able to talk to National Membership Services. Maybe they will have an 
idea for them.
    We have got a list of 50 fun things to do in Washington, D.C., that 
we could send any constituent who called. It didn't matter if they 
wrote a $100,000 check or, you know, they were just some little old man 
out in the Midwest who was coming to Washington for the first time.
    That's why we started the program and I did not want it to be tied 
to money. That's why I left the finance department. That's specifically 
the reason why I talked to the chairman and, as I previously testified, 
to Martha Phipps and to my former boss, Nancy Jacobson, and we decided 
to move it out of the department, because it didn't have to do with 
money. And we didn't want there to be this perception that we were 
telling people where to eat or trying to help them get a tour at the 
White House simply because they wrote a check.
    Question.  And I don't mean to belittle the work your office did, 
but it sounds as if a lot of the services your office provided were 
similar to what perhaps a hotel concierge would provide.
    Answer. Exactly right.
    Question.  Let me just go back for another second or to the 
discussion we just had about the RNC's services. Would it surprise you 
if I told you that the RNC had special briefings for administration, 
Bush administration briefings, for its large contributors?
    Answer. It doesn't surprise me because I know it happened.
    Question.  Do you know a specific example in which that happened?
    Answer. Well, I have knowledge from my days when I was a lobbyist 
for the National Federation of Independent Business that I would go to 
White House briefings on the fourth floor of the OEOB when, you know, 
the--I mean, there was one time when President Bush himself came, but 
where they would have, you know, somebody from the--you know, Carla 
Hills was at one of the briefings, and I just--you know, that's what 
they did. They held briefings, and I sat in those briefings when I was 
a lobbyist, and I also knew from people who were supporters of the DNC, 
who would, you know, look, a lot of these people are interested on both 
sides. So they--you know, they supported the RNC and they supported the 
DNC and they would come say to us, look over at the RNC, they are doing 
all of these things for us; you guys have got to get on the ball; you 
guys need to be responsive to our interests as well.
    Question.  And would it surprise you if I told you that the RNC had 
staff members who also arranged services or performed services, made 
arrangements for its large contributors or arranged meetings with 
Members of Congress?
    Answer. It would not surprise me.
    Question.  Did your office ever provide services to a supporter so 
that supporter might encourage foreign nationals to contribute money?
    Answer. Absolutely not. In fact, I knew that was illegal anyway, so 
we certainly wouldn't have done anything for those reasons.
    Question.  And to your knowledge was there ever any communication 
or any hints from the President or the Vice President that the DNC 
should use their office in that way to encourage foreign nationals to 
give contributions?
    Answer. No. And to follow up on something you said a minute ago, 
and I don't think it belittles the program either, I doubt the 
President or the Vice President even knew our little shop existed. We 
were there to provide constituent service to all kinds of people. I am 
pretty certain they did not know that this little shop of three people 
was over at the DNC helping people figure out a good restaurant to go 
to or who should come to the South Lawn along with 6,000 other people 
to see Boris Yeltsin shake the President's hand.
    Question.  At the time your office made tour arrangements and 
provided other services, we have talked about Charlie Trie today, 
Johnny Chung, Pauline Kanchanalak, had there been any news stories, 
media accounts about them?
    Answer. No.
    Question.  Can you estimate for me the number of requests for all 
types of services that your office received during the time that you 
worked there? Would it be fair to say it was thousands?
    Answer. Yes. Which is part of the reason I have a difficult time 
recalling when all of these names are asked. We probably had, no 
exaggeration, 3 dozen requests a day, or a couple dozen requests a day 
for, again, all kinds of things. We were usually some of the last 
people there, because we were at 7:00 or 8:00 at night still trying to 
be responsive to people, whether we were able to get them that White 
House tour the next day or where they should go to dinner or something 
upcoming that weekend.
    We had dozens and dozens of requests that had nothing to do even 
with politics, you know, a golf course to play on, you know, did we 
have a connection to help somebody get a ticket to a sold-out Orioles 
game because they were coming to town? I mean, just all kinds of little 
things that every project took 20 minutes. And we had 3 dozen a day to 
do.
    Question.  So as far as you know, there was no reason your office 
should treat Mr. Trie, Mr. Chung, Ms. Kanchanalak, any different from 
these thousands of other requests that you received?
    Answer. Correct, because at the time I certainly was not aware of 
the things that now, because of recent newspaper articles in 1997, 2 
years after I left the DNC, I have since learned. But at the time they 
were supporters, just as I have said before, the little old man from 
out in the Midwest who did door hangings before elections every 2 years 
for the last 50 years, just as he was a supporter. It was my 
responsibility to be responsive to all supporters of the DNC. And 
that's why--and I didn't have access to the money. I didn't know how 
much these people gave, and it wasn't an issue because money wasn't an 
issue. I took care of--I didn't take care of Pauline Kanchanalak or any 
of the people that you have previously mentioned, frankly I don't think 
I did anything for them, but I wouldn't have taken care of them any 
better than I would have somebody that the DNC Political provided to me 
or the Office of State Chairs or any of the other departments. They all 
were important to me. It was my job to try to respond to as many 
requests as I could do, to try to be responsive and fulfill these 
people's requests.
    Question.  I believe you have also testified that you were involved 
in trying to acquire Mr. Chung's photos from the Presidential radio 
address. Is that correct?
    Answer. Correct.
    Question.  And at that time, or any time when you worked at NMS, 
did you have any suspicion that he might be an agent for the Chinese 
government?
    Answer. No, absolutely not. He just--he just was--just, I think, 
always looking to speak to someone, you know, and for awhile I was 
talking to him and after me I am sure there was somebody else and 
probably somebody else. I had no knowledge of his--the question that 
you asked. I would not have known that.
    Question.  I just have a few more questions. These are some 
questions that one of the Members on our committee has asked that we 
ask all the deponents.
    If you could just hold on a second.
    If I can, before I do that, let me just jump back a second to some 
of the answers you just gave me. You mentioned that when you were at--
when you were legislative representative for a group here in town that 
you attended some special briefings at the Bush White House. Isn't that 
correct?
    Answer. Correct.
    Question.  And you mentioned one specific briefing with the 
President, President Bush, another one with Carla Hills. Can you give 
me--can you think of any other specific examples of briefings that you 
attended with Bush administration officials?
    Answer. I have a vague recollection of also attending a briefing, a 
labor-related briefing, up on the fourth floor of the OEOB. But I--I 
don't recall specifically who was there or what the--what the topic of 
the briefing was.
    Mr. Lu. Actually, can we go off the record for just a minute, 
please.
    [Off the record discussion.]
    Mr. Lu. Let's go back on the record. Could you read back the last 
part of his answer.
    [The reporter read back as requested.]

                         EXAMINATION BY MR. LU:

    Question.  Were these briefings that you attended because your 
organization had given money to the RNC or to other Republican groups?
    Answer. Well, I am not sure I could say that that is the reason 
why. We were involved in legislative efforts that were similar to 
legislative objectives and interests of the Bush White House, and so we 
were, as one of the friendly organizations, invited to substantive 
issue briefings, updates, at the White House.
    Question.  I believe you also mentioned earlier, when I asked you 
some questions, that you knew of some DNC supporters that had also 
supported the RNC and that some of these--sometimes these DNC 
supporters told you about the services that had been provided to them 
by the RNC. Are you able to describe for me any of those types of 
services that those supporters mentioned?
    Answer. Well, one supporter mentioned that he was able to play 
tennis on the South Lawn at the White House, and that was certainly 
something I was not aware would even be a remote possibility. And as it 
turned out, I did not ever really pursue that ability, that 
opportunity. I didn't get people into the White House so they could go 
play tennis on the South Lawn, but I was told that the Bush 
administration had--that President Bush had allowed people to come over 
and play tennis with him, with others, on the tennis court.
    Question.  And other than playing tennis on the South Lawn, can you 
recall any other services that these supporters had mentioned that the 
RNC had provided them?
    Answer. Well, I thought I remembered that actually supporters got 
to fly on Air Force One, but, again, that was not something that I was 
responsible for at the DNC so that didn't really matter. And I don't 
recall specifically all the things that were said, but somebody handed 
me the Team 100 and Eagles brochure from prior to 1993 when President 
Bush was--and his administration were here in town, and it showed a 
variety of these benefits.
    Question.  Some of which the DNC provided and some of which the DNC 
did not provide?
    Answer. Correct.
    Question.  As I stated earlier, one of the Democratic Members of 
our committee has asked us to ask all the deponents some questions and 
they are pretty standard questions.
    Have you been asked by any other official investigative body to 
testify or provide evidence on any of the fund-raising or other matters 
being investigated by this committee?
    Answer. No.
    Question.  So you have not been interviewed or deposed by the 
Senate Governmental Affairs Committee?
    Answer. I have not.
    Question.  Or the Department of Justice?
    Answer. Correct.
    Question.  And I assume, because you are not a current employee, 
you also did not provide any documents to this committee?
    Answer. Correct.
    Question.  Although I believe you said you searched your own 
personal records for those documents.
    Answer. I was told I needed to do that to see if I had any 
documents, and if I had them I would have been happy to provide them, 
but I didn't think I did.
    Question.  And have you received any requests to provide documents 
or be interviewed or be deposed by any other investigative body in the 
future?
    Answer. No.
    Question.  Can you estimate how much time--how much of your time 
you have spent in preparing and attending this deposition?
    Answer. Besides the daily anxiety of anticipating a deposition and 
then my deposition last week being postponed because the morning 
deposition was running too long?
    Question.  Yes.
    Answer. You know, I have been here all day and I have had to have 
two meetings with counsel, rearrange schedules. I actually was supposed 
to be out of town today, flying back in this morning actually, but I 
flew in yesterday so I could make this deposition. So time wise, you 
know, 15 or 20 hours.
    Question.  And I think you told us at the outset of your deposition 
that you are self-employed as a consultant?
    Answer. Correct.
    Question.  So in terms of any costs to your employer, those would 
be really costs to you?
    Answer. True. But my costs is that I am not working today and I am 
not either seeking clients, which are my sole source of income, and I 
am not working for the few clients I have to help them, you know, 
finish up projects I am working on for them.
    Question.  Has this committee offered to reimburse you for your 
time and/or expenses?
    Answer. Not that I am aware of.
    Question.  If it is available, will you seek reimbursement from 
this committee for your expenses?
    Answer. Probably not. I don't know. I would like to reserve 
judgment on that. At this time, that's not something that I was 
considering.
    Mr. Lu. No further questions.

                       EXAMINATION BY MR. WILSON:

    Question.  Was there any distinction between the types of events 
that you helped people attend at the White House in terms--and that's a 
self-imposed distinction, a hierarchy where one was more important than 
another in your mind?
    Mr. Best. Do you want him to distinguish in terms of importance? Is 
that what you are saying?
    Mr. Wilson. I am asking whether the NMS staff prioritized or had a 
hierarchy of the different types of events that you helped people--
facilitated for people.
    The Witness. I would say only one kind of event would be considered 
more important to us than any other, and that's a State dinner, and 
they are obviously important enough that the guest lists are published 
in the Washington Post and it is always a big story in the Style 
section when there is a State dinner. Other than that--and this 
President hasn't done many State dinners. He didn't do one his entire 
first year in 1993, so they are much more few and far between compared 
to other kinds of events.
    Beyond that, no, all events are the same.

                       EXAMINATION BY MR. WILSON:

    Question.  You mentioned earlier that Mr. Chung's laundry list of 
requests was--it is my words, not yours, but somewhat farfetched. Were 
you aware of any other requests by DNC supporters that were simply 
deemed inappropriate? And I am not asking whether they were not 
possible but just simply inappropriate.
    Mr. Best. Deemed by him inappropriate?
    Mr. Wilson. Deemed by Mr. Sildon to be inappropriate.
    The Witness. Requested of me?

                       EXAMINATION BY MR. WILSON:

    Question.  Correct.
    Answer. Since some requests may have come in that DNC staff never 
submitted to me?
    Question.  Yes.
    Answer. Well, I don't--I don't recall. I certainly don't recall. 
There either may have been some--I am sure there were some. I am sure 
there were requests that came in that you just looked at and went, I 
don't think so, but I don't recall specifically such requests.
    Question.  Do you recall requests being made by individuals that 
any of your DNC colleagues thought were inappropriate because of who 
the person was who was making the request?
    Answer. Not that I am aware of.
    Question.  Was there any distinction that you knew of, when you 
were at both NMS and in your position as regional finance director, 
where there were distinctions drawn between facilitating meetings for a 
policy nature or for doing something that was more of a spectator sport 
type of request, for example, going on a tour or visiting a building?
    Answer. I am sorry. I actually need you to rephrase the question.
    Question.  I don't think anybody would have understood that 
question. was there a distinction drawn by anybody at the DNC that you 
knew of, for the entire time that you were there, between the types of 
events that involved meeting with policy-type employees and simply 
attending events or going to look at a building?
    Mr. Best. Are you characterizing a meeting with a policy-type 
official as an event?
    Mr. Wilson. Yes.
    The Witness. I want to make sure I understand the question.
    It appears to me what you are asking is, did I weight equally, 
providing--helping provide a tour and meeting with an administration 
official? Is that your question? I want to make sure. Is that your 
question?

                       EXAMINATION BY MR. WILSON:

    Question.  Right.
    Answer. No, I would say I probably would not have weighted those 
equally.
    First of all, again, I very, very seldom asked to arrange for a 
meeting for someone, but if I was, and there was--first of all, I 
didn't arrange any meetings. All I did was forwarded information on to 
an office on behalf of some constituent for that office to decide 
whether or not they wanted to take a meeting.
    But if I was asked on the same day to help get somebody a tour and 
to help forward information along for a meeting, I would certainly do 
the tour without qualification and I would want to--I would want 
someone to tell me that I was supposed to make a call for a meeting.
    Again, I did it so seldom, but when I did do it, it would have been 
because there was some reasonable explanation for why this person 
needed to or wanted to meet with that person in the administration. And 
it was not for any reason other than whatever they put in their letter 
to whoever they sent a letter to at the DNC that got forwarded to me 
that I simply put in a fax and sent along. Then at that point it was up 
to that administration office to decide whether or not they wanted to 
have a meeting.
    Question.  Were you aware of any guidelines when it came to 
facilitating a meeting between a DNC supporter and an administration 
official?
    Answer. Self-imposed guidelines, DNC guidelines?
    Question.  Either self-imposed or written or verbal or any type of 
guidelines.
    Answer. Again, I wasn't trying to arrange meetings. I was simply 
forwarding letters.
    Question.  Were you aware of any guidelines?
    Mr. Best. With regard to forwarding letters?
    Mr. Wilson. No, with regard to facilitating meetings with 
administration officials.
    The Witness. Can I have just a moment?
    Mr. Wilson. Absolutely.
    [Witness conferring with counsel.]
    The Witness. Okay. When I received a request, I would only forward 
requests along that were not competitive in nature where it looked like 
the DNC was representing one company, corporation, individual versus 
others in any kind of--if there was--we weren't allowed to--if somebody 
had a contract with the Federal Government, we weren't allowed to 
contact that agency on their behalf. We weren't allowed to--in that 
sense, there were those guidelines. But those weren't the kinds of 
things that ever came to me. I mean, that's not what people were 
bringing to me when someone from the Office of Political Affairs at the 
DNC or whatever would hand carry over a letter and say, I received this 
letter, it is addressed to me but I want to pass it on to you, can you 
forward it on to so and so in the administration? And, sure, put a 
cover note on it and say, this has been sent to us, we are sending it 
to you. This person would appreciate having a chance to talk to her. 
Here is their phone number. It is up to you.
    But I certainly didn't forward things along if it had to do with--
they had a bid or a contract with the government. I mean, another 
guidelines is, we weren't supposed to ever contact the Department of 
State, the Department of Justice or the Defense Department. I mean, 
those were just hands-off agencies. We weren't going to get involved in 
foreign policy decisions or recommending people, anything, at the State 
Department, Justice Department or Defense Department. We just wouldn't 
even consider forwarding it, even a letter, even just a letter that 
someone wanted to send out.

                       EXAMINATION BY MR. WILSON:

    Question.  How would you know if somebody had a contract with the 
Federal Government?
    Answer. In that sense, I probably wouldn't. I wouldn't know if 
someone had a contract, but if in a letter it said, we would like to 
talk to you about the contract which we have with you, which--I don't 
know whatever they could say in the letter, that would be something 
that I wouldn't forward along.
    But, sure, you are right, if--this didn't happen but if the 
chairman of a large corporation like AT&T called me and said he wanted 
a meeting, I wouldn't know whether they have or don't have a contract 
unless the text of the letter said we want to talk about it.
    Question.  Do you know if the DNC made any attempt to screen 
political contributors from meeting with administration policy staff?
    Mr. Best. Screening? What do you mean by ``screening''?
    Mr. Wilson. To either seek to learn what their interests were or--I 
will leave that--seek to learn what their interests were before they 
went to do whatever it is they were going to do.
    Mr. Best. You are assuming that such meetings took place?
    Mr. Wilson. Yes.
    The Witness. I don't know, because, again, I--I certainly wasn't 
involved really in this aspect. And I didn't set up meetings. You know, 
I forwarded a couple of letters along during the course of 2 years in 
the job role. So I appreciate the question you are asking me. Since I 
had very little, if any, experience with it in the first place I 
certainly don't know about the pre-vetting process for any of the other 
kinds of meetings that might have been set up by others.
    As we discussed before, there were a lot of people at the DNC who 
had relationships around the administration and they would just call. 
They would call on their own.

                       EXAMINATION BY MR. WILSON:

    Question.  Do you know of any situations where the DNC made an 
attempt to prohibit a political contributor from meeting with any 
administration policy staff?
    Answer. No. I don't know of--no, I don't know of such a situation.
    Mr. Wilson. Thank you very much on behalf of the Majority. I 
appreciate your coming here and taking your time to speak with us.
    I don't mean to cut this off.
    Mr. Lu. We have nothing. Thank you.
    Mr. Wilson. Thank you very much.
    [Whereupon, at 3:45 p.m., the deposition was concluded.]

    [The exhibits referred to follow:]

    [GRAPHIC] [TIFF OMITTED] T5667.584
    

</pre></body></html>
